<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-705]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 108-705

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                                          Department of

                                                      Homeland Security

                                                            Fiscal Year
                                                                   2005

        th CONGRESS, SECOND SESSION  108 

                                                      H.R. 4567/S. 2537

DEPARTMENT OF HOMELAND SECURITY

NONDEPARTMENTAL WITNESSES
       Department of Homeland Security, 2005 (H.R. 4567/S. 2537)
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                                        S. Hrg. 108-705

  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 4567/S. 2537

 AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF HOMELAND SECURITY 
 FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2005, AND FOR OTHER PURPOSES

                               __________

                    Department of Homeland Security
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________
                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
RICHARD C. SHELBY, Alabama           TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            BARBARA A. MIKULSKI, Maryland
BEN NIGHTHORSE CAMPBELL, Colorado    HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   PATTY MURRAY, Washington

                           Professional Staff
                             Rebecca Davies
                               Les Spivey
                              James Hayes
                              Carol Cribbs
                            Kimberly Nelson
                       Charles Kieffer (Minority)
                        Chip Walgren (Minority)
                        Alexa Sewell (Minority)
                         Scott Nance (Minority)

                         Administrative Support

                              Avery Forbes


                            C O N T E N T S

                              ----------                              

                       Tuesday, February 10, 2004

                                                                   Page
Department of Homeland Security..................................     1

                      Thursday, February 26, 2004

Department of Homeland Security: Office of the Under Secretary 
  for Emergency Preparedness and Response........................   141

                         Tuesday, March 2, 2004

Department of Homeland Security..................................   189

                         Tuesday, March 9, 2004

Department of Homeland Security..................................   295

                        Tuesday, March 23, 2004

Department of Homeland Security..................................   357

                        Tuesday, March 30, 2004

Department of Homeland Security..................................   465
Nondepartmental Witnesses........................................   571

 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                       TUESDAY, FEBRUARY 10, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Specter, Domenici, 
Gregg, Craig, Byrd, Inouye, Leahy, Harkin, Mikulski, Kohl, and 
Murray.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. TOM RIDGE, SECRETARY


               OPENING STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. The hearing of our committee will please 
come to order.
    Today we begin our review of the fiscal year 2005 budget 
request for the Department of Homeland Security. I am pleased 
to welcome to the hearing the Secretary of the Department of 
Homeland Security, the Honorable Tom Ridge.
    Under the Secretary's leadership, this new department, 
which became operational not quite 1 year ago, has undertaken 
the challenge to improve the safety and security of the United 
States. Merging some 180,000 employees from 22 separate 
agencies into a new department has been a very challenging 
endeavor. Recent events have underscored our awareness that 
challenges still lie ahead as the department continues its work 
to prevent terrorism, to reduce the Nation's vulnerability to 
terrorist acts, and to increase our disaster response 
capabilities.
    While we all understand that more will be done, the 
administration with the active support of this committee and 
the Congress is succeeding to improve our intelligence-
gathering capabilities; achieve a greater degree of 
coordination and cooperation among all those involved in 
homeland security; develop and deploy new detection 
technologies; and heighten security of our borders, ports, 
transportation systems, and other critical infrastructure.
    We will review this year's budget request and work with 
you, Mr. Secretary, to provide the resources the department 
requires to manage its responsibilities and to successfully 
carry out its mission. For fiscal year 2005, the President's 
budget requests $40.2 billion to fund programs and activities 
of the department, including mandatory and discretionary 
appropriations, user fee collections, and trust funds.
    At this point, I am very pleased to yield to other senators 
on the committee, first to my distinguished friend from West 
Virginia, who is the ranking Democrat on this subcommittee, 
Senator Byrd, for any statements he might wish to make.


                  STATEMENT OF SENATOR ROBERT C. BYRD


    Senator Byrd. Thank you, Mr. Chairman, my colleagues on the 
committee, and welcome, Mr. Secretary.
    As we approach the 1-year anniversary of the creation of 
the Department of Homeland Security, this subcommittee will be 
holding a series of hearings on the President's request for 
your agency. These hearings will focus not just on the budget 
request for the department, but also on the effectiveness of 
the department in using the resources that have been available 
to it to make this country safer. I look forward to your 
testimony on efforts to secure the homeland by other Federal 
agencies, by State, regional, and local governments, and by the 
private sector.


                           ALERT LEVEL CHANGE


    On Sunday, December 21, you raised the Nation's terror 
alert level to orange. In justifying this action you said, and 
I quote, ``The strategic indicators, including Al Qaeda's 
continued desire to carry out attacks against our homeland, are 
perhaps greater now than at any point since September 11.'' In 
explaining why you thought there was a high risk of terrorist 
attack, you said, and I quote, ``Information indicates that 
extremists abroad are anticipating near-term attacks that they 
believe will rival or exceed the scope and impact of those that 
we experienced in New York, at the Pentagon, and in 
Pennsylvania 2 years ago.''
    That was a pretty sobering assessment. When I read your 
testimony, I note that the President claims he is seeking a 10-
percent increase for your department. I thought perhaps the 
administration had finally gotten the message that it was time 
to back up the President's rhetoric on homeland security with 
real resources.


                    FISCAL YEAR 2005 BUDGET INCREASE


    But, Mr. Secretary, I was disappointed to learn that when 
one looks at the details in the President's budget, the 10-
percent increase is just another puffed-up gimmick. The fact is 
that the Department of Homeland Security receives only a 4-
percent proposed increase in discretionary spending, only 
slightly more than enough to cover inflation and the 2005 pay 
raise.
    In the fiscal year 2004 Homeland Security Appropriations 
Act, Congress approved advanced appropriations of $2.5 billion 
for Project BioShield for the period from fiscal year 2005 to 
fiscal year 2008. In your budget presentation, you include the 
entire $2.5 billion as 2005 spending, despite the fact that 
those funds are supposed to last 4 years.
    Your own budget documents show that you expect to spend 
only $890 million of the $2.5 billion in fiscal year 2005. 
After adjusting the budget request for that gimmick, the 
increase in the fiscal year 2005 budget is only 4 percent. So 
that means that the President is seeking a 4-percent increase 
when you believe that the threat of another terrorist attack is 
higher than at any time since September 11.
    I share the view, Mr. Secretary, that this Nation is at 
risk of more terrorist attacks. We continue to be vulnerable to 
a wide range of potential threats. On December 15, 2003, the 
advisory panel to assess domestic response capabilities for 
terrorists involving weapons of mass destruction issued their 
final report. The panel, which was headed by the former 
Republican Governor of Virginia, James Gilmore, concluded that 
the department must learn from history without falling into the 
trap of fighting the last war by concentrating too heavily on 
the tactics and techniques used by the September 11 terrorists.
    Yet in this budget, 97 percent of the budget for the 
Transportation Security Administration is for aviation security 
with a focus on more airline hijackings. What about the 
security of our ports? What about our buses, our trains? Why 
does the President propose to reduce grants to ports for 
improved security by over 60 percent, when over 95 percent of 
all overseas trade coming in or out of the country moves by 
ship? Why does the President refuse to increase resources for 
securing cargo on passenger aircraft?
    Eight days ago, in this very room, Senate employees were 
quarantined and decontaminated for an attack with a dangerous 
toxin, ricin. Clearly, the risks of a chemical or biological 
attack in this Nation remain high. According to the EPA, over 
100 chemical plants located throughout the country could affect 
over 1 million people if the plants were attacked.
    In February of 2003, the National Infrastructure Protection 
Center, which is now part of your department, issued a threat 
warning that Al Qaeda operatives also may attempt to launch 
conventional attacks against the U.S. nuclear and chemical 
industrial infrastructure to cause contamination, disruption, 
and terror. Nuclear power plants and industrial chemical plants 
remain viable targets. And yet, Mr. Secretary, the President's 
budget does not include the request of the Post Office for $779 
million to develop biodetection systems that would help protect 
citizens across the Nation and for ventilation and filtration 
systems to protect their employees. The President also proposes 
to cut by 10 percent the HHS program designed to equip and 
train State and local health agencies to detect and respond to 
biological or chemical attacks.


                      FUNDING FOR FIRST RESPONDERS


    In June of 2003, the Council on Foreign Relations' report, 
authored by Former Senator Rudman and others, entitled, 
``Emergency Responders: Drastically Underfunded, Dangerously 
Unprepared,'' asserted that America will fall approximately $98 
billion short of meeting emergency responder needs in the next 
5 years, if current funding levels are maintained.
    The Federal Emergency Management Agency, part of your 
department, in a report entitled ``A Needs Assessment of the 
U.S. Fire Service,'' found that only 13 percent of the fire 
departments have the equipment and training to handle an 
incident involving chemical or biological agents. And yet, Mr. 
Secretary, the President's budget proposes to cut grants that 
equip and train police, fire, and emergency medical care 
personnel by $729 million. Fire grants alone are to be reduced 
by 33 percent.
    In addition to these resource issues, this Subcommittee 
will also examine the effectiveness of our homeland security 
programs. We will ask questions about your methods for 
collecting and sharing intelligence. Just last week, we learned 
that the White House had been the target of a ricin attack. 
Sharing information with State and local law enforcement is a 
critical ingredient to effective deterrence.
    We will also ask if the department is doing everything 
possible to make sure that State, local, and regional 
governments are effective partners in deterring a terrorist 
attack. We will ask whether we are providing the right 
incentives, including money, to make sure that chemical and 
other industries are doing their fair share to make this 
country more secure.


                                CAPPS II


    Finally, we will closely examine your plan to implement 
CAPPS II, a new information system for screening airline 
passengers. And I encourage you not to implement the new system 
until the requirements of the law have been met.
    Mr. Secretary, you and the 179,000 employees in your 
department are to be commended for your efforts to preserve our 
freedoms, to protect America, and to secure our homeland. We 
share your vision. I share your belief that we are a vulnerable 
Nation. We will ask many questions in an effort to understand 
what more needs to be done and what needs to be done 
differently in order to respond to the terrorist threat. We 
look forward to your testimony.
    Senator Cochran. Senator Gregg, you are recognized for any 
opening statement you may have.


                    STATEMENT OF SENATOR JUDD GREGG


    Senator Gregg. Well, Mr. Chairman, first, I appreciate your 
holding this hearing. And I appreciate Governor Ridge's 
attendance. And I have a lot of questions. I have obviously 
been involved in this issue, as many members of this panel 
have, for a long time. And just to highlight a couple of them 
quickly, I am very concerned about the discussion as to how 
this money is going out to first responders.


                       THREAT-BASED DISTRIBUTION


    I am totally supportive of the department's effort to do a 
threat-based distribution. I think we need to look at the 
history of this. The original concept here was created by the 
Domenici-Nunn bill, which the Defense Department had. And the 
idea was we were going to train the top 162 cities first and 
make them capable of handling a major threat event. That whole 
concept was carried forward under the prior committee that had 
jurisdiction over first responders, which was my committee, 
CJS. We set up the first responder money. And we wanted to make 
it a threat-based approach.
    This idea that we are just going to put money across the 
board to every community in America, we cannot afford that. 
What we need to do is focus it. And I congratulate the 
department for that. And I hope you will give us some more 
expansive thoughts on that and assure us that it is a threat-
based approach for distribution there.


                               ENTRY-EXIT


    Secondly, I am concerned about the exit-entry issue. The 
technology appears to me to be serious problems with that 
technology. And I am not sure that Customs and the Border 
Patrol activities are going to get the technology they need. I 
would like to get an update on that.


                     COUNTERTERRORISM COMMUNICATION


    I am concerned about the communication efforts in the area 
of counterterrorism. There appears to be lapses there. And the 
bioterrorism issue is our problem. We, as a Congress, have not 
passed BioShield. You have given us a proposal. We have not 
passed it. You should have that in hand. And if you want to 
castigate us on that, we deserve it. And please do today.


                            AIRPORT SECURITY


    And I am very concerned about the amount of money we are 
spending on airport security, as Senator Byrd outlined, and 
whether or not we are effectively addressing the threat coming 
across our borders by focusing so many resources on airport 
security. Anybody who goes through airport security today knows 
a lot of it is regrettably mindless security, which we have to 
get a handle on. Literally, you go into some of these airports, 
and you will have 20 or 30 security people standing there for 
an airport that has 20 flights a day. And it does not seem to 
have much relationship, especially now that we have secured the 
cockpit doors and these planes cannot be used as missiles any 
longer, but can still be blown up, of course.
    But the ports are a threat. Other entry points are a 
threat. And are we over-weighting our security efforts to 
airports, to the transportation of individuals versus 
transportation of cargo through ports or in airplanes?
    So there are a lot of questions. I look forward to hearing 
your answers and thoughts. And I would like to hear from you, 
so I will not take any more time. Thank you.
    Senator Cochran. Thank you, Senator.
    Senator Inouye.


                 STATEMENT OF SENATOR DANIEL K. INOUYE


    Senator Inouye. Mr. Chairman, I request that my full 
statement be made part of the record.
    Senator Cochran. Without objection, it is so ordered.
    Senator Inouye. I just want to state that, as one living 
far away, I am a constant air traveler. And as such, I have 
been in a position to note differences, if any. And I must 
commend the Secretary, because there has been much improvement 
in our security system, as far as the air operations are 
concerned. Little things, such as they are not giving any 
preference to big shots, which I think is a clear indication of 
better discipline. The operation is much smoother. It moves 
faster and, I believe, much more effective.

                           PREPARED STATEMENT

    Secondly, coming from the ocean, I am naturally concerned 
about port security. I commend you for the increase in your 
funding there. But as my colleague from West Virginia 
indicated, I hope that improvements can be made on the grand 
picture.
    With that, I would like to thank you, Mr. Secretary.
    Secretary Ridge. Thank you, Senator.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I look forward to discussing with Secretary Ridge the 
fiscal year 2005 budget for the Department of Homeland Security. In my 
review of the budget documents I was pleased to note the emphasis 
placed on port security, an issue of great importance to my state. 
However, I am concerned by many of the planned program consolidations 
and reductions that will impact state first responders. I am interested 
to learn how you will ensure that the Federal Government maintains the 
intent and results of the current programs that are proposed for 
consolidation.

    Senator Cochran. Thank you, Senator.
    Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Well, thank you, Mr. Chairman, Mr. 
Secretary. I join my colleague from Hawaii, Senator Inouye. I 
think the two of us spend more time on airplanes than any other 
member of the Senate. And there is no question that the system 
is improved. It was my privilege to spend some time with the 
members of our Nation who manage airports over the recess right 
after Christmas. And that was the general consensus, that 
everything has improved.
    But one of the things that almost everyone there expressed 
a hope was that we would analyze this now and see what is the 
threat. The threat in the beginning was perceived to be one 
thing. We basically have equipment now to examine for metal, 
for guns, for knives. But we are dealing with many substances 
now that those people who manage airports would like to work 
with you in order to see how we could address the possible 
broad spectrum of threats that affect us now.

                         NATIONAL ALERT SYSTEM

    The only other question, if I am not here, Mr. Chairman, I 
would like to put it on the record, pertains to the national 
alert system. The Appropriations Committee provided specific 
money for a study concerning the national alert system, which 
currently still deals only with radio.
    And we affirmatively believe that the mechanisms of 
communications now are so--there are such a myriad of methods 
now that there ought to be some consideration given to a 
ubiquitous system that no matter what form of communication you 
listen to or use, you would receive a message, whether it is 
over a cell phone or a blackberry or a computer or your radio 
or the television or cable, that every system would have an 
announcement of items of national concern. Not local concern. 
Leave that to the local people to decide what they want to do. 
But the national alert system, I think, needs to be reviewed. 
And we asked for a study. And my question pertains to when we 
will receive that study.
    Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Harkin.

                    STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. Thank you, Mr. Chairman. I would like to 
ask that my full statement be made a part of the record.
    Senator Cochran. Without objection, it is so ordered.
    Senator Harkin. Just a couple of comments, Mr. Secretary. 
Again, as we all know, we cannot protect the Nation perfectly 
against every conceivable threat. And, therefore, we have to 
make choices and devote our limited resources to those threats 
that we judge to be most likely and most serious. So this poses 
some very difficult choices for our first responders, those 
people out on the front lines.
    I made it a point, when this department was created, when I 
was appointed to this subcommittee, to go around the State of 
Iowa, to talk with the Governor, his staff, others in State 
Government. We visited each of 99 counties in Iowa to talk to 
the local emergency management personnel, the firefighters, 
police, EMS people, other officials. I wanted to find out what 
was on their minds, what they thought was most important, what 
they thought was working, what was not.
    Again, aside from all the other things, I was told by 
almost all these people that the biggest challenges they face 
today are the same they faced prior to 9/11: Crime, 
methamphetamine, natural disasters. FEMA is now a part of 
Homeland Security. It has become a really remarkable, world-
class organization dealing with fires, floods, tornadoes, 
things that happen every year. We cannot renege on our 
commitment to help people in need due to these natural 
disasters. That is why I and others have fought so hard to keep 
the fire grant program.

                 INCREASED BURDENS ON FIRST RESPONDERS

    The first responders in Iowa would tell me that they are 
frustrated. When the alert level changes, they learn about it 
from CNN and not from the department. They do not know why the 
alert level is raised or what kind of threats they ought to be 
looking for. They tell me they are obliged to respond to vague 
mandates they do not fully understand, taking time away from 
other priorities. Often these mandates are unclear and costly.
    At the same time, some current reporting requirements are 
onerous and illogical. One county emergency manager in Iowa 
told my staff that he is required to report on contingency 
plans in case there is a tidal wave. And as he understands it, 
he is not allowed to answer ``not applicable.''
    And again, these increased burdens are coming at a time 
when State and local governments are hurting. Many are already 
laying off police, fire and emergency management personnel. The 
vast majority of firefighters in the United States are 
volunteers. Increased training requirements are needed. And 
they are burdensome. And at the time, local governments just do 
not have the wherewithal to do this.

                             AGRO-TERRORISM

    One last thing I would just mention is agro-terrorism and 
the focus on the subject of agro-terrorism and what can be done 
with a small amount of agricultural commodities. I am concerned 
that perhaps we are not focusing enough on the subject of agro-
terrorism and what could be done to interrupt our food supply, 
to contaminate food. Not that it might kill a lot of people, 
but just to spread terror, from things that could be done to 
our food supply chain.

                           PREPARED STATEMENT

    With that, Mr. Secretary, thank you. I compliment you on 
the job you are doing very well down there and look forward to 
working with you to keep this going.
    Thank you, Mr. Chairman.
    Secretary Ridge. Thank you, Senator.
    [The statement follows:]

                Prepared Statement of Senator Tom Harkin

    President Kennedy said that ``to govern is to choose.'' We cannot 
protect the Nation perfectly against every conceivable threat. We have 
to choose. We have to devote our limited resources to address those 
threats we judge to be the most likely and most serious. This poses 
difficult choices for Congress and the Administration, as well as for 
local communities. It poses especially difficult choices for the first 
responders, those men and women who are truly on the front line--and 
whose lives are on the line when emergencies arise.
    One of my highest priorities since being appointed to the Homeland 
Security Appropriations Subcommittee has been to address directly the 
needs of these front-line professionals all across Iowa. My staff and I 
have had numerous conversations with the Governor of Iowa, with his 
staff, and with others in State government. I also asked members of my 
Iowa staff to visit each of the state's 99 counties to talk with local 
emergency management personnel, firefighters, police, EMS and other 
officials. I wanted to get the best ideas from these front-line 
professionals: What do they think is most important when it comes to 
homeland security. What do they think is working, and what is not.
    These meetings have been extraordinarily valuable to me. Security 
is on people's minds. Not surprisingly, Iowans were more than eager to 
share their insights and priorities. And their input has shaped my own 
approach to homeland security issues here in Washington.
    When the creation of a new Department of Homeland Security was 
first proposed, I supported the effort. We knew then that balancing, 
and probably shifting, among competing priorities would be a challenge. 
We must do all we can to protect the America from terrorist threats.
    But, at the same time, it remains vitally important that we protect 
Americans from other, more likely hazards. It is important that we not 
focus exclusively on large cities and major strategic assets. Frankly, 
I am extremely concerned about the shift of priorities in this proposed 
budget away from rural areas. Rural communities will continue to face 
major challenges. But, under this budget, they will face those 
challenges with fewer resources.
    It is a mistake to redirect funds from badly needed current 
programs. That just creates new holes in our homeland security 
infrastructure. In fact, wherever possible, we should aim to expand and 
strengthen existing emergency-response mechanisms. We should increase 
the capacity of local authorities to prevent or respond to terrorist 
threats and to deal more effectively with the much more common threats 
and emergencies they face.
    Iowans told my staff that the biggest challenges Iowans face today 
include many of the same problems they faced in June of 2000: crime, 
the methamphetamine scourge, natural disasters.
    Over the past several years, FEMA, now part of Homeland Security, 
has become a truly remarkable, world-class organization for dealing 
with fires, floods, tornados, and earthquakes. These things occur every 
year, regardless of other threats, and they continue to threaten lives 
and livelihoods. We cannot renege on our commitment to help people in 
need due to these natural disasters. This is exactly why I and others 
have fought hard to ensure that the fire grant program is retained.
    At the same time, first responders in Iowa tell me that they are 
frustrated. When the alert level changes, they learn about it from CNN, 
not from the Department of Homeland Security. They don't know why the 
alert level is raised, or which kinds of threats they ought to be 
looking out for. They are obliged to respond to vague mandates that 
they don't fully understand, taking time away from other priorities. 
Often, these mandates are unclear--and costly. While some funding is 
flowing, communities are unsure how exactly they should be spending it, 
and they fear spending it in a way that might not meet a later mandate.
    At the same time, some current reporting requirements are onerous 
and illogical. One county emergency manager in Iowa told my staff that 
he is required to report on contingency plans in case there is a tidal 
wave--and, as he understands it, he is not allowed to answer ``not 
applicable.'' I suspect that if a tidal wave big enough to cause damage 
in Iowa were to hit the United States, our least concern will be 
inadequate tidal wave planning in rural Iowa!
    These increased burdens are coming at a time when State and local 
governments are hurting. Many already are laying off police, fire, and 
emergency management personnel. The vast majority of firefighters in 
the United States are volunteer. Increased training requirements for 
these personnel, while useful, can be extremely burdensome. We are 
losing firefighters in Iowa. If we at the Federal level are going to 
create mandates, then funds must follow those mandates.
    Finally, I would like to mention the subject of agri-terrorism. As 
my colleagues know, a major agri-terrorism event could easily cause 
billions of dollars in losses. Anyone who has spent time in rural 
America knows the difficulty in trying to guard against every avenue of 
vulnerability. The key to protecting U.S. agriculture is making sure 
that our intelligence and response capabilities are in place both to 
prevent acts of terrorism in the first place, and to respond quickly 
should an attack occur. I think we are still falling short on response. 
I am very disappointed not to see more resources directed to building 
the capacity of our agricultural first-response system. We really need 
to take a hard look, and make sure we are doing all we can to protect 
U.S. agriculture and rural communities.
    I have been working closely with my State government--particularly 
with the state Homeland Security director, Ellen Gordon--to identify 
appropriate state and Federal responses to agri-terror. Iowa has been 
working overtime trying to map out a comprehensive plan to deal with 
this very difficult issue. I applaud their good work. And I look 
forward to working with Secretary Ridge and with my colleagues to give 
greater focus and priority to the threat of agri-terrorism.

    Senator Cochran. Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman and Mr. 
Secretary. Mr. Chairman, I, too, ask unanimous consent that my 
full statement be in the record.
    Senator Cochran. Without objection, it is so ordered.
    [The statement follows:]

               Prepared Statement of Barbara A. Mikulski

    First of all, Mr. Secretary, I want to thank you for your personal 
visit to Maryland when Hurricane Isabel hit last September. It was of a 
magnitude that we have not seen for more than 80 years in Maryland. And 
your personal visit and the excellent response of FEMA is indeed 
appreciated. I'm here to thank you on behalf of the people of Maryland 
for coming to the State and touring the hard hit areas and for your 
team doing such a good job.
    I'd also like to thank the Department of Homeland Security and all 
of our security agencies for averting another terrorist attack on the 
United States of America. Through classified briefings and others, I 
know that the threat over the holidays was indeed real. The fact that 
were sitting here today having this hearing with no TV cameras shows 
that something must be working right. But for what you did over the 
holidays--and when I say you, I mean every single person who worked 
overtime--while we were sitting there having turkey and opening 
presents, there were people putting themselves out there. So I just 
wanted to say thank you, again, on behalf of the people of Maryland and 
all of us here, for all that you do to keep us safe.
    I have four areas of concern, however, that I want to address in 
the Department of Homeland Security fiscal year 2005 budget: High 
Threat Urban Area funding, Fire Grants, Port Security, and Coast Guard 
funding.
    First of all, I am very concerned about cuts to grant programs for 
State and local governments. The funding request for key first 
responder programs is down to $3.2 billion, which is $474 million less 
than last year. The State block grant program, which is distributed by 
formula, is reduced from $1.7 billion to $750 million. The Fire Grant 
program is reduced from $750 million to $500 million. However, I am 
happy to see an increase in grants to high threat, high density urban 
area funding, which is doubled to $1.45 billion.
    The High Threat Urban Areas funding is extremely important. The 
Mayor of Baltimore recently said that ``Cities are on the front line of 
homeland security, but in the back of the line funding. . . . The 
Administration and Congress should act now to direct appropriate 
homeland security funds to cities and eliminate the bureaucracy of a 
middle man.'' So while I applaud the President for recognizing the 
critical funding needs of our high threat, high-density regions, I hope 
I can work with you and the Members of the Committee to ensure that 
this money is getting where it is needed most: in the hands of the 
police, firefighters, and other emergency responders on the front 
lines.
    I am very concerned about the Fire Grant program, which is one of 
the true grassroots programs that we have. Senator Bond and I worked so 
hard on Fire Grant funding when FEMA was in our VA-HUD bill. However, 
this year's budget calls for $500 million in funding, which is $246 
million less than the 2004 level and $400 million less than the 
authorized level. I believe there is a compelling need to fund this 
program at its authorized level. In 2003 the U.S. Fire Administration 
received over 20,000 applications totaling $2.5 billion in requests. We 
know from FEMA and the National Fire Protection Association that at 
least 57,000 fire fighters lack personal protective clothing. That item 
in and of itself speaks to the enormous need in this area.
    Another area of concern is the budget request for port security 
grants. President Bush's request calls for $46 million in Port Security 
Grants, which is well below last year's level of $124 million. The 
Coast Guard estimates that $5.4 billion is needed for port security 
improvements. I want to echo again comments about Baltimore and how 
deeply concerned we are about the fact that our ports continue to be 
vulnerable. And its not only about money, but its also about a smarter, 
more efficient strategy for protecting our critical infrastructure.
    I am very supportive and proud of our U.S. Coast Guard, which is 
truly one of the most efficient and effective of all Federal agencies. 
The men and women of the Coast Guard put their lives on the line 
everyday to apprehend drug smugglers, protect our marine resources, and 
safeguard our environment. However, since September 11th they have been 
called on more than ever to protect our borders and ports. We need to 
provide the Coast Guard with the resources to meet these new 
challenges. Yet, the Guard operates a fleet of ships airplanes that are 
nearing the end of their useful life. In fact, some of their ships date 
back to World War II. That's why I am a strong supporter of the Coast 
Guard Deepwater Program, which would replace these antiquated systems 
with cutting edge technology.
    And last, but not at all least, I would hope that you would comment 
on one of the biggest changes that you are proposing: the combining of 
24 grant programs into a new office called the Office of State and 
Local Government Coordination and Preparedness. I presume the fire 
grants move over there. I believe you talk about it on page seven of 
your testimony. This is a big deal because people have complained about 
the need for a more efficient and effective coordination between 
Federal, State, and local governments, particularly as it relates to 
resources like we talked about--better communication and coordination.
    But I'd like to know where you're heading with this consolidation. 
And also, what will it mean? Will it be a disruption for all those who 
know how to apply? Is this going to be a whole new set of rules, 
regulations, and trade routes that our first responders will have to 
learn to be able to come to Washington for help? Or is this really 
going to solve the problems that mayors and governors have raised with 
you? But again, a really heart-felt gratitude for all that you do. I 
look forward to your testimony today.

    Senator Mikulski. First of all, Mr. Secretary, thanks are 
in order. I want to thank you for your personal visit to 
Maryland when Hurricane Isabel hit. It was of a magnitude that 
we have not seen for more than 80 years in Maryland. Your 
personal visit and the excellent response of FEMA is 
appreciated. I am here to thank you on behalf of the people of 
Maryland for coming and for your team doing such a good job.
    Additionally, I would like to thank the Department of 
Homeland Security and all of our security agencies for averting 
another attack on the United States of America. Through 
classified briefings, I know that the threat over the holidays 
was indeed real. And the fact that we are sitting here today 
having a conversation with no TV cameras shows that something 
must be working right. I would like to thank you for what you 
did over the holidays--and when I say you, I mean every single 
person who worked overtime. While we were sitting at home 
having turkey and opening presents, there were people who were 
putting themselves out there. So I just wanted to say thank 
you, and again on behalf of the people of Maryland and all of 
us, for everyone who worked so hard.
    In terms of where we are in homeland security, I want to 
echo concerns about the fire grant program, which is one of the 
true grassroots programs that we have. And, of course, Senator 
Bond and I worked so hard on that program when FEMA was over in 
our VA/HUD bill. The cut is $246 million from last year. And I 
would like to hear your elaboration on it.
    FEMA and the National Fire Protection Association found 
that at least 57,000 firefighters lack personal protective 
clothing. That item in and of itself, where we have to protect 
the protector, speaks to the enormous need.

                             PORT SECURITY

    The other is the whole issue of port security, which, 
again, echoing my comments, affects a Maryland port. We are 
deeply concerned about the fact that our ports continue to be 
vulnerable. And it is not only about money, but it is also 
about a more efficient strategy.

                          GRANT CONSOLIDATION

    And last but not at least, I would hope that you would 
comment on the fact that one of the biggest changes is that you 
propose combining 24 grant programs into a new office called 
the Office for State and Local Government Coordination and 
Preparedness, one of which is moving FEMA over there. I presume 
the fire grants move over there. And I believe you talk about 
it on page seven of your testimony.
    This is really a big deal, because people have complained 
about the need for more efficient and effective coordination 
between our State and local governments, particularly 
resources, like we talked about, communication coordination. 
But to move 24 grant programs, I would like to know where you 
are heading and also what will it mean. Will it be a disruption 
for all those who knew how to apply? Is this going to be a 
whole new set of rules, regs, trade routes that they have to 
learn to be able to come to Washington, or is this really going 
to solve the problems that mayors and governors have raised 
with you?
    But again, a really heartfelt gratitude.
    Secretary Ridge. Thank you, Senator.
    Senator Cochran. Thank you, Senator.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman. And 
thank you to Senator Byrd and all of our colleagues for their 
comments today. I welcome you, as well, Mr. Secretary, and 
appreciate the tremendous job you are doing for our country. 
And I especially want to echo the comments of Senator Mikulski 
and thank you and everyone in your department for all of the 
work you do tediously every day to protect all of us. We all do 
appreciate it.

                             PORT SECURITY

    I agree with my colleagues. A lot has been done in the area 
of airport security. All of us know tremendous changes have 
been made. Where I continue to have a tremendous concern is in 
the area of port security. And I know you joined the President 
last week in Senator Hollings's backyard at the Port of 
Charleston. And the White House issued a press release and 
described the event as the President focusing on seaport and 
cargo security. But I noticed that only a couple of minutes of 
his speech actually talked to that. And I think that kind of 
rhetoric without the backup is deeply concerning to me and to 
everyone, really, in this country.
    We saw last week that a small bit of ricin shut down three 
buildings here on this campus for an entire week. A container 
coming into one of our terminals with an explosive device or 
any kind of biological agent could have a devastating effect 
obviously on human life, but a huge impact on the economy, if 
any of our ports or all of our ports were to shut down for any 
amount of time.

                        OPERATION SAFE COMMERCE

    And I think you know what I am concerned about is that the 
backup is not there for the words and the rhetoric that the 
administration is focused on port security. I noticed in the 
President's budget request that a very promising security 
initiative, called the Operation Safe Commerce is killed in the 
President's budget. That is a program that is just beginning. 
And the first cargo ship actually with that in place is coming 
into my home State in Tacoma in just a couple weeks. And I 
think it is just not a good way to go, to kill that before it 
has even gotten started.

                      MARITIME TRANSPORTATION ACT

    Another example is the President's budget director last 
week on the Budget Committee told me that the White House is 
committed to implementing the Maritime Transportation Act, the 
law that ensures that all of our ports and all the vessels 
calling on them have approved security plans. Mr. Bolton said 
the President was committed to implementing that, but his 
budget only provides 7 percent of the funding that the Coast 
Guard testified to us they would need to implement that.

                              COAST GUARD

    And the third example is that the administration is adding 
new homeland security duties to the Coast Guard's mission 
without providing them the support necessary to accomplish 
those tasks, as well as to deal with its traditional missions 
that are so critical. We all know the Coast Guard is stretched 
thin. They are working long hours. They are a dedicated group 
of people. But I think we need to back up what we are asking 
them to do in terms of homeland security duties and provide 
them with the funds. So I will be asking you about that today.

                         CUTS IN GRANT FUNDING

    I share with my colleagues the concern about first 
responder grants that are being cut. And I want to mention as 
well the emergency management planning grants that go out to 
communities are being cut and restricted. If our communities 
cannot plan for a disaster, they will not know what to do if 
something occurs. And I think it is really important that we 
maintain our focus and our funds in that direction.
    So those are some of the issues that I will raise in the 
question and answer period. But again, Mr. Secretary, thank you 
for the job you do for our country.
    Senator Cochran. Thank you, Senator.
    [The statement follows:]

               Prepared Statement of Senator Patty Murray

    I want to join you, Senator Byrd, and the rest of our colleagues in 
welcoming Secretary Ridge today. He has been handed a tough task in a 
very difficult time. I know he is committed to keeping our country 
safe, and I thank him for his leadership.
    Mr. Secretary, I want to work with you to ensure our budget will 
actually deliver the security we both seek for our country.
    Just last week, you joined President Bush at an event in Senator 
Hollings' backyard at the Port of Charleston.
    A White House press release described the event this way--quote--
``President Bush Focuses on Seaport and Cargo Security.'' He stood in 
front of a Coast Guard cutter and a container barge, yet he only 
focused on port security for about two minutes of his 30 minute speech.
    Sadly that seems par-for-the-course for this White House.
    The President offers a few words about port security here and 
there, but does not make the financial commitment we need to actually 
keep our ports safe.
    And, the latest example came just last week with the President's 
budget request.
    The President wants to kill a promising port security initiative 
called Operation Safe Commerce.
    Mr. Secretary, as you know, our largest ports have been working to 
improve cargo security through Operation Safe Commerce for the past 2 
years. In fact, the first cargo ship using this innovative program will 
arrive at the Port of Tacoma later this month, setting a new standard 
for port security. The President's budget would end Operation Safe 
Commerce.
    That's just one disappointing example in this budget.
    Here is another example: Last week the President's budget director 
told me the White House is committed to implementing the Marine 
Transportation Act. That's the law which will ensure all of our ports--
and the vessels calling on them--have approved security plans.
    Mr. Bolton said the President was committed to implementing MTSA, 
but his budget only provides 7 percent of the funding the Coast Guard 
says is required.
    And, here's a third example, the Administration is adding new 
Homeland Security duties to the Coast Guard's mission without providing 
the support necessary to accomplish these new tasks as well as its 
traditional mission.
    Mr. Secretary, we all agree that the Coast Guard is doing an 
admirable job balancing its many missions. However, the Coast Guard is 
stretched thin, and this budget stretches it further.
    These brave men and women are working longer hours and doing more, 
but the President's budget offers no relief.
    It's one thing to give a speech in front of our Coast Guard assets 
and quite another to actually provide the men and women of the Coast 
Guard with the tools they need to do the job.
    Words won't help protect our Nation's seaports, but--
  --Operation Safe Commerce,
  --adequate support for the Coast Guard,
  --and funding for marine security plans will make our ports safer.
    And that is my focus today.
    I do have other concerns with this budget beyond port security, for 
example:
    I am concerned that first responder grants would be cut by more 
than $800 million.
    I am also concerned that Emergency Management Planning Grants would 
be cut and restricted, putting our emergency management and response 
system in jeopardy.
    These are some of the issues I hope to explore with the Secretary 
this morning.
    Thank you Mr. Chairman.

           INVITATION TO SECRETARY RIDGE TO MAKE A STATEMENT

    Mr. Secretary, we have a copy of the statement you 
prepared. It will be made a part of the record. We invite you 
to make any additional statement you think would be helpful to 
our understanding of the budget request. You may proceed.
    Secretary Ridge. Senator, if I might just highlight some of 
the points for my opening address and summarize it briefly.
    Senator Cochran. That will be fine.

                    STATEMENT OF SECRETARY TOM RIDGE

    Secretary Ridge. Thank you.
    Mr. Chairman, Senator Byrd, members of the subcommittee, I 
am certainly grateful for the opportunity to appear before you 
today and present the President's budget and priorities for the 
Department of Homeland Security in the coming year.
    With the creation of the Department of Homeland Security, 
that charge was given to us, 22 different agencies and nearly 
180,000 employees, brought together to pursue a single mission. 
The recent ricin scare serves as a very difficult and poignant 
and relevant reminder that terrorism is a threat that we must 
confront each and every day with the same commitment and the 
same sense of urgency we all remember from the day our Nation 
was attacked 2 years ago.
    As we prepare to celebrate the first year of the 
department, it is important to remind the public that it has 
been with the steadfast support of this Congress and the 
resources you have provided that have made it possible for the 
department to not only carry out a vigorous and ambitious slate 
of security initiatives, but also to say to Americans with 
confidence today that we are indeed safer.

    ACCOMPLISHMENTS ACHIEVED BY THE DEPARTMENT OF HOMELAND SECURITY

    We have strengthened airline security, increased vigilance 
at our borders and ports, forged unprecedented partnerships 
across the private sector and with State and local government, 
improved information sharing, launched robust efforts to engage 
citizens in preparedness efforts, and distributed funds and 
resources for our dedicated first responders.

                    FISCAL YEAR 2005 BUDGET REQUEST

    To highlight an observation made by Senator Byrd, his 
analysis of the budget is correct. If you include the entire 
BioShield amount within the $40.2 billion, it is a 10-percent 
increase. If you add the nondiscretionary money and some of the 
fee increases we request, it is about a 6-percent increase. And 
then just with the discretionary money appropriated by 
Congress, it is about a 4.4-percent increase. We believe the 
increase in funding will provide the necessary resources we 
need to expand and improve existing projects and programs, as 
well as build new barriers to terrorists who wish to do us 
harm.

                           prepared statement

    I think the balance of my testimony highlights the areas 
that we have sought an increase, Mr. Chairman. But since you 
have the testimony as part of the record, I assume some or all 
of it has been digested. I think it would probably be even more 
useful for all of us just to engage in the kind of 
conversation, the question and answer that has been so fruitful 
in the past. If my entire statement is included as part of the 
record, I would conclude by again thanking my colleagues in 
public service for the opportunity to appear before you and 
look forward to the ensuing conversation.
    [The statement follows:]

                    Prepared Statement of Tom Ridge

                              INTRODUCTION

    Mr. Chairman, Senator Byrd and Members of the Subcommittee: I am 
honored and pleased to appear before the Committee to present President 
Bush's fiscal year 2005 budget for the Department of Homeland Security. 
Before beginning to outline our fiscal year 2005 budget request, I want 
to thank you for the strong support you showed for the Department in 
the fiscal year 2004 budget and for the fact that that appropriation 
was passed in time for it to be signed by the President on October 1, 
2003--the first day of the fiscal year.
    The $40.2 billion request represents a ten percent increase in 
resources available to the Department over the comparable fiscal year 
2004 budget and reflects the Administration's strong and continued 
commitment to the security of our homeland. The fiscal year 2005 budget 
is a $3.6 billion increase over fiscal year 2004, and it includes 
increased funding for new and expanded programs in border and port 
security, transportation security, immigration enforcement and 
services, biodefense, incident preparedness and response, and the 
implementation of a new human resources system that will reward 
outstanding performance. The budget also continues our momentum toward 
integrating intelligence, operations and systems in a way that 
increases our Nation's security.
    The Department of Homeland Security has made great organizational 
strides during the first year of operations. Nearly 180,000 employees 
and a budget of $31.2 billion were brought under DHS less than a year 
ago. The Department established a headquarters operation and 
successfully began operations on March 1, 2003--bringing together the 
legacy agencies and programs that now make up DHS. Customs, border and 
immigration activities have been reformulated into new agencies that 
will increase the effectiveness of our dedicated employees. DHS 
continues to create new ways to share information and intelligence 
within the Department and between levels of governments, and 
horizontally across agencies and jurisdictions. Already, over 350 
different management processes have been consolidated to 130, and DHS 
has begun consolidating 2,500 support contracts into roughly 600.
    While DHS invested considerable time to make the many 
organizational improvements that will improve our effectiveness, much 
was also accomplished programmatically. The fiscal year 2003 
Performance and Accountability Report provides a comprehensive 
discussion of our accomplishments of the past year. We believe that in 
the twelve months since the creation of the Department, we have made 
substantial progress. Through the hard work of our dedicated and 
talented employees, America is more secure and better prepared than we 
were one year ago.
    We have achieved many results since our creation, including:
  --improving the collection, analysis and sharing of critical 
        intelligence with key Federal, State and local entities;
  --allocating or awarding over $8 billion to state and local first 
        responders to help them prevent and prepare to respond to acts 
        of terrorism and other potential disasters;
  --strengthening border security through the ``One face at the 
        border'' initiative, which will cross-train officers to perform 
        three formerly separate inspections--immigration, customs and 
        agriculture. This will allow us to target our resources toward 
        higher risk travelers;
  --instituting innovative new systems like US VISIT to identify and 
        track foreign visitors and students and to screen for possible 
        terrorist or criminal involvement;
  --safeguarding air travel from the terrorist threat by hardening 
        cockpit doors, instituting 100 percent checked baggage 
        screening; and training more than 50,000 Federal passenger and 
        baggage screeners;
  --increasing safeguards on maritime transportation and port 
        infrastructure;
  --expanding research and development in the defense of our homeland, 
        through the creation of programs such as the Homeland Security 
        Advanced Research Projects Agency (HSARPA) which has already 
        engaged hundreds of private companies and universities in 
        developing new cutting-edge technologies;
  --launching an ambitious, collaborative effort involving input from 
        employees at all levels, unions, academia, and outside experts 
        to design a modern human resources system that is mission-
        centered, fair, effective and flexible;
  --initiating a five-year budget and planning process and commencing 
        the development of an integrated business and financial 
        management system (Project eMerge<SUP>2</SUP>) to consolidate 
        the 50 different budget execution systems, 43 different general 
        ledgers, and 30 different procurement systems inherited by DHS; 
        and
  --successfully transferring more than $50 billion in assets, $36 
        billion in liabilities and more than 180,000 employees to the 
        Department.

                    FISCAL YEAR 2005 BUDGET REQUEST

    The fiscal year 2005 budget for the Department of Homeland Security 
builds upon the significant investments to date to our safeguard 
against terrorism, while also sustaining the many important 
departmental activities not directly related to our fight against 
terrorism. The President's budget clearly demonstrates the continuing 
priority placed on the Department of Homeland Security in providing 
total resources for fiscal year 2005 of $40.2 billion. This is an 
increase of 10 percent above the comparable fiscal year 2004 resource 
level, $9 billion (29 percent) over the 2003 level and $20.4 billion 
(103 percent) over the 2001 level.

                 STRENGTHENING BORDER AND PORT SECURITY

    Securing our border and transportation systems continues to be an 
enormous challenge. Ports-of-entry into the United States stretch 
across 7,500 miles of land border between the United States and Mexico 
and Canada, 95,000 miles of shoreline and navigable rivers, and an 
exclusive economic zone of 3.4 million square miles. Each year more 
than 500 million people, 130 million motor vehicles, 2.5 million 
railcars, and 5.7 million cargo containers must be processed at the 
border. Conditions and venues vary considerably, from air and sea 
ports-of-entry in metropolitan New York City with dozens of employees 
to a two-person land entry point in North Dakota.
    During fiscal year 2005, we will continue to strengthen our border 
and port security. Our budget seeks over $400 million in new funding to 
maintain and enhance border and port security activities, including the 
expansion of pre-screening cargo containers in high-risk areas and the 
detection of individuals attempting to illegally enter the United 
States. Our budget also includes an 8 percent increase for the Coast 
Guard to upgrade port security efforts, implement the Maritime 
Transportation Security Act, and enhance other activities.
    Specifically, our budget includes an increase of $25 million for 
U.S. Customs and Border Protection's Container Security Initiative 
(CSI) which focuses on pre-screening cargo before it reaches our 
shores. We are also seeking an increase of $15.2 million for Customs 
Trade Partnership Against Terrorism (C-TPAT). C-TPAT focuses on 
partnerships all along the entire supply chain, from the factory floor, 
to foreign vendors, to land borders and seaports. To date, nearly 3,000 
importers, 600 carriers, and 1,000 brokers and freight forwarders are 
participating in C-TPAT, surpassing the Department's original goal of 
participation of the top 1,000 importers. In order to further protect 
the homeland against radiological threats, the budget seeks $50 million 
for next generation radiation detection monitors.
    As well as continuing development for secure trade programs, the 
President's budget also seeks an increase of $20.6 million to support 
improvements for the National Targeting Center and multiple targeting 
systems that focus on people and/or goods. These systems use 
information from diverse sources to provide automated risk assessments 
for arriving international air passengers, shipments of goods to our 
country, and land border passenger traffic.
    The United States Visitor and Immigrant Status Indicator Technology 
(US VISIT) program's goals are to enhance the security of our citizens 
and our visitors; facilitate legitimate travel and trade across our 
borders; ensure the integrity of our immigration system; and respect 
the privacy of our welcomed visitors. US VISIT represents a major 
milestone in our efforts to reform our borders. DHS deployed the first 
increment of US VISIT on time, on budget, and has met the mandates 
established by Congress as well as including biometrics ahead of 
schedule. The budget seeks a total of $340 million in fiscal year 2005, 
an increase of $12 million over the fiscal year 2004 level. Through 
fiscal year 2005, over $1 billion will be used to support this 
initiative.
    Our budget also seeks an increase of $64.2 million to enhance land-
based detection and monitoring of movement between the ports, and $10 
million to plan, procure, deploy and operate unmanned aerial vehicles. 
In addition, the budget request for U.S. Immigration and Customs 
Enforcement (ICE) includes an increase of $28 million to increase the 
flight hours of P-3 aircraft. The P-3 has already proven itself to be a 
key asset in the battle against terrorism as demonstrated in the days 
immediately following the September 11, 2001 attacks when P-3s flew 
airspace security missions over Atlanta and Miami.
    The Coast Guard funding increase includes over $100 million to 
implement the Maritime Transportation Security Act, to support the 
Coast Guard's ability to develop, review and approve vessel and port 
security plans, ensure that foreign vessels meet security standards, 
improve underwater detection capabilities, and increase intelligence 
capacity. The budget also maintains the Coast Guard's ongoing 
Integrated Deepwater System initiative, funding the program at $678 
million, an increase of $10 million over the fiscal year 2004 funding 
level.

                          ENHANCING BIODEFENSE

    The President's fiscal year 2005 budget reflects $2.5 billion for 
Project BioShield that will be available in fiscal year 2005 to 
encourage the development and pre-purchase of necessary medical 
countermeasures against weapons of mass destruction. Project BioShield 
allows the Federal Government to pre-purchase critically needed 
vaccines and medications for biodefense as soon as experts agree that 
they are safe and effective enough to be added to the Strategic 
National Stockpile. The Administration is moving forward in purchasing 
the most important countermeasures and high on the list are next-
generation vaccines for both smallpox and anthrax.
    The Department's efforts to improve biosurveillance will involve 
the Information Analysis and Infrastructure Protection (IAIP) and 
Science and Technology (S&T) directorates. In S&T, the budget requests 
$65 million increase to enhance current environmental monitoring 
activities, bringing the total fiscal year 2005 investment in this area 
to $118 million. One key component of this initiative will be an 
expansion and deployment of the next generation of technologies related 
to the BioWatch Program, a biosurveillance warning system. In IAIP, $11 
million increase is included to integrate, in real-time, 
biosurveillance data collected from sensors throughout the country and 
fuse this data with information from health and agricultural 
surveillance and other terrorist-threat information from the law 
enforcement and intelligence communities.
    The National Disaster Medical System (NDMS) is responsible for 
managing and coordinating the Federal medical response to major 
emergencies and federally declared disasters. For 2005, FEMA's budget 
includes $20 million for planning and exercises associated with medical 
surge capabilities. In addition, the budget transfers funding ($400 
million) for the Strategic National Stockpile to the Department of 
Health and Human Services to better align the program with that 
agency's medical expertise.

                      IMPROVING AVIATION SECURITY

    We have made great strides to improve the safety of the aviation 
system from acts of terrorism. For example, we have made significant 
investments in baggage screening technology--over $2 billion to 
purchase and install Explosive Detection System machines (EDS) and 
Explosive Trace Detection machines (ETD) to the Nation's airports from 
fiscal year 2003 to fiscal year 2005; hardened cockpit doors; deployed 
45,000 Federal passenger and baggage screeners at the Nation's 
airports; and trained pilots to be Federal Flight Deck Officers. The 
President's fiscal year 2005 budget seeks to enhance our efforts in 
this regard and would provide an increase of $892 million, a 20 percent 
increase over the comparable fiscal year 2004 level, for the 
Transportation Security Administration (TSA). Additional funding for 
TSA supports aviation security, including efforts to maintain and 
improve screener performance through the deployment of technology.
    The Department implemented a substantially improved air cargo 
security and screening program last year, and the President's budget 
sustains funding to continue program deployment and screening 
technology research. In addition, the fiscal year 2005 budget seeks a 
total of $61 million to accelerate development of more effective 
technologies to counter the threat of portable anti-aircraft missiles.

             ENHANCING IMMIGRATION SECURITY AND ENFORCEMENT

    Comprehensive immigration security and enforcement extends beyond 
efforts at and between the ports-of-entry into the United States. It 
extends overseas, to keep unwelcome persons from reaching our ports, 
and to removing persons now illegally residing in the United States. 
The Administration is committed to stronger workplace enforcement in 
support of the President's temporary worker proposal announced January 
7, 2004.
    The requested increases include $186 million for U.S. Immigration 
and Customs Enforcement (ICE)--whose appropriated budget overall 
increases by about 10 percent--to fund improvements in immigration 
enforcement both domestically and overseas, including more than 
doubling of current worksite enforcement efforts and approximately $100 
million increase for the detention and removal of illegal aliens. 
Detention and Removal of illegal aliens present in the United States is 
critical to the enforcement of our immigration laws and the requested 
funding will expand ongoing fugitive apprehension efforts, the removal 
from the United States of jailed illegal aliens, and additional 
detention and removal capacity.
    Our proposal for ICE also includes an increase $78 million for 
immigration enforcement. As part of the President's proposed new 
temporary worker program to match willing foreign workers with willing 
U.S. employers, enforcement of immigration laws against companies that 
break the law and hire illegal workers will increase. The fiscal year 
2005 President's Budget includes an additional $23 million for enhanced 
worksite enforcement. This more than doubles existing funds devoted to 
worksite enforcement and allows ICE to hire more Special Agents devoted 
to this effort. With these resources, ICE will be able to facilitate 
the implementation of the President's temporary worker program 
initiative by establishing a traditional worksite enforcement program 
that offers credible deterrence to the hiring of unauthorized workers. 
Without such a deterrent, employers will have no incentive to maintain 
a legal workforce.
    Our budget also seeks $14 million to support our international 
enforcement efforts related to immigration, including enabling ICE to 
provide visa security by working cooperatively with U.S. consular 
offices to review visa applications.
    We are a welcoming Nation, and the hard work and strength of our 
immigrants have made our Nation prosperous. Within the Department, the 
U.S. Citizenship and Immigration Service (CIS) has improved the 
administration of immigration benefits to the more than seven million 
annual applicants. For fiscal year 2005, the President's budget seeks 
an additional $60 million, for a total of $140 million, to achieve a 
six-month processing for all immigration applications by 2006, while 
maintaining security.

            INCREASING PREPAREDNESS AND RESPONSE CAPABILITY

    Though the primary mission is to protect the Nation from terrorism, 
the Department's responsibilities are diverse. The ships that interdict 
threats to our homeland are also used to help mariners when they are in 
distress and protect our marine resources from polluters and illegal 
fishing. While we must be prepared to respond to terrorist attacks, we 
are more often called upon to respond to natural disasters
    To support the Department's efforts to respond, the President's 
Budget includes an increase of $10 million, for a total of $35 million 
in fiscal year 2005, for the Homeland Security Operations Center 
(HSOC). Pursuant to the Initial National Response Plan, the HSOC 
integrates and provides overall steady state threat monitoring and 
situational awareness and domestic incident management on a 24/7 basis. 
The HSOC maintains and provides situational awareness on homeland 
security matters for the Secretary of Homeland Security, the White 
House Homeland Security Council and the Federal community. In addition, 
the HSOC provides the Department's critical interface to all Federal, 
State, local & private sector entities to deter, detect, respond and 
recover from threats and incidents.
    The National Incident Management System (NIMS) is designed to 
ensure that all levels of government work more efficiently and 
effectively together to prepare for, respond to, and recover from 
domestic emergencies and disasters, regardless of cause. For fiscal 
year 2005, the Department requests $7 million to ensure that the major 
NIMS concepts involving incident command, coordination, communication, 
information management, resource management, etc., are incorporated 
into and reflected in FEMA's national disaster operational capability. 
This funding will provide for plan development, training, exercises and 
resource typing at the Federal, State, and local levels

              SUPPORTING STATE AND LOCAL FIRST RESPONDERS

    The Department has initiated consolidation of the two principal 
offices responsible for administering the grants awarding process for 
emergency responders and State/local coordination, the Office of State 
and Local Government Coordination and the Office of Domestic 
Preparedness. This consolidation provides an opportunity to tie all DHS 
terrorism preparedness programs together into a cohesive overall 
national preparedness program designed to support implementation of 
State Homeland Security Strategies.
    The fiscal year 2005 budget continues to support the Nation's first 
responders and seeks a total of $3.6 billion to support first-responder 
terrorism preparedness grants with better targeting to high-threat 
areas facing the greatest risk and vulnerability. For fiscal year 2005, 
funding for the Urban Area Security Initiative (UASI) doubles from $727 
million to $1.45 billion. Since March 1, 2003, DHS awarded or allotted 
over $8 billion to support state and local preparedness. Between fiscal 
year 2001 and the fiscal year 2005 budget request, over $14 billion in 
assistance will be made available for programs now under DHS. Our 
request for fiscal year 2005 is slightly higher than funding sought for 
these programs in fiscal year 2004.

  INVESTING IN HUMAN CAPITAL AND BUILDING DEPARTMENTAL INFRASTRUCTURE

    Our employees are our single greatest asset and we are committed to 
investing in the development and motivation of our workforce. To 
support our efforts in creating a model personnel system, the 
President's fiscal year 2005 budget seeks $133.5 million for the 
implementation of a new DHS human resources system that is mission-
centered, fair, and flexible by rewarding top performers. The fiscal 
year 2005 budget specifically provides additional resources that will 
be used for training supervisory personnel to administer a performance-
based pay system and to create the information technology framework for 
the new system. Our new system will ensure that DHS can manage and 
deploy its resources to best address homeland security threats and 
support information technology tools for workforce management.
    We also seek additional funds to invest in the Department's core 
infrastructure. Our budget request seeks a total of $56 million, an 
increase of $17 million to support a new resource management system. 
This funding will support the design, development, and implementation 
for a single Department-wide financial management system. It will 
provide decision-makers with critical business information, e.g., 
budget, accounting, procurement, grants, assets, travel, in near 
``real-time'' and eliminate stovepipes within existing systems and 
processes.
    An increase of $45.1 million is also sought to continue expanding 
the DHS presence at the Nebraska Avenue Complex (NAC). These resources 
will enable DHS to perform tenant improvements to the facility and 
relocate U.S. Navy operations, pursuant to congressional authorization, 
from the NAC to leased facilities.

                               CONCLUSION

    We have a dedicated and skilled team in DHS who understand that 
what they are doing is important. We have the support of our partners 
in government and the public and private sectors. I thank the Congress 
for its support, which has been critical to bringing us to this point.
    Our homeland is safer than it was a year ago, but we live in 
dangerous times and cannot count on times to change. That is why the 
Department of Homeland Security was created, and why we are moving 
forward. I am grateful to be here today to talk about the work we are 
doing to make America a safer home for us, for our children and 
generations to come.
    Thank you for inviting me to appear before me today, and I look 
forward to answering your questions.

                 STATUS OF RICIN INCIDENT INVESTIGATION

    Senator Cochran. Mr. Secretary, thank you very much. I 
think one of the most recent events that has attracted 
everybody's attention here in Washington and certainly affected 
this very building we are having the hearing in today is the 
ricin incident that was discovered in the office of Senator 
Bill Frist here in the Dirksen Building. Could you tell us what 
the status of that investigation is? Has it been determined 
whether this toxin was delivered by mail or in what way this 
happened, or are we still trying to determine these events?
    Secretary Ridge. Senator, it is my understanding that the 
focal point of the investigation initially has been with the 
Capitol Police. The FBI has and is prepared to continue to 
assist. I do not believe there are any further developments 
beyond what has been transmitted in the newspapers. We still 
have no idea who may have been responsible for it. To my 
knowledge, to date we have not identified if it was a letter 
that was in which the contents were contained that broke open 
during the screening process. So again, it is an ongoing 
investigation. And I think your Capitol police have the lead.
    As it was related to me, I am not sure there is enough of 
the ricin that has been preserved for more detailed analysis. 
And that will probably impede the investigation somewhat. But 
even if it is true, obviously the resources of the FBI, the 
Capitol Police, and others are committed to trying the very 
best to identify the source.

                   INTERNATIONAL FLIGHT CANCELLATIONS

    Senator Cochran. One other recent event that Senator 
Mikulski mentioned was during the holiday season; there were 
several international flights that were canceled. Suspicion of 
possible terrorist activity was reported in the news as the 
reason for that. We heard from some airline executives and 
ambassadors from foreign countries how cancellation of flights 
like this caused disruption of service and make it difficult 
for the traveling public to make plans in the future. But, we 
understand the overriding importance of trying to guarantee the 
safety of our homeland.
    Do you think the department was justified in the 
cancellation of these flights and whether this indicates that 
we are under continued threats of terrorist activity in the use 
of intercontinental flights in the future?
    Secretary Ridge. Senator, the decisions to cancel those 
flights were obviously made in consultation with our allies in 
Great Britain and in France and in Mexico. Obviously, we note 
from the very outset the extraordinary inconvenience it causes 
probably a couple thousand passengers. We understand that.
    Trying to put it in context, I dare say that this week in 
international aviation there will probably be more 
cancellations for mechanical failure and for weather than were 
seen when we canceled it for potential terrorist activity. So 
we do try to put it in context but clearly with the 
understanding that we need to try to keep commercial aviation 
both safe and flying.

             FEDERAL AIR MARSHALS ON INTERNATIONAL FLIGHTS

    A couple of concerns that were expressed to you by the 
ambassadors had to do with the executive amendments that I 
directed to be sent out specifically to the airlines with 
regard to the ability upon request to put Federal air marshals 
on those international flights. While I do not regret the 
decision to send that directive out, it would have been more 
appropriate had there been more time to send the notification 
out through diplomatic channels first, rather than dealing 
directly with the airlines. So I understand that completely.
    Since that time, however, our discussions with, again, Air 
France, Great Britain, British Airways, and others, we are 
working on a protocol, one that will give us an opportunity to 
deal government to government first. We all agree that is the 
best way to do it, to share intelligence about these flights 
and review that as far enough in advance as we possibly can to 
avoid either delays or the cancellations in the future. But 
given the threat stream reporting that we saw, it was a 
collective judgment that, under all the circumstances as we 
knew them, it was a collective decision to cancel those 
flights. And I think it was a very appropriate decision.

                           AVIATION SECURITY

    A continuing concern we have, Senator, with regard to 
aviation security is reflected in the threat streams where 
there are continuing references from multiple sources, in spite 
of the additional security measures we have taken on domestic 
and international flights, that terrorists would still seek to 
target those flights for possible terrorist actions. So we are 
mindful that they do like to go back to targets and tactics 
that they used previously. That is why our guard remains up and 
remains vigilant.

                  TERRORIST THREAT INTEGRATION CENTER

    Senator Cochran. I am going to ask one other question and 
hope that all Senators will be aware that we will have ample 
opportunity to ask whatever questions any senator has. But, I 
am going to limit my time to 5 minutes and hope other Senators 
will do that as well in the first round of questions, and then 
we can go back and revisit any issues that remain important to 
discuss.
    Let me ask you one final question in this round, and that 
is your evaluation of the effectiveness of the intelligence-
gathering center that was created in the Department of Homeland 
Security to integrate and bring together intelligence that is 
available to the department to assess the threat status that we 
may face, the potential terrorist attacks that may be planned 
by others. It is the Terrorist Threat Integration Center 
(TTIC). What is your evaluation of that? Is it working? Do you 
have the funding that you need, if this budget request is 
followed, to carry out the intelligence role that the 
department has established for itself?
    Secretary Ridge. Senator, the Congress has been very 
generous to the Department in providing several hundred million 
dollars to set up the Information Analysis and Infrastructure 
Protection Directorate. That is our analytical arm. And it is 
through those dollars that we expanded probably $15 million or 
$20 million last year as our contribution to the Terrorist 
Threat Integration Center. We have analysts in that Threat 
Integration Center. It is the coordination point for 
information from the entire intelligence community as it 
relates to homeland security issues.
    We are very comfortable with the relationship. Congress has 
vested in us the authority and the responsibility to go back to 
anywhere we deem necessary within the intelligence community to 
put intelligence requirements on the CIA or TTIC to give us 
more additional information, if we have questions and seek 
answers.
    So as the TTIC evolves and as our agency matures, the 
relationship gets better and better every day.
    Senator Cochran. Thank you.
    Senator Byrd.

            UNDERFUNDED AND UNDERSTAFFED IMMIGRATION SYSTEM

    Senator Byrd. Mr. Chairman, Mr. Secretary, our immigration 
system is underfunded and understaffed. The Bureau of 
Immigration and Customs Enforcement has just over 13,000 
criminal investigators to, among its many other 
responsibilities, locate and remove 8 million to 12 million 
illegal aliens. Following the passage of the 1986 amnesty for 
2.7 million illegal aliens, the INS had to open temporary 
offices, hire new workers, and divert resources from 
enforcement areas to process amnesty applicants. The result was 
chaos that produced rampant fraud.

                 IMPACT OF PRESIDENT'S AMNESTY PROPOSAL

    The backlog of immigrant applications is even larger today, 
six million and rising. The President's amnesty proposal would 
dump another eight million immigrant applications on an already 
beleaguered immigration system.
    It took only 19 temporary visa holders to slip through the 
system to unleash the horror of the September 11 attacks. The 
President's amnesty would shove 8 million illegal aliens 
through our security system, many of whom have never gone 
through any background check. If there are no new resources in 
the budget to implement the President's amnesty proposal, the 
implementation of the reform proposal would create incredible 
stresses on an already overly stressed border security system. 
It is a recipe for disaster.
    While I note that the budget has several modest proposals 
to deal with existing shortcomings, could you explain to the 
committee how much additional money is included in the 
President's budget to implement the President's amnesty 
proposal?
    Secretary Ridge. Senator, there are, as you pointed out, 
increases in several areas within the budget, not specifically 
related to the President's proposal, inasmuch as the President 
laid out some principles, recognizing the reality of several 
million undocumented aliens who present in this country, 
recognizing that we need to validate their presence, which is 
far different than pushing them to the front of the line for 
citizenship purposes, and also recognizing the need that once 
he stated the principles, that this is an issue of high 
visibility and probably considerable controversy. And whether 
we can get it done this year or next year remains to be seen.
    But I think the President offered the proposal, 
understanding that once the Congress worked its will around the 
principles that he enunciated, that there would be adequate 
resources, depending on the kind of program that Congress 
enacted to enforce it. Senator, I could not agree with you 
more. Our ability to take the President's proposal and to 
fashion a satisfactory conclusion will require an investment of 
resources for enforcement. That number, that amount remains to 
be calculated based on the kind of program that the Congress, 
working with the administration, designs.
    I will tell you in the meantime, Senator, the increases 
that are reflected in this budget are for detention beds, are 
for more surveillance equipment along the borders. We are going 
to use in pilot form this year, Senator, some additional 
technology along the borders to deal with, as best we can, the 
continued flow of illegal immigrants across the border. But I 
think the broader issue of the resources necessary to make sure 
that the President's initiative and the congressional 
initiative is fully enforced. That is a discussion to be had at 
a later date.
    Senator Byrd. To be had when?
    Secretary Ridge. At a later date, Senator.

                       LEGACY INS PROGRAM FUNDING

    Senator Byrd. Yes. Well, I understand that. The increases 
for a number of the programs in the budget are directed to 
ongoing and long underfunded legacy INS activities, and not to 
the President's new initiative. I recognize that there are 
increases in your budget for fugitive operations and the 
institutional removal program, legal program backlog 
elimination. But these increases merely reflect the direction 
of much-needed additional dollars to perform the tasks that 
your agencies must do in any event.
    For instance, from 1992 to 2002, the number of worksite 
enforcement investigations dropped from 1,063 to just 13. These 
activities represent ongoing programs which your department 
inherited upon the abolition of the long-maligned Immigration 
and Naturalization Service. What new resources are you 
requesting specifically, understanding that the Congress has 
yet to act, of course, if it does, when it does? What new 
resources are you requesting that specifically will be used to 
implement an alien amnesty program in the event that such is 
legislated into law?

                 REQUEST FOR FUGITIVE OPERATIONS TEAMS

    Secretary Ridge. Senator, there are two areas of increase 
that we requested to help with contemporary enforcement of the 
law as it exists today. It does not speak to any changes in the 
law that may exist tomorrow. But we have requested an increase 
of $50 million for 30 additional fugitive operations teams so 
that the people we have identified as absconders, those 
individuals who have either had their hearing and have been 
determined after the hearing process basically to be persona 
non grata, to exit this country, or those who refuse to show 
for their hearing and therefore lost any legitimacy to their 
presence. We want to basically nearly triple the amount of 
those teams. So there is $50 million for that.

                    REQUEST FOR WORKSITE ENFORCEMENT

    I believe, Senator, we have asked for an additional $20-
some million to assist with more agents to deal with workforce 
enforcement. So the additional dollars for the detention beds, 
for the fugitive operations team, and for the workplace 
enforcement are consistent with the needs based on the law as 
it exists. But as I said before, clearly, once Congress works 
its will, if it chooses to do so, around the President's 
initiatives, matching willing worker with willing employer, 
will obviously need additional resources. That cannot be 
denied.

    RESOURCES REQUIRED TO IMPLEMENT THE PRESIDENT'S AMNESTY PROGRAM

    Senator Byrd. Well, looking at the plan that has been 
proposed by the President, Mr. Secretary, how much do you 
believe would be necessary to implement the President's 
principles, as set forth in that plan?
    Secretary Ridge. Senator, at this point, it would be the 
grossest form of speculation. And I choose not to engage--the 
Senator has asked a serious question. He deserves a serious 
answer. And at this juncture, since the President has just 
articulated some principles that he would like to see embodied 
in a piece of legislation, again, it really depends on the 
legislation and the mandates associated with the legislation 
for us to determine how many additional agents we might need, 
perhaps the use of additional technology along the borders. So 
it is very difficult for us to make that determination at this 
point, Senator.
    Senator Byrd. Are you suggesting, Mr. Secretary----
    Secretary Ridge. Well, the only thing I could tell you, 
Senator, is we will need more.
    Senator Byrd. I would expect that answer. Are you 
suggesting that there are no estimates around what the 
President's plan would cost?
    Secretary Ridge. I suggest to you, Senator, that we can in 
time develop some internal estimates, but we have no final 
figures now, again, because we do not know what mandates or the 
requirements that Congress may impose on the Executive Branch 
in order to fulfill the goals of the legislation.
    Senator Byrd. Thank you, Mr. Chairman. I will pursue this a 
bit further.
    Senator Cochran. Thank you, Senator.
    Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman.
    Governor, I call you Governor----
    Secretary Ridge. Good.
    Senator Gregg [continuing]. Because as a former Governor, 
we all recognize that is the most significant position.
    Secretary Ridge. I have a response, Governor.

                                AL QAEDA

    Senator Gregg. On 9/11 we were attacked, obviously. And the 
attack was generated by the Islamic fundamentalist movement, 
which is called al Qaeda, which has a lot of different forms 
that it has mutated into across the world. What is the number 
one threat today that your agency considers it must address in 
the area of an attack on our country? Where does it come from 
and what is it?
    Secretary Ridge. Are you talking, Senator, necessarily the 
individuals or the type of attack?
    Senator Gregg. First the individuals.
    Secretary Ridge. Clearly al Qaeda.

         SOURCE OF MOST SIGNIFICANT THREAT TO THE UNITED STATES

    Senator Gregg. Where do you--what do you see as the source 
of the most significant threat to our country? And what do you 
see as the potential target or type of threat which they 
represent?
    Secretary Ridge. Senator, we still look at al Qaeda as the 
major international terrorist organization that we need to 
combat and to deal with. But as--I think you used the right 
word in your question. There are a lot of mutations that have 
developed. I mean, al Qaeda can be seen as, one, a very close 
group of very disciplined leaders who have had tactical control 
over and operational control of the attacks on 9/11.
    But since that time, we have obviously disrupted their 
communications. We have decapitated a lot of their leadership. 
And one of the concerns that, I think, all of us have is that 
the individual cells, many of whom have been loosely connected 
to the al Qaeda structure now, because of the decapitation, 
because of the difficulty in communication, may have a tendency 
to operate on themselves, operate on their own rather than 
having a direct control from bin Laden and that small group of 
people associated with planning that attack.
    So again, it is al Qaeda, the organization. But over the 
period of time we have identified obviously the change in its 
structure and, therefore, probably the change in the kind of 
terrorist groups that are prepared to operate even 
independently.
    The same notion of Jihad, but not quite as directly 
connected to al Qaeda. And we know they train thousands in 
Afghanistan. The extremist schools have been pumping out 
students of hatred, who look at this country as evil and vile 
and have joined different forms of the Jihadist movement.
    Senator Gregg. It is still Islamic fundamentalism.
    Secretary Ridge. Correct.

              PRIMARY THREAT, TARGET, AND DELIVERY SYSTEMS

    Senator Gregg. And what do you see, the second question 
was, what do you see as the primary threat, target, delivery 
systems?
    Secretary Ridge. First of all, from an operational point of 
view, Senator, when it comes to research and development, we 
need to spend a great deal of time just looking at weapons of 
mass destruction, massive catastrophic effects, radiological, 
nuclear, biological, and chemical. The threat reporting stream 
that we pay attention to still on a regular basis identifies 
aviation, still talks about potential biological attacks. There 
continue to be, on a fairly consistent basis, generic 
references to just about every kind of attack imaginable under 
WMD weapons.
    And so while we have focused on aviation security that was 
the congressional focus, that is what TSA was initially focused 
on, we have also gone out now to start worrying about 
vulnerabilities that exist elsewhere that could be used as 
either a target or a mechanism to deliver any of those kinds of 
weapons.
    Senator Gregg. That being laid down as a premise--and I 
obviously think you are absolutely right, and you are the 
expert, and I think you are on track--which is the threat is 
fundamentalist Islam and the threat is the potential that they 
use a weapon of mass destruction or some mutation of that 
against us, what then becomes the priorities within your 
department as to how to respond to that?
    And should not counterintelligence be the number one event? 
Because, obviously, we cannot tolerate a weapon of mass 
destruction attack. And should not the capacity to deal with 
weapons of mass destruction be the number two? Or what is your 
prioritization of how you respond to those two items of threat, 
the people who would cause it and what it involves?
    Secretary Ridge. Well, clearly, our primary responsibility 
in dealing with the environment that you and I agree exists is 
to prevent, deter, respond, and prevent the terrorist attack. 
But the point of that spear is the military and the CIA and the 
FBI. We do have a role in preventing the attack in that when we 
get actionable information or information that is relevant to 
protecting a particular site in this country, we are obliged, 
and it is part of our mission, to take action to protect that 
site.

              REDUCING VULNERABILITY TO TERRORIST ATTACKS

    But basically, our primary mission is to help reduce our 
vulnerability to those kinds of attacks. That is the primary 
mission of the Information Analysis Unit, because we have been 
given the charge by Congress to take whatever information we 
get that we deem credible, map it against the potential 
vulnerability, and make sure that we do everything possible to 
harden that particular target or targets to reduce the risk of 
a potential attack.
    So I think we have set priorities in our Science and 
Technology Directorate. Some of the first grants have gone out 
to deal with the technology of detection and protection. And so 
as we take a look to combat a potential biological attack, we 
are expanding again, because the Congress has given us hundreds 
of millions of dollars to conduct this research. The technology 
of detecting a bioagent, be it in a community, in a subway, in 
a form of transportation, is something that is a very, very 
high priority. The technology of protection is equally as 
important to us, because in the event we ask our first 
responders to get out and assist those who have been impacted 
by a biological event, we want them to not only know the kind 
of environment they are going into, but be protected against 
the effects of that environment.
    So we have set priorities in the science and technology 
area. We have set process of setting priorities in the critical 
infrastructure piece. We cannot, Senator, possibly expect 
that--we have to set priorities when it comes to infrastructure 
protection.
    We have targeted, for example, in chemical facilities. We 
have already conducted, I think, nearly 20 site visits of the 
largest facilities that we believe, if they were a target of a 
terrorist attack, would have the most catastrophic 
consequences, particularly in the loss of human life and 
developing standards of security and prevention that we would 
think these companies need to apply at these specific places. 
We are going to develop those standards for energy and 
telecommunication sites and the like.
    So we have set priorities within each individual unit. 
Although generically, every day we worry about different forms 
of attack from a weapon or weapons of mass destruction.
    Senator Cochran. The time of the Senator has expired.
    Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman.

    CUTS IN GRANTS TO STATES TO UPGRADE THEIR PUBLIC HEALTH SYSTEMS

    Mr. Secretary, I understand that grants to States to 
upgrade their public health systems are being cut by $105 
million in the fiscal year 2005 budget to provide funds for 
your biosurveillance initiative. Mr. Secretary, our State and 
local public health infrastructure has been allowed to 
deteriorate. These funds to upgrade our State and public health 
systems are necessary, not only to protect Americans from 
bioterrorism but also to protect Americans from natural 
outbreaks of disease, like SARS and West Nile Virus.
    In my own state, we have used these funds to increase the 
number of epidemiologists in the field and increase the number 
of scientists in our labs. With a cut in their State funding 
grant, they will have to make cuts in these important programs.
    Why has the administration chosen to cut funding for public 
health improvements when we still have a long way to go before 
our public health system is where it should be?
    Secretary Ridge. First of all, Senator, I cannot speak 
necessarily to the Health and Human Services budget. I am aware 
of a biosurveillance initiative that both Secretary Thompson 
and I are working on that is part of the President's budget 
that I believe is--while it may be viewed as simply an anti-
terrorism initiative, it is really a public health initiative. 
And that is the biosurveillance piece that Secretary Thompson 
and I announced about a week or 10 days ago, where, through a 
combination of funds from the Department of Homeland Security 
and from Health and Human Services totaling nearly $275 
million, that we will connect multiple sources of information 
from hospitals, pharmacies, veterinary clinics, and the like to 
determine to have a national surveillance system.
    And I think public health experts would agree that the most 
important thing we can do in terms of public health is to 
identify, as early as possible, whatever bioagents are plaguing 
a community or communities. Now that is whether it is a 
terrorist has conducted a biological attack or that mother 
nature threw something at us.
    So again, I think the $275 million that is part of the 
President's budget is a very, very significant improvement in 
the country's and the public health community's ability to 
detect and therefore respond more quickly and save more lives. 
So I think it is a very significant initiative. And I really 
cannot speak to other adjustments that may have been made in 
that budget, because I do not know.
    Senator Harkin. I was just concerned about the cut in the 
funds for the public health system. It seemed like that $105 
million cut was shifted to biosurveillance. I have no problem 
with it. I agree with everything you have just said. I was just 
concerned about the cuts.
    Secretary Ridge. Senator, I am sorry. I did not mean to 
interrupt.
    Senator Harkin. That is okay.
    Secretary Ridge. Congress was very generous, I believe, in 
2002, maybe it was the supplemental, where there was, I think, 
$2.2 billion sent out to the States and locals. And it is my 
understanding that some of that money is yet to be called down. 
It is still awaiting allocation to the States or the 
communities. So again, I cannot speak to that specifically, but 
that is my understanding.

                        AGRO-TERRORISM CONCERNS

    Senator Harkin. I will take a look at that. My last 
question had to deal with what I raised in my opening 
statement. And that was about agro-terrorism, as we have called 
it here. You know, again, we have seen what has happened with 
mad cow disease. But diseases do not have to jump to humans to 
cause widespread panic. A gallon of suspicious milk would cause 
every parent in America to demand answers from the government 
immediately. It is not just a Midwestern issue. We have 10,000 
hogs that are trucked out of North Carolina every day. And as 
we know, meat slaughtered in one place might wind up all over 
America within 24 hours from one point.
    So I guess my question is: In this budget, can you assure 
us that the needs of the rural areas and farm communities will 
continue to be met? And just briefly, are you satisfied that 
you are integrating this agriculture and the possibility of 
agro-terrorism possible threats in the future, that you are 
fully integrating this into your threat assessments?
    Secretary Ridge. Well, first of all, Senator, I will assure 
you that any information that we have with regard to agro-
terrorism where credible and corroborated, we communicate to 
the people that need to know. Secondly, I believe there is a 
rather substantial initiative in the budget for the Department 
of Agriculture that speaks to address some of the legitimate 
concerns that you have identified today.
    And thirdly, you should know that we are working on an 
interesting project that Homeland Security will fund in part 
with Iowa's governor and Homeland Security advisor, where you 
are pulling together a multiple State consortia to deal with 
the transfer of information and analysis, I guess using some of 
the labs. And I think his Homeland Security advisor has been or 
is scheduled to come in town so we could work the funding 
requirements out and collaborate our work in the Homeland 
Security with the Department of Agriculture.
    Senator Harkin. I was glad to hear you are working with the 
multi-state partnership for security and agriculture.
    Secretary Ridge. Right.
    Senator Cochran. The time of the Senator has expired.
    Senator Harkin. Thank you.
    Senator Cochran. Thank you, Senator.
    Senator Stevens.

         NEW DHS REGULATIONS SUPPLEMENTAL FUNDING REQUIREMENTS

    Senator Stevens. Thank you very much, Mr. Chairman. As I 
indicated, I would like to put a question concerning the 
national alert system and also, Mr. Secretary, or Governor, if 
you prefer, I have a copy of a letter that our Governor, former 
Senator Murkowski, wrote to you. And I would like to put it in 
the record and ask you if you have responded to that, if you 
would give me a copy of the response to his letter.
    I want to ask you a little bit more mundane question, 
though. Your bill, appropriations bill, was approved in the 
regular order. As Senator Byrd and I said, it went across the 
floor, went to conference, was signed by the President 
separately before the omnibus bill. How is your department 
doing? Are we looking forward to any kind of a supplemental 
request from your department before October 1?
    Secretary Ridge. No, sir.
    [The information follows:]

                     Letter From Frank H. Murkowski

                                   State of Alaska,
                                    Office of the Governor,
                                          Juneau, February 9, 2004.
Hon. Tom Ridge,
Secretary, U.S. Department of Homeland Security,
Washington, DC.
    Dear Mr. Secretary: Alaskans have great respect for the Department 
of Homeland Security's (DHS) mission to protect the Nation against 
further terrorist attacks, guard our borders and airports, and protect 
our critical infrastructure. At the same time, DHS is also charged with 
protecting the rights of American citizens and enhancing public 
services. These sometimes conflicting obligations seem to require that 
the DHS be ever mindful of the impacts new regulations will have on the 
U.S. economy. Providing for the Nation's security while maintaining 
economic stability within our country is indeed a challenge. I don't 
envy the task.
    Please let me relate my perception of how some recent DHS actions 
have impacted Alaska as well as the Nation's security. On August 2, 
2003, the Bureau of Customs and Border Protection (CBP) published in 
the Federal Register a notification suspending the Transit-without-Visa 
(TWOV)/International-to-International (ITI) program. This suspension 
requires all international passengers transiting Alaska to obtain a 
U.S. visa for a 2-hour technical fuel stop, even at a special, secure 
transit facility. The new visa requirement caused Cathay Pacific 
Airways to move all passenger operations from Ted Stevens Anchorage 
International Airport (Anchorage) to Vancouver, British Columbia, 
Canada to avoid that burden.
    On December 22, 2003, the DHS increased the threat level to 
``Orange'' status. The increase in threat level immediately suspended 
Progressive Clearance. The threat level was reduced to ``Yellow'' 
status on January 9, 2004; however, Progressive Clearance suspension 
remained in effect until February 6, 2004. Suspension of this program 
requires Korean Air to do full clearance at the first port of entry, 
even if the ``entry'' is merely a refueling stop for almost all 
passengers. The airline must download all of the bags, forcing the 
passengers who would otherwise never leave the secure transit facility, 
to instead leave that area and proceed to an unsecure area to claim 
their bags.
    Not only does the airline have to upload all the bags again, but 
all passengers, having been forced to leave the sterile CBP processing 
area, must be rescreened. This requires an extended ground time and 
doubles ground handling costs incurred in Anchorage.
    On December 5, 2003, the CBP published a Final Rule in the Federal 
Register to implement a new regulation requiring all carriers, foreign 
and domestic, to submit electronic manifests to CBP for all cargo 
destined for the Unites States. These new regulations will put an 
extreme hardship on the cargo carriers transiting Alaska between Asia 
and Europe, and places Alaska's key role in that transit at risk. 
Again, these carriers have to option to move operations to a foreign 
country to avoid new security regulations.
    These new regulations have already caused the loss of 14 weekly 
international passenger flights and could cause the loss of up to 54 
international cargo flights per week to the State of Alaska.
    The State Department and the DHS have stared their intention to 
reinstate the TWOV/ITI programs and operate as the ``Air Transit 
Program''. But to date, CBP has not advanced the program further.
    Anchorage is one of only six airports in the Nation that currently 
conform to Customs and Border Protection facility requirements. 
Anchorage has spent a great deal of money to reconfigure our 
international passenger terminal to ensure it meets the requirements to 
maintain the ITI and TWOV programs.
    The TWOV and ITI programs operate in Anchorage differently than any 
other airport in the Nation. Anchorage is a technical stop for Cathay 
Pacific between Hong Kong and Toronto, All passengers participating in 
the ITI and TWOV programs arrive and depart on the same carrier, same 
flight, and same aircraft from the same gate.
    The suspension of this program has been detrimental in two ways to 
the United States. The first and foremost was a reduction in overall 
border security; the United States lost the ability to scrutinize and 
crosscheck these passengers against all U.S. security databases.
    The second is the negative economic impact to the State of Alaska, 
as well as the city of Anchorage. The loss of these Cathay Pacific 
flights cost the State over $1.1 million each month. It has also caused 
many of the airport tenants to reduce staff that normally support these 
flights.
    In summary, Anchorage has a secure passenger transit facility that 
conforms to CBP technical requirements. We have securely processed 
these passengers for years into the terminal building and right back 
onto the same aircraft. We believe that the program increases U.S. 
security overall.
    In the Final Rule (RIN 1651-AA49) CBP's own analysis shows the new 
Advanced Cargo Information provision will cost air carriers substantial 
amounts of money to implement. CBP estimates the total annualized cost 
to air carriers could range from $345 million to $4.7 billion. These 
costs include not only implementation of new systems, procedures, and 
equipment but also the cost of delays and service degradation.
    All Asia-Europe flights currently transiting Alaska have the option 
of flying instead through Russia enroute to Europe. At this point, the 
routing through Alaska is more efficient and economical for the 
carriers. It may be less efficient and more costly than flying through 
Russia after implementation of these regulations.
    A single wide-body cargo tech stop is worth approximately $25,000 
to the local economy in airport fees, airport services, crew lodging, 
and fuel in Alaska. Each week Anchorage and Fairbanks have 54 
international in-transit flights. Flights re-routed through other 
airports would cost the State economy $1,350,000 each week and 
$70,200,000 each year.
    All of these new regulations are intended to increase the level of 
security; however, if the new regulations cause carriers to avoid 
entering the United States we lose on two fronts. One, the economic 
loss from the business going to another country, and secondly, and more 
importantly, we lose the opportunity to have a cursory review, under 
existing programs, of the passengers and cargo on these flights 
transiting Alaska. The unfortunate outcome of these flights rerouting 
to other countries is a reduction in the overall level of security.
    I request that you please review the overall impacts of all new 
regulations, but specifically these three regulatory programs. I ask 
that the DHS/CBP permanently reinstate the TWOV/ITI and Progressive 
Clearance programs for international passenger flights transiting 
Alaska and exempt international-to-international transit cargo 
freighter flights operating through Alaska from the cargo manifest 
requirements. Granting our request not only protects U.S. economic 
interests but also improves and enhances U.S. intelligence and total 
security.
            Sincerely yours,
                                        Frank H. Murkowski,
                                                          Governor.

    Senator Stevens. Thank you very much.
    Thank you very much, Mr. Senator.
    Senator Cochran. Senator Mikulski.

  CONSOLIDATION OF GRANT PROGRAMS INTO THE OFFICE FOR STATE AND LOCAL 
                     COORDINATION AND PREPAREDNESS

    Senator Mikulski. Thank you very much, Mr. Chairman.
    Mr. Secretary, as I indicated, I am disappointed in the 
funding for both fire grants and port and cargo security. But 
we will be arguing those within the committee. I would like to 
come back to some of the policy issues raised in your testimony 
and on your plans. This goes to the fact that one of the 
biggest changes in the Homeland Security budget that is 
proposed is the combining of 24 grant programs from TSA, FEMA, 
Office of Domestic Preparedness, into something call the Office 
for State and Local Coordination and Preparedness.
    Could you tell me, number one, what is the rationale? And 
how will this make it more efficient and effective? Because 
this is a whole new thing. And, of course, you are aware of the 
mayors' criticisms that money from Homeland is not getting down 
to them.
    Secretary Ridge. Senator, there are several parts to your 
question. I hope I can address all of them in my response. 
During the past year, consistent with the President's national 
strategy, but also consistent with many of the concerns that I 
have heard from your colleagues in Congress, there has really 
been publicly expressed a preference to be able to go to one 
place within the Department of Homeland Security to access all 
the grants for State and locals.
    And heretofore, it was scattered over three or four 
different units. And so the consolidation of the 24 grants 
within this new office gives us an opportunity, one, I think, 
to develop a much more effective delivery system and hopefully 
in time to make the awarding of the grants simpler. There will 
always be a question of how much. And that is always going to 
be debated on the Hill as to how much money should be put in 
the grant programs.
    But the Congress has said, and the President wants us, once 
the dollar determination is made, is get the dollars out as 
quickly as possible. We think it will certainly help with 
coordinating the planning and the implementation and clearly 
the assessment. Several Senators have commented today that we 
need to start looking at the effectiveness of the dollars we 
have sent out to the community.
    So what we will set up within this new department, there 
will be a single portal. There will be one website that folks 
can go to get the information they need. They will develop 
relationships, I think the personal-professional relationships 
with the people in this one unit. We will draw down on the 
expertise from TSA and FEMA to make sure that the grant 
programs are administered as effectively as possible.
    We told our friends in the fire community, even though the 
fire grant program is moving from FEMA to the new facility, it 
will still be peer review. The grants will still be made 
specifically to the firefighters. And they will not see 
effectively any change. And the debate will continue to be how 
much money they put in the program.

             IMPACT OF TRANSFER OF GRANT PROGRAMS FROM FEMA

    Senator Mikulski. Mr. Secretary, may I jump in here?
    So is FEMA moving to this office----
    Secretary Ridge. No.
    Senator Mikulski [continuing]. Or categories of FEMA, like 
the fire grant program and the emergency management performance 
grants?
    Secretary Ridge. Yes. Those grants will be moved to this 
new unit. But FEMA still operates under the Emergency and 
Preparedness Response Unit of the department. And FEMA 
continues to maintain authority over grants that relate to 
natural disasters, the administration of the natural disaster 
relief programs, the natural mitigation program. They are still 
responsible for flood mapping. So they retain some of their 
traditional responsibilities. But some of those programs that 
had to do with terrorism and preparedness for terrorist event 
move into this new unit within the department.
    Senator Mikulski. What about the criticism of the mayors?

                  DELIVERY OF STATE AND LOCAL DOLLARS

    Secretary Ridge. The mayors have voiced publicly and 
privately on many times their frustration with the delivery 
mechanism to get the dollars that you appropriated, that we 
requested, you appropriated to get it down to them. I would 
assure you, Senator, that we are prepared to deliver those 
dollars. The logjam that we need to break, if not blow up, has 
to do with the communications between the mayors and the 
governors and how they distribute those dollars. Because we 
have asked the governors to take the lead in developing a 
statewide strategy.
    Congress has said 20 percent can stay in the State capital. 
The other 80 percent has to flow through down to the mayors. 
Their frustration, I think, is legitimate. I think there are 
many reasons for it. We are going to take a look at some of the 
States where the money has been practically all distributed, 
where people are not complaining, to see if we can develop some 
best practices that we will go back to the governors with and 
get them to use them. And if we need to put it in terms of a 
regulation so that they distribute the dollars that way, we 
will.
    I plan on meeting with the governors privately, when they 
come into town in a couple weeks, to address that very 
legitimate frustration that some of the mayors have directly. 
We need to do everything we can to avoid just sending out 
grants to thousands and thousands of municipalities because we 
will never be able to build a statewide and then a national 
infrastructure. So the mayors are right. We have to do a better 
job of getting the money to them. We are prepared to distribute 
it, but we need to work with the mayors and the governors to 
come up with a better distribution mechanism.
    Senator Mikulski. Well, just two points, Mr. Secretary. 
First of all, I am glad that you are going to meet with the 
Governors. You are part of that unique organization. And I 
think you understand their needs. And what we saw with 
hurricane Isabel, for example, it was a statewide catastrophe. 
And we needed Governor Ehrlich's response and local response. 
So we need you to work with the Governor and figure out how to 
effectively coordinate.
    The second thing, in terms of this new one stop shop, I 
would really invite your staff to meet with mine so that we 
truly understand it. A lot of us have put a lot of effort into 
establishing these grant programs. And the idea of a one-stop 
shop seems very attractive. But we also want to know how that 
also enables this effective coordination. Because if we do not 
coordinate, this is not going to work.
    So thank you very much. And again, many thanks for all that 
you helped us with.
    Secretary Ridge. Thank you, Senator.
    Senator Cochran. Thank you, Senator.
    Senator Murray.
    Senator Murray. I would be happy to defer to Senator 
Domenici, if he would----
    Senator Cochran. Senator Domenici.
    Senator Domenici. Well, thank you very much. Am I on? Can 
you hear me?
    Senator Cochran. Yes, sir. Thank you, sir.
    Senator Domenici. First, Mr. Secretary, it is nice to be 
with you.
    Secretary Ridge. Thank you, sir,
    Senator Domenici. I do not get an opportunity to visit with 
you very often. I am very proud of what you have been doing. I 
am fully aware it has not been an easy thing.

 FEDERAL LAW ENFORCEMENT TRAINING CENTER (FLETC) IN ARTESIA, NEW MEXICO

    The reason I am going to bring a very small issue to you is 
because I do not think continuing to communicate with the 
department brings results. No aspersions. But in our State of 
New Mexico, we have an institution called FLETC, the Federal 
Law Enforcement Training Center, Artesia, in New Mexico. FLETC-
Artesia is a pretty big place, which grew over a decade from a 
college center to a fully run and operated Federal law 
enforcement training center.
    Needless to say, that part of New Mexico is very proud of 
it, as we are. We are now training, expanding the training 
base. As you know, hundreds of new U.S. marshals are being 
required to be trained. FLETC is also the campus chosen to 
provide training for airline pilots who choose to carry 
firearms in the cockpit, and that is an election. FLETC 
provides this training to Federal flight deck officers. in 
addition to the basic advance training.
    Now feedback from these trainees who have been in Artesia 
is almost universally positive. The training site is pretty 
new, pretty good. The places to live in are pretty fine. It is 
a small town, nonetheless. Artesia is about 3 hours from any 
large city. Now when we started FLETC-Artesia, that was a big 
plus. Now it is beginning to be well known, maybe that's a good 
thing.
    But I will tell you what will make it a plus and keep it a 
very reasonable facility for training your people. It is the 
capacity to have flight service enhanced so that people can get 
there easier than just riding on a bus.
    You know that this entire committee and then the Congress 
went out on a limb. We said we will not earmark funding for the 
new department. Therefore, you got it all. You probably were 
glad to have it. Now after a year and a half, you are probably 
thinking that, maybe they should have given me some direction 
on a few of these; I would not be having so much trouble. In 
any event, we could have gotten earmarked funding for this 
FLETC, because we have invested a huge amount of tax dollars.

                   AIR SERVICE TO ARTESIA, NEW MEXICO

    FLETC put out a request seeking feedback from airlines who 
might provide service. My understanding is that there has been 
a response, and it was positive. The estimates are that it 
would take about $800,000 to provide the service for the rest 
of the year. This would make a rather fantastic facility 
available for the extra training beyond the few hundreds that 
we train for--as people who watch our borders and the like.
    I am not sure you know about it. But can I lay it before 
you today and assume you will know about it after this 
discussion. You can pass it on to somebody to look at it.
    Secretary Ridge. Senator, I am now nearly fully briefed. I 
know a lot more than I did when I walked into the hearing room. 
And one question I would like to just ask you is whether or 
not, from your perspective, that the facilities at Artesia are 
being fully used. In other words, if we enhanced the ability to 
get more people there for the training program, do the existing 
facilities have the present capacity to train more people?
    Senator Domenici. The answer is yes. What is happening is, 
that it is such a good facility, but for its distance, it is 
almost full all the time. We are constantly being harped upon 
by internal observers that we ought to take some of the people 
that are there and put them somewhere else so they would not 
have to travel.
    Secretary Ridge. Senator, since you raised it to my 
attention, it becomes my responsibility to look into it and get 
back to you. And I will.
    [The information follows:]
     Enhancing Flight Service/Transportation for Trainees to FLETC
    In the post September 11, 2001 period, there has been real, 
sustained growth in the use of all FLETC training centers, including 
the Artesia, NM center. Although the absence of regular and reliable 
service to the Artesia area has been an obstacle to wider use of that 
location in the past, recently we have increased utilization to almost 
capacity because the FLETC Glynco site is at maximum capacity and the 
agencies need to train within specific timeframes. FLETC is 
experimenting with conducting more basic training programs at Artesia 
in fiscal year 2004 and there has been increased use of the site for 
Flight Deck Officer training, among others, for specialized training. 
With this in mind, FLETC will track closely the issues and usage of the 
Artesia site and report back their findings in fiscal year 2005. Should 
the travel service continue to be a problem, the Department will 
consider looking at other possible solutions.

    Senator Domenici. I appreciate it.
    Now what about the time? Am I out?
    Senator Cochran. If Senator Murray has no objection, you 
can ask another question.

       CONSTRUCTION OF NISAC FACILITY AT KIRTLAND AIR FORCE BASE

    Senator Domenici. All right. Let me ask a question with 
reference to a project that is called NISAC, N-I-S-A-C. You may 
recall, when you first came into this job, you were still in 
some temporary office. We brought some people from Sandia and 
Los Alamos, and they showed you this computerization, 
computerized program, that gets put to use and continues to be 
upgraded.
    Anyone whom you would assign to run the office could locate 
every piece of infrastructure in the United States and then 
locate them vis-a-vis themselves and others. For example, if 
they were to take out a dam, what are the repercussions. A 
little machine shows you what happens. This big dam is broken 
down. It will tell you water will go as far as L.A. One of the 
bad things about it, we hope nobody else gets it. So far, it 
just belongs to you, to us.
    But it is terrific from the standpoint of, answering a 
hypothetical question with reference to what happens if 
something else happens, either in the electricity system or 
energy system, the water system. This facility is adjacent to 
Sandia National Labs. One of the items that transferred from 
the Department of Energy to the Department of Homeland Security 
with this act was an appropriation of $7.5 million for the 
construction of a NISAC facility at Kirtland Air Force Base to 
be used by your department for the purposes intended.
    So I am just going to inquire and put it in here in writing 
what happened, why the delay, and why is it not moving ahead? 
What is the status of the $7 million that we set aside? When 
can the committee expect Homeland Security to break ground on 
this NISAC facility, which the record, as I reflect it, would 
clearly indicate is your baby? You are going to use it. It is 
not going to sit there.
    Secretary Ridge. Senator, I remember their presentation. 
You know better than most the extraordinary work that the 
national labs have done for 60 years for this country, the 
variety of different ways. And you also know that our 
department is happily tied in with the national labs in several 
very meaningful ways.
    I cannot give you the specific answer to that question 
either, but it is incumbent upon me to do so. And I will.
    [The information follows:]
       Construction of NISAC Facility at Kirtland Air Force Base
    IAIP continues to move forward with the plans to build the 
facility, giving full consideration to the elements of the program and 
our obligation to comply with NEPA and other Federal statutes 
applicable to Federal construction projects.

    Senator Domenici. Thank you very much.
    Secretary Ridge. Yes, sir.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Murray.

    EFFORT TO IMPROVE CARGO SECURITY THROUGH OPERATION SAFE COMMERCE

    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. Secretary, as I mentioned in my earlier comments, the 
country's three largest cargo centers, load centers, have been 
working with the Department of Homeland Security and some of 
the private sector clients for the last 2 years in an effort to 
improve cargo security through Operation Safe Commerce. The 
ports of Seattle and Tacoma, the ports of Los Angeles, Long 
Beach, and New Jersey and New York have been really 
enthusiastic partners and are anxious to be meaningful 
contributors to the overall port security effort. And they are 
continuing to offer their facilities, their expertise, their 
goodwill, both domestically and abroad, to ensure our success.
    As you know, taxpayers have already committed to $75 
million for Operation Safe Commerce with the goal of really 
learning what works and what does not when it comes to securing 
containers. Unfortunately, because of the delay in funding 
Operation Safe Commerce, this pilot program is just now getting 
off the ground. But nonetheless, the load centers involved with 
this important program should have strong data about best 
practices, technology, and hardware this year.
    So I was really shocked when I saw the White House was 
eliminating this port security effort in their budget. And I 
wanted to tell you I think that is really shortsighted and 
really abandons the progress that our governments, our ports, 
our shippers in the private sector have been working really, 
really hard to achieve.

 STATUS OF OBLIGATION OF FUNDS APPROPRIATED FOR OPERATION SAFE COMMERCE

    So I wanted to ask you two questions this morning. First of 
all, only $58 million of the $75 million that Congress 
appropriated for Operation Safe Commerce has been obligated. 
Can you give us a time line for when the last $17 million that 
was appropriate is going to be obligated?
    Secretary Ridge. Senator, I cannot. I know that they draw 
down against the appropriation based upon their expansion of 
the pilot and whether or not sitting within the Department are 
invoices to be paid. I could not tell you, unless I go back and 
check. But I will certainly be pleased to do so.----
    Senator Murray. If you could have someone get back to us, 
because----
    Secretary Ridge [continuing]. It is clearly the intent of 
Congress with the appropriations over a 2-year period to have 
three very robust and very comprehensive pilots. I think that 
is also the reason that there is no funding in 2005. These are 
pilots. There are to be lessons learned. And again, $75 million 
for three pilot programs is a very, very substantial 
investment. We still need to see what lessons we learned and 
whether or not they are applicable to ports across the country.
    Senator Murray. Well, Mr. Secretary, I can tell you that if 
we do not continue to fund that in the next year, much of the 
progress that has been made, much that is just now being 
implemented, we will not be able to get the results back. And 
as you know, the point of Operation Safe Commerce was to find 
out what works out there and then be able to apply it to the 
other ports. If we do not find out what works, if we do not 
have the risk analysis back, if we do not have the results 
back, it will never get--the lessons learned will never be 
shared. And we will never have lessons learned.
    So I was really surprised that the administration is 
working to kill this program in the budget.
    Secretary Ridge. Well, I do think that if they need 
additional money on top of the $75 million, clearly a couple of 
those communities would have access to substantial additional 
dollars under the Urban Area Security Initiative that would be 
a follow-on.
    Senator Murray. If you are planning on funding it under 
that, that would put them against all first responders. I think 
port security, and I think you would agree with me, is such a 
high concern that we cannot start pitting these people against 
other really important issues. We need to fund this, fund it 
specifically, get the answers back.
    And again, this program, private sectors come together, 
ports have come together. Everyone is working very hard. They 
are just now beginning to learn what they need to do. And I 
think we should not shut them off.
    Secretary Ridge. Well, Senator, it will be incumbent upon 
me to get back and answer that first question to see where the 
additional $17 million are to be applied to the existing 
programs.
    [The information follows:]
Timeline for Obligating the Last $17 Million Appropriated for Operation 
                             Safe Commerce
    TSA anticipates that the Request for Applications for the $17 
million appropriated in fiscal year 2004 for Operation Safe Commerce 
(OSC) is on track to be released early this summer, with final award 
anticipated in the fall. This funding will be used to build on current 
OSC pilot projects, and may include other supply chains. The 
expenditure of the remaining funds will be fully coordinated within the 
Department and Congress to ensure that the cargo security efforts 
through OSC are integrated into broader departmental initiatives to 
secure the cargo supply chain security.

    Senator Murray. Well, would you agree that it would be wise 
to continue this program in the next fiscal year in order for 
us to learn what we can, to make sure that we are doing all we 
can to secure our ports?
    Secretary Ridge. Senator, it has been my impression that 
three pilots at $75 million, there ought to be some lessons 
learned with this infusion of very, very significant dollars.
    Senator Murray. Well----
    Secretary Ridge. And I guess the reason that the dollars 
were terminated is that we felt that you did have the 
collaboration. It is a great program. You do--one of the things 
that the Coast Guard has done historically very well, probably 
better than any other agency, is on a day-to-day basis they 
work with the private sector quite well. But you have three 
major ports, 2-year funding stream, $75 million. And the view 
is that is quite a bit of experimentation. There ought to be 
plenty of lessons learned after those $75 million are spent on 
pilot programs.
    Senator Murray. Well, because the funding was delayed, they 
are just at the point now of beginning to implement. The first 
container ship comes in in a few weeks to the Port of Tacoma 
that is--that they will begin to be able to analyze it. I know 
that the programs, the CSI and the C-TPAT are also out there.
    But I am positive you are aware of a recent GAO study that 
is called Preliminary Observations on Efforts to Target 
Security Inspections of Cargo Containers that those two 
programs do. It is very critical of the methodology that is 
incorporated in the customs and border protection initiatives. 
And I am happy to share that with you. It is extremely 
critical.

                CONTINUATION OF OPERATION SAFE COMMERCE

    But I think the point of Operation Safe Commerce is that we 
can learn from what they are doing to make sure that we are 
doing the reporting and analyzing, inspection, analyzing the 
risk levels. And if we do not continue this program, we are not 
going to have the information to do what is right in the 
future. We can be spending a lot of money in a lot of areas in 
ways that do not work.
    Secretary Ridge. Well, it is conceivable, Senator, and I do 
not offer this as the answer to the concern you have, but in 
the budget we are asking for more money for personnel to 
support our National Targeting Center. And I think there is a 
direct link between the lessons you learn dealing with the 
supply chain coming into ports and the National Targeting 
Center, which is at the heart.
    Senator Murray. Yes. I have been around long enough to know 
that if you do not name it, it does not get funded.
    Secretary Ridge. Well, I think when you have a new 
department and a department particularly that relies on the 
notion that we will never be able to inspect all 22 million 
containers that come into this country every year, and we have 
three major pilot programs out there, that there are lessons 
learned and that we ought to--if there is a possible 
connection, we ought to try to make it. I do not know if there 
is. It just seems to me, Senator, that after a couple years, 
there ought to be a couple lessons learned after $75 million 
has been spent.
    Senator Murray. Again, only $57 million has gone out. We 
still are waiting for the rest of it. And I think that we 
should not judge too soon on that. But I am happy to work with 
your office and supply information.
    Mr. Chairman, let me ask one more quick question under my 
time.

 FUNDING FOR IMPLEMENTATION OF THE MARITIME TRANSPORTATION SECURITY ACT

    The budget that was sent over includes $100 million for the 
implementation of the Maritime Transportation Security Act, 
MTSA. Admiral Collins testified before us last September that 
it would take $7.3 billion over 10 years to implement the MTSA, 
including $1.5 billion this year. I am very concerned that the 
President's request is 7 percent of what the commandant told us 
he needs to succeed. Do you share that concern?
    Secretary Ridge. Well, again, I do not have the 
understanding of the context with which the commandant shared 
that information with you. It is my understanding, however, 
that the sum that he was talking about included the additional 
security measures that would need to be employed at ports and 
vessels. That is not a sum that was necessary for the Coast 
Guard to conduct the studies at ports of interest or the safety 
security studies on vessels.
    So I think there is sufficient money in here for the Coast 
Guard to do its work. The gap is a place where we need to have 
a public debate as to whether or not it is the taxpayer's 
responsibility to fund, continue to fund port security or 
whether or not, since these basically are intermodal facilities 
where the private sector moves goods in and out for a profit, 
that they would be responsible for picking up most of the 
difference.
    So I think the dollars that we received this year empowers 
the Coast Guard and gives them the manpower to do port 
assessments and to look at 10,000 vessels and to do the 
security analysis. I think the gap is----
    Senator Murray. Are you suggesting that it is----
    Secretary Ridge [continuing]. The dollars for security.
    Senator Murray. So if I heard you correctly, you are saying 
that the private industry must now come up with this $7 billion 
over the next 10 years to implement the security for our 
Nation?

                 PRIVATE SECTOR SHARE OF PORT SECURITY

    Secretary Ridge. Well, we have an $11 trillion economy. 
Much of it is driven through imports and exports. Major 
companies use our ports. I can only refer back to the Federal 
investment, the State investment, and local investment in the 
ports of Philadelphia and Newark. There is plenty of public 
money in these ports already. They provide the land. They buy 
the cranes. They in many instances employ the personnel. So the 
notion that there is not much of a public investment in the 
courts, I do not think is, based on my experience in 
Pennsylvania, it is not accurate.
    At some point in time in the distribution chain--and my 
view is that ports are part of the supply chain and the 
distribution chain of the private sector----
    Senator Murray. Well, Mr. Secretary----
    Secretary Ridge [continuing]. That they ought to be able to 
defray some of the expenses associated with it.
    Senator Cochran. The time of the Senator has expired.
    Senator Murray. Mr. Secretary, just let me comment very 
quickly. I am listening to your logic, but I would just 
respectfully say that if one terminal or port in this country 
said, we are not going to ante up the money, we do not have it, 
and a terrorist used that weak link to come into this country, 
all of us would be paying for the consequences of that.
    Secretary Ridge. Well, Senator, this will be debated, 
obviously, in this subcommittee and on the floor of both 
chambers, and I am sure Congress has been generous. I think 
there is over a half a billion dollars out in port grants. I 
think this year the budget allows for nearly $50 million in 
port grants. I think it is going to be very important at some 
time in the near future that we engage the very appropriate 
public debate as to how much additional taxpayer financing 
should go into a piece of infrastructure that basically 
supports the private sector.
    They have a commercial and business interest in securing 
their supply chain. And I think, again, we will continue to 
provide, there is no doubt in my mind we will continue to 
provide some Federal resources, no doubt in my mind that States 
and local communities are going to continue to support their 
port authorities and their ports. But I also think we need to 
elevate the discussion so we determine what the role of the 
private sector is to help secure that infrastructure for 
themselves.
    Senator Murray. I look forward to that debate. Thank you.
    Secretary Ridge. Thank you.
    Senator Cochran. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Mr. Secretary, on Friday I landed at Tom Ridge Airport in 
Erie. And I want to report to you that it is a great airport.
    Secretary Ridge. Thank you, Senator.

 WAY TO RECONFIGURE THE CALCULATION FOR HIGH-RISK AREAS TO INCLUDE THE 
                TOM RIDGE AIRPORT AND ERIE, PENNSYLVANIA

    Senator Specter. I then went to a meeting of first 
responders and heard the concern that among the 50 high-risk 
areas, Erie is not included, largely because of the population 
factor. But they have a port, and they have access to a border 
with Canada. And my question to you is: Is there some way to 
reconfigure that calculation to include the Tom Ridge Airport 
and Erie?
    Secretary Ridge. Senator, the funding streams that Congress 
has generally supported the past 2 years through the Office of 
Domestic Preparedness had one portion that went to the States 
that was driven strictly by population, another portion that 
went to urban areas, where the Congress gave the department the 
flexibility to look at population density, critical 
infrastructure, the threat level, and make the appropriation.
    One of the adjustments, based on our thinking in terms of 
how we can better direct those dollars is to look at that one 
pool of money that historically goes to the States by formula, 
notwithstanding that every State, large or small, should get a 
certain level of funding, but to see, based on a broader 
statewide analysis of critical infrastructure, that those 
States should get actually more money depending if the critical 
infrastructure is in there.
    Senator Specter. Mr. Secretary, I am hesitant to interrupt 
you, but there is very limited time and I want to ask you three 
more questions.
    Secretary Ridge. Yes.
    Senator Specter. I would like you to take a look to see, if 
you might, we can figure the high-risk areas to include Erie. 
When you talk about the general fund, the minimum for each 
State is three-quarters of 1 percent, which means that 40 
percent of the funding, general fund and first responders, is 
taken off on the small States. And that has a very 
disproportionate share. For example, in Pennsylvania per capita 
we receive $5.83, and Wyoming receives $38.31. And that is the 
fund where we have to look to a city like Erie, community like 
Erie.
    Last August, I visited some 33 counties on first responders 
and designated one of my top deputes to review our State. What 
can you say about providing a little more equity for the 
general fund, especially when Erie is not a high-risk area and 
has to limit its intake from the general fund?
    Secretary Ridge. Well, Senator, I think our strategic 
decision to deal with that issue, not community-specific but to 
deal with the notion that every State should still get some 
minimum funding, but not all of that money in that program 
should be allocated strictly on population. Now that our agency 
has matured and now that we have strategic plans from the 
individual States every governor has submitted a strategic plan 
based on their needs, we have asked for the flexibility to 
distribute those dollars differently than just on a strict 
funding formula.

    FLEXIBILITY IN AUTHORITY TO DISTRIBUTE FUNDS TO HIGH-RISK AREAS

    Whether or not Congress gives us that flexibility to do so, 
so that States like Pennsylvania would have more resources to 
support communities such as Erie, or I would say Senator Levin 
would tell you support communities like Port Huron, which is a 
small community of 30,000 people, that has chemical farms, 
energy infrastructure, and all kinds of basically critical 
infrastructure, and they get nothing either.
    So that is our response to the need to address some of the 
needs of smaller communities.
    Senator Specter. The issue of your authority, Mr. 
Secretary, has been a discussion which you and I have had on 
many occasions. And as more information is coming to light 
about September 11, there are more indicators, more evidence, 
that if all of the information had been collected in one spot, 
9/11 might well have been prevented.
    And I know that there has been a change with the FBI and 
the CIA and other intelligence agencies to try to have better 
coordination. And this is a very involved matter. But I would 
appreciate it if your department, if you would give us an 
answer in writing, because we do not have time to go into it 
now, as to your evaluation as to how it is working.
    As I am sure you will remember, when we passed the bill in 
October of 2002 and the House of Representatives had left and 
it was take it or leave it in the Senate and I wanted to offer 
an amendment to give you the authority, as Secretary, to direct 
and have the critical authority, the issue went all the way to 
the President. And it was either get the bill in its form 
without having that authority and you or having it deferred 
until the spring. But I would like your evaluation as to how 
that is working.

                   HOW THREAT DETERMINATIONS ARE MADE

    And the final question I have within my 5 minutes, Mr. 
Chairman, is: What can you tell us within the bounds of 
security as to how you make the risk assessment on the 
different gradations? There is obviously enormous concern about 
whether, when, where there will be another 9/11. It has sort of 
recessed from our minds as time passes. But I know it is very 
much on your mind and very much on the President's mind. And 
you took some extra precautions recently over the holiday 
season. And you had made a comment that you thought that the 
precautions you took may well have averted another 9/11. And I 
think the expression you used was that you had a gut reaction 
to come to that sense or that conclusion.
    Secretary Ridge. Right.
    Senator Specter. I would be interested to know, and I think 
everybody would be interested to know, how you make the threat 
assessments, where you think we are generally at risk today, 
and, to the extent you can specify, how you think the 
precautions which you took may have prevented another 9/11.
    Secretary Ridge. Senator, I will try to be brief, but it 
does call for a fairly lengthy----
    Senator Specter. Oh, take your time. My time is over. Take 
your time.
    Secretary Ridge. Thank you, Senator. First of all, every 
single day, at least three times a day, there is formal 
interaction between the intelligence community, and that 
includes the Department of Homeland Security. Every morning the 
Attorney General, the FBI Director, the CIA Director, the 
Deputy, the Secretary of Homeland Security, and others meet 
with the President, Vice President, to go over the threat 
information from the previous day.
    Twice a day, later on that morning and in the afternoon, by 
secure video, the intelligence community examines the threats 
of that particular day, but obviously looks back at the 
reporting stream for previous days to see whether or not there 
was additional corroboration, whether or not they render any 
judgments with regard to the credibility, but over a period of 
time, Senator, through that process and that constant 
interaction at the Terrorist Integration Center, the 
interaction of the professional analysts, the CIA, even on ad 
hoc basis.

                    PROCESS FOR RAISING THREAT LEVEL

    At some point in time prior to about a week or so prior to 
when we raised the threat level in December--I say a week. I do 
not recall specifically. But at some point in time, the volume 
of the reporting, the nature of the reporting, assessments 
based on the credibility of the reporting were such that we 
began to look at the possibility of raising the national threat 
level. That process over a 24-, 36-hour period then led to the 
meeting of the President's Homeland Security Council. And that 
is Secretary of State and the Secretary of Defense and the 
Attorney General, the FBI Director, the Secretary of 
Transportation, yours truly.
    It is then discussed among these principals. And based upon 
that discussion, we made the decision to recommend to the 
President for the foreseeable future we raised the threat 
level. That, in very short fashion, is the process that we 
engage in to raise in.
    I note it is a process we have engaged in the past where we 
didn't raise it. And it had been 6 months since we took the 
national threat level up.
    Finally, Senator, I would say to you and your colleagues on 
the committee and, for that matter, the entire country, as we 
do, as this department works with the private sector to harden 
certain chemical facilities and energy facilities and the like, 
as we continue to do a better job of informing State and local 
law enforcement, as we continue to do our job, I believe we 
will raise the threshold even higher to go to the next threat 
level. Because initially, the national warning system was based 
simply on what we heard and perceived to be the threat. But 
there is also a risk analysis that we can now, because of the 
Department, have to plug into that equation.
    That may be the threat, but what is the risk based on, the 
precautionary or preventive or security measures that have been 
in place? You could have the same threat with no security, and 
you might want to raise it. You could have the same threat 
level but with more security and say, we are comfortable 
enough, given the present circumstances, perhaps to target 
information privately to a particular place, a particular site, 
but not take the entire country up.
    That would be the goal, because we are quite aware of the 
fact that raising the level nationally is a blunt instrument. 
Normally it requires a labor intensive response. But as we 
build permanent security measures across-the-board at the State 
and local level and in the private sector, it should be more 
difficult to take it up, because we will have reduced the risk 
by adding additional security measures.
    Senator Specter. Thank you.
    Senator Cochran. Your time has expired, Senator. Thank you.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. And I will put my 
post-statement in the record.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    Mr. Secretary, I want to thank you for coming to testify before us 
today.
    We are entering the second year of this subcommittee and in that 
time there have been many changes to your department and there are new 
challenges facing the country. I appreciate your appearance here to 
discuss the Administration's priorities in the new fiscal year.
    For the past year, you have supervised many constituents of mine 
who are former employees of the Immigration and Naturalization Service 
and who now work for the Bureaus of Customs and Border Protection, 
Immigration and Customs Enforcement, and Citizenship and Immigration 
Services.
    A year ago, I praised them to you and told you they would exceed 
your expectations--I trust that they have done so.
    At the same time, you and others at the Department told me that you 
would make full use of these excellent employees, and that the Vermont 
workforce would not decline as part of the reorganization. You have 
kept that pledge, and I look forward to continuing to work with you to 
ensure that these employees contribute to protecting and enhancing our 
Nation.
    I would like to turn however to President Bush's proposed homeland 
security budget for fiscal year 2005 that was sent up here by the 
Administration and share with you a few of my concerns.
    I was extremely disappointed that the budget drops the all-state 
minimum formula, which I authored, from the State Homeland Security 
Grant Program administered by the Office for Domestic Preparedness 
(ODP). This formula assures that each state's first responders receive 
a minimum of .75 percent of those grants to help support their basic 
preparedness needs.
    Not only would this change result in the loss of tens of millions 
in homeland security funding for the fire, police and rescue 
departments in Vermont and other small- and medium-sized states, but 
also deal a crippling blow to their efforts to build and sustain their 
terrorism preparedness.
    Mr. Secretary, you and I have spoken many times in public and 
private on how to fairly allocate domestic terrorism preparedness funds 
to our states and local communities. We both agree that each State has 
basic terrorism preparedness needs and, therefore, a minimum amount of 
domestic terrorism preparedness funds is appropriate for each state. We 
both agree that highly populated, highly threatened and highly 
vulnerable areas have terrorism preparedness needs beyond those basic 
needs for each state. Most importantly, though, we both agree that 
homeland security is a national responsibility shared by all states, 
regardless of size.
    On January 28, I spoke with Sue Mencer, the Executive Director of 
the new Office of State and Local Government Coordination and 
Preparedness (SLGCP), about the merging of organizational units within 
the Homeland Security Department. During our exchange I mentioned the 
importance of the all-state minimum requirement and Ms. Mencer assured 
me that the fiscal year 2005 DHS budget proposal would include the .75 
percent all-state minimum.
    You can imagine my surprise, then, when I read in the President's 
budget proposal that the grants to States for addressing State and 
local homeland security requirements and Citizen Corps activities and 
law enforcement terrorism prevention grants would be allocated among 
the states based on population concentrations, critical 
infrastructures, and other significant terrorism risk factors. Not only 
was I troubled to see that grants to States for addressing State and 
local homeland security requirements and Citizen Corps activities and 
law enforcement terrorism prevention grants had been cut by nearly $1 
billion, but without the all-state minimum protection for smaller 
states, there is no assurance of funding under these programs.
    I wrote the all-state minimum formula to guarantee that each State 
receives at least .75 percent of the national allotment to help meet 
their national domestic security needs. I strongly believe that every 
state--rural or urban, small or large--has basic domestic security 
needs and deserves to receive Federal funds to meet those needs.
    After the terrorist attacks of September 11, 2001, we have worked 
together to meet the needs of all State and local first responders from 
both rural and urban areas. Now, however, it appears that the President 
wants to shortchange rural states, rolling back the hard-won progress 
we have begun to make in homeland security. Our fire, police and rescue 
teams in each State in the Nation deserve support in achieving the new 
homeland security responsibilities the Federal Government demands.
    I ask that you support a budget supplement amendment to restore the 
.75 percent minimum to the State Formula Grants Program. I look forward 
to speaking and working further with you and my colleagues on this 
matter.
    Representatives of urban states have argued that Federal money to 
fight terrorism is being sent to areas that do not need it and is 
``wasted'' in small towns. They have called the formula highly 
politicized and insisted on the redirection of funds to urban areas 
that they believe face heightened threat of terrorist attacks.
    What critics of the all-state minimum seem to forget, though, is 
that since the September 11 terrorist attacks, the American people have 
asked ALL State and local first responders to defend us as never before 
on the front lines in the war against terrorism. Vermont's emergency 
responders have the same responsibilities as those in any other State 
to provide enhanced protection, preparedness and response against 
terrorists. We must ensure that adequate support and resources are 
provided for our police, fire and EMS services in every State if we 
expect them to continue protecting us from terrorists or responding to 
terrorist attacks, as well as carry out their routine responsibilities.
    Most of the cuts to the formula-based and law enforcement 
prevention grants were made to increase to $1.4 billion the 
discretionary grants for use in 50 specific high-threat, high-density 
urban areas. While I recognize that enhancing the security of those 
urban areas represents a critical national priority, I cannot support 
both a drastic reduction in the formula-based and law enforcement 
prevention grants and a barring of small states' access to even a 
portion of the more than $2.7 billion that the formula-based and law 
enforcement prevention grants and Urban Area Security Initiative grants 
would total.
    Fostering divisions between states ignores the real problem: the 
President has failed to make first responders a high enough priority. 
We should be looking to increase the funds to our Nation's first 
responders. Instead, we see the President proposing to cut overall 
funding for our Nation's first responders by $800 million. These cuts 
will affect each state, regardless of size or population.
    The Hart-Rudman report on domestic preparedness argued that the 
United States will fall approximately $98.4 billion short of meeting 
critical emergency responder needs over the next 5 years if current 
funding levels are maintained. Clearly, the domestic preparedness funds 
available are still not enough to protect from, prepare for and respond 
to future domestic terrorist attacks anywhere on American soil.

    Senator Leahy. Governor Ridge, it is always good to have 
you back here.
    Secretary Ridge. Senator, thank you.
    Senator Leahy. I have not flown into the Tom Ridge Airport, 
but----
    Secretary Ridge. You do not have that many flight options, 
Senator. But----
    Senator Leahy. Should you come to Burlington, Vermont, feel 
free to stop by the Leahy Center.

  PROPOSAL TO DROP THE ALL-STATE MINIMUM FORMULA FOR ALLOCATING STATE 
                     HOMELAND SECURITY GRANT FUNDS

    Governor, I have to state that I really was disappointed 
that the President's proposed budget for fiscal year 2005 drops 
the all-state minimum formula. I authored that. They dropped it 
from the State homeland security grant. And you probably do not 
need reminding, but this says that each State will receive a 
minimum three-quarters of 1 percent of those grants to help 
support the first responders basic preparedness.
    I thought I would bring this up because with the makeup of 
this subcommittee, that would affect all but, I think, one or 
two on this subcommittee. So it may be more than a passing 
interest. But more than that, it would result in the loss of 
millions of dollars in homeland security funding for fire, 
police, rescue departments in small and medium-sized States. I 
think it would create a crippling blow for their efforts to 
build and sustain their terrorism preparedness.
    And these small States, each have a particular need that 
may be different. Some are like my State. They are a border 
State. Others have major ports in them, may have natural--or 
may have energy facilities important not just to their State 
but to the rest of the country. And you and I have spoken about 
how to fairly allocate domestic terrorism preparedness, funds 
to our States and local communities. You have been very 
forthcoming on that, as have your staff.
    I thought we had agreed that fire, police, emergency 
medical rescue teams in each State deserve support in carrying 
out the new homeland security responsibilities that the Federal 
Government demands of it. So I was surprised, knowing that on 
the one hand these States are being required to carry out these 
demands. You read that in the budget there will be allocated 
among the States based on population concentrations, critical 
infrastructures, and other significant terrorism risk factors, 
as determined by you.

                         IMPACT ON RURAL STATES

    I believe it means the administration wants to shortchange 
rural States, wants to roll back the hard-won progress we have 
begun to make in homeland security by slashing the protections 
in the all-state minimum. Now I am strongly committed to the 
critical national priority of enhancing urban areas. I have 
supported legislation, especially some of the particularly 
targeted urban areas where we are today in New York City and 
elsewhere.
    But I cannot go and tell rural areas that, sorry, you are 
not big enough to have to worry, even though, if I was planning 
a terrorism attack, I would know that, for example, attacking 
the Tom Ridge Airport is going to get as much international 
coverage as attacking JFK or LAX, because it is a United States 
airport within our boundaries.
    So would you agree that homeland security is a national 
responsibility shared by all 50 of the States regardless of 
their size?
    Secretary Ridge. Senator, yes. I think one of the 
challenges for the Department of Homeland Security is to 
integrate the capacity we have within our States and local 
communities, match it up with the Federal effort to combat 
terrorism. So there is a shared fiscal responsibility. There is 
a shared operational responsibility. It is a national plan, not 
just a Federal one.
    Senator Leahy. But then in these States they have to do a 
certain amount of minimum--I do not know whether it was the 
State of Idaho or West Virginia, Vermont. There is only one 
State smaller than Vermont in population, Wyoming. But whatever 
the State is, they have to do a certain amount of minimum 
preparation, communications. Whether it is in a State of half a 
million or four million, they have to do certain basic things. 
You have to have basic ideas for planning, for response 
equipment, fire, police, and so forth.

 SUPPORT OF FUNDING TO RESTORE THE THREE-QUARTERS OF 1 PERCENT MINIMUM 
                  TO THE STATE FORMULA GRANTS PROGRAM

    So if you accept the fact that there are certain minimum 
things that have to be done wherever we are, would you support 
a budget supplement amendment to restore the three-quarters of 
1 percent minimum to the State formula grants program, which 
include the State homeland security grant program, the Citizen 
Corps, and the law enforcement terrorism prevention grants 
program?
    Secretary Ridge. Senator, I would much prefer the approach 
as embodied in the President's budget, that as we take a look 
at the dollars that have historically been allocated to States 
Strictly on a formula, that the Secretary be given the 
flexibility, understanding that he has just testified now and 
believes that there ought to be some minimum that goes to every 
State and territory.
    Senator Leahy. What is that minimum?
    Secretary Ridge. We would certainly have to sit down and--
--
    Senator Leahy. I mean, it is .75 now. Is that too much? Too 
little?
    Secretary Ridge. Senator, frankly, I would like to take a 
look at all of the statewide plans that the Governors have 
submitted to us and make that determination. And we certainly 
cannot deal with this privately. I will have to be engaged with 
you and your colleagues here, because I am mindful that there 
are basic infrastructure needs in all 50 States and 
territories. But the language that we have submitted in this 
document would give the Department some flexibility based on 
needs, not just on population.
    Senator Leahy. I understand. But on that flexibility, you 
have to understand that a lot of smaller States and rural areas 
are concerned because, one, it shows there is no guarantee that 
they will get anything. And secondly, when the President had 
proposed an $805 million cut in funds for the Office of 
Domestic Preparedness, those are programs that directly benefit 
the police, fire and medical rescue units, you put that 
together with the fact of this safety net for smaller States is 
gone, at the same time of an 18.4 percent cut in funds for the 
Office of Domestic Preparedness, $805 million is there.
    You have the Hart-Rudman Terrorism Task Force report saying 
that we are going to almost $100 billion short of meeting 
critical emergency responder needs through this decade's end, 
if these current fundings are going on. You know, if I am a 
Governor--and you have been a Governor; I have not--if I am a 
Governor, I am going to be asking how is my State first 
responders going to be able to fulfill the mandates coming from 
Washington when the President is proposing to decrease, not 
expand, but decrease the money, expand the amount that is 
required.
    I mean, every time we go up to orange alert or whatever, 
the requirements go up. Every time there is even a regional 
threat, the requirements go up.
    What is being asked of these State and local groups goes up 
all the time, but the money is going down. And even the 
guarantee of what money was there within the budget is now 
gone. If you were a Governor of one those States, you would be 
kind of worried.
    Secretary Ridge. Senator, first of all, I would say to you 
that the President's commitment in the 2005 budget to first 
responders' dollar amount in terms of the budget proposal is as 
strong as it was in 2004. The difference that we are talking 
about are the additional funds that Congress added to the 
President's request. So I think we need to understand that the 
President----
    Senator Leahy. Well, not really, if I might.
    Secretary Ridge. Well----

                        FIRST RESPONDER FUNDING

    Senator Leahy. This fiscal year, Congress appropriated $4.2 
billion for first responders and homeland security needs. We 
are a lot more alert since then, but the administration has 
proposed a $3.5 billion package for fiscal year 2005 that cuts 
the Fire Act and grants programs to State and local areas. And 
you have put that along with the President's opposition to 
using Federal dollars to hire fire and rescue, even though we 
know what that was like on September 11 at the World Trade 
towers or over here at the Pentagon.
    No, I do not say that you could say the commitment is still 
there. The cuts are there; the commitment is not.
    Secretary Ridge. Senator, we arrive at differing 
conclusions based on the same figures. Maybe that is the 
trouble with the new math.
    Senator Leahy. Oh, the figures are less.
    Secretary Ridge. If I recall correctly, and I will stand 
corrected, Senator, but by and large, if you take a look at the 
request in 2004 for the fire grants and admittedly, we have 
shifted some money from one pool, the State direct funding 
grant, to the urban area security initiative, but by and large 
the President's request is close to what it was in 2004. The 
Congress added additional money. And I think that is what you 
are referring to as a cut. But the President's commitment, in 
terms of his budget request, is nearly the same as it was in 
2004.
    Senator Cochran. The time of the Senator has expired.
    Senator Leahy. Thank you. I will submit further questions, 
if I might, for the record. And I applaud you for holding this 
hearing. I think it is going to be a subject of more than a 
little discussion in this committee.
    Senator Cochran. Thank you, Senator.
    Secretary Ridge. Yes, it is.
    Senator Cochran. Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman.

                    CANCELLED INTERNATIONAL FLIGHTS

    Secretary Ridge, I would like to return to the question of 
those canceled flights----
    Secretary Ridge. Yes, sir.
    Senator Kohl [continuing]. Of which I believe there were 13 
from France, Britain, and Mexico. In one case, British Airways 
flight 223, as you know, was canceled four times. Evidently, 
this was done because of specific information that our 
intelligence community obtained about potential threats on 
board these flights.
    Common sense would suggest that when we have detailed 
information about a particular flight, then heightened 
screening measures could ensure that no dangerous instruments 
be taken on board these flights which might allow individuals 
to hijack. Was cancellation the only option?
    Secretary Ridge. As we discussed the threat with the 
airlines, and it was an ongoing discussion through that entire 
period, it turned out from everyone's point of view to be the 
best option.
    Senator Kohl. Does this imply that screening procedures in 
other countries are inadequate?
    Secretary Ridge. Well, since that time, and even prior to 
that time, Great Britain and to that extent France have 
significantly, I do not want to say improved, because they had 
a high level of screening to start with. But it is far more 
intense than it has ever been.
    But there was some concern in the public discussion, about 
our preference to use air marshals. And that those kinds of 
requests need to be vetted. We use thousands of them. Other 
countries do not provide that kind of security in such a robust 
or comprehensive fashion that we do.
    So again, as we explored options to deal with the threat, 
it was decided by the airlines, they thought their best option 
was to cancel the flights. And we agreed with them.
    Senator Kohl. Well, what kind of security can be 
instituted, for example, to protect against biological or 
chemical kinds of threats on an aircraft?
    Secretary Ridge. Well, you highlight from my perspective, 
Senator, probably one of the most effective. And that is far 
more rigorous and intense screening. And I think under the 
circumstances that was certainly an option that they were 
prepared to consider.
    I think in time, as we develop the technology of detection 
and put it aboard different modes of transportation, that will 
ultimately advise us that an attack has occurred, but will 
obviously not have given us the capacity to prevent the attack. 
And I think probably the most important focus that we should 
have with regard to aviation security, mindful of the need to 
identify weapons, but we should be more focused on the 
individuals who might be carrying the weapons. I mean, that is 
at the heart of the CAPS II Program that we want to use for 
domestic aviation purposes.

                        TECHNOLOGY OF DETECTION

    So additional screening, yes, I believe the international 
standards, particularly among our allies in Europe. And they 
have really ramped up their screening, but not everybody has 
done that internationally. One of the first series of grants we 
sent out through the department was to identify the technology 
of detection that would enable us to--we would be advised that 
an incident had occurred. And we would obviously have to 
respond to it as quickly as possible. But it is still not to a 
point where we can put it in any form of transportation.
    And until such time, the most important thing for us to do, 
while we continue to focus on weapons, continue to have people 
go through metal detectors, continue to search through the 
contents of the carry-on luggage, continue to screen the 
luggage that goes in the hold, the most important focus should 
be the individuals and the likelihood that they would be a 
terrorist.

                    SCREENING FOR BIOLOGICAL WEAPONS

    Senator Kohl. You must know the answer to this question. Do 
we have the capacity to screen for biological weapons?
    Secretary Ridge. We do not have the technology yet 
available to do that. We are looking for it. Right now----
    Senator Kohl. So that--not necessarily in the case of those 
canceled flights, but generally speaking, when it comes to 
biological weapons, it then becomes a determination as to 
whether or not the individual----
    Secretary Ridge. Correct.
    Senator Kohl [continuing]. Is somebody that might be 
suspected or capable of taking a biological weapon on a plane. 
And that might cause a cancellation----
    Secretary Ridge. Correct.
    Senator Kohl [continuing]. Not the screening, because we do 
not have that capacity right now.
    Secretary Ridge. Correct. It is a high priority for the 
Department in terms of its research and development. But right 
now, we have to rely on individual screeners. And we have 
certainly, since the Department has been created, discovered 
from interrogation of detainees, training manuals, and other 
sources, means of, potential means of, delivery of those kinds 
of weapons or ingredients. The screeners are aware of them. But 
it still comes down to the capacity of the screener to, again, 
funnel that information, take a look at what is being carried 
on or what is located in the suitcase and make a determination 
that it needs to be pulled out and examined. And we do not have 
the technology to assist the screener yet.
    Senator Kohl. Okay. Do I have time for one more question?
    Senator Cochran. The Senator does have time for one more 
question, yes.
    Senator Kohl. Thank you.

                          FRAUDULENT DOCUMENTS

    Secretary Ridge, initially we were told that all September 
11 hijackers entered the country legally, many of them on 
student visas, then disappeared into the shadows of our society 
to avoid detection. But now the independent commission is 
telling us that many of the hijackers could have, or probably 
should have, been stopped at the border prior to entering.
    It turns out that a number of the hijackers had fraudulent 
visas or lied on their applications. Apparently, immigration 
inspectors, whether it was because of insufficient resources or 
training, lacked the ability to catch these terrorists before 
they entered the country. Recognizing that there is a problem 
here, what is being done to train our INS inspectors to enable 
them to spot fraudulent and deficient visas in order to stop 
potential terrorists at the border?
    Secretary Ridge. Senator, you raise a very significant 
problem in the international community generally. That is one 
of fraudulent documents, whether they are using them to verify 
their existence here in the United States with fraudulent 
social security cards or driver's licenses or whether they are 
using them to come across our borders with visas and passports.
    Number one, there is, I think, very significant training 
that has been required and provided to the men and women at our 
ports of entry. Number two, the Congress has told us that we 
need an entry-exit system so we can mark the arrival, as well 
as the departure of people coming into the country. That is 
part of the US VISIT protocol, where, by using facial 
identification and fingerprint scans, we have already reviewed 
about a million people coming into the country, and we have 
sent over 100 people back. We did not allow them to enter 
because of information we had on the database; not necessarily 
because they were terrorists, but because there were other--
basically, it was a criminal reference.
    That same kind of identification protocol will be employed 
in consular offices by the end of this year, the photographs 
and the fingerprint scans, so at least we can make sure that 
the folks that receive the passport are the ones who are 
checking in with the passport when they try to come into the 
country. So you take that, you couple it with additional 
training to look for fraudulent passports, we have 
substantially improved that capacity. But we have to be forever 
vigilant.
    I must tell you that on a fairly regular basis, Senator--
and I get a daily report from Customs and Border Protection. We 
have, on a fairly regular basis, these very, very dedicated men 
and women at the border turn folks away because of the 
fraudulent nature of their visa or their passport. They do not 
pretend to say that they catch them all. But their antenna is 
up, and they are as sharp as we want them to be. We continue to 
give them information as to what to look for.
    You know, from time to time, we discover that other 
countries have had passports stolen. We work with those 
countries to get identifying characteristics on those 
passports. That information is pushed down to the ports of 
entry.
    So again, it is a continuing process of education, 
vigilance. I think the US VISIT Program is going to help us 
quite a bit, as well.
    Senator Kohl. Thank you, Mr. Secretary.
    And Mr. Chairman, I will submit my questions for the 
record.
    Senator Cochran. Thank you, Senator Kohl.
    Senator Craig.

                    IMMIGRATION AND BORDER SECURITY

    Senator Craig. Mr. Chairman, on a variety of questions, I 
will submit them for the record so the Secretary can respond. I 
want to focus just in one area.
    And I apologize, Secretary, for being late for your 
testimony. But during the questioning, I have had an 
opportunity to read it, and I appreciate it.
    Let me focus only on one area now and that is the issue of 
immigration and securing our borders. And I am very pleased 
that our President is now leading on that issue as it relates 
to an undocumented workforce in this country. I say that 
because my State and many States across the Nation need that 
workforce.
    Without question, there is a need in our economy for six or 
eight million foreign nationals to be here working and 
receiving good pay and doing services that our own citizens 
choose not to. So it is so important that we make this system 
work.
    I think one of the unknown consequences of border security 
post 9/11, while we were intending to lock people out, we 
locked a lot of people in who were moving back and forth across 
our borders, providing services, going home to their loved 
ones, and because of now the toughness at the border, choosing 
to stay in because they cannot, once get out, come back. And in 
my State of Idaho, at the peak of the agricultural season, we 
may have anywhere from 19,000 to 20,000 undocumented. I have 
some legislation in that area now that we are working on.

                          UNDOCUMENTED WORKERS

    But here is what I have found and where my question takes 
me today in dealing with local law enforcement and undocumented 
workers. I see you are going to hire some more agents. Well, we 
have gone from 3,000 to 10,000 at the border. And we have begun 
to stem the tide of an undocumented workforce. We arrested over 
800,000 last year and deported them, and there are millions 
within the country. Why? Because of what is here for them to do 
and to make money and to go home to their loved ones, if they 
can, or to stay here.
    In one county of mine, the county sheriff tells me that he 
arrested or apprehended over 1,200 undocumented workers. That 
was borne by county taxpayer expense. They were jailed at 
county taxpayer expense. Let me suggest to you that it is my 
experience, in having focused on this issue for the last 5 
years, that the National Immigration Service and now the new 
service is relatively inadequate in being able to effectively 
find undocumented workers. But I know who does, local law 
enforcement.
    Now I would suggest to you that you review your idea of 
hiring more agents and you concentrate on cooperative 
partnerships with local law enforcement, maybe with some 
assisted training. As it relates to their normal course of law 
enforcement, they are the ones who find, in most instances, the 
undocumented workers or the undocumented foreign nationals in 
this country. And some may be certainly people of bad 
reputation. Others are simply here to work.
    Also, I would suggest, and you just got into the business 
of talking about fraudulent documentation. And I understand 
here you talk about providing certain deterrents to the 
employers as an incentive to maintain a legal workforce. That 
is legitimate when the documentation is legitimate.
    But to find a person whose livelihood would be destroyed 
because they cannot find the work and they hire foreign 
nationals who have documentation to do their work, to harvest 
the food that goes onto the shelves of America, and then to put 
them at risk because they accepted the documents that were 
available, you see where I am going, it becomes the ultimate 
catch-22.
    And so I am proud of what the President is doing. I know it 
is highly controversial. I happen to disagree a little bit on 
the fine points of the issue. But he has been willing to step 
up and address the issue, the 8 to 12 million undocumented that 
we have in this country and the laxness and the slackness that 
we have had at our borders for decades.
    But having said that, reform is at hand. And you are 
leading that. And I greatly appreciate it. But I would suggest 
that if the answer is simply to hire more Federal agents, why?
    The biggest thing that I have been frustrated with over the 
years is that when you had drug apprehension or all of those 
other kinds of things, and every agency developed its own 
police force--and out in my State, the Forest Service, they had 
to have law enforcement. BLM had to have law enforcement.

   COOPERATIVE LAW ENFORCEMENT WITH LOCAL ACCOUNTABLE LAW ENFORCEMENT

    Well, I know what they used to do. They used to develop 
cooperative law enforcement agreements with local accountable 
law enforcement. And that is where the rubber really hits the 
road on a daily basis. And I think that it is not only cost 
effective, but with right and reasonable training, it can be 
phenomenally responsive for a lot less cost.
    That is an observation. I have no questions, Mr. Chairman.
    But I would ask you, Mr. Secretary, to take a comprehensive 
look at that. We have some legislation moving now. I would lots 
rather see you take the initiative now and begin to get it on 
the ground, because our counties are experiencing a lot of 
costs in those hot areas of high intensity undocumented 
workers. And often, it is they who pick up the phone and call 
the INS and tell them: Hey, here are your people. Come get 
them.
    Secretary Ridge. Thank you, Senator. I would look forward 
to having that, continuing this discussion privately, because 
however this plan evolves, it will only be effective if the 
right level of resources are given to the right people in order 
to enforce it. And our limited experience with collaboration 
with the States, in terms of apprehension and detention of 
illegal aliens, has been mixed. Some States are willing to do 
it; other are not.
    Part of the reason may be philosophical. Others may be 
fiscal. Either way, you have 650,000 men and women in local law 
enforcement that should be viewed as a potential asset and 
resource in enforcing the new law, whatever it might be.
    Senator Craig. Thank you.
    Mr. Chairman, thank you.

                  COAST GUARD OFFSHORE PATROL CUTTERS

    Senator Cochran. Thank you, Senator Craig.
    Mr. Secretary, one of the responsibilities that the 
department has is the United States Coast Guard operations, 
particularly for patrolling our coasts and ports, contributing 
to our security of the homeland in that way. The budget request 
includes $26.2 million to support the operation of five patrol 
coastal cutters that are being transferred to the Coast Guard 
from the Navy. My question is whether your office, and you 
personally, have information that will let us know what the 
time frame is for the Coast Guard receiving these patrol 
coastal cutters from the Navy and whether there is funding that 
is sufficient in this budget request to convert the Coast Guard 
cutters into mission-capable boats for the operation of the 
missions that are required.
    Secretary Ridge. Senator, I believe that the deployment 
decision with regard to those five vessels should be 
forthcoming in the next month or two. I know that they are 
looking at two. They are looking to just narrow the gaps in 
existing coverage. I know one of the venues they are looking at 
is in Mississippi. I dare not speak for the Commandant. But 
there is an interest in distributing those five cutters in two 
different ports.
    They certainly are going to maintain their capability. I 
think we have sufficient resources once they are deployed to 
use them effectively. But the decision as to when and where 
they will be deployed, I believe, is in the next 4 to 6 weeks.

                         ALTERATION OF BRIDGES

    Senator Cochran. One of the other counts in the Coast 
Guard's budget request of interest to some of us is in the 
funding for alteration of bridges. There is no funding in this 
budget request that would permit the Coast Guard to carry out 
its responsibility of removing obstructions to commerce on 
navigable waters. There is a backlog of work that needs to be 
done to help ensure the safe navigation of rivers and ports. It 
is my hope that your office will take a look at that and let us 
know what funding may be useful to the Coast Guard to continue 
certain bridge projects that are already under way but which 
are not fully funded in this budget request.
    It forces this committee to add funds to help ensure the 
navigability of waters of the United States. So it is something 
that has to be done, it seems to me. And working with your 
office or with the Coast Guard, getting some indication of what 
that funding level ought to be would be very helpful to us.
    Secretary Ridge. Senator, we will certainly acknowledge 
your inquiry and get back to you as quickly as possible. I do 
not know what the Coast Guard's plans are to continue to remove 
these navigational obstructions or to make those kinds of 
adjustments in ports. I need to get back to you in response.
    [The information follows:]

                         Alteration of Bridges

    The Coast Guard's Alteration of Bridges request is zero in fiscal 
year 2005, because obstructive highway and combination railroad/highway 
bridges are eligible for funding from the Federal Highway 
Administration's Federal-Aid Highway program. It is estimated that a 
total of $15.1 million is needed to complete the three Truman-Hobbs 
bridge alteration projects actively under construction: the Florida 
Avenue Bridge in New Orleans, Louisiana; the Sidney Lanier Bridge in 
Brunswick, Georgia; and, the Limehouse Bridge, in Charleston County, 
South Carolina. All three of these bridges are highway bridges. In 
addition, there are five bridge projects with completed designs for 
alteration: the Burlington Northern Santa Fe Bridge in Burlington, 
Iowa; the Burlington Northern Santa Fe Bridge in Fort Madison, Iowa; 
the Chelsea Street Bridge in Boston, Massachusetts; the EJ&E Bridge in 
Divine, Illinois; and, the CSXT (14 Mile) Bridge in Mobile, Alabama.

           NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN

    Senator Cochran. Okay. The Secret Service, as we know, has 
responsibility for monitoring counterfeiting and investigating 
counterfeiting of our currency. It has the National Center for 
Missing and Exploited Children, as well. The budget transfers 
funding for the national center from the Secret Service budget 
to the Bureau of Immigration and Customs Enforcement. The 
question I have is: We want to be sure this does not hinder the 
Service's ability to provide support for the center.
    If we could have an indication that the funds that are 
being transferred will support the Secret Service's mission, 
that would be helpful.
    Secretary Ridge. Senator, I feel confident in telling you 
that the transfer of the responsibility to ICE was done in 
consultation with the Secret Service. It has been at the hub of 
their new initiative called Operation Predator. And we will 
give you the confirmation that you seek in writing.
    [The information follows:]

    Grant Funding for the National Center for Missing and Exploited 
                                Children

    The President's budget proposes that the funding for a $5,000,000 
grant for the National Center for Missing and Exploited Children 
(NMEC), which in fiscal year 2004 is funded in the U.S. Secret 
Service's appropriation, be placed in fiscal year 2005 in an 
appropriation to U.S. Immigration and Custom Enforcement. In fiscal 
year 2004 this grant will be made available by the U.S. Secret Service 
to the NMEC for activities related to the investigations of exploited 
children. Transfer of this grant funding to the ICE does not affect the 
Service's support for the Center for Missing and Exploited Children. 
The Service will continue to provide forensic and other related support 
to the NCMEC.

    Senator Cochran. Thank you.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.

                       AMNESTY FOR ILLEGAL ALIENS

    Mr. Secretary, you indicated earlier that you are not 
prepared to give us estimates on the cost of the implementation 
of the President's principals on amnesty for illegal aliens. 
Are you in a position to have some indication of how many more 
agents would be transferred from security and enforcement to 
carry out the President's plan?
    Secretary Ridge. Senator, I do not at this time. Your 
colleague, Senator Craig, suggested in a colloquy that we just 
had, however, that we might want to consider, whenever that 
plan is enacted, the use of State and locals and support them 
in that effort rather than additional enforcement officers at 
the Federal level. I suspect it will end up being some measure 
of both. Because whenever the initiative is passed, enforcement 
is a critical piece of it. But we just cannot give you those 
specific numbers of either people or money at the present time, 
Senator.
    Senator Byrd. I believe you indicated, in response to an 
earlier question, that you did not anticipate any supplemental 
requests from the department.
    Secretary Ridge. At the present time, Senator, we do not.
    Senator Byrd. So, how does this play into the amnesty 
proposal, if we do not anticipate any supplemental? If we do 
expect any legislation on the President's proposal, what do you 
think might be the situation with regard to a supplemental?
    Secretary Ridge. Senator, first of all, I was here back in, 
I think it was, 1985 or 1986 as a Member of Congress when we 
went through this issue before. And as you and I are well 
aware, back then amnesty and those folks were able to just 
assume, I think, a different position even in terms of their 
own citizenship. There is a little bit difference, there is a 
significant difference, between what the President wants to do 
in this program and what we did in the past.
    But in any event, we are going to need substantial 
resources to enforce it. And I am still not in a position, 
Senator, until we better understand Congress' will and the 
requirements or mandates that you may impose on the department, 
what the final dollar amount will be.

                                CAPPS II

    Senator Byrd. The department has been making preparations 
to implement CAPPS II, a new information system for screening 
airline passengers to determine if a passenger is a security 
risk prior to their boarding an aircraft. Based on our staff 
discussions with the department on the status of CAPPS II, we 
have very real concerns that the department has not made 
sufficient progress in meeting their criteria and addressing 
concerns that we all have.
    What are your plans for this system? How do you believe 
that you have met the requirements of the law for deployment of 
this important system?
    Secretary Ridge. Senator, first of all, I would welcome, 
either by letter or personal conversation with you or your 
staff the specific concerns that you have with the CAPPS II 
program. Secondly, it is our intention, Senator, to test, to 
begin testing the program sometime later this year. There have 
been some delays associated with the testing, as we have dealt 
with some of the privacy issues associated with the use of 
name, address, date of birth, and other passenger name records 
that we would use as part of the database to get the program 
off and running.
    We have reached agreement with the European Union that we 
can use their passenger name records as part of our testing 
protocol. And we are trying to allay the legitimate concerns of 
members of Congress and the public generally that the 
information at our disposal will be for a very specific and 
very limited use. And it will enable us to target potential 
terrorists on the other side and enable us, we think, probably 
to reduce the amount of secondary screening and reduce the 
inconvenience and the delays at our commercial airports.
    So I do not know the specific objections you have raised. 
One of the insertions into the Homeland Security Act from 
Congress was the insistence that we have a privacy officer. And 
Attorney O'Connor and her staff have been working on these 
privacy issues, working with me to convince the European Union 
that the information would be for a very limited and restricted 
use. And we need to convince members of Congress and the 
traveling public that it will be for a limited and restricted 
use, as well.
    Senator Byrd. Our concerns are detailed in the fiscal year 
2004 Homeland Security Appropriations Act. Our concerns are 
that the department has not yet addressed the requirements of 
the law.
    Secretary Ridge. Well, part of it may be our need to--we 
may have a difference of opinion on this, Senator. We certainly 
would look to secure bipartisan support for this test so that 
we could add an additional layer of protection to passenger 
travel. We have spent enormous sums of money, and very 
appropriately so, when we targeted commercial aviation, toward 
detecting weapons.
    And while I think we need to maintain our focus on weapons, 
I think ultimately, as we combat terrorism, the primary focus 
should be on those who might carry the weapons, trying to 
identify the terrorist or potential terrorist rather than the 
weapon that he or she may be carrying. And I think the CAPPS II 
program gives us an opportunity in part to do just that.

                     OVERDUE CONGRESSIONAL REPORTS

    Senator Byrd. In the fiscal year 2004 Homeland Security 
Appropriations Act and associated reports, the Congress 
directed the department to report to the committee on important 
issues ranging from the protection of critical infrastructure, 
hiring issues surrounding intelligence analysts and 
cybersecurity specialists, developing an inventory of the 
research and development work being done by department elements 
other than the Office of Science and Technology, and in 
preparing a report on the effectiveness of the homeland 
security advisory system, including efforts to tailor the 
system so that alerts are raised on a regional rather than 
national basis.
    To date, the department has delivered only 14 percent of 
the mandated reports. It seems that for an issue as sensitive 
as the security of our homeland, the Department would want to 
have an informed Congress as an active participant in the 
policy process. Is it your view that this committee should 
expect these reports to come along soon?
    Secretary Ridge. Senator, I certainly hope so. To put it in 
context for you, Senator, we have sent quite a few up. But GAO 
alone, GAO alone has asked the department to submit information 
for 420 reports. That is in addition to probably 2,500 
congressional inquiries. That is in addition to a lot of the 
other work that we are doing to try to keep, as you very 
appropriately point out, to keep our colleagues in this effort, 
because we are partners in building this department, keep 
everybody informed.
    While I regret the delay, and I am trying to explain it, 
not excuse it, but we are doing our very best we can to get to 
GAO and to the members the information they have requested. And 
we will do everything we can to expedite it for you, Senator.
    Senator Byrd. Well, I hope you will do that. The GAO, as 
you well know, is an arm of the Congress. I am sure that the 
information that the GAO is seeking is of great importance to 
the Congress. We just do not act as a rubberstamp for the 
administration. We hope to be a partner in the effort.
    Secretary Ridge. Well, Senator, we respect the inquiry. As 
I said before, we fully intend to comply. It is just some of 
these reports require hundreds and hundreds of man hours to get 
the information and get it back to you. And we will do our best 
to expedite it.
    Senator Byrd. Do I have time for another question?
    Senator Cochran. Yes, sir.

                          PLAN FOR ADJOURNMENT

    Senator Byrd. Incidently, what is the Chairman's plan as to 
proceeding further and whether or not we will have another 
opportunity to have Secretary Ridge before us?
    Senator Cochran. Senator Byrd, our plan was to adjourn the 
hearing at 12:30 today. We were going to have hearings with 
other under secretaries and others who have jurisdictional 
responsibilities in the department. If there are other 
questions that need to be submitted, we have an opportunity to 
submit them in writing. But I have not discussed with the 
Secretary another hearing with him personally, but we would be 
glad to do that, if that is your request.
    Senator Byrd. Very well. I hope we might at least think in 
terms of possibly hearing the Secretary again, if there needs 
to be. I understand that we will have other opportunities with 
other witnesses. And so, the questions that we have in mind may 
be asked and answered there.
    Incidently, Governor, in an earlier conversation relative 
to the title of governor, do you remember?
    Secretary Ridge. Yes, sir. Yes, I do.
    Senator Byrd. Well, my history taught me that in the 
colonies and in the States, the people did not think too much 
of their governors. Is that your recollection?
    Secretary Ridge. No, it is not, sir.
    Senator Byrd. I think you might fail a history test. Maybe 
you should go back and review that a little bit.
    Secretary Ridge. I will, Senator.
    Senator Byrd. They did not have much use for the royal 
governors. Do you remember?
    Secretary Ridge. Yes, sir, I do.
    Senator Byrd. They were much more dependent upon and 
confident in their elected assemblies than they were of their 
governors. Pennsylvania was one of those early States, I 
believe, too. I believe it was one of the 13, was it not?
    Secretary Ridge. It was the second State, Senator.
    Senator Byrd. All right. Well, I just have one more 
question, Mr. Chairman.

                            FIRST RESPONDERS

    Others have touched upon this. Local police, firefighters 
and emergency medical teams are a community's first line of 
defense. But they seem to be almost the last priority for the 
President in his budget. Now others have touched upon this, 
which indicates that there is a widespread concern with respect 
to the first responders, and the fact is that trickle-down 
theory that we have heard so much about in many other respects 
is not working too well in this situation.
    Cuts come despite continued warnings, cuts in these local 
responders' budgets. From think tanks, commissions, and from 
first responders themselves come these warnings, that our 
Nation is not adequately prepared to respond to another act of 
terrorism. How do you justify these cuts?
    Secretary Ridge. Senator, if I could put the predictable 
and, I think, understandable attention that you and all of 
Congress and first responders put on the notion of additional 
money to support their mission. If Congress sees fit to, at the 
minimum, appropriate to first responders the dollars requested 
in the 2005 budget, this Administration and this Congress will 
have made available to State and local first responders nearly 
$15 billion over the past 3 years. This year's grant fire grant 
is $2 billion. It has been delivered directly to firefighters.
    The President's budget this year, as I mentioned to Senator 
Leahy, is a total amount very nearly identical to the amount of 
money the President requested back in 2004. Obviously, the 
Senate and the House chose to rearrange the priorities, which 
is certainly their prerogative because you do have that power 
of the purse, and actually gave to the first responders more 
money than was requested.
    But I do think that the President's commitment has been 
strong. And it has been consistent throughout the years. This 
year we are altering or seek congressional support of altering 
how those dollars are distributed. But I would say to the 
Senator that the President's commitment has been consistent and 
across the board to support the first responders at a very 
significant level of funding.
    Senator Byrd. There are billions of dollars, as you would 
agree, in the pipeline for first responders that have not been 
spent. We continue to hear complaints that come up from these 
people who were the first on the scene. That is why we have put 
the strict time lines on the Office for Domestic Preparedness 
and on the states to get the money to the first responders 
where it is needed. I hope that we will do a better job of 
getting the monies to these first responders.

                      FUNDING FOR FIRE DEPARTMENTS

    The fact is, according to FEMA, only 13 percent of fire 
departments have the equipment and training to handle an 
incident involving chemical or biological agents. Fire 
departments have only enough radios to equip half the 
firefighters on a shift and breathing apparatuses for only one-
third. How do we justify a 33-percent cut to fire grants?
    Secretary Ridge. Senator, two parts to your question. You 
are absolutely right, Senator. The Congress mandated that the 
Department of Homeland Security be prepared to distribute the 
dollars you appropriated within a time certain. We are prepared 
to do that. I think it was a 45-day period. We are ready to do 
that.
    Where we need to take a leadership role, and we would 
rather not mandate it, I would rather work with the Governors 
and the mayors to come up with a distribution scheme that 
everybody is comfortable with. Right now, the distribution of 
these proceeds varies from State to State, Senator. We are 
ready to send the checks out. Most of the logjam is in the 
collaboration between the cities and the States and their 
applying for the money.
    We will take it upon ourselves in this department to try to 
work with our partners, because they are partners in this 
effort, to see if we can come up with a distribution scheme so 
that when we hit that time table to distribute the dollars, I 
am confident Congress will also mandate that in the 2005 
budget, that we can get them out quicker to the first 
responders.
    It is not your Department of Homeland Security. We are 
ready to distribute. But the logjam really is in the 
communication and collaboration at the State and local level. I 
do not mean to repeat myself. I apologize. But I had planned on 
meeting with the Governors, when they are in town in about 2 
weeks, to address this question specifically. It is out there. 
We still have a few dollars left from 2002, more than half the 
dollars, I think, left from 2003. We have to get this money out 
the door.

                       PROCUREMENT POLICY ISSUES

    Part of it, I think, is tied up in procurement policies, 
Senator. By the way, West Virginia, when I visited your first 
responders down there, have taken a regional approach toward 
building capacity around their States, so that not every 
community has the same thing. But within regions, they have 
built the same capacity. And that is obviously an approach that 
I think is the right way to go. I cannot tell you whether or 
not they have any problems with distributing the dollars. I 
suspect that they are not. But they have taken a regional 
approach. And we want to see if that could be part of the 
answer to breaking the logjam to getting these dollars to our 
first responders.

                URGENCY TO GET FUNDS TO FIRST RESPONDERS

    Senator Byrd. Well, I thank you, Mr. Secretary.
    Mr. Chairman, you recall that we had hearings in this 
committee last year, the year before. Every time, we have these 
hearings and, in the meantime, we hear from these first 
responders that the money that Congress appropriates seems to 
be taking an awfully long time to get to them. They have taken 
the position all along that they need the money. They need to 
find a way to get it directly to them without all of the 
trickle-down apparatuses that are in between and which have a 
way of slowing down the delivery of these funds that Congress 
takes a very great interest in bringing to the attention and 
into the hands of these responders.
    I am glad that there seems to be a greater sense of 
urgency, as I listen to the Secretary. I hope that that will 
carry through and that these people at the local level who are 
the first people to respond will see the results of this 
greater sense of urgency.
    I hope, Mr. Secretary, that you will continue to press to 
get this money out the door and to these people who are on the 
job. Thank you.
    Thank you very much.
    Secretary Ridge. Thank you, Senator.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you, Senator Byrd.
    Mr. Secretary, we appreciate your cooperation with our 
subcommittee. Senators may submit written questions to you, and 
we ask you to respond to them within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

           Information Analysis and Infrastructure Protection

                   HOMELAND SECURITY ADVISORY SYSTEM

    Question. The Homeland Security Advisory System has evolved from a 
nationwide threat level status to more specific targeted areas since 
the latest threat level decrease in January. While the threat level is 
currently at an ``Elevated Condition'', which is declared when there is 
a significant risk of a terror attack, our country's airports, aviation 
industry, and specific high threat cities remain at the ``High 
Condition'', the threat level that indicates a high risk of terrorist 
attacks. This more targeted threat level status helps focus limited 
resources on the most credible threat areas and at the same time allows 
security personnel and first responders in other parts of the country 
to ``stand down'' while remaining vigilant.
    What further enhancements do you envision for the Homeland Security 
Advisory System with the improvement of intelligence detailing specific 
terrorist threats for certain metropolitan areas and specific sectors 
of industry?
    Answer. With each raising and lowering of the Homeland Security 
Advisory System (HSAS), the Department of Homeland Security learns new 
lessons and improves its notification process. As the system has 
evolved, it has come to reflect the need for certain metropolitan areas 
and/or specific areas of industry to be notified at different times or 
at different levels than others. As such, DHS has become adept at 
providing information to such specific audiences as states and sectors 
through Homeland Security Information Bulletins and Advisories. 
Additionally, Department officials speak personally with 
representatives and officials of threatened states and industries, when 
the need arises. This personal communication, along with the ability of 
the system to allow DHS to communicate to certain areas what their 
alert level should be embody the enhancements that have been 
implemented thus far.
    Question. What steps are being taken by the Department's 
Information Analysis and Infrastructure Protection Directorate to 
notify Congress and other key members of the Administration before a 
change in the Homeland Security Advisory System threat condition is 
announced publicly?
    Answer. Key congressional members are notified telephonically when 
a decision has been made to raise the threat level and, circumstances 
permitting, before the public announcement is made. Members notified 
are: the Speaker and Minority Leader of the House, the Majority leader, 
Minority leader and President pro tem of the Senate, the Chair and 
ranking member of the House Select Committee on Homeland Security, 
Senate Governmental Affairs Committee and both House and Senate 
Homeland Appropriations Subcommittees.
    Due to the tight timeline typically surrounding the announcement of 
alert level changes, the list of those personally notified in advance 
is necessarily limited to Congressional leadership and leadership of 
the committees of appropriations, and committees of overarching DHS 
authorization. Normally the scheduling of these calls will involve 
notification of key staff as well, but in those cases where it might 
not, DHS Office of Legislative Affairs (OLA) will make telephonic and 
e-mail notifications at the same time.
    Notification includes the change, when it is expected to be 
announced and the non-classified context in which the decision was 
made. If a member cannot be reached, their most senior staff member 
available is informed on their behalf. Notifications are made by Senior 
DHS Officials, typically the Deputy Secretary, Under Secretary for 
IAIP, and the Under Secretary for BTS. DHS callers may vary depending 
on operational circumstances but calls will not fall below the 
Assistant Secretary level. DHS, in concert with CIA and FBI will 
schedule a classified, Members only intelligence briefing as soon as 
possible after the announcement. If the change occurs when the Congress 
is in recess, a similar briefing is provided to relevant staff 
directors.
    When the threat level is reduced, DHS OLA notifies key 
congressional staff including staff of the Speaker and Minority Leader 
of the House, the Majority leader, minority leader and President pro 
tem of the Senate, the Chair and Ranking Member of the House Select 
Committee on Homeland Security, Senate Governmental Affairs Committee 
and both House and Senate Homeland Appropriations Subcommittees so that 
they may, in turn, inform their members before a formal announcement is 
made.
    Despite these efforts at advance notice, the Department must in 
each case make arrangements with the media prior to the Secretary's 
announcement of the change in the threat level, in order to fulfill the 
DHS responsibility to properly notify the public. As such, DHS is not 
able to control media and public speculation regarding the nature of 
DHS announcements up to the scheduled time of the press conference.

                             CYBER SECURITY

    Question. The National Cyber Security Division as part of the 
Department's Information Analysis and Infrastructure Protection 
Directorate recently unveiled the National Cyber Alert System which 
intends to deliver information to home computer users and technical 
experts in business and government agencies to better secure their 
computer systems from the latest computer viruses.
    How would you rate the performance of the new National Cyber Alert 
System's response to the most recent computer virus outbreaks, 
including the ``MyDoom'' virus that affected not only computers 
worldwide but also computers within the Federal Government?
    Answer. I would rate the response to the National Cyber Alert 
System as positive, but not good enough. On the first day of NCAS 
launch, the Department's United States Computer Emergency Readiness 
Team (US-CERT) was bombarded by more than one million hits from would-
be subscribers. More than 250,000 direct subscribers rely on the 
National Cyber Alert System to maintain their cyber vigilance and an 
additional estimated one million additional users receive national 
cyber alerts and information products indirectly through relationships 
with the Information Technology Association of America, various 
industry associations, the Stay Safe Online program, and others.
    NCAS is new and will continue to evolve and improve over time. 
Importantly, the National Cyber Alert System is but a small portion of 
the work being done within the Department's IAIP Directorate, both to 
prevent incidents and in response to specific events in cyberspace. In 
partnership with the Computer Emergency Response Team Coordination 
Center (CERT-CC) at Carnegie Mellon University; my department works 
with over 150 cyber security experts from across the Federal 
Government; and collaborates with key elements from the Departments of 
Justice, Defense, Treasury, Energy, and State; the FBI and the 
Intelligence Community; and the private sector to prevent, respond to, 
manage, and recover from cyber incidents.
    Question. The Department's new initiative ``Live Wire'' will test 
civilian agencies' security preparedness and contingency planning by 
staging cyber attack exercises to evaluate the impact of widespread 
computer disruptions. Recent instances, such as the power outages in 
the Northeast this past August, are an example of how an attack on our 
critical infrastructures, such as a cyber attack by terrorists on our 
Nation's utility industry, could cascade across a wide region if the 
proper precautions are not taken immediately.
    Does the Department currently test the vulnerabilities of computer 
systems in the government and private sector to simulate a terrorist 
attack on the Nation's cyber infrastructure and if so, how will ``Live 
Wire'' build upon any current program if funded?
    Answer. Live Wire is the first of a series of cross-sector, cross-
discipline exercises that test the Nation's ability to respond to a 
large-scale, coordinated cyber attack and allow the Department to learn 
important lessons that improve our preparation for real emergencies. We 
have hired outside experts to assist in our vulnerability analyses and 
continue to work with the private sector Information Sharing and 
Analysis Centers to augment our technical capabilities and knowledge.
    We created the Cyber Interagency Incident Management Group (IIMG) 
to promote interagency cooperation in advance of and during cyber 
incidents and to assess cyber consequences flowing from an attack or 
natural calamities. This activity is a direct outgrowth of the Live 
Wire experience, where the need to establish a baseline of cyber 
activities across the Federal Government and improve communication 
channels were identified. Other cyber activities also stand to benefit 
from exercises like Live Wire. To date, the Department has focused on 
building the technical capability of the US-CERT and establishing the 
National Cyber Alert System. We are also examining possible system-wide 
impacts on critical infrastructures caused by cyber dependencies and 
interconnectedness

                         BIOSURVEILLANCE SYSTEM

    Question. The President's budget proposes to establish a National 
BioSurveillance Group led by the Department of Homeland Security that 
will include the Department of Health and Human Services and the 
Department of Agriculture to create a national biosurveillance system 
to help shape current and proposed disease surveillance systems and to 
guide research and development of new technologies and capabilities.
    How will the Department's Information Analysis and Infrastructure 
Protection directorate lead the coordination of efforts with the 
Department of Health and Human Services and the Department of 
Agriculture to integrate biosurveillance data from across the country 
in order to verify a chemical or biological terrorist attack?
    Answer. As is directed in Homeland Security Presidential Directive/
HSPD-9, Defense of United States Agriculture and Food, the Department 
of Homeland Security, through the Information Analysis and 
Infrastructure Protection (IAIP) Directorate is currently leading 
coordination efforts to integrate biosurveillance data across the 
country. This involves the formation of an inter-agency working group. 
The goal of this group is to identify and develop options available to 
each agency, which will culminate in a report which outlines the 
building of a biosurveillance program within IAIP and projects what 
will be needed to develop and maintain a credible system. The working 
group has been meeting weekly in an effort to present the report to the 
Assistant Secretaries of Information Analysis and Infrastructure 
Protection and the Under Secretary of IAIP in April. The draft report 
will then be presented to the Secretary and Deputy Secretary of DHS, 
with the goal of having a finished report delivered to the President in 
May of this year.
    Question. Also, as part of this initiative, how will the 
Department's Science and Technology Directorate expand its 
environmental monitoring activities in the Nation's largest 
metropolitan areas?
    Answer. The Department's Science and Technology Directorate will 
work with its BioWatch partners to expand the number of collectors in 
the highest threat metropolitan areas. This expansion is based on 
detailed modeling studies that determine the optimum number of 
collectors for densely populated regions and a request from the cities 
to provide additional collectors for their high priority facilities and 
sites. The expansion will draw on small modifications to the current 
BioWatch technology, in particular, the use of additional automation 
and detection equipment to enable cost-effective analysis of the 
significantly increased sample load. Plume modeling for a variety of 
potential release scenarios and meteorological conditions will be used 
to optimize the layout and the coverage of the ensemble of collectors 
for each of the selected metropolitan areas. Localities will help 
determine where additional collectors should be placed based on their 
prioritized critical facilities needs (e.g., transit systems; 
stadiums). In addition, each metropolitan area will be provided a small 
number of collectors that they can deploy at special events as they 
arise. A pilot study will be completed this spring and summer in New 
York City to determine the best configuration options to consider for 
deployment use in fiscal year 2005.

                          TERRORIST WATCH LIST

    Question. Over the course of the last 2 years, the Administration 
has been working towards a government-wide consolidation of terrorist 
watchlist information. While the government-wide responsibility has 
been given to another Department, there are still multiple watchlists 
within the Department of Homeland Security.
    Congress provided the Department with $10 million for watchlist 
integration in this year's appropriation--what is the status of that 
project?
    Answer. DHS is a partner in the multi-agency Terrorist Screening 
Center. The Terrorist Screening Center became operational in December 
of 2003 and is now conducting 24 hour a day, 7 days per week 
operations. It is the single coordination point for Terrorist 
Encounters and thus enables a coordinated response for Federal, State, 
and Local Law Enforcement. The TSC has received more than 1,000 calls 
to date and has identified over 500 positive matches.
    Question. How is the Department's watchlist being integrated with 
other agencies watchlists at the Federal Bureau of Investigation's 
Terrorist Screening Center?
    Answer. TSC remains on schedule to bring the first version of its 
consolidated Terrorist Screening Database online by the end of the 
year. This database will be accessible to queries from Federal, State, 
and local agencies for screening purposes and will provide immediate 
responses to Federal border-screening and law-enforcement authorities. 
Each parent organization of the individual watchlists provides 
Assignees to the Terrorist Screening Center for real-time access to 
TTIC and FBI databases. All new nomination and updates to existing 
records are therefore performed at the TSC.
    Question. Is it possible today for every law enforcement officer 
and intelligence analyst at the Department of Homeland Security to 
access one list of suspected terrorists?
    Answer. Currently, DHS intelligence analysts continue to access 
information utilizing the information provided by the TSC specific to 
each individual list. However, as the preceding answer indicates, TSC 
plans to consolidate these lists into a single database in the near 
future.

                 Transportation Security Administration

    Question. Over 54 percent of the President's budget request for the 
Transportation Security Administration for fiscal year 2005 is 
dedicated for aviation passenger and baggage screeners pay, benefits, 
training, and human resource services. At the same time, three major 
grant programs currently administered by the Transportation Security 
Administration dealing with trucking security, port security grants, 
and Operation Safe Commerce are to be reorganized under the Office for 
Domestic Preparedness pursuant to the Department's reorganization 
authority. The fiscal year 2005 budget proposes to reduce or terminate 
funding for these programs.
    Will the Transportation Security Administration continue to have 
responsibility for security over all sectors of transportation or will 
aviation security continue to be the main focus of this agency?
    Answer. The Border and Transportation Security Directorate of DHS, 
in partnership with the Coast Guard, has jurisdiction over the security 
of all modes of transportation and is charged with coordinating all 
activities of the Department under the Homeland Security Act. The Coast 
Guard and organizations within BTS either have primary or subsidiary 
responsibilities in each transportation area. TSA clearly has a primary 
transportation role within BTS, and this role does not change merely by 
the transfer of grant distribution and management activities to ODP.
    Question. What funding will be available for fiscal year 2005 to 
increase security of railways, roadways, and all other modes of 
transportation in light of the Administration's proposal to terminate 
intercity bus and trucking grants?
    Answer. The responsibility of securing our Nation's transportation 
systems is a shared responsibility between government, local operators, 
and private companies who profit from that system. The aviation system 
is treated no differently, though understandably has received the most 
Federal focus to date given the clear nature and level of the aviation 
threat. We will continue to undertake transportation security programs 
on a threat-based, risk management basis.
    With respect to rail and mass transit specifically, DHS, DOT, and 
other Federal agencies are working together to enhance rail and transit 
security in partnership with the public and private entities that own 
and operate the Nation's rail and transit systems. The DHS grant 
program for improving rail and transit security in urban areas has 
awarded or allocated over $115 million since May 2003. Additionally, 
the Administration has requested $24 million for TSA to advance 
security efforts in the maritime and surface transportation arenas. DHS 
will conduct the following activities and initiatives to strengthen 
security in surface modes:
  --Implement a pilot program to test the new technologies and 
        screening concepts to evaluate the feasibility of screening 
        luggage and carry-on bags for explosives at rail stations and 
        aboard trains;
  --Develop and implement a mass transit vulnerability self-assessment 
        tool;
  --Continue the distribution of public security awareness material 
        (i.e., tip cards, pamphlets, and posters) for motorcoach, 
        school bus, passenger rail, and commuter rail employees;
  --Increase passenger, rail employee, and local law enforcement 
        awareness through public awareness campaigns and security 
        personnel training;
  --Ensure compliance with safety and security standards for commuter 
        and rail lines and better help identify gaps in the security 
        system in coordination with DOT, with additional technical 
        assistance and training provided by TSA;
  --Continue to work with industry and State and local authorities to 
        establish baseline security measures based on current industry 
        best practices and with modal administrations within the DOT as 
        well as governmental and industry stakeholders, to establish 
        best practices, develop security plans, assess security 
        vulnerabilities, and identify needed security enhancements; and
  --Study hazardous materials (HAZMAT) security threats and identify 
        best practices for transport of HAZMAT.
    Question. How will the Transportation Security Administration 
coordinate with the Office for Domestic Preparedness on the grant 
programs (trucking security, port security grants, intercity bus 
grants, and Operation Safe Commerce) that will be moved from TSA 
pursuant to the reorganization?
    Answer. It is anticipated that TSA, other BTS organizations with 
transportation security responsibilities and the Coast Guard will 
continue to provide the necessary operational expertise for the grant 
programs through participation in pre-award management functions. These 
functions include determination of eligibility and evaluation criteria, 
solicitation and application review procedures, selection 
recommendations and post award technical monitoring.
    These organizations will also continue to leverage existing 
transportation expertise by working with industry stakeholders and DOT 
modal administrations to ensure that Federal security grants facilitate 
the seamless integration of security planning activities by industry 
stakeholders and governmental stakeholders at the regional, state, and 
local levels.
    Question. Congress provided $85 million for the Transportation 
Security Administration for fiscal year 2004 to provide additional 
screeners to inspect air cargo and also for the research and 
development of explosive detection systems in order to perform 
screening of the larger palletized, bulk air cargo.
    With the increase in funding provided, how many additional 
screeners have been hired to inspect air cargo to date and when do you 
expect to be fully staffed?
    Answer. The funding provided in the Department of Homeland Security 
Appropriations Act, 2004 (Public Law 108-90) enabled TSA to hire 100 
new cargo inspectors. All 100 cargo inspector positions have been 
selected, and paperwork is being processed by TSA Human Resources. We 
anticipate extending job offers to these applicants and bringing them 
on board within the next 2 months.
    Question. What enhancements are being made to the current Known 
Shipper program to guarantee the safety of air cargo?
    Answer. Since 9/11, significant enhancements have been made to the 
known shipper program. The Known Shipper Program was started in 1996 at 
FAA with the development and implementation of comprehensive known 
shipper requirements. The current requirements for new shippers 
applying for known shipper status have been strengthened. In addition, 
the authenticity of established known shippers has been verified as 
meeting the new requirements. In order to substantiate the legitimacy 
of known shippers further, air carriers have been required to conduct 
site visits of known shippers' facilities. Additionally, TSA is 
currently developing a Known Shipper Database, which will allow TSA to 
vet applicants to the program more thoroughly for legitimacy by 
comparing data submitted by applicants against terrorist watch lists, 
other government data bases, and other publicly available information. 
Eventually, TSA's Known Shipper Database will be one part of a larger 
freight assessment database intended to target high risk cargo 
shipments for additional screening.
    Question. Would it currently be feasible to inspect 100 percent of 
all air cargo being placed on aircraft, as proposed by some in 
Congress, and, in your opinion, how do you feel the flow of commerce 
would be affected if air cargo was restricted from being placed on 
aircraft unless 100 percent inspection of air cargo took place?
    Answer. Not only is 100 percent physical inspection infeasible, it 
is not desirable. The sheer volume of air cargo transported in the 
United States renders the inspection of all air cargo infeasible 
without a significant negative impact on the operating capabilities of 
the entire transportation infrastructure of the United States and the 
national economy. Anything more than a targeted, focused physical 
inspection protocol on high risk cargo for the long term risks homeland 
security resources and critical management focus on known security 
risks. The DHS goal is to ensure that all cargo is screened to 
determine risk and that 100 percent of high-risk cargo is inspected. 
TSA is aggressively pursuing next-generation technological solutions 
that will allow us to enhance security for air cargo. Meanwhile, TSA is 
taking steps to implement measures outlined in the Air Cargo Strategic 
Plan and is doing everything possible to ensure that cargo going on 
planes is secure, including the requirement that all cargo transported 
on passenger aircraft originate from a known shipper.
    Question.The President's fiscal year 2005 budget requests a $25 
million increase for the Computer Assisted Passenger Pre-screening 
System (CAPPS II) currently being tested by the Transportation Security 
Administration. This system, when completely functional, will enable 
air carriers to perform an analysis on the ticketed passengers based on 
authentication from commercial data providers, and will also check 
passenger names against a government supplied terrorist watch list. 
However, CAPPS II has been slow in developing because of delays in 
obtaining passenger data needed for testing due to privacy concerns by 
air carriers.
    How is the Department working with the airlines to alleviate 
privacy concerns in light of recent disclosures that air carriers have 
shared passenger records with other government agencies and private 
contractors without the passengers' knowledge?
    Answer. The disclosure of passenger records by air carriers 
triggered concerns because passengers were not told that the 
information they provided to make a reservation was being shared with 
another entity (the government) for another purpose (national 
security). In at least one instance, the air carrier's own published 
privacy policy stated that passenger information would not be shared 
with anyone else. Bearing this experience in mind, the Department is 
committed to working with privacy advocates, airlines, passengers, and 
the travel industry to provide greater understanding and awareness of 
the purposes and scope of CAPPS II and to ensure that individual 
privacy rights are protected.
    DHS plans to issue a Notice of Proposed Rulemaking (NPRM) seeking 
public comment on the collection of Passenger Name Record (PNR) data. 
Certain aircraft operators, foreign air carriers, and operators of 
computer reservation systems would be required to provide PNR 
information for each individual who makes a reservation. The proposal 
will also require regulated parties to take reasonable steps to ensure 
that the passenger is provided notice of the purpose for which the 
information is collected, the authority under which it is collected, 
and the consequences of a passenger's failure to provide the 
information.
    The CAPPS II system will only be accessible to persons who require 
access for the performance of their duties as Federal employees or 
contractors to the Federal Government. The airlines, airline personnel, 
and the computer reservation systems will not have access to 
information contained in CAPPS II. All contractors, contractor 
employees and Federal Government employees who will have access to and/
or who will be processing personal data will sign a written privacy 
policy and acknowledge that they are bound by the strict terms of the 
privacy policy. All personnel with access to the system will have a 
government security clearance based on the level and type of 
information accessed. At a minimum, a Department of Defense (DOD) 
Secret Clearance will be required. The guiding principle for access 
will be ``need-to-know.'' Access will be compartmentalized, thus 
allowing access to persons based only on their individual need-to-know 
and only to the extent of their authorization (e.g., a person might be 
permitted to access information with regard to the unclassified portion 
of the system, but be denied access to classified areas). CAPPS II also 
will have substantial security measures in place to protect the system 
and data from unauthorized access by hackers or other intruders.
    Question. How can assurances be made to prevent identity theft by a 
would-be terrorist intent on using legitimate individuals information 
to get around the CAPPS II background checks?
    Answer. While no system can be 100 percent effective, we believe 
that the CAPPS II system will be a great advancement in defeating 
identity fraud. The CAPPS II design includes an information-based 
identity assessment process, which is an improved version of the best 
practices used by the banking and credit industries to combat identity 
theft and fraud. This capability is a substantial improvement to the 
current system.
    CAPPS II will incorporate best practices developed in the private 
sector for discovering cases of identity fraud. In the case of an 
identity thief who steals a legitimate identity, any number of indicia, 
including errors or inconsistencies in the information, could reveal 
the theft. Further, CAPPS II will make use of a database containing up-
to-date information about stolen identities, which will further protect 
against identity thieves who use this means to enable them to attack 
the civil aviation system.
    No system can be 100 percent effective, which is why CAPPS II will 
be part of a layered ``system of systems'' involving physical scrutiny, 
identity-based risk assessment, and other security precautions on 
aircraft and at airports.
    Question. The Inspector General completed last week a review of 
background checks for Federal airport passenger and baggage screeners 
that listed twelve recommendations for the administrator of 
Transportation Security Administration to improve its management of the 
background check process.
    What procedures have been put into place to guarantee all passenger 
and baggage screeners that are currently employed and also individuals 
who are applying for a screening position have a full background check?
    Answer. All screeners employed by TSA as of May 31, 2003, except 
for a small number of exceptions detailed below, have received 
fingerprint based criminal history record checks based on FBI criminal 
history records, pre-employment background checks which examine 
Federal, county, and local law enforcement records, credit history, and 
TSA watch lists (No-Fly and Selectee); and Access National Agency Check 
with Inquiries (ANACI) background checks conducted by the Office of 
Personnel Management (OPM). These checks were completed by October 1, 
2003. The limited exceptions included individuals on military or sick 
leave, and some screeners under the private screening pilot program. 
All of the exceptions have received fingerprint based criminal history 
checks and pre-employment background checks. In addition, OPM ANACIs 
have been completed or are in the process of being completed on all 
contract screeners and on screeners who have returned from sick or 
military leave.
    Since June 1, 2003, TSA has required that screener applicants 
receive the aforementioned fingerprint based criminal history check and 
pre-employment background check before they are hired. TSA does not 
extend offers of employment to applicants until these checks are 
successfully adjudicated for each applicant. Once hired, all new 
screeners then undergo the more thorough OPM ANACI check, which 
typically takes 3-6 months to complete. This check reviews education, 
employment history, credit history, references, criminal history, 
military records, and citizenship. The combination of timely check 
before hiring and more thorough OPM checks soon thereafter provides a 
layered approach to personnel security for new screeners.
    TSA maintains a database that tracks the progress of screener 
investigations from which routine reports can be generated and reviewed 
to determine the status of all investigations.

                  Emergency Preparedness and Response

                               BIOSHIELD

    Question. Does the lack of authorization for the administration's 
BioShield initiative inhibit your ability to obligate the funds 
appropriated for the program?
    Answer. The fiscal year 2004 Homeland Security Appropriations Act 
provided $885 million to be spent for development of biodefense 
countermeasures for the current fiscal year. Absent authorizing 
legislation, the Department of Homeland Security (DHS) has relied upon 
this authority to obligate funds for biodefense countermeasure 
activities. DHS, the Department of Health and Human Services (HHS), the 
Homeland Security Council, and the Office of Management and Budget 
(OMB) recognize the importance of expeditious progress in developing 
much-needed countermeasures while following Congressional intent. In 
that vein, all parties have sought to follow the principles set forth 
in the proposed legislation in developing the interagency agreement for 
next-generation anthrax vaccine. A FEMA contracting officer has 
authority to sign contracts related to the obligation of BioShield 
funds.
    Question. For what purposes do you intend to use the funds made 
available for fiscal year 2004?
    Answer. Over the past 10 months, the WMD Medical Countermeasures 
subcommittee has developed countermeasures information of interest to 
administration policymakers who will make the BioShield procurement 
decisions. The WMD subcommittee commissioned an end-to-end analysis of 
medical countermeasures to Category ``A'' biological agents (anthrax, 
smallpox, plague, botulinum toxin, tularemia, Ebola, and other 
hemorrhagic fever viruses). Working groups developed initial 
requirements for four high-priority bioweapon countermeasures for which 
there is high need and a reasonable expectation that products will be 
available in the near term:
  --Next-generation anthrax vaccine (recombinant Protective Antigen, 
        rPA)
  --Anthrax immune therapy
  --Next-generation smallpox vaccine (modified vaccinia, MVA or LC16m8)
  --Botulinum antitoxin
    Question. Why does the President's fiscal year 2005 budget propose 
to transfer the Strategic National Stockpile from the Department of 
Homeland Security's Emergency Preparedness and Response Directorate to 
the Department of Health and Human Services (HHS) but not the BioShield 
program? Please explain why the Stockpile is more appropriately managed 
by the Department of Health and Human Services and why BioShield is 
more appropriately managed by the Department of Homeland Security.
    Answer. The President's Budget for fiscal year 2005 proposes to 
transfer the Strategic National Stockpile (SNS) back to HHS where it 
will be better aligned with HHS' medical and scientific expertise and 
responsibilities. The SNS is an operational program, consisting of 
copious amounts of physical inventory and medical materiel. Since its 
mission is time-critical, it should possess a single, undisputed 
management structure for rapid decision-making. Although the daily 
operations of the SNS have not been affected in a significant manner by 
the transfer from HHS to DHS, the single command structure for the 
program that would result from the transfer back to HHS would 
streamline operations. DHS will maintain its ability to deploy the 
Stockpile in accordance with the SNS statute, 42 U.S.C.  300hh-12, as 
amended, and thus, the potential response needs of the DHS mission will 
not be compromised in any manner.
    The BioShield program differs substantially from the SNS in that it 
is a policy-driven program that is most successful as a joint venture 
between homeland security and health experts. The major programmatic 
aspect/activity of BioShield is product development, which is performed 
by private companies. The BioShield program was specifically 
constructed to spur development of countermeasures for which no 
commercial markets exist against current and emerging threats to the 
United States, for inclusion in the SNS.
    Since DHS is responsible for assessing current and emerging threats 
against the United States, including biological and chemical threats, 
the BioShield program, which helps to ensure our Nation's health 
security and is one of the many facets of the Department's efforts to 
combat terrorism, is therefore more appropriately managed by DHS than 
by HHS.
    Question. How are decisions being made as to the appropriate 
expenditure of BioShield funds? Has an assessment been done of our 
vulnerabilities to biological attacks to guide decisions as to the 
investments which should be made to develop, produce and pre-purchase 
vaccines or other medications for the Nation's biodefense? Who is doing 
such an assessment and what priorities have been established?
    Answer. There are several steps taken to determine appropriate 
biodefense countermeasures development and the use of BioShield funds. 
DHS and HHS are seeking to adhere to the intent of the proposed 
BioShield authorizing legislation now awaiting action in the Senate.
    The Information Analysis and Infrastructure Protection Directorate 
of DHS is responsible for determining a material threat. After that, 
the WMD Countermeasures subcommittee group co-chaired by DHS, HHS, and 
the Department of Defense, part of the Homeland Security Council Policy 
Coordinating Committee (PCC), develops countermeasures information of 
interest to the PCC, which then makes procurement decisions. The WMD 
Countermeasures subcommittee has completed an analysis of Category 
``A'' biological agents (anthrax, smallpox, plague, botulinum toxin, 
tularemia, Ebola, and other hemorrhagic fever viruses). Working groups 
developed initial requirements for four high-priority bioweapon 
countermeasures for which there is high need and a reasonable 
expectation that products will be available in the near term:
  --Next-generation anthrax vaccine
  --Anthrax immune therapy
  --Next-generation smallpox vaccine
  --Botulinum antitoxin

                            ANTHRAX VACCINE

    Question. What is the Strategic National Stockpile requirement for 
anthrax vaccine?
    Answer. DHS and HHS have entered into an interagency agreement to 
purchase recombinant Protective Antigen (rPA) vaccine to protect 25 
million persons. The government will consider later purchase of 
additional anthrax vaccine contingent on new vaccination delivery 
system technology and other cost-saving factors such as reduced dose 
requirements.
    Question. Are we filling at least part of the anthrax vaccine 
requirement with an FDA-approved product currently available?
    Answer. The Stockpile currently maintains a small amount of the 
only FDA-licensed pre-exposure vaccine against anthrax (Anthrax Vaccine 
Adsorbed, or AVA). Currently, it has limited production capacity, and 
rectifying that problem would be very expensive and take several years 
to accomplish. AVA is not currently licensed for children or for the 
elderly. However, in order to ensure that some type of anthrax vaccine 
is available until the development and procurement of rPA, DHS and HHS 
have signed an interagency agreement for the purchase of AVA through 
the Department of the Army. This agreement will provide approximately 2 
million doses in fiscal year 2004, 1.5 million doses in fiscal year 
2005, and 1.5 million doses in fiscal year 2006.

                      United States Secret Service

                      WHITE HOUSE MAIL PROCESSING

    Question. The Secret Service budget includes $16,365,000 for White 
House mail screening. The Committee requested in the fiscal year 2004 
bill that a detailed long-term plan for the establishment of a fully 
operational White House mail facility be provided to the Committee. 
When can the Committee expect to receive this report?
    Answer. An interim report was submitted to the Committee on 
February 10, 2004. This interim report stated that the Department of 
Homeland Security is aggressively developing a plan to support mail 
operations for the entire Department. One facet of this development 
process will evaluate incorporation of a combined mail facility 
supporting the White House and Department components located within the 
Washington D.C. metropolitan area. The Secret Service has contracted 
for a study to review several of the secure mail processes currently in 
operation and following conclusion of this review will make a 
recommendation to the Department as to a method of processing mail and 
the potential for a combined facility. This study is expected to be 
completed in April, 2004. A final report will be submitted to the 
Committee in June 2004.
    Since the interim report was submitted to the Committee, the White 
House and Secret Service have determined that the requirements for 
processing White House mail are not compatible with consolidation into 
a DHS mail processing facility. Therefore the June report will be a 
plan for processing White House mail in a separate facility, not a 
combined facility.

                  COUNTERFEITING AND FINANCIAL CRIMES

    Question. Colombia and Bulgaria continue to be hot spots for 
counterfeit currency. Does the fiscal year 2005 Homeland Security 
budget include funding to concentrate on these areas?
    Answer. For almost 30 years, Colombia has remained the largest 
producer of counterfeit U.S. currency in world. In May of 2001, the 
Secret Service received a 2-year allocation of $1.5 million through the 
State Department's ``Plan Colombia'' fund, and implemented plans to 
train and equip a local anti-counterfeiting force to work in 
conjunction with Secret Service agents in the seizure and suppression 
of counterfeit U.S. dollars manufactured in Colombia. Through the 
funding provided under Plan Colombia, the Secret Service and Colombian 
law enforcement authorities were able to make a tremendous impact on 
counterfeit production and distribution networks. This ultimately led 
to significant reductions in the amount of Colombian-manufactured 
counterfeit U.S. dollars that reached the streets of the United States.
    The 2-year execution of Plan Colombia led to the seizure of $123.3 
million in counterfeit U.S. currency, the suppression of 33 counterfeit 
printing plants, and over 164 arrests. This resulted in a 37 percent 
decrease in the amount of Colombian-produced counterfeit U.S. dollars 
passed on the American people.
    Second only to Colombia, organized criminal groups in Bulgaria are 
the world's second leading producer of counterfeit U.S. currency. 
Counterfeit currency produced in Bulgaria continues to be passed in the 
United States and throughout Eastern and Central Europe. There is 
strong evidence that the same organized criminal groups producing 
counterfeit U.S. currency in Bulgaria are also involved in human 
trafficking and narcotics trafficking.
    Bulgaria is a country undergoing a dramatic transition as they seek 
to enter the European Union, restructure their criminal code and remove 
corrupt officials from government. The Secret Service believes that 
additional efforts must be made to capitalize on these efforts and work 
with local law enforcement officials to dismantle the counterfeiting 
operations in Bulgaria. Additionally, the Bulgarian government has 
expressed its willingness to work with foreign law enforcement and has 
requested additional support from the Secret Service.
    While the Department of Homeland Security fiscal year 2005 budget 
request does not include a specific funding request to continue these 
efforts, the Secret Service receives funding in its base budget that 
allows it to continue its strong overseas investigative efforts and 
cooperative partnerships with the foreign law enforcement communities 
in Colombia and Bulgaria.
    Question. What role will the Secret Service play in protecting our 
Nation's extensive network of financial systems from terrorists and 
hackers? Does the fiscal year 2005 budget request provide adequate 
funding to guard against this growing problem?
    Answer. The Secret Service's core investigative mission is to 
safeguard the financial and critical infrastructures of the United 
States. The Department's fiscal year 2005 funding request provides 
adequate funding for the Secret Service to continue the array of 
programs it has developed to work with its law enforcement, private 
sector and academic partners in strengthening these networks and 
preventing intrusions and compromises of these essential 
infrastructures. These programs include:
Electronic Crimes Task Forces (ECTFs)
    The groundbreaking task force model developed by the Secret Service 
emphasizes information sharing and a pooling of resources and expertise 
to produce a collaborative effort to thwart cyber criminals and to 
detect, investigate, and most importantly, to prevent electronic 
crimes. Members include other Federal, State and local law enforcement 
agencies, prosecutors, private sector representatives from the 
financial services, telecommunications and IT sectors, and academic 
experts from leading universities. These members build trusted 
partnerships and have made tremendous strides in the communities they 
serve in a short period of time.
    Providing these ECTFs with training, resources and manpower is 
paramount to the Secret Service's statutory mission to protect 
financial payment systems and critical infrastructures. Directed by 
Public Law 107-56 (the USA PATRIOT Act of 2001) to expand its ECTF 
model from a single task force in New York to a nationwide network, the 
Secret Service has since established additional ECTFs in Boston, Miami, 
Washington, D.C., Chicago, Los Angeles, San Francisco, Charlotte, Las 
Vegas, Cleveland, Houston, Dallas, and Columbia, South Carolina.
Electronic Crimes Special Agent Program (ECSAP)
    Currently, the Secret Service has trained 118 agents in this 
program, which provides certified instruction to special agents in the 
preservation and examination of computer forensic evidence. The Secret 
Service has based these agents in field offices throughout the country, 
and they have become indispensable assets to the communities they serve 
and their law enforcement and private sector partners.
CERT/CSPI (Critical Systems Protection Initiative)
    In a continuing partnership with Carnegie Mellon's Computer 
Emergency Response Team (CERT), the Secret Service has established a 
training program addressing the cyber security of critical 
infrastructures. The expansion of e-commerce and proliferation of 
websites providing financial and personal information to the public has 
made it essential that Secret Service personnel and their partners 
understand the interdependency of computer networks. Through risk 
assessments and identification of vulnerabilities, the Secret Service 
has adopted a more proactive approach to prevent terrorists and hackers 
from exploiting our financial systems.
CERT/NTAC Insider Threat Study
    In cooperation with Carnegie Melon's CERT, the Secret Service's 
National Threat Assessment Center and Criminal Investigative Division 
are conducting studies that specifically target the banking and 
financial services industries. Again, due to the trusted partnerships 
the Secret Service has developed with these entities, successful 
efforts have been made to gather information and provide operationally-
critical threat and asset vulnerability.
    Question. Identity theft has been called the fastest growing crime 
in the United States. The Congressional Research Service reports that 
identity theft has grown in three consecutive years. Does the fiscal 
year 2005 budget include funding to counter this growing problem?
    Answer. The fiscal year 2005 budget request includes funding levels 
that fully support the Secret Service's investigative responsibilities, 
including its identity theft investigations. Although there are no new 
initiatives in the budget for preventing and investigating identity 
crimes, the Secret Service has several existing programs aimed at 
stemming the tide of this growing crime. These initiatives include:
The Identity Crime Interactive Resource Guide CD-ROM & Video
    This highly successful Secret Service initiative, in partnership 
with the U.S. Postal Inspection Service, the International Association 
of Chiefs of Police (IACP) and the Federal Trade Commission (FTC), was 
designed to provide useable tools and resources to local and State law 
enforcement officers and to assist with their identity crimes 
investigations and case management. This joint effort gives local and 
State law enforcement officers the information they need not only to 
assist victims of identity crimes but also to initiate their own 
investigations.
    The CD ROM/Video is an ongoing project that requires amending, 
updating and adding new investigative resources as they become 
available. The Secret Service is currently working on the production 
and distribution of an updated version of the CD-ROM, the development 
of a similar web-based initiative, and deploying the Resource Guide on 
the Secret Service extranet and the DHS portal webpage. To date, more 
than 40,000 of these CD-ROMs have been distributed to local and State 
police agencies and local, State and Federal prosecutors.
Forward Edge
    The Secret Service also joined with the IACP and the National 
Institute for Justice to produce the interactive, computer-based 
training program known as ``Forward Edge,'' which takes the next step 
in training officers to conduct electronic crime investigations. 
Forward Edge is a CD-ROM that incorporates virtual reality features as 
it presents three different investigative scenarios to the trainee. It 
also provides investigative options and technical support to develop 
the case.
    While over 30,000 of these training tools have been distributed to 
the Secret Service's law enforcement partners, an updated version of 
Forward Edge is currently under development. This version will 
incorporate the video, virtual reality and 3D models but will also add 
adaptations made in reaction to new challenges posed by emerging 
technology and criminal activity.
Best Practices for Seizing Electronic Evidence
    This pocket-size guide produced by the Secret Service assists law 
enforcement officers in recognizing, protecting, seizing and searching 
electronic devices in accordance with applicable statutes and policies. 
Over 320,000 ``Best Practices Guides'' have been distributed free of 
charge to local and Federal law enforcement officers.
Identity Crime Training Seminars
    In a joint effort with the Department of Justice, the U.S. Postal 
Inspection Service, and the FTC, the Secret Service is hosting Identity 
Crime Training Seminars for law enforcement officers across the United 
States. Each seminar consists of 8 hours of training focused on 
providing local and State law enforcement officers with tools and 
resources that they can immediately put into use in their 
investigations of identity crime. Additionally, officers are provided 
resources and information that they can pass on to members of their 
community who are victims of identity crime. Other critical partners in 
these training seminar efforts are Discover Financial Services, the 
American Association of Motor Vehicles Administrators (AAMVA) and the 
State DMVs from each community.

                    Office for Domestic Preparedness

                          GRANT CONSOLIDATION

    Question. The announced reorganization of grant programs within the 
Department of Homeland Security moves the responsibility for all of the 
grant programs under TSA to ODP--Port Security grants, Intercity Bus 
grants, Trucking industry grants, and Operation Safe Commerce, and 
programs such as the Emergency Management Performance Grants from EP&R 
to ODP. How will you ensure that TSA and EP&R are still involved with 
the oversight of these programs, especially with reduced funding as 
proposed for 2005?
    Answer. The Office for Domestic Preparedness and the Office of 
State and Local Government Coordination both maintain close 
communication and contact with EP&R. The creation of the Office of 
State and Local Government Coordination and Preparedness will not 
inhibit or impede the already established relationship between ODP/
OSLGC and EP&R & TSA.
    ODP currently coordinates closely with EP&R and will continue to do 
so, as it does with other DHS components. For example, ODP and EP&R are 
working closely on the transfer of the Pre-Positioned Equipment Program 
from ODP to EP&R. Additionally, ODP and EP&R have worked closely on the 
Top Officials (TOPOFF) Exercise Program, and are currently working 
together on the planning of TOPOFF 3. Finally, EP&R is part of ODP's 
internal DHS review team for the state homeland security strategies, 
which each State was required to complete and provide to ODP by January 
31, 2004.
    OSLGCP will maintain strong ties to operational subject matter 
experts within the current offices and agencies as appropriate. For 
example, while responsibility for crafting policy and guidelines for 
the Port Security Grant Program would reside within OSLGCP, program 
development will still have significant input from and access to 
subject matter experts in the Coast Guard, MARAD, and TSA. The 
Department fully intends to use existing resources and subject matters 
experts to ensure that OSLGCP has the proper staffing levels and 
resources to effectively administer its activities and programs.

                       BASIC STATE GRANT PROGRAM

    Question. The 2005 budget request proposes a significant reduction 
to the Basic State Grant program of the Office for Domestic 
Preparedness (ODP)--as well as abandoning the State minimum in the 
historically-used formula for distributing the money to states. I 
understand the need to balance resources between the states and the 
needs of our urban areas. We tried to achieve that balance in the 
fiscal year 2003 Emergency Wartime Supplemental Appropriations Act and 
the fiscal year 2004 Appropriations Act. The President's fiscal year 
2005 budget proposal seems to have tipped the balance too far in the 
direction of the high-threat urban areas--and does not allow for the 
basic mission of the ODP to be carried out. ODP's mission is to ensure 
a basic level of preparedness in all states. What is the rationale for 
the proposed reduction in funding for the Basic State Grant Program?
    Answer. The President's fiscal year 2005 budget request provides 
significant support for the mission and programs administered by the 
Office for Domestic Preparedness. As you know, The Homeland Security 
Act of 2002 (Public Law 107-296) designated ODP as the principal 
Federal agency responsible for the preparedness of the United States 
for acts of terrorism, including coordinating preparedness efforts at 
the Federal level, and working with all State, local, tribal, parish, 
and private sector emergency response providers on all matters 
pertaining to combating terrorism, including training, exercises, and 
equipment support. The President's request includes $3.561 million, 
which is a $3.3 million increase from the fiscal year 2004 request. 
With these resources, ODP will be able to maintain its role in 
enhancing the security of our Nation.
    It is important to remember that we are operating in a fiscal and 
security environment where we must ensure maximum security benefits are 
derived from every security dollar. To do that, we must be able to take 
a new look at the way in which we allocate resources. Additionally, 
given the Department's improved ability to analyze risks, threats, and 
vulnerabilities, the Department is better able to provided targeted 
funds to increase the security of the Nation. The Department will 
continue to work with the states and territories to provide the 
resources they need--equipment acquisition funds, training and exercise 
support, and technical assistance--to deter, prevent, respond to, and 
recover from acts of terrorism.
    Question. The President's budget proposes an unprecedented amount 
of discretion for the Department in allocating grants. Is it 
appropriate to be requesting these changes through appropriations 
language--or should the administration instead submit a formal 
legislative proposal to change grant allocations to the Congress for 
consideration by the respective authorizing Committees of jurisdiction?
    Answer. The Department of Homeland Security has been discussing and 
working with Members of Congress and different committees, including 
the House Select Committee on Homeland Security and the Senate 
Governmental Affairs Committee, on these issues. At this point, both 
Committees are considering legislation that would authorize various 
aspects of ODP's mission. The Department supports much of this 
legislation (HR 3266 and S. 1245, respectively) in their current forms 
and, in particular, supports the Committee's intent, and is working 
with Chairman Christopher Cox, of the House Select Committee on 
Homeland Security, and Chairman Susan Collins, of the Senate 
Governmental Affairs Committee. The Department will continue to work 
with these Committees on these pieces of legislation and on other 
pieces of legislation that address authorization of ODP's grant 
programs.
    Question. What threat information will be taken into account when 
allocating the basic State grant funds?
    Answer. As a requirement to receive their fiscal year 2004 Homeland 
Security Grant Program funds, and additional funds in fiscal year 2005, 
states conducted threats and vulnerabilities assessments and, based on 
that information, developed homeland security strategies. The states 
were required to provide completed homeland security strategies to the 
Office for Domestic Preparedness on January 31, 2004. At this point, 
ODP has received strategies from all the states and territories, the 
District of Columbia and the Commonwealth of Puerto Rico. ODP and an 
internal DHS Review Board have approved a majority of these strategies. 
A few states and territories are working to provide additional 
information and details to finalize their strategies, but ODP 
anticipates that all strategies will be approved in the next few weeks.
    These strategies are critical resources to the states in the 
efforts to distribute funds in the most effective manner to address the 
homeland security needs. They too are important because they will allow 
the Department to match the preparedness needs as outlined in the state 
homeland security strategies with resources available from the Federal 
Government. The information provided in these strategies will allow the 
Department to make informed decisions on how funds will be distributed 
and what factors the Department will use to make this determination.
    Question. The budget materials talk about the expanded activities 
that the Basic State Grant can be used for--including protection of 
critical infrastructure. If the Basic State Grant can be used for this 
purpose, why is a separate $200 million critical infrastructure grant 
program being proposed?
    Answer. The President's fiscal year 2005 budget request includes 
$200 million for targeted infrastructure protection as part of the 
Urban Areas Security Initiative (UASI) program. The goal of this $200 
million is to provide targeted funding to specific critical 
infrastructure based on analyses performed by the Department of 
Homeland Security's Information Analysis and Infrastructure Protection 
Directorate. These funds will supplement the assistance provide under 
the UASI program and the State Homeland Security Grant Program. While 
the state-based grants will be dedicated to generally enhancing 
security and preparedness, the $200 million for infrastructure 
protection will be targeted to specific cites thereby assisting states 
in their efforts to secure potentially higher threat targets.
    Question. Please provide the Committee with state-by-state 
breakouts of all grants provided through the fiscal year 2000, 2001, 
2002, 2003, and 2004 appropriations, including supplementals. Include 
in the breakouts the status of the grants, dates awarded, obligation 
amounts, and drawndown amounts.
    Answer. Please see the table below entitled ``State-by-state 
Breakout''.
    Question. In addition, please provide obligations and disbursements 
for National Exercises, the Center for Domestic Preparedness, the 
National Consortium for Domestic Preparedness, technical assistance, 
equipment--for each of these years.
    Answer. ODP has completed the preliminary data collection for the 
response to this question. The data collected involves over 4,400 lines 
of accounting and, if printed on 8<greek-e>10 paper, would require 
2,264 pages of data. To ensure an accurate response, the data needs to 
be analyzed and a quality analysis be performed. This effort will take 
additional time to ensure proper analysis and response.
    Further, in order to ensure the most responsive answer to the 
question, ODP would request the opportunity to discuss the data with 
Appropriations Committee staff while the data is being analyzed. This 
discussion would provide preliminary information and to ensure that ODP 
properly understands the request and that the final answer is fully 
satisfactory.

                                                        2000-2004 GRANT ALLOCATIONS: STATE GRANTS
                                                                   [In dollar amount]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                            2000 State      2001 State      2002 State
                                             Domestic        Domestic        Domestic       2003 State      2003 State     2004 Homeland
                  State                    Preparedness    Preparedness    Preparedness      Homeland        Homeland     Security Grant      Totals
                                             Equipment       Equipment       Equipment    Security Grant  Security Grant      Program
                                               Grant           Grant           Grant         Program I       Program II
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama.................................       1,172,000       1,228,000       5,317,000       9,457,000      25,049,000      36,853,000      79,076,000
Alaska..................................         380,000         389,000       2,783,000       4,995,000      13,230,000      19,465,000      41,242,000
Arizona.................................       1,239,000       1,319,000       5,770,000      10,584,000      28,033,000      41,243,000      88,188,000
Arkansas................................         788,000         821,000       4,141,000       7,394,000      19,585,000      28,815,000      61,544,000
California..............................       7,167,000       7,666,000      24,831,000      45,023,000     119,256,000     175,457,000     379,400,000
Colorado................................       1,091,000       1,158,000       5,220,000       9,480,000      25,111,000      36,944,000      79,004,000
Connecticut.............................         943,000         984,000       4,626,000       8,265,000      21,893,000      32,211,000      68,922,000
Delaware................................         407,000         419,000       2,887,000       5,185,000      13,733,000      20,206,000      42,837,000
District of Columbia....................         561,000         366,000       2,747,000       4,910,000      13,006,000      19,136,000      40,726,000
Florida.................................       3,409,000       3,631,000      12,967,000      23,654,000      62,655,000      92,182,000     198,498,000
Georgia.................................       1,868,000       1,993,000       7,797,000      14,188,000      37,579,000      55,288,000     118,713,000
Hawaii..................................         503,000         515,000       3,172,000       5,693,000      15,079,000      22,186,000      47,148,000
Idaho...................................         510,000         530,000       3,226,000       5,803,000      15,375,000      22,621,000      48,065,000
Illinois................................       2,801,000       2,964,000      10,604,000      18,879,000      50,005,000      73,571,000     158,824,000
Indiana.................................       1,499,000       1,580,000       6,400,000      11,399,000      30,194,000      44,422,000      95,494,000
Iowa....................................         856,000         892,000       4,308,000       7,656,500      20,282,000      29,841,000      63,835,500
Kansas..................................         807,000         844,000       4,151,000       7,401,000      19,603,000      28,842,000      61,648,000
Kentucky................................       1,084,000       1,136,000       5,048,000       9,001,000      23,838,000      35,073,000      75,180,000
Louisiana...............................       1,175,000       1,228,000       5,331,000       9,451,000      25,037,000      36,836,000      79,058,000
Maine...................................         513,000         530,000       3,213,000       5,751,000      15,232,000      22,409,000      47,648,000
Maryland................................       1,337,000       1,407,000       5,881,000      10,585,000      28,037,000      41,251,000      88,498,000
Massachusetts...........................       1,552,000       1,632,000       6,579,000      11,711,000      31,020,000      45,638,500      98,132,500
Michigan................................       2,329,000       2,457,000       8,958,000      15,918,000      42,162,000      62,032,000     133,856,000
Minnesota...............................       1,251,000       1,318,000       5,631,000      10,076,000      26,690,000      39,267,000      84,233,000
Mississippi.............................         833,000         869,000       4,255,000       7,582,000      20,083,000      29,547,000      63,169,000
Missouri................................       1,402,000       1,474,000       6,079,000      10,834,000      28,697,000      42,221,000      90,707,000
Montana.................................         436,000         447,000       2,967,000       5,303,000      14,047,000      20,668,000      43,868,000
Nebraska................................         602,000         623,000       3,502,000       6,254,500      16,568,000      24,376,000      51,925,500
Nevada..................................         620,000         655,000       3,693,000       6,771,000      17,935,000      26,387,000      56,061,000
New Hampshire...........................         501,000         519,000       3,187,000       5,727,000      15,172,000      22,321,000      47,427,000
New Jersey..............................       1,968,000       2,072,000       7,948,000      14,222,000      37,671,000      55,424,000     119,305,000
New Mexico..............................         618,000         639,000       3,574,000       6,401,000      16,956,000      24,946,000      53,134,000
New York................................       4,099,000       4,321,000      14,953,000      26,492,000      70,172,000     103,243,000     223,280,000
North Carolina..........................       1,848,000       1,962,000       7,706,000      13,908,000      36,840,000      54,203,000     116,467,000
North Dakota............................         385,000         392,000       2,794,000       4,983,000      13,200,000      19,421,000      41,175,000
Ohio....................................       2,624,000       2,769,000       9,897,000      17,510,000      46,378,000      68,235,000     147,413,000
Oklahoma................................         959,000       1,001,000       4,656,000       8,304,000      21,996,000      32,362,000      69,278,000
Oregon..................................         945,000         992,000       4,637,000       8,336,000      22,081,000      32,487,000      69,478,000
Pennsylvania............................       2,791,000       2,934,000      10,512,000      18,570,000      49,189,000      72,370,500     156,366,500
Rhode Island............................         459,000         472,000       3,063,000       5,489,000      14,540,000      21,392,000      45,415,000
South Carolina..........................       1,062,000       1,119,000       5,028,000       9,017,000      23,882,000      35,138,000      75,246,000
South Dakota............................         406,000         414,000       2,868,000       5,131,000      13,591,000      19,996,000      42,406,000
Tennessee...............................       1,400,000       1,477,000       6,140,000      10,978,000      29,080,000      42,786,000      91,861,000
Texas...................................       4,434,000       4,735,000      16,196,000      29,538,000      78,238,000     115,110,000     248,251,000
Utah....................................         695,000         727,000       3,849,000       6,937,000      18,374,000      27,033,000      57,615,000
Vermont.................................         375,000         383,000       2,772,000       4,963,000      13,147,000      19,342,000      40,982,000
Virginia................................       1,688,000       1,788,000       7,062,000      12,716,000      33,683,000      49,556,000     106,493,000
Washington..............................       1,455,000       1,538,000       6,276,000      11,294,000      29,917,000      44,015,000      94,495,000
West Virginia...........................         634,000         654,000       3,567,000       6,340,000      16,792,000      24,705,000      52,692,000
Wisconsin...............................       1,356,000       1,425,000       5,925,000      10,565,000      27,985,000      41,173,000      88,429,000
Wyoming.................................         352,000         357,000       2,696,000       4,827,000      12,784,000      18,809,000      39,825,000
Puerto Rico.............................       1,267,000       1,120,000       4,894,000       8,727,000      23,118,000      34,014,000      73,140,000
Virgin Islands..........................         372,000         277,000         861,000       1,542,000       4,085,000       6,009,000      13,146,000
American Samoa..........................         230,230         187,600         892,000       1,482,000       3,926,000       5,776,000      12,493,830
Guam....................................         328,000         284,000         828,000       1,596,000       4,226,000       6,217,000      13,479,000
N. Mariana Islands......................         138,770          92,400         835,000       1,496,000       3,963,000       5,830,000      12,355,170
                                         ---------------------------------------------------------------------------------------------------------------
      TOTALS............................      72,525,000      75,726,000     315,700,000     566,295,000   1,500,000,000   2,206,902,000   4,737,148,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

                     HIGH THREAT URBAN AREA GRANTS

    Question. The 2005 President's budget proposes a doubling of the 
funds available in the High Threat Urban Area grants. From $727 million 
in 2004 to $1.4 billion in 2005. This funding increase is offset by a 
reduction in the Basic State Grant program funding.
    Will this funding be used to expand the number of jurisdictions 
that are eligible to receive these grants?
    Answer. The purpose of the Urban Areas Security Initiative is to 
provide an ongoing, dedicated funding stream to support densely 
populated urban areas with key national infrastructure assets and a 
demonstrated threat history. Under this program, DHS, through ODP, is 
currently supporting 50 urban areas. At this point, it is difficult to 
provide a definitive answer to your question on expansion of UASI. As 
you know, the Department based funding decisions based on a combination 
of three variables three variables, which resulted in an assignment of 
a terrorist risk estimate for each city. The variables were (1) a 
combined threat index derived from classified CIA and FBI threat data, 
along with the number of FBI terrorism cases opened in a region, (2) a 
count of critical public and private sector assets, weighted for 
vulnerability, and (3) population density. Each of these three 
variables was normalized and then weighted and summed to give an 
overall terrorist risk estimate. The Department will likely use a 
similar method to distribute funds made available for continuation of 
this program in fiscal year 2005. Given the fluid nature of threats and 
risk, it is difficult to predict the number of urban areas that will 
receive funding through the fiscal year 2005 program.
    Question. Will expanding the number of cities involved dilute the 
purpose of the program, which is to focus resources on those areas of 
the country with the most significant threats?
    Answer. Again, the Department has not made a final decision on the 
number of urban areas that will receive support under the UASI program 
in fiscal year 2005. The number of urban areas receiving support will 
ultimately depend on the information that IAIP receives from the CIA 
and the FBI, along with the other factors, that have been considered 
when determining UASI allocations.
    Question. On the one hand you are proposing to reduce the funding 
available through the Basic State grant program--of which one purpose 
is to ensure that contiguous jurisdictions are working together--while 
on the other, increasing the funds available in the High Threat Urban 
Area grants so you can enhance the ability of contiguous jurisdictions 
within urban areas to respond jointly. How is your proposal an 
improvement over the way these programs have been funded in fiscal 
years 2003 and 2004?
    Answer. As you know, with the support of the House and Senate 
Appropriations Committees, the Department of Homeland Security has 
administered dual funding programs--a formula-based state minimum 
program and a high-threat, high-density program--since fiscal year 
2003. The Department and Administration firmly support this dual 
approach because it allows for baseline preparedness levels while 
targeting funds to high-threat, high-density urban areas across the 
country.
    The Department and the Administration have also consistently 
supported an increase in funds for the high-threat, high-density urban 
areas program to meet the unique needs and challenges of the Nation's 
urban areas. With the funds provided to the Urban Areas Security 
Initiative and the state formula grant program, the Administration's 
fiscal year 2005 budget request supports both minimum levels of funding 
for states to continue their efforts to enhance security and targeted 
funds for the Nation's urban areas.
   u.s. visitor and immigrant status indicator technology (us visit)
    Question. In January you deployed the first phase of the US VISIT 
system to 115 airports and 14 seaports.
    How is the system performing so far?
    Answer. By January 5, 2004, the US VISIT system encompassed 99 
percent of all foreign visitors, with visas, entering the country by 
air, and as of March 1, more than 1.69 million foreign visitors have 
been processed under US VISIT procedures, with over 150 initial matches 
against existing watch lists, resulting in the identification of 62 
criminals guilty of rape, homicide, hit and run death, drug 
trafficking, probation violations, assault, wire fraud, conspiracy, 
etc. The Department of State has also processed 235,883 individuals 
utilizing the US VISIT system, with 75 watch list matches on 32 
criminals.
    The increase in security at our airports and seaports provided by 
US VISIT has not had a negative effect on wait times, nor our 
commitment to service. The pilot program exercised in Atlanta prior to 
the implementation of the capabilities on January 5, 2004 identified an 
increase of less than 15 seconds in inspection time to capture the 
finger scans and digital photo. An analysis of 20 major airports 
utilizing data for the December, 2003, January and February 2004 
timeframes, indicate that there was no impact on CBP's ability to meet 
45 minute time frames on airline inspections.
    After early system evaluation it is clear that visitors appreciate 
the effort we are making to enhance security while simultaneously 
facilitating the process for law-abiding, legitimate travelers.
    Question. The budget states that you expect to deploy an exit 
capability at up to 80 airports and 14 seaports this year. Can you give 
us an update on the exit pilots you are currently running as a part of 
US VISIT?
    Answer. On January 5, 2004, US VISIT implemented two exit pilots: 
one at an airport and one at a seaport of entry.
    In fiscal year 2004, US VISIT will continue to pilot and evaluate 
various exit alternatives, e.g. intelligent work stations/kiosks and 
hand held devices at various locations in airports and seaports.
    In fiscal year 2005, based upon these pilot evaluations, US VISIT 
will initiate implementation of the selected exit solution at the 
remaining 79 airports and 11 seaports, continuing implementation in 
fiscal year 2005.
    Exit processing is to be provided at land border ports following 
the entry implementation of US VISIT functionality in secondary at the 
50 largest land ports in conjunction with RF technology implementation 
in fiscal year 2005. As various exit components are implemented, we 
further strengthen the immigration system by identifying people who do 
not comply with the terms of their admission.
    Question. One of the requirements of the Enhanced Visa Security Act 
is for the countries participating in the Visa Waiver Program to issue 
biometrically-enabled machine-readable travel documents--and for the 
Department of Homeland Security to have the equipment at ports-of-entry 
to be able to read those documents by October of 2004. Do the 
Department of Homeland Security and the Department of State expect that 
the October deadline will be met by the Visa Waiver countries?
    Answer. By October 26, 2004, VWP countries must certify that they 
have a program to issue biometrically enhanced passports in order to 
continue in the VWP Most, if not all, of the VWP countries have 
informed the United States that they will not be able issue 
International Civil Aviation Organization (ICAO) compliant passports by 
October 26 due to technical and other factors. Changing the deadline 
would require Congressional action, and a memorandum concerning this 
issue was forwarded to Congress signed by Secretaries Ridge and Powell 
requesting an extension of the deadline to November 30, 2006. As part 
of the decision to request the extension of the deadline, and to 
provide an additional measure of security while standards and 
technology solutions progress, the Secretary will require beginning 
September 30, 2004, all VWP travelers process through US VISIT. US 
VISIT has funding in the fiscal year 2004 expenditure plan to implement 
this requirement at all POE's (in excess of 330 individual ports).
    Question. The US VISIT program office is currently reviewing the 
proposals for the prime integration contract. Given that it may be 
several more months before this contract is awarded and work can 
begin--how do you expect to meet the deadline of deploying the entry 
and exit capabilities to the 50 busiest land ports by the end of this 
calendar year?
    Answer. Significant up-front planning has been and is being 
accomplished in all aspects of this increment, especially in the 
information technology and facilities work areas which well positions 
the Prime Integrator to assist us in meeting our implementation 
deadlines.

             INTEGRATION OF INFORMATION TECHNOLOGY SYSTEMS

    Question. The Chief Information Officer has been working for over a 
year on the integration and consolidation of information technology 
systems. The budget request for 2005 includes significant resources for 
implementing a new Department-wide human resources system, and a new 
financial management system.
    The Department staff identified over 40 different general ledger 
systems, 30 different procurements processes, and 20 different 
approaches to managing travel costs. Have you seen any savings yet from 
consolidating computer systems?
    When do you expect to see savings?
    Answer. We are still in the development phase of this project and 
therefore cannot estimate when savings may be realized.
    Question. Is the $56 million requested for eMERGE going to cover 
the remaining costs of developing and implementing the financial 
management system?
    Answer. No. This is for fiscal year 2005 only--implementation will 
continue through fiscal year 2006.
    Question. If not, what is the current estimate for the full cost of 
implementation?
    Answer. 2004 and 2005 Projected Costs for eMerge are below. Costs 
in 2006 have not yet been determined.

                              [In millions]
------------------------------------------------------------------------
                                               2004            2005
------------------------------------------------------------------------
Annual Recurring........................            $2.0           $10.5
IT Investments..........................             8.0            56.0
Working Capital.........................            24.8            10.0
                                         -------------------------------
      Total.............................            34.8            76.5
------------------------------------------------------------------------

                      PERFORMANCE BASED PAY SYSTEM

    Question. Under Departmental Operations, $102 million is requested 
for training of supervisory personnel to administer a performance-based 
pay system and to create the framework for the new system. While the 
proposal for Department-wide Technology includes a request for $21 
million to design, develop and implement a new human resource 
information technology system. Exactly how much will the new human 
resources system cost?
    Answer. We are projecting fully loaded life cycle costs of $408.5 
million for complete system implementation. It is important to note 
that the $102.5 million is requested for full implementation of the new 
system (including project management, systems design, training and 
communications, etc.), not just the training aspects of system 
implementation. Major components of this figure include $102.5 million 
for system implementation, $10 million for Coast Guard performance 
pool, an estimated $165 million for other component performance pools, 
and a 6-year life cycle cost of $131 million for human resources 
information technology.
    Question. When do you anticipate the computer system will be 
finished and fully implemented?
    Answer. We are anticipating that technology systems to support 
implementation of the new DHS human resources system will be completed 
during fiscal year 2007.
    Question. The Department of Defense is currently planning to fund a 
conversion to a performance-based pay system without requesting 
additional funding. Why does your budget call for an increase?
    Answer. Fully funding a new system, such as the one proposed by 
DHS, is viewed as a critical component in ensuring its successful 
implementation. Adequate funding to support implementation, with 
particular emphasis on requirements for supervisory and managerial 
training, have been raised as key concerns by the Administration, key 
DHS stakeholders, and union representatives.
    Question. When do you anticipate that the ``demonstration project'' 
to test the new Department of Homeland Security pay-for-performance 
system will be operational within the U.S. Coast Guard?
    Answer. We anticipate that the U.S. Coast Guard will be completely 
operational by January 2006.
    Question. When do you anticipate that the new pay system will be 
fully implemented and operational across the entire Department?
    Answer. At this point we anticipate that the new system will be 
operational in all of DHS by January 2007.

                FUNDING TRANSFERS/LEGISLATIVE PROPOSALS

    Question. The President's budget proposes legislation to transfer 
the $153 million emergency food and shelter program to the Department 
of Housing and Urban Development, and indicates that enactment of 
authorizing legislation will be pursued to return the $400 million 
Strategic National Stockpile back to the Department of Health and Human 
Services. The fiscal year 2005 funding request for the Department of 
Homeland Security assumes no funding for either of these programs. Will 
the requisite legislative proposals be transmitted to the Congress as 
soon as possible and support given for their enactment into law prior 
to the start of the appropriations process?
    Answer. FEMA is currently working with the appropriate authorizing 
and appropriations committees on the legislative language to transfer 
the Emergency Food and Shelter program to the Department of Housing and 
Urban Development in accordance with the President's fiscal year 2005 
budget request.
    The President's fiscal year 2005 Budget includes $400 million for 
the Strategic National Stockpile (SNS) and proposes transferring this 
program to the Department of Health and Human Services (HHS). Language 
to effectuate the transfer of SNS from DHS to HHS has been added to 
S.15, the Project Bioshield Act of 2003.
    Question. Another request in the fiscal year 2005 budget is for 
appropriations language to credit revenues and collections of security 
fees to the Federal Protective Service. As I understand it, these 
revenues and collections are currently credited to the General Services 
Administration's Federal Buildings Fund. Is this requested 
appropriations language sufficient to authorize the transfer of fee 
collections from the General Services Administration to the Department 
in lieu of a legislative proposal? Why?
    Answer. Prior to the transfer of the Federal Protective Service 
(FPS) from the General Services Administration (GSA) to the Department 
of Homeland Security (DHS), GSA collected security fees from its client 
agencies as a part of the rent bill. GSA deposited the collections into 
the Federal Building Fund and allocated the security funds in support 
of FPS law enforcement and security operations. In fiscal year 2005, 
GSA will serve as the billing agent for these fees. The GSA will 
continue to bill the security fees concurrent with the rent billing 
process, but the security revenue will be deposited directly to the FPS 
account. The revenues and collections will not be deposited into the 
Federal Buildings Fund and no transfer to FPS will be required. The FPS 
will continue to be funded by offsetting collections, and the 
appropriations request represents the obligational authority necessary 
to spend the estimated revenues and collections received for law 
enforcement and security services that FPS will provide.
    This process is consistent with the authorities transferred to the 
DHS in the Homeland Security Act of 2002 (Public Law. 107-297, Sec. 403 
and Sec. 422) and the authorities vested in and retained by the 
Administrator of GSA.

              DEPARTMENT OF HOMELAND SECURITY HEADQUARTERS

    Question. The fiscal year 2005 budget requests $65.1 million to 
consolidate Department of Homeland Security headquarters operations at 
the Nebraska Avenue complex (NAC). It also indicates that the 
administration will propose legislation to transfer the ownership of 
the Nebraska Avenue complex from the Navy to the General Services 
Administration.
    When will the legislative proposal to transfer the ownership of the 
Nebraska Avenue complex be submitted to the Congress?
    Answer. The legislation was transmitted to the House on February 
12, 2004 and the Senate on February 18, 2004. Since the NAC is 
currently owned by the Navy, the Majority Leader's office referred the 
proposal to the Senate Armed Services Committee (SASC). While the SASC 
has included its version of the Administration proposal in the annual 
defense authorization bill, the Department is concerned that delays in 
passage of that larger legislation will hamper DHS' mission to ensure 
our Nation's security. The Department will continue to work with the 
appropriate Committees to expedite the consolidation of DHS 
headquarters operations at the NAC.
    Question. Is the $65.1 million requested for relocation of the Navy 
and improvement of existing structures at the Nebraska Avenue complex 
contingent on the enactment into law the authorization of this 
transfer?
    Answer. The $65.1 million will fund improvements at the NAC as well 
as the cost to relocate Naval operations to alternate facilities. 
Without enactment of the legislation transferring ownership of the 
property to GSA, the Navy will not be able to complete their moves from 
the NAC due to the Defense Base Realignment Act (BRAC.
    Question. The fiscal year 2004 appropriations Act provides $20 
million to the Department for alteration and improvement of facilities 
and for relocation costs necessary for interim housing of the 
Department's headquarters' operations. Please update us on the use of 
these funds.
    Answer. To date, $7,411,789 has been obligated: $4,657,220 for Navy 
Relocation, $2,344,569 for space preparation in Building 1 (Sec/Dep 
Sec), Building 3 (1st and 3rd floor swing space), Building 7, 
Facilities and Security Badging, and $410,000 for Architectural and 
Engineering Services for Buildings 1, 4 and 5.
    The remaining $12,588,211 is committed for Building 19, 1st and 2nd 
floors for Information Analysis and Infrastructure Protection (IAIP) 
and Buildings 4 and 5 for Border Transportation Security (BTS), Public 
Affairs and Citizenship and Immigration Services (CIS). The design/
space layout for Building 19 is at approximately 70 percent completion, 
and design/space layout for Buildings 4 and 5 is at 100 percent.
    Question. Once the Nebraska Avenue complex is transferred from the 
Navy to the General Services Administration (GSA) as proposed, won't 
the Department be required to make rental payments to the GSA on this 
location? Is this additional cost assumed in the Department's fiscal 
year 2005 budget? If not, why? What will be the estimated annual rental 
of space payment on the Nebraska Avenue complex once it is transferred 
from the Navy?
    Answer. Yes, rental payments to General Services Administration 
(GSA) will be required. Our fiscal year 2005 request includes $14 
million ($4 million increase from fiscal year 2004) for department-
related rent expenditures.
    GSA is currently conducting building condition evaluations and a 
site appraisal. We will not have refined cost until these activities 
are complete. However, through consultation with GSA, DHS is currently 
estimating the following rental costs:
  --fiscal year 2005 $5.8 million (staggered occupancy)
  --fiscal year 2006 $13.1 million (mostly occupied)
  --fiscal year 2007 $14.4 million (fully occupied)
    These estimates are based on the following rent breakout:

------------------------------------------------------------------------

------------------------------------------------------------------------
Base Rent.................................  $29.00 per rentable square
                                             feet (prsf)
Operating Rent............................  8.90 prsf
T/I Allowance.............................  4.64 prsf
GSA Fee of 8 percent......................  3.80 prsf
                                           -----------------------------
      Total...............................  46.34 prsf (for 5 year
                                             period)
                                            43.06 prsf (for 10 year
                                             period)
Average Approx............................  45.00 prsf \1\
------------------------------------------------------------------------
\1\ Does not include parking.

                       United States Coast Guard

    Question. The fiscal year 2005 budget request proposes 
consolidating all of the research and development components of each 
agency within the Department of Homeland Security into the Science and 
Technology Directorate, to include the Coast Guard's Research, 
Development, Test and Evaluation account. The fiscal year 2004 enacted 
level for research and development within the Coast Guard was $14.9 
million; however, this budget proposes only $13.5 million for Coast 
Guard research and development within Science and Technology.
    Can you explain the approximately $1.4 million decrease in 
requested funding for the Coast Guard's research and development?
    Answer. The fiscal year 2004 and earlier CG R&D appropriations 
included project funds in addition to operating costs of the CG R&D 
Center at Avery Point, CT. The $13.5 million requested in the fiscal 
year 2005 S&T budget does not include any project funds; the request is 
intended to fund only facility and personnel (support and technical) 
costs at the Coast Guard (CG) R&D Center. This level is consistent with 
prior year costs. The fiscal year 2004 enacted level was a significant 
reduction from the fiscal year 2004 request of $22 million and prior 
year appropriations causing an imbalance between operating costs and 
project funding for fiscal year 2004.
    Question. Will this line item for Coast Guard research and 
development continue to be decreased in subsequent fiscal years until 
there is one lump-sum research and development account within Science 
and Technology for all of the agencies at the Department of Homeland 
Security?
    Answer. No. The Science and Technology Directorate (S&T) and Coast 
Guard (CG) are preparing a formal agreement that will detail the 
coordination and funding mechanisms for future CG R&D capabilities. The 
foundation for that agreement is the consolidation of funding requested 
in the fiscal year 2005 budget. S&T and the CG have further agreed upon 
a base level of additional project funding in the amount of $5 million 
that will be specifically targeted toward non-security related projects 
including maritime science and research. This funding will be designed 
to support CG mission-programs such as Marine Environmental Protection, 
Living Marine Resources, Search and Rescue, Aids to Navigation and 
Marine Safety. The specific projects in support of these mission-
programs will be prepared annually for S&T concurrence.
    In addition to this $18.5 million in funding, the Coast Guard will 
submit security-related research requests through S&T for coordination 
across all portfolios and DHS components. The Coast Guard has submitted 
a maritime security R&D portfolio detailing approximately $50 million 
in vital maritime security research initiatives. This portfolio has 
been validated by S&T portfolio managers and will be considered in the 
development of future spending priorities and commitments from S&T. 
Project funding levels for CG and other DHS component requests will 
depend on the risk and cost associated with the project, effect on 
agency missions, linkage to S&T strategic objectives, and 
executability.
    Question. How will consolidating the research and development 
account into Science and Technology affect the Coast Guard in general, 
in terms of control over research projects of particular interest to 
the Coast Guard and access to all ongoing research at the Department?
    Answer. Through its portfolio manager at S&T, the CG will have 
direct access to, and visibility of all S&T research and initiatives. 
The CG will, at a minimum, retain control of the projects in support of 
its non-Security mission programs. The integration of funding and 
effort will go far to minimize redundancy and maximize the 
effectiveness of Coast Guard R&D while ensuring that all Coast Guard 
mission requirements remain a key part of S&T planning and resource 
decisions.
    Question. How will this consolidation directly affect the Coast 
Guard Research and Development Center in Groton, Connecticut?
    Answer. There are currently no plans by DHS S&T to make changes to 
the location or personnel staffing levels of the CG R&D Center.
                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

                     ALASKA-CANADA BORDER SECURITY

    Question. The Department of Homeland Security has recently 
indicated that it is formulating plans to increase security along the 
Alaska-Canada border. What steps will the Department of Homeland 
Security take to ensure that the heightened security along the border 
will not negatively impact the shipments of goods to Alaska?
    Answer. Inordinate delays with Alaska-Canada at Alaska-Canada's 
border with truck cargo are not anticipated. Truck traffic is 
relatively small at the border ports of entry. In addition, most of the 
cargo is low risk and easily and quickly scanned for radiation with 
personal radiation detectors.
    This is in spite of the fact that since 9/11, several measures have 
been implemented to increase security along the Canadian/Alaskan 
border. Staffing has increased significantly due to various 
Congressional initiatives. Additional physical barriers have been 
installed at multiple crossing points, and several other security 
implements have been employed to further ``harden'' the border between 
Alaska and Canada.
    The ports of Skagway and Dalton Cache are now operational 24 hours 
a day, 7 days a week (24/7). Additional staffing and operational hours 
have increased CBP's vigilance at these two important ports of entry. 
The port of Alcan continues to operate on a 24/7 schedule.
    The port of Poker Creek, a busy, seasonal crossing, is now jointly 
staffed by CBP and Canada Border Services Agency personnel. This 
collaboration has led to a safer, more efficient, border security 
operation.
    The staffing enhancements and scheduling changes have helped to 
meet the new challenges posed by the recent implementation of the Bio-
Terrorism Act. CBP continues to work with carriers, importers, 
commercial fishermen, and even professional dog sled mushers to 
minimize potential disruptions and delays. To date, there haven't been 
any problems and we don't anticipate any.

                              COAST GUARD

    Question. The fiscal year 2005 Homeland Security budget includes 
$6.2 billion for the United States Coast Guard. Does this amount ensure 
that the Coast Guard will comply with Section 888 of the Homeland 
Security Act? This provision requires that the Coast Guard maintain its 
traditional missions of Search and Rescue, Fisheries Enforcement, Drug 
Interdiction, and Aids to Navigation.
    Answer. The Coast Guard will continue to support all the programs 
specified in Section 888 of the Homeland Security Act. The Coast 
Guard's fiscal year 2005 budget proposes budget authority of $7.46 
billion, a 9 percent increase over fiscal year 2004, and continues the 
Coast Guard's effort to enhance capability and competencies to perform 
all safety and security missions. Due to the Coast Guard's multi-
mission nature, full support of the Coast Guard's fiscal year 2005 
budget proposal, which includes funding for Integrated Deepwater 
System, Rescue 21, Response Boat-Medium and Great Lakes Icebreaker 
projects, will assist in the performance of all mission areas. Coast 
Guard is gaining capacity with operational funding of eleven 87-foot 
Coastal Patrol Boats and five 179-foot Patrol Coastals transferring 
from the Navy. These additional assets will provide more resource 
hours, which will be applied to all mission areas. However, even with 
this additional funding, the Coast Guard must be judicious in the 
allocation of a finite resource base across traditional and homeland 
security missions to effectively deliver essential daily services to 
the American public.
    To successfully do this, the Coast Guard is working to develop a 
Strategic Blueprint, which provides a description of the strategies and 
processes for allocating Coast Guard resources to reduce risk within 
each mission program, and to accomplish stated performance goals. The 
post-9/11 environment demands that the Coast Guard focus on reducing 
risk and strive to achieve performance goals in each program through a 
continual examination of its authorities, capabilities, competencies 
and partnerships. The Strategic Blueprint documents how the Coast Guard 
enables the operational commander to make decisions regarding the 
employment of resources to counter risks in an ever-changing 
environment.
    Question. The United States Coast Guard recently completed a 
successful test of two ``Predator A'' unmanned aerial vehicles in King 
Salmon, Alaska. The Coast Guard will test a ``Predator B'' unmanned 
aerial vehicles in Alaska during the month of June. Do you consider the 
use of Predators and other unmanned aerial vehicles to be a cost 
effective tool to assist the Department with maintaining traditional 
and security related missions?
    Answer. Yes, the use of Unmanned Aerial Vehicles (UAV) is a cost 
effective tool to meet some operational requirements for DHS and the 
Coast Guard. The Coast Guard's current Integrated Deepwater System 
(IDS) implementation plan includes the acquisition of two types of 
UAVs, the High Altitude Endurance UAV and the Vertical Takeoff and 
Landing Unmanned Aerial Vehicle (VUAV), with the goals of increased 
Operational Effectiveness (OE) and reduced Total Ownership Costs (TOC). 
The Coast Guard is currently acquiring the Bell HV-911 ``Eagle Eye'' as 
the Vertical Takeoff and Landing Unmanned Aerial Vehicle (VUAV) for 
shipboard deployable operations. The VUAV is a short-range, low 
maintenance aircraft, which will allow the Coast Guard to extend the 
surveillance, classification and identification capability of its major 
cutters through its speed, range, and endurance and do so more cost 
effectively. This asset will be used for maritime homeland security, 
search and rescue missions, enforcement of laws and treaties including 
illegal drug interdiction, marine environmental protection, and 
military preparedness.
    To mitigate risk and learn more about using Medium and High 
Altitude Long Endurance (MALE/HALE) UAVs, the Coast Guard has conducted 
demonstrations in Alaska to evaluate the efficacy of using MALE/HALE 
UAVs, like the Predator UAVs, for Maritime Domain Awareness (MDA). 
These demonstrations are also building organizational partnerships 
within DHS, NASA, DOD and the private sector for the future use of 
UAVs. DHS and the Coast Guard have had limited experience with UAV 
operations, and no experience with Beyond Line of Sight UAV operations. 
The results of the exercises and subsequent data analysis will assist 
in the development of tactics, techniques and procedures for use in any 
future DHS/USCG UAV operations (including Predator B), and will be used 
to develop, validate, verify or accredit ongoing environmental, 
operational, regulatory, and cost benefit studies.

                         NATIONAL ALERT SYSTEM

    Question. Last year, Congress included $10 million to improve our 
national alert system. We directed the Department of Homeland Security 
to report on how the existing nationwide radio network, administered by 
NOAA, can be expanded so that it can reach more citizens. It was 
intended that Homeland would consult with the FCC to develop a system 
that would be ubiquitous and would cross a full range of mediums and 
technologies to alert the public to a terrorist threat. For instance, 
Americans should be alerted to a threat through the use of not just 
radio but also wireline and cellular telephones, e-mail and instant 
messaging systems, radio and television broadcasts, and personal 
digital assistants. The report was also supposed to evaluate how the 
system is being tailored to send out regional threats in addition to 
nation-wide threats.
    This report was due on December 15, 2003. Mr. Secretary, it is my 
understanding that the Appropriations Committee has not yet received 
the report. Please tell us what the status is.
    Answer. The congressional report has been cleared by OMB and the 
Department. We anticipate delivery of the report to the congressional 
Appropriations Subcommittees by May 21, 2004.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

         NATIONAL INFRASTRUCTURE SIMULATION AND ANALYSIS CENTER

    Question. Secretary Ridge, the Department of Homeland Security has 
taken ownership of the National Infrastructure Simulation and Analysis 
Center, or NISAC. NISAC was developed by Sandia and Los Alamos National 
Laboratories to simulate and analyze various events and the cascading 
effects on critical infrastructure in the United States. Following the 
September 11th terrorist attacks, NISAC took on added importance as the 
Administration and Congress focused on homeland security.
    The fiscal year 2004 Homeland Security Appropriations Act had 
approximately $23 million for NISAC. Would you please give the 
Subcommittee the status of the allocation of the fiscal year 2004 
funding?
    Answer. The Homeland Security Appropriations Act of did not contain 
a specific line item for the National Infrastructure Simulation and 
Analysis Center. However, the Department obligated $20 million in 
November 2004 for NISAC efforts that will be performed by Los Alamos 
National Laboratory ($10 million) and Sandia National Laboratory ($10 
million). Some of the planned NISAC activities include chlorine 
industry studies, analyses of rail system and electric power 
disruptions, assessments of Hurricane Isabel impacts on infrastructure, 
port and inland waterway modeling, as well as urban infrastructure 
modeling.
    Question. How much is in the President's fiscal year 2005 budget 
request to support activities by NISAC?
    Answer. The fiscal year 2005 request for the NISAC is $27 million.
    Question. What are some of the activities envisioned in the fiscal 
year 2005 budget for NISAC?
    Answer. NISAC fiscal year 2005 activities are expected to include 
expansion of the Center's efforts to develop National and Regional 
Tools into additional regions and cities of the Nation. Additionally, 
NISAC will begin developing consequence analysis and decision support 
tools to support the following:
  --Expansion of the urban infrastructure suites models for 
        transportation, telecommunications, water, public health and 
        energy to additional high threat urban areas.
  --Expansion of the dynamic simulation models to selected east and 
        west coast ports.
  --Expansion of the interdependent energy infrastructure simulation 
        system
  --Expansion and testing of the waterways asset prioritization tool in 
        concert with the U.S. Coast Guard and Army Corps of Engineers.
  --Continued expert analysis and support to short term actions for the 
        Department's primary missions by using the Center's developing 
        infrastructure models and creating new ones where necessary.
    Question. One of the items that transferred from the Department of 
Energy to the Department of Homeland Security with NISAC was an 
appropriation of $7.5 million for the construction and equipping of a 
NISAC facility at Kirtland Air Force Base in Albuquerque, New Mexico, 
which is adjacent to Sandia National Lab. Those funds have not been 
released for their intended purpose.
    What is the delay in moving forward on this important facility?
    Answer. The Homeland Security Appropriations Act did not explicitly 
appropriate $7.5 million for a NISAC facility Nonetheless, the 
Department is drafting a letter to the Department of Defense to begin 
the necessary coordination to build a DHS building on DOD property. We 
expect to initiate site surveys, followed by a possible site selection 
this summer. DHS has retained sufficient funds to complete the survey 
and site selection process.
    Question. What is the status of the $7.5 million appropriation 
specifically for the NISAC facility? Are those funds being held for the 
intended purpose?
    Answer. Yes.
    Question. When can the Subcommittee expect the Department of 
Homeland Security to break ground on the NISAC facility in New Mexico?
    Answer. The program manager has initiated discussions with the 
Kirkland Base Commander concerning the availability of suitable sites 
on Kirkland for the NISAC and we have begun coordination with the 
Department of Defense to address requirements for building a DHS 
facility on DOD property. The groundbreaking date will be dependent on 
the identification of a suitable site for the NISAC.

                    UNMANNED AERIAL VEHICLES (UAVS)

    Question. Secretary Ridge, I have written to you on two different 
occasions in support of exploring the option of using unmanned aerial 
vehicles (UAVs) to monitor our borders, particularly the Southwest 
border. I also noticed in your testimony that there is $10 million in 
the President's Budget to ``plan, procure, deploy and operate unmanned 
aerial vehicles.'' In New Mexico, we have some experience with UAVs. In 
fact, the Physical Sciences Laboratory at New Mexico State University 
operates a Department of Defense sponsored UAV validation and test 
facility. Because of the already established presence of UAVs in New 
Mexico, I have also invited you to visit Las Cruces to see for yourself 
this work and evaluate Las Cruces as a potential site for housing the 
UAV wing responsible for border surveillance.
    Given the $10 million request for UAVs, can you expand upon the 
plans you have for them?
    Answer. U.S. Customs and Border Protection has been evaluating the 
possibilities of using UAV technology to enhance its border security 
mission since June 2003. The initial evaluation process indicates that 
UAVs may indeed have a role in that mission. A pilot program is 
underway to acquire a UAV system and deploy it to various border areas 
to further evaluate their effectiveness and to further develop concepts 
of operation utilizing UAVs in CBP's mission. The $10 million budget 
request will support that effort in fiscal year 2005 during which a 
fully self-supporting UAV package will be leased either via an existing 
DOD-owned contract or through a competitive CBP procurement process.
    Question. How many UAVs does the Department currently have?
    Answer. DHS does not possess any UAV systems.
    Question. How many UAVs does the Department plan to acquire?
    Answer. Several agencies including CBP, Coast Guard and TSA 
regularly coordinate UAV programs in a working group. The working group 
is currently developing high-level requirements to be applied towards 
any future DHS-wide acquisition of UAVs. No concrete commitment has yet 
been made towards the type or quantity of UAV system acquisition due to 
the variety of needs and requirements among the agencies.
    The Coast Guard's current Integrated Deepwater System (IDS) 
implementation plan includes the acquisition of two types of UAVs, the 
High Altitude Endurance UAV and the Vertical Takeoff and Landing 
Unmanned Aerial Vehicle (VUAV), with the goals of increased Operational 
Effectiveness (OE) and reduced Total Ownership Costs (TOC). The Coast 
Guard is currently acquiring the Bell HV-911 ``Eagle Eye'' as the 
Vertical Takeoff and Landing Unmanned Aerial Vehicle (VUAV) for 
shipboard deployable operations.
    Question. Where does the Department plan on stationing these UAVs?
    Answer. UAV usage within DHS is in the very early developmental 
stages. A number of potential sites are being considered and no final 
decisions have been made at this time.
    Question. When can you join me in Las Cruces to evaluate the Las 
Cruces International Airport as a potential home for the UAV program?
    Answer. I appreciate the Senator's offer and respectfully suggest 
that our staffs try to coordinate a future departmental visit to that 
site.

CHARTER FLIGHTS TO FEDERAL LAW ENFORCEMENT TRAINING CENTER IN ARTESIA, 
                               NEW MEXICO

    Question. Secretary Ridge, as you know, one of the Federal 
Government's premier training sites for law enforcement officers is 
located in Artesia, New Mexico. It is known as FLETC-Artesia (Federal 
Law Enforcement Training Center). When terrorists attacked us in 
September of 2001, Congress quickly required the training of hundreds 
of new Air Marshals. It was FLETC-Artesia that met the impressive 
challenge of training these new Air Marshals, quickly ramping up the 
program and bringing in three 727's to be used in this training.
    FLETC-Artesia is also the campus chosen to provide training for 
airline pilots who choose to carry firearms in the cockpit (also known 
as Federal Flight Deck Officers). They provide this training in 
addition to basic and advanced training for a number of other agencies.
    Feedback from trainees who have been to Artesia is almost 
universally positive. In fact, one of the few complaints has to do with 
one of its greatest assets--its location. Because Artesia is over 3 
hours from the nearest large cities (Albuquerque and El Paso), there is 
a lot of wide open space to conduct training exercises. Unfortunately, 
it is also difficult to get to Artesia--this is the biggest complaint. 
The good news is that I believe there is a solution to this problem. I 
have been working with the officials at FLETC-Artesia, FLETC 
Headquarters in Glynco, Georgia, and in the Border and Transportation 
Safety Directorate on a plan to provide charter services from a major 
air hub, like Dallas-Fort Worth, to Roswell, which is a 30 minute bus 
ride from FLETC-Artesia. Ultimately, I believe the airlines will see 
how beneficial this is to them and will schedule regular service along 
this route. I also believe the client-agencies will quickly see the 
benefits of shorter travel times, fresher students, and better trained 
employees.
    FLETC-Artesia recently put out a Request for Information seeking 
feedback from airlines who might provide this service. My understanding 
is that the response was positive and that estimates are that it would 
take $800,000 to provide this service for the rest of the fiscal year.
    As a member of the Homeland Security Appropriations Subcommittee, I 
joined with my colleagues in deciding not to earmark that bill. This 
meant that there was no opportunity for me to work with my colleagues 
to place money in that bill for this project. Instead, we left it up to 
you to determine how best to spend the money to protect our Homeland. 
Will you commit to improving the training of our Federal law 
enforcement officials by approving funds for this charter service?
    Answer. In the post September 11, 2001 period, there has been real, 
sustained growth in the use of all FLETC training centers, including 
the Artesia, NM center. Although the absence of regular and reliable 
service to the Artesia area has been an obstacle to wider use of that 
location in the past, recently we have increased utilization to almost 
capacity because the FLETC Glynco site is at maximum capacity and the 
agencies need to train within specific timeframes. FLETC is 
experimenting with conducting more basic training programs at Artesia 
in fiscal year 2004 and there has been increased use of the site for 
Flight Deck Officer training, among others, for specialized training. 
With this in mind, FLETC will track closely the issues and usage of the 
Artesia site and report back their findings in fiscal year 2005. Should 
the travel service continue to be a problem, the Department will 
consider looking at other possible solutions, including some 
subsidizing of air service into the Artesia area. This may require 
additional authorizing language.
    Question. How can we in Congress help provide the best training 
possible for our Federal law enforcement officers, particularly within 
the Federal Law Enforcement Training Center?
    Answer. Both Congress and the Administration share a common goal of 
ensuring all Federal law enforcement officers have the opportunity for 
the highest quality training, especially in this period of national 
concerns with security of the homeland. The Department of Homeland 
Security (DHS) is indebted to your leadership and that of others in 
Congress, who have long and actively supported the concept of 
consolidated training that is represented by the Federal Law 
Enforcement Training Center (FLETC). Since the events of September 11, 
2001, FLETC has undertaken increasingly more training responsibilities 
and we are proud of the achievements that have been made by the FLETC 
staff and, indeed, its 76 partner agencies. With the generous support 
of Congress, FLETC has added many new facilities and improved upon the 
delivery of critical training, such as terrorism, first responder, and 
international financial crimes over the last few years. In addition to 
FLETC's Glynco, GA, Artesia, NM, and Cheltenham, MD training sites, the 
DHS has entrusted two other sites to FLETC for law enforcement training 
in Charleston, SC and Harpers Ferry, WV in fiscal year 2004 and fiscal 
year 2005, respectively. At this point, we believe the resources, 
funding, and support for consolidated training are meeting fully the 
changing dynamics of Federal law enforcement training.

                            FIRST RESPONDERS

    Question. Secretary Ridge, as you know, long before the terrorist 
attacks of September 11, New Mexico Tech was working as part of a 
consortium with Louisiana State University and Texas A&M to provide 
training to first responders. Since the attacks the need for this 
training has become more important.
    How much is included in the President's fiscal year 2005 Budget for 
the training of first responders?
    Answer. $92 million is included in the President's fiscal year 2005 
Budget for the training of first responders. As well, states and 
localities may choose to use their grant funding to support additional 
training.
    Question. There has been a lot of discussion about standardization 
of equipment used by first responders. What are your thoughts about 
standardization of training for first responders?
    Answer. The Office for Domestic Preparedness (ODP) is the principal 
component of the Department of Homeland Security (DHS) responsible for 
preparing the United States for acts of terrorism. In carrying out its 
mission, ODP is the primary office responsible to providing training, 
funds for the purchase of equipment, support for the planning and 
execution of exercises, technical assistance and other support to 
assist states and local jurisdictions prevent, plan for and respond to 
acts of terrorism ODP provides more than 30 different types of training 
courses. These courses are tailored for a broad spectrum of emergency 
responders, including fire service, hazardous materials, law 
enforcement, emergency medical services, public health, emergency 
management, public works agencies, governmental administrative, 
healthcare, and public safety communications
    ODP's training efforts fall into three different categories: (1) 
in-residence (training provided at one the National Domestic 
Preparedness Consortium (NDPC) facilities), (2) on-site or mobile 
training (training provided at a local agency by request through an 
NDPC member or other ODP training partner), and (3) Website-based 
training. In-residence or ``residential training'' occurs at one of the 
five members of the National Domestic Preparedness Consortium (NDPC). 
On-site training is provided by either one of the members of the NDPC 
or through one of ODP's other training partners. This training is 
provided directly at a State or local first responder agency upon 
official request through that state's state administering agency for 
ODP funds. ODP's Website-based training efforts are administered by the 
Texas Engineering and Extension Service, which offers three online 
courses for emergency responders.
    ODP draws on a large number of resources to develop and deliver a 
comprehensive national training program. In addition to the NDPC, ODP 
works with a large number of national associations and organizations, 
along with other agencies from the local, State, and Federal levels, to 
provide training to our Nation's emergency prevention and response 
community. This approach aligns closely with the President's National 
Strategy for Homeland Security issued in July 2002, which called for a 
consolidated and expanded training and evaluation system to support the 
Nation's emergency prevention and response community.
    To ensure compliance with nationally accepted standards, these 
courses have been developed and reviewed in coordination with other 
Federal agencies, including the Centers for Disease Control and 
Prevention (CDC), the Department of Energy, the Environmental 
Protection Agency (EPA), the Federal Bureau of Investigations (FBI), 
the Federal Emergency Management Agency (FEMA), as well as with 
professional organizations such as the International Chiefs of Police, 
the International Association of Fire Chiefs, and the National 
Sheriff's Association.
    Question. What potential do you see for future use of this 
consortium?
    Answer. New Mexico Tech recently entered into negotiations for the 
purchase of the town of Playas, New Mexico. This former mining town was 
virtually abandoned when the mine was closed. New Mexico Tech plans to 
use this town as a real-world training site.
    Question. What role do you foresee Playas playing in the training 
of first responders?
    Answer. Playas will be jointly developed by the New Mexico 
Institute of Mining and Technology and the New Mexico State University 
using funds already made available to the New Mexico Institute of 
Mining and Technology through the Department of Homeland Security's 
Office for Domestic Preparedness (ODP). As you are aware, ODP has 
funded the New Mexico Institute of Mining and Technology since Fiscal 
year 1998 as part of the National Domestic Preparedness Consortium.
    As part of the Consortium, the New Mexico Institute for Mining and 
Technology supports ODP's mission of assisting State and local 
governments plan and prepare for incidents of domestic terrorism by 
providing critical training to the Nation's first responders.

                     SCIENCE AND TECHNOLOGY FUNDING

    Question. Secretary Ridge, the Department of Homeland Security has 
a significant research budget to develop new technologies to secure the 
United States against terrorist attacks. I know that the Department has 
made significant progress in setting up the mechanisms to allocate 
science and technology funding to industry, universities, and national 
laboratories. This is a vital mission of your Department.
    I understand that the Department is still in the process of 
allocating fiscal year 2003 science and technology funding. What is the 
current time line for completing this allocation of funding?
    Answer. The Science and Technology Directorate has ``execution 
plans,'' that is, identified scope of work, for all remaining fiscal 
year 2003 funds and fully expects to have all remaining funds allocated 
by the end of fiscal year 2004.
    Question. The Department is now engaged in the allocation of fiscal 
year 2004 science and technology funding. How do you plan to allocate 
fiscal year 2004 funding in a more timely manner?
    Answer. The Department of Homeland Security has existed now for 
just over a year. Like the rest of the Department, the Science and 
Technology Directorate has been working hard to develop effective and 
efficient procedures and policies, including those necessary for 
selection of performers of the work to be done and the subsequent 
contractual processes and allocation of funds. As these procedures get 
established, projects will be awarded and funded in a more timely 
manner. I am pleased to say that in the last 3 months, the Science and 
Technology Directorate has made significant progress in allocating its 
available funding into the hands of those researchers who are 
developing and transitioning the vital technologies and tools to make 
the Nation safer. Both the Under Secretary for Science and Technology 
and I will continue to monitor the status of project selection and 
funding, and expect to see continued progress.
    Question. I note that this year, the Department's budget submission 
is improved over last year as one would expect. Although there are 
security considerations, could you describe your plans to ensure 
transparency in the Department of Homeland Security budget? Both the 
Departments of Defense and Energy make their supporting budget 
documents public. Will you follow suit
    Answer. The Science and Technology Directorate prepares its annual 
Congressional Justification in an open and unclassified manner and will 
continue to do so as long as programs do not move into the sensitive 
realm. In addition, the Science and Technology Directorate prepares its 
written testimony for the record for each of its budget-related 
hearings in an unclassified document. This written testimony contains 
the supporting documentation for its budget request and becomes 
publicly available.
    Question. One of the biggest challenges in the science and 
technology area has to be coordinating the allocation of funding 
between near-term and applied technology and basic, long-term R&D 
funding.
    What level of coordination is being provided by your office, Mr. 
Secretary, to ensure an appropriate split between near-term and long-
term R&D?
    Answer. I have delegated the responsibility for determining the 
appropriate split between near-term and long-term research and 
development to the Under Secretary for Science and Technology and he 
keeps me and others informed, although the final responsibility is 
mine. In the approximately 1 year that this Department has been in 
existence, the Science and Technology Directorate has focused its 
initial efforts on near-term development and deployment of technologies 
to improve our Nation's ability to detect and respond to potential 
terrorist acts. However, we recognize that a sustained effort to 
continually add to our knowledge base and our resource base is 
necessary for future developments. Thus, we have invested a portion of 
our resources, including our university programs, toward these 
objectives. The following table indicates the Science and Technology 
Directorate's expenditures in basic research, applied research, and 
development to date, excluding construction funding.

                               SCIENCE AND TECHNOLOGY DIRECTORATE R&D INVESTMENTS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
                                                                    Fiscal year        2004            2005
                                                                   2003 (actual)    (estimated)     (proposed)
----------------------------------------------------------------------------------------------------------------
Basic...........................................................             $47            $117             $80
Applied.........................................................              59              56             229
Developmental...................................................             398             608             643
                                                                 -----------------------------------------------
      Total.....................................................            $504            $781            $952
                                                                 -----------------------------------------------
Percent basic...................................................             9.3            15.0             8.4
----------------------------------------------------------------------------------------------------------------

    Our initial expenditures in basic research are heavily weighted by 
our investments in university programs. These university programs will 
not only provide new information relevant to homeland security, but 
will also provide a workforce of people who are cognizant of the needs 
of homeland security, especially in areas of risk analysis, animal-
related agro-terrorism, bioforensics, cybersecurity, disaster modeling, 
and psychological and behavioral analysis. In addition, the Science and 
Technology Directorate is allocating a portion of its resources to 
high-risk, high-payoff technologies and expects to gradually increase 
its investments in long-term research and development to a level 
appropriate for its mission and the Department.
    Question. What do you envision as the role of the Department of 
Homeland Security in investments in future R&D to meet homeland 
security requirements?
    Answer. At the current time, the Science and Technology Directorate 
is working hard with available funds to fill critical gaps in our 
Nation's ability to prevent, protect against, respond to and recover 
from potential terrorist attacks; however, we are all well aware that 
it is only with a strong investment in long-term research that we can 
we feel confident we are maintaining a robust pipeline of homeland 
security technologies to keep us safe for the decades to come. 
Successful businesses reinvest 10-15 percent of their total budget in 
research and development; the Science and Technology Directorate will 
strive in future years to invest a similarly significant portion of its 
resources into long-term research.

                       INTERAGENCY COLLABORATION

    Question. Mr. Secretary, the Department of Homeland Security 
combines the programs and personnel for many Federal agencies. Creating 
a culture as one department is a real challenge, but there are 
capabilities throughout the Federal Government that can assist your 
Department in meeting homeland security threats.
    I would encourage the Department to develop strong positive 
relationships with other Federal departments and agencies where there 
is opportunity for collaboration and cooperation to make your job 
easier.
    Is it correct that your Department has worked with both the 
Department of Energy and the National Nuclear Security Agency (NNSA) as 
it develops its programs to meet homeland security threats?
    Answer. The Department of Homeland Security has worked very closely 
with the Department of Energy (DOE) and NNSA from the very early stages 
of the development of the Science and Technology (S&T) program. The DOE 
laboratories provided extensive technical expertise and advise 
regarding the S&T program development.
    Question. How would you characterize these interactions?
    Answer. The Department's interactions with DOE and NNSA have been 
very positive. The Department of Homeland Security's (DHS's) S&T staff 
has an open communication relationship with DOE senior managers as well 
as with the DOE field personnel. Since some of the S&T staff came from 
DOE, there are close ties and good relationships that facilitate 
developing the processes of how DOE and DHS work together. When issues 
arise, they are quickly elevated so that communication occurs between 
the appropriate parties in both Departments and a resolution achieved.
    Question. What potential do you see for future collaborations?
    Answer. The Department of Homeland Security fully expects to 
continue and enhance its collaborations with the DOE and NNSA, as well 
as other Federal agencies conducting work of relevance to homeland 
security. For example, the S&T Directorate is committed to utilizing 
the extensive capabilities of all DOE laboratories and to engage them 
in all aspects of our research, development, testing and evaluation 
(RDT&E) program. The Directorate's Office of Research and Development 
is developing an enduring RDT&E capability through stewardship of the 
homeland security complex. To meet the Federal stewardship goal, the 
DOE laboratories will play a significant role in assisting in the 
strategic planning of the threat-based programs such as radiological/
nuclear and biological countermeasures programs. The DOE laboratories 
also have significant existing capabilities and facilities for 
addressing terrorist threats, thus DHS will contribute support for some 
existing DOE facilities and reach-back into these unique capabilities. 
In addition, the DHS University Scholars and Fellows program is working 
with the DOE laboratories to place students with DOE mentors.
    Question. The science and technology directorate at the Department 
has had discussions with the DOE national laboratories in such areas as 
radiological and nuclear and bioterrorist threats. The labs have 
significant capabilities to assist the Department of Homeland Security. 
Do you envision these collaborations continuing? Are there any barriers 
to such activities? If so, can Congress assist in addressing these 
issues?
    Answer. The Department's Science and Technology Directorate will 
continue to utilize the DOE laboratories to address S&T requirements 
including key threat areas such as radiological, nuclear and biological 
countermeasures. Collaborations between DHS and DOE have been very 
successful to date, and the Science and Technology Directorate plans to 
continue these collaborations well into the future. There are currently 
no barriers to these collaborations. If circumstances change, the 
Department will bring this to the attention of Congress.

                        FEMA--CERRO GRANDE FIRE

    Question. Mr. Secretary, when FEMA joined your Department, you 
inherited the Cerro Grande fire assistance program. The devastating 
Cerro Grande Fire occurred in New Mexico in May 2000. This fire 
consumed almost 48,000 acres of forest, destroyed nearly 400 homes and 
caused damage or injury to 1,000 families, countless businesses, the 
county of Los Alamos, the State of New Mexico, four Indian pueblos, and 
Los Alamos National Laboratory.
    I would remind my colleagues that this fire was started by the 
Federal Government when a controlled burn at Bandelier National 
Monument burned out of control. For that reason, the Congress enacted 
the Cerro Grande Fire Claims Assistance Act of 2000, and appropriated 
$455 million to FEMA to establish a claims program to compensate 
victims of the fire.
    The fiscal year 2004 Homeland Security Appropriations Act included 
$38.1 million to continue paying claims under the Act. Based upon 
information from the Department, the conferees on the fiscal year 2004 
bill stated that, and I quote, ``this funding will fully cover all 
remaining Cerro Grande fire claims'' (end quote).
    Would you please provide the Subcommittee with a summary of the 
claims activity under the Cerro Grande Fire Assistance Act of 2000? 
Please include the number of claims filed, processed, approved, and 
declined by category of claim (individual, business, Native American, 
governmental).
    Answer. The Office of Cerro Grande Fire Claims (OCGFC) has received 
a total of 21,515 claims: 13,700 individual/household claims; 1,861 
business claims; 6 Pueblo/Native American claims; 20 governmental 
claims; and 4,562 subrogation claims from the insurance industry. The 
balance of the claims consisted of small-dollar-amount claims, not-for-
profit claims, or streamlined claims (both business and individual 
claims under $10,000). With the exception of the pending appeals and 
arbitrations (see answer below), virtually all of the claims have been 
resolved. OCGFC has not kept records by category on the numbers of 
claims approved in whole or in part, or denied in whole or in part.
    Question. Please provide the Subcommittee with information on the 
number of claims that have been appealed and the general status of 
those appeals.
    Answer. OCGFC has received 718 Administrative Appeals, of which 
only 28 are still pending. The remainder have been accepted, denied, or 
withdrawn. Of the 135 arbitrations that have been filed with OCGFC, 120 
arbitrations are complete, and 15 arbitrations are pending.
    Question. What is the status of subrogation claims for insurance 
companies that assisted individuals and businesses in the immediate 
aftermath of the fire? Will insurance companies be adequately 
reimbursed for their expenses, and what factors are taken into account 
in determining their appropriate payments?
    Answer. Of the 4,562 subrogation claims filed with OCGFC, all but 
42 were determined to be eligible. OCGFC has made 56 percent partial 
payments on the subrogation claims. We have reimbursed insurers and 
reinsurers only the amounts that they paid out under their insurance 
policies, and we have not reimbursed subrogation claimants for their 
expenses of administering the claims they received from their insureds. 
These expenses are currently the subject of litigation.
    Question. Finally, what is the status of the funding remaining for 
Cerro Grande fire claims and for administrative expenses?
    Answer. As of March 25, 2004, $55,596,000 remained in available 
claims funds and $950,000 was available to cover administrative 
expenses. 5. Is it correct that there is sufficient funding remaining 
under current appropriations to satisfy pending claims, anticipated 
favorable appeals, and subrogation claims by insurance carriers? If 
not, what is the estimated amount needed to fulfill these obligations?
    Answer. We believe that there are sufficient funds to settle all 
remaining claims.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

    Question. Mr. Secretary, the President's request provides $50 
million for the Center for Domestic Preparedness (CDP). This is $5 
million below the fiscal year 2004 enacted level and well below the 
level necessary to train our Nation's first responders. As you point 
out in your budget justification the CDP is the only live agent 
training facility available to our Nation's first responders. With a 
budget of $75 million, the CDP can train almost 100,000 first 
responders. This is almost twice the 55,000 they plan to train this 
year with $55 million. The CDP serves a vital role in our Nation's 
first response capability. Could you please explain then, why the CDP's 
budget has been cut for fiscal year 2005?
    Answer. As you know, the Center for Domestic Preparedness is a 
Department of Homeland Security-owned and operated facility that 
provides training to our Nation's emergency responders. CDP offers live 
chemical agent training--the only facility in the world that provides 
such training to civilian emergency responders. CDP has provided 
training for emergency responders since it was established in 1999, and 
is widely recognized as a world leader in the training of emergency 
response personnel in the handling of live chemical agents.
    The CDP has received significant funding over the years. The 
President's fiscal year 2005 budget request provides $50 million for 
the continued operations of the Center. This level is equal to the 
amount requested by the Administration in the fiscal year 2004 request. 
Beginning in fiscal year 2005, the NDPC funding will be used solely to 
cover their fixed operating expenses. States will be required to pay 
for the costs of sending their emergency responders to NDPC facilities. 
The NDPC facilities, therefore, will not have to cover the full-costs 
of participating emergency responders, which reduced enrollment 
flexibility. This flexibility will likely allow NDPC members to train 
additional emergency responders without incurring the additional travel 
and financial costs of enrollment.
    Additionally, the Department and ODP are strongly encouraging 
states to institutionalize awareness and performance level training at 
State facilities. One of the overarching goals of the Homeland Security 
Grant Program, which will provide more than $2.2 billion to states and 
territories in fiscal year 2004, is to provide sufficient resources to 
allow states and territories to develop their own capacity to offer 
awareness and performance level training courses. The Department and 
Administration will continue to support this effort in fiscal year 
2005, which will allow NDPC members to concentrate on specialized 
training courses.
    Question. Mr. Secretary, in your statement you mentioned that you 
have provided $20 million for planning and exercises associated with 
medical surge capabilities. What assets does DHS plan to commit to 
training medical personnel to respond to large scale disasters or a WMD 
event?
    Answer. DHS currently is planning to use the Noble Training Center 
to assist in training medical personnel for medical surge capability. 
In the President's Budget for fiscal year 2005, DHS has requested an 
increase of $15 million to develop one fixed and one mobile medical 
surge hospital module, and an increase of $5 million for associated 
planning, training, and exercises to validate and demonstrate the 
medical surge capacity provided by these modules. The fixed module 
would essentially consist of a package of hospital supplies, equipment, 
materials, etc., that could be pre-positioned in a high risk area and 
quickly inserted into or assembled in a pre-existing space, facility, 
or structure to provide hospital capabilities. Similarly, the mobile 
module would consist of a complete package of hospital supplies, 
equipment, materials, etc., that could be rolled in from another 
location and placed in a pre-existing structure, or the mobile module 
would include the structure (trailers, tents, etc.) in which the 
hospital would be housed. Planning, training, and exercises associated 
with the use of these modules will allow the concept to be refined. 
Additionally, this activity will help in identifying potential 
locations, factoring in significant criteria including: overall 
population of the jurisdiction; population density in and around the 
location; hazards and risk prevalent in the location (including 
natural, technological, and terrorist incidents); existing hospital 
capacity, strength, and organization; and existing medical response and 
public health system.
    The major elements of the medical surge capacity enhancement 
program will include facility, equipment, supply, and pharmaceutical 
procurement; leased space for storage of field facilities; salaries and 
benefits for additional staff required for equipment maintenance, and 
program and fiscal management; dedicated ground transportation for 
field facilities; life-cycle costs for equipment, pharmaceutical, and 
supply replacement; field exercises and system evaluations; 
identification and implementation of corrective actions; and 
development of web-based interactive and hands-on training curricula 
for facility set-up, maintenance, operation, and demobilization.
    Also, through the National Disaster Medical System (NDMS) Online 
Training Program, NDMS is responding to the need to improve the ways in 
which its response team medical personnel respond to large-scale 
disaster and weapons of mass destruction (WMD) events. The training 
program is designed specifically for disaster responders; providing the 
critical information needed to help them better perform their jobs 
under the most austere conditions. The online training program ensures 
that NDMS response team medical personnel will have appropriate 
orientation and training for optimal field performance.
    Training opportunities are also offered during the annual NDMS 
Conference. With several pre-conference, main, and plenary sessions and 
training demonstrations available, NDMS response team medical personnel 
are provided access to the latest in emergency management, disaster 
response, and coordination capabilities. Additional training is also 
provided to NDMS response team medical personnel through their State- 
and locally sponsored exercises and training courses. These exercises 
and training courses are designed to enhance organization and rapid 
response capability.
    Question. Recently, the President in Homeland Security Presidential 
Directive #8 defined a ``first responder'' as: those individuals who in 
the early stages of an incident are responsible for the protection and 
preservation of life, property, evidence, and the environment, 
including emergency response providers as defined in section 2 of the 
Homeland Security Act of 2002 (6 U.S.C. 101), as well as emergency 
management, public health, clinical care, public works, and other 
skilled support personnel (such as equipment operators) that provide 
immediate support services during prevention, response, and recovery 
operations.'' Wouldn't you agree that medical and hospital personnel 
are crucial to ``preservation of life''? Why then have we done so 
little to ensure they are prepared?
    Answer. Medical, public health and hospital personnel are an 
essential component of the Nation's response capability. The Department 
of Homeland Security recognizes their importance, as has Congress. The 
Department, through programs administered by the Office for Domestic 
Preparedness (ODP) and the Federal Emergency Management Agency (FEMA), 
provides support to the emergency medical services and to hospital 
providers.
    ODP, in particular, administers the Homeland Security Grant Program 
and the Urban Areas Security Initiative, which provide funds to states 
and urban areas, respectively, to enhance homeland security efforts 
across the Nation. In fiscal year 2004, ODP will provide more than $2.2 
billion to states, localities, and the emergency response community 
through HSGP. Additionally, through UASI, ODP will provide an 
additional $746 million. Emergency medical personnel, including 
Emergency Medical Technicians (EMTs) and ambulatory services, and 
hospitals and hospital providers are eligible to receive assistance 
through these two programs. HSGP and UASI fund a range of activities, 
including the acquisition of specialized equipment, the provision of 
training, and exercise support.
    ODP also administers a robust training program through the National 
Domestic Preparedness Consortium (NDPC). Through the NDPC, along with 
other training partners, ODP offers nearly 40 courses for the emergency 
response community. As part of the training effort, emergency medical 
personnel and public health officials are eligible to attend a number 
of different courses offered. A few examples of the training courses 
that emergency medical and public health officials are eligible to 
attend include: ``Emergency Response to Terrorism: Basic Concepts,'' 
``Emergency Medical Services: Basic Concepts for WMD Incidents,'' 
``Emergency Response to Domestic Biological Incidents--Operations 
Level,'' ``Emergency Medical Services Operations and Planning for 
WMD,'' and ``Hospital Emergency Management: Concepts and Implications 
of WMD Terrorist Incidents.''
    In fiscal year 2005, DHS and FEMA will be responsible for two 
programs that strive to prepare medical and hospital personnel to deal 
with mass casualty incidents: the National Disaster Medical System 
(NDMS) response teams and the Noble Training Center. Both have major 
linkages in supporting the ``first responder'' infrastructure.
    NDMS is a coordinated effort by FEMA and other Federal agencies, in 
collaboration with the States and other public and private entities, to 
provide health and medical services to the victims of public health 
emergencies. The System organizes approximately 8,000 intermittent 
Federal employees into more than 107 medical and specialty response 
teams. The System can also provide for patient evacuation and 
definitive medical care of disaster victims.
    The incorporation of NDMS into DHS has improved response capability 
by enhancing coordination between health and medical response 
organizations and other functional disaster response activities. This 
will ensure that future planning and response efforts are well-
coordinated and efficient. The reorganization has centralized emergency 
response functions within one Department. This will also allow for the 
sharing of training activities and programs to include local, State, 
and Federal disaster drills and field exercises, and will enhance the 
coordination of logistical functions that support emergency response, 
thereby improving the efficiency and effectiveness of the response. 
This reorganization will also ensure that threat information is 
received in a timely manner and will enable increased readiness actions 
to be taken in order to reduce response time.
    The Noble Training Center (Noble) also transferred from HHS to DHS. 
While the program resided at HHS, a 5-year strategic plan was developed 
for it by a consortium of universities that included Vanderbilt 
University, the University of Alabama at Birmingham, and Louisiana 
State University. The strategic plan identified immediate and continued 
training needed for medical first responders, as well as for the 
medical community, to be able to quickly identify and treat victims of 
a WMD attack. The plan identified training needs for hospital emergency 
room physicians and nurses, emergency medical technicians and 
paramedics, and hospital engineers and administrators. This training 
would include treatment modalities relating chemical, biological, 
radiological, and nuclear assaults to ensure that all hospital 
personnel, including medical, engineering, and administrative, would be 
prepared to effectively treat victims. In addition, Noble is currently 
working with HHS' Health Resources and Services Administration and its 
Hospital Preparedness program to train some of the grantee hospital 
personnel at Noble this year.
    In addition to the work that ODP is doing in this area, the 
Department is working with the Department of Health and Human Services 
(HHS) on a related project called Project BioShield. The fiscal year 
2005 request includes $2.5 billion for this effort to encourage the 
development and pre-purchase of necessary medical countermeasures 
against weapons of mass destruction, and improved bio-surveillance by 
expanding air monitoring for biological agents in high-threat and high-
value targets such as stadiums and transit systems. This provides 
significant funds for this effort, which was funded at $885 million in 
fiscal year 2004. Further, the President's fiscal year 2005 budget 
request includes $20 million for the Department's Emergency 
Preparedness and Response Directorate for studies and pilot programs 
for medical surge capabilities. Also, since 2001, over $4.5 billion has 
been made available in Federal public health preparedness grants for 
counterterrorism.
    Comment.--The Noble Training Center (Noble) at Fort McClellan, 
Alabama was established as a medical training center for medical first 
responders. According to FEMA, ``Noble Training Center is unique in 
that it is the only hospital facility in the United States devoted to 
medical training for hospital and healthcare professionals in disaster 
preparedness and response.'' From fiscal year 1999 to fiscal year 2001, 
I helped send additional resources to Noble to help them build their 
capability, much like what was done at CDP.
    However this money seems to have disappeared and today Noble has, 
to my knowledge, not grown in capability or capacity to train medical 
personnel. While I understand that much of this took place while Noble 
was under the direct control of the Public Health Service, it is my 
understanding that virtually no activity has taken place at the Noble 
Training Center since DHS took control.
    Question. Will the Department make a habit of allowing valuable 
assets to sit unused?
    Answer. DHS is making extensive use of the Noble Training Center 
and is very pleased to have Noble as an element in the DHS training 
system. During fiscal year 2003, the Department delivered the most 
ambitious schedule of training ever at Noble, and it is delivering an 
even greater slate of activities during fiscal year 2004.
    For fiscal year 2003, DHS delivered the schedule of training 
activities that the Department of Health and Human Services (HHS) had 
set up and offered a number of FEMA courses at Noble. Activities for 
the year included several offerings of the ``Healthcare Leadership and 
Administrative Decision-making in Response to WMD Incidents'' course, 
which was conducted under contract by Auburn University and its 
subcontractors, which included the University of Alabama at Birmingham, 
Vanderbilt University, and Louisiana State University. DHS delivered 
additional courses at Noble in partnership with the Centers for Disease 
Control and Preparedness (CDC) to prepare CDC's emergency response 
teams. One of the Department's goals for fiscal year 2004 is to train 
more than 1,300 students at the facility. The total number of students 
trained in all prior years was 2,274.
    Question. What is the Department doing to correct this poor use of 
taxpayer's money?
    Answer. When Noble was transferred to DHS in March 2003, it was 
assigned to FEMA. FEMA officials quickly analyzed the situation at 
Noble, inspecting the facility and examining instructional programs. At 
the time, Mike Brown, Acting Under Secretary for EP&R, established the 
following priorities for Noble: (1) correct deficiencies in the 
infrastructure to ensure that the facilities and systems would support 
a world-class training activity; (2) maximize the utilization of Noble 
by offering a full schedule of first-rate instructional programs 
targeted at planning and response for mass casualty events; and (3) 
integrate Noble into the DHS/FEMA training system managed by the United 
States Fire Administration, which includes the National Fire Academy 
and the Emergency Management Institute (EMI). Efforts to meet these 
goals began at once. In addition to offering the aggressive schedule of 
training described above, DHS also:
  --Awarded a contract to the SEI Group, Inc. of Huntsville, Alabama, 
        to manage the Noble physical facility
  --Awarded a contract to DECO Security Services, Lorton, Virginia, to 
        provide security for the facility
  --Arranged for classroom support to be provided through an existing 
        EMI contract
  --Continued work on a $1 million healthcare weapons of mass 
        destruction (WMD) curriculum development project with Auburn 
        University and its subcontractors (Work on this project is 
        scheduled for completion by June 30, 2004.)
    During fiscal year 2004, in addition to a full slate of 
instructional programs, the following key activities are underway to 
improve the Noble facilities:
  --Update Noble's phone system and computer network
  --Renovate 2 dormitory buildings to provide housing for 160 students 
        at a time
  --Retrofit the third floor of Noble to create a state-of-the-art 
        exercise and simulation training area
    Question. I would like to know specifically, how many hospital and 
healthcare professionals have been trained at Noble Training Center and 
how many Federal dollars have been spent at Noble to date?
    Answer. Since its inception, Noble has conducted the following 
training:

------------------------------------------------------------------------
                    TRAINING ACTIVITY                      PARTICIPANTS
------------------------------------------------------------------------
Hospital Leadership and Decision-making.................             717
National Pharmaceutical Stockpile Training..............             293
Integrated Health and Medical WMD Training..............             250
Emergency Coordinator Augmentee.........................             150
Nunn, Lugar, Domenici Hospital Preparedness.............              54
Epidemic Intelligence Service (WMD).....................             277
Mass Immunization Training..............................              63
Tactical Emergency Medical Service in a WMD incident....              36
Hazardous Materials for Healthcare Train-the-trainer....              41
Integrated Emergency Management for CDC response staff..             162
Emergency Response to Domestic Bioterrorism.............              20
Critical Actions Aimed Toward Emergency Response........              76
Radiological Emergencies (Commissioned Corps)...........             135
                                                         ---------------
      Total Participants................................           2,274
------------------------------------------------------------------------

    Based on careful analysis of HHS records and FEMA's current 
spending plan, by the end of fiscal year 2004, HHS and DHS will have 
spent approximately $17.8 million on the Noble Training Center. This 
figure excludes salary and expenses for two full-time Federal employees 
at Noble and student expenses paid directly by HHS. The by-year 
breakdown is as follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 1999........................................      $2,800,000
Fiscal year 2000........................................         845,000
Fiscal year 2001........................................       1,500,000
Fiscal year 2002........................................       4,000,000
Fiscal year 2003........................................       1,369,092
Fiscal year 2004........................................       7,300,000
                                                         ---------------
      TOTAL.............................................      17,814,092
------------------------------------------------------------------------

    Comment.--Just around the corner from Noble is the Center for 
Domestic Preparedness, the pinnacle of first responder training. The 
CDP has been a training facility for roughly the same amount of time as 
Noble. This fiscal year CDP is scheduled to train in excess of 50,000 
first responders. I can only guess that the differences are due to 
management.
    Question. Can you explain to me why these two centers are in such 
contrast?
    Answer. We cannot address HHS' utilization of Noble. However, since 
DHS assumed responsibility for Noble in March 2003, it has played a key 
role in the Department's overall efforts to prepare emergency 
personnel, and it is an important part of the Department's plans for 
the future. Noble has joined FEMA's training team, which will train 
more than 250,000 personnel in fiscal year 2004.
    Question. How many responders do you plan to train at Noble this 
year?
    Answer. We expect to train 1,320 personnel at Noble in fiscal year 
2004 in the following courses:
  --7 ``Healthcare Leadership for WMD Incidents'' courses for 490 
        participants
  --6 Metropolitan Medical Response System exercise-based, integrated 
        emergency management courses for 420 participants
  --3 CDC partnership courses for 180 personnel
  --9 Radiological Emergency Response Operations courses for 230 
        participants
    Based on funding of approximately $4.3 million we have maximized 
our deliveries as we ramp up effort for fiscal year 2005 and for fiscal 
year 2006. The Noble facility cannot currently accommodate as many 
students as can the CDP facility, given existing facility sizes and 
infrastructure.
    Question. How much do you propose to spend in these efforts?
    Answer. In fiscal year 2004, $4.3 million is allocated for the 
Noble Training Center. Additional funding from other DHS sources is 
expected to bring total expenditures for Noble this year to 
approximately $7.3 million.
    Question. Is there any action being taken to tap into the expertise 
of the CDP?
    Answer. Yes. Collaboration between the CDP and FEMA training 
officials has been in progress for some time. We are currently working 
on the following plans:
  --Consolidating student support services and logistical support 
        between CDP and Noble
  --Conducting joint medical training for first responders
  --Conducting outreach training for Tribal emergency personnel
    Question. What are your intentions for Noble in the next 2 years?
    Answer. We are making extensive use of the Noble Training Center 
(Noble) and are very pleased to have it as an element in the Department 
of Homeland Security (DHS) training system. During fiscal year 2003, 
DHS delivered the most ambitious schedule of training ever offered at 
Noble, and is undertaking an even more ambitious slate of activities in 
fiscal year 2004.
    Noble was transferred to DHS in March 2003, and was assigned to the 
Emergency Preparedness and Response Directorate (EP&R)/FEMA. FEMA 
officials quickly analyzed the situation at Noble, inspecting the 
facility and reviewing instructional programs. At that time, Acting 
Under Secretary for EP&R Mike Brown established three priorities for 
Noble: (1) Correct infrastructure deficiencies to ensure that the 
facilities and systems would continue to support world-class training 
activities; (2) maximize the utilization of Noble by offering a full 
schedule of first-rate instructional programs targeted at planning and 
response for mass casualty events; and (3) integrate Noble into the 
training system directed by DHS' United States Fire Administration, 
which manages the National Fire Academy and the Emergency Management 
Institute (EMI). Efforts to meet these goals began at once and continue 
today. In addition to offering an aggressive schedule of training, FEMA 
has also:
  --Awarded a contract to manage the Noble physical facility to the SEI 
        Group, Inc. of Huntsville, Alabama
  --Awarded a contract to provide security for the facility to DECO 
        Security Services, Lorton, Virginia
  --Arranged for classrooms and support to be provided through a pre-
        existing contract supporting the EMI
  --Continued work on a $1 million healthcare weapons of mass 
        destruction (WMD) curriculum development project with Auburn 
        University and its subcontractors (Work on this project is 
        scheduled for completion by June 30, 2004.)
    During fiscal year 2004, in addition to a full slate of 
instructional programs, the following key activities are underway to 
improve the Noble facilities:
  --Update of Noble's phone system and computer network
  --Renovation of 2 dormitory buildings to provide housing for 160 
        students
  --Retrofitting of the third floor of Noble to create a state-of-the-
        art exercise and simulation training area
    DHS expects to train 1,320 personnel at Noble in fiscal year 2004 
in the following courses:
  --7 ``Healthcare Leadership for WMD Incidents'' courses for 490 
        participants
  --6 Metropolitan Medical Response System (MMRS) exercise-based 
        integrated emergency management courses for 420 participants
  --3 Centers for Disease Control and Prevention (CDC) partnership 
        courses for 180 personnel
  --9 Radiological Emergency Response Operations courses for 230 
        participants
    In fiscal year 2005, using the existing funding level and 
leveraging other funding sources, DHS plans to train 2,125 participants 
as follows:
  --7 Healthcare Leadership courses for 420 participants
  --8 MMRS exercise-based integrated emergency management courses for 
        600
  --5 Hospital Emergency Management courses for 150 personnel
  --4 Hospital Emergency Incident Command System train-the-trainer 
        offering for 120 participants
  --7 Radiological Emergency Response Operations courses for 155 
        responders
  --1 Advanced Radiological Incident Operations training course for 30 
        responders
  --1 Radiological program train-the-trainer course for 30 trainers
  --5 Response Team training for CDC staff, with a total of 300 
        participants
  --8 Disaster cadre training courses (various titles) for 320 students
    In addition, EMI is currently assessing training needs for the 
National Disaster Medical System cadre. While the cadre's initial 
training is currently offered online, Noble is being considered for use 
in meeting some of the cadre's exercise-based course requirements.
    Also, for fiscal year 2005, DHS will continue to collaborate with 
the Center for Domestic Preparedness (CDP), and plans to join forces 
with CDP to deliver training. This joint training will simulate the 
responder/hospital personnel interface that is critical during a mass 
casualty event.
    Comment.--When we began this adventure, it was my belief that the 
proximity of CDP and Noble would allow us to provide one of the best 
comprehensive incident response training programs in the country. Not 
only do we have the only live agent training facility, but just around 
the corner is ``the only hospital facility in the United States devoted 
to medical training for hospital and healthcare professionals in 
disaster preparedness and response.'' This would provide the 
opportunity for municipalities, communities, regions and states to know 
that their responders are prepared from the site of the incident 
throughout the hospital, not just to the emergency room door. This is 
an opportunity for comprehensive training that must not be ignored if 
we expect our first responders and medical personnel to act fluidly in 
the event of a disaster.
    Question. I would like your thoughts on this concept.
    Answer. While each organization has its special expertise, we 
believe that bringing CDP and other FEMA training activities closer 
together will greatly enhance services for the Nation's emergency 
responders.
    Question. Mr. Secretary, I continuously hear of concerns from my 
localities regarding the speed at which funds are dispersed to their 
final destination. What is the Department doing to ensure that these 
funds are put to use more quickly?
    Answer. The Department of Homeland Security takes seriously our 
responsibility to provide resources to our Nation's emergency 
prevention and response community and to ensure that this assistance is 
provided in most efficient, effective and responsible manner. I believe 
that Congress also supports this goal. Indeed, Congress has provided 
strict timeframes within the last several appropriations acts for the 
Office for Domestic Preparedness (ODP) and the Department of Homeland 
Security. In the fiscal year 2003 Omnibus Appropriations Act, the 
fiscal year 2003 Emergency Wartime Supplemental Appropriations Act, and 
the fiscal year 2004 Department of Homeland Security Appropriations 
Act, Congress required that ODP allocate funds to states within 30 days 
of the enactment of these acts. Congress further required that states 
apply for their allocated funds within 30 days of the allocation or 
availability of funds. Congress required that ODP make awards to states 
within 30 days of receipt of application, or receipt of updated 
homeland security strategies, whichever was later. Additionally, 
Congress required that states obligate or pass-through funds to units 
of local government within 60 days of receipt of an award from ODP.
    These timeframes have certainly expedited the award of funds to 
states under the Homeland Security Grant Program and the Urban Areas 
Security Initiative. However, some complaints of the slowness of funds 
reaching localities are legitimate and understandable. There are 
certain impediments to localities receiving their funds from their 
states that are outside of the control of the Department of Homeland 
Security. For instance, some states can not accept Federal funds unless 
they have been previously included in their State budget. Depending on 
when the State legislature convenes, the transference of funds and 
support to localities might be delayed. Additionally, as pointed out in 
the December 1, 2003 survey by the National Emergency Management 
Association, a number of other factors at the State and local level 
serve to impede the timely transfer of homeland security funds to 
localities, including State and local bid requirements for Federal 
funds, Further, equipment inventory stock might also prevent speedy 
delivery of equipment to State and local emergency responder agencies.
    The Department and ODP are making every effort to expeditiously 
award funds to states. With the assistance of Congress, we have made 
great strides in providing funds and other assistance to states and 
units of local governments. Unfortunately, because of certain State and 
local restrictions, funds might experience a delay at the State and 
local levels. On March 16, 2004, Secretary Ridge announce that 
formation of the Homeland Security Funding Task Force charged with 
examining the first responders funding process and ensuring Federal 
grant money monies move quickly to the end user: first responders.
    Question. I applaud the consolidation of grants under the ODP. I 
believe a one-stop shop is an important part to making the grant 
process more accessible to all entities. Will you develop a mechanism 
to ensure that funds are used in a manner that ensures the proper 
distribution of assets? Will the different grants be working in 
conjunction? Or in other words how will ODP ensure that the right hand 
knows what the left hand is doing?
    Answer. On January 26, 2004, I announced my intention to 
consolidate the Office for Domestic Preparedness with the Office for 
State and Local Government Coordination to form a new office--the 
Office for State and Local Government Coordination and Preparedness. As 
I explained at the time, this consolidation is in direct response to 
requests from the field, which date back to 1998, to provide State and 
local governments with a ``one-stop-shop'' and one central focal point 
for grants, assistance, and other interactions related to homeland 
security.
    This consolidation will place 25 various State and local support 
programs and initiatives within one office to ensure simplified and 
coordinated administration of these programs. I firmly believe that 
this consolidation will benefit both DHS and the State and local 
emergency response community. As part of this effort, the new Office 
will issue application kits and provide awards that combine several 
different grant programs. ODP took the first step in this direction 
through the fiscal year 2004 Homeland Security Grant Program, which 
combined three separate ODP-administered programs under one single 
application kit. The new Office of State and Local Government 
Coordination and Preparedness will use this combined application kit as 
a model for future grant programs.
    Further, the new Office of State and Local Government Coordination 
and Preparedness will depend on the subject matter experts within the 
agencies previously administering these consolidated programs to ensure 
that invaluable experience and expertise with these programs is not 
lost. The Department is currently working to ensure that that this 
expertise is not lost, but continues to guide the development and day-
to-day management of these programs. Through these efforts, I am 
confident that the new office will provide assistance to states and 
localities in a more efficient, coordinated, and streamlined manner. I 
appreciate your support for the consolidation and look forward to your 
continued support on this and other Department initiatives.
    Question. Mr. Secretary, your budget provides the Coast Guard with 
$678 million for the Integrated Deepwater System. I remain concerned 
with the Coast Guard's management of the Deepwater procurement and how 
the Coast Guard is prioritizing use of its funds. The Coast Guard and 
OMB appear to have lost sight of the priorities of legacy replacement 
and the goal of reduced operational expenses. Every dollar spent poorly 
in this procurement process delays the Coast Guard's ability to obtain 
the best, most modern equipment to protect the homeland. The funding 
will acquire two UAV's, a National Security Cutter, three SRP's, one 
LRI, and IDS patrol boats. Noticeably absent is the Maritime Patrol 
Aircraft, the CASA CN-235. Why were funds for the MPA not included? How 
does the Coast Guard intend to make up for the loss of this critical 
asset? How many MPA does the USCG intend to purchase? When can we 
expect the Coast Guard to request funding for the MPA?
    Answer. The Coast Guard's fiscal year 2005 budget requests funds 
for the Maritime Patrol Aircraft (MPA) to missionize the third CASA 
aircraft, which was funded for acquisition in fiscal year 2004. This 
missionization includes the logistic complement required for Full 
Operating Capability and partial spare parts used for the logistics 
system start up. The Coast Guard is currently acquiring the CASA CN235-
300M as the Deepwater MPA. The delivery of the first two MPA is 
scheduled for 2006, with full operational capability in late 2006 or 
early 2007.
    The Coast Guard will use existing aircraft in the Coast Guard 
inventory to ensure the Nation's highest maritime security and safety 
priorities are met until new aircraft are delivered.
    The number of Maritime Patrol Aircraft in the current 
Implementation Plan is 35. Simultaneously, the Coast Guard is working 
to align the Deepwater Program with the strategic goals and objectives 
of the Department of Homeland Security (DHS). DHS Management Directive 
1400 established an Investment Review Process, which included an 
interagency Investment Review Board (IRB) and Joint Requirements 
Council (JRC). The Investment Review Process is designed to ensure that 
spending on investments directly supports and furthers DHS missions; 
optimal benefits and capabilities are provided to stakeholders and 
customers; acquisition oversight of new investments is provided 
throughout their life cycle; and portfolios are managed to achieve 
budget goals and objectives. The Coast Guard is working aggressively 
with the IRB and JRC and its newly chartered Aviation Council to ensure 
capital funds provide the best Departmental investment. The DHS Joint 
Requirements Council (JRC) partially reviewed DHS Aviation Requirements 
in January 2004 at their first meeting. Until DHS and Coast guard 
decisions are made on future aviation requirements, it is difficult to 
project the exact mix of aircraft in the final Deepwater solution.
    The Maritime Patrol Aircraft is an essential element of the 
Deepwater system of systems approach to the recapitalization of Coast 
Guard assets. The Deepwater plan projects future funding for MPAs to 
achieve its long-term project goals.
                                 ______
                                 

               Questions Submitted by Senator Judd Gregg

    Question. Mr. Secretary, I would like to address the matter of the 
Customs Services' ability to meet the increased needs of new and 
growing airports and seaports for inspections services. If Customs is 
not able to expand its services into new, economically growing 
communities around the country then not all areas of the country will 
be able to share in the economic benefits of international trade and 
tourism--and as a result then the economic growth of the Nation as a 
whole will also be restricted.
    My concerns in this regard have been raised by my experience in 
working with Customs unsuccessfully to provide inspection services to 
the Pease International Tradeport in Portsmouth/Newington, New 
Hampshire. When I was governor, I helped take the first steps to create 
the Tradeport following the BRAC closing of Pease Air Force Base with 
the vision of it becoming a commercial air terminal open to 
international flights and thus helping to drive the economy of not only 
New Hampshire, but the entire region.
    Unfortunately, despite spending over $35 million in Federal and 
State funds to build a commercial terminal, according to Customs' own 
specifications, we have been unsuccessful in getting Customs' to either 
approve the use of the facility as is--or to even tell us what the 
post-9/11 modifications are that Customs insists are now needed. Even 
more frustrating has been Customs refusal to provide inspection 
services, even over the short-term, so that DOD chartered aircraft 
currently carrying U.S. military personnel home from Iraq and 
Afghanistan can land and refuel at Pease on their way to the troops' 
ultimate destinations within the United States. While Customs says on 
the one hand that it does not have the manpower to service these 11-15 
flights every 45 days, it also says it could do these inspections at 
current manpower levels--if Pease paid economically exorbitant and 
untenable fees to the Customs service.
    I would note that two Customs inspectors actually have offices on 
Pease Tradeport's premises and the local Air National Guard unit has 
been trained to provided such inspection services; however Customs will 
neither use the local Customs officers or allow the Air National Guard 
unit to provide the necessary inspection services so that the DOD 
charter flights can land at Pease.
    As many of us in New Hampshire had hoped for at Pease Tradeport's 
actual opening in 1998, Pease's close proximity to Boston's Logan 
airport is now becoming an attractive as a convenient point for 
servicing planes and crews of various commercial airlines' domestic and 
international flights, which are increasingly facing difficulties with 
flight scheduling, customs, and gate access due to Boston's limited 
space and heavy traffic. However, Pease Tradeport's value as an 
alternative for airlines is largely negated when Customs is either 
unwilling or unable to provide even minimal inspection services.
    Again, my parochial experience in this regard has raised my 
concerns about Customs--and thus DHS'--ability to expand its inspection 
services into new, economically growing communities throughout the 
country and whether the benefits of international trade and tourism are 
going to be confined to areas of the country that already enjoy them 
for the foreseeable future.
    In light of the 35 percent increase in Customs positions that the 
Congressional Research Service says Congress provided funding for in 
fiscal year 2002 alone, do you feel the President's budget request, if 
approved by Congress, provides the Department with the needed 
flexibility to respond to the need for Customs services to all areas of 
the country that need them, including up and coming areas of the 
country like NH?
    Answer. The Pease International Tradeport issue is currently under 
review by U.S. Customs and Border Protection (CBP), Office of Field 
Operations (OFO). OFO has conducted a study of the facility to 
determine what additional security modifications will need to be 
implemented. The results of this study should be compiled shortly.
    The Department of Homeland Security, in particular CBP, is 
committed to providing security for our Nation without impeding the 
free flow of commerce. The fiscal year 2005 President's Budget should 
provide CBP with the flexibility to align our staff to existing 
workload and provide services where needed.
                                 ______
                                 

               Question Submitted by Senator Larry Craig

           UTILIZATION OF DEPARTMENT OF ENERGY NATIONAL LABS

    Question. Secretary Ridge, on January 30, 2004, you received a 
letter signed by the entire Idaho Congressional delegation expressing 
our objections to guidelines issued by the DHS Office of Research and 
Development. These guidelines describe DHS's approach to the 
utilization of Department of Energy national laboratories. A copy of 
this letter is enclosed herewith. I am aware that you have received 
similar letters from other members of Congress and that issues 
surrounding the implementation of the DHS research agenda may be the 
subject of current GAO investigation.
    How do you intend to address the issues raised in the Idaho 
delegation's letter and when can I expect a response?
    Answer. The Department of Homeland Security, through Section 309 of 
the Homeland Security Act of 2002, is provided access to the national 
laboratories and sites managed by the Department of Energy to carry out 
the missions of DHS.
    The DHS Science and Technology Directorate, wishing to make the 
best use of each of these laboratories and sites in consonance with 
statute, regulation, and policy, asked laboratories and sites to make a 
decision regarding their desired mode of interaction with the 
Directorate--to participate in S&T's internal strategic planning and 
program development processes or, if otherwise permissible under 
applicable law, regulation, contract, and DOE policy, to respond to 
certain types of S&T solicitations open to the private sector.
    On March 31, 2004, the following national laboratories and sites 
communicated their decision to Under Secretary McQueary to participate 
in S&T's internal strategic planning and program development processes: 
Argonne National Laboratory, Bechtel Nevada, Brookhaven National 
Laboratory, Idaho National Engineering and Environmental Laboratory, 
Lawrence Livermore National Laboratory, Los Alamos National Laboratory, 
Oak Ridge National Laboratory, Pacific Northwest National Laboratory, 
and the Sandia National Laboratories. The designation of intramural/
extramural is therefore no longer necessary for the nine labs under 
consideration.
    An external review will be conducted to assess the baseline 
capabilities of the national labs to provide the Department with an 
enduring capability to meet long-term mission requirements. The results 
of this review will be utilized by the Homeland Security Science and 
Technology Advisory Committee to advise the Department on options for 
establishing a long-term strategic relationship with the national 
laboratories.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                        CHEMICAL PLANT SECURITY

    Question. Mr. Secretary, you and I have previously discussed the 
role of the Department of Homeland Security as it pertains to the 
protection and security of chemical plants in this country. Your 
Department continues to take a ``hands-off'' approach by relying on 
voluntary efforts by the chemical plant industry to assess 
vulnerabilities and take protective actions.
    We know that the EPA has estimated that over 100 plants located all 
over the country could affect over 1 million people, if attacked. We 
know that the Department of Justice released a study in April of 2000, 
concluding that, ``the risk of terrorists attempting in the foreseeable 
future to cause an industrial chemical release is both real and 
credible.'' We know that in February of 2003, the National 
Infrastructure Protection Center (NIPC), which is now part of the 
Department of Homeland Security, issued a threat warning that, ``Al 
Qaeda operatives also may attempt to launch conventional attacks 
against the U.S. nuclear/chemical-industrial infrastructure to cause 
contamination, disruption, and terror. Based on information, nuclear 
power plants and industrial chemical plants remain viable targets.''
    We know that the Homeland Security Act requires DHS to analyze the 
vulnerabilities to our critical infrastructure and take protective 
actions to strengthen them. However, when you testified last year, you 
indicated that the chemical industry was better suited to assess 
vulnerabilities and take appropriate security measures.
    Last November, 60 Minutes reporter Steve Croft and Carl Prine, an 
investigative reporter at the Pittsburgh Tribune-Review, found their 
way in to numerous chemical plants containing dangerous materials 
without a hint of resistance. This revelation clearly highlighted the 
fact that the chemical industry was doing little to nothing to improve 
security at chemical plants.
    A July 2003 survey by the Conference Board found that since 9/11, 
U.S. corporations have increased their spending on security by only 4 
percent.
    Mr. Secretary, do you maintain the position that the chemical 
industry is better suited to assess vulnerabilities and take protective 
actions to secure chemical plants? Does your budget request address 
this issue in any way? If so, how much is included for chemical plant 
security?
    Answer. We look to the private sector as the primary agent of 
change when it comes to assessing vulnerabilities and taking protective 
measures at their individual facilities. As you know, 85 percent of 
critical infrastructures are privately owned. Our role is to provide 
the tools (standards, techniques, best practices) necessary to do an 
effective job. We have a genuine program to assess whether this 
approach is effective and will make adjustments as necessary.
    Several initiatives are underway to help protect the Nation's 
chemical plants. We will spend about $18 million for protective 
measures at the 360 chemical plants on the fiscal year 2004 Protective 
Measures Target List. This amount funds site assistance visits by my 
security specialists to assess vulnerabilities and help establish 
buffer zone protection plans. Approximately $4.1 million is for the 
acquisition of web cam monitors for local law enforcement agencies to 
install on public right-of-ways adjacent to 17 critical chemical sites 
to extend their buffer zones.
    Question. What more can you do to make sure that the chemical 
industry responds with a robust program to secure their plants?
    Answer. DHS Protective Security Advisory Teams visited the 17 
critical sites last year to provide training and assist site personnel 
and local law enforcement develop Buffer Zone Protection Plans to make 
it more difficult for terrorists to conduct surveillance or attack one 
of our facilities.
    For the remaining 343 sites, we will visit each one to provide 
training, support, and recommendations to owners and operators and 
local law enforcement. Each site has its own particular needs. Some 
visits will focus on ``inside the fence'' issues with plant security 
personnel to identify and reduce vulnerabilities. Others will involve 
the development of buffer zones in cooperation with local law 
enforcement. Some sites will need both types of assistance. We intent 
to have visited all 360 chemical facilities by the end of the year. We 
have also published two reports, the Characteristics and Common 
Vulnerabilities Report and the Potential Indicator of Terrorist 
Activity (PI) Report, to assist owners and operators of chemical 
facilities. The former characterizes and discusses common 
vulnerabilities for chemical manufacturing facilities producing and 
handling large quantities of inherently hazardous materials while the 
latter discusses potential indicators and warnings of terrorist 
activity that law enforcement and plant security personnel can use to 
better protect their facilities.
    We have established a protection, training, and planning program 
for State homeland security personnel, local law enforcement, chemical 
facility operators and site security personnel. Periodic drills among 
the protective community will be conducted to exercise the chemical 
facilities plans in the case of a potential terrorist attack and we 
intend to factor chemical plant security into national exercises.
    Finally, the Department is in the process of developing plans for 
deploying a cadre of Protective Security Advisors (PSAs). Each one will 
have responsibility for a specific region of the country and will 
maintain a close relationship with the chemical plant owners and 
operations in their area. The advisors will facilitate information 
sharing, organize protective security training, assist in emergency 
coordination, and represent the Department in the communities in which 
they are posted. Security Augmentation Teams (SATs) are also being 
developed that will consist of approximately 25 personnel drawn 
primarily from major urban SWAT units. The teams will focus on 
protecting high-value sites, such as critical chemical facilities. 
Their operations concept is to develop working relationships with the 
site's permanent protective security team and become familiar with the 
site's specific vulnerabilities. The development of these two programs 
are in the early stages but are being closely monitored by my office.

                              IMMIGRATION

    Question. How much of a reduction in the more than 6,000,000 
petitions pending with U.S. Citizenship and Immigrant Services do you 
expect to achieve this year with the $160,000,000 requested in the 
President's budget?
    Answer. With the additional resources requested in 2005, USCIS will 
achieve the President's goals of eliminating the backlog and achieving 
a 6-month processing time for all immigration applications by 2006. In 
order to achieve this goal, USCIS will:
  --Reengineer processes to achieve greater efficiencies;
  --Update policies and procedures to streamline adjudications and 
        increase the percentage of cases completed at initial review by 
        an adjudicator; and
  --Manage production against milestones--beginning with 
        collaboratively setting goals, reporting progress, and 
        identifying additional improvement opportunities.
    USCIS is finalizing its Backlog Elimination Plan and will provide 
this plan to Congress in the coming months. The plan will include a 
road map to eliminating the backlog with defined milestones.
    Question. How many new petitions do you expect the President's 
Immigration Reform Plan to generate?
    Answer. This information will be available once Congress has 
drafted the legislation and the specifics are known.
    Question. What lessons from the 1986 Immigration Reform and Control 
Act (IRCA) legalization programs have been applied to the President's 
Immigration Reform Plan?
    Answer. The IRCA planning teams developed a strategy that enabled 
the Service to quickly expand its adjudicative capacity through the 
establishment of temporary regional processing centers and local 
interview offices. Temporary employees were hired and trained 
specifically to adjudicate that workload. INS reassigned experienced 
executives and managers at all levels to oversee operations, but relied 
heavily on the skills or retired executives and managers (reemployed 
annuitants). This strategy enabled the Service to continue its efforts 
to process the normal casework plus handle the surge in workload caused 
by the passage of IRCA. Key components of IRCA were: the development of 
the regional processing center concept, development of a modular office 
plan for field interviewing sites, automated data systems to record 
transactions, and receipt of authority from Congress to expedite 
certain leasing and contracting requirements. In addition, INS received 
authority to reemploy annuitants without salary offset. The reemployed 
annuitant program was absolutely critical to the overall success of the 
program.
    INS worked closely with Congress prior to the passage of IRCA, and 
that cooperation was also instrumental in INS being able to meet the 
requirements for the legalization provisions of IRCA.
    Question. What were the total costs of IRCA's two legalization 
programs (please break down by main components) and how much revenue 
was generated in total by the fees charged to process IRCA 
applications?
    Answer. The IRCA program was totally fee-funded. Therefore, the 
number of applications filed and their respective fees determine the 
total cost of the program. Our analysis to date of the program has 
determined a total application workload of approximately 2,700,000, 
with costs/fee revenues totaling $245,000,000. The breakdown of this 
program is as follows: (1) Application for Permanent Residency 
(2.68,000,000 applications/$241 million), (2) Application for Status as 
a Temporary Resident (6,700 applications/$3.7 million).
    Question. How much will the President's Immigration Reform Plan 
cost, and what components comprise the total cost?
    Answer. It is expected that costs associated with the workload 
would be covered with fees like all other application and petition 
processing.
    Question. If the President's Immigration Reform Plan is funded 
through fees, what proportion of the funds will be distributed to U.S. 
Citizenship and Immigrant Services (to adjudicate petitions), to 
Immigration and Customs Enforcement (for investigations and 
enforcement), to the Federal Bureau of Investigations (for background 
checks), to the Department of Labor (for labor certification and 
worksite enforcement), and to the Department of State's Bureau of 
Consular Affairs (for visa issuances)?
    Answer. CIS costs associated with the temporary worker program will 
be covered by application fees. The 2005 Budget requested additional 
funding to support Immigration and Customs Enforcement, an additional 
$23,000,000 to more than double the resources devoted to worksite 
enforcement.
    Question. How many full-time equivalent [FTE] personnel will be 
necessary to implement the President's Immigration Reform Plan? What 
level of fees or additional appropriations would be necessary to hire 
those additional FTEs without further increasing the deficit?
    Answer. This information will be available once Congress has 
drafted the legislation and the specifics are known.

                        Departmental Management

                           DHS HIRING FREEZE

    Question. According to a March 26, 2004 Wall Street Journal 
article, certain DHS agencies have declared a ``hiring freeze'' in the 
Bureaus of Customs and Border Protection and Immigration and Customs 
Enforcement because of a potential budget shortfall of approximately 
$1.2 billion. Could you please explain to the subcommittee whether this 
shortfall is actually a ``computer glitch'' resulting from the 
combining of the budgets from legacy agencies or has the agency simply 
failed to request sufficient funding for front line staffing as it 
continues to roll out new border security initiatives such as One Face 
at the Border, US VISIT, C-TPAT, and C.S.I.?
    Answer. During a review of the status of execution of the fiscal 
year 2004 budget, ICE and CBP determined that implementation of hiring 
restrictions was a prudent managerial measure to ensure that they 
manage their overall requirements within their fiscal year 2004 
appropriations. It was also determined that additional focus was 
required to work through funding realignments related to the 
establishment of the three new Bureaus.
    The Department established a review team composed of staff from the 
Chief Financial Officer's Office, Border and Transportation Security, 
CIS, CBP, ICE, and the Coast Guard to assess the situation. The review 
team engaged in a detailed budget reconciliation effort between the 
three Bureaus resulting in an internal realignment of $212 million with 
possible subsequent internal realignment of approximately $270 million 
pending final documentation and billing. The work has been on-going, 
but agreements have been reached to realign funds to cover costs of 
services incurred by the Bureaus. Formal memoranda of agreement will be 
implemented between the three Bureaus and help ensure that funding is 
aligned with services rendered.
    There is no $1.2 billion shortfall as reported by the Wall Street 
Journal.
    Security initiatives such as One-Face-at-the-Border, US VISIT, C-
TPAT and CSI were sufficiently funded through the appropriations 
process and are not contributing to accelerated rates of expenditures.
    Question. Funds for these accounts are apportioned on a quarterly 
basis. Was the anti-deficiency act violated for any of the CIS, CBP or 
ICE accounts for fiscal year 2003 or fiscal year 2004?
    Answer. The anti-deficiency act has not been violated for the CIS, 
CBP or ICE accounts in fiscal year 2003 or fiscal year 2004.

                       TSA REPROGRAMMING PROPOSAL

    Question. What is the status of the TSA reprogramming proposal?
    Answer. TSA has proposed a modest reprogramming request for fiscal 
year 2004 in order to meet critical needs. The Department delivered a 
reprogramming request to the appropriations committees on April 23, 
2004. TSA will follow up on answers to questions posed by Committee 
staff who have been briefed on the request.
FTE
    Provide a chart, broken by DHS agency, that have the following 
headings: fiscal year 2003 on-board end of year, fiscal year 2004 on-
board current, fiscal year 2004 projected on-board end of year, fiscal 
year 2003 FTE, fiscal year 2004 funded FTE, fiscal year 2005 FTE 
request.

                                                 DEPARTMENT OF HOMELAND SECURITY FISCAL YEAR 2003--2005
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                         Fiscal
                                                 Fiscal                 year On-
                                     Fiscal     year 2003    Fiscal       board                  Fiscal
         Component/Bureau           year 2003   On-Board    year 2004   Projected    Fiscal     year 2005                     Comment
                                       FTE       End of     On-board     end of     year FTE       FTE
                                                 fiscal     Currently    fiscal
                                                  year                    year
--------------------------------------------------------------------------------------------------------------------------------------------------------
Border & Transportation Security:
    Office of the Under Secretary           5           5          27          40          67          75
    US VISIT.....................  ..........  ..........  ..........          64          64         102
    U.S. Bureau of Customs &           38,452      40,178  \1\ 41,847  \2\ 41,298  \3\ 40,076      41,001  SEE FOOTNOTE (CBP)
     Border Protection.
    Immigration and Customs            35,955      34,708      15,861      15,000      14,749      15,550  Fiscal year 2003 includes Legacy INS; Fiscal
     Enforcement \4\.                                                                                       year 2004 onboard does not include FTE for
                                                                                                            Federal Air Marshal Service
    Transportation Security            58,612      55,920      51,646      53,046      51,346      52,503
     Administration.
U.S. Coast Guard--Civilian.......       6,341       6,773       6,717       7,237       6,492       6,821  Direct and reimbursable
U.S. Coast Guard--Military.......      39,219      39,644      39,981      39,938      39,874      40,259
U.S. Secret Service..............       6,019       6,209       6,292       6,493       6,381       6,506
Emergency Preparedness & Response       5,432       5,726       5,682       5,970       4,780       4,776  Direct
U.S. Citizenship & Immigration          9,625       9,100       8,875       9,000       9,795       9,937  Decrease in on-board due to hiring freeze
 Services.
Federal Law Enforcement Training          831         908         931         934         934         936
 Center.
Information Analysis &                    226         226         263         543         729         737
 Infrastructure Protection.
Science & Technology.............          79          34          57         180         180         218  FTE numbers do not include: sin public health
                                                                                                            service FTE spt S&T; staff at the envir
                                                                                                            measurements lab; staff at PIACD and IPAs
Departmental Management:
    Departmental Operations......         274         359         445         617         708
    Office for Domestic                   129          57          69         146         146         197
     Preparedness.
    Wireless/IT..................          15           5           5          15          15          15
    Inspector General............         372         396         402         500         457         502
                                  ----------------------------------------------------------------------------------------------------------------------
      Totals.....................     201,312     200,163     179,014     180,849     176,702     180,843
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note: On-Board are positions not FTE (full time and part time).
\1\ Fiscal year 2004 on-board is as of 2/7/04 Current on-board numbers are positions not FTE. Full-time 40,227; Part-time 1,620.
\2\ Consistent with CBP staffing report required by the fiscal year 2004 Appropriations Act. End of year on-board will vary significantly resulting from
  transfer of employees between CBP and ICE. These transfers are result of the organizational realignment required by the creation of DHS.
\3\ Discretionary and Mandatory FTE that was built off the fiscal year 2003 actual FTE and includes additional positions appropriated by Congress.
  Estimated FTE usage at the end of fiscal year 2004.
\4\ Does not include FAMS.

                       DHS PERSONNEL REGULATIONS

    Question. Concerns have been raised with regard to the adequacy of 
funding for the Department of Homeland Security, specifically funding 
for first responders and other frontline personnel. In light of funding 
limitations for frontline positions, do you believe spending over $100 
million to design a new pay system is the right priority for DHS? When 
does the department anticipate that the new pay system will be fully 
implemented and operational within all bureaus within DHS? How much of 
the $100 million will actually be used for salaries for front line 
personnel?
    Answer. Our current schedule anticipates that full deployment of 
the new system will be completed in calendar year 2006. None of the 
$100 million will be used for salaries of front-line personnel, but 
rather will support key activities associated with the design and 
deployment of the new HR flexibilities. A sizeable amount ($31 million) 
of this request will be directed to training for front-line employees 
and managers. While $100 million may seem to be a lot, we view this as 
a necessary, and appropriate, investment in our people and the human 
capital systems they work under. We envision the flexibilities 
contained in this language to be a key catalyst to our ability to 
attract and retain the right talent for DHS and believe we will reap 
the benefits from this investment for many years to come.
    Additionally, investments in human resources information technology 
are required to identify further organizational savings and allow the 
eventual redirection of staff resources to front-line work. A 6-year 
life cycle cost of $131 million for human resources information 
technology is projected and is essential to ensure the necessary common 
technology platform to support the successful deployment of HR 
flexibilities and ensure they achieve the intended results. Absent this 
investment in HR technology, it would be difficult, if not impossible 
in some components, to implement the HR flexibilities because of the 
varying quality and maturity of components' existing HR technology 
capabilities.
    Question. What will be the annual cost for conducting the local and 
national pay surveys to private contractors to implement the pay for 
performance system?
    Answer. We have not yet costed-out this service. We do know that 
there are several commercial market survey instruments available to us 
for this purpose, and we have already initiated lessons-learned 
discussions with other Federal agencies that already use a component of 
market-based pay. We have been told by one agency (FAA) that their 
recurring annual survey costs are estimated at $30,000 per year.
    Question. What does DHS believe will be the full cost for 
implementing a new pay system?
    Answer. We are projecting a fully loaded life cycle costs of $408.5 
million to support full system implementation. Major components of this 
figure include the $102.5 million for system implementation, $10 
million for Coast Guard performance pool, an estimated $165 million for 
other component performance pools, and a 6-year life cycle cost of $131 
million for human resources information technology. Some of the 
component performance pools could come from existing salary and expense 
funding spent on within grade and quality step increases.
    Question. How many different pay rates will there be for DHS 
employees in the pay for performance system as opposed to the clear 15 
Grade Ten Step GS pay scale?
    Answer. We are anticipating that there will be between 10 and 15 
major occupational clusters of positions (i.e. administrative, law 
enforcement, etc,). According to our estimates, we are envisioning 4-5 
broad pay bands within each cluster to define entry-level, journey-
level, senior expert, and supervisory pay groupings.
    Question. What will the annual administrative cost be for the pay 
for performance system?
    Answer. We do not have this level of information yet, but are 
currently benchmarking with organizations with similar systems. We are 
envisioning that the bulk of these recurring costs will be in 
supervisory and managerial training, not salary administration, and 
view that as a positive commitment to the organization and our people.
    Question. How much of the $100 million will be allocated by 
contracts?
    Answer. We anticipate the bulk of the $100 million will be 
allocated by contract. Major breakdown of overall costs includes: $27 
million for program management, oversight and evaluation; $31 million 
for training and communications to support system implementation; $42 
million for detailed systems design and implementation support 
(business process reengineering, compensation expertise, etc.) It's 
important to note that of the one-third allocated for managerial and 
employee training which will likely be managed by contract, there will 
be a direct and tangible deliverable to the government beyond the 
contractor services. Most of the services being provided by contractors 
are those where specialized skills and knowledge are required for a 
fairly short duration.

                        DEPARTMENTAL COMPARISONS

    Question. When compared to the Departments of Treasury, 
Transportation, Justice, and Commerce, the Office of the Secretary of 
the Department of Homeland Security is spending incredible sums of 
money in areas such as Legislative Affairs, Public Affairs, and the 
Chief of Staff. For example, based on fiscal year 2004 enacted numbers, 
the Departments of Treasury, Transportation, Justice, and Commerce have 
an average of 17 and 17.5 FTE respectively in their Public Affairs and 
Legislative Affairs offices. DHS, in contrast, has 43 and 49 FTE in 
these two offices. The Office of the Secretary at DHS spends $8.1 
million on Public Affairs and $5.9 million on Legislative Affairs while 
the other four Departments average $1.6 million each on Public Affairs 
and $1.7 million each on Legislative Affairs.
    The Departments of Treasury, Justice, and Commerce have an average 
of 11 FTE and spend an average of $1.1 million each in their Chief of 
Staff office while DHS has 31 FTE in this office and spends $5 million. 
(Information on the Office of the Chief of Staff for the Department of 
Transportation was not available). Why is DHS spending so much more on 
their Public Affairs, Legislative Affairs, and Chief of Staff Offices 
in comparison to other Departments?

                               DEPARTMENTAL COMPARISONS FISCAL YEAR 2004--ENACTED
----------------------------------------------------------------------------------------------------------------
                                                 Chief of Staff        Public Affairs       Legislative Affairs
                                             -------------------------------------------------------------------
                                                FTE        Cost       FTE        Cost        FTE         Cost
----------------------------------------------------------------------------------------------------------------
Dept of Homeland Security...................       31   $5,047,000       43   $8,168,000       49     $5,907,000
Dept of Transportation......................  .......  ...........       19    1,889,000       24      2,267,600
Dept of Treasury............................       12    1,393,279       17    1,725,620       13      1,459,292
Dept of Commerce............................        7    1,109,000       12    1,882,000       12      1,605,000
Dept of Justice.............................       14      820,859       20      944,187       21      1,506,177
Average.....................................       11    1,107,713       17    1,610,202       17.5    1,709,517
----------------------------------------------------------------------------------------------------------------

    Answer.

                        CHIEF OF STAFF'S OFFICE

    The Chief of Staff's Office currently consists of 31 FTE positions. 
The function of the Office is to support the mission of the Department 
through coordination of the 22 agencies and directorates that have been 
consolidated into the Department of Homeland Security. The Chief of 
Staff's Office is also responsible for all operational functions that 
relate to the Immediate Office of the Secretary (budget, information 
technology, personnel and advance), and offices that fall under the 
budget supervision of the Chief of Staff's Office.
    Confronting one of the largest organizational transformations in 
United States Government history, the Chief of Staff's Office functions 
as the central point for coordinating the massive consolidation and 
reorganization challenges of the new Department. To ensure a high-level 
of initial access and to meet the critical and complex goals of 
Homeland Security's mission, the Chief of Staff's Office includes the 
Office of Policy and the Office of Counternarcotics.
    The Chief of Staff's Office manages the day-to-day activities of 
the Department and assists in guiding the long-term goals of Homeland 
Security. With the inherent challenges of a concurrent creation of a 
new Department, reorganization, consolidation, and several new offices, 
the Chief of Staff's Office seeks to streamline, coordinate, and 
deliver highly effective initiatives and policies that will ensure our 
safety, response capacity and our freedoms.
    To accomplish these goals, the Chief of Staff's Office utilizes the 
Office of Policy to coordinate all policy decisions that affect the 
Department. Due to the rapidly evolving nature of the Department, the 
Office of Policy continues to be a vital facet for developing and 
monitoring the range of issues the Department of Homeland Security 
confronts.
    The Office of Counternarcotics serves a vital function for Homeland 
Security as the Department works to address drug related activities 
that impact the security of our Nation.

                        OFFICE OF PUBLIC AFFAIRS

    The Department of Homeland Security (DHS) is a new department with 
unique responsibilities and a complex mission that includes facets of 
responsibility not undertaken by other government agencies. Consistent 
with the overarching mission of the department, the DHS Office of 
Public Affairs (OPA) has created and maintained several programmatic 
responsibilities to support the department's critical mission areas 
that exceed traditional press office functions.
    The congressional inquiry specifically compares the full-time 
equivalent (FTE) and budget allotment of DHS OPA to the Departments of 
Treasury, Transportation, Commerce and Justice, and requests 
justification for the apparent differences between DHS and the other 
departments.
    There are three primary justifications for the DHS FTE allotment 
and budget:
    Scope of Mission.--DHS Office of Public Affairs contains many 
functions that either do not exist at other agencies or are contained 
in other parts of the organization and are thus funded by those 
offices. These additional functions were strategically placed within 
the Office of Public Affairs to ensure consistency of message to 
external audiences and to develop synergies between these various 
functions. Information follows about the multiple functions that are 
contained within DHS OPA.
    Different Comparables.--Comparing the DHS Office of Public Affairs 
to Treasury, Commerce, DOJ, and DOT is an inaccurate comparison. DHS 
OPA is more analogous to the Department of Defense and the Department 
of State, in terms of the media's interest in department activities, 
the importance of communicating accurate, timely information to the 
public, and the international implications of the department's 
activities.
    In addition, both DOD and DOS public affairs support programmatic 
efforts similar to the Department of Homeland Security, including 
public education campaigns, a speaker's bureau and other public liaison 
functions. It should be noted that DHS's current FTE allocation (43) is 
considerably lower than the public affairs FTEs at the Pentagon (56 
FTEs in just OSD public affairs, excluding the large public affairs 
staffs at the armed services level) and at the Department of State (170 
FTEs at headquarters, excluding embassy public information officer 
staff).
    It should also be noted that DHS has a total of 180,000 employees--
substantially more than the other departments that DHS is being 
compared to.
    The Department of Homeland Security's mission is to prevent 
terrorist attacks within the United States, reduce America's 
vulnerability to terrorism, and to minimize the damage from potential 
attacks and natural disasters. To support these missions and ensure 
consistency in public information, DHS OPA performs functions not 
included in other department's staffing numbers; either because those 
functions sit elsewhere in the department or they are they are unique 
to DHS. Below is a brief description of these functions and 
specifically how they further the department's mission.
  --Public Education.--The Office of Public Education's goal is to 
        create and sustain public education campaigns that raise the 
        level of national citizen preparedness. This program directly 
        supports the department's mission to reduce America's 
        vulnerability to terrorism and to minimize damage in the event 
        there is another attack.
      In February 2003, DHS OPA launched the Ready campaign, a 
        comprehensive, bilingual public education campaign designed to 
        educate and empower Americans to prepare for potential 
        emergencies and reduce America's vulnerability to terrorism in 
        the event that there is another attack. This campaign 
        experienced the most successful launch in Ad Council history 
        and continues to grow. With congressional support in 2004, DHS 
        hopes to expand the campaign to offer a three-pronged strategy 
        for preparing communities: Ready, Ready for Business, and Ready 
        for School.
      The Office of Public Affairs has also partnered with the National 
        Academies of Science and the Radio and Television News 
        Directors Foundation to host ten tabletop exercises designed to 
        facilitate real discussion between media and government 
        officials about crisis. This program will supply members of the 
        media with resources to aid in the dissemination of reliable 
        information during a crisis and will provide the government 
        with a better understanding for how to best work with media in 
        providing critical information to the American public during 
        times of crisis.
      Finally, DHS OPA is working to engage the American public 
        directly in homeland security issues through a partnership with 
        the Council for Excellence in Government (CEG). These CEG town 
        hall meetings have taken place across the Nation and top 
        officials at the Department of Homeland Security have 
        participated to directly hear citizen's concerns and ideas 
        firsthand. Additional public education initiatives of this 
        nature are in the works for the future as well.
  --Public Liaison.--The goal of the Office of Public Liaison (OPL) is 
        to educate key constituent organizations about DHS policy 
        initiatives, organize opportunities for dialogue and provide 
        groups with one point of contact to exchange information and 
        address concerns. Due to the wide range of issues handled by 
        the department, the OPL interacts with think tanks, 
        associations, ethnic groups, universities, and others. OPL also 
        runs the DHS Speakers Bureau, which organizes and responds to 
        hundreds of incoming speaking invitations. Placement of the 
        Office of Public Liaison within DHS OPA is consistent with DOD 
        and DOS.
  --Incident Communications.--The Homeland Security Act of 2002 
        outlines DHS authority and responsibilities in the event of a 
        possible terrorist attack. DHS OPA has put several processes in 
        place to support that legislative mandate as well as Homeland 
        Security Policy Directive-5 (HSPD-5), which specifically 
        requires the department to inform the American people about any 
        terrorist-related events. ``The Secretary shall ensure that, as 
        appropriate, information related to domestic incidents is 
        gathered and provided to the public . . .'' This requires a 
        full crisis management capability that is always in place and 
        ready to respond and lead the national effort to comply with 
        HSA 2002 and HSPD-5. This is especially true since we lead the 
        Interagency Incident Management Group (IIMG).
      The DHS OPA staff has the primary Federal leadership role in 
        overseeing the public information components of the National 
        Response Plan (NRP) and National Incident Management System 
        (NIMS). This includes interagency content coordination as well 
        as state/local government and private sector coordination. 
        These documents and procedures are cornerstones for all major 
        incident public affairs response activity, and ensure that 
        Federal, State, and local communicators function as one voice 
        in delivering critical information and instructions to the 
        public. This function is essential--the public cannot be told 
        different information from authority figures during an 
        emergency situation.
      DHS OPA coordinates planning and operational actions with State 
        and local authorities, which includes training and briefing to 
        State public affairs staffs, exercise activity, and real-world 
        incident management. DHS OPA also conducts interagency table 
        top exercises to evaluate and improve upon Federal and 
        department incident response capabilities. In order to inform 
        the media about what they can expect from the Federal 
        Government during a terrorist incident, DHS OPA has created a 
        reference manual with media guidance that is near distribution.
      DHS OPA currently maintains a staffing presence in the DHS 
        Homeland Security Operations Center (HSOC) for the majority of 
        the time, requiring numerous, back-to-back staff shifts. 
        Ultimately, DHS OPA will be responsible for providing 24/7 
        coverage in the HSOC, which is currently operational 24 hours a 
        day.
      Finally, DHS OPA also coordinates directly with international 
        counterparts and non-governmental organizations to ensure that 
        the department's capabilities are known and to gain information 
        about best practices being used around the world. Examples 
        include participation in the multi-discipline National Disaster 
        Risk Communications Initiative and continuous coordination with 
        counterparts in Great Britain.
  --Historian.--The DHS Historian and historical staff are vital to the 
        formation, preservation, and dissemination of the institutional 
        memory of the Department. The DHS Historian also oversees and 
        directs the recording and preservation of the history of the 
        Department through the publication of a wide range of 
        historical studies aimed at a diverse audience, making the 
        Historian and historical publications essential to a broad-
        based public awareness of the work and history of the 
        Department.
      The work of the DHS Historian and records managers in collecting 
        and preserving historically important records is also a 
        critical element in ensuring government transparency in general 
        and, specifically, public accountability of a Cabinet 
        department charged with protecting the American people and way 
        of life.
      Activities include the production of a range of reference, 
        policy, and historical background assessment papers; providing 
        expert historical knowledge essential for informed decision 
        making; maintaining the institutional history of the 
        Department; providing professional assistance to the historical 
        and archival activities of the directorates and bureaus within 
        the Department; and producing such documentary collections as 
        may be deemed necessary.
  --Web Content and Development.--The work of the DHS Web team is of 
        particular importance because OPA is tasked with building a 
        functioning website that is consistent across the DHS bureaus 
        and useful to the American public seeking information about the 
        department's missions and policies. Pew research in April 2002 
        found that 68 million American adults had used government 
        agency Web sites--a sharp increase from the 40 million who had 
        used government sites in March 2000. An average of 1.7 million 
        pages is viewed each week on the DHS website. During the most 
        recent Orange alert, 2.5 million pages were viewed weekly.
  --Employee Communications.--The Employee Communications function 
        ensures that key policy, procedural, and operational 
        information from headquarters is disseminated and understood by 
        the department's 180,000 employees. This function is critical 
        to establishing a new culture for DHS employees folded in from 
        22 component bureaus and agencies. Employee Communications 
        researches communication needs, promotes two-way communication, 
        and provides a comprehensive range of tools such as a weekly e-
        newsletter, roundtable sessions with principals, and the 
        intranet website.
  --Speechwriting.--The Speechwriting staff supports the Office of 
        Public Affairs' public education mission by writing public 
        remarks for the Secretary, Deputy Secretary and other 
        spokespeople. This includes support for DHS senior leadership 
        during time of national crisis, when there is a particular need 
        for timely, straightforward public information. Current 
        staffing levels are consistent with those at DOS.
  --Communications/Press Office.--Due to the department's mission, 
        including its international impact, DHS OPA receives an 
        extremely high call volume from reporters interested in 
        homeland security issues. OPA also has taken proactive steps to 
        provide the public with timely information about homeland 
        security issues, such as giving advice to holidays travelers, 
        educating companies about their rights under the newly enacted 
        Safety Act, and guiding Americans to be alert when using rail 
        transportation.

                     OFFICE OF LEGISLATIVE AFFAIRS

    The Department of Homeland Security's Office of Legislative 
Affairs' (OLA) responsibilities are commensurate to the overarching 
mission of the Department, both diverse and far-reaching in scope. The 
legislative duties of the Department are comparable to other large 
Federal agencies sharing multiple committee jurisdictions and 
addressing a large volume of Congressional inquiry and activity.
    The Office of Legislative Affairs is responsible for the 
development and advancement of the Department's legislative agenda. 
This includes the establishment and maintenance of constructive 
congressional relations, the development of Departmental protocols for 
interaction with Congress and contributing to the formulation of and 
communication of the Department's strategic message.
    Specifically, OLA coordinates staffs and develops material for 
congressional hearings to include creating briefing books and editing 
written testimony. OLA assists with witness preparation of oral 
testimony, including coordinating and scheduling policy and subject-
focused pre-briefing prior to a hearing date. They also coordinate and 
manage legislative briefings in advance of a hearing. The briefings 
provide the policy landscape, possible questions and answers, 
information on other witnesses, and other last minute insights. 
Additionally, OLA staff coordinates and tracks deliverables which 
result from hearings, including questions for the record.
    Further, OLA is responsible for all congressional mail sent to DHS. 
This involves recording and tracking correspondence, assigning due 
dates, ensuring letters are answered in a timely manner and proofing 
and editing all correspondence for the Assistant Secretary's signature.
    Currently, more than 80 House and Senate Committees claim 
jurisdiction over the Department's many important functions. These 
committees include the Select Committee on Homeland Security, 
Committees on Appropriations, and other committees addressing homeland 
security issues related to transportation and infrastructure, 
agriculture, science, energy, commerce, taxes, government affairs, 
intelligence, judicial issues, financial services and international 
relations.
    DHS OLA places the highest priority on responding to all 
Congressional oversight inquiries in a factual and timely manner. This 
broad interest in the Department and its mission produces multiple 
hearings and Congressional briefings, numerous solicitations of 
response to Congressional questions and requires adequate resources to 
be devoted to sufficiently respond to such inquiry.
    For example, in 2003, the Department of Homeland Security testified 
at 148 hearings--some including multiple witnesses from both the full 
Department, as well of each of its directorates. From January 28th 
through April 22nd of this year, the Department has produced witnesses 
for 82 hearings. Additionally, in 2003, DHS OLA was responsible for 838 
briefings of Congressional members and staff. This year, DHS OLA has 
already conducted 509.
    Congressional inquiry that specifically compares the full-time 
equivalent (FTE) and budget allotment of DHS OLA to that of other 
Federal Departments requires an examination of not only the unique 
functions of the DHS OLA but also requires a thorough inspection of the 
personnel numbers of other Legislative Affairs offices outside of DHS.
    For example, other departments with comparable missions report 
similar or greater resources devoted to Legislative Affairs. DHS OLA 
shares similar personnel numbers not only within the Legislative 
Affairs offices of other departments, but also support staff, some 
greatly exceeding that of DHS OLA.

                        NEBRASKA AVENUE COMPLEX

    Question. Legislation authorizing the transfer of the property from 
the Navy to GSA has been submitted. What is the status of the 
legislation in the various authorizing committees? What has the 
Department been doing to educate the authorizers and the leadership of 
the urgency in moving this legislation by April 30?
    Answer. The proposed legislation from the Administration 
transferring the Nebraska Avenue Complex to the General Services 
Administration for the use of the Department of Homeland Security was 
submitted to Congress for consideration by letter from General Services 
Administrator Stephen A. Perry to Speaker of the House J. Dennis 
Hastert dated February 12, 2004, and by letter to Vice President 
Cheney, as President of the Senate, dated February 18, 2004. House and 
Senate Leadership, House and Senate Authorization Committees, and House 
and Senate Appropriation Committees have been briefed on the NAC 
legislation and the necessity of passing the legislation as soon as 
possible. A freestanding bill has been reported out of the House Armed 
Services and Transportation and Infrastructure Committees. Similar 
legislation has been reported out of the Senate Armed Services 
Committee as part of the fiscal year 2005 Department of Defense 
Authorization bill. Additionally, since February, the Appropriations 
and Authorizing Committees staffs have both toured the NAC in 
preparation for the introduction of the legislation.
    Question. What would it cost to lease the equivalent amount of 
space in Washington, DC for fiscal year 2005 and for fiscal year 2005-
2009?
    Answer. Using an average of $46.34 per square foot (assuming a 5 
year lease), the equivalent cost of leasing approximately 450,650 
square feet of floor space (approximate NAC requirement), the cost 
would be $20,883,000 in fiscal year 2005 and for the period fiscal year 
2005-2009 would be $106,523,000 (assuming an average cost inflation of 
5 percent per annum). These costs do not include the cost of parking.

                          GRANT CONSOLIDATION

    Question. What is the status of Secretary Ridge's proposal to 
consolidate TSA, FEMA, ODP and other grants in the Office of State and 
Local Government Coordination and Preparedness? Have any funds been 
officially transferred? If the proposal is still going forward, how 
many people from TSA and FEMA will be (or have been) transferred? Are 
they people associated only with grant stewardship, or are subject 
matter experts also being transferred?
    Answer. The move to create a one stop shop for grants is based upon 
input from the user or grantee community and is designed to enhance 
coordination of the multitude of preparedness and security grants 
currently administered by the Department (ODP, FEMA and TSA). The one-
stop shop consolidation will allow DHS to gain a global perspective on 
all of the grants to ensure that redundancies are minimized, funds are 
directed to the highest best use and DHS can proactively make 
recommendations to states, localities and other recipients on mutual 
aid and dual use opportunities.
    Moving the TSA grants to SLGCP will provide DHS with concrete 
benefits. First, it will allow the substantial bulk of the TSA 
personnel who are not impacted by the consolidation to focus on their 
core mission of transportation security. Next, it creates internal (to 
DHS) and external (to recipients) improved efficiencies because only 
one DHS team (SLGCP) will interact with grant recipients rather than 
two separate teams (one at SLGCP and one at TSA) and, more importantly, 
recipients who apply for more than one type of grant (e.g. a UASI and a 
TSA grant) will only need to deal with one DHS team (SLGCP).
    Final policy responsibility for grant guidance and grant 
distribution will reside with the Office of State and Local Government 
Coordination & Preparedness. However, overall hazards and 
transportation security policy input will remain with FEMA, TSA, as 
well as the Coast Guard, and MARAD. And, to ensure the continuing 
involvement of TSA in the grant process, ODP will create a distinct 
office dedicated specifically to transportation related grants. This 
office will work closely with TSA in developing transportation security 
grant policy.

                           HIRING PRIORITIES

    Question. Recently, in the midst of budget constraints during this 
period of increased demand to protect the homeland, the Department 
announced its intention to hire a director of its Hollywood 
entertainment liaison office. This position would pay up to $136,466. 
This salary would pay the entry level salaries of 5 TSA screeners, 4 
ICE Special Agents, 4 U.S. Border Patrol Agents, 8 Coast Guard non-rate 
enlistees or 3 U.S. Secret Service Special Agents. How can the 
Department justify the creation of such a position when hiring for 
front line activities within the Department is ongoing and there are 
hiring freezes in other parts of the Department?
    Answer. Public Affairs utilized an open, funded position from one 
of its bureau offices to create the Director of Entertainment Liaison 
position. By taking an FTE from an office where reorganization had 
created efficiencies in workload, the position utilized those 
efficiencies to create a position with value added to the Department.
    The Entertainment Liaison Office is a necessary addition to the 
Office of Public Affairs. This person will work with television and 
movie producers to ensure that they do not take ``editorial license'' 
with Homeland Security matters that could provide the public with false 
impressions or inaccurate information. We spend a great deal of effort 
to educate people to help them to be better prepared for any possible 
disaster--natural or manmade. Millions of Americans get information 
through the entertainment industry. This position will help to ensure 
that these people get an accurate portrayal of the department's 
mission, policies, and activities, while proactively working to help 
the American public better identify DHS functions. The Entertainment 
Liaison office will guide the direction of documentaries and law 
enforcement ``reality'' shows to provide real information about how the 
country is better prepared today.
    This is not a unique position in government. Many other Federal 
agencies already utilize a liaison with the entertainment industry. The 
CIA has a Hollywood liaison, and the Department of Defense houses a 
large staff to serve the same function.

                            CONTRACTING OUT

    Question. During the April 30, 2003, hearing, Secretary Ridge 
testified that he would provide the Subcommittee by August 2003 the 
fiscal year 2004 Management Plan of the Department. To date, that has 
not been submitted. Please submit the Plan. What are the Department's 
plans for fiscal year 2004 and fiscal year 2005 for contracting out 
work currently provided by DHS personnel?
    Answer. The Department has engaged in a 2004 Competitive Sourcing 
Plan that provides for the competition of approximately 1,500 
commercial FTE at CIS and the USCG. No decisions have yet been reached 
regarding whether to retain the work in-house or convert it to contract 
performance. Competition based decisions are expected in the August/
September timeframes. The Department is currently working with its 
Organizational Elements to identify opportunities for additional 
competitions in the fiscal year 2005 completion timeframe and based 
upon the 2003 FAIR Act inventory of commercial and inherently 
governmental functions, but we have not yet made any final decisions 
regarding what will be competed or the form of competition (streamlined 
or standard).

         FUNDING FEDERAL AIR MARSHALS AND PORT SECURITY GRANTS

    Question. Provide for the record the response to my March 9, 2004 
letter to Secretary Ridge.
    Answer. The Secretary appreciates the question and the opportunity 
to respond. A response to the Senator's March 9, 2004 letter to the 
Secretary is forthcoming.

                 Transportation Security Administration

               IMPLEMENTATION OF AIR CARGO STRATEGIC PLAN

    Question. Please provide an update on all steps taken to date to 
implement your 11/03 Air Cargo Strategic plan. How are you integrating 
the hiring of 100 air cargo inspectors into that plan and what is the 
status of that hiring effort?
    Answer. The Air Cargo Security Plan outlines a layered security 
strategy based on TSA's threat-based, risk managed approach to 
security. TSA is focused on numerous strategies to secure cargo 
aircraft, perimeters, facilities, and personnel. TSA plans to publish a 
Notice of Proposed Rule Making (NPRM) soon that will include 
requirements for further implementation of the Plan. But it is 
important to note that a significant number of measures called for by 
the Plan have already been implemented:
  --As of April 18th, 2004, 75 out of the 100 cargo inspectors have 
        been hired and are on board. The remainder has been tendered 
        offers of employment, which are currently being processed. We 
        expect the remaining inspectors to be on board within the next 
        two pay periods. These inspectors will be deployed throughout 
        the United States and under the supervision of the local 
        Federal Security Director.
  --A security directive requiring foreign all-cargo carriers to comply 
        with the same cargo security procedures as domestic air 
        carriers has been issued.
  --A security directive requiring passenger and all-cargo carriers to 
        perform random inspections of air cargo has been issued.
  --TSA's research and development budget for fiscal year 2005 includes 
        $55 million to develop new technologies for inspecting cargo 
        for explosives, radiation, chemical, and biological agents, and 
        other dangerous substances.
  --The Known Shipper database has been expanded by involving more 
        companies and collecting more information to enhance shipper 
        and supply chain security
  --To assist TSA in evaluating the latest technology available for 
        identifying high-risk cargo, a Request for Information (RFI) 
        was issued on April 12. The RFI will close on April 30th.
  --Explosives Trace Detection (ETD) and Explosives Detection System 
        (EDS) technology have been evaluated to determine their 
        viability in conducting targeted air cargo inspections. The EDS 
        Pilot program is progressing towards an operational phase. TSA 
        has selected three vendors to test their machines against eight 
        commodities. There are five airports selected to participate in 
        the pilot; MIA, DFW, ORD, ATL, LAX. The first screening is 
        scheduled to begin at the end of May and finish at the end of 
        June.

              AIR CARGO SCREENING: LEVERAGING DOD RESEARCH

    Question. In his January 26, 2004 testimony before the National 
Commission on Terrorist Attacks Upon the United States, Principal 
Deputy Assistant Secretary of Defense for Homeland Defense, Peter F. 
Verga, spoke to three Advanced Concept Technology Demonstration (ACTD) 
efforts currently underway at DOD. One of them, the Air Transportable 
cargo screening ACTD, is designed to detect explosive threats in pallet 
cargo loads moving through the military transportation system. Is your 
agency aware of this effort and is its use under consideration for one 
of the pilot air cargo demonstration projects called for and funded in 
the fiscal year 2004 Homeland Security Appropriations Act? If not, why 
not? If so, please describe the testing being conducted--including the 
location, timeframe, and level of funding.
    Answer. Both agencies benefit from research and development 
projects designed to provide technologies for screening cargo to be 
carried on board an aircraft. TSA has been in contact with the 
Department of Defense (DOD) regarding the Advanced Concept Technology 
Demonstration (ACTD), and will be working with DOD personnel to ensure 
that efforts undertaken by either TSA or DOD are complementary.

                         WAIT TIMES AT AIRPORTS

    Question. Last summer, my staff requested information regarding the 
wait times for airline passengers nationwide and at the JFK, LAX, MIA, 
ATL, Charleston, WV, and Jackson, MS airports on a month-by-month basis 
for fiscal year 2003 and 2004. They are still waiting for this 
information. The wait times should be presented graphically with data 
on the level of airport screeners at each of the requested locations. 
Please provide the information.
    Answer. TSA's plan for wait time data collection rotates the 
responsibility of collecting passenger security checkpoint wait time 
data among different airports throughout the year. Each month, 
approximately 26 airports are instructed to conduct a wait time study 
of two consecutive weeks. These airports are selected according to 
their geographical and size categories in order to allow TSA to 
extrapolate across the full range of airport diversity. All Category X 
and I airports--as well as select Category II, III and IV airports--
will be chosen to collect data at least three times each over the 
course of the year. The monthly airport selections are balanced in 
order to provide consistent data for headquarters analysis. In March, 
the average wait time for this sample of airports was 3.1 minutes with 
an average of 10.4 minutes at peak time. Please see attachment for 
airport specific information.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The average peak wait times are the wait times encountered by 
passengers during the airport's high passenger volume periods. This is 
an average of all the checkpoint's peak times at each of the selected 
airports over the given month.

               DISCRIMINATION COMPLAINTS BY TSA SCREENERS

    Question. Transportation Security Administration (TSA) employees 
have filed numerous discrimination complaints. Employees have filed 
complaints for a litany of reasons from poor agency management to 
failing to address the security problems at airports nationwide. As of 
January 2004 the agency faced a backlog of approximately 1,800 
discrimination complaints. How has TSA addressed this problem and what 
plans are being considered to alleviate the backlog of discrimination 
complaints?
    Answer. In January 2004, the Office of Civil Rights (OCR) 
implemented a ``Backlog Elimination Strategy.'' With this strategy, the 
OCR sought to both eliminate the backlog of discrimination complaints, 
develop a system that would promote rapid processing and resolution of 
current complaints, and perhaps, most important, improve service to our 
customers. During fiscal year 2003, OCR received in excess of 1,800 
informal complaints of discrimination. In January 2004, the OCR had a 
backlog of 476 informal complaints that required action. As of April 8, 
2004, OCR had a backlog of 8 informal complaints requiring action.
    We have trained all of our EEO counselors and many OCR staff 
members in alternative dispute resolution techniques and have provided 
our EEO counselors with additional counselor training. We are proud to 
say that OCR's strategy of addressing EEO complaints is not reliant on 
the ``pushing of paper.'' We are providing training to TSA managers 
that focuses on management practices that promote equal employment 
opportunity and are working closely with various TSA offices to 
identify and address potential civil rights issues.

                          AIR MARSHAL TRAINING

    Question. In December 12, 2003 written testimony to Senator 
Hollings, the General Accounting Office stated that funding cuts and 
delays would push back into mid-2004 advanced air marshal training--
scheduled for completion in January 2004 for those air marshals hired 
between October 2001 and July 2002. What is the current status of 
advanced air marshal training? Have all air marshals hired through the 
end of fiscal year 2003 received the required advanced training?
    Answer. Phase II Training, the equivalent of advanced training for 
Federal Air Marshals, continues at the Federal Air Marshal Training 
Center in Atlantic City, NJ. Presently, the last class is scheduled to 
begin on May 31, 2004. At the end of that class, approximately 136 
Federal Air Marshals will not have attended Phase II for the following 
reasons: debilitative medical conditions (61) active military duty 
(39); and administrative positions (36). The 36 Administrative 
Positions represent 36 Federal Air Marshals (FAMs), who have background 
investigation issues and/or disciplinary action pending. When those 
matters have been adjudicated, the FAMs will attend Phase II Training. 
These numbers may be reduced as personnel in those categories become 
available to attend Phase II Training, since training positions remain 
available to include the above.

             CANINE TEAMS--DIVERSION FROM CURRENT MISSIONS

    Question. The Secretary has proposed to increase rail security by 
diverting K-9 teams to rail stations. Yet, there is no new money for 
this purpose. Where are the K-9 teams being diverted from and what 
impact is the diversion having on those missions?
    Answer. DHS has announced that it will create Rapid Response Teams 
to augment local dog teams through the Federal Protective Service 
(FPS). FPS, working with TSA, will determine how best to mobilize 
existing dog teams across the Federal Government during heightened 
alerts. We have no intention of taking K-9 teams away from screening 
air cargo and protecting other Federal infrastructure. TSA is 
developing a program to partner with local authorities to provide 
explosives detection training for current and future dog teams.

                          REGISTERED TRAVELER

    Question. What are the costs in fiscal year 2004 and fiscal year 
2005 to implement the registered traveler program, how much of that 
cost will be covered by fees on the registered travelers, and what will 
be the expected increase in wait times for non-registered travelers if 
the registered traveler program is implemented with no increase in the 
screener workforce?
    Answer. TSA intends to conduct Registered Traveler (RT) Pilots at a 
limited number of airports beginning in June 2004. The pilot programs 
will assess improvements in security and enhancements in customer 
service for passengers. The pilots will last approximately 90 days. 
Results of these pilots will be analyzed to determine the program's 
effect on security and service.
    During the RT Pilots, TSA will test technology, including biometric 
tools, to enhance identity verification at the passenger security 
checkpoint, in conjunction with business processes, including potential 
reconfiguration of select checkpoint lines and lanes. TSA will be 
testing a range of technology and operational variables. The RT Pilots 
will monitor and assess possibilities for a secure and expedited travel 
experience for those who volunteer for the program. The number of 
participants in the RT Pilots will be capped at 10,000, spread across a 
small number of airport locations. It is anticipated that this small RT 
Pilot test will not have a detrimental effect on either those who do 
not volunteer or on the screener workforce. Upon conclusion of the 
pilots, determination will be made regarding best practices and 
necessary enhancements required for larger implementation of the 
program.
    The cost of the RT Pilots will be funded through $5 million 
appropriated for the Registered Traveler program in the Homeland 
Security Appropriations Act, 2004 (Public Law 108-90). Contrary to 
media reports, TSA is not planning to charge a fee to passengers who 
participate in the 90-day RT Pilots.
    TSA will await the results and analyses of the Pilots prior to 
making any decisions regarding the implementation of a Registered 
Traveler program in fiscal year 2005, including any costs that may be 
incurred by passengers who wish to participate in the voluntary 
program. The fiscal year 2005 request includes $15 million to pay for 
additional start-up costs, such as IT infrastructure and staffing 
associated with an RT program. TSA anticipates that future operational 
program costs for the Registered Traveler Program would be covered by 
fees incurred by participants. Thus, the Registered Traveler Program 
would become self-funded.
    Until the pilot has been conducted and the results fully evaluated, 
staffing requirements and their implications cannot be fully 
understood. However, TSA remains committed to its customer service 
objectives and minimizing the wait time for the traveling public.

                  Emergency Preparedness and Response

                           PROJECT BIOSHIELD

    Question. How can the Department justify spending between $1 
billion and $1.5 billion on experimental anthrax experimental vaccines 
not approved by FDA and unlikely to be approved for many years, when 
these vaccines have been developed by companies who have never had a 
commercially manufactured vaccine approved by FDA?
    Answer. Anthrax tops virtually every biowarfare threat analysis, 
because of its high fatality rate (as demonstrated by the October 2001 
attacks, where 45 percent of those with inhalation anthrax died), 
persistence in the environment, ease of production, and ease of 
aerosolization. Although antibiotic treatments are available, the use 
of an anthrax vaccine would provide pre-exposure protection for first 
responders and remediation workers. In a post-attack scenario, a 
vaccine would shorten the course and increase the effectiveness of 
treatment antibiotics when given to large exposed populations, and 
facilitate re-entry into contaminated space. It would also provide 
protection if a terrorist deployed antibiotic-resistant anthrax. Other 
important anthrax treatment modalities such as anthrax antitoxins, 
which can potentially save the lives of those already ill, are under 
advanced development and may become available for BioShield 
procurements in the future.
    The current licensed anthrax vaccine, Anthrax Vaccine Adsorbed 
(AVA), has many disadvantages for civilian use, including a primary 
requirement of 6 doses over 18 months with annual boosters and a 
limited production capacity (the only producer has a maximum production 
of 6.6 million doses per year). However, it is currently available, 
effective, and safe; and newer, 3-dose schedules are being evaluated. 
Through an interagency agreement between the Department of Defense 
(DOD) and DHS, the manufacturer could provide 5 million doses to the 
stockpile by 2006.
    Project BioShield provides for the acquisition of licensable 
products with the term ``licensable'' defined as within 8 years. This 
provision allows the Department to consider competitive bids proposed 
by companies that have a validated current Good Manufacturing Practices 
production process capable of scaled commercial production, as well as 
products that have been tested in appropriate animal models for 
efficacy and in human clinical trials for safety. New recombinant 
Protective Antigen (rPA) anthrax vaccines made using genetic 
recombinant biotechnology are being developed as next-generation 
anthrax vaccines. In preliminary studies, rPA vaccines protected 
animals against lethal anthrax aerosol challenge. Two manufacturers--
one of them in the United States--are developing rPA vaccine under 
contract with the National Institutes of Health (NIH). Human trials to 
evaluate safety began in the summer of 2003. NIH contracts for advanced 
development, process development, and further clinical testing were 
awarded in September 2003. A 3-dose schedule has been suggested as 
likely, although studies could result in a 1-2 dose schedule in certain 
situations. Cost is estimated at $10 per dose. Initial rPA delivery to 
the Strategic National Stockpile is expected in 2004 as an 
investigational product.
    Two manufacturers have nearly completed phase I clinical trials, 
and further clinical and animal testing plans appear reasonable to NIH 
and Food and Drug Administration reviewers. Recent progress reports to 
NIH indicate steady progress by both manufacturers with no major 
obstacles envisioned. NIH will continue to support and monitor the 
current development of the product through phase II clinical trials.
    HHS will request monthly progress reports from the manufacturers 
and will host interagency risk management meetings to review the 
reports and to intervene when necessary. Also, a significant percentage 
of the contract payment will not be available until after licensure, 
both for pre-exposure and post-exposure use.
    After consideration of the anthrax threat, public health need, 
advanced development progress, manufacturing capability, and cost, the 
Policy Coordination Committee of the Homeland Security Council 
recommended, and the Deputies Committee approved, procurement of 
additional anthrax vaccine.
    Question. Why doesn't DHHS adopt a near-term to long-term policy 
for stockpiling of anthrax vaccine with product available now for the 
next 5 years and with next generation vaccines thereafter? Isn't a 
mixed approach being used for the procurement of other vaccines?
    Answer. DHS and HHS are working closely to develop both a near-term 
and a long-term strategy for stockpiling existing prophylactics and/or 
pharmaceuticals to protect against or to treat exposures to anthrax 
while continuing to seek and encourage the development of next-
generation anthrax vaccines. Currently, the Strategic National 
Stockpile (Stockpile) contains a sizable inventory of antivirals for 
treatment of anthrax exposure, and due to their current availability, 
the Stockpile is markedly increasing its caches of such 
countermeasures--enough to treat 12 million people with an increase to 
30 million by the end of this year. Additionally, DHS, through an 
interagency agreement with DOD, is purchasing the only FDA-licensed 
anthrax vaccine, AVA, in fiscal year 2004, fiscal year 2005, and fiscal 
year 2006--for a total of 5 million doses to be added to the Stockpile. 
As a result, the Stockpile will contain ample amounts of prophylaxis 
for anthrax exposure, and will serve as a bridge until the next-
generation anthrax vaccine, rPA, is accepted into the Stockpile.
    Question. Please provide an expenditure plan by quarter for fiscal 
year 2004 and fiscal year 2005 for Project Bioshield that identifies 
specific procurements for which decisions or solicitations have been 
made to date and general purposes or goals for remaining obligations.
    Answer. Over the past 10 months, the Weapons of Mass Destruction 
(WMD) Medical Countermeasures subcommittee has developed 
countermeasures information of interest to administration policymakers 
who will make the BioShield procurement decisions. The WMD subcommittee 
commissioned an end-to-end analysis of medical countermeasures to 
Category ``A'' biological agents (anthrax, smallpox, plague, botulinum 
toxin, tularemia, Ebola, and other hemorrhagic fever viruses). Working 
groups developed initial requirements for four high-priority bioweapon 
countermeasures for which there is high need and a reasonable 
expectation that products will be available in the near-term:
  --Next-generation anthrax vaccine (rPA)
  --Anthrax immune therapy
  --Next-generation smallpox vaccine (modified vaccinia, MVA or LC16m8)
  --Botulinum antitoxin

                               STOCKPILE

    Question. Please provide an expenditure plan by quarter for fiscal 
year 2004 and fiscal year 2005 for Strategic National Stockpile that 
identifies specific procurements for which decisions or solicitations 
have been made to date and general purposes or goals for remaining 
obligations.
    Answer. The fiscal year 2004 Strategic National Stockpile spending 
plan has already been provided to the Appropriations Committee on May 
11, 2004, during a Strategic National Stockplie (SNS) briefing. A 
fiscal year 2005 spending plan is being formulated by the Centers for 
Disease Control and Prevention, but it has yet to be provided to DHS.

     REGIONAL OFFICE AND IMPACT ON EXISTING FEMA REGIONAL STRUCTURE

    Question. Please provide an update on the Department's plans to 
establish a regional structure. What impact will this new structure 
have on FEMA'S 10 regional offices and their longstanding and 
successful linkages with State and local emergency managers?
    Answer. An effective Department of Homeland Security (DHS) field 
operational management concept is essential to ensure that the 
Department fulfills its mission in leading the national unified effort 
to protect America. Of the 22 agencies that now comprise the 
Department, 7 have regional structures. DHS is conducting a baseline 
analysis regarding a regional concept of operations that would ensure 
effective management of field operations both on a day-to-day basis and 
during incidents
    One of the core missions of DHS regional offices would be to 
collaborate with Federal, state, local, tribal and private sector 
stakeholders within the region to coordinate homeland security 
activities. To ensure that the DHS regional offices are able to perform 
this coordination function, FEMA regional offices will continue to 
partner with State and local governments to help ensure that 
communities throughout the Nation can prepare for, respond to and 
recover from incidents and disasters.
    Question. How will those relationships be protected under a new 
regional structure?
    Answer. Over the years, FEMA regional offices have developed such 
productive working relationships with their State and local partners 
that it is often touted as the hallmark of intergovernmental 
coordination and collaboration between a Federal agency and its 
constituent stakeholders. In recognition of these valuable 
partnerships, the Department is working to design a regional construct 
that will capitalize upon these excellent relationships to enable the 
more effective and efficient delivery of DHS services to external 
stakeholders.

                            DISASTER RELIEF

    Question. Please provide the Subcommittee with an update on 
disaster relief funds.
    Answer. As of April 28, 2004, $1.487 billion remains unobligated in 
the Disaster Relief Fund If obligations occur at the 5-year average of 
$249 million per month for the remaining 5 months of the fiscal year 
and FEMA realizes another $200 million in recoveries of prior year 
obligations (actual recoveries through March 31 equal $194 million), 
FEMA will end the year with an unobligated balance of $442 million, 
which is close to the estimate of $453 million in the fiscal year 2005 
President's budget. In summary (in thousands of dollars):

------------------------------------------------------------------------

------------------------------------------------------------------------
Unobligated Balance, 4/28...............................      $1,487,265
Estimated recoveries....................................         200,000
Obligations May 1-Sept. 30 (5 <greek-e> $249 million)...      -1,245,000
                                                         ---------------
Estimated unobligated balance 9/30/04...................         442,265
------------------------------------------------------------------------

    Of course, any large hurricane or other disaster events during the 
remainder of the fiscal year could significantly impact these 
estimates.

                      United States Secret Service

                          CAMPAIGN LABOR COSTS

    Question. The fiscal year 2004 budget includes $64 million in costs 
associated with the 2004 campaign protection program. This budget was 
based on a historical average of 603 ``protection days'' covering 
multiple candidates. How many candidates have received protection 
during the 2004 campaign? Provide the date protection started for each 
candidate. Does the Secret Service still anticipate that 603 protection 
days will be required for the presidential campaign? What savings does 
the Secret Service anticipate from the campaign program, if any?
    Answer. As you note, the Secret Service's campaign protection 
estimate is based on the historical average of the number of protection 
days provided for the last four elections. The Administration believes 
this is the most appropriate method for developing estimated campaign 
protection costs, since it does not presuppose a set number of 
candidates or particular days on which protection will begin or end.
    To date, the Service has provided protection for two candidates and 
one spouse. Following the Democratic Convention, the Service will 
provide protection to the Vice-Presidential nominee and the Vice-
Presidential nominee's spouse. Baring protection being provided to a 
third party, an independent candidate or, on the Republican ticket, 
someone other than the sitting President or Vice President, 421 days of 
protection will be provided.
    Of the $64 million budgeted for the campaign program, $40.0 million 
is for direct costs related to protection, and $24 million is for labor 
costs relative to personnel that are being reallocated from the 
Service's investigative activity to the campaign in order to staff the 
protective effort. These reallocated labor costs are covered by the 
Service's base budget. To the extent these personnel are not required 
for campaign-related work; they will continue their investigative 
activities.
    Because of lower than originally projected campaign activity, the 
direct costs are now estimated to total only $33 million. The 
Department and the Secret Service will work with Congress to find 
appropriate uses for any excess campaign protection funding.

------------------------------------------------------------------------
                                       Projected dates of     Protection
         Candidate/Nominee                 Protection            Days
------------------------------------------------------------------------
John Kerry.........................  February 20, 2004             224
                                      through September 30,
                                      2004.
Mrs. Kerry \2\.....................  April 13, 2004 through         85.5
                                      September 30, 2004.
John Edwards.......................  February 22, 2004              11
                                      through March 3, 2004.
Dem. VP Nominee \1\................  July 26, 2004 through          67
                                      September 30, 2004.
Dem. VP Spouse \1\ \2\.............  July 26, 2004 through          33.5
                                      September 30, 2004.
                                                            ------------
      Total Projected Campaign Days  ......................       421
------------------------------------------------------------------------
\1\ Estimated VP Nominee and Spouse start dates.
\2\ Protection for spouses are projected as \1/2\ day of protection.

              ``FORCE MULTIPLIER'' TO FEDERAL AIR MARSHALS

    Question. On February 24, 2004, the Immigration and Customs 
Enforcement and the Secret Service announced a new agreement to provide 
force multiplier to Federal air marshal service. According to the 
Department, this initiative would enable the ICE FAMS the flexibility 
to deploy their Federal Marshals to a wider range of flights. Other 
than providing the ICE FAMS with travel information for armed personnel 
traveling on U.S. commercial flights during their normal course of 
business, what specific responsibilities will Secret Service agents 
have on these flights that they didn't have before February 24, 2004? 
In many cases, Secret Service agents travel from one city to another 
following several hours of protection responsibilities. Does this mean 
that U.S. Secret Service agents will then be asked to substitute as 
Federal air marshals when traveling on official business?
    Answer. The objective of the Force Multiplier Program (FMP) is to 
capitalize on the presence of literally thousands of armed Federal law 
enforcement officers (LEOs) that routinely travel throughout the 
country on commercial carriers in support of the missions of their 
respective agencies. Essentially, the FMP is a system that would allow 
the Federal Air Marshal Service (FAMS) to track and coordinate LEO 
flight activity to optimize the use of Federal Air Marshals and 
otherwise enhance the level of LEO coverage provided to the Nation's 
civil aviation system.
    While USSS Special Agents are participating in the Force Multiplier 
Program, they will not be acting as ``de facto FAMs'' and are not a 
substitute for Federal Air Marshals (FAMs). While they receive a 
briefing, they are neither fully trained nor tactically positioned on 
the aircraft to serve as FAMs. The USSS Special Agents will have no 
additional responsibilities while aboard U.S. commercial flights during 
the course of their official travel. It will, however, heighten their 
awareness within the aviation domain and allow the FAMS to monitor the 
presence of armed LEOs on flights. In the event of an in-flight crisis, 
the USSS Special Agents would react accordingly to the threat as 
prescribed by applicable statutes and their agency policy.

  Immigration and Customs Enforcement and Citizenship and Immigration 
                                Services

   IMMIGRATION-RELATED CASEWORK--ASSISTANCE TO CONGRESSIONAL OFFICES

    Question. I am troubled by the reports I am receiving from members 
of my staff about the difficulties that they are having in obtaining 
help from your agency for my constituents. Under the current 
reorganization regime, my staff is finding that their efforts to get 
answers to even some of the most basic questions about visas and 
immigration processes are meeting with resistance from agency staff. 
Contacts, both e-mails and follow-up phone calls, from my office to 
district office staff in your agency are not receiving timely 
responses. It sometimes takes days to get even an acknowledgment of an 
inquiry. In many cases, contract personnel, particularly at the service 
centers, are less acquainted with the intricacies of immigration law 
than are members of my own Senate staff. On many occasions my staff has 
made inquiries only to receive responses that are strictly scripted. 
Even more disturbing, calls from my Senate office are not even being 
answered at headquarters. I would like to know what efforts are being 
made to monitor service to the public and to ensure that Congressional 
inquiries are handled promptly?
    Answer. The Director, U.S. Citizenship and Immigration Services 
(USCIS) is also troubled if you and your staff are not receiving timely 
and appropriate responses to your inquires from USCIS personnel and 
appreciate your bringing it to his attention. You should know that the 
Standard Operating Procedures for all congressional units, both here at 
USCIS headquarters and in the field, specifically state that all phone 
calls from congressional offices must be returned within 24 hours, e-
mails within 10 days, and written correspondence or faxes within 30 
days. If this is not being done, then the Director would be happy to 
look into any specific instances or cases you could provide to me. 
However, it is important to note that some case resolution (which 
should be considered distinct from the return of a phone call or the 
answer to a letter), because of its complexity, may take considerably 
longer.
    The Director appreciates you bringing this to his attention and 
wants to assure you that customer service is one of the top three 
priorities of USCIS. We will continue to commit ourselves to building 
and maintaining an immigration services system that provides 
information and benefits in a timely, accurate, consistent, courteous 
and professional manner and ensure that those values are exhibited in 
our congressional units.
    It appears that the above question regarding responsiveness 
primarily relates to immigration services issues under the purview of 
U.S. Citizenship and Immigration Services (USCIS). However, the 
Assistant Secretary, Immigration and Customs Enforcement (ICE) wants to 
ensure you that ICE is fully committed to providing timely and 
informative responses to all congressional inquiries. The ICE office of 
Congressional Relations can be reached at (202) 514-5232 to assist in 
immigration casework relating to detention and removal, humanitarian 
parole and other matters under ICE's jurisdiction. For your 
information, USCIS Office of Congressional Relations can be reached at 
(202) 514-5231.

                    Office for Domestic Preparedness

                  METROPOLITAN MEDICAL RESPONSE SYSTEM

    Question. Provide a detailed description of how fiscal year 2002, 
fiscal year 2003, and fiscal year 2004 funds appropriated for the 
Metropolitan Medical Response System have been spent. Has the 
Department fully met the requirements of cities, as laid out in the 
MMRS contracts? If not, how much work, and in which cities, remains to 
be done? How much of the fiscal year 2004 appropriation is obligated? 
What are the plans for remaining funds? If the Department does not plan 
to obligate all appropriated fiscal year 2004 funds for MMRS, please 
provide a rationale; the proposal for how remaining funds will be 
spent; and indicate whether you will submit a reprogramming or transfer 
proposal to the Committee.
    Answer. In fiscal year 2002, the Metropolitan Medical Response 
System (MMRS) program was located in the Department of Health and Human 
Services' (HHS') Office of the Assistant Secretary for Public Health 
Emergency Preparedness (OAS PHEP). The funds were used to initially 
establish an MMRS in 25 new jurisdictions at a cost of $400,000 each, 
for a total of $10 million (this was less than the historical cost of 
$600,000 for an MMRS contract), and to fund special projects in MMRS 
jurisdictions.
    In fiscal year 2003, $49.1 million of the $50.1 million 
appropriation was allocated to MMRS within the HHS OAS PHEP, and is 
broken out as follows:
  --$200,000 was provided to each of the 25 fiscal year 2002 
        jurisdictions to ``make them whole'' for baseline capability 
        development, for a total of $5 million
  --Funds for fiscal year 2003 Program Support Contracts, providing 
        $280,000 for capability sustainment and optional operational 
        area expansion, were obligated for each of the 122 MMRS 
        jurisdictions, for a total of $34.16 million
  --A total of $2.4 million was used to establish 3 new MMRS 
        jurisdictions and to upgrade Atlanta to MMRS status ($600,000 
        for each)
  --$3 million was provided to the National Emergency Training Center 
        (NETC) for MMRS training course development and for Noble 
        Training Center facility upgrades
  --$1.5M was spent on the final phase of a special project to obtain a 
        mobile field hospital for the Charlotte-Mecklenburg, North 
        Carolina, MMRS
  --The remainder was used for technical support contract fees, 
        official travel, printing, and other overhead expenses
    In fiscal year 2004:
  --$3 million was transferred to the NETC for 1 MMRS course 
        development and 2 facility upgrades at the Noble Training 
        Center
  --$500,000 has been used for staff travel and administrative expenses
    As of May 5, 2004, 65 of the 124 MMRS jurisdictions have completed 
their baseline capability development. Of these 65 jurisdictions, 24 
have begun work under the fiscal year 2003 Program Support contracts. 
None of the jurisdictions has yet completed its fiscal year 2003 
Program Support contract. Of the remaining 59 jurisdictions:
  --25 jurisdictions have nearly completed their baseline capability 
        development (only 1 or 2 deliverables remaining)
  --13 jurisdictions are on track (have 3 or more deliverables 
        remaining and are on schedule to complete them)
  --21 jurisdictions are delayed
    As an incentive for completing baseline capability development, 
activation of the fiscal year 2003 Program Support Contract (up to 
$280,000) is conditional upon completion and approval of all 
deliverables required in the initial MMRS contract, and its 
modifications. The table below provides the information by 
jurisdiction.

------------------------------------------------------------------------
                                                           Submitted
                                                      Technical and Cost
                                   2003 Sustainments   Proposals for the
 Baseline Deliverables Completed        Started        Fiscal Year 2003
                                                        Program Support
                                                           Contracts
------------------------------------------------------------------------
Akron, OH.......................  Anaheim, CA.......  Akron, OH
Albuquerque, NM.................  Aurora, CO........  Albuquerque, NM
Anaheim, CA.....................  Bakersfield, CA...  Amarillo, TX
Anchorage, AK...................  Birmingham, AL....  Anaheim, CA
Arlington, TX...................  Columbus, GA......  Anchorage, AK
Aurora, CO......................  Columbus, OH......  Arlington County,
                                                       VA
Austin, TX......................  Denver, TX........  Arlington, TX
Bakersfield, CA.................  Fremont, CA.......  Austin, TX
Baltimore, MD...................  Fresno, CA........  Baton Rouge, LA
Baton Rouge, LA.................  Honolulu, HI......  Shreveport, LA
Birmingham, AL..................  Indianapolis, IN..  Chattanooga, TN
Boston, MA......................  Jacksonville, FL..  Cincinnati, OH
Chesapeake, VA..................  Las Vegas, NV.....  Dallas, TX
Chicago, IL.....................  Mesa, AZ..........  Dayton, OH
Cleveland, OH...................  Milwaukee, WI.....  El Paso, TX
Columbus, GA....................  Minneapolis/St.     Fort Wayne, IN
                                   Paul, MN.
Columbus, OH....................  Nashville, TN.....  Fremont, CA
Dallas, TX......................  Omaha, NE.........  Fresno, CA
Denver, CO......................  Phoenix, AZ.......  Ft. Worth, TX
Detroit, IL.....................  Riverside, CA.....  Garland, TX
El Paso, TX.....................  Salt Lake City, UT  Glendale, CA
Ft. Wayne, IN...................  San Antonio, TX...  Glendale, AZ
Fort Worth, TX..................  San Diego, CA.....  Greensboro, NC
Fremont, CA.....................  St. Louis, MO.....  Hampton Roads
                                                       District Planning
                                                       Commission
Fresno, CA......................  ..................  Hialeah, FL
Glendale, AZ....................  ..................  Honolulu, HI
Honolulu, HI....................  ..................  Houston, TX
Houston, TX.....................  ..................  Huntington Beach,
                                                       CA
Huntington Beach, CA............  ..................  Irving, TX
Huntsville, AL..................  ..................  Southeast Alaska
                                                       Region
Indianapolis, IN................  ..................  Los Angeles, CA
Jacksonville, FL................  ..................  Las Vegas, NV
Kansas City, MO.................  ..................  Lexington, KY
Las Vegas, NV...................  ..................  Lincoln, NE
Long Beach, CA..................  ..................  Little Rock, AR
Los Angeles, CA.................  ..................  Lubbock, TX
Memphis, TN.....................  ..................  McAllen, TX (Rio
                                                       Grande)
Mesa, AZ........................  ..................  Mesa, AZ
Miami, FL.......................  ..................  Mobile, AL
Milwaukee, WI...................  ..................  New Orleans, LA
Minneapolis, MN.................  ..................  NY City Mayor's
                                                       Office
Mobile, AL......................  ..................  Oakland, CA
Nashville, TN...................  ..................  Oklahoma City, OK
Newport News, VA................  ..................  Omaha, NE
New York, NY....................  ..................  Phoenix, AZ
Oklahoma City, OK...............  ..................  Portland, OR
Omaha, NE.......................  ..................  Richmond, VA
Philadelphia, PA................  ..................  Riverside, CA
Phoenix, AZ.....................  ..................  San Antonio, TX
Portland, OR....................  ..................  San Bernardino, CA
Riverside, CA...................  ..................  San Diego, CA
Salt Lake City, UT..............  ..................  San Jose, CA
San Antonio, TX.................  ..................  Santa Ana, CA
San Diego, CA...................  ..................  Seattle, WA
San Francisco, CA...............  ..................  Spokane, WA
San Jose, CA....................  ..................  St. Louis, MO
Seattle, WA.....................  ..................  St. Petersburg, FL
Shreveport, LA..................  ..................  Stanislaus County,
                                                       CA
St. Louis, MO...................  ..................  Stockton, CA
St. Paul, MN....................  ..................  Tacoma, WA
St. Petersburg, FL..............  ..................  Tampa, FL
Syracuse, NY....................  ..................  Toledo, OH
Tampa, FL.......................  ..................  Tucson, AZ
Tulsa, OK.......................  ..................  Tulsa, OK
Wichita, KS.....................  ..................  Wake County, NC
                                                      Wichita, KS
------------------------------------------------------------------------

    As of April 30, 2004, $3.5 million of the $50 million appropriation 
has been obligated. The funds that Congress has appropriated for MMRS 
over the last several years have been used to establish certain 
capabilities, to get the program up to its baseline, and to facilitate 
transfer of the program to the localities for continuation, once the 
baseline is established. We will reach the baseline this fiscal year 
(2004), and therefore no additional funding is being requested. As 
such, the Department has submitted to the House and Senate 
Appropriations Subcommittees a notification, dated April 27, 2004, of 
its intent to reprogram $40 million of the $50 million MMRS 
appropriation. Should this reprogramming be approved, the remaining 
funds, approximately $6 million, would be used to develop a plan to 
terminate the program as currently structured and to seek the 
continuance, in some form, of its key components in the eventual ``one-
stop shop'' grants operation to be administered by the DHS Office of 
State and Local Government Coordination and Preparedness. Under this 
arrangement, FEMA would have no further role in the MMRS program for 
fiscal year 2004, and there will be no Federal program in fiscal year 
2005.
    There are other Federal programs that provide more narrowly 
focused, but related, support. These include the Centers for Disease 
Control and Prevention-Health Resources and Services Administration 
(HRSA) Bioterrorism Preparedness Grants and the HRSA Hospital Grants; 
the Office for Domestic Preparedness (ODP) Training and Exercise 
Programs and Equipment Grants; and ODP Urban Area Security Initiative 
funding to the designated States, which will then work with counties 
and cities to form regions that will work together through mutual aid 
agreements, interoperable communications, statewide intelligence 
centers, and community and citizen participation.

                              OBLIGATIONS

    Question. How does ODP verify that States have obligated funds to 
cities, as required in the State formula and UASI grants? What are the 
mechanisms for States to notify ODP, and for ODP to verify that 
obligation was made? What does ``obligate'' mean in this program? What 
steps must a city take to be able to get funds from the State for a 
particular expenditure?
    Answer. For the fiscal year 2003 State Homeland Security Grant 
Program (SHSGP), Part I and II and Urban Areas Security Initiative 
(UASI) Part I and II grants, ODP's grant guidance notes that states 
were expected to obligate 80 percent of equipment funding for SHSGP I, 
80 percent of first responder preparedness funding in SHSGP II, 50 
percent of CIP funding in SHSGP II, and 80 percent of all funding for 
the UASI II program to units of local government within 45 days. To 
that end, ODP set up a follow-up system whereby ODP would notify the 
State 10 days out from the 45th day (via a letter) that ODP expects 
states to certify that they had obligated these funds. The 
certification was done via a ``fax back'' form to their ODP 
preparedness officer. On the 46th day after the grant award, we sent 
out a letter reminding them of the obligation requirement, with an 
accompanying fax back form that required them to certify that they had 
met this obligation requirement, and to further explain (through a 
narrative) how the funds were being used.
    We received a majority of the fax backs within the allotted time, 
and ODP is relying on the certification of those states that they have 
met the statutory requirement. For states that did not provide the 
information, or noted that they did not comply, we provided a number of 
options. ODP offered technical assistance to help them comply with 
certification. In other cases, states notified us of a date they would 
be in compliance (in some states, legislatures and other elected bodies 
need to meet so that can hold up Federal funding obligation). The last 
resort for states who did not comply was the notification that ODP 
intended to put a hold on the state portion of their funding until they 
came into compliance.
    In fiscal year 2004, the Homeland Security Grant Program and the 
Urban Area Security Initiative grantees will certify their obligations 
through the Initial Strategy Implementation Plan (ISIP), which is due 
60 days after grant award. The grantees will submit this form to ODP, 
and failure to submit the form will cause funding to be 
administratively held, as noted in the special condition in the grant.
    Obligation for ODP purposes means: (1) a definite commitment which 
creates a legal liability for the payment of funds for goods and 
services ordered or received, or; (2) a commitment during the grant 
period to pay under a grant, subgrant, and/or contract determinable 
sums for services or goods ordered or received during the grant period; 
(please note that this does not include operational costs associated 
with raising the threat level in the State Homeland Security Grant 
Program-Part 2; please reference the ODP Grant guidelines for specific 
details) or (3) evidence that funds are encumbered, such as a purchase 
order or requisition, to cover the cost of purchasing an authorized 
item during the grant period.
    In terms of eligible subgrantees (such as cities, counties, regions 
and other units of government) to receive funds from the state, ODP 
leaves the discretion to the State as to who will receive subgrants. 
This varies from State to State; as mentioned earlier, it can be 
cities, counties, regions, port authorities, tribes, and other local 
units of government. As well, most states make it clear to their locals 
that there may not be an expectation that everyone will receive a 
subgrant. This will be based upon risk, threat, population or other 
means. If a locality is chosen as a subgrantee, the State makes a 
subgrant award document available to them, with instructions for how to 
proceed with procurement or other items, such as training procurement 
or exercise planning. Depending on the requirements in the grant, in 
most cases subgrantees are required to submit detailed budget 
worksheets to the State in order to receive their funding. Since ODP 
operates on a reimbursement basis, the locality will have to order 
items from a vendor, and then receive the item before the monies can be 
reimbursed. States are the only unit of government authorized to make 
drawdowns against the U.S. Treasury for ODP funds.

                                TRAINING

    Question. How does the Department plan to spend the $60 million for 
competitive training? Please provide a break down of continuing 
training costs.
    Answer. The funding breakdown of the $60 million ($59,646,000 with 
the 0.59 percent rescission) for continuation of ODP's current training 
programs, as well as the competitive training grant program is as 
follows:

------------------------------------------------------------------------

------------------------------------------------------------------------
Competitive Training Grants.............................     $33,646,000
Naval Postgraduate School...............................      14,000,000
National Sheriff's Association..........................       3,000,000
Dugway Proving Ground...................................       3,000,000
IACLEA..................................................       1,500,000
Michigan State University...............................         500,000
Virtual Medical Campus (WVU)............................       2,000,000
International Association of Chiefs of Police...........       2,000,000
International Association of Firefighters...............       1,000,000
                                                         ---------------
      Total.............................................      59,646,000
------------------------------------------------------------------------

                               TASK FORCE

    Question. The Secretary has established a task force responsible 
for identifying roadblocks in moving homeland security funding from 
States to cities, and for identifying solutions. Who makes up the task 
force? How many meetings have there been to date? What problems have 
been identified?
    Answer. Secretary Ridge has established a Homeland Security Funding 
Task Force composed of state, county, city, and tribal representatives 
to examine the funding process and ensure that Department of Homeland 
Security funds move quickly to local first responders. The primary goal 
of the Task Force is identify State and local funding solutions that 
work effectively--``best practices''--and can be extended to situations 
where there are impediments to efficient and effective distribution of 
State and local homeland security funds.
    The Department expects the Task Force to provide a report to the 
Secretary within the next several weeks that will identify several 
``best practices'' for ensuring the expeditious award of funds to local 
first responders. The report will also identify barriers to the quick 
and efficient award of funds to local first responders and offer 
recommendations to address these barriers. The Task Force, led by Mitt 
Romney, Governor of Massachusetts, is composed of 20 representatives 
who have first-hand experience in homeland security issues and whose 
expertise in this area should allow for a thorough examination of the 
issue.
    As of May 2004, the Task Force has met twice, and has also convened 
two conference calls to discuss the issues surrounding the most 
efficient and effective means to ensure that homeland security funds 
are passed through to local first responders.
  state grants (including law enforcement terrorism prevention grants)
    Question. How much of the fiscal year 2002 funds have been 
obligated, and expended, by state? At a national level, describe the 
uses of the funds and how much has been spent on those uses. Please 
provide the same information for fiscal year 2003 and fiscal year 2004 
funds.
    Answer. Please see charts below for information on the fiscal year 
2002 and fiscal year 2003 State formula grant programs. At this point, 
ODP does not have information on the fiscal year 2004 program as many 
states have only recently received their awards. Overall, though, these 
awards could be used for a variety of purposes, including procurement 
of specialized equipment, exercise support, and training. In all 
instances, draw down information is provided to ODP by the States and 
reflect State and local draw down amounts. Often times, these draw down 
reports require ODP to validate the accuracy of the amounts reported. 
Given that ODP is relying on State- and local-generated information, 
this process can be time-consuming. Currently, ODP is still verifying 
correct draw down amounts from States and localities. The result of 
this is that State and local draw down amounts exceed obligated amounts 
due to State and local reporting inaccuracies. ODP's validation process 
will reconcile these numbers to reflect more accurate final draw down 
amounts.

          HIGH THREAT, HIGH DENSITY URBAN AREA SECURITY GRANTS

    Question. How much of the fiscal year 2002 funds have been 
obligated, and expended, by state? At a national level, describe the 
uses of the funds and how much has been spent on those uses. Please 
provide the same information for fiscal year 2003 and fiscal year 2004 
funds.
    Answer. Please see attached charts below. Overall, though, these 
awards could be used for a variety of purposes, including procurement 
of specialized equipment, exercise support, and training.

                                     FISCAL YEAR 2002 OBLIGATION & DRAWDOWN
----------------------------------------------------------------------------------------------------------------
                STATE                        AWARD AMOUNT              OBLIGATION                DRAWDOWN
----------------------------------------------------------------------------------------------------------------
ALABAMA..............................            $5,317,000.00            $5,317,000.00            $3,227,957.57
ALASKA...............................             2,783,000.00             2,783,000.00               116,217.02
AMERICAN SAMOA.......................               828,000.00               713,671.00               713,671.00
ARIZONA..............................             5,770,000.00             5,770,000.00             3,275,843.00
ARKANSAS.............................             4,141,000.00             4,141,000.00             1,812,350.69
CALIFORNIA...........................            24,831,000.00            24,695,730.27             6,770,544.91
COLORADO.............................             5,220,000.00             5,220,000.00             2,185,101.69
CONNECTICUT..........................             4,626,000.00             3,132,870.26             3,132,870.26
DELAWARE.............................             2,887,000.00             2,887,000.00             2,522,055.43
DISTRICT OF COLUMBIA.................             2,747,000.00             2,558,690.00             2,558,690.00
FLORIDA..............................            12,967,000.00            12,967,000.00            10,092,752.25
GEORGIA..............................             7,797,000.00             7,797,000.00             1,322,400.00
GUAM.................................               892,000.00               892,000.00               782,785.64
HAWAII...............................             3,172,000.00             3,172,000.00               388,734.56
IDAHO................................             3,226,000.00               837,369.26               837,369.26
ILLINOIS.............................            10,604,000.00            10,135,950.00             6,421,617.60
INDIANA..............................             6,400,000.00             4,710,688.00             4,341,379.22
IOWA.................................             4,308,000.00             4,288,520.64             4,288,520.64
KANSAS...............................             4,151,000.00             4,047,426.32             4,047,426.32
KENTUCKY.............................             5,048,000.00             5,048,000.00               860,155.73
LOUISIANA............................             5,331,000.00             5,255,906.92             2,932,832.10
MAINE................................             3,213,000.00             2,759,787.38             2,759,787.38
MARYLAND.............................             5,881,000.00             5,881,000.00             5,058,472.14
MASSACHUSETTS........................             6,579,000.00             6,283,971.94             6,067,184.38
MICHIGAN.............................             8,958,000.00             8,958,000.00             6,797,636.52
MINNESOTA............................             5,631,000.00             5,631,000.00             4,232,332.00
MISSISSIPPI..........................             4,255,000.00             4,255,000.00               134,618.95
MISSOURI.............................             6,079,000.00             6,079,000.00             4,512,600.00
MONTANA..............................             2,967,000.00             2,967,000.00             2,356,138.40
NEBRASKA.............................             3,502,000.00             2,365,560.04             2,365,560.04
NEVADA...............................             3,693,000.00             2,932,185.27             2,932,185.27
NEW HAMPSHIRE........................             3,187,000.00             3,187,000.00               566,551.14
NEW JERSEY...........................             7,948,000.00             7,948,000.00  .......................
NEW MEXICO...........................             3,574,000.00               861,485.41               861,485.41
NEW YORK.............................            14,953,000.00            10,860,400.00             8,000,000.00
NORTH CAROLINA.......................             7,706,000.00             7,339,690.00             4,589,749.00
NORTH DAKOTA.........................             2,794,000.00             2,788,952.00             1,935,923.60
NORTHERN MARIANAS (MP)...............               835,000.00               634,948.00               631,569.00
OHIO.................................             9,897,000.00             9,897,000.00             6,894,513.59
OKLAHOMA.............................             4,656,000.00             4,450,000.00               474,551.16
OREGON...............................             4,637,000.00             4,637,000.00             1,322,762.23
PENNSYLVANIA.........................            10,512,000.00            10,512,000.00             5,524,635.76
PUERTO RICO..........................             4,894,000.00             4,602,000.00               415,718.67
RHODE ISLAND.........................             3,063,000.00             2,448,593.17             1,170,550.04
SOUTH CAROLINA.......................             5,028,000.00             5,028,000.00             3,805,485.55
SOUTH DAKOTA.........................             2,868,000.00             2,799,987.64             2,744,690.06
TENNESSEE............................             6,140,000.00             5,854,806.53             2,847,838.44
TEXAS................................            16,196,000.00            16,196,000.00             3,954,498.71
UTAH.................................             3,849,000.00             3,849,000.00             2,331,617.46
VERMONT..............................             2,772,000.00             2,772,000.00             1,883,177.41
VIRGIN ISLANDS.......................               861,000.00               861,000.00               133,381.16
VIRGINIA.............................             7,062,000.00             7,062,000.00             5,853,231.82
WASHINGTON...........................             6,276,000.00             5,733,465.11             4,979,929.00
WEST VIRGINIA........................             3,567,000.00             3,567,000.00             3,567,000.00
WISCONSIN............................             5,925,000.00             4,842,045.00             4,137,494.44
WYOMING..............................             2,696,000.00             2,157,207.03             2,157,207.03
                                      --------------------------------------------------------------------------
      TOTAL..........................           315,700,000.00           295,372,907.19           170,631,350.65
----------------------------------------------------------------------------------------------------------------


                                            FISCAL YEAR 2003 SHSGP I
----------------------------------------------------------------------------------------------------------------
               Grantee                       Award Amount              Obligation           Amount Drawn Down
----------------------------------------------------------------------------------------------------------------
Alabama..............................            $9,457,000.00            $9,457,000.00              $175,934.60
Alaska...............................             4,995,000.00             4,995,000.00               184,464.63
American Samoa \1\...................             1,482,000.00             1,482,000.00  .......................
Arizona..............................            10,584,000.00            10,584,000.00             2,074,597.00
Arkansas.............................             7,394,000.00             7,394,000.00             3,383,376.03
California...........................            45,023,000.00            45,021,503.60             5,141,147.64
Colorado.............................             9,480,000.00             9,480,000.00               771,927.24
Connecticut \1\......................             8,265,000.00             2,688,030.55  .......................
Delaware.............................             5,185,000.00             5,185,000.00  .......................
District of Columbia.................             4,910,000.00             4,910,000.00  .......................
Florida..............................            23,654,000.00            23,654,000.00             3,194,791.29
Georgia..............................            14,188,000.00            11,344,100.00             2,749,000.00
Guam.................................             1,596,000.00             1,596,000.00               138,141.80
Hawaii...............................             5,693,000.00             5,693,000.00               160,895.41
Idaho \1\............................             5,803,000.00             5,396,000.00             1,210,840.19
Illinois.............................            18,879,000.00            17,353,243.00             6,532,800.91
Indiana..............................            11,399,000.00            11,399,000.00             4,859,561.60
Iowa \1\.............................             7,656,500.00             7,656,500.00               232,884.14
Kansas...............................             7,401,000.00             6,353,209.03               264,327.00
Kentucky.............................             9,001,000.00             8,527,000.00             2,789,560.10
Louisiana............................             9,451,000.00             9,451,000.00               182,686.24
Maine................................             5,751,000.00             5,751,000.00             1,589,384.57
Maryland.............................            10,585,000.00            10,585,000.00             1,223,974.47
Massachusetts........................            11,711,000.00  .......................                68,752.97
Michigan.............................            15,918,000.00            15,918,000.00               899,860.42
Minnesota............................            10,076,000.00            10,076,000.00               614,470.00
Mississippi..........................             7,582,000.00             7,582,000.00             1,001,844.54
Missouri.............................            10,834,000.00            10,834,000.00             3,358,900.00
Montana..............................             5,303,000.00             5,303,000.00               367,734.49
N. Mariana Islands...................             1,496,000.00             1,234,698.00               749,082.00
Nebraska.............................             6,254,500.00             6,254,500.00             1,618,344.69
Nevada...............................             6,771,000.00             6,771,600.00             1,259,918.90
New Hampshire........................             5,727,000.00             5,727,000.00               858,982.35
New Jersey...........................            14,222,000.00            14,222,000.00  .......................
New Mexico...........................             6,401,000.00             6,401,000.00               133,918.45
New York \1\.........................            26,492,000.00            14,872,000.00            19,000,000.00
North Carolina.......................            13,908,000.00            13,908,000.00             1,228,130.00
North Dakota.........................             4,983,000.00             4,983,000.00             1,046,030.93
Ohio.................................            17,510,000.00            17,510,000.00             3,551,943.24
Oklahoma.............................             8,304,000.00             6,847,000.00               414,231.39
Oregon...............................             8,336,000.00             8,336,000.00             2,118,757.40
Pennsylvania.........................            18,570,000.00            18,570,000.00             3,286,780.86
Puerto Rico..........................             8,727,000.00             8,727,000.00  .......................
Rhode Island.........................             5,489,000.00             5,489,000.00             1,899,312.04
South Carolina.......................             9,017,000.00             9,017,000.00               485,499.18
South Dakota.........................             5,131,000.00             5,131,000.00               217,204.19
Tennessee............................            10,978,000.00            10,978,000.00               490,436.93
Texas................................            29,538,000.00            29,538,000.00             3,520,908.18
U.S. Virgin Islands..................             1,542,000.00             1,542,000.00               134,353.56
Utah.................................             6,937,000.00             6,937,000.00             1,190,912.95
Vermont..............................             4,963,000.00             4,963,000.00             1,466,921.25
Virginia \1\.........................            12,716,000.00             8,031,200.00             6,369,466.20
Washington...........................            11,294,000.00            11,194,000.00             6,653,422.04
West Virginia........................             6,340,000.00             6,340,000.00             5,034,308.70
Wisconsin............................            10,565,000.00            10,565,000.00             5,577,914.15
Wyoming..............................             4,827,000.00             4,827,000.00             1,101,205.77
                                      --------------------------------------------------------------------------
      Total..........................           566,295,000.00           524,584,584.18          112,579,842.63
----------------------------------------------------------------------------------------------------------------
\1\ Verification of Obligation Data in Progress


                                            FISCAL YEAR 2003 SHSGP II
----------------------------------------------------------------------------------------------------------------
               Grantee                       Award Amount              Obligation           Amount Drawn Down
----------------------------------------------------------------------------------------------------------------
Alabama..............................           $25,049,000.00           $22,448,099.99            $2,077,219.12
Alaska...............................            13,230,000.00            11,466,000.00                82,013.14
American Samoa \1\...................             3,926,000.00             3,403,000.00               398,076.00
Arizona..............................            28,033,000.00            28,033,000.00             3,124,190.00
Arkansas.............................            19,585,000.00            16,974,000.00             4,718,796.73
California...........................           119,256,000.00           119,186,813.00            22,821,978.15
Colorado.............................            25,111,000.00            25,111,000.00             1,587,461.43
Connecticut \1\......................            21,893,000.00             3,326,834.23  .......................
Delaware.............................            13,733,000.00            13,733,000.00  .......................
District of Columbia.................            13,006,000.00             1,734,000.00             1,753,163.37
Florida..............................            62,655,000.00            62,655,000.00             6,932,847.97
Georgia..............................            37,579,000.00            37,579,000.00             2,764,500.00
Guam.................................             4,226,000.00             4,226,000.00  .......................
Hawaii...............................            15,079,000.00            15,079,000.00             1,183,054.77
Idaho................................            15,375,000.00            14,350,000.00             2,059,200.37
Illinois.............................            50,005,000.00            44,656,232.00               258,979.73
Indiana..............................            30,194,000.00            26,285,402.27             9,776,430.67
Iowa \1\.............................            20,282,000.00            17,689,625.12             1,337,200.95
Kansas \1\...........................            19,603,000.00            16,989,000.00                24,886.33
Kentucky.............................            23,838,000.00            20,660,000.00             2,204,308.52
Louisiana............................            25,037,000.00            22,741,123.28               569,112.82
Maine................................            15,232,000.00            15,232,000.00             2,403,869.60
Maryland.............................            28,037,000.00            28,037,000.00               519,347.05
Massachusetts........................            31,020,000.00            31,020,000.00             8,321,342.08
Michigan.............................            42,162,000.00            36,227,500.00               469,974.88
Minnesota............................            26,690,000.00            23,845,370.12               693,032.00
Mississippi..........................            20,083,000.00            20,083,000.00               654,920.00
Missouri.............................            28,697,000.00            28,697,000.00             5,048,400.00
Montana..............................            14,047,000.00            13,110,500.00               205,653.27
N. Mariana Islands...................             3,963,000.00             3,963,000.00               186,642.00
Nebraska.............................            16,568,000.00            16,568,000.00             4,128,342.94
Nevada...............................            17,935,000.00            17,935,000.00               845,533.87
New Hampshire........................            15,172,000.00            13,362,968.47             6,664,255.98
New Jersey...........................            37,671,000.00            37,671,000.00             2,318,264.63
New Mexico...........................            16,956,000.00            13,635,150.00                68,600.00
New York \1\.........................            70,172,000.00            70,172,000.00            63,000,000.00
North Carolina.......................            36,840,000.00            36,840,000.00               455,173.00
North Dakota.........................            13,200,000.00            11,440,410.00               247,219.42
Ohio.................................            46,378,000.00            46,378,000.00             3,047,735.70
Oklahoma.............................            21,996,000.00            21,996,000.00               183,361.58
Oregon...............................            22,081,000.00            19,403,038.00             1,344,549.74
Pennsylvania.........................            49,189,000.00            49,189,000.00             2,255,466.08
Puerto Rico..........................            23,118,000.00            23,118,000.00  .......................
Rhode Island \1\.....................            14,540,000.00            12,603,756.96             9,285,838.00
South Carolina.......................            23,882,000.00            23,882,000.00               830,961.88
South Dakota.........................            13,591,000.00            13,591,000.00             3,499,236.39
Tennessee............................            29,080,000.00            29,080,000.00                28,493.47
Texas................................            78,238,000.00            78,238,000.00             1,412,151.75
U.S. Virgin Islands..................             4,085,000.00             4,085,000.00             2,358,158.50
Utah.................................            18,374,000.00            18,374,000.00             3,388,302.90
Vermont..............................            13,147,000.00            13,147,000.00               559,083.58
Virginia.............................            33,683,000.00            29,861,000.00            21,240,605.96
Washington...........................            29,917,000.00            27,080,797.47             1,614,935.49
West Virginia........................            16,792,000.00            14,553,000.00  .......................
Wisconsin............................            27,985,000.00            27,985,000.00            12,926,737.90
Wyoming..............................            12,784,000.00            12,784,000.00               149,005.29
                                      --------------------------------------------------------------------------
      Total..........................         1,500,000,000.00         1,411,514,620.91          224,028,615.00
----------------------------------------------------------------------------------------------------------------
\1\ Verification of Obligation Data in Progress.


                                             FISCAL YEAR 2003 UASI I
----------------------------------------------------------------------------------------------------------------
                                                                                                  Amount Drawn
                          Grantee                             Award Amount       Obligation           Down
----------------------------------------------------------------------------------------------------------------
New York City.............................................    $24,768,000.00  ................  ................
National Capital Region...................................     18,081,000.00  ................  ................
Los Angeles...............................................     12,422,000.00  ................  ................
Seattle...................................................     11,201,000.00     $1,597,300.00        $65,825.45
Chicago...................................................     10,896,000.00      2,700,000.00  ................
San Francisco.............................................     10,349,000.00         42,000.00  ................
Houston...................................................      8,634,000.00  ................  ................
                                                           -----------------------------------------------------
      Total...............................................     96,351,000.00      4,339,300.00         65,825.45
----------------------------------------------------------------------------------------------------------------


                                            FISCAL YEAR 2003 UASI II
----------------------------------------------------------------------------------------------------------------
               Grantee                       Award Amount              Obligation           Amount Drawn Down
----------------------------------------------------------------------------------------------------------------
NEW YORK.............................          $135,266,607.00           $33,816,652.00           $82,816,652.00
    New York City, NY................           125,000,000.00  .......................  .......................
    Buffalo, NY......................            10,266,607.00  .......................  .......................
NATIONAL CAPITAL REGION..............            42,409,851.00  .......................  .......................
ILLINOIS.............................            29,975,733.00  .......................  .......................
    Chicago, IL......................            29,975,733.00  .......................  .......................
TEXAS................................            34,165,283.00               963,124.96                 7,987.72
    Houston, TX......................            23,766,700.00  .......................  .......................
     Dallas, TX......................            10,398,583.00  .......................  .......................
CALIFORNIA...........................            62,202,490.00  .......................               134,049.00
    Los Angeles, CA..................            18,874,838.00  .......................  .......................
    San Francisco, CA................            18,587,312.00  .......................  .......................
    San Diego, CA....................            11,359,682.00  .......................  .......................
    Sacramento, CA...................             6,912,795.00  .......................  .......................
    Long Beach, CA...................             6,467,863.00  .......................  .......................
WASHINGTON...........................            18,186,668.00               600,000.00                    13.09
    Seattle, WA......................            18,186,668.00  .......................  .......................
MASSACHUSETTS........................            16,727,125.00             1,718,408.00  .......................
    Boston, MA.......................            16,727,125.00  .......................  .......................
COLORADO.............................            15,568,474.00  .......................  .......................
    Denver, CO.......................            15,568,474.00  .......................  .......................
PENNSYLVANIA.........................            21,038,924.00  .......................  .......................
    Philadelphia, PA.................            14,215,223.00  .......................  .......................
    Pittsburgh, PA...................             6,823,701.00  .......................  .......................
MISSOURI.............................            19,548,603.00             2,466,979.96               365,000.00
     St. Louis, MO...................             9,850,142.00  .......................  .......................
    Kansas City, MO..................             9,698,461.00  .......................  .......................
FLORIDA..............................            18,959,558.00             3,695,318.60             3,296,000.00
    Miami, FL........................            13,184,569.00  .......................  .......................
    Tampa, FL........................             5,774,989.00  .......................  .......................
OHIO.................................            13,859,426.00               202,370.00                 7,874.27
    Cincinnati, OH...................             7,991,055.00  .......................  .......................
    Cleveland, OH....................             5,868,371.00  .......................  .......................
MICHIGAN.............................            12,272,550.00  .......................  .......................
    Detroit, MI......................            12,272,550.00  .......................  .......................
NEW JERSEY...........................            11,892,942.00  .......................  .......................
    Newark, NJ.......................            11,892,942.00  .......................  .......................
ARIZONA..............................            11,033,467.00               200,000.00                14,469.00
    Phoenix, AZ......................            11,033,467.00  .......................  .......................
MARYLAND.............................            10,900,944.00             2,725,236.00             1,464,126.51
    Baltimore, MD....................            10,900,944.00  .......................  .......................
HAWAII...............................             6,870,891.00  .......................             1,717,723.00
    Honolulu, HI.....................             6,870,891.00  .......................  .......................
OREGON...............................             6,766,108.00               150,000.00                 1,151.99
    Portland, OR.....................             6,766,108.00  .......................  .......................
LOUISIANA............................             6,282,661.00             1,570,665.00  .......................
    New Orleans, LA..................             6,282,661.00  .......................  .......................
TENNESSEE............................             6,071,695.00                30,000.00  .......................
    Memphis, TN......................             6,071,695.00  .......................  .......................
                                      --------------------------------------------------------------------------
      Total..........................           500,000,000.00            48,138,754.52            89,825,046.58
----------------------------------------------------------------------------------------------------------------

                              STATE PLANS

    Question. States were to submit their plans to the Department by 
December 31, 2003. How many State plans were delivered by that date? 
How many State plans have now been submitted? How many, and which, 
State plans have not yet been approved? In reviewing the plans, what 
lessons have been learned about DHS plan requirements and what best 
practices have been identified?
    Answer. Each State, the District of Columbia, the Commonwealth of 
Puerto Rico, and the territories were required to submit their 
assessments and strategies by January 31, 2004. Much of how the States 
and territories will distribute and utilize Homeland Security Grant 
Program funds will be influenced by the results of the State Homeland 
Security Assessments and Strategies.
    These assessments and strategies are critically important to both 
the States and the Federal Government. They provide a wealth of 
information regarding each State's vulnerabilities, capabilities, and 
future requirements, as well as each State's preparedness goals and 
objectives. They provide each State with a roadmap as to how current 
and future funding, exercise, training, and other preparedness 
resources should be directed and targeted, and they provide the Federal 
Government with a better understanding of needs and capabilities.
    All assessments and strategies have been received and reviewed or 
currently are under review by an intra-DHS review board comprised of 
representatives from major Department components. Of those 56 
strategies, 53 have been approved by the Department. The remaining 
three--Idaho, Northern Marianna Islands, and the District of Columbia--
should be approved soon. ODP officials are continuing to work with 
officials from these states and territories to ensure that the 
requisite information and changes are made to their strategies.
                                 ______
                                 

           Questions Submitted by Senator Ernest F. Hollings

                 SEAPORT SECURITY IMPLEMENTATION COSTS

    Question. The Coast Guard has estimated that the cost of meeting 
security mandates from the Maritime Transportation Security Act will be 
$1.1 billion initially and then $7.1 billion over the next 10 years.
    The deadline for submitting port security plans to the Coast Guard 
passed at the end of 2003 and many ports and facilities either turned 
in nothing, or submitted reports that the analysis was still pending. 
It has been reported that the Coast Guard also does not have the 
personnel resources to review and evaluate the assessments when they 
are turned in.
    Most shipping activity is controlled by State, local and private 
sector operations, and the Federal presence is minimum. The ports are 
not deep pocketed, and tend to focus all activity on efficiency. 
Relying on them as the total source of funding will ensure that we get 
weak port security. By way of comparison, this would be like saying at 
the Southwest Border, where a rancher's ranch borders the Rio Grande 
and the Mexican border; ``we have concerns about illegal immigration 
over your land, and we want you to put up gates and fences and conduct 
surveillance of your property, and if you don't we will take your ranch 
away from you''. While the protection of our border is a shared burden, 
the Administration budget proposal does not adequately address it's 
obligation.
    The cost of securing our seaports is high, yet not impossible to 
cover. The Coast Guard has published estimates that the cost will be 
over $7 billion over the next 10 years. Why has the administration only 
provided $46 million in the budget to meet this need?
    Answer. The President's Budget provides $1.9 billion for port 
security in the Department of Homeland Security, a 13 percent increase 
over the 2004 level.
    Within the 2005 total is $1,675 million for Coast Guard port, 
waterway, and coastal security activities, including over $100 million 
to implement the Maritime Transportation Security Act (MTSA).
    The DHS port security total also includes $164 million in U.S. 
Customs and Border Protection for the Container Security Initiative and 
the Customs Trade Partnership Against Terrorism as well as the $46 
million in the Office for Domestic Preparedness for port security 
grants.
    The Administration's budget request supports the President's 
National Strategy for Homeland Security. This strategy provides the 
basic framework to mobilize and organize the Nation--Federal, State and 
local governments, the private sector, and the American people--in the 
complex mission of protecting our homeland.
    To date, the Coast Guard has received approximately 97 percent of 
the Facility Security Plans that it anticipates receiving in response 
to the Federal Maritime Security Regulations that were promulgated 
under the Maritime Transportation Security Act (MTSA). The Coast Guard 
is currently reviewing these Facility Security Plans with the 
assistance of one of the Nation's premier engineering companies, Black 
and Veatch. The review process includes three stages that concludes 
with an on-site examination to ensure that the security measures 
outlined in the plan are appropriate and are being fully implemented. 
The Coast Guard has allocated the resources necessary to conduct a full 
review of each Facility Security Plan before July 1, 2004 when all 
facilities are required to be operating under their approved plans.
    The estimated costs of meeting the security mandates from the 
Maritime Transportation Security Act do not account for the security 
measures that companies have already taken to enhance security. For the 
sake of good business practice, or to comply with regulations 
promulgated by other Federal and State agencies, many companies have 
already made substantial investments to upgrade and improve security of 
their operation. We also realize that not every company engaged in 
maritime commerce would implement the requirements for increased 
security in exactly the same manner. Depending on each company's 
choices, some companies could spend much less than what was anticipated 
in the regulatory analysis for the MTSA regulations.
    The Department fully understands there will be short-term costs, 
particularly for many smaller ports or companies with less security 
experience. The Coast Guard is fully engaged with the maritime industry 
to help alleviate the burden. The Department has also awarded or made 
available a total of nearly $500 million in port security grants over 
the past 2 years and anticipates convening the fourth round of grants 
in spring 2004.
    The security requirements of the Maritime Transportation Security 
Act were developed with the full cooperation of the private sector. The 
implementation of these requirements will complement the Department's 
already strong response.

       OVERALL COAST GUARD BUDGET REQUEST ONLY 6 PERCENT INCREASE

    Question. The Commandant of the Coast Guard testified that the 
Coast Guard was on track to restore resources and performance of non-
security missions, such as search and rescue of stranded mariners, to 
pre-9/11 levels. However, a draft GAO report (non-public until mid-
March) finds that the resource hours dedicated to the search and rescue 
mission search & rescue is down 22 percent from pre-9/11 levels. The 
resource hours dedicated to many other non-security missions, such as 
fisheries enforcement, living marine resources, and drug interdiction, 
are all down as well.
    Does this budget really fund the Coast Guard at sufficient levels? 
The request is really only a 6 percent increase over what we enacted 
last year, if you include the supplementals. Why is Coast Guard getting 
so little of the increase when it has so many responsibilities related 
to security and non-security missions?
    Answer. Yes, the fiscal year 2005 budget request is sufficient to 
fund Coast Guard operations. A 6 percent increase is not a fair 
comparison since the fiscal year 2004 Coast Guard budget includes 
supplemental funding provided for Iraqi Freedom and Hurricane Isabel. 
Supplemental appropriations are for specific purposes and are non-
recurring. Therefore, the fiscal year 2005 Coast Guard budget would not 
reflect this funding.
    While the draft GAO report referenced in this question noted that 
that the resource hours for non-homeland security programs decreased, 
the report also had the following conclusion: ``The Coast Guard's 
performance results--measures used to track each program's annual 
progress--generally did not mirror the trends in resource use. Instead, 
results for programs GAO reviewed were generally stable or improved 
regardless of the resources applied, and nearly all of the programs 
that GAO reviewed met their performance targets.'' (Draft GAO-04-043, 
March 2004).
    Search and Rescue (SAR) is a demand driven mission. While resource 
hours for SAR are down, it is due to less distress calls than from lack 
of resource hours. Also from the GAO report: ``. . . the search and 
rescue program's target for fiscal year 2003 was to save 85 percent of 
mariners in distress and the program achieved this goal by saving over 
87 percent of them.''
    While resource hours are an important measure, the Coast Guard 
relies on the judgment of the operation commander to apply available 
resources based on the risks in the relevant area of operations. This 
flexibility is critical to apply Coast Guard resources to the numerous 
missions mandated in Section 888 of the Homeland Security Act of 2002.
    Question. I am hearing reports that the Coast Guard's resource 
hours for most non-security missions are still down below pre-9/11 
levels. For example, I've heard that the search and rescue mission is 
down 22 percent from pre-9/11 levels. What can you tell me about that?
    Answer. In fiscal year 2003, search and rescue operational 
activity, as reported by cutters, aircraft and boats (ashore) in the 
Abstract of Operations (AOPS), was 22 percent lower than pre-9/11 
levels. The pre-9/11 level is defined as the annual average of the 
eight-quarter period beginning with the 4th quarter of fiscal year 1999 
and ending with the 3rd quarter of fiscal year 2001.
    The observed decrease in operational activity does not necessarily 
reflect reduced readiness or responsiveness. Search and rescue is a 
demand-driven mission. As such, a decrease in search and rescue 
resource hours is a result of a reduction in the number of distress 
calls received. Further, search and rescue operational activity may 
also be affected by any number of the following factors:
  --The economy--boating activity mirrors the economy's fluctuations.
  --Weather patterns and number of severe storms.
  --Improved safety equipment onboard vessels.
  --Better built craft; modern vessels are more reliable.
  --Better communications that prevent false overdue cases.
  --Increased use of private towing companies providing non-emergency 
        assistance.
    The Coast Guard continues to respond to all urgent search and 
rescue calls.

                       INTELLIGENCE DISSEMINATION

    Question. Section 70113, of the MTSA mandated a single system of 
collection and analysis on vessels, cargo, crew, and passengers 
entering into the U.S. Maritime intelligence had traditionally been 
developed in response to the needs of the U.S. Navy, and the Office of 
Naval Investigations (``ONI'') was crucial during World War II as they 
were responsible for de-encrypting German and Japanese naval codes. 
Later during the Cold War, this agency was charged with the tracking of 
Soviet naval assets and submarines. The first efforts in tracking and 
monitoring commercial maritime shipping occurred in the 1980's, when 
the Coast Guard was brought into the naval intelligence world, 
primarily to help track vessels that might be involved in drug running.
    The current headquarters for the Maritime Intelligence Center 
(``MIC'') located in Suitland, Md, houses Navy and Coast Guard 
officials. There were 1,500 Navy officers and about 40 Coast Guard 
officers working the unit. Since then, some strides have been taken to 
improve the unit, including the formal recognition of the Coast Guard 
into the intelligence community, appointment by the Coast Guard of the 
first head of Coast Guard intelligence, and a slight increase of 
resources. However, much remains to be done in this area, and the 
agencies have not cooperated at all to forge a common program. In 
response to your concerns about coordination of intelligence, you 
earmarked $25 million to TSA, in hope that bringing new money to the 
pot might stimulate a more coordinated effort. Given that we only 
inspect 2 or 3 percent of our cargo entering into U.S. ports, and good, 
coordinated intelligence will be vital.
    Mr. Secretary, you mentioned in your testimony that DHS is working 
to improve the sharing of intelligence. You have a major issue facing 
you in developing a coherent policy that will allow for the 
dissemination of intelligence reports to many of the different 
personnel involved in Homeland Security. First off, you have to collect 
certain information from officials at places like the CIA, or FBI, and 
get it presented to your department. Then you have to analyze it and 
verify it, and then pass the information out to the people who we can 
provide the highest degree of oversight and security. In many cases, 
this may be an official who works at a power plant, or is in charge of 
a rail terminal, or chemical facility, and who are currently not able 
to receive government security information that is classified. In the 
case of homeland security many officials that will provide security 
will either be from the private sector, or local or State officials.
    Even within the Federal Government, and within your Agency, we are 
experiencing coordination problems. The Maritime Transportation 
Security Act mandated the creation of a single system of information 
collection and analysis in order to bring together information on ship 
movements, and connect it to information on cargo and shippers, and 
information on crew members and passengers to make sure that we have 
the best information possible to evaluate risk.
    Yet, since the passage of our legislation, there have been no 
efforts at all to coordinate this information. In fact, since we passed 
the bill, Customs who used to have a presence at the Coast Guard 
Maritime Intelligence Center has eliminated its presence, and started 
construction of a new cargo intelligence facility. This is ludicrous. 
What are you going to do to make sure that the public can receive and 
act upon our intelligence, and increase homeland security, and can you 
take steps to start to harmonize the own agencies within your 
Department?
    Answer. The Office of Information Analysis (IA) works in close 
connection with the State and Local and Private Sector Directorates 
within the Department of Homeland Security (DHS) in order to provide 
timely and valuable threat-related information to the State and local 
officials and private sector workforce that protect and provide for our 
Nation's people and infrastructure. This involves receiving and acting 
on feedback from such individuals, updating and specifying recommended 
protective measures, and communicating directly with first responders 
and State officials when necessary. Additionally, in an effort to unite 
and coordinate Department wide efforts, the Assistant Secretary for 
Information Analysis hosts a twice monthly meeting of the intelligence 
and operations directors and/or their representatives from each DHS 
entity. This meeting is used to coordinate policies and efforts, to 
ensure close and consistent communication, and to discuss 
recommendations for improvements in information sharing. The Department 
has taken preliminary steps to harmonize the intelligence efforts of 
its 20 plus separate entities by identifying legacy and new analytic 
resources as well as the missions and capabilities of the respective 
offices.
    The Department of Homeland Security is coordinating information 
sharing. The Coast Guard has taken a leadership role within DHS to 
ensure that maritime intelligence products are accurate and available 
to the DHS Information Analysis and Infrastructure Protection (IAIP) 
Directorate and throughout the entire Federal Government. The Coast 
Guard Command Center is co-located with the National Response Center 
(NRC) sharing threat information and reports of suspicious activities 
from the maritime industry and other maritime stakeholders. In 
addition, the Coast Guard has provided access to its intelligence 
databases, advice to other agencies developing intelligence-shared 
architectures, and exchanged intelligence analysts and liaison officers 
with other agencies active in the maritime arena. These liaison 
officers work with the following organizations: Terrorist Threat 
Integration Center, Defense Intelligence Agency, Federal Bureau of 
Investigation, Border and Transportation Security, U.S. Navy, IAIP, 
National Security Agency, Central Intelligence Agency, National Drug 
Intelligence Center, El Paso Intelligence Center, and Joint 
Intelligence Task Force for Combating Terrorism. The Coast Guard and 
Navy also continue to build an effective joint intelligence partnership 
to enhance maritime domain awareness. The Coast Guard's Intelligence 
Coordination Center is co-located with the Office of Naval 
Intelligence, which comprises the National Maritime Intelligence Center 
(NMIC).
    Further, the Coast Guard and Border and Transportation Security 
(BTS) have exchanged personnel to enhance data sharing between the CG 
Intelligence Coordination Center's COASTWATCH (which analyzes 
information from notice of arrival reports on vessels, people, and 
certain dangerous cargoes approaching U.S. ports) and BTS' National 
Targeting Center (cargo tracking process). Additionally, the Coast 
Guard's two Maritime Intelligence Fusion Centers are collocated with 
the U.S. Navy Shipping coordination Center to exchange Maritime 
Homeland Security (HLS) and Homeland Defense (HLD) information.

                PASSENGER SCREENING & CHECKPOINT ISSUES

    Question. A provision in the fiscal year 2004 Homeland Security 
Appropriations bill that was signed into law by President Bush on 
October 1, 2003, maintains a cap on TSA's full-time staffing at 45,000 
positions. TSA has been trying to meet this employment cap since it was 
first imposed, and over the last 6 months has cut more than 6,000 
screener positions from its workforce.
    Does the employment cap of 45,000 positions in the fiscal year 2004 
Homeland Security Appropriations bill provide TSA the flexibility it 
needs to devise appropriate staffing levels for individual facilities?
    Answer. TSA is managing to keep the workforce under the 45,000 FTE 
level by creating a more flexible workforce. TSA is better coordinating 
airline schedules and passenger load with staffing needs, is increasing 
the proportion of part-time to full-time screeners, and is 
strategically using its mobile national screener force to meet seasonal 
fluctuations in workload. TSA expects to have a part-time screener 
workforce of close to 20 percent by the end of the current fiscal year. 
Part-time screeners create additional operational flexibility when 
scheduling screeners to satisfy varying levels of demand. As a result 
of reducing excess capacity at periods of lower demand, TSA is seeking 
to make more FTEs available to the system as a whole during peak 
periods.
    Question. How will TSA deal with the employment cap as air traffic 
returns to more normal traffic growth levels?
    Answer. We share Congress' desire to ensure that our screeners are 
deployed effectively and efficiently to maximize the safety and 
security of the traveling public. TSA will continue to review its 
workforce requirements at each airport, considering the number, 
location, and balance of full-time and part-time screeners. We will 
engage airport operators and air carriers to ensure that growth rates, 
changes in flight schedules, and other concerns, such as new technology 
that improves screener performance and efficiency, are incorporated 
into our planning. As we move forward into the busy summer travel 
season, we will gain a better understanding of whether or not screener 
staffing levels are adequate for the long term.
    Question. Do you believe that this is a situation where budgetary 
issues may end up driving operational issues rather than the actual 
threat levels?
    Answer. Budgetary considerations are not driving decisions on the 
level of aviation security provided by our screening operation. 
Ensuring adequate operating efficiency on the part of airlines and 
airports given the need to maintain high security is a continuing 
challenge that TSA will work through as we refine and improve screening 
operations.
    Question. Would it be more effective for TSA to develop staffing 
standards for screeners that are based on ensuring that the average 
aviation security-related delay experience by passengers does not 
exceed 10 minutes per boarding?
    Answer. TSA is in the process of completing work on the development 
of staffing standards for each airport based on modeling which include 
criteria such as passenger wait times.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                           ALL-STATE MINIMUM

    Question. I was disappointed that President Bush's proposed budget 
for fiscal year 2005 drops the all-state minimum formula, which I 
authored, from the State Homeland Security Grant Program. This formula 
assures that each State receives a minimum of 0.75 percent of those 
grants to help support their first responders' basic preparedness 
needs.
    Not only would this change result in the loss of millions in 
homeland security funding for the fire, police and rescue departments 
in small- and many medium-sized states, but also deal a crippling blow 
to their efforts to build and sustain their terrorism preparedness.
    Mr. Secretary, you and I have often spoken on how to fairly 
allocate domestic terrorism preparedness funds to our states and local 
communities. I thought we both agreed that fire, police and emergency 
medical rescue teams in each State deserve support in achieving the new 
homeland security responsibilities the Federal Government demands. 
Imagine my surprise, then, when I read in the fiscal year 2005 budget 
proposal that the State Homeland Security Grant Program would be 
allocated among the states based on population concentrations, critical 
infrastructures, and other significant terrorism risk factors, as 
determined by you.
    Mr. Secretary, does the Bush Administration want to shortchange 
rural states, rolling back the hard-won progress we have begun to make 
in homeland security by slashing the protections provided to us by the 
all-state minimum?
    Answer. The provision of homeland security funds to all states and 
territories is essential to the Federal, State, and local effort to 
enhance national security. I have said consistently that I believe 
there should be a minimum level of preparedness across the country. The 
language in the President's fiscal year 2005 request for the Department 
of Homeland Security recognizes that factors other than a minimum 
formula and population should be considered in making overall funding 
allocations. The language further states that the Secretary should have 
the latitude and discretion to make this determination based on a 
number of factors, including population concentrations, critical 
infrastructure, and other significant terrorism risk factors.
    Terrorism and the threat of terrorist acts are not static, as is 
the current formula included in the USA PATRIOT Act. Instead, threats, 
risks, and vulnerabilities are fluid and can change based on a number 
of factors. The Department of Homeland Security should not be 
constrained by a formula and distribution method that does not change 
to meet current and future security needs. As you know, each State has 
submitted an updated homeland security strategy as a requirement of 
receiving and distributing fiscal year 2004 Office for Domestic 
Preparedness grant funds. It is the Department's expectation that these 
strategies, and periodically updated strategies, will provide 
invaluable information to determine appropriate funding levels for all 
states--large and small, urban and rural.
    The Administration and Congress share the goal of enhancing the 
Nation's ability to deter, prevent, respond to, and recover from acts 
of terrorism. The Administration firmly supports the notion that 
security needs to be improved across the Nation. The Administration, 
however, has consistently supported a change in the USA PATRIOT Act 
formula so that we can apply more factors than just population to 
distributing and expending limited homeland security resources.
    Question. Mr. Secretary, would you agree that homeland security is 
a national responsibility shared by all states, regardless of size?
    Answer. I strongly support the idea that homeland security is a 
national responsibility shared by all states, regardless of size. That 
is why I firmly believe that there should be a minimum level of 
preparedness across the country. Since its creation last year, the 
Department has provided more than $8 billion to support and enhance the 
security of states and localities. The President's fiscal year 2005 
budget request continues this strong support and commitment to the 
Nation's emergency prevention and response community. The President's 
budget clearly demonstrates the continuing priority placed on homeland 
security through requesting $40.2 billion in total new resources for 
fiscal year 2005, which is an increase of 10 percent above the 
comparable fiscal year 2004 level.
    Question. Mr. Secretary, do you agree that each State has basic 
terrorism preparedness needs and, therefore, a minimum amount of 
domestic terrorism preparedness funds is appropriate for each state?
    Answer. I strongly support the idea that homeland security is a 
national responsibility shared by all states, regardless of size. That 
is why I firmly believe that there should be a minimum level of 
preparedness across the country.
    Question. Mr. Secretary, would you support a budget supplement 
amendment to restore the 0.75 percent minimum to the State Formula 
Grants Program, which include the State Homeland Security Grant 
Program, the Citizens Corps and the Law Enforcement Terrorism 
Prevention Grants Program?
    Answer. I strongly support the President's fiscal year 2005 budget 
request that provides for additional factors to be considered when 
making determinations on how to distribute homeland security funds to 
states and localities. While I support the concept behind the PATRIOT 
Act--that every State should receive minimum levels of support--I 
firmly believe that funding allocations decisions should be based on a 
number of other factors not included in the PATRIOT Act formula, 
including the presence of critical infrastructure and other significant 
risk factors. With the input that the Department is receiving from the 
states through their updated homeland security strategies, and with the 
more robust intelligence analysis and data collection capabilities 
within the Department, the Department will be better able to prioritize 
support for your efforts to prevent, prepare for, and respond to 
terrorist incidents. The President's fiscal year 2005 request 
recognizes this enhanced ability, and provides the Secretary of 
Homeland Security the latitude and discretion to determine appropriate 
funding levels to the states.

                            FIRST RESPONDERS

    Question. President Bush often says that he wants to ensure that 
our State and local first responders receive the resources necessary to 
do the job the American public expects them to do.
    I find that hard to believe, though, when I read that he proposes 
an $805 million, or 18.4 percent, overall cut in funds for Office for 
Domestic Preparedness funding programs that directly benefit police, 
fire and medical rescue units. The Administration argues this is 
justified because it does not believe those funds are ``targeted'' to 
homeland security capabilities.
    I believe, however, that the current Administration has failed to 
make first responders a high enough priority by consistently 
underfunding homeland security efforts of every state.
    The Hart-Rudman Terrorism Task Force Report argued that our Nation 
will fall approximately $98.4 billion short of meeting critical 
emergency responder needs through this decade's end if current funding 
levels are maintained.
    Clearly, the domestic preparedness funds available are still not 
enough to protect from, prepare for and respond to future domestic 
terrorist attacks anywhere on American soil.
    Would you agree, Mr. Secretary, that to be truly protected from, 
prepared for and able to respond to future terrorist attacks we should 
be looking to increase the funds to our Nation's State and local first 
responders, rather than decrease them, as proposed by the President?
    Answer. The President's fiscal year 2005 request includes more than 
$3.5 billion to support ODP programs and activities. This represents a 
$3.3 million increase over the Fiscal year 2004 request. The fiscal 
year 2005 request includes funds to continue the Homeland Security 
Grant Program which includes the State Homeland Security Program at 
$1.4 billion; the Law Enforcement Terrorism Prevention Program at $500 
million; and the Citizen Corps Program at $50 million. Funds are also 
provided for the continuation of the Urban Areas Security Initiative at 
$1.4 billion; the Fire Act Program at $500 million; the Emergency 
Management Performance Grants at $170 million; as well as for ODP's 
training, exercise, and technical assistance efforts.
    The continuation of these efforts, and the $3.3 million increase in 
ODP's overall request, coupled with the President's request for a 10 
percent increase in funding for DHS as a whole, provides ODP, and the 
entire Department, with the resources we require to help secure the 
Nation from acts of terrorism. The Administration and Department remain 
committed to providing our Nation's emergency prevention and response 
community the resources they need to continue to secure our Nation from 
future acts of terrorism.

                             FIRE SERVICES

    Question. After paying repeated lip service to the great sacrifices 
made by our Nation's first responders, last week President Bush 
unveiled a budget that cuts total Federal assistance to first 
responders by $800 million.
    This fiscal year Congress appropriated $4.2 billion to address 
first responder and homeland security needs. Despite heightened terror 
alerts and multiple studies documenting the pressing needs of the fire 
service, the administration has proposed a $3.5 billion package for 
fiscal year 2005 that cuts the FIRE ACT and grant programs to State and 
local jurisdictions.
    Consistent with the President's opposition to using Federal dollars 
to hire fire fighters, the budget does not include any funding for the 
newly authorized SAFER (Staffing for Adequate Fire and Emergency 
Response) program, which fire departments nationwide argue is critical 
to maintaining their commitment to public safety.
    The budget also proposes cutting a total of $435 million from first 
responder grants to states and other important fire service programs, 
including eliminating the $60 million grant program for Urban Search 
and Rescue and the $60 million competitive training grant programs. An 
additional $20 million has been slashed from the fund for technical 
training and national exercises.
    Each year since the terrorist attacks of 9/11, Congress has 
increased President Bush's proposed appropriations to the fire service. 
And it is now incumbent upon us to do that again.
    Mr. Secretary, this is a time when our Nation needs to support our 
communities' firefighters. On September 11th, the Nation saw that the 
first on the scene at the World Trade Center were the heroic 
firefighters of New York City. Those real-life heroes, 343 of whom gave 
the ultimate sacrifice, should remind us of how essential that support 
is.
    We hear a lot of rhetoric from this Administration about the need 
to secure our homeland and keep our Nation safe. It is very unfortunate 
that the President has decided not to put his money where his mouth is. 
These cuts are unconscionable and lack clear understanding of the many 
problems facing our Nation's first responders--especially those serving 
in our fire departments.
    Aside from rearranging the deck chairs at DHS, how will your budget 
plan at least as much money out to our brave firefighters as it did 
last year?
    Answer. The Department is strongly committed to addressing the 
needs of the Nation's first responders. In fiscal year 2005, the DHS 
budget request includes $3.6 billion for terrorism and emergency 
preparedness grants and assistance. Since March 1, 2003, the Department 
has allocated and awarded more than $8 billion in overall grant funding 
for States and Territories to enhance the abilities of their first 
responders. President Bush is the first president to request funding 
for the fire service and the emergency medical services, and the first 
to call specifically for funding of the Assistance to Firefighter Grant 
Program in his budget. When the 2004 grant process is completed, DHS 
will have distributed almost $2 billion to more than 20,000 local fire 
departments, and the President's fiscal year 2005 Budget has proposed 
another $500 million. From fiscal year 2002 through fiscal year 2004, 
the Administration as a whole has approved or requested more than $17 
billion for State and local fire departments, law enforcement, public 
health biodefense, and emergency response. In addition, the Bush 
Administration has trained more than 700,000 first responders since 
September 11, 2001.

                              IMMIGRATION

    Question. The President's budget proposes a 40 percent cut in the 
amount of directly appropriated funds for the Bureau of Citizenship and 
Immigration Services (CIS), from the nearly $235 million appropriated 
for the current year to $140 million for fiscal year 2005.
    You mention in your written testimony the President's guest worker 
proposal. If Congress approves such a guest worker plan, it would 
drastically increase the workload of CIS. Why is the President 
proposing a 40 percent cut in an agency whose workload he wants to 
increase dramatically?
    Answer. The President's fiscal year 2005 Budget is not proposing a 
cut in the USCIS budget. In fact, the President's budget includes a 
$300 million increase over last years levels, including an additional 
$60 million in discretionary funding towards backlog reduction efforts 
aimed at achieving a 6-month processing time for all immigration 
benefit applications by fiscal year 2006.
    The President's fiscal year 2005 budget reflects the current 
proposal recently adopted by USCIS to adjust its fee schedule through 
the rulemaking process. This fee adjustment includes amounts for 
administrative support services ($155 million) previously funded 
through appropriated funds (tax dollars). Thus, this proposal has no 
impact on the USCIS budget except for the fact that the funding source 
for these services will be by way of fees versus tax dollars. With the 
exception of the $140 million in appropriated backlog reduction funds, 
USCIS will be a wholly fee-funded agency in fiscal year 2005.
    Beginning in fiscal year 2002, USCIS has been receiving a total of 
$100 million in funds for backlog reduction to achieve the 6-month 
processing time. The $100 million is made up of $80 million in 
appropriated funds and $20 million in premium processing fees. The 
President is proposing a 60 percent increase for backlog reduction 
efforts in fiscal year 2005, bringing the total backlog reduction funds 
from $100 million to $160 million ($140 million in appropriated funds 
and $20 million from the premium processing fees).
    Question. Speaking of the guest worker program, I wrote to the 
President last month and asked him to submit a legislative proposal to 
Congress that would implement his plan. As you know, we have a short 
legislative year ahead of us. Why has the President not already 
submitted proposed legislation? Will he do so?
    Answer. On January 7, 2004, the President announced principles in 
creating a new temporary worker program that would match willing 
foreign workers with willing U.S. employers when no Americans can be 
found to fill the jobs. We look forward to working with Congress to 
develop legislation that incorporates the best ideas for the American 
worker and our foreign visitors. Through the principles outlined by the 
President, the best course to the end goal of opportunity, security, 
safety, compassion, jobs and growth can be achieved.
    Question. President Bush has promised to reduce the average wait 
time for applicants for immigration benefits to 6 months by 2006. In 
light of that goal, and the increased burden the President would place 
on the CIS through the guest worker program, why does the President's 
budget not seek any directly appropriated funds for backlog reduction?
    Answer. As answered above, the President is seeking in the fiscal 
year 2005 budget a 60 percent increase in the total funds towards 
backlog reduction efforts, from $100 to $160 million, including $140 
million in appropriated funds. CIS will meet the President's goals no 
later than 2006. CIS does not believe that the President's Temporary 
Worker Proposal will impact the backlog.

                        CRITICAL INFRASTRUCTURE

    Question. DHS published a proposed rule on critical infrastructure 
information, or CII, on April 15, 2003. What is the current status of 
the CII rule?
    Answer. The Interim Final Rule establishing the regulations (6 CFR 
29) to implement the CII Act of 2002 were published in the Federal 
Register for immediate implementation on February 20, 2004. Has DHS 
received CII submissions from corporations? If so, how many? How is DHS 
handling such information?
    Answer. We have not received any submissions under the Interim 
Final Rule as of March 1, 2004.
    Question. Despite the lack of a final rule on the handling of CII, 
are submissions effectively restricted from public disclosure and from 
transmittal to other Federal agencies?
    Answer. The Interim Final Rule has been published and submissions 
meeting all the requirements of the Act and the implementing 
regulations (known as Protected Critical Infrastructure Information 
(PCII)) are exempt from release under the Freedom of Information Act. 
PCII may be shared with other Federal agencies engaged in critical 
infrastructure activities authorized under the CII Act and with State 
and local governments performing those activities that have signed 
agreements with DHS.
    Question. Secondly, as I understand it, DHS received numerous 
substantive comments on the proposed rule, including many submissions 
that raised concerns with the draft rule. If substantive changes are 
made, based either upon these comments or other reasons, will DHS issue 
a new proposed rule before finalizing this controversial provision?
    Answer. The Notice of Proposed Rulemaking was published for comment 
on April 20, 2003. A total of 117 comments were received. Based on 
these comments the draft regulation was revised and an Interim Final 
Rule was published for immediate implementation on February 20, 2004. 
DHS issued an Interim Final Rule to provide a framework necessary to 
receive voluntarily provided Critical Infrastructure Information and 
protect it from public disclosure, while allowing the Department to 
adapt as program operations evolve. The Department has asked for 
additional comments on the Interim Final Rule by May 20, 2004. These 
comments will help DHS determine whether possible supplemental 
regulations are needed as experience is gained in implementing the CII 
Act of 2002.
                                 ______
                                 

               Questions Submitted by Senator Tom Harkin

    Question. I have heard from the Iowa State Secretary of Agriculture 
that the Department of Homeland Security is no longer funding certain 
veterinary positions assigned to monitoring for animal diseases that 
USDA used to fund before the funding stream was switched to the 
Department of Homeland Security. As the recent case of a BSE-positive 
cow in Washington showed, our State Departments of Agriculture are our 
front lines of defense against animal diseases, whether intentionally 
or naturally caused, and our veterinarians are our calvary. These 
positions, which were funded through a USDA grant program, provide 
States with essential animal disease preparedness and response 
capability. Many of the postions funded through the program are 
essential to states bioterrorism planning and response efforts as well.
    Why did your department cease funding for these positions when the 
authority for the program was switched as part of the Homeland Security 
Act? How are States supposed to make up for the loss in animal disease 
monitoring capabilities? Are you considering reinstating the program?
    Answer. The U.S. Department of Agriculture (USDA) is responsible 
for the monitoring for animal diseases. The Department of Homeland 
Security (DHS) is responsible for conducting document verifications of 
certain restricted meats and for ensuring compliance with entry 
requirements for animals and animal by-products set by USDA. USDA 
retained authority for the animal disease-monitoring program and 
veterinary positions referred to in the question. DHS has no 
involvement in the funding of these positions. This question would be 
best directed to USDA.
    Question. The Emergency Management Grant Program (EMPG) was 
transferred with FEMA to the Department of Homeland Security. It is the 
grant program that funds the basic emergency management functions of 
State and government. This is the money Ellen Gordon and her team use 
to prepare for hurricanes, floods, hazardous materials spills, 
accidents, or any other kind of disaster.
    When EMPG was moved to DHS, the Bush Administration tried to merge 
it into the new terrorism First Responder grant program. States argued 
to keep it separate because they did not want their broad emergency 
response functions shifting to a terrorism-only focus. Congress agreed 
and the program has been kept separate--and has been fully funded.
    In his fiscal year 2005 budget request, Bush proposes to cut it by 
5 percent--but, more importantly, to cap personnel costs at 25 percent 
of the grant award.
    If that were to be endorsed by the Congress, Iowa would lose one-
third of our entire emergency management function and our local 
governments would lost between 20-30 percent of their staff.
    Exercises planned would have to be canceled. The critical 
coordination between our traditional emergency management planning and 
our post-9/11 planning would be severely impacted. This is not the time 
to be cutting staff in this area.
    I am very concerned with the requirement in the budget request that 
only a certain percentage of the Emergency Management Performance Grant 
program can be used to pay for personnel. As you know, this is the 
program which undergirds our very critical need to be prepared for any 
kind of disaster, whether terrorism, floods, hurricanes, earthquakes, 
etc. While it is never popular to pay for the services of staff, these 
staff do the work of coordinating our response plans and their work is 
very, very critical to us (particularly as the terrorism grants are 
threatening to shift to urban areas). Can you tell me the rationale 
behind this change and how you believe it will impact preparedness in 
our communities?
    Answer. The Administration's fiscal year 2005 request for the 
Emergency Management Planning Grants is $170 million, which is higher 
than any previous request for this program. The funds will be used to 
assist the development, maintenance, and improvement of State and local 
emergency management capabilities, specifically to build local capacity 
for homeland security needs.
    As you note, though, the request does cap the amount that states 
can use for salaries, thereby significantly increasing the amount of 
funds available for planning, training and exercises. The request 
shifts the emphasis to Federal support for planning while properly 
aligning responsibility for staffing and salaries with the states and 
local governments. The Administration and Department have consistently 
supported the idea that homeland security is a shared responsibility 
between Federal and State and local governments. Additionally, it is 
important to remember that we are operating in a fiscal and security 
environment where we must ensure maximum security benefits are derived 
from every security dollar. To do that, we must be able to take a new 
look at the way in which we allocate resources, including sharing 
financial responsibility with our State and local partners.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                   DISASTER MEDICAL ASSISTANCE TEAMS

    Question. Disaster Medical Assistance Teams, or DMATs, can provide 
states with valuable extra capacity in the case of a disaster or 
terrorist attack. These volunteer teams act as important reserves 
without costing the taxpayers a great deal of money. However, neither 
Wisconsin nor our neighbor Illinois has a DMAT. This is especially 
troubling considering how many people live between Milwaukee and 
Chicago. The State of Wisconsin is behind the effort to create a new 
team, but I hear the Department of Homeland Security has put a stop to 
creating new teams because of some problems with current teams. If 
teams are not meeting requirements then eliminate those teams, but in 
areas without a team, Homeland Security needs to move forward. While 
the National Guard used to be an option when states faced a crisis, 
Guard Units may not be available now with the war in Iraq and 
Afghanistan.
    Don't these teams provide additional capability at a reasonable 
cost? Will the Department reconsider its moratorium on new Disaster 
Medical Assistance Teams?
    Answer. The Department of Homeland Security's (DHS') National 
Disaster Medical System (NDMS) has received a number of inquiries over 
the past year from communities wanting to start new Disaster Medical 
Assistance Teams (DMATs). DHS is pleased at the level of interest and 
enthusiasm supporting the Nation's capacity for health and medical 
response during times of disasters. Rather than adding teams at this 
time, DHS is focused on strengthening existing teams to enhance depth 
of membership and rapidness of response under the new national response 
plan and incident management system, as required in HSPD-5.
    The Department will consider the creation of new NDMS teams once it 
has reviewed the strategic capability and locations of the existing 
teams, and it has brought the teams to full operational capability.
    NDMS teams provide significant enhancement to a region's medical 
capacity. The costs of developing, supplying, training, and maintaining 
these teams are significant. The Department feels these costs are 
reasonable for the benefit provided by these emergency reserve medical 
assets.
    In the event of a public health emergency, the Milwaukee and 
Chicago region could be served by any of the 110 teams currently within 
the NDMS. This geographic area is within a 12-hour ground response 
radius for five existing Operational DMATs including MI-1, MO-1, OH-1, 
and OH-5. In addition, two Developmental DMAT teams (MN-1, KY-1) 
bordering this area could be used to support a response in the 
Milwaukee and Chicago area.
    During this moratorium, NDMS' recommendation to communities 
interested in developing DMATs has been to support NDMS teams already 
within their states or regions. While this is not always possible, many 
of these requests come from communities within states that already have 
DMATs. When the NDMS office makes such a recommendation, it also 
ensures that the existing DMAT leadership in the area is notified.
    There are other strategies for motivated communities besides the 
creation of DMATs. The Medical Reserve Corps through HHS' Office of the 
Surgeon General may be a model to help focus the community's motivation 
into developing a coordinated medical response asset. In addition, 
there are other volunteer organizations, such as the American Red Cross 
and National Voluntary Organizations Active in Disaster, that welcome 
the support of health care professionals.

                   SECURITY IN THE AGRICULTURE SECTOR

    Question. Secretary Ridge, the President has unveiled a new food 
and agriculture defense initiative. This new effort puts you in charge 
of organizing security with USDA and the FDA.
    I would like to hear your thoughts on how to coordinate these 
activities and how protection of food and agriculture rank in your 
overall perspective of homeland security threats. I ask this because 
you now have responsibility for the Plum Island animal disease 
laboratory in New York. Prior to last year, Plum Island was funded 
through the Agriculture Appropriations Subcommittee, where I am Ranking 
Member. As part of the President's fiscal year 2004 request, more than 
$6 million of USDA funding for research and diagnostic activities were 
transferred to your Department from USDA and agreements were supposed 
to be reached to reimburse USDA employees for that work. I understand 
those agreements have not yet been completed.
    Last year I expressed some concerns about transferring agricultural 
programs out of USDA. In fact, last May, when Secretary Veneman 
appeared before the Agriculture Subcommittee, I asked her about these 
transfers and she agreed that there was a concern among livestock 
producers that their priorities would not be reflected in programs 
conducted by your Department. She did say that USDA and DHS would work 
together to develop a research and diagnostics program to meet the 
needs of both Departments. In report language to accompany the fiscal 
year 2004 appropriations bill for your Department, you were instructed 
to report to the Congress by January 15th on a comprehensive strategy 
to combat agroterrorism.
    What is the status of that report, and how can you assure farmers 
and ranchers across America that your Department is better suited to 
combat agroterrorism than USDA? How do you intend to engage USDA in 
this strategy?
    Answer. DHS is committed to enhancing the Nation's agricultural 
security by complementing the mission of USDA as the sector-specific 
agency for agriculture [and USDA and the Food and Drug Administration 
(FDA) for food security] and bringing a new sense for urgency and 
investments to enhance the Nation's capability to anticipate, prevent, 
detect, respond to, and recover from the intentional introduction of 
foreign animal disease.
    The report requested by Congress, 'A National Strategy for 
Agricultural Biosecurity' builds on the strengths of each agency to 
develop comprehensive preparedness and response capabilities. USDA's 
Agricultural Research Service (ARS) will continue its basic research 
and early discovery work, USDA's Animal and Plant Health Inspection 
Service (APHIS) its diagnostics (including the Foreign Animal Disease 
Diagnostic Laboratory), while DHS will invest in advanced development 
research to expedite the transition of capabilities to operational end-
users in USDA and DHS. DHS will also provide capability for certified 
forensics analysis in support of law enforcement.
    The report was drafted by a working group of senior officials and 
scientists from the respective agencies (DHS, USDA APHIS and ARS), with 
representation of key industry groups. The draft report is complete and 
is currently undergoing final interdepartmental reviews prior to 
transmittal to the House and Senate Appropriations Committees.
    This report and the DHS/USDA strategic partnership are executed in 
accordance with the Homeland Security Act of 2002; fiscal year 2004 
appropriations for DHS and USDA; as well as Homeland Security 
Presidential Directive/HSPD-9 ``Defense of United States Agriculture 
and Food'' and HSPD-7 ``Critical Infrastructure Identification, 
Prioritization, and Protection,'' both of which delineate the roles of 
sector-specific agencies.
    As part of DHS's extensive commitment to agricultural security, it 
is also establishing two University Homeland Security Centers (HS-
Centers); one in foreign animal and zoonotic diseases, and one in post-
harvest food security. These new HS-Centers were awarded in April 2004. 
Additionally, DHS is coordinating with USDA on a review team for high-
consequence reference scenarios for strategic planning for DHS's 
programs and activities on biological and chemical countermeasures.
    Finally, the Homeland Security Act of 2002 transferred the 
facilities and liabilities' of the Plum Island Animal Disease Center to 
DHS from USDA. A working group of program staff and scientists from the 
two departments have worked closely on a variety of aspects of this new 
collaboration including enhancing the operations, facilities and 
security on the island, developing a joint R&D plan for foreign animal 
diseases which emphasizes foot-and-mouth disease and roadmaps for 
assays and diagnostics, and vaccines and anti-virals.
    Question. What is the status of completing an agreement with USDA 
for reimbursement for research and diagnostic work at Plum Island?
    Answer. The statement of work for reimbursement of research and 
diagnostic work at Plum Island Animal Disease Center for fiscal year 
2004 has been agreed to by DHS and USDA. The reimbursable agreement is 
currently being implemented at Plum Island Animal Disease Center.
    Question. The President's request for the Food and Agriculture 
Defense Initiative includes a $5 million item for research at DHS. What 
will be the focus of this research and where will it be conducted?
    Answer. As summarized above, one of the reference scenarios is 
focused on bulk food contamination and is based on one of a series of 
food vulnerability studies conducted by the Homeland Security Council 
(HSC) Interagency Food Working Group during fiscal year 2003-fiscal 
year 2004. These studies form the basis for the design and 
implementation of food shields' to protect critical central food 
processing nodes in the production system.
    DHS is currently funding an end-to-end systems study for the 
reference scenario on bulk food contamination, and this study will be 
followed in fiscal year 2005 by a design for a food sensor,' a 
requisite next step in the implementation of a food shield' based on 
requirements identified in the systems study. The food sensor funding 
is included in the President's fiscal year 2005 budget request.

                         INTELLIGENCE ANALYSIS

    Question. The Homeland Security Act established a Directorate of 
Information Analysis within the Department of Homeland Security. In 
July 2003 there were only 53 analysts and liaison officials within that 
Directorate, with plans to triple that number. President Bush has since 
created the Terrorist Threat Integration Center (TTIC--pronounced ``T-
Tick''), which includes the CIA's Counterterrorist Center (CTC) and the 
FBI's Counterterrorism Division. This did not relieve DHS of its 
intelligence analysis responsibilities, but TTIC's assigned 
responsibilities are very similar to those of DHS.
    In your opinion, does the creation of multiple organizations to 
analyze terrorist-related intelligence thwart the initial goal of the 
Department of Homeland Security, that is to centralize this function 
and facilitate cooperation and information sharing among the various 
intelligence related agencies? If not, what is being done to preserve 
this goal that is not immediately apparent from the fractured structure 
of these functions? Would it be better to consolidate these functions 
in one place, either within DHS or within the CIA in the form of TTIC?
    Answer. The Department of Homeland Security, as stated in the 
Homeland Security Act, is singularly focused on the protection of the 
American homeland. DHS/IAIP independently analyzes threat-related 
information it receives from the entire Intelligence Community, other 
DHS entities, and the Terrorist Threat Integration Center and issues 
warning products to State and local officials and the private sector 
after matching terrorist threats and capabilities with our Nation's 
vulnerabilities.
    In contrast, the TTIC is responsible for the analysis of all 
international terrorism threat information, whether collected 
domestically or abroad. TTIC uses this information to create an overall 
threat picture and to issue reports to the appropriate IC members. 
Accordingly, the TTIC is vital to serve the entire Intelligence 
Community. While TTIC is an essential resource upon which DHS relies to 
complete its mission, they are also integral to completing the mission 
of other entities within the Intelligence Community.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Question. I am also concerned about the Administrations cuts and 
policy changes to the Emergency Management Performance Grants. Not only 
is there $9 million less than last year, but the $170 million that is 
included in the President's budget will no longer fund all hazard 
planning. This is a real disappointment for county emergency managers 
in my state. They used these funds to help them prepare for terrorist 
attacks as well as natural disasters like floods and tornados. A 
reduction in funding, especially when adjusted for inflation, could 
force some counties to reduce staff as well as leave them unprepared 
for non-terrorism catastrophes.
    Why did the Administration reduce these funds, and why did they 
prohibit these funds from being used for all hazard planning?
    Answer. The Administration's fiscal year 2005 request for the 
Emergency Management Planning Grants is $170 million, which is higher 
than any previous request for this program. The funds will be used to 
assist the development, maintenance, and improvement of State and local 
emergency management capabilities, with the specific goal of building 
capabilities for homeland security needs.
    As you note, though, the request does cap the amount that states 
can use for salaries, thereby significantly increasing the amount of 
funds available for planning, training and exercises. The request 
shifts the emphasis to Federal support for planning while properly 
aligning responsibility for staffing and salaries with the states and 
local governments. The Administration and Department have consistently 
supported the idea that homeland security is a shared responsibility 
between Federal and State and local governments. Additionally, it is 
important to remember that we are operating in a fiscal and security 
environment where we must ensure maximum security benefits are derived 
from every security dollar. To do that, we must be able to take a new 
look at the way in which we allocate resources, including sharing 
financial responsibility with our State and local partners.

                          FLIGHT CANCELLATIONS

    Question. Most of the flights stopped were from British Airways and 
Air France, but every day airlines based in more volatile regions land 
in this country. We never hear about planes from Morocco or Pakistan 
not being allowed to land. Are airlines that fly from the Middle East 
and Africa somehow safer than those that fly from Paris and London?
    Answer. Flight cancellations during the holiday period were based 
upon specific intelligence that warranted such action. Appropriate 
information was shared with our foreign counterparts and foreign air 
carriers, which sometimes led to their decisions to cancel flights and/
or implement enhanced security measures. These actions were not 
necessarily tied to the Nations from which the flights originated. In 
principle and practice, DHS does not recommend or take security actions 
based solely upon the origin or destination of a flight independent of 
specific information that may pertain to that location.
    Question. Are the cancellations a result of limited intelligence 
cooperation between the United States, Britain and France making it 
harder to determine who is on these planes? Or is the problem exactly 
the opposite, we are getting good information about European flights, 
but it is difficult to figure out if a threat is flying on a plane from 
Islamabad?
    Answer. As I indicated above, flight cancellations over the holiday 
period were based on specific intelligence that warranted such action, 
and were examples of good intelligence cooperation. The cancellation of 
these particular flights is unrelated to the question of how robust our 
capacity is to assess the security of flights originating in other 
parts of the world.
    Question. Are flights out of these major airports more attractive 
to terrorists than flying from Karachi or Rabat? Is there something our 
European allies are NOT doing that makes these good targets, or do we 
just not have a good way of monitoring what might be going on in other 
countries?
    Answer. These cancellations were not based on an assessment of 
security practices at European airports, which are generally fully 
compliant with ICAO standards and deemed to be of high quality. Again, 
during the holiday period, DHS received specific information and shared 
it appropriately with French and British allies, resulting in decisions 
being made to cancel these flights. DHS and our European allies 
continue to work in close collaboration to share best practices and 
enhance aviation security.
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

    Question. Mr. Secretary, I agree that CSI and C-TPAT are important 
pieces of our cargo security system but they aren't going to do the job 
alone. In fact, they have significant issues that would benefit from 
Operation Safe Commerce moving forward.
    You may be aware of a recent GAO study entitled, ``Preliminary 
Observations on Efforts to Target Security Inspections of Cargo 
Containers.''
    This report is clearly critical of the lack of methodology 
incorporated in these Customs and Border Protection initiatives.
    The report states that--quote--``while CBP's strategy incorporates 
some elements of risk management, it does not include other key 
elements, such as a comprehensive set of assessments that experts told 
GAO are necessary to determine risk and the types of responses 
necessary to mitigate that risk.''
    The report says ``CBP's targeting system does not include a number 
of recognized modeling practices, such as subjecting the system to peer 
review, testing and validation.''
    The report goes on further to say that--quote--``CBP does not have 
a national system for reporting and analyzing inspection statistics and 
the data provided to us by ports were generally not available by risk 
level, were not uniformly reported, were difficult to interpret, and 
were incomplete.''
    Mr. Secretary, for the sake of our Nation's security it is 
imperative that we are able to learn from all of our port security 
programs.
    We must tie them together and rapidly institute a large-scale, 
operational cargo security program in the United States. And, for the 
sake of our economy, we must get this right.
    What are your reactions to this report?
    Answer. In general, GAO's report ``Challenges Remain in the 
Targeting of Oceangoing Cargo Containers for Inspection,'' is 
constructive, and CBP will be initiating several corrective actions in 
fiscal year 2005 to address issues identified by GAO. However, GAO's 
assertion that CBP does not ``incorporate all key elements of a risk 
management framework and recognized modeling practices'' is not 
accurate. Although CBP characterizes its approach to risk management 
for terrorism as a ``layered approach,'' the fundamental components of 
this approach can also be characterized within GAO's risk management 
framework. The following provides a brief discussion of the 
relationships between the Automated Targeting System (ATS) and several 
CBP initiatives within GAO's risk management framework to demonstrate 
the fulfillment of the framework's key elements.
    The key elements of GAO's Risk Management Framework are:
  --Threat Assessment
  --Criticality Assessment
  --Vulnerability Assessment
  --Risk Assessment
  --Risk Characterization
  --Risk Mitigation
  --Monitoring and Evaluation
  --Repetition of the Risk Management Process
CBP and GAO's Risk Management Framework
  --Threat (event) Assessment.--CBP utilizes incoming intelligence from 
        various sources that include the U.S. Intelligence community to 
        identify threats. These threats include general assessments as 
        discussed in GAO's report (e.g. vulnerability of supply chains 
        and containerized cargo) as well as classified, specific 
        threats regarding individuals. Collection of these threat 
        assessments is an ongoing activity. Also, targeting is 
        integrated into CBP's Treasury Enforcement Communication System 
        (TECS) enforcement database to ensure that specific 
        intelligence is integrated with targeting activity. Also, 
        incoming intelligence is evaluated by the National Targeting 
        Center to develop targeting strategies appropriate to the risk. 
        Responses to certain threats may be expanded to include 
        additional targeting rules for ATS, lookouts, and/or cargo 
        targeting criteria.
  --Criticality Assessment.--As GAO indicates, criticality assessments 
        ``help provide a basis for prioritizing protection relative to 
        limited resources'' for a critical asset. With respect to 
        ``national security, economic activity, and public safety'' 
        this critical asset is the flow of trade in both a free and 
        secure manner. This goal is fundamental to CBP's operations. 
        CBP cannot inspect all cargo coming into the United States; 
        however, the organization can and does prioritize shipments by 
        risk and does inspect all high-risk cargo (mandatory 
        inspections through threshold targeting) coming into the United 
        States. While ATS provides a system for prioritizing and 
        targeting high-risk cargo through transactional targeting 
        rules, C-TPAT provides a programmatic mechanism for identifying 
        relatively low risk supply chains and allows CBP to direct 
        resources to other higher-risk entities.
  --Vulnerability Assessment.--As indicated in GAO's report, there has 
        been extensive work regarding vulnerability assessments 
        concerning maritime assets (specifically containerized cargo), 
        and other agencies that contributed to this work include the 
        FBI, CIA, academic, think tank and business organizations. As 
        discussed extensively with GAO, CBP's layered approach to this 
        vulnerability includes initiatives such as C-TPAT, Non-
        Intrusive Inspection Technology (NII), Container Security 
        Initiative (CSI), and ATS targeting.
  --Risk Assessment.--GAO defines risk assessments to ``include 
        scenarios under which two or more risks interact creating 
        greater or lesser impacts; they also include the filtering and 
        ranking or prioritization of risky events.'' Where an ``event'' 
        can be a shipment, ATS utilizes a battery of rules to vet and 
        prioritize the shipment transactions by scoring the different 
        variables of each transaction and ranking/prioritizing the 
        transactions by total scores for each transaction. To the 
        extent that risk assessments might also be in the form of 
        intelligence reports, this information is also integrated into 
        targeting through the development of specific rules, lookouts, 
        cargo criteria, TECS records, and the performance of targeting 
        ``sweeps'' by the National Targeting Center when warranted.
  --Risk Characterization.--GAO defines risk characterization as 
        ``designating risk on a scale, for example low, medium, or 
        high.'' As defined, risk characterization is inherent to the 
        ATS targeting program as a decision support tool that generates 
        risk scores to prioritize cargo for inspection.
  --Risk Mitigation.--GAO indicates that risk mitigation may involve 
        risk acceptance, risk avoidance, risk reduction, and risk 
        sharing. In terms of risk acceptance (taking no action) and 
        risk sharing, CBP minimizes inspections through the C-TPAT 
        Program. A certain level of risk acceptance is also inherent to 
        targeting higher risk cargo for inspection and not inspecting 
        lower risk cargo. In terms of risk avoidance (taking action to 
        avoid activities that involve risk), CBP increases inspections 
        through the use of NII (e.g. x-rays and radiation pagers) 
        instead of increasing time consuming physical exams that would 
        limit the number of shipments that can be inspected and 
        increase vulnerabilities.
      CBP is also actively engaged in activities identified by GAO's 
        systems approach to risk mitigation: personnel (e.g. training), 
        processes, technology, infrastructure, and governance. ATS 
        training classes are being implemented on an ongoing basis (Sea 
        Cargo) and with the deployment of new ATS threshold targeting 
        rule sets (e.g. Northern Border Truck, Southern Border Truck, 
        and Rail). The Manifest Review Unit (MRU) Handbook will be 
        updated in fiscal year 2005 to address process and governance 
        issues. For technology, the additional development of software 
        and acquisition of hardware upgrades is ongoing. For 
        infrastructure, certain ports analyze their local flow of 
        traffic for improved efficiency and some are receiving upgrades 
        to physical examination resources.
  --Monitoring and Evaluation.--A key element to CBP's ability to 
        monitor and evaluate the performance of targeting will be the 
        ability to accurately capture findings. As GAO pointed out, CBP 
        is hampered by non-integrated sub-systems for recording 
        findings. The full implementation of the ATS findings module 
        will provide CBP with a single place for recording the 
        findings, increase the accuracy of the findings, and facilitate 
        reporting, monitoring and evaluation.
      With respect to peer review, CBP is actively working with other 
        Government agencies such as FDA and USDA as well as foreign 
        government agencies such as the Canadian Customs and Revenue 
        Administration (CCRA) to further develop targeting concepts. 
        CBP hopes to expand on these collaborative efforts in fiscal 
        year 2005. With respect to testing and validation, CBP will 
        also be conducting internal security exercises that test our 
        layered enforcement in fiscal year 2005.
  --Repetition of the Risk Management Process.--The activities 
        previously described are ongoing and fulfill the ``loop'' of 
        assessments, mitigation, and monitoring and evaluation.
    In conclusion, while CBP can always do a better job of fulfilling 
and expanding upon all of the key elements of the risk management 
framework described by GAO, CBP does actively engage in activities that 
fulfill these key elements.

CBP and GAO's Modeling Practices
    The following provides a brief discussion of CBP's initiatives in 
terms of the issues identified with respect to ATS development and 
``recognized modeling practices.''
  --Conducting external peer review.--As indicated earlier in this 
        document, CBP is actively working with other Government 
        agencies such as FDA and USDA as well as foreign government 
        agencies such as the Canadian Customs and Revenue 
        Administration (CCRA) to further develop targeting concepts. 
        CBP hopes to expand these collaborative efforts in fiscal year 
        2005.
  --Incorporating additional types of information.--CBP agrees with the 
        premise that ``linkages'' to other sources of information can 
        enhance targeting. Linkages between manifest and entry 
        information to TECS records represents such an effort. 
        Recently, FDA information was integrated into CBP's ATS system, 
        and CBP is actively working with USDA to integrate some of 
        their data into ATS. Other large, commercial sources of 
        information such as Dun and Bradstreet (D&B) are also being 
        explored but will require a lengthy cost-benefit analysis, 
        proof of concept, and significant budget procurement. Another 
        effort involves the procurement of container tracking 
        information.
  --Testing and validating through simulated terrorist events.--As 
        discussed with GAO, ABC News did conduct their own ``test'' of 
        importing a shipment of radioactive material, and ATS did 
        successfully target this shipment for mandatory inspection. CBP 
        will be conducting its own ``red team'' simulations in fiscal 
        year 2005.
  --Using random inspections to supplement targeting.--As discussed 
        earlier, the stratified random sample of CBP's Compliance 
        Measurement Program will be utilized to further evaluate the 
        performance of the ATS targeting.

                         DATA INTEGRITY ISSUES

    Question. The GAO Report also made the following conclusion: ``CBP 
does not have a national system for reporting and analyzing inspection 
statistics and the data provided to us by ports were generally not 
available by risk level, were not uniformly reported, were difficult to 
interpret, and were incomplete''.
    Currently, CBP has a number of non-integrated subsystems through 
which it reports its examination findings. CBP's effort to ensure data 
consistency for reporting purposes and analysis is hampered by these 
multiple subsystems and CBP is addressing this issue through the 
implementation of a ``Findings Module'' within its Automated Targeting 
System. This module, which will be completed in fiscal year 2004, will 
provide CBP with a single place for recording and retrieving its 
examination findings, which will increase the accuracy of those 
findings and facilitate CBP's reporting, monitoring and evaluation 
activities.
    Please explain why the Administration would abandon Operation Safe 
Commerce--a program specifically designed to test various cargo-
security techniques, and the analysis associated with them, to create a 
true container security program for our country?
    Answer. The President's fiscal year 2005 budget request for DHS 
includes $1.9 billion for port security activities, including $126 
million for the Container Security Initiative (CSI). The funding for 
this initiative, which is $25 million more than the fiscal year 2004 
level of funding, focuses on pre-screening cargo before it enters the 
United States. The first phase of CSI focused on implementing the 
program at the top 20 foreign ports, which ship approximately two-
thirds of the containers to the United States. Phase II expands the 
program to additional ports based on volume, location, and strategic 
concerns. Phase III further increases security at the highest risk 
ports.
    The President's fiscal year 2005 budget request also includes $50 
million for the development of the next generation of screening 
devices, which can be used at the Nation's port facilities. 
Additionally, the budget request includes $64.2 million to enhance 
land-based detection and monitoring activities between ports. Further, 
the budget request includes $46 million for port security grants to be 
administered by the Office for Domestic Preparedness and more than $1.4 
billion for the Urban Areas Security Initiative (UASI). The UASI 
program, among other things, can be used to support security 
enhancements at our Nation's port facilities.
    The Department firmly believes that these resources will allow us 
to properly and effectively enhance security at our Nation's port 
facilities.
  --Operation Safe Commerce.--A program specifically designed to test 
        various cargo-security techniques, and the analysis associated 
        with them, to create a true container security program for our 
        country.
    DHS is not abandoning Operation Safe Commerce. As you know, OSC is 
a collaborative pilot effort between the Federal Government, the three 
largest U.S. container load centers (Los Angeles/Long Beach, Seattle/
Tacoma, and New York/New Jersey), private industry, and the maritime 
community, to develop and share best practices for the secure and 
expeditious movement of containerized cargo. OSC's goal is to serve as 
a test bed to examine methods to increase supply chain security, 
protect the global supply chain, and facilitate the flow of commerce. 
The Administration continues to administer OSC in fiscal year 2004 as a 
multi-agency program with participants from the Departments of Homeland 
Security, Transportation, State, Commerce, and Justice. An Executive 
Steering Committee (ESC) was formed to provide guidance for OSC. The 
ESC is co-chaired by the Transportation Security Administration, Bureau 
of Customs and Border Protection, and the Department of Transportation.
    Congress has provided $75 million for this program over a 2-year 
period to conduct three very robust and comprehensive pilots at the 
selected locations. The expected test period is 1 year. At this point 
in time, Seattle/Tacoma has progressed furthest. There, the first 
container shipment tracked by the program is expected to arrive by the 
end of March 2004. First arrivals are expected in April 2004, for the 
Port of New York/New Jersey and in June 2004, for the Port of Los 
Angeles/Long Beach. As we complete each of the pilots, we will 
ascertain the lessons learned and whether program elements are 
applicable to ports across the country. We are hopeful that any 
positive results of OSC will eventually be adopted by ports, cargo 
companies and, where appropriate, incorporated into both existing and 
future cargo security efforts by DHS and international governments.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Our next hearing on the budget request for 
the Department of Homeland Security will be held on Thursday, 
February 26, in room 124 of the Dirksen Senate Office Building. 
At that time, the Under Secretary for Emergency Preparedness 
and Response, Mr. Michael Brown, will be here to discuss the 
budget for the programs under his jurisdiction.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 12:40 p.m., Tuesday, February 10, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
February 26.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:20 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran, (chairman) 
presiding.
    Present: Senators Cochran, Specter, Byrd, and Murray.

                    DEPARTMENT OF HOMELAND SECURITY

 Office of the Under Secretary for Emergency Preparedness and Response

STATEMENT OF MICHAEL D. BROWN, UNDER SECRETARY, 
            EMERGENCY PREPAREDNESS AND RESPONSE 
            DIRECTORATE

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter [presiding]. Good morning, ladies and 
gentlemen.
    I was attending a Judiciary Committee executive session 
upstairs where we are trying to move forward on the 
confirmation of many judges, when I heard that this hearing 
lacked a Republican. It should not be too hard to find a 
Republican in the Senate complex on a Thursday morning. And 
then I received a summons from Senator Byrd. Now, a summons 
from Senator Byrd is not quite like a subpoena.
    But it is close. And you know what happens when you do not 
respond to a subpoena. There is a bench warrant, and that could 
be very serious. So, I left the Judiciary Committee exec room 
to convene this hearing. I am going to have to return shortly.
    Today this subcommittee will continue the review of the 
fiscal year 2005 budget request for the Department of Homeland 
Security. We are pleased to welcome the Under Secretary of the 
Emergency Preparedness and Response Directorate, Mr. Mike 
Brown. We will review this year's budget request and work with 
you, Mr. Brown.

                           PREPARED STATEMENT

    Homeland security is obviously a top priority for this 
country, reflected in the President's budget request for an 
increase of 9.7 percent, whereas the discretionary funding got 
only a half of 1 percent, defense some 7 percent.
    Without objection, the full statement, which had been 
prepared for Senator Cochran will be included in the record, 
and we now turn to your testimony.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    The hearing will come to order.
    Today we continue our review of the fiscal year 2005 budget request 
for the Department of Homeland Security.
    I am pleased to welcome to this hearing the Under Secretary of the 
Emergency Preparedness and Response Directorate, Mike Brown.
    Our Committee will work hard to provide the funds this Directorate 
needs to carry out its responsibilities and perform its mission 
successfully.
    We thank you for submitting a copy of your statement in advance of 
this hearing. It will be made a part of the record, and we invite you 
to make any comments you think would be helpful to the committee's 
understanding of the budget request.
    Now, I will yield to Senator Byrd and other Sentors who may wish to 
make opening statements.

    Senator Specter. Excuse me. The custom is to call on the 
ranking member, the ranking member of the full committee, 
former President Pro Tempore, chairman of the full committee, 
and so many titles. If I went through them, you would not have 
any time left, Mr. Brown.
    Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you. America has done some great 
things. It put a man on the moon, brought him back to earth 
safely again, but it has never been able to produce a truly 
good loudspeaker system.
    I appreciate your kind remarks about me. Plato thanked the 
gods for having been born a man, for having been born a Greek, 
and for having lived in the age of Socrates. I thank the gods 
for permitting me to live in the same age and serve at the same 
time in the United States Senate with a chairman and also a 
Pennsylvania Senator on this committee who presided over this 
committee with such dignity and skill. I thank Senator Specter 
for his remarks.
    Mr. Chairman, the Senator from Pennsylvania had turned to 
me for a statement. May I proceed?
    Senator Cochran [presiding]. Please.
    Senator Byrd. Welcome, Mr. Brown. No relation to Jimmy 
Brown, the newsboy of this town, but a good man nevertheless.
    In April of last year, when you testified before this 
subcommittee, I asked you how Congress could be sure that the 
agencies merged into the new Department of Homeland Security 
with specific missions unrelated to homeland security, such as 
preventing and responding to natural disasters, would have the 
resources to accomplish their missions. In your response, you 
assured the committee that FEMA would continue--and I quote--
``to protect our Nation's institutions from all types of 
hazards through a comprehensive, risk-based, all-hazards 
approach.''

                     ALL-HAZARDS EMERGENCY PLANNING

    In your written testimony today, you stress a continued 
commitment to all-hazards emergency planning, but frankly, as I 
see it, the President's policies ignore that commitment. I will 
repeat that again. As I see it, the President's policies ignore 
that commitment.
    States and local communities look to FEMA to provide the 
resources and expertise that they need to meet a wide range of 
challenges. Today, possibly more than ever before, our States 
and local communities have to be ready to cope with disasters 
such as floods, earthquakes, chemical incidents, disease in our 
food supply, and other public health emergencies. Given the 
events of 9/11, States and communities must also prepare for 
preventing or responding to terrorist attack. And this is why a 
focus on all-hazards preparedness is so important.
    However, rather than embrace the all-hazards approach to 
emergency planning, the President's budget undermines it. 
Rather than develop the capacity to respond to a terrorist 
attack within the framework of all-hazards planning, the 
President's budget, in essence, mandates that State and local 
governments give priority to anti-terrorism programs at the 
expense of other potential disasters.

TRANSFER OF SEVERAL ALL-HAZARDS PROGRAMS FROM FEMA INTO A NEW OFFICE OF 
        STATE AND LOCAL GOVERNMENT COORDINATION AND PREPAREDNESS

    The Administration proposes to transfer several all-hazards 
programs out of FEMA and into a new Office of State and Local 
Government Coordination and Preparedness. That office's 
mandate, as laid out in the Homeland Security Act, is to help 
State and local governments effectively combat terrorism.
    Under the consolidation proposal announced by the Secretary 
on January 26, 2004, and under the President's budget proposal 
for fiscal year 2005, emergency management performance grants, 
community emergency response team grants, and the metropolitan 
medical response system will all be shifted into this newly 
expanded office. And yet, this new office does not have the 
expertise or the regional staff experienced in all-hazards 
planning. FEMA has that expertise.
    Yesterday I joined with Representative Martin Sabo, the 
ranking member of the House Appropriations Homeland Security 
Subcommittee, in sending a letter to Secretary Ridge urging him 
not to proceed with the reorganization of the emergency 
management performance grants and community emergency response 
team programs, along with several Transportation Security 
Administration programs.

                  PROPOSED CUTS TO FIRE GRANTS FUNDING

    Furthermore, the administration proposes to cut funding for 
fire grants by $246 million and emergency management 
performance grants by $9 million and, at the same time, mandate 
that States give priority to terrorism preparedness. This is a 
squeeze play that States cannot afford.
    I will give you a rhetorical question at this point. Where 
do these policies leave a small town fire department in West 
Virginia or Mississippi, or other rural States, that needs to 
purchase breathing apparatus or equipment to deal with a 
chemical spill? We have one of the largest chemical complexes 
in this country, in the Western Hemisphere as a matter of fact, 
in the Kanawha Valley. So this comes home to us in West 
Virginia.

PROPOSAL TO LIMIT THE AMOUNT OF EMERGENCY MANAGEMENT FUNDS THAT CAN BE 
                           SPENT ON SALARIES

    The President also proposes to limit the amount of 
emergency management funds that can be spent on salaries. This 
provision would drive a stake through the heart of State and 
local all-hazards planning efforts.

                       TERRORIST ATTACK CONCERNS

    I am as concerned as anyone about the possibility of future 
terrorist attacks, but I am also greatly concerned that 
preparing for such an attack will come at the expense of 
preparing for other types of disasters if this administration's 
budget proposal is enacted.
    There are elements in the budget request that are 
praiseworthy. The Administration is again requesting $200 
million for the flood map modernization initiative. This 
initiative is so important to flood-prone States such as West 
Virginia. I am also pleased to see an adequate and timely 
budget request for the disaster relief fund. Last year we came 
very close to running out of money in the disaster relief fund 
and nobody--not even OMB it seems--wants to go through that 
again this year.
    Also, the Administration's budget recognizes the importance 
of pre-disaster and post-disaster mitigation funds. Post-
disaster mitigation funds help communities pay for mitigation 
activities right after a disaster occurs, when communities have 
the will and the momentum to complete such projects. I hope we 
can do even more post-disaster mitigation in the future.
    West Virginia endured four Federally declared disasters 
last year. No State is more grateful for, and no State is more 
in need of, FEMA's programs and expertise than West Virginia. 
And I want to compliment you on the excellent work that you and 
your staff have done. You have not failed us in West Virginia 
where we are very keenly aware of and live often with disasters 
that are not manmade.
    So, I look forward to hearing your testimony, Mr. Under 
Secretary, and to working with you to preserve FEMA's all-
hazards planning programs.
    And I thank you, Mr. Chairman, for your patience and 
kindness.
    Mr. Brown. Thank you, Senator.
    Senator Cochran. Thank you, Senator Byrd.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman.
    Thank you so much. I join my colleagues in welcoming you 
here today. You have a tremendous task before you and I thank 
you for your service.

                        FIRST RESPONDER FUNDING

    My colleague, Senator Byrd, discussed the more visible 
issues regarding first responder funding. I too am very 
concerned about the proposal to shift the homeland security 
grants into the Office of Domestic Preparedness. Streamlining 
these programs is a key element to ensure our local communities 
get the needed resources in a timely manner, but the programs 
that are traditionally supported by TSA and FEMA I do not 
believe should be forced to compete with our first responders 
for funding.
    I am also really concerned that the President's budget 
request cuts State grants for first responders by $990 million. 
It cuts training for first responders by $103 million and 
eliminates the COPS program. That is almost $2 billion in cuts 
for first responders nationwide at a time when our State and 
local budgets just do not have the capacity to absorb those 
additional costs. So, I am very concerned about that. I am 
confident that Congress will prevent this administration from 
decimating those essential first responder programs and I want 
my colleagues to know that I will work with them to restore 
that.
    I do have a number of questions for you and I will wait for 
my time. But thank you very much, Mr. Chairman, for this 
hearing.
    Senator Cochran. Thank you, Senator.
    Mr. Brown, we have a copy of your statement which we 
appreciate very much your submitting to the committee in 
advance of the hearing. It will be made a part of the record in 
full. We encourage you to make whatever comments you would like 
to make in support of the budget request that will be helpful 
to our understanding of the request. You may proceed.

                     STATEMENT OF MICHAEL D. BROWN

    Mr. Brown. Well, thank you very much, Mr. Chairman, and 
Senator Byrd, thank you for your kind comments, and Senator 
Murray, you also.
    My name is Michael Brown. I am the Under Secretary for 
Emergency Preparedness and Response of the Department of 
Homeland Security. I am, indeed, honored to appear before you 
today to talk about FEMA's accomplishments over the past year 
since we became a part of the Department of Homeland Security. 
But more importantly, I want to highlight some of our 
priorities for fiscal year 2004 and discuss why support of the 
President's budget request for 2005 is critical to ensure that 
FEMA can continue to fulfill its traditional mission.
    FEMA has undergone changes since becoming a part of 
Homeland Security, both externally and internally, but we have 
not changed our focus. As part of the Homeland Security 
Department, FEMA has continued the tradition of responding to 
help disaster victims and those in need wherever disaster or 
emergencies strike.
    On March 1, FEMA will celebrate its first full year as a 
part of the Department of Homeland Security. We are proud to be 
part of this historic effort and are more committed than ever 
to do our duty as defenders of the homeland. We believe that 
the Federal-wide consolidation of all-hazards preparedness, 
mitigation, response, and recovery programs brings real benefit 
to the American public.

                    FISCAL YEAR 2003 ACCOMPLISHMENTS

    In fiscal year 2003, FEMA responded to 62 major disasters 
and 19 emergencies, covering 35 States, 4 U.S. territories, and 
the District of Columbia. These disasters included the record 
number of tornadoes in the Midwest, the unfortunate loss of the 
Space Shuttle Columbia, Hurricane Isabel, and the absolutely 
devastating wildfires in California. In fiscal year 2003, FEMA 
obligated nearly $2.9 billion in fiscal year 2003 disaster 
funds to aid people, victims and communities that were 
overwhelmed by these disasters.

                         FISCAL YEAR 2004 PLANS

    In fiscal year 2004, FEMA is focusing on our five major 
program areas: mitigation, preparedness, response, recovery, 
and national security.
    Our mitigation efforts center on modernizing our Nation's 
flood maps, providing pre-disaster mitigation grants and 
enhancing the national flood insurance program.
    In the Preparedness Division, we will support the 
Department's efforts to put into place a national incident 
management system that will help improve coordination of 
disaster response at all levels, and we will also publish 
mutual aid system development, credentialing, and equipment 
interoperability standards.
    In 2004, our response capabilities continue to grow as we 
field enhanced response teams and resources, improve our 
response times, put into place plans for catastrophic events, 
and improve our training. For those impacted by disasters, FEMA 
continues to provide appropriate and effective disaster 
recovery assistance.
    Finally, we are ensuring that the FEMA national security 
program has adequately staffed, trained, equipped, and 
exercised the continuity of operations and the continuity of 
Government programs.

                    FISCAL YEAR 2005 BUDGET REQUEST

    Looking ahead to fiscal year 2005, the President's budget 
request is critical to ensuring that FEMA can continue to 
fulfill its traditional mission. The President's budget again 
requests $150 million for the pre-disaster mitigation program 
to help minimize the devastation caused by natural disasters.
    The budget also requests $200 million to continue the 
replacement and modernization of the Nation's flood insurance 
rate maps, and includes $7 million in new budget authority for 
the development and implementation of the national incident 
management system as part of the national response plan. These 
two initiatives will ensure that all levels of government 
across the Nation are prepared to work together efficiently and 
effectively employing a single national approach to domestic 
incident management.
    The President's budget request includes $8 million in new 
budget authority for four incident management teams to act as 
the core field level response management teams for major 
disasters, emergencies, and acts of terrorism.
    The President's budget also provides $2.9 billion for 
disaster relief, a level consistent with the average non-
terrorist disaster costs over the past 5 years.
    I can assure you, Senators, that President Bush appreciates 
the importance of recovery. I had the distinct honor of joining 
the President in touring Missouri last spring after the 
devastating tornadoes struck Pierce City, Missouri. It was 
absolutely a downpour. The President gets out of the car, and 
goes over to visit with a couple who were standing in front of 
their damaged storefront. This couple also had damages to their 
home, but using FEMA's temporary housing, our immediate needs 
assistance, their insurance, and SBA home and business loans, 
this couple is now recovering. The President recognizes the 
importance of this type of all-hazards planning, as evidenced 
by his $2.1 billion request for the disaster relief fund.

                OFFICE OF NATIONAL SECURITY COORDINATION

    In fiscal year 2005, FEMA's Office of National Security 
Coordination will also continue to carry out its mandated 
mission to provide executive agent leadership, to ensure 
continuity of national operations in response to all-hazards 
emergencies in order to guarantee the survival of an enduring 
constitutional government.
    In summary, during the last year, FEMA has continued to 
carry out its traditional mission. Successful implementation of 
the new initiatives and the ongoing activities I have discussed 
today will improve our national system of mitigating against, 
preparing for, responding to, and recovering from disasters and 
emergencies caused by all hazards.

                           PREPARED STATEMENT

    In closing, on a personal note, I want to thank you, Mr. 
Chairman, Senator Byrd, Senator Murray, for the absolute 
wonderful support that you have given FEMA over the past years. 
I would be happy to answer any questions that you might have at 
this time.
    [The statement follows:]

                 Prepared Statement of Michael D. Brown

Introduction
    Good morning Mr. Chairman and Members of the Subcommittee. I am 
Michael Brown, Under Secretary for the Emergency Preparedness and 
Response Directorate (EP&R) of the Department of Homeland Security 
(DHS), which includes the Federal Emergency Management Agency (FEMA).
    I am honored to appear before you today to talk about FEMA's 
accomplishments of this past year since it has become part of the 
Department of Homeland Security. More importantly I want to highlight 
our priorities for fiscal year 2004 and why support of the President's 
Budget request for fiscal year 2005 is critical to insure that FEMA can 
continue to fulfill its traditional role of preparing for, mitigating 
against, responding to, and recovering from disasters and emergencies 
caused by all hazards.
    FEMA has undergone significant changes since becoming part of DHS--
both external and internal--but it has not changed its focus. As part 
of DHS, FEMA continues its tradition of responding to help disaster 
victims and those in need whenever disasters or emergencies strike.
Transition into the Department of Homeland Security
    On March 1st, FEMA will celebrate its first full year as part of 
the Department of Homeland Security. We are proud to be part of this 
historic effort and are more committed than ever to our duty as 
defenders of the Homeland. We made significant strides in our first 
year as a component of the Department, and we continue to see the 
advantage of and realize benefits from being part of a larger 
organization. We believe that the Federal-wide consolidation of all-
hazards preparedness, mitigation, response, and recovery programs 
brings real benefit to the American public.
    Since March 1st of last year, FEMA has worked to merge disaster-
related public health programs from the Department of Health and Human 
Services (DHHS) into a comprehensive and unified national response 
capability. These programs include the National Disaster Medical System 
(NDMS), which is designed to provide a single, integrated, national 
medical response capability to augment the Nation's emergency medical 
response capability when needed for major disasters and Federally 
declared emergencies. Another important public health-related program, 
the Strategic National Stockpile (SNS), maintains large quantities of 
essential medical items that can be provided for the emergency health 
security of the United States in the event of a bioterrorist attack or 
other public health emergency and to support State and local 
communities during emergencies.
    FEMA also successfully merged a multiplicity of other disaster 
response teams and assets from different departments and agencies to 
create a unified national response capability within the Department of 
Homeland Security. Among these teams and assets, now merged within 
FEMA's Response Division, are the:
  --National Disaster Medical System,
  --Domestic Emergency Support Team, and
  --Strategic National Stockpile
    FEMA has also been given operational control of the Nuclear 
Incident Response Team in certain circumstances, including the event of 
an actual or threatened terrorist attack.
    As we settle into DHS, we continue to leverage the extensive 
experience and capabilities of the Department's other components. For 
example, in responding to Hurricane Isabel, we received aerial imaging 
and aviation support from our friends at Immigration and Customs 
Enforcement (ICE) and the U.S. Coast Guard. We are partnering with the 
Information Analysis and Infrastructure Protection Directorate to 
improve our damage prediction and resource placement decisions and to 
take advantage of their critical infrastructure resources and 
expertise. We look forward to continuing and increasing such 
cooperation in the future.
Fiscal Year 2003 Accomplishments
    In fiscal year 2003, the Federal Emergency Management Agency (FEMA) 
obligated nearly $2.9 billion in disaster funds to aid people and 
communities overwhelmed by disasters, including floods, ice and winter 
storms, wildfires, tornadoes, hurricanes, typhoons, and tropical 
storms. In addition, FEMA obligated $6.8 billion to fund projects 
associated with the September 11 response. Overall, FEMA responded to 
62 major disasters and 19 emergencies in 35 States, 4 U.S. Territories 
and the District of Columbia. These events included the record Midwest 
tornadoes, Super Typhoon Pongsona and Hurricanes Claudette and Isabel. 
The 19 emergencies declared in 2003 included the loss of the Space 
Shuttle Columbia, the President's Day snowstorm, and the Northeast 
power outages.
    While the California fires in October left an indelible mark in our 
memories, the Nation's fire season in 2003 was not as busy, with 
exceptions, in Montana and Arizona. But in the areas impacted, the 
fires were devastating and severe. In fiscal year 2003, FEMA approved 
assistance for 34 fires in 11 States, compared with 83 fires in 19 
States in fiscal year 2002.
    In fiscal year 2003, Congress supported the President's efforts to 
promote disaster mitigation, through the creation and funding of two 
important initiatives: the Pre-Disaster Mitigation Grant Program and 
the Flood Map Modernization Program. Great strides have been made in 
both of these areas in the last year. These two programs will 
ultimately result in the reduced loss of life and property throughout 
our Nation.
    FEMA's Preparedness Division awarded more than $160 million in 
Emergency Management Performance Grants to the States to maintain and 
improve the national emergency management system. To date, the United 
States Fire Administration has awarded over $650 million in grants to 
fire departments across the Nation as part of the Assistance to 
Firefighters Grant Program. Both of these programs are now requested in 
the Office for Domestic Preparedness (ODP) portion of the Department's 
budget for fiscal year 2005 and we are working very closely with ODP on 
transferring these programs. FEMA also provided a total of 17 
interoperable communications equipment grants for $79.57 million, and 
the Emergency Management Institute, the National Fire Academy (NFA) and 
the Noble Training Center together trained more than 290,000 fire and 
emergency management and response personnel nationwide.
    In our response to Hurricane Isabel, last September, we 
demonstrated a more forward-leaning and proactive response posture and 
made every effort to improve communication, coordination and timely 
delivery of critical disaster supplies. FEMA increased the frequency of 
daily video teleconferences with the impacted States and meteorological 
and river forecasting centers, jointly planned response actions with 
the States, pre-positioned materials, and opened multiple staging areas 
and mobilization centers in anticipation of response needs. These and 
other changes we have made allow us to continue to improve Federal 
disaster response efforts. We will continue to take advantage of the 
lessons learned and best practices from Isabel and other disasters, and 
apply them in our programs to change the impact of future events.
    Also during fiscal year 2003, FEMA launched the Continuity of 
Operations Readiness Reporting System, a single automated system that 
allows Federal Executive Branch departments and agencies to report the 
state of their Continuity of Operations capabilities and readiness. The 
System has been tested and will be fielded this year. In addition to 
technology upgrades and improvements, FEMA's Office of National 
Security Coordination maintained a 24/7 operational readiness 
capability in support of National Security programs, including the 
initial planning and coordination for an interagency Continuity of 
Operations exercise, Exercise Forward Challenge 2004, to take place 
later this year.
Fiscal Year 2004 Priorities
    In fiscal year 2004, FEMA is focusing on its five major program 
areas: Mitigation, Preparedness, Response, Recovery, and National 
Security.
    Our Mitigation efforts center on modernizing our Nation's flood 
maps, providing Pre-Disaster Mitigation (PDM) grants, and enhancing the 
National Flood Insurance Program (NFIP). For Map Modernization over 300 
mapping projects, valued at approximately $85 million, were launched 
nationwide in fiscal year 2003 and we are working with State and local 
representatives to identify projects for fiscal year 2004. The PDM 
grants will again provide stable funding to assist State and local 
governments to reduce risks. The number of NFIP policies will be 
increased by 5 percent.
    Our Preparedness Division will support the Department's efforts to 
put into place a National Incident Management System (NIMS) that will 
help improve coordination of disaster response at all levels. In 
addition, we will publish Mutual Aid System Development, Credentialing 
and Equipment Interoperability Standards. Our support for training and 
exercises continues to enhance the Nation's emergency management 
capabilities and increasing fire preparedness remains a central 
mission.
    In 2004, our Response capabilities continue to grow. We will field 
enhanced response teams and resources, improve our response times, put 
plans into place for catastrophic events, and improve our training. We 
will continue to consolidate and integrate all of our different 
disaster response programs, teams, and assets; design new approaches; 
and implement new efficiencies that will result in a more unified, 
integrated, and comprehensive approach to all-hazards disaster 
response. We want to elevate our operational response capabilities to a 
whole new level of proficiency, one that will further the principles of 
the National Response Plan (NRP) and the National Incident Management 
System (NIMS) to better serve the American people.
    For those impacted by disasters, FEMA continues to provide 
appropriate and effective disaster recovery assistance. Simultaneously, 
we continue to focus on re-designing our Public Assistance Program and 
developing a catastrophic incident housing recovery strategy. These 
efforts will enhance our current capabilities and better position us to 
recover from a catastrophic event.
    Finally, we are ensuring that the FEMA National Security Program 
has adequately staffed, trained, equipped, and exercised Continuity of 
Operations (COOP) and Continuity of Government (COG) programs to 
guarantee the survival of Enduring Constitutional Government.
Fiscal Year 2005 Budget Highlights
    The President's fiscal year 2005 Budget for FEMA:
  --Assumes a $2.9 billion spending level for disaster relief--a level 
        consistent with the average non-terrorist disaster costs over 
        the past 5 years. This includes more than $2.1 billion in new 
        disaster funds, as well as funds expected to remain available 
        from prior years. This is over $300 million more than the 
        fiscal year 2004 appropriation.
  --Continues implementation of Project BioShield, which encourages the 
        development and purchase of necessary medical countermeasures 
        against weapons of mass destruction. Through an advance 
        appropriation, $2.5 billion is made available beginning in 
        fiscal year 2005. These funds will be obligated through fiscal 
        year 2008.
  --Includes $20 million in new budget authority for planning and 
        exercises associated with improving medical surge capabilities.
  --Includes $8 million in new budget authority for four Incident 
        Management Teams (IMTs) to act as the core, field-level 
        response teams for major disasters, emergencies, and acts of 
        terrorism.
  --Includes $7 million in new budget authority for development and 
        implementation of the National Incident Management System 
        (NIMS), specially designed to provide a basic framework of 
        organization, terminology, resource identification and typing; 
        training and credentialing; and communications protocols to 
        deal effectively with incidents of all sizes and complexities 
        involving Federal, State, and local governments, Tribal 
        Nations, and citizens.
  --Continues the President's Pre-Disaster Mitigation program, which 
        helps to minimize the devastation caused by natural disasters 
        through a competitive grant process that supports well-designed 
        mitigation projects. In fiscal year 2005, we will initiate 
        post-disaster evaluations to begin documenting losses avoided 
        and assessing program impact.
  --Continues the replacement and modernization of the Nation's Flood 
        Insurance Rate Maps.
  --Transfers the Strategic National Stockpile to DHHS. As a result of 
        the transfer, $400 million is moved to DHHS to maintain the 
        stockpile and strengthen its future capacity with new and 
        needed medical products as soon as they become available.
  --Transfers the Emergency Food and Shelter Program to the Department 
        of Housing and Urban Development.
Mitigation
    FEMA's mitigation programs are an essential part of the Department 
of Homeland Security's charge to protect the lives and property of 
Americans from the effects of disasters. Mitigation programs provide us 
the opportunity not only to develop plans to reduce risks, but more 
importantly, to implement those plans before disaster strikes.
    In previous years, Congress supported the President's efforts to 
promote disaster mitigation by creating and funding two initiatives:
  --Pre-Disaster Mitigation Grants, and
  --Flood Map Modernization.
    The intent of the Pre-Disaster Mitigation Grants is to provide a 
consistent source of funding to State, local, and Tribal governments 
for pre-disaster mitigation planning and projects that primarily 
address natural hazards. The plans and projects funded by this program 
reduce overall risks to the populations and structures, while reducing 
reliance on funds from Federal disaster declarations. The competitive 
nature of the Pre-Disaster Mitigation Program encourages communities to 
assess their risks, to evaluate their vulnerabilities, and to implement 
mitigation activities before a disaster strikes. This budget proposes 
support for both pre-disaster and post-disaster mitigation assistance.
    The Flood Map Modernization Program provides the capability to 
broaden the scope of risk management. This enables more expansive use 
of the geospatial base data needed to develop the flood maps. 
Communities, lenders, insurance agents, and others use the maps and the 
flood data approximately 20 million times a year to make critical 
decisions on land development, community redevelopment, insurance 
coverage, and insurance premiums. As flood hazard data is updated, the 
current flood map inventory is being changed from a paper map system to 
a digital one. New technology will enhance the usefulness and 
availability of flood data to all customers. The new system also 
supports the development and distribution of geospatial data of all 
hazards, both natural and man-made.
    The fiscal year 2005 budget will continue to update flood maps 
nationwide and increase State and local capability to manage flood 
hazard data. By the end of fiscal year 2005, digital GIS flood hazard 
data covering 50 percent of our Nation's population will be available 
online.
    The National Flood Insurance Program (NFIP) has a significant 
impact on reducing and indemnifying this Nation's flood losses. Prior 
to the creation of the NFIP, floodplain management as a practice was 
not well established, and only a few states and several hundred 
communities actually regulated floodplain development. Flood insurance 
was not generally available. We are working diligently to refine and 
expand our all-hazards risk communication strategy to meet the goal of 
a 5 percent increase in NFIP policy ownership. This increase in 
insurance policy ownership will reduce reliance on the Disaster Relief 
Fund and will foster individual economic stability.
Preparedness
    FEMA's Preparedness Division helps ensure our Nation is prepared to 
respond to emergencies and disasters of all kinds. The Preparedness 
Division is responsible for Federal, State, local, and community 
emergency preparedness programs; assessments and exercises; grants 
administration; the Radiological Emergency Preparedness Program and the 
Chemical Stockpile Emergency Preparedness Program. The U.S. Fire 
Administration works to prevent fire deaths and damage to property, and 
carries out its mission through leadership, advocacy, coordination, and 
support. The training programs offered at the National Fire Academy and 
the Emergency Management Institute promote the professional development 
of command level firefighters, emergency managers, and emergency 
responders, and are an important aspect of the U.S. Fire 
Administration's duties.
    The Noble Training Center, located at Ft. McClellan, Alabama, is a 
new addition to FEMA. Transferred from DHHS in fiscal year 2003, the 
Noble Training Center is the only hospital facility in the United 
States devoted entirely to medical training for Weapons of Mass 
Destruction (WMD). In fiscal year 2005, Noble will continue to train 
medical personnel for State and local hospitals, emergency medical 
services, and the National Disaster Medical System.
    In fiscal year 2005, FEMA's Preparedness Division will work with 
other components of the Department to develop the National Incident 
Management System (NIMS) and the National Response Plan (NRP). These 
initiatives will ensure that all levels of government, across the 
Nation, work together efficiently and effectively, employing a single 
national approach to domestic incident management.
    FEMA's Preparedness Division will continue to provide the States 
with technical assistance in their all-hazards planning. To avoid 
duplicative planning, our efforts will be closely coordinated with 
those of the Office for Domestic Preparedness to update State terrorism 
preparedness plans.
    As part of our effort to prepare our citizens for all disasters, 
the Division will oversee the Community Emergency Response Teams, or 
CERT. This program, begun as a civilian training program by the Los 
Angeles Fire Department, has become a nationwide effort to train 
citizens in first aid and basic firefighting and emergency response 
techniques. CERT-trained citizens are able to provide those basic 
emergency services that would otherwise occupy the first responders. 
FEMA provides train-the-trainer programs to allow as many citizens as 
possible to receive this training across the country. The CERT program 
has grown from 170 teams in 28 States and Territories in March of 2002 
to over 900 teams in 51 States and Territories.
Response
    FEMA's Response Division is responsible for integrating national 
emergency response teams, systems and assets into a comprehensive and 
fully coordinated, national capability that supports States and 
communities in responding to all types of disasters, including acts of 
terrorism. This is accomplished by arranging the necessary and 
appropriate national assets, establishing a consolidated national 
incident response system, and effectively coordinating strategic 
resources in full partnership with Federal, State, local, and tribal 
governments, the private sector, volunteers, and citizen partners.
    The fiscal year 2005 Response Division budget proposes to:
  --Create four Incident Management Teams (IMTs) and formulate plans 
        for full implementation in fiscal year 2006; the IMT is a 
        highly responsive and flexible response team that will be able 
        to quickly establish a strong Federal leadership capability in 
        any disaster environment or high threat situation, including 
        acts of terrorism involving the use of WMD;
  --Continue all-hazards catastrophic disaster response planning for 
        one additional U.S. city, based on the pilot disaster planning 
        template developed for New Orleans, Louisiana. The template 
        will be used in the future as a basis for all-hazards 
        catastrophic planning for other high risk areas of the country; 
        and
  --Continue efforts to develop the capability to provide intermediate 
        emergency housing aimed at meeting the needs of large numbers 
        of disaster victims displaced from their homes as a result of 
        large scale and catastrophic disasters
    FEMA's Response Division will also continue to implement measures 
to reduce response times for its teams and delivery of disaster 
supplies.
    Additional funding requested in fiscal year 2005 implements the 
National Incident Management System--NIMS. FEMA's goal for 2005 is to 
focus on the readiness of Federal response teams and the integration of 
Federal capabilities with that of State and local jurisdictions. We 
will conduct outreach to our Federal response partners and State and 
local counterparts to ensure connectivity and synchronization of 
response capabilities under NIMS, and will conduct NIMS and Incident 
Command System (ICS) training for Federal response teams. These 
activities will ensure we have the baseline skills for all teams to 
operate under NIMS and be fully integrated into the NIMS/ICS doctrine.
    As highlighted previously, the President's fiscal year 2005 budget 
proposes an initiative to develop FEMA's medical surge capability. 
Under this initiative, FEMA will evaluate supplemental capabilities for 
both a fixed and mobile facility to demonstrate the utility of using 
alternate facilities to support medical surge activities, as well as 
the utility of having a surge capacity that can be mobilized, 
transported, and made operational within set timelines. The second part 
of this initiative is to implement the concept through two pilot 
projects.
Recovery
    FEMA's Recovery Division leads and coordinates the timely delivery 
of Federal disaster assistance to individuals and communities.
    In fiscal year 2005, the Recovery Division will continue to provide 
assistance to individuals for temporary housing, damaged personal 
property, crisis counseling, disaster unemployment, and disaster legal 
services. FEMA responded to over 2.5 million calls last year, from 
people seeking to register for disaster assistance and to have their 
questions answered. The Recovery Division processed more than half a 
million individual disaster applications.
    The Individual Assistance Programs that meet victims' most basic 
needs provide assistance for housing, personal property losses, and 
medical and funeral expenses. In each disaster we ask our customers, 
the disaster victims, what they think of the service we provided to 
them. I am pleased to tell you that we consistently earn very high 
marks from our customers when they are surveyed. In fiscal year 2005 we 
will continue to invest in technology that ensures we continue to meet 
our customers' expectations.
    FEMA's Public Assistance Program, which accounts for the bulk of 
recovery expenditures out of the Disaster Relief Fund, is the primary 
means for community recovery. State and local governments and certain 
non-profit organizations can be reimbursed to repair facilities to 
their pre-disaster condition, as well as for costs associated with 
debris removal and emergency protective measures. FEMA is focusing on 
redesigning the Public Assistance Program to be more efficient and 
better prepared to meet the needs of a catastrophic or terrorist event 
by moving toward a web-based, user friendly, estimated based program, 
communities will be able to recover faster. In order to better prepare 
for the transition to a redesigned program, FEMA is establishing a 
methodology for estimating the total cost of large projects versus 
determining final costs after work is complete. Implementing the Public 
Assistance Program using cost estimates will allow State and local 
governments to better budget for recovery, improve our estimates of 
disaster expenditures, and reduce administrative costs and closeout 
timelines. In addition, we are working on proposed revisions to the 
Public Assistance Insurance Rule, which was last revised in 1991. The 
Stafford Act requires applicants for Public Assistance grants to 
``obtain and maintain'' insurance on a damaged facility as a condition 
of receiving assistance. In the past, there have been concerns about 
this rule imposing a pre-disaster insurance requirement for all 
hazards. The proposed rule will not require insurance before disaster 
strikes, except for flood insurance in identified flood hazard areas, 
as required by the Stafford Act. The purpose of the rule is to simply 
clarify issues not adequately addressed in the current rule, such as 
eligible deductibles.
    The Fire Management Assistance Grant Program is another key 
resource for States and local governments to mitigate, manage, and 
control forest or grassland fires to prevent damages that may otherwise 
result in a major disaster declaration.
    I assure you that President Bush appreciates the importance of 
Recovery. I had the honor of joining the President in touring Missouri 
last spring after the devastating tornadoes struck Pierce City. Even 
though it was pouring rain during our visit, the President got out of 
his car to go over and talk to a couple who were standing in front of 
their damaged store front. They also had damages to their home. Using 
FEMA's temporary housing, immediate needs assistance, their insurance, 
and SBA home and business loans, this couple is recovering.
    The massive California Wildfires of 2003 scorched over 750,000 
acres and claimed 24 lives. During the response to the wildfires, the 
President and Secretary Ridge wanted me to be intimately involved in 
the coordination efforts between the Federal agencies doing work there. 
Through the formation of a pair of interagency bodies, the Washington-
based California Fires Coordination Group and the field-level Multi-
Agency Support Group, FEMA's Recovery Division was instrumental in 
assuring that each of our Federal partners was coming to the table with 
comprehensive plans that were complementary to each other, that 
minimized the sort of bureaucratic ``stove piping'' that results in 
duplication of efforts, and that continued to focus on the needs 
identified by the State and local communities as priorities. Our shared 
success is the natural result of FEMA's commitment to ``all-hazards'' 
emergency management, and a focus on a scaled approach to meet the 
challenges of any kind of incident, from the floods, fires, and storms 
that happen all too often, to the catastrophic scenarios that we 
prepare for, but hope will never come to pass.
    We take our mission to help communities and citizens recover very 
seriously. My goal is to continue to do the work we do now better and 
faster, and to build on our current recovery capabilities to be better 
prepared to face a catastrophic natural or terrorist event.
National Security
    In fiscal year 2005, FEMA's Office of National Security 
Coordination will continue to carry out its mandated mission to provide 
Executive Agent leadership to ensure continuity of national operations 
in response to all-hazard emergencies in order to guarantee the 
survival of an enduring constitutional government. Funding in fiscal 
year 2005 will be used to ensure that all Federal Executive Branch 
departments and agencies attain and maintain a fully operational 
Continuity of Operations (COOP) capability. FEMA will provide 
assistance to Federal departments and agencies to help them attain and 
maintain fully operational contingency capabilities. FEMA will develop 
and implement a test, training, and exercise program that culminates in 
a complete exercise of the Continuity of Government (COG) program. In 
addition, we will provide technical support and guidance to our 
interagency, regional, State and local stakeholders across the Nation.
Conclusion
    During the last year, FEMA has been busy but we continue to carry 
out our mission to prepare for, mitigate against, respond to, and 
recover from disasters and emergencies caused by all-hazards. The key 
to our continued improvement will be to take the lessons learned from 
previous disasters and incorporate them into our preparedness, 
planning, and procedures, so that we do an even better job of 
responding next time. We evaluate the lessons learned from each 
disaster and make plans to incorporate the new approaches and remedy 
problems. Hurricane Isabel provided such an opportunity, and it 
validated our priority to reduce disaster response times and improve 
our capability to gather information and effectively and efficiently 
manage the Federal Government's response to Presidentially-declared 
disasters.
    Successful implementation of the new initiatives and the on-going 
activities I have discussed today will improve our national system of 
mitigating against, preparing for, responding to, recovering from 
disasters and emergencies caused by all hazards.
    In closing, I want to thank the Members of the Subcommittee for 
their past support of FEMA and I appreciate the opportunity to testify 
before you today. I would now be pleased to answer any questions you 
may have.

                      STRATEGIC NATIONAL STOCKPILE

    Senator Cochran. Thank you, Mr. Secretary.
    Some of the questions that we have relate to the proposals 
to make transfers of authority and responsibility within the 
executive branch, some from the new Department of Homeland 
Security to the Department of Health and Human Services. I 
observed in Senator Byrd's statement concerns about that, and I 
was going to ask about that as well.
    One of the transfers that I notice includes a transfer of 
the Strategic National Stockpile to the Department of Health 
and Human Services. Why is this a priority of the 
administration? Do you think that would be an appropriate thing 
to do and would enable us to do a better job of defending 
against attacks or terrorist attacks in this area?
    Mr. Brown. Senator, the beauty of transferring the 
stockpile back to HHS is that it truly aligns the budget 
requirements and the operations requirements in one Department. 
The important thing to note is that FEMA does not lose its 
ability to deploy the stockpile in times of emergency. Under 
the national response plan, we will still be able to deploy the 
stockpile and utilize it as necessary to aid victims. So, what 
we have done is actually realign operations and budget within 
one Department.

                          DISASTER RELIEF FUND

    Senator Cochran. There is also a question about whether 
some of the funding requests are sufficient to enable you to 
carry out your mission and to fulfill your responsibilities 
under the law. In particular, we notice that in the President's 
budget for disaster relief there is a request for $2.1 billion, 
but also included is a transfer of $7 million to preparedness, 
mitigation, response, and recovery for the urban search and 
rescue teams.
    Is this an indication that you really need more money for 
disaster relief than is reflected in the budget request?
    Mr. Brown. No, Senator, it is not. In fact, I would say in 
response to Senator Byrd's comments earlier about last years 
episode with the disaster relief fund, that President Bush 
absolutely recognizes the importance of the DRF being fully 
funded, and in this case by requesting $2.15 billion, we are 
going to be able to do that.
    I will tell you that we learned some lessons in FEMA last 
year because of that experience with the DRF. I am very pleased 
to say that our cash management systems have gotten much 
better. Our recoveries have gotten much better, and so this 
$2.15 billion, combined with the carryover we are going to have 
from good cash management, and from the recoveries that we are 
going to make in the current DRF funding, will be fully funded 
in the DRF this year. I think that is a reflection of the 
President's understanding that this pool of money needs to be 
available so that FEMA can do its job without worrying if there 
is enough money or putting some programs on hold. It is a 
recognition of the importance of that fund.
    Senator Cochran. Well, I am impressed with the job that the 
Department has done in such a short period of time, 
reorganizing itself under the new Department's management 
structure, but including some agencies like FEMA, which is I 
suppose one of the principal responsibilities of this 
directorate which you chair, and to do so in a way that did not 
diminish in any respect the capacity of the Government to 
respond to natural disasters and the traditional role that FEMA 
has played. So, I congratulate you on the management function 
that you are providing and the responsibilities that you are 
carrying out in that regard.
    We are going to work hard to be sure that we appropriate 
the money that you need and that our communities need when they 
are confronted with natural disasters. In my part of the 
country, we have been besieged with hurricanes, floods, 
tornadoes, and many other natural disasters, and FEMA has been 
right there and has helped lead the way, working with local 
officials and volunteers who come to respond to those 
situations. We know how important your work is and we 
appreciate the fact that you are dedicating yourself to help 
run this agency so people who do need help in these situations 
get it.
    Mr. Brown. Senator, I very much appreciate those comments.

                           FIRE GRANT PROGRAM

    Senator Cochran. Senator Byrd.
    Senator Byrd. Mr. Under Secretary, in my opening statement, 
I had a question which I said was rhetorical for that purpose. 
Where do these policies leave a small town fire department, 
let's say in Sophia, West Virginia, that needs to purchase 
breathing apparatus or needs equipment to deal with a chemical 
spill? Let us say we are talking about a town in Kanawha County 
on the river near the great complex of chemical industries that 
have been located there and have served the country so well 
through the years. Where does the policy leave a small town 
fire department that needs to purchase breathing apparatus or 
equipment to deal with a chemical spill?
    Mr. Brown. Senator, I would tell you that I think the fire 
grant program is one of the best programs in the Federal 
Government. It is incredibly efficient, organized, and directly 
affects and helps needs like those you are identifying. In 
addition to that, it has a peer review process that will take 
fire departments from West Virginia, Mississippi, Washington, 
or wherever they are from, and the peers themselves, the fire 
departments, look at where the need is the greatest and give us 
advice about where those dollars should go.
    I will tell you that the President's request this year for 
$500 million in fire grants is the same amount that the 
President requested last year. He recognizes the importance of 
first responders. He also recognizes the importance of this 
program.
    We are doing absolutely everything to ensure that the fire 
grant program is not deteriorated in any way by its movement to 
ODP. We are providing detailees. We are providing programmatic 
support. We are doing everything to make sure that program 
stays intact. Congress recognized that last year and said, as 
this transfer takes place, the U.S. Fire Administration should 
remain a vital part of the grant program, and indeed they are. 
FEMA is doing everything to support ODP to keep this program 
operating the exact same way it always has so that it does help 
fire departments like you describe.
    Senator Byrd. Mr. Brown, if it is one of the best programs, 
a statement with which I agree, why is the President proposing 
to cut it by 33 percent?
    Mr. Brown. Well, the President's request is the exact same 
as he made last year, and Congress added an extra $249 million 
to it last year. The President is reiterating his same request 
from last year.
    Senator Byrd. But he is cutting the program by 33 percent. 
Why is he doing that?
    Mr. Brown. His request is the same request he made last 
year.
    Senator Byrd. I understand that. You said that already. But 
on what basis? Why is he doing that?
    Mr. Brown. The President's overall request for first 
responders is actually an increase. There was $8 billion last 
year for first responders, and that is increasing by about $900 
million this year. So, overall for first responders, there is 
actually an increase.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Senator Byrd. Do I have time for one more question on this 
round?
    Senator Cochran. Yes.
    Senator Byrd. Mr. Secretary, first, you are proposing to 
cut emergency management performance grants by $9 million. 
Second, you are proposing to target those reduced emergency 
management dollars to terrorism activities, in essence, 
mandating that States put terrorism projects at the top of 
their priority list or risk losing funding. Finally, you are 
proposing to hinder the States' flexibility by capping at 25 
percent the amount of each grant that can be spent on salaries.
    West Virginia spends more than half of its EMPG funds on 
salaries. I understand that nationwide State and local 
governments use over 50 percent of their grant funds for the 
salaries that pay for emergency planning professionals. In West 
Virginia, EMPG is an essential source of funds to help State 
emergency managers reduce the threat of floods, assist flood 
victims, and to prepare for potential chemical spills. The all-
hazards approach to emergency management is a critical tool for 
State officials.
    Earlier this week, I received a letter from Stephen Kappa, 
K-a-p-p-a, the Director of the Office of Emergency Services in 
West Virginia. Perhaps you know him, do you?
    Mr. Brown. Yes sir, I do.
    Senator Byrd. In his letter, Director Kappa concluded that 
the President's proposals for emergency management would have--
and I quote here--``a devastating impact on emergency 
preparedness at the State and local levels.'' He, Mr. Kappa, 
concluded that--quote, again--``West Virginia and other States 
must balance our preparedness efforts to appropriately 
integrate terrorism, not to the detriment or exclusion of the 
existing national emergency response system that supports day-
to-day public safety needs.'' That is the end of that excerpt 
from Mr. Kappa's letter to me.
    Today if FEMA focuses too myopically on terrorist threats, 
it could jeopardize the all-hazards approach to emergency 
management that has been built up over the past 25 years, and 
we will be in danger of repeating past mistakes.
    I am very disappointed with the President's emergency 
management proposal. Please explain, if you will, to a couple 
of Senators, who have been here quite some time from flood-
prone States, such as West Virginia and Mississippi, why these 
proposals make sense.
    Mr. Brown. Senator, let me first state that I understand 
the concern that has been expressed by you and others about 
this change on the cap. I recognize that concern. In addition 
to that, the reason that FEMA has always been successful under 
James Lee Witt's leadership, under Joe Albaugh's leadership, 
has been that we have always understood that it is the ability 
of our State and local partners to do their job that helps make 
us successful. We must continue our relationships with the 
State and local agencies to understand what their capacities 
are, what their abilities are, what they have, and what they 
can and cannot do. One way that we will do that is through the 
EMPG. By changing the cap, it increases necessarily the amount 
of money that is now available for training and exercises at 
the State and local government. The administration believes 
that personnel costs are truly a shared cost and the State and 
locals should share some of the costs of that personnel, with 
this change, we are increasing the amount of money that we can 
now use to exercise and train those personnel to make them even 
more robust in the future.
    Senator Byrd. Is that the answer to my question?
    Mr. Brown. Yes, sir.
    Senator Byrd. That is all on this round, Mr. Chairman. 
Thank you.
    Senator Cochran. Senator Murray.

            CUTS TO EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Senator Murray. Mr. Chairman, thank you very much.
    I want to follow up on the question that Senator Byrd asked 
because I am also hearing from everyone in my State they are 
deeply concerned about this cap and obviously the cuts to the 
EMPG program. It is really the backbone for many of our 
communities in responding to all types of hazards. Senator Byrd 
mentioned floods. Certainly earthquakes and all the other 
disasters that people have to prepare for are also included. 
They have added to this now, obviously, terrorism. I am very 
concerned because EMPG really is the lifeblood for many of the 
emergency programs in my State and across the country.
    A good example is Kitsap County. It has several military 
bases, a population of about 240,000, and about one-fifth of 
the emergency management budget comes from EMPG funding. That 
county uses its funding to support their office operations and 
to provide public education to help prepare the cities and 
residents in that county for all types of hazards. But not 
every community in my State is like that, and for those 
communities, EMPG funding is not some kind of enhancement. It 
is actually not unusual to see almost 80 percent of the Federal 
EMPG allocation used to hire dedicated emergency management 
professionals, which is really important.
    So, when we see these recommended limitations, many of the 
communities in my State and probably across the country tell us 
they are going to have to terminate their emergency management 
program. That would place our entire emergency management 
response system in jeopardy. So, I share Senator Byrd's concern 
and I think we need to understand that the cap in particular 
will dramatically impact many of our counties to where they are 
not doing this, and that is, I do not think, the direction your 
agency wants to go.
    So, if you want to respond, I am happy to listen.
    Mr. Brown. In response, Senator, I would just say again 
that I understand those concerns greatly. I want to emphasize 
that we believe that a robust State and local system is 
necessary for FEMA to be able to succeed because, remember, 
FEMA only steps in when it is beyond the capabilities of State 
and local governments to respond to a disaster, whether it is 
natural or manmade. With the change in this cap, we will now 
use those additional resources to train the people at the State 
and local level to exercise them more at the State and local 
level than we have in the past.
    Senator Murray. But if there is nobody there to train, we 
are going to be----
    Mr. Brown. We would ask the States to see if they cannot 
find money to keep those people in place, because I do not want 
to lose those people either. I want to keep them there and 
train them and exercise them.
    Senator Murray. Well, remember, our States and our local 
communities are suffering from a very difficult budget crisis 
right now.
    Mr. Brown. I understand.
    Senator Murray. And if we just count on them coming up with 
the money, they are going to turn to us and talk about Federal 
mandates and complain to us, and it will be back on our 
shoulders when there is a response that cannot be taken care 
of.
    Mr. Brown. I understand that, Senator.
    Senator Murray. So, Senator Byrd, I want to work with you 
on that concern because I share it.
    Senator Byrd. Thank you. You have heard the company line.

 PUTTING THE STRATEGIC NATIONAL STOCKPILE BACK UNDER THE DEPARTMENT OF 
                       HEALTH AND HUMAN SERVICES

    Senator Murray. The chairman mentioned the issue of the 
Strategic National Stockpile being put back under the 
Department of Health and Human Services. I think it is a 
positive change. I think it will help streamline the Federal 
decision-making in time of a crisis, but I am concerned that 
with this change, the Department of Homeland Security will no 
longer be connected to the public health community and our 
Nation's doctors and nurses are our first responders, 
particularly in time of a biological attack. They are the ones 
we need to sound the alarm, and we need to make sure that the 
immunologists and the virologists and the State public health 
officials are part of that coordinated effort to manage and 
respond to a crisis if it involves bioterrorism. So, I am 
concerned about that and want to know from you how we are going 
to engage our public health professionals and keep them part of 
this loop.
    Mr. Brown. Oh, absolutely. In fact, I hope I can alleviate 
those concerns because, while the stockpile does transfer back 
to HHS, it is only the budget and operations. We would still 
deploy the stockpile. We would still handle the logistics of 
the stockpile.

                    NATIONAL DISASTER MEDICAL SYSTEM

    In addition to that, we still have the National Disaster 
Medical System within FEMA, which we are looking at and 
assessing. I think we have a very good relationship with NDMS. 
I think they are very proud to be a part of FEMA now. We are 
really trying to invigorate that system to make it part of the 
first responder community. So I think those concerns that you 
have, while they are certainly legitimate concerns, we are 
addressing those. I think we are on the right track to 
incorporate NDMS fully into our response system.
    Senator Murray. Well, thank you.
    Mr. Chairman, I do have a few other questions, but I know 
we have a vote in a few minutes. I would like to submit them, 
if I can, in particular involving Hammer Training Facility and 
our ability to train some of our local responders that I would 
like to get a response back from you.
    Mr. Brown. Certainly.
    Senator Cochran. Thank you.

                               BIOSHIELD

    Mr. Secretary, let me ask you about the budget request as 
it relates to the BioShield initiative. The request asks for a 
substantial increase in funding from $885 million for this 
fiscal year to the level of $2.5 billion for fiscal year 2005. 
What is the justification for that substantial increase?
    Mr. Brown. Mr. Chairman, that will fully fund the BioShield 
program, as the President announced in the State of the Union a 
couple of years ago. That will enable us to create, as I said 
last year, this venture capital fund, if you want to call it 
that, so that we are ready to create a market for any kind of 
antibiotics or other medicines that we need to respond to a 
bioterror threat. There currently is no way to encourage the 
pharmaceutical companies or the drug companies to venture into 
these areas and create things for which there is no market 
other than the fact that we have intelligence that may tell us 
that there is a specific threat, a specific pathogen that 
terrorists are trying to use. This will enable us to create 
that market and produce those antibodies for that particular 
kind of attack.
    Senator Cochran. There is a failure by the Congress to pass 
legislation that authorizes the BioShield program. Does this 
lack of legal authority impair in any way the administration's 
efforts to help protect our national security from a threat 
that this program seeks to address?
    Mr. Brown. Mr. Chairman, we are going to use the excellent 
language that you put in the appropriations, and use that as 
authorization to move forward, because we think our mandate 
from you and from the Congress is to use this money, and to use 
it for these kinds of threats. So that is what we will do.
    Senator Cochran. To what extent are your funds going to be 
expended in this year and for what specific purposes?
    Mr. Brown. We currently are looking at some additional 
anthrax vaccines and some additional kinds of antibiotics that 
we need to develop.
    Senator Cochran. The President's budget proposes in this 
area to make some transfers, transfer the Strategic National 
Stockpile from Homeland Security to the Department of Health 
and Human Services. But it does not suggest that BioShield 
should be transferred. Why is it more appropriate for the 
stockpile to be managed by HHS and BioShield to be managed by 
the Department of Homeland Security?
    Mr. Brown. Primarily because in BioShield, the resources 
that will be used in it are going to be based upon the threats 
that the Department of Homeland Security, the Central 
Intelligence Agency, and others develop through their intel 
gathering processes. So, as we understand and determine what 
those threats are, that BioShield money will be there for us to 
use to respond to those specific threats. Now, we will still 
work with the CDC, with HHS, and others in the development of 
those drugs and pharmaceuticals, but because we have the threat 
information, we believe that program should remain within DHS.
    Senator Cochran. To your knowledge, is there an assessment 
being done by the administration on our vulnerabilities to 
biological attacks, and if so, who is doing the assessments?
    Mr. Brown. There is an assessment that is being carried 
forth, primarily by the Department of Homeland Security. Since 
September 11th, everything has changed in the Federal 
Government. And when I say that DHS is leading it, you can rest 
assured that we do not do anything without incorporating all of 
our Federal partners. We talk to HHS. We talk to CDC. We talk 
to anyone who may be involved to make sure that we get the 
right kind of information and that we get the right kind of 
response.
    Senator Cochran. I assume that your directorate has had 
some involvement in the recent events that have been in the 
news and with those that we are also familiar with here in 
Congress, the ricin incident here in this building, and the 
anthrax events of the recent past. To what extent is the 
Department actively involved in these episodes? What do you do? 
What did you do in connection with those events?
    Mr. Brown. Everything from information-sharing among the 
Departments to the Capitol Police. We were in constant contact 
with them, for example, during the State of the Union or any 
other national security special event such as that. We deploy 
the National Disaster Medical System. You probably did not have 
a chance to see it during the State of the Union, but we had 
incredible teams all around these buildings, all within the 
Capitol, ready to respond to any type of event. So with FEMA 
and the Department of Homeland Security still being seen as the 
first responder on behalf of the Federal Government, we have an 
intimate involvement in all of those activities.
    Senator Cochran. Thank you very much for your efforts to 
protect our security.
    Mr. Brown. Thank you, Senator.
    Senator Cochran. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman, one of the best with 
whom I have ever served. I am talking about you.
    Senator Cochran. I understand. You are embarrassing me.

                        PRE-DISASTER MITIGATION

    Senator Byrd. Mr. Secretary, in fiscal years 2003 and 2004, 
Congress appropriated $150 million for a new pre-disaster 
mitigation fund. $150 million was a compromise with the 
Administration which proposed to spend $300 million on pre-
disaster mitigation and to eliminate any funds for post-
disaster mitigation.
    This year, the administration requests $150 million for 
pre-disaster mitigation, and requests that 7.5 percent of the 
amount a State receives for a disaster from FEMA be provided 
for post-disaster mitigation.
    I am pleased that the Administration recognizes the 
importance of post-disaster mitigation. In West Virginia, the 
$5.6 million received from this program will be used to acquire 
and demolish repetitive lost properties in the flood plain and 
relocate residents. To date, none of the non-planning pre-
disaster funds from either 2003 or 2004 have been made 
available to States. West Virginia wants to spend the money on 
moving people out of the flood plain before another disaster 
strikes. It is unacceptable that this money is stuck at FEMA.
    When can States expect to have pre-disaster mitigation 
funds in hand?
    Mr. Brown. Senator, we have received well over 400 
applications for that money. 140 grants have been awarded for 
planning and for specific mitigation projects. To date, $49 
million has been obligated. $15 million of that was for 
planning and $34 million for actual projects. $70 million will 
go out on a rolling basis before the end of the calendar year. 
So, we have received those 400 applications, and we have 
already obligated 49. We have also awarded 140 grants. That 
money will start going out the door. I want to get those people 
out of those repetitive places just as badly as you do, sir.
    Senator Byrd. I am not so sure about that. Be careful what 
you say.
    Mr. Brown. Sir, we will get those funds out. It is a 
process of requesting 400 applications, getting the planning 
for those applications done, and the grant money out for those 
planning grants. And we will continue to get those monies out 
on a rolling basis.
    Senator Byrd. The 2003 money was appropriated 12 months 
ago. I simply do not understand why it has taken so long to get 
the money out the door.
    Until fiscal year 2003, States received an additional 15 
percent in disaster relief funds for post-disaster mitigation 
projects. Earlier this week, I received a letter from a host of 
emergency management groups, including the International 
Association of Emergency Managers, the American Public Works 
Association, and the Association of State Flood Plain Managers, 
urging Congress to restore the hazard mitigation grant program 
formula to 15 percent from its current level of 7.5 percent.
    What is your opinion of this proposal?
    Mr. Brown. Senator, I am for anything that we can do to 
mitigate disasters, pre-disaster or post-disaster. To the 
extent that we can get money out the door to help folks, we are 
going to do that.
    Senator Byrd. What is your opinion of this proposal?
    Mr. Brown. We will certainly take it under consideration 
and look at it, Senator.
    Senator Byrd. You are going to take it into consideration 
and look at it?
    Mr. Brown. We certainly will.
    Senator Byrd. Well, I am going to call you in a few days 
and see how long you have been looking at it. Okay?
    Mr. Brown. Excellent.

                  PROPOSED CUTS TO FIRE GRANTS FUNDING

    Senator Byrd. I have just one more question, Mr. Chairman, 
and I may have others for the record.
    In December 2002, FEMA issued a report entitled, ``A Needs 
Assessment of the U.S. Fire Service''. That report found that 
half of all fire engines being used by our fire departments 
were over 15 years old. It found that 57,000 fire fighters 
lacked personal protective equipment, and that 41 percent of 
fire department personnel involved in wildland fire fighting 
lacked formal training in those duties.
    Last year you could not approve over $1.7 billion of 
applications because of a lack of funds.
    Given the serious deficiencies in basic fire fighting 
equipment and skills that you found, do you think that the 
administration's proposal to cut fire grant funding by 33 
percent and to focus fire grants on terrorism-related 
activities will undermine the ability of our local fire 
fighters to respond to emergencies in their communities?
    Mr. Brown. No, sir, it will not because we will continue to 
make certain that under the fire grant program whatever monies 
we have available go to the highest critical needs, so that we 
start solving the worst needs that we have in the country 
first. We will keep the program in place that way and make 
certain that the money goes where it should go.
    Senator Byrd. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.

                  NATIONAL INCIDENT MANAGEMENT SYSTEM

    Senator Cochran. Thank you, Senator Byrd, very much for 
your assistance with the work of this committee. I appreciate 
it.
    Mr. Secretary, the budget request includes an increase of 
$7 million for a national incident management system to support 
the President's national strategy for homeland security. This 
incident management system is proposed to be a single 
coordinating system to bring together the Federal, State, and 
local governments, tribal Nations, and citizens during 
emergencies, disasters, or other catastrophic incidents.
    How will the national incident management system differ 
from other systems that are designed to deal with all-hazard 
events within the Federal Emergency Management Agency and the 
Emergency Preparedness and Response Directorate?
    Mr. Brown. Senator, one of the problems we have now is that 
while we have a fairly good, unified command system around the 
country--first responders generally understand unified command 
and command and control systems--what we lack is a unified 
national incident management system with a common language by 
which we can all exercise and train to that common language. 
This $7 million will enable us to do that. So, when we bring in 
teams from anywhere in the country or mutual aid teams are 
helping other teams, they will walk into that situation with a 
common language, a common training. They will have exercised 
under a common system so that everyone will be on the same 
page, so to speak, when they are responding to any kind of 
disaster.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Mr. Secretary, we appreciate very much 
your cooperation with our committee, your making available your 
statement to us, and the opportunity to visit with you to talk 
about the budget request in advance of the hearing.
    Senators may submit written questions, as you know. We hope 
that you will be able to respond to them within a reasonable 
time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                               BIOSHIELD

    Question. Without Congressional approval of BioShield, who has the 
authority to sign contracts related to the obligation of BioShield 
funds?
    Answer. The fiscal year 2004 Homeland Security Appropriations Act 
provided $890 million to be spent for development of biodefense 
countermeasures for the current fiscal year. The Department of Homeland 
Security (DHS), the Department of Health and Human Services (HHS), the 
Homeland Security Council, and the Office of Management and Budget 
(OMB) recognize the importance of expeditious progress in developing 
much-needed countermeasures while following Congressional intent. In 
that vein, DHS and HHS have sought to ensure that the development of 
the interagency agreement for next-generation anthrax vaccine is in 
line with the proposed BioShield legislation. Until such time as the 
BioShield Act is passed, a FEMA contracting officer has the authority 
to sign interagency agreements with HHS, which, in turn, will execute 
contracts with manufacturers.

                            ANTHRAX VACCINE

    Question. Is the procurement of an anthrax vaccine conducted 
through the Strategic National Stockpile or BioShield? Is this the 
responsibility of the Department of Homeland Security or the Department 
of Health and Human Services?
    Answer. Anthrax vaccine (recombinant Protective Antigen, or rPA) 
procurement will be funded by the Biodefense Countermeasures 
appropriation included in the fiscal year 2004 DHS appropriation, but 
will be acquired for exclusive placement in the Strategic National 
Stockpile (SNS). The SNS discretionary appropriation is used to 
purchase items for which there is a significant commercial market. The 
BioShield program was specifically constructed to spur development of 
countermeasures for which no commercial market existed, as is the case 
with rPA, for inclusion in the Stockpile.
    DHS is responsible for assessing current and emerging threats 
against the United States. The Weapons of Mass Destruction (WMD) 
Medical Countermeasures subcommittee, an interagency group co-chaired 
by DHS, HHS, and the Department of Defense, has developed 
countermeasures information of interest to officials who will make the 
BioShield procurement decisions. The WMD subcommittee commissioned an 
end-to-end analysis of medical countermeasures to Category ``A'' 
biological agents (anthrax, smallpox, plague, botulinum toxin, 
tularemia, Ebola and other hemorrhagic fever viruses). Working groups 
developed initial requirements for four high-priority bioweapon (BW) 
countermeasures for which there is high need and a reasonable 
expectation that products will be available in the near term, with rPA 
development topping the list.
    The DHS Secretary enters into an interagency agreement with the HHS 
Secretary, whose department is responsible for providing medical, 
scientific, acquisition, technical, and procurement expertise, and is 
to establish technical requirements, identify suppliers, negotiate and 
evaluate proposals, enter into contracts, assess contractor 
performance, and perform administrative services. HHS also must ensure 
all the necessary steps have been taken for the licensing of the 
finished product.
    Additionally, DHS is in the process of finalizing an interagency 
agreement with the Army for the acquisition of Anthrax Vaccine Adsorbed 
(AVA). This agreement will be funded from the Public Health Programs 
(SNS) appropriations account.
    Question. When will the Department of Homeland Security or the 
Department of Health and Human Services procure the doses for which it 
has identified a requirement? What is that requirement? How many doses 
over what period of time will be necessary to meet it?
    Answer. DHS and HHS are now finalizing an interagency agreement to 
purchase recombinant Protective Antigen (rPA) vaccine to protect 25 
million persons. The government will consider later purchase of 
additional anthrax vaccine contingent on new vaccination delivery 
system technology and other cost-saving factors such as reduced dose 
requirements. A three-dose schedule is currently being evaluated, which 
would require a total purchase of 75 million doses. This initial 
agreement for fiscal year 2004 is for $134 million. Projections for 
obtaining the entire 75 million-dose requirement cover 5 years. 
Additionally, DHS is now finalizing an interagency agreement with the 
Department of the Army for up to 5 million doses of AVA.
    Question. Are we filling at least part of that requirement with an 
FDA-approved product currently available?
    Answer. The Stockpile currently maintains a small amount of the 
only FDA-licensed pre-exposure vaccine against anthrax (Anthrax Vaccine 
Adsorbed, or AVA). Currently, it has limited production capacity, and 
rectifying that problem would be very expensive and take several years 
to accomplish. AVA is not currently licensed for children or for the 
elderly. However, in order to ensure that some type of anthrax vaccine 
is available until the development and procurement of rPA, DHS and HHS 
have signed an interagency agreement for the purchase of AVA through 
the Department of the Army. This agreement will provide approximately 2 
million doses in fiscal year 2004, 1.5 million doses in fiscal year 
2005, and 1.5 million doses in fiscal year 2006.

                      STRATEGIC NATIONAL STOCKPILE

    Question. The proposal to transfer the Strategic National Stockpile 
from the Department of Homeland Security (DHS) back to the Department 
of Health and Human Services (HHS) in fiscal year 2005 requires 
legislative action by the authorizing committee. Has such legislation 
been submitted by DHS, and if so, what action has been taken by the 
authorizing committee?
    Answer. Language to effectuate the transfer of SNS from DHS to HHS 
has been added to S. 15, the Project Bioshield Act of 2003.
    Question. How has the fiscal year 2004 transfer from HHS to DHS, 
and the proposed fiscal year 2005 transfer from DHS to HHS, affected 
the daily operations, personnel, and activities of the program? Have we 
crippled the program in any way by continuing to shuffle it between 
departments? How are decisions being made at this time in regard to the 
Stockpile?
    Answer. The daily operations of the Stockpile have not been 
affected in any significant manner. Personnel and normal operations are 
nearly unchanged since the transfer from HHS to DHS and decisions are 
being made much as they always have been made at the Stockpile. The 
motivation to return the program to HHS is due to the desire to create 
a single command structure for the program, and to streamline 
operations once again. HHS will, however, have the obligation to deploy 
the stockpile when so requested by the Secretary of DHS. As such, the 
potential response needs of the DHS mission will not be compromised in 
any manner.

                  METROPOLITAN MEDICAL RESPONSE SYSTEM

    Question. What is the direct impact of the elimination of funding 
within Emergency Preparedness and Response in fiscal year 2005 for the 
Metropolitan Medical Response System?
    Answer. The funds that Congress has appropriated for the 
Metropolitan Medical Response System (MMRS) over the last several years 
have been used to establish certain capabilities, to get the program up 
to its baseline, and to facilitate transfer of the program to the 
localities for continuation, once the baseline is established. We will 
reach the baseline this fiscal year (2004), and therefore no additional 
funding is being requested.
    Secretary Ridge has proposed a reorganization (a letter was sent to 
Members of Congress on January 26, 2004), wherein the MMRS program for 
fiscal year 2004 will be transferred to a newly established Office of 
State and Local Government Coordination and Preparedness. Under this 
arrangement, FEMA would have no further role in the MMRS program for 
fiscal year 2004, and there will be no Federal program in fiscal year 
2005.
    We cannot precisely estimate the number of local jurisdictions that 
would continue the MMRS program without Federal resources support. We 
are fairly certain that a large number of them, as an element of 
prudent preparedness and operational necessity, will attempt to 
maintain MMRS-type mass casualty integrated response preparedness and 
seek to use Federal funds from other programs to support eligible 
portions of MMRS-type capabilities.
    Question. Are the program activities of the Metropolitan Medical 
Response System being met within any other areas of the President's 
budget?
    Answer. There are other Federal programs, which provide more 
narrowly focused, but related, support. These include the Centers for 
Disease Control and Prevention-Health Resources and Services 
Administration (HRSA) Bioterrorism Preparedness Grants and the HRSA 
Hospital Grants; the Office for Domestic Preparedness (ODP) Training 
and Exercise Programs and Equipment Grants; and ODP Urban Area Security 
Initiative funding to the designated States, which will then work with 
counties and cities to form regions that will work together through 
mutual aid agreements, interoperable communications, statewide 
intelligence centers, and community and citizen participation.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Question. What will happen to the all-hazards preparedness, 
mitigation, response, and recovery activities of the Emergency 
Management Performance Grants if the primary focus for all grant 
programs within the Office for Domestic Preparedness is required to be 
homeland security activities?
    Answer. Effective State and local all-hazards planning capabilities 
are critical to the success of FEMA in responding to disasters, but at 
this time, the Administration feels strongly that resources be focused 
toward building local governments' homeland security capabilities.
    Question. If a 25 percent cap is placed on the amount of grant 
funding allowed for personnel costs, many county and local emergency 
management offices may have to close due to the funding shortfall. The 
emergency management offices are critical to the preparation of the 
local community prior to disasters, which is the key to ensuring 
survival of its citizens during a disaster. The 25 percent cap on 
personnel costs could result in as much as a 60 percent decrease in 
emergency management staff nation-wide. If this happens, how will it 
affect FEMA's ability to operate in the field during a disaster? Would 
the direct costs to FEMA increase if more FEMA personnel were required 
to travel to the disaster site for assistance due to lack of local 
emergency management personnel?
    Answer. Currently, Emergency Management Performance Grants funds 
are disproportionately used to pay salaries, which is predominately a 
State/local responsibility. The cap on personnel costs is intended to 
ensure that the State and local governments assume more responsibility 
for their personnel costs. This would allow a greater percentage of 
grant funds to be utilized by State and local governments for training 
and exercises, further enhancing readiness capabilities.

            PREPAREDNESS, MITIGATION, RESPONSE, AND RECOVERY

    Questions. For fiscal year 2004, the Emergency Preparedness and 
Response Directorate proposed to establish one pilot Incident 
Management Team to develop the base structures and procedures for the 
four Incident Management Teams requested in the fiscal year 2005 
budget.
    Where will the one pilot Incident Management Team be located?
    What criteria were used to determine this location?
    Where are you in the process of establishing this pilot team?
    What is the time-frame for having the pilot team fully operational?
    Answer. The Pilot Incident Management Team (IMT) will be collocated 
with the Coast Guard facility in Elizabeth City, North Carolina. This 
location was chosen for the Pilot IMT primarily due to the efficiencies 
that can be achieved through use of existing Coast Guard facilities, 
air transportation, and available space. Our goal in fiscal year 2005 
is for IMTs to be fully activated within 15 hours of initial disaster 
notification and to have an average IMT response time for arrival at a 
disaster site within 22 hours. Our current average response time for 
all existing response teams is 72 hours for arrival on scene; the 
response time for the IMTs will help to reduce this overall average to 
60 hours by fiscal year 2005. Geographic proximity and transportation 
support will be crucial to achievement of this goal.
    Also, this geographic location is ideal for its close proximity to 
high-risk areas in the eastern United States. The Pilot IMT is our 
development phase of this initiative and the timing for its inclusion 
into our response system coincides perfectly with the onset of the 2004 
hurricane season. This location will also afford us the possibility of 
real-time disaster scenarios in which the IMT can be utilized, 
exercised, and evaluated for future development of other teams in 
fiscal year 2005.
    We are currently engaged in the acquisition of support equipment 
and recruitment of personnel, and we plan to have the Pilot IMT at an 
operational status by September 2004. The development and validation of 
procedures and operational doctrine will be complete by that time as 
well. Operational status will be constantly augmented and improved as 
we continue to exercise the teams and to enhance our procedures and 
doctrine through remedial actions.
    In the future, the IMTs will be referred to as Federal Initial 
Response Support Teams (FIRST), a name which differentiates them from 
existing response teams and which follows incident management protocols 
more closely. This name change is proposed in the draft National 
Response Plan (NRP) and will be made official when the NRP is 
finalized.
    Questions. The fiscal year 2005 budget requests an increase of $6.2 
million for four Incident Management Teams to act as the core, field-
level response teams for major disasters, emergencies, and acts of 
terrorism. It is my understanding that this funding will be used to 
secure half of the personnel needed, secure two locations for housing 
and deployment of teams, complete studies regarding transportation 
needs, and develop plans for full implementation of four teams in 
fiscal year 2006.
    Will the $6.2 million support two Incident Management Teams or 
four? If $6.2 million only supports two fully functional teams, will 
another $6.2 million be needed in fiscal year 2006 for the other two 
teams? If not, then what is the anticipated need to complete this 
initiative?
    How will the locations for the Incident Management Teams be chosen?
    Do you anticipate expanding beyond four teams after fiscal year 
2006?
    What is the projected annual funding needed to maintain these teams 
once they are in place and fully operational?
    Answer. At the time the budget was developed, the plan was for two 
full teams staffed by 10 full-time equivalent (FTE) positions. Current 
plans are to use the funding requested in the fiscal year 2005 budget 
to establish four teams with 5 FTEs to provide better coverage across 
the country. The Pilot Team will be established in fiscal year 2004 and 
three additional teams will be established in fiscal year 2005. We have 
chosen locations for the teams that take advantage of existing DHS 
transportation and support assets without requiring a large team 
structure. Much of the work for site selection is being done in fiscal 
year 2004 to be ready for establishment of the teams. Establishment of 
the teams, however, is not an end stage for readiness.
    Locations for the IMTs are being identified based on geographic 
location as well as collocation with exiting Coast Guard assets that 
will be utilized to support the IMTs in their operations. Elizabeth 
City, North Carolina, and Sacramento, California, have been chosen as 
potential sites on the East and West coasts of the United States. This 
will allow the IMTs to have a quick response across the country, 
including Alaska and Hawaii, through ground and/or air transportation 
provided through support from the Coast Guard.
    Our goal in fiscal year 2005 is for IMTs to be fully activated 
within 15 hours of initial disaster notification and to have an average 
IMT response time for arrival at a disaster site within 22 hours. Our 
current average response time for all existing response teams is 72 
hours for arrival on scene; the response time for the IMTs will help to 
reduce this overall average to 60 hours by fiscal year 2005. Geographic 
proximity and transportation support will be crucial to achievement of 
this goal.
    At this point, we are concentrating on the establishment of the 
four teams planned for fiscal year 2005. It would not be fiscally 
responsible for us to plan for additional teams until we have 
thoroughly tested our capability with the four teams. We plan to 
conduct a thorough review of each team through exercises, 
credentialing, and after-action remediation before we make a 
determination on needs for future development. In order to provide 
support to the IMTs, we are also developing augmentation plans that 
will seamlessly link our regions and existing team structure to the 
IMTs.
    We anticipate that the $6.2 million budget will be programmed in 
outyears to provide maintenance of caches and equipment, exercise 
support, training, further development, and planning support for the 
IMTs.
    In the future, the IMTs will be referred to as Federal Initial 
Response Support Teams (FIRST), a name which differentiates them from 
existing response teams and which follows incident management protocols 
more closely. This name change is proposed in the draft National 
Response Plan (NRP) and will be made official when the NRP is 
finalized.
    Questions. The President's budget request includes a $1.8 million 
increase for the Mobile Emergency Response System to develop a 
temporary workforce to assist in the daily operations, deployments and 
necessary training and exercise programs to ensure that all response 
teams can provide a 24-hour response time to communities impacted by 
disasters, emergencies, terrorist events, or weapons of mass 
destruction incidents.
    How is this workforce trained, maintained, and called into action 
when needed? In general, how will the temporary workforce operate?
    How many workers make up the temporary workforce?
    What is the projected annual funding requirement to maintain the 
Mobile Emergency Response System?
    Answer. Every effort will be made to hire experienced personnel who 
are already trained, qualified, and experienced in the desired general 
skill areas. Once hired, they will be paired with permanent full-time 
employees for on-the-job-training on specific systems. Their skills 
will be maintained and kept current in the same manner by which the 
permanent full-time employees' skills are kept current. As new systems 
are introduced and current systems are upgraded, they will be provided 
a combination of contractor and in-house instruction. They will also be 
provided training literature and manuals as well as opportunities for 
continuing on-the-job-training. They will be called into action by 
using FEMA's Automatic Deployment Database. FEMA developed this system 
several years ago to rapidly activate and deploy its temporary 
workforce known as Disaster Assistance Employees, who provide most of 
the staffing at Disaster Field Offices.
    The Mobile Emergency Response System (MERS) temporary workforce 
will be called into action as training, daily operations, and 
deployment needs develop. In general, the temporary workforce will be 
used to reinforce and extend the capabilities of the MERS. When 
training opportunities occur, they will be activated for the period of 
the training. When deployments occur, they will be utilized in several 
important ways. They will report to the home bases to replace deployed 
permanent full-time employees to sustain ongoing daily operations. They 
will also deploy with full-time employees to increase and extend the 
scope of field operations and will deploy in the place of unavailable 
full-time employees.
    The initial goal is to have 50 MERS temporary employees. Although 
all the temporary employees will be available to assist any of the 5 
(MERS) Detachments, the initial goal will provide 10 temporary 
employees per unit. The final goal is to have 100 MERS temporary 
employees. This would equate to 20 temporary employees per unit.
    Once all hiring activities are completed, the projected annual 
funding to maintain a 100-person MERS temporary workforce is 
approximately $3.2 million.
    Questions. An increase of $5 million is requested to develop one 
fixed and one mobile module to demonstrate medical surge capacity. An 
additional $15 million is requested to develop two pilot projects to 
evaluate one fixed and one mobile medical surge facility.
    How will the locations for the pilot projects be determined?
    What follow-on appropriations will be required to support this 
project?
    What is the anticipated timeframe for expanding this project 
nation-wide?
    Answer. Department staff will develop standardized evaluation 
criteria that will be used to assess potential locations for the pilot 
projects. It is currently anticipated that a significant number of 
factors will be incorporated in the evaluation criteria, including: 
overall population of the jurisdiction; population density in and 
around the location; hazards and risks prevalent in the location 
(including natural, technological, and terrorist incidents); existing 
hospital capacity; strength and organization of existing medical 
response and public health systems; existing State or local plans for 
surge capacity; availability of existing Federal and non-Federal 
facilities with adequate storage space, site access, and proximity to 
commercial ground and air transportation; proximity to sources of 
medical equipment and pharmaceutical suppliers; and proximity to FEMA 
regional offices.
    FEMA continues to work with the Administration on the program 
details and budgetary requirements for future years.
    It is anticipated that if the program is funded beginning in fiscal 
year 2005 without delay, procurement will begin for the two pilot units 
in fiscal year 2005.

                        URBAN SEARCH AND RESCUE

    Question. Why has the administration requested only $7 million to 
support the FEMA urban search and rescue program when the annual 
preparedness grants of $150,000 that were previously generated under a 
$7 million budget were insufficient to properly maintain and operate 
these task forces?
    Answer. A funding level of $7 million is requested for Urban Search 
and Rescue (US&R) for fiscal year 2005. The program will be funded in 
the Preparedness, Mitigation, Response and Recovery account, rather 
than from Disaster Relief, where it has historically been funded. Since 
2001, FEMA has received more than $100 million in both regular and 
supplemental appropriations to upgrade equipment for and to train the 
US&R teams to perform under a variety of scenarios, including those 
involving WMD.
    Question. Since all 28 teams have been made Weapons of Mass 
Destruction (WMD) capable, what is the projected funding level for 
maintaining that WMD capability in fiscal year 2005?
    Answer. The fiscal year 2005 President's Budget requests $7 million 
for the US&R program.
    Question. Although funding was provided in fiscal years 2003 and 
2004 for the purchase of a second equipment cache, is it true that FEMA 
has not moved forward on this acquisition of equipment and materials 
for the 28 task forces? If so, why not? What happened to those funds?
    Answer. The US&R program is committing funds for the 2nd Equipment 
Cache initiative. This includes $22.4 million in fiscal year 2003 funds 
and $27.3 million in fiscal year 2004 funds through an interagency 
agreement with the Defense Logistics Agency, and a subordinate 
acquisition contractor to assist the US&R program office staff and to 
allow for the bulk purchase of the myriad tools, supplies, and 
equipment that will be procured (a full cache has some 6,500 items). An 
ad hoc Tiger Team made up of US&R logistics specialists from selected 
US&R task forces has been convened to address the purchase, 
organization, cache packaging, and other necessary issues for 
developing the prototype standardized cache that will be duplicated and 
distributed to the 28 US&R task forces in the system. Initial meetings 
have already been conducted and subsequent meetings are scheduled.
    Furthermore, we are finalizing the lease of necessary warehouse 
space to allow for the receipt of the ordered items; developing the 
organization, cache packaging scheme, and mobilization load plan of a 
standardized cache; and resolving other related issues. Due to the 
large size and complexity of a full US&R cache, the procurement and 
development is being addressed in a phased approach by cache function, 
such as rescue, communications, medical, logistics, etc. To expedite 
the process, each segment will be forwarded to all task forces as the 
segment is addressed. We anticipate the warehouse lease being finalized 
in mid-March. The overall initiative is in progress and on target with 
identified timelines. We anticipate the task forces will begin 
receiving initial cache shipments in the latter half of calendar year 
2004. Fiscal year 2003 and fiscal year 2004 funding provides for the 
first- and second-year phases of the overall 3-year acquisition. 
Funding for the third phase from fiscal year 2005 is indeterminate.
    Question. There seem to have been some delays in the progress of 
enhancement intended by Congress for the urban search and rescue 
program: a lack of progress in acquiring the second equipment cache for 
all 28 task forces; delay in the acquisition of ground transportation; 
development of additional training programs and task force evaluations 
have not been accomplished. What steps are being taken to rectify the 
delays and lack of progress?
    Answer. The identified aspects of the US&R program are in process 
and on target. The US&R program is committing funds for the 2nd 
Equipment Cache initiative. This includes $22.4 million in fiscal year 
2003 funds and $27.3 million in fiscal year 2004 funds. An ad hoc Tiger 
Team made up of US&R logistics specialists from selected US&R task 
forces has been convened to address the purchase, organization, cache 
packaging, and other necessary issues for developing the prototype 
standardized cache that will be duplicated and distributed to the 28 
US&R task forces in the system. Initial meetings have already been 
conducted and subsequent meetings are scheduled.
    Furthermore, we are finalizing the lease of necessary warehouse 
space to allow for the receipt of the ordered items; developing the 
organization, cache packaging scheme, and mobilization load plan of a 
standardized cache; and resolving other related issues. We anticipate 
the warehouse lease being finalized in mid-March.
    The acquisition of ground transport vehicles, which will allow for 
movement of the US&R equipment cache, is also on target. In fiscal year 
2003 funding, $11.2 million ($400,000 per task force for trucks and 
trailers) and $3.9 million ($138,000 per task force for command and 
support vehicles) is being provided to the 28 task forces for this 
procurement at the sponsoring agency level.
    The US&R program office has received and approved the task forces' 
acquisition plans for the fiscal year 2003 acquisition. We anticipate 
that all task forces will have the truck/trailer assets in place by the 
middle of 2004. Acquisition of command vehicles will follow in the same 
vein with the awarding of the fiscal year 2004 Preparedness Cooperative 
Agreements, which are also in process.
    US&R training requirements are also in process and on target. 
Another $2 million in fiscal year 2003 funds has been committed and 
eight national US&R specialist-training classes are scheduled and being 
conducted in calendar year 2004 (including the development of three new 
classes). For fiscal year 2004, $1.9 million is being obligated for 
nine national training classes scheduled during 2005. A comprehensive 
US&R Task Force Administrative Training Course has been developed and 
was recently delivered for the sponsoring agency task force program 
managers and grants managers of the 28 task forces. The US&R Task Force 
Readiness Evaluation Program is currently under development by US&R 
program staff and selected task force members. Prototypes for US&R 
Preparedness Cooperative Agreement reporting, monthly operational 
readiness reporting (using web-based online access), and onsite peer 
evaluation/readiness checks are in progress or have been developed. We 
anticipate the pilot onsite inspections to begin in the mid-to-latter 
half of calendar year 2004.

                   EMERGENCY FOOD AND SHELTER PROGRAM

    Question. The transfer of the Emergency Food and Shelter Program 
from the Department of Homeland Security (DHS) to the Department of 
Housing and Urban Development (HUD) requires legislative action by the 
authorizing committee. Has the Department sent a request to the 
authorizing committee for legislative language to be considered? If 
not, why? If so, what is the current status of the legislative 
proposal?
    Answer. FEMA is currently working with the appropriate authorizing 
and appropriations committees on the legislative language to transfer 
the Emergency Food and Shelter program to the Department of Housing and 
Urban Development in accordance with the President's fiscal year 2005 
budget request.

                        FLOOD MAP MODERNIZATION

    Question. The fiscal year 2005 budget request includes $200 million 
for the Flood Map Modernization project. How will this funding be used?
    Answer. Fiscal year 2005 funding will be used to continue to 
implement the Multi-Hazard Flood Map Modernization Program. FEMA's 
vision for the program entails providing credible flood maps and data 
for communities nationwide that are more accurate, up-to-date, easier 
to use, and readily available. FEMA intends to accomplish the 
following:
  --Network the Nation using the latest Internet portal technology to 
        provide access to general flood hazard, risk, and mitigation 
        information, and convert the maps from paper to a digital 
        format. The information will be tailored to the needs of 
        specific partners, stakeholders, and users.
  --Leverage the use of Federal, State, and local resources, and 
        transfer ownership and use of flood maps and data to the State 
        and local levels by building and maintaining effective 
        partnerships with State, regional, and community entities in 
        the development of the maps and data
  --Use clear data standards to ensure that the modernized flood hazard 
        maps reflect the best available data that suits the risk level 
        for the given area
  --Reduce processing time and costs for flood map updates and increase 
        accountability for spending by implementing results-oriented 
        systems and standards that will facilitate the rapid exchange 
        of data between our partners, staff, and contractors
  --Communicate widely, effectively, consistently, and continuously to 
        maximize our partners', stakeholders', and users' understanding 
        of flood hazards and the risks the hazards pose to life and 
        property
    Primarily, the fiscal year 2005 funding will be used to initiate 
and complete flood map updates nationwide based on our 5-year Multi-
Hazard Implementation Plan (MHIP) for completing the work in fiscal 
years 2004 through 2008. FEMA will use the MHIP to establish goals and 
baseline with existing priorities; to document and understand flood map 
update needs identified by State, regional, and local partners and 
stakeholders; and to develop prioritization criteria and a sequence for 
scoping counties and watersheds in the priority areas based on 
floodplain management, hydrologic, hydraulics, and terrain needs. The 
MHIP will be reevaluated annually to account for changing needs, 
natural disasters, and new partnerships; to prioritize changes; and to 
update mapping priorities, as appropriate.
    FEMA will provide a precise accounting of the engineering studies 
to be performed and the flood maps to be produced once development of 
the MHIP is completed; will scope the map update projects identified in 
coordination with State, regional, and local partners and stakeholders; 
and will contract the required map updates with our contractors and 
with State, regional, and local participants in our Cooperating 
Technical Partners (CTP) program.
    Question. The final contract for the national flood map 
modernization project has been continuously delayed over the last 
several months. Why? When exactly will the contract be finalized?
    Answer. The National Service Provider (NSP) contract was awarded on 
March 11, 2004. FEMA experienced some delays in finalizing the contract 
with the NSP due to the need to ensure the completeness and accuracy of 
this performance-based contract. More discussions and negotiations were 
needed than for a conventional compliance-based contract. The NSP is 
now on the ground in each of the ten regions as well as in 
headquarters, performing in accordance with the results-based contract, 
and on schedule to deliver initial functionality.
    Question. Since this is a performance-based contract, have the 
guidelines been developed for how performance will be measured? What 
level of funding is available or will be provided for the contract for 
``independent contractor'' monitoring?
    Answer. FEMA has developed guidelines for how performance on the 
NSP contract will be measured and performance metrics have been closely 
linked to the strategic goals of DHS and FEMA.
    A detailed program management plan that outlines how performance 
will be measured has been developed. FEMA has negotiated a performance 
requirement summary with the NSP that describes each specific 
measurement and its acceptable quality levels. We have established a 
specific team that will be responsible for monitoring performance 
measurements and reporting results on a frequent basis.
    FEMA has assigned specific responsibilities for monitoring and 
measuring not only the contract performance, but program performance as 
well. We are providing the NSP with incentives to effectively manage 
all mapping activities and build partnerships and capabilities while 
producing high-quality flood maps using accurate, credible data.
    In addition, FEMA is procuring the services of an independent 
contractor to help monitor the NSP's performance and to verify that 
program outcomes are truly achieved. The projected funding level for 
this independent contractor is approximately $1.2 million for fiscal 
year 2004.
    Question. There is concern about conflict of interest with the 
company who has won the national contract and how much work they may be 
doing on the sub-contractor level. Are there guidelines in place to 
ensure there is no conflict of interest? How will identified conflicts 
of interest be avoided or mitigated?
    Answer. During the source selection process, one of the key issues 
was identifying mechanisms to avoid conflicts of interest or the 
appearance of conflict. Each offeror included presentations on means of 
avoiding such conflicts. The contract has established that the NSP will 
have an aggressive Organizational Conflict of Interest (OCI) management 
program consistent with Federal Acquisition Regulation 9.5.
    The NSP, which is a team of experienced contractors led by one 
primary contractor, has proposed a conflict of interest management 
approach that will be put into place upon contract award. Under the 
proposed approach, the prime contractor will not pursue any contracts 
for engineering studies with our regional offices or with States under 
our CTP program. The proposed approach also includes a reporting 
requirement for all other members of the NSP team to disclose all 
ongoing contracts and pursuit of contracts to the prime contractor for 
screening to identify potential OCI issues, perceived or actual. The 
prime contractor will inform our Contracting Officer in writing of any 
work that could pose a potential OCI so that appropriate measures may 
be taken to eliminate the OCI.
    Question. Without valid data the people at the State and local 
level won't have confidence in the maps, making them virtually useless. 
What guidelines are in place for an independent review of the process 
itself and the new digitized maps to ensure the revised maps have valid 
data? How will FEMA ensure that the flood hazard ``data'' has been 
updated or is current before converting it into new digital maps?
    Answer. A fundamental tenet of the Multi-Hazard Flood Map 
Modernization Program is that State and local involvement in the 
modernization of the flood maps is essential for program success. 
State, regional, and local partner involvement is particularly vital 
for the identification and use of best available, accurate data that 
are appropriate for the flood risk in the area being mapped. We are 
maximizing our partners' involvement and contributions in this critical 
area by establishing clear quality standards; by making appropriate use 
of Internet technology, automated data collection and processing tools; 
and through use of independent quality reviews.
    FEMA has developed criteria for assuring the quality of flood 
hazard maps and supporting data. FEMA implemented Digital Flood 
Insurance Rate Map base map standards in 1998 and Light Detection and 
Ranging system standards in 2000. Both standards were updated when the 
consolidated Guidelines and Specifications for Flood Hazard Mapping 
Partners was published in February 2002.
    State, regional, and local review and acceptance of new and 
existing data will be achieved at key milestones throughout the flood 
map update process--from the initial identification of flood map update 
needs as part of the MHIP, to the scoping of the flood map update, to 
the preparation and adoption of the final maps.
    Through our web-based flood hazard data collection and delivery 
system, we will make component data, such as topographic data, 
available for use by our mapping partners as it is developed. This will 
allow for data quality verification at the State, regional, and local 
levels at numerous points in the flood map update process. These 
reviews will help to assure that the data reflect a level of analysis 
and effort commensurate with the flood risk faced by the mapped 
communities.
    In addition to providing access to the data as it is developed, we 
are assuring quality by providing data collection and processing tools 
for our partners and contractors to use in performing map update 
projects. These tools have been designed with quality checks built in 
to minimize errors and to assure internal consistency in the collection 
and processing of the data. To ensure the tools are used properly, we 
will provide appropriate training and support to the partners and 
contractors who are using the tools for map update projects.
    FEMA is using the latest Internet portal technology to allow State, 
regional, and local partners to obtain current status information on 
the progress of a map update. This access will give our partners a more 
significant role in the management of the program.
    Furthermore, FEMA has incorporated a quality standard into the 
performance measurement system for the program, and plans to establish 
an independent contract to perform independent verification and 
validation and to measure the quality of the products produced. The 
independent contractor also will help monitor the NSP's performance and 
verify that program outcomes are achieved.
    Finally, FEMA is continuing the very effective practice of 
requiring independent quality reviews as part of the flood map update 
process. This practice was institutionalized when we published our 
consolidated Guidelines and Specifications for Flood Hazard Mapping 
Partners in February 2002. We include the independent quality review 
requirement in all mapping project-related contract documents developed 
with our contractors and with participants in the CTP program. These 
independent reviews help to assure map updates are completed 
efficiently and are consistent with FEMA standards.
    By requiring independent quality reviews throughout the map update 
process, we are assuring that products resulting from each activity 
meet FEMA standards before the next activity is started. We also are 
assuring that the maps and related products and data are internally 
consistent. These reviews also provide an opportunity for providing 
task-specific training to partners who may not be completely familiar 
with FEMA quality standards. The frequent independent quality reviews 
also eliminate the costly rework that can result when an error is made 
early in the processing and is not identified before processing 
continues.
    Question. Is the schedule of trying to have completely revised, 
digitized flood maps for the entire country in 5 years realistic?
    Answer. Based on our current schedule, we believe our plan for 
preparing and distributing updated, digitized flood maps is realistic. 
However, we will be better prepared to provide a precise accounting of 
the type of engineering study to be performed in each county when we 
complete the development of our 5-year implementation plan (MHIP); 
scope the map update projects identified in coordination with State, 
regional, and local partners and stakeholders; and contract the 
required map updates with our contractors and participants in our CTP 
program.
    Question. Is $200 million a year still an accurate estimate of the 
cost for this project, not just to convert the old paper maps into 
digitized maps but to truly revise them with the most accurate flood 
plain data? Are we sacrificing quality at any level for quantity of 
maps completed?
    Answer. Based on the information we have to date, we believe the 
funding requested will be adequate to meet our initial program goals. 
We will validate our original program baseline and provide a precise 
accounting of when and how the funding will be expended later this 
year, after we have completed the development of our 5-year 
implementation plan (MHIP), scoped the map update projects identified; 
determined the contributions that may be made by State, regional, and 
local partners through the CTP program; and contracted the required map 
updates.
    One of the primary objectives that our NSP was asked to meet was 
the creation of credible flood maps for use by partners, stakeholders, 
and other users. The maps will reflect the best data available and will 
be appropriate for the level of risk associated with the mapped area.
    In addition, we have incorporated a quality standard into our 
program performance standards to ensure quality of maps produced.
    Question. Beyond the 5 years anticipated to complete the project, 
how much follow-on funding is anticipated in the out-years to maintain 
the digitized map?
    Answer. At the present time, we cannot formulate a precise cost for 
maintaining the digitized maps. The cost of maintaining the digitized 
maps will depend on several factors, including the total cost savings 
realized by eliminating routine production of paper maps (e.g., manual 
updates, warehousing), and the level of State and local participation 
in maintaining the new maps that will be realized by expanding our CTP 
program. We will be able to estimate the maintenance budget for the 
program after we complete our 5-year implementation plan (MHIP); 
coordinate with States, regional agencies, and local communities; and 
assess each State's desired level of program participation as 
identified in its State Business Plan.
                                 ______
                                 

               Question Submitted by Senator Ted Stevens

    Question. FEMA Region X has denied the use of Stafford Act disaster 
funds for two airports in Alaska (Northway Airport and Gulkana 
Airport). The repairs of these airports total $13,675,693. FEMA claims 
that it does not have the authority to perform these repairs and claims 
that the Federal Aviation Administration is authorized to perform these 
repairs. The FAA disagrees and claims that its agency lacks authority 
to provide for disaster repairs. Who has the legal responsibility for 
repairs to disaster damaged runways and airports?
    Answer. The appeal from the State of Alaska has been received and 
is currently under review. We will notify your office once a decision 
has been reached and the applicant has been informed.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

    Question. What percentage of fiscal year 2003 and fiscal year 2004 
EMPG funds are being used to pay salaries nationally? Please provide 
breakouts by State and include State and local government personnel 
expenses.
    Answer. In an attempt to be as responsive as possible to the 
questions of the Committee, we have developed the information in the 
table below. It is a statistical extrapolation based on budget levels 
for ``Personnel'' and ``Fringe Benefits'' submitted by the States on 
FEMA Form 20-20, ``Budget Information--Non-construction Programs.'' The 
States are not required to maintain or to submit detailed information 
on the exact percentages of their personnel costs funded with Emergency 
Management Performance Grant (EMPG) funds, therefore, we must emphasize 
that the data and methodology underlying this analysis are of known 
inadequacy, and the results below may not provide a complete or 
accurate assessment of the amount of EMPG funds used to pay salaries.
    The indications that we are able to derive from this analysis are 
that the amount of the Federal share of EMPG funds budgeted by the 
States for salaries and fringe benefits varies greatly, ranging from 
about 16 percent to about 72 percent. The average of the percentages 
was about 37 percent. For the Insular Areas, which are not required to 
share cost, the percentages ranged from about 56 to about 72 and 
averaged about 67 percent.
    Very little data is available for use of pass-through, or subgrant, 
EMPG funds for salaries and benefits at the local level. What we do 
have indicates that the number is higher than at the State level, 
probably averaging 80 percent or more.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                             Estimated
                                                                                                            Percent of                      Percent of
                      Reg./St. Name                        EMPG  Federal     Personnel        Fringe      Federal  Share     Estimated     Pass-through
                                                               Share                         Benefits     for  Salaries/   Pass-through      Salaries/
                                                                                                              Fringe                          Fringe
--------------------------------------------------------------------------------------------------------------------------------------------------------
National Totals.........................................     154,885,912      75,144,375      16,416,336           37.40     115,843,873  ..............
Region 1................................................      12,185,673       7,177,474       2,189,927           34.75       7,164,177  ..............
    Connecticut.........................................       2,407,428       1,477,757         603,221           43.22       1,404,291  ..............
    Maine...............................................       1,609,597         611,124         291,873           28.05       1,464,192  ..............
    Massachusetts.......................................       3,457,781       3,062,227         673,690           54.02       1,595,952  ..............
    New Hampshire.......................................       1,667,748         733,957         237,289           29.12         959,703  ..............
    Rhode Island........................................       1,599,677         891,015         285,125           36.76       1,136,623  ..............
    Vermont.............................................       1,443,442         401,394          98,729           17.32         603,416  ..............
    Region 2............................................      15,011,754       4,632,915       1,311,370           45.25       2,742,707  ..............
    New Jersey..........................................       4,139,084       1,031,739         201,641           29.80       1,672,122  ..............
    New York............................................       7,703,460       2,500,000         859,250           43.61         215,085  ..............
    Puerto Rico.........................................       2,536,400         737,895         156,026           35.24         855,500  ..............
    Virgin Islands......................................         632,810         363,281          94,453           72.33  ..............
Region 3................................................       7,329,496       5,003,332       1,383,750           46.67       6,025,436  ..............
    Delaware............................................  ..............  ..............  ..............  ..............  ..............  ..............
    District of Columbia................................       1,501,603       1,793,206         284,000           69.17         410,000  ..............
    Maryland............................................  ..............  ..............  ..............  ..............  ..............  ..............
    Pennsylvania........................................  ..............  ..............  ..............  ..............  ..............  ..............
    Virginia............................................       3,889,095       2,306,396         810,356           40.07       3,195,436  ..............
    West Virginia.......................................       1,938,798         903,730         289,394           30.77       2,420,000  ..............
Region 4................................................      29,591,145      18,954,422               0           33.48      25,329,569  ..............
    Alabama.............................................       3,823,967       3,696,461  ..............           48.33       2,500,000  ..............
    Florida.............................................       7,233,935       2,617,511  ..............           18.09       4,279,886  ..............
    Georgia.............................................       4,123,419       4,040,060  ..............           48.99       3,687,500  ..............
    Kentucky............................................       1,809,701       1,309,020  ..............           36.17       1,340,853
    Mississippi.........................................       2,318,816       1,521,486  ..............           32.81       1,936,342  ..............
    North Carolina......................................       4,253,671       2,399,006  ..............           28.20       5,149,520  ..............
    South Carolina......................................       2,669,936       1,320,078  ..............           24.72       3,317,468  ..............
    Tennessee...........................................       3,357,700       2,050,800  ..............           30.54       3,118,000  ..............
Region 5................................................      24,931,917      11,509,247       4,558,027           30.80      22,249,984  ..............
    Illinois............................................       5,580,907       3,608,501       1,479,486           45.58       2,927,069  ..............
    Indiana.............................................       3,365,504       1,200,538         497,218           25.22       4,288,816              87
    Michigan............................................       4,709,793       2,504,359       1,192,078           39.24       3,034,000  ..............
    Minnesota...........................................       2,972,911       1,294,766         455,809           29.44       3,547,586              78
    Ohio................................................       5,184,208       1,981,083         553,436           24.44       3,852,513              86
    Wisconsin...........................................       3,118,594         920,000         380,000           20.84       4,600,000              88
Region 6................................................      17,990,977       4,333,511       1,184,259           28.34      11,282,574  ..............
    Arkansas............................................       2,179,451       1,376,311         415,921           41.12         991,384              41
    Louisiana...........................................       2,791,271         673,366         121,206           28.47       1,581,860              93
    New Mexico..........................................       1,862,907         331,978         107,487           23.59       1,244,156              75
    Oklahoma............................................       2,415,000         531,156         137,871           27.70       1,764,007  ..............
    Texas...............................................       8,742,348       1,420,700         401,774           20.85       5,701,167              75
Region 7................................................       6,752,153       4,277,632       1,152,392           38.98       6,945,990  ..............
    Iowa................................................       1,600,520       1,094,279         364,760           45.58           5,000  ..............
    Kansas..............................................       1,511,233         850,063         212,712           35.16       3,230,491  ..............
    Missouri............................................       2,295,781       1,712,376         428,095           46.62       1,954,000  ..............
    Nebraska............................................       1,344,619         620,914         146,825           28.55       1,756,499  ..............
Region 8................................................      11,212,298       4,176,758       1,244,091           28.98      11,553,304  ..............
    Colorado............................................       2,899,310       1,079,936         152,671           21.26       3,949,354  ..............
    Montana.............................................       1,621,942         693,757         222,002           28.23       2,173,008  ..............
    North Dakota........................................       1,524,180         651,240         201,884           27.99       2,137,116  ..............
    South Dakota........................................       1,569,201  ..............            0.00  ..............  ..............
    Utah................................................       2,121,554         978,743         431,343           33.23       2,373,456  ..............
    Wyoming.............................................       1,476,111         773,082         236,191           34.19         920,370  ..............
Region 9................................................      21,734,734      10,460,851       1,968,488           48.28      12,300,869  ..............
    Arizona.............................................       3,123,049       4,104,686         416,372           72.38          45,308  ..............
    California..........................................      13,350,374       3,599,274         690,715           16.07       6,735,231  ..............
    Hawaii..............................................       1,676,149       1,338,168         431,158           52.78       2,022,655  ..............
    Nevada..............................................       1,992,530         646,106         201,491           21.27       3,036,516  ..............
    American Samoa......................................         431,942         243,092          46,176           66.97          10,756  ..............
    Guam................................................         589,350         299,847         117,248           70.77          84,365  ..............
    CNMI................................................         471,340         202,678          62,628           56.29         366,038  ..............
    FSM.................................................          50,000  ..............  ..............            0.00  ..............  ..............
    RMI.................................................          50,000          27,000           2,700           29.70          20,300  ..............
Region 10...............................................       8,145,765       4,618,233       1,424,032           42.81      10,249,263  ..............
    Alaska..............................................       1,173,241       1,223,577         429,905           70.47         693,000  ..............
    Idaho...............................................       1,501,310       1,090,683         368,881           48.61       1,543,055              63
    Oregon..............................................       2,205,226         721,252         274,074           22.57       3,415,126              79
    Washington..........................................       3,265,988       1,582,721         351,172           29.61       4,598,082  ..............
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. What percentage of fiscal year 2003 and fiscal year 2004 
EMPG are being used for homeland security activities nationally? Please 
provide this information for each State.
    Answer. State and local entities have not been required to maintain 
detailed reports which segregate their program expenditures on a 
percentage-of-use basis.
    That being said, FEMA would contend that very nearly all of the 
State and local emergency management agencies' resources are being used 
for all-hazards preparedness activities, including terrorism. The 
capabilities developed and maintained in such areas as training, 
exercising, command and control, communications, and even 
administration are essential for homeland security (as broadly defined) 
as well as for hurricanes, earthquakes, floods, hazardous materials 
accidents, plane crashes--any and all mass-casualty situations.
    Question. On what equipment, training and exercises were the fiscal 
year 2003 fire grants spent? What was requested?
    Answer. Below is a list of eligible equipment and training under 
the Assistance to Firefighters Grant Program. Approximately $440 
million to $460 million was expended in fiscal year 2003 on these kinds 
of items. These represent 80-85 percent of the activities supported for 
and applied for under the Fire Operations and Firefighter Safety and 
Emergency Medical Services (EMS) program areas. The Fire Operations and 
Firefighter Safety program area is the largest request area in the 
program, representing 13,888 of the 20,136 applications initially 
submitted, and nearly $1.377 billion of the $2.468 billion (inclusive 
of non-Federal share) requested. EMS applications totaled 216 for 
$14,145,120.

                      Basic Firefighting Equipment

Adapters, Wyes, & Siamese
Foam eductors and foam concentrate
Hose--(3\1/2\ inches or less)
Hose--Large Diameter (LDH 4 inches or larger)
Hydrant and spanner wrenches
Ladders
Nozzles
Portable deluge sets
Power saws
Ropes, harnesses, carabineers, pulleys, etc.
RIT pack
Wildland
Other basic equipment
                             Communications
Base station
Computer aided dispatch (CAD)
Computers
Headsets
Mobile radios
Mobile date terminal (MDT)
Pagers
Two-way pagers
Portable radios
Repeaters
Other communications
                                  EMS
ALS airway equipment
BLS airway equipment
Suction
Automated external defibrillators (AED)
Defibrillator/monitor
Blood pressure cuffs
Pen lights
Pulse oximeters
Stethoscopes
Thermometers
Backboards
Cervical collars
Splints
Vest extrication devices
Other EMS

                               EMS/Rescue

AEDs
Powered/mechanical extrication tools/equipment
Stretchers, backboards, splints, etc.
Technical rescue equipment
Various supplies
Other EMS/rescue

                      Hazardous Materials (Hazmat)

Computers
Decontamination, clean-up, containment, and packaging equipment
Monitoring and sampling devices
Reference library
Spark-proof tools
Suppression
Other Hazmat

                             Investigation

Cameras
Lights, portable
Computers
Monitoring and sampling devices
Hand tools
Other investigation

                              Specialized

All-terrain vehicles
Rehab equipment
Compressors/cascade/fill station (fixed)
Skid unit
Compressors/cascade/fill station (mobile)
Thermal imaging devices
Fixed generator
Washer
Portable/mobile generator
Boats (13 feet in length and under)
Portable pump
Other specialized

                PERSONAL PROTECTIVE EQUIPMENT (PPE) LIST

                               Structural
Helmets
Pants, coats
Boots
Goggles
Gloves
Hoods
PASS devices
Accountability systems
Flashlights
Complete set of turnout
Hearing protection

                              Respiratory
Self-contained breathing apparatus (SCBA)--30 minutes with face piece--
no extra bottle
SCBA--30 minutes with face piece--with extra bottle
SCBA--45 minutes with face piece--no extra bottle
SCBA--45 minutes with face piece--with extra bottle
SCBA--60 minutes with face piece--no extra bottle
SCBA--60 minutes with face piece--with extra bottle
Spare cylinders-30 minutes
Spare cylinders-45 minutes
Spare cylinders-60 minutes
Face pieces
Respirators
Air-line units

                                Wildland
Helmets
Boots
Goggles
Gloves
Pants, coats
Jumpsuits/coveralls
Accountability systems
Shelters
Canteens

                   Weapons of Mass Destruction (WMD)
SCBA/chemical/biological/radiological/nuclear environment respirators
Chemical/Biological Suits (Must conform to NFPA 1994, 2001 edition)
Other WMD-related PPE

                               Other PPE
Encapsulated Suits
Tyveck suits
Splash suits
Escape masks
Proximity and entry suits
Wet and dry suits
Infection control

                      TRAINING PROGRAM TITLES LIST
Operations (NFPA 472)
Firefighter I, Firefighter II (NFPA 1001)
Instructor Training (NFPA 1041)
Driver/Operator (NFPA 1002)
Officer Training (NFPA 1021)
Basic Wildland Firefighting
Wildland Firefighter Certification
Airport Rescue Firefighting (ARFF) (NFPA 1003)
RIT Training
Confined Space Rescue--Awareness level
Vehicle Rescue
Technical Rescue/Urban Search and Rescue--Awareness level (NFPA 1670/
1006)
Technical Rescue/Urban Search and Rescue--Operations level (NFPA 1670/
1006)
Technical Rescue/Urban Search and Rescue--Technician level (NFPA 1670/
1006)
Hazmat--Technician/Specialist level
Infection Control (NFPA 1581)
Medical First Responder Training
Emergency Medical Technician--Basic (EMT B)
Emergency Medical Technician--Intermediate (EMT I)
Paramedic Training (EMT-P)
Mass Casualty Incident Training (MCI)
NIIMS (Unified Command)
Incident Management Course (IMC)
Integrated Emergency Management Course (IEMC)
Fire Inspector (NFPA 1031)
Fire Investigator (NFPA 1033)
Fire Educator (NFPA 1035)
Telecommunications/Dispatcher
Safety Officer

    Question. TOPOFF 2 highlighted the fact that a large-scale 
bioterrorism attack does not qualify as a Major Disaster under the 
Stafford Act. How did the Emergency declaration differ from the 
response and resources that a Disaster would have triggered? Is a 
legislative change to the Stafford Act necessary? Will you request such 
a change?
    Answer. The scenario in TOPOFF 2 did result in an emergency 
declaration. The Stafford Act provides authority for the President to 
declare either a major disaster or an emergency, as a situation may 
warrant. In the case of TOPOFF 2, where the nature of the incident was 
not one contemplated for major disaster declarations, an emergency 
declaration was determined to be appropriate. The emergency declaration 
makes available the same response resources and assistance as would be 
available for a major disaster. It also makes available assistance for 
individuals under the Individuals and Households Program. The primary 
difference in assistance that would be available under a major 
disaster, but not for an emergency declaration, is assistance for the 
repair, replacement, and restoration of public facilities that sustain 
physical damage from the event. This was not a factor in the 
bioterrorism attack in TOPOFF 2, nor would it be expected to be a 
factor in such types of events in general. In contrast, should a 
terrorist event also include fire or explosion, it then would be within 
the type of event contemplated as a major disaster under the Act; as a 
practical matter, public assistance would then be available to address 
physical damages likely to occur in such cases. Accordingly, it is 
FEMA's position that the types of events that are addressed by major 
disaster or emergency declarations, respectively, are adequate and 
appropriate to the types of assistance available under the respective 
declaration authorities of the Stafford Act.
    Question. What is currently contained in the Strategic National 
Stockpile? How will fisccal year 2004 and proposed fiscal year 2005 
funds be spent? How much anthrax vaccine is needed? From where will the 
Department procure the needed anthrax vaccine, and how long will the 
process take?
    Answer. The Strategic National Stockpile currently contains anthrax 
exposure treatments, smallpox vaccine, nerve agent treatment, and 
radiation countermeasures, as well as a limited amount of botulinum 
antitoxin.
    Proposed Stockpile funding for fiscal year 2004 and fiscal year 
2005 will be used to sustain its 12-Hour Push Packages and Vendor 
Managed Inventory, to increase stocks for anthrax antibiotics and 
vaccine, to purchase smallpox vaccine, and to develop botulinum 
antitoxin plasma. The Weapons of Mass Destruction (WMD) Medical 
Countermeasures subcommittee, an interagency group co-chaired by the 
Department of Health and Human Services (HHS), DHS, and the Department 
of Defense, has recommended the eventual procurement of enough anthrax 
vaccine to inoculate 25 million people.
    HHS will be the procurement agent for the anthrax vaccine and will 
request proposals for the vaccine development. The time requirement for 
the actual procurement of the vaccine will be dependent on clinical 
trials and Food and Drug Administration (FDA) licensure processes.
    The Stockpile currently maintains a small amount of the only FDA-
licensed pre-exposure vaccine against anthrax (Anthrax Vaccine 
Adsorbed, or AVA). Currently, it has limited production capacity, and 
rectifying that problem would be very expensive and take several years 
to accomplish. AVA is not currently licensed for children or for the 
elderly. However, in order to ensure that some type of anthrax vaccine 
is available until the development and procurement of rPA, DHS and HHS 
have signed an interagency agreement for the purchase of AVA through 
the Department of the Army. This agreement will provide approximately 2 
million doses in fiscal year 2004, 1.5 million doses in fiscal year 
2005, and 1.5 million doses in fiscal year 2006.
    Question. Please detail how the fiscal year 2004 and fiscal year 
2005 proposed funding for Project BioShield will be spent.
    Answer. Over the past 10 months, the WMD Medical Countermeasures 
subcommittee has developed countermeasures information of interest to 
administration policymakers who will make the BioShield procurement 
decisions. The WMD subcommittee commissioned an end-to-end analysis of 
medical countermeasures to Category ``A'' biological agents (anthrax, 
smallpox, plague, botulinum toxin, tularemia, Ebola, and other 
hemorrhagic fever viruses). Working groups developed initial 
requirements for four high-priority bioweapon countermeasures for which 
there is high need and a reasonable expectation that products will be 
available in the near term:
  --Next generation anthrax vaccine (recombinant Protective Antigen, 
        rPA)
  --Anthrax immune therapy
  --Next generation smallpox vaccine (modified vaccinia, MVA or LC16m8)
  --Botulinum antitoxin
    Question. Provide the status of the Disaster Relief Fund. What are 
the carryover funds from fiscal year 2004, current balance?
    Answer. As of March 10, 2004, the unobligated balance in the 
Disaster Relief Fund was $1.813 billion. The fiscal year 2005 budget 
request includes an estimated carryover of $453 million from fiscal 
year 2004 into fiscal year 2005.
    Question. What is the justification for requesting $0 for the 
Metropolitan Medical Response System? Provide a legislative history of 
MMRS, including its genesis and original intent. What costs are 
incurred by EP&R, and what costs are incurred by local governments? 
What will EP&R's role be in the MMRS if no funds are appropriated in 
fiscal year 2005? How many cities are expected to continue the program 
without Federal resources support?
    Answer. The funds that Congress has appropriated for the 
Metropolitan Medical Response System (MMRS) over the last several years 
have been used to establish certain capabilities, to get the program up 
to its baseline, and to facilitate transfer of the program to the 
localities for continuation, once the baseline is established. We will 
reach the baseline this fiscal year (2004), and therefore no additional 
funding is being requested. Since 1995, the Federal Government has 
publicly articulated a necessity to improve planning and response to 
acts of terrorism involving WMD. The Defense Against Weapons of Mass 
Destruction Act of 1996, Public Law 104-201, states in Section 1412--
Emergency Response Assistance Program, paragraph (h)(2), ``Of the 
amount available for the program pursuant to paragraph (1), $10,500,000 
is available for use by the Secretary of Defense to assist the 
Secretary of Health and Human Services in the establishment of 
metropolitan emergency medical response teams (commonly referred to as 
`Metropolitan Medical Strike Force Teams') to provide medical services 
that are necessary or potentially necessary by reason of a use or 
threatened use of a weapon of mass destruction.''
    In 1997, HHS initiated the MMRS program to provide support for the 
development of a response system in the event of a terrorist attack. On 
March 1, 2003, the MMRS program was transferred to DHS.
    DHS is responsible for sponsoring the MMRS program, a system-based 
approach to mass casualty/surge capacity preparedness and response, 
developed to enhance existing local first responder, medical, public 
health, and emergency planning in the event of a terrorist attack. 
Through contracts administered by FEMA, DHS is responsible for 
providing funding and technical assistance to plan, develop, equip, and 
identify training to local governments in 125 identified jurisdictions, 
based on threat and population.
    MMRS program duties have been absorbed as additional duties by 
existing FEMA staff. Costs to absorb these duties include approximately 
$770,000 to fund regional salaries, set at 50 percent of the time for 
18 staff members currently administering the program; approximately 
$408,000 to fund two staff years at the Noble Training Center and two 
staff years at headquarters; and an estimated $350,000 for travel. 
There are no cost-sharing requirements for local governments.
    Secretary Ridge has proposed a reorganization (a letter was sent to 
Members of Congress on January 26, 2004), wherein the MMRS program for 
fiscal year 2004 will be transferred to a newly established Office of 
State and Local Government Coordination and Preparedness. Under this 
arrangement, FEMA would have no further role in the MMRS program for 
fiscal year 2004, and there will be no Federal program in fiscal year 
2005.
    We cannot precisely estimate the number of local jurisdictions that 
would continue the MMRS program without Federal resources support. We 
are fairly certain that a large number of them, as an element of 
prudent preparedness and operational necessity, will attempt to 
maintain MMRS-type mass casualty integrated response preparedness and 
seek to use Federal funds from other programs to support eligible 
portions of MMRS-type capabilities.
    Question. Provide specific examples of capacity at the Department 
of Housing and Urban Development that FEMA does not have for operating 
the Emergency Food and Shelter program.
    Answer. The Department of Housing and Urban Development (HUD) is 
the primary Federal agency responsible for the administration of 
homeless assistance programs. While FEMA has successfully administered 
the Emergency Food and Shelter (EFS) program over the years, there are 
ways that the program could be improved by moving it to HUD. 
Specifically, the following examples demonstrate the capacity of HUD to 
operate the program:
  --HUD, as mandated by Congress, is currently assessing all homeless 
        assistance programs to determine the need for structural 
        changes to the programs in order to address the President's 
        goal to end homelessness in the next 10 years. The EFS program 
        is the only homeless assistance program not included in this 
        assessment. In order to ensure an integrated approach to 
        assisting persons facing housing emergencies and to meet this 
        goal, it would be more logical for the program to be 
        administered by HUD. FEMA does not have the capacity to perform 
        this requirement.
  --HUD is able to link housing and supportive services for chronically 
        homeless persons to other comprehensive services through its 
        numerous other homeless assistance programs and mainstream 
        housing programs. FEMA does not have any other homeless 
        assistance programs.
  --HUD has the staffing and financial resources to improve the 
        administration and delivery of the EFS program.
  --HUD has the capacity to ensure that homeless assistance/prevention 
        programs are not duplicative, allowing for scarce resources to 
        be utilized more efficiently and effectively. Currently, the 
        EFS program provides funding to the same agencies that HUD 
        programs fund for the same services and individuals. FEMA does 
        not have the capacity to monitor which agencies are duplicating 
        services.
  --As FEMA's mission evolves under the Department of Homeland 
        Security, its resources must be focused entirely on natural 
        disasters and catastrophic events, such as the terrorist 
        attacks of 9/11. The EFS program does not fit within the goals 
        and objectives of DHS or of FEMA.
    Question. How many staff vacancies do you have in EP&R at this 
time?
    Answer. Vacancies in directly funded programs total 256. This 
excludes the Disaster Relief Fund and 88 newly funded positions in the 
Mitigation program for Flood Map Modernization and Pre-disaster 
Mitigation activities.
    Question. Provide the numbers of FTE that have been detailed and 
transferred out of FEMA since the Department was created. From which 
offices were the transfers made, and to which offices did FTE go?
    Answer. In fiscal year 2003, there were 200 FTE budgeted for FEMA's 
Office of Inspector General, which transferred in its entirety to the 
Department. The only transfers of positions that have occurred are 
those positions associated with the Office of Inspector General; no 
other FEMA positions have been transferred. FEMA has documented 
approximately 85 FTE details since March 1, 2003, to various components 
of the Department.
    Question. Provide the number of positions (filled and unfilled) and 
the Salaries and Expense funds spent within each FEMA office, before 
February 1, 2003 and currently. Please indicate which positions are in 
the regional offices and the headquarters offices. Do not include EP&R 
FTE detailed out of the Directorate.
    Answer. The tables below provide the positions and Salaries and 
Expense in FEMA as of February 1, 2003, and as of February 21, 2004.

                              FEBRUARY 2003
------------------------------------------------------------------------
                                                Positions
------------------------------------------------------------------------
          Organization           Encumbered   Vacant  TOTAL \1\    S&E
------------------------------------------------------------------------
Office of Director.............         15         4        19      $968
National Security..............         27        20        47       905
General Counsel................         31         3        34     1,184
Equal Rights...................         10         0        10       283
Regional Operations............          3         0         3       107
Inspector General..............    ( \2\ )   ( \2\ )   ( \2\ )   ( \2\ )
External Affairs...............         52         7        59     1,853
Administration & Resource                4         1         5       210
 Planning \3\..................
Human Resources................         62         2        64     2,103
Financial & Acquisition                130        21       151     4,365
 Management....................
Facilities Management..........         64         7        71     7,876
Response & Recovery............        327        69       396    12,675
Fed. Insurance & Mitigation....        153        27       180     5,607
U.S. Fire Administration.......        196         7       203     6,272
National Preparedness..........         74         7        81     2,759
Information Technology.........        191        17       208     6,867
                                ----------------------------------------
      Subtotal Headquarters....      1,339       192     1,531    54,033
                                ----------------------------------------
      Subtotal Regions.........        771        45       816    25,991
                                ----------------------------------------
      TOTAL....................      2,110       237     2,347    80,024
------------------------------------------------------------------------
\1\ In 2003, encumbered total excludes positions funded under Disaster
  Relief and the Working Capital Fund.
\2\ Inspector General (IG) personnel activity was handled by Bureau of
  Public Debt. In fiscal year 2004, the entire IG office was transferred
  to the Department of Homeland Security.
\3\ Office abolished in 2003.


                              FEBRUARY 2004
------------------------------------------------------------------------
                                                Positions
------------------------------------------------------------------------
          Organization           Encumbered   Vacant  TOTAL \1\    S&E
------------------------------------------------------------------------
Office of the Under Secretary..         22         4        26    $1,022
National Security..............         38        12        50     1,579
General Counsel................         32         3        35     1,221
Equal Rights...................          9         1        10       275
Regional Operations............          3         1         4       106
External Affairs...............         40        14        54     1,643
Human Resources................         55        10        65     1,711
Financial & Acquisition                140        16       156     4,504
 Management....................
Facilities Management..........         60         8        68     8,009
Recovery.......................         73         7        80     2,939
Mitigation.....................        148        32       180     5,662
Preparedness...................        249        38       287     8,006
Response.......................        314        51       365    13,582
Information Technology.........        174        22       196     7,013
                                ----------------------------------------
      Subtotal Headquarters....      1,357       219     1,576    57,272
                                ----------------------------------------
      Subtotal Regions.........        770        37       807    25,966
                                ----------------------------------------
      TOTAL....................      2,127       256     2,383    83,238
------------------------------------------------------------------------
\1\ In 2004, encumbered total excludes positions funded under Disaster
  Relief, National Disaster Medical System, and the Working Capital
  Fund.

    Question. Also please provide the number of Senior Executive 
Service positions which FEMA had on Feb. 1, 2003 and the number it has 
now. Please include the filled and vacant, indicate political and 
career and the division or department. If a position has been moved, 
indicate where it was located before and to where it has been 
transferred.
    Answer. The tables that follow provide the number of Senior 
Executive Service (SES) positions in FEMA. FEMA has a set number of SES 
slots that the Under Secretary can use for any SES position. Each time 
an SES position becomes vacant, the slot returns to the Under 
Secretary's ``SES pool'' and the Under Secretary can reallocate it to 
another FEMA organization based on a determination of the most critical 
SES need. As the charts indicate, from February 2003 to March 2004, 
some SES positions were realigned to best support new mission critical 
responsibilities.
    There was no net change in the number of FEMA's allocated SES slots 
between February 2003 and March 2004. In February 2003, FEMA's 
allocation was 54 permanent slots and one term allocation for a total 
of 55 slots.
    As a result of FEMA's transition into DHS, 2 slots were transferred 
(the only 2 SES slots transferred outside of FEMA) to the DHS Office of 
the Inspector General (OIG). Although OIG originally had three 
incumbents, one had retired. However, DHS provided 2 slots from its 
overall allocation to FEMA for 2 positions in the Office of the Under 
Secretary.
    The term appointee in the Information Technology Services Division, 
identified in the February 2003 order, resigned and the one slot was 
lost. However, again as a result of transitional activities, one slot 
was transferred to FEMA from the Department of Health and Human 
Services as an encumbered position. Therefore, FEMA's allocation was 
then and is now 55 slots.

                                FEBRUARY 2003 FEDERAL EMERGENCY MANAGEMENT AGENCY
----------------------------------------------------------------------------------------------------------------
                                                        Encumbered  Encumbered  Encumbered
                     Organization                         Career    Non-Career     Term       Vacant     Total
----------------------------------------------------------------------------------------------------------------
Office of the Director................................           2           1  ..........          1          4
Office of National Security Coordination..............  ..........  ..........  ..........          1          1
Office of the General Counsel.........................  ..........  ..........  ..........          2          2
External Affairs Division.............................  ..........           1  ..........          2          3
Administration & Resource Planning Division...........  ..........           1  ..........  .........          1
Human Resources Division..............................  ..........           1  ..........  .........          1
Finance & Acquisition Management Division.............           2  ..........  ..........  .........          2
Facilities Management & Services Division.............           2  ..........  ..........  .........          2
Mt. Weather Emergency Operations Division.............           1           1  ..........  .........          2
Response & Recovery Directorate.......................           5           1  ..........      \2\ 2          8
Federal Insurance & Mitigation Directorate............           6  ..........  ..........  .........          6
U.S. Fire Administration..............................           2           1  ..........  .........          3
Office of National Preparedness.......................           1  ..........           1  .........          2
Office of the Inspector General \1\...................           3  ..........  ..........  .........          3
Information Technology Services Division..............           5           1           1  .........          7
Region 1..............................................  ..........           1  ..........  .........          1
Region 2..............................................  ..........  ..........  ..........          1          1
Region 3..............................................  ..........  ..........  ..........          1          1
Region 4..............................................           1  ..........  ..........  .........          1
Region 5..............................................  ..........           1  ..........  .........          1
Region 6..............................................  ..........           1  ..........  .........          1
Region 7..............................................  ..........           1  ..........  .........          1
Region 8..............................................  ..........           1  ..........  .........          1
Region 9..............................................  ..........           1  ..........  .........          1
Region 10.............................................  ..........           1  ..........  .........          1
                                                       ---------------------------------------------------------
      Total...........................................          30      \4\ 15           2          8     \3\ 57
----------------------------------------------------------------------------------------------------------------
\1\ Determination order of February 2003 did not include OIG SES members since they received personnel services
  from the Bureau of Public Debt.
\2\ Two additional vacancies were listed on determination order (which were subsequently canceled).
\3\  SES slots allocation (maximum number that could be filled) was 55.
\4\ Ceiling of 19 non-career (political).


                              MARCH 10, 2004 DEPARTMENT OF HOMELAND SECURITY (FEMA)
----------------------------------------------------------------------------------------------------------------
                                                        Encumbered  Encumbered  Encumbered
                     Organization                         Career    Non-Career     Term       Vacant     Total
----------------------------------------------------------------------------------------------------------------
Office of the Under Secretary--Emergency Preparedness            3           2  ..........          2          7
 & Response...........................................
Office of National Security Coordination..............  ..........           1  ..........  .........          1
Office of the General Counsel.........................  ..........  ..........  ..........          1          1
Office of External Affairs Coordination...............  ..........  ..........  ..........          1          1
Human Resources Division..............................  ..........  ..........  ..........          1          1
Finance & Acquisition Management Division.............           2  ..........  ..........          1          3
Facilities Management & Services Division.............           1  ..........  ..........          1          2
Mt. Weather Operations................................           2           1  ..........  .........          3
Response Division.....................................           3  ..........           1          2          6
Recovery Division.....................................           2           1  ..........          2          5
Mitigation Division...................................           4  ..........  ..........          2          6
Preparedness Division.................................           2           1  ..........          1          4
Information Technology Division.......................           5  ..........  ..........  .........          5
Region 1..............................................  ..........  ..........  ..........          1          1
Region 2..............................................  ..........  ..........           6          1          1
Region 3..............................................  ..........  ..........  ..........          1          1
Region 4..............................................           1  ..........  ..........  .........          1
Region 5..............................................  ..........           1  ..........  .........          1
Region 6..............................................  ..........           1  ..........  .........          1
Region 7..............................................  ..........           1  ..........  .........          1
Region 8..............................................  ..........           1  ..........  .........          1
Region 9..............................................  ..........           1  ..........  .........          1
Region 10.............................................  ..........           1  ..........  .........          1
                                                       ---------------------------------------------------------
      Total...........................................          25      \1\ 12           1         17         55
----------------------------------------------------------------------------------------------------------------
\1\ Ceiling of 19 non-career available for fill.

    Question. Please describe how the amounts of CAP-SSSE funds 
provided to each State are determined. Describe the States' 
responsibilities and how they've changed, if at all, in recent years. 
As income associated with the Federal policy fee has increased, have 
funds provided by FEMA to the States increased proportionally?
    Answer. The purpose of the Community Assistance Program--State 
Support Services Element (CAP-SSSE) is to provide, through a State 
grant mechanism, a means to ensure that communities participating in 
the National Flood Insurance Program (NFIP) are achieving the flood 
loss reduction objectives of the NFIP. CAP-SSSE is intended to 
accomplish this by funding States to provide technical assistance to 
NFIP communities and to evaluate community performance in implementing 
NFIP floodplain management activities with the goal of building 
community and State floodplain management expertise and capability. 
Using CAP-SSSE funding, States now provide a significant portion of the 
technical assistance to NFIP communities. Without this State support, 
FEMA regions would not have enough staff to implement the program. CAP-
SSSE capitalizes on partnering with the staff of State agencies to 
provide this assistance.
    CAP-SSSE grant fund allocations to States are determined by the 
FEMA regional offices. In general, States are provided a baseline 
funding amount to develop basic floodplain management capabilities to 
assist the FEMA regions in providing technical assistance to 
communities. After the baseline amount is established, other factors 
such as the number of participating communities in the State, 
population growth rate, and number of NFIP insurance policies, as well 
as each State's capability to provide assistance and overall technical 
support needs, are considered in determining the final allocations. All 
States participate in the program and receive funds in varying amounts. 
FEMA regional offices and the designated State agency negotiate a CAP-
SSSE agreement that specifies activities and products to be completed 
by a State in return for CAP-SSSE funds. There is a 25 percent non-
Federal match for all States receiving CAP-SSSE funds. In some cases, a 
State's ability to provide the required funding match may affect 
funding levels.
    In recent years, States' responsibilities have been changing in 
order to support nationwide map modernization implementation. 
Specifically, States have been more involved in map modernization 
planning activities to assist in implementing this important 
initiative. Finally, CAP-SSSE grant funds are not directly linked to 
Federal policy fee income. However, total CAP-SSSE funds have increased 
by 40 percent over the past 2 years to assist States in their 
floodplain management activities and in meeting the challenges of map 
modernization.
    Question. When will DHS release 2004 CAP-SSSE funds to the FEMA 
Regions for distribution to the states?
    Answer. Fiscal year 2004 CAP-SSSE funds were released to the FEMA 
regions in November 2003. Many States have already received their 
fiscal year 2004 CAP-SSSE funding allocation. Some of the FEMA regions 
are still negotiating with the States regarding the content of the 
State Work Plans. Once the State Work Plans are finalized and approved, 
the remaining funds will be awarded.
    Question. Are all of the Federal Personnel paid with funds 
collected from the Federal Policy fee working directly on National 
Flood Insurance Program projects?
    Answer. Yes. Each year we carefully monitor the program assignments 
paid from the National Flood Insurance Fund to ensure that those 
Federal employees are performing NFIP work.
    Question. Describe how DHS and HUD are working together to assure 
that HUD regulations address installation of manufactured homes 
specifically in flood hazard areas.
    Answer. On December 27, 2000, the Manufactured Housing Improvement 
Act (MHIA) became law (Public Law No. 106-569) and for the first time 
established a requirement that HUD develop national model manufactured 
home installation standards. DHS has participated in this development 
process by submitting to the non-Federal consensus committee, 
established by the MHIA, proposed flood disaster-resistant provisions, 
consistent with NFIP, which would apply to manufactured homes sited in 
flood hazard areas. On December 18, 2003, the consensus committee 
approved DHS' proposed provisions and included them in the final 
recommended national model manufactured home installation standards 
submitted to the HUD Secretary. In accordance with the law, the HUD 
Secretary has 1 year (December 18, 2004) in which to act on these 
recommended standards.
    Question. Will DHS coordinate with HUD to include in existing 
Federal regulations (24 CFR Part 3282.303(c)), a requirement that State 
administrative agency plans must require licensed installers and/or 
dealers to determine whether a proposed manufactured housing site is 
located in a FEMA identified flood hazard area before installation?
    Answer. Changes to 24 CFR Part 3282.303(c) are not anticipated by 
HUD. Rather, under the MHIA, State installation programs for their 
licensed installers and/or dealers must include standards that meet or 
exceed the protection provided by the national model manufactured home 
installation standards that are currently being developed by HUD. A key 
provision of the model standards reads, ``Prior to the initial 
installation of a manufactured home, it shall be determined whether the 
home site lies wholly or partly within a special flood hazard area.'' 
In this way, States will be fulfilling 3282.303(c) in assuring that 
homes are properly installed in their States.
    Question. Will DHS coordinate with HUD to require manufacturers 
installation manuals to specifically state whether model installation 
designs are intended for use in flood hazard areas?
    Answer. Under the MHIA, manufacturers shall provide with each home 
designs and instructions for the installation of the manufactured home 
that have been approved by a design approval primary inspection agency 
(DAPIA). Once the national model installation standards have been 
established, DAPIAs may not issue approvals unless the designs and 
instructions for installation provide equal or greater protection than 
the protection provided under the national model standards. A key 
provision in the new national model installation standards is that 
manufactured homes located wholly or partly within flood hazard areas 
shall be installed using methods and practices that minimize damage in 
accordance with the flood damage reduction requirements contained in 
the NFIP regulations. Specific to foundation systems used in the 
manufacturers' instructions, the standards also require that, in flood 
hazard areas, the piers, anchoring, and support systems shall be 
capable of resisting loads associated with design flood and wind 
events.
    Question. What priority are you giving to preparing new floodplain 
delineations to replace or refine approximated flood hazard areas, 
rather than simply converting them to a digital format? How much of the 
fiscal year 2005 request for flood map modernization will be spent on 
preparing new floodplain delineations? On digitization of existing 
paper maps?
    Answer. FEMA's current priority is working with States and local 
governments to identify those communities at greatest risk and to 
provide updated geospatial data. The long-term performance goal for the 
Multi-Hazard Flood Map Modernization Program is for the U.S. population 
to have up-to-date digital flood hazard data and maps for flood-prone 
areas. FEMA is developing flood data and producing maps for communities 
that reflect the level of analysis and effort commensurate with the 
flood risk faced by each community. Part of the mapping process 
involves a needs assessment during which FEMA works with the local 
community to determine mapping needs and to assess whether existing 
local data are sufficiently accurate to meet local needs and NFIP 
criteria. All assessments will be coordinated with States, regional 
agencies, and local communities.
    During the next 6 months, FEMA will be working with national, 
State, and local partners and stakeholders to assemble an integrated 5-
year implementation plan for the Multi-Hazard Flood Map Modernization 
Program. We will use the plan to establish goals and baseline with 
existing priorities; to document and understand flood map update needs 
identified by State, regional, and local partners and stakeholders; and 
to develop prioritization criteria and a sequence for scoping counties 
and watersheds in the priority areas based on floodplain management, 
hydrologic, hydraulic, and terrain needs. The plan that will be 
developed is the MHIP for fiscal years 2004-2008.
    FEMA will provide a precise accounting of the new engineering 
studies and floodplain boundary delineations once we complete the 
development of the MHIP; will scope the map update projects identified 
in coordination with State, regional, and local partners and 
stakeholders; will determine the contributions that may be made by 
State, regional, and local partners through the Cooperating Technical 
Partners (CTP) program; and will contract the required map updates with 
our contractors and with participants in our CTP program.
    FEMA plans to update the flood maps based on the level of flood 
risk associated with an area and the accuracy of the existing data for 
that area. For some areas, there may not be a need to perform a new 
engineering study because the flood hazards and related risk are 
accurately portrayed on the flood map and are appropriate for the area. 
For example, for recently mapped areas, we will use the accurate 
available data to create a digital map.
    Our modernization effort is predicated on using the best available 
data and clear data standards. To that end, it is not our intention to 
convert inaccurate flood maps to a digital format.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

    Question. I have noted that the Emergency Preparedness and Response 
Directorate, which includes the Federal Emergency Management Agency 
(FEMA), has slowly shifted its emphasis from all-hazards to terrorism. 
The President's budget request includes legislative language that would 
give ``priority to homeland security activities.'' The intent of FEMA, 
however, was to insure broad-based, all-hazards approaches to State and 
local preparedness and response efforts. This shift is cause for great 
concern.
    I strongly believe that a reliable emergency infrastructure--
adequately resourced at the Federal, State and local levels--must build 
upon the all-hazards emergency management approach and address the 
needs of the entire emergency system, including, but not limited to: 
law enforcement, fire, emergency medical services, public health, the 
911 communications system and emergency management. Currently, a 
greater focus on terrorism has increased the role of emergency managers 
and the immediate needs of all responders to ensure adequate 
preparedness. Meanwhile, natural hazards continue to be the pervasive 
disaster that occurs regularly. In 2003, for example, there were 56 
major disaster declarations, 19 emergency declarations and 46 fire 
suppression authorizations--none of which were terrorist-related.
    Mr. Brown, would you agree that natural disaster preparedness must 
not suffer as a result of homeland security efforts, but rather should 
be viewed as the most frequent opportunity to validate domestic 
preparedness efforts and to also build best practices? If not, please 
explain why you think our emergency response system must be focused on 
terrorism rather than all-hazards and how that benefits us.
    Answer. Although the Department of Homeland Security is focused on 
terrorism and protecting the homeland, the President, Secretary Ridge, 
and I are committed to an all-hazards approach of preparedness, 
response, and recovery from all events, including natural disasters. 
Recent efforts to improve response to and recovery from a terrorism 
event do not diminish FEMA's commitment to dealing with the destruction 
of a natural disaster--just the opposite. FEMA has enjoyed a long 
history of focusing on all hazards, and I believe that being part of 
DHS has strengthened that approach. As you mention, FEMA has 
successfully continued to respond to and recover from a multitude of 
natural disasters in the past year. At the same time, these efforts do 
provide us with opportunities to better prepare not only for terrorism 
events, but also for catastrophic events, whether they be natural or 
caused by terrorism.
    Question. The President's fiscal year 2005 budget request for the 
Department of Homeland Security (DHS) proposes changes to the Emergency 
Management Performance Grants (EMPG) Program that would severely impact 
State and local emergency management. In the fiscal year 2003 
Consolidated Appropriations law (Public Law 108-7), Congress called the 
EMPG Program ``the backbone of the Nation's emergency management 
system.'' In fiscal year 2004, Congress increased EMPG funding to $179 
million, directed that EMPG would remain in the Emergency Preparedness 
and Response Directorate where the focus is an all-hazards approach to 
emergency management, and ordered the continuation of funding personnel 
expenses.
    I was surprised to read, therefore, that the President's fiscal 
year 2005 request cuts EMPG funding by $9 million and also proposes a 
25 percent cap on the use of funds to support personnel salaries. Since 
the functions of emergency management are almost 100 percent personnel 
driven (i.e., planning, coordinating, exercise design, public 
education, and hazards at the State and local levels and would result 
in losses of 70 percent of their emergency management staff response to 
and recovery from actual incidents), this provision would have a 
devastating effect on emergency management agencies nationwide. The cap 
would eliminate current personnel responsible for planning for and 
responding to all
    Mr. Brown, now is the time when we should be building the capacity 
of our Nation's emergency management agencies. Why, then, is this 
Administration seeking to weaken it?
    Answer. The EMPG personnel cap is intended to ensure that State and 
local governments assume responsibility for their personnel costs. 
Effective State and local emergency management capability is not the 
primary responsibility of the Federal Government, rather, it is a 
shared responsibility. In exchange for absorbing some of these 
personnel costs, DHS will increase the amount of funding that goes to 
the State and local governments for training and exercises. If the 
State and local governments can reprioritize some of their monies to 
keep their personnel intact, then DHS will spend the funding freed up 
by that on training and exercises to make sure they are still capable 
of doing what DHS needs them to do. DHS feels that by imposing the 
personnel cap, the Department will be able to do more to build the 
capabilities of the States rather than weaken them.
    Question. I am very concerned about the state of the floodmap 
modernization program. I saw in your budget submission that almost $40 
million of fiscal year 2004 funds would be distributed this year. 
However, my home State of Vermont has received no funds thus far, and 
it appears that several of the state's grants requests have been acted 
upon very slowly if at all.
    You are asking for another $293 million this year for the program, 
yet I am beginning to question whether the benefits of this program are 
really flowing to the communities that need to update their maps, and I 
wonder whether the program is taking too broad an approach to be useful 
at the local level.
    Mr. Brown, can you please tell me specifically what this program is 
going to do for my home State of Vermont. Is FEMA going to stick to a 
verbal commitment made to the State to support its Fluvial Hazards Risk 
Assessment Initiative through Map Modernization funding opportunities? 
What is the status of Vermont's grant applications for other programs 
that will help prepare for flooding, such as the Pre-Disaster 
Mitigation program? Answer. FEMA's Mitigation Division administers two 
major programs that involve extensive coordination and planning with 
State and local officials--the Pre-Disaster Mitigation Program (PDM) 
and the Multi-Hazard Flood Map Modernization Program.
    FEMA's PDM fiscal year 2003 funds will be awarded on a competitive 
basis with a national priority on funding mitigation projects that 
address National Flood Insurance Program (NFIP) repetitive flood loss 
properties. The national evaluation of fiscal year 2003 PDM competitive 
grant applications submitted by the October 6th application deadline 
was completed on November 21, 2003. All projects funded under the PDM 
program must be cost-effective, consistent with environmental laws and 
regulations, and contribute to a long-term mitigation solution.
    The sub-applications identified for selection will be approved for 
funding in phases. We have approved a list of sub-applications 
identified as Phase I and Phase II. An application from North Troy, 
Vermont, The River Road Acquisition Project, is included in Phase II. 
FEMA's Region I staff soon will be contacting Vermont Emergency 
Management staff to discuss program and grants management requirements 
that must be addressed in order to make a final determination and to 
proceed with a grant award for this project. A final phase of PDM 
awards will follow later this spring. Because of the competitive nature 
of this program, details about the status of the remaining sub-
applications cannot be released until funding decisions are made. At 
that time, I will provide an update to you. In fiscal year 2003, 
Vermont also received a $248,275 non-competitive planning grant to help 
the State and its local communities protect lives and property by 
developing multi-hazard mitigation plans.
    In addition, we have a number of Hazard Mitigation Grant Program 
(HMGP) projects that address flood hazards underway in Vermont. FEMA 
recently obligated $233,575 for 13 projects and planning grants in 
various Vermont communities with HMGP funds made available after 
disaster declaration DR-1428-VT (severe storms and flooding, July 
2002). The final project to be awarded under DR-1428-VT is in Richford, 
Vermont. FEMA is providing $54,375 for a project to relocate the town's 
water main from a precarious location under the river where it is 
subject to damage from ongoing scouring. The U.S. Army Corps of 
Engineers is the lead agency on this project. We are waiting to review 
their environmental assessment and expect, if there are no problems, to 
obligate funds this spring. Vermont Emergency Management currently is 
soliciting applications for HMGP projects that will be funded following 
disaster declaration DR-1488-VT (severe storms and flooding, September 
2003).
    Under the Multi-Hazard Flood Map Modernization Program, FEMA has 
provided $800,000 to fund flood map updates for Windsor County, Windham 
County, Washington County, and the Towns of Hinesburg, Stowe, and West 
Rutland. FEMA plans to distribute preliminary versions of the updated 
flood maps for Windsor and Windham Counties and the three towns during 
this summer. FEMA will send these preliminary versions to community and 
county officials, State officials, and other key stakeholders to 
facilitate a thorough review. The study being performed for Washington 
County, which is still in the scoping phase, includes a component of 
the Fluvial Hazard Morphology initiative, specifically, riverine 
erosion assessment protocol and tools developed by the Vermont Agency 
of Natural Resources.
    The FEMA regional office staff in Boston has a regional business 
plan that describes its 5-year strategic plan for executing the Multi-
Hazard Flood Map Modernization Program. The Vermont Agency of Natural 
Resources has expressed an interest in taking some responsibility for 
managing local flood hazard data and is preparing its State business 
plan to identify the activities it desires to undertake and its 5-year 
flood map project priorities. FEMA will use this information to update 
the regional and National business plans for the Multi-Hazard Flood Map 
Modernization Program.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Question. I am concerned about the Administration's budget cuts and 
policy changes to the Emergency Management Performance Grants. First, I 
disagree with the President's decision to move the grants from FEMA to 
the Office of Domestic Preparedness. No one in my State thinks this is 
necessary, and they are concerned that this diminishes the role and 
power of FEMA. FEMA was one of the most successful agencies to be 
folded into Homeland Security and it would be a shame if the Department 
undermined FEMA by taking away programs it handled well in the past. I 
think the Administration should avoid trying to fix grant programs that 
are not broken.
    In addition, not only is there $9 million less than last year for 
the grants, but the $170 million that is included in the President's 
budget will no longer fund all hazard planning. This is a real 
disappointment for county emergency managers in my state. They used 
these funds to help them prepare for terrorist attacks as well as 
natural disasters like floods and tornados. A reduction in funding, 
especially when adjusted for inflation, could force some counties to 
reduce staff as well as leave them unprepared for non-terrorism 
catastrophes.
    Why did the Administration reduce these funds, and why did they 
prohibit these funds from being used for all hazard planning?
    Answer. The Emergency Management Planning Grant Program provides 
vital support to the State and local emergency management system. The 
purpose of EMPG is to assist the development, maintenance, and 
improvement of State and local emergency management capabilities, which 
are key components of a comprehensive national emergency management 
system for disasters and emergencies that may result from natural 
disasters or accidental or man-caused events. At this time, the 
Administration's priority is assisting states in building capabilities 
for homeland security.
    These grants are a critical part of our homeland security efforts 
and an existing strength that must be maintained. The President's 
fiscal year 2005 request includes $170 million for continuation of this 
program, which is the most any administration has requested for this 
program. In fact, the fiscal year 2005 request is $20 million or more 
than 10 percent above the fiscal year 2004 request.
    The funding increase, and restriction on the amount of funds that 
can be used for salaries, will result in a more robust emergency 
planning and management system at the State and local effort.
    Follow up: The Administration has also decided to allow only 25 
percent of these grants to be used to pay personnel costs. The counties 
in my State have used these grants to hire people that facilitate 
disaster planning and help the local communities to make the best use 
of the State and Federal funds they receive. The emergency management 
community in my State has told me that this would force them to lay-off 
workers and planners, leaving them less prepared for any disaster. Will 
the Administration change its position on capping personnel costs, and 
if not, how do you expect the states and counties to continue to pay 
for this staff?
    Answer. The Administration's fiscal year 2005 request for the 
Emergency Management Planning Grants is $170 million, which is higher 
than any previous request for this program. The funds will be used to 
assist the development, maintenance, and improvement of State and local 
emergency management capabilities, with a focus on building local 
capabilities for homeland security.
    As you note, though, the request does cap the amount that states 
can use for salaries, thereby significantly increasing the amount of 
funds available for planning, training and exercises. The 
Administration's budget request still allows for award funds to support 
salaries. The request shifts the emphasis to Federal support for 
planning while properly aligning responsibility for staffing and 
salaries with the states and local governments. The Administration and 
Department have consistently supported the idea that homeland security 
is a shared responsibility between Federal and State and local 
governments. Additionally, it is important to remember that we are 
operating in a fiscal and security environment where we must ensure 
maximum security benefits are derived from every security dollar. To do 
that, we must be able to take a new look at the way in which we 
allocate resources, including sharing financial responsibility with our 
State and local partners.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Our next hearing on the budget request for 
the Department of Homeland Security will be held on Tuesday, 
March 2, in this same room. At that time, the Under Secretary 
for Science and Technology, Dr. Charles McQueary, and the Under 
Secretary for Information Analysis and Infrastructure 
Protection, Mr. Frank Libutti, will be here to discuss the 
budget for the programs under their jurisdiction.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 11:10 a.m., Thursday, February 26, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
March 2.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                         TUESDAY, MARCH 2, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, and Byrd.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENTS OF:
        DR. CHARLES E. McQUEARY, UNDER SECRETARY, SCIENCE AND 
            TECHNOLOGY DIRECTORATE
        LIEUTENANT GENERAL FRANK LIBUTTI, UNDER SECRETARY, INFORMATION 
            ANALYSIS AND INFRASTRUCTURE PROTECTION

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The meeting will please come to order.
    We appreciate very much the attendance of our witnesses at 
today's hearing. We continue our review, today, of the fiscal 
year 2005 budget request for the Department of Homeland 
Security, with specific consideration being given to the 
programs and activities of the Science and Technology 
Directorate, and the Information Analysis and Infrastructure 
Protection Directorate.
    I am pleased to welcome the Under Secretary for Science and 
Technology, Dr. Charles E. McQueary, and the Under Secretary 
for Information Analysis and Infrastructure Protection, 
Lieutenant General Frank Libutti.
    The President is requesting $1.04 billion for Science and 
Technology, and $865 million for Information Analysis and 
Infrastructure Protection.
    We appreciate the witnesses submitting their statements in 
advance. They will be printed in the hearing record and we 
invite you to make any remarks that you think would be helpful 
to the Committee's understanding of the budget request. But 
before proceeding, I want to yield to my distinguished friend 
and colleague, Senator Robert C. Byrd, for any opening 
statement that he may wish to make.
    Senator Byrd. Thank you, Mr. Chairman.
    Welcome, Mr. Under Secretary McQueary and Mr. Under 
Secretary Libutti.
    Oh, by the way, Happy Birthday. Happy Birthday.
    Dr. McQueary. Thank you.

                     HOW IAIP FUNDS ARE BEING SPENT

    Senator Byrd. Over 1 year ago, the Information Analysis and 
Infrastructure Protection Directorate was established to 
enhance the sharing of threat information amongst all levels of 
Government and the private sector, to assess vulnerabilities of 
our critical infrastructure sectors, and to provide resources 
to protect them. However, it has been quite difficult for this 
subcommittee to receive information on what your budget is 
being spent on, or how the funding is being awarded.
    I understand that our staffs had a constructive meeting 
yesterday, and I hope that this cooperation will continue. Not 
only do we hope it, but we expect it to continue.

                   CRITICAL INFRASTRUCTURE PROTECTION

    When it comes to protecting this Nation's critical 
infrastructure, the Administration tells us that the private 
sector is taking care of it. Yet, there is no mandate on the 
private sector to make investments in security. Their 
involvement is voluntary. There are no benchmarks for Congress 
to use in assessing the private sector's role in critical 
infrastructure protection.
    And so that is why, today, I am sending a letter asking the 
General Accounting Office, which is an arm of the Congress, to 
provide this subcommittee with an assessment of private sector 
investments to improve the security of our critical 
infrastructure such as chemical plants and ports since 
September 11, 2001.

                          INFORMATION ANALYSIS

    Regarding information analysis, it is a mystery to me why 
this Administration, which celebrated the creation of this new 
department as a great success, has gone to great lengths to 
splinter its functions in the area of intelligence.
    The President created the Terrorist Threat Integration 
Center, but gave primary responsibility to the CIA. He followed 
up this decision by establishing the Terrorist Screening Center 
within the FBI, creating further confusion about this 
Department's role in intelligence sharing.
    Experts who follow this situation are concerned. The 
Advisory Panel to Assess Domestic Response Capabilities for 
Terrorism Involving Weapons of Mass Destruction, better known 
as the Gilmore Commission, concluded in December that the IAIP 
directorate ``does not have significant analytical power'' to 
do what it takes, to analyze and disseminate intelligence 
information.

                             IAIP STAFFING

    In the area of staffing, the IAIP directorate is barely 
keeping its head above water. After a year in existence, IAIP 
is struggling to meet its staffing goals. My understanding is 
that very few of the authorized intelligence analysts are on 
board.

                     SCIENCE AND TECHNOLOGY BUDGET

    Let me turn now to Science and Technology. The Science and 
Technology Directorate's budget is the eighth largest R&D 
budget in the Federal Government. The budget request for fiscal 
year 2005 is just over $1 billion. There is concern whether 
this budget is sufficient to address the various threats that 
we face, such as a biological, chemical or radiological attack.
    Last year this subcommittee received hundreds of requests 
from members for research and technology projects at major 
universities. Rather than earmark projects, the subcommittee 
significantly increased the university account and allowed the 
department to select projects through a competitive process. 
Unfortunately, the President responded to this approach by 
proposing to substantially reducing funding for this purpose 
next year.
    I look forward to hearing from our witnesses on why this 
cut is appropriate.
    Mr. Chairman, I beg you to pardon my tardiness and I thank 
you for allowing me to proceed with my opening statement.
    Senator Cochran. Dr. McQueary, we have a copy of your 
statement and we invite you to make any comments and remarks 
about the budget request which you think would be helpful to 
our understanding of the request that you're making.
    You may proceed.

                 STATEMENT OF DR. CHARLES E. MC QUEARY

    Dr. McQueary. Thank you, Chairman Cochran. And Senator 
Byrd.
    It's been several months since I have appeared before you 
and I welcome the opportunity to do so again.
    It is a pleasure to be here today and have a chance to talk 
about the research and development activities of the Department 
of Homeland Security's Science and Technology Directorate.
    The Nation's advantage in science and technology is key to 
securing the homeland. The most important mission for the 
Science and Technology Directorate is to support the efforts of 
the dedicated men and women who protect and secure our 
homeland.

                     HIGHLIGHTS OF ACCOMPLISHMENTS

    When I first reported to you about activities last year, we 
had just begun our work. The Directorate has accomplished much 
since its inception last March. And I would like to give you a 
few brief highlights, and several others are included in the 
written testimony that I have submitted.
    First, we have deployed monitoring systems that operate 
continuously to detect biological pathogens in approximately 30 
cities in the United States. We have also set up test beds to 
provide accurate radiation and nuclear warnings at air and 
marine cargo points, ports in cooperation with the Port 
Authority of New York and New Jersey. We have established the 
first series of interoperability guidelines for the Nation's 
wireless emergency communications network.
    In another effort, we have greatly reduced the time it 
takes to develop national standards for technologies to protect 
the homeland.
    Our new standards for radiation detection equipment will 
help put needed technologies into the hands of first responders 
quickly. And, our Homeland Security Advance Research Project 
Agency, or HSARPA, has started extensive research for next 
generation biological and chemical, as well as radiological and 
nuclear detectors.
    We have awarded the first round of 100 Homeland Security 
fellowships and scholarships to build U.S. leadership in 
science and technology. And we have also established the first 
university-based Homeland Security Center of Excellence to 
address both the targets and means of terrorism. And, we have 
become active contributors in numerous inter-agency working 
groups throughout the Federal Government.
    In accomplishing this, we have doubled the staff of this 
directorate with some of the country's brightest and most 
dedicated people. We started the Directorate on March 1, last 
year, with 87 people and 53 of those were transferred in bulk 
from the Environmental Measurements Laboratory in Manhattan, 
New York. So the basic staff was quite small for carrying the 
program that we had responsibility for forward. Today, we are 
at about 210 people, which is exactly where we had hoped to be 
on our plan of adding staff to the organization.
    However, as we all know, the threats to our homeland remain 
diverse and daunting. We must constantly monitor current and 
emerging threats, and assess our vulnerabilities to them. And 
we must develop new and improved capabilities to counter them, 
and be prepared to respond to and recover from a potential 
attack.

           PRIORITIZATION OF RESEARCH AND DEVELOPMENT EFFORTS

    The Science and Technology Directorate has prioritized its 
research and development efforts based on the directives and 
recommendations of many sources, including the Homeland 
Security Act of 2002, President Bush's National Strategy and 
nine Homeland Security Presidential Directives as well as the 
report of the National Academies of Science on making the 
Nation safer, and reports from the Gilmore, Bremer, and Hart-
Rudman Committees.
    We have identified and integrated the information in these 
sources for review and evaluation by our scientific staff, and 
it provides the basis for determining the Research and 
Development needed to meet our mission.
    We recognize that many organizations are contributing to 
the Homeland Security's Science and Technology base. Congress 
recognized this as well and the Homeland Security Act of 2002 
directed the Under Secretary of Science and Technology to 
coordinate the Federal Government's civilian efforts to 
identify and develop countermeasures to current and emerging 
threats. We take this responsibility very seriously.
    We began this coordination process by evaluating and 
producing a report on the Department of Homeland Security 
research and development activities underway that were not 
under the direct cognizance of the Under Secretary for Science 
and Technology. Where appropriate, Science and Technology will 
absorb these research and development functions in this fiscal 
year.
    We are now initiating the effort needed to coordinate 
Homeland Security research and development across the entire 
United States Government. Discussions are ongoing with the 
Federal departments and agencies, as well as the Office of 
Management and Budget, the Office of Science and Technology 
Policy, and the Homeland Security Council to ensure the best 
possible coordination.

                         FISCAL YEAR 2005 PLANS

    At this time, I would like to briefly describe our fiscal 
year 2005 plans. We have an overall budget request of $1.04 
billion, which you identified, which is an increase of $126.5 
million or about 14 percent over fiscal year 2004. With these 
funds Science and Technology will continue to make progress in 
securing the homeland.
    For example, under President Bush's new biological-
surveillance initiative, which accounts for most of the 
increase in funding, additional capability will be implemented 
quickly in the top-threat urban areas to provide more than 
twice the current capability.
    We will continue to provide the science and technology 
capabilities and enduring partnerships needed to develop 
methods and tools to test and assess threats and 
vulnerabilities to protect our critical infrastructure and 
enhance information exchange.
    We will continue to work in cyber security both through 
partnerships and by creating low-cost and high impact solutions 
to identified cyber security challenges. And of course, this is 
done in concert with my good friend, General Libutti.
    We will wrap-up our work in counter-MANPADS to improve 
technology to protect commercial aircraft from the man-portable 
air defense systems or the shoulder-fired missiles, which 
present a vulnerability to our commercial aircraft industry.
    We will award contracts in fiscal year 2005 for integrating 
commercial prototype equipment on selected commercial aircraft 
and conduct test evaluation including a live-fire range test.
    In conclusion, this year the scientists and engineers in 
the Science and Technology Directorate have accomplished more 
than I could have expected. I am proud to have shared some of 
these success stories with you today. We have appended a more 
comprehensive summary of the accomplishments to date for the 
record.

                           PREPARED STATEMENT

    Yet, we also recognize that there is much more to do and we 
will be working just as hard in fiscal year 2005. I look 
forward to working with you, with my colleagues in other 
Federal agencies, and with private industry and academia to 
continue this work and improve our ability to protect our 
homeland and our way of life.
    This concludes my prepared statement, and I will be 
prepared to answer questions at the appropriate time.
    [The statement follows:]

             Prepared Statement of Dr. Charles E. McQueary

                              INTRODUCTION

    Good morning. Chairman Cochran, Senator Byrd, and distinguished 
Members of the subcommittee, it is a pleasure to be with you today to 
discuss the research and development activities of the Department of 
Homeland Security's Science and Technology Directorate.
    The Nation's advantage in science and technology is key to securing 
the homeland. The most important mission for the Science and Technology 
Directorate is to develop and deploy cutting-edge technologies and new 
capabilities so that the dedicated men and women who serve to protect 
and secure our homeland can perform their jobs more effectively and 
efficiently--these men and women are my customers.
    When I last reported to you about our activities, we had just 
started our work. Since its inception less than a year ago, the Science 
and Technology Directorate has:
  --deployed continuously operating biological pathogen detection 
        systems to approximately 30 United States cities;
  --set up testbeds for radiation and nuclear warnings at air and 
        marine cargo ports in cooperation with the Port Authority of 
        New York and New Jersey;
  --established the first series of interoperability guidelines for the 
        Nation's wireless emergency communications network;
  --established the first national standards guidelines for radiation 
        detection equipment;
  --awarded the first Homeland Security Fellowships and Scholarships;
  --established the first Homeland Security University Center of 
        Excellence;
  --transferred the Plum Island Animal Disease Center from the 
        Department of Agriculture to the Science and Technology 
        Directorate;
  --engaged private industry in bringing innovative and effective 
        solutions to homeland security problems through the interagency 
        Technical Support Working Group and issuance of HSARPA's first 
        two Broad Agency Announcements and a Small Business Innovative 
        Research Program solicitation;
  --initiated a development and demonstration program to assess the 
        technical and economic viability of adapting military 
        countermeasures to the threat of man portable anti-aircraft 
        missiles for commercial aircraft;
  --collaborated with and assisted other components of the Department 
        to enhance their abilities to meet their missions and become 
        active contributors in interagency working groups--all while 
        staffing this Directorate with some of this country's brightest 
        and most dedicated people.
    I continue to be energized by and proud of the scientists, 
engineers, managers, and support staff in the Science and Technology 
Directorate. We have accomplished a great deal in a short amount of 
time and are positioning the Directorate to make continuing 
contributions to the homeland security mission of the Department.
    However, the threats to our homeland remain diverse and daunting. 
We must constantly monitor current and emerging threats and assess our 
vulnerabilities to them, develop new and improved capabilities to 
counter them, and mitigate the effects of terrorist attacks should they 
occur. The Science and Technology Directorate must also enhance the 
conventional missions of the Department to protect and provide 
assistance to civilians in response to natural disasters, law 
enforcement needs, and other activities such as maritime search and 
rescue.

            SCIENCE AND TECHNOLOGY DIRECTORATE ORGANIZATION

    Because our Department is relatively new, I'd like to describe the 
way we are structured. We have four key offices in the Science & 
Technology Directorate, each of which has an important role in 
implementing the Directorate's RDT&E activities. Individuals with 
strong credentials have been appointed to head each office and we 
continue to strategically add highly skilled technical, professional 
and support staff. These offices are: Plans, Programs and Budgets; 
Research and Development; Homeland Security Advanced Research Projects 
Agency; and Systems Engineering and Development. In addition, we have 
created the Office of Weapons of Mass Destruction Operations and 
Incident Management to offer scientific advice and support.
    Crosscutting the four key offices, the Science and Technology 
Directorate is implementing its activities through focused portfolios 
that address biological, chemical, high explosives, radiological and 
nuclear, and cyber threats; support the research and development needs 
of the operational units of the Department; support the development of 
standards; develop an enduring R&D capability for homeland security; 
and receive valuable input from private industry and academia as well 
as national and Federal laboratories. I will talk about the offices 
first and then about the portfolios.

Office of Plans, Programs and Budgets
    The Office of Plans, Programs and Budgets operates under the 
supervision of Dr. Penrose Albright. He has organized this office into 
the portfolios I just mentioned, each of which is focused on a 
particular discipline or activity; taken together, these portfolios 
span the Directorate's mission space. As I will cover the portfolios in 
detail later in this testimony, I will limit myself here to a summary 
explanation. The staff of each portfolio is charged with being expert 
in their particular area; with understanding the activities and 
capabilities extant in Federal agencies and across the broad research 
and development community; and with developing a strategic plan for 
their particular portfolio, to include near-, mid-, and long-range 
research and development activities. In addition, we have staff that is 
charged with understanding the threat from a technical perspective, 
with integrating the various portfolios into a coherent overall plan, 
and with developing the corresponding budget and monitoring its 
financial execution.
    Finally, the Office of Plans, Programs and Budget is responsible 
for executing the Directorate's implementation responsibilities for the 
SAFETY (Support Anti-Terrorism by Fostering Effective Technologies) 
Act.

Office of Research and Development
    We are fortunate to have Dr. Maureen McCarthy as our Director of 
Science and Technology's Office of Research and Development (ORD). Dr. 
McCarthy has served as Chief Scientist for the National Nuclear 
Security Administration and the Department of Energy (DOE) and was 
previously DOE's senior representative to the Homeland Security 
Transition Planning Office. She will lead the office as it strives to 
provide the Nation with an enduring capability in research, 
development, demonstration, testing and evaluation of technologies to 
protect the homeland. This office also plans to provide stewardship to 
the scientific community and to preserve and broaden the leadership of 
the United States in science and technology.
    Activities within ORD address the resources that can be brought to 
bear to better secure the homeland through the participation of 
universities, national laboratories, Federal laboratories and research 
centers. Directors have been appointed to lead efforts in each of these 
areas and staff is being added rapidly.

Homeland Security Advanced Research Projects Agency
    Dr. David Bolka joined us in September 2003 as director of the 
Homeland Security Advanced Research Projects Agency, known as HSARPA. 
Dr. Bolka made significant contributions in advancing technical and 
scientific projects in his prior work with Lucent Technologies and Bell 
Laboratories, following a notable career in the United States Navy.
    HSARPA is the external research-funding arm of the Science and 
Technology Directorate. It has at its disposal the full range of 
contracting vehicles and the authority under the Homeland Security Act 
to engage businesses, federally funded research and development 
centers, universities and other government partners in an effort to 
gather and develop viable concepts for advanced technologies to protect 
the homeland.
    HSARPA's mission, as stated in the Homeland Security Act of 2002, 
is to support basic and applied homeland security research to promote 
revolutionary changes in technologies that would promote homeland 
security; advance the development, testing and evaluation, and 
deployment of homeland security technologies; and accelerate the 
prototyping and deployment of technologies that would address homeland 
security vulnerabilities. Its customers are State and local first 
responders, and Federal agencies that are allied with homeland security 
such as the United States Coast Guard, United States Secret Service, 
the U.S. Citizenship and Immigration Services, the Federal Emergency 
Management Agency and others.
    About 60 percent of the Science and Technology Directorate's 
appropriation in fiscal year 2004 will be executed directly through the 
private sector with HSARPA managing about half of that. At least 5 to 
10 percent of HSARPA's funds are dedicated for revolutionary, long-
range research for breakthrough technologies and systems.

Office of Systems Engineering and Development
    Mr. John Kubricky joined us in early October 2003 as our Director 
of the Office of Systems Engineering and Development (SE&D). He is 
tasked with leading the implementation and transition of large-scale or 
pilot systems to the field through a rapid, efficient and disciplined 
approach to project management. Mr. Kubricky previously served as 
Advanced Program Development Manager for Northrop Grumman and has held 
senior positions with California Microwave and Westinghouse Defense.
    One of the Science and Technology Directorate's challenges is to 
evaluate a wide spectrum of military and commercial technologies so 
rapid, effective and affordable solutions can be transitioned to the 
Department's customers that include first responders and Federal 
agencies. In some cases, military technologies could be candidates for 
commercialization, but rigorous systems engineering processes need to 
be applied to ensure a successful transition. SE&D's role is to 
identify and then, in a disciplined manner, retire risks associated 
with such technologies to ready them for deployment to the field. In 
doing so, the office must view each technology through the prism of 
affordability, performance and supportability--all critical to end-
users.
    SE&D must weigh considerations such as the urgency for a solution, 
consequences of the threat, safety of the product, and lifecycle 
support as new products are introduced. Products must be user friendly, 
have a minimum of false alarms, require little or no training and 
consistently provide accurate results. SE&D will demonstrate and test 
solutions before they are released to the field, and will validate that 
those solutions meet user expectations.

Office of Weapons of Mass Destruction Operations and Incident 
        Management
    We created the Office of Weapons of Mass Destruction Operations and 
Incident Management to serve as the Science and Technology 
Directorate's technical support for crisis operations. The office 
provides scientific advice and support to the Office of the Secretary 
of Homeland Security in assessing and responding to threats against the 
homeland. This office's activities are primarily focused on the 
biological, chemical, radiological, and nuclear threats.
results from current research and development (r&d) spending and fiscal 

                   YEAR 2005 PLANS: PORTFOLIO DETAILS

    As I have mentioned, the Science and Technology Directorate has 
organized its efforts into research and development portfolios that 
span the set of product lines of the Directorate.
    Four portfolios address specific terrorist threats:
  --Biological Countermeasures
  --Chemical Countermeasures
  --High Explosive Countermeasures
  --Radiological and Nuclear Countermeasures
    Four portfolios crosscut these threats:
  --Threat and Vulnerability, Testing and Assessment--this portfolio 
        includes our support to the Information Analysis and 
        Infrastructure Protection Directorate, including our critical 
        infrastructure protection and cybersecurity activities.
  --Standards
  --Emerging Threats
  --Rapid Prototyping
    We also have portfolios that support the operational units of the 
Department (Border and Transportation Security; Emergency Preparedness 
and Response, United States Coast Guard and United States Secret 
Service) in both their homeland security and conventional missions.
    Our University and Fellowship Programs portfolio addresses the need 
to build an enduring science and technology capability and support 
United States leadership in science and technology.
    Our most recent program, Counter-MANPADS, is seeking to improve 
technologies to protect commercial aircraft from the threat of MAN-
Portable Air Defense Systems (MANPADS).
    In addition, the Science and Technology Directorate is responsible 
for the management of one of the United States government's E-Gov 
Initiatives, the SAFECOM Program. There are tens of thousands of State 
and local public safety agencies, and 100 Federal law enforcement 
agencies that depend on interoperable wireless communications. The 
SAFECOM (Wireless Public SAFEty Interoperable COMmunications) program 
is the umbrella initiative to coordinate all Federal, State, local, and 
Tribal users to achieve national wireless communications 
interoperability. The placement of SAFECOM in the Department of 
Homeland Security's Science and Technology Directorate allows it full 
access to the scientific expertise and resources needed to help our 
Nation achieve true public safety wireless communications 
interoperability.
    At this time I would like to briefly describe some of our 
accomplishments to date and our fiscal year 2005 plans. As can be seen 
in the following chart, we have an overall fiscal year 2005 budget 
request of $1.039 billion, which is an increase of $126.5 million (13.9 
percent) over the fiscal year 2004 levels. The request includes $35 
million for construction of facilities. In addition, the increase 
includes President Bush's request for an additional $65 million to 
enhance and expand the BioWatch Program.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                     Increases/Decreases from
                                                    Fiscal year      Proposed        fiscal year 2004 to 2005
         Budget activity            Fiscal year      2004 less      fiscal year  -------------------------------
                                    2003 Amount     rescission      2005 Amount                       Percent
                                                      Amount                          Amount         increase
----------------------------------------------------------------------------------------------------------------
Budget Activity M&A.............            $0.0           $44.2           $52.6            $8.4            19.1
    Salary and expenses.........             0.0            44.2            52.6             8.4            19.1
Budget Activity R&D.............           553.5           868.7           986.7           118.0            13.6
    Bio Countermeasures (incl.             362.6           285.0           407.0           122.0            42.8
     NBACC).....................
    High-Explosives                          0.0             9.5             9.7             0.2             2.1
     Countermeasures............
    Chemical Countermeasures....             7.0            52.0            53.0             1.0             1.9
    R/N Countermeasures.........            75.0           126.3           129.3             3.0             2.4
    TVTA (incl. CIP & Cyber)....            36.1           100.1           101.9             1.8             1.8
    Standards...................            20.0            39.0            39.7             0.7             1.9
    Components..................             0.0            34.0            34.0             0.0             0.0
    University & Fellowship                  3.0            68.8            30.0           -38.8           -56.4
     Programs...................
    Emerging Threats............            16.8            21.0            21.0             0.0             0.0
    Rapid Prototyping...........            33.0            73.0            76.0             3.0             4.1
    Counter MANPADS.............             0.0            60.0            61.0             1.0             1.7
    R&D Consolidation                        0.0             0.0            24.1            24.1  ..............
     transferred funds..........
                                 -------------------------------------------------------------------------------
      Total enacted                        553.5           912.8          1039.3           126.5            13.9
       appropriations and budget
       estimates................
----------------------------------------------------------------------------------------------------------------

Biological Countermeasures
    Biological threats can take many forms and be distributed in many 
ways. Aerosolized anthrax, smallpox, foot and mouth disease, and bulk 
food contamination are among the threats that can have high 
consequences for humans and agriculture. Our Biological Countermeasures 
portfolio uses the Nation's science base to prevent, protect, respond 
to and recover from bioterrorism events. This portfolio provides the 
science and technology needed to reduce the probability and potential 
consequences of a biological attack on this Nation's civilian 
population, its infrastructure, and its agricultural system. Portfolio 
managers and scientists are developing and implementing an integrated 
systems approach with a wide range of activities, including 
vulnerability and risk analyses to identify the need for vaccines, 
therapeutics, and diagnostics; development and implementation of early 
detection and warning systems to characterize an attack and permit 
early prophylaxis and decontamination activities; and development of a 
national bioforensics analysis capability to support attribution of 
biological agent use.
    In fiscal year 2003 and 2004, the Biological Countermeasures 
portfolio:
    Deployed BioWatch to approximately 30 cities across the Nation. 
BioWatch consists of air samplers that detect the release of biothreat 
pathogens, such as anthrax, in a manner timely enough to allow for 
effective treatment of the exposed population. In addition, with 
additional funds provided by Congress in fiscal year 2004, we were able 
to integrate environmental monitoring data with biosurveillance to 
provide early attack alerts and assessments. The environmental 
monitoring activities include not only BioWatch, which provides 
continuous monitoring of most of our major metropolitan areas, but also 
targeted monitoring that is temporarily deployed for special national 
needs, such as a Homeland Security Elevated Threat Level. While serving 
the primary function of mitigating attacks, both BioWatch and 
environmental monitoring systems also play a significant deterrent 
role, since terrorists are less likely to attack when they know that 
defensive systems prevent them from attaining their goals.
    Established the National Biodefense Analysis and Countermeasures 
Center, which provides scientific support for intelligence activities, 
prioritizes biothreats, and conducts bioforensic analyses for 
attribution and hence deterrence.
    In fiscal year 2005, we will build upon our past work and continue 
to deploy and improve wide area monitoring systems for urban areas. 
Under President Bush's new Biosurveillance Initiative, which accounts 
for most of the fiscal year 2005 increase in funding, additional 
capability will be implemented quickly in the top threat urban areas to 
more than twice the current capability. We will be working on 
decontamination technologies and standards for facilities and outdoor 
areas, and a National Academy of Science study characterizing 
contamination risks will be completed in fiscal year 2005. At a smaller 
scale, we will define requirements for expanded technology in detect-
to-warn scenarios relevant to facilities monitoring. At the same time, 
we will be building our capabilities in the National Biodefense 
Analysis and Counterterrorism Center (NBACC) and at Plum Island Animal 
Disease Center (PIADC). At the NBACC, we are focusing first on 
bioforensics and development of a biodefense knowledge center; for 
agro-bioterrorism, we are prioritizing countermeasures to foreign 
animal diseases. We are requesting additional funding in fiscal year 
2005 for Plum Island to improve the facilities and security of this 
important research and development site.

Chemical Countermeasures
    The National Research Council Report Making the Nation Safer points 
out that ``chemicals continue to be the weapon of choice for terrorist 
attacks.'' The large volumes of toxic industrial chemicals and 
materials along with the potential for chemical warfare agents and 
emerging threat agents constitute a broad range of threats that may be 
applied to virtually any civilian target.
    Our Chemical Countermeasures portfolio provides the science and 
technology needed to reduce the probability and potential consequences 
of a chemical attack on this Nation's civilian population. The 
portfolio places high priority on characterizing and reducing the 
vulnerability posed by the large volumes of toxic industrial materials 
in use, storage or transport within the Nation. The research and 
development activities include prioritization of efforts among the many 
possible chemical threats and targets, and development of new detection 
and forensic technologies and integrated protective systems for high-
value facilities such as airports and subways. These activities are 
informed by end-user input and simulated exercises.
    Over the past year, our Chemical portfolio completed Project 
PROTECT--Program for Response Options and Technology Enhancements for 
Chemical/Biological Terrorism--a program conducted in collaboration 
with the Washington Metropolitan Area Transit Authority (WMATA). 
PROTECT, an operational chemical agent detection and response 
capability, significantly decreases response time, which in the event 
of an attack will save human lives. PROTECT is deployed in Metro 
stations and is operated by the WMATA.
    In fiscal year 2005, our focus will be on protecting facilities 
from chemical attacks and controlling the industrial chemicals that may 
be used for such attacks. Our scientists, working with the Information 
Analysis and Infrastructure Protection Directorate (IAIP), will 
complete a detailed end-to-end study of three reference scenarios, to 
culminate in recommendations for top-level architectures, 
identification of key gaps, and a ``report card'' showing present, mid-
term (3-year), and long-term (5-plus year) capabilities. We will 
qualify candidate off-the-shelf sensors for demonstration in an 
application to facilities protection. We will also address response and 
recovery. Working with the user community, we will develop first-
generation playbooks for responding to the three reference scenarios 
and develop technical requirements for personal protection equipment.

High Explosives Countermeasures
    The High Explosives Countermeasures portfolio addresses the threat 
that terrorists will use explosives in attacks on buildings, critical 
infrastructure, and the civilian population of the United States. The 
Science and Technology Directorate's portfolio is closely coordinated 
with the activities ongoing in the Transportation Security 
Administration to ensure that research and development (R&D) activities 
are complementary, not duplicative. R&D priorities in this portfolio 
have focused on the detection of vehicle bombs and suicide bombers, and 
on providing the science and technology needed to significantly 
increase the probability of preventing an explosives attack on 
buildings, infrastructure and people.
    This portfolio in fiscal year 2005 will develop and field 
equipment, technologies and procedures to interdict suicide bombers and 
car and truck bombs before they can reach their intended targets while 
minimizing the impact on the American way of life. We will complete 
testing and evaluation of known procedures and commercial off-the-shelf 
devices applicable to indoor or outdoor interdiction of suicide 
bombers, and develop a training package for local law enforcement, 
including recommended equipment and procedures. In addition, we will 
support the development of new devices to interdict suicide bombers and 
study the feasibility of using existing detectors to identify 
explosives in trucks. Finally, we will analyze the costs and benefits 
of hardening aircraft cargo containers, cargo bays, and overhead bin 
storage compartments to better withstand the effects of an explosion.

Radiological and Nuclear Countermeasures
    Potential radiological and nuclear threats range from the 
deliberate dispersal of small amounts of radioactive material to the 
detonation of an improvised or stolen nuclear weapon to an attack on 
our nuclear power industry. Our Radiological and Nuclear 
Countermeasures portfolio provides the science and technology needed to 
reduce both the probability and the potential consequences of a 
radiological or nuclear attack on this Nation's civilian population or 
our nuclear power facilities.
    On August 19, 2003, our Radiological and Nuclear Countermeasures 
portfolio formally assumed management of the Port Authority of New York 
and New Jersey radiation detection test bed. The test bed was 
previously managed by the United States Department of Energy. Following 
the transfer, we have broadened the project scope beyond testing and 
evaluating individual pieces of technology to a systems approach, 
including response protocols and operational concepts. As part of the 
Science and Technology Directorate's effort, radiation detection 
sensors will be deployed and operated by Federal, State, and local 
inspectors and police at land, maritime and aviation venues. By judging 
the efficacy of deployed systems over time, we will be able to inform 
future decisions on detection technology R&D investment, deployment of 
urban monitoring systems, configurations best able to enhance security, 
and viable ways to defend against a radioactive dispersal device or an 
improvised nuclear device.
    For fiscal year 2005, we plan to leverage our previous technology 
and capability successes and place a high priority on providing the 
end-user community with the most appropriate and effective detection 
and interdiction technologies available to prohibit the importation or 
transportation and subsequent detonation of a radiological or nuclear 
device within U.S. borders. Specifically, we will do the following:
  --Integrate at least five Federal, State, and local sites into an 
        operational detection system architecture to detect 
        radiological and nuclear threats;
  --Establish a test and evaluation capability, and test and evaluate 
        90 percent of the fiscal year 2005 prototype technologies 
        developed in the portfolio's programs;
  --Demonstrate two advanced characterization technologies for crisis 
        response; and
  --Demonstrate a prototype for automatic radiological imaging analysis 
        that enhances current imaging systems at one pilot site.

Threat and Vulnerability, Testing and Assessment
    Our Threat and Vulnerability, Testing and Assessment (TVTA) 
portfolio is one of our largest portfolios, and includes our scientific 
and technical support to the Information Analysis and Infrastructure 
Protection (IAIP) Directorate. TVTA includes our R&D activities in 
Critical Infrastructure Protection and Cybersecurity. Activities in 
this portfolio are designed to help evaluate extensive amounts of 
diverse threat information; detect and document terrorist intent; 
couple threat information with knowledge of complex, interdependent 
critical infrastructure vulnerabilities; and enable analysts to draw 
timely insights and distribute warnings from the information. This 
portfolio provides the science and technology needed to develop methods 
and tools to test and assess threats and vulnerabilities to protect 
critical infrastructure and enhance information exchange; this 
portfolio also includes a Biometrics Program and a Cybersecurity 
Program.
    In fiscal year 2004, TVTA:
  --Developed and installed an operational component, the Threat-
        Vulnerability Mapper (TVM), as part of the Threat and 
        Vulnerability Integration System for the Information Analysis 
        and Infrastructure Protection Directorate. The TVM provides 
        counterterrorism analysts with a simple, straightforward way 
        not only to depict the geographic distribution of threats 
        across the United States, but also to search the underlying 
        databases for information on the possible actors, agents, 
        potential severity of attacks, and extent of the 
        vulnerabilities to and effects of such attacks.
  --Co-funded the Cyber Defense Technology Experimental Research 
        (``DETER'') Network with the National Science Foundation, a 
        $5.45 million, 3-year research project to create an 
        experimental infrastructure network to support development and 
        demonstration of next-generation information security 
        technologies for cyber defense. This is a multi-university 
        project led by the University of California at Berkeley.
  --Developed a Decision Support System focused on prioritizing 
        investment, protection, mitigation, response, and recovery 
        strategies related to Critical Infrastructure Protection. The 
        initial proof-of-concept began in August 2003 and a case study 
        is being conducted in February 2004. The prototype model will 
        include representation of all 14 critical infrastructure 
        sectors/assets and their interdependencies.
  --Developed advanced algorithms for speeding the creation of DNA 
        signatures for biological pathogen detection through the 
        Advanced Scientific Computing Research and Development program. 
        These discoveries will result in cheaper, faster and more 
        reliable bio-detectors for homeland security.
    In fiscal year 2005, TVTA will provide the science and technology 
capabilities and enduring partnerships needed to develop methods and 
tools to test and assess threats and vulnerabilities to protect 
critical infrastructure and enhance information exchange. The Threat-
Vulnerability Mapper is only one component of a large Threat and 
Vulnerability Information System that we will continue to build, 
drawing upon advances in the information and computer sciences as well 
as innovative analytic techniques. Our objective is to continually 
improve an analyst's capability to answer threat-related questions. The 
Science and Technology Directorate will contribute to the capability to 
produce high-quality net assessments and assessments of weapons of mass 
destruction.
    We will develop advanced computing algorithms in support of 
improved aerosol dispersion models, blast effects calculations, neutron 
interrogation models, bioinformatics, and scalable information 
extraction; improved algorithms make more accurate information 
available faster. We will continue to provide, in collaboration with 
other relevant organizations, the science and technology and associated 
standards needed in the development of biometrics for precise 
identification of individuals and develop instrumentation to aid 
authorized officials in detecting individuals with potentially hostile 
intent. In the cybersecurity area, the DETER Network testbed will be up 
and running, and we will competitively fund several low-cost, high-
impact solutions to specific cybersecurity problems.

Standards
    Ensuring that standards are created and adopted is critically 
important for homeland security. We need consistent and verifiable 
measures of effectiveness in terms of basic functionality, 
appropriateness and adequacy for the task, interoperability, 
efficiency, and sustainability. Standards will improve the quality and 
usefulness of homeland security systems and technologies. Our Standards 
portfolio cuts across all aspects of the Science and Technology 
Directorate's mission and all threats to improve effectiveness, 
efficiency, and interoperability of the systems and technologies 
developed, as envisioned in the Homeland Security Act.
    Our Standards portfolio continues to actively engage the Federal, 
State, and local first responders to ensure that developed standards 
are effective in detection, prevention, response, management, and 
attribution. This portfolio also conducts the essential activities in 
order to meet the requirement of the SAFETY (Support Anti-Terrorism by 
Fostering Effective Technologies) Act in developing certification 
standards for technologies related to homeland security.
    In fiscal year 2004, our Standards portfolio:
  --Created initial standards guidelines, with formal standards nearing 
        completion, for radiation pagers, hand-held radiation dosimetry 
        instruments, radioisotope identifiers and radiation portal 
        monitors. These standards were developed under the auspices of 
        the American National Standards Institute's Accredited American 
        Standards Committee on Radiation Instrumentation.
  --Published guidelines for interoperable communications gear. Common 
        grant guidance has been developed and incorporated in the 
        public safety wireless interoperability grant programs of both 
        the Department of Justice and the Department of Homeland 
        Security;
  --Launched the SAFETY Act process for evaluating anti-terrorism 
        technologies for potential liability limits.
    In fiscal year 2005, the Standards portfolio will continue to work 
on many fronts and with many partners to establish needed standards for 
technologies (including equipment), processes, and systems. We will 
especially focus on two major milestones. First, we will establish 
technical standards and test and evaluation protocols for 
decontamination technologies and analysis across the ranges of weapons 
of mass destruction. Second, we will publish a ``Consumer's Report'' on 
radiation and bioagent detection devices for Federal, State, and local 
users.

Emerging Threats
    It is truly the threats we do not yet know that are often the most 
terrifying. Our Emerging Threats portfolio addresses the dynamic nature 
of terrorist threats, as science and technology advancements enable new 
agents of harm and new ways to employ them. This portfolio places high 
priority on developing the capability to use innovative, crosscutting, 
out-of-the-box approaches for anticipating and responding to new and 
emerging threats. Successful identification of emerging threats will 
permit capabilities to be developed to thwart these emerging threats 
before they are used.
    Relevant R&D is underway at other agencies and organizations; thus, 
partnerships in this area hold great potential for synergistic focus on 
homeland security. Work is being done and will continue to be pursued 
in partnership with the Departments of Energy, Defense, Justice, and 
Agriculture, the intelligence community, and the National Institutes of 
Health.
    In fiscal year 2003 and 2004, our scientists in the Emerging 
Threats portfolio established informal partnerships with the 
intelligence community and with the United States Secret Service in 
order to leverage ongoing activities in support of over-the-horizon 
assessment.
    In fiscal year 2005, we will leverage the activities started during 
fiscal year 2004, and continue to focus on developing the capability to 
use innovative, crosscutting, out-of-the-box approaches for 
anticipating and responding to new and emerging threats and to develop 
revolutionary technologies to combat them.

Rapid Prototyping
    By accelerating the time needed to develop and commercialize 
relevant technologies, the Science and Technology Directorate will 
ensure that operational end-users will be better able to prevent 
terrorist attacks, reduce the Nation's vulnerability, and minimize the 
damage and assist in recovery if attacks occur. Our Rapid Prototyping 
portfolio advances the Directorate's mission to conduct, stimulate and 
enable research, development, test, evaluation and timely transition of 
homeland security capabilities to Federal, State and local operational 
end-users.
    In fiscal year 2003 and fiscal year 2004, the Rapid Prototyping 
portfolio provided funding of $30 million each year through our 
Homeland Security Advanced Research Projects Agency (HSARPA) to the 
interagency Technical Support Working Group (TSWG) to solicit ideas, 
concepts and technologies for 50 requirement areas of interest to both 
the Department and TWSG; initial contracts have been made and HSARPA 
will provide the programmatic monitoring of those efforts for the 
Science and Technology Directorate. This portfolio also provided 
support through HSARPA for a joint port and coastal surveillance 
prototype testbed designated ``HAWKEYE'' with the United States Coast 
Guard. Funding has been made available to support the creation of a 
Technology Clearinghouse as required in the Homeland Security Act of 
2002.
    In fiscal year 2005, this program will continue to provide a 
mechanism for accelerated development of technologies relevant to 
homeland security in a process driven by technology developers. Through 
rapid prototyping and commercialization, these technologies will be 
made available to operational end-users as quickly as possible, thus 
increasing their capability to secure the homeland.

Support to Department of Homeland Security Components
    As I have mentioned, the operational components of the Department 
are my customers. The Department of Homeland Security's Science and 
Technology Directorate supports the missions of the Information 
Analysis and Infrastructure Protection (IAIP) Directorate, Border and 
Transportation Security (BTS), Emergency Preparedness and Response 
(EP&R), United States Coast Guard (USCG), and United States Secret 
Service (USSS). Our TVTA portfolio supports the mission of the IAIP 
Directorate as previously indicated. This portfolio places high 
priorities on high-risk, high-reward research and development relevant 
to homeland security that might not otherwise be conducted in support 
of the missions of BTS, EP&R, USCG, and the USSS.
    In fiscal year 2003 and fiscal year 2004, we continued to support 
the conventional missions of these operational components. Ongoing 
activities within BTS, USCG and USSS focus on preventing terrorists and 
terrorist weapons (particularly weapons of mass destruction) from 
entering the United States, on detecting and preventing cyber attacks, 
supporting maritime transportation, safety and economy (Port and 
Channel navigation, Search and Rescue, and Aquatic Nuisance Species 
Remediation), and on preventing attacks on United States Secret Service 
protectees and high-visibility venues.

Support to Border and Transportation Security
    The Science and Technology Directorate supports all elements of BTS 
enforcement and facilitation processes through identifying operational 
requirements, developing mission capabilities-based technological needs 
and implementing a strategic plan. We are providing systems engineering 
support to various BTS programs including US VISIT and Unmanned Aerial 
Vehicles.
    The Science and Technology Directorate's support to the BTS 
Directorate is accomplished by implementing a capabilities-based 
technology planning process. The capabilities-based approach 
establishes the scope of effort and framework for a technology plan. 
Through a series of user conferences and technology opportunity 
conferences, requirements are developed and prioritized for new and 
improved capabilities. Operational personnel identify capabilities and 
technology personnel identify potential development opportunities. 
Capability gaps and possible technology solutions are proposed, and a 
budget is developed to distinguish between both funded and unfunded 
needs.
    The Science & Technology Directorate co-chairs with BTS, the 
Department's Unmanned Aerial Vehicle (UAV) Working Group, which is 
currently focused on developing the Border and Transportation Security 
operational requirements for UAVs and related technologies, e.g., 
aerostats, blimps, lighter than air (LTA) ships, and fixed and mobile 
towers. The starting point for the requirements generation process is 
six BTS capability objectives we have identified that could benefit by 
the utilization of UAVs: surveillance and monitoring communications, 
apprehension, targeting, intelligence, deterrence, and officer safety. 
Functional capabilities that could be filled or improved through the 
application of UAVs and other technologies have been identified. Based 
on these high-level requirements, the Science and Technology 
Directorate is developing concepts of operations and assumptions that 
will be used in conducting an Analysis of Alternatives that will 
include UAVs and other technologies.
    In fiscal year 2005 we will be involved in a wide range of 
activities supporting the components, based upon their needs. For BTS, 
we will focus on discovering and implementing technologies that include 
improved screening and inspection, access control, document 
verification and validity, and data compression and analysis.

Support to Emergency Preparedness and Response
    The Nation has more than 750 regionally accredited community 
colleges. Community colleges train more than 80 percent of our 
country's first responders; these first responders are critical for 
homeland security. The Science and Technology Directorate has a 
responsibility to ensure that these first responders have the necessary 
tools available to them to perform their jobs effectively and safely on 
a daily basis. This portfolio has a key role in our meeting that 
responsibility.
    The scope of our EP&R portfolio includes research, development, 
test and evaluation for State, local and Federal emergency responders 
and emergency managers. Particular emphasis is placed on technology 
integration at all levels of government, technology insertion for 
weapons of mass destruction detection and monitoring systems, and long- 
term sustained performance and interoperability to enhance State and 
local preparedness.
    Our work in the EP&R portfolio focuses on three major areas:
  --Technology development for first responders
  --Scientific and technical support to Federal response
  --Technology integration--Safe Cities
    The Safe Cities Program, a new initiative in fiscal year 2004, is 
focused on implementing technology and operational system solutions in 
local communities/regions. This program is being piloted in a select 
number of cities in fiscal year 2004 and will be conducted in close 
cooperation with State and local emergency managers and city planners 
to identify capability needs and gaps that advanced technologies being 
developed by the Science and Technology Directorate can meet. The Safe 
Cities Program seeks to provide technology and operational solutions 
that are sustainable by the communities in which they are implemented. 
The Safe Cities Program will enable us to better understand the 
operational context into which new technologies will be inserted. The 
Program will result in the creation of an infrastructure that 
facilitates the evaluation of new technologies in real-world operating 
environments as well as providing a venue for integrating these 
technologies with existing State and local systems.
    In fiscal year 2005 the EP&R portfolio will continue its focus on 
technology development and technical guidance for first responders 
(State and local), scientific and technical support to the EP&R 
Directorate; and expansion of technology integration--Safe Cities.

Support to United States Coast Guard
    The Science & Technology Directorate is integrating a major 
research program into a United States Coast Guard operational testbed 
in south Florida. The HAWKEYE program injects technologies (such as 
Surveillance, Command & Control, Sensor Fusion, and Communications) 
allowing simultaneous evaluation of technology performance as a direct 
impact on mission execution.

Support to the United States Secret Service
    We have coordinated with the United States Secret Service and 
established its first direct-funded R&D program. Based upon 
appropriated funding, four initiatives have been identified and 
prioritized, and are underway in fiscal year 2004. In addition, there 
will be joint activities in support of the assessment of emerging 
threats.
Homeland Security University and Fellowship Programs
    In this portfolio we seek to develop a broad research capability 
within the Nation's universities to address scientific and 
technological issues related to homeland security. The portfolio places 
high priorities on developing academic programs and supporting students 
in order to build learning and research environments in key areas of 
Departmental interest.
    In fiscal year 2004, this portfolio established the Department of 
Homeland Security's first University-based Center of Excellence, for 
Risk and Economic Analysis of Terrorism Events. The Center, based at 
the University of Southern California, will assess the level of risk 
associated with various terrorist scenarios, in particular the 
potential economic consequences. A request for proposals has been 
issued for the next two Centers of Excellence, which will focus on 
Foreign Animal and Zoonotic Disease Defense and Post-Harvest Food 
Protection and Defense.
    Last fall, we awarded our 2003-2004 academic year DHS Scholarships 
and Fellowships, and welcomed our new Scholars and Fellows with a 
reception in Washington, DC. The solicitation for this program received 
just under 2,500 applications for 100 Scholarships and Fellowships. 
Besides making immediate contributions to homeland security-related 
R&D, these students will be part of the development of a broad research 
capability within the Nation's universities to address scientific and 
technological issues related to homeland security.
    During fiscal year 2005, another 100 Scholars and Fellows will be 
supported for the academic year of 2004-2005, bringing the total of 
supported students to 200. We will also continue to support the 
Homeland Security University Centers of Excellence established in 
fiscal year 2004, each with a different subject expertise focused on 
reducing the terrorist threat on the United States. Each Center of 
Excellence is awarded an initial 3-year contract whose annual cost we 
account for in our planning.

Counter-MANPADS
    The Counter-MANPADS program is focused on identifying, developing, 
and testing a cost-effective capability to protect the Nation's 
commercial aircraft against the threat of man-portable, anti-aircraft 
missiles. This program also provides the science and technology base 
needed to reduce the vulnerability of commercial aircraft to terrorist 
attack using man-portable anti-aircraft missiles.
    Over the past year, we have had a successful solicitation 
announcing a program to address the potential threat of MANPADS to 
commercial aircraft. White papers responding to the Counter-MANPADS 
program solicitation were reviewed by technical experts from the 
Department of Homeland Security, Department of Defense, and other 
government agencies; proposals were evaluated; and awards were made to 
three contractor teams to perform the first of two program phases, 
which began in January, 2004. The first phase will result in a 
preliminary design and a test plan to demonstrate missile 
countermeasure equipment on selected commercial aircraft.
    The second program phase is an 18-month effort beginning in August 
2004, with the one or two contractors that produced the most promising 
results in Phase One. During this phase, the commercial prototype 
countermeasure equipment will be integrated on selected commercial 
aircraft, and live-fire range tests will be accomplished with extensive 
data collection and analysis. Results of this second phase will be 
presented to the Administration and Congress to aid in formulating an 
informed decision on how best to address the protection of commercial 
airlines from the MANPADS threat.

SAFECOM
    The SAFECOM (Wireless Public SAFEty Interoperable COMmunications) 
program is the umbrella initiative to coordinate all Federal, State, 
local, and Tribal users to achieve national wireless communications 
interoperability. The placement of SAFECOM in the Department of 
Homeland Security's Science and Technology Directorate allows it full 
access to the scientific expertise and resources needed to help our 
Nation achieve true public safety wireless communications 
interoperability.
    Since the Science and Technology Directorate formally assumed 
responsibility for the management of the SAFECOM program barely 7 
months ago:
  --SAFECOM has been established as the one umbrella group in the 
        Federal Government for the management of public safety wireless 
        interoperability programs;
  --Common grant guidance has been developed and incorporated in the 
        public safety wireless interoperability grant programs of both 
        the Department of Justice and the Department of Homeland 
        Security;
  --A Federal coordinating structure has, for the first time, been 
        created to coordinate all Federal public safety wireless 
        interoperability programs;
  --The first catalog of national programs touching on public safety 
        wireless interoperability has been developed and published; and
  --The ten major State and local organizations concerned with public 
        safety wireless interoperability--the Association of Public-
        Safety Communications Officials (APCO), International 
        Association of Fire Chiefs (IAFC), International Association of 
        Chiefs of Police (IACP), Major Cities Chiefs Association (MCC), 
        National Sheriffs' Association (NSA), Major County Sheriffs' 
        Association (MCSA), National Association of Counties (NACO), 
        National League of Cities (NLC), National Public Safety 
        Telecommunications Council (NPSTC), and the United States 
        Conference of Mayors (USCM)--released a statement in support of 
        the SAFECOM program which declared that ``With the advent of 
        the SAFECOM Program . . . Public safety, State and local 
        government finally have both a voice in public safety 
        discussions at the Federal level and confidence that the 
        Federal Government is coordinating its resources.''

                             PRIORITIZATION

    The Science and Technology Directorate has prioritized its research 
and development efforts based on the directives, recommendations and 
suggestions from many sources, including:
  --Homeland Security Act of 2002;
  --The fiscal year 2004 Congressional Appropriations for the 
        Department of Homeland Security;
  --President Bush's National Strategy for Homeland Security, the 
        National Strategy for the Physical Protection of Critical 
        Infrastructure and Key Assets, the National Strategy to Combat 
        Weapons of Mass Destruction, the National Strategy to Secure 
        Cyberspace, and the National Security Strategy;
  --President Bush's nine Homeland Security Presidential Directives;
  --Office of Management and Budget's 2003 Report on Combating 
        Terrorism;
  --Current threat assessments as understood by the Intelligence 
        Community;
  --Requirements identified by other Department components;
  --Expert understanding of enemy capabilities that exist today or that 
        can be expected to appear in the future; and
  --The report from the National Academy of Science on ``Making the 
        Nation Safer: The Role of Science and Technology in Countering 
        Terrorism,'' and the reports from the Gilmore, Bremer and Hart-
        Rudman Committees.
    Identifying and integrating the information contained in these 
sources has not been a small task, but the result, coupled with expert 
evaluation and judgment by our scientific staff, is the basis for 
determining the research and development needed to meet our mission 
requirements.

 DIVISION OF EFFORT AMONG THE DHS S&T DIRECTORATE AND RESEARCH EFFORTS 
                      AT OTHER GOVERNMENT AGENCIES

    One of the accomplishments of which I am personally most proud is 
the emphasis our new Directorate has put on interacting with other 
Federal departments and agencies. Knowledge of other science and 
technology programs and their results, appropriate collaboration 
between agencies, coordination of relevant programmatic activities, and 
information sharing are essential for us to best meet our mission 
requirements. Science and Technology Directorate cybersecurity 
personnel and those at the National Science Foundation and the National 
Institute of Standards and Technology have already established 
collaborative and coordinated programs to ensure no duplication of 
effort. Our biological and chemical countermeasures staff have 
partnered with the Department of Defense's (DOD's) Defense Threat 
Reduction Agency (DTRA) to plan and execute the BioNet program and 
roadmap the biological countermeasures R&D programs in both agencies to 
understand capabilities and shortfalls. They work with the National 
Science Foundation on pathogen sequencing. The BioWatch program, 
although led by the Science and Technology Directorate, was 
accomplished through collaboration with personnel from the Department 
of Energy's National Laboratories, contractors, the Environmental 
Protection Agency, and the Centers for Disease Control and Prevention. 
We work with DOD's Office of Homeland Defense to ensure the effective 
transfer to the Department of relevant DOD technologies.
    Our high explosives scientists are working with the interagency 
Technical Support Working Group, managed by the Department of State, to 
evaluate commercial off-the-shelf systems with capabilities against 
suicide bombers. The Director of the Homeland Security Advanced 
Research Projects Agency is a member of the TSWG Executive Committee. 
Our staff are in frequent contact with the Office of Science and 
Technology Policy on a range of issues, and several are members and co-
chairs of the Office of Science and Technology Policy's National 
Science and Technology Council. Our Office of Research and Development 
works closely with the Department of Agriculture to ensure that the 
Plum Island Animal Disease Center facility is operating smoothly and 
fully meeting its mission. The Office of Research and Development also 
interfaces with the Department of Energy to keep the Office of Science, 
as well as the National Nuclear Security Administration, apprised of 
our long-term homeland security requirements.
    The Department of Homeland Security, Science and Technology 
Directorate recognizes that many organizations are contributing to the 
science and technology base needed to enhance the Nation's capabilities 
to thwart terrorist acts and to fully support the conventional missions 
of the operational components of the Department. Congress recognized 
the importance of the research and development being conducted by 
numerous Federal departments and agencies, and, in the Homeland 
Security Act of 2002, directed the Under Secretary of Science and 
Technology to coordinate the Federal Government's civilian efforts to 
identify and develop countermeasures to current and emerging threats.
    We take this responsibility very seriously.
    We are now initiating the effort needed to coordinate homeland 
security research and development across the entire United States 
Government. It will come as no surprise to the members of this 
Subcommittee that good, solid, effective research and development 
relevant to homeland security is being conducted by the Departments of 
Agriculture, Commerce, Defense, Energy, Justice, Health and Human 
Services, State, and Veteran's Affairs; within the National Science 
Foundation, the Environmental Protection Agency and other Federal 
agencies; and by members of the Intelligence Community.
    Several interagency working groups already exist that are 
addressing issues important to homeland security. The Science and 
Technology Directorate has been, and continues to be, an active 
participant in these working groups, and in most cases has taken a 
leadership role. These fora foster an active exchange of information 
and assist each participating agency in identifying related needs and 
requirements, conducting research and development of mutual benefit, 
and avoiding duplication of effort.
    We also continue to have discussions at multiple levels of 
management with Federal departments and Agencies, as well as with the 
Office of Management and Budget, the Office of Science and Technology 
Policy, and the Homeland Security Council. These discussions ensure 
that the strongest possible links are made and the best possible 
coordination occurs between our Department and those who are conducting 
sector-specific research. By the autumn of 2004, all Department of 
Homeland Security research and development programs will be 
consolidated and all United States Government research and development 
relevant to fulfilling the Department's mission will have been 
identified and coordinated as appropriate. It is important to note that 
this identification and relevant coordination does not imply the 
Department of Homeland Security should have the responsibility and 
authority for these programs within other Federal agencies; it does 
recognize that science and technology advances can have many 
applications, including homeland security.

                    OUTSIDE INPUTS TO THE S&T BUDGET

    The Science and Technology Directorate's budget is built to meet 
the Department's and our mission requirements. As previously discussed, 
we identify and prioritize our efforts using multiple national sources 
and the sharing of information relevant to homeland security among 
government organizations. Our Homeland Security Science and Technology 
Advisory Committee will hold its first meeting February 26-27, 2004, 
and this group will also provide input to the scope, priority and level 
of effort needed to meet our objectives.

      METRICS DEVELOPED BY THE SCIENCE AND TECHNOLOGY DIRECTORATE

    The success of the Science and Technology Directorate depends on 
its ability to identify, develop and transition capabilities to end-
users that enhance the Nation's ability to protect itself. Appropriate 
goals and performance measures must be identified and used to measure 
our progress. The following table identifies the programmatic metrics 
developed by the Science and Technology Directorate's portfolio 
managers; these metrics will be used to measure our performance.
ST0001 Biological Countermeasures
    Long term performance goal.--The United States will have a high-
performance and well-integrated biological threat agent warning and 
characterization system that will include sustainable environmental 
monitoring capability for metropolitan areas; a national special 
security event system for the Nation at large; and identification of 
needs for vaccines and therapeutics for people and animals. Longer term 
research will support the development of biological threat warning and 
characterization systems that address both current and future threats.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Capability to detect and assess biological  FAR=10EE-4, Multiplex 10
 threats, measured by a set of attributes:   assays
 increase sensitivity by decreasing false
 alarm rate (FAR), and increase multiplex
 samples.
Fiscal year 2005 milestones:                Milestones will be achieved
 Decontamination technologies and
 standards for facilities and outdoor
 areas. National Academy of Science study
 characterizes contamination risks.
Fiscal year 2005 milestones: Establishment  Milestones will be achieved
 of a national capability in biodefense
 analysis and agro-bioterrorism
 countermeasures. Research operations
 begin; phased construction continues.
 BioForensics Analysis Center Hub
 operational.
Improved capabilities to detect threats in  Milestone will be achieved
 urban areas (Urban Monitoring Program),
 measured by increased sampling coverage
 and frequency, and capability to detect
 additional threats. Fiscal year 2005
 milestone: increase coverage in top
 threat cities.
Integrated field demonstrations of next-    2 Demos operational
 generation solutions (Domestic
 Demonstrations and Applications Program).
Validated human and agricultural bioassays  10
------------------------------------------------------------------------

ST0002 Chemical Countermeasures
    Long term performance goal.--Develop and deploy a broad capability 
to prevent and rapidly mitigate the consequences of chemical attacks.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Fiscal year 2005 milestone: Development of  Milestone will be achieved
 protocols for the highest priority toxic
 industrial chemicals (TICs) and toxic
 industrial materials (TIMs).
------------------------------------------------------------------------

ST0003 Chemical High Explosives
    Long term performance goal.--The Chemical High Explosives portfolio 
will improve explosives detection equipment and procedures for all 
forms of transportation as well as fixed facilities.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Fiscal year 2005 milestone: Pilot tests of  Milestone will be achieved
 standoff detection technologies.
------------------------------------------------------------------------

ST0004 Radiological & Nuclear Countermeasures
    Long term performance goal.--By fiscal year 2009, an effective 
suite of countermeasures against radiological and nuclear threats will 
be developed with capabilities in detection, intelligence analysis, 
response, and preparedness.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Federal, State and local sites that are     5
 integrated into an operational secondary
 reachback architecture to resolve
 radiological and nuclear alarms.
Performance measures associated with Test   Milestone will be achieved
 and Evaluation (T and E) of developmental
 prototypes of Radiation Detectors.
 Establish a long-range plan for T and E
 capability.
Progression on planned capability           Milestone will be achieved
 development for Nuclear Incident
 Management and Recovery. Demonstrate 2
 advanced detection technologies.
Progression on pre-planned product          Milestone will be achieved
 improvement of deployed technologies.
 Perform critical design reviews for Phase
 One technology improvements for projects
 awarded in fiscal year 2004.
------------------------------------------------------------------------

ST0005 Threat and Vulnerability, Testing & Assessments
    Long term performance goal.--Provide measurable advancements in 
information assurance, threat detection and discovery, linkages of 
threats to vulnerabilities, and capability assessments and information 
analysis required by Departmental missions to anticipate, detect, 
deter, avoid, mitigate and respond to threats to our homeland security.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Improvement in the national capability to   Improvement in 7 categories
 assess threats and vulnerabilities to
 terrorist attacks: 10 categories to be
 assessed.
------------------------------------------------------------------------

ST0006 Standards
    Long term performance goal.--Establish an integrated infrastructure 
for determining and developing standards, and test and evaluation 
protocols for technology used for detecting, mitigating, and recovering 
from terrorist attacks and also to support other Departmental 
components' technologies. Provide consistent and verifiable measures of 
effectiveness of homeland security-related technologies, operators, and 
systems in terms of basic functionality, interoperability, efficiency, 
and sustainability. Facilitate the development of guidelines in 
conjunction with both users and developers.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Long-term implementation of SAFETY Act....  Certifications
Fiscal year 2005 milestones: Technical      Milestones will be achieved
 standards and test/evaluation protocols
 will be established for WMD
 decontamination technologies and analysis
 tools. ``Consumer's report'' on radiation
 and bioagent detection devices for
 Federal, State, and local users will be
 published.
------------------------------------------------------------------------

ST0008 Homeland Security Fellowship Programs/University Programs
    Long term performance goal.--Significantly increase the number of 
U.S. students in fields relevant to homeland security including the 
physical life and social sciences; and engineering.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
To increase the nation's science and        200 students 3 centers
 technology workforce and research
 capability on issues related to homeland
 security. Fiscal year 2005: students
 supported/Centers of Excellence
 established.
------------------------------------------------------------------------

ST0009 Emerging Threats
    Long term performance goal.--To develop effective capabilities to 
characterize, assess, and counter new and emerging threats, and to 
exploit technology development opportunities as they arise.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Improved capability to prevent terrorist    Baseline
 attacks through annual emerging threat
 assessment report (percent of responding
 recipients indicating the report is
 valuable).
------------------------------------------------------------------------

ST0010 Rapid Prototyping
    Long term performance goal.--Support the development of innovative 
solutions to enhance homeland security and work with Federal, State, 
and local governments; and the private sector to implement these 
solutions. In partnership with the Technical Support Working Group 
(TSWG), operate an effective and efficient clearinghouse that will 
develop, prototype, and commercialize innovative technologies to 
support the homeland security mission.

------------------------------------------------------------------------
                                                            Fiscal year
                  Performance measures                      2005 target
------------------------------------------------------------------------
Technologies prototyped or commercialized...............               3
------------------------------------------------------------------------

ST0011 SAFECOM
    Long term performance goal.--Provide public safety agencies with 
central coordination, leadership and guidance to help them achieve 
short-term interoperability and long-term compatibility of their radio 
networks across jurisdictions and disciplines.

------------------------------------------------------------------------
                                                            Fiscal year
                  Performance measures                      2005 target
------------------------------------------------------------------------
Increased interoperability across local, tribal, State,                3
 and Federal public safety jurisdictions and
 disciplines. Fiscal year 2005: Based on fiscal year
 2004 baseline, improvements in 3 categories............
------------------------------------------------------------------------

ST0012 Counter Man-Portable Air Defense System (MANPADS)
    Long term performance goal.--The Nation will have effective 
capabilities to defeat the threat to commercial aircraft of man-
portable anti-aircraft missiles.

------------------------------------------------------------------------
                                                            Fiscal year
                  Performance measures                      2005 target
------------------------------------------------------------------------
Effective technology/technologies for commercial                       2
 aircraft to defeat man-portable anti-aircraft missiles
 identified. Fiscal year 2005: Technologies identified,
 and prototypes developed and tested....................
------------------------------------------------------------------------

ST007 Support to Department of Homeland Security Components
    Long term performance goal.--Increase the capabilities of mission-
focused operational components (BTS, EP&R, Coast Guard, and Secret 
Service) to secure the homeland and enhance their ability to conduct 
their missions.

------------------------------------------------------------------------
                                                            Fiscal year
                  Performance measures                      2005 target
------------------------------------------------------------------------
Improved capability of DHS Components to secure the             Baseline
 homeland as measured by assessment of customer
 organizations in accomplishing agreed-upon areas of
 assistance.............................................
------------------------------------------------------------------------

                   short-term and long-term research
    In the 11 months that this Department has been in existence, the 
Science and Technology Directorate has focused its initial efforts on 
near-term development and deployment of technologies to improve our 
nation's ability to detect and respond to potential terrorist acts. 
However, we recognize that a sustained effort to continually add to our 
knowledge base and our resource base is necessary for future 
developments. Thus, we have invested a portion of our resources, 
including our university programs, toward these objectives. The 
following table indicates our expenditures in basic research, applied 
research, and development to date, excluding construction funding.

                               SCIENCE AND TECHNOLOGY DIRECTORATE R&D INVESTMENTS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
                           Fiscal year                              Fiscal year        2004            2005
                                                                      (actual       (estimated)     (proposed)
----------------------------------------------------------------------------------------------------------------
Basic...........................................................              47             117              80
Applied.........................................................              59              56             229
Developmental...................................................             398             608             643
                                                                 -----------------------------------------------
      Total.....................................................             504             781             952
                                                                 -----------------------------------------------
Percent basic...................................................             9.3            15.0             8.4
----------------------------------------------------------------------------------------------------------------

    Our initial expenditures in basic research are heavily weighted by 
our investments in university programs. These university programs will 
not only provide new information relevant to homeland security, but 
will also provide a workforce of people who are cognizant of the needs 
of homeland security, especially in areas of risk analysis, animal-
related agro-terrorism, bioforensics, cybersecurity, disaster modeling, 
and psychological and behavioral analysis.
    We expect to gradually increase our total percentage of basic and 
applied research to the level needed for sustaining our role as a 
research, development, testing and evaluation (RDT&E) organization.

 RATIONALE FOR BUDGET INCREASES: BIOWATCH AND THE NATIONAL BIODEFENSE 
                  ANALYSIS AND COUNTERMEASURES CENTER

    President Bush's fiscal year 2005 budget request includes a $274 
million Bio-Surveillance Program Initiative to protect the Nation 
against bioterrorism and to strengthen the public health 
infrastructure. Included in this request is an increase of $65 million 
for the Science and Technology Directorate to enhance current 
environmental monitoring activities. This requested increase is a 
direct outgrowth of the recently completed joint Homeland Security 
Council--National Security Council (HSC-NSC) Bio-Defense End-to-End 
study which identified the need for an integrated, real-time, human-
animal-plant surveillance system as a top priority national need. The 
DHS BioWatch system, which currently provides a bio-aerosol warning for 
most of this nation's large metropolitan areas, figures prominently in 
the integrated Biosurveillance initiative. This initiative would 
entail: (1) Expanding BioWatch coverage in the top ten threat cities; 
and (2) Piloting of an integrated attack warning and assessment system 
known as BWICS (BioWarning and Incident Characterization System). 
Currently the ``average'' BioWatch city has about 10 collectors per 
city. Systems studies and city feedback provide a more needs based' 
guide to the optimal number of collectors in our large, high threat 
cities. The systems studies show that about 40-60 collectors provide 
optimal outdoor coverage for a city, while the cities themselves have 
requested additional collectors for key facilities (transit systems, 
airports, stadiums). Alternate labor contracting processes, simplified 
sample handling techniques, and the introduction of additional 
automation in analyses will allow us to do this expansion in a cost 
effective manner.
    The BWICS pilot will integrate real-time bio-surveillance and 
environmental monitoring data with plume hazard predictions, 
epidemiological forecasts, population and critical infrastructure 
databases, and other available resources in two of the highest threat 
cities.
    We also will accelerate R&D on next generation environmental 
monitoring systems. New classes of detectors, that can identify bio-
agents in 2 minutes or less with incredibly low false alarm rates will 
make it possible to do detect-to-protect for key facilities--allowing 
one to reroute air flow or evacuate a facility so as to minimize 
exposure and not simply begin the onset of early treatment. And 
tailoring of existing and emerging detection systems to monitoring key 
high volume nodes in our food processing will be critical to the 
development of proposed food shields.
    The National Biodefense Analysis and Countermeasures Center (NBACC) 
provides scientific support for intelligence activities, prioritizes 
biothreats, and also conducts bioforensic analyses contributing to 
attribution and hence to deterrence. Specifically, the NBACC (both 
facilities and programs) will support public and agricultural health, 
law enforcement, and national and homeland security by providing hub 
laboratory capabilities for:
  --Dedicated and accredited bio-forensic analysis capabilities to 
        support attribution of the use of bio-threat agents (BTA) by 
        criminals, non-State, and State-sponsored actors
  --Laboratory-based, scientific data from the analysis and assessment 
        of biological threats to human health and agriculture to 
        support a national bio-defense net assessment--fundamental to 
        development of national plans, risk assessment evaluations and 
        priorities to deter, detect, mitigate and recover from BTA 
        attack
  --Applied models, materials, and validation processes to evaluate BTA 
        countermeasures
  --Evidenced-based subject matter expertise to integrate, analyze and 
        distribute critical bio-defense and related information 
        assembled from multiple sources through a high security and 
        open clearinghouse.

     TRANSFER OF R&D BUDGETS AND ACTIVITIES FROM OTHER DIRECTORATES

    The Science and Technology Directorate is both a generator and a 
consumer of scientific and technological advances resulting from basic 
and applied research and development. We also have a responsibility for 
testing and evaluating capabilities to ensure that their deployment 
results in improved operational systems. Standards are needed to assist 
first responders and operational components of the Department in 
evaluating, procuring, and deploying new capabilities. This is a broad 
range of responsibility and one we take seriously. The Department has 
defined R&D activities as follows:
    Activities associated with R&D efforts include the development of a 
new or improved capability to the point where it is appropriate for 
operational use, including test and evaluation. R&D activities include 
the analytic application of scientific and engineering principles in 
support of operational capabilities, concept exploration, systems 
development, proof of principle demonstration and pilot deployments, 
standards development, and product improvement including application 
and integration of technologies. For mission (non-management) systems, 
resources associated with developing technology to provide new 
capabilities (including systems engineering, research, development, 
testing and prototyping) are covered under the R&D category.
    This definition encompasses all of the research, development, test, 
and evaluation (RDT&E) efforts of the Science and Technology 
Directorate. It also encompasses RDT&E efforts currently existing in 
other parts of the Department of Homeland Security. The Science and 
Technology Directorate has been tasked to consolidate these activities 
from elsewhere within the Department into our directorate.
    We have begun this coordination process by evaluating and producing 
a report on the research, development, testing, and evaluation work 
that was being conducted within the Department of Homeland Security but 
was not already under the direct cognizance of the Science and 
Technology Directorate. Where it is appropriate, the Science and 
Technology Directorate will absorb these R&D functions. In other cases, 
the Science and Technology Directorate will provide appropriate input, 
guidance, and oversight of these R&D programs.
    Research and Development activities are ongoing in fiscal year 2004 
within the following departmental elements: Border and Transportation 
Security (BTS), Emergency Preparedness and Response (EPR), United 
States Coast Guard (USCG), and United States Secret Service (USSS). The 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
reported no fiscal year 2004 R&D activities.
    The fiscal year 2005 President's Budget contains three programs 
that have been identified to transfer to the Science and Technology 
Directorate. They are United States Coast Guard RDT&E activities 
conducted at their Groton, CT laboratory ($13.5 million); Emergency 
Preparedness and Response RDT&E activities supporting the U.S. Fire 
Administration ($0.65 million); and ICE-Federal Air Marshall's RDT&E 
activities supporting the development of their Air-to-Ground 
Communication System ($10 million).
    The transfer of these three RDT &E Programs is only the start and 
not the complete identification of the potential programs to review for 
consideration. S&T will be working throughout the year with the 
Department and with Congress to identify other existing programs and 
transfer them consistent with direction.

           BUDGET AND ACTIVITIES SUPPORTING CYBERSECURITY R&D

    The cybersecurity program within the Science and Technology 
Directorate is conducted by the Threat and Vulnerability, Testing and 
Assessment portfolio. The approach of this program includes addressing 
areas not currently addressed elsewhere in the Federal Government. An 
example of this is developing tools and techniques for assessing and 
detecting the insider threat. The cybersecurity budget request for 
fiscal year 2005 is $18 million.
    An important component of the cybersecurity program is coordination 
with others who are performing cyber research and who are responsible 
for cybersecurity. For example, our staff have engaged in a series of 
meetings with staff members from the Department's Information Analysis 
and Infrastructure Protection Directorate (IAIP), both the National 
Cyber Security Division and National Communications System. These 
meetings provide an venue for general exchanges of information about 
each organizations' respective plans for cybersecurity, as well as 
specific discussions focused on IAIP technical requirements to feed 
into cybersecurity R&D programs funded by the Science and Technology 
Directorate.
    Further, we are coordinating with the National Institute for 
Standards and Technology (NIST) and the National Science Foundation 
(NSF) to plan our respective roles. We are funding two projects with 
NIST, Secure Domain Name System and Secure Border Gateway Protocol, 
which are protocols that the Internet relies on to function. We are co-
funding two projects with the NSF: a research project to create an 
experimental infrastructure network to support development and 
demonstration of next generation information security technologies for 
cyber defense, called Cyber Defense Technology Experimental Research 
(``DETER'') Network; and a project called Evaluation Methods in 
Internet Security Technology (EMIST), a testing framework that will 
include attack scenarios, attack simulators, generators for topology 
and background traffic, data sets derived from live traffic, and tools 
to monitor and summarize results.

        BASIS FOR POLICY ON THE USE OF THE NATIONAL LABORATORIES

    The Science and Technology Directorate has identified separate 
mechanisms to access the capability base at the DOE national 
laboratories and sites to guard against organizational conflicts of 
interest and inappropriate use of inside information in responding to 
competitive private sector solicitations. Five national laboratories 
(Livermore, Los Alamos, Oak Ridge, Pacific Northwest, and Sandia) have 
been identified as Intramural Laboratories. These labs will help S&T 
set research goals and requirements and formulate R&D road maps. This 
level of engagement would give the intramural labs unfair advantage if 
they were permitted to compete for funding awarded through open 
solicitations.
    All other DOE laboratories and sites have been identified as 
Extramural Laboratories. Because the Extramural Laboratories will not 
be involved in internal DHS research planning, they are eligible to 
compete in Homeland Security Advanced Research Projects Agency (HSARPA) 
and Systems Engineering and Development (SED) funding, such as the 
Broad Agency Announcement (BAA) valued at $50 million for radiological/
nuclear technologies that was recently issued. The majority of the 
Science and Technology Directorate's funding will be executed through 
HSARPA and SED. These labs may also freely team with industrial 
partners to seamlessly commercialize technologies they have developed.

    BUDGET FOR UNIVERSITY CENTERS OF EXCELLENCE AND FELLOWS PROGRAMS

    The President's fiscal year 2005 budget request of $30 million will 
sustain the current scholars and fellows program and a total of three 
Homeland Security Centers of Excellence. Each additional Center of 
Excellence would require a sustained investment of $5 million per year. 
If more than a total of three Centers of Excellence are desired without 
increasing the President's fiscal year 2005 budget request, a reduction 
in the scholars and fellows program would be required.

                                STAFFING

    When the Department of Homeland Security (DHS) stood up on March 1, 
2003, the Science and Technology Directorate had a total staff of about 
87, including the 53 staff transferred from the Department of Energy's 
Environmental Measurements Laboratory. The balance was comprised of 
permanently assigned personnel, employees detailed from within and 
without the Department, Intergovernmental Personnel Act assignments, 
and personnel support from the National Laboratories.
    By January 6, 2004, we more than doubled our staff. In January 
2004, we had a total staff of 212, including 100 DHS employees, six 
Public Health Service Officers, 21 Intergovernmental Personnel Act 
employees, 26 individuals on assignment from other agencies, and 59 
contractors.
    We continue to be active in staffing our Directorate with well-
qualified individuals whose skills support the full breadth of our 
responsibilities and RDT&E activities. We continue to actively seek 
additional staff in accordance with our approved staffing plan.

                               CONCLUSION

    With less than a full year under the Department's belt, the 
scientists and engineers in the Science and Technology Directorate have 
accomplished more than I could have expected. I am proud to have shared 
with you today some of those success stories. We have appended a more 
comprehensive summary of accomplishments to date for the record.
    And yet, we also recognize that there is much to do, and we will be 
working just as hard in fiscal year 2005.
    I look forward to continuing to work with you on the Cybersecurity, 
Science, and Research & Development Subcommittee; other Federal 
departments and agencies; the academic community; and private industry 
to continue the work begun and continually improve our ability to 
protect our homeland and way of life.
    Mr. Chairman, Senator Byrd, and Members of the Subcommittee, this 
concludes my prepared statement. I thank you for the opportunity to 
appear before this committee and I will be happy to answer any 
questions you may have.
                                APPENDIX

       ACCOMPLISHMENTS OF THE SCIENCE AND TECHNOLOGY DIRECTORATE

Biological and Chemical Countermeasures
            Biowatch: National Urban Monitoring for Biological 
                    Pathogens
    The Biowatch program has been established and deployed to cities 
across the nation. The program--developed, funded, and managed by the 
Science and Technology (S&T) Directorate--is executed in cooperation 
with the Environmental Protection Agency (EPA) and the Centers for 
Disease Control and Prevention (CDC). It employs environmental sampling 
devices to quickly detect biological pathogens, such as anthrax, in 
time to distribute life-saving pharmaceuticals to affected citizens. 
The S&T Directorate is now focusing its efforts on piloting the next 
generation of environmental samplers, which will reduce the amount of 
labor required and the response time needed for detection while keeping 
the detection probability high and false alarm rates low. These devices 
will take advantage of the latest advances in micro-chemistry, commonly 
referred to as ``chemistry on a chip.''

            PROTECT (Program for Response Options and Technology 
                    Enhancements for Chemical Terrorism): Chemical 
                    Defense and Response Capability for Transportation 
                    Facility
    The S&T Directorate, in collaboration with the Washington 
Metropolitan Area Transit Authority (WMATA), completed PROTECT (Program 
for Response Options and Technology Enhancements for Chemical/
Biological Terrorism). PROTECT, which is an operational chemical agent 
detection and response capability, is deployed in Metro stations and 
operated by the WMATA. PROTECT is a team effort that owes its success 
to the scientific and engineering talent from Argonne, Sandia, and 
Livermore National Laboratories and operational expertise from WMATA 
and the First Responder community (the District of Columbia; Arlington, 
VA; Montgomery County, MD; and others). Also contributing significantly 
to the project are private industry partners, including LiveWave Inc., 
ManTech Security Technology, the detector manufacturer (name withheld 
for security reasons); and Federal partners, including the Federal 
Transit Administration (FTA), Department of Transportation (DOT), 
National Institute of Justice (NIJ), and the Department of Homeland 
Security's (DHS's) Office of Domestic Preparedness (ODP). The system 
integrates chemical detector data and video feed and transmits the 
integrated information to the Operation Control Center (OCC), where the 
information is analyzed and an event confirmed. The information is then 
transmitted to the first responders who access it in both their OCC and 
through the use of wired jacks on the scene to facilitate response and 
recovery. PROTECT also has application in other areas, including fire 
and emergency response, security, and forensics. Upon completion, the 
system will be totally owned and operated by WMATA and expanded to 
approximately 20 stations. FTA is working with WMATA and Argonne 
National Laboratory to transfer the technology nationally. The 
information gleaned from PROTECT will have direct application to 
facility protection and response. A related effort is being piloted in 
the Boston subway system.

            Joint Urban 2003: Experimental Atmospheric Transport and 
                    Modeling
    In June 2003, the S&T Directorate, in coordination with the 
Department of Defense's Defense Threat Reduction Agency, Department of 
Energy, and University of Oklahoma sponsored a month-long atmospheric 
dispersion study in Oklahoma City, OK. Nearly 150 scientists, 
engineers, and student assistants were dedicated to this study, which 
tracked the air movement of safe, non-toxic tracer gases in and around 
city buildings. The resulting data is being used to enhance and develop 
urban-specific atmospheric dispersion computer models that will allow 
emergency management, law enforcement and other personnel to train for 
and respond to potential chemical, biological, and radiological 
terrorist attacks.

            ProACT (Protective and Response Options for Airport Counter 
                    Terrorism): Chemical and Biological 
                    Counterterrorism Demonstration and Application 
                    Program
    The S&T Directorate and its partners at the San Francisco 
International Airport are involved in a pilot program that couples 
biological and chemical detection with vulnerability analysis, 
response, and restoration. This program integrates networked sensors 
with the operation of ventilation systems, allowing redirection of 
contaminated air and effective evacuation should an event occur. 
Guidance for the airport facility operators to manage biological and 
chemical crises will be finalized soon for distribution throughout the 
applicable community. Protocols and concepts of operation for 
restoration also are under development. This program is designed to 
serve as a template for deployment of these capabilities to other 
similar facilities.

            LINC (Local Integration of National Atmospheric Release 
                    Advisory Center (NARAC) with Cities): Hazard 
                    Assessment Tool for Operational Event Management
    LINC demonstrates the capability for providing local government 
agencies with advanced operational atmospheric plume prediction 
capabilities that can be seamlessly integrated with appropriate Federal 
agency support for homeland security. LINC's approach is to integrate 
NARAC capabilities with local emergency management and response 
centers. In the event of a chemical or biological release, NARAC 
predictions can be used by emergency managers and responders to map the 
extent and effects of hazardous airborne material. Prompt predictions 
are provided to guide front-line responders in determining protective 
actions to be taken, critical facilities that may be at risk, and safe 
locations for incident command posts. LINC provides response teams from 
multiple jurisdictions with tools to effectively share information 
regarding the areas and populations at risk. To date, several cities 
have participated in the project. New York City used LINC to help 
inform and manage an explosion and fire at a Staten Island refinery in 
the Spring of 2003.

            BioNet: Integrated Civilian and Military Consequence 
                    Management
    The Department of Homeland Security (DHS) and the Department of 
Defense's Defense Threat Reduction Agency have initiated the BioNet 
program to address joint civilian-military consequence management 
issues for localities near military bases. Upon completion of BioNet, a 
seamless consequence management plan that incorporates concepts of 
operation, information products, area monitoring, population health 
monitoring, and sample analysis laboratory will be developed that can 
be used nationally.

            Plum Island Animal Disease Center (PIADC)
    The S&T Directorate assumed responsibility for the operations of 
the ``facilities and liabilities'' of PIADC in June 2003. A 60-day 
review of security and operations resulted in immediate improvements 
and a plan for enhancements to security and operational maintenance. 
Dr. Beth Lautner has become new Center Director for PIADC. Dr. Lautner 
was with the National Pork Board for 13 years, most recently serving as 
the vice-president of Science and Technology. Highly respected 
throughout animal agriculture for her work on numerous issues, she 
pioneered the establishment of the Pork Quality Assurance (PQA) Program 
and has worked extensively with the USDA and other organizations on 
national agricultural security issues. In 1994, she was awarded the 
prestigious Howard Dunne Memorial Award by the association. In 
addition, DHS announced on December 9, 2003, the selection of Field 
Support Services, Inc. (FSSI), as the new contractor for maintenance at 
PIADC. FSSI is a subsidiary of Arctic Slope Regional Corporation, an 
Alaskan Native corporation, headquartered in Barrow, Alaska.

            TOPOFF2 Exercise
    In May 2003, leadership and staff members of the Science and 
Technology Directorate served as members of the Secretary's Crisis 
Assessment Team (CAT) and the interagency Domestic Emergency Support 
Team (DEST) and provided expert technical advice on understanding, 
communicating and responding to the hypothetical radiological and 
plague events during the TOPOFF2 exercise.

Radiological and Nuclear Countermeasures Programs
            Radiation Detection in Metropolitan Areas
    The Science and Technology division formally assumed management of 
the Port Authority of New York and New Jersey's radiation detection 
test bed on August 2003. The test bed was previously managed by the 
U.S. Department of Energy. The transfer will broaden the project scope 
beyond testing and evaluation of individual pieces of technology to a 
systems approach including response protocols and operational concepts. 
Radiation detection equipment will be installed at tunnels, bridges, 
ports, and airports in the New York City metropolitan area, and all 
functions associated with their operational use will be evaluated. By 
judging the efficacy of fielded systems over time, the Science and 
Technology division will be able to influence future decisions on 
detection technology R&D investment, deployment of urban monitoring 
systems, configurations best able to enhance security, and viable 
solutions for protecting the Nation from radiological and nuclear 
threats.

            Determined Promise Exercise
    In August 2003, staff members of the S&T Directorate participated 
in Determined Promise, a Department of Defense (DOD) exercise held in 
Las Vegas, NV. The exercise demonstrated the military's capability to 
assist in the response to a natural disaster, a bioterrorism event, and 
a number of other emergency situations nationwide. The exercise also 
provided a forum for initiating discussions that will foster 
interagency cooperation between DHS and USNORTHCOM.

            Nuclear Threat Assessments
    The S&T Directorate has provided eight rapid nuclear threat 
assessments for the Federal Bureau of Investigation (FBI), and 
approximately two dozen assessments on reports of illicit trafficking 
in nuclear materials for the Department of State and other customers. 
The Department of Homeland Security has been leading the interagency 
Nuclear Trafficking Focus Group, which regularly brings together the 
operational players of all agencies involved in response to and 
understanding of nuclear smuggling events.

            Secondary ``Reach Back''
    In August 2003, the S&T Directorate's Nuclear Assessment Program 
stood up a system to provide secondary ``reach back'' support to 
operational DHS entities employing radiation detection systems in the 
field. Secondary reach back provides inspectors with an additional 
information resource to utilize for the resolution of radiation 
detection alarms that draws upon experience in the analysis of nuclear 
smuggling incidents and threat analysis.

Standards
            Radiation Detection
    The S&T Directorate has developed a suite of four radiation 
detector standards under the auspices of the American National 
Standards Institute (ANSI)'s Accredited American Standards Committee on 
Radiation Instrumentation. The four standards deal with radiation 
pagers, hand-held dosimetry instruments, radioisotope identifiers and 
radiation portal monitors. The S&T Directorate has formed three writing 
groups to prepare Test and Evaluation (T&E) protocols for hand-held 
radiation detectors, radionuclide identifiers and radiation portal 
monitors. The writing groups have met in working sessions in San Diego, 
CA (July 2003) and Las Vegas, NV (September 2003) and have prepared 
draft T&E protocols. Benchmark testing against these draft protocols 
has been initiated at four National Laboratories.

            Biopathogen Identification
    The Science and Technology Directorate has partnered with the 
Department of Defense, Office of the Secretary of Defense to fund a 
contract with the Association of Analytical Communities International 
to develop Reference Methods and Official Methods for bulk assay of 
bacillus anthracis. This work will also permit the comparison of 
commercially available rapid identification methods (hand-held assays) 
for B. anthracis.

            SAFETY Act
    On October 10, 2003, Secretary Ridge signed an interim final rule 
implementing the Support Anti-Terrorism by Fostering Effective 
Technologies (SAFETY) Act which was a requirement of the Homeland 
Security Act of 2002. The SAFETY Act is designed to encourage the 
development and rapid deployment of life-saving, anti-terrorism 
technologies by providing manufacturers and sellers with limited 
liability risks. The Department is now accepting applications for 
designation under the Act and evaluating the proposed technologies.

Interoperability of Communications
            SAFECOM: E-Gov Initiative to Improve Interoperability of 
                    Wireless Communications
    The Department of Homeland Security is taking steps to boost the 
ability of the approximately 44,000 local, tribal and State entities 
and 100 Federal agencies engaged in public safety to communicate 
effectively with one another, particularly during an emergency. SAFECOM 
is a Federal umbrella program under the S&T Directorate that is 
dedicated to improving public safety response through enhanced 
interoperable wireless communications. The goal is to enable public 
safety agencies to talk across disciplines and jurisdictions via radio 
communications systems, exchanging voice or data with one another on 
demand and in real time. SAFECOM is providing seed money for the 
Department of Justice's Integrated Wireless Network program, which will 
create interoperability among local, State and Federal public safety 
agencies in 25 cities. In addition, technical guidance for 
interoperable communications that was developed under SAFECOM is 
included in this year's Office of Domestic Preparedness grants.

            Summit on Interoperable Communications for Public Safety
    In June 2003, the S&T Directorate, Project SAFECOM, the National 
Institute of Standards and Technology (NIST) and the National Institute 
of Justice hosted a Summit on Interoperable Communications for Public 
Safety. The event focused on familiarizing attendees with programs that 
assist public safety practitioners, including first responders, and is 
the first national effort ever undertaken to convene all the players. 
In addition, it provided insight on Federal resource needs, how 
government can leverage existing program successes and resources in the 
area of standards development, approaches, and products and services. 
The Summit results provided help in formulating a coordinated approach 
toward nationwide communications interoperability.

            SAFECOM Vendor Demonstration Day
    In August 2003, the Science and Technology Directorate held its 
first SAFECOM Vendor Demonstration Day, with an overwhelmingly positive 
response from technology providers. Due to the increasing number of 
vendor requests to present their technologies to the SAFECOM Program, 
the S&T Directorate is holding a vendor demonstration day on the last 
Friday of every month. These Friday sessions will offer a chance for 
SAFECOM to learn about new technologies for interoperability, provide a 
clear process for managing vendor requests, and ensure that every 
vendor has a fair opportunity to participate.

Information Analysis and Infrastructure Protection Programs
            Addressing Threats and Vulnerabilities in the Oil and Gas 
                    Industries
    The S&T Directorate sponsored and delivered a prototype system to 
the Information Analysis and Infrastructure Protection (IAIP) 
Directorate to perform Graphical Information System (GIS) based 
computer assisted threat and vulnerability mapping of the oil and gas 
infrastructure in the American Southwest. S&T is also in the process of 
delivering to IAIP cutting edge visualization, data searching, data 
correlation, and all-source analytic aids to provide IAIP advanced 
analytic capabilities integrated with vulnerability information.

            Advanced Algorithms for Biodetectors
    Researchers funded by the S&T Directorate's Advanced Scientific 
Computing Research & Development program achieved an important 
milestone in the speed acceleration of software used to develop 
advanced biodetectors. Scientists have made a pair of related 
algorithmic advances that will speed the creation of DNA signatures for 
pathogen detection at considerably reduced cost. These discoveries will 
result in cheaper, faster, and more reliable bio-detectors for homeland 
security.

            Threat-Vulnerability Mapper
    Part of the Threat-Vulnerability Information System, the Threat-
Vulnerability Mapper (or TVM), was installed in the analysis center of 
the Information Analysis and Infrastructure Protection Directorate in 
December 2003 and is already in constant use. Developed by the S&T 
Directorate, the TVM provides counterterrorism analysts with a simple, 
straightforward way to not only depict the geographic distribution of 
threats across the United States, but also to search the underlying 
databases for information on the possible actors, agents, potential 
severity of attacks, and extent of the vulnerabilities to and effects 
of such attacks. A second TVIS component was delivered to IAIP in 
January 2003 and should be installed and operational by the end of 
February 2004.

            Critical Infrastructure Protection Decision Support System
    On December 24, 2003, S&T's Critical Infrastructure Protection 
Decision Support System (CIP/DSS) team was asked to conduct a rapid 
analysis of potential consequences following discovery of a cow in 
Washington State with bovine spongiform encephalopathy (BSE), commonly 
known as Mad Cow disease. An analysis was developed within hours using 
available open literature, past historical data, and the results from 
an early stage, Dynamic Simulation agriculture model.

Cybersecurity
            Experimental Infrastructure Network for Cyber Defense
    Led by the S&T Directorate, DHS is co-funding with the National 
Science Foundation a $5.45 million, 3-year research project to create 
an experimental infrastructure network to support development and 
demonstration of next generation information security technologies for 
cyber defense. This project supports national-scale experimentation on 
emerging security research and advanced development technologies. 
Called Cyber Defense Technology Experimental Research (``DETER'') 
Network, this is a multi-university project led by the University of 
California, Berkley.

            Evaluation Methods in Internet Security Technology
    DHS is co-funding with the National Science Foundation, a second 
cyber security project called Evaluation Methods in Internet Security 
Technology (EMIST). EMIST is a testing framework that can be adapted to 
simulators, emulation facilities, other testbeds, and hardware testing 
facilities. The framework will include attack scenarios, attack 
simulators, generators for topology and background traffic, data sets 
derived from live traffic, and tools to monitor and summarize results. 
EMSIT is a 3-year, $5.6 million, multi-university research project that 
includes Penn State; University of California, Davis; Purdue; and the 
International Computer Science Institute.

United States Coast Guard
            Maritime Surveillance Testbed Prototype
    In September 2003, S&T's Homeland Security Advanced Research 
Projects Agency and the United States Coast Guard planned and funded 
the South Florida Coastal Surveillance Prototype Testbed, a port and 
coastal surveillance prototype in Port Everglades, Miami, and Key West 
areas. The prototype is an evolutionary testbed that:
  --Provides an initial immediate coastal surveillance capability in a 
        high priority area
  --Offers the Coast Guard and other DHS agencies the means to develop 
        and evaluate CONOPS (Concept of Operations) in a real world 
        environment
  --Implements and tests interoperability among DHS and DOD systems and 
        networks such as the U.S. Navy/Coast Guard Joint Harbor 
        Operations Center (JHOC).
  --Tests and evaluates systems and operational procedures
  --Becomes the design standard for follow-on systems in other areas 
        and integration with wider area surveillance systems. The 
        program has two phases; an initial prototype development phase, 
        and an improvements and update phase. The program is expected 
        to begin operations in June 2004 and is funded at $2.4 million 
        for fiscal year 2003 and $5 million for fiscal year 2004.

Partnerships
            Workshop on Scientific Computing in Support of Homeland 
                    Security
    The Science and Technology Directorate brought together experts 
from academia, private industry and the national laboratories with 
staff from various organizations within the Department to understand 
how the S&T Directorate's advanced scientific computing (ASC) 
capabilities, centered at the national laboratories, can help address 
needs across the Department. This workshop, held October 8-9, 2003, has 
resulted in identifying several areas of potential high payoff for the 
use of these unique capabilities; two examples are advanced research in 
data management and information extraction, and research and 
development of computational simulation tools. The workshop will 
produce a formal report identifying relevant ASC capabilities and 
matching them up with identified needs within the Department of 
Homeland Security for improved operational capabilities.

            Infrastructure Subcommittee of the National Science and 
                    Technology Council
    Staff members of the Science and Technology Directorate had a major 
role in drafting the first charter for the National Science and 
Technology Council's (NSTC's) Infrastructure Subcommittee; the 
Subcommittee's first Co-Chairs are from the S&T Directorate and the 
Office of Science and Technology Policy. The Subcommittee serves as a 
forum within the National Science and Technology Council (NSTC) for 
developing consensus and resolving issues associated with coordinating 
R&D agendas, policy, and programs to develop and protect the nation's 
infrastructure. The Subcommittee will also be the vehicle used by the 
Department of Homeland Security and the White House Office of Science 
and Technology Policy to develop the National R&D Plan for Critical 
Infrastructure Protection.

            Homeland Security Standards Panel
    The S&T Directorate worked with the American National Standards 
Institute (ANSI) and the National Institute of Standards and Technology 
(NIST) to establish a Homeland Security Standards Panel (HSSP) that 
would coordinate the development of consensus standards among the 280 
different standards development organizations. On June 9-10, 2003, the 
inaugural meeting of the ANSI Homeland Security Standards Panel was 
held at NIST. Plenary session presentations were given by four S&T 
Directorate staff members to outline the needs in Department for 
standards. The panel selected a small list of topics to address with 
focus workshops. The first of these occurred in September 2003 with a 
focus on needs for standards in biometrics.

            Joint DHS/USDA National Strategy for Foreign Animal Disease
    At the request of the Congressional Appropriations Committees for 
both DHS and the Department of Agriculture (USDA), the two departments 
have coordinated a report on a national strategy for foreign animal 
disease. Participants in the joint study included DHS (S&T), USDA (the 
Agricultural Research Service and the Agriculture and Plant Health 
Inspection Service), and stakeholder groups. The joint study has 
prompted an end-to-end review of the national response strategy 
following the identification of a case of foot-and-mouth disease, 
including the R&D requirements and gaps for assays, diagnostics, 
vaccines, and antivirals. Comprehensive roadmaps have been developed 
for these research areas, in 1-, 3-, and 5-year timeframes. These 
roadmaps are important elements of program planning for S&T.

            National Security Council Attribution Working Group
    The S&T Directorate initiated and leads the National Security 
Council Attribution Working Group, which is revisiting national 
capabilities to rapidly perform forensic analysis in cases of nuclear 
and radiological events of any size. This effort is expected to lead to 
a robust and completely coordinated forensic capability for 
attribution.

            Workshops on Comparative Analysis
    S&T's Office of Comparative Studies has sponsored two workshops on 
identifying analysis techniques and information sources crucial for 
analyzing the interaction of the terrorist threat with S&T activities. 
These workshops brought together participants from two DHS 
directorates, other government entities, academia and private industry 
and have helped to improve communication between these groups. 
Important analytical techniques and sources of information were 
identified and have been utilized. The workshops were also used to 
establish a set of topics which the office could profitably study. A 
proposal is being prepared which will solicit work on several of these 
topics.

Homeland Security Institute, and Homeland Security Science and 
        Technology Advisory Committee
            Homeland Security Institute
    A formal solicitation was issued in December for the Homeland 
Security Institute (HSI), and proposals were received in January 2004. 
Those proposals currently are being evaluated with an expected 5-year 
award by early May 2004. However, current legislation states that the 
Institute's operation will terminate in November 2005; this issue is of 
concern to the bidders.
    The HSI was mandated by the Homeland Security Act to assist the 
Secretary and the Department in addressing important homeland security 
issues that require scientific, technical, and analytical expertise. 
The Institute will provide a dedicated, high-quality technical and 
analytical support capability for informing homeland security decision 
making at all levels. This capability will consist of an extensive 
program of operational assessments, systems evaluations, technical 
assessments, and resource analyses comparable to the capability 
developed and used for decades by the Defense establishment. The 
Institute will also provide analytical and technical evaluations that 
support DHS implementation of the SAFETY Act. Finally, the Institute 
will create and maintain a field operations program that will help 
further introduce real-world needs and experiences into homeland 
security is a disciplined and rigorous way.

            Homeland Security Science and Technology Advisory Committee
    The Homeland Security Science and Technology Advisory Committee 
(HSSTAC) was formally established in December 2003 and holds its first 
meeting in February 2004. The HSSTAC was mandated by the Homeland 
Security Act to be a source of independent, scientific and technical 
planning advice for the Under Secretary for Science and Technology. The 
committee will (1) advise the Undersecretary on the mission goals for 
the future; (2) provide advice on whether the policies, actions, 
management processes, and organization constructs of the Science and 
Technology Directorate are optimally focused on mission objectives; (3) 
provide advice on whether the research, development, test, evaluation, 
and systems engineering activities are properly resourced (capital, 
financial, and human) to accomplish the objectives; (4) identify 
outreach activities (particularly in accessing and developing, where 
necessary, the industrial base of the Nation); and (5) review the 
technical quality and relevance of the Directorate's programs.
Countermeasures to Man-Portable Air Defense Systems
    The S&T Directorate has selected three firms to provide analyses of 
the economic, manufacturing and maintenance issues needed to support a 
system to address the potential threat of MAN-Portable Air Defense 
Systems (MANPADS) to commercial aircraft. The next phase of the program 
will include development of prototypes using existing technology which 
will be subjected to a rigorous test and evaluation process. This 
initiative is not intended to develop new technology, but rather to re-
engineer existing technology from military to commercial aviation use.

University and Fellowship Programs
            Fellowships and Scholarships
    In September 2003, the S&T Directorate named 100 students to the 
inaugural class of the Department of Homeland Security's Scholars and 
Fellows Program. The program, which received more than 2,400 
applications, supports United States students who choose to pursue 
scientific careers and perform research in fields that are essential to 
the homeland security mission. The first class consists of 50 
undergraduate students and 50 graduate students who are attending 
universities across the country majoring in the physical, biological, 
and social and behavioral sciences including science policy, 
engineering, mathematics, or computer science. The Directorate has 
already issued a notice inviting applications from students for the 
2004-2005 academic year. The website is http://www.orau.gov/dhsed/.
            University Centers of Excellence
    The Science and Technology division has created the Homeland 
Security Centers Program that supports university-based centers of 
excellence dedicated to fostering homeland security mission critical 
research and education. The program has established the first Center of 
Excellence focused on risk analysis and modeling related to the 
economic consequences of terrorism at the University of Southern 
California, partnering with the University of Wisconsin at Madison, New 
York University and the University of California at Berkeley. A request 
for proposals has been issued for the second and third Centers of 
Excellence, which will focus on animal-related and post-harvest food 
agro-terrorism.

Homeland Security Advanced Research Projects Agency
            Near-Term Technologies
    In May 2003, the Science and Technology Directorate's Homeland 
Security Advanced Research Projects Agency (HSARPA) released a Broad 
Agency Announcement through the Technical Support Working Group for 
near-term technologies that can be rapidly prototyped and deployed to 
the field. A total of 3,344 responses as received in the following 
broad categories: chemical, biological, radiation and nuclear 
countermeasures; personnel protection; explosives detection; 
infrastructure protection; physical security; improvised device defeat; 
and investigative support and forensics. The first contract award went 
to North Carolina State University for the development of the next-
generation of structural fire fighting personal protective equipment.

            Detection Systems
    The S&T Directorate reviewed and selected proposals for funding in 
response to its Research Announcement for Detection Systems for 
Biological and Chemical Countermeasures, which was published through 
the Technical Support Working Group. In September 2003, the Homeland 
Security Advanced Research Projects Agency (HSARPA) held its first 
Bidders Conference in Washington, DC. Approximately 420 private sector 
and university representatives attended the event and over 500 white 
papers were submitted. Finalists have been selected for negotiation, 
and work has already begun in a number of the more important areas.

            Virtual Cyber Security Center
    On December 13, 2003, a Request for Proposals and Statement of Work 
for technical and administrative support for the virtual Cyber R&D 
Center was published to seven capable performers listed on the GSA 
schedule. The deadline for response was December 15, 2003, and two 
responsive proposals were received. A three million dollar technical, 
management, and administrative contract was awarded to SRI 
International on February 2, 2004, to support the functions of the 
HSARPA Cyber R&D Center. The Cyber R&D Center will be the primary S&T 
interface with the academic and industrial cyber security research 
communities.

            Small Business Innovation Research (SBIR) Program 
                    Solicitation
    On November 13, 2003, the Homeland Security Advanced Research 
Projects Agency (HSARPA) issued a Small Business Innovation Research 
(SBIR) Program Solicitation. The purpose of this solicitation was to 
invite small businesses to submit innovative research proposals that 
address eight high-priority DHS requirements:
  --New system/technologies to detect low vapor pressure chemicals 
        (e.g., Toxic Industrial Chemicals)
  --Chemical and biological sensors employing novel receptor scaffolds
  --Advanced low cost aerosol collectors for surveillance sensors and 
        personnel monitoring
  --Computer modeling tool for vulnerability assessment of U.S. 
        infrastructure
  --Ship compartment inspection device
  --Marine Asset Tag Tracking System
  --Automatic Identification System tracking and collision avoidance 
        equipment for small boats
  --Advanced Secure Supervisory Control and Data Acquisition (SCADA) 
        and related distributed control systems.
    By the December 15, 2003, deadline 374 proposals had been received. 
The evaluation is complete and 66 proposers entered negotiation for 
Phase I contracts beginning February 11, 2004.

SAFECOM Vendor Demonstration Day
    SAFECOM held a Vendor Demonstration Day on January 30, 2004. 
SAFECOM's Vendor Day allows several communications equipment and 
service providers to present their products and/or technologies for 
SAFECOM. Responses from the SAFECOM Request for Information in November 
2003 were used to select vendors for this event. Each vendor selected 
represents a different approach to solving the communications and 
interoperability problems facing first responders.

International Programs
            Agreement with Canada on Border and Infrastructure Security
    On October 3, 2002, Secretary Tom Ridge and Canadian Deputy Prime 
Minister John Manley initialed an agreement on Science and Technology 
Cooperation for protecting shared critical infrastructure and enhancing 
border security. The S&T Directorate is participating in a Working 
Group to develop near-term deliverables and projects to protect shared 
critical infrastructure such as bridges, dams, pipelines, 
communications and power grids; to develop surveillance and monitoring 
technologies to enhance the ability to disrupt and interdict 
terrorists; and to develop technologies for detecting the illicit 
transportation of chemical, biological, radiological, and nuclear 
weapons.

          WEAPONS OF MASS DESTRUCTION AND INCIDENT MANAGEMENT

    Between March and December of 2003, the Office of Weapons of Mass 
Destruction Operations and Incident Management (WMDO-IM) provided 
surveillance and operational incident response to the Homeland Security 
Operations Center and law enforcement officials on 24 separate 
occasions. In addition, the WMDO-IM provided operational support to the 
Homeland Security Operations Center during Hurricane Isabel and the 
Northeast blackout.
    The WMDO-IM established a scientific reach-back and rapid decision 
support capability through the Scientific and Technical Analysis and 
Response Teams (START). In addition to activating the START teams 
during the Code Orange time period in December 2003, WMDO-IM provided 
technical expert consultations on threats to the nation's water 
resources and responded to concerns about impacts of solar flares.
    WMDO-IM helped develop the Initial National Response Plan (INRP) 
and its National Incident Management System; the INRP represents a 
significant first step towards an overall goal of integrating the 
current family of Federal domestic prevention, preparedness, response, 
and recovery plans into a single all-discipline, all-hazards plan.
    WMDO-IM provided technical support to the Homeland Security 
Operations Center (HSOC), assessing vulnerabilities and actions the 
HSOC can take to improve the ability to resist a chemical or biological 
terrorist attack.
    WMDO-IM, with the Defense Threat Reduction Agency and Nuclear 
Regulatory Commission, developed curriculum for a week-long training 
workshop on weapons of mass destruction for the Central Intelligence 
Agency University. Also in the area of education and training, WMDO-IM 
established a homeland security medical executive training course.

    Senator Cochran. Thanks, Dr. McQueary.
    General Libutti, you may proceed.

             STATEMENT OF LIEUTENANT GENERAL FRANK LIBUTTI

    General Libutti. Good morning, Chairman Cochran, and 
Senator Byrd.
    I am delighted to appear before you today to discuss the 
President's fiscal year 2005 budget request for the Department 
of Homeland Security's Information Analysis and Infrastructure 
Protection Directorate. And I look forward to a meeting with 
you soon to discuss the classified portion of the Information 
Analysis and Infrastructure Protection budget, specifically, 
the intelligence side of business.
    Information Analysis and Infrastructure Protection is the 
focal point for intelligence, analysis, and infrastructure 
protection operations and information sharing within the 
Department of Homeland Security. Within a single Directorate, 
IAIP merges capability to identify and assess a broad range of 
intelligence and information concerning threats to the 
homeland, maps the information against the Nation's 
vulnerabilities, issues timely and actionable warnings, and 
takes appropriate preventive and protective action to protect 
our infrastructure and key assets.

                ACCOMPLISHMENTS OF THE IAIP DIRECTORATE

    As we mark the first anniversary of the Department, I would 
like to highlight for you some of the many accomplishments of 
our IAIP Directorate.
    Since March 2003, IAIP has launched the Homeland Security 
Information Network, a comprehensive interactive information 
sharing program that expands access to and use of a joint 
regional information exchange system. The roll out includes all 
of our partners at the State and local levels, as well as 
private sector partners.
    Next, we have implemented the Homeland Security 
Presidential Directive HSPD-7 which addresses critical 
infrastructure identification, prioritization and protection. 
And as you know this was signed by President Bush in December 
of 2003.
    To the National Cyber Security Division, the NCSD, we have 
established the U.S. Computer Emergency Readiness Team, or 
USCERT, and launched the National Cyber Alert System, America's 
first coordinated cyber security system for identifying, 
analyzing and prioritizing emerging vulnerabilities and 
threats. This system provides the first nation-wide 
infrastructure for relaying actionable computer security 
updates and warning information to computer users in the 
Government, the private sector, business, and home users as 
well.
    We've assumed the responsibility for the Homeland Security 
Operation Center, which maintains and shares real-time domestic 
situation awareness, coordinates security operations, detects, 
prevents and deters incidents, and facilitates response and 
recovery for all critical incidents and threats.
    In addition, we have conducted detailed vulnerability 
studies of the banking and telecommunication industries to 
better understand the inter-dependencies therein, and 
prioritization regarding vulnerability reduction.
    We formally executed the Protected Critical Information 
Infrastructure Protection Program. This is pursuant to the 
provisions of the Critical Information Infrastructure 
Information Act of 2002.
    Even with these accomplishments there is much more work to 
be done. IAIP's budget relies on the expectation of two 
emerging trends. First, the nature and complexity of the 
threats which will increase. And second, our national 
infrastructure components which will become more complex and 
more interdependent. These trends will result in more demands 
on the department and IAIP to anticipate terrorist intentions, 
tactics and capabilities, and to mitigate risks and 
vulnerabilities for the protection of the United States of 
America and its citizens.

                FISCAL YEAR 2005 BUDGET REQUEST FOR IAIP

    For these reasons, the President's fiscal year 2005 budget 
request for IAIP is structured around the following major 
programs: Threat determination and assessments; Infrastructure 
vulnerabilities and risk assessments; Information warnings and 
advisories; Remediation and protective actions; Outreach and 
partnerships; National Communication System; Competitive 
analysis and evaluation; National plans and strategies; and the 
Homeland Security Operation Center.
    Let me discuss several of the initiatives associated with 
each of the mission areas of the fiscal year 2005 request for 
$864 million.

                  THREAT DETERMINATION AND ASSESSMENT

    First, threat determination and assessment. Funding in this 
area is targeted to increase the IAIP directorate's technology 
competencies by training analysts and equipping IAIP with the 
most advanced technologies and tools.
    The training tools and technology will be utilized to 
develop a detailed understanding of terrorists' organizational 
capabilities with supporting materials and conductivity to 
interpret and predict threats.
    Next, is to expand cooperation and fusion efforts from 
Homeland Security to our internal components and out to 
external customers, and increase cooperation efforts among the 
intelligence community.

            INFRASTRUCTURE VULNERABILITY AND RISK ASSESSMENT

    Next, the infrastructure vulnerability and risk assessment 
piece. This funds the development of comprehensive national 
infrastructure risk analysis and profile. There we are talking 
about high-value target sets, the development of analytic tools 
to evaluate critical infrastructure and key assets, and the 
coordination of a national threat vulnerability and asset 
database to assess, integrate, collaborate and store threat 
vulnerability information.
    Next, information and warning advisories. In addition to 
continuously operating a 24/7 Capable Operations Center, the 
information and warning program will provide search capability 
for our HSOC, our operation center, and for other directorates 
during heightened states of alert or in response to specific 
incidents.
    Funding in this area supports submission of collection 
requests for threat information of the intelligence community, 
the law enforcement, and dissemination guidance to Homeland 
Security components, developing analysis on the nature and 
scope of the threat, and identifying potential terrorists' 
targets within the United States.
    Another priority is the need to establish threat 
advisories, bulletins and warnings at different levels of 
classification to relevant stakeholders. The threat 
publications are detailed and disseminated in a timely fashion 
portraying the nature, scope and target of the threat.

                   REMEDIATION AND PROTECTIVE ACTIONS

    Next, remediation and protective actions. Through this 
program the IAIP directorate provides a broad range of services 
including on-site planning advice, technical and operational 
training programs, assistance in identifying vulnerabilities 
and development of sharing and best-practices. Activities in 
this area also include security efforts to protect 
infrastructure and key assets from cyber attacks.
    Specifically, the $345.783 million for remediation and 
protective actions is divided into the following five 
categories: Critical infrastructure and key asset 
identification; Critical infrastructure of vulnerability field 
assessments; Infrastructure and key asset protection; Cyber 
security; and last, protection standards and performance 
matrixes.

                        OUTREACH AND PARTNERSHIP

    The next broad category is outreach and partnership. The 
fiscal year 2005 President's budget requests $40.829 million to 
build and maintain a sound partnership foundation. To be 
successful in information sharing, strong relationships must be 
maintained with State and local governments, private sector, 
academia, advisory bodies and the international community.

                     NATIONAL COMMUNICATION SYSTEM

    Next, the national communication system. This allows NCS to 
ensure priority use of telecommunication services during times 
of national crisis, including the government emergency 
telecommunication service, GETS. The funding enhances these 
programs and supports the development of wireless priority 
services, which provide a nationwide priority cellular service 
to key national security and emergency preparedness users.

                  COMPETITIVE ANALYSIS AND EVALUATION

    Next, competitive analysis and evaluation. The competitive 
analysis and evaluation program ensures that IAIP products and 
services are tested and accurate based on sound assumptions and 
data, and ultimately offers the highest quality, depth and 
value to the IAIP customers.

                     NATIONAL PLANS AND STRATEGIES

    Next is our national plans and strategies. Critical to 
ongoing national efforts to protect and ensure the homeland, 
our actions support updating, coordinating and monitoring the 
implementation of national plans and strategies.

                   HOMELAND SECURITY OPERATION CENTER

    Homeland Security Operation Center, $35 million. The HSOC 
or Homeland Security Operation Center maintains and shares 
domestic situational awareness, coordinates security 
operations, protects, prevents and deters incidents, and 
facilitates the response and recovery of all critical 
incidents.
    The HSOC is the focal point for sharing information across 
all levels of government, the private sector and our friends at 
the State and local levels as well.

                           PREPARED STATEMENT

    In summary, the fiscal year 2005 budget request provides 
the resources to enable IAIP to manage and grow in its mission 
of securing the homeland. I look forward to working with you to 
accomplish the goals of this department and the goals of IAIP.
    Mr. Chairman, Senator Byrd, this concludes my prepared 
statement and I would be happy to answer any questions you may 
have at this time. Thank you.
    [The statement follows:]

                  Prepared Statement of Frank Libutti

Introduction
    Good morning Chairman Cochran, Senator Byrd and distinguished 
members of the Subcommittee. I am delighted to appear before you today 
to discuss the President's fiscal year 2005 budget request for the 
Department of Homeland Security's Information Analysis and 
Infrastructure Protection (IAIP) Directorate.
    IAIP is the focal point for intelligence analysis, infrastructure 
protection operations, and information sharing within the Department of 
Homeland Security (DHS). Within a single directorate, IAIP merges the 
capability to identify and assess a broad range of intelligence and 
information concerning threats to the homeland, map that information 
against the nation's vulnerabilities, issue timely and actionable 
warnings, and take appropriate preventive and protective action to 
protect our infrastructures and key assets. IAIP is currently comprised 
of three primary components: the Office of Information Analysis (IA), 
the Office of Infrastructure Protection (IP), and the Homeland Security 
Operations Center (HSOC).

Fiscal Year 2004 Accomplishments
    As we mark the first anniversary of the Department, I would like to 
highlight for you some of the many accomplishments of the IAIP 
Directorate, one of the newest parts of the Federal Government. The 
formation of IAIP has created for the first time a unique, integrated 
capability to not only map the current threat picture against the 
nation's vulnerabilities, but to also assess the risk of a terrorist 
attack based upon preventive and protective measures in place. That is, 
IAIP is enabling us to move from a reactive posture in the homeland to 
a risk management and mitigation posture. Let me give you some 
examples.
    Since March, 2003, IA has:
  --Launched the Homeland Security Information Network (HSIN), a 
        comprehensive information sharing program that expands access 
        to and use of the Joint Regional Information Exchange System 
        (JRIES). The HSIN will provide secure real-time connectivity in 
        a collaborative environment with States, urban areas, counties, 
        tribal areas, and territories to collect and disseminate 
        information between Federal, State, local, and tribal agencies 
        involved in combating terrorism.
  --Coordinated Operation Liberty Shield and the rapid enhancement of 
        security at more than 145 national asset sites at the outset of 
        the war in Iraq. Following that, IAIP transitioned the 
        protection of the sites from National Guard and law enforcement 
        to a more cost effective and permanent set of physical 
        protective measures.
  --Enhanced protection, by assisting local communities with conducting 
        vulnerability assessments and implementing protective measures, 
        of the nation's highest risk chemical sites, thereby improving 
        the safety of over 13 million Americans.
  --Implemented Homeland Security Presidential Directive (HSPD) 7, 
        ``Critical Infrastructure Identification, Prioritization and 
        Protection,'' which was signed by President Bush in December 
        2003. The HSPD assigned the Department of Homeland Security 
        responsibility for coordinating the overall national effort to 
        enhance the protection of the critical infrastructure and key 
        resources of the United States and the development of an 
        integrated cyber and physical protection plan.
  --Implemented Wireless Priority Service, to ensure the continuity of 
        cellular networks nationwide, registering over 3,000 Federal, 
        State, local and private users.
  --Established the National Cyber Security Division (NCSD) to 
        coordinate the implementation of the National Strategy to 
        Secure Cyberspace and serve as the national focal point for the 
        public and private sectors on cybersecurity issues, and 
        developed a process for handling cyber incidents, successfully 
        managing a number of major cyber events.
  --Through the NCSD, established the U.S. Computer Emergency Readiness 
        Team (US-CERT) through an initial partnership with the Computer 
        Emergency Response Team Coordination Center at Carnegie Mellon 
        University. US-CERT is building a cyber watch operation, 
        launching a partnership program to build situational awareness 
        and cooperation, and coordinating with U.S. Government agencies 
        to predict, prevent, and respond to cyber attacks.
  --Launched the National Cyber Alert System under the auspices of US-
        CERT, America's first coordinated cyber security system for 
        identifying, analyzing, and prioritizing emerging 
        vulnerabilities and threats. This system provides the first 
        nationwide infrastructure for relaying actionable computer 
        security update and warning information to computer users in 
        the government, in private industry, and small business and 
        home users.
  --Assumed responsibility for the Homeland Security Operations Center 
        (HSOC), which maintains and shares real time domestic 
        situational awareness; coordinates security operations; 
        detects, prevents, and deters incidents; and facilitates 
        response and recovery for all critical incidents and threats. 
        As of February 2004, 26 Federal and local law enforcement 
        agencies and Intelligence Community members are were 
        represented in the HSOC, providing reach back capability into 
        their home organizations to continuously inform the current 
        threat picture, and to provide key decision makers with real 
        time information.
  --Conducted detailed vulnerability studies of the banking and 
        telecommunications industry to better understand the 
        interdependencies and prioritize vulnerability reduction.
  --Initiated an intra-Department and interagency review and analysis 
        of information obtained in detainee briefings to assess 
        specific terrorist capabilities, work that subsequently became 
        the subject of several advisories disseminated to a variety of 
        homeland security partners regarding terrorist planning, 
        tactics and capabilities.
  --Co-chaired with the Border and Transportation Security Directorate 
        (BTS) the DHS Intelligence Activities Joint Study charged with 
        reviewing the mission, responsibilities and resources of DHS 
        Intelligence component organizations. The study was chartered 
        for the purpose of making recommendations to the Secretary as 
        to the optimal utilization of the Department's analytical 
        resources.
  --With the Homeland Security Council (HSC), initiated an ongoing 
        interagency review of the Homeland Security Advisory System 
        (HSAS), for the purpose of refining the system to make it more 
        efficient and more beneficial for States and localities and the 
        private sector.
  --Formally executed the Protected Critical Infrastructure Information 
        (PCII) implementing regulation, pursuant to the provisions of 
        the Critical Infrastructure Information ACT of 2002. The 
        purpose of the PCII Program is to encourage private entities 
        and others with knowledge about our critical infrastructure to 
        voluntarily submit confidential, proprietary, and business 
        sensitive critical infrastructure information to the Department 
        through IAIP. Information submitted to IAIP that qualifies for 
        protection under the provisions of the Act and the PCII 
        implementing regulation will be exempted from public 
        disclosure, providing a significant opportunity for private 
        entities to assist in homeland security without exposing 
        potentially sensitive and proprietary information to the 
        public. The Department will use information that qualifies for 
        protection primarily to assess our vulnerabilities, secure the 
        nation's critical infrastructure and protected systems, issue 
        warnings and advisories, and assist in recovery.

Fiscal Year 2005
    Even with these accomplishments, there is much more work that must 
be done. The United States remains at risk, despite the continuing work 
to assess and mitigate vulnerabilities. Our interdependent critical 
infrastructures enable Americans to enjoy one of the highest standards 
of living in the world, provide the backbone for the production of 
goods and services for the world's largest economy, provide over 60 
million jobs, and ensure the United States can protect its national 
security interests. Infrastructure will remain one of the top priority 
targets for terrorists desiring to damage the nation's economy and 
incite fear in the minds of the American people.
    While the possibility of large-scale attacks similar to 9/11 remain 
significant, it is also possible likely that terrorists will employ 
smaller scale operations such as the suicide bombings prevalent in 
Israel. Terrorists understand that the cumulative effect of many small-
scale operations--that are easier to plan and conduct--can be just as 
effective as large-scale attacks in their overall impact on Americans' 
sense of security in their own country and, especially, at United 
States facilities overseas.
    IAIP's budget relies on the expectation of two emerging trends: 
First, the nature and complexity of threats will increase; and, second, 
our national infrastructure components will become more complex and 
interdependent. These trends will result in more demands on the 
Department and IAIP to anticipate terrorist intentions, tactics and 
capabilities, and to mitigate risks and vulnerabilities for the 
protection of the United States and its citizens.
    For these reasons, the President's fiscal year 2005 budget request 
for IAIP is structured around the following major program areas: Threat 
Determination and Assessments, Infrastructure Vulnerabilities and Risk 
Assessments, Information Warnings and Advisories, Remediation and 
Protective Actions, Outreach and Partnerships, National Communications 
System, Competitive Analysis and Evaluations, National Plans and 
Strategies, and the Homeland Security Operations Center.

Threat Determination and Assessment ($21.943 Million)
    IAIP's Threat Determination and Assessment program is designed to 
detect and identify threats of terrorism against the United States 
homeland; assess the nature and scope of these terrorist threats; and 
understand terrorist threats in light of actual and potential 
vulnerabilities within critical infrastructures and/or key assets. 
Addressing these issues requires the IAIP Directorate to improve on its 
existing set of threat analysts and analytical tools by hiring and 
training additional highly skilled threat analysts; acquiring and 
fielding new analytical tools and technologies to assist in assessing 
and integrating information; and deploying secure communications 
channels that allow for the rapid exchange of information and 
dissemination of analytical results.
    These improvements will be used for multiple purposes, including: 
(1) providing analysis and assessments of the current threat picture as 
it relates to critical infrastructure; (2) developing actionable 
intelligence for Federal, State, and local law enforcement; (3) issuing 
warnings at all levels from the Federal Government to the private 
sector; and (4) supporting efforts to identify and coordinate effective 
countermeasures.
    The President's Budget requests $21.943 million for continued 
support of on-going activities to continually form terrorist threat 
situational awareness, execute the functions outlined above, and focus 
on information sharing and coordination within DHS as well as in the 
Intelligence Community and other external stakeholder communities. 
These capabilities enhance the performance of two critical functions in 
protecting the homeland. First, it offers the United States Government 
the ability to integrate, synchronize, and correlate unique sources of 
information relating to homeland security, emanating from traditional 
and non-traditional (e.g., State and local governments, private 
industry) sources. Second, the IAIP Directorate is positioned to 
integrate knowledge of potential terrorist threats with an 
understanding of exploitable infrastructure vulnerabilities, resulting 
in a value-added profile of national risk that transcends traditional 
threat and vulnerability assessments.
    Funding in this area is targeted to increase the IAIP Directorate's 
technical competencies by training analysts and equipping IAIP with the 
most advanced technologies and tools. The training, tools and 
technologies will be utilized in four primary areas:
  --Model Terrorist Organization.--Developing a detailed understanding 
        of terrorist organization capability with supporting materials 
        and connectivity to interpret and predict threats.
  --Develop Terrorist Capabilities Baseline.--Developing a detailed 
        understanding of terrorist capabilities baseline with 
        supporting materials and connectivity to interpret and predict 
        threats.
  --Collaboration and Fusion.--Expanding collaboration and fusion 
        efforts from DHS to internal components, and out to an extended 
        customer base.
  --Analysis Coordination.--Spearheading the effort to build a 
        collaborative and mutually supporting analysis coordination 
        schematic for DHS, and ensure that it incorporates others 
        (TTIC, TSC, and the Intelligence Community) into a ``community 
        of interest'' approach for understanding domestic terrorist 
        threats.

Infrastructure Vulnerability and Risk Assessment ($71.080 million)
    The Homeland Security Act directs the IAIP Directorate to carry out 
comprehensive assessments of the vulnerabilities of the critical 
infrastructure and key assets of the United States. As such, the IAIP 
Directorate serves as the focal point for coordination between the 
Federal Government, critical infrastructure owners and operators, and 
State and local governments for the sharing of information and the 
planning for response to crisis events affecting infrastructures.
    The fiscal year 2005 President's Budget requests $71.080 million to 
fund the development of a comprehensive National infrastructure risk 
analysis and profile (e.g., high value/high probability of success 
targets); development of analytic tools to evaluate critical 
infrastructure and key assets; and the coordination and development of 
a National threat vulnerability and asset database to access, 
integrate, correlate, and store threat and vulnerability information.
    These mission areas will be enable IAIP to identify potential risks 
caused by infrastructure interdependencies, and determine the potential 
consequences of an infrastructure failure due to a terrorist attack. 
Ultimately, the intent of these efforts is to strengthen the 
capabilities of the IAIP Directorate and each critical infrastructure 
to provide near real-time notification of incidents; enhance the 
ability of the IAIP Directorate to assess the impact of incidents on 
critical infrastructure and key assets; to assess collateral damage to 
interdependent infrastructure; and create tools and processes to 
enhance infrastructure modeling and risk assessment capabilities.
    The fiscal year 2005 budget request for infrastructure 
vulnerability and risk assessment is divided into three areas:
  --National Infrastructure Risk Analysis.--Funding in this area 
        supports the development of comprehensive risk and 
        vulnerability analyses on a national scale. These analyses are 
        cross-sector in nature, focusing on problems affecting multiple 
        infrastructures, both physical and cyber-related. As assigned 
        in the Homeland Security Act and HSPD-7, the IAIP Directorate 
        will continue to leverage and develop new techniques to map 
        data provided by threat analyses, provide consequence analysis, 
        and create vulnerability assessment teams based on the nature 
        of the indicators or incidents. The goal is to produce timely, 
        actionable information that is more meaningful to industry. A 
        portion of this funding also supports the direct involvement of 
        critical infrastructure sector experts to supplement risk 
        analysis efforts and to gain a better understanding of the 
        sector's core business and operational processes. In addition, 
        a portion of this funding is utilized for exploration and to 
        pilot innovative methodologies to examine infrastructure 
        vulnerabilities and interdependencies.
  --Analytic Tools Development and Acquisition.--The IAIP Directorate 
        will continue to collaborate with the Science and Technology 
        (S&T) Directorate to acquire the most advanced tools and 
        database designs available to better understand the 
        complexities of interdependent systems and for translating vast 
        amounts of diverse data into common and usable information for 
        decision-makers, analysts, and infrastructure operators. Such 
        capabilities include data-logging systems, modeling and 
        simulation, data mining, and information correlation. Funding 
        is targeted toward developing dynamic and multi-faceted tools 
        designed to expand access to needed information.
  --National Threat/Vulnerability/Asset Databases.--The funding level 
        requested for this activity in the fiscal year 2005 budget is 
        based on the recognition of the data intensive nature, scale 
        and complexity of analyzing infrastructure vulnerability 
        issues. The intent is to develop and maintain databases that 
        allow the IAIP Directorate to provide its stakeholders with up-
        to-date information on threats and vulnerabilities. 
        Specifically, the IAIP Directorate is continuing to coordinate 
        and direct the development of the primary database of the 
        Nation's critical infrastructures through a collaborative 
        process involving all stakeholders; maintain data on the risks 
        posed to specific facilities and assets (and the probability of 
        attack and associated consequences for homeland, national, and 
        economic security should an attack occur); and develop, 
        operate, and manage integrated data warehouses--in full 
        compliance with the Department's privacy policies--that contain 
        comprehensive all-source threat, vulnerability, and asset data.

Information and Warning Advisories ($59.807 Million)
    One of the most visible aspects of the DHS mission lies in the 
management and administration of the Homeland Security Advisory System, 
the communications of threat condition status to the general public, 
and the continuous around-the-clock monitoring of potential terrorists 
threats. Specifically, there are three key information and warning 
activities that help support the Homeland Security Advisory System and 
other efforts to alert key Departmental leadership, national leaders 
and the general public: (1) tactical indications and warning and the 
associated warning advisory preparation and issuance; (2) information 
requirements management; and (3) integrated physical and cyber 
infrastructure monitoring and coordination.
    The fiscal year 2005 President's Budget requests $59.807 million to 
maintain the information and warning program. In addition to 
continuously operating a 24<greek-e>7 capability, the information and 
warning program area will provide surge capabilities for the HSOC and 
with other Directorates during heightened states of alert or in 
response to specific incidents. The relevant fiscal year 2005 budget 
request is divided into three primary areas:
  --Tactical Indications and Warning Analysis/Warning Advisory 
        Preparation and Issuance.--Funding in this area supports 
        submission of collection requests for threat information to the 
        Intelligence Community and law enforcement, disseminating 
        guidance to DHS components, developing analyses on the nature 
        and scope of the threats, and identifying potential terrorist 
        targets within the United States. A program priority is the 
        continued to development of tools and technologies to assist 
        our analysts to interpret, integrate, and catalogue indicators, 
        warnings, and/or actual events and to provide Departmental and 
        national leaders situational awareness. Another priority is the 
        need to publish threat advisories, bulletins, and warnings at 
        different levels of classification prior to distribution to the 
        relevant stakeholders. Threat publications are detailed and 
        disseminated in a timely fashion, portraying the nature, scope, 
        and target of the threat. Ultimately, this information provides 
        the basis for determinations to change the threat condition.
  --Information Requirements Management.--Information related to 
        threats and critical infrastructure vulnerabilities are 
        collected, stored, and protected within a diverse set of 
        locations and sources, spanning all levels of government 
        (Federal, State, and local) and including intelligence, 
        proprietary and public sources. Funding in this area supports 
        the technologies necessary to search within those diverse 
        databases to identify, distill, and/or acquire mission-critical 
        information. Program funding supports efforts to coordinate 
        information requests and tasks emanating from within other 
        parts of IAIP, other DHS Directorates, the Intelligence 
        Community, law enforcement, State and local governments, and 
        the private sector. In addition, a portion of these funds is 
        used to supplement the information technology structure to 
        accomplish these tasks efficiently and effectively through the 
        use of leading-edge capabilities. This effort ensures that all 
        information users are able to access all available and relevant 
        data.
  --Integrated Physical and Cyber Infrastructure Monitoring and 
        Coordination.--Intelligence and warning staff monitoring and 
        coordination efforts ensure that threat and critical 
        infrastructure issues are adequately addressed and represented. 
        In addition, these efforts coordinate incident response, 
        mitigation, restoration, and prioritization across critical 
        sectors in conjunction with the other relevant DHS components 
        (e.g., Emergency Preparedness and Response Directorate).

Remediation and Protective Actions ($345.738 Million)
    The IAIP Directorate has established a national Critical 
Infrastructure Protection program that leverages stakeholder input at 
the Federal, State, and local level and across the private sector to 
provide the best and most cost-effective protective strategies for ``at 
risk'' infrastructure and facilities. Through this program, the IAIP 
Directorate provides a broad range of services including on-site 
planning advice, technical and operational training programs, 
assistance in identifying vulnerabilities, and development and sharing 
of best practices. Activities in this area also include security 
efforts to protect infrastructure and assets from cyber attacks (e.g., 
malicious software, distributed denial-of-service attacks).
    Specifically, the fiscal year 2005 President's Budget requests 
$345.738 million, for remediation and protective actions divided into 
the following five areas:
  --Critical Infrastructure and Key Asset Identification.--The Homeland 
        Security Act directs the IAIP Directorate to recommend measures 
        necessary to protect the critical infrastructure of the United 
        States. One key step in this process is funding a national 
        program focused on identifying critical infrastructure and 
        assets and assessing potential risks of successful attacks to 
        those assets. By understanding the full array of critical 
        infrastructure facilities and assets, their interaction, and 
        the interdependencies across infrastructure sectors, IAIP is 
        able to forecast the national security, economic, and public 
        safety implications of terrorist attacks and prioritize 
        protection measures accordingly. Moreover, the process of 
        identifying and prioritizing assets in this manner creates a 
        common overarching set of metrics that consist of the 
        individual attributes of specific infrastructure sectors.
  --Critical Infrastructure Vulnerability Field Assessments.--The 
        Directorate coordinates with all relevant Federal, State and 
        local efforts to identify system vulnerabilities and works 
        closely with the private sector to ensure vulnerability field 
        assessment methodologies are effective, easy to use, and 
        consistently applied across sectors. Funding is targeted at the 
        need to conduct and coordinate specialized vulnerability 
        assessments by DHS teams, in conjunction with teams from other 
        Federal or State agencies and private sector companies as 
        appropriate, for the highest priority critical infrastructures 
        and assets. The intent of these efforts is to catalogue 
        specific vulnerabilities affecting the highest priority 
        terrorist targets, thereby helping guide the development of 
        protective measures to harden a specific facility or asset. A 
        nationwide vulnerability field assessment program is currently 
        underway leveraging the expertise of the IAIP Directorate, 
        other agencies, and the private sector to ensure cross-sector 
        vulnerabilities are identified and that sound, informed 
        decisions will be reached regarding protective measures and 
        strategies.
  --Infrastructure and Key Asset Protection Implementation.--Due to the 
        vast geographic size of the United States and diverse operating 
        environment for each infrastructure sector, protection 
        strategies must start at the local level and then be applied 
        nationally as needed. Priorities for protection strategies are 
        based on regional, State, and local needs and on the need for 
        cross-sector coordination and protective actions within those 
        geographic boundaries. The budget request reflects the need for 
        the IAIP Directorate to continue the development of a flexible 
        set of programs to assist in the implementation of protective 
        measures. Examples include coordinating with other Federal and 
        State agencies and the private sector to: (1) ensure the 
        detection of weapons of mass destruction material is considered 
        in the development of protection plans; (2) disrupt attack 
        planning by taking low cost actions that make information 
        collection and surveillance difficult for terrorists; (3) 
        defend the most at risk critical infrastructure facilities and 
        key assets throughout the country above the level of security 
        associated with industry best practices; and (4) develop a 
        nationally-integrated bombing response capability similar to 
        that of the United Kingdom. DHS funding in these areas focuses 
        on high value, high probability targets and will take the form 
        of ``joint ventures'' with State and local governments, 
        regional alliances, and the private sector.
  --Cyberspace Security.--Consistent with the Homeland Security Act and 
        the National Strategy to Secure Cyberspace, a key element of 
        infrastructure protection, both in the public and private 
        sectors, is to ensure the continued healthy functioning of 
        cyberspace, which includes the cyber infrastructure and the 
        cyber dependencies in the critical infrastructure sectors. The 
        IAIP Directorate recognizes that cyberspace provides a 
        connecting linkage within and among many infrastructure sectors 
        and the consequences of a cyber attack could cascade within and 
        across multiple infrastructures. The result could be widespread 
        disruption of essential services, damaging our national 
        economy, and imperiling public safety and national security. 
        The budget request supports efforts to capitalize on existing 
        capabilities of the Directorate, and investing in new 
        capabilities to monitor, predict, and prevent cyber attacks and 
        to minimize the damage from and efficiently recover from 
        attacks. As the manager responsible for a national cyber 
        security program, the IAIP Directorate provides direct funding 
        to support: (1) creating a national cyberspace security threat 
        and vulnerability reduction program that includes a methodology 
        for conducting national cyber threat and vulnerability risk 
        assessments; (2) strengthening a national cyberspace security 
        readiness system to include a public-private architecture for 
        rapidly responding to and quickly disseminating information 
        about national-level cyber incidents-including the Cyber Alert 
        Warning System; (3) expanding and completing the warning and 
        information network to support crisis management during cyber 
        and physical events; (4) implementing a national cyberspace 
        security awareness and training program; (5) developing 
        capabilities to secure the United States Government in 
        cyberspace that include guidelines for improving security 
        requirements in government procurements; (6) strengthening the 
        framework for national security international cyberspace 
        security cooperation that focuses on strengthening 
        international cyber security coordination and; (7) the Global 
        Early Warning Information System, which monitors the worldwide 
        health of the Internet through use of multiple data sources, 
        tools, and knowledge management to provide early warning of 
        cyber attacks.
  --Protection Standards and Performance Metrics.--Working in 
        collaboration with the National Institute of Standards and 
        Technology as appropriate, the IAIP Directorate is developing 
        objective data for systems protection standards and performance 
        measures. Several sectors currently use threat-based exercise 
        approaches to validate key elements of their protection 
        efforts. The budget request in this area will focus on 
        continually improving and validating sector plans and 
        protective programs and providing training and education 
        programs for public and private sector owners and operators of 
        critical infrastructure and/or key assets.

Outreach and Partnership ($40.829 Million)
    The private sector and State and local government own and operate 
more than 85 percent of the Nation's critical infrastructures and key 
assets. Consequently, public-private cooperation is paramount, and 
without such partnerships, many of our Nation's infrastructures and 
assets could be more susceptible to terrorist attack. The IAIP 
Directorate is responsible for cultivating an environment conducive for 
public and private partnerships, developing strategic relationships 
underlying those partnerships, and coordinating and supporting the 
development of partnerships between the Directorate and State and local 
government, private industry, and international communities for 
national planning, outreach and awareness, information sharing, and 
protective actions.
    The fiscal year 2005 President's Budget requests $40.829 million to 
build and maintain a sound partnership foundation. It is imperative 
that the Department is familiar with the issues confronting the private 
sector, State and local governments, Federal sector specific agencies 
for critical infrastructure, and our international partners. 
Specifically, strong relationships must be maintained with the 
following communities of interest:
  --State and Local Governments.--Establishing and maintaining 
        effective working relationships with State and local officials 
        is a fundamental part of the DHS mission to effectively share 
        information at unprecedented levels. IAIP is working with DHS' 
        Office of State and Local Government Coordination to assess the 
        information sharing and dissemination capabilities that exist 
        nationwide in order to leverage existing capabilities and 
        supplement capacity where needed.
  --Private Sector.--The Private Sector is another key partner in 
        developing a nationwide planning, risk assessment, protective 
        action, and information sharing strategy. Engaging the business 
        community and making a business case for investment in 
        protective and remedial strategies is key to our success.
  --Academia.--DHS will continue to develop, coordinate, and support 
        partnerships with academic and other educational institutions. 
        These partnerships will encourage and coordinate academic and 
        other workforce development to assure availability of quality 
        IT security professionals, and encourage curriculum development 
        to integrate critical infrastructure protection (security) as 
        normal elements of professional education.
  --Advisory Bodies.--DHS will also provide support to Presidential 
        advisory bodies and cross-sector partnerships (including the 
        National Infrastructure Advisory Council and the Partnership 
        for Critical Infrastructure Security.)
  --International.--This funding will also support and enhance 
        partnerships with the international community, working with and 
        through DHS Office of International Affairs and the State 
        Department, collaborating with the United States State 
        Department on infrastructure protection activities. This 
        includes bilateral discussions and activities on risk 
        assessment and protective actions, information sharing, 
        exercises and training. Of particular focus is the IAIP 
        component of the Smart Borders implementation with Canada and 
        Mexico. We will continue our role as the lead Federal Agency 
        Role for the Information and Telecommunications Sectors. The 
        Directorate will continue to partner with representatives from 
        those industries composing the Information and 
        Telecommunications sector and to educate members of the sector, 
        develop effective practices, develop and implement intra-sector 
        and cross-sector risk assessments, and work with other sectors 
        on identifying and addressing risks associated with 
        interdependencies.
  --Cyber.--We will expand the platform established by the Cyber Alert 
        Warning System to include awareness and education programs for 
        home users of computers and computer professionals in 
        partnership with other Federal agencies and industry. 
        Additionally, within private industry, our partnership and 
        outreach efforts will involve the engagement of risk management 
        and business educational groups to implement strategies to 
        elevate senior management understanding of the importance of 
        investment in cyber security.

National Communications System ($140.754 Million)
    The national telecommunications infrastructure supports multiple 
mission-critical national security and emergency preparedness (NS/EP) 
communications for the Federal Government, State and local governments, 
and the private industry. The security and availability of the 
telecommunications infrastructure is essential to ensuring a strong 
national, homeland, and economic security posture for the United 
States. The National Communications System (NCS) is assigned NS/EP 
telecommunications responsibilities through Executive Order 12472, 
Assignment of National Security and Emergency Telecommunications 
Functions, which include: administering the National Coordinating 
Center for Telecommunications to facilitate the initiation, 
coordination, restoration, and reconstitution of NS/EP 
telecommunications services or facilities under all crises and 
emergencies; developing and ensuring the implementation of plans and 
programs that support the viability of telecommunications 
infrastructure hardness, redundancy, mobility, connectivity, and 
security; and serving as the focal point for joint industry-government 
and interagency NS/EP telecommunications planning and partnerships.
    The fiscal year 2005 President's Budget requests $140.754 million 
for the capabilities and analytic tools necessary to support the 
expansion of NS/EP telecommunications programs and activities. The 
fiscal year 2005 funding level ensures a continuation of the NCS 
mission and legacy NS/EP telecommunications programs and assets. 
Specifically, the fiscal year 2005 budget request for the NCS is 
divided into four areas:
  --Industry-Government and Interagency Processes.--The NCS has 
        cultivated and expanded its relationships with the 
        telecommunications industry and other Federal agencies to 
        promote joint planning, operational activities, coordination, 
        and information sharing. The primary industry partnership is 
        the President's National Security Telecommunications Advisory 
        Committee (NSTAC), which is comprised of 30 industry leaders 
        representing various elements of the telecommunications 
        industry. The NSTAC and its subordinate body, the Industry 
        Executive Subcommittee (IES), provides industry-based analyses 
        and perspectives on a wide range of NS/EP telecommunications 
        issues and provides policy recommendations to the President for 
        mitigating vulnerabilities in the national telecommunications 
        infrastructure. Paralleling this industry relationship is the 
        interagency process involving the NCS Committee of Principals 
        and its subordinate body, the Council on Representatives, which 
        facilitate the NS/EP telecommunications activities of the 23 
        Federal agencies constituting the NCS.
  --Critical Infrastructure Protection Programs.--Leveraging the 
        industry relationships described above, the NCS manages several 
        network security and CIP-related programs, including: (1) the 
        National Communications Center (NCC), a joint industry- and 
        Government-staffed organization collocated within the NCS and 
        serves as the operational focal point for the coordination, 
        restoration, and reconstitution of NS/EP telecommunications 
        services and facilities; (2) the Telecommunications Information 
        Sharing and Analysis Center, which is the focal point for the 
        generation, compilation, and sharing of cyber warning 
        information among the telecommunications industry; (3) the 
        Government and National Security Telecommunications Advisory 
        Committee Network Security Information Exchanges (NSIEs), which 
        meet regularly and share information on the threats to, 
        vulnerabilities of, and incidents affecting the systems 
        comprising the public network; (4) the Critical Infrastructure 
        Warning Information Network (CWIN), which is designed to 
        facilitate the dissemination of information and warnings in the 
        event of a cyber attack; (5) Training and Exercises, which 
        helps ensure the readiness and availability of qualified staff 
        to perform the operational duties of the NCS associated with 
        Emergency Support Function #2--Telecommunications of the 
        Federal Response Plan; (6) Operational Analysis, which develops 
        and implements tools and capabilities to conduct analyses and 
        assessments of the national telecommunications infrastructure 
        and its impact on NS/EP services; (7) NCS also supports the 
        Global Early Warning Information System, which monitors the 
        worldwide Internet health through use of multiple data sources, 
        tools, and knowledge management to provide early warning of 
        cyber attacks, (8) Shared Resources (SHARES) High Frequency 
        (HF) Radio Program, developed by the NCS and in continuous 
        operation since being approved by the Executive Office of the 
        President in the NCS Directive 3-3 of January 1989. The SHARES 
        program makes use of the combined resources and capabilities of 
        existing Federal and federally affiliated HF radio stations on 
        a shared, interoperable basis to provide critical backup 
        communications during emergencies to support national security 
        and emergency preparedness (NS/EP) requirements.
  --Priority Telecommunications Programs.--The NCS is continuing a 
        diverse set of mature and evolving programs designed to ensure 
        priority use of telecommunications services by NS/EP users 
        during times of national crisis. The more mature services--
        including the Government Emergency Telecommunications Service 
        (GETS) and the Telecommunications Service Priority (TSP)--were 
        instrumental in the response to the September 11th attacks. 
        Fiscal year 2005 funding enhances these programs and supports 
        the development of the Wireless Priority Service (WPS) program 
        and upgrade to the Special Routing Arrangement Service (SRAS). 
        Specifically, priority service programs include: (1) GETS, 
        which offers nationwide priority voice and low-speed data 
        service during an emergency or crisis situation; (2) WPS, which 
        provides a nationwide priority cellular service to key NS/EP 
        users, including individuals from Federal, State and local 
        governments and the private sector; (3) TSP, which provides the 
        administrative and operational framework for priority 
        provisioning and restoration of critical NS/EP 
        telecommunications services; (4) SRAS, which is a variant of 
        GETS to support the Continuity of Government (COG) program 
        including the reengineering of SRAS in the AT&T network and 
        development of SRAS capabilities in the MCI and Sprint 
        networks, and; (5) the Alerting and Coordination Network (ACN) 
        which is an NCS program that provides dedicated communications 
        between selected critical government and telecommunications 
        industry operations centers.
  --Programs to Study and Enhance Telecommunications Infrastructure 
        Resiliency.--The NCS administers and funds a number of programs 
        focusing on telecommunications network resiliency, security, 
        performance, and vulnerabilities, including: (1) the Network 
        Design and Analysis Center, which is a set of tools, data sets, 
        and methodologies comprising the Nation's leading commercial 
        communications network modeling and analysis capability that 
        allows the NCS to analyze the national telecommunications and 
        Internet infrastructures; (2) the NS/EP Standards program, 
        which works closely with the telecommunications industry to 
        incorporate NS/EP requirements in commercial standards and 
        participates in national and international telecommunications 
        standards bodies; (3) the Converged Networks Program, which 
        investigates vulnerabilities and mitigation approaches in 
        future technologies and networks (specifically Internet 
        Protocol-based networks); (4) the Technology and Assessment 
        Laboratory, which provides the ability to evaluate penetration 
        testing software, modeling tools, various operating systems and 
        protocols, hardware configurations, and network 
        vulnerabilities, and; (5) the Routing Diversity effort, which 
        is developing a communications routing diversity methodology to 
        analyze a facility's level of routing diversity and is 
        evaluating alternative technologies which can provide route 
        diversity, and (6) the NCS, through various associations and 
        other activities is involved in a variety of International 
        Activities (NATO, CCPC, CEPTAC, and Hotline) which provides 
        technical subject matter expertise, guidance, and coordination 
        on CIP issues affecting the telecommunications infrastructure 
        in numerous international forums on behalf of the United States 
        Government.

Competitive Analysis and Evaluation ($18.868 Million)
    The Competitive Analysis and Evaluation program ensures that IAIP 
products and services are tested, accurate, based on sound assumptions 
and data, and ultimately, offer the highest quality, depth, and value 
to IAIP customers. The fiscal year 2005 President's Budget requests 
$18.868 million to provide for the unbiased, objective analyses and 
evaluation of IAIP findings, assessments, and judgments through three 
functional areas: Risk Assessment Validation, Evaluation, and Exercises 
and Methodologies.
  --Risk Assessment Validation.--Funding is used to establish and field 
        physical and cyber target risk analysis teams that employ ``red 
        team'' techniques to evaluate measures taken by other IAIP 
        components to protect key assets and critical infrastructure. 
        The red teams emulate terrorist doctrine, mindsets, and 
        priorities and employ non-conventional strategies to test and 
        evaluate IAIP planning assumptions.
  --Evaluation.--Funding supports several initiatives, including the 
        IAIP Product and Process Evaluation, which involves conducting 
        independent, objective evaluations of IAIP products and 
        processes and to assist IAIP divisions to develop products that 
        offer value to IAIP customers. The second is IAIP Customer 
        Satisfaction, which evaluates customer satisfaction with IAIP 
        products and services to ensure they are responsive to current 
        customer needs. Funding in this area provides for electronic 
        and non-electronic feedback surveys, field visits, and 
        conferences.
  --Exercises and Methodologies.--Coordinate and manage interagency 
        exercises and tabletops that test both DHS and IAIP policies, 
        processes, procedures, capabilities, and areas of 
        responsibilities. Participating in and conducting after action 
        reviews of exercises provides invaluable experience and 
        feedback related to capabilities, connectivity, and information 
        sharing during a crisis event. Investment in this area informs 
        the Department's decision as to where improvements are needed. 
        This funding also supports examining and instituting advanced 
        methodologies such as alternate hypotheses, gaming, modeling, 
        simulation, scenarios, and competitive analyses to ensure IAIP 
        products are accurate, sophisticated, and of the highest 
        quality and value to customers.

National Plans and Strategies ($3.493 Million)
    Critical to ongoing national efforts to protect and secure the 
homeland are updating, revisiting, coordinating the development, and 
monitoring the implementation of National Plans and Strategies. The 
fiscal year 2005 President's Budget requests $3.493 million to support 
activities by coordinating, developing, and publishing contingency 
planning documents for critical infrastructures (as called for in the 
National Strategy to Secure Cyberspace), monitoring progress against 
those documents, and producing an annual report.

Homeland Security Operations Center ($35.0 Million)
    The HSOC maintains and shares domestic situational awareness; 
coordinates security operations; detects, prevents, and deters 
incidents; and facilitates the response and recovery for all critical 
incidents. The HSOC is the focal point for sharing information across 
all levels of government and the private sector.
    The HSOC facilitates the flow of all-source information and 
develops products and services including: (1) the daily Homeland 
Security Situation Brief for the President, (2) reports and briefs to 
law enforcement, the Intelligence Community, other Federal and State 
agencies and industry partners, (3) warnings and alerts to individual 
responder agencies and the public as appropriate, and (4) coordinated 
response when crises do occur. The HSOC concept is to draw from the 
many distributed systems and centers that are currently dedicated to 
different missions and optimize their contribution to homeland 
security.
    HSOC funding will help with the time efficiency of issuance of 
information and warning advisories through increased operations 
efficiency brought about by facility improvements.

New Programs
    In the fiscal year 2005 IAIP budget, as a part of an interagency 
effort to improve the Federal Government's capability to rapidly 
identify and characterize a potential bioterrorist attack, the 
President requst $11 million for a new biosurveillance iniative. This 
increase provides for real-time integration of biosurveillance data 
harvested through the Centers for Disease Control (CDC), Food and Drug 
Administration (FDA), United States Department of Agriculture (USDA) 
and DHS Science and Technology (S&T) Directorate with terrorist threat 
information analyzed at IAIP. Currently, a finding from one source of 
surveillance exists in isolation from relevant surveillance from other 
sectors, making it difficult to verify the significance of that finding 
or to recommend appropriate steps for response. Integrating the 
information in IAIP, and analyzing it against the current threat 
picture will inform effective homeland security decision-making and 
speed response time to events.
    This interagency initiative, includes DHS's ongoing BIOWATCH 
environmental biodetection program, Health and Human Services' (HHS) 
proposed BIOSENSE program, HHS' and United States Department of 
Agriculture's (USDA) ongoing joint separate food security surveillance 
efforts, and USDA's agricultural surveillance efforts. This DHS-led 
effort will promote data sharing and joint analysis among these sectors 
at the local, State, and Federal levels and also will establish a 
comprehensive Federal-level multi-agency integration capability to 
rapidly compile these streams of data and preliminary analyses and 
integrate and analyze them with threat information

Conclusion
     In summary, the fiscal year 2005 budget request provides the 
resources to enable the IAIP Directorate to manage and grow in its 
mission of securing the homeland. I look forward to working with you to 
accomplish the goals of this department and the IAIP directorate.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

                    NATIONAL BIOLOGICAL SURVEILLANCE

    Senator Cochran. Thank you, General Libutti.
    Now, looking at the budget request, I noticed that in the 
case of the National biological-surveillance program, the 
budget proposes to establish a group lead by the Department of 
Homeland Security and including the Department of Health and 
Human Services, and the Department of Agriculture, to create a 
National biological surveillance system. Funding for this 
initiative is $279 million Government-wide. The Department of 
Homeland Security's request for this initiative is $129 million 
for the roles carried out by these directorates that you 
manage.
    Secretary Libutti, how will the Information Analysis and 
Infrastructure Protection Directorate work to coordinate its 
efforts with the Department of Health and Human Services and 
the Department of Agriculture to integrate biological 
surveillance data, and verify a chemical or biological attack?
    General Libutti. Thank you, sir.
    Let me start by simply highlighting the IAIP funds and 
support of this inter-agency effort. And I will tell you that 
my partner sitting here with me, to my right, Dr. McQueary, is 
certainly a partner for me in this effort.
    For us, it's about $11 million. And you touched on a 
critical point. Our job in support of this major inter-agency 
effort is to work as a repository to gather the data heretofore 
across the Federal Government, which is not indeed gathered, 
and looked at it with a view towards providing situational 
awareness, and as an extension, actions that need to be taken 
by the Federal Government, and by extension to partners at the 
State and local level.
    So the bottom line for me in terms of how we do this, is I 
do it in complete support and cooperation with Dr. McQueary, 
and in concert with other members of the inter-agency effort. 
The bottom line is it's about gathering the information or data 
in a collaborative way, and in a way that represents what is 
going on across the Federal Government.
    Senator Cochran. What would happen to this initiative if 
funding is not provided to the Department of Agriculture or 
Department of Health and Human Services? Would there be a 
serious breakdown in the capabilities of our government to deal 
with these threats?
    General Libutti. My sense, sir, is that if there were 
indeed a breakdown, it wouldn't be in the execution piece of 
their mission or their responsibility. It would be more broadly 
speaking, in what we have all learned is very critical in this 
fight against terrorism, and that is to truly work in concert 
to look at the information or databases that are available and 
simply haven't been collected in a cohesive way. To look at 
them and to ask, what does that mean in terms of assessing the 
threat, assessing our own capability, and then taking 
appropriate action.
    Certainly, the mission would still be accomplished, I 
simply think it would not be a wise move in terms of the 
greater value added when you look at all of this data, and then 
there is one person responsible for bringing it together.

                        ENVIRONMENTAL MONITORING

    Senator Cochran. Secretary McQueary, your directorate's 
role in biological surveillance includes an increase of $65 
million to expand environmental monitoring activities in the 
cities determined to be at the highest risk of terrorist 
attack. Can you give us any further details about the chemical 
and biological warning activities that are in place now, and 
what this increased funding will be used for if it is made 
available to you by the Congress?
    Dr. McQueary. The increased funding will permit us to 
increase the number of sensors in high-risk urban areas, to be 
able to make the biological detections using a system called 
BioWatch. That system has been in place since about a year ago 
in January, when we first began deploying those systems.
    And of course, you know we work very closely with EPA, as 
well as Health and Human Services, in being able to do that 
work.
    Senator Cochran. What do you think you will be able to 
accomplish if you get this increased funding, in terms of new 
advances or the development of new technologies or systems?
    Dr. McQueary. The $65 million is to allow more deployments 
of the capabilities than we currently have, thereby increasing 
the number of monitoring stations in the various urban areas 
where we have these systems already deployed, as well as 
increasing the number of locations, city locations, if you 
will, where we have them deployed.
    So it fundamentally gives us a better, real--not real time-
but a better monitoring capability so that we can make a 
determination should there be a biological attack of some sort.
    We have approximately, I would say, an average of ten 
sensors per geographical location. Now that is an estimate but 
I can give you precise numbers if you need them. With the 
increase we will effectively be able to double the number of 
sensors where we are and provide better coverage, if you will.

                            COUNTERMEASURES

    Senator Cochran. There is also the BioShield initiative, 
which is involved in deploying countermeasures against 
biological terror attacks. How is the Science and Technology 
Directorate participating in the development of 
countermeasures?
    Dr. McQueary. Well, of course, the development of 
countermeasures is in our charter, and we work in the chemical, 
biological, radiological, nuclear, and high-explosives areas. 
So in each of those areas we have ongoing research being 
managed either in the national laboratories, or in private 
industry or universities, which are three components of the 
country's scientific support that we call upon regularly. So, 
we do have broad agency announcements that have been put out 
through the HSARPA organization, for chemical, and biological 
sensors, as well as in the radiological and nuclear area.
    And, if I may, the primary focus in all of the sensor 
development is to do things faster. Because, for example, 
BioWatch, we do a sample every day, but it takes perhaps a day 
to be able to do the assays on that sample, and therefore there 
could be 48-hours. The ultimate system that we would someday 
want to get to, and, some of our research, I think will lead in 
that direction, is to be able to do the sampling at the site, 
be able to do the assays, and then telemetry the information 
from that site to a central command control area. They would be 
working, obviously, very closely with General Libutti's people 
to make a determination that something has happened, and 
therefore, corrective action would be taken.
    Senator Cochran. Does this budget request include research 
and development of medical countermeasures across the agencies 
portfolios, or does the Science and Technology Directorate 
serve only in an advisory role?
    Dr. McQueary. The medical countermeasures is the 
responsibility of Health and Human Services. We serve in an 
advisory role in that area, and have people that meet regularly 
with people in Health and Human Services to discuss programs 
that should be implemented.
    Senator Cochran. What assessments have been carried out by 
the Information Analysis and Infrastructure Protection 
Directorate of our vulnerability to biological attacks that 
will guide decisions regarding the investments that should be 
made to develop, produce and purchase vaccines or other 
medications for the Nation's biological defense.
    General Libutti. The work that we have done since I have 
been on board, since late June or early July, sir, has been to 
work with Dr. McQueary and his folks, conduct surveys and 
visits across the country to key high-threat areas, to get as 
smart as we can relative to the threats posed by the biological 
and chemical threats, and to conduct appropriate analysis 
including developing models to give us a strong indication of 
what the impact of such an attack would be.
    We have recently developed a program that we have briefed 
to high officials in our government, in the Administration, 
that outlines across the board threats in aviation, 
transportation, and biological, and chemicals weapons. What we 
have developed is still a work in progress. But it is a good 
model. We've looked at the impact and consequences of various 
events particularly across major urban areas.
    So those are the kinds of activities that we have been 
engaged in, in concert with Dr. McQueary and other members of 
the inter-agencies; specifically, Health and Human Services, 
CDC, and others who have a primary interest in the impact of 
such an attack.

                INTEROPERABLE COMMUNICATIONS AND SAFECOM

    Senator Cochran. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    Secretary Ridge has laid out the department's goals, and he 
stated that one of his highest priorities was interoperable 
communication and equipment. And he set a deadline of December 
2004, for implementing a short-term solution, that will allow 
first responders to communicate with each other during a 
disaster. Dr. McQueary, your directorate is in charge of 
coordinating and promoting interoperable communications for 
public safety.
    The President's budget proposes to eliminate funding in the 
Justice Department for interoperability grants. When my staff 
asked the Justice Department why the funds were dropped from 
the budget, my staff was told that interoperability is a 
Homeland Security responsibility. Yet the President's budget 
sets aside no funds for this purpose in the Department of 
Homeland Security budget. So I ask, can you explain the short-
term solution and why no funds are requested to address this 
problem?
    Dr. McQueary. We actually do have funds requested to 
support the SAFECOM program, which is the program for which the 
Science and Technology Directorate has direct responsibility.
    Senator Byrd. How much is the request?
    Dr. McQueary. I believe, sir, $20--if I am not mistaken, 
its $22 million. I'll check behind me, and make sure I give you 
the correct number. But I believe it's $22 million for that 
effort.
    And what we expect to come out of that effort, as Secretary 
Ridge had indicated, is a set of standards that State and 
local, can use to acquire equipment, and to provided 
interoperability on what we're referring to as the penultimate 
solution, because what we will be providing is not the ultimate 
solution in interoperability. I will try to be precise in what 
I mean by that.
    There are technical capabilities today that exist in some 
companies. For example, if you think of a point electronic box, 
a box that can receive signals from many different types of 
radios, and that box can in effect convert signals from one 
radio into a protocol or a format that would be needed by 
another radio it is trying to talk to in order to permit those 
two to be able to have a communication. And, similarly, you can 
create conference calls, if that were the objective. Obviously, 
there are limits to the number of possibilities of different 
kinds that can be implemented.
    The ultimate solution, I believe, will be to move into 
software defined radios, and a considerable amount of research 
work has gone on in that area. That would be a system in which 
new radios, as they are purchased, would permit people to 
communicate with one another based upon the radio itself being 
able to recognize the different types of communication 
protocols and accomplish that.
    Senator Byrd. The SAFECOM money is not money for State and 
local governments.
    Dr. McQueary. That's----
    Senator Byrd. SAFECOM is for standards setting. To actually 
fix the problem, State and local governments need money to buy 
the interoperability equipment.
    Dr. McQueary. Excuse me.
    Senator Byrd. Yes.
    Dr. McQueary. I did not mean to imply that the $22 million 
that we have in our budget is to be used to purchase equipment. 
It is indeed the necessary effort to establish the standards. 
Of course, the State and locals will have access to grant money 
that will be provided by the Office of Domestic Preparedness. 
And what we will do, and have already done in some cases, is 
provide guiding standards by which we would expect them to 
purchase new equipment in the expenditure of that money. We see 
that as the vehicle to permit State and locals to be able to 
transition into having more interoperable capability.
    Senator Byrd. The President is proposing a cut of over $700 
million of first responder programs in the Department, and a 
cut of $1.5 billion for first responders government wide.
    The interoperability problem is yet another reason why we 
should not be cutting funding to first responders. How does the 
Department justify cutting first responder grants when the 
short term solution that the Secretary announced will cost 
several million dollars to implement?
    Dr. McQueary. If you're proposing that to me, sir, I was 
not a participant in that, and therefore, I am not in any 
position to answer the question, but I am sure that my people 
will be pleased to provide an answer to the question that you 
proposed.
    [The information follows:]

            Justification for Cutting First Responder Grants

    The President's fiscal year 2005 request includes more than $3.5 
billion to support ODP programs and activities. This represents a $3.3 
million increase over the Fiscal year 2004 request. The fiscal year 
2005 request includes funds to continue the Homeland Security Grant 
Program which includes the State Homeland Security Program at $1.4 
billion; the Law Enforcement Terrorism Prevention Program at $500 
million; and the Citizen Corps Program at $50 million. Funds are also 
provided for the continuation of the Urban Areas Security Initiative at 
$1.4 billion; the Fire Act Program at $500 million; the Emergency 
Management Performance Grants at $170 million; as well as for ODP's 
training, exercise, and technical assistance efforts.
    The continuation of these efforts, and the $3.3 million increase in 
ODP's overall request, coupled with the President's request for a 10 
percent increase in funding for DHS as a whole, provides ODP, and the 
entire Department, with the resources we require to help secure the 
Nation from acts of terrorism. The Administration and Department remain 
committed to providing our Nation's emergency prevention and response 
community the resources they need to continue to secure our Nation from 
future acts of terrorism.

                          UNIVERSITY PROGRAMS

    Senator Byrd. Your budget request includes a $38.8 million 
reduction for Homeland Security University and Fellowship 
Programs. In fiscal year 2004, this subcommittee provided $69 
million for this program, $60 million more than the President 
requested. The subcommittee expects the academic community to 
play a major role in identifying and solving problems facing 
the homeland.
    The White House has criticized Congress for earmarking 
funds for Science and Technology, and so this subcommittee 
decided not to earmark funds last year. Instead of reinforcing 
this decision, the President is proposing to cut university 
research by over 50 percent. Could you tell the subcommittee 
what the rationale may be for such a drastic cut to this 
program in fiscal year 2005?
    Dr. McQueary. This is an area in which I can assure you we 
had considerable internal debate and discussion. I would have 
to hasten to say, sir, that at some point we all work for 
someone and it was time for me to salute and say, yes, sir, I 
will try to do as much as we possibly can with the proposed 
amount of budget, and that is what we will do.
    Senator Byrd. Your budget justification notes that three 
Homeland Centers of Excellence will be selected by the end of 
fiscal year 2004. How does this funding reduction affect your 
ability to select other university centers of excellence.
    Dr. McQueary. First, the $30 million that's proposed is 
ample funding to support three University Centers of 
Excellence. We have, of course, selected one. And we plan to 
select two more this fiscal year. In fact, the necessary 
activity is well underway in order to accomplish that.
    We fund the University Centers about $5 million each, minus 
a little bit of overhead associated with managing that process. 
The balance of $15 million is completely adequate to support 
not only the hundred fellows and scholars that we have already 
approved. But also to add another hundred to that.
    In summary, $30 million supports three Centers, as well as 
200 scholars and Fellows.
    Senator Byrd. So you're saying, are you, that there will be 
two additional centers selected at the President's funding 
level?
    Dr. McQueary. I am sorry, sir.
    Senator Byrd. Are you saying that there will be two 
additional centers selected at the President's funding level?
    Dr. McQueary. Yes, sir, there will be two additional, 
bringing us to a total of three. One is in animal diseases. The 
other is in post-harvest food safety.

                           CHEMICAL DETECTORS

    Senator Byrd. In your written statement you list as an 
accomplishment of your directorate that you worked with the 
D.C. Metro System to deploy chemical detectors in the D.C. 
subway system. This is an excellent system to give Metro the 
capacity to immediately determine that the subway has been 
exposed to a chemical agent, so it knows how to effectively 
respond to the attack.
    I understand that this system is now in operation and you 
view it as an accomplishment. After the attacks of 9/11, the 
Senate approved $15 million for this pilot project. This 
funding was included at Congress's initiative, it was not 
requested by the President. In fact, the White House 
specifically objected to this funding, describing it as 
excessive.
    Is there any funding in the President's request to either 
complete the D.C. chemical detector system, or to take 
advantage of the lessons learned from this pilot program to 
deploy the chemical detectors in other large subway systems 
around the country?
    Dr. McQueary. Well, at this time we have proven the concept 
of operation for that system, and it is something we are 
extremely proud to have been a part of, I can assure you. So, I 
compliment the Congress on appropriating the funding necessary 
to get it launched.
    We do have the measurement system, both chemical 
measurement as well as video capability, tied into a central 
control station in downtown D.C., as you probably know, I am 
sure you know. We view it as a responsibility of Washington, 
D.C. to carry the program forward, for example, if there is a 
need or desire to expand to more stations within the 
Washington, D.C. area.

            MANPADS SURFACE TO AIR MISSILE COUNTER MEASURES

    Senator Byrd. Your budget includes $61 million to determine 
whether a viable technology exists to address the threat 
shoulder-fired missiles pose to commercial aircraft. This 
funding request followed $60 million approved by Congress in 
fiscal year 2004. The details of this threat are well 
documented. The Congressional Research Service estimates there 
are as many as 700,000 of these missiles globally. Some of 
which are on the black market, selling as low as $5,000 apiece.
    CRS also estimates that there have been 29 instances in 
which civilian planes have been hit by shoulder-fired missiles, 
none of which occurred in the United States.
    However, in May 2002, the FBI warned law enforcement 
agencies to be alert to the potential use of surface-to-air 
missiles against U.S. aircraft. If such a missile was fired at 
a commercial aircraft here in the United States, it would wreak 
havoc on our economy.
    How soon do you believe that we can begin to outfit 
commercial aircraft with a system to counter surface-to-air 
missiles?
    Dr. McQueary. I believe that we expect by the end of 
calendar year 2005 the Administration and the Congress will be 
in a position to have scientific information from which to make 
a decision as to whether we should outfit planes, commercial 
aircraft, in this country.
    Science and Technology, as an organization, will not be 
recommending one way or the other. Rather, that is a decision 
for the Administration and the Congress to make, we believe.
    Senator Byrd. How realistic is it to convert to existing 
technology on military aircraft to our commercial fleet?
    Dr. McQueary. We believe that it is in the category of, 
what I would call, an engineering problem, rather than needing 
a scientific breakthrough in order to do this. There are really 
two or three issues that drive the commercial airline fleet. Of 
course, one is that certifications necessary to get approval to 
put anything on an aircraft is perhaps more stringent for 
commercial aircraft.
    Also anything we do to an aircraft that would add air drag 
will increase fuel costs, and so there are multiple issues to 
be dealt with as one decides which technology would be 
appropriate. Regarding the technologies themselves, we do 
believe that it is eminently feasible to put them on commercial 
aircraft. And, we have three contractors that are in the early 
stages of studies that will lead to a down selection of one or 
two contractors to go into the development of such a system.
    The other important factor is that reliability must be such 
that we can afford to have them on the planes. The military can 
actually carry its support system with it wherever the planes 
fly. But, if you consider all of the airports into which our 
planes go, just in this country alone, the idea of trying to 
have a support system at each one would be extremely expensive.
    So the reliability of the systems need to be greater than 
what we are seeing with the military versions right now.
    Senator Byrd. Do I have time for one more?
    Senator Cochran. Senator Stevens has come in and we want to 
include him.
    Senator Byrd. I shall desist.
    Senator Cochran. Senator Stevens.

                         TSA DETECTION SYSTEMS

    Senator Stevens. Thank you very much.
    I was enjoying the Senator's questions, as a matter of 
fact. I, gentlemen, have spent quite a bit of time with the 
aviation community trying to figure out where we're going in 
terms of some of the homeland security activities. And, I am 
impressed with comments that I have received from many of them 
that our systems are designed to deal with metal and not with 
substances. How would you answer that?
    Dr. McQueary. Our systems are designed to deal with----
    Senator Stevens. Metals rather than substances.
    Dr. McQueary. Metals rather than . . .? I'm afraid I don't 
understand the question, sir.
    Senator Stevens. Well, we're looking for guns, we're 
looking for knives, we're not looking for chemicals, we're not 
looking for biological weapons. We're zeroing in on what was 
used in 9/11 and not what the terrorists might be using in the 
future. Is that correct?
    Dr. McQueary. Now, I understand the question. Within the 
Science and Technology Directorate we do have some research 
work that we're funding this year to be able to make detections 
of explosive devices at range, if you will. This is in the very 
early stages, and I would not for a moment try to tell you that 
I think that we have a solution to that problem.
    The Israelis have, of course, worked on this in great 
detail. We have had many interactions with them. It's a hard 
problem, but it is an area which we think is important towards 
being able to do the things necessary to make the airports, 
airlines and travel safer. It is a very important area.
    Senator Stevens. Well, over the past recess, I went through 
major airports, and I asked to be shown the TSA systems. And, I 
must say they are very impressive systems, but all of them are 
designed for what I said, to locate knives, to locate metals 
that might be in the baggage. Are we looking towards trying to 
ascertain the presence of chemical substances, bacterial 
substances, and explosive substances?
    Dr. McQueary. I will tell you, the area where I do not 
believe we have a satisfactory answer to in the bacterial area. 
It's very complex, very difficult, to deal with what a person 
can do to bring something in a handkerchief into the country. 
It would be very, very difficult to detect a bacterial 
substance, unless one were to get into some sort of invasive 
type of measurement system. So far, we have not chosen to get 
into that level. We as a country, have not chosen to go that 
far.
    In chemicals, there are many different types of detectors 
that can indeed detect chemical components that would make up 
explosive systems or any kind of liquids that you might have. 
But you have to be able to get a sufficient signal, if you 
will, a sufficient amount of the chemical being put forth into 
the air so that it could be detected, unless we go to some kind 
of invasive system. And right now, our focus is on what we 
might be able to pick up from the air, if you will, the general 
air surrounding a passenger in that area.
    Senator Stevens. Well, Doctor what about the President's--
--
    Dr. McQueary. We are not ready to--I'm sorry.
    Senator Stevens. I beg your pardon.
    Dr. McQueary. Please continue.
    Senator Stevens. What about the presence of detonators? 
We're watching daily in Iraq bombs go off by someone dialing a 
cell phone.
    Dr. McQueary. Right.
    Senator Stevens. And alerting, you know, energizing a 
detonator. Are we trying to discover the presence of detonators 
in baggage?
    Dr. McQueary. I can't answer the question. I don't know off 
hand--I simply don't know. I should know the answer, but on 
that particular question, I don't know. I will be happy to look 
into it and find out exactly what we are doing for you.
    [The information follows:]
             Discovering Presence of Detonators in Baggage
    Reliable detection of detonators in baggage is important to the 
security of the transportation infrastructure. The responsibility for 
this security measure currently remains with the Transportation 
Security Administration. Additional information can be provided in a 
classified briefing.

    Senator Stevens. Alright.

                 RESEARCH AND DEVELOPMENT CONSOLIDATION

    Let me shift to the Coast Guard, if I may. Are any one of 
you involved in the changes that are taking place in research 
and development funding. That's in the Science and Technology 
Directorate.
    Dr. McQueary. That's right.
    Senator Stevens. That's yours, is it Doctor?
    Dr. McQueary. Yes, sir.
    Senator Stevens. When we approved the transfer of the Coast 
Guard to the new Homeland Security Department, it was my 
understanding, and I think that it was in the basic law and in 
the report, that the department was to be left as a complete 
unit. I am informed now that the budget proposes to transfer 
the research and development funding in units of the Coast 
Guard to your directorate. Is that right?
    Dr. McQueary. That is correct. But, I need to be precise on 
what we mean by transfer. That unit will never lose its close 
ties with its parent organization. We will assume research and 
development oversight for it.
    As you are probably aware, the Congress actually cut the 
research and development budget for the Coast Guard laboratory 
last year. So they entered this year with no money other than 
support for the people that are in that laboratory. They have 
had no research and development program in this fiscal year. We 
do have money in our Science and Technology budget for fiscal 
year 2005 to support the Coast Guard, not only the people at 
the laboratory, but also a modest research and development 
program.

    SHIFT OF $13.5 MILLION FROM THE COAST GUARD TO THE SCIENCE AND 
                         TECHNOLOGY DIRECTORATE

    Senator Stevens. My information was that the budget 
proposes to shift $13.5 million from the Coast Guard to your 
directorate. Is that wrong?
    Dr. McQueary. No, that's not incorrect. The $13.5 million 
is basically the operational costs for the labs that are in 
Connecticut. And we're putting in another $5 million for 
research and development work.
    Senator Stevens. Are you taking over direction of it, and 
taking it from the Coast Guard?
    Dr. McQueary. That's harsher language than I would choose 
to use.
    Senator Stevens. The language. The legislation is very 
harsh. I drew it.
    Dr. McQueary. Okay. We have responsibility, we had 
responsibility in the Science and Technology Directorate to 
advise and direct the Coast Guard on what scientific work they 
needed. However, I would say directly, that in order to 
accomplish the determination of what we must do, we have Coast 
Guard people on our staff, we have a Coast Guard Captain who is 
in residence with my Science and Technology group. His job is 
to make sure that we're representing the needs of the Coast 
Guard in the scientific work that we undertake. And that's the 
same thing we do for each and every one of the operational 
units within the Department of Homeland Security.
    We're not an independent island on research and 
development. We're a service organization intended to provide 
the very best science and technology to these operational units 
which stand at the ready each and everyday to do the job the 
Department of Homeland Security has to do.
    Senator Stevens. Well, it's a technicality I imagine, but 
when Congress declares war, the Coast Guard becomes a part of 
the Department of Defense.
    Dr. McQueary. Right.
    Senator Stevens. You're familiar with that?
    Dr. McQueary. Yes, sir.
    Senator Stevens. The legislation we passed to authorize the 
transfer of the Coast Guard to the Department of Homeland 
Security was done in a fashion so that, if that transfer to the 
Department of Defense was triggered, it would be a whole unit.
    It appears to me that slowly but surely you're taking away 
from the Coast Guard the things that make it a whole unit, 
namely research and development.
    Dr. McQueary. I spent my entire career in research and 
development, and my experience tells me that small pockets of 
research and development can never be as effective as being a 
part of a larger research and development organization. We 
believe that by transferring the Coast Guard's research and 
development into the Science and Technology Directorate, and 
giving them more day-to-day interaction with the scientific 
work that is going on, that we will actually end up doing a 
better job, not only for the department, but also for the Coast 
Guard itself.
    Senator Stevens. Are you prepared to do that for the 
Department of Defense when it becomes a part of the Department 
of Defense?
    Dr. McQueary. I----
    Senator Stevens. I don't think you get my point. You have 
no authority to do that.
    Dr. McQueary. We have----
    Senator Stevens. I would urge you to check with your legal 
department and determine what authority you have to transfer 
anything from the Department of Defense, from the Coast Guard, 
without our approval.
    Dr. McQueary. Well, I am sure that if we don't have the 
authority to do it, we do not propose to do it without your 
approval, if that's the case.
    Senator Stevens. Sometimes people are ignorant of the law.
    Dr. McQueary. Well, that could very well be the case here, 
too.
    Senator Stevens. Well, I don't think.
    Dr. McQueary. But I can assure you that there is no 
intention----
    Senator Stevens. I don't mean to be abrupt with you Doctor, 
but I do believe that it is essential that if and when the 
Coast Guard becomes a part of the Department of Defense, it be 
a total unit.
    Dr. McQueary. Yes.
    Senator Stevens. An integral, operational unit that is just 
transferred and not leaving portions of it somewhere else. That 
was the debate that we had, and I hope that we will pursue that 
and you will take a look at it for us.
    Now, let me ask you----
    Dr. McQueary. I will do that.

                  UNIVERSITY PROGRAMS/ENERGY SECURITY

    Senator Stevens. One other thing if I may. Well two really. 
I see that you have got these Homeland Security Centers of 
Excellence, and I congratulate you. The Senator from West 
Virginia was talking about one in terms of the Center for 
Excellence with regard to food programs. And one, I understand, 
will be combating animal related agro-terrorism, and the other 
focuses on post-harvest food security.
    What about energy production and energy security. Are you 
focusing on that?
    Dr. McQueary. For the areas of energy production and energy 
security is a combination of General Libutti and myself, as 
well as the Department of Energy. I believe one of the Homeland 
Security Presidential Directives clearly spells out that the 
Department of Energy has responsibility for energy. So the work 
that we do would be to work with General Libutti from an 
infrastructure protection standpoint. And, perhaps I would let 
him comment rather than be presumptive about saying what he 
would be doing.
    Senator Stevens. General, are you pursuing that?
    General Libutti. Sir, the effort that we make in the main, 
in terms of our mission profile, is the risk assessment 
vulnerability piece of any part, large or small, of the 
national infrastructure. So in terms of chemical site security 
surveys, we are working with our friends at the Nuclear 
Regulatory Commission, working with other members in the inter-
agency, and our job remains principally to advise relative to 
the threat.
    We recommend preventive actions in concert with the rest of 
the community, that ought to be taken immediately or that have 
a long-term proposition relative to protecting America. So, 
we're about the threat, vulnerability and risk assessment piece 
of all of these programs. And we share that information with my 
friend, Dr. McQueary, and other members of Health and Human 
Services, Center of Disease Control, the Department of 
Agriculture, or the Department of Energy.
    So we're a player at the table. I might add, and this is 
not a marketing piece, but we are the newest members of the 
National Intelligence community, and we are full players. We 
have connected very well with all the major elements within the 
Federal Government, as well as State and local communities that 
deal with information sharing, analysis, and simply stated the 
threat.
    I tell you that just for a sense of what our directorate is 
all about and how we interact with other members of the 
intelligence community, including TTIC, CIA, and the FBI, who 
principally has responsibility on the law enforcement side.
    Senator Stevens. Thank you.
    I will be delighted to try and understand what you just 
said. For instance, in terms of our oil pipeline, do you review 
that pipeline for threat?
    General Libutti. We do when we gleam specific intelligence 
from looking at all of the sources, which indicates that it is 
a target set. We absolutely look at it in the broader 
infrastructure requirements that bring us to a situation which 
causes us to look at it with other members of that community.
    Senator Stevens. And do you----
    General Libutti. And we do that across all of the 
infrastructure.
    Senator Stevens. Do you review the ports through which we 
import 57 percent of our oil?
    General Libutti. Again, we work in concert with our friends 
in the Coast Guard and in the industry, the container shipping 
folks, to look very hard at the threat and the risk associated 
with that threat, in a specific port, city, or State.
    So the answer is, yes, sir, we do.
    Senator Stevens. Okay.

                            ENERGY SECURITY

    Well, let me give you one that I think you ought to take a 
look at then. And the Department of Commerce can verify this.
    By 2015, we will be importing 40 percent of our natural gas 
in the form of LNG. We do not have a LNG port in the United 
States. We have authorization. Years ago we passed legislation 
to have off-shore ports, but none were ever built. I think that 
in your department you ought to be looking at the planning for 
the future, how are we going to ensure the security of that, 
and how will it be relevant to the importation of oil and other 
substances.
    Should we separate those ports from existing ports by 
having them all come into one port? Obviously, that would 
increase the possibility of the threat.
    But, I haven't heard anyone talk about planning for the 
national security, or homeland security on the access of 
natural gas in liquefied form.
    General Libutti. Sir, you're absolutely right. When that is 
tee-ed up as a critical issue, and I think from your 
perspective we ought to be teeing it up right now, we would be 
very much involved in looking at that. Not from an engineering 
standpoint, or the physical lay-down standpoint, but from the 
threat perspective.
    And you're absolutely right, we should be involved in that, 
and I will take your note back and we will take a look at it to 
see what we need to do right now.
    Senator Stevens. Don't put me down as an advocate, I would 
just assume bringing Alaska's gas down. But it seems that other 
gas is going to get here first, sir.
    Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator Stevens.

                          UNIVERSITY PROGRAMS

    Let me follow up with a comment about a question Senator 
Byrd asked on the Centers of Excellence, the university 
programs that we were talking about with Dr. McQueary.
    Last year, we appropriated about $69 million and it was 
intended to support these programs. Just because the 
Administration is requesting only half of that, $39, $30 
million, doesn't mean that you shouldn't spend the $69 already 
appropriated. There are provisions for deferring expenditures 
or rescinding expenditures, but there is no provision for not 
spending it.
    So, what I am suggesting is that money is in the pipeline 
and it may very well support more than three university 
centers.
    Dr. McQueary. If I may, it will support more than three 
universities. And in fact, what we have determined already, 
sir, is that we can create five universities when we reach the 
limit of the money that you have authorized us in fiscal year 
2004. But, when that is gone, we would be faced with having to 
cut back to the three.
    I have asked for a plan already as to how we would 
implement a total of five, recognizing that we could be faced 
with having to eliminate two of those at the end of their 3-
year period, which is what we're looking at right now.
    Senator Cochran. Thank you.

                      NOAA WARNING ADVISORY SYSTEM

    I am going to yield, again, for questions from Senator 
Stevens. And then we will go back to you, sir.
    Senator Stevens. If I may just ask one.
    I forgot to ask a question about the NOAA Weather Radio. We 
asked that the Department prepare a report by December 15, of 
last year, on the use of NOAA Weather Radio as a component of a 
national warning system measure to expand consumer access to 
the warning systems in efforts to inform and educate the public 
about national security.
    Currently we rely upon the radio for the old national 
warning system. We have tried to expand so that all forms of 
communication would receive the warning, particularly of a 
terrorist event. And all portions of the country could be 
alerted to that immediately. As I said, currently, that would 
only go out by radio, but it does not use NOAA Radio. NOAA 
Radio hooks into almost every radio station, television, and 
weather program that there is in the country. I particularly 
would favor some national legislation to mandate carrying such 
messages, or to include putting them into the internet 
directly. But, that hasn't been done yet.
    However, we did ask for the NOAA Weather Radio to be used 
as a component of the warning system. Who is working on that in 
your Department?
    Dr. McQueary. Sir, I don't know.
    General Libutti. Sir, we have the lead to look at that in 
terms of how it fits into our broad responsibilities, as I 
outlined in my presentation of information sharing and alert 
advisory systems. So we are indeed looking at that, and that is 
still a work in progress.
    Senator Stevens. Well respectfully, General, we asked in 
2002 for a report by December 15, 2003. When will we see your 
report?
    General Libutti. Sir, I will take that on board as an 
action and get back to you and your staff.
    [The information follows:]
                        NOAA Alert System Report
    The congressional report has been cleared by OMB and the 
Department. The report was approved for transmission to the Hill on May 
28, 2004, and delivered on June 1, 2004.

    Senator Stevens. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Byrd.
    General Libutti. If I may, sir, as a continuation, I will 
get back to you as soon as I can within the next couple of 
days. But a staff note to me reminds me that we were going to 
come to grips with your question very, very soon. And I will 
define what soon means when I respond to you.
    Senator Stevens. Thank you very much.
    General Libutti. Yes, sir.

                   CRITICAL INFRASTRUCTURE PROTECTION

    Senator Byrd. Thank you, Mr. Chairman.
    Last year, General Libutti, I asked Secretary Ridge about 
the role of the Federal Government in protecting chemical 
facilities from terrorist attack. He said that he believes 
chemical companies should be conducting their own assessments 
and paying for security improvements.
    At the Secretary's budget hearing last month, Senator 
Murray asked Secretary Ridge about port security funding. And 
the Secretary again held the view that port owners should be 
responsible for security investments.
    Now General Libutti, if you were the CEO of a chemical 
company, your highest priority would, probably be creating a 
quality product at a price that would create profits. If you 
were the director of a private port, your first priority would, 
in all likelihood, be that of maximizing the number of 
containers or passengers that would use the port.
    And so with all due respect, I have very little confidence 
that chemical company CEOs or port directors would have 
defending against a terrorist attack at the top of their list 
of things to spend money on. Yet, the Department clearly 
believes that, when it comes to protecting our critical 
infrastructure the private sector should bear the financial 
burden.
    Can you provide the subcommittee, today, with any 
benchmarks that you have established to show the private sector 
is making the necessary investments to secure our critical 
infrastructure and key assets?
    General Libutti. Sir, I appreciate the question because, 
like you, chemical site security for the Nation is a priority 
for IAIP and the Department. I would tell that I believe the 
right answer to how we move forward with our chemical site 
partners in the private sector, the Federal Government, and my 
Directorate is the key word partnership.
    I think the industry overall needs to belly-up to deal with 
improved security across their industry, especially in 
particularly high-threat areas. As a subset of that, I would 
emphasize the high-threat areas near large populated areas 
across the country.
    Over the last several months we have conducted site surveys 
where folks from my office have visited top priority target 
sets involving the chemical site areas. We have worked with 
them, and we have seen them demonstrate a great spirit of 
cooperation in dealing with assessing the risks of their 
facilities, and taking actions to improve the readiness of 
those facilities, in terms of both preventative and recovery 
activities.
    I cannot, sir, tell you the kind of money that they have, 
as an industry, put toward this effort. I will look into that 
and provide you our best estimate and judgments. But I cannot 
answer that question right now.
    I think what is important, I might add to share with you 
sir, is that during the visits we worked to improve readiness, 
we highlighted protective measures, standoff distances, buffer 
zones, cameras, and command and control systems, all which they 
took on in a very positive way.
    We have also sent out to all sites, not just the sites that 
we have visited, several different documents or what I would 
call aids in improving their readiness. We have sent out the 
following: characteristics and common vulnerabilities of 
chemical sites/facilities; potential indicators of terrorists 
attack activities for chemical facilities; and buffer zone 
protection planning templates for chemical facilities.
    We have really looked at this in the same way that you 
have. This is a critical priority because it is a critical 
target site for potential terrorist attacks.
    We have looked at the highest areas of concern because of 
the relative impact on the community, if indeed an event 
occurred. And we have a plan over the next year to look at an 
additional 360 sites or facilities across the country. I might 
also add that the focus is to look at this in a realistic way 
not in terms of eliminating all threats, but dealing with this 
based on what I call risk management across our country. That 
is to say that we have to establish priorities, and indeed, the 
Federal Government in concert with our friends in the community 
have to attack this thing on a single front.
    I didn't mean to be so long winded, but that captures my 
concerns and the actions we're taking.
    Senator Byrd. Well General, could you provide the 
subcommittee with any benchmarks that you have established to 
show that the private sector is indeed making the necessary 
investments to secure our critical infrastructure and key 
assets?
    In other words, Secretary Ridge says, it's up to the 
private sector. So have you established any benchmarks that 
show that the private sector is indeed making the necessary 
investments to secure this critical infrastructure and key 
asset?
    General Libutti. Sir, as I indicated earlier in my first 
statement of my presentation here, I don't have specifics 
relative to the financial investments. If my staff has those, 
I'll provide them as quickly as possible. If not, we will do 
the research to get that to you.
    I would say, just spinning off the Secretary's comment, and 
based on my experience, since I have been on board from late 
June or early July, I have seen not only a willingness and 
spirit of cooperation, but an understanding on the part of the 
chemical site industry and other industries, which we call key 
critical industries, a willingness to move out smartly, to do 
what needs to be done to protect their equities, to improve the 
security to their physical sites, etcetera, etcetera.
    So the attitude is there. We will continue to capitalize on 
that, and I will get you the information you have asked for, 
sir.
    [The information follows:]

           Securing Our Critical Infrastrucure and Key Assets

    As part of a wide effort to facilitate rather than mandate, DHS 
continues its effort to develop ``best practices'' for industry by 
working with the private sector and professional associations. DHS 
believes that the private sector, which controls over 85 percent of the 
nation's critical infrastructure and key assets (CI/KA), must be 
involved in setting national protection standards. By partnering with 
associations and groups, DHS plans to create realistic, proactive 
protection practices to bolster the physical hardening of the nation's 
CI/KA.
    One example of DHS working closely with industry is the ASME 
Guidance on Risk Analysis and Management for Critical Asset Protection. 
This important effort is intended to demonstrate that industry can not 
only provide DHS leadership with information, but can also help create 
industry-based guidance for risk analysis and risk management. This 
document will establish common terminology and a common basis for 
reporting the results of risk studies, helping the protection community 
and the private sector streamline and standardize risk analysis 
reporting. Such standardization provides government agencies and 
private industry a framework from which to collect, report, and respond 
to potential terrorist threats.
    The ASME effort highlights how DHS is working closely with the 
private sector to develop baseline best practices and protective 
measures. Our plan is for these guidelines to mature into sector-wide 
protection standards that will be adopted industry-wide. The initial 
phase of the ASME effort is to focus on Nuclear Power Plants, Spent 
Nuclear Facilities, Chemical Plants, Petroleum Refineries; LNG Storage 
Facilities, Subway Systems (including bridges and tunnels), Railroad 
Systems (including bridges and tunnels) and Highway Systems (including 
bridges and tunnels). Depending on the success of the initial effort, 
it may be expanded to encompass other infrastructure categories.
    Another important DHS initiative to assist private industry in the 
protection of their facilities is the preparation and distribution of 
analytic products such as Characteristics and Common Vulnerabilities 
and Potential Indicators of Terrorist Activities reports. These 
products identify those vulnerabilities and threat indicators that are 
sector-specific. Such information, when used by industry, allows 
intelligent investments to be made to eliminate or mitigate specific 
vulnerabilities. Furthermore, DHS is in the process of fielding a 
network of Protective Security Advisors and establishing regional 
offices that will assist State and local governments, as well as the 
private sector, in their protective planning efforts.

    Senator Byrd. Alright.
    As I said in my opening statement I will be asking the 
General Accounting Office to conduct an independent review of 
the private sector's role in securing our critical 
infrastructure.
    It will be essential in assessing the need for investments, 
for Federal investments, to secure our critical infrastructure. 
So, it will be essential for Congress to have measurable 
benchmarks of private sector investments in such 
infrastructure, such as investments in chemical facilities, 
port security, and cyber security.
    Do you agree that having this information would be useful 
to determine if the private sector is meeting its obligation to 
protect our critical infrastructure?
    General Libutti. I can't see how it wouldn't be supportive 
and an indicator of their commitment. But as I said earlier, 
this is a partnership in my opinion, sir. So the Federal 
Government needs to provide advice, and education, in concert 
with Dr. McQueary and his folks and other members of the inter-
agency, and share with them best practices, and cutting-edge 
technology. That's all part of this movement forward. So I 
don't see how that could hurt.
    I would be concerned if it became a weapon to be held up 
against them. Again, I think as we move forward we need to 
determine the right balance. But, I hear you loud and clear, 
and we will do our homework and get back to you, sir.

               TERRORIST THREAT INTEGRATION CENTER (TTIC)

    Senator Byrd. Alright, General.
    One of the most important issues affecting the public's 
assessment of the Department of Homeland Security performance 
involves its record of sharing Homeland Security threat 
information with other Federal agencies, as well as with State 
and local governments, the private sector and the public.
    The Gilmore Commission, in its December 15 report, noted 
that the Department of Homeland Security had ``little power and 
capability to do this.'' In fact, the Commission concluded that 
the Department of Homeland Security faces significant 
competition from other agencies in disseminating information to 
State and local authorities, the private sector and other 
areas.
    Part of the problem, the panel said, is that the CIA was 
granted control over the Terrorist Threat Information Center, 
or better known as TTIC, which opened in May as a central 
repository for information from the CIA, the Department of 
Defense, the FBI, the Department of Homeland Security, and 
other intelligence agencies.
    But Congress, in writing the Homeland Security Act, 
envisioned giving the Department of Homeland Security the role 
of collecting, analyzing and sharing intelligence information. 
Putting TTIC at the CIA, the Gilmore Commission said, has 
largely sidelined the Department of Homeland Security and left 
it with a paucity--that's a good word--and left it with a 
paucity of competent intelligence analysts.
    While intelligence professionals have been much more 
willing to go to the CIA, the Department of Justice, the 
Department of Defense, or the State Department, this seems to 
have caused confusion at all levels of government regarding the 
respective roles of the TTIC and the Department of Homeland 
Security.

      CONCERN REGARDING TTIC BEING UNDER THE LEADERSHIP OF THE CIA

    Could you explain please, how it came about that the CIA 
was given the leadership of this intelligence function. And 
second, how it is that our homeland is made more secure by 
having such a confusing hierarchy of intelligence sharing 
agencies?
    General Libutti. Sir, as always, you ask the toughest 
questions and the ones that strike at the heart of what we're 
all about. And what we're all about, as I said earlier, is 
information sharing and infrastructure protection.
    The instrumental organization within IAIP that is charged 
with the backbone, the nerve center, the communications channel 
for sharing information, is the Operations Center. And then in 
support of that separate calls, conferences, and meetings 
attended by General Hughes who runs the IA side, and Bob 
Liscouski who runs the IP side.
    So, let me first say to you, we are very clear on what our 
mission is. I am very clear what my customer base is, it's the 
private sector, it's State and local authorities, extending 
beyond that, but not involved in, the police work. That's the 
FBI, and the people at the Department of Justice.
    But having said that, let me now turn to TTIC, IAIP and 
what you elude to as being a challenging approach towards 
dealing with intelligence.
    TTIC was established by the Administration and indeed by 
the President. It was done to integrate intelligence from 
overseas and foreign sources. It was done to incorporate 
intelligence and information that is provided by those who 
focus on intelligence/law enforcement within the domestic 
scene.
    Now, what I am saying to you, or mentioning to you, 
involves the CIA, the FBI, and by extension the local police 
forces across the country that have tens of thousands of great 
cops, who do great things for their community and country 
everyday.
    Now, I am going to try to draw a wiring diagram here, and 
if I miss the mark, I know that you won't hesitate to pull me 
back and let me talk in straight and plain English.
    You have TTIC here, which is not controlled by CIA, but by 
the DCI. Now we don't need to, if I may sir, get into an 
argument about the differences between George Tenet's two hats, 
but he does indeed wear two hats. And the responsibility that 
the DCI has is to provide supervisory overview responsibility 
for TTIC. And indeed, the director at TTIC is a gentleman, who 
was, or is, in the CIA.
    But TTIC is an organization to integrate, fuse, analyze and 
share domestic and overseas or foreign intelligence. IAIP is 
both a customer and contributor at TTIC. So is the FBI. So if 
you say to me, what about this TTIC group, I would say I am 
part of TTIC and it is sort of like in a religious setting when 
you talk about the body of Christ and the Catholic Church, that 
means every Catholic across the face of the globe. We are part 
of TTIC.
    And indeed, on occasion, we challenge and task TTIC who 
then goes out to its customer base to look at requirements and 
collection efforts. I'll take a breath and try to move forward, 
and try to be as organized in my expression as possible.
    So TTIC is here. Members of the Department of Homeland 
Security are part of TTIC. And by extension, that information 
in a very simplistic diagram, is passed to IAIP. It goes to 
General Pat Hughes, in the main, and to other members that are 
part of TTIC. For example, in Customs and Border Patrol, or 
whatever, it is shared with their parent unit as well. And that 
is all part of what we're trying to do. There should be an 
effort to take walls down and not put walls up.
    Information comes from TTIC to IA, and IA shares it with 
IP, because IP can't do the threat assessment risk analysis 
piece looking at critical infrastructure unless they know what 
that intelligence picture indicates. IA in the Department of 
Homeland Security, my operational directorate, looks at sharing 
information with other members of the customer base; private 
sector leadership, and State and local authorities.

         ORGANIZATION AND STANDUP OF THE TTIC AND ITS FUNCTION

    I'm talking there about advisors to the Governors, the 
homeland security advisors to the Governors. They get that 
information as well as local authorities. What that means is 
mayors and their leadership in the intelligence/counter 
terrorist operations. In most cities across the country, those 
are the senior police chiefs.
    I don't see, Senator Byrd, a conflict in the organization 
and standup of TTIC and its function. It's function is to 
integrate. My function and focus is on passing information to 
my customer base.
    I support the FBI who is a partner in this national effort. 
And they're in the law enforcement business. Fueled by and 
supported by the same intelligence that's coming out of TTIC. I 
don't see a conflict. We're improving the way we communicate 
everyday, we're sharing databases everyday, at a very highly 
classified level. And we're working more in concert with one 
another than we ever have.
    Leadership in the FBI, the CIA, and the leadership of my 
organization get it. They understand there needs to be a 
cultural metamorphosis in terms of information sharing. And 
we're going to keep working on that so young people in these 
organizations understand it is one team, one fight, as the Army 
says. And we need to understand that in terms of information 
sharing.
    I don't see a problem with the current intelligence 
organization. As always, I work everyday to improve it.
    Senator Byrd. Well, General, I understand plain English. 
But I am not sure that I understand everything that you have 
said here today. And I am not embarrassed to confess it.
    Let me ask a simple question.
    General Libutti. Sir.

                        SECURITY OF THE HOMELAND

    Senator Byrd. How is it that our homeland is made more 
secure by having such a confusing hierarchy of intelligence 
sharing agencies?
    General Libutti. I think that the homeland is much more 
secure. And I will talk only from my perspective in IAIP, 
Senator.
    We have shared over 70 advisories and alert bulletins in 
concert with other members of the Homeland Security team. We 
get threat information from the agency, our friends in the FBI, 
and, out of TTIC. Then, we look at that, conduct competitive 
and comparative analysis.
    Again, our focus is on our customer base, which includes 
other members of the Federal Government. So, we take that 
information, and we pass it on a secure backbone to customers 
that have clearances. For those who don't have clearances, we 
take the information that's classified, clean it up, and create 
what is called the tear line. Then, we coordinate the bulletin 
or advisory with our friends in the other intelligence 
agencies, and we send it out through our Homeland Security 
Operations Center.
    We have sent out many of those advisories. We normally 
follow up with phone calls to appropriate customers. We call 
industry leadership to amplify an important point. We send 
executive teams to places like New York, LA, and Las Vegas, as 
we did during the holiday period, to share with leadership what 
we know, and make recommendations on corrective action.
    I think, again, as you know, sir, I am sure your staff has 
briefed you, after 30 years in the Marine Corps and a couple of 
months at the Department of Defense, I spent a year and a half, 
as the Commissioner for counter-terrorism in the NYPD. When I 
finished that job, I came down and was proud to take this job.
    If it doesn't work on the streets of our great cities and 
small towns, it doesn't work for America. And I'm telling you 
now, sir, we have made a difference.
    Senator Byrd. Alright, let us suspend while the reporter 
changes his tape.
    May I ask him another question, Mr. Chairman?
    Senator Cochran. Yes, sir.

       VULNERABILITY ASSESSMENTS AND SECURITY: CHEMICAL INDUSTRY

    Senator Byrd. The Department of Homeland Security continues 
to take a hands-off approach with regard to chemical security 
by relying on the chemical plant industries. So here we go 
again, to assess vulnerabilities and take protective actions. 
We know that the EPA has estimated that if attacked, over 100 
plants located all over the country could affect over one 
million people each.
    We know that the Department of Justice released a study in 
April of 2000, concluding that the risk of terrorists 
attempting in the foreseeable future to cause an industrial 
chemical release is both real and credible.
    We know that in February 2003, the National Infrastructure 
Protection Center, which is now a part of the Department of 
Homeland Security, issued a threat warning that Al-Qaeda 
operatives also may attempt to launch conventional attacks 
against the U.S. nuclear, chemical, and industrial 
infrastructure to cause contamination, disruption, and terror.
    When Secretary Ridge testified last year he said that the 
chemical industry was better suited to assess vulnerabilities 
and take appropriate security measures than the Federal 
Government.
    Just last week, the General Accounting Office sounded 
another siren in testimony saying that, in spite of the 
industry's efforts, the extent of security preparedness at U.S. 
chemical facilities is unknown.
    Do you maintain the position that the chemical industry is 
better suited than the Federal Government to assess 
vulnerabilities and take protective actions to secure chemical 
plants?
    General Libutti. It can't be done alone or independently, 
sir. It is back to the point that I made earlier, it has to be 
done in partnership. And I think the Federal Government, being 
gentlemanly in their approach, from time to time, needs to be 
also muscular. We need to demand standards and guidelines to be 
adhered to. We need to be there, prepared to support them in 
developing their security programs that reinforce their safety 
programs.
    I'm with you 100 percent, sir. I can only tell you that 
it's a combined effort and everybody needs to pull his or her 
own weight.
    Senator Byrd. Does your budget request address this issue 
in any way?
    General Libutti. Yes, sir, it does.
    Senator Byrd. It is so? You said it does. How much is in 
the budget for this?
    General Libutti. In terms of chemical sites security we're 
talking about $35 million.
    Senator Byrd. And now you're talking about hardening 
security at chemical plants?
    General Libutti. Sir, I'm talking about visits, 
interaction, working to develop guidelines and the way ahead. 
We're talking about recommendations for how they can harden 
their target as we say in the military; standoff distances, 
excuse me, buffer zones, security plans. We're there to advise, 
educate, and help them develop their plants. As you know there 
are tens of thousands of these plants, large and small across 
the country. And as I said earlier, we looked at and visited 
over the last few months many of the facilities that we thought 
were key critical, meaning, if they were hit as centers of 
gravity, they would cause potentially the greatest impact in 
the surrounding area.
    I am very comfortable that we're taking the right approach 
on this. And we're going to look at several hundred additional 
sites or facilities over the next year.
    Senator Byrd. What more can you do to make sure that the 
chemical industry responds with a robust program to secure 
their plants?
    General Libutti. We need to demand excellence across the 
board. We need to be both their advocate and their coach 
relative to ensuring that they adhere to standards and best 
practices. We need to demand excellence in terms of security 
and should not let them off the hook.
    Senator Byrd. You bet. We have lots of work to do in this 
area.
    General Libutti. Yes, sir, we do.

           RESEARCH AND TECHNOLOGY INFORMATION DISSEMINATION

    Senator Byrd. Now, Mr. Chairman, I shall have further 
questions perhaps.
    Senator Inouye, who could not attend today's hearing, 
requested that the attached question be asked on his behalf. I 
ask that it be inserted in the record.
    He is concerned that the Department of Homeland Security is 
charging outside groups that wish to attend a March 8, 2-day 
forum, that will provide industry with information about 
homeland security research and technology requirements.
    For example, small businesses would be charged $525, and 
universities would be charged $425. Senator Inouye believes 
this information should be provided free of charge. I ask that 
his question be made part of the record.
    Senator Cochran. That objective is so ordered.
    Senator Byrd. And I thank both Dr. McQueary and General 
Libutti.
    Dr. McQueary. Thank you, Senator.
    General Libutti. Thank you, Senator.

     NATIONAL INFRASTRUCTURE SIMULATION AND ANALYSIS CENTER (NISAC)

    Senator Cochran. Senator Domenici is attending another 
meeting of his committee, the Energy Committee which he chairs, 
this morning. And he asked me to propound a question on his 
behalf. And it is this:
    The fiscal year 2004 Homeland Security Appropriations Act 
had approximately $23 million for NISAC. That's the National 
Infrastructure Simulation and Analysis Center. Would you please 
give the subcommittee the status of the allocation of the 
fiscal year 2004 funding? I think that's to General Libutti.
    General Libutti. Yes, sir, it is.
    I'll try to cut to the chase and cover the key points, sir. 
As you know this responsibility transferred the Department of 
Homeland Security from the Department of Energy in March 2003. 
Primary contractors are the Sandia and Los Alamos labs in New 
Mexico.
    The Senate Appropriations Committee provided approximately 
$30 million in 2003, and the House provided $20 million. Extra 
dollars from the Senate were dedicated for NISAC building at 
Kirkland Air Force Base in New Mexico. The joint conference 
provided $27.5 million; but there was no specific language for 
building. But with respect to what the Senator and your 
colleague had asked for, what we have done most recently, is 
that we retained sufficient funds to complete the survey and 
selection process. The date of ground breaking will be 
dependent upon site surveys and identification of a suitable 
site for the NISAC.
    So we're very attuned to the issue and concern of Senator 
Inouye. I am happy to provide additional details or perhaps 
visit with him to provide amplifying information.
    Senator Cochran. We will submit questions in addition for 
the record, and if you could respond to those.
    General Libutti. I would be happy to, sir.
    Senator Cochran. For the record, we would appreciate 
additional detail regarding the fiscal year 2005 budget request 
for NISAC and activities envisioned in the budget for that 
Center.
    General Libutti. I would add, sir, that our department is 
preparing a letter to the Department of Defense regarding 
building of a facility on the Department of Defense property, 
et cetera, et cetera. So, we'll be happy to provide response 
and detail.
    Senator Cochran. Thank you.

                  MANPADS/AIR MISSILE COUNTERMEASURES

    Following up on another issue that was raised by Senator 
Byrd. Is it feasible to accelerate the shoulder-fired missile 
defense program to make the technology available at an earlier 
date? Or, is the time line you have considered the most cost 
effective, or reasonable in terms of the needs for a cost 
efficient method of protecting commercial aviation?
    Dr. McQueary. We believe that the time line is a very 
aggressive time line, and in fact, we're certainly aware that 
there is great interest in the country about the very issue 
that you raised. When we met with each of the three contract 
winners, posed to them the following question: Would you like 
to come in and recommend a shorter schedule. None of the three 
agreed that they would be willing to take on, or would want to 
take on, a schedule that was shorter than the one that we had 
originally proposed.
    So, I think it is an aggressive schedule, and I think a 
careful examination of what we have to do in the alloted time 
period would conclude that is the case.
    Senator Cochran. Has there been any decision made or 
discussion of who's actually going to pay the costs of 
procuring and outfitting the airliners with this defense 
system? I understand that they estimated costs could be up to 
$10 billion.
    Dr. McQueary. There are a number of factors that go into 
that. We have not attempted to address, however, who would pay 
for it. We have attempted to address how much it would cost, 
though. So those decisions can be made. As I indicated earlier 
in the testimony, we view our responsibility as providing the 
scientific basis on which the Administration and the Congress 
can decide the approach the country will take in implementing 
such systems, if that is what we should do.
    We put target costs in of about $1 million each, but that's 
up front hardware costs. And anytime you field large systems, 
operation and maintenance typically dominates the overall long 
term costs of such systems. And I would expect that is the case 
on this one.

                             CYBER SECURITY

    Senator Cochran. We know that you have recently developed a 
national cyber alert system to acquaint home computer users, 
and business and government agencies, with ways to better 
secure their computer systems from viruses. How would you rate 
the performance of the new national cyber alert system's 
response to the most recent computer virus outbreaks?
    Dr. McQueary. That was done by General Libutti's 
organization. I'll defer to him if I may.
    Senator Cochran. Sure.
    General Libutti. Sir, I would give you an estimate on a 
scale of 1 to 10, at 8.5 or 9. And that's a relative 
evaluation. Let me give you some additional information that 
perhaps would help understand where we are. This roll out of 
the alert system has just been done very recently.
    We have over 250,000 subscribers. Those who have subscribed 
to that system, are working that system across industry, home 
users and government. We think, I believe, it is the first 
great move to educate, inform and make people aware in a pro-
active way, of viruses that may be coming our way.
    So I give it a pretty high grade, and we will continue to 
monitor that as time goes by, and improve on how we communicate 
with our customer base.
    Senator Cochran. What's the relationship between the cyber 
security division and TTIC; if any? Is there any collaboration?
    General Libutti. I mean in terms of a wiring diagram, if I 
may, there is no direct linkage. There is always within the 
Federal Government, particularly the inter-agency, there's 
linkages and pathways that permit people who work in the cyber 
business to communicate with people who have that interest, or 
that particular functional area of responsibility within TTIC.
    That is, there are people in TTIC who not only look at 
infrastructure protection from a threat perspective, but also 
can consider cyber concerns. The key point that I leave with 
you is, that the lead in terms of cyber security is within IAIP 
at the Department of Homeland Security.
    If we have issues that present themselves, then we will 
orchestrate appropriate meetings. There was an initiative taken 
by some of my folks in the cyber world to take a hard look at 
what I call a lower level inter-agency grouping between the 
communication folks, the national communication security guys, 
or guys in cyber security, and the Department of Defense. They 
met on a regular basis to review potential threats, and to look 
globally at the kind of activity that needs, to in my words, 
give us a warning and indicator that we need to do something.
    So we're trying to be as pro-active as possible, and we're 
trying to educate and make people aware of the threat to the 
cyberspace area.

                             CYBER SECURITY

    Senator Cochran. How is the national cyber security 
division working with the private sector companies, such as 
Symantec, McAfee, and Norton, that specialize in anti-virus 
software and internet security.
    General Libutti. I think it's safe to say they're working 
very well with them. Briefings I have received have indicated 
no serious problems in terms of our linkage and cooperation 
with the business community overall.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. What law enforcement agency has primary 
jurisdiction in enforcing cyber crimes?
    General Libutti. I suspect again across law enforcement, 
and that's not my area of expertise, that it is both Secret 
Service and FBI.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

     Questions Submitted to the Science and Technology Directorate

              Questions Submitted by Senator Thad Cochran

                         BIOSURVEILLANCE SYSTEM

    Question. Science and Technology's role in the Biosurveillance 
Initiative includes an increase of $65 million to expand environmental 
monitoring activities in cities determined to be at the highest risk of 
a terrorist attack.
    Can you give further details about the chemical and biological 
warning activities currently in place in these cities?
    Answer. The U.S. Department of Homeland Security's (DHS) BioWatch 
initiative has been successfully operating in approximately 30 of the 
Nation's urban centers since early 2003. BioWatch is an early warning 
system that can rapidly detect trace amounts of biological materials in 
the air whether they are due to intentional release or due to minute 
quantities that may occur naturally in the environment. Routine air 
samples are collected on a daily basis and more frequently if 
necessary. To date, BioWatch has analyzed well over half a million 
samples. Several hundred specialized air sampling devices, developed by 
the Department, have been placed at key locations nationwide. The air 
samplers are supported by the infrastructure set up by the 
Environmental Protection Agency's (EPA's) Air Quality Monitoring 
Network sites in partnership with State, local and tribal environmental 
agencies. Additional partners in the program include the Centers for 
Disease Control and Prevention (CDC) and the Department of Energy (DOE) 
National Laboratories. The CDC provides technical expertise through its 
Laboratory Response Network on the laboratory analysis methods and 
serves as the liaison for laboratory analyses with State health 
departments. The DOE National Laboratories, specifically Los Alamos and 
Lawrence Livermore National Laboratories, provide technical expertise 
in biological sampling systems, laboratory analysis, and training 
assistance to State and local agencies.
    Question. If the requested increase in funding is provided, will 
the monitoring be expanded to other cities that are currently being 
monitored or just in these high-threat areas? What about other high-
threat areas designated under the Office for Domestic Preparedness 
grant programs?
    Answer. The current planning calls for significantly increasing the 
number of air samplers in the top ten high-threat BioWatch cities only. 
Given availability of funds some modest addition of other cities may be 
possible in the future.
    The Science and Technology (S&T) Directorate coordinates with the 
Office for Domestic Preparedness (ODP) to insure integration of 
BioWatch capability with cities listed on the Urban Area Security 
Initiative (UASI). The DHS S&T BioWatch Program fully funds the 
installation, operation, and sustainment of the BioWatch system in each 
city. The ODP grants program is complimentary to BioWatch and funds 
first responder initiatives and other local high priority requirements.
    Question. What promising new advances do you anticipate with the 
requested increase in funding for the acceleration of research and 
development on next generation environmental monitoring systems?
    Answer. Accelerated research and development on next generation 
detection systems fall into two categories: (1) outdoor wide area 
environmental monitoring (i.e., BioWatch replacement) and (2) indoor 
facility protection. Research and Development (R&D) programs for the 
wide area environmental monitoring focus on autonomous networked 
detectors. This is a self-contained on-site collection and analysis 
system. To address indoor facility protection the R&D plan calls for 
research to develop Rapid Identifiers--portable highly sensitive 
bioagent detectors with very low false alarm rates.

           COUNTER MAN PORTABLE AIR DEFENSE SYSTEMS (MANPADS)

    Question. The Science and Technology Directorate is currently in 
the early stages of a 2-year, $120 million program to develop 
countermeasures to protect against the threat of shoulder-fired 
missiles on civilian commercial aviation.
    What progress is being made by the three teams selected for the 
Counter-MANPAD Program, and is the first phase on schedule to be 
completed this summer?
    Answer. In early October, 2003, the Department of Homeland 
Security's Science and Technology Directorate released a solicitation 
announcing a ``call for proposals'' to address this potential threat. 
The solicitation is the first step in the Department's two-phase 
systems development and demonstration program for anti-missile devices 
for commercial aircraft.
    Phase I began in January, 2004, with the selection of three 
contractors--BAE Systems, Northrop Grumman, and United Airlines. Phase 
I of the program will provide a detailed design and an analysis of the 
economic, manufacturing, operational, and maintenance issues needed to 
support a system that will be effective in the commercial aviation 
environment. This phase will last approximately 6 months and will end 
in the selection of one or two contractors moving on to the next phase.
    The Counter-MANPADS program is on track. The DHS Special Project 
Office (SPO) conducted meetings with all three contractors in late 
January, 2004, and early February, 2004, to establish firm direction 
and expectations. The SPO completed System Requirements Reviews with 
all three contractors by March 18, 2004. An Interim Design Review will 
be conducted in early May, 2004. These reviews establish a firm 
baseline of requirements against which the contractors can apply their 
designs.
    Phase I will conclude with a Preliminary Design Review in July, 
2004, at which time the DHS will select one or two of the initial three 
contractors to proceed into Phase II.
    Phase II will include development of prototypes, integration onto 
commercial aircraft, and demonstrations of system operation and 
performance. These prototypes will also be subjected to a rigorous test 
and evaluation process. Phase II will last approximately 12-18 months 
followed by a recommendation to the Administration and Congress.
    Question. What obstacles do you face in safely applying 
technologies developed for and currently in use on military aircraft 
and adapting a countermeasure system to operate in the environments of 
civilian aircraft?
    Answer. Technologies developed for military or other specialized 
purposes are currently incompatible with commercial air fleet 
operations. Although underlying military technologies will be 
leveraged, the systems must be adapted to meet commercial operational 
conditions and environments.
    Military missile countermeasures exist in various stages of 
development and initial fielding. However, these technologies are 
generally utilized by military and Heads-of-State aircraft that have 
the operations and maintenance infrastructure to support such systems.
    While it is conceivable that existing military countermeasures 
units could be re-engineered for civilian aircraft use, many technical 
and operational tradeoffs have not been previously performed to address 
risks of such approach. For example, there is an established military 
logistics infrastructure that serves airborne countermeasure equipment, 
spanning functions from pilot training and routine maintenance to spare 
parts and depot repair. A similar infrastructure would be costly and 
time-consuming to replicate in the commercial airline industry.
    It would be premature to integrate currently available military 
countermeasures equipment aboard civilian aircraft due to numerous 
issues concerning aircraft modification and certification, maintenance 
and supportability, and operational employment. The current Counter-
MANPADS Program aims to resolve such issues and to provide alternatives 
to the Administration for a decision on equipping commercial aircraft 
with Counter-MANPADS capabilities.
    Additional details can be provided if desired in accordance with 
the appropriate security for the information.
    Question. Is it feasible to accelerate the Counter-MANPAD Program 
in order to make the technology available at an earlier date, or is the 
timeline proposed the safest and most cost-efficient method?
    Answer. Given the challenges of migrating Department of Defense 
(DOD) technology into the commercial aviation environment, the DHS 
program is the most cost-efficient approach to implementing an 
affordable system. The program is an aggressive 24-month analysis, 
prototype demonstration and testing program. At the conclusion, the 
Department of Homeland Security will provide the Administration and 
Congress with a recommendation for the most viable solution to 
integrate Counter-MANPADS technology into commercial air fleet 
operations.

                             CYBER SECURITY

    Question. The Science and Technology Directorate serves a role in 
the Nation's cyber security efforts by addressing cyber threat 
characterization, cyber threat detection, and cyber threat origination.
    With the large increase provided to the Science and Technology 
Directorate by Congress for cyber security research and development, 
what advances can we expect during this fiscal year?
    Answer. The funding increase provided by Congress is enabling the 
Science and Technology (S&T) Directorate to undertake cyber security 
programs that would not have been possible otherwise. As fiscal year 
2004 is the first complete fiscal year of the Department of Homeland 
Security's existence, funding investments this fiscal year emphasize 
infrastructure and foundational needs associated with cyber security. 
Because such needs are generally not associated with short-term 
problems, most of these investments will not result in deployable 
advances in the same year in which efforts are undertaken. However, 
several key areas are being addressed and are briefly described in the 
following text.
    In order to address infrastructure needs identified in the National 
Strategy to Secure Cyberspace, the Cyber Security R&D Portfolio in the 
S&T Directorate has initiated activities aimed at securing some of the 
key basic communication protocols on which the Internet relies, but 
which are presently vulnerable to cyber attacks. A program focused on 
the domain name infrastructure is working to advance the diffusion and 
use of the Secure Domain Name System (DNSSEC) protocol as a replacement 
for the traditional domain name infrastructure. A second program aimed 
at secure routing infrastructure is working to address vulnerabilities 
in Border Gateway Protocol (BGP), the protocol associated with the 
Internet's underlying routing infrastructure.
    A second infrastructure need identified in the National Strategy to 
Secure Cyberspace involves the need for improving the security of 
process control systems, such as supervisory control and data 
acquisition (SCADA) systems and digital control systems (DCS). The 
Cyber Security Portfolio is coordinating planning for these areas with 
the Critical Infrastructure Protection Portfolio. These portfolios 
expect to initiate joint activities in this area later this fiscal 
year.
    The S&T Directorate is also working to provide foundations for 
enhancing the capability of a variety of cyber security research 
communities. The Cyber Security R&D Portfolio is co-funding two multi-
university test bed projects with the National Science Foundation 
(NSF). The first is a test bed project focused on creating a large-
scale physical test bed network to support testing activities, and the 
second test bed project focused on developing a testing framework and 
conducting experiments on the physical test bed. These activities will 
result in the ability to conduct attacks, develop an understanding of 
those attacks, and test existing and new technological cyber security 
concepts, all in a large-scale operational network environment that is 
kept isolated from the ``public'' Internet.
    A separate effort aimed at supporting cyber security research and 
development communities is a program that is working to develop large-
scale data sets for cyber security testing. This will address the need 
that researchers and operational users have for realistic data that can 
be used to test the capabilities of current and emerging cyber security 
technologies. Although the S&T Directorate does not expect to play a 
role in the area of testing, evaluating, or certifying commercial 
technologies, the general approach to constructing and making available 
data sets for testing have the potential for secondary benefits by 
catalyzing the emergence of commercial testing services provided by and 
for the private sector.
    Another area of emphasis is the area of economic assessment. This 
activity is focused on two important priorities. The first is 
developing a general model for assessing the economic impact of cyber 
events and attacks. We do not believe that widely touted figures (such 
as $38 billion for a single Internet worm attack) are realistic 
estimates of cost associated with those attacks. Unrealistic figures do 
the private sector a disservice because they do not allow people to 
make reasonable assessments of their security needs and associated 
investment requirements. The second area of interest is the development 
of tailored business cases aimed at different types of stakeholder 
communities. General awareness campaigns aimed at widespread 
improvements in cyber security have not been as successful as one would 
like. We believe that one of the reasons for this is that the rationale 
for supporting cyber security investments needs to be tailored to 
different types of stakeholder perspectives (large enterprises, 
critical infrastructure sector company, small businesses, home users, 
etc.). It is our hope that such tailored business cases will provide 
better rationale for technology investments both among today's 
commercial cyber security technologies, as well as those of the future.
    The activities described above fit into a coherent plan for long 
term cyber security needs. It is our hope that the test bed/testing 
framework projects and the program focused on large-scale data sets 
will provide insights to support the development of cyber security 
metrics, although additional work in this area is expected to emerge 
from NSF-funded basic research programs. In the long term, the general 
areas of cyber security metrics and economic assessment models will 
provide two key components in developing a foundation for cyber 
security risk assessment, and risk-based decision-making in this field.
    Although the emphasis of fiscal year 2004 activities is on 
infrastructure and foundational needs, this is not to the exclusion of 
other activities. We do have plans for a number of other focused 
activities, including conducting a pilot test of new-generation 
intrusion detection technology with participation from the banking and 
finance sector, and holding a workshop in the area of government needs 
for wireless security to gather input for future R&D activities. In 
fiscal year 2005, with the infrastructure and foundational programs 
already in motion, we expect to expand our activities aimed at more 
specific cyber security technology R&D needs.
    Question. How will the Science and Technology Directorate 
coordinate its activities with the Information Analysis and 
Infrastructure Protection Directorate?
    Answer. The Director of Cyber Security R&D in the S&T Directorate 
is working closely with counterparts in the Information Analysis and 
Infrastructure Protection (IAIP) Directorate to coordinate the 
Directorates' relevant activities in the important area of cyber 
security. The two components of IAIP that S&T has been working with are 
the National Cyber Security Division (working with the Director of the 
Division and other senior staff members) and the National 
Communications System (working with the Chief of the Technology and 
Programs Division and other senior staff members).
    Interactions between the two Directorates include an ongoing series 
of meetings between senior-level technical managers to provide a bi-
directional flow of information between the organizations as well as 
coordination of technical activities. These meetings are aimed at 
ensuring that DHS operational requirements feed into S&T programs, and 
to help identify paths for diffusion of technology back out to end 
users, as outcomes of these programs begin to emerge. On a more ad hoc 
basis, the S&T and IAIP Directorates exchange invitations to attend 
meetings or workshops when they involve areas of common interest.
    The IAIP Directorate has been developing a written document to 
identify its S&T requirements, and expects to provide this document to 
the S&T Directorate upon its finalization. In the longer term, a 
Science and Technology Requirements Council (SRC) is being established 
within DHS to provide a more formal avenue for IAIP and other DHS 
components to communicate requirements to the S&T Directorate across 
all of the technology portfolios.
    Question. Have other agencies within the Department of Homeland 
Security, such as the Secret Service, the Coast Guard, and the 
Transportation Security Administration, begun to outline their cyber 
security requirements?
    Answer. The Director of Cyber Security R&D has been informed of 
several information technology-related requirements related to the 
Secret Service's mission via IAIP and via the Secret Service Portfolio 
Manager in the S&T Directorate. While related to information 
technology, several of these requirements have been identified as 
having a law enforcement component being outside of the scope of cyber 
security.
    The S&T Directorate has not been approached by the Coast Guard or 
the Transportation Security Administration (TSA) regarding their cyber 
security requirements. We have had discussions with the Federal 
Aviation Administration regarding their cyber security R&D priorities, 
which are focused on securing the aviation infrastructure (e.g., air 
traffic control networks), in contrast to TSA's focus on passenger and 
cargo security.

                HOMELAND SECURITY CENTERS OF EXCELLENCE

    Question. The Nation's universities have begun to join the 
Department of Homeland Security to combat terrorism with the selection 
in December of the first Homeland Security Center of Excellence which 
will focus on the risk analysis related to the economic consequences of 
terrorist threats and events. The process of selecting the next two 
Homeland Security Centers of Excellence to focus on agro-terrorism is 
currently in progress.
    How many additional Homeland Security Centers of Excellence do you 
envision with the $69 million provided for fiscal year 2004 and with 
the $30 million requested in the President's budget to accompany the 
three mentioned?
    Answer. Fiscal year 2004 funding for University Programs will 
include approximately $10 million for the DHS Scholars and Fellows 
Program, with the balance dedicated to University-based Homeland 
Security (HS) Centers. In addition to the risk analysis and agro-
terrorism centers referenced in your question, we anticipate two more 
solicitations for University-based Homeland Security Centers this 
fiscal year.
    Question. How will the Science and Technology Directorate 
coordinate the Homeland Security Centers of Excellence research and 
findings among each participating university?
    Answer. Lead universities are required to develop a management plan 
that demonstrates that partners will be communicating and reporting 
results and findings on a regular basis. DHS requires regular written 
reports and assigns a program manager to each HS Center of Excellence. 
Additionally, lead universities are required to form Science Advisory 
Panels, to conduct progress meetings with their partners, and to 
participate in review meetings with DHS senior managers. As new HS 
Centers are added, DHS envisions a system of centers that it will 
coordinate. Findings from these centers will be coordinated and 
consolidated by DHS.

                       BIOLOGICAL COUNTERMEASURES

    Question. In addition to the national biosurveillance initiative 
proposed in the President's budget in the biological countermeasures 
portfolio, additional funding is requested for infrastructure 
improvements at the Plum Island Animal Disease Center.
    How is the Department of Homeland Security currently working with 
the United States Department of Agriculture to coordinate research 
being carried out in regard to biological diseases?
    What countermeasures are being prioritized for agro-bioterrorism?
    As this committee makes recommendations to fund infrastructure 
improvements at the Department's research facilities, what intentions 
do you see for the long-term use of Plum Island as part of Science and 
Technology's National BioDefense Analysis and Countermeasures Center?
    Answer. DHS is totally committed to enhancing the Nation's 
agricultural security by complementing the mission of United States 
Department of Agriculture (USDA) and Food and Drug Administration 
(FDA), and bringing a new sense for urgency and investments to enhance 
the Nation's capability to anticipate, prevent, detect, respond to, and 
recover from the intentional introduction of foreign animal disease, 
especially scenarios of high-consequence. As defined in Homeland 
Security Presidential Directive-7 (HSPD-7) and HSPD-9, the Secretary of 
Homeland Security is responsible for coordinating the overall national 
effort to enhance the protection of the critical infrastructure and key 
resources of the United States, including the defense of agriculture 
and food.
    Agriculture and food security are important priorities for DHS, as 
are its working relationships and interactions with key sector-specific 
agencies. DHS utilizes high-consequence reference scenarios for 
strategic planning for its programs and activities on biological and 
chemical countermeasures and these areas are most relevant to 
protecting the agriculture and food sectors. DHS works closely with the 
respective sector-specific agencies in planning and execution of its 
R&D programs for each scenario. Of seven scenarios currently under 
study, two of the four biological scenarios concern agriculture and 
food security: foreign animal disease (with an initial focus on foot-
and-mouth disease), and bulk food contamination. We will be working 
extensively with the USDA on response to those scenarios.
    A Joint DHS and USDA Working Group on Agricultural Biosecurity has 
developed a partnership and national strategy to provide the best 
possible protection against the intentional or accidental introduction 
of a foreign animal disease. The strategy builds on the strengths of 
each agency to develop comprehensive preparedness and response 
capabilities.
    USDA's Agricultural Research Service (ARS) has traditionally 
excelled in basic and fundamental science and early disease discovery 
research. USDA's Animal and Plant Health Inspection Service (APHIS) has 
provided diagnostic services for a wide range of foreign animal 
diseases. In the partnership strategy, USDA will continue its basic and 
early discovery work in the areas of foot-and-mouth disease and other 
high priority foreign and emerging diseases, diagnostic development, 
and maintenance of the vaccine bank.
    DHS's program at Plum Island Animal Disease Center will focus on 
strengthening the Nation's ability to predict and respond to the 
intentional introduction of a foreign animal disease into U.S. 
agriculture. DHS is focusing its efforts on:
  --Advanced development which evaluates the efficacy of vaccines and 
        therapeutics (antivirals) derived from ARS's discovery work and 
        moves them into readiness for application in the event of an 
        outbreak;
  --Agricultural agent bioforensic analysis capability to support 
        attribution, working in conjunction with APHIS's diagnostic 
        laboratory and law enforcement agencies;
  --Disease assessment capability to include risk, threat assessment, 
        and epidemiologic resources to augment knowledge about specific 
        strains of foreign animal diseases for use in decision making 
        and predictive disease modeling; and
  --Supporting the functions of the core scientific units such as 
        pathology, microscopy, sequencing, animal studies, strain 
        repositories, and bioinformatics.
    The combined programs of DHS and USDA at Plum Island Animal Disease 
Center will enhance the Nation's defense by building on the strengths 
of each agency to increase capacities for both research and diagnostic 
technology development.
    As part of DHS's extensive commitment to agricultural security, it 
is also establishing two University Homeland Security Centers in this 
area: one in foreign animal and zoonotic diseases and one in post-
harvest food security. These new HS Centers were awarded to Texas A&M 
University and the University of Minnesota respectively. Additionally, 
DHS is coordinating with USDA on a review team for high-consequence 
reference scenarios for strategic planning for DHS's programs and 
activities on biological and chemical countermeasures. DHS is also 
conducting end-to-end system studies to help define the requirements 
for detection and surveillance for agricultural outbreaks and for the 
protection of critical nodes of high consequence in the food production 
chain.

                DEPARTMENT-WIDE RESEARCH AND DEVELOPMENT

    Question. Currently, Science and Technology provides mission 
support for several agencies within the Department of Homeland Security 
to coordinate research and development throughout the Department to 
prevent redundancies and to provide overall management and oversight of 
ongoing research. The President's fiscal year 2005 budget proposes 
further consolidation of research and development within Science and 
Technology.
    How do you feel the consolidation of research and development of 
nearly all agencies in the Department of Homeland Security into Science 
and Technology will provide for better coordination of research and 
more efficient use of the funds provided?
    Answer. Consolidation of the research and development functions of 
the Department's components will significantly improve the Department's 
overall ability to meet its mission. With consolidation, we can ensure 
that operational end-user requirements and needs are being met by the 
best science and technology that can be brought to bear on the problem, 
whether that expertise comes from internal or external sources. We will 
enhance our ability to avoid duplication of effort in the R&D areas, 
and we fully expect to find synergies develop: what is created to meet 
the requirements of one component may be able to be fielded to support 
the needs--stated or not yet recognized--of another.
    Question. What examples can be given of different agencies 
benefiting from another agency's research that can be attributed to the 
centralization of these efforts?
    Answer. The Department's consolidation process has truly just 
begun. Our experience to date has been in supporting other components 
of DHS at the portfolio level. We have staff in the S&T Directorate who 
are liaisons with other DHS components; specifically the Border and 
Transportation Security Directorate, the United States Coast Guard, the 
Emergency Preparedness and Response Directorate, the United States 
Secret Service, and the Information Analysis and Infrastructure 
Protection Directorate. These liaisons bring forward the requirements 
from these other components, which allows us to factor their needs into 
the S&T Directorate's RDT&E planning and budgeting and they also serve 
as a communication link at the portfolio level.
    The consolidation of the Standards efforts earlier in DHS has 
already resulted in a more effective and efficient process to identify 
and implement standards relevant to the entire DHS mission. The results 
to date include:
  --Created initial standards guidelines, with formal standards nearing 
        completion, for radiation pagers, hand-held radiation dosimetry 
        instruments, radioisotope identifiers and radiation portal 
        monitors. These standards were developed under the auspices of 
        the American National Standards Institute's Accredited American 
        Standards Committee on Radiation Instrumentation.
  --Adopted its first set of standards regarding personal protective 
        equipment developed to protect first responders against 
        chemical, biological, radiological and nuclear incidents. These 
        standards, which will assist State and local procurement 
        officials and manufacturers, are intended to provide emergency 
        personnel with the best available protective gear. These 
        standards result from an ongoing collaboration with the Office 
        of Law Enforcement Standards at the National Institute of 
        Standards and Technology.
  --Published guidelines for interoperable communications gear. Common 
        grant guidance has been developed and incorporated in the 
        public safety wireless interoperability grant programs of both 
        the Department of Justice and the Department of Homeland 
        Security;
  --Launched the SAFETY Act process for evaluating anti-terrorism 
        technologies for potential liability limits.
    Question. How does the Transportation Security Administration's 
laboratory coordinate its efforts with Science and Technology, and, 
more specifically, the High Explosives Countermeasures portfolio, and 
do you anticipate the consolidation of the Transportation Security 
Administration's research and development into Science and Technology?
    Answer. For fiscal year 2004 the S&T Explosives Countermeasures 
Portfolio has initiated research, development, testing and evaluation 
(RDT&E) to counter the explosives threat to the general population and 
to critical infrastructure posed by suicide bombers and vehicle bombs, 
respectively. The Transportation Security Administration (TSA) is 
conducting RDT&E to counter the explosives threat to the transportation 
sector, including land and maritime transport as well as civil 
aviation. S&T and TSA keep each other aware of activities being 
performed; thus, redundancy is minimized. The activities are currently 
not coordinated, however, and priorities are set independently. 
Information exchange between the S&T Explosives Portfolio and the TSA 
laboratory is coordinated through the TSA office of the Chief 
Technology Office. Each group calls upon the expertise of the other 
when warranted, including participation in selected project reviews and 
advisory panels It is anticipated that the RDT&E activities currently 
conducted within TSA will be consolidated within Science and Technology 
commencing in fiscal year 2005 following administrative actions and 
agreements that are in progress. Program planning documents for the 
Explosives Countermeasures Portfolio reflect an integration of current 
S&T and TSA mission areas, priorities, and funding profiles.
    Question. How does Science and Technology prioritize research 
across all Departmental agencies?
    Answer. The Science and Technology Directorate prioritizes its 
research and development efforts based on the directives, 
recommendations and suggestions from many sources, including:
  --Homeland Security Act of 2002;
  --The fiscal year 2004 Congressional Appropriations for the 
        Department of Homeland Security;
  --President Bush's National Strategy for Homeland Security, the 
        National Strategy for the Physical Protection of Critical 
        Infrastructure and Key Assets, the National Strategy to Combat 
        Weapons of Mass Destruction, the National Strategy to Secure 
        Cyberspace, and the National Security Strategy;
  --President Bush's nine Homeland Security Presidential Directives;
  --Office of Management and Budget's 2003 Report on Combating 
        Terrorism;
  --Current threat assessments as understood by the Intelligence 
        Community;
  --Requirements identified by other Department components;
  --Expert understanding of enemy capabilities that exist today or that 
        can be expected to appear in the future; and
  --The report from the National Academy of Science on ``Making the 
        Nation Safer: The Role of Science and Technology in Countering 
        Terrorism,'' and the reports from the Gilmore, Bremer and Hart-
        Rudman Committees.
    Identifying and integrating the information contained in these 
sources has not been a small task, but the result, coupled with expert 
evaluation and judgment by our scientific staff, is the basis for 
determining the research and development needed to meet our mission 
requirements. As consolidation continues to occur, these same sources 
will be used to prioritize requirements and needs.
    We will continue to improve our ability to garner customer 
requirements through the newly-formed Science and Technology 
Requirements Council (SRC). The SRC will vet RDT&E requirements from 
the other components of the Department and has Assistant Secretary 
level representation from those components.

     INTERAGENCY COORDINATION OF HOMELAND SECURITY RESEARCH EFFORTS

    Question. What type of coordination is occurring with other 
Departments in their research and development efforts, and how do you 
plan to expand this coordination in the future?
    Answer. The Department of Homeland Security fully recognizes that 
many organizations contribute to the science and technology base needed 
to enhance the nation's capabilities to thwart terrorist acts and to 
fully support the conventional missions of the operational components 
of the Department. Congress recognized the importance of the research 
and development being conducted by numerous Federal departments and 
agencies, and in the Homeland Security Act of 2002, directed the Under 
Secretary of Science and Technology to coordinate the Federal 
Government's civilian efforts to identify and develop countermeasures 
to current and emerging threats.
    We take this responsibility very seriously.
    We have begun this coordination process by evaluating and producing 
a report on the research, development, testing, and evaluation work 
that was being conducted within the Department of Homeland Security but 
was not already under the direct cognizance of the Science and 
Technology Directorate. Where it is appropriate, the Science and 
Technology Directorate will absorb these R&D functions. In other cases, 
the Science and Technology Directorate will provide appropriate input, 
guidance, and oversight of these R&D programs.
    We are now working to identify gaps in homeland security programs 
across all relevant Federal Departments and agencies. We are 
participating in--and in some cases, leading--committees, 
subcommittees, and working groups of the National Science and 
Technology Council (NSTC). Through formal and informal conversations at 
NSTC meetings, gaps are being identified and are starting to be 
addressed.
    In addition, staff from the S&T Directorate are actively involved 
with the Counterproliferation Technology Coordinating Committee (CTCC). 
The CTCC's role is to look across the U.S. Government to identify 
counterproliferation activites, identify gaps and shortfalls, and make 
recommendations to address the shortfalls. Many of the technologies 
relevant to Counterprolifertion also are relevant to Homeland Security 
needs. The CTCC is co-chaired by the National Security Council, 
Homeland Security Council and Office of Science and Technology Policy.
    The Office of Management and Budget (OMB) gives us budgetary 
direction and develops a yearly report on Combating Terrorism. This 
document is one of the sources cited above as guidance for program 
prioritization. We have frequent interactions with OMB for guidance in 
budgeting in accordance with identified priorities.
    Question. The Office of Science and Technology Policy (OSTP) is one 
of our most important connections in the Administration. Our personnel 
meet with OSTP staff frequently on issues of interest to both groups. 
Most importantly, OSTP runs the National Science and Technology Council 
and its committees, subcommittees and working groups as mentioned 
above. These groups are instrumental in helping us achieve our goals of 
protecting the Nation and its infrastructure.
    The Homeland Security Council, (HSC) which was stood up in October 
2001, meets frequently to ensure coordination of all homeland security-
related activities among executive departments and agencies and promote 
the effective development and implementation of all homeland security 
policies.
    Has their been any thought given to creating a multi-agency 
initiative, or working group, perhaps under the auspices of the 
National Science and Technology Council (NSTC), to foster better 
coordination of Homeland Security Research efforts across government 
agencies (e.g. DOD, NIH, NSF, DOE, Transportation, EPA, USDA, Dept. of 
Justice, etc)?
    Answer. As discussed above, the Science and Technology Directorate 
is working with the NSTC and the CTCC to look across the entire Federal 
Government at homeland security-relevant science and technology.

                           RAPID PROTOTYPING

    Question. The Congress made $75 million available for fiscal year 
2004 for the rapid prototyping and deployment of near-term technologies 
for the end-user, whether it is a Customs agent or a first responder, 
to have the best technology and equipment available to combat 
terrorism.
    How do you propose to better streamline the process of working with 
industry to make technology available to the end-user in a more 
expeditious manner than currently available?
    Answer. The Science and Technology Directorate actively promotes a 
close relationship with industry to produce the new, improved 
technologies that emergency responders will purchase. Since March 1, 
2003, there have been four solicitations directly to industry in 63 
high tech areas related to protection, equipment, sensors, and other 
gear for emergency responders, agents, detection and tracking systems. 
Industry sent in more than 4,500 responses to these solicitations. Our 
partner, the interagency Technology Support Working Group (TSWG) is 
awarding $60 millions in contracts now in these areas. Our Office of 
Systems Engineering and Development (SED) is already at work with three 
industry teams on technology for commercial aircraft to counter 
shoulder-fired missiles. The Homeland Security Advanced Research 
Projects Agency (HSARPA) has been able to shorten the time required for 
a complete, multimillion dollar competitive solicitation to just 120 
days. HSARPA is also using ``industry-friendly'' Other Transactions for 
Research and Prototype contracting authority permitted by the 
authorizing legislation to speed award of contracts to companies that 
have not done business with the government before.
    Question. Of the industry response to the Department's request for 
proposals, what technologies have proved to be the most beneficial to 
homeland security?
    Answer. DHS S&T is in the earliest stages of research and 
development for almost all of these efforts and it would be premature 
to judge which of these technologies will be most beneficial.
    Question. What future technology solicitations do you anticipate to 
better serve the end-user in protecting the homeland?
    Answer. DHS S&T is actively pursuing additional technology 
solicitations in several areas relevant to protecting the homeland. 
Currently HSARPA has a solicitation entitled ``Detection Systems for 
Radiological and Nuclear Countermeasures'' which is now active and 
industry is responding. Eight other solicitations planned for this 
year:
  --Bioinformatics and Assay Development Program
  --Threat Vulnerability, Testing, and Assessment
  --Automated Scene Understanding
  --Advanced Container Security Device
  --Bomb Interdiction for Truck and Suicide Threats
  --Biological Warfare Architectures Study (Food & Agriculture)
  --Biological Warfare Decontamination
  --Low Vapor Pressure Chemical Detection System
    Question. Of the funds provided for and the flexibility given to 
Science and Technology for rapid prototyping, how much is provided for 
the Technology Clearinghouse, and how much is provided for the 
Technical Support Working Group?
    Answer. For fiscal year 2004, the Technology Clearing House will 
receive $10.5 million. For fiscal year 2004, DHS S&T provided $30.0 
million to the Technology Support Working Group (TSWG) for Rapid 
Prototyping projects.

                               STANDARDS

    Question. Congress transferred the development of standards from 
the Office for Domestic Preparedness (ODP) to Science and Technology 
and therefore expects all standards development in the Department to be 
centralized in the Science and Technology Directorate.
    How is Science and Technology coordinating with the National 
Institute of Standards and Technology (NIST) in developing standards 
Department-wide?
    Answer. The standards development work in ODP was managed by the 
NIST Office of Law Enforcement Standards (OLES). There has been a 
smooth transition of this program in fiscal year 2004 as NIST/OLES is 
still managing the program for the Science and Technology Directorate. 
The S&T Directorate is also working with NIST to coordinate development 
of additional standards in other areas, such as biometrics, cyber 
security and detection methods for weapons of mass destruction (WMD).
    Question. How are the State Homeland Security Advisors providing 
input for the end-users in developing standards?
    Answer. The DHS Office of State and Local will provide points of 
contact for specific standards development efforts. Also, the 
Conference of Radiation Control Program Directors (CRCPD) has been 
involved in user requirements for the first set of radiation detector 
standards.
    Question. Do you anticipate Science and Technology will publish a 
``Consumers Report'' on all technologies and equipment for Federal, 
State, and local users, such as the report that will be published for 
radiation and bioagent detection devices?
    Answer. It is our intention to publish user guides to available 
technologies in something like a ``Consumers Report'' format for 
critical equipment for emergency responders. These guides will address 
personal protective equipment as well as detectors for chemical, 
biological, radiological/nuclear and high explosive agents.

 THE WIRELESS PUBLIC SAFETY INTEROPERABILITY COMMUNICATIONS (SAFECOM) 
                                PROGRAM

    Question. The problem of communications interoperability for first 
responders, so important since September 11th, remains a difficult nut 
to crack. How much will be needed to fund the solution? When will 
technical standards be completed? What should the States and locals do? 
The Science and Technology Directorate plays a lead role for the 
Federal Government for finding the way through all of the technical 
questions. The Wireless Public Safety Interoperability Communications 
Program--known as SAFECOM--is in the Science and Technology 
Directorate. Yet, no funds are directly requested in the Science and 
Technology Directorate budget for this very important program. All of 
the funding comes either from other Federal agencies or from the 
Department-wide Technology appropriations within the Department of 
Homeland Security.
    Answer. There is no simple solution for communications 
interoperability. To ensure that our emergency responders' wireless 
communications are fully interoperable will require years of hard work 
on the part of the Federal Government as well as cooperation from State 
and local entities. The Wireless Public Safety Interoperability 
Communications Program, SAFECOM, is managed by the Department of 
Homeland Security's Science and Technology Directorate, allowing the 
program full access to the scientific expertise and resources needed to 
help our Nation achieve true public safety wireless communications 
interoperability.
    Current estimates of total funding required for complete 
interoperable wireless communications run into the billions of dollars 
when procurement grants are included in these estimates. Full wireless 
communications interoperability is currently estimated to be complete 
by 2023.
    Technical standards are critical to the development of 
interoperable systems. With input from the user community, portions of 
the Association of Public Safety Communications Officers (APCO) Project 
25's existing, but still incomplete, suite of standards have been 
developed. However, adoption has been slow, and standards completed to 
date address only part of the problem.
    SAFECOM will dedicate funding to the implementation of its 
standards plan, calling for a common set of standards, policies, and 
procedures to drive the migration of systems towards advanced, 
interoperable equipment and processes in the future. SAFECOM recognizes 
that the Nation cannot wait for a complete suite of standards. In the 
interim, local and State agencies must make investments that improve 
their communications and interoperability capabilities. To support the 
practitioner community in the short term, SAFECOM will begin a number 
of initiatives to better inform public safety agencies when upgrading 
or replacing current communications systems.
    Question. Should the funding for SAFECOM within the Department of 
Homeland Security be appropriated directly to the Science and 
Technology Directorate?
    Should funding be provided by Science and Technology for research 
being carried out for SAFECOM?
    Should the funding provided by other agencies be permanently 
transferred to the Department of Homeland Security?
    Answer. In an effort to coordinate the various Federal initiatives, 
SAFECOM was established by the Office of Management and Budget (OMB) 
and approved by the President's Management Council (PMC) as a high 
priority electronic government (E-Gov) initiative. As an e-Gov 
initiative, it is appropriate for funding to be provided by the 
partnering agencies that will benefit from the results of the 
initiative.
    Question. The progress being made on setting the technical 
standards for various communications technologies seems to be 
progressing very slowly. Project MESA which will govern broadband 
technology is in its infancy, and Project 25 governing Land Mobile 
Radios has yet to complete even half of the standards necessary. What 
more can be done to ensure the speedy completion of these projects by 
the private industry and public safety community stakeholders?
    Answer. At a strategic planning session in December 2003, public 
safety stakeholders from the local, State, and Federal levels convened 
to determine the most important next steps for the improvement of 
public safety communications and interoperability. These stakeholders 
felt that a process to promote standards is critical. To meet this 
demand, SAFECOM has developed a plan to accelerate the development of 
critical standards for public safety communications and 
interoperability, including the Project 25 suite of standards (P25). As 
mentioned above, SAFECOM will dedicate funding to the implementation of 
its standards plan, calling for a common set of standards, policies, 
and procedures to drive the migration of systems towards advanced, 
interoperable equipment and processes in the future. In addition, 
SAFECOM will fund the testing and evaluation of interim technologies 
that can assist public safety agencies in making existing legacy 
equipment interoperable with other neighboring systems.
                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

    Question. What types of research and development support will the 
Science and Technology Directorate provide to the Coast Guard for its 
non-homeland security missions?
    Answer. The Science and Technology Directorate and United States 
Coast Guard (USCG) are in the midst of preparing a formal agreement 
that will detail the coordination and funding mechanisms for USCG R&D 
capabilities. The foundation for that agreement will be the 
consolidation of funding requested in the fiscal year 2005 budget. For 
fiscal year 2005, the USCG R&D center facility, personnel and 
maintenance expenses will be funded through S&T in the amount of $13.5 
million. In addition, S&T and the USCG have agreed upon a base level of 
additional project funding in the amount of $5 million that will be 
specifically targeted toward non-security related projects including 
maritime science and research. This funding will be designed to support 
USCG mission-programs such as Marine Environmental Protection, Living 
Marine Resources, Search and Rescue, Aids to Navigation and Marine 
Safety. The specific projects in support of these mission-related 
programs will be prepared annually for S&T concurrence.
    In addition, the USCG will submit security-related research 
requests through S&T for coordination across all portfolios and DHS 
components. The Coast Guard has submitted a maritime security R&D 
portfolio detailing approximately $50 million in vital maritime 
security research initiatives. This portfolio has been validated by S&T 
portfolio managers and will be considered in the development of future 
spending priorities and commitments from S&T.
    Question. Will the Department of Homeland Security develop a 
Homeland Security Center dedicated to energy production security and 
pipeline infrastructure protection?
    Answer. The Department of Energy (DOE) is designated as the lead 
agency for security issues specific to the energy sector (except for 
commercial nuclear power plants, for which DHS and the Nuclear 
Regulatory Commission are designated as responsible lead agencies) in 
the National Strategy for Physical Protection of the Critical 
Infrastructure and Key Assets and in Homeland Security Presidential 
Directive-7 (HSPD-7).
    DHS has the lead for transportation systems security which includes 
pipelines. DHS has overall homeland security responsibility and 
recognizes that the energy sector is especially vital to the quality of 
life and the economy of this Nation. DHS is sponsoring Critical 
Infrastructure Protection research and development programs in the 
energy and pipeline security area with emphasis on Supervisory Control 
and Data Acquisition (SCADA) and electronic control systems. These 
efforts will increase this fiscal year. In addition, DHS asked the 
National Academy of Science to host a workshop to provide DHS with 
advice and guidance on future University-based Homeland Security R&D 
Centers. The results of that workshop did not place energy production 
security and pipeline security infrastructure in the top three areas 
recommended as additional areas for potential University-based Homeland 
Security Centers. This result certainly does not imply these 
infrastructures and their security is are not important, and, as stated 
previously, work is being done to address their security. In addition, 
the Information Analysis and Infrastructure Protection (IAIP) 
Directorate in DHS does work closely with DOE and with the Energy 
Sector owners and operators on operational security issues and the 
Border and Transportation Security (BTS) Directorate in DHS works with 
the Department of Transportation to ensure that the Nation's pipelines 
are safe and secure.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

                     SCIENCE AND TECHNOLOGY FUNDING

    Question. Secretary Ridge, the Department of Homeland Security has 
a significant research budget to develop new technologies to secure the 
United States against terrorist attacks. I know that the Department has 
made significant progress in setting up the mechanisms to allocate 
science and technology funding to industry, universities, and national 
laboratories. This is a vital mission of your Department.
    I understand that the Department is still in the process of 
allocating fiscal year 2003 science and technology funding. What is the 
current time line for completing this allocation of funding?
    Answer. The Science and Technology Directorate has ``execution 
plans'', that is identified scope of work, for all remaining fiscal 
year 2003 funds and fully expects to have all remaining funds allocated 
by the end of fiscal year 2004.
    Question. The Department is now engaged in the allocation of fiscal 
year 2004 science and technology funding. How do you plan to allocate 
fiscal year 2004 funding in a more timely manner?
    Answer. The Department of Homeland Security has existed now for 
just over a year. Like the rest of the Department, the Science and 
Technology Directorate has been working hard to develop effective and 
efficient procedures and policies, including those necessary for 
selection of performers of the work to be done and the subsequent 
contractual processes and allocation of funds. As these procedures get 
established, projects will be awarded and funded in a more timely 
manner. I am pleased to say that in the last 3 months, the Science and 
Technology Directorate has made significant progress in allocating its 
available funding into the hands of those researchers who are 
developing and transitioning the vital technologies and tools to make 
the Nation safer. Both the Under Secretary for Science and Technology 
and I will continue to monitor the status of project selection and 
funding, and expect to see continued progress.
    Question. I note that this year, the Department's budget submission 
is improved over last year as one would expect. Although there are 
security considerations, could you describe your plans to ensure 
transparency in the Department of Homeland Security budget? Both the 
Departments of Defense and Energy make their supporting budget 
documents public. Will you follow suit?
    Answer. The Science and Technology Directorate prepares its annual 
Congressional Justification in an open and unclassified manner and will 
continue to do so as long as programs do not move into the sensitive 
realm. In addition, the Science and Technology Directorate prepares its 
written testimony for the record for each of its budget-related 
hearings in an unclassified document. This written testimony contains 
the supporting documentation for its budget request and becomes 
publicly available.
    Question. One of the biggest challenges in the science and 
technology area has to be coordinating the allocation of funding 
between near-term and applied technology and basic, long-term R&D 
funding.
    What level of coordination is being provided by your office, Mr. 
Secretary, to ensure an appropriate split between near-term and long-
term R&D?
    Answer. I have delegated the responsibility for determining the 
appropriate split between near-term and long-term research and 
development to the Under Secretary for Science and Technology and he 
keeps me and others informed, although the final responsibility is 
mine. In the approximately 1 year that this Department has been in 
existence, the Science and Technology Directorate has focused its 
initial efforts on near-term development and deployment of technologies 
to improve our Nation's ability to detect and respond to potential 
terrorist acts. However, we recognize that a sustained effort to 
continually add to our knowledge base and our resource base is 
necessary for future developments. Thus, we have invested a portion of 
our resources, including our university programs, toward these 
objectives. The following table indicates the Science and Technology 
Directorate's expenditures in basic research, applied research, and 
development to date, excluding construction funding.

                               SCIENCE AND TECHNOLOGY DIRECTORATE R&D INVESTMENTS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
                           Fiscal year                              Fiscal year        2004            2005
                                                                   2003 (actual)    (estimated)     (proposed)
----------------------------------------------------------------------------------------------------------------
Basic...........................................................              47             117              80
Applied.........................................................              59              56             229
Developmental...................................................             398             608             643
                                                                 -----------------------------------------------
      Total.....................................................             504             781             952
                                                                 -----------------------------------------------
Percent basic...................................................             9.3            15.0             8.4
----------------------------------------------------------------------------------------------------------------

    Our initial expenditures in basic research are heavily weighted by 
our investments in university programs. These university programs will 
not only provide new information relevant to homeland security, but 
will also provide a workforce of people who are cognizant of the needs 
of homeland security, especially in areas of risk analysis, animal-
related agro-terrorism, bioforensics, cybersecurity, disaster modeling, 
and psychological and behavioral analysis. In addition, the Science and 
Technology Directorate is allocating a portion of its resources to 
high-risk, high-payoff technologies and expects to gradually increase 
its investments in long-term research and development to a level 
appropriate for its mission and the Department.
    Question. What do you envision as the role of the Department of 
Homeland Security in investments in future R&D to meet homeland 
security requirements?
    Answer. At the current time, the Science and Technology Directorate 
is working hard with available funds to fill critical gaps in our 
Nation's ability to prevent, protect against, respond to and recover 
from potential terrorist attacks; however, we are all well aware that 
it is only with a strong investment in long-term research that we can 
we feel confident we are maintaining a robust pipeline of homeland 
security technologies to keep us safe for the decades to come. 
Successful businesses reinvest 10-15 percent of their total budget in 
research and development; the Science and Technology Directorate will 
strive in future years to invest a similarly significant portion of its 
resources into long-term research.

                       INTERAGENCY COLLABORATION

    Question. Mr. Secretary, the Department of Homeland Security 
combines the programs and personnel for many Federal agencies. Creating 
a culture as one department is a real challenge, but there are 
capabilities throughout the Federal Government that can assist your 
Department in meeting homeland security threats.
    I would encourage the Department to develop strong positive 
relationships with other Federal departments and agencies where there 
is opportunity for collaboration and cooperation to make your job 
easier.
    Is it correct that your Department has worked with both the 
Department of Energy and the National Nuclear Security Agency (NNSA) as 
it develops its programs to meet homeland security threats?
    Answer. The Department of Homeland Security has worked very closely 
with the Department of Energy (DOE) and NNSA from the very early stages 
of the development of the Science and Technology (S&T) program. The DOE 
laboratories provided extensive technical expertise and advise 
regarding the S&T program development.
    Question. How would you characterize these interactions?
    Answer. The Department's interactions with DOE and NNSA have been 
very positive. The Department of Homeland Security's (DHS's) S&T staff 
has an open communication relationship with DOE senior managers as well 
as with the DOE field personnel. Since some of the S&T staff came from 
DOE, there are close ties and good relationships that facilitate 
developing the processes of how DOE and DHS work together. When issues 
arise, they are quickly elevated so that communication occurs between 
the appropriate parties in both Departments and a resolution achieved.
    Question. What potential do you see for future collaborations?
    Answer. The Department of Homeland Security fully expects to 
continue and enhance its collaborations with the DOE and NNSA, as well 
as other Federal agencies conducting work of relevance to homeland 
security. For example, the S&T Directorate is committed to utilizing 
the extensive capabilities of all DOE laboratories and to engage them 
in all aspects of our research, development, testing and evaluation 
(RDT&E) program. The Directorate's Office of Research and Development 
is developing an enduring RDT&E capability through stewardship of the 
homeland security complex. To meet the Federal stewardship goal, the 
DOE laboratories will play a significant role in assisting in the 
strategic planning of the threat-based programs such as radiological/
nuclear and biological countermeasures programs. The DOE laboratories 
also have significant existing capabilities and facilities for 
addressing terrorist threats, thus DHS will contribute support for some 
existing DOE facilities and reach-back into these unique capabilities. 
In addition, the DHS University Scholars and Fellows program is working 
with the DOE laboratories to place students with DOE mentors.
    Question. The science and technology directorate at the Department 
has had discussions with the DOE national laboratories in such areas as 
radiological and nuclear and bioterrorist threats. The labs have 
significant capabilities to assist the Department of Homeland Security. 
Do you envision these collaborations continuing? Are there any barriers 
to such activities? If so, can Congress assist in addressing these 
issues?
    Answer. The Department's Science and Technology Directorate will 
continue to utilize the DOE laboratories to address S&T requirements 
including key threat areas such as radiological, nuclear and biological 
countermeasures. Collaborations between DHS and DOE have been very 
successful to date, and the Science and Technology Directorate plans to 
continue these collaborations well into the future. There are currently 
no barriers to these collaborations. If circumstances change, the 
Department will bring this to the attention of Congress.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

    Question. Over the last couple of years, I have worked to provide 
funding to the Federal Air Marshals (FAMs) for an in-flight 
communications system. I believe that this system would provide the 
FAMs with the communications they need to safeguard our airlines and 
the millions of passengers who fly on them each year.
    I know that you are constantly going through reorganizations over 
at DHS and I have learned that the Office of Science and Technology may 
be proceeding to equip only those airlines that already have seatback 
phones with these communications for the FAMs.
    But it is my understanding that many airlines do not have seatback 
phones. How can we ask Americans to fly on these airlines if they don't 
have the same level of security that is being provided to others?
    Answer. Current Status. With reference to ``may be proceeding to 
equip only those airlines that already have seatback phones with these 
communications for the FAMS'', the Federal Air Marshal Service (FAMS) 
currently has access to the commercially available Verizon Airfone 
service, only when FAMs fly on aircraft with such a system installed. 
Recent statistics indicate that this system is installed on 
approximately 40 percent of the aircraft on which FAMs fly. This 
limited access includes voice only, via a tethered handset and does not 
provide for data, wireless, or pre-emption of service during an 
emergency situation. While the FAMS will conduct tests utilizing this 
technology, additional testing will be performed on other developing 
technologies with other service providers.
Phase I--Commercially Available Field Evaluation
    The Federal Air Marshal Service is on the verge of conducting a 
field evaluation, which will focus on foundational and component 
testing; as well as, evaluation of FAMS applications over a 
commercially available communication system.
    The foundational testing will seek to determine the most 
appropriate wireless communication protocol(s) for the FAMS to use for 
the Air-to-Ground Communication System (AGCS). This test will look at 
IR (infra-red), RFs (radio-frequencies), 802.11x, and Bluetooth 
technologies. The test will evaluate all of the technical and security 
aspects of the protocols, as well as aviation related aspects such as, 
compatibility with aircraft systems. General market trends and 
industry's development of wireless communications protocols will also 
be studied.
    The component testing will seek to evaluate the transmission and 
reception of voice and data across an existing commercially available 
communication system, and measure the ability of the system to handle 
the current FAMS applications--including the Surveillance Detection 
Report and other applications.
AGCS Strategic Planning
    Additionally, the FAMS has been working in concert with the 
Department of Homeland Security, Science and Technology, to rigorously 
identify the needs, scalability, and interoperability of the future 
AGCS. As a result of joint efforts of DHS S&T and the FAMS, an AGCS 
strategic plan is scheduled to be completed in September 2004.
AGCS Working Group
    At the request of Congress in HR 108-169, the FAMS is chairing an 
AGCS Working Group to develop a technical implementation plan, as well 
as, develop a business/government partnership for the implementation of 
this system.
    To date, the FAMS have hosted two working group meetings, which 
were attended by: National Aeronautics and Space Administration (NASA), 
Glenn Research Center; Federal Aviation Administration (FAA), NEXCOM 
(Next Generation Communications) and FAA GCNSS (Global Communication, 
Navigation, and Surveillance System); the JPDO (Joint Planning and 
Development Office); U.S. Special Operations Command; U.S. Northern 
Command/NORAD/CONR; United States Air Force; Department of Homeland 
Security; and others.
Milestones
    January 2003.--Air to Ground Charter signed by Adm. Loy, then TSA 
Administrator.
    Jan-Mar 2003.--FAMs participate in multiple air to ground 
demonstrations.
    September 2003.--FAMS managed services provider selected, work 
begun on air to ground field evaluation.
    November 2003.--Managed services provider issues RFP's for AGCS 
field evaluation.
    December 2003.--RFPs returned, scored--recommendations made.
    April 2004.--FAMS issues AGCS field evaluation final 
recommendation. DHS S&T begins working with FAMS on long-term strategic 
planning. NASA offers strategic alliance with FAMS.
    May-August 2004.--AGCS field evaluation conducted.
    July 2004.-- Aviation and communications industries invited to 
review draft AGCS strategic plan and participate in AGCS Working Group
    September 2004.--AGCS Strategic Plan briefed to Congress
    September 2004.--AGCS Strategic Plan completed.
Goals to be achieved
  --FAMS finalize contract modifications in order to move forward on 
        field-testing and evaluation.
  --Attain FAA approval for FAMS in-flight wireless communications 
        protocols.
  --Attain FCC approvals for same, focusing on aviation and broadband 
        technologies.
  --Attain Airlines approval and determine investment strategy for in 
        cabin-aviation communication (AGCS) system(s).
  --Complete FAMS AGCS strategic plan.
  --Agency review of field evaluation recommendations.
    Program Summary.--The FAMS is evaluating currently installed 
technology for immediate application and use by operational FAMS while 
continuing to pursue a long-term solution to FAMS AGCS needs, which may 
include developing technologies not associated with current in-flight 
communications. This long-term solution is encompassed by the AGCS 
Working Group, law enforcement and aviation communities and promotes 
confidence in our Nation's civil aviation system to detect, deter and 
defeat hostile acts targeting U.S. air carriers, airports, passengers, 
and crews.

                       SMALL BUSINESS CONTRACTING

    Question. As I said in my statement, Colorado is home to a number 
of small companies that have developed cutting edge technologies to 
keep not only us safe, but law enforcement officials and first 
responders safe as well.
    I am just curious as to the number of small companies, those with 
100 or less employees, that you are working with to provide us with 
their technology?
    Answer. The Small Business Innovation Research (SBIR) Program 
defines a small business as one with 500 employees or less. At the time 
of contract award, DHS determines if the winner is a small business 
under this size criterion, as well as checking other criteria of the 
program such as U.S. ownership, location in the United States, 
employment of principal investigator, etc. DHS does not keep records of 
actual company size under 500 employees.
    The first DHS SBIR solicitation requested proposals from small 
businesses in eight topic areas. Altogether, 374 responses were 
received and 66 were selected to enter negotiations for contract award 
in the first Phase. Three of these businesses are located in Colorado.
    Question. What percentage of your procurement dollars is being 
awarded to small businesses?
    Answer. The Small Business Innovation Research (SBIR) program is 
funded at 2.5 percent of extramural R&D funds. This equates to $19.6 
million in fiscal year 2004 for the Small Business Innovation Research 
Program, all with small businesses. In addition, small businesses are 
participants in our open solicitations, such as the one issued last 
fall for Detection Systems for Biological and Chemical Countermeasures. 
Among the 40 winning individual companies (or their teammates) in that 
fully competitive, $76 million solicitation, there were 35 small 
businesses.
    Question. How do you define what is a small company?
    Answer. DHS uses the SBIR definition of 500 employees or less.
    Question. Can you discuss with me where we are with liability 
protections for all contractors?
    Answer. As part of the Homeland Security Act of 2002, Public Law 
107-296, Congress enacted the several liability protections for the 
sellers of anti-terrorism technologies. The Support Anti-terrorism by 
Fostering Effective Technologies Act of 2002 (SAFETY Act) provides 
incentives for the development and deployment of anti-terrorism 
technologies by creating a system of risk and liability management. The 
purpose of the SAFETY Act is to ensure that the threat of liability 
does not deter potential manufacturers or sellers of anti-terrorism 
technologies (ATT) from developing and commercializing technologies 
that could significantly reduce the risks or mitigate the effect of 
large-scale terrorist events. Therefore, the SAFETY Act creates certain 
liability limitations for ``claims arising out of, relating to, or 
resulting from and act of terrorism'' where a qualified anti-terrorism 
technology (QATT) has been deployed. The SAFETY Act does not limit 
liability from harms caused by an anti-terrorism technology when no act 
of terrorism has occurred.
    The definition of a qualified anti-terrorism technology is very 
broad and includes products, equipment, services (including support 
services), devices, or technology (including information technology) 
that is designed, developed, modified, or procured for the specific 
purpose of detecting, identifying, preventing, or deterring act of 
terrorism, or limiting the harm that such acts might otherwise cause.
    Sellers of ATTs may apply for SAFETY Act protection on line at 
www.safetyact.gov, or they may submit their application electronically 
or in hard copy. Each application will be reviewed in accordance with 
the criteria set forth in the SAFETY Act to assess its technical 
capabilities and to determine if SAFETY Act protection is necessary in 
order to deploy the technology more broadly. To date there are 19 full 
applications in various stages of review as well as 61 pre-
applications. The pre-application process is optional and is designed 
to provide early feedback to the applicant regarding whether the 
technology would be considered for SAFETY Act protection.
                                 ______
                                 

               Questions Submitted by Senator Larry Craig

    Question. I believe that you have heard from Members of Congress 
from Illinois, New York, and Idaho about their concerns in excluding 
DOE national laboratories in those three States from playing on the 
same field as your designated ``intramural'' laboratories. I was under 
the impression that DHS had understood Congress's desire in creating 
your department, that DHS would approach the DOE national labs on a 
level playing field. When visiting with you prior to your confirmation, 
I had felt I had your assurance to that effect.
    I have made clear to you my concerns about the process your office 
used in establishing the intramural/extramural laboratory system. I 
have concerns about the validity of this approach and its outcome for 
both the country and the extramural laboratories. These concerns 
include: The reduced ability of DHS to bring the best talents and 
capabilities to bear on some of our most significant national security 
threats. The practicality and propriety of setting up a system that not 
only encourages, but requires the extramural laboratories to compete 
against industry and universities in order to contribute to the 
solutions of important homeland security challenges. This is of 
particular concern since the work designated for HSARPA and SED is work 
that your staff has already indicated can be performed without unique 
capabilities that exist in the national laboratories. The thin 
reasoning and basis that has been put forward by DHS as a rationale for 
selecting the intramural labs just doesn't appear to hold up.
    Please provide the precise criteria used for selection of 
intramural and extramural labs. Also provide the explanation of why 
Argonne National Lab, Brookhaven National Lab, and Idaho National 
Engineering and Environmental Lab do not meet the criteria for being 
intramural laboratories.
    Answer. The Department of Homeland Security, through Section 309 of 
the Homeland Security Act of 2002, is provided access to the national 
laboratories and sites managed by the Department of Energy to carry out 
the missions of DHS.
    The DHS Science and Technology Directorate, wishing to make the 
best use of each of these laboratories and sites in consonance with 
statute, regulation, and policy, asked laboratories and sites to make a 
decision regarding their desired mode of interaction with the 
Directorate--to participate in S&T's internal strategic planning and 
program development processes, or, if otherwise permissible under 
applicable law, regulation, contract, and DOE policy, to respond to 
certain types of S&T solicitations open to the private sector.
    On March 31, 2004, the following national laboratories and sites 
communicated their decision to Under Secretary McQueary to participate 
in S&T's internal strategic planning and program development processes: 
Argonne National Laboratory, Bechtel Nevada, Brookhaven National 
Laboratory, Idaho National Engineering and Environmental Laboratory, 
Lawrence Livermore National Laboratory, Los Alamos National Laboratory, 
Oak Ridge National Laboratory, Pacific Northwest National Laboratory, 
and the Sandia National Laboratories.
    A consequence communicated to the national laboratory directors in 
advance of their decision is that, as a result of such participation, a 
national laboratory will be ineligible to participate in open 
solicitations to the private sector for a period of 3 years after it 
ceases engagement in the S&T strategic planning and program development 
processes.
    S&T will give the laboratories access to internal DHS strategic 
planning information. DHS policy is that if any non-DHS entity, 
including a national laboratory, receives that kind of information, DHS 
considers that entity to have an ``organizational conflict of 
interest'' that makes the entity ineligible to participate in any 
solicitations open to the private sector issued by S&T.
    Question. Do you think that it is appropriate for national labs to 
be in direct competition with universities and industries for HSARPA 
work?
    The Homeland Security Advanced Research Projects Agency (HSARPA) 
solicitations seek to the maximum extent possible to capture the best 
ideas and solutions. To achieve this end, Broad Agency Announcements 
(BAAs) are used. Under a BAA, teams are not in direct competition; each 
team is judged on the basis of the unique ideas proposed to solve the 
broadly defined technology challenge. DOE Order 481.1B provides the 
guidance DOE uses for the national laboratories regarding participation 
in BAAs with universities and industries.
    The DHS Science and Technology Directorate, wishing to make the 
best use of each of these laboratories and sites in consonance with 
statute, regulation, and policy, asked laboratories and sites to make a 
decision regarding their desired mode of interaction with the 
Directorate--to participate in S&T's internal strategic planning and 
program development processes, or, if otherwise permissible under 
applicable law, regulation, contract, and DOE policy, to respond to 
certain types of S&T solicitations open to the private sector.
    On March 31, 2004, the following national laboratories and sites 
communicated their decision to Under Secretary McQueary to participate 
in S&T's internal strategic planning and program development processes: 
Argonne National Laboratory, Bechtel Nevada, Brookhaven National 
Laboratory, Idaho National Engineering and Environmental Laboratory, 
Lawrence Livermore National Laboratory, Los Alamos National Laboratory, 
Oak Ridge National Laboratory, Pacific Northwest National Laboratory, 
and the Sandia National Laboratories.
    A consequence communicated to the national laboratory directors in 
advance of their decision is that, as a result of such participation, a 
national laboratory will be ineligible to participate in open 
solicitations to the private sector for a period of 3 years after it 
ceases engagement in the S&T strategic planning and program development 
processes.
    Should we assume that cost will not be a primary factor in 
selecting winners for HSARPA and SED contracts? If it is a primary 
factor, do you expect any national laboratories to be able to compete 
on a cost basis?
    Answer. The Homeland Security Advanced Research Projects Agency 
(HSARPA) and the Office of Systems Engineering and Development (SED) 
consider other criteria, such as technical approach, performance 
improvement if successful, value to the DHS user, program management 
strategy, and capabilities of researchers to perform proposed work, 
more important than the total cost of the research. The S&T Directorate 
looks at the total cost of the research to confirm that it is 
reasonable, but it is only a deciding criterion if the costs are too 
high or too low. The eventual cost of the fielded system and its 
operation are frequently considered under the value to DHS user 
criterion; this should differ by technical approach, but not by 
category of proposer.
    Costs can also enter the final evaluation of proposals in a 
determination of ``best overall value to the government.'' Under best 
value, all factors are simultaneously evaluated looking to create out 
of the family of selected proposals the best diversified programmatic 
solution for the government against the total available funding.
    S&T program solicitations seek to the maximum extent possible to 
capture the best ideas and solutions. To achieve this end, Broad Agency 
Announcements (BAAs) are used. Under a BAA, teams are not in direct 
competition; each team is judged on the basis of the unique ideas 
proposed to solve the broadly defined technical challenge.
    Question. Wouldn't it be reasonable to have a system where all of 
your critical R&D requirements were met through competitive processes 
in order to assure access to the broadest array of talent in a cost 
efficient way? Do you believe that this is what Congress intended?
    Answer. DHS recognizes the unique talents at each of the DOE 
national laboratories, and is committed to maximizing opportunities for 
all the DOE laboratories in support of homeland security. We believe 
that by allowing the national laboratories to support S&T either 
through programmatic partnerships or project-based work, maximum 
efficiency in resource utilization may also be achieved.
    S&T conducts full and open competitions for a majority of its 
research, development, testing and evaluation programs through Broad 
Agency Announcements. The Office of Research and Development will 
continue to conduct performance-based work with the national 
laboratories.
    Question. Knowing that Congress debated and rejected proposals for 
folding one or more national labs into DHS when it was creating the new 
department, under what authority does DHS now proceed with this same 
concept, but administratively instead of legislatively?
    Answer. The research, development, testing and evaluation 
capabilities needed to support the missions of the Department of 
Homeland Security are being defined and institutionalized within the 
Department. Support of those needs now and in the future requires the 
establishment and support of an enduring capability that includes 
scientists and engineers who are well-versed in the requirements and 
technologies associated with homeland security, and dedicated to the 
mission of the Department, as well as physical facilities that support 
their efforts. The legislation creating the Department of Homeland 
Security and the Science and Technology Directorate recognized that 
many of these needed capabilities exist within the Department of 
Energy's laboratories and sites and provided for access to them in 
support of the Department's mission.
    The existing DOE laboratories have critical mass and expertise 
across multiple disciplines to perform the necessary threat assessments 
and, thus, to participate in DHS's and the S&T Directorate's internal 
systems and analyses, associated trade studies, and long-range planning 
that will form the basis for the architectures that are ultimately 
developed and deployed to secure the homeland. These scientists will be 
intimately involved in assisting the S&T Directorate in setting 
research goals and requirements and formulating the research and 
development roadmaps.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                           R&D CONSOLIDATION

    Question. The fiscal year 2005 budget request proposes to 
consolidate R&D budgets from the Coast Guard, Emergency Preparedness 
and Response Directorate, and from the Immigration and Customs 
Enforcement bureau. Other research budgets, such as $154 million for 
the Transportation Security Administration were not included in this 
consolidation. What plans are there to consolidate all the Department's 
research budgets within the Science & Technology Directorate? If so, 
what is the timeline for completing the consolidation? What are the 
benefits of consolidating R&D budgets under one Directorate? What 
savings are anticipated by consolidating the Department's research 
budgets under one roof?
    Answer. We have begun the consolidation process by evaluating and 
producing a report on the research, development, testing, and 
evaluation work that was being conducted within the Department of 
Homeland Security but was not already under the direct cognizance of 
the Science and Technology Directorate. Where it is appropriate, the 
Science and Technology Directorate will absorb these R&D functions. In 
other cases, the Science and Technology Directorate will provide 
appropriate input, guidance, and oversight of these R&D programs. We 
expect to have this process completed by the end of fiscal year 2004 in 
accordance with the Congressional directive.
    Consolidation of the research and development functions of the 
Department's components will significantly improve the Department's 
overall ability to meet its mission. With consolidation, we can ensure 
that operational end-user requirements and needs are being met by the 
best science and technology that can be brought to bear on the problem, 
whether that expertise comes from internal or external sources. We will 
be able to enhance our efforts to avoid duplication of effort in the 
R&D areas, and we fully expect to find synergies develop: what is 
created to meet the requirements of one component may be able to be 
fielded to support the needs--stated or not yet recognized--of another. 
The specific cost savings expected will be identified as part of the 
process of R&D consolidation.

                          DETECTION TECHNOLOGY

    Question. When Secretary Ridge testified before the subcommittee in 
February, he said that if a passenger wanted to board a plane with a 
biological weapon, the Department does not currently have the capacity 
to detect it. He said that acquiring such a capability is a top 
priority for the science and technology directorate. How does your 
budget address this issue?
    Answer. The Biological Countermeasures portfolio in the S&T 
Directorate is currently initiating systems studies to better define 
needs and options for detection of a biological agent release aboard an 
aircraft. Detection of a biological pathogen during the passenger 
security screening process remains a difficult problem, but we are also 
investigating potential detection options. It is possible that 
modifications to current technology can provide interim capability 
while the detection efforts described above can provide an improved 
future capability.

                    UNIVERSITY CENTERS OF EXCELLENCE

    Question. In fiscal year 2004, Congress appropriated $68.8 million 
for University programs under the Science and Technology Directorate. 
When Under Secretary McQueary testified on March 2, he said that the 3 
centers would be selected in fiscal year 2004 and the fiscal year 2005 
budget request would be sufficient to maintain three centers. How many 
centers would be selected in fiscal year 2004 and fiscal year 2005 if 
the budget request maintained the current level of funding instead of 
cutting the program by $39 million?
    Answer. In addition to the risk analysis and agro-terrorism centers 
already selected in fiscal year 2004, we anticipate two more 
solicitations for University-based Homeland Security Centers this 
fiscal year. If the fiscal year 2004 level of funding were maintained 
for fiscal year 2005 and beyond, an additional five Centers could be 
selected. SAFECOM
    The budget request for SAFECOM is $22.105 million. The Department's 
budget justification states that this program is a cost-share program 
and anticipates receiving $12.5 million from within DHS and $9.55 
million from other Federal departments. Please provide the specific 
contributions from each DHS component and from each of the other 
Departments contributing to this program.
    Question. How much was anticipated for SAFECOM in fiscal years 2003 
and 2004 versus the amount reimbursed from other agencies? Please 
provide the specific contributions from each DHS component and from 
each of the other Departments contributing to this program.
    On February 23, the Secretary said that ``the Department has 
identified technical specifications for a baseline interoperable 
communication system.'' Please describe these technical specifications 
and how it will benefit first responders. What is the timeline to 
implement these specifications? What is the cost impact of these 
specifications? Will the Department establish a separate funding 
mechanism to assist first responders pay for this short-term solution?
    Answer. The chart below outlines the funding for SAFECOM expected 
for fiscal year 2003 and fiscal year 2004, and the actual amount 
collected by the program in fiscal year 2003. It is the current 
expectation that all fiscal year 2004 funding provided by DHS is from 
the Chief Information Officer's wireless account.

                             SAFECOM FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
                                          Actual  fiscal    Anticipated
                                             year 2003      fiscal year
                 Agency                        Funds        2004  Funds
                                            Contributed     Contributed
------------------------------------------------------------------------
USDA....................................           1.431           1.520
DOD.....................................           3.345           1.770
DOE.....................................           1.431           1.430
HHS.....................................           1.431           1.520
DHS.....................................  ..............          12.520
DoI.....................................  ..............           2.951
DoJ.....................................  ..............           4.312
Treasury................................           9.500  ..............
                                         -------------------------------
      Total.............................          17.138          26.023
------------------------------------------------------------------------

    The Department will require certain minimum specifications relating 
to interim interoperable solutions, such as cross-band repeaters and 
patching units. These specifications will allow public safety 
practitioners to clearly articulate what technical requirements must be 
met by vendors of communications equipment so that purchases made in 
the short term are successfully targeted at equipment that meets their 
immediate needs. Since many commercial units are already capable of 
meeting these requirements, the cost of these units should be 
unaffected.
    The Department is still exploring options for funding and will 
release an implementation timeline accordingly.

                           GRANTS & CONTRACTS

    Question. Of the funds appropriated in fiscal year 2004, provide a 
table that shows the number of grants provided, the amount for each 
grant, the recipient, and the purpose. Provide the same information for 
contractual agreements.
    Answer. See table below.

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                 Type                     Amount                      Project Title/Purpose                                          Performer                             Procurement Agent
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
BAA..................................   $30,000,000  Technical Support Working Group, Rapid Prototyping.....  Multiple Awards Pending................................  Naval System Management
                                                                                                                                                                        Activity
BAA..................................     6,045,595  Fund for RA 03-01, Detection Systems for Biological and  Multiple Awards Pending................................  Ft. Detrick, USAMRAA
                                                      Chemical Countermeasures (DSBCC), TTA-3 and TTA-5.
BAA..................................     5,710,000  Scene Understanding (NRL BAA 55-03-02 Artificial         Multiple Awards Pending................................  Navy Research Lab
                                                      Intelligence Technologies & BAA 55-03-05 Advanced
                                                      Intelligence Technologies).
BAA..................................     5,230,000  Threat Vulnerability, Intelligence and Information       Multiple Awards Pending................................  Navy Research Lab
                                                      Analysis, and Warning Capabilities of DHS (BAA 04-02).
BAA..................................     6,196,909  Detection Systems for Biological and Chemical            Multiple Awards Pending................................  Ft. Detrick, USAMRAA
                                                      Countermeasures (RA 03-01 TTA-4).
BAA..................................     2,070,000  Domain Name System Security (DNSSEC) (Air Force          Multiple Awards Pending................................  Air Force Research Lab
                                                      Research Lab/Information Grid System BAA 03-18-IFKA
                                                      Cyber Defensive & Offensive Operations Technology).
BAA..................................    54,589,000  Funds for BAA 04-01 (Rad/Nuc Countermeasures Systems     Multiple Awards Pending................................  U.S. Navy Space and Air
                                                      Architectures Analysis) and BAA 04-02 (Rad/Nuc                                                                    Warfare Center (SPAWAR)
                                                      Detection Systems),.
BAA..................................     2,050,000  Large Scale Network Security Test & Evaluation Datasets  Multiple Awards Pending................................  DOI/NBC
                                                      Program (DOI/NBC BAA 03-05-FH).
BAA..................................    10,000,000  Fund for RA 03-01, Detection Systems for Biological and  Multiple Awards Pending................................  Ft. Detrick, USAMRAA
                                                      Chemical Countermeasures (DSBCC), TTA-5.
BAA..................................       102,000  Evaluation Plan for BAA 04-02, Detection Systems for     Oak Ridge National Laboratory..........................  DOE
                                                      Radiological and Nuclear Countermeasures (DSRNC)
                                                      HSARPA Review Support.
BAA..................................     7,000,000  Phase II B Funding for RA 03-01, Detection Systems for   Multiple Awards Pending................................  Ft. Detrick, USAMRAA
                                                      Biological and Chemical Countermeasures (DSBCC) TTA-2.
BAA..................................       896,600  Live Agent Testing Evaluation (RA 03-01 TTA 3/4/5--      Multiple Awards Pending................................  Ft. Detrick, USAMRAA
                                                      Portable High-Throughput Integrated Laboratory
                                                      Identification System, Lightweight Autonomous Chemical
                                                      Identification System, Autonomous Rapid Facility
                                                      Chemical Agent Monitor).
                                      --------------
      BAA Total......................   129,890,104
                                      ==============
Contract.............................     6,000,000  Counter MANPADS Development and Demonstration Phase....  Awards Pending.........................................  DHS
Contract.............................        60,000  Support for Model OT Agreement Analyses................  Logistics Management Institute (LMI)...................  DHS
Contract.............................     4,678,601  Counter MANPADS Program Support........................  SRS Technologies.......................................  Ft. Detrick, USAMRAA
Contract.............................       859,873  Operational and Support Staffing for Office of Weapons   ANSER Corp.............................................  DHS
                                                      of Mass Destruction (WMDO).
Contract.............................       208,750  Enhancing International Travel Security................  Organization for Economic Cooperation and Development..  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
Contract.............................         5,058  Additional Funding for Goods Used ISO Biowatch.........  VWR International......................................  CoastGuard
Contract.............................       371,440  Bio Watch Operations Support...........................  Booz Allen Hamilton....................................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
Contract.............................        57,120  Unmanned Aerial Vehicle Analysis Support...............  SRA International......................................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
Contract.............................        90,000  ORION--GPS Integration.................................  Orion Electronics (Award Pending)......................  Department of Interior,
                                                                                                                                                                        Gov Works
Contract.............................       900,000  Support of Civil Aviation Security Systems Engineering   Center for Naval Analysis Corporation (CNAC)...........  DHS
                                                      Study.
Contract.............................       282,951  Programmatic and Technical Management Support to the     SPARTA, Inc............................................  Ft. Detrick, USAMRAA
                                                      Director, ORD.
                                      --------------
      Contract Total.................    13,513,793
                                      ==============
Grant................................     3,310,826  DHS Scholarship/Fellowship Program.....................  Oak Ridge Institute for Science and Education  (ORISE).  DOE
Grant................................     4,000,000  University of Southern California--University Programs   University of Southern California......................  DHS/FEMA
                                                      Grant.
                                      --------------
      Grant Total....................     7,310,826
                                      ==============
RA...................................       270,000  IDA Chemical Hazard Analysis...........................  Institute for Defense Analysis (IDA)...................  DOD Washington
                                                                                                                                                                        Headquarters Service
                                                                                                                                                                        (WHS)
RA...................................       161,998  South Florida Hawkeye Project fiscal year 2004, BTS....  Coast Guard HQ.........................................  DHS/USCG
RA...................................     1,131,679  DHS Cyber Security Testbed.............................  UC Berkeley, USC, UC Davis, Penn State, Purdue,  ICIR..  National Science
                                                                                                                                                                        Foundation (NSF)
RA...................................     2,300,000  South Florida Hawkeye Project fiscal year 2004, BTS....  United States Coast Guard..............................  DHS/USCG
RA...................................       230,000  Study of Emerging Threats and Evolving Technologies....  Institute for Defense Analysis (IDA)...................  DOD Washington
                                                                                                                                                                        Headquarters Service
                                                                                                                                                                        (WHS)
RA...................................       390,750  Recognizing Emotion In Speech..........................  Columbia Univ..........................................  National Science
                                                                                                                                                                        Foundation (NSF)
RA...................................       382,500  Automated Intent Determination (AutoID)................  Dr Mark Adkins, Univ of Arizona........................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
RA...................................       624,196  VACIS Image Processing and Projection (IPP)............  SAIC...................................................  DHS
RA...................................        64,600  Perimeter Security System..............................  NAVSEA.................................................  NAVSEA
RA...................................       500,000  Border Gateway Protocol (BGP) Security Analysis and      National Institute of Standards and Technology  (NIST).  National Institute of
                                                      Evaluation of Large Scale BGP Attacks.                                                                            Standards and Technology
                                                                                                                                                                        (NIST)
RA...................................     2,500,000  Surveillance--RODS Decision Enhancements for The         RODS-U of Pitt.........................................  NAVSEA
                                                      BioWatch System.
RA...................................     3,000,000  Surveillance--ESSENCE Implementation of ESSENCE          Johns Hopkins..........................................  NAVSEA
                                                      Biosurveillance Systems.
RA...................................       200,000  Technical Advisory Group (TAG) to HSARPA on Bioaerosol   Multiple Awards Pending................................  Edgewood Chemical and
                                                      sensor testing and evaluation methodology.                                                                        Biological Center
RA...................................    10,853,444  PSITEC, technology clearinghouse.......................  Public Safety and Security Institute for Technology....  U.S. Navy Space and Air
                                                                                                                                                                        Warfare Center (SPAWAR)
RA...................................       390,750  Recognizing and Understanding Emotion in Speech          Navy Research Lab......................................
                                                      Columbia University.
RA...................................       382,500  Automated Intent Determination (AutoID)................  University of Arizona..................................  Navy Research Lab
RA...................................     3,450,000  Bioinformatics and Assay Development Program...........  Multiple Awards Pending................................  Ft. Detrick, USAMRAA
RA...................................     6,000,000  Rapid Prototyping......................................  Multiple Awards Pending................................  Navy Research Lab
RA...................................        50,000  Provides funding for Evaluation Plan for BAA 04-02,      Sandia National Laboratory.............................  DOE
                                                      Detection Systems for Radiological and Nuclear
                                                      Countermeasures (DSRNC).
RA...................................        76,000  Evaluation Plan for BAA 04-02, Detection Systems for     Lawrence Livermore National Laboratory.................  DOE
                                                      Radiological and Nuclear Countermeasures (DSRNC).
RA...................................         6,888  Office of Weapons of Mass Destruction--Computer          DHS/GSA Schedule.......................................  DHS
                                                      Equipment.
RA...................................     2,500,000  Evaluation of a Deployed Biosurveillance System........  Potomac Institute......................................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
RA...................................       539,720  Port Authority NY/NJ Testbed--PNNL.....................  Pacific Northwest National Laboratory..................  DOE
RA...................................       500,000  Port Authority NY/NJ Testbed--SRTC.....................  Savannah River Technology Center.......................  DOE
RA...................................     1,000,000  Port Authority NY/NJ Testbed--EML......................  Environmental Measurements Laboratory..................  DOE
RA...................................       506,452  DHS Industry Forum.....................................  Center for Technology Commercialization (CTC)..........  DOJ, Office of Justice
                                                                                                                                                                        Programs
RA...................................       412,988  Port Authority NY/NJ Test Bed PNNL: Sys Analysis.......  Pacific Northwest National Laboratory..................  DOE
RA...................................    13,000,000  Radiological /Nuclear Test and Evaluation Complex......  Bechtel Nevada.........................................  DOE
RA...................................       175,000  Weapons of Mass Destruction (WMD) and Nuclear            Camp Peary AFETA.......................................  Armed Forces Experimental
                                                      Assessment Training.                                                                                              Training Activity
                                                                                                                                                                        (AFETA)--Camp Peary
RA...................................        66,570  Office of Weapons of Mass Destruction--Secure Portable   DHS....................................................  DHS
                                                      Phones.
RA...................................         5,000  DHS Facilities/GSA Support of S&T, letterhead, etc.....  General Services Administration........................  DHS
RA...................................       250,000  Interagency Board......................................  Battelle supporting Interagency Board (IAB)............  DHS
RA...................................    13,244,400  Bio Watch Operations Support...........................  Environmental Protection Agency........................  EPA
RA...................................       262,500  Unmanned Aerial Vehicle Analysis of AssumptionGeneral    GSA....................................................
                                                      Services Administration.
RA...................................        41,680  Second Intelligence and Security Informatics Symposium   National Science Foundation (NSF)......................  National Science
                                                      (ISI 2004).                                                                                                       Foundation (NSF)
RA...................................     2,500,000  DHS Facilities/GSA Support of S&T Relocation...........  General Services Administration........................  DHS
RA...................................     8,500,000  Homeland Security Institute............................  Award Pending..........................................  Ft. Detrick, USAMRAA
RA...................................       103,079  TDY Support to Chemical Countermeasures Portfolio U.S.   U.S. Army..............................................
                                                      Army Edgewood Center.
RA...................................     5,000,000  USCG Research & Development............................  U.S. Coast Guard.......................................  USCG
RA...................................        80,000  Point Defense Against Aircraft Attack..................  Institute for Defense Analysis (IDA)...................  DOD Washington
                                                                                                                                                                        Headquarters Service
                                                                                                                                                                        (WHS)
RA...................................        18,965  John Rein 90 Day Extension.............................  NETC...................................................  Naval Education and
                                                                                                                                                                        Training Center
RA...................................       489,322  Strategic Planning.....................................  Award Pending..........................................  Gov Works
RA...................................       170,500  Professional & Engineering Services....................  Award Pending..........................................  Department of Interior,
                                                                                                                                                                        Gov Works
RA...................................       480,000  Support for Planning Documents.........................  Touchstone Corp........................................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
RA...................................     2,601,000  Border Safe Integrated Feasibility Experiment Phase II.  Corporation for National Research Initiatives (CNRI)...  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
RA...................................        25,000  Support of International Meeting of Biometrics Experts.  National Institute of Standards and Technology  (NIST).  National Institute of
                                                                                                                                                                        Standards and Technology
                                                                                                                                                                        (NIST)
RA...................................       100,000  Enhanced International Travel Security Support.........  Asian Technology Information Program (ATIP)............  Office of Naval Research
RA...................................       100,000  DHS Canada Collaboration...............................  Sandia National Laboratory.............................  DOE
RA...................................        86,400  Radiological Dispersal Device (RDD) Workshop...........  Sandia National Laboratory.............................  DOE
RA...................................       216,250  Chemical Biological National Program (CBNP)              Argonne National Laboratory............................  DOE
                                                      Continuation Program--ANL.
RA...................................     5,820,000  Chemical Biological National Program (CBNP)              Lawrence Livermore National Laboratory.................  DOE
                                                      Continuation Program--LLNL.
RA...................................     2,589,500  Chemical Biological National Program (CBNP)              Los Alamos National Laboratory.........................  DOE
                                                      Continuation Program--LANL.
RA...................................     2,188,750  Chemical Biological National Program (CBNP)              Sandia National Laboratory.............................  DOE
                                                      Continuation Program--SNL.
RA...................................       598,875  Chemical Biological National Program (CBNP)              Pacific Northwest National Laboratory..................  DOE
                                                      Continuation Program--PNNL.
RA...................................       567,500  Chemical Biological National Program (CBNP)              Lawrence Berkeley National Laboratory..................  DOE
                                                      Continuation Program--LBNL.
RA...................................        75,000  Chemical Biological National Program (CBNP)              Oak Ridge National Laboratory..........................  DOE
                                                      Continuation Program--ORNL.
RA...................................        62,500  Chemical Biological National Program (CBNP)              Idaho National Engineering and Environmental Laboratory  DOE
                                                      Continuation Program--INEEL.
RA...................................     4,215,475  Plum Island Animal Disease Center (PIADC)--First         Plum Island Animal Disease Center (PIADC)..............  DHS
                                                      Quarter fiscal year 2004 Continuation Funding.
RA...................................    10,166,544  Plum Island Animal Disease Center O&M..................  Plum Island Animal Disease Center (PIADC)..............  DHS
RA...................................     1,060,400  Environmental Measurements Lab.........................  Environmental Measurements Laboratory..................  DOE
RA...................................     6,930,000  Threat Vulnerability Integration Systems Pilot (TVIS)--  Lawrence Livermore National Laboratory.................  DOE
                                                      LLNL.
RA...................................     3,870,000  Threat Vulnerability Integration Systems Pilot (TVIS)--  Pacific Northwest National Laboratory..................  DOE
                                                      PNNL.
RA...................................     1,480,050  Yarrow Behavioral Analysis Technical Support Nuclear     Lawrence Livermore National Laboratory.................  DOE
                                                      Assessment Program.
RA...................................       250,409  PNNL Support to Emergency Preparedness and Response      Pacific Northwest National Laboratory..................  DOE
                                                      Program.
RA...................................       800,000  Weapons of Mass Destruction--Nuclear Assessment Program  Los Alamos National Laboratory.........................  DOE
                                                      (NAP).
RA...................................       100,000  Weapons of Mass Destruction--Nuclear Assessment Program  Oak Ridge National Laboratory..........................  DOE
                                                      (NAP).
RA...................................     4,525,000  Nuclear Assessment Program, Credibility Assessment.....  Lawrence Livermore National Laboratory.................  DOE
RA...................................       320,000  Nuclear Assessment Program, Forensic Tech Support......  Pacific Northwest National Laboratory..................  DOE
RA...................................     1,900,000  EPR Scientific Support to FEMA.........................  Lawrence Livermore National Laboratory.................  DOE
RA...................................     2,229,225  ARS Plum Island Animal Disease Center (PIADC)            Plum Island Animal Disease Center (PIADC)..............  DHS
                                                      Scientific Support.
RA...................................        45,980  ARS Plum Island Animal Disease Center (PIADC) Admin      PLUM/Plum Island Animal Disease Center (PIADC).........  DHS
                                                      Support.
RA...................................     1,200,000  Developing a Critical Infrastructure Protection          Los Alamos National Laboratory.........................  DOE
                                                      Decision Support System (CIP/DSS).
RA...................................     1,200,000  Developing a Critical Infrastructure Protection          Argonne National Laboratory............................  DOE
                                                      Decision Support System (CIP/DSS).
RA...................................       400,000  Developing a Critical Infrastructure Protection          Pacific Northwest National Laboratory..................  DOE
                                                      Decision Support System (CIP/DSS).
RA...................................     1,200,000  Developing a Critical Infrastructure Protection          Sandia National Laboratory.............................  DOE
                                                      Decision Support System (CIP/DSS).
RA...................................     1,500,000  BioWatch--Orange Alert Expanded Sample Analysis........  Lawrence Livermore National Laboratory.................  DOE
RA...................................     1,514,000  RadNuc Countermeasures--PNNL...........................  Pacific Northwest National Laboratory..................  DOE
RA...................................     3,313,000  Rad-Nuc Countermeasures PEP--LANL......................  Los Alamos National Laboratory.........................  DOE
RA...................................       101,900  NRC Workshop Conference................................  National Research Council (NRC)........................  DOE
RA...................................       700,000  Advanced Scientific Computing--SNL.....................  Sandia National Laboratory.............................  DOE
RA...................................     4,776,000  Advanced Scientific Computing--LLNL....................  Lawrence Livermore National Laboratory.................  DOE
RA...................................        85,811  Advanced Scientific Computing--ORNL....................  Oak Ridge National Laboratory..........................  DOE
RA...................................     2,500,000  National & Regional Visual Analytics Centers...........  Pacific Northwest National Laboratory..................  DOE
RA...................................       250,000  Environmental Measurements Laboratory Second Qtr         Environmental Measurements Laboratory..................  DOE
                                                      Funding for fiscal year 2004.
RA...................................     1,298,500  CBNP fiscal year 2003 Continuation and New Start         Los Alamos National Laboratory.........................  DOE
                                                      Funding.
RA...................................     4,833,500  CBNP fiscal year 2003 Continuation and New Start         Lawrence Livermore National Laboratory.................  DOE
                                                      Funding.
RA...................................     1,500,000  Photofission-Based Nuclear Material Detection and        Idaho National Engineering and Environmental Laboratory  DOE
                                                      Characterization.
RA...................................     1,600,000  (Tri-Lab) Threat-Capability Assessments--LANL..........  Los Alamos National Laboratory.........................  DOE
RA...................................     1,600,000  (Tri-Lab) Threat-Capability Assessments--LLNL..........  Lawrence Livermore National Laboratory.................  DOE
RA...................................     1,600,000  (Tri-Lab) Threat-Capability Assessments--SNL...........  Sandia National Laboratory.............................  DOE
RA...................................    15,300,000  First Responder CBRNE Protective and Operational         National Institute of Standards and Technology  (NIST).  DHS
                                                      Equipment Standards Development Program.
RA...................................       280,000  RADNUC Attribution Advisor.............................  Lawrence Livermore National Laboratory.................  DHS
RA...................................       255,000  Border Safe Phase II...................................  SPAWAR.................................................  DHS
RA...................................     2,257,098  Plum Island Animal Disease Center (PIADC) O&M Services   Plum Island Animal Disease Center (PIADC)..............  DHS
                                                      Contract--Remainder of funding.
RA...................................     1,199,370  ORISE Merit Review for HS Centers......................  Oak Ridge Institute for Science and Education  (ORISE).  DOE
                                      --------------
      RA Total.......................   186,199,518
                                      ==============
SBIR.................................    17,170,000  Small Business Innovation Research Program (SBIR)......  Multiple Awards Pending................................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
                                      --------------
      SBIR Total.....................    17,170,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

             Question Submitted By Senator Daniel K. Inouye

    Question. I continue to have constituent businesses contact my 
office to ask for information about grant opportunities from the 
Department of Homeland Security. My staff has requested a briefing from 
the Science and Technology Directorate. However, the requested briefing 
has so far not been provided. Upon researching on the website, my staff 
came upon an invitation to attend a Department of Homeland Security 
Industry Forum. Mr. Chairman, I request that a copy of this notice be 
placed in the record.
    I would like to quote from this announcement:
    This two-day forum will provide industry the opportunity to hear, 
first-hand, what technology needs and requirements DHS will have in the 
coming years. DHS staff will provide detailed briefings on technology 
R&D and T&E requirements for the Department, as well as, where and when 
to apply for DHS funding.
    A brief itinerary and list of speakers, including several members 
of your staff, is attached. This sounds like a great forum that my 
staff and constituents would be interested to attend. However, a list 
of registration fees is also included. The fees range from $425 for 
members of the government to $625 for private industry. I was surprised 
to learn of the high cost to attend this government briefing. Why are 
government employees required to pay $425 to learn about these funding 
opportunities? Why is DHS charging other entities for this information?
    Answer. Fees for this conference were maintained at levels as low 
as we believed feasible. In accordance with standard government 
practice, fees were set to help offset the costs of conducting a public 
forum rather than supporting the conference with public funds.
                                 ______
                                 

    Questions Submitted to Information Analysis and Infrastructure 
                               Protection

              Questions Submitted by Senator Thad Cochran

                 BIODEFENSE COUNTERMEASURES (BIOSHIELD)

    Question. The President's budget proposes to transfer the Strategic 
National Stockpile back to the Department of Health and Human Services 
but not project Bioshield. IAIP's role in the project BioShield is to 
make the threat assessments necessary to determine proper BioShield 
investments which is the rationale for the Department of Homeland 
Security having responsibility for this program.
    What assessments have been carried out by Information Analysis and 
Infrastructure Protection of our vulnerabilities to biological attacks 
to guide decisions as to the investments which should be made to 
develop, produce and pre-purchase vaccines or other medications from 
BioShield?
    Answer. The Department of Homeland Security has been assigned a 
role in several bioterror initiatives. One such initiative, Project 
BioShield, specifies DHS work with the Department of Health and Human 
Services (HHS) and several other Federal agencies to ensure resources 
are available to combat a sudden chemical or biological attack. The 
central premise for this program is the government must prepare for 
such attacks by acquiring the best vaccines/drugs for pathogens such as 
smallpox, anthrax and botulinum toxin. To do so, current Project 
BioShield guidelines require DHS evaluate likely biological/chemical 
threats and identify promising bioresearch R&D to best address such an 
attack.
    DHS is currently involved in an initiative designed to protect the 
Nation against bioterrorism. This initiative, known as the Bio-
Surveillance Program, has been in operation since 2003. This program 
not only enhances on-going surveillance in areas such as human health, 
hospital preparedness, State and local preparedness, vaccine research 
and procurement, animal health, food and agriculture safety and 
environmental monitoring but will integrate these data streams with 
intelligence data in a comprehensive fashion.
    IAIP's role in the Bio-Surveillance Program is developing a real-
time system for harvesting data on the health of our population, 
animals, plants, and food supply, as well integrating this information 
with environmental monitoring and intelligence data. This integration 
can enable better decision-making and a more rapid Federal, State, and 
local response. Coordination between DHS and the Department of Health 
and Human Services and the Department of Agriculture is ongoing. This 
data exchange will help DHS, HHS, and other Federal agencies evaluate 
potential health threats and guide bioterrorism preparedness resource 
investments.

                             CYBER SECURITY

    Question. The National Cyber Security Division, as part of the 
Information Analysis and Infrastructure Protection Directorate, 
recently unveiled the National Cyber Alert System which intends to 
deliver information to home computer users and technical experts in 
business and government agencies to better secure their computer 
systems from the latest computer viruses.
    What progress has been made by the National Cyber Security Division 
to prevent the spread of this computer virus as well as future virus 
and worm outbreaks?
    Answer. The lynch pin to preventing the spread of computer viruses 
and worm outbreaks is a robust and mutually beneficial relationship 
with the private sector. Cyber security is often a reactive process 
because the initiative rests with hackers and malicious agents. 
Developing and maintaining a partnership with the private sector is 
therefore a crucial means to both responding quickly to emerging 
threats and taking proactive measures to forefend against potential 
threats. The DHS/US-CERT Partner Program is composed of members that 
recognize their responsibility to their organizations and the Nation to 
improve the current and future state of cyber security. Members 
collectively and individually realize the need to take action and abide 
by principles and practices that are appropriate as critical 
infrastructure operators, communities of interest, vulnerability 
researchers, educators, and software vendors. The Partner Program 
consists of participants from various sectors of the cyber community 
who must agree to meet certain criteria in order to achieve the 
designation of DHS/US-CERT partner. These criteria are designed with 
the aim of preventing occurrences such as the spread of computer 
viruses and worms and other malicious activities.
    Another important tool for the prevention of worms and viruses is 
the National Cyber Alert System. Americans are exhibiting a keen 
interest in the alert system. On day one of the National Cyber Alert 
System launch, we had more than one million hits to the US-CERT 
website. Today, more than 250,000 direct subscribers are receiving 
National Cyber Alerts to enhance their cyber security. Through the 
alert systems, Americans are able to receive information that is 
accurate and actionable. It is our goal to inform the public about the 
true nature of a given incident, what the facts are, and what steps 
they can and should take to address the problem. The offerings of the 
National Cyber Alert System provide that kind of information. To date, 
we have issued seven security tips, six security bulletins, ten 
technical alerts, and six non-technical cyber alerts in response to 
cyber security incidents through the National Cyber Alert System. We 
strive to make sure the information provided is understandable to all 
computer users, technical and non-technical, and reflect the broad 
usage of the Internet in today's society. As we increase our outreach, 
the National Cyber Alert System is investigating other vehicles to 
distribute information to as many Americans as possible.
    Question. What is the relationship of the National Cyber Security 
Division with the Terrorist Threat Integration Center (T-TIC) on 
combating computer viruses by terrorists?
    Answer. NCSD, in partnership with DHS/IAIP/IA works intensively 
with the law enforcement and intelligence communities including the 
TTIC in order to develop a comprehensive threat, risk, attribution 
assessment and response capability.
    Question. What law enforcement agency has primary jurisdiction in 
enforcing cyber crimes?
    Answer. No single law enforcement agency has primary jurisdiction 
in the investigation of cyber crime. The FBI and Secret Service are the 
most visible, pervasive agencies, but other organizations, such as the 
IRS' Office of the Inspector General or ICE's Cyber Smuggling Division, 
have specialized areas of responsibility in the areas of enforcing 
cyber laws.

                   HOMELAND SECURITY ADVISORY SYSTEM

    Question. The Homeland Security Advisory System has evolved from a 
nationwide threat level status to more specific targeted areas since 
the latest threat level decrease in January. While the threat level is 
currently at an ``Elevated Condition'', or code yellow, specific cities 
and the aviation sector remain at the ``High Condition'', or code red. 
This more targeted threat level status helps focus limited resources on 
the most credible threat areas and at the same time allows law 
enforcement and first responders in other parts of the country to 
``stand down'' while remaining vigilant. In recent testimony, Secretary 
Loy testified that the Department was ``very close'' to unveiling a 
system that would allow specific threat warnings to about a dozen 
economic sectors.
    With the improvement of intelligence that has included detailed 
specific terrorist threats for certain metropolitan areas and specific 
sectors of industry, what further enhancements do you envision for the 
Homeland Security Advisory System?
    Answer. With each raising and lowering of the Homeland Security 
Advisory System (HSAS), the Department of Homeland Security learns new 
lessons and improves its notification process. As the system has 
evolved, it has come to reflect the need for certain metropolitan areas 
and/or specific areas of industry to be notified at different times or 
at different levels than others. As such, DHS has become adept at 
providing information to such specific audiences as states and sectors 
through Homeland Security Information Bulletins and Advisories. 
Additionally, Department officials speak personally with 
representatives and officials of threatened States and industries, when 
the need arises. This personal communication, along with the ability of 
the system to allow DHS to communicate to certain areas what their 
alert level should be embody the enhancements that have been needed 
this far.
    Question. Are you looking to enhance or improve upon any of the 
eight existing Federal warning systems that are currently being 
operated nationwide?
    Answer. Yes. With the $10,000,000 provided to IAIP in last year's 
Homeland Security Appropriations Conference Report (108-280) we plan to 
enhance and upgrade NOAA Weather Radio and the Emergency Alert System 
(EAS), and possibly other systems. A few vital efforts have been 
identified for immediate funding. Those include improving the coverage 
and survivability of the EAS by (1) installing a satellite-based 
message delivery capability and (2) by adding EAS stations to all 50 
States (to include State Emergency Operations Centers) and U.S. 
territories. Also, there are pilot projects planned to: (1) examine how 
reverse 911 can be used to help disseminate alert and warning 
information; and (2) demonstrate how new technologies such as digital 
TV broadcasts/datacasting using spectrum offered by public TV can be 
used to improve our ability to alert the American public. These three 
projects represent a portion of the $10,000,000, but the bulk of the 
funding will be allocated after completion of a study of available and 
planned alert and warning systems to develop integrated, capabilities-
based architecture recommendations. This study will be completed by the 
end of summer.

                 HOMELAND SECURITY INFORMATION NETWORK

    Question. Another enhancement being made by the Department in the 
area of information sharing is the new Homeland Security Information 
Network which will be able to disseminate threat information to 
Federal, State and local law enforcement agencies.
    Is the Department on schedule to complete the first phase of the 
network this summer, and what is the targeted deadline to complete the 
flow of real-time information to all relevant end-users throughout the 
country?
    Answer. The Department is on schedule to meet the summer deadline. 
We plan to begin expansion of HSIN to the county level, in conjunction 
with the each State's individual rollout plans, by the end of year. By 
the beginning of next year, we plan to be actively engaged with other 
homeland security partners, such as the private sector, to support 
further real time, secure collaborative information flow.
    Question. How will the Homeland Security Information Network be 
different from the Joint Regional Information Exchange System and 
Regional Information Sharing Systems which are already in place and in 
use?
    Answer. The Homeland Security Information Network (HSIN) is the 
overarching network for the Department of Homeland Security (DHS) to 
provide information exchange and real time collaboration between 
Federal, State, and municipal authorities. Within the initial program 
there will be four HSIN areas: HSIN/DM (Decision Maker-used by Federal, 
State and Urban area homeland security advisors); HSIN/EOC (used 
primarily by Federal, State and urban emergency operations centers); 
HSIN/NG (used primarily by the NGB and the State adjutant generals); 
and the HSIN/JRIES (used primarily by law enforcement and intelligence 
agencies). This summer, other areas within HSIN, like the Secret and 
DHSInfo areas will be activated. HSIN is the umbrella program under 
which all of these virtually private networks are contained.
    While there is a need to be able to disseminate intelligence 
information across the full spectrum of the HSIN system, the primary 
HSIN tools to be used for intelligence dissemination will be the HSIN/
JRIES (Law Enforcement and intelligence information) area and the HSIN/
Secret network (JRIES at the Secret level). This will initially run on 
the National Guard (SIPRNet) backbone then migrate to the HSDN network 
once the DHS classified system becomes operational.
    The goal of HSIN is to have an integrated system that uses the same 
tools and applications. These applications will run on separate areas 
of the HSIN network defined by the user group's clearance, need to 
know, and need to act as approved by DHS.

                             CYBER SECURITY

    Question. The Department's new initiative ``Live Wire'' will test 
civilian agencies' security preparedness and contingency planning by 
staging cyber attack exercises to evaluate the impact of widespread 
computer disruptions. Recent instances, such as the power outages in 
the Northeast this past August, are an example of how an attack on our 
critical infrastructures, such as a cyber attack by terrorists on our 
Nation's utility industry, could cascade across a wide region if the 
proper precautions are not taken immediately.
    What was learned from previous simulated terrorist attacks on the 
Nation's cyber infrastructure, and how will ``Live Wire'' build upon 
current programs?
    Answer. Strategically, Livewire demonstrated the impact of a cyber-
based attack on critical infrastructures. The exercise highlighted the 
interdependencies among our critical infrastructures and underscored 
the requirement for enhanced cross-sector cooperation. At the tactical 
level, Livewire demonstrated the need to enhance processes for 
communicating cyber protection information to the public and for two-
way information sharing with the private sector. Livewire prompted us 
to enhance our vulnerability identification and reduction capabilities. 
This drove us to create the Cyber Interagency Incident Management Group 
(Cyber IIMG) to coordinate intergovernmental preparedness and response 
operations. It also spurred us to expand the reach of emergency 
communications capabilities using a technologically advanced, secure 
network. In addition, we launched the National Cyber Alert System as a 
dissemination mechanism to provide the broadest population of public 
stakeholders with accessible, relevant, actionable alerts and 
information.
    Question. How do you coordinate ``Live Wire'' exercises with 
private industry to test their cyber infrastructure vulnerabilities, 
and what gaps in coordination have been revealed between government 
agencies and the private sector?
    Answer. Whereas the first responder and emergency management 
communities have been exercising at national, regional, and local 
levels for many years, the cyber response community has only formed 
over the past decade or so. There have been very few cyber-focused 
exercises at any level. Efforts to coordinate an effective cyber 
response capability across State and local jurisdictions and economic 
sectors are only beginning.
    The Federal Government cannot by itself defend cyberspace from 
current or future threats. Acknowledging this, NCSD collaborates with 
industry and public-sector stakeholders across the country to define, 
develop, and exercise the major elements of a national cyber-space 
security response system. Its goals for the National Exercise Program 
(NEP) are to:
  --Sensitize a diverse constituency of private and public-sector 
        decision-makers to a variety of potential cyber threats 
        including strategic attack;
  --Familiarize this constituency with DHS' concept of a national cyber 
        response system and the importance of their role in it;
  --Practice effective collaborative response to a variety of cyber 
        attack scenarios, including crisis decision-making;
  --Provide an environment for evaluation of inter-agency and inter-
        sector business processes reliant on information 
        infrastructure;
  --Measure the progress of ongoing United States efforts to defend 
        against an attack;
  --Foster improved information sharing among government agencies and 
        between government and industry;
  --Identify new technologies that could provide earlier warning of 
        attacks;
  --Sort roles and responsibilities of government agencies and 
        industry.
    NCSD's involvement in the NEP will be guided by two principles: (1) 
Cyber is only one element of a multifaceted NEP; cyber elements must be 
closely coordinated with other elements of that program to ensure 
efficient use of limited resources and the most effective return on 
exercise investments; (2) Cyber exercise elements must not be sidelined 
or relegated to an ``afterthought'' category within the NEP.
    Although the NEP is the responsibility of the Office of Domestic 
Preparedness (ODP), the NCSD will retain overall responsibility for 
planning and execution of adequate cyber response exercises. The NCSD 
shall identify a NEP cyber exercise program manager, ensure adequate 
resources are available for cyber elements of the NEP, including 
personnel, define NEP cyber exercise objectives and metrics, prioritize 
NEP cyber exercise events, solicit Federal agency and department 
participation in cyber-focused elements of the NEP, and initiate or 
approve Statements of Work for contracted cyber exercise activities.
    Wherever appropriate, the NCSD will coordinate ODP on funding and 
personnel issues.
    The NCSD requires a set of cyber-focused exercises that build 
grassroots cyber response capabilities quickly while also elevating the 
concept of strategic cyber attacks and maturing a national cyberspace 
security response system capable of dealing with them. Cyber-focused 
exercises must include a series of regularly scheduled ``Building 
Block'' exercises followed by a culminating, nationally scoped exercise 
similar to Livewire, also the continuation of tabletop events hosted by 
the USSS (Electronic Crimes task Forces).
    We also require that cyber be included as an important element in 
targeted NEP events that do not have a cyber focus. Examples are 
TOPOFF, FEMA (EP&R) readiness exercises, and policy-focused seminars 
for senior officials. Each of these exercise events should include 
cyber scenarios and cyber responders.

                   NATIONAL CRITICAL INFRASTRUCTURES

    Question. Recently published was the interim final rule for the 
voluntary submittal of critical infrastructure information by private 
industry to the Department of Homeland Security with assurances that 
the proprietary data submitted would be safe from public disclosure.
    What level of cooperation with private industry do you anticipate 
as you gather information on the Nation's critical infrastructures?
    Answer. It is difficult to forecast the extent to which private 
industry will voluntarily share critical infrastructure information 
with DHS. We only know that private industry has consistently stated in 
the past that two barriers to sharing information with the government 
were concerns that (1) the information would be released to the public 
under the Freedom of Information Act and (2) the disclosure could 
create a civil liability for the company sharing the information. The 
Critical Infrastructure Information Act of 2002 and the Interim Final 
Rule which implements it, we believe, removes these two barriers to 
information sharing with the government.
    Question. How will the publishing of this rule help the Department 
in its effort to safeguard the country's privately-held critical 
infrastructures?
    Answer. The CII Act and implementing regulations provide private 
industry assurances that critical infrastructure information they 
voluntarily share with the government will be protected from release to 
the public and from use in civil litigation. We believe the PCII 
Program will enable the Department to receive critical infrastructure 
information that would not have previously been available to the 
government, thereby allowing for a better understanding of threats.
    Question. What incentive is there for private industry to volunteer 
information to the Federal Government?
    Answer. Private industry realizes they can assist in efforts to 
improve homeland security by volunteering information. What was needed 
was a means for them to share information that is usually considered 
proprietary and shielded from competition here and abroad. With the 
protection from FOIA disclosure offered by the CII Act, we believe the 
private sector can now share sensitive and confidential information 
that we can be analyzed to identify threats and vulnerabilities. Such 
analysis will provide the basis not only for developing measures to 
deter the threats and mitigate the vulnerabilities to which the 
critical infrastructure is exposed, but also for improving Federal, 
State, and local governments' emergency preparedness posture to respond 
to any attacks more effectively.
    Question. In December of last year, a Homeland Security 
Presidential Directive was issued to produce a comprehensive, 
integrated National Plan for Critical Infrastructure and Key Resources 
Protection for all Federal departments and agencies to outline national 
goals, objectives, milestones, and key initiatives to be completed 
within 1 year.
    With various departments and agencies previously conducting 
assessments of their vulnerabilities, do you believe this directive can 
be completed earlier than the deadline of December of this year?
    Answer. The President intends that we meet the requirement to 
develop the NIPP by December 2004, but, given the urgency of the need, 
we will complete it earlier if possible.
    Question. Has funding been requested in other departments' and 
agencies' budgets outside of the Department of Homeland Security to 
carry out the Presidential directive, or will the Department of 
Homeland Security be requested to assist other agencies in the 
assessment of critical infrastructures?
    Answer. Under HSPD-7, Sector-Specific Agencies shall, among other 
things, ``conduct or facilitate vulnerability assessments'' of their 
respective sectors in accordance with guidance provided by the 
Department of Homeland Security. Each department and agency will need 
to budget for efforts to carry out their HSPD-7 responsibilities and 
provide that information to the President and the Congress.
    Question. The Congress made available over $343,000,000 for 
Remediation and Protective Actions for fiscal year 2004 for critical 
infrastructure identification, to conduct vulnerability field 
assessments of critical infrastructures, and to create a database of 
vulnerabilities affecting the highest priority terrorist targets in 
order to develop better security measures for the protection of 
facilities and national assets.
    What is the timeline of your Directorate for identifying our 
Nation's critical infrastructures, and what progress has been made in 
field assessments of the critical infrastructures that have already 
been identified?
    Answer. We have built the National Asset Database (NADB). It is a 
comprehensive database designed to catalogue the Nation's critical 
infrastructure and key assets (CI/KA). The central purpose for 
constructing this database is to identify assets that may be attractive 
targets to terrorists so measures can be taken to help mitigate risk. 
There are now approximately 33,000 sites listed on the NADB, and DHS 
continues to receive additional nominees from States and territories. 
We view the NADB as a living database, therefore sites will be added or 
removed as warranted by ongoing assessments. Inputs continue to be 
received and from private industry as well as Federal, State and local 
governments.
    In regards to field assessments of identified critical 
infrastructures, over the past 6 months DHS has conducted approximately 
89 Site Assistance Visits (SAVs) for the highest priority sites and 
produced 25 Characteristics and Common Vulnerabilities (CCVs) reports 
on vulnerabilities for specific classes of CI/KA.
    We anticipate completing another 74 CCVs by the end of the fiscal 
year and conduct any necessary SAVs.
    Question. Who will retain the database of vulnerable critical 
infrastructures, and who will have access to it?
    Answer. DHS will retain the NADB. As we receives additional input 
from States, territories, and other Federal agencies it will update/
maintain the NADB and share asset information with other DHS entities, 
such as the Office for Domestic Preparedness (ODP), to help prioritize 
resource allocation for the implementation of protective measures to 
safeguard our Nation's critical infrastructure and key assets. State-
specific information will also be shared with State Homeland Security 
Advisors as appropriate both to solicit comments and to identify State 
priorities. Appropriate access will be and is grant to private industry 
concerning their data and assets.
    Question. What type of security procedures for our Nation's 
identified critical infrastructures have been implemented?
    Answer. As priority assets are identified, we conduct risk analyses 
and consequence of attack analyses to help determine which sites are at 
greatest risk. PSD then develops plan templates and other tools to 
assist owners and operators in developing Buffer Zone Protection Plans 
(BZPPs) and site security protection plans. The BZPP helps develop 
effective preventive measures that make it more difficult for 
terrorists to conduct surveillance or launch attacks from the immediate 
vicinity of a possible target.

      OFFICE FOR DOMESTIC PREPAREDNESS USE OF DATABASE INFORMATION

    Question. In recent testimony, Secretary Ridge cited that the 
``maturity and growth'' of the Information Analysis and Infrastructure 
Protection Directorate is allowing for better targeting of resources 
for the Office for Domestic Preparedness in the decision-making process 
for the distribution of grants to high threat areas across the country.
    What improvements have been made over the past year by the 
Information Analysis and Infrastructure Protection Directorate to 
assist the Office for Domestic Preparedness in making sure that Federal 
funds are going to the areas where the threat of a terrorist attack is 
the greatest?
    Answer. IAIP assisted ODP in the identification of a set of 
critical assets from the NADB that most warranted additional resources 
to enhance their security for fiscal year 2004. This resulted in the 
identification of approximately 1,700 assets onto a fiscal year 2004 
list of assets warranting special attention for fiscal year 2004 funds.
    Future development of the NADB and our efforts to identify and 
prioritize national critical infrastructure and key assets will, we 
believe, help us ensure the best protection of critical infrastructure 
and best use of Federal resources.
    Question. How will the Information Analysis and Infrastructure 
Protection Directorate work to share information catalogued in the 
database of critical infrastructures with the Office for Domestic 
Preparedness to target grants to the country's highest threat areas?
    Answer. Similar to fiscal year 2004, an analytical framework will 
be used to identify and prioritize assets on the expanded NADB, and 
this information will be shared with ODP to help develop its lists of 
assets that may require grant assistance in fiscal year 2005.
    Intelligence capabilities 10. The President's budget proposes a 
$19,300,000 decrease in funding for the Information Analysis and 
Infrastructure Protection Directorate in order to centrally fund the 
Terrorist Threat Integration Center (T-TIC) with other intelligence 
programs and also to centrally fund the Federal Bureau of 
Investigation's (FBI) Terrorist Screening Center with Department of 
Justice programs.
    Question. Without the contribution of funding that the Department 
of Homeland Security currently makes to the Terrorist Threat 
Integration Center, do you believe that the Department will have an 
adequate intelligence presence in T-TIC?
    Answer. Yes. The Department of Homeland Security (DHS) will provide 
10 percent, or 30 personnel, to the Terrorist Threat Integration 
Center's (TTIC's) end goal of 300 personnel. This, as well as the close 
working relationship that TTIC and the DHS Office of Information 
Analysis (IA) have developed ensures an initial intelligence presence 
at TTIC.
    Question. What will the Information Analysis and Infrastructure 
Protection's role be in the Terrorist Threat Integration Center and the 
Terrorist Screening Center without providing any funding of its own?
    Answer. Per the explanation above, the DHS Information Analysis and 
Infrastructure Protection (IAIP) Directorate's role in both TTIC and 
the Terrorist Screening Center is the physical presence of personnel at 
each location. DHS analysts will inform the TTIC's work. Conversely, 
TTIC analysts will inform DHS' analysis. In addition to analytical 
personnel, DHS senior leadership will retain their presence at each 
center.
    Question. How do you prevent a duplication of intelligence 
gathering and intelligence analysis with the Terrorist Threat 
Integration Center?
    Answer. Terrorism analysis is a complex issue. It is an area where 
a certain amount of multiple analyses from different perspectives is 
preferred. To ensure no vital piece of intelligence is missed, the 
analysis of terrorist information is a shared responsibility.
    DHS' Office of Information Analysis (IA) analytical intelligence 
mission is to protect the American homeland against terrorist attack. 
To do so, IAIP maps terrorist threats and capabilities against assessed 
vulnerabilities. IA also communicates information to State, local, 
tribal, major city, and private sector officials. TTIC's primary 
responsibility is the analysis of all international terrorism threat 
information whether collected domestically or abroad.
    Question. Without a request for funding within the Department of 
Homeland Security for the integration of the multiple terrorist 
watchlists, how will the Department of Homeland Security participate in 
consolidating various agencies' terrorist lists?
    Answer. The Department of Homeland Security is participating in the 
Terrorist Screening Center (TSC) through physical location of personnel 
in the center.
    Question. Please distinguish the functions of T-TIC from the 
intelligence functions of the Information Analysis and Infrastructure 
Protection Directorate.
    Answer. As a Directorate, IAIP enables, develops, and sustains the 
capability to continuously identify, assess, and prioritize current and 
future threats to the homeland, map those threats against 
vulnerabilities, issue timely warnings, provide the basis from which to 
organize protective measures to secure America, and assist in 
coordinating the response and restoration of critical infrastructure 
functions. Currently, IAIP is moving forward in carrying out our 
statutory responsibilities which include:
  --Providing the full range of intelligence support to senior DHS 
        leadership and component organizations and to State and local 
        and private sector respondents.
  --Mapping terrorist threats to the homeland against assessed 
        vulnerabilities to drive our efforts to protect against 
        terrorist attacks
  --Conducting independent analysis and assessments of terrorist 
        threats, including competitive analysis, tailored analysis, and 
        ``red teaming''
  --Assessing the vulnerabilities of key resources and critical 
        infrastructure of the United States
  --Merging the relevant analyses and vulnerability assessments to 
        identify priorities for protective and support measures by the 
        Department, other government agencies, and the private sector
  --As a full member of the Intelligence Community, the Office of 
        Information Analysis partnering with other IC members, TTIC, 
        law enforcement agencies, State and local partners, and the 
        private sector, as well as DHS' components to manage the 
        collection and processing of information involving threats to 
        the Homeland into usable, comprehensive, and actionable 
        information.
  --Disseminating time sensitive warnings, alerts and advisories to 
        Federal, State, local, and tribal governments and private 
        sector infrastructure owners and operators
    TTIC is an interagency joint venture of its partners. The TTIC 
members include, but are not limited to, the Department of Justice/FBI, 
DHS, CIA, National Security Agency, National Imagery and Mapping 
Agency, Defense Intelligence Agency, and the Department of State. 
Through the input and participation of these partners, TTIC merges and 
analyzes terrorist threat-related information, collected domestically 
and abroad, in order to form the most comprehensive possible threat 
picture, and disseminate such information to appropriate Federal 
Government recipients. TTIC draws on the particular expertise of its 
participating members--such as DHS' focus on homeland security and 
CIA's focus on terrorism information collected overseas--thereby 
ensuring that the terrorist analytic product takes advantage of, and 
incorporates, the specialized perspectives of relevant Federal 
agencies. TTIC provides comprehensive, all-source terrorist threat 
analysis and assessments to U.S. national leadership.
    Currently, DHS representatives are located at TTIC, working day-in-
day-out, participating in processing and analyzing terrorist threat-
related information, developing, shaping, and disseminating TTIC 
products, assessing gaps in the available information, and ensuring 
that TTIC products reach appropriate DHS Headquarters elements. Through 
DHS, the necessary information, including threat descriptions, 
suggested protective measures, and locations of additional information, 
then reaches the appropriate State, local, tribal, major city and 
private sector officials. Analysts assigned to TTIC ensure that TTIC's 
work directly supports DHS' unique mission to protect the homeland. The 
threat information integration and analysis that is the beginning, not 
the end, of DHS' protective mission, will most effectively be carried 
out, as Congressional and other reviews have recommended, when all 
terrorism threat-related activities of the U.S. Government work 
together seamlessly.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

         NATIONAL INFRASTRUCTURE SIMULATION AND ANALYSIS CENTER

    Question. Mr. Libutti, the Department of Homeland Security has 
taken ownership of the National Infrastructure Simulation and Analysis 
Center, or NISAC. NISAC was developed by Sandia and Los Alamos National 
Laboratories to simulate and analyze various events and the cascading 
effects on critical infrastructure in the United States. Following the 
September 11th terrorist attacks, NISAC took on added importance as the 
Administration and Congress focused on homeland security. The fiscal 
year 2004 Homeland Security Appropriations Act had approximately 
$23,000,000 for NISAC. Would you please give the Subcommittee the 
status of the allocation of the fiscal year 2004 funding?
    Answer. The Homeland Security Appropriations Act of 2004 did not 
contain a specific line item for services to be provided by the 
National Infrastructure Simulation and Analysis Center (NISAC). 
However, the Department has set aside $20,000,000 in October 2004 for 
NISAC programmatic efforts to be performed by Los Alamos National 
Laboratory ($10,000,000) and Sandia National Laboratory ($10,000,000). 
Some of the planned NISAC activities include chlorine industry studies, 
analyses of rail system and electric power disruptions, assessments of 
Hurricane Isabel impacts on infrastructure, port and inland waterway 
modeling, as well as urban infrastructure modeling.
    Question. How much is in the President's fiscal year 2005 budget 
request to support activities by NISAC?
    Answer. The fiscal year 2005 request for the NISAC is $27,000,000.
    Question. What are some of the activities envisioned in the fiscal 
year 2005 budget for NISAC?
    Answer. NISAC fiscal year 2005 activities are expected to include 
expansion of the Center's developing National and Regional Tools into 
additional regions and cities of the Nation. Additionally, NISAC will 
begin developing consequence analysis and decision support tools to 
support the following:
  --Expansion of the urban infrastructure suites models for 
        transportation, telecommunications, water, public health and 
        energy to additional high threat urban areas.
  --Expansion of the dynamic simulation models to selected east and 
        west coast ports.
  --Expansion of the interdependent energy infrastructure simulation 
        system.
  --Expansion and testing of the waterways asset prioritization tool in 
        concert with the U.S. Coast Guard and Army Corps of Engineers.
  --Continued expert analysis and support to short term actions for the 
        Department's primary missions using the Center's developing 
        infrastructure models.
    One of the items that transferred from the Department of Energy to 
the Department of Homeland Security with NISAC was an appropriation of 
$7,500,000 for the construction and equipping of a NISAC facility at 
Kirtland Air Force Base in Albuquerque, New Mexico, which is adjacent 
to Sandia National Lab. Those funds have not been released for their 
intended purpose.
    Question. What is the delay in moving forward on this important 
facility?
    Answer. IAIP continues to move forward with the plans to build the 
facility, giving full consideration to the elements of the program and 
our obligation to comply with NEPA and other Federal statutes 
applicable to Federal construction projects.
    Question. What is the status of the $7,500,000 appropriation 
specifically for the NISAC facility? Are those funds being held for the 
intended purpose?
    Answer. IAIP continues to move forward with the plans to build the 
facility, giving full consideration to the elements of the program and 
our obligation to comply with NEPA and other Federal statutes 
applicable to Federal construction projects.
    Question. When can the Subcommittee expect the Department of 
Homeland Security to break ground on the NISAC facility in New Mexico?
    Answer. IAIP continues to move forward with the plans to build the 
facility, giving full consideration to the elements of the program and 
our obligation to comply with NEPA and other Federal statutes 
applicable to Federal construction projects.
                                 ______
                                 

               Question Submitted by Senator Larry Craig

    Question. Gen. Libutti I would like to compliment you on your 
approach to working with the national laboratories. It is clear that 
your management team is committed to using the best capabilities 
available in the most efficient way. In that vein, I would like to 
invite you to visit the Idaho National Engineering and Environmental 
Laboratory to learn more about how INEEL can contribute to your 
engineering, testing, and evaluation needs. The INEEL is in the process 
of standing up its national Critical Infrastructure Protection Test 
Range. Your organization is now using some of the resources that exist 
there. I think you will find it valuable to learn first hand the 
breadth of capabilities they have to offer your organization and their 
abilities to help you accelerate the implementation of many of your 
programs.
    In the longer term, I presume that testing and evaluating 
technologies before deployment by IAIP will be an important part of 
your mission.
    How much value do you see in having a national critical 
infrastructure protection test range available to you to accomplish 
your mission?
    Answer. I see great value in a facility that gives DHS the ability 
to test and evaluate infrastructure protection Technologies. As you 
noted, the Idaho National Engineering and Environmental Laboratory 
(INEEL) provides just such a Test and Evaluation (T&E) and modeling 
capability to DHS to help guide the development of critical 
infrastructure protection systems.
    INEEL has functional electrical grids, nuclear power plants and 
chemical processing facilities on its premises. INEEL engineers have 
been using this facility to conduct vulnerability and risk assessments 
on critical infrastructure for years. Furthermore, the test range 
itself is located in a remote and isolated area, giving the INEEL staff 
the freedom to conduct real world, hands-on vulnerability assessments 
without placing a local population at risk.
    As you may know, the Protective Security Division (PSD) of IAIP 
already is working with INEEL to address the vulnerabilities of our 
Nation's critical infrastructure by developing a National SCADA Testbed 
and a Process Control Security and Vulnerability Reduction Center. This 
new and important partnership between DHS and INEEL will help protect 
the Nation's critical infrastructure systems from both inadvertent 
failures and malicious attacks.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                   CRITICAL INFRASTRUCTURE PROTECTION

    Question. The budget for remediation and protection of critical 
infrastructure includes the identification of critical infrastructure 
and assessing vulnerabilities in addition to implementing remediation 
and protection measures. For fiscal years 2004 and 2005, please 
estimate, by critical infrastructure sector, the amounts actually spent 
or planned to be spent on identifying critical infrastructure and 
assessing vulnerabilities versus the amount spent on remediation or 
protection of critical infrastructure. For protective measures, please 
distinguish between investments made for ``buffer zones'' versus 
investments made to harden security ``on site.''
    According to the Department, 85 percent of the critical 
infrastructure is owned by the private sector. In assessing the need 
for Federal investments to secure our critical infrastructure, it will 
be essential for Congress to have measurable benchmarks of private 
sector investments in such infrastructure, such as investments in 
chemical facilities, port security, and cyber-security. Please provide 
the subcommittee with any benchmarks that have been established that 
show the private sector is making the necessary investments to secure 
our critical infrastructure and key assets.
    Please explain in detail how the $19,900,000 appropriated in fiscal 
year 2004 and the $19,900,000 requested in fiscal year 2005 will be 
spent for ``Protective Security Centers.'' How many centers have been 
established or planned to date and where are they located? How much 
funding is needed for each center? What purpose does each center serve?
    Answer. As a result of a mid-year review, two Protective Security 
Centers are planned for fiscal year 2004; one is linked to NYPD and 
another to LAPD. These centers, at a total cost of $10 million, will 
assist DHS to (a) identify critical assets in metropolitan areas for 
inclusion in national databases; (b) create partnerships between the 
police departments and protective security officials in the private 
sector to focus on combined protective activities; (c) reinforce 
Federal-State-local incident management procedures; and (d) develop 
training and exercise programs focused on protection vice response. 
Additional centers may be established in fiscal year 2005 and 
strategically located across the country to best serve law enforcement 
agencies. Funds are being used for the physical build-out and 
furnishing of the Centers with required infrastructure, computers and 
other necessary equipment and supplies. The respective police 
departments will staff the Centers.

                        CHEMICAL PLANT SECURITY

    Question. The General Accounting Office recently testified that 
``despite the industry's voluntary efforts, the extent of security 
preparedness at U.S. chemical facilities is unknown.''
    Explain IAIP's role in assessing vulnerabilities and taking 
protective at chemical security plants? How much of IAIP's fiscal year 
2004 and fiscal year 2005 budget, respectively, is dedicated to 
chemical plant security. For each fiscal year, please specify the 
amount spent or planned for vulnerability assessments, the number of 
chemical plants IAIP will provide vulnerability assessments for in 
fiscal years 2004 and 2005, and provide the amount planned for 
protective actions. Please specify, in detail, the protective actions 
IAIP will take in fiscal years 2004 and 2005 to secure chemical plants. 
Provide the amount of funding that is being spent to secure the area 
surrounding chemical plants versus funding being spent to harden 
security at the chemical plants themselves.
    Due to the dynamic threat environment combined with the ongoing 
effort to identify and prioritize the Nation's critical infrastructure 
and key assets (CI/KA), IAIP budgets reflect efforts to reduce 
vulnerabilities across all sectors to maximize flexibility in 
responding to emerging threats. That said, in fiscal year 2004 over 
$38.5 million of PSD's budget was dedicated to collecting, cataloging, 
and analyzing vulnerability assessment information across all sectors. 
The President's fiscal year 2005 budget has dedicated $38.7 million 
towards these efforts, enabling us to continue to reduce the 
vulnerabilities of our Nation's CI/KA.
    DHS has conducted approximately 19 Site Assistance Visits (SAVs) 
specifically to chemical facilities to assess their common 
vulnerabilities. The data collected during these site-specific visits 
is used to produce tools to help critical infrastructure owners and 
operators bolster protective measures.
    One such tool is the Characteristics and Common Vulnerabilities 
(CCVs) report series on vulnerabilities for classes of critical 
infrastructure and key assets (CI/KA). A CCV report for chemical 
facilities and a separate CCV for chemical storage facilities have been 
produced by PSD, and both are available to owners and operators of 
these facilities.
    Answer. We also are assisting State and local authorities, as well 
as private industry, in developing Buffer Zone Protection Plans (BZPPs) 
for areas immediately adjacent to the ``fence line'' of critical 
infrastructure. The approximately 1,700 BZPPs completed by the end of 
2004, included roughly 360 chemical sites warranting special attention. 
For fiscal year 2004 we allocated up to $50,000 per CI/KA site for 
vulnerability reduction. A data call is currently underway to support 
the identification of sites for attention in fiscal year 2005 and 
Protective Security Division (PSD) is excepting to complete roughly 
2,000 BZPPs next year.
    Building upon a program initiated in fiscal year 2004 (funded at 
$3.25 million), the DHS fiscal year 2005 budget request has 
approximately $10.8 million dedicated to the acquisition of web cam 
monitors for the chemical sector. These monitors will be installed 
adjacent to designated critical chemical sites to extend their buffer 
zones and enhance protective measures. DHS' plan is to provide this 
equipment to local law enforcement agencies to install on public right 
of ways to monitor the security of these facilities.
    DHS also has established a protection, training, and planning 
program for State homeland security personnel, local law enforcement, 
chemical facility operators and site security personnel. Periodic 
drills among the protective community will be conducted to exercise 
chemical facilities' response plans in case of a terrorist attack. PSD 
will continue to work with the Office for Domestic Preparedness to 
incorporate chemical plant security into national exercises.
    We are also in the process of developing plans for and deploying 
Protective Security Advisors (PSAs). Each PSA will have responsibility 
for a specific region of the county and will maintain a close 
relationship with the chemical plant owners and operations in their 
specific area of responsibility. PSAs will facilitate information 
sharing, organize protective security training, assist in emergency 
coordination, and represent DHS in the communities in which they are 
posted. Security Augmentation Teams (SATs) are also being developed. 
SATs will consist of about 25 personnel who are drawn primarily from 
major urban SWAT units. These SATs will focus on protecting high-value 
sites, including critical chemical facilities, will develop working 
relationships with the site's permanent protective security team, and 
will become familiar with the site's specific vulnerabilities. The PSA 
and SAT programs, still in their early stages and are being actively 
pursued.
    The activities described above in fiscal year 2004 and continued in 
fiscal year 2005 will not only greatly increase chemical site security 
and across all other sectors, but will increase our Nation's general 
protective capacity.

                    INTEGRATED TERRORIST WATCH LIST

    Question. What resources, if any, are being used in fiscal year 
2004 and planned for fiscal year 2005 to integrate lists of terror 
suspects held by different agencies? What is the timeline for having a 
fully functional integrated watch list? What role will IAIP play in the 
Terrorist Screening Center?
    Answer. The Department of Homeland Security is allocating 
approximately $8,000,000 to the Terrorist Screening Center (TSC) for 
fiscal year 2004. In fiscal year 2005, DHS will not contribute funds to 
the TSC, but will provide personnel detailed from DHS to the center. 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
personnel will continue DHS' contribution to this effort by maintaining 
ongoing communication and coordination with the center. The Terrorist 
Screening Center (TSC) is fully operational now. On December 1, 2003 
the TSC began 24/7 call center operations, coordination of the U.S. 
Government response, ensuring information collected was distributed to 
the appropriate entities, and established a process for addressing 
outdated and erroneous terrorist records and misidentifications. The 
database, TSDB, is currently limited to use at the TSC and will undergo 
several enhancements between now and the end of the (calendar) year. At 
that time, agencies will be able to electronically query the TSDB 
directly and get a systematic response within seconds. Because the TSC 
now maintains the terrorist information in the multiple systems used, 
it can ensure all the information appropriate for these systems is 
included.

                             IAIP STAFFING

    Question. According to information the IAIP directorate provided to 
the subcommittee, only 263 of 729 authorized positions were on board at 
the end of February, 2004. IAIP projects that only 543 positions will 
be filled by the end of fiscal year 2004. It would appear that IAIP 
will be lapsing millions of dollars that Congress approved for 
staffing. Do you intend to send the Committee a plan for reallocating 
these funds? If so, provide a detailed plan for spending these excess 
funds in fiscal year 2004.
    Answer. A memorandum requesting reprogramming/transfer actions has 
been submitted to congressional committees. This request notifies the 
committees that IAIP will redirect $23,500,000 from salaries object 
classes to other object classes for securing space to meet IAIP 
requirements.

                           OBLIGATED FUNDING

    Question. On March 1, the IAIP directorate provided the 
subcommittee with an estimate of $426,077,292, which represented the 
amount of fiscal year 2004 appropriated funds that either have been 
obligated or committed. Please provide the amount obligated versus 
committed. In addition, provide the amount of funding planned to be 
spent via contract in fiscal years 2004 and 2005 versus in-house.
    Answer. As of March 1 (February 29 accounting report), IAIP 
obligations were $199,255,217. The remainder of $226,822,073 was 
commitments on March 1 that are not yet signed contracts. As an update 
to this answer, IAIP obligations as of March 31 were $364,419,840, and 
as of April 30 were $382,475,764.
    All of the IAIP Assessment and Evaluation funding of $711,085,630 
will be spent via contract or intergovernmental payment. In house 
salaries and expenses are in a separate Salaries and Expenses 
appropriation.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Let me thank both of you for your 
cooperation with our subcommittee and your attendance at the 
hearing this morning. We hope that we will continue to be able 
to work closely with you as we work our way through the budget 
process, and that we provide the funds you need to do your job 
and carry out your mission successfully.
    I don't think we have any more important responsibility in 
government than what we're doing here in the Department of 
Homeland Security and in this subcommittee that provides the 
funding for these activities.
    We will stand in recess until the next hearing of our 
subcommittee when we will continue our review of the 2005 
budget request. We will have a hearing on March 9, in this same 
room. Our witness at that time will be the Under Secretary for 
Border and Transportation Security, the Honorable Asa 
Hutchinson.
    Until then we stand in recess.
    [Whereupon, at 11:47 a.m., Tuesday, March 2, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
March 9.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                         TUESDAY, MARCH 9, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:09 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Gregg, Byrd, and Leahy.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF ASA HUTCHINSON, UNDER SECRETARY, BORDER 
            AND TRANSPORTATION SECURITY DIRECTORATE

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The hearing will please come to order. 
Today we continue our review of the President's fiscal year 
2005 budget request for the Department of Homeland Security. 
We're specifically considering at this hearing the programs and 
activities within the Border and Transportation Security 
Directorate. Our objective is to provide the resources the 
Border and Transportation Security Directorate requires to 
manage its responsibilities and to carry out its mission 
successfully.
    The President is requesting a total of $14.4 billion in 
discretionary funding for programs and activities managed by 
the directorate, which includes the US VISIT project, Customs 
and Border Protection, Immigration and Customs Enforcement, the 
Transportation Security Administration, and the Federal Law 
Enforcement Training Center.
    I'm pleased to welcome to this hearing the Under Secretary 
for Border and Transportation Security, Mr. Asa Hutchinson. 
Before calling on him, I'm happy to yield to Senator Byrd and 
other senators who may wish to make opening statements. Senator 
Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you. Mr. Chairman, you are very kind to 
delay the hearing until I arrived, and I say this with respect 
to the other senators as well. I have a problem some mornings 
in getting to my station on time. I hope that in the future you 
will not delay the hearings on my account. Please go ahead, and 
I will understand. You are always punctual, and I would prefer 
that you not delay hearings on my account.
    Welcome, Mr. Under Secretary. Last week, the Department of 
Homeland Security celebrated its first anniversary. Much has 
been accomplished. The integration and restructuring of the 22 
agencies continues. The hard-working men and women of your 
Department continue to perform their important jobs. But I 
remain concerned that there are real vulnerabilities facing 
this Nation that require immediate responses.
    Last December, Secretary Ridge said, quote, ``The strategic 
indicators, including al Qaeda's continued desire to carry out 
attacks against our homeland, are greater now than at any point 
since September 11th.'' So Mr. Chairman, I would think that the 
Administration would want to address such a threat with a 
robust front line of defense. Yet, as I review the budget, I 
find numerous examples of a defense that relies more on paper, 
more on studies, more on reports, rather than on the layered 
defense that the President and the Secretary often describe in 
their homeland security speeches.
    Let me just give a few examples. More than 5.7 million 
containers are brought into this country each year through our 
ports. Yet, we inspect only 5 percent of these. Most American 
air passengers would be shocked to learn that, while they and 
their baggage are subjected to often rigorous inspections, the 
vast majority of the cargo carried in the belly of the plane in 
which they are flying is not inspected. The Department claims 
that they have a so-called known-shipper program that is secure 
for air cargo, but this is a paper process. TSA personnel 
review paperwork from the shippers rather than the actual 
cargo.
    TSA has yet to even initiate a pilot program for air cargo 
inspection. We approved funds last September to hire 100 air 
cargo inspectors to carry out real inspections and yet, 6 
months later, very few inspectors have been hired.
    On January 5, 2004, the new visa tracking system known as 
US VISIT began operations at 115 airports and 14 seaports. As 
envisioned when first mandated in 1996, this system is supposed 
to track the entry and exit of visa holders and other visitors 
to our country. It has been declared a success by the 
Department, except few realize that, while we are capturing 
data on people entering this country at the 115 airports, we 
are getting voluntary information on people exiting the United 
States at only one airport. We need to do a better job in order 
to know exactly who is exiting, as well as entering, the United 
States.
    At the same time, we need to ensure that sufficient funds 
are provided to integrate the various existing biometric 
databases. We need to make sure that the US VISIT system and 
the Border Patrol IDENT system are compatible with the FBI's 
Integrated Automated Fingerprint Identification System.
    Last year, pursuant to the Maritime Transportation Security 
Act, U.S. ports were required to submit security plans to the 
Department. But to actually make this country safer, money must 
be provided to help the ports implement those plans. Instead, 
the President is proposing to cut port security grant funding 
by over 60 percent.
    The Federal Air Marshal Service did not have sufficient 
resources this year to maintain the number of air marshals on 
targeted domestic and international flights, and because the 
Administration has proposed no increase for next year, a bad 
problem could become worse next year.
    I want to make sure that this subcommittee and this 
Congress provide real homeland security to the American people, 
not just assurances on paper. The President has told his 
agencies not to seek supplemental appropriations this year, but 
I don't think that homeland security can wait. To this end I 
will be sending a letter to the Secretary today urging him to 
propose a reallocation of existing resources from nonessential 
pay accounts to increase funding for port security grants and 
for the Federal Air Marshals Program right away. I will be 
discussing these issues today and I'm looking forward to 
hearing from our witness on these and other issues.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Byrd. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman. I know I've served 
with both of you for well over a quarter of a century on this 
committee, and I couldn't help but think at the beginning of 
it, it's nice to know that there are a few of us who still show 
senatorial courtesies, and both the senior senator from 
Mississippi and the senior senator from West Virginia 
constantly show those courtesies, and I appreciate that.
    Mr. Secretary, I enjoyed chatting with you this morning 
earlier. Sometimes people forget that, along with all the 
serious matters, we have even more serious matters, like how 
are the children, how are the grandchildren, and a lot of 
things like that to catch up on. And of course, I see the Under 
Secretary both in this committee and also in the Judiciary 
Committee. And I told you before, you have one of the most 
challenging jobs in the Department of Homeland Security, and I 
am grateful for your accessibility to Congress during the 
Department's first year. There were some who thought when you 
formed the new department you would no longer want to be 
accessible, and I think your own experience here on the Hill 
does you well, because you have always been accessible.
    I told you when you first took the job you were lucky 
because you would be inheriting a number of fine employees in 
my home State of Vermont where we have a very substantial 
presence. You told me at that time you would make good use of 
them, and you have kept your word. I am particularly pleased 
that you and Michael Garcia, who also traveled with you to 
Vermont, have recognized the tremendous value of the Law 
Enforcement Support Center, LESC, in South Burlington, Vermont. 
This LESC provides information to State and local police 
departments throughout the Nation regarding immigration status 
and identities of aliens suspected, arrested or convicted of 
criminal activity, and operates 24 hours a day 7 days a week.
    I was over there after a large snowfall and someone said, 
what do you do in a case like this where you have close to 3 
feet of snow that fell in the last 24 hours. And they said, 
well, you know, what do you do about getting to work? And they 
said what do you mean, this shift comes in at this time and 
this shift comes in at this time. I think it took them a while 
to realize that the people from out of State were asking what 
do you do about the snow. Well, you shovel it and you go to 
work. But, the other thing that was most interesting was that 
they accept the dedication and responsibility for the country, 
and I know it makes me very happy and I'm sure it does you and 
the others.
    I joined Mr. Garcia last August to announce expanding 
capabilities in the LESC and I look forward to continue working 
on this project.
    I have a couple concerns and I will submit some questions 
on the record. I'm concerned about the Department's response to 
those who fled Haiti in recent weeks. I think Haitians 
intercepted at sea receive entirely different screening. All 
interdicted Cubans are individually interviewed regarding fear 
of persecution. I understand that only those Haitians who 
loudly protest, the so-called shout test, receive such an 
interview. And when you see on the television news every night 
Haitians being shot down in the street, you have to have some 
concern. I understand also the Department intends to continue 
regular deportation proceedings against Haitians in the United 
States, notwithstanding the strife and basic lack of law and 
order in Haiti. I join with Senators Kennedy and Durbin and 
will have some questions on that.
    Secondly, I know Congress has set an October deadline for 
Nations who take part in the visa waiver program to include 
biometric identifiers in their passports. It is a very helpful 
thing to have but I understand that only a small handful of the 
27 countries that are participating in the program are expected 
to meet the deadline. As a result, visitors from these 
countries will need to either obtain visas, which would 
dramatically increase the workload here and abroad for our 
officials and certainly would dramatically impact tourism, and 
might lead to reciprocal action against American travelers. One 
of my questions will be whether we should extend that deadline, 
or whether you think such an extension would compromise our 
security.
    And lastly, I know that you're working to meet another 
deadline that Congress has established, the December 31st 
deadline for screening travelers in our 50 busiest land port of 
entries. Many worry whether that can be done, and whatever you 
want to add on to that I would appreciate.
    Mr. Chairman, as I mentioned, very soon I have to go to 
another committee, but again, the Under Secretary has always 
been responsive in questions and so with your permission, I 
will insert something for the record.
    Senator Cochran. Without objection, it will be printed in 
the record. We appreciate you being here and your work for this 
committee.
    The subcommittee has received statements from Senators 
Campbell and Hollings which will be placed in the record.
    [The statements follow:]

         Prepared Statement of Senator Ben Nighthorse Campbell

    Thank you Mr. Chairman and I'd like to thank our witnesses for 
taking the time to come talk to us today.
    My constituents and the entire Nation are looking to this Committee 
to provide the necessary funds to protect those who travel our 
country's skies, seas, rails, and roads. It is your directorate that is 
responsible for making sure that law enforcement officials and first 
responders have the technology they need to ensure our country's 
safety.
    This country is the world leader in technology development and that 
is to our advantage when protecting the nation. But as I fly back to 
Colorado every weekend, and wait in line at the baggage screeners and 
walk through the metal detectors, I wonder if these procedures really 
ensure my safety. I wonder if we are really using the best technology 
available.
    Colorado is the home of many small technology companies that, in my 
view, have developed a number of cost-effective, time saving, and life 
saving technologies that I am certain have not yet gotten into the 
right hands. I have done my best to send them to meet with your 
directorate, but I don't know the extent of their success. I hope that 
you will elaborate on how you work with small technology firms.
    I also know that with some of the technology chosen, that you are 
doing your best to watch the bottom line. But when you are doing the 
job of equipping those who protect us, shouldn't they have the best 
technology available, not just the cheapest?
    I support every dollar that Congress has given to the Department of 
Homeland Security. I believe that we have made great advancements 
quickly by upgrading security procedures, response plans, and better 
training personnel to react and respond in times of need. But I think 
that we need to pay more attention to whether this money is being put 
to the best use possible.
    Again, thank you, Mr. Chairman. I look forward to hearing the 
testimonies of our guests and I will have a number of questions to ask 
at the appropriate time.
                                 ______
                                 

            Prepared Statement of Senator Ernest F. Hollings

    I am pleased that the Department of Homeland Security has taken 
administrative control of the Federal training facility in Charleston. 
As you know, a temporary overflow training facility for basic training 
of Border Patrol recruits started in 1996 at the old Navy Base in 
Charleston. Legislation we passed here in Congress drastically 
increased the Border Patrol training needs, as it significantly 
increase the number of agents deployed to protect our borders. The 
Charleston facility was due to close in 2004, but through the fiscal 
year 2003 Commerce, Justice and State Appropriations Bill, we 
officially designated Charleston as a permanent Federal training 
center.
    We also secured funding--over $14 million--for the Charleston 
Border Patrol Academy to improve the infrastructure for the training 
center. After we committed to these improvements, the Department of 
Homeland Security took ownership of the facility through the Federal 
Law Enforcement Training Center (FLETC), which suited me.
    After a year of cooperation, coordination and our support the Coast 
Guard Maritime Law Enforcement Academy was officially established in 
February 2004 at FLETC-Charleston by the Coast Guard Commandant. We 
have been able to direct some important functions to Charleston, and 
this is one of them.

    Senator Cochran. Mr. Secretary, we have your prepared 
statement, which we appreciate your submitting to the 
committee. It will be printed in the hearing record, and we 
invite you to make any remarks you think will be helpful to the 
committee's understanding of this budget request. You may 
proceed.

              STATEMENT OF UNDER SECRETARY ASA HUTCHINSON

    Mr. Hutchinson. Thank you, Mr. Chairman, and Senators Byrd 
and Leahy, thank you for your gracious comments this morning. 
We appreciate what I view as a partnership with this committee, 
your counsel, advice, and admonitions from time to time are 
helpful, and certainly we receive those with appreciation. I 
also want to thank the committee for most recently approving 
the US VISIT fiscal year 2004 spend plan that allows us to move 
forward. Thank you for your prompt action on that request and 
again, the admonitions that you gave.
    With your support, I believe we have made some significant 
progress toward meeting our congressional mandates for homeland 
security and for meeting the expectations of the American 
people. The $16 billion budget request for BTS marks a 10 
percent increase over the 2004 budget and is a reflection of 
this President's commitment to border security, transportation 
security, and other areas of enforcement within my arena.
    BTS, as you know, has a number of agencies within it. It 
comprises the largest directorate with 110,000 employees that 
are doing an outstanding job day in and day out. If you look 
back over the last year, one of the major initiatives that we 
have carried out would be strengthening our border security 
through the one face at the border initiative--training 
officers to perform three formerly separate inspection 
functions. We've also expanded the container security 
initiative, and the Customs-Trade Partnership Against Terrorism 
program provides security in the global supply chain.
    I believe that we have increased the safety of air travel 
by increasing the effectiveness of the Federal Air Marshal 
program, establishing a Federal flight deck officer program, 
increasing the baggage screening efforts, developing a 
comprehensive air cargo security plan, and new requirements in 
that regard. We have developed new technologies such as US 
VISIT and the SEVIS, or the program that identifies and tracks 
foreign visitors and students. We have pursued and increased 
our investigatory capabilities for identifying, apprehending 
and removing those who violate our immigration laws, illegally 
employ undocumented workers, and traffic in human cargo.
    So, we have done a number of things through the last year, 
including increasing our training capabilities through the 
Federal Law Enforcement Training Center. If you look at the 
2005 budget that the President has submitted, it continues to 
build upon this foundation by increasing our efforts to secure 
our borders and our transportation systems.
    Under the Customs and Border Protection budget we seek an 
overall increase of $223 million, including a $25 million 
increase for the container security initiative that allows us 
to do a more expansive job of prescreening cargo before it 
reaches our shores. It provides for a $15 million increase in 
the Customs-Trade Partnership Against Terrorism program. A $20 
million increase for improvements in the National Targeting 
Center, which has been a very effective risk assessment tool 
for arriving international air passengers and shipment of goods 
to our country. Our US VISIT program will continue to work to 
complete the first increment of US VISIT, as well as expand its 
capabilities to the 50 busiest land ports, and the budget that 
has been submitted for fiscal year 2005 is consistent with the 
development of that program.
    To date, the program has had a significant amount of 
success in increased security with 125 criminal watch list 
alerts, 51 criminal apprehensions, and we have processed over 2 
million visitors since January 5.
    Across BTS agencies over $100 million has been requested 
for detection systems between our ports of entry, including 
expansion of the P-3 aircraft which provide important detection 
and monitoring capabilities. We've continued to build on our 
aviation security with a TSA budget that has an increase of 
$892 million, which is 20 percent over the comparable 2004 
level, and includes $20 million for credentialing systems such 
as the transportation worker identification card, hazardous 
materials transporters, and foreign student pilots. It includes 
funding for the CAPP II program and very importantly, $159 
million to enhance the training programs for our screener 
personnel.
    I'm very pleased with the submission on the ICE budget that 
provides an increase of $300 million over 2004 that will allow 
us to enhance our enforcement efforts, including $10 million to 
support the new Visa Security Unit program that will help us 
overseas to add a security perspective to the visa issuance in 
working with the State Department. We've enhanced by $23 
million our capability for investigations performed by special 
agents devoted to immigration enforcement, including 
establishing stronger work site enforcement, consistent with 
the President's proposal for a temporary worker program. It 
also includes $100 million for increase in detention and 
removal of illegal aliens, a very important part of our 
efforts.

                           PREPARED STATEMENT

    Finally, the Department's infrastructure is supported by 
the investment in the Federal Law Enforcement Training Center 
to support our security and training programs, not just for 
homeland security agencies, but for a broader range of Federal 
law enforcement agencies that utilize its services. The budget 
request provides for a $5 million increase in funding for that 
agency.
    So with that outline, Mr. Chairman, I look forward to the 
discussion this morning and look forward to the continued 
cooperation with this committee.
    [The statement follows:]

                  Prepared Statement of Asa Hutchinson

    Mr. Chairman, Senator Byrd and Members of the Subcommittee: I am 
honored and pleased to appear before the Committee to present the 
President's fiscal year 2005 budget for the Border and Transportation 
Security (BTS) Directorate. I want to thank you for your strong support 
of BTS components, especially for the resources you provided in fiscal 
year 2004, and look forward to working with you in the coming months on 
our fiscal year 2005 budget.
    The $16 billion BTS request represents a 10 percent increase in 
resources over the comparable fiscal year 2004 budget, and reflects the 
Department's strong and continued commitment to the security of our 
homeland. The fiscal year 2005 budget is a $1.5 billion increase over 
fiscal year 2004, and it includes funding for new and expanded programs 
in border and port security, transportation security, immigration 
enforcement, and training.
    The Border and Transportation Security Directorate made great 
strides during the first year of operations. Over 110,000 employees and 
a budget of $14 billion were reassembled and brought under BTS. The 
Directorate was quickly established and successfully began operations 
on March 1, 2003--bringing together the legacy agencies and programs 
that now make up BTS--Customs and Border Protection (CBP), Immigration 
and Customs Enforcement (ICE), Transportation Security Administration 
(TSA), Federal Law Enforcement Training Center (FLETC), and the United 
States Visitor and Immigrant Status Indicator Technology (US VISIT) 
program. Customs, border, immigration, transportation security and 
training activities have been rejuvenated under their new agencies, 
increasing the effectiveness of our dedicated employees. BTS continues 
to create new ways to enhance security by sharing information and 
intelligence and by coordinating operations within the Department among 
levels of governments, and horizontally across agencies and 
jurisdictions. Through the hard work of our dedicated and talented 
employees, America is more secure and better prepared than we were 1 
year ago.
    In addition to the stand-up of the Directorate, we have achieved 
many results since our creation, including:
  --providing fused and enhanced security coordination among our 
        components and other Federal, State and local security 
        providers and stakeholders, especially during Operation Liberty 
        Shield and the recent holiday season, including the 
        establishment of the Transportation Security Coordination 
        Center (TSCC) to coordinate intelligence sharing and command 
        and control activities for our national transportation sector;
  --strengthening border security through the ``One face at the 
        border'' initiative, which is cross-training officers to 
        perform three formerly separate inspections--immigration, 
        customs, and agriculture--allowing us to target our resources 
        toward higher risk travelers;
  --expanding the container security initiative (CSI) and Customs-Trade 
        Partnership Against Terrorism (C-TPAT) to provide improved 
        security to the global supply chain;
  --instituting new cutting edge systems, like US VISIT, to identify 
        and track foreign visitors and students, recording the entry 
        and exit of foreign visitors to strengthen our immigration 
        system;
  --safeguarding air travel from the terrorist threat by: increasing 
        the presence of Federal Air Marshals, establishing a Federal 
        Flight Desk Officer program, instituting 100 percent checked 
        baggage screening, issuing new regulations for enhanced air 
        cargo security, expanding the use of explosives detection 
        canine teams, checking names of master cockpit air crew lists, 
        and streamlining and training Federal passenger and baggage 
        screeners deployed at airports across the Nation;
  --eliminating potential weaknesses in security by suspending transits 
        without visa (TWOV);
  --negotiating an agreement with the European Union with respect to 
        Passenger Name Record (PNR);
  --negotiating a memorandum of understanding with the Department of 
        State to ensure a coordinated and increasingly effective visa 
        issuance process; and
  --establishing a visa security office to provide oversight and 
        guidance on Section 428 of the Homeland Security Act, including 
        establishing two offices in Saudi Arabia to review 100 percent 
        of visa applications;
  --standing up a SEVIS tiger team to process foreign students during 
        the summer 2003 back-to-school season; and
  --effecting improvements in security capabilities, capacity, 
        training, and infrastructure.

Fiscal Year 2005 Budget Request
    The fiscal year 2005 budget for the Directorate builds upon the 
significant investments and accomplishments effected and in progress.

Strengthening Border and Port Security
    Securing our border and transportation systems continues to be an 
enormous challenge. Ports-of-entry (POE) into the United States stretch 
across 7,500 miles of land border between the United States and Mexico 
and Canada, 95,000 miles of shoreline and navigable rivers, and an 
exclusive economic zone of 3.4 million square miles. Each year more 
than 500 million people, 130 million motor vehicles, 2.5 million 
railcars, and 5.7 million cargo containers must be processed at the 
border and POE.
    In fiscal year 2003, CBP processed 412.8 million passengers and 
pedestrians arriving in the United States--327 million at land borders, 
70.8 million at international airports, and 15 million at sea ports. 
The fiscal year 2005 CBP budget seeks $2.7 billion for border security 
inspections and trade facilitation at ports of entry and $1.8 billion 
for border security and control between ports of entry.
    During fiscal year 2005, we will continue to strengthen our border 
and port security. The CBP budget seeks an overall increase of $223 
million to maintain and enhance border and port security activities, 
including the expansion of pre-screening cargo containers in high-risk 
areas and the detection of individuals attempting to enter the United 
States illegally.
    Specifically, the budget includes an increase of $25 million for 
the Container Security Initiative (CSI) which focuses on pre-screening 
cargo before it reaches our shores, and an increase of $15.2 million 
for Customs Trade Partnership Against Terrorism (C-TPAT). C-TPAT 
focuses on partnerships all along the entire supply chain, from the 
factory floor, to foreign vendors, to land borders and seaports. As of 
late January 2004, nearly 3,000 importers, 600 carriers, and 1,000 
brokers and freight forwarders are participating in C-TPAT, surpassing 
the Department's original goal of participation of the top 1,000 
importers.
    As well as continuing development for secure trade programs, the 
budget also seeks an increase of $20.6 million to support improvements 
for the National Targeting Center and for multiple targeting systems 
that focus on people, cargo and conveyances. These systems use 
information from diverse sources to provide automated risk assessments 
for arriving international air passengers, shipments of goods to our 
country, and land border passenger traffic.
    The United States Visitor and Immigrant Status Indicator Technology 
(US VISIT) program's goals are to enhance the security of our citizens 
and our visitors; facilitate legitimate travel and trade across our 
borders; ensure the integrity of our immigration system; and respect 
the privacy of our welcomed visitors. US VISIT represents a major 
milestone in our efforts to reform our borders. We deployed the first 
increment of US VISIT on time, on budget, and met the mandates 
established by Congress, including biometric capabilities ahead of 
schedule. The budget seeks a total of $340 million in fiscal year 2005, 
an increase of $12 million over the fiscal year 2004 level for the 
program. As of late February, over 1.5 million foreign nationals had 
been processed for entry, generating 125 watch list alerts, and 
resulting in 51 criminals apprehended. The 2005 funding will further 
strengthen border security, and enable modernization of border 
management systems and capabilities. Specifically, funding will be used 
to expand the entry system to 115 land POEs, beyond the busiest 50 that 
will be covered by the US VISIT program in fiscal year 2004. Funding 
will also be used to expand implementation of an exit solution at our 
air and seaports. Alternatives are being developed and tested, and will 
be implemented at 80 airports and 14 seaports in fiscal year 2004.
    Within the BTS component budgets, over $100 million is included for 
detection systems, a critical element in the war on terrorism. The CBP 
budget seeks an increase of $64.2 million to enhance land-based 
detection and monitoring of movement between ports, and $10 million to 
deploy and operate unmanned aerial vehicles. In order to protect the 
homeland against radiological threats, the CBP budget seeks $50 million 
for radiation detection monitors and equipment. The ICE budget request 
includes an increase of $28 million to increase the flight hours of P-3 
aircraft by 200 percent. In addition to providing vital detection and 
monitoring capabilities in the source and transit zones containing 
mountainous terrain, thick jungles and large expanses of water, the P-3 
provides an important capability for domestic airspace security 
missions.

Improving Aviation Security
    We have made great strides in rebuilding and reinvigorating of our 
aviation transportation security system. We have made significant 
investments in baggage screening technology--over $2 billion to 
purchase and install Explosives Detection Systems machines (EDS) and 
Explosives Trace Detection machines (ETD) to the nation's airports--and 
established a robust technology research and development program. We 
have deployed 45,000 Federal passenger and baggage screeners at the 
Nation's airports, expanded the National Explosives Detection Canine 
Team program, and trained pilots to be Federal Flight Deck Officers.
    The fiscal year 2005 TSA budget seeks an increase of $892 million 
to enhance transportation security, a 20 percent increase over the 
comparable fiscal year 2004 level. Specifically, to strengthen 
interwoven, concentric layers of transportation security, the budget 
requests increases of $20 million for credentialing systems (i.e., 
Transportation Worker Identification Credential, Hazardous Materials 
transporters, and foreign student pilots); $25 million for operating 
the Computer Assisted Passenger Prescreening II System; and $113 
million to and improve screener performance through training and the 
deployment of information technology. A substantially improved air 
cargo security and screening program was implemented last year, and the 
$85 million request sustains funding to continue program enhancements 
and associated air cargo screening technology research and development. 
We are providing another $400 million for EDS equipment to improve 
airport operational efficiency.

Enhancing Immigration Security and Enforcement
    The ICE budget request of $4 billion, which is an increase of $300 
million over the fiscal year 2004 level, seeks to strengthen 
immigration security and enforcement. Comprehensive immigration 
security and enforcement extends beyond efforts at and between the 
ports-of-entry into the United States. It extends overseas, to keep 
unwelcome persons from arriving in our country, and removing persons 
now illegally residing in the United States. Pursuant to section 428 of 
the Homeland Security Act, and the Memorandum of Understanding between 
the Departments of Homeland Security and State, the ICE fiscal year 
2005 budget request of $14 million includes an increase of $10 million 
to support a new visa security unit (VSU). The BTS personnel stationed 
at overseas posts, including Saudi Arabia, will continue to work 
cooperatively with U.S. Consular Officials to enhance security and the 
integrity of the visa process.
    As announced on January 7, 2004, the Administration is committed to 
enhanced immigration integrity and border security. My Directorate will 
be working to implement a program that meets those goals, while 
benefiting the economy. Current ICE immigration enforcement programs 
and the enhancements in the fiscal year 2005 ICE budget request support 
and are consistent with a number of elements in this initiative, 
particularly worksite enforcement. Specifically, the fiscal year 2005 
request includes an increase of $23 million to more than double the 
number of investigations currently performed by ICE--providing an 
additional 200 investigators. With these resources, ICE will be able to 
facilitate the implementation of the President's temporary worker 
program initiative by establishing a traditional worksite enforcement 
program that offers credible deterrence to the hiring of unauthorized 
workers.
    The request also includes nearly a $100 million increase for the 
detention and removal of illegal aliens. Detention and Removal of 
illegal aliens present in the United States is critical to the 
enforcement of our immigration laws, and the requested funding will 
expand ongoing fugitive apprehension efforts, the removal from the 
United States of jailed illegal aliens, and additional detention and 
removal capacity.
    As part of our overall immigration enforcement strategy, ICE will 
continue to analyze data generated through the Student and Exchange 
Visitor Information System (SEVIS) and US VISIT program to detect 
individuals who are in violation of the Nation's immigration laws and 
pose a threat to homeland security. The fiscal year 2005 budget 
requests $16 million to support these compliance efforts.
    Immigration fraud poses a severe threat to national security and 
public safety because it enables terrorists, criminals, and illegal 
aliens to gain entry and remain in the United States. An aggressive, 
focused, and comprehensive investigations and prosecutions program will 
detect, combat and deter immigration fraud. The $25 million included in 
the fiscal year 2005 budget will provide stable funding to the benefits 
fraud program by replacing funding previously provided through the 
Immigration Examinations Fee Account.

Building Departmental Infrastructure
    The fiscal year 2005 request includes an increase of $5 million for 
the Federal Law Enforcement Training Center to support our security 
program enhancements and capability sustainment. The FLETC not only 
serves Federal client groups, but also provides training to State and 
local law enforcement providers. In addition, to enhance global law 
enforcement efforts, FLETC develops and offers a curriculum that 
includes international applications.
Conclusion
    Our homeland is safer and more secure than it was a year ago, 
thanks in part to the dedicated and talented team we have in BTS which 
excels at coordinating and effecting cross-component activities. 
Through their efforts, and with the support of our partners in 
government and the public and private sectors, we will continue to 
substantially improve our nation's security. I thank the Congress for 
its support, which has been critical to bringing us to this point. With 
your continued support for our fiscal year 2005 budget, we will 
continue to improve the security of our nation.
    I am grateful to be here today to outline our efforts for a safer 
and more secure America. Thank you for inviting me to appear before you 
today, and I look forward to answering your questions.

                                US VISIT

    Senator Cochran. Thank you very much, Mr. Secretary.
    Last week President Bush met with President Vicente Fox of 
Mexico and announced that citizens of Mexico who hold border 
crossing cards and are frequent visitors will not have each 
entry recorded into the US VISIT database. Can you tell us more 
about how this new policy will be implemented by your 
directorate?
    Mr. Hutchinson. Thank you, Mr. Chairman. I would emphasize 
that for those who have a border crossing card, we already have 
their fingerprints in our database and they have undergone a 
terrorist screen or a security screen in order to be able to 
receive this border crossing card. And, if they would utilize 
this card for long-term visa purposes they would be enrolled in 
US VISIT just like our visitors are at the airports. It will 
take us a little bit longer to develop a program in which we 
can record each entry and exit and we hope to utilize radio 
frequency technology to pilot and to develop that capability. 
Our concern, of course, would be that with over 100 million 
crossings of Mexicans using this laser visa or border crossing 
card, it would be difficult to enroll each one of them in US 
VISIT under the current circumstances. So, that is the 
consideration for not tracking them in that fashion but rather, 
using it as we have at our airports and seaports, for those who 
would utilize it as a regular visa to stay in our country for a 
longer period of time.
    Senator Cochran. The budget states that an exit capability 
is expected to be deployed at up to 80 airports and 14 seaports 
this year. Can you give us a report on the exit pilots that are 
currently running as a part of US VISIT?
    Mr. Hutchinson. Yes, Mr. Chairman, and before I answer that 
specifically, I want to emphasize that we have an exit 
capability for all our airports and seaports through the APID 
or advanced passenger information database, transmitted from 
the airlines. So, we have a record of the departure of those 
people who would be foreign citizens leaving our country. 
Therefore, we could track whether they have overstayed their 
visas or not. So we have that capability biographically. What 
we are piloting in the Baltimore International Airport is an 
exit capability that will also biometrically confirm their 
departure from this country.
    It is being piloted in Baltimore and thus far, it has been 
a very successful program. I heard testimony from the airport 
director there who applauds the program and the cooperation we 
have had, and particularly the fact that we have personnel 
there that will help a foreign visitor to utilize the system.
    We are piloting other different ways to implement an exit 
procedure. Those will be developed and put into place by June 
of this year, so by the end of this year we hope to have a 
complete evaluation of what is the best exit procedure for our 
airports that would expand upon our current biographical 
capability.
    Senator Cochran. The US VISIT program office is reviewing 
the proposals for the prime integration contract. What are the 
plans to meet the deadline for deploying the entry and exit 
capabilities to the 50 busiest land ports by the end of this 
calendar year?
    Mr. Hutchinson. We do anticipate that the integrator 
contract would be awarded in the May time frame. That still 
leaves us a significant amount of time to utilize their 
capabilities. But in the meantime, through our US VISIT program 
office we're able to continue to deploy to the 50 busiest land 
ports our exit solution that would be used as secondary, 
similar to what we're doing at our airports. And so a great 
deal of work can be done to fulfill the mandate this year even 
before the integrator is brought on board. What they will 
primarily focus on would be looking at the radio frequency 
technology and how that can be used to quickly track the entry 
and exit without clogging those borders. We have some 
preliminary ideas, but the integrator support will be very 
critical in developing a final solution on that.
    Senator Cochran. Senator Byrd, I'm prepared to yield to you 
for any questions you have. I noticed the presence of the 
distinguished senator from New Hampshire. Before proceeding, I 
was wondering if you could yield to him for any opening 
statement.
    Senator Byrd. Yes, I would like to hear his opening 
statement.
    Senator Gregg. I have no opening statement, Mr. Chairman.
    Senator Cochran. Senator Byrd.

                                  TSA

    Senator Byrd. Thank you. Mr. Secretary, your TSA budget 
proposal for 2005 requests just $143 million out of a total 
request of $5 billion for non-aviation related activities. The 
Aviation and Transportation Security Act requires that the TSA 
protect all modes of transportation, not just aviation. Take 
mass transit for an example.
    On February 6, individuals opposed to policies of the 
Russian government exploded a bomb deep inside a tunnel of the 
Moscow subway system, killing more than 40 people. The Tokyo 
subway was attacked with sarin gas in 1995. Subsequent analysis 
of the attack concluded that up to 8,000 deaths could have 
occurred if the attack had been executed as planned. We should 
not focus all of our attention on the threats posed by the 9/11 
attacks. There continues to be significant threats to the New 
York City Subway System, the Washington Metro, the Chicago 
Transit Authority, and other mass transit systems.
    In testimony to the Senate Intelligence Committee on 
February 24, FBI Director Mueller stated that our 
transportation systems across the country, particularly the 
subways and bridges in major cities, as well as airlines, have 
been a continual focus of al Qaeda targeting. Despite this 
reality, there is a huge disparity between what you have 
requested for aviation, compared to what you have requested for 
the other modes of transportation.
    You have made no proposal for mass transit security grants, 
no request for bus security grants, no request for truck 
security grants, and port security grants, have been reduced 
from the $124 million which Congress provided to only $46 
million, and the Department proposed to transfer away from TSA 
that remaining grant program to an agency with no 
transportation security expertise.
    Now, how can you fulfill the mandate of protecting all 
modes of transportation without requesting funds for this 
purpose? Given what you are proposing, how do you intend to be 
accountable to the American people for ensuring transportation 
security?
    Mr. Hutchinson. Thank you, Senator Byrd, and we agree with 
your concerns about the other modes of transportation and that 
they should not be neglected. We are looking at a different 
type of relationship and solution for the other modes of 
transportation versus our 100 percent inspection regime, a 
focus in aviation security. And so at TSA, we do have a 
relationship with the different modes of transportation. We are 
working on assessments and standards setting. We're working 
with other directorates and other agencies to accomplish the 
security that you highlighted.
    For example, the subways, that is a transportation system 
with a number of players in that arena, including the IAIP 
directorate, or Information Analysis and Infrastructure 
Protection directorate, and our Science and Technology 
directorate, looking for some technological solutions to help 
detect and prevent those type of harmful attacks. And so we are 
coordinating our efforts with them, as well as working with our 
TSA officials who have that standard setting responsibility. We 
will continue to develop that relationship and seek additional 
funding as is necessary to expand that mission.
    Senator Byrd. Mr. Secretary, you haven't answered my 
question. I'm concerned about the lack of funding for the 
security of those other modes of transportation. I listened 
very carefully, but I didn't get an answer to my question.
    Mr. Hutchinson. Would you like me to proceed again, Senator 
Byrd?
    Senator Byrd. Yes. Would you like me to ask the question 
again?
    Mr. Hutchinson. I think I got the gist of the question. We 
have a staff at headquarters of 120 inspectors. They are 
charged with the responsibility of looking at these other modes 
of transportation, working with local communities, setting 
standards for them, and working with other agencies--for 
example, the Department of Transportation. We are protoneuron 
with the industry stakeholders as well for information sharing 
with regards to threats to these different modes of 
transportation. We are looking to the Science and Technology 
Directorate to identify the security threat and developing the 
technology that would help detect those hazardous materials 
threats to our subway systems. And the same is true for the 
other modes of transportation that you mentioned.
    Senator Byrd. I don't think I got the answer yet. I'll ask 
the question again. You may not want to answer it, and I say 
this respectfully to you.
    Your TSA budget proposal for fiscal year 2005 requests only 
$143 million out of a total request of $5 billion for non-
aviation related activities. The Aviation and Transportation 
Security Act requires the TSA to protect all modes of 
transportation, not just aviation. How can you fulfill the 
mandate of protecting all modes of transportation without 
requesting funds for this purpose? Given what you are 
proposing, how do you intend to be accountable to the American 
people for ensuring transportation security?
    I believe it is a mistake to weaken the non-aviation 
functions of TSA. On February 25, Congressman Sabo and I wrote 
to Secretary Ridge and urged him not to transfer the TSA grant 
programs, port security grants, truck security grants, bus 
security grants, and Operation Safe Commerce, as well as FEMA's 
Emergency Management Performance grants from TSA to the offices 
of State and local government coordination. The deadline for 
making that transfer could be as early as March 26th, and I 
want to personally make the same points to you. I urge you and 
the Secretary to give serious consideration to the concerns 
expressed in our letters.
    Mr. Hutchinson. And Senator Byrd, I very respectfully agree 
with your concerns and clearly you could look at this as a 
comprehensive solution to security, we're looking at a shared 
responsibility in that regard, and not exclusively that of TSA. 
And we are still sorting through some of that division of 
responsibility. But we believe that the budget allows 
sufficient support from a headquarters level of the standard 
setting, the regulations that need to be looked at, and the 
partnership that we might have with the Department of 
Transportation and with the Coast Guard, who has a major role 
in the mission of port security.
    Now, I realize that there has been some concern expressed 
about the transfer of the grant programs from TSA to the State 
and local administration within the Department, but I have been 
assured and feel confident that we are implementing the steps 
necessary to make sure that the TSA expertise on port security 
is utilized for the administration of those grants.
    Senator Byrd. Mr. Chairman, may I ask another question at 
this point or do you wish to proceed?
    Senator Cochran. Senator Byrd, we've taken up just about 
between 10 and 15 minutes in this round, and I was going to 
recognize Senator Gregg for any questions, and then we have a 
chance for another round.
    Senator Byrd. Thank you.
    Senator Cochran. Senator Gregg.

                                US VISIT

    Senator Gregg. Thank you, Mr. Chairman, and thank you, 
Senator Byrd, for your courtesy. Mr. Secretary, the US VISIT 
program is obviously the core to your effort to try to get some 
control over who's coming into the country and you have already 
explained the program. As I understand the program, basically 
there will be two fingerprints taken, the thumb and----
    Mr. Hutchinson. Two index.
    Senator Gregg. The index fingers of both hands, and that 
will be electronically and digitally taken. And here's my 
question. We spent in another committee, CJS, which I chair, 
and it's a fabulous facility up in West Virginia, a huge amount 
of money, literally hundreds of millions if not billions of 
dollars on developing a fingerprint database for the Nation 
called IAFIS, which is under the control of the FBI. It's my 
understanding that the US VISIT fingerprints will not be 
compatible with that database, that the manner in which the 
fingerprints are being taken is not compatible, without a 
significant amount of increased work load. In other words, the 
turnaround time on an IAFIS fingerprint is very brief. If 
you're fingerprinted under the IAFIS system it's almost an 
instantaneous turnaround time. If you're fingerprinted under 
your system it's 35 times longer, assuming you can do the 
workload at all to get that fingerprint confirmation back, and 
really the two systems aren't compatible, they simply aren't 
compatible.
    I guess my question to you is why would we set up--I can 
understand that you don't want to make getting into and out of 
the country too complicated and that's why you probably went to 
the two-finger fingerprinting and a flat screen versus a rolled 
approach, which is what the IAFIS was built on. But why did we 
spend all this money to create this database if you folks 
aren't going to structure a system that takes advantage of it?
    Mr. Hutchinson. Thank you, Senator Gregg. And first, I have 
had numerous conversations with the FBI and the head of their 
fingerprint division, and we certainly want to move in 
coordination with each other. But for example, the IAFIS system 
has 44 million prints in it, most of them of U.S. citizens, 
many of them whose crimes have expired, and just a whole host 
of reasons that they might be in there. As our US VISIT program 
is developed, it is not designed for U.S. citizens but for 
foreign visitors. So we take a slice of what is in the IAFIS 
database and put it in our IDENT system so that it can be 
checked, so there is that limited capability. Now as we expand 
our program, hopefully there will be more connectivity there.
    But in addition right now, to connect to IAFIS you have to 
have 10 rolled prints, and we cannot have 10 rolled prints at 
our ports of entry because of processing time as people come 
in. As the technology develops so that we can perhaps have 10 
or 8 scanned prints in a quick fashion, then we hope to be able 
to gravitate to that, so we can then interconnect with the 
IAFIS. But it is a problem not just for the US VISIT, but also 
the State Department, because they have deployed technology 
overseas for the two index fingers since that was the agreement 
between the Attorney General, the Secretary of State, and the 
Secretary of Homeland Security.
    So it is a process issue because of the time constraints. 
It is a systems issue in terms of what it takes to interact 
with the IAFIS program. And it's a technology problem that we 
hope technology will be able to help us with in the coming 
years. In terms of the processing time, it takes us 8 seconds 
for our two digital fingerprints to get a response from our 
system. It would not be any different if we were connecting it 
to the IAFIS system. And if there is a question where we 
connect with secondary, where we can connect with IAFIS, we can 
take the rolled prints as to any additional information that we 
need from them.
    Senator Gregg. What you're saying is that we're building 
from scratch a new system which is going to be essentially 
independent of IAFIS in that they won't be able to access IAFIS 
directly. Yes, there are 44 million fingerprints in IAFIS, 
which is one heck of a database, and obviously the vast 
majority of them are American citizens who have somehow come 
into a position where they would be subject to that scrutiny. 
But a huge percentage, a huge number are international 
fingerprints, and I just, it's going to be hard for me as a 
legislator if we have an event in this country and an 
individual comes into this country who went through the US 
VISIT program, got fingerprinted, but didn't show up because 
your program doesn't have a big enough database yet to pick the 
person out. We find out after the person has done some 
destructive event in this country that that person's 
fingerprints are sitting there at IAFIS and we knew that he was 
a bad guy.
    So I understand the technology problem. I understand the 
practical problem of having to roll everybody coming into the 
country. And I can see where you made the decision and that you 
know, you're going to have to start from scratch building a 
database. But there's got to be a better answer here to getting 
these two converged. If it takes dollars in order to do the 
technology conversions in order to get IAFIS to a digital 
capability where it can handle your type of needs, we'll do it. 
Because quite honestly, your issue is a heck of lot bigger than 
any other issue the FBI has today.
    That fingerprint database of 44 million should be used to 
protect this country against terrorism. That should be its 
primary purpose today. Granted, it was created to protect us 
and deal with criminal events in this Nation, but that isn't 
what it should be used for. It is a huge resource sitting there 
that should be used to protect us from people coming into this 
country to do us harm, and it should be integrated with your 
system, totally integrated.
    And so, I guess your answer to me was, well, we can't 
integrate because we're not there yet. My question to you is 
what do we need to get there and how quickly can we get there?
    Mr. Hutchinson. And that's the right approach to it, 
Senator. We, first of all, are wanting to gravitate to 8 
scanned prints, which would be, I believe compatible for entry 
into the IAFIS system. That will take us some time because 
that's something the State Department has to work on as well, 
and we have to partner with them on the technology.
    Senator Gregg. We can bring the State Department along.
    Mr. Hutchinson. The other suggestion that I would have is 
that we utilize the services of the National Institutes of 
Standards, NIST, that evaluated our system, what its 
capabilities were, and I think that their counsel would be 
helpful in not just looking at what we need to do to make these 
compatible, but who needs to make some adjustments. For 
example, should IAFIS develop a system that does not just 
simply have to take 10 rolled prints. Can they develop a system 
that is interacting to the 8 scanned prints or the 10 scanned 
prints. I hope they would look at that solution as well.
    Senator Gregg. That's fine, NIST is a wonderful technical 
agency and I suppose we could hold a hearing on this, we could 
have CJS and maybe do a joint hearing, and bring all the 
different parties to this fingerprint issue together and try to 
get movement. But we shouldn't have to do that. This 
administration should have a game plan which is in place and 
which is signed off on by the three key parties, State, 
yourself and the FBI, and which says this is the time frame, 
this is the technology changes we have to make, and this is 
what it's going to cost us. You should be coming to us with 
that plan so that we can fund it and we can hold you 
accountable to that time frame. Saying that we should call NIST 
and say well, NIST, will you tell FBI to straighten out, IAFIS 
is not the answer. The answer is that you folks, because you 
are the administration, should be doing this. I mean, that's 
what administrations do. Congresses shouldn't have to do that.
    And I'm really discouraged about this. We spent so much 
time getting this--database up and running and now it's being 
marginalized in the most singly important thing we have to do 
as a country, which is defend ourselves from people coming in 
who are our enemies. It's just very hard for me to figure out 
why we aren't more aggressively pursuing a resolution of those 
issues, rather than you're going your way setting up your 
database and saying well, we can't get into IAFIS because we 
can't roll 10 prints, and the FBI is out there saying they 
can't do it with digital and they aren't going to do two 
prints, and they aren't going to convert their system because 
it's too expensive and too complicated for them to do it. And 
then we're supposed to go call NIST up and say really, who has 
the answer here. You guys should have the answer and it should 
be given to us.
    So what I'm going to ask you for is for you to gather the 
Secretaries of Homeland Security and State and the Attorney 
General, and get us a statement of policy as to how you're 
going to get the FBI fingerprinting databases coordinated so 
that they all are integrated and can communicate with each 
other in a time frame that's going to occur before we're 
attacked again.
    Mr. Hutchinson. Thank you, Senator. That's a fair request 
and we will certainly be delighted to work and develop that 
joint strategy.
    Senator Gregg. Thank you.
    Senator Cochran. Mr. Secretary, just as a way of following 
up on Senator Gregg's questions, I'm curious to know what funds 
the Department intends to dedicate to this project, the 
integration of the systems during fiscal year 2004 and what 
account is being used to fund the project. Do you have that 
information or would you like to submit that for the record?
    Mr. Hutchinson. We probably will supplement the answer that 
I will give now. But first, and as Secretary Ridge testified--I 
believe it was before you, but it might have been the House 
Appropriations subcommittee, is the existing need for 
integration so that the Border Patrol agents can access IAFIS. 
The funding is in place to do that and it is pledged to be 
accomplished by the end of this year, and I think the Secretary 
indicated that we will scrounge around if there needs to be a 
few extra dollars to achieve that goal, but we're committed to 
making sure the information integration with IAFIS is 
accomplished.
    In reference to Senator Gregg's comments and questions, 
that integration will be funded out of the $340 million in 2004 
for US VISIT. That's the budget that we have to work with to 
accomplish objectives of 2004, as well as moving toward any 
integration, and of course, any other funding would come from 
the State Department's budget and the Department of Justice.
    [The information follows:]

          Integration of Database Systems in Fiscal Year 2004

    Therefore, to accelerate the implementation of IDENT/IAFIS 
capability within the Department, we intend to reallocate $4 million of 
the remaining funds provided in Public Law 107-117. The $4 million, 
when combined with fiscal year 2003 funds already provided ($3.5 
million obligated for IDENT/IAFIS as part of increment 1 Entry-Air/
Sea), will allow BTS to implement IDENT with 10 print capabilities in 
secondary processing areas at 115 airports, 14 seaports and 50 of the 
largest land border ports. In addition, this funding will support 
implementation of the IAFIS/IDENT 10 print capability at 70 percent of 
the Border Patrol stations. The remaining land ports of entry, 30 
percent of the Border Patrol stations and major ICE locations (to be 
identified) will receive this capability in 2005.

    Senator Cochran. One observation is that if this project is 
not receiving the support and attention required to get it to 
completion, should a separate project office be set up to 
implement the program?
    Mr. Hutchinson. I would not suggest so. We have a very 
effective project office in US VISIT that has the capability. 
And I don't mean simply to recite challenges in this effort, 
but you know, we had a choice this year of recognizing that we 
could have an added security value by putting our fingerprint 
scanners at our primary ports of entry and we did this, and 
we're looking at when we change it down the road to a broader 
capability, we probably lost a million dollars for those 
fingerprint scanners. So for the added security value, it was a 
good decision to make, but we recognized at the time that we're 
going to have to gravitate to probably 8 prints at a minimum, 
for a number of reasons. So we recognize the need to move to 
that standard and that will be a part of the US VISIT oversight 
responsibilities.
    Senator Cochran. Is there a final deployment schedule to 
roll out version two of the integration project to all Border 
Control facilities or when can these facilities expect the 
roll-out to be completed?
    Mr. Hutchinson. There is, and that will be completed by the 
end of this year. I believe we have IAFIS at 20 Border Patrol 
stations. I think we have about another hundred that are on 
schedule to be given the connectivity to IAFIS, and so that 
should be completed on schedule by the end of the year.
    Senator Cochran. Senator Byrd.
    Senator Byrd. Thank you. I particularly was interested in 
Senator Gregg's and your questions, and the answers.
    Last month a few days after the Democratic primary, the 
President went to Charleston, South Carolina, to crow a little 
about his efforts to improve the security of the ports. I must 
say that I found this kind of a political event to be somewhat 
disingenuous. The President signed the Maritime Transportation 
Security Act on November 14, 2002. That law authorized 
initiatives to improve security at our ports, but I'm not 
convinced that the Administration has done that much since then 
to actually make our ports safer. Given the huge demand for 
port security funds, why is this Administration only requesting 
$46 million to actually secure our ports?

                             PORT SECURITY

    Mr. Hutchinson. Senator Byrd, it's because we believe that 
there is a shared responsibility, both in terms of the private 
sector, and the port authorities, and the Federal Government 
spurs that on, sets the example, funds a significant portion of 
the projects, which I believe that we have done. Last year I 
think there were two rounds of port security grants, so there 
was a very substantial amount that was invested last year, and 
it was a combination of grants to port authorities but also to 
the private sector. But, we do not believe it's exclusively a 
Federal Government responsibility to do all of the port 
security investment, the private sector has a responsibility, 
as well as the governmental port authorities.
    Besides the port grants, we are also investing 
substantially in port security in terms of the activities of 
the Coast Guard, the Customs and Border Protection, and the 
other agency responsibilities related to the ports.
    Senator Byrd. Well, I know that we are going to continue to 
hear that answer. We still inspect less than 5 percent of the 
5.7 million containers that come into our ports each year. The 
President took credit for making available $179 million this 
year in funding for grants for port security. He failed to 
mention that he did not request a dime of those funds. He 
failed to mention that the Coast Guard port directors, who 
actually have responsibility for safety, estimated that $1.25 
billion would be needed in the first year and $5.4 billion 
would be needed over the next 10 years to comply with the new 
Federal regulations mandated by the Maritime Transportation 
Security Act. He failed to mention that last year he opposed my 
amendment to provide $460 million in port security grants. He 
failed to mention that his budget for fiscal year 2005 proposed 
to cut port security grants by 60 percent, from $124 million to 
$46 million, when the last competition for grants resulted in 
over $987 million in applications from ports nationwide.
    Now I'm afraid something terrible is going to happen one of 
these days, and then what will be said? Our ports must compete 
with other ports, including ports in other countries. If these 
security costs result in higher prices, assuming the costs are 
going to have to be borne by industry, are you and the 
President not concerned that business may go elsewhere, costing 
U.S. jobs?
    Mr. Hutchinson. Well, I think that first of all, we've 
discussed significantly the port security grants and the 
philosophy behind the amount that is requested. You also raised 
the question of the fact that only 5 percent of the 6 million 
sea containers are inspected that come into our ports. I think 
this is, again, a philosophical question as to whether you 
inspect 5 percent, 10 percent, 15 percent, or 100 percent. And 
I suppose if we inspected 20 percent of all the cargo, there 
would be those who would argue it ought to be 100 percent, that 
argument exists right now. I think it's a better decision to 
try to make sure we inspect the right 5 percent or right 10 
percent, or whatever that number is, and that we inspect all of 
those, 100 percent of those containers that indicate a risk to 
our Nation.
    So that is the strategy that we're developing. We are not 
underestimating your concerns and what we know as threats to 
our ports. We take that very seriously, and that's why the 
Coast Guard has conducted more than 36,000 port security 
patrols. That's why we have imposed the regulations that 
require the security plans by the vessel operators and the port 
authorities, all to enhance the security, in addition to the 
partnership that we have in the cash investments for port 
security.

                                CAPPS II

    Senator Byrd. Mr. Secretary, the fiscal year 2004 
Appropriations Act included a provision requiring the General 
Accounting Office to review the privacy and security of the 
proposed CAPPS II airline system. The GAO recently submitted a 
report to us that stated that your Department has met only one 
of the eight criteria set out by Congress before you could move 
ahead with deployment of the system. I understand that the 
Department concurs with the GAO's findings. Where is DHS now in 
testing of the CAPPS II system?
    Mr. Hutchinson. Senator, we are actually months away from 
actual testing data for CAPPS II. We are obviously aware of the 
airlines' concern about voluntarily sharing data, so we're 
looking to find a vehicle of having the data that we need to 
query out the testing, and my best estimate would be that we 
are still a number of months away from doing the testing to the 
CAPPS II.
    Senator Byrd. Now that the GAO concluded that your 
Department has not met the requirements of the law, I encourage 
you not to deploy the CAPPS II system until you have satisfied 
for this subcommittee that the requirements of the law have 
been met.
    I have several questions, Mr. Chairman. I could submit 
several of these for the record at your pleasure.
    Last week the Department celebrated its 1-year anniversary. 
To commemorate the event, Secretary Ridge released a list 
touting the Department's major accomplishments in its first 
year and, indeed, much has been accomplished. For instance, his 
press release notes that a seal has been developed to establish 
an identity for the Department. Good. You know who you are and 
for whom you are working. The release also noted that employees 
received a lapel pin signed by the Secretary and featuring the 
new Department seal.

                        IMMIGRATION ENFORCEMENT

    Sadly, no mention is made in the list of the Department's 
accomplishments for the enhanced enforcement of our immigration 
laws. At best, there is a passing reference to the new 
Department's reorganization of the immigration enforcement 
functions. Especially in light of the President's sweeping 
amnesty proposal, I'm surprised that the Department has nothing 
to report as an accomplishment in enforcing our existing 
immigration laws. Many members who were opposed to the creation 
of the Department, like myself, were concerned that the focus 
of the Department and its personnel would shift from 
traditional duties to terrorism. Why is the Department unable 
to point to significant improvements and successes in 
enforcement of existing immigration laws? What specifically is 
your director doing to enhance immigration enforcement?
    Mr. Hutchinson. Thank you, Senator, and I'm grateful for 
the opportunity to reflect on significant achievements in the 
area of immigration enforcement. It is estimated, as you know, 
that there are 8 million illegal workers in this country at the 
present time. It's estimated that 40 percent of those are here 
because of visa overstays. And so whenever you talk about what 
we've done with US VISIT and being able to have a better 
control of those who come into the country and overstay their 
visas, that system is a significant accomplishment in 
immigration control. It produces information on people who 
overstay their visas and stay here in the country illegally.
    We have created an office of compliance within the Bureau 
of Immigration and Customs Enforcement that is responsible for 
receiving the information and providing leads to the field in 
order to determine who should be processed for removal from the 
country. So, that is a huge step forward in immigration 
enforcement.
    In addition, we have successfully implemented the SEVIS 
program, which tracks our foreign visitors coming into this 
country, and in one fall semester, as over 200,000 students 
came into our country, we apprehended over 200 that came in 
here who were not properly accepted into a university. I think 
our country is safer because of that effort.
    We have also, of course, put 1,000 more patrol agents on 
our northern border, and we have increased our resources on the 
southwest border. The chief of police of Phoenix attributed 
immigration enforcement in Arizona and our Operation Ice Storm 
to a successful reduction of violent crime in the Phoenix area.
    And so at every level, from the fugitive operations to 
Operation Predator to Operation Ice Storm, I think we have done 
a very, very significant amount of work in immigration 
enforcement.
    Senator Byrd. Do you miss being in your old job?
    Mr. Hutchinson. Every once in a while I miss being up there 
on the House side.
    Senator Byrd. I think you did a good job. I watched you 
very carefully during the impeachment procedures.
    Mr. Hutchinson. Thank you, sir.
    Senator Byrd. I thought you kept a level head on your 
shoulders. I thank Senator Gregg for raising the issue of 
compatibility between US VISIT and the FBI databases. Chairman 
Cochran and I raised the issue with Secretary Ridge almost a 
year ago.

                          BORDER PATROL: IDENT

    On a related matter, last week the Department of Justice 
Inspector General released a report that examined the case of a 
Mexican citizen who had been detained by the Border Patrol on 
two occasions in January 2002 for illegally entering the United 
States. On each occasion, Border Patrol agents returned him 
voluntarily to Mexico. They did this because IDENT, the 
immigration agency's automated fingerprint identification 
database and the Federal Bureau of Investigation's automated 
fingerprint identification database were not integrated and the 
Border Patrol agents who apprehended him did not learn of his 
extensive criminal record or past deportation. If his full 
history had been learned, according to Border Patrol policies, 
he should have been detained and subjected to prosecution. 
Instead, he was returned to Mexico. Subsequently, he again 
crossed the board illegally, and made his way to Oregon in 
September of 2000 where he raped two nuns and killed one.
    In the report, the Inspector General again found delays in 
the effort to integrate the IDENT and IAFIS databases. While he 
found some progress in deploying an integrated version of 
IDENT-IAFIS, full integration of the two systems remains years 
away. Current projections are that the two systems will not be 
fully integrated until at least August 2008, almost 2 years 
behind the original scheduled completion date. Both the 
Department of Justice and the Department of Homeland Security 
say they recognize that the databases need to be integrated. 
However, the IG report found uncertainty as to who is 
responsible for the overall management of the integration 
project. It states that Justice and Homeland have yet to enter 
into a memorandum of understanding delineating the specific 
roles and responsibilities of each agency in the project.
    Can you give us an update on your plans for developing a 
memorandum of understanding with the Justice Department so that 
this project can move forward?
    Mr. Hutchinson. Yes, sir, and that certainly points out 
that there is much work that remains to be done, and I'm 
grateful for the opportunity to recite some of the efforts that 
we have implemented, but we are the first to acknowledge that 
there is much more to be done and this is certainly a perfect 
example of it. The IG is correct, to wait until 2008 would be 
absolutely wrong and intolerable, so under Secretary Ridge's 
leadership we are going to get it done this year. We want to 
avoid this type of tragic circumstance in the future, and it 
was a tragic circumstance of this particular case, and it shows 
the extraordinary cost of not having all of the information 
needed for our Border Patrol agents.
    We have that system at 20 sites now, and we're going to add 
100 this year and get them connected. And if there's a few left 
after that, we'll find the money to get it done. We have 
accelerated the schedule to get it done this year. We want to 
look at more opportunities to give our agents in the field, and 
inspectors, all the tools they need, particularly this type of 
access to the FBI database.
    Senator Byrd. Thank you. Thank you very much, Mr. Chairman.

                           TRADE ENFORCEMENT

    Senator Cochran. Thank you, Senator Byrd.
    Mr. Secretary, something that your State and my State is 
interested in is our domestic fish industries, catfish and 
other activities relating to the production of aquaculture 
resources. I was recently informed that the Customs and Border 
Protection officials took 6 months to review and comment on a 
request for new tariff codes for Vietnamese exports of fish 
into the United States. I've written to Secretary Ridge about 
this issue, but I would like to bring this to your attention 
personally and receive any comment that you have about a 
commitment to trade enforcement, which in my view should remain 
a high priority for the Border and Transportation Security 
Directorate. I hope you will look into the problems that may 
exist in the Department regarding catfish dumping or trade 
rules that need to be enforced aggressively by the directorate.
    Mr. Hutchinson. Thank you, and I certainly share the same 
concern, coming from Arkansas, in reference to the enforcement 
of our trade laws on this commodity as well as others. I don't 
know the specific answer on why it took 6 months to review that 
tariff code and I would be happy to provide a specific answer 
to you. We have made a commitment not to reduce our resources 
and commitment to trade enforcement, and we have a good 
partnership with the Department of the Treasury to carry on 
those trade enforcement efforts. I'm co-chairman of the Coe 
Act, which is the partnership with industry in their advisory 
committee on how we handle our trade rules, so we will get a 
specific answer to you on that question.
    [The information follows:]

           Vietnamese Exports of Fish into the United States

    CBP processing time for 484(f) requests varies depending on 
the complexity of the request and the purpose of the request. 
While most requests are processed within the 6-month period, 
exceptional requests have taken longer. (As a comparison, the 
484(f) committee received a request for a statistical breakout 
for low-melt polyester fiber on June 30, 2000, which was not 
approved until May of 2001 for implementation on July 1, 2001. 
While rare, these situations do occur.) The request for these 
fish breakouts was one of these exceptional requests.
    The 484(f) request received by CBP was submitted in advance 
of the Federal Register Notice published on August 12, 2003, 
referenced in the requestor's submission, and the instructions 
to CBP issued on September 12, 2003. Those documents needed to 
be reviewed in conjunction with the requestor's submission 
because CBP is the agency responsible for collecting the 
antidumping duties under the order and identifying attempted 
evasion of the order. This 484(f) request was also intended to 
allow the domestic industry to monitor specific foreign 
competition.
    The first problem was that CBP (and the ITC, based on their 
report) did not agree with the requestor as to the proper 
classification of the imported species of fish and therefore, 
the proposed breakouts. This is not an unusual occurrence. 
Since the 484(f) committee usually tries to meet the purpose of 
the request even if the committee does not technically agree 
with the request, the issue for CBP was how to meet the 
requestor's goals.
    CBP found that the specific imported fish were more subject 
to misclassification than other commodities for which breakouts 
have been requested. This fact meant we needed to be able to 
segregate these fish from the other fish properly classified in 
the various subheadings.
    CBP also had to reconcile the recent change to the FDA 
labeling requirements with CBP import laws, regulations, and 
policies and enforcement capabilities.
    CBP needed to take into consideration our informed 
compliance responsibilities to importers under the MOD ACT 
followed by our enforcement capabilities. We also considered 
our ability to physically identify non-compliant fish, our 
ability to target shipments for sampling and maintain the 
physical integrity of the perishable sample through the 
laboratory analysis process, and whether other agency 
requirements would be effected by any of the breakouts. We also 
took into consideration concurrent work being done by the 
Bureau of Immigration and Customs Enforcement. Finally, we 
applied our knowledge of certain techniques that have been used 
to avoid payment of higher duties on other perishable 
commodities.
    All of these considerations are not routinely necessary 
during our review of 484(f) requests and required information 
from multiple CBP offices and time to correlate the elements 
into a plan. Once the facts were finalized, CBP responded to 
the other 484(f) members with our proposal.
    Note that CBP met with the requestor's representatives on 
February 27, 2004 and were able to come up with a new proposal 
that will meet their needs for trade data and allow CBP to more 
easily enforce the current antidumping order and verify trade 
data. At the same time, this proposal will allow implementation 
prior to the resolution of the classification issue. The 
requestor will provide some additional information to CBP at 
which point we will forward the proposal to the other committee 
members (Census and the ITC.) We anticipate that our proposal 
will be satisfactory to the other committee members and the new 
breakouts will be implemented no later than July 1, 2004.

                          FEDERAL AIR MARSHALS

    Senator Cochran. Thank you very much. In connection with 
Federal air marshals, I notice that the budget request is 
essentially flat for the Air Marshals program. Is this a 
concern to you? Do you think an adequate level of resources are 
available under the budget request to fund pay raises and other 
inflationary costs that may occur with this program?
    Mr. Hutchinson. We did get hit with the pay increases that 
are built into the budget that had to be absorbed. We have a 
strong commitment to the Federal Air Marshals program. That's 
one of the reasons we took a number of steps to add some 
additional capabilities to supplement the air marshals with 
other Federal agents who travel, including cross-training 
additional ICE agents and a partnership with the Secret 
Service. We believe that with those force multipliers out 
there, and with the continued commitment to the air marshals, 
that the President's budget is sufficient in that area.
    We are, you know, for this year, looking at a number of 
different areas to make sure that there is no any significant 
diminishing of our commitment to the air marshals.

                        NORTHERN BORDER AIR WING

    Senator Cochran. The Air and Marine Operations program has 
been stretched pretty thin for the last 2 years. Long-term 
repetitive details for personnel and assets are being used to 
protect the northern border and the national capitol region. 
The appropriations for fiscal year 2004 included resources for 
the establishment of a permanent northern border air wing. Will 
you tell us what the status of establishing this air wing is, 
when will there be permanent employees on board, and when will 
aircraft be purchased, for example. Are you going to have to 
continue to rely on detailees to cover the northern border and 
the national capitol region if you go forward with the 
establishment of this air wing?
    Mr. Hutchinson. I think it's important that we have that 
air wing capability on the northern border, and we are actively 
pursuing it. The assets that are deployed, you know, are from 
our existing resources, but the 2005 budget does request $28 
million for P-3 aircraft surveillance that will help in regard 
to our interdiction efforts, and also the assets that we need 
for the CAPP or the protection of our air space. So there are 
some funds designated in the 2005 budget for this purpose.
    As to the exact time frame on the deployment and the 
establishment of the air wing for the northern border, Senator, 
I will have to get back to you.
    [The information follows:]

  Exact Timeframe on the Deployment and Establishment of the Northern 
                            Border Air Wing

    The fiscal year 2003 War Supplemental provided $20.5 million to 
launch the Bellingham Air Branch, the first of five Northern Border 
Branches. Planned allocation is as follows: $2.5 million for personnel 
transfers, $12.6 million \1\ for medium lift helicopter acquisition and 
$6.6 million for multi-role enforcement aircraft. Staffing will be 
provided through a combination of new hires and the transfer of 
experienced personnel from other AMO field locations.
---------------------------------------------------------------------------
    \1\ Funds from these two appropriations were combined to purchase 
one medium lift helicopter.
---------------------------------------------------------------------------
    In fiscal year 2004, AMO received $35.2 million in Operations and 
Maintenance (O&M) funding to launch AMO's Northern Border Branch in 
Plattsburgh, NY. Planned allocation is as follows: $10 million \1\ for 
medium lift helicopter acquisition and $6.6 million for multi-role 
enforcement aircraft, $9.7 million for facility and $2.7 million for 
aircraft spares. An additional $5.4 million was appropriated in 
Salaries and Expenses funding to cover the cost of 36 personnel.
    Plattsburgh and Bellingham each will be equipped with three 
aircraft, including one Multi-Role Enforcement Aircraft (Pilatus PC-12 
fixed-wing), one Medium Lift Helicopter and one Light Enforcement 
Helicopter.
    The two PC-12 Pilatus aircraft have already been purchased and 
delivery is expected in May 2004/early fiscal year 2005, respectively. 
Contracts have not yet been awarded for the two Medium Lift Helicopters 
and Light Enforcement Helicopters required for full activation of 
Bellingham and Plattsburgh. Currently, the UH-60 Black Hawk is 
fulfilling the MLH role and the AS350 is fulfilling the LEH role at 
other AMO branch locations.
    The President's fiscal year 2005 budget includes $35.2 million to 
launch the third Northern Border Branch.
    AMO will continue to rely principally on detailees to execute the 
ongoing National Capital Region (NCR) Airspace mission. AMO has 
sustained the NCR mission by transferring funding, personnel and 
equipment from other missions and requirements.

                        LONG-RANGE RADAR SYSTEM

    Senator Cochran. We are looking forward to getting a report 
from the Air and Marine Operations officials on the current 
radar situation around the country. What is the total amount 
that the FAA had in its budget for operating the long-range 
radar system? Can you tell us how much is being requested by 
other agencies across the government by agency, and is there 
any particular reason that new resources are being requested in 
the fiscal year 2005 budget to allow the Department to assume 
this FAA responsibility, as opposed to a transfer from the FAA 
budget?
    Mr. Hutchinson. You're not speaking of our TARS, you're 
speaking of the long-range----
    Senator Cochran. The long-range radar system.
    Mr. Hutchinson. I don't know the answer as to why that is 
not being transferred from the FAA, but clearly that is a 
priority to have that capability for the protection of our 
borders.

                       TSA: PORT SECURITY GRANTS

    Senator Cochran. The Transportation Security 
Administration's budget has 54 percent of the request dedicated 
for aviation passenger and baggage screeners pay, benefits, 
training and human resource services. There are other grant 
programs administered by the TSA dealing with trucking 
security, port security grants, and operation of safe commerce 
that are slated to be moved to the Office for Domestic 
Preparedness under the reorganization of the Department. The 
2005 budget proposes to reduce or terminate funding for these 
programs. My question is, will the Transportation Security 
Administration continue to have responsibility for security 
over all sectors of transportation or will aviation security 
continue to be the main focus of the agency?
    Mr. Hutchinson. Well, in terms of budget, clearly aviation 
would be the main focus of the agency, but in terms of 
responsibilities and partnerships, the other modes of 
transportation are very important to us. I know that for 
example, in reference to Amtrak, there is a close partnership 
there, we have some pilot projects where we are working with 
Amtrak to enhance security, and we believe that we would 
exercise this through standard setting, best practices and 
regulation if necessary.
    In reference to the grant programs, the expertise still 
resides in TSA. And even though the grant program is being 
transferred to the Office for Domestic Preparedness in Homeland 
Security, we will be connected in terms of evaluating those 
grants, and helping to set the priorities for those in terms of 
security, and that would be true for the other grants in the 
transportation modes.
    Senator Cochran. So there will be coordination and an 
active role for the Transportation Security Administration in 
coordinating with the Office for Domestic Preparedness for the 
administration of those programs?
    Mr. Hutchinson. Absolutely, Mr. Chairman. That's essential 
and that was the understanding when that transfer was made.
    Senator Cochran. Is there an indication that additional 
funds may be made available within the existing grant programs 
for port security grants in the Office for Domestic 
Preparedness?
    Mr. Hutchinson. I think that the grant level is as 
suggested in the 2005 budget, but I know that in 2003 there 
were a number of rounds that had built up and been announced 
for the port security grants. I don't know exactly the layout 
planned for 2004, but as far as I know, that amount of grant 
money is fixed based upon the allocation in the 2004 budget.

                             TSA: SCREENERS

    Senator Cochran. The Aviation and Transportation Security 
Act provided that the Federal Government be responsible for 
screening operations for airline passengers at airports 
throughout the country, and there was a pilot program 
established at five airports to utilize private screeners in 
place of Federal screeners. One of these is located in 
Mississippi. The law provides for the ability of airports to 
apply to the Department of Homeland Security to opt out of 
using Federal screeners and to use qualified private screening 
companies at the end of a 3-year period, and that will be 
coming up in November of this year. When do you anticipate 
results of the Department's study on the private screening 
companies to be made available from these five airports that 
have been participating in the program?
    Mr. Hutchinson. I think there are two things I would 
emphasize. One, it is important to get the results from those 
five airports that were the subject of that pilot for private 
screening. I would expect that information within the coming 
months so it can be evaluated. The second part of the equation 
is the criteria that we would use for determining how we 
respond to those airports that might request to opt out. And, I 
have asked for that plan and that program to be developed and 
reported back to me for review. With both of those issues 
resolved, I think in the coming months we should have an 
indication as to the results and the direction we can go.
    Senator Cochran. There is some indication that the funding 
might not be sufficient to provide additional airports with the 
funds to use private screeners. There is $119 million in this 
year's appropriated account for private screening programs, but 
only a $10 million increase requested for 2005. Do you 
anticipate a need for additional funding if airports apply to 
use private screeners?
    Mr. Hutchinson. I would think the assumption is that it 
would be a level costing. I don't think we would anticipate a 
private screening capability or authorization to be based on an 
increase in funding for that airport.

                                 FLETC

    Senator Cochran. The Federal Law Enforcement Training 
Center was given responsibility for the Charleston, South 
Carolina training facility in this fiscal year 2004. This 
facility was previously operated and maintained by the Border 
Patrol. Has the Department of Homeland Security developed the 
level of funding that should be transferred to the Federal Law 
Enforcement Training Center to operate this location, and if 
so, when will this transfer take place?
    Mr. Hutchinson. The transfer has effectively taken place. 
The FLETC has taken over the responsibility for that facility 
and the Border Patrol operations. It is being handled out of 
the regular portion of the budget. I am not aware of any 
specific needs that would require increased funding.

                      TRANSIT WITHOUT VISA PROGRAM

    Senator Cochran. Senator Stevens, I appreciate your being 
able to come to the hearing. You're recognized for any 
statements or questions you may have of the witness.
    Senator Stevens. I'm here, Mr. Chairman, and good morning, 
Senator Byrd, primarily because my staff has told me that there 
is an intent of Homeland Security to implement new regulations 
to replace the transit without visa program. This, I'm told 
it's called the TWOV program, falls apart every time the alert 
status is raised, and has led numerous carriers to bypass U.S. 
airports, particularly our Anchorage airport, which is the 
largest cargo landing airport in the United States today. There 
is significant loss of revenues for the airports because the 
foreign carriers will not respond as quickly as the changes 
come about in our programs.
    And we had significant capability for intelligence 
gathering opportunities when those flights came through. As a 
matter of fact, our people cooperated totally with the 
intelligence people to make sure that we gained all the 
information we possibly could get from any activity with regard 
to the shipments.
    But we have had one international carrier that has 
suspended its stop in Anchorage three times now since 9/11. 
Every time the TWOV program is raised because of risk status, 
they just cancel out. We want to join with you, and with the 
whole country in terms of homeland protection, but it does seem 
to me that we ought to have some sort of regimen that will take 
into account the necessity to maintain these flights on a 
regular schedule.
    Right after 9/11, as you know, many of them cancelled in 
Alaska altogether and went to Canada. Those same flights left 
Canada and put the burden for checking the flights on the 
carriers in the interior of the midwest, rather than in the 
area of Alaska where we have substantial qualified people for 
that activity. Because it's such a large airport and handles so 
much volume of cargo, it can get the job done quickly, much 
more quickly than a smaller airport which does not have that 
volume and is not used to doing the check as the first stop in 
the United States. Are you familiar with this at all?
    Mr. Hutchinson. Yes, sir. In reference to the transit 
without visa program, it was suspended because of specific 
threat information that we had. It was suspended. We recognized 
the adverse economic consequences that this had on the 
Anchorage airport, which has a significant transit without visa 
passenger load. We immediately started working with the 
airlines to determine what security measures could be put into 
place that would allow us to reinstitute a similar type of 
program that would not have the security vulnerabilities.
    We have developed an answer and a program that we could put 
into place, which would reinstitute similar portions of that 
type of program, and would allow the transiting of some of the 
international passengers through our airports again. We are 
circulating that plan in the interagency process, and we do 
hope that we will be able, in the near future, to have a 
resolution of that. We understand the economic consequences, we 
do want to have the security measures in place before it is 
reinstituted.
    And you're right, Senator, it was complicated by the fact 
that over the holidays we did have a specific threat to the 
aviation industry, which would not have been a good time to 
redeploy that program or a similar one.
    Senator Stevens. These are the so-called ATP regulations?
    Mr. Hutchinson. Yes, sir.
    Senator Stevens. Will they be promulgated in a way that 
they will not change on an orange alert?
    Mr. Hutchinson. That is correct. These would be designed so 
that they provide the security measures that are necessary and 
they would allow for a constant program. Now I can tell you 
that, you know, if we have a specific threat information and we 
see there is a vulnerability that we didn't even think about, 
it's within the realm of possibility that we might have to take 
an additional security step in orange that would impact that 
program. But that is not the design, the design is that it 
would have a constant flow because it has the security measures 
in place.
    Senator Stevens. On the last recess I went to Anchorage and 
I went through the whole new wing of the airport that has been 
designed in total compliance with your Department. As a matter 
of fact, we have a problem because your Department requested 
and received over some $40 million from the amount of money 
that was put up to build the terminal. For the Homeland 
Security facilities within the new addition, they had to be 
finished before the terminal could be finished. And so they all 
agreed, and I now have the task of getting another $40 million, 
and that's another fight down the road.
    But the problem is that it was designed to handle the 
regulations that were in effect, and now those regulations, if 
they are changed, will require an additional kind of management 
of the cargo. We're not talking about a very heavy passenger 
load internationally. This is primarily cargo. There are very 
few passengers on those planes and in many instances none. What 
we're looking at is the cargo problem. I'm told that there are 
6.5 miles of tracks that are suspended from the ceiling that 
carry this cargo so it has a chance to be inspected, and then 
it can go back on the plane. I don't think anywhere else in the 
United States has that design.
    But, by the changes in this ATP, what happens is that they 
go to Vancouver or go to another place, Calgary, and then they 
go to land in some podunk that doesn't have any facility at 
all. So we are over intensifying regulation in an area that, I 
believe, has the most modern baggage and cargo inspection in 
the country today, and should have with the volume of cargo we 
have coming through there. I urge you to consider what the 
change in regulations does to that installation. It puts cargo 
into places ultimately, if it's going to continue on to the 
United States, if it's destined for what we call the South 48, 
it's going to completely disrupt this process and put enormous 
burdens on small airports when we're prepared to take the total 
burden but for the continued change in the regulations.
    Mr. Hutchinson. We'll certainly look at the concern that 
you raise, and recognize the investment in security that has 
already been made. I think the proposed plan, that again is in 
interagency circulation, looks not just at the physical 
security arrangement, but addresses some other vulnerabilities 
dealing with the passengers that would travel under that 
program. So, there are really two parts to the security 
concerns. One would be the passengers who transit themselves, 
and the other part would be the physical security measures that 
would be placed at the airports. Obviously there has been a 
substantial investment in Anchorage and that should be taken 
into consideration.
    Senator Stevens. I know you must travel a lot, but have you 
traveled to Alaska since this new position you've got?
    Mr. Hutchinson. Senator, I have not had that privilege. I 
know my brother has at your invitation, but I have not been 
there, and I look forward to that opportunity.
    Senator Stevens. I would hope that you would see fit to 
make that trip soon because these facilities are almost 
completed now and this new addition is almost completed, and I 
just think it's going to be unfortunate if we have invested all 
this money and then find out it will not comply because of a 
change in regulations.
    As a matter of fact I just might arrange, Mr. Chairman, for 
a little extracurricular activities for our friend from 
Homeland Security if you come up soon. The sooner the better.
    Mr. Hutchinson. Thank you, Senator, for that invitation.
    Senator Stevens. I do hope you will come, I'm serious.
    Mr. Hutchinson. I will say that if you have any concerns 
when we put these regulations out, I will then make sure I go 
up there to ensure everything is taken into consideration. I 
will say we don't want to have an adverse impact on what's 
already been done up there.
    Senator Stevens. I'd like to go with you. I'd like to show 
you these things and get the people out there who designed them 
in compliance with existing regulations, and see if the 
regulations must change, how we can quickly meet those 
regulations without taking more of the AIP money.
    Mr. Hutchinson. We will be glad to work with you and your 
staff to make sure that that's handled in the proper way.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator Stevens. Senator Byrd, 
do you have anything further?

                          FEDERAL AIR MARSHALS

    Senator Byrd. Mr. Secretary, your budget request for the 
Federal Air Marshals is essentially a flat line request similar 
to last year's funding level. Yet, on two occasions in less 
than a year, late last summer and again over the recent winter 
holidays, you increased the threat level to code orange, in 
large part because intelligence and other indicators led you to 
believe that there were enhanced threats to the United States 
via airplanes flying into or over this country.
    However, based on budget briefings with my staff, I 
understand that the resources directed to this program are not 
sufficient to hire the number of air marshals that should be 
hired to maintain a more robust presence on targeted flights.
    As I mentioned in my opening statement, I wrote to 
Secretary Ridge today urging him to propose to this committee a 
transfer of excess salary funds to the Federal Air Marshals 
Program. I urge you to make that proposal soon.
    Mr. Hutchinson. Senator, we're happy to receive your 
letter, evaluate it and make an appropriate response. We 
recognize the importance of Federal air marshals and I know 
that last year, wherever there was a concern expressed about an 
adverse impact on their work force, we did find the funds to 
make sure that didn't happen, and certainly this year we will 
make sure that there is a robust commitment there, and we look 
forward to receiving your letter.
    Senator Byrd. I have further questions for the record, Mr. 
Chairman.
    Senator Cochran. Thank you, Senator.
    Mr. Hutchinson, we appreciate very much your excellent 
service in the Department of Homeland Security and your 
cooperation with our subcommittee. Senators may submit written 
questions, I have some that I will submit, as does Senator 
Byrd, and there may be others. We ask that you respond to the 
questions within a reasonable time.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Byrd. I thank Secretary Hutchinson for his 
appearance, for his good work, and hope that he will come to 
West Virginia on his way to Alaska.
    Mr. Hutchinson. Thank you, Senator. I have been to West 
Virginia.
    Senator Byrd. We have a beautiful place down there called 
the Greenbrier.
    Mr. Hutchinson. I have enjoyed those rooms.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

   U.S. VISITOR AND IMMIGRANT STATUS INDICATOR TECHNOLOGY (US VISIT)

    Question. Last week, President Bush met with President Vicente Fox 
of Mexico and announced that citizens of Mexico who hold border 
crossing cards and are frequent crossers of the border will not have 
each entry recorded into the US VISIT database. Please provide a more 
detailed explanation of this policy?
    Answer. The Department of Homeland Security is committed to 
developing a solution for the processing of Border Crossing Card (BCC) 
holders.
  --Most Mexican citizens who travel to and from the United States 
        regularly may apply for a multi-use travel document, B1/B2 
        Visa/BCC also known as a ``laser visa'', which serves as either 
        a BCC or a B1/B2 visa. Mexican citizens who use the travel 
        document only as a BCC will not initially be subject to US 
        VISIT processing during primary inspection inasmuch as their 
        biometric data (fingerscans and photographs) have already been 
        captured during the BCC issuance process. This is an interim 
        solution for the land border while the Department explores the 
        long term solution to record the entry and exit of persons 
        crossing our land ports of entry.
  --When admitted under the BCC program, Mexican citizens may stay in 
        the United States for up to 72 hours and travel within the 
        ``border zone'' (within 25 miles of the border in Texas, 
        California and New Mexico, and 75 miles of the border in 
        Arizona). Approximately 6.8 million Mexican nationals today 
        utilize a BCC to make approximately 104 million crossings per 
        year when using the card as a BCC card only.
  --Prior to issuing a BCC to a Mexican citizen, the Department of 
        State conducts biographic and biometric checks on the 
        individual. The fingerscans and photograph of the Mexican 
        citizen are then embedded into the BCC. A holder of a BCC is 
        inspected to determine that he or she is the rightful bearer of 
        the document when crossing through a U.S. port of entry.
  --As the next phase of US VISIT is implemented at southern land ports 
        of entry by the end of 2004, if a Mexican citizen chooses to 
        use the BCC as a B1/B2 visa (traveling outside the ``border 
        zone'' and/or staying longer than 72 hours in the United 
        States), he or she will undergo US VISIT processing at the land 
        border secondary inspection areas.
    Question. Customs and Border Protection is in the process of 
deploying readers for the border crossing cards. What will be the 
policy as to when border crossing cards are read? Will the readers be 
integrated into US VISIT eventually?
    Answer. In certain circumstances, Homeland Security's Customs and 
Border Protection (CBP) officers may have reason to believe the person 
presenting the BCC is not the person to whom it was issued. At that 
point, the individual is sent to secondary inspection to determine if 
there are any problems with the BCC, which could include running the 
BCC through a biometric reader or processing the person through US 
VISIT.

                    IDENT/IAFIS INTEGRATION PROJECT

    Question. The Department of Justice Office of Inspector General 
issued a report on the progress made in integrating the biometric 
systems of the Department of Homeland Security and the Department of 
Justice. While the report does not make specific recommendations to the 
Department of Homeland Security, it does state that the IDENT/ENFORCE 
project team reports through the US VISIT program office. Further, it 
indicates that some of the delay in implementing the integration is due 
to the emphasis that is being placed on the roll-out of US VISIT. Is 
this project receiving enough support and attention? Should a separate 
project office be set up to implement this program?
    Answer. The implementation of IDENT/IAFIS is a top priority at both 
DHS and DOJ, and a working group has been developed of representatives 
from DOJ, FBI, CBP, ICE, USCIS and US VISIT to define plans for 
completion of IDENT/IAFIS implementation at all 115 Air, 14 Sea, 165 
Land Border POEs, as well as all Border Patrol Stations and specified 
ICE locations.
    Question. Have you finalized a deployment schedule to roll-out 
Version 1.2 of the IDENT/IAFIS integration project to all Border Patrol 
facilities? When will the Version 1.2 roll out be completed?
    Answer. Currently a comprehensive plan to complete implementation 
of Version 1.2 of the IDENT/IAFIS integration project is being 
developed including components from FBI, DOJ, CBP, ICE, USCIS and US 
VISIT. The implementation of 70 percent of Border Patrol Facilities is 
scheduled for the end of this year, and the remaining 30 percent by the 
end of next year.
    Question. What consideration is being given to rolling out the Real 
Time Image Quality software developed for US VISIT to other IDENT 
stations in order to improve the quality of the fingerprint being 
captured?
    Answer. The use of the real time image quality capture inside of US 
VISIT has been a significant enhancement to US VISIT. This capture 
improvement has really enhanced US VISIT and expanding this to IDENT is 
currently a system change request for the contractors to implement.
    Question. What funds will the Department be dedicating to this 
project in fiscal year 2004, and what account will fund this project?
    Answer. US VISIT is working to obtain approval to utilize $4 
million (which remains unexpended) from the $10.1 million received as 
part of the 2002 Counter Terrorism funding (Public Law 107-117).
    Question. What funds are requested for fiscal year 2005?
    Answer. $3 million from base resources will be used in fiscal year 
2005 to complete IDENT/IAFIS deployment.

                     72-HOUR RULE--SOUTHWEST BORDER

    Question. As the Border and Transportation Security Directorate 
moves forward with implementing the US VISIT system, what is the 
Department's position on revising the 72-hour rule to allow Mexican 
citizens that have been cleared to possess a border crossing card to 
stay in the United States for a longer period of time?
    Answer. While the Department of State adjudicates the application 
for a Border Crossing Card (BCC), DHS is responsible for establishing 
the policy surrounding the use and eligibility of such a visa document.
    Many Mexican citizens who travel to and from the United States 
regularly apply for a multi-use travel document, also known as a 
``laser visa,'' which serves as either a BCC or a B1/B2 visa. Mexican 
citizens who use the travel document only as a BCC will not initially 
be subject to US VISIT processing during primary inspection inasmuch as 
their biometric data (fingerscans and photographs) is captured during 
the BCC issuance process. This is an interim solution for the land 
border while the Department explores the long term solution to record 
the entry and exit of persons crossing our land ports of entry. As the 
next phase of US VISIT is implemented at southern land ports of entry 
by the end of 2004, if a Mexican citizen chooses to use the BCC as a 
B1/B2 visa (traveling outside the ``border zone'' and/or staying longer 
than 72 hours in the United States), he or she will undergo US VISIT 
processing at the land border secondary inspection areas. Readers for 
BCC's will be deployed at the 50 busiest land ports of entry by the end 
of June 2004.
    Question. When does the Department plan to move forward with 
revising the rule?
    Answer. We hope to complete our review soon. Once the review of the 
BCC document is complete, we'll be able to make a more informed 
decision regarding this rule.

                  STAFFING OF UNDER SECRETARY'S OFFICE

    Question. The Border and Transportation Security Directorate 
oversees 20 percent of the entire Department's budget--with such 
disparate areas as trade enforcement, airport screening, protection of 
Federal facilities, and training inspectors. Not only is the 
responsibility wide, but it includes arguably the organization with the 
most difficult management problems. For the last year, the Under 
Secretary for Border and Transportation Security's office has relied 
heavily on detailees from within the Department and even from 
organizations outside of the Department of Homeland Security. 
Currently, 56 percent of the filled positions in the office are staffed 
by detailees. Have you been able to move ahead with hiring permanent 
employees? Do you expect the office to be fully staffed by permanent 
employees by the end of fiscal year 2004?
    Answer. We have aggressively pursued the permanent staffing for the 
Office of the Under Secretary. We have entered into an interagency 
agreement with the Office of Personnel Management to provide dedicated 
position classification and staffing services to this office and fully 
expect to have selections made for all permanent staff by the end of 
fiscal year 2004.
    Question. Is the Under Secretary's office staffed properly to allow 
it to oversee and coordinate such a board reach of programs?
    Answer. The Under Secretary's office is properly staffed to oversee 
the Directorate's programs. We appreciate your recognition of the 
challenges within the first year: forming the new bureaus of Customs 
and Border Protection (CBP) and Immigration and Customs Enforcement 
(ICE); fielding US VISIT system requirements on time and within budget; 
maturing the Transportation Security Administration; and reorienting 
Federal Law Enforcement Training Center's mission focus to meet the 
needs of the new Department. The Department continually assesses its 
effectiveness and efficiency, and we will promptly communicate any 
additional resource requirements, as necessary, to ensure we can meet 
our mission requirements.

                    RESEARCH AND DEVELOPMENT FUNDING

    Question. The budget proposes to transfer additional research and 
development programs out of the components within the Border and 
Transportation Security Directorate to the Science and Technology 
Directorate, but it does not transfer all of the programs. Have all of 
these research and development programs been identified? Are there more 
programs that should be transferred to the Science and Technology 
Directorate, such as the Transportation Security Lab within the 
Transportation Security Administration, or the Research, Evaluation and 
Development Branch within the Bureau of Customs and Border Protection?
    Answer. The budget proposes to transfer some Border and 
Transportation Security Directorate research and development programs 
to the Science and Technology Directorate to help improve the 
effectiveness and efficiency for certain programs. The other programs 
have synergies or considerations that require additional consideration 
before change is recommended.
    Question. Do you feel that good working relationships have been 
established between the Border and Transportation Directorate and the 
Science and Technology Directorate? Are the needs of the Border and 
Transportation Security Directorate being met?
    Answer. Yes. Since the start up of the Department, we have worked 
hand in hand with the Science and Technology Directorate. The Science 
and Technology Directorate has established a Border and Transportation 
Security Portfolio Manager. We also have a joint BTS and S&T Technology 
Working Group that is developing a technology roadmap for BTS to ensure 
we leverage technology in the most appropriate manner.

                      PERFORMANCE-BASED PAY SYSTEM

    Question. The Department's budget for fiscal year 2005 includes 
resources to implement the performance-based pay system. Did the Border 
and Transportation Security Directorate play a role in creating the 
framework for this system? Will the needs of the Border and 
Transportation Security Directorate be served by this new system?
    Answer. The Border and Transportation Security Directorate did play 
a role in creating the framework for this system which is being 
designed to meet the needs of all components of the Department. In 
April 2003, the Secretary and the Director of the Office of Personnel 
Management established a DHS/OPM HR Systems Design Team composed of DHS 
managers and employees, HR experts from DHS and OPM, and professional 
staff from the agency's three largest Federal employee unions. The DHS 
employees on this 48 member team represented a cross-section of the 
Department including employees from the following components within the 
Border and Transportation Security Directorate: the Bureau of 
Immigration and Customs Enforcement; the Federal Law Enforcement 
Training Center; the Transportation Security Administration; and the 
Bureau of Customs and Border Protection.
    During April and July of 2003, this team entered a research and 
outreach phase, examining promising and successful practices and 
conducting a series of town hall meetings and focus groups across the 
country in order to inform employees about the design process and to 
solicit employee's perceptions of current HR policies. These outreach 
sessions included employees from across DHS, including a representative 
sample of employees from the Border and Transportation Security 
Directorate.
    As a result of the work of the Systems Design Team, 52 options were 
presented to a Senior Review Committee whose members included two top 
officials from the Border and Transportation Security Directorate: 
Robert Bonner, Commissioner of Customs and Border Protection; and James 
Loy, then Administrator, Transportation Security Administration.
    One of the roles of this Committee was to discuss the work of the 
Design Team and to express views that would inform decisions to be made 
subsequently by DHS Secretary Ridge and OPM Director James regarding 
which systems should be implemented within DHS. The Committee members 
agreed that any new HR system for DHS must be mission-focused and that 
its design must facilitate mission performance and that HR options 
might need to be tailored to specific parts of DHS.
    The proposed regulations published in the Federal Register on 
February 20, 2004, reflect the thoughtful review and consideration by 
Secretary Ridge and Director James of all input received during the 
process as outlined above. It was determined that the regulations, as 
proposed, would best meet the needs of the Border and Transportation 
Security Directorate, as well as the Department as a whole.
    Question. What are the estimates for how much it will cost to 
implement the new performance-based pay compensation system within the 
Border and Transportation Security Directorate?
    Answer. $102.5 million requested in the President's Budget for 
implementation of the new HR system Department wide. BTS' share of 
implementation costs is covered in this request. Costing for design and 
deployment of the new HR system was identified based on independent 
government cost estimates that were developed to plan for the 
anticipated systems integration contract. Other agencies of similar 
size and complexity, notably Treasury, were benchmarked in projecting 
team size and skill levels and associated labor rates. Cost breakouts 
were estimated based on detailed GSA labor category descriptions and a 
skill analysis of the types and levels of contract employees that will 
be needed to support this effort. Major breakdown of costs includes: 
$27 million for program management, oversight and evaluation; $31 
million for training and communications to support system 
implementation; $42 million for detailed systems design and 
implementation support (business process reengineering, compensation 
expertise, etc.); and $2.5 million to fund the HQ performance pool.
    As additional background for each of the major funding categories: 
Centralized program management funding is required to manage 
appropriate cost, schedule, and control activities at the Departmental 
level, ensuring that the system investment is managed appropriately and 
at a good value. Program management funding will also provide for OMB-
required earned value management, as well as risk management and 
evaluative activities. A centralized program management philosophy, 
rather than each component attempting to manage their own 
implementation, is critical in keeping program costs down and in 
ensuring consistency of deployment across the enterprise.
    Training funds are absolutely essential in ensuring that the new HR 
flexibilities achieve the desired results. Funding is provided to 
adequately train all DHS executives, managers and supervisors on 
aspects of the new system and their responsibilities as leaders in the 
DHS environment. Training funding will also provide for awareness and 
change management activities to ensure that all DHS employees 
understand system changes. Funding will support a comprehensive HR 
certification program to ensure that DHS HR professional are prepared 
for system changes and new job responsibilities.
    Funding for detailed systems design and implementation support is 
required to provide access to experts that will assist in designing the 
particulars of the new DHS performance management system, job 
evaluation system (including the creation of job clusters), 
compensation system (including new pay ranges and market pay 
processes), linkages for pay and performance, and development of 
competencies for DHS positions. This detailed expertise is required to 
ensure that DHS designs a program that appropriately links pay, 
competencies and performance and through that linkage DHS performance 
is enhanced.
    We are projecting fully loaded life cycle costs of $408.5 million 
for complete system implementation. It is important to note that the 
$102.5 million is requested for full implementation of the new system 
(including project management, systems design, training and 
communications, etc.), not just the training aspects of system 
implementation. Major components of this figure include $102.5 million 
for system implementation, $10 million for Coast Guard performance 
pool, an estimated $165 million for other component performance pools, 
and a 6-year life cycle cost of $131 million for human resources 
information technology.
    Question. Is there a timeline as to when each of the components of 
the Border and Transportation Security Directorate will transition to 
this new compensation system? If so, what is it?
    Answer. Current plans provide for all components of the Border and 
Transportation Security Directorate, which are covered by the proposed 
regulations, to be converted to a new compensation system in January of 
2006.

                     TETHERED AEROSTAT RADAR SYSTEM

    Question. The information provided by the Tethered Aerostat Radar 
System, known as TARS, is a critical component in the Department's 
efforts to interdict illicit air traffickers. Do you believe that the 
Department of the Defense is providing sufficient support to the TARS 
program to enable the Air and Marine Program to effectively carry out 
its mission?
    Answer. The TARS program has declined from 14 operational sites to 
8 operational sites (Lajas, Puerto Rico, is due back on-line in May). 
Recent close coordination and meetings between the Department of 
Homeland Security and the Deputy Assistant of Defense for Counter 
Narcotics have resulted in frank and open discussions related to TARS. 
The dialogue is productive and ongoing at this time, and DHS' 
requirements have been acknowledged by DOD. DHS believes that this 
critical system supports homeland security and provides a critical 
detection and monitoring capability. That mission is a DOD 
responsibility. The DHS position is that Congress properly assigned the 
mission to DOD and funded TARS to meet the mission requirements.
    Question. Does the Bureau of Immigration and Customs Enforcement 
have the necessary expertise and personnel to take over the management 
and maintenance of the TARS program?
    Answer. That mission is a DOD responsibility. The DHS position is 
that Congress properly assigned the mission to DOD and funded TARS to 
meet the mission requirements.

                 TRANSPORTATION SECURITY FOR ALL MODES

    Question. Three major grant programs currently administered by the 
Transportation Security Administration involving trucking security, 
port security grants, and Operation Safe Commerce are slated to be 
moved to the Office for Domestic Preparedness under the Department's 
announced reorganization of grant programs. The fiscal year 2005 budget 
proposes to reduce or terminate funding for these programs.
    What funding will be available within the Maritime and Land 
Security operations for fiscal year 2005 to increase security for 
railways, roadways, and all other modes of transportation in light of 
the Administration's proposal to terminate funding for intercity bus 
and trucking grants?
    Answer. The responsibility of securing our Nation's rail and mass 
transit systems is a shared one. DHS, DOT, and other Federal agencies 
are working together to enhance rail and transit security in 
partnership with the public and private entities that own and operate 
the Nation's rail and transit systems. The DHS grant program for 
improving rail and transit security in urban areas has awarded or 
allocated over $115 million since May 2003. Additionally, the 
Administration has requested $24 million for TSA to advance security 
efforts in the maritime and surface transportation arenas, and has 
requested that $37 million of the Federal Transit Administrations Urban 
Security Bus grants be available for security related projects. In 
addition, DHS will conduct the following activities and initiatives to 
strengthen security in surface modes:
  --Implement a pilot program to test new technologies and screening 
        concepts to evaluate the feasibility of screening luggage and 
        carry-on bags for explosives at rail stations and aboard 
        trains;
  --Develop and implement a mass transit vulnerability self-assessment 
        tool;
  --Continue the distribution of public security awareness material 
        (i.e., tip cards, pamphlets, and posters) for motorcoach, 
        school bus, passenger rail, and commuter rail employees;
  --Increase passenger, rail employee, and local law enforcement 
        awareness through public awareness campaigns and security 
        personnel training;
  --Ensure compliance with safety and security standards for commuter 
        and rail lines and better help identify gaps in the security 
        system in coordination with DOT, with additional technical 
        assistance and training provided by TSA;
  --Continue to work with industry and State and local authorities to 
        establish baseline security measures based on current industry 
        best practices and with modal administrations within the DOT as 
        well as governmental and industry stakeholders, to establish 
        best practices, develop security plans, assess security 
        vulnerabilities, and identify needed security enhancements; and
  --Study hazardous materials (HAZMAT) security threats and identify 
        best practices for transport of HAZMAT.
    Question. How will the Transportation Security Administration 
coordinate with the Office for Domestic Preparedness on the grant 
programs (trucking security, port security grants, intercity bus 
grants, and Operation Safe Commerce) that will be moved pursuant to the 
reorganization?
    Answer. It is anticipated that TSA will continue to provide the 
necessary operational expertise for the grant programs through 
participation in pre-award management functions. These functions 
include determination of eligibility and evaluation criteria, 
solicitation and application review procedures, selection 
recommendations and post award technical monitoring. TSA will also 
continue to leverage existing transportation expertise by working with 
industry stakeholders and DOT modal administrations to ensure that 
Federal security grants facilitate the seamless integration of security 
planning activities by industry stakeholders and governmental 
stakeholders at the regional, State, and local levels.
    Question. In addition to the $169 million made available for the 
port security grant program by the Transportation Security 
Administration, $75 million was made available in fiscal year 2003 by 
the Office for Domestic Preparedness for the same purpose. Do you 
anticipate that funds will be made available once again for port 
security grants within the existing grant programs in the Office for 
Domestic Preparedness?
    Answer. The fiscal year 2005 President's budget requests $46 
million for Port Security Grants under the Office for Domestic 
Preparedness.

         TSA'S ROLE WITHIN THE DEPARTMENT OF HOMELAND SECURITY

    Question. Over 54 percent of the President's budget request for the 
Transportation Security Administration for fiscal year 2005 is 
dedicated for aviation passenger and baggage screeners' pay, benefits, 
training, and human resource services. Last year, Admiral Loy testified 
that the Transportation Security Administration was developing a 
National Transportation System Security Plan (NTSSP) to explain ``its' 
vision to complete the important task of ensuring the security of all 
modes of transportation, not just the aviation sector''.
    Will the Transportation Security Administration continue to have 
responsibility for security over all sectors of transportation or will 
aviation security continue to be the main focus for TSA?
    Answer. Ensuring that our Nation's transportation systems are 
secure must be accomplished through effective partnering between 
appropriate Federal, State, local and private industry entities. 
Although TSA was created in the wake of the September 11 attacks and 
charged with responsibility for ensuring that all modes of 
transportation are secured, the Administration has consistently held 
that that this responsibility must involve the coordination of 
appropriate Federal, State, local and private industry partners, many 
of whom were already in the business of providing security for their 
particular piece of the transportation puzzle. TSA's main charge, both 
under ATSA and now as part of the DHS family, is to coordinate these 
efforts under the guidance of the Secretary and the Under Secretary for 
Border and Transportation Security, identifying gaps and working with 
appropriate partners to ensure that existing security gaps are filled.
    Recognizing this, the Department of Homeland Security (DHS) has 
requested substantial resources in fiscal year 2005 across the agencies 
within the Department involved with securing transportation modes other 
than aviation, including resources in the Coast Guard and Customs and 
Border Protection (CBP) for ports, maritime security, and cargo 
security; in Information Analysis and Infrastructure Protection (IAIP) 
for vulnerability assessments, intelligence, and infrastructure 
protection for all sectors including transportation; and in Emergency 
Preparedness & Response (EP&R) for emergency response to only name a 
few. In addition to working with other DHS components, TSA works 
closely with our sister Federal agencies outside of DHS to ensure that 
all government resources are maximized. For example, under the 
leadership of BTS and DHS, TSA is coordinating key standards-setting 
efforts in areas such as transit and rail security, and is working 
closely with modal administrations of the Department of Transportation 
to help leverage their existing resources and security efforts to 
accomplish security goals.
    Question. When can we expect the National Transportation System 
Security Plan and what role will the Transportation Security 
Administration play in securing all modes of transportation?
    Answer. TSA's role in securing the transportation system begins at 
the system or sector-wide level, across the individual modes, thus 
ensuring consistency and consideration of inter-modal issues (such as 
assets, incidents, or supply chains that straddle multiple modes, and 
inter-modal exercises). The Department of Homeland Security (DHS) has 
assigned TSA primary Sector Specific Responsibility (SSR) for the 
Transportation Sector as DHS implements Homeland Security Presidential 
Directive 7 (HSPD-7), which directs the establishment of ``a national 
policy for Federal departments and agencies to identify and prioritize 
United States critical infrastructure and key resources and to protect 
them from terrorist attacks.'' In accordance with DHS's HSPD-7 
implementation plan, TSA is developing the Transportation Sector 
Specific Plan (SSP). A first draft of the SSP is due to DHS by early 
summer, 2004 (at the same time when SSPs from the other 12 sectors of 
critical infrastructure are also due). In developing the transportation 
SSP, TSA is working under BTS guidance and with partners in the U.S. 
Coast Guard and the Department of Transportation (DOT). The SSP will 
discuss how Federal and private-sector stakeholders will communicate 
and work together; how important assets in the transportation sector 
will be identified, assessed, and prioritized; how protective programs 
will be developed; how progress in reducing risk will be measured; and 
how R&D will be prioritized in the sector. In the Transportation 
Sector, the SSP will further these efforts currently underway and help 
ensure that they are systematic, complete, and consistent with the 
efforts in the other 12 sectors.
    Prior to the issuance of HSPD-7, TSA was TSA was developing the 
National Transportation System Security Plan (NTSSP). Its purpose was 
to provide a systematic sector-wide approach to Transportation 
Security, to pull all Federal partners into the effort together, and to 
provide guidance to the writers of Modal Security Plans. Now HSPD-7 is 
driving an economy-wide systematic approach to Infrastructure 
Protection, including the Transportation SSP described above. The SSP 
will be expanded into a ``new'' NTSSP, by adding additional chapters 
(some already drafted in the ``old'' NTSSP) to complete the original 
intent of the NTSSP. This includes guiding development of Modal 
Security Plans, providing explicit links to other Federal plans such as 
the National Response Plan (NRP) and the National Incident Management 
System (NIMS), and other operational guidance. On behalf of DHS and in 
conjunction with other Federal agencies, the completed NTSSP will guide 
and integrate a family of security plans to prevent, mitigate, and 
respond to intentional disruption of the Nation's transportation 
systems while ensuring freedom of movement for people and commerce.
    Parts of the draft ``old'' NTSSP are already in use, as the USCG 
drafts the MTSA-mandated Maritime Transportation Security Plan, and as 
other modal security plans begin development. A draft of the ``new'' 
NTSSP should be completed by the end of summer, 2004.
    TSA's role within each sector will vary from mode to mode. In 
aviation security, TSA has the operational and regulatory lead role. 
TSA's efforts in non-aviation security over the past 2 years have 
focused on greater information sharing between industry and all levels 
of government, assessing vulnerabilities in non-aviation sectors to 
develop new security measures and plans, increasing training and public 
awareness campaigns, and providing greater assistance and funding for 
non-aviation security activities. In partnership with other component 
agencies of DHS and in coordination with DOT, State, local and private 
sector partners, TSA will continue to leverage existing security 
initiatives, coordinate the development of national performance-based 
security standards and guidance; identify areas where regulations may 
be necessary to improve the security of passengers, cargo, conveyances, 
transportation facilities and infrastructures; and identify areas where 
better compliance with established regulations and policies can be 
achieved. TSA will work with DHS components, modal administrators 
within DOT, and its government and industry stakeholders to continue 
these efforts, establish best practices, develop security plans, assess 
security vulnerabilities, and identify needed security enhancements.
    Question. The Homeland Security Act of 2002 requires the 
Transportation Security Administration be maintained as a distinct 
entity within the Department of Homeland Security for 2 years from the 
date of enactment with the sunset of the Transportation Security 
Administration as a distinct entity within the Border and 
Transportation Security Directorate to occur November 2004. How do you 
envision the Transportation Security Administration's role within the 
Department of Homeland Security if not maintained as a separate 
distinct entity in the Border and Transportation Security Directorate?
    Answer. The Homeland Security Act requires that TSA be maintained 
as a distinct entity for 2 years after enactment. As an integral part 
of the Border and Transportation Security Directorate, TSA is currently 
providing a robust security framework in the aviation environment and 
coordinating closely with other DHS and DOT partner agencies both to 
identify security vulnerabilities in other modes of transportation and 
identify appropriate mitigation strategies to reduce those 
vulnerabilities. Further, TSA is coordinating Federal efforts to 
develop the transportation chapter of the National Critical 
Infrastructure Protection Plan (NCIP) being developed as a result of 
Homeland Security Presidential Directive (HSPD) number 7. At this time 
there are no plans to alter TSA's status as a distinct entity within 
the BTS Directorate; however, the Secretary continually reviews the 
missions and programs of each DHS component to ensure that they 
complement, rather than duplicate the missions of any other. In the 
event that the Secretary decides, under authority conferred upon him by 
Section 872 of the Homeland Security Act, to reorganize any of the 
components of the Department including the TSA, appropriate 
notification will be provided to relevant Congressional committees by 
the President.

                    FEDERAL SCREENER OPT-OUT PROGRAM

    Question. The Aviation and Transportation Security Act passed 
shortly after the terrorist attacks of September 11, 2001, provided for 
the ability of airports to apply to the Department of Homeland Security 
to opt-out of using Federal screeners and to use qualified private 
screening companies at the end of a 3-year period which occurs this 
November 2004.
    When do you anticipate the results of the Department's study on the 
private screening companies that have been providing passenger 
screening at the five airports participating in the pilot program will 
be made available?
    Answer. TSA hired BearingPoint to conduct an independent 
performance evaluation of the private contractor screening compared to 
Federal screening. The study evaluated performance in security, 
compared costs, and analyzed customer/stakeholder satisfaction. It 
concluded that TSA has succeeded in developing and executing a pilot 
program that both meets the Congressional requirements and ensures 
outstanding security. Results of the study were made public on April 
22, 2004 and are available on TSA's web site at http://www.tsa.gov/
interweb/assetlibrary/Summary_Report.pdf.
    Question. Do you feel that there will be a large number of airports 
that will apply to use private screeners rather than continue to use 
Federal screeners?
    Answer. Under ATSA, individual airports may, starting on Nov 19, 
2004, submit proposals to ``opt out'' of having Federal passenger and 
baggage screening and to return to private companies providing those 
security services under contract to and close oversight by TSA. TSA 
continues to work with its key stakeholders for the development of an 
application process for airports who are interested in opting out. TSA 
is in the early stages of developing an efficient, understandable, and 
effective procedure for opt-out applications and is currently drafting 
the specific contents of the opt-out guidance. At this time, it is 
still unclear how many airports will seek to opt out. Most airports are 
awaiting additional details regarding the application process and 
parameters of the program before making a decision. Should an airport 
request to opt out, its application must be assessed and approved by 
the TSA Administrator. TSA is committed to ensuring a fair, supportive 
transition program that recognizes the outstanding skills of TSA's 
current work force.
    Question. With the opt-out date approaching rapidly, when do you 
anticipate providing guidelines, application procedures, and approval 
criteria for the airports that are trying to decide whether or not to 
apply to use private screening companies?
    Answer. TSA is currently working to develop guidelines for the opt-
out program. TSA hopes to release initial guidance in late May or early 
June. This guidance will consist of an overview of issues such as, 
indemnification and reimbursement to contractors, the application and 
award process, and delineating clear roles and authority for TSA 
headquarters, the Federal Security Directors and their staff, and the 
airports and contractors, that will help airports gauge their level of 
interest in the opt-out program.
    Question. With $119 million provided this year for the private 
screening pilot programs and only a $10 million increase requested for 
fiscal year 2005, how do you anticipate providing funding for 
additional airports that may apply to use private screeners?
    Answer. The Administration did not request a separate funding line 
item for private screening for precise reason that we cannot predict in 
advance what airport interest will be in an opt-out program. All 
funding requested was rolled up into one screener line, and it is 
critical that the Congress provide maximum flexibility to allocate 
resources. Supporting budget documents showed a level of $130 million 
purely for display and comparability purposes. This amount will provide 
sufficient resources to maintain contract screener operations at the 
five pilot airports through the end of fiscal year 2005. Actual funding 
needs for contract screening operations may be higher or lower 
depending on a variety of factors such as the current evaluation of 
contract screening, the program's future deployment and management 
structure, the level of interest garnered from the airport community, 
and the time it takes to smoothly transition airports into and/or out 
of contract screening. TSA will adjust resources between Federal and 
contract screeners as necessary.

                FEDERAL LAW ENFORCEMENT TRAINING CENTER

    Question. The United States Coast Guard and the Federal Law 
Enforcement Training Center recently announced plans to transfer the 
United States Coast Guard's Maritime Law Enforcement School to the 
Federal Law Enforcement Training Center in Charleston, South Carolina. 
What impact will this proposed change have on the Department of 
Homeland Security and what additional fiscal year 2005 funding will 
this consolidation require?
    Answer. At the U.S. Coast Guard's request, the Maritime Law 
Enforcement School located at Coast Guard Training Center Yorktown, VA, 
and the Boarding Team Member School located at Coast Guard Training 
Center Petaluma, CA, will be merged, relocated and commissioned as the 
Coast Guard Maritime Law Enforcement (MLE) Academy at the Federal Law 
Enforcement Training Center in Charleston, SC, by October 1, 2004. Both 
the Coast Guard and the entire Department of Homeland Security (DHS) 
will benefit by this consolidation of law enforcement training 
functions. To reflect the increase in Coast Guard mission capabilities 
and training requirements, the MLE Academy will be established to 
provide expanded training for their personnel in support of maritime 
homeland security and law enforcement. The MLE Academy will provide for 
the training of maritime law enforcement capabilities central to all 
Coast Guard maritime security missions. The MLE Academy will also 
provide training to local and State law enforcement personnel in 
support of the Federal Boat Safety Act. It will cost approximately $4 
million to relocate the Coast Guard MLE Schools to the FLETC 
Charleston. This includes one new building, a personal defensive 
tactics building. The FLETC will fund $2 million for construction and 
renovations. The U.S. Coast Guard will fund approximately $2 million 
for transportation of existing equipment, relocation of personnel, 
dependents and household goods, boarding platform training aids, 
installation of a simunitions lab and telecommunications 
infrastructure.
    The Coast Guard will move 50 positions (FTP) to Charleston, SC. The 
positions come from the USCG training centers at Yorktown, VA (36) and 
Petaluma, CA (14).
    The Coast Guard estimates it will train 1,872 students annually.
    The affiliation and co-location with of the Coast Guard with the 
FLETC provides them a first step towards standardization. It will 
enhance their law enforcement training and promote better coordination 
among field activities with their sister agencies. Both the Coast Guard 
and the entire Department of Homeland Security (DHS) will benefit by 
this consolidation of law enforcement training functions. The Homeland 
Security Act consolidated 22 agencies in creating the Department of 
Homeland Security, and established Law Enforcement as one its core 
missions. The Maritime Transportation Security Act (MTSA) directed the 
integration of standards and training curriculum for ``maritime 
security professionals.''
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

    Question. Over the last two funding cycles, Congress has provided 
$85 million to the TSA for development, tech evaluations, pilot 
programs, and rollout of a Transportation Worker Indentification Card 
(TWIC). How many TWIC cards have been issued to date? What has the TSA 
spent this $85 million on?
    Answer. The Consolidated Appropriations Resolution, 2003, provided 
$35M for the Transportation Worker Identification Credential (TWIC) and 
Registered Traveler (RT) programs. Of this total, $25 million was 
initially assigned to TWIC, and $10 million was assigned to RT. TWIC 
spent a total of $15 million on planning and executing the Technology 
Evaluation Phase. TSA internally reallocated $5 million and returned 
the remaining $5 million to the Treasury. The $10 million for RT was 
subsequently reallocated internally. The fiscal year 2004 Appropriation 
Act provided $50 million to TWIC to support planning and execution of 
the Prototype Phase. Our most recent analysis indicates that $50 
million is sufficient for this task. To date no operational TWIC cards 
have been issued. It is estimated that up to 200,000 cards may be 
issued during the Prototype Phase.
    Question. When Congress tasked TSA and the Department of 
Transportation with developing a plan to protect our transportation 
infrastructure, Secretary Mineta moved forward with a vision for how a 
transportation credential should work. Unfortunately, implementation 
appears to have been hindered by poor leadership and a shifting idea of 
what TWIC should be and how it should be implemented. Where is the 
problem?
    Answer. TWIC development continues to move forward as planned. 
During the early stages of the development process, data, technical 
information and lessons learned were gathered from a wide range of 
sources including industry stakeholders and other Federal credentialing 
projects. The RFP for the TWIC Prototype Phase will be released in the 
immediate future. The proposed plan leverages the stakeholder 
relationships established over the past 24 months and during the 
Technology Evaluation Phase, as well as a partnership with the State of 
Florida for the network of deep-water ports. The goal of the prototype 
is to evaluate the full range of TWIC business processes within a 
representative operational environment. The plan includes facilities 
and workers from all transportation modes and is focused in three 
regions, Philadelphia-Wilmington, Los Angeles-Long Beach, and the 
Florida ports.
    Various card production options were evaluated within the context 
of system requirements. Centralized card production using existing 
Federal card production facilities that meet all of the system 
requirements was determined to be the most cost effective solution for 
the prototype phase. Key factors in the evaluation included: physical 
security and controlled access to the production process; secure supply 
chains for card stock and special security features (e.g. holograms, 
special inks, secret keys); standardization of training; and, economies 
of scale with high capacity production machines. Centralized card 
production will be further evaluated during the prototype, and the 
final evaluation report will include a detailed analysis on all card 
production options and a recommendation for DHS decision.
    Question. According to your written testimony, you have combined 
the credentialing under one program and have requested $20 million for 
that line item. I am told that this request is nearly $100 million 
below the level TSA needs to implement the program for only the highest 
risk areas and fully $150 million below the level needed for full and 
timely implementation system wide. How do you plan to make up this 
shortfall?
    Answer. The fiscal year 2005 President's Request includes $50 
million in fee spending authority for the TWIC program. As prototype 
planning continues, we have continued to explore questions surrounding 
the population size, technological requirements, and methods for 
achieving rapid implementation. This planning will be shared with 
Congress once completed.
    Question. It is my understanding that while the fiscal year 2003 
bill required a thorough evaluation of all technologies, the $85 
million would be adequate to evaluate and establish a basic framework 
and prototype for a TWIC. Why now are you asking for more money to 
complete this part of the project?
    Answer. The funds that have been provided by Congress have enabled 
TSA to complete the planning and technology evaluation phases and will 
enable TSA to execute the Prototype Phase. In anticipation of a 
successful completion of the prototype with positive results, TSA is 
requesting $50 million in fiscal year 2005 to begin TWIC 
implementation.
    Question. Does TSA anticipate establishing a fee for the access and 
administration of the TWIC? If so what will this fee fund? When can we 
expect these programs to be fully underway?
    Answer. The TWIC concept is a Federally-led public-private 
partnership to improve security across the transportation system. 
Accordingly, as authorized by Congress, TSA envisions that a fee would 
be collected for each credential issued and would fund the cost of 
enrollment, card production and issuance, identity management, network 
infrastructure, and revocation alerts. Transportation facilities will 
be responsible for access control systems and any modifications that 
they choose to make in accordance with their own security plans.
    The Prototype Phase is planned to be implemented over 7 months. 
Upon completion of Prototype, DHS will review the data and decide how 
best to implement the findings. TSA anticipates that we could begin 
shortly thereafter to execute that decision.
    Question. As I remember the original timetable, our ports and 
greater transportation system should now be operating under a 
credentialing system that will provide increased security through use 
of a TWIC card and the requisite card readers and databases. The TSA 
TWIC website outlines the three goals of the program as to: improve 
security, enhance commerce, and protect personal privacy. Has the 
lengthy process in some way increased the potential of accomplishing 
these goals? What are we getting for increased costs and missed 
deadlines?
    Answer. The evolution of the program will result in a more robust 
Prototype Phase that incorporates a process for collecting data that 
will allow the exploration of multiple options for TWIC implementation, 
including detailed cost-benefit analysis, assessment of feasibility of 
use by facilities multiple disparate business practices, and more 
inclusive, in-depth consultations with stakeholders.
    Question. What have you done to ensure the security of the card? 
Can you offer me assurances that the security efforts you have taken 
will stand up to the test?
    Answer. TWIC views security from a system perspective. TWIC is not 
just a secure ID card, but it is also an identity management solution 
that leverages advanced security technology and procedures to deliver 
an overall chain of trust. Both the Technology Evaluation Phase and the 
upcoming Prototype Phase include extensive evaluation of security 
features, and security testing and evaluation will be an ongoing part 
of the TWIC program.
    For the card specifically, TWIC is using advanced security features 
that leverage the strength of the core technology. The surface-based 
technology will include special inks, security overlays and complex 
visual design features that will counter attempts to forge or tamper. 
The Integrated Computer Chip (ICC) is based on the NIST Government 
Smart Card Specification and complies with a number of security 
protocols and validations. The ICC includes encryption, secret keys, 
and active defenses. TWIC will also use a biometric securely embedded 
in the ICC to link the individual positively to the completed 
background check and to updates to that background check.
    Question. Concerns have been raised that TWIC will hinder rather 
than enhance commerce. Can you provide data on what kind of delays will 
occur due to TWIC access requirements?
    Answer. One of TWIC's three goals is the enhancement of commerce. 
The TWIC architecture was developed using extensive stakeholder inputs. 
The TWIC Integrated Project Teams (IPT) have been working with regional 
stakeholders to develop site level implementation plans, which will 
enhance commerce at these sites. During the Technology Evaluation 
Phase, access control transaction times were measured using a range of 
technologies. These results were incorporated into the planning for the 
Prototype Phase, which will further refine the process. The Prototype 
Phase evaluation report will include extensive data on all aspects of 
access control transactions, including time and impact to the 
commercial process.
    Question. Delays are causing problems down the line for my, and I 
am sure many other senators, constituents. Recently, I was asked by one 
of my constituents whether they should move forward with their own 
credentialing system upgrades. I was remiss to inform him that it did 
not appear TWIC would be available for use in the foreseeable future. 
My constituent informed me that because of these delays he would be 
forced to move forward with upgrades of his own that may or may not 
work within the TWIC system. It seems ridiculous to force constituents 
committed to security to invest in multiple technologies. Mr. 
Secretary, that does not appear to enhance commerce to me, does it to 
you? Are we supposed to have a seamless system?
    Answer. TSA shares your determination to maximize the benefits of 
TWIC while minimizing financial or technological burdens on 
stakeholders. Consequently, a guiding principle in the design of TWIC 
is that the credential be interoperable with existing security systems. 
TWIC envisions a secure identity management tool that can be used in 
existing access control systems. TSA is communicating with stakeholders 
in order to update them on the direction of our work and thereby assist 
them to make informed decisions about security investments.
    Question. In addition, I am always concerned about the privacy of 
individuals. Many have raised concerns about the TWIC and its 
relationship to a national ID system. How will you protect the 
information? How will you guarantee the security of the personal 
information required to attain the TWIC?
    Answer. Protection of personal privacy is one of the program's key 
goals, having been seamlessly integrated in planning from the initial 
system design. The DOT lead privacy advocate was a member of the 
original design team. The TWIC team has and will continue to work with 
the DHS and TSA Privacy Officers to ensure that TWIC remains faithful 
to our stated goals.
    TWIC recognizes that acceptance of the credential is inexorably 
linked to the holder's confidence that his or her privacy will be 
respected. TWIC is designed to operate on the minimum amount of 
personal information, which will be securely stored and encrypted. 
Access to personal information will be controlled and auditable. All 
information that will be gathered is subject to a formal privacy impact 
assessment.
    Question. The focus of TSA and the Directorates funding is towards 
Airline Security. As I understand it, the TWIC will increase security 
across the transportation system as a whole. In fact, at some point 
Admiral Loy characterized TWIC as a ``Flagship Program''. If this is a 
``Flagship Program'', what is the delay in implementation? What are you 
doing to fix this problem?
    Answer. TWIC remains an important initiative for DHS and TSA. The 
longer timeline is indicative of the need to explore different options 
on how best to implement an identity management system for 
transportation workers across multiple facilities, consultation with 
stakeholders, and to incorporate learning into the development process.
    Question. Mr. Secretary, what have you done to ensure that 
evaluation of TWIC moves forward in a manner that does provide the tax 
payer with a safe and secure transportation system, while improving the 
flow of commerce and constantly ensuring our citizens privacy?
    Answer. We recognize the urgency of the advancing this program. The 
Prototype Phase is scheduled to begin in the summer of 2004 and last 8 
months. We are committed to a fast track process for review of the 
results of the Prototype Phase and making final decisions on 
implementation.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

             CAPPS II--AIRLINE PASSENGER INFORMATION SYSTEM

    Question. Mr. Secretary, the fiscal year 2004 Homeland Security 
Appropriations Act included a provision requiring the General 
Accounting Office (GAO) to review the privacy and security of the 
proposed CAPPS II airline passenger pre-screening system. Last month, 
the GAO submitted a report to us that stated that your Department has 
met only one of the eight criteria that we set out before you could 
move ahead with deployment of the system.
    I understand that the Department concurs with GAO's findings. Where 
is DHS now in testing of the CAPPS II system? What is your timeframe? 
How long do you expect to test the system?
    Answer. Seven of the eight areas identified by the Congress could 
not be certified by the GAO as having been completed, as they are 
contingent on testing of CAPPSII. System testing can only begin once 
TSA obtains a significant quantity of PNR data from airlines or from 
U.S. Customs and Border Protection (CBP) under the terms of an 
agreement DHS reached with the European Commission for CBP's use of 
such data. However, the agreement has not yet been ratified by the 
European Parliament. Once PNR data is received for testing purposes, 30 
days is required for evaluation of the data. Testing will then be 
conducted for 30 days, followed by 30 days for analysis of the test 
results. Once testing is complete, the seven remaining areas of 
interest to the Congress can be certified by the GAO.

                           CAPPS II--TESTING

    Question. One of the concerns about the testing of the proposed 
CAPPS II system has been the lack of access to actual traveler data to 
test the system. Airlines have been reluctant to voluntarily provide 
data because of the very real concerns of privacy groups about how that 
data will be used. Some have stated that this lack of data for testing 
is one of the reasons why some of the specific criteria laid out in the 
Appropriations Act have not been met. There is some speculation that 
the Department is planning to issue regulations to compel airlines to 
provide data for the purposes of testing.
    Can you confirm for the Subcommittee whether the Department is 
planning to compel airlines to provide data on travelers for the 
purposes of testing CAPPS II? Will you provide this Subcommittee notice 
of your plans prior to making any public notice? Also, of the funds 
requested for this program in the fiscal year 2005 budget request, what 
is requested solely for additional testing of the program--as opposed 
to implementation and operation of the system?
    Answer. TSA plans to use the Notice of Proposed Rulemaking (NPRM) 
vehicle to seek public comment on the collection of Passenger Name 
Record (PNR) data for the operation of the CAPPS II program, and would 
likely issue an order compelling the collection of historical PNR data 
for testing purposes simultaneously with publication of that NPRM. Each 
of these documents would require regulated parties to take reasonable 
steps to ensure that passengers are provided notice of the purpose for 
which the information is collected, the authority under which it is 
collected, and any consequences associated with a passenger's failure 
to provide the information.
    As mentioned above, system testing can only begin once TSA obtains 
a significant quantity of PNR data from airlines or from U.S. Customs 
and Border Protection (CBP) under the terms of an agreement DHS reached 
with the European Commission for CBP's use of such data. However, the 
agreement has not yet been ratified by the European Parliament.
    There are two components to the plan for CAPPS II testing: testing 
with historical PNR data and full system testing that would take place 
once connectivity is established with an airline to test with live 
data. TSA estimates the cost associated with completing system and 
performance testing at $5 million. This involves testing to the system 
``end to end'' to validate the ability of the system to receive all of 
the different types of records from the airlines and post the results 
of the risk assessment to the boarding pass. Once system testing has 
been completed, performance testing is required to verify that the time 
required to complete each end-to-end transaction meets the system 
performance standards.

     FINGERPRINT DATABASE INTEGRATION: VASTLY DELAYED AND DANGEROUS

    Question. Last week, Department of Justice Inspector General Glenn 
A. Fine released a report that examined the case of a Mexican citizen, 
Victor Manual Batres, who had been detained by the Border Patrol on two 
occasions in January 2002 for illegally entering the United States. 
Both the Department of Justice and the Department of Homeland Security 
say they recognize that the databases need to be integrated, however 
the IG report found uncertainty as to who is responsible for the 
overall management of the integration project. It states that Justice 
and Homeland have yet to enter into a memorandum of understanding 
delineating the specific roles and responsibilities of each agency in 
the project. It also finds that the integration project recently has 
been slowed by the attention placed by Homeland on other technology 
projects, such as US VISIT. You may recall that I raised this issue 
with Secretary Ridge last year when he met with Senator Cochran and me 
to discuss fingerprint database integration as it related to US VISIT. 
Last week, Secretary Ridge acknowledged this problem and pledged to 
find $4 million this year to begin to ``fix'' it. From which sources 
will you find these funds and when can we expect to receive a 
reprogramming or transfer proposal?
    Answer. The Department of Homeland Security is committed to 
accelerating implementation of IDENT/IAFIS 10 fingerprint capability 
for enforcement processing at ports of entry, and at Border Patrol 
locations and Immigration and Customs Enforcement offices.
    While we begin planning our implementation plan, we plan on using 
$4 million of the remaining funds provided in Public Law 107-117 
(fiscal year 2002 counter-terrorism funding) for IDENT/IAFIS 
implementation. The $4 million, when combined with fiscal year 2003 
funds already provided ($3.5 million obligated for IDENT/IAFIS), will 
allow BTS to implement IDENT with 10 print capabilities in secondary 
inspection at 115 airports, 14 seaports and 50 of the largest land 
border ports. In addition, this funding will support implementation of 
the IAFIS/IDENT 10 print capability at 70 percent of the Border Patrol 
stations. The remaining land ports of entry, 30 percent of the Border 
Patrol stations and major ICE locations (to be determined) will receive 
this capability early in calendar year 2005. Funding for fielding these 
capabilities is estimated to be approximately $3 million, including the 
implementation of IDENT/IAFIS at Border Patrol stations will provide 
the capability to biometrically identify and/or perform status 
verifications on individuals suspected of illegally crossing the 
border. Implementation at ICE offices will support investigation of 
individuals apprehended for overstays and/or watch list hits.
    Question. The IG report made a series of recommendations to 
expedite integration of IDENT/IAFIS. Does this mean that your 
Department will take the lead responsibility in merging these data 
bases so that similar tragedies can be prevented in the future? How 
long will a full integration take and how much is it likely to cost?
    Answer. Yes, the Department of Homeland Security will work with the 
Department of Justice to accelerate our integration into the FBI's 
IAFIS (10 print, criminal history) and the legacy INS IDENT (2-print, 
immigration) systems. An integrated workstation has already been 
developed. It has been deployed to a limited number of sites. DHS 
intends to complete deployment of this capability in 2005. The total 
cost for fielding the capability is expected to be $7 million and will 
be funded within existing resources.

                     FEDERAL AIR MARSHALS: STAFFING

    Question. Your budget request for the Federal Air Marshals is 
essentially a flat-line request similar to last year's funding level. 
Yet on two occasions in less than a year--late last summer and again 
over the recent winter holidays--you increased the threat level to Code 
Orange--in large part because intelligence and other indicators lead 
you to believe there were enhanced threats to the United States via 
airplanes flying into or over this country.
    However, based on budget briefings with my staff, I understand that 
the resources directed to this program are not sufficient to hire the 
number of Air Marshals that should be hired to maintain a more robust 
presence on targeted flights. If that is indeed accurate, why are you 
not requesting more funding for hiring additional air marshals, 
expanding their training, and increasing the tools at their disposal 
for protection of airplanes and their passengers?
    Answer. The Department of Homeland Security (DHS) continues to view 
the Federal Air Marshal Service (FAMS) as a fundamental component of 
our national security plan and overall counter-terrorism efforts. The 
services provided by the FAMS are integral to our efforts to instill 
and sustain public confidence in our civil aviation system and for 
providing an expanded law enforcement capability in our skies that 
previously did not exist. In fact, within the span of roughly two and a 
half years the FAMS has fielded a trained work force of literally 
thousands of Federal Air Marshals to protect America's citizens and 
interests in our commercial air transportation system.
    In this same time, DHS has also worked with the Congress to invest 
in, develop and implement a layered security plan that encompasses the 
coordinated efforts of an entire spectrum of Federal, State and local 
agencies. These agencies are working together to provide an array of 
intelligence, enforcement and protection services to our civil aviation 
system, our borders and to other areas vital to the Nation. Under this 
strategy, we have established mechanisms and programs designed 
specifically to complement one another within the limited resources 
afforded to the Department. For example, DHS has invested in cutting 
edge technology to airport and baggage screening activities; we have 
hardened cockpit doors; we have established a Federal flight deck 
officer training program; and we are continuously working to apply the 
latest intelligence information in shaping our decision-making and 
response to terrorist threats.
    The Department has also evaluated how to best use Federal Air 
Marshals to expand their effectiveness and overall impact. The FAMS was 
recently transferred from the Transportation Security Administration 
(TSA) to the U.S. Immigration and Customs Enforcement (ICE). This 
fusion of the FAMS into ICE not only establishes an integrated 
enforcement presence in the aviation sector; it enhances ICE's overall 
capabilities and resources to enforce its mission, which is to detect 
and prevent vulnerabilities or violations that threaten the Nation's 
homeland security. Furthermore, this realignment has made possible 
other initiatives such as the Mission Surge Program, which will pair 
Federal Air Marshals with ICE agents during peak threat periods, such 
as the Code Orange alerts or other such events.
    In addition to Mission Surge, the Department is also evaluating 
ways to capitalize on the presence of thousands of Federal law 
enforcement personnel using the civil aviation system to travel on a 
daily basis. Although these personnel cannot replace a Federal Air 
Marshal, they are armed and capable of providing a level of security in 
the case of an in-flight event. This initiative, known as the Force 
Multiplier Program, is in its infancy.
    Through this layered approach, the Department continues to make 
significant progress in our counter-terrorism efforts and capabilities. 
The Department will continue to work with you and other members of the 
Congress towards addressing your concerns and best meeting the Nation's 
homeland security requirements.

                       US VISIT: FULL DISCLOSURE

    Question. Last year Secretary Ridge took the old visa tracking 
system known as ``entry-exit'' and as one of his first acts he gave it 
a snazzy new name befitting the new Department--US VISIT--or the United 
States Visitor and Immigrant Status Indicator Technology. He also 
committed that US VISIT would be operational at all of our Nation's 
international airports and seaports by January 1, 2004. After some 
lobbying by the airlines, who were concerned about possible problems 
standing up the system--and leery of the prospect of long lines of 
weary holiday travelers, he pushed back the operational day to January 
5. By all accounts, the system worked, there were few technical 
glitches and, as you noted in your testimony, some bad actors have been 
caught by the new system. That is all to the good--as we want to know 
who is entering and existing our country. Indeed, Congress first 
started calling for an ``entry-exit'' system back in 1996.
    But there seems to be a disconnect. There seems to be a bit of 
over-selling of this program by the Secretary and the Department and 
the Administration. It is true that we are capturing information and 
checking fingerprints and photos with visa holders who are entering our 
country at 115 airports and 14 seaports--but do not pop the champagne 
just yet. At how many airports are we currently capturing information 
to verify who is exiting the country? One. At only one airport out of 
115 are we learning who is exiting our country. The same holds true of 
exit information at our seaports--one out of 14.
    Secretary Hutchinson, this troubles me. I am troubled that an 
extremely important security program--and one that I support--is being 
inaccurately represented. It is being presented as more than it truly 
is. And I am concerned that if the Secretary and the Department can 
make the claim that they met the deadline to get this program started--
when only half of the job is done for this first phase, how can we and 
the American people know that the next deadline is truly met? And, if 
you cannot meet your own self-imposed deadline for a relatively-easy 
system in a controlled environment (people waiting to board a plane), 
how can we be certain that you will meet your next deadline which we 
understand is verifying the entry and exit of visa holders at our 50 
largest land border ports-of-entry?
    Answer. As stated in the record, the first Congressional mandate 
for an electronic entry and exit system was in 1996. In 2000, the 
Immigration and Naturalization Data Management Improvement Act (DMIA) 
fully amended and replaced section 110 of the Illegal Immigration 
Reform and Immigrant Responsibility Act of 1996. Under the provisions 
of the DMIA, the Administration is required to integrate all authorized 
or required alien arrival and departure data that are in electronic 
format in existing systems maintained (at that time) by the Department 
of Justice and the Department of State. The DMIA also set forth 
timelines for this integration and deployment effort.
    On January 5, 2004, the deployment of the newly integrated systems 
containing alien entry and departure data was successfully launched to 
all of our Nation's international airports of entry, as well as to 14 
of the Nation's largest sea ports at which international travelers 
arrive. Although, not required by statute, the Secretary sought to 
improve on the mandate and requested that all non-immigrants with non-
immigrant visas entering at these locations should also have their 
fingerprints scanned so that checks of additional databases containing 
information on aliens could also be made. We are also piloting the 
capture of biometric data at the point of departure. The collection of 
data from the pilot sites is expected to continue until early in fiscal 
year 2005, with plans to initiate exit installation in fiscal year 2005 
based upon the solutions identified.
    Building upon these successes, US VISIT functionality will be 
deployed to the top 50 land border ports of entry in accordance with 
the timelines set forth in DMIA. US VISIT will work with the to-be-
awarded prime contractor to develop the processes, infrastructure and 
technology required to capture similar data upon entry and exit at the 
land borders in a way that will minimize any deleterious effect on the 
flow of goods and peoples across our borders.

                    TERRORIST WATCHLIST INTEGRATION

    Question. One of the most important items on the Department's list 
of unfinished business is the integration of terrorist watchlists. 
Earlier this year, Secretary Ridge said the list would be fully 
functional ``by mid-May.'' Because many of the agencies you oversee--
such as the Transportation Security Administration, Customs and Border 
Protection, and Immigration and Customs Enforcement--rely daily on 
accurate information about the potential threats to this country posed 
by individuals on these lists, I would imagine that the integration of 
this information would be a priority.
    What is the status of the watch list integration and what are you 
doing to ensure that rapid progress is being made on this important 
national security project?
    Answer. Integration of terrorist watchlists is proceeding. The 
Terrorist Screening Center (TSC) has been established with its own 
consolidated database comprising information from the Terrorist Threat 
Integration Center (TTIC). TTIC is collecting information from all the 
agencies holding watchlists to verify the information and add names and 
data to TSC's list.

                        INTEROPERABILITY GRANTS

    Question. According to ``A Needs Assessment of the U.S. Fire 
Service'', a report conducted by FEMA in conjunction with the National 
Fire Protection Administration, only one-fourth of all fire departments 
can communicate with all of their rescue partners. The Council on 
Foreign Relations' June, 2003 study on Homeland Security Needs 
estimated that the need for interoperable communications equipment 
funding was $6.8 billion over the next 5 years. The February 2003 
National Task Force on Interoperability report entitled ``Why Can't We 
Talk'' found that ``in many jurisdictions radio communications 
infrastructure and equipment can be 20-40 years old. Different 
jurisdictions use different equipment and different radio frequencies 
that cannot communicate with each other. There are limited uniform 
standards for technology and equipment.''
    Last year, the Administration proposed and Congress agreed to drop 
homeland security funding specifically for interoperability grants. 
Once again, the President has proposed no specific funding for 
interoperable grants and the $85 million Department of Justice program 
for law enforcement interoperable grants is proposed for elimination. 
The Secretary recently announced a very modest interim solution to the 
interoperable problem. Yet, the Administration assumes that State and 
local governments will use their first responder grants for this 
purpose and requests no specific funding for the estimated $50 million 
cost for the interim solution.
    The President is proposing to reduce first responder grants by over 
$700 million and government-wide by $1.5 billion. With these cuts, why 
do you believe States will be able address both the interoperable 
communication problem as well as the funding shortfall in first 
responder requirements?
    Answer. The President's fiscal year 2005 budget request provides 
significant support for the mission and programs administered by the 
Office for Domestic Preparedness. As you know, The Homeland Security 
Act of 2002 (Public Law 107-296) designated ODP as the principal 
Federal agency responsible for the preparedness of the United States 
for acts of terrorism, including coordinating preparedness efforts at 
the Federal level, and working with all State, local, tribal, parish, 
and private sector emergency response providers on all matters 
pertaining to combating terrorism, including training, exercises, and 
equipment support.
    The President's request includes $3.561 million, which is a $3.3 
million increase from the fiscal year 2004 request. With these 
resources, ODP will be able to maintain its role in enhancing the 
security of our Nation. The two primary means through which ODP 
provides funds to States and the Nation's emergency prevention and 
response community are the Homeland Security Grant Program (HSGP) and 
the Urban Areas Security Initiative (UASI). The President's fiscal year 
2005 budget request includes $750 million for HSGP and more than $1.4 
billion for UASI. With these funds, states, urban areas, and other 
units of local government can undertake a wide range of domestic 
preparedness activities, including the purchase of specialized 
equipment. Interoperable communications equipment is an allowable 
expense and falls within the HSGP and USAI funding requirements. In 
fact, to facilitate communications interoperability, ODP strongly 
encourages all new or upgraded radio systems and new radio equipment 
purchased with these funds be compatible with a suite of standards 
called ANSI/TIA/EIAA-102 Phase 1 (Project 25). These standards have 
been developed to allow for backward compatibility with existing 
digital and analog systems and provide for interoperability in future 
systems.
    Overall, though, I think it is important to remember that we are 
operating in a fiscal and security environment where we must ensure 
maximum security benefits are derived from every security dollar. To do 
that, we must be able to take a new look at the way in which we 
allocate resources. Additionally, given the Department's improved 
ability to analyze risks, threats, and vulnerabilities, the Department 
is better able to provided targeted funds to increase the security of 
the Nation. The Department will continue to work with the States and 
territories to provide the resources they need--equipment acquisition 
funds, training and exercise support, and technical assistance--to 
deter, prevent, respond to, and recover from acts of terrorism.

                     GRANT CONSOLIDATION WITHIN ODP

    Question. On January 26, your Department exercised authority 
granted to you under Sec. 872 of the Homeland Security Act which 
permits the movement and consolidation of functions without 
congressional approval. Your proposal would consolidate the 
administration of 24 grant programs into a single office. During 
briefings for my staff, your aides justified this move as a way to 
address a strong interest by the States in a ``one-stop shopping'' 
center for all grants. I have serious concerns about the decision to 
transfer ALL Transportation Security Administration grant programs from 
TSA to the Office of Domestic Preparedness.
    Many of us in Congress have been concerned that while we passed 
legislation creating the Transportation Security Administration--this 
Administration has treated it as the Aviation Security Administration. 
TSA was created to focus on securing ALL modes of transportation--
buses, and trucking, and seaports--not just aviation. Aviation security 
is a primary concern, of course, but it cannot be the only concern. We 
on this Committee have had to cajole and wheedle and scrape together 
what few precious resources we could find to fund grant programs to 
address port security, and bus security, and trucking security and the 
safe flow of commerce traveling by sea. Now, you are shifting those 
programs to another agency with little expertise in transportation 
issues and proposing to eliminate funding for several of the programs. 
If these TSA grant funds are moved out of TSA's budget and away from 
its operational control, the President might just as well abolish the 
agency. Change the agency's name to the Only Aviation Security 
Administration.
    Why do you want to move these TSA grant funds to the ``one-stop 
shop''? Are you not concerned that TSA will lose its ``all 
transportation'' focus if its grant funds are removed from its budget?
    Answer. The move to create a one stop shop for grants is based upon 
input from the user or grantee community and is designed to enhance 
coordination of the multitude of preparedness and security grants 
currently administered by the Department (ODP, FEMA and TSA). The one-
stop shop consolidation will allow DHS to gain a global perspective on 
all of the grants to ensure that redundancies are minimized, funds are 
directed to the highest best use and DHS can proactively make 
recommendations to States, localities and other recipients on mutual 
aid and dual use opportunities.
    Moving the TSA grants to SLGCP will provide DHS with concrete 
benefits. First, it will allow the substantial bulk of the TSA 
personnel who are not impacted by the consolidation to focus on their 
core mission of transportation security. Next, it creates internal (to 
DHS) and external (to recipients) improved efficiencies because only 
one DHS team (SLGCP) will interact with grant recipients rather than 
two separate teams (one at SLGCP and one at TSA) and, more importantly, 
recipients who apply for more than one type of grant (e.g. a UASI and a 
TSA grant) will only need to deal with one DHS team (SLGCP).
    Final policy responsibility for grant guidance and grant 
distribution will reside with the Office of State and Local Government 
Coordination & Preparedness. However, overall hazards and 
transportation security policy input will remain with FEMA, TSA, as 
well as the Coast Guard, and MARAD. And, to ensure the continuing 
involvement of TSA in the grant process, ODP will create a distinct 
office dedicated specifically to transportation related grants. This 
office will work closely with TSA in developing transportation security 
grant policy.

                          STATE FORMULA GRANTS

    Question. Mr. Secretary, State formula grants have been the largest 
source of homeland security money for State and local governments. In 
fiscal year 2003, Congress provided $2.1 billion for State formula 
grants, and in fiscal year 2004 provided nearly $2.2 billion for this 
purpose.
    Your 2005 budget request drastically changes the scope of State 
formula grants. You request only $1.2 billion for the program, choosing 
instead to invest $1.4 billion into the urban areas security 
initiative, which targets specific cities. Your request also changes 
the way in which State formula grants are distributed. Your budget does 
not distribute funds according to the PATRIOT ACT requirement that all 
States get a portion of funds, but rather according to ``terrorism risk 
factors.'' I am sympathetic to your proposal to shift money from the 
State grant program to grants to high threat urban areas. Most of the 
funds should be targeted to the areas where the risk is highest. 
However, for the funds that remain in the State grant program, I 
believe the PATRIOT ACT formula should be retained. Will you keep the 
small State minimum for State grants as required by the PATRIOT ACT?
    This proposal effectively turns the State homeland security grants 
into an extension of the Urban Areas Security Initiative. I agree that 
it is important to target resources to areas at greatest risk, but it 
is equally important that we ensure that every State has they resources 
needed to build up a basic homeland security infrastructure. This 
budget does not achieve both goals.
    Answer. I strongly support the idea that homeland security is a 
national responsibility shared by all States, regardless of size. That 
is why I firmly believe that there should be a minimum level of 
preparedness across the county and that every State should receive some 
level of assistance from the Department of Homeland Security.
    Further, I strongly support the President's fiscal year 2005 budget 
request that provides for additional factors to be considered when 
making determinations on how to distribute homeland security funds to 
States and localities. While I support the concept behind the PATRIOT 
Act--that every State should receive minimum levels of support--I 
firmly believe that funding allocations decisions should be based on a 
number of other factors not included in the PATRIOT Act formula, 
including the presence of critical infrastructure and other significant 
risk factors. With the input that the Department is receiving from the 
States through their updated homeland security strategies, and with the 
more robust intelligence analysis and data collection capabilities 
within the Department, the Department will be better able to prioritize 
support for your efforts to prevent, prepare for, and respond to 
terrorist incidents. The President's fiscal year 2005 request 
recognizes this enhanced ability, and provides the Secretary of 
Homeland Security the latitude and discretion to determine appropriate 
funding levels to the States.

                           GRANT APPLICATIONS

    Question. Please provide the Subcommittee with a list of the number 
of applications (and the total amount requested) for port security, bus 
security, truck security, Operation Safe Commerce, hazmat security and 
fire grants per grant-making round and the amounts awarded on State by 
State basis.
    Answer. The following table provides the number of applications 
received and the total amount requested for port security, bus 
security, truck security and Operation Safe Commerce per grant round:

------------------------------------------------------------------------
                                             Number of
                                           Applications/   Total Amount
              Grant Program                  Proposals       Requested
                                             Received
------------------------------------------------------------------------
Port Security Round 1...................             856    $696,957,362
Port Security Round 2...................           1,112     995,905,305
Port Security Round 3...................           1,042     987,282,230
Intercity Bus Security..................              84      45,611,455
Truck Security..........................              16      70,984,782
Operation Safe Commerce.................              33      97,966,809
------------------------------------------------------------------------

    The following table provides the dollar amount of grants awarded by 
State:


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                          ODP Port                      Truck Security--
              State Name                Port Security   Port Security   Port Security     Security      Intercity Bus    Highway Watch    Operation Safe
                                        Round 1 Total   Round 2 Total   Round 3 Total   Grants Total   Security Total        Total        Commerce Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
ALABAMA..............................              $0        $948,000      $1,098,571              $0              $0                $0               $0
ALASKA...............................       1,344,929       4,086,255         758,569         250,000               0                 0                0
AMERICAN SAMOA.......................               0               0               0               0               0                 0                0
ARIZONA..............................               0               0               0               0          99,950                 0                0
ARKANSAS.............................               0               0               0               0               0                 0                0
CALIFORNIA...........................      17,152,573      28,017,757      33,704,614       9,076,700         177,116                 0       13,697,053
COLORADO.............................               0               0               0               0               0                 0                0
CONNECTICUT..........................         296,636       2,201,337       3,825,565               0               0                 0                0
DELAWARE/PENNSYLVANIA................       1,925,000       5,512,369       1,830,700       3,730,555         342,765                 0                0
DISTRICT OF COLUMBIA.................               0          27,356               0               0         773,614                 0                0
FED. STATES OF MICRONESIA............               0               0               0               0               0                 0                0
FLORIDA..............................      19,572,606      17,654,425       7,625,747      10,947,378         141,580                 0                0
GEORGIA..............................       2,305,400       2,629,643       4,237,611               0         265,003                 0                0
GUAM.................................               0               0         518,900               0               0                 0                0
HAWAII...............................         802,523       7,005,561       4,247,966               0               0                 0                0
IDAHO................................               0               0               0               0               0                 0                0
ILLINOIS.............................               0         872,250       7,025,300               0          51,278                 0                0
INDIANA..............................               0          68,800         353,760               0         113,813                 0                0
IOWA.................................               0               0          51,600               0         226,272                 0                0
KANSAS...............................               0               0         221,540               0               0                 0                0
KENTUCKY.............................               0          55,136       1,439,578               0               0                 0                0
LOUISIANA............................       4,968,207      19,991,897      23,552,896       6,650,200               0                 0                0
MAINE................................         175,000       2,054,000         621,200               0               0                 0                0
MARSHALL ISLANDS.....................               0               0               0               0               0                 0                0
MARYLAND.............................       3,764,000       4,518,532       5,586,150               0         338,482                 0                0
MASSACHUSETTS........................       3,789,669       4,333,651       3,005,829               0       1,173,875                 0                0
MICHIGAN.............................         135,000         409,000         897,263               0               0                 0                0
MINNESOTA............................               0               0         813,100               0         335,102                 0                0
MISSISSIPPI..........................         555,132         705,444       2,245,740               0               0                 0                0
MISSOURI.............................               0         125,000          50,000               0               0                 0                0
MONTANA..............................               0               0               0               0               0                 0                0
NEBRASKA.............................               0               0               0               0               0                 0                0
NEVADA...............................               0               0               0               0         320,791                 0                0
NEW HAMPSHIRE........................         200,000          80,000       1,570,203               0          73,182                 0                0
NEW JERSEY...........................               0       5,493,067       5,129,950       7,613,106       2,454,220                 0                0
NEW MEXICO...........................               0               0               0               0               0                 0                0
NEW YORK.............................       8,013,360       9,847,792       6,699,713       4,477,768         172,130                 0       13,818,770
NORTH CAROLINA.......................         250,000       4,870,000       3,224,114               0         566,591                 0                0
NORTH DAKOTA.........................               0               0               0               0               0                 0                0
NORTHERN MARIANA ISLANDS.............               0               0       1,379,577               0               0                 0                0
OHIO.................................         550,622         777,000       3,100,127               0          44,408                 0                0
OKLAHOMA.............................               0         725,000               0               0               0                 0                0
OREGON...............................         623,000       1,185,000       1,024,970               0           9,900                 0                0
PALAU................................               0               0               0               0               0                 0                0
PUERTO RICO..........................       3,000,000         637,000       3,585,870          23,490               0                 0                0
RHODE ISLAND.........................         261,500         435,000       1,498,563               0               0                 0                0
SOUTH CAROLINA.......................       1,819,072       1,845,389       5,225,019       5,124,554          35,263                 0                0
SOUTH DAKOTA.........................               0               0               0               0               0                 0                0
TENNESSEE............................         198,052         639,655         768,285               0         123,375                 0                0
TEXAS................................       8,345,366      18,814,061      31,960,813      12,158,057      10,755,138                 0                0
UTAH.................................               0               0               0               0               0                 0                0
VERMONT..............................               0               0               0               0         217,542                 0                0
VIRGIN ISLANDS.......................               0       1,873,245         869,275       1,582,468               0                 0                0
VIRGINIA.............................       6,044,618       5,068,358       1,681,280       6,600,000         841,330        19,300,000                0
WASHINGTON...........................       5,179,974      14,895,156       7,030,942       6,765,724          26,407                 0       27,528,219
WEST VIRGINIA........................         750,000         522,000         565,000               0               0                 0                0
WISCONSIN............................               0               0               0               0         120,873                 0                0
WYOMING..............................               0               0               0               0               0                 0                0
                                      ------------------------------------------------------------------------------------------------------------------
      GRAND TOTALS...................      92,022,239     168,924,136     179,025,900      75,000,000      19,800,000        19,300,000       55,044,042
--------------------------------------------------------------------------------------------------------------------------------------------------------

                        AIR CARGO: PILOT PROGRAM

    Question. I understand that the bulk of air cargo carried on 
narrow-body aircraft is broken down--as opposed to being containerized 
in larger containers. What percentage of U.S. flights carrying air 
cargo are made on narrow-body aircraft? Has TSA started physically 
screening these broken-down forms of air cargo using explosive 
detection devices--even if only in a pilot program as strongly urged by 
the Congress in the fiscal year 2004 Homeland Security Act? If not, why 
not? When do you intend to initiate such a program--given that the bill 
was signed into law on October 1, 2003--over 5 months ago?
    Answer. TSA does not compile statistics regarding the percentage of 
U.S. flights carrying air cargo utilizing narrow-body aircraft. Last 
November, TSA instituted mandatory cargo screening requirements for air 
carriers. The screening requirements apply to cargo transported on both 
wide body and narrow body aircraft--including ``break bulk'' shipments 
transported on narrow body aircraft. TSA is finalizing a protocol, 
which will allow the air carriers to utilize Explosive Trace Detection 
equipment to screen cargo. TSA is also currently conducting a pilot 
program of Explosive Detection Systems ability to screen cargo for 
explosives. As TSA's cargo screening requirements continue to evolve 
TSA will continue to test and analyze the feasibility of using 
additional explosive detection capabilities for cargo.

                        FLETC BUDGET: CHARLESTON

    Question. For many years, the FLETC has used facilities at the 
former Navy base in Charleston, SC as a satellite training location for 
training law enforcement personnel from the Border Patrol and other 
agencies because it was unable to accommodate them at its two main 
training facilities. Last year, prior to the creation of the Department 
of Homeland Security and the consolidation and reorganization of 
numerous agencies, Congress appropriated and the President signed into 
law approximately $14 million for the Border Patrol Academy at 
Charleston. I understand that FLETC proposes to move all Border Patrol 
training to its main facility at Glynco, GA and use the Charleston 
location for training for other agencies. However, that move is not 
likely to occur for nearly 2 more years. There is considerable 
confusion over the use of the funds provided by Congress for 
construction activities at Charleston. It is clear that the Congress 
intended for these funds to be used in Charleston. Will you commit that 
these funds will be spent in Charleston as directed by Congress and 
provide the Subcommittee with a plan for allocating those funds?
    Answer. The FLETC will use the funds in the amount of 
$13,896,000.00 for projects in Charleston. The Core of Engineers spent 
approximately $104,000 for design prior to the administrative transfer 
of Charleston to the FLETC. A summary of the projects are:
  --Construction of Tactical Training Mat Rooms for defensive tactics 
        training for the USCG Marine Law Enforcement Academy;
  --Renovation of new wing in Building 654 for administrative space for 
        the USCG Marine Law Enforcement Academy;
  --Renovation of four classrooms in building 61 for classroom space 
        for the USCG Marine Law Enforcement Academy;
  --Renovation of old wing in Building 654 for administrative, 
        conferencing and training space for the FLETC and Partner 
        Organizations' training management and operations staffs;
  --Construction of Indoor Firing Range to provide training and re-
        qualifying students in firearms proficiency; and
  --Construction of Security/Communications system that will allow the 
        FLETC Charleston to provide efficient and cost effective 
        training while utilizing the latest state of the art 
        technologies.

                FLETC BUDGET: FACILITIES OPERATING FUNDS

    Question. I am a strong supporter of consolidated Federal law 
enforcement training--in part because of the budgetary savings which 
can be achieved. During site visits by my staff to the FLETC facilities 
in SC and GA, they were told that the Border Patrol's training budget 
for activities at Charleston was $34 million in fiscal year 2004 and is 
proposed to be $42 million in fiscal year 2005. Is that correct? If so, 
where will these funds come from? Are the agencies going to transfer 
funds to FLETC or will FLETC bill them for training? Without clear 
indications of funding streams to pay for the operation of the facility 
in Charleston being placed in the FLETC budget--or in the budgets of 
the agencies attendant at these facilities--how can you ensure that 
consolidated training will work efficiently and that these facilities 
will operate robustly and effectively?
    Answer. The Border Patrol has been providing the funding to operate 
the Charleston facility since the late nineties. The amounts provided 
by the Border Patrol included resources for TDY of agents that are not 
applicable to the operations of Charleston by the FLETC. The final 
amount has not been determined but the current estimate is 
approximately $21 million to operate Charleston. In addition, 25 FTE 
will be necessary to operate the facility and the source of those FTEs 
are being determined. A transfer of funds from the Border Patrol to the 
FLETC will be necessary to align responsibilities with Federal 
appropriations. The FLETC is currently evaluating the resources 
required for the additional basic training programs to be conducted in 
Charleston for three new Partner Organizations. These new agencies are 
United States Coast Guard Marine Law Enforcement Academy, The 
Administrative Office of the U.S. Courts and the Defense Logistics 
Agency. The FLETC will not be able to operate the Charleston training 
site without these resources.

                  FLETC: CAPITOL POLICE TRAINING COSTS

    Question. What are the costs FLETC has borne for non-basic training 
conducted at the Cheltenham facility for the United States Capitol 
Police for fiscal years 2002-2004 and what are the anticipated costs 
for the same training for fiscal year 2005? What are the annual basic 
training costs?
    Answer. The Capitol Police have historically provided some follow-
on basic training for their officers at locations in the Washington DC 
area. This training was not done at a FLETC location, was never paid 
for by the FLETC, and therefore is not in the FLETC's base funding. 
This is consistent with other Partner Organizations such as the United 
States Secret Service which provides its follow-on basic training at 
their Beltsville location. Now that the Capitol Police is conducting 
agency specific basic training at a FLETC location, namely Cheltenham, 
for consistency purposes, this funding could be included as part of 
FLETC's annual workload projections. The precise amount of funding 
would need to be negotiated with the U.S. Capitol Police.

                     U.S. CAPITOL POLICE OPERATIONAL EXPENSES AT FLETC'S CHELTENHAM FACILITY
----------------------------------------------------------------------------------------------------------------
                                                                    Building 3      Building 31    Buildings 31,
                             Service                                Fiscal year     Fiscal year   231, 40 Fiscal
                                                                       2003            2003          year 2004
----------------------------------------------------------------------------------------------------------------
Electricity.....................................................          $5,554         $49,365         $52,364
Fuel Oil........................................................           5,361          21,259          25,516
Security........................................................           1,908          16,960          17,990
Telephone Service...............................................          10,106  ..............  ..............
Telephone Service...............................................  ..............          11,731  ..............
Telephone Service...............................................  ..............  ..............          10,169
Telephone Lease.................................................  ..............          84,844          84,844
Refuse Disposal.................................................             600             900             900
Water/Sewer.....................................................           1,636          14,537          15,420
General Janitorial..............................................           7,326          65,113          69,069
Additional Trash Pulls (Daily)..................................  ..............           5,172           5,172
                                                                 -----------------------------------------------
      Total.....................................................          32,491         269,880    \1\ 281,445
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.

                          FLETC: OTHER ISSUES

    Question. Approximately 60 percent of the FLETC workforce is 
comprised of contract employees. From perimeter security guards and 
role players used in training scenarios to food service workers and the 
maid service, these employees word hard and perform much needed 
services. Given the exceedingly high percentage of contract employees, 
does the Department expect FLETC to conduct further efforts to contract 
out yet even more work?
    Answer. The FLETC has developed a plan for competitive sourcing to 
be in compliance with the A-76 circular. At this time, the positions 
planned for study include 13 Automotive Mechanics in fiscal year 2005; 
21 Media Support positions and 30 Facilities Management positions in 
fiscal year 2006; 4 Critical Incident Stress Management positions and 9 
Property Management positions in fiscal year 2007; and 20 Human 
Resources positions and 36 IT/Training Devices/AV positions in fiscal 
year 2008.
    Question. The horrific events of 9/11 resulted in a massive 
increase in hiring of Federal law enforcement personnel. These new 
hires required training and Congress provided temporary authority to 
re-hire retired Federal annuitants to assist in training activities. I 
am told that these annuitants are providing FLETC and the Department 
excellent and valuable service based on their years of skill and real 
life experience. However, this authority will soon expire and I 
understand that a significant portion of FLETC's training would be 
negatively affected if it lost this authority. Do you plan to request 
that Congress extend this authority either permanently or for another 5 
years?
    Answer. The FLETC intends to recommend to the Administration an 
extension to its rehired annuitant hiring authorization and waiver to 
dual compensation. Historically, it has been very challenging for FLETC 
to recruit highly qualified law enforcement instructors with a Federal 
criminal investigative, GS-1811, background because the FLETC has no 
authority to pay law enforcement availability (LEAP) compensation. Any 
current Federal criminal investigator interested in an instructor 
position at the FLETC must be willing to take a 25 percent cut in his/
her annual salary when accepting a FLETC position. In addition, 
retaining their law enforcement ``6c'' retirement status sometimes 
becomes an issue, and they also lose their privileges to use government 
vehicles for response necessities.
    Prior to the tragic events of 9/11, the FLETC had been working 
vigorously with its former department, Department of the Treasury, and 
Office of Personnel Management officials to gain approval to implement 
the rehired annuitant hiring flexibilities contained within the Federal 
personnel management system. As mentioned above, the FLETC had been 
seeking this approval in order to overcome the recruitment and 
retention challenges associated with staffing Law Enforcement 
Specialist (Instructor), GS-1801, positions with applicants possessing 
extensive Federal criminal investigative backgrounds. Furthermore, the 
FLETC intended to maximize the provisions of the program by recruiting 
recent 1811 retirees who could share the latest law enforcement 
techniques and practices being utilized in the field.
    The need for the majority of FLETC instructors to possess a 
criminal investigative background has been and continues to be 
validated through management studies and student feedback surveys. 
Instructors having this background gain instant credibility with their 
students because they are able to share real world experiences and 
demonstrate the application of skills and information being taught. In 
addition, the FLETC's mission has continued to expand post 9/11 into 
areas such as counterterrorism, antiterrorism and transportation 
security training which require attracting even more specialized 
expertise in a highly competitive market. Therefore, it is essential 
that the FLETC continue to take advantage of this proven hiring 
flexibility in its efforts to maintain a highly qualified law 
enforcement training instructor workforce. Reverting back to 
traditional instructor recruiting and staffing practices would 
adversely impact and unduly hamper this effort.

                TSA: SLOW MOVEMENT OF APPROPRIATED FUNDS

    Question. In the fiscal year 2004 Homeland Security Appropriations 
Act, Congress provided $7 million for hazardous materials security and 
the truck tracking program, $10 million for intercity bus security 
grants, and $22 million for the trucking industry security program. 
That bill was signed into law in October. Nearly 6 months later those 
funds have not yet been released. Since security for these other modes 
of transportation are so important, why has TSA been sitting on these 
funds?
    Answer. In the coming months, TSA plans to request proposals for 
funding or announce awards for a number of programs. These include:
  --TSA anticipates issuing a Request for Applications (RFA) for both 
        the fourth round of Port Security Grants Program ($50 million 
        remaining from fiscal year 2004) and Intercity Bus Security 
        grants by late spring, 2004, with final awarding of grants 
        expected in late summer.
  --A fourth quarter fiscal year 2004 release of the RFA is anticipated 
        for both the Highway Watch Program and Operation Safe Commerce, 
        with final award anticipated in the fall.
  --TSA intends to announce Request for Proposals for the Truck 
        Tracking Project in early summer. Final award is anticipated in 
        early fall, 2004.
  --Award for Nuclear Detection and Monitoring is anticipated by mid-
        summer, 2004.

                             PORT SECURITY

    Question.The deputy assistant director of the FBI's 
counterterrorism office stated in January that our Nation's seaports 
remain vulnerable targets for attack. ``The intelligence we have 
certainly points to ports as a key vulnerability. I can't be more 
specific about the threats of attacks. We have received information 
that indicates there is an interest.''
    If there is an ``interest'' in attacking our ports, why does the 
Administration continue to refuse to give our seaports the resources 
they require to secure our ports? Why is only $46 million requested for 
port security grants when the port directors tell us that $1.125 
billion will be needed in the first year and $5.4 billion will be 
needed over the next 10 years to comply with the new Federal 
regulations mandated by the Maritime Transportation Security Act.
    Additionally, during the most recent port security grant 
competition (December 2003), over half of the funding for port security 
grants was awarded to private companies. A tremendous need for port 
security funding also exists for port authorities and State and local 
agencies. What approach are you taking to allocate the funding between 
these different entities? Additionally, what type of checks and 
balances do you have in place to ensure that private companies are not 
receiving a disproportionate share of this port security funding?
    Answer. In Port Security Grants Round 3, consistent with provisions 
of the Maritime Transportation Security Act of 2002, the Transportation 
Security Administration, U. S. Coast Guard and the Maritime 
Administration determined that regulated facilities should receive 
preference. The vast majority of regulated facilities are private 
companies. However, public entities were well represented with awards 
totaling 45.3 percent of the available funds.
    In general, port security grant funds are dispersed through a 
competitive grant process. The multi-level, interagency review ensures 
that these funds go to the highest national security needs.
  --Eligible grant applicants are limited to critical national seaports 
        as stipulated in the fiscal year 2002 DOD Supplemental 
        Appropriations (Public Law 107-117) and referred to in 
        subsequent appropriations. This designation included:
    --Controlled ports--Ports which have access controls for vessels 
            from certain countries due to national security issues
    --Strategic ports, as designated by a Maritime Administration port 
            planning order
    --A nationally important economic port or terminal responsible for 
            a large volume of cargo movement or movement of products 
            that are vital to U.S. economic interests as required for 
            national security
    --Ports, terminals, and U.S. passenger vessels responsible for 
            movement of a high number of passengers
    --Ports or terminals responsible for the movement of hazardous 
            cargo.
  --All grant applicants must have a completed security assessment and 
        tie the vulnerabilities identified in the assessment to the 
        mitigation strategies requested in the application.
  --Subject matter experts from the U.S. Coast Guard (USCG), the 
        Maritime Administration (MARAD), and TSA conduct a multi-level 
        review of all port security grant applications.
    --Field level review is conducted by the USCG Captain of the Port 
            and MARAD Regional Director to validate applicant 
            eligibility and prioritize all proposals within their zone, 
            utilizing the CG Port Security Risk Assessment Tool 
            (PSRAT).
    --National level review is conducted by representatives from the 
            USCG, MARAD, and TSA based upon published evaluation 
            criteria. All eligible proposals from the field level 
            review are prioritized on a national level.
  --Executive level review board of agency representatives examines the 
            recommended proposals from an overarching national 
            perspective.
  --Senior level selection board (currently TSA Administrator or his 
            representative, USCG Commandant or his representative, 
            MARAD Administrator) provides the final approval of the 
            proposed grantees/projects.

                     INTEGRATED FINGERPRINT SYSTEMS

    Question. Mr. Secretary, Senator Cochran and I met last year in the 
Capitol to discuss our concerns about the plans for obtaining only two 
fingerprints of visitors to the United States as a means to fulfill the 
biometric component portion of the entry-exit visa tracking system you 
have named US VISIT. I suggested that I was concerned that capturing 
only two fingerprints might make it more difficult to compare these two 
new prints with more extensive existing fingerprint databases such as 
the FBI's Integrated Automated Fingerprint Identification System 
(IAFIS). In fact your own Department's Inspector General report dated 
December 31, 2003 noted that the Department of Justice has worked for 
several years to integrate your Department's two-print system--known as 
the automated biometric identification system, or IDENT--with the FBI's 
IAFIS system.
    The IG states that, ``This integration is critical to identifying 
illegally entering aliens on lookout lists or with criminal histories, 
but progress has been slow.''
    What is the status of the integration of these systems? Can you 
give the Committee a progress report on the integration of these 
systems?
    Answer. Prior to the establishment of the Department on Homeland 
Security, DOJ, working with the FBI and INS, began work on a project to 
integrate the FBI's IAFIS (10 print, criminal history) and the INS' 
IDENT (2-print, immigration) systems.
    Since that time, an integrated IDENT/IAFIS workstation has been 
developed. DHS intends to accelerate deployment in 2004 and complete 
deployment by the end of calendar year 2005. To accelerate the 
implementation of IDENT/IAFIS capability within the Department, we 
intend to seek a reallocation of $4 million of the remaining funds 
provided in Public Law 107-117. The $4 million, when combined with 
fiscal year 2003 funds already provided ($3.5 million obligated for 
IDENT/IAFIS), will allow BTS VISIT to implement IDENT with 10 print 
capabilities in secondary processing areas at 115 airports, 14 seaports 
and 50 of the largest land border ports. In addition, this funding will 
support implementation of the IAFIS/IDENT 10 print capability at 70 
percent of the Border Patrol stations. The remaining land ports of 
entry, 30 percent of the Border Patrol stations and major ICE locations 
(to be identified) will receive this capability in 2005. The 
implementation of IDENT/IAFIS at Border Patrol stations will provide 
the capability to biometrically identify and/or perform status 
verifications on individuals suspected of illegally crossing the 
border. Implementation at ICE offices will support investigation of 
individuals apprehended for overstays and/or watch list hits.

                              IMMIGRATION

    Question. The Enhanced Border Security and Visa Entry Reform Act 
requires all immigration databases to be made interoperable and, 
eventually, combined into the Chimera data system, which is to include 
all known immigration, law enforcement, and intelligence data on 
aliens. What progress has been made thus far on creating the Chimera 
data system?
    Answer. On the 28th of October 2002, the Immigration and 
Naturalization Service published an informational document regarding a 
comprehensive information technology planning and infrastructure 
modernization program called ``Atlas''. That document was entitled the 
``Atlas Business Case'' and provided a concise high-level view that 
demonstrated the INS' confidence in Atlas' strategic, technical, and 
financial merits. The business case reflected investment principles, 
emulation of industry best practices, and compliance with the Clinger-
Cohen Act of 1996, as well as with other related legislative and 
government guidance.
    Consistent with the urgencies of the Government's post-September 11 
security agenda, the Atlas Business Case was subsequently socialized 
and promoted within the Department of Justice and sent to the Hill for 
budgetary consideration. It was understood that the Atlas Program would 
be the fundamental IT infrastructure foundation on which INS business 
applications would operate. In its business case, the INS illustrated 
that the successful Atlas transformation strategy would hinge upon a 
robust IT infrastructure containing a secure, scalable backbone that 
would support all INS business processes. Atlas, it was shown, would 
also provide database interoperability at the infrastructure level and 
support data sharing at the applications level. From the beginning, the 
Atlas design strategy also supported emerging Department of Homeland 
Security (DHS) requirements. Unlike the previous environment, Atlas was 
proposed to reside within an integrated Enterprise Architecture (EA) 
that would harmonize the following:
  --System hardware, including mainframes and servers
  --Data services, including data and voice circuits
  --Data communication equipment, including servers, switches, local 
        area networks (LAN), wide area networks (WAN), routers, and 
        cabling
  --Computer security, information assurance activities and enterprise 
        information. This, specifically, is the area that would later 
        come to be identified as the focus area for the suggested 
        Chimera project.
  --Workstations, including personal computers and laptops and 
        enterprise-wide software (i.e., office automation, e-mail, 
        operating system, etc.)
  --Operational support to maintain and operate the modernized IT 
        infrastructure
    Perhaps in contemplation of partitioning and re-tasking of the INS 
and its resources, or perhaps in calculating the initial complexity and 
cost of implementing Atlas, a counter-suggestion was made in committee 
and transmitted back to the Department of Justice and the INS that 
certain specific information security and assurance attributes of Atlas 
could be separately expedited and put into action under a new 
initiative tentatively labeled ``Chimera''.
    However, other program initiatives under way at INS and the new 
Department of Homeland Security were also addressing the same security 
concerns. In particular, the ``US VISIT'' program had pursued the same 
set of concerns and an active, high-precision approach for addressing 
critical information security and assurance requirements.
    Because of the US VISIT Program's ongoing and comprehensive 
approach to information security and assurance requirements within the 
DHS sphere of immigration-related operations, Chimera has been 
suspended and is being revisited to determine its potential as a 
duplicative effort.
    Question. As part of the 1990 Immigration Act, Congress authorized 
general arrest authority for all immigration law enforcement officers. 
INS never developed regulations to implement this authority. Has DHS 
developed such regulations?
    Answer. Yes, ICE issued a memo implementing general arrest 
authority for the ICE Office of Investigations and Detention and 
Removal in November 2003.
    Question. Representatives of the Department of Homeland Security 
Council (union of legacy INS employees) reported at a press conference 
on March 3 that no more than 5 percent of Immigration and Customs 
enforcement personnel have received cross-training. When does DHS 
expect to complete cross-training of all existing personnel? What 
percentage of all needed cross-training is funded in the President's 
budget proposal?
    Answer. OI conducted a manual survey the last week of March 2004. 
At that time 830 Special Agents had completed the cross-training. This 
accounts for 19 percent of the OI workforce of 4,463 which is targeted 
for cross-training in this fiscal year. The Automated Class Management 
System is expected to be on-line by the end of April, 2004. At that 
time, training statistics will be more readily available.
    OI has established a target to complete the cross-training for all 
non-supervisory Special Agents GS-05 through GS-13 by the end of fiscal 
year 2004. This cross-training will be accomplished using a train-the-
trainer format with initial training being conducted at the Federal Law 
Enforcement Training Center.
    Cross-training beyond this priority group and into fiscal year 2005 
will be funded out of base appropriations.
    Question. A pay disparity of a full grade exists between 
Immigration Special Agents (GS-12) and Customs Special Agents (GS-13). 
It appears that the new regulations proposed by the Administration 
would hide this disparity within a pay scale, rather than addressing it 
directly. Is this correct and, if so, what impact is this disparity 
having on morale within ICE
    Answer. On April 13, 2004, Mr. Garcia announced that new Criminal 
Investigator (CI) position descriptions had been classified and all ICE 
GS-1811 series employees would be assigned to them by May 2004. The new 
journey-level position, which is established at the GS-13 level, will 
be applied at that time to all qualifying criminal investigators. As a 
result, the approximately 1,200 former Immigration and Naturalization 
Service (INS) personnel affected by this pay gap will be eligible for 
immediate promotion to GS-1811-13 on May 2, 2004.

                              OTHER ISSUES

    Question. Does the fiscal year 2005 budget assume the 
reauthorization of COBRA which is set to expire on March 31, 2005?
    Answer. Public Law 108-121 reauthorized COBRA through March 1, 
2005. The fiscal year 2005 budget assumes that COBRA will be 
reauthorized beyond the March 1st expiration date.
    Question. What is the net increase in discretionary funding 
(excluding supplemental appropriations) for the Department of Homeland 
Security Bureau of Customs and Border Protection Salaries & Expenses 
between fiscal year 2004 and fiscal year 2005? Looking at the fiscal 
year 2005 budget it appears that the increase is just over 4 percent 
barely enough to cover for inflation.
    Answer. There is a $210 million net increase in discretionary 
funding for CBP's Salaries and Expenses between fiscal year 2004 and 
fiscal year 2005. This net increase includes $185 million in program 
increases and $350 in increases for annualizations of prior year pay 
raises and other inflation related costs. These increases are offset by 
a $23.7 million decrease for a DHS-wide savings initiative, termination 
of one-time costs associated with fiscal year 2004 program increases 
and the fiscal year 2004 rescission.
    Question. What is the Department doing to correct the problem of 
the Department not paying legacy Customs Inspectors and new CBP 
officers for their required work on the 60 day of basic training at the 
Federal Law Enforcement Training Center (FLETC)?
    Answer. We do pay employees covered by the Fair Labor Standards Act 
(FLSA) overtime while engaged in training at FLETC for 6-day weeks. The 
Government Employee and Training Act (GETA) prohibits us from paying 
non- FLSA employees under FLSA provision. Our COPRA covered front-line 
personnel are not subject to FLSA. COPRA was specifically designed for 
Customs Officers and is the exclusive pay act for our Customs legacy 
personnel. Our agency position on this matter was recently sustained in 
an arbitration decision.
                                 ______
                                 

            Questions Submitted by Senator Daniel K. Inouye

    Question. Recently, a week-long convention of Asian life insurance 
providers and sales representatives scheduled to convene in Honolulu 
this August was cancelled. The convention was expected to produce more 
than $17 million in visitor spending, $1.41 million in State taxes, and 
rent 6,500 hotel room nights. The cancellation was not due to lack of 
interest by prospective attendees, but instead was due to the problems 
caused by the extended visa issuance process. Your Department has been 
working with the State Department to enhance security and the integrity 
of the visa process. Your budget requests an increase of $10 million to 
support a new visa security unit. How will this unit help to ensure 
that visas are processed quickly to ensure that Hawaii will be able to 
host similar conventions in the future?
    Answer. BTS is working with the State Department to assure that the 
provisions of the law known as Section 428 are implemented. The ICE VSU 
will be deploying Visa Security Officers to selected foreign posts; 
will be working to enhance State Department Consular officer training; 
will be working to improve the Visa Security Advisory Opinion (SAO) 
process; and develop with the State Department the appropriate employee 
performance plan oversight of Consular Officers by DHS. All of these 
efforts will improve the integrity of the visa issuance process and 
assure that visa applicants receive the appropriate level of review.
    The Department of Homeland Security's (DHS) visa security 
operations are located exclusively in Saudi Arabia at this time. Since 
beginning our operations in Saudi Arabia, thousands of visas 
applications have been reviewed by DHS officers. From over 3,500 
applications, approximately 27 have been delayed for reasons of 
security. Most visa applications in Saudi Arabia are acted upon within 
48 hours. This is in compliance with congressional language as to 100 
percent review of visa applications in Saudi Arabia.
    It is anticipated, DHS will dedicate staff to the SAO process, 
which in turn will further aid to expedite requests and ensure timely 
security screening on behalf of our officers in the field.
    Question. The budget justifications for the US VISIT program 
discuss the deployment plan for the full program. In furtherance of 
complete implementation, a Request for Proposals was published last 
November with bids due this January. How many proposals were received? 
In light of the proposals you received, is the budget request 
sufficient for full implementation of the program, including the 
meeting of your statutory deadlines for deployment to the 165 
identified points of entry?
    Answer. We received three bids for the Prime integrator contract.
    With the resources in the fiscal year 2004 appropriation, and 
provided approval of the fiscal year 2005 President's request, US VISIT 
will have the resources necessary to the meet the statutory deadline 
(US VISIT functionality in secondary) for the 50 largest land border 
ports by December 31, 2004 and the 115 remaining land sites by December 
31, 2005.
    Question. The budget request includes an increase of $23 million 
for Immigration and Customs Enforcement. This increase is intended to 
more than double the number of investigators and facilitate the 
implementation of the President's proposal for a temporary worker 
program. According to your testimony, in furtherance of the President's 
proposal, you would establish a traditional worksite enforcement 
program to deter the hiring of unauthorized workers. What efforts are 
currently being undertaken to detect, deter, and punish employers who 
hire undocumented workers?
    Answer. Enforcement efforts targeting companies that break the law 
and hire illegal workers will need to increase in order to ensure the 
integrity of the temporary worker system. The President's Immigration 
proposal provides for an enhanced worksite enforcement program, and the 
$23 million requested for fiscal year 2005 will allow ICE to enhance 
its worksite enforcement efforts and provide credible deterrence to the 
hiring of unauthorized workers. ICE worksite enforcement investigations 
generally involve a review of company employment records to verify the 
immigration status of workers and to determine if the employer has 
committed any violations. ICE agents also conduct extensive outreach 
initiatives to educate employers about their legal responsibilities.
    Additionally, the Basic Pilot Program, an automated system 
administered by USCIS, enables employers to verify the immigration 
status of newly hired workers. It is currently available in six states, 
but is planned for availability to employers in all 50 states by the 
end of this year. This is a voluntary program and is provided at no 
cost to employers. Information on the Basic Pilot Program is available 
to the public on the USCIS website.
    Question. The Visa Waiver Program is a critical element of the 
Hawaii tourism industry as it allows citizens of 27 countries to enter 
for non-immigrant purposes without a visa. However, by October 26, all 
Visa Waiver countries must certify that the new passports they are 
issuing contain biometric identifiers. How many of the 27 countries are 
currently expected to meet this deadline? Would you support extending 
the biometric passport deadline in order to avoid major disruptions in 
travel to the United States from key tourism markets in Europe and 
Asia? What is the Directorate doing to work with the foreign 
governments in the visa waiver program to encourage compliance?
    Answer. Due to a variety of factors, the Departments of Homeland 
Security and State have requested a 2-year extension for the October 
26, 2004 deadline for machine readable, biometric passports. The 
problem is not lack of will or commitment, but challenging scientific 
and technical issues. Due to technical challenges that include the 
durability of chip technology and the feasibility of facial recognition 
technology in an operational environment, few, if any, of the 27 
countries participating in the Visa Waiver Program (VWP) will be able 
to meet the October 26, 2004 deadline. In fact, the standards have not 
yet been set. Therefore, a 2-year extension is being requested to make 
it possible for countries to comply with this mandate.
    The Department of Homeland Security has been working very closely 
with foreign governments to develop the optimum solution that enhances 
security for all without impeding legitimate travel and tourism. All 
citizens traveling under the Visa Waiver Program will be enrolled in US 
VISIT upon entry through an air or sea port after/on September 30, 
2004.
                                 ______
                                 

           Questions Submitted by Senator Ernest F. Hollings

                 SEAPORT SECURITY IMPLEMENTATION COSTS

    Question. Commissioner Bonner announced with much fanfare, that we 
would sign agreements with major foreign ports, under the ``Container 
Security Initiative'', so that we could inspect containers in foreign 
seaports. It is my understanding, that while this sounds quite smart, 
there are a lot of practical problems. For instance, foreign nations 
use their own security equipment for security to protect their own 
ports, and they have not been all that forthcoming in providing their 
security equipment for our use.
    Can you tell me, how many marine containers underwent physical 
inspection, in foreign ports as a result of the ``Container Security 
Initiative''? What does this represent as a portion of the total that 
was physically inspected?
    What is the budget for the implementation of non-intrusive 
inspection equipment at U.S. ports, and how does it compare with the 
budget for the ``Container Security Initiative''?
    Answer. All cargo moving through a CSI port is screened by CBP 
using our multilayered targeting and risk analysis systems. All high-
risk cargo is inspected for weapons of mass destruction before being 
laden on a vessel bound for the United States in a CSI port. Physical 
inspection statistics for containers will be provided by the General 
Accounting Office in the forthcoming review of the CSI program.
    As of April 23, 2004, U.S. Customs and Border Protection has 
deployed approximately $73.9 million worth of large-scale, non-
intrusive inspection systems and radiation portal monitors to U.S. 
seaports. The Container Security Initiative (CSI) was appropriated 
$61.7 million in the President's 04 budget, of which approximately $12 
million has been allocated for non-intrusive inspection equipment for 
the CSI overseas ports.
    Question. The budget for FTE's for full time positions was set at 
220 for the Transportation Security Administration's Maritime and Land 
Division, yet it is my understanding that to date, this Division is 
only operating with 160.
    You have a number of responsibilities, such as conducting criminal 
background investigations, that are languishing. What is taking so long 
in hiring the remaining 60 Full Time Employee positions that, I 
understand are budgeted for the Transportation Security 
Administration's Maritime and Land Division but not yet hired?
    Answer. The Office of Maritime and Land Security (MLS) within the 
Transportation Security Administration currently has 169 full-time 
employees on board. We do not anticipate at this time hiring additional 
FTE.
    With reference to criminal background check responsibility, since 
security threat assessments of certain individuals within the 
transportation system are a critical component of our mission, TSA 
created a Credentialing Program Office (CPO) to consolidate TSA 
background check activity across all modes of transportation. The CPO 
has established processes for conducting background checks, 
adjudicating results and for follow-on coordination with the law 
enforcement and intelligence communities. TSA is already required to 
conduct criminal history records checks on airport security screening 
personnel, individuals with unescorted access to secure areas of 
airports, and other security personnel--pursuant to Section 114(f)(12) 
of the Aviation and Transportation Security Act, Public Law No. 107-71, 
115 Stat. 587 and 49 USC  44936 (a)(1)(A). In addition to the 
extensive background checks that TSA currently undertakes in aviation 
security, TSA has been delegated responsibility for conducting security 
threat assessments on commercial drivers seeking hazardous material 
endorsements for transporting hazardous materials in commerce pursuant 
Section 1012 of the Uniting and Strengthening America by Providing 
Appropriate Tools Required to Intercept and Obstruct Terrorism (USA 
PATRIOT) Act, Public Law 107-56, October 25, 2001, 115 Stat. 272. 
Implementing the Alien Flight Student Program will be consistent with 
work already underway by TSA through the CPO.

                             ARMING PILOTS

    Questions. Last week, Denver news stations were reporting that 
commercial airline pilots that have been armed with semi-automatic 
pistols through the Federal Flight Deck Officer (FFDO) program were 
misplacing or losing weapons at an alarming rate. According to Channel 
9 News, the Transportation Security Administration (TSA) and Airline 
Pilots Security Alliance were the source of information indicating that 
in the last 60 days approximately 300 weapons had been misplaced by 
FFDOs.
    My understanding is that a Southwest Airline Pilot lost his weapon 
while it was being transported in the lockbox system that is designed 
to protect it while traveling, and that most of the guns reported as 
``misplaced'' came under similar circumstances.
    Are the reports of misplaced and lost weapons by FFDOs accurate? Do 
you believe the current procedures for FFDO firearm transport are 
proper? How many FFDOs have actually lost or misplaced their weapons 
since the program began? What steps need to be taken to responsibly 
ensure that armed pilots do not lose or misplace their guns?
    Answer. TSA takes seriously its obligation to ensure that FFDO 
firearms and lockboxes do not fall into the hands of individuals not 
authorized to handle such items. The FFDO program office works closely 
with carriers to ensure that training is provided to crewmembers and 
baggage handlers to ensure proper handling and storage of lockboxes. In 
some instances, lockboxes have been identified as not placed in the 
precise location expected, but with the exception of the one reported 
incident, the lockbox has always been quickly retrieved without 
endangering the traveling public.
    There has only been one incident involving an FFDO firearm that was 
lost and not recovered. TSA takes this incident very seriously and is 
pursuing an investigation. It must be considered in light of the 
thousands of FFDO missions flown every week and the number of incidents 
where weapons are lost or stolen in law enforcement activities.

                             COCKPIT DOORS

    Questions. For 2 years, I was repeatedly told that it was not 
possible to devise an affordable system that would properly allow a 
pilot to leave the flight deck without also potentially allowing a 
terrorist to have access to the cockpit. Now, United Airlines has come 
forward and announced a ``Secondary Barrier Project'' that they have 
committed to install fleet-wide.
    United Airlines has committed to install--fleet-wide--barriers that 
have already been certified to help prevent a potential terrorist 
access to the cockpit. They will be cheap (under $10,000) and quick to 
install (overnight). I believe they will provide a much greater degree 
of security, and apparently it was shown to the TSA with great 
enthusiasm.
    Are you aware of United's effort? Do you believe the installation 
of second doors or barriers improve the security on commercial 
airliners? Has TSA considered requiring all commercial airlines to 
install similar devices? Would their installation allow TSA to change 
other security directives and perhaps lower the cost of aviation 
security?
    Answer. TSA is aware of and applauds United's initiative in this 
effort. TSA will work closely with the air carriers to better 
understand the security effectiveness, structural feasibility, and 
costs associated with installing similar devices throughout the 
commercial aviation fleet. Once a thorough examination in these areas 
has been completed, TSA will assess the appropriateness of requiring 
installation of secondary cockpit doors relative to existing security 
measures and determine what, if any, alterations should be made to the 
overall aviation security program.

                             RAIL SECURITY

    Question. Border and Transportation Security Directorate is charged 
with, ``securing our Nation's transportation systems.'' How much 
funding is planned in your Directorate's fiscal year 2005 budget for 
rail security?
    Answer. The responsibility of securing our Nation's rail and mass 
transit systems is a shared one. DHS, DOT, and other Federal agencies 
are working together to enhance rail and transit security in 
partnership with the public and private entities that own and operate 
the Nation's rail and transit systems. The DHS Urban Area Security 
Grant program has awarded or allocated over $115 million to improve 
security for mass transit and rail systems since May 2003. 
Additionally, the Administration has requested $24 million for TSA to 
advance security efforts in the maritime and surface transportation 
arenas, and has requested that $37 million of the Federal Transit 
Administrations Urban Security Bus grants be available for security 
related projects. In addition, DHS will conduct the following 
activities and initiatives to strengthen security in surface modes:
  --Implement a pilot program to test the new technologies and 
        screening concepts to evaluate the feasibility of screening 
        luggage and carry-on bags for explosives at rail stations and 
        aboard trains;
  --Develop and implement a mass transit vulnerability self-assessment 
        tool;
  --Continue the distribution of public security awareness material 
        (i.e., tip cards, pamphlets, and posters) for motorcoach, 
        school bus, passenger rail, and commuter rail employees;
  --Increase passenger, rail employee, and local law enforcement 
        awareness through public awareness campaigns and security 
        personnel training;
  --Ensure compliance with safety and security standards for commuter 
        and rail lines and better help identify gaps in the security 
        system in coordination with DOT, with additional technical 
        assistance and training provided by TSA;
  --Continue to work with industry and State and local authorities to 
        establish baseline security measures based on current industry 
        best practices and with modal administrations within the DOT as 
        well as governmental and industry stakeholders, to establish 
        best practices, develop security plans, assess security 
        vulnerabilities, and identify needed security enhancements; and
  --Study hazardous materials (HAZMAT) security threats and identify 
        best practices for transport of HAZMAT.

                FEDERAL LAW ENFORCEMENT TRAINING CENTER

    Question. The Federal Law Enforcement Training Center (FLETC) 
established a temporary overflow training facility for basic training 
of Border Patrol recruits in 1996 at the old Navy Base. Border Patrol 
training needs drastically increased due to legislation passed by 
Congress to significantly increase the number of agents deployed.
    The facility was due to close in 2004, however Congress included a 
provision in the fiscal year 2003 Commerce, Justice and State 
Appropriations Bill which officially designated Charleston as a 
permanent Federal training center absolving the end date of the 
Charleston site as a temporary facility. Congress also secured $14 
million in the fiscal year 2003 Commerce, Justice and State 
Appropriations Bill for the Charleston Border Patrol Academy to improve 
the infrastructure for the training center.
    Since the Federal Law Enforcement Training Center (FLETC) has taken 
administrative control of the site in Charleston, how much of the $14 
million has being transferred from Customs and Border Protection to 
FLETC for use in Charleston?
    Answer. A Reimbursable Agreement (RA) between the FLETC and 
Immigration and Custom Enforcement (ICE) has been prepared in the 
amount of $13,896,000. The FLETC has signed the agreement with a 
statement of work attached and forwarded to ICE for approval. The Core 
of Engineers spent approximately $104,000 for design prior to the 
administrative transfer of Charleston to the FLETC. A summary of the 
Charleston projects are:
  --Construction of Tactical Training Mat Rooms for defensive tactics 
        training;
  --Renovation of new wing in Building 654 for administrative space for 
        the USCG Marine Law Enforcement Academy;
  --Renovation of four classrooms in building 61 for classroom space 
        for the USCG Marine Law Enforcement Academy;
  --Renovation of old wing in Building 654 for administrative, 
        conferencing and training space for the FLETC and Partner 
        Organizations' training management and operations staffs;
  --Construction of Indoor Firing Range to provide training and re-
        qualifying students in firearms proficiency; and
  --Construction of Security/Communications system that will allow 
        FLETC Charleston to provide efficient and cost effective 
        training while utilizing the latest state of the art 
        technologies.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                                  TSA

    Question. I am very concerned about numerous reports of 
mismanagement I have heard with TSA Human Resources and its 
contractors, currently Accenture. I am aware of one Burlington, 
Vermont, Screener Manager and as many as 80 Screener Managers at Dulles 
who were promoted to their positions on February 9, 2003, yet they have 
still not received the full back pay for their promotions.
    I have been waiting since November 6, 2003, for a written 
explanation as to why the Burlington, Vermont, employee has not 
received any back pay. Apparently, the Office of Chief Counsel is still 
reviewing the matter.
    The best explanation I have heard so far--just informal, nothing in 
writing--was that the airports were not authorized to make all of the 
promotions on February 9, 2003, but went ahead and made them anyway. At 
best, this sounds to me like a big communications problem between TSA, 
its HR contractor, and the airports. At worst, this sounds like the 
employees were misled. Unfortunately, it is the people who have been 
performing the work who are getting the raw end of the deal.
    Could you please update me on this situation and explain what is 
being done to remedy the back pay issue?
    Answer. A reply to your letter regarding the constituent in 
Burlington was sent to you in March 2004. A copy of the letter, dated 
March 19, 2004, was faxed to your office on April 21, 2004. To 
summarize what TSA stated in the letter, we could not backdate your 
constituent's promotion because TSA policy stipulates that promotions 
do not become effective until they receive final approval by the 
necessary TSA officials. This policy is based in part on a U.S. 
Comptroller General precedent.
    Taking care of our employees is a very high priority for TSA. It is 
very important to TSA that its employees receive the compensation for 
the jobs that they are performing and that those who were promoted to 
the Lead and Supervisory Screener positions were promoted 
appropriately. At Dulles, all appropriate promotions were made, and all 
one-time awards were paid. TSA believes that all of these issues at 
Dulles have now been fully resolved.
    The issues involving lead and supervisory positions at Dulles 
resulted when screeners were offered promotions inappropriately. At the 
time this situation occurred, TSA was transitioning from its initial 
human resources service contractor to the current contractors and was 
building a fully functioning human resources organization, including 
program management of the contractors. Dulles posted job announcements 
internally for the positions of Lead Screeners and Supervisory 
Screeners with a closing date of December 20, 2002. Unfortunately, at 
that time, the FSD organization at airports did not have delegated 
authority to conduct recruitment and assessment processes, which 
includes the authority to promote existing employees at the airport.
    TSA's Office of Human Resources did not become aware of the issue 
until May, 2003. TSA worked expeditiously to develop a solution whereby 
all individuals who were inappropriately promoted at Dulles were 
provided compensation with a one-time monetary award, consisting of the 
difference between their screener salary and the salary that they would 
have received for the period they were ``promoted.'' Additionally, TSA 
``re-announced'' the supervisory screener positions, and screeners who 
were inappropriately promoted were afforded full and fair opportunity 
to compete for the positions. TSA provided affected screeners the one-
time award regardless of whether they succeeded or not in being 
promoted under the valid procedure.

                                 HAITI

    Question. I am concerned by the Department's response to those who 
have fled Haiti in recent weeks. Haitians intercepted at sea have 
received entirely inadequate screening for asylum. For example, while 
all interdicted Cubans are individually interviewed regarding their 
fear of persecution, only those Haitians who loudly protest their 
return--the so-called ``shout test''--receive such an interview. I 
joined with Senators Kennedy and Durbin in writing to the President 
last week to protest and seek changes in this and other policies. (A) 
Will you provide individual interviews to all Haitians interdicted at 
sea? (B) Will you suspend deportations against Haitians currently in 
the United States until the political situation in Haiti improves?
    Answer. Haitians manifesting a fear of return are and will continue 
to be interviewed by a USCIS Asylum Pre-Screening Officer (APSO). In 
accordance with Department of State direction, DHS will continue to 
conduct non-criminal Haitian removals.

                          DATABASE INTEGRATION

    Question. The Washington Post yesterday editorialized about a 
report Inspector General Fine issued last week on the slow pace of the 
integration of IDENT and IAFIS, the fingerprint identification 
databases of the former INS and the FBI. The report examined the case 
of Victor Manual Batres, a Mexican national with a criminal history who 
was twice simply returned to Mexico by Border Patrol agents whose 
database did not identify him as a wanted man. Batres eventually 
entered the country illegally, and then raped two nuns in Oregon, 
killing one. The Inspector General reported that the integration that 
would give Border Patrol agents access to the FBI database was 2 years 
behind schedule, and was not expected to be completed until 2008. Last 
week's report is the third OIG report in the last 4 years to highlight 
various aspects of this problem. (A) Why has progress on this issue 
been so slow? (B) When can we expect that Border Patrol agents will 
have access to the immigration and criminal histories in one database? 
(C) When will DHS enter into an MOU with DOJ about how this integration 
will happen?
    Answer. The Department of Homeland Security is committed to 
accelerating implementation of IDENT/IAFIS 10 fingerprint capability 
for enforcement processing at ports of entry, Border Patrol locations, 
and Immigration and Customs Enforcement offices.
    While we begin planning our implementation plan, we plan on using 
$4 million of the remaining funds provided in Public Law 107-117 
(fiscal year 2002 counter-terrorism funding) for potential use for 
IDENT/IAFIS implementation. The $4 million, when combined with fiscal 
year 2003 funds already provided ($3.5 million obligated for IDENT/), 
will allow BTS to implement IDENT with 10 print capabilities in 
secondary processing areas at 115 airports, 14 seaports and 50 of the 
largest land border ports. In addition, this funding will support 
implementation of the IAFIS/IDENT 10 print capability at 70 percent of 
the Border Patrol stations. The remaining land ports of entry, 30 
percent of the Border Patrol stations and major ICE locations (to be 
determined) will receive this capability early in calendar year 2005. 
Funding for fielding these capabilities is estimated to be 
approximately $3 million, but a clearer estimate will be provided as 
the planning and implementations proceed. Completing the implementation 
of IDENT/IAFIS at Border Patrol stations will provide the capability to 
biometrically identify and/or perform status verifications on 
individuals suspected of illegally crossing the border. Implementation 
at ICE offices will support investigation of individuals apprehended 
for overstays and/or watch list hits.
    The Department of Homeland Security will work with the Department 
of Justice to accelerate our integration into the FBI's IAFIS (10 
print, criminal history) and the legacy INS IDENT (2-print, 
immigration) systems. An integrated workstation has already been 
developed. It has been deployed to a limited number of sites. DHS 
intends to complete deployment of this capability in 2005.
                                 ______
                                 

               Question Submitted by Senator Patty Murray

    Question. Thank you Mr. Chairman.
    I'm pleased to join you, Senator Byrd, and the rest of our 
colleagues in welcoming Mr. Hutchinson today.
    He has been handed a tough task in a very difficult time. I know he 
is committed to keeping our country safe, and I thank him for his 
leadership.
    Mr. Hutchinson, the Federal Government--and specifically your 
Department--has done an admirable job of providing resources and 
training to help secure the threats to our Northern Border. As a result 
of increased activity on the border, more individuals are being 
apprehended for crimes at or near the border but handed over to local 
law enforcement.
    However, the prosecution, defense, court and detention costs are 
very high. And, our local governments have been left with the 
responsibility for providing law enforcement services to most areas at 
and near the international border.
    One example from Washington State is Whatcom County and the City of 
Blaine--the areas that rests on the Northern Border of Washington State 
on Interstate 5. This community is responsible for 112 miles of border, 
including 89-miles of a shared land border with Canada and a 23-mile 
coastal border.
    As you know, the Department of Homeland Security operates five land 
points-of-entry within the county. Additionally, there are three 
international airports and several marine ports of entry within Whatcom 
County's jurisdiction.
    Mr. Hutchinson, terrorists, armed drug and weapons smugglers, and 
wanted fugitives regularly traverse residential neighborhoods at or 
near the border, creating huge threats to public safety and demands on 
local law enforcement.
    In Whatcom County, more than 85 percent of all criminal 
apprehensions made by Federal law enforcement agents at or near our 
border are turned over to the county. In fact, last year Whatcom County 
spent approximately $3 million on Federal deferred cases, and this year 
they estimate their costs will rise to $4 million.
    In these difficult fiscal times for local communities these extra 
burdens are having serious impacts on their budgets. But unlike the 
communities of Buffalo and Detroit, my small, rural county is 
staggering under the increased pressure on its budget.
    Mr. Hutchinson, the Southwest Border Initiative provides financial 
support to communities along the southern border who are experiencing 
this very problem. However, Whatcom County, which is the least 
populated northern border county with a major crossing has seen no such 
relief.
    I can't stress to you enough the impact $4 million has on a 
community of this size.
    I believe a similar program should be established for Northern 
Border States, particularly those State that have high traffic volumes, 
such as Washington State.
    Mr. Hutchinson, are you aware of this inequity between southern and 
northern border communities, and how is your Department prepared to 
help?
    Answer. Senator Murray, thank you for bringing this important issue 
to my attention. As you know, some of the initiatives undertaken to 
improve homeland security have produced unintended consequences. 
Tighter border security should lead to more interdictions and arrests. 
But, while the National Strategy for Homeland Security specifies that 
costs and performance are to be a shared responsibility, we certainly 
are not advocating that local jurisdictions take on a disproportionate 
share of the burden in that regard. Therefore we welcome your reports 
that outline these potential inequities. I understand that the U.S. 
Attorney and our ICE officers have met with your county officials to 
find a more balanced approach to performing this important workload, 
including the prospects that the arrestee's initial appearance occur in 
the Bellingham Magistrate's Court. While those potential solutions may 
not lead to the full relief sought, they are a step in the right 
direction while the Federal budget addresses this increased workload.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Our next hearing of the subcommittee on 
the budget request for the Department of Homeland Security will 
be held on Tuesday, March 23 in this same room. At that time 
the Commandant of the United States Coast Guard, Admiral Thomas 
Collins, and the Acting Administrator of the Transportation 
Security Administration, Mr. David Stone, will be here to 
discuss the budget request for the programs under their 
jurisdictions.
    Until then this subcommittee will stand in recess.
    [Whereupon, at 11:47 a.m., Tuesday, March 9, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
March 23.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        TUESDAY, MARCH 23, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Domenici, Byrd, Inouye, 
and Murray.
    Also present: Senator Reid.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENTS OF:
        HON. ADMIRAL THOMAS H. COLLINS, COMMANDANT, UNITED STATES COAST 
            GUARD
        ADMIRAL DAVID M. STONE, ACTING ADMINISTRATOR, TRANSPORTATION 
            SECURITY ADMINISTRATION

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The committee hearing will please come to 
order.
    Today, we continue our review of the President's fiscal 
year 2005 budget request for the Department of Homeland 
Security, specifically, the programs and activities of the 
United States Coast Guard and the Transportation Security 
Administration. I am pleased to welcome to the hearing the 
Commandant of the United States Coast Guard, Admiral Thomas 
Collins, and the Acting Administrator of the Transportation 
Security Administration, Admiral David Stone.
    We appreciate you submitting copies of your statements in 
advance of the hearing. They will be made a part of the record, 
and we invite you to make any comments you think would be 
helpful to the Committee's understanding of the budget request.
    I am happy to yield to Senator Inouye and other Senators 
who may wish to make any opening statements.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Thank you very much, Mr. Chairman.
    I look forward to the hearing today. I represent a state 
that relies more than any other state on the two agencies 
represented this morning. As an island state, we have a unique 
relationship with the Coast Guard. We enjoy the ocean year-
round for recreation and commercial fishing, and rely on it for 
transportation of more than 90 percent of our goods. And in 
Hawaii, we have a great appreciation for the search and rescue, 
navigation, fisheries management, and the environmental 
protection mission of the Coast Guard.
    Aviation is also a lifeline for my state. Our tourism-based 
economy is dependent on reliable and safe transportation of 
passengers to and from our shores. So I am so committed to 
working with both of these agencies to ensure that there are 
resources necessary to improve upon their performance, and help 
keep our traveling public and our transportation system safe, 
so I welcome the testimony of these two gentlemen.
    Senator Cochran. Admiral Collins, you may proceed.

                 STATEMENT OF ADMIRAL THOMAS H. COLLINS

    Admiral Collins. Good morning, Mr. Chairman, Senator 
Inouye. It is a privilege to be with you. Thank you for the 
opportunity to discuss the fiscal year 2005 budget request and 
the impact on the essential services we provide to the American 
public.
    The 2005 budget proposes a budget authority of $7.46 
billion, a 9 percent increase over fiscal year 2004. I am 
pleased to note that from fiscal years 2003 to 2005, our 
operating expense budget has grown over 51 percent. This growth 
supports the President's National Security Strategy for 
Homeland Security, and it supports the full range of Coast 
Guard missions.

        HIGHLIGHTS OF SERVICE TO THE NATION OVER THE PAST MONTH

    From my perspective, this budget growth is more than 
justified. We continue to apply our budget both effectively and 
efficiently, and often achieve extraordinary operational 
outcomes for the American people. I have been a part of the 
Coast Guard for 40 years now, and I continue to be amazed at 
the performance of our men and women every day. In fact, our 
operations just over the past month paint a clear and vivid 
picture of the scope and the national importance of the 
services we provide to the American public.
    We responded to the distress calls from the burning and 
sinking ship/tanker, Bow Mariner, just this month, 50 miles off 
shore. Our rescue swimmer deployed in 44-degree, oil-covered 
water to save six crewmen.
    Our search and rescue response capability was sustained, 
even though eighteen cutters, eight aircraft, and almost 
fourteen-hundred personnel deployed between the coast of Haiti 
and South Florida this month. And as conditions deteriorated in 
Haiti, Coast Guard cutters intercepted over a thousand 
Haitians, and safely repatriated them, thus fulfilling our 
President's mandate to repatriate Haitian migrants and present 
a deterrent to mass migration.
    This week, the Coast Guard cutter, Midget, on patrol in the 
Eastern Pacific, returning home to Puget Sound after this month 
seizing over 27,000 pounds of cocaine in three boardings, 
setting a record for the most cocaine seized by a cutter on a 
single patrol.
    Today, four 1410-foot cutters, two port security units, and 
477 people are currently providing critical support to 
operations in Iraq. And today, we have two polar ice breakers 
returning home after the most successful resupply of McMurdo 
Station in recent years. We were successful in implementing the 
requirements for the Maritime Transportation Security Act of 
2002 and will be ready to commence aggressive compliance 
oversight on July 1.
    These are just the highlights of our service to the Nation 
over this past month. The 2005 budget request provides the 
resources necessary for the Coast Guard to continue this high 
level of service to the American public. We have four 
priorities embedded in this budget.

             FOUR PRIORITIES EMBEDDED IN THE BUDGET REQUEST

    First, is to recapitalize our operational assets. Our 
greatest threat to mission performance continues to be that our 
aircraft, our boats, and cutters are aging, technologically 
obsolete, and require replacement and modernization. The 
integrated Deepwater system, or Deepwater, is the answer to 
these concerns.
    My second priority is to ensure consistent performance 
across all missions by ensuring the right force structure and 
the right set of capabilities. The 2005 budget adds capability 
and capacity to enable across-the-board mission performance, 
including operational funding for additional eleven patrol 
boats, these 87-foot patrol boats, and the transfer of five 
179-foot PC patrol boats from the Navy, and overall, adding 
over 1,300 people to our workforce in 2005.
    My third priority is to aggressively implement the 
comprehensive requirements of the Maritime Transportation 
Security Act of 2002. Over $100 million and 791 new personnel 
support this critical security initiative.
    My fourth priority reflected in the 2005 budget is to 
expand what we have been calling Maritime Domain Awareness. 
Expanding awareness of activities occurring in the maritime 
domain is critical to enhancing our performance across all 
mission areas. And we must identify and understand threats, 
disseminate timely information to our operational commanders 
and our homeland security partners in order to respond to 
terrorist attacks, drug smuggling, illegal migration, and so 
forth.
    Of course, the Coast Guard people make our operational 
excellence possible, and the successful operational tempo 
demonstrated over the last month is testimony to the skill and 
commitment of our personnel. They routinely put service to our 
Nation above all else, and they are my highest priority. And 
this budget request improves the quality of life of Coast Guard 
men and women, by providing a pay raise, and improving basic 
allowance for housing.
    Most importantly, through Deepwater, through Rescue 21, and 
other modernization efforts, our Coast Guard people will be 
provided with the quality equipment they deserve to do their 
job.

                           prepared statement

    Mr. Chairman, thank you for the opportunity to testify 
today, and I will be pleased to answer any questions that you 
may have.
    Senator Cochran. Thank you very much, Admiral Collins.
    [The statement follows:]

            Prepared Statement of Admiral Thomas H. Collins

    Introduction Good morning, Mr. Chairman and distinguished members 
of the Subcommittee. It is a pleasure to appear before you today to 
discuss the Coast Guard's fiscal year 2005 budget request, and its 
critical importance in your Coast Guard being able to deliver essential 
daily services to the American public.
    The Coast Guard's fiscal year 2005 budget proposes budget authority 
of $7.46 billion, a 9 percent increase over fiscal year 2004, and 
continues our effort to enhance capability and competencies to perform 
both safety and security missions. It supports the goals of the 
President's National Strategy for Homeland Security to prevent 
terrorist attacks, reduce our vulnerabilities, and minimize damage from 
attacks that do occur.
    Before I discuss our fiscal year 2005 budget, I would like to take 
a few moments to discuss some of our accomplishments during the past 
year. You deserve a quick report on how we have used the resources this 
Subcommittee has provided us in the past and I am proud of the results 
that Coast Guard men and women continue to deliver for the country. 
During fiscal year 2003, the Coast Guard:
  --Interdicted over 6,000 undocumented migrants attempting to 
        illegally enter the country by sea.
  --Prevented more than 136,800 pounds of cocaine, over 14,000 pounds 
        of marijuana and more than 800 pounds of hashish from reaching 
        U.S. shores.
  --Aggressively conducted more than 36,000 port security patrols, 
        including 3,600 air patrols, 8,000 security boardings and over 
        7,000 vessel escorts.
  --Deployed the largest contingent of Coast Guard personnel overseas 
        since the Vietnam War to support Operation Iraqi Freedom, 
        including 11 cutters, two shoreside support units, and over 
        1,200 personnel.
  --Saved the lives of nearly 5,100 mariners in distress and responded 
        to more than 31,500 calls for assistance.
  --Boarded more than 3,400 fishing vessels to enforce safety, 
        environmental and economic laws.
  --Mobilized 64 percent of our reserve force to enhance protection of 
        our ports, waterways and critical infrastructure during 
        heightened states of alert, and to support the Combatant 
        Commanders.
  --Kept critical shipping channels clear of ice in the Great Lakes and 
        New England ensuring the availability of critical energy 
        products.
  --Maintained more than 50,000 Federal aids to navigation along 25,000 
        miles of maritime transportation highways.
  --Responded to over 19,000 reports of water pollution or hazardous 
        material releases.
  --Completed the most difficult re-supply of McMurdo Station 
        (Antarctica) during Operation Deep Freeze in 40 years. USCGC 
        Polar Sea and USCGC Healy smashed through 50 miles of ice more 
        than 13-feet thick to enable U.S. scientists to continue their 
        studies of the Earth's climate.
    In addition, we have become a proud member of the Department of 
Homeland Security that consolidated 22 agencies and nearly 180,000 
employees. We are committed to working with our partner agencies as one 
team engaged in one fight, and I truly believe having one Department 
responsible for homeland security has made America more secure today. 
An example of this one team-one fight motto is very evident in the 
developing events in Haiti. Under the direction of the Secretary of 
Homeland Security, the Homeland Security Task Force--Southeast was 
stood-up as part of OPERATION ABLE SENTRY. Led by Coast Guard Rear 
Admiral Harvey Johnson, the task force is comprised of many agencies 
chartered to plan, prepare, and conduct migrant interdiction operations 
in the vicinity of Haiti due to the escalation of violence in that 
country and the threat of a mass exodus of undocumented migrants. In 
the first days of interdiction operations, the task force demonstrated 
impressive agility and synergy:
  --Coast Guard cutters, with Citizenship and Immigration Service (CIS) 
        asylum pre screening officers and interpreters aboard, 
        interdicted seven Haitian vessels with 1,076 undocumented 
        migrants,
  --Coast Guard and Immigration and Customs Enforcement (ICE) aircraft 
        patrolled the skies throughout the operating area,
  --Coast Guard, ICE, and Customs and Border Protection (CBP) boats 
        conducted coordinated patrols off the Florida coast,
  --Coast Guard and ICE conducted a coordinated boarding of a boat 
        suspected of being highjacked off the coast of Miami,
  --Coast Guard, CBP, ICE, and the Transportation Security 
        Administration command center, public affairs, and intelligence 
        staffs fully engaged,
  --Federal Emergency Management Agency (FEMA) deployed three 
        Information and Planning Specialists to the task force in 
        support of contingency planning.
    In addition, we have begun aggressively implementing the Maritime 
Transportation Security Act thanks in large part to a herculean inter-
agency effort. Final Rules were published in October 2003 and security 
plans from approximately 9,000 vessels and 3,200 facilities were due on 
December 31, 2003. To date, approximately 97 percent have been 
received. We will continue to aggressively pursue 100 percent 
compliance, and have instituted a phased implementation of penalties to 
ensure that all regulated facilities have implemented approved security 
plans by the 1 July 2004 deadline. We completed eleven port security 
assessments, and have established 43 Area Maritime Security Committees 
to provide enhanced planning, communication and response for our 
nation's ports. We have met with nearly sixty countries representing 
the vast majority of all shippers to the United States., reinforcing a 
commitment to the International Ship and Port Facilities Security 
(ISPS) code. We have commissioned additional Maritime Safety and 
Security Teams (MSSTs) and plan to have 13 teams by the end of CY 2004. 
We are installing an Automatic Identification System (AIS) network in 
nine coastal locations that have Vessel Traffic Services improving our 
awareness of the maritime domain, and are simultaneously designing a 
nationwide system.
The Need to Sustain Growth in fiscal year 2005
    Despite these accomplishments, there is still much to do. The last 
few weeks paint a clear and vivid picture of the breadth, scope and 
national importance of all Coast Guard missions. Rescue personnel from 
our mid-Atlantic units responded to the distress call from the burning 
and sinking Singaporean tanker Bow Mariner, and six crewmen were saved 
from 44-degree water. A Coast Guard cutter seized the entire catch from 
a fishing vessel off the New England coast for having twice the legal 
limit of lobster on board and more importantly having female egg 
bearing lobsters that a biologist indicated had been scrubbed of eggs. 
Our search and rescue and living marine resource response capability 
was sustained even as 15 cutters, 6 aircraft, and approximately 1,550 
personnel deployed south positioning from the coast of Haiti to the 
approaches to South Florida as part of Homeland Security Task Force-
Southeast, and interdicted 1,075 Haitian migrants. Simultaneously, we 
have four Patrol Boats, two Port Security Units, and 377 personnel 
deployed in support of operations in Iraq. As you can see, demand for 
Coast Guard resources continue to expand, while our ships and aircraft 
continue to age. The Coast Guard is the nation's lead Federal agency 
for maritime homeland security and marine safety. Critical new 
resources are required to establish a new level of maritime security 
while continuing to perform the full range of Coast Guard missions.
    The budget requests resources that are necessary for the Coast 
Guard to fulfill its responsibilities to the American public. For 
fiscal year 2005, my priorities are:
  --Recapitalize operational assets;
  --Enhance performance across all missions by leveraging Coast Guard 
        authorities, capabilities, competencies and partnerships;
  --Aggressively implement the comprehensive requirements of MTSA; and
  --Expand awareness of activities occurring in the maritime domain.
Recapitalize Operational Assets
    The Coast Guard's greatest threat to mission performance continues 
to be that our aircraft, boats and cutters are aging, technologically 
obsolete, and require replacement and modernization. The majority of 
these assets will reach the end of their service life by 2008, and have 
increasing operating and maintenance costs, which results in lost 
mission performance, mission effectiveness, unnecessary risks, and wear 
and tear on people. These assets are failing at an alarming rate. 
Recent asset failures and their subsequent impact on operational 
readiness exemplify the downward readiness spiral created by 
increasingly aging capital assets coupled with a more demanding 
operational tempo. Frankly, the existing system is failing in numerous 
areas and I am concerned that we are reaching a ``declining readiness 
spiral'' phenomenon. Deferred modernization results in reduced patrols 
and readiness, corresponding increased maintenance needs and higher 
total ownership costs. Recapitalization funds are then needed to keep 
old assets operating, which only defers modernization starting this 
declining cycle over again. The Coast Guard is faced with trading asset 
modernization funding toward legacy asset maintenance and capability to 
address immediate safety and reliability concerns. Some examples of why 
I am so concerned:
  --HH-65 Helicopter engine system casualties.--In-flight engine 
        partial power losses occurred at a rate of 63 per 100,000 
        flight hours in fiscal year 2003, and is significantly higher 
        so far in fiscal year 2004. This rate far exceeds the FAA 
        standard of one per 100,000 hours and the U.S. Navy Safety 
        Center guidelines of no more than 10 mishaps per 100,000 flight 
        hours. HH-65 helicopters are critical to Coast Guard operations 
        including ongoing efforts off the coast of Haiti.
  --110-foot Patrol Boats.--To date, 20 hull breaches requiring 
        emergency dry docks. One cutter required emergency dry dock for 
        hull breach only 14 weeks after a 10-month hull renewal project 
        that had cost $2 million. The 110-foot fleet is the high-speed 
        workhorse during migrant interdiction operations such as the 
        ongoing events in the vicinity of Haiti, and has repatriated 
        927 Haitian migrants thus far.
  --378-foot High Endurance Cutter.--3 out of total class of 12 ships 
        have recently missed operations due to unscheduled maintenance 
        to failing sub-systems. A 378-foot cutter is currently serving 
        as the on-scene command ship for Haitian operations.
    All three of these asset classes (HH-65, 110, 378) are currently 
supporting the Coast Guard missions such as migrant and drug 
interdiction operations, ports waterways and coastal security, 
fisheries enforcement, and search and rescue, and the Coast Guard 
continues to be successful in spite of casualties and readiness levels. 
This success comes through the extraordinary efforts of Coast Guard 
personnel, and I'm concerned about our ability to continue this 
performance in the future. Cocaine seizures to date in fiscal year 2004 
total 38.9 metric tons, nearly double last year's pace which yielded 
the second highest seizure total ever (62.1 metric tons). The threat of 
a mass migration from Haiti, coupled with the flow of illegal drugs and 
undocumented migrants from other countries towards the United States, 
highlights the value that the U.S. Coast Guard provides our nation.
    The Integrated Deepwater System (IDS) is the answer to these 
concerns and entails far more than the progressive replacement of our 
aging inventory. IDS is an integrated systems approach to upgrading 
existing legacy assets through a completely integrated and 
interoperable system. All of Deepwater's highly capable assets will be 
linked with modern command, control, communications, computers, 
intelligence, surveillance, and reconnaissance (C4ISR) architecture. 
The ability to link and network disparate platforms seamlessly over 
vast distances is an essential aspect to providing the Coast Guard the 
capability to detect and interdict potential threats prior to reaching 
our shores and ports. Deepwater assets are America's first line of 
defense to counter threats in the maritime domain, and thwart 
catastrophes to vulnerable infrastructure (oil rigs, deepwater 
channels, shipping). Funding for the Deepwater program is a critical 
investment in homeland safety and security and means a more secure 
United States of America.
    The Coast Guard's deepwater assets are not the only capital assets 
that desperately need replacement. The fiscal year 2005 budget also 
requests resources for:
  --Rescue 21 project, which will be the primary command and control 
        system to perform the functional tasks of detection, 
        classification, and command and control in the inland and 
        coastal zones for Search and Rescue. The existing National 
        Distress System is inadequate to meet the safety requirements 
        of growing marine traffic, and is not capable of meeting the 
        requirements of the International Convention for the Safety of 
        Life at Sea (SOLAS) treaty. Rescue 21 will expand existing 
        capability through greater area coverage, and improved 
        direction finding capability to enhance Coast Guard emergency 
        response;
  --Great Lakes Icebreaker, which is scheduled to replace USCGC 
        MACKINAW in 2006 after 57 years of continuous service;
  --Response Boat--Medium, which will replace the aging 41-foot Utility 
        Boat, and will meet mission requirements for search and rescue, 
        and emerging homeland security missions.
Enhance Mission Performance
    To enhance mission performance the Coast Guard must optimize its 
unique authorities, capability, competency, and partnerships; while 
gaining the capacity in each to complete our full range of missions. 
Due to the Coast Guard's multi-mission nature, resources provided will 
assist in the performance of all missions. New assets will be used to 
conduct fishery patrols and search and rescue cases as well as protect 
the Nation against terrorist attacks.
    Fiscal year 2005 budget initiatives that add capacity to enable 
mission performance include:
  --Operational funding for eleven 87-foot Coastal Patrol boats built 
        in 2004;
  --Operational funding for five 179-foot Patrol Coastals being 
        transferred to the Coast Guard from the Navy;
  --Safety configuration changes to the 47-foot Motor Life Boat, which 
        will allow crews to safely conduct missions in deteriorating 
        weather conditions.
Aggressively Implement the Maritime Transportation Security Act of 2002
    During the past year, the Coast Guard led the international 
maritime community in adopting a new international security regime 
requiring vessels and port facilities to develop security plans. This 
effort paralleled the requirements this committee helped establish 
through enactment of the Maritime Transportation Security Act (MTSA) of 
2002. These regulations require that United States ports, vessels, and 
facilities each have a plan to protect against terrorist attacks. 
Aggressive implementation of MTSA is essential if we are to maintain 
the security of our ports and waterways at acceptable levels. To 
implement and enforce these regulations, the Coast Guard has a 
recurring requirement to develop, review, approve, and ensure vessels 
and facilities are sustaining their own security responsibilities for 
all aspects of maritime security. Approximately 97 percent of required 
vessel and facilities have turned in security plans to date. We are 
issuing notices of violation to the 10 percent that missed the 
deadline, are starting the process of approving security plans, and 
have commenced training of Coast Guard personnel to complete on-site 
verification. Providing the Coast Guard with the resources necessary to 
undertake this implementation and enforcement effort is a key step 
toward enhanced port, vessel and facility security.
Maritime Domain Awareness
    Expanding awareness of activities occurring in the maritime domain 
is critical to enhancing Coast Guard performance in all mission areas. 
The U.S maritime jurisdiction is enormous, covering some 3.5 million 
square miles of ocean and 95,000 miles of coastline. In addition, the 
Coast Guard projects a defense-in-depth presence in other areas such as 
the Caribbean and eastern Pacific to deter, detect, and interdict drug 
and migrant smugglers. The Coast Guard operates at times and in places 
no United States forces operate. The ongoing events off the coast of 
Haiti highlight the need for a robust maritime domain awareness 
capability. The Coast Guard has minimal capability to monitor the 
activities occurring within this maritime zone without the presence of 
a cutter or aircraft. We must identify and understand threats, and 
disseminate timely information to our operational commanders and our 
homeland security partners in order to respond to emerging threats such 
as terrorist attacks, drug smuggling, illegal migration, location of 
distressed boaters, or illegal fishing before they reach our borders. 
An intelligence and warning system that detects indicators of potential 
terrorist activity before an attack occurs is necessary to take 
preemptive and protective action. We are currently installing Automatic 
Identification System (AIS) in our Vessel Traffic Service (VTS) ports, 
and are formalizing the operational requirements to award a contract 
for installation of a nationwide AIS network. $4 million is requested 
in fiscal year 2005 to continue this important project. This budget 
submission also includes 35 people to integrate all of our projects 
that provide maritime domain awareness (MDA), including AIS, Deepwater 
and Rescue 21, and these people will partner with the other Department 
of Homeland Security agencies, the Navy, and other entities to unite 
our joint efforts.
Conclusion
    Thank you for your support in the fiscal year 2004 Emergency 
Supplemental. Funding is ensuring Coast Guard forces remaining in Iraq 
are properly resourced for the rest of fiscal year 2004.
    None of what the Coast Guard has accomplished or is striving to 
achieve is possible without our people--the bedrock of our service. 
They routinely put their service above all else and I am convinced of 
their unwavering dedication to the security of this Nation and the 
safety of its citizens. They are our highest priority and most valuable 
resource.
    The Coast Guard's fiscal year 2005 budget request improves the 
quality of life for Coast Guard men and women and their families by 
providing a pay raise, and continuing improvements in Basic Allowance 
for Housing (BAH) reducing out-of-pocket expenses from 3.5 percent to 
zero, and gives them the equipment and assets that will allow them to 
best contribute their time and talents to the safety and security of 
our nation.
    I have asked every member of the Coast Guard to continue to focus 
intently and act boldly on the three elements of my direction: improve 
Readiness; practice good Stewardship; and enhance the growth, 
development and well being of our People. With this diligence we will 
fulfill our operational commitment to America and maintain our high 
standards of excellence.
    I look forward to working with you to that end.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

    Senator Cochran. Admiral Stone, you may proceed with your 
opening statement.

                  STATEMENT OF ADMIRAL DAVID M. STONE

    Admiral Stone. Thank you, sir.
    Good morning, Mr. Chairman, Senator Byrd, and members of 
the Subcommittee. I am honored to appear before you this 
morning to discuss the President's fiscal year 2005 budget 
request for the Transportation Security Administration.
    First, I would like to take a moment to comment on the 
tragic bombings in Madrid and Moscow. We are closely examining 
these events so we may deter and prevent similar attacks in the 
United States. Over the last 2 years, the Department of 
Homeland Security has worked with Federal and State 
counterparts to bolster the security of rail and mass transit 
systems, conducting criticality assessments, coordinating 
information sharing, and improving training.
    Building on this foundation, yesterday, Secretary Ridge 
announced additional measures to further strengthen our rail 
and transit systems. We will develop a rapid-deployment mass 
transit canine program and continue to partner with local 
authorities to provide additional training and assistance for 
local canine teams.
    TSA will implement a pilot program to test the feasibility 
of screening luggage and carry-on bags to detect explosives at 
rail stations and aboard trains. Working with the Department, 
we will engage industry, and State and local partners to 
establish baseline security measures based on best practices, 
and we will expand security education and awareness programs. 
Security technologies will be examined for their potential 
application in the intermodal environment.

                    FISCAL YEAR 2005 BUDGET REQUEST

    Turning to the President's budget proposal for fiscal year 
2005, the $5.3 billion that is requested for TSA is $892 
million more than the fiscal year 2004 level. The significant 
portion of this funding would support and improve passenger and 
baggage screening operations at the Nation's airports, 
including $145 million to fully implement screening and 
training programs, and $86 million to provide technological 
support at passenger checkpoints.
    TSA is right sizing and stabilizing screening operations, 
investing more hiring authority with our Federal Security 
Directors to provide more flexibility in addressing staffing 
needs. Local hiring, local testing, and local training will be 
the keys to our future.
    We are assessing the expansion of contract screening; and 
to help us make these decisions, a thorough evaluation of the 
five private pilot programs is currently under way, with the 
results expected in April of this year.
    TSA's Federal Flight Deck Officer Program adds another 
important layer to our rings of aviation security. We are 
seeking $25 million to support and expand training for pilots 
who are volunteering to carry firearms to defend aircraft 
flight decks. In January, TSA began doubling the number of FFDO 
classes, and we plan to provide initial training and 
qualifications for thousands of FFDOs by the end of this fiscal 
year. We expect to conduct our first cargo FFDO prototype 
program next month.
    A total of $60 million is requested for the second-
generation Computer-Assisted Passenger Pre-Screening System, 
CAPPS II, in fiscal year 2005. Developed with the utmost 
concern for individual privacy rights, there is a pressing need 
to move forward with testing of CAPPS II. The current passenger 
pre-screening system operated by air carriers is clearly not 
adequate to address the asymmetric threats that confront us on 
a daily basis.
    To deny targets the opportunity to exploit our thriving air 
cargo system, TSA has developed an air cargo strategic plan 
within the $85 million requested for air cargo screening in 
fiscal year 2005. TSA is requesting $55 million for an 
aggressive R&D program to investigate technologies that will 
improve our ability to screen high-risk air cargo.

                           prepared statement

    In closing, I would like to thank you, Mr. Chairman, for 
your support, and that of the Subcommittee members. I look 
forward to answering your questions today.
    Senator Cochran. Thank you very much, Admiral Stone.
    [The statement follows:]

                  Prepared Statement of David M. Stone

    I am pleased to testify before the Subcommittee on the President's 
fiscal year 2005 budget request for the Transportation Security 
Administration (TSA). TSA's mission, to protect the Nation's 
transportation systems to ensure the freedom of movement for people and 
commerce, is completely aligned with the mission of the Department of 
Homeland Security (DHS), and our objectives fully support the 
Department's strategic goals.
    The tragic bombings of March 11 in Madrid, Spain, are a great 
concern to us all. Before I discuss the President's fiscal year 2005 
budget request for TSA, I want to assure the Subcommittee that DHS is 
supporting the investigation into the attacks with our international 
partners and monitoring the investigation to learn more about how these 
terrible attacks transpired. Although we have no specific indicators 
that terrorist groups are planning such attacks in the United States, 
DHS has reached out to state and local security, law enforcement, and 
transit and rail officials to ensure vigilance in light of these 
incidents.
    I want to assure you that DHS is devoting significant attention and 
resources on rail security across the Federal Government. Between 
fiscal year 2003 and this year, DHS will have provided $115 million to 
high-risk transit systems through the Urban Area Security Initiative 
(UASI) in the Office for Domestic Preparedness. The Budget proposes to 
double our total commitment to UASI, to $1.4 billion in fiscal year 
2005. Our partners in the Department of Transportation (DOT) stepped up 
inspection of rail lines and security requirements, and DOT is also 
assisting Amtrak implement improved security measures. Under the 
Budget, the Federal Transit Administration (FTA) will award nearly $4 
billion in grants to transit agencies, resources that can be used for 
security improvements.
    TSA is providing strong leadership in this effort and has the 
resources it needs under the request to do its part. Over the last 2 
years, DHS and DOT have worked with transit and rail operators to 
significantly improve security. TSA has worked with the Information 
Analysis and Infrastructure Protection Directorate and DOT's Federal 
Railroad Administration and FTA to conduct criticality assessments of 
rail and transit networks operating in high-density urban areas. As a 
result, we have better information to focus current and future security 
resources and transit systems are producing robust security and 
emergency preparedness plans. In addition, DHS is coordinating 
information and threat sharing through the Surface Transportation 
Information Sharing and Analysis Center (ISAC) managed by the 
Association of American Railroads, including deploying TSA personnel to 
the ISAC and hosting ISAC representatives at TSA's Transportation 
Security Coordination Center (TSCC) in Virginia. We have held numerous 
security exercises to bring together rail carriers, Federal and local 
first responders, and security experts, and have addressed potential 
gaps in antiterrorism training among rail personnel.
    I hope to work with the Subcommittee to continue to determine how 
best to strengthen rail and transit security within the resources 
levels of our request.
The President's fiscal year 2005 Budget Request for TSA
    The President's fiscal year 2005 budget request will support key 
initiatives to improve the effectiveness and efficiency of TSA's 
efforts to secure our Nation's transportation system. TSA's top 
priorities in fiscal year 2005 include:
  --Strengthening aviation security.--We will stabilize and enhance our 
        system-ofsystems approach to aviation security, measure and 
        improve screening performance, develop advanced screening 
        technology, and expand the Federal Flight Deck Officer program.
  --Upgrading access and inspection security.--TSA will continue to 
        develop and implement credentialing and background check 
        programs, continue to support local law enforcement at 
        airports, strengthen inspection, and enforce agency security 
        regulations.
  --Improving air cargo security.--In partnership with air carriers and 
        other stakeholders, TSA will continue to implement the range of 
        initiatives encompassed in its Air Cargo Strategic Plan.
  --Enhancing surface transportation security through intelligence, 
        stakeholder outreach, and integration.--TSA will work with our 
        colleagues in DHS and in the Department of Transportation to 
        assess the risk of terrorist attacks to all surface modes of 
        transportation and develop and implement security strategies to 
        thwart attacks while minimizing the impact on the flow of cargo 
        and mobility of passengers.
    The President's fiscal year 2005 Budget Request of $5.296 billion 
for TSA is dedicated to stabilizing and strengthening TSA's essential 
mission. This request is $892 million more than the adjusted enacted 
level for fiscal year 2004.
Strengthening Aviation Security
    The majority of TSA funding in fiscal year 2005 is requested to 
support and improve passenger and baggage screening operations at the 
Nation's airports, an essential layer in TSA's rings of aviation 
security. Today TSA is right-sizing and stabilizing screening 
operations based on security requirements and opportunities for 
increasing efficiencies in business processes so that at the end of 
fiscal year 2004 an appropriate mix of full-time and part-time 
personnel will represent no more than 45,000 full-time equivalents. 
Supporting and enhancing the effectiveness of screening operations 
requires a broad range of services and activities, from training and 
supplies to performance management systems, from management and 
headquarters support to human resources services and equipment 
maintenance. As part of our long-term plan for stabilizing our 
workforce, we are evolving to a business model that vests more hiring 
authority at the local level with our Federal Security Directors 
(FSDs). The original methods we used in centralizing recruitment, 
assessment, hiring, and training of screeners were necessary in the 
fastpaced environment to meet the original statutory deadlines. This 
centralized model is not the right fit for sustaining an existing 
workforce. This is a high priority item for TSA.
    Information and data on TSA performance are critical to our ability 
to make strategic decisions. TSA is implementing measures to assess 
performance, including TSA's Passenger Screening Effectiveness Index, 
Cost Per Passenger, Cost Per Bag, and Customer Service Index elements 
of the Screening Performance Indices. This information will be used to 
assess the impact of higher passenger volume on the effectiveness of 
our security operations and the public's level of satisfaction. TSA's 
Customer Satisfaction Index is based on feedback from passenger surveys 
at airports, polls, and traveler comments. TSA's score for all airports 
is 80 percent, indicating that overall, passengers are ``more than 
satisfied'' with their experience at passenger security checkpoints. 
Over 1.7 million passengers and 2 million bags are processed through 
airport checkpoints on a daily basis, yet average wait times are still 
low.
    For fiscal year 2005, the President's budget requests $2.424 
billion for 45,000 screener FTE and 1,210 terminal screening managers. 
At the requested level, funding will support screener salaries and 
management at all commercial airports. The screener workforce will be 
cross-trained to perform duties both as passenger and baggage 
screeners. Included in the requested level is $130 million for contract 
screening airports. This funding is based on an estimate of resources 
necessary to maintain the current five pilot project airports. However, 
actual funding needs for contract screening operations may vary 
depending on the current evaluation of contract screening, the 
program's future deployment and management structure, and other 
contract screening transitions at airports.
    A total of $145 million is requested in fiscal year 2005 to fully 
implement the passenger and baggage screening training programs 
critical to maintaining high skill levels in our screener workforce. 
This will support training for replacement screeners as well as support 
recurrent and advanced training to the entire screener workforce to 
meet and maintain proficiency and qualification standards. All 
passenger screeners must meet annual recertification standards, passing 
a Standard Operating Procedures Job Knowledge Test, an Image 
Certification Test, and a Practical Skills Demonstration, and achieve a 
fully successful performance rating. Recertification for 2003-2004 
began on October 1, 2003, and will be completed this month.
    As reported to this Subcommittee last fall, TSA recognizes that we 
must continually work to maintain and sharpen screener capabilities. 
TSA has made significant progress in implementing the Short-Term 
Screening Improvement Plan, a series of integrated interventions that 
include enhanced training and technology deployment, policy and process 
reengineering, increased support to the field, and increased covert 
testing.
    TSA uses its Special Operations Program to provide ongoing and 
immediate feedback to screeners, their supervisors, and TSA leadership 
on screener performance. The Special Operations Program's overall 
objectives are to test the security systems at the airports and to 
introduce difficult, real-life threat items to the screener workforce. 
Once covert testing is completed at a checkpoint, Special Operations 
teams conduct post-test reviews with available screeners to reenact the 
test and provide training.
    As part of the Short-Term Screening Improvement Plan, Special 
Operations teams have tested 68 airports between October 1, 2003, and 
February 1, 2004. Testing between October 1 and December 31, 2003, 
focused on increasing the number of airports tested for the first time, 
to establish a performance baseline. In January 2004, Special 
Operations teams began retesting airports to determine whether 
performance improved once the screening performance initiatives had 
been deployed. In January 2004, Special Operations teams retested 15 
airports, with 11 airports improving overall checkpoint performance an 
average of 21 percent.
    These overall covert checkpoint tests are also showing improvement 
in individual screener performance. Between September 2002 and February 
1, 2004, TSA conducted 1,227 checkpoint tests at 171 airports. 
Checkpoint test results have improved nearly 14 percent. During January 
2004 testing, the pass rate for two of the checkpoint tests was nearly 
90 percent or better.
    To maintain high levels of screener proficiency, TSA's screener 
improvement plan places a strong emphasis on recurrent screener 
training and supervisory training. Over 700 inert Modular Bomb Set (MBS 
II) and weapons training kits have been deployed to every airport in 
the country as an integral part of TSA's recurrent training for 
screeners, enabling them to see and touch the components of improvised 
explosive devices and weapons. TSA is also developing protocols to help 
FSDs conduct their own airport level screening testing. To blend 
nationally and locally developed training, TSA has established the 
``Excellence in Screener Performance'' video training series. The first 
two videos, ``Hand Held Metal Detector/Pat Down Search'' and ``X-ray 
Operator'' have been delivered to the field. Training videos on 
physical bag search and screening persons with disabilities are now in 
production. The third part of our recurrent training program is a 
series of web-based and computer-based screener training. Eight 
training products are in production, with the first due to the field in 
March 2004. From the standpoint of training delivery, our most 
significant accomplishment is the launching of our learning management 
system, the TSA Online Learning Center (OLC). The OLC makes available 
over 350 general training and development courses in addition to TSA 
specific training.
    Recognizing the need to provide our front line supervisors with the 
tools they need to manage effectively the screener workforce, we have 
sent more than 2,500 supervisors to introductory leadership training at 
the Graduate School, United States Department of Agriculture. We will 
continue to offer 10 sessions each week until all screening supervisors 
have received this training. We are currently adding a customized 
module to this training that includes airport-specific examples of 
leadership issues they might encounter.
    TSA also has begun training some of its senior screeners to 
recognize patterns of unusual or suspicious behavior. This additional 
skill set will further enhance aviation security.
    TSA promptly investigates significant security incidents as they 
are disclosed. Using teams of security specialists and investigators 
who recreate the security breach, vulnerabilities in the system are 
revealed, and TSA can immediately take corrective action. TSA has also 
forged a working relationship with other Federal law enforcement 
agencies and task forces when incidents require coordinated 
investigative activities.
    TSA's 158 FSDs form the backbone of security management and 
leadership at the Nation's airports. Our budget requests $284 million 
in fiscal year 2005 to support our FSDs and other airport security 
management and staff positions nationwide. In order to streamline the 
administrative operations at airports, larger airports have been 
designated as hubs, providing security direction, administrative 
support, and staff resources to smaller airports.
    In fiscal year 2005, TSA will continue the deployment of electronic 
explosive detection equipment at the Nation's airports and look for 
efficiencies to improve passenger and baggage screening. The total 
fiscal year 2005 discretionary funding request for explosives detection 
systems (EDS) and explosives trace detection (ETD) equipment purchase 
and installation is $150 million, with $250 million through the 
Aviation Security Capital Fund, for a total resource level of $400 
million. Vision 100--Century of Aviation Reauthorization Act (Vision 
100), Public Law 108-176, established the Aviation Security Capital 
Fund. The first $250 million of passenger fees authorized by the 
Aviation and Transportation Security Act, Public Law 107-71, will be 
deposited into this fund. Fund resources can be spent on projects to 
replace baggage conveyer systems related to aviation security, to 
reconfigure terminal baggage areas as needed to install EDS, to deploy 
EDS in airport terminals, and for other airport security capital 
improvement projects.
    TSA's EDS/ETD equipment purchase and installation program is the 
key to compliance with statutory requirements for full electronic 
screening of checked baggage. TSA purchases and installs this equipment 
through a variety of mechanisms, including congressionally authorized 
Letters of Intent (LOIs), which provide a partial reimbursement to 
airports for facility modifications required to install in-line EDS 
solutions. TSA has issued eight airport LOIs, covering 9 airports. TSA 
is also using resources to purchase and install EDS and ETD machines at 
airports outside the LOI process.
    The fiscal year 2005 budget request includes proposed language to 
maintain policies which guide the current program cost share and 
distribution of funding for LOIs, keeping the cost share at 75 percent 
for large airports and 90 percent for all other airports and overriding 
allocation formulas. TSA believes the current cost share is fair and 
equitable and that revised allocation formulas could potentially 
disrupt current LOI commitments and be detrimental to long-term 
security effectiveness.
    TSA is also requesting approximately $86 million to provide 
technological support at passenger checkpoints. This funding would 
support reconfiguration at a portion of the 34 remaining airports that 
would benefit from reconfiguration and provide $30 million for purchase 
of advanced checkpoint equipment. This funding also supports TSA's 
continuing implementation of the Threat Image Projection (TIP) program, 
an essential element of TSA's screening improvement program. TIP 
superimposes threat images on X-ray screens during actual operations 
and records whether or not screeners identify the threat object. 
Through a tremendous example of private-public partnership, a 
significantly enhanced 2,400-image Threat Image Projection (TIP) 
library was uploaded to every TIP Ready X-Ray (TRX) in the country 
during the height of winter holiday travel season without interrupting 
service. This new TIP image library replaces the much smaller 200-image 
library developed by the Federal Aviation Administration (FAA) with 
images that will continuously provide screeners exposure to the most 
current threats, including improvised explosive devices (IEDs). Now 100 
percent of checkpoint security lanes are equipped with TRXs with the 
2,400-image TIP library, providing real-time data on screener 
performance. Data is available quickly at the local level and reported 
to headquarters for aggregated analysis and monitoring. Through this 
combination of increased deployment of TRX machines and activation of 
the expanded TIP image library, we are able to collect and analyze 
significant amounts of performance data that has not been previously 
available. TIP is an excellent tool for evaluating the skills of each 
individual screener so that we can focus directly on areas needing 
skill improvement. By regularly exposing screeners to a variety of 
threat object images, TIP provides continuous on-the-job training and 
immediate feedback and remediation.
    TSA uses a wide range of interconnected information technology 
solutions to maximize its security efforts. In the past, collecting TIP 
data for analysis and reporting was a cumbersome task. Network 
connectivity to checkpoints will be the ultimate answer to efficient 
collection, analysis, and reporting of TIP data. This effort will 
provide the capability for continuous training, including real-time 
training on current threats; greater capacity for monitoring TIP 
performance; connectivity with checked baggage areas; and a foundation 
for planned implementations of additional administrative, surveillance, 
CAPPS II, and other security enhancements. TSA is requesting 
approximately $294 million in fiscal year 2005 to support its 
Information Technology Core, which will provide the telecommunications 
infrastructure support and services necessary for TSA to fully utilize 
TIP capabilities.
    The President's fiscal year 2005 budget includes a request for $49 
million for TSA applied Research and development (R&D) and $50 million 
for Next Generation EDS. Working closely with the DHS Science and 
Technology (S&T) Directorate, we have established an ambitious program 
to develop and deploy new security technologies and use technology to 
enhance human performance. Technology can help us make our screening 
operations more effective, more efficient, less time-consuming, and 
less costly. TSA operates a state-of-the-art research laboratory, the 
Transportation Security Laboratory (TSL), in Atlantic City, New Jersey. 
Several screening and other security technologies are under development 
at the TSL, including an explosives detection portal to determine if 
explosives are being carried on a passenger's person, document scanners 
to detect trace amounts of explosive materials on items such as 
boarding passes, and scanners for better screening of casts and 
prosthetic devices. We are also developing EDS for carry-on baggage and 
improving explosives detection technology for screening liquids.
    We are continuing work on the Next Generation of EDS for checked 
baggage screening to increase throughput capacity, improve detection 
capabilities, and lower false positive alarm rates. Simultaneously, we 
are collaborating with new and existing vendors to develop technologies 
that will enable us to detect explosives in smaller amounts than are 
currently established in our certification standard and that will 
occupy a smaller footprint at airports. We have piloted an on-screen 
alarm resolution protocol and will soon start the training that will 
enable our screeners to more closely examine an image without opening a 
traveler's luggage, resulting in clearing more false positive alarm 
images without a drop in detection proficiency. Within the Next 
Generation program, we are also looking at new applications of X-ray, 
electro-magnetic, and nuclear technologies to probe sealed containers 
for materials that pose a threat to aviation security.
    We are planning fiscal year 2005 R&D efforts to combine expanded 
technological capabilities in conjunction with sensor fusion 
development. Unfortunately, the restricted space at airports and other 
transportation facilities will not support continuing additions to the 
footprints of our screening areas. Therefore, we must design systems 
that will address multiple threats within very confined spaces. The 
challenge of moving new technology from the laboratory to the real 
world is significant.
    TSA's R&D program also focuses on developing standards for 
biometric systems through ongoing pilot programs and laboratory 
efforts. TSA's efforts in this arena are being coordinated with the US 
VISIT program office. Research in biometrics technologies continues to 
be applicable and useful in supporting several TSA initiatives such as 
the Transportation Workers Identification Credential (TWIC) program, 
the Registered Traveler program, infrastructure access control 
programs, and employee screening.
    TSA's Federal Flight Deck Officer (FFDO) program has now been in 
place for more than 1 year, adding another important layer to our rings 
of aviation security. The fiscal year 2005 budget proposes $25 million 
to support and continue expansion of FFDO training for pilots at the 
Federal Law Enforcement Training Center in Artesia, New Mexico. TSA 
developed and implemented this program in close cooperation with 
organizations representing airline pilots, such as the Air Line Pilots 
Association and the Coalition of Airline Pilots Associations. Pilots 
provided valuable insights to TSA during the formation of the FFDO 
program and many of their suggestions are reflected today in the 
initial qualifications, training, and standard operating procedures for 
FFDOs; and training location and support facilities. In January 2004, 
TSA began doubling the number of FFDO classes, and we plan to provide 
initial training and qualification for thousands of FFDOs by the end of 
this fiscal year. TSA has streamlined the process for pilots to become 
FFDOs. The selection process consists of an on-line application, an 
hour-long computerized assessment, an interview, and a background 
check. FFDO assessments are administered at over 200 locations 
throughout the United States, and more are being added. Classes are 
available continuously except during certain holidays.
    Pilots also must attend re-qualification sessions twice a year to 
ensure that they maintain a high level of proficiency and familiarity 
with program requirements. Ten private, state, and local government 
sites are available for self-scheduling of re-qualification training. 
Sites were selected in geographically diverse locations that would be 
convenient to pilots. As the numbers of FFDOs grows, TSA will expand 
the number of recurrent training sites to meet their needs.
    With the enactment of Vision 100, the FFDO program has been 
expanded to include cargo pilots and other flight deck crewmembers. TSA 
is examining modifications to the current FFDO curriculum and operating 
procedures to reflect the different environment in which cargo pilots 
operate. TSA initiated the on-line application process for cargo and 
other flight deck crewmembers in February 2004 and expects to conduct 
its first cargo FFDO prototype program this April.
    A total of $60 million is requested for fiscal year 2005 for the 
second generation Computer Assisted Passenger Pre-Screening System 
(CAPPS II). CAPPS II is a limited, automated prescreening system 
authorized by Congress that will become a critical element in TSA's 
system-of-systems approach to security. Developed with the utmost 
concern for individual privacy rights, CAPPS II will modernize the 
prescreening system currently implemented by the airlines. It will seek 
to authenticate travelers' identities and perform risk assessments to 
detect individuals who may pose a terrorist-related threat or who have 
outstanding Federal or state warrants for crimes of violence.
    Under CAPPS II, airlines will ask passengers for a slightly 
expanded amount of reservation information, including full name, date 
of birth, home address, and home telephone number. With this expanded 
information, the system will quickly verify the identity of the 
passenger using commercially available data and conduct a risk 
assessment leveraging current intelligence information. The overall 
process will result in a recommended screening level, categorized as no 
risk, unknown or elevated risk, or high risk. The commercially 
available data will not be viewed by government employees, and 
intelligence information will remain behind the government firewall. 
The entire prescreening process is expected to take as little as five 
seconds to complete.
    TSA is carefully reviewing the recent report on CAPPS II issued by 
the General Accounting Office (GAO) and working diligently to resolve 
all concerns. GAO generally concluded that in most areas that Congress 
asked them to review, our work on CAPPS II is not yet complete. DHS has 
generally concurred in GAO's findings, which in our view validates the 
fact that CAPPS II is a program still under development. As we resolve 
issues of access to data needed for testing CAPPS II, and the testing 
phase moves forward and results in a more mature system, we are 
confident of our ability to satisfy all of the questions that Congress 
posed.
    Vision 100 transferred the Alien Pilot Security Assessment Program 
from the Department of Justice to the Department of Homeland Security. 
The law requires that DHS conduct background checks on aliens seeking 
flight training at U.S. flight schools, stipulating that checks must be 
completed within 30 days. TSA is currently working with the Federal 
Bureau of Investigation to implement this program, and we estimate that 
as many as 70,000 background checks will be required each year. TSA is 
requesting funding for fiscal year 2005 at a level of $4.6 million, 
which we estimate could be recovered in fees.
Upgrading Access and Inspection Security
    The President's fiscal year 2005 budget requests $91.6 million in 
overall funding to strengthen security credential programs, with an 
estimated recovery of costs of $71.6 million in credential fees. This 
requested funding would support activities to develop the Registered 
Traveler program at a level of $15 million. TSA is analyzing whether a 
Registered Traveler program can effectively reduce the ``hassle 
factor'' in passenger and baggage screening without compromising 
aviation security. TSA envisions that a fully implemented Registered 
Traveler program would be voluntary in nature and could offer qualified 
participants an expedited travel experience. A comprehensive risk 
assessment would be conducted on Registered Traveler program applicants 
to determine their eligibility. TSA is working on a proposed strategy 
for implementing small-scale Registered Traveler pilot programs in 
fiscal year 2004, and requests $15 million to expand contract support 
and technology resources for the Registered Traveler program in fiscal 
year 2005. TSA will analyze the results of the pilot programs to 
determine the program's effects on security and customer service. TSA 
is also exploring technology solutions associated with non-intrusive 
positive identity verification at the passenger security checkpoint, 
such as biometrics, that would further expedite security clearance for 
registered travelers.
    In addition to the Registered Traveler program, requested funding 
for credential programs would support the Alien Pilot Security 
Assessment Program discussed above, the TWIC at a level of $50 million, 
the HAZMAT Driver License Endorsement Program at a level of $17 
million, and Credentialing Enterprise Start-up at $5 million. Because 
all Credentialing Enterprise programs involve the use of specific law 
enforcement and antiterrorist databases, TSA is developing a common 
platform of technology and contractor support to conduct appropriate 
background checks. Although each credentialing program may involve 
special requirements and adjudication, this common platform will 
realize economies of scale through shared resources such as systems 
equipment, database connectivity, contractor support space, and other 
start-up costs that will not be recovered through fees.
    We are developing a TWIC prototype and supporting measures to 
mitigate the threat of insider attacks to transportation 
infrastructure. During prototype, this credential will test the 
feasibility of bringing uniformity and consistency to the process of 
granting access to transportation workers entrusted to work in the most 
sensitive and secure areas of our national transportation system. The 
President's fiscal year 2005 request includes spending authority to 
begin implementing the TWIC concept within parameters that will be 
defined by the Administration after completion of the prototype 
assessment.
    TSA is requesting $120 million to support its contingent of 
regulatory compliance inspectors in fiscal year 2005. These inspectors 
ensure that airports, air carriers, and other regulated entities within 
the airport property are in compliance with all Federal security 
regulations. An additional $90 million will support reimbursements to 
state and local agencies providing law enforcement support for airport 
security checkpoints. An estimated 300 reimbursable agreements with 
state and local law enforcement agencies are necessary to provide the 
law enforcement support at levels deemed appropriate by TSA FSDs.
    The President's budget requests $17 million in fiscal year 2005 to 
support 354 K-9 units under the National Explosives Detection Canine 
Team program. TSA-certified canine teams perform a critical role in 
aviation security, performing multiple tasks throughout the entire 
airport environment, such as screening checked baggage, searching 
unattended bags, searching vehicles approaching terminals during 
increased threat levels, screening cargo on a limited basis, screening 
mail at certain pilot project locations, and responding to bomb 
threats. TSA helps local law enforcement agencies by procuring and 
training selected canines, training selected law enforcement officers, 
and by partially reimbursing agencies for costs.
Improving Air Cargo Security
    Each year, U.S. air carriers transport approximately 12.5 million 
tons of cargo. To deny terrorists the opportunity to exploit our 
thriving air cargo system, TSA has developed an Air Cargo Strategic 
Plan that calls for the focused deployment of tools, resources, and 
infrastructure that are available today, as well as creating a 
foundation for future improvements as technology and resources become 
available. For fiscal year 2005, a total of $85 million is requested 
for TSA's aviation cargo screening program.
    TSA has prohibited all ``unknown shipper'' cargo from flying aboard 
passenger carriers since September 11, 2001, thereby limiting cargo to 
packages from identifiable shippers under the TSA Known Shipper 
program. TSA is rolling out an automated Known Shipper database that 
will allow air carriers and indirect air carriers to verify immediately 
the status of a specific shipper.
    Under the Air Cargo Strategic Plan, TSA will establish a Cargo Pre-
Screening system that identifies which cargo should be considered 
``high-risk,'' and work with industry and other Federal agencies to 
ensure that 100 percent of high-risk cargo is inspected. We are also 
partnering with stakeholders to implement enhanced background checks on 
persons with access to cargo and new procedures for securing aircraft 
while they are on the ground. A Notice of Proposed Rulemaking is in 
development for enhanced screening of cargo on passenger aircraft, 
along with stronger security measures for Indirect Air Carriers and the 
establishment of a mandatory security program for all-cargo carriers. 
TSA and U.S. Customs and Border Protection are working together on air 
cargo initiatives through four established work groups, making plans 
for future collaboration, leveraging of existing programs, and sharing 
resources and technologies.
    Within the $85 million requested for air cargo screening in fiscal 
year 2005, TSA is requesting $55 million for an aggressive R&D program 
to investigate technologies that will improve our ability to screen 
physically high-risk air cargo. TSA will look at new technologies for 
screening large cargo, including pallets and containerized cargo. In 
January 2004, TSA issued a market survey requesting submissions and 
participation of vendors of commercial off-the-shelf explosives 
detection technology to support cargo inspection. A number of vendors 
have been tentatively selected for laboratory evaluation of their 
products against the current EDS certification criteria. We have issued 
a request for proposals (RFP) for potential inventors of explosives 
detection technology for the screening of containerized cargo and U.S. 
Mail to be transported on passenger aircraft. This RFP will lead to the 
award of R&D grants to assist in the development of promising 
technologies. At TSL, we are conducting a cargo characterization study 
to determine the feasibility of using currently deployed explosives 
detection technology (EDS and ETD) to screen cargo while new systems 
are under development.
Enhancing Surface Transportation Security Through Intelligence, 
        Stakeholder Outreach, and Integration
    For modes of transportation other than aviation, TSA is developing 
policies and programs to ensure proper coordination, integration, and 
information exchange among our Federal, state, and local partners in 
non-aviation modes of transportation and to unite disparate 
transportation systems under a single security strategy. Our goal in 
this regard is to ensure that efforts to provide security in non-
aviation modes are consistent, coordinated, and effective. As part of 
this effort, DHS will issue a National Transportation System Security 
Plan as part of its overall Critical Infrastructure Protection Plan, 
which is currently under development. We are providing Departmental 
leadership and guidance in this area, particularly with respect to 
modal security plans, to ensure that they are integrated into an 
effective concept of operations for management of the transportation 
sector's security. TSA's fiscal year 2005 request includes $24 million 
for personnel and operational resources dedicated to security in non-
aviation transportation modes and $17 million to support TSA's around-
the-clock TSCC, the same funding level as this year. The complex, 
interdependent land transportation environment is especially 
challenging. TSA will continue to assess the risk of terrorist attacks 
on non-aviation transportation modes, assess the need for standards and 
procedures to address those risks, and ensure compliance with 
established regulations and policies.
    This completes our highlights of key programs and initiatives for 
fiscal year 2005.
    TSA has achieved an unqualified audit opinion for fiscal year 2003, 
its third consecutive clean audit. In fiscal year 2004, TSA is striving 
to maintain its clean audit record and correct any internal control 
weaknesses noted in audit reports. With passenger and baggage screening 
rollouts complete and the transition to DHS behind us, TSA is well 
poised to continue implementing more efficient and effective financial 
management processes across the organization.
    In closing, I want to convey how proud I am of TSA's security 
screening workforce. They have carried out their responsibilities with 
diligence and professionalism in a dynamic environment. The reality of 
TSA's mission is that we must constantly be prepared to provide the 
best level of security we can within the resources we have been 
provided. The increased variety and sophistication of weapons and 
communication tools available to modern terrorists presents a 
significant challenge. We have seen all too vividly that successful 
terrorist attacks can disrupt the United States and global economies. 
With security strengthened and economic recovery underway, it is 
imperative that TSA accommodate expected growth in air travel in the 
years ahead. With preventive measures in place, the risk of terrorism 
is reduced, not eliminated. TSA will continue to identify and 
reevaluate threats and vulnerabilities and make decisions that both 
facilitate transportation and improve its security.
    I will be pleased to answer your questions.

    Senator Cochran. Before proceeding to questions, I am happy 
to yield to other Senators for any other opening statements 
they may have.
    Senator Byrd. Senator Murray.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you very much, Mr. Chairman. I join in 
welcoming our two witnesses today. Two weeks ago, when 
Undersecretary Hutchinson testified before this Subcommittee, I 
stressed my concern that too many of the Department's efforts 
to secure the homeland rely on paper exercises, such as studies 
and certifications, rather than on the layered defense that the 
President and the Secretary often describe in their homeland 
security speeches.
    Both the Coast Guard and the Transportation Security 
Administration are on the front line of homeland defense, and I 
commend both of your organizations for your dedication to your 
missions. Regrettably, the President does not seek sufficient 
resources for either the Coast Guard or the Transportation 
Security Administration.
    According to your own testimony, Admiral Collins, Coast 
Guard assets, the ships, the planes, the helicopters that you 
rely on to protect Americans are failing at an alarming rate. 
In fact, you indicate that the Coast Guard assets are in a 
``declining readiness spiral'', and yet, according to the 
President's budget, the Coast Guard Deepwater program for 
upgrading and replacing those assets will take 22 years to 
complete. Twenty-two years. This is 2 years slower than the 
capital improvement program envisioned when Deepwater was 
conceived prior to the tragic events of September 11.
    I am also concerned that while you have increased mission 
hours for homeland security by 113 percent since 9/11, an 
increase that I fully support, your non-homeland security 
efforts, such as search and rescue, and fisheries enforcement 
have fallen by 26 percent.
    Admiral Stone, when Undersecretary Hutchinson testified 
before this Subcommittee, I said to him that I was concerned 
with the level of funding dedicated to non-aviation modes of 
transportation, such as rail security, bus security, port 
security. I questioned why the President was seeking no funding 
for securing our mass transit systems and was proposing a 62 
percent cut in port security grants.
    I stressed my objections to the Department's plan to shift 
responsibility for these programs out of TSA. I questioned why 
it was that the President's budget for the Transportation 
Security Administration was 97.3 percent for aviation security 
and 2.7 percent for security for other modes of transportation, 
such as rail security.
    I questioned the wisdom of putting too much of a focus on 
responding to the last terrorist attack and not preparing for a 
different kind of attack in the future, a future that may not 
be far away.
    Since that hearing, terrorists have struck again. This 
time, the terrorists killed over 200 innocent passengers on a 
commuter train in Madrid, Spain. Following the attack in 
Madrid, according to The Washington Post, the Department 
released a law enforcement advisory warning about the terrorist 
threat to our rail system here in America. It is saddening that 
it took another terrorist attack for the Administration to wake 
up to this threat.
    In January of 2003, I offered an amendment to provide $300 
million to State and local governments for securing mass 
transit systems. The White House opposed the amendment, and it 
was defeated. In April of 2003, I offered an amendment to add 
$50 million for this purpose. Once again, it was defeated.
    Being a persistent kind of fellow who comes from the mud 
hills and the clay hills of southern West Virginia, I offered 
another amendment for $57 million last July. Once again, the 
White House called the amendment wasteful spending, and the 
amendment was defeated.
    Over 14 million people travel by rail every day in this 
country, many more than travel by air. This is a glaring 
vulnerability. While I am not suggesting that we should 
establish a rail passenger screening system like the system we 
have at our airports, we clearly can do more to help our rail 
systems install chemical sensors, increase law enforcement 
presence, and improve public awareness.
    Frankly, Admiral Stone, Secretary Ridge's statement 
yesterday that we will use existing resources to do more long-
term research on technological solutions, share information, 
and distribute information on best practices just does not make 
the grade with me.
    The President is proposing to cut law enforcement grant 
programs by $732 million, including elimination of the COP's 
hiring program, and is also proposing to cut first responder 
funding by $733 million. He is proposing to cut Amtrak by $318 
million. Where, where, oh, where are State and local 
governments and Amtrak supposed to get the money to actually 
increase law enforcement at our train stations and on our 
trains?
    By any definition, the threat to U.S. citizens using our 
rail systems is imminent. Imminent. Not 10 years away. Not 25 
years away, but now. We need a clear plan that takes immediate 
steps to make our people safer. The approach announced by 
Secretary Ridge yesterday might make rail passengers safer in 
2024, just about the time that the Coast Guard finishes buying 
their ships and planes. Our citizens have a right to expect 
their government to respond when they are threatened. We should 
do more. We should do more. We should do more, and we should do 
it now. Thank you.
    Senator Cochran. Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman.
    Admiral Collins and Admiral Stone, I want to join my 
colleagues in welcoming you. Today, you have a tremendous task 
before you, and I really want to thank you for your service. 
Both of your organizations have done a tremendous job, with 
limited resources, and what I believe is a lack of support from 
the White House in terms of securing our Nation's ports and 
cargo terminals. You should both be applauded for your efforts 
in addressing the security issues facing our country today.
    However, I remain concerned that the President's budget 
request does not go far enough to provide you with the funding 
and the tools necessary to get the job done. I often question 
whether we are giving you the resources to help you work 
smarter, or simply asking you to work harder. We need a 
coordinated plan for a nationwide port security regime, but it 
seems that despite your best efforts, securing our Nation's 
ports and cargo terminals is a back burner issue, something 
that, according to Secretary Ridge, the private sector should 
figure out.
    I am really concerned that the President's budget request, 
which would place 90 percent of the Administration's so-called 
Port Security Program under the Coast Guard, will take even 
more attention away from the Coast Guard's other missions.
    Admiral Collins, I am interested to hear how the Deepwater 
and the response boat programs, the programs that provide our 
men and women of the Coast Guard with the platforms they need, 
would progress within the President's budget numbers. And I am 
particularly interested in the status of the response boat 
small contract, which has already been awarded, as well as the 
status of the response boat medium contract, which is supposed 
to be awarded this year.
    We need to make sure that the Coast Guard has the ability 
to modernize its vessel and aircraft fleet, and I look forward 
to working with Admiral Collins and the rest of my colleagues 
to ensure that we fund these priorities responsibly.
    Admiral Stone, I'm interested in your perspective on the 
relationship between TSA, Customs, and the Coast Guard, more 
specifically, how this budget would help provide you with the 
tools to achieve a truly coordinated approach to protect our 
port facilities.
    I am concerned with reports about the lack of coordination 
within the Department of Homeland Security. It seems that TSA 
and Customs are merely coexisting within the cargo security 
area. Last week, I participated in an event celebrating the 
arrival of the first operations safe commerce container into 
the United States, and that is a TSA program. Unfortunately, 
instead of actively participating in this program, designed to 
test technologies, and prove best practices for private sector 
supply chain security, Customs is moving forward with RFPs for 
container security devices, without regard for the work already 
in progress in the TSA.
    So as I said earlier, we need to help you work smarter, not 
just harder. We need a coordinated port security regime to 
ensure the safe, efficient transport of cargo into the United 
States, as well as protecting people who live and work near our 
ports. It has to be a priority for this government.
    So Mr. Chairman, I will have more specific questions for 
our witnesses during the question and answer period. I thank 
both of you for being here today.
    Senator Reid. Mr. Chairman.
    Senator Cochran. The Senator from Nevada, Mr. Reid.
    Senator Reid. I am not a member of the Subcommittee, but I 
am, of course--I have a very short statement, and I would ask 
permission of the Chair to be allowed to----
    Senator Cochran. You may proceed, Senator.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. Thank you very much, Mr. Chairman. Mr. 
Chairman, and especially members of the Subcommittee, Admiral, 
I have appreciated very much working with you. As you are 
aware, McCarran International Airport is the second, only to 
the Los Angeles International Airport, in the number of 
passengers that come through its security checkpoints. Only LA 
International has more people coming. You can go to Atlanta, 
and there are more people in the airport, but they are not 
leaving the airport, while in Las Vegas, they get out and then 
come back.
    This arises, of course, as I have indicated, because 
McCarran is a destination airport, unlike other large airports 
that serve as hubs, where passengers simply connect to another 
flight. I have been concerned, as you know, about the delays in 
TSA's screening of passengers at McCarran, which may cause harm 
to the economy in the Las Vegas region. But also we are 
concerned for what it does to not only Las Vegas, but points 
north, west, south, and east of there.
    This frustrates passengers, makes Las Vegas, by some, a 
less attractive choice for discretionary travel. These delays 
arise because of the lack of an adequate number of screening 
lanes at McCarran, as well as TSA security rules and procedures 
that were not optimized for McCarran Airport.
    To address these delays, there are more screening lanes 
being built into McCarran, and I think we can count on TSA to 
adequately staff them. In addition, and I appreciate this very 
much, TSA instituted a pilot program at McCarran to optimize 
screening rules and regulations during periods of heavy 
passenger flow, while maintaining the highest levels of 
passenger security and safety.
    It is my understanding that delays at McCarran have been 
reduced to 30 minutes, on average, in recent weeks, and that is 
good, because it was up to 3 hours on some occasions. Credit 
does go to TSA and your able Federal security director in Las 
Vegas, Jim Blair, who is always available to answer questions 
and be most helpful in many regards.
    So I want to thank you personally for your efforts. And I 
would like to ask how you think this pilot program is working 
from a TSA perspective and whether you have plans to expand its 
application to other airports. You do not need to answer that 
now. You can do that in writing to me, if you would, please.

                     AVIATION SECURITY CAPITAL FUND

    There is another issue that I would like to touch on. The 
FAA bill passed by Congress last year mandates that 90 percent 
of the cost of in-line screening systems at large airports were 
to be paid by the Federal Government through the Aviation 
Security Capital Fund. The language was definitely retroactive 
to large airports that had already received letters of intent 
for in-line screening systems. This was an increase from 75 
percent to 90 percent, and for McCarran, represents almost $19 
million. I note in TSA's fiscal year 2005 budget request for a 
Federal share of only 75 percent of these projects. This 
clearly was not the intent of Congress.
    So, again, I would ask, with the permission of the 
Chairman, that you respond to this in writing to all the 
committee at your earliest possible date. Is the Federal share 
cost 75 percent or 90 percent? By law, it is 90 percent. We 
want to make sure that you live by that.
    I would also ask, Chairman Cochran, if you would allow me 
to submit a question in writing and ask the panelists to 
respond to this at their earliest possible date.
    Senator Cochran. The Senator has that right, and we will be 
glad to make that a part of the hearing record.
    Senator Reid. Thank you very much.
    Senator Cochran. We would request the witnesses to respond 
in a timely fashion.

  IMPACT OF DETERIORATING SHIPS, COAST GUARD CUTTERS, HELICOPTERS AND 
     OTHER ASSETS ON COAST GUARD'S ABILITY TO CARRYOUT ITS MISSIONS

    Senator Cochran. Admiral Collins, I notice that you start 
off in your statement talking about the concerns you have about 
the deterioration of your ships, Coast Guard cutters, 
helicopters, and other assets that you need to carry out your 
missions and fulfill your responsibilities as part of the 
Department of Homeland Security, and also contributing to our 
Nation's defense. I know you have forces that have been 
deployed to the Persian Gulf region, and you also recently were 
called upon to deploy assets to Haiti, to the area, and to the 
approaches to South Florida, because of the activities in 
Haiti.
    Could you tell us to what extent this puts strain on the 
overall responsibility you have for other activities in 
maritime homeland security and marine safety? Were you able to 
maintain your vigilance here in the homeland area to carry out 
these missions as well?
    Admiral Collins. Mr. Chairman, I will be glad to answer 
that. I know that is clearly a concern of Senator Murray's as 
well, based on her opening comments and previous hearings, is 
how we balance across our missions when we have these surge 
operations.
    The good story is, we have the capacity to serve in the 
national interests for high-risk events on a temporary basis 
and surge back to normal lay-down of resources. I think that is 
a strength that we as a Service have because of our multi-
mission character and our flexibility. So that is a good-news 
story.
    The question is: How do we continue to service all those 
other missions as we surge to an orange alert condition, or a 
Haiti, and so forth? I think there are a couple of answers to 
that. One is we seek growth of our asset base where warranted. 
And as I mentioned in my opening statement, we have realized a 
51 percent increase in our operating expense budget, and we 
have added additional capacity to our force structure.
    If you look a the total number of hours available for 
boats, cutters, and so forth, in 2003, they increased over 39 
percent; and through 2005, there will be a net 68 percent 
increase in the total number of boats, aircraft, and ship hours 
available. And that is because additional resources have been 
added. So that is the good story.
    We still have OPTEMPO challenges and shortfalls and gaps to 
meet everything, to be 100 percent everywhere at one time, and 
we are not there yet.
    But I would have to note that our performance goals 
continue to be met across our missions. Let me just give you a 
couple of data points. Despite some pressures in the past year, 
orange alert and other conditions, we still maintain our SAR 
readiness posture, and met all our search and rescue standards. 
We saved 87.7 percent of mariners in distress, and our 
performance goal is 85 percent.
    We achieved a 97.1 percent compliance rate with fisheries 
enforcement. Our goal is 97 percent. We have reduced the 5 year 
average of collisions and groundings to a little over 1,500. 
Our goal is a little over 2,100, and so forth. The point I am 
making is that we have ensured we are meeting the highest risk 
and attending to our performance goals, even despite these 
pressures.
    Senator Cochran. I want to commend you for the service you 
are providing, and I think the evidence that you gave us in 
your statement about the seizure of cocaine on the West Coast 
is an example of your capability to continue to function at a 
high level of readiness and competence to help protect us from 
the ravages of the drug trade.

 INTERDICTION AND SEIZURE OF ASSETS OF DRUG SMUGGLERS ON THE HIGH SEAS 
            OFF THE COAST OF SOUTH AMERICA AND THE CARIBBEAN

    To what extent is the Coast Guard deploying assets in the 
region where the cocaine coming from? Are you able to interdict 
and seize assets of the drug smugglers on the high seas off the 
coast of South America or in the Caribbean?
    Admiral Collins. That is where most of our assets are 
provided to, or are deployed to Joint Interagency Task Force 
South, out of Key West, which is a DOD joint command capably 
lead by a Coast Guard flag officer, I might add. But a joint 
command that targets and deploys a multiplicity of assets, 
Coast Guard and others, puts metal on target, if you will, 
based on Intel.
    Most of the assets, all the CD assets almost exclusively, 
that we field, are allocated to Joint Interagency Task Force 
South for further deployment. And when we actually make the 
interdiction, then we take Operation Control back and do the 
boarding, do the arrest, and the seizure, and so forth. But we 
are primarily down in the deep Caribbean. That is where the 
greatest success is, off the West Coast of Colombia, off the 
north coast of Colombia, as far west and south as the Galupa 
Coast, and all the way up to the Gulf of Tijuanapeck, coming 
into the Mexico-Guatemalan border. And that is where we have 
had a lot of very, very good success, based on ever-increasing 
use of Intel, Intel-queued actions. And that is why the Midget 
was successful with 27,000 pounds of cocaine in three seizures 
coming back this week.
    So I think the interagency and the lay-down of forces has 
been getting better and better as we have learned more about 
this risk, about this threat.
    Senator Cochran. But it seems strong evidence of the 
success of interagency cooperation and another reason why the 
Department of Homeland Security was a step in the right 
direction to help protect the security and safety of the 
citizens of the United States from drugs, as well as from other 
acts of terror.

    SCHEDULE OF NEEDS FOR DEEPWATER AND REFURBISHING OF HELICOPTERS

    What can you tell us about the schedule that you would like 
to see us fund, as far as your Deepwater modernization effort 
and the refurbishing of helicopters that you say are now 
dangerous to operate and have caused safety problems out in the 
fleet?
    Admiral Collins. Clearly, the 2005 budget gives us a 
healthy funding profile, consistent with the plus-up that this 
subcommittee, and others in Congress provided last year, in 
2004. So we have a $678 million level, and that continues to 
pursue the larger components of the Deepwater. So I think in 
2005, the President's request will keep us on that momentum. It 
is about a 22-year time frame. My biggest concern is how we 
deal in the out-years, the total length of this project, as I 
am faced with deteriorating readiness, and that is the issue, 
Mr. Chairman.
    We are running our assets hard in the national interest. 
They are failing. They are failing at a sharper rate than we 
first projected when the project was shaped and designed. And 
so over the next several years, I am forced to make a tradeoff 
between fixing the existing system versus putting that same 
money into the replacement of those systems, and to keep 
current readiness, today's readiness live and well. I have no 
choice. I have to invest in those legacy systems to keep them 
going; and as we push out the modernization, it complicates 
that equation.
    So that is that downward spiral phenomena; and as you 
mentioned, it is particularly problematic, for the engine 
system and the HH-65 are key assets for us. And we have had to 
aggressively make decisions about re-engineering that platform 
and invest in the legacy systems to keep that readiness where 
it should be.
    Senator Cochran. Well, I am confident this committee is 
going to respond and provide the funds you need to move 
aggressively to restore the capability of these assets and 
build new systems for the future. We are just going to have to 
do it. I do not think we have any choice.

                 EFFECTIVENESS OF THE SCREENING PROCESS

    Admiral Stone, I know we are all concerned about the 
effectiveness of the screening processes we have in trying to 
help ensure the protection of the traveling public here in our 
homeland. The airports and airlines have received the greatest 
amount of attention. To what extent are you confident that the 
procedures you have in place and the systems that you have 
developed and are using now to protect the flying public, those 
using our airlines and airports, are succeeding?
    Admiral Stone. Senator, I am very confident that the layers 
of security that we have in place today are continuously 
improving, whether it is the growing size of our flight deck 
officer cadre of personnel that we have that we train each 
week, and graduate out of Artesia. In addition, our screening 
covert testing results indicate continuous improvement. And in 
a classified forum, we are keen to share that data, because we 
see progress being made as a result of our investment in 
training.
    We also have online now what is called TIP, the Threat 
Image Projection system, which is a file of about 2,400 images. 
And we can now go and see each individual screener, how they 
are doing. They have to punch in their pass code when they go 
up to the X-ray machine, and so we can pull up now, San 
Francisco-LAX, see what images in that file that are missed the 
most.
    So it also gives us an idea of where to refocus the 
training. It gives us a percentage of hits that the screener 
got on the image that came up. So this Threat Image Projection 
really allows us to now measure the individual screener 
performance, which is a very significant capability for us, and 
when combined with the covert testing results, allows us to 
better get our arms around the performance of our screener and 
gives us metrics in which to judge not only the screener but 
then the airport, and then trends throughout the country.
    So we are very excited about now having TIP online, about 
the improved scores on covert testing, and about the additional 
FFDOs going out each week out into the field. And so across the 
board on these layers, we see continuous improvement.

   LEVEL OF ATTENTION TO THE LIKELIHOOD OF THREATS TO OTHER MODES OF 
                             TRANSPORTATION

    Senator Cochran. There are, of course, other threats that 
we are aware. To the extent to which your intelligence shows 
the likelihood of threats to other modes of transportation, how 
would you assess that in terms of threat level? Are there other 
modes of transportation that you consider likely targets of 
terrorists that have your acute attention?
    Admiral Stone. Yes, sir. In December, we started intermodal 
operations Intel briefings. So each day now for an hour and a 
half, we spend our time, the senior leadership is, on 
intelligence and operations. I will just note that I have been 
tracking to find where we are spending our time at the TSA 
headquarters, in terms of meetings.
    And over half of our time is spent on operations, 
intermodal operations and intelligence, which is very pleasing 
to me, because I want the focus of our headquarter's effort to 
be on operations and Intel and connecting the dots in an 
intermodal setting, so at that morning operations intelligence 
briefing, we look at a whole range of threats, whether they be 
the input that we get from the Coast Guard, from the maritime 
perspective; or whether it be from our stakeholders in the land 
area.
    I will note that in December, one of the first people that 
I was introduced to and a briefing was set up with, was Mr. Ed 
Hamburger, the President of the American Association of 
Railroads; followed by Bill Milar, for public transit 
authorities; and Richard White, from the Washington Metro. 
These individuals I was able to meet in December, because of 
the importance, that right off the bat, I have an opportunity 
to understand from their perspective what their challenges 
were.
    So this operations Intel assessment that we have each day 
in which we review the intelligence for all intermodal 
operations, I think is reflective of our focus and a sense of 
urgency that we understand and are communicating with the field 
in all of these areas.
    I would say after the aviation threat, which our 
intelligence indicates the Al Qaeda interest in being able to 
use an aircraft as a weapon remains very high, that we are well 
aware that whether it be at our ports or at various land 
targets, that we have an intermodal responsibility at TSA to 
monitor those threats and then take appropriate action in 
coordination with other agencies.
    Senator Cochran. Before recognizing other senators for 
questions, I have noticed the presence of the distinguished 
Chairman of the full committee, Senator Stevens. Do you have 
any opening statement, Senator? We would be happy to have you 
do that.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. As a matter of fact, Senator, I wish you 
would just enter my questions for the record and let me make 
one short comment.
    Admiral Collins, Admiral Stone, I do want to thank you for 
your recognition of the problems of Alaska. I note that we have 
an increase in the budget for $102 million for the Maritime 
Transportation Security Act of 2002. Of that amount, with half 
the coastline of the United States, $152,000 is going to be 
spent in Alaska to implement the Maritime Transportation 
Security Act of 2002.
    I am conscious of what you are doing, and I want to thank 
you for what you are doing, testing the Predator A at King 
Salmon and Predator B at Shimya. If those are capable 
technologies, they could probably be substituted for vessels 
and save the taxpayers of the United States a great deal of 
money, but at the same time have knowledge of what is going on 
along that enormous ocean border of ours.
    You have agreed to work with our people on maritime safety 
education. I thank you for that, because we are still losing a 
considerable number of our vessels, despite everything we have 
tried. And the cold water immersion education and the outreach 
to the people who are out there without any chance of rescue 
really is very important.
    I thank you also for transferring the cutter, Long Island, 
to Valdez, for its homeland security missions. We have come a 
long way, and I know you have a tremendous job. I am pleased to 
see that there is an increase for the Coast Guard's budget, a 
total of $7.5 billion, an increase of $490 million this year. 
And I want to join all of you gentlemen in supporting that. I 
wish it was more. Thank you very much.
    Senator Cochran. Thank you, Senator.
    Senator Byrd.

             PROPOSED MOVEMENT OF GRANT MONEY FROM TSAT-ODP

    Senator Byrd. On January 26th, Secretary Ridge announced 
his intention to consolidate a number of grant programs within 
the Offices of State and Local Government, Coordination and 
Preparedness. On February 25, Representative Sabo and I wrote, 
detailing our objections to moving TSA grants, such as port, 
rail, and bus security from TSA, as well as the emergency 
management grants from FEMA. House Homeland Security 
Appropriations Subcommittee Chairman Rogers sent a similar 
letter expressing his concern about moving the TSA grants.
    I reiterated my objections during our hearings with 
Secretary Ridge and Undersecretary Hutchinson, and I remain 
strongly concerned that moving the funds from TSA will result 
in a reduction of focus from your agency and the Department on 
non-aviation modes of transportation.
    That would be in direct contravention of the intent of 
Congress when it passed the Aviation and Transportation 
Security Act in November of 2001. That Act gives TSA the 
responsibility for security over all modes of transportation. 
Clearly, the Madrid train bombing should be a wake-up call to 
the need for TSA to focus on non-aviation security risks.
    Just 10 days ago, The Washington Post quoted from the 
Homeland Security Advisory, saying, ``Trains and rail stations 
remain potential targets for terrorist groups due to their 
reduced security in comparison to airports.'' That is a very 
significant statement. Let me read it again, this excerpt from 
The Washington Post, just 10 days ago, ``Trains and rail 
stations,'' that would include Amtrak, that would include MARC, 
``Trains and rail stations remain potential targets for 
terrorist groups due to their reduced security in comparison to 
airports.''
    America is clearly at risk of a terrorist attack to our 
rail and mass transit systems, our seaports, and other non-
aviation modes of transportation.
    Now, given the existing threat and the strong concerns that 
have been raised by members of Congress, are you reconsidering 
the proposed movement of these grants from TSA?
    Admiral Stone. Senator Byrd, I fully share and understand 
the sobering impact of Madrid and Moscow and what that means in 
terms of us being required to have a true sense of urgency 
about how we address these issues. The decision to move those 
responsibilities, in terms of the funding being consolidated at 
ODP, has been made very clear to us by the Department that the 
subject matter experts, of which TSA relies heavily on to 
ensure how the assessments are done and where that money goes, 
and our ability, therefore, to impact those decisions, will be 
maintained and that the subject matter experts will be part of 
the TSA workforce and that we will then be able to interface 
with ODP to ensure the proper decisions are made.
    Senator Byrd. I am trying to understand as to whether or 
not my question was answered. Are you saying you are 
reconsidering, or you are not?
    Admiral Stone. No, sir, we have received information from 
the Department that the subject matter experts that make those 
decisions on those monies will remain at the TSA; however, 
those monies will go to ODP, along with some staff that will 
administer those accounts. But that the decision to ensure that 
the people that are transferred to the ODP do not impact on our 
critical ability to be able to manage and assess those areas 
that those grants apply to.

                       UNOBLIGATED GRANTS FUNDING

    Senator Byrd. The fiscal year 2004 Homeland Security Act 
was signed into law on October 1, 2003; yet, in the intervening 
6 months, TSA has yet to obligate the $22 million that Congress 
appropriated for trucking industry grants, the $17 million 
Congress provided for Operation Safe Commerce, the $10 million 
Congress provided for bus security grants, the $7 million 
Congress provided for hazardous material grants, the $4 million 
Congress provided for nuclear detection and monitoring. 
Additionally, $50 million still remains unobligated from the 
funds Congress provided for port security grants.
    We are halfway through the fiscal year. Congress acted 
expeditiously to provide the Department with the funds and the 
flexibility to address real and pressing homeland security 
requirements. We have been at Code Orange 2 times since August.
    You work for the Department of Homeland Security. Explain 
why this business-as-usual and go-slow approach to your job is 
satisfactory.
    Admiral Stone. Senator, the approach of the Department with 
regard to the threat that we face has been, I believe, one that 
is reflective of a sense of understanding of the threat and an 
urgent need to ensure that operationally we are responding to 
that. The actual particulars on those individuals' monies and 
the time lines for how those are being distributed, I would 
like to get back to you, sir, for the record on that.
    Senator Byrd. Well now, what do you mean by what you just 
said, that you would like to get back for the record. What does 
that mean?
    Admiral Stone. I would like to make sure that I give you an 
answer on those each individual monies and what the time line 
is for them to be going out to the field.
    Senator Byrd. Very well. Now, you will do that for the 
record?
    Admiral Stone. Yes, sir.
    Senator Byrd. Mr. Chairman, what does that mean for us? 
Will we see the record on that before we mark up?
    Senator Cochran. Mr. Chairman, I am happy to join you in 
the request that the witness submit an answer to you directly, 
and we will also have a copy that will be printed in the record 
of the Committee's proceedings.

                            CAPPS II SYSTEM

    Senator Byrd. Very well. One of the concerns about the 
testing of the proposed CAPPS II system has been the lack of 
access to actual traveler data to test the system. Airlines 
have been reluctant to voluntarily provide data because of the 
very real concerns of privacy groups about how that data will 
be used. There is some speculation that the Department is 
planning to issue regulations to compel airlines to provide 
data for the purposes of testing.
    Can you confirm for the Subcommittee whether the Department 
is planning to compel airlines to provide data on travelers for 
the purposes of testing CAPPS II?
    Admiral Stone. Our plan right now, Senator, is to ensure 
that we meet all of the requirements that have been identified 
both by us and by other entities, such as the GAO, regarding 
privacy, oversight, and redress, and that currently is the 
focus of our effort. We have recently hired this past week a 
privacy officer for TSA. We have had a TSA nationwide privacy 
education week in order to ensure that the core beliefs of our 
agency are, indeed, shared throughout all of our employees.
    Our intent is to ensure that once the privacy redress and 
oversight measures are taken that we then work with the 
Department on ensuring that a notice of proposed rule-making is 
drafted and sent to the Department for review. And then 
following that would be our recommendation, our intent, once 
that notification goes out, so that the airlines and passengers 
know what would be forthcoming, then to move forward with a 
security directive for testing. So that would be the TSA 
intent, that sort of a process, through the Department.
    Senator Byrd. Of the funds requested for this program in 
the fiscal year 2005 budget request, what is requested solely 
for additional testing of the program, as opposed to 
implementation and operation of the system?
    Admiral Stone. For the funds that are proposed for fiscal 
year 2005 for the $60 million, the actual breakdown of what is 
for testing and what is for the actual operation of those 
airlines that have actually transitioned to the operational 
CAPPS II program, I would have to get that number exactly for 
you, sir, and I will do so.

                REWARDING OF DEEPWATER PRIME CONTRACTOR

    Senator Byrd. Very well. Admiral Collins, the Coast Guard's 
Deepwater program is a multi-billion dollar effort to modernize 
and replace its aging ships, aircraft, and communications 
systems. According to a recent report by the GAO, the Coast 
Guard does not have the capability to assess the performance of 
the program, and yet the Coast Guard awarded the prime 
contractors with a $4 million bonus for work accomplished in 
the first year of the contract.
    I am concerned that the Coast Guard is rewarding the prime 
contractor without first knowing if they are doing a good job. 
For instance, the very first Deepwater asset to be delivered, 
the 123-foot cutter, was delayed by 4 months. GAO reports that 
the schedule for the maritime patrol aircraft has slipped as 
well. Should we be rewarding this kind of performance with 
bonuses to the contractor?
    Admiral Collins. Currently, Senator, the GAO reviewed a lot 
of our management processes and procedures, and clearly, the 
focus on how we do award fees and how we deal with the systems 
integrated was part of that review, how we assess their 
performance and recognize their performance. We welcome those 
comments, obviously, from the GAO, and we are interested in 
continuing to refine our processes.
    We are addressing the processes for evaluating the 
contractor's performance. We did, in fact, evaluate five 
specific areas of performance during the first term. We 
followed very, very strict adherence to the Federal Acquisition 
Regulations. It was an overriding principle in this review.
    The contractor award fee score is, I would submit, much 
lower than typical industry and integrator's averages, if you 
look at averages for other type of contracts. We are confident 
that the award fee level was fair and represented an accurate 
assessment of the contractor's performance.
    Is there room for enhanced performance of both us and the 
contractor on this very, very complex project? Absolutely. We 
are working very, very hard to improve that performance, but I 
think in this particular case, it was done based upon a set of 
criteria. It was done fairly. It was done accurately. We had 
objective measures that were introduced into this awards fee 
process. We have a performance measurement plan. We have a 
balanced scorecard and all the other mechanisms that you use in 
this kind of thing. And we will continue to refine it, review 
it, assess it, and make it better as we go forward.
    Senator Byrd. Well, that is all well and good, but I think 
we--as you said, you can do better, and we should do better. I 
think we ought to take the GAO report seriously. This is an arm 
of the Congress. We are going to believe our agency, and we are 
going to expect better from you. So please be aware of this, 
and let us do better than this. This is the people's money. 
Your money. My money.
    Admiral Collins. Yes, sir.
    Senator Byrd. Their money. So try to do better. I have 
further questions. I will await my turn in the next round.
    Senator Cochran. Thank you, Senator.
    Senator Inouye.
    Senator Inouye. Thank you, Mr. Chairman.

         INCREASED REQUIREMENT FOR AIRLIFT CAPACITY SINCE 9/11

    The mission of the Coast Guard has expanded immensely since 
9/11. And since that time, thirteen maritime safety and 
security teams and eight port security units have been 
deployed. With these changes, has there been an increased 
requirement for airlift capacity?
    Admiral Collins. Yes, Senator, there is, and as you know, 
the Deepwater solution that was initially designed. And, of 
course, that is a 1998 requirement that the contractor's design 
to and bid on, in post-9/11. I think there is a re-evaluation 
needed to the strategic lift aspect that is embedded in our 
Deepwater solution.
    And we currently have a team looking at a revised baseline, 
performance baseline, for our fixed-wing fleet mix to service 
the lift requirement, because what is different in post-9/11 is 
that we have these maritime safety and security teams that you 
noted that require a strategic lift capability. We also need a 
move our use-of-force helicopters when we need to. We moved one 
up, incidentally, into Valdez in the last orange condition, 
from Jacksonville. We are moving our strike teams as well, so 
we see strategic lift as a very, very important part of the 
overall aviation and functionality embedded in the Coast Guard 
and for the Department, I might add.
    So we are going to be reviewing that operational baseline, 
Senator, and my expectations are that the C-130 aircraft, in 
particular, will figure materially in the ultimate re-
baselining of the requirement.

                   HC-130JS COMPARED TO THE HC-130HS

    Senator Inouye. Speaking of the HC-130J, pursuant to the 
fiscal year 2001 allotment, you received six HC-130Js. Now, how 
do they compare with the 130Hs?
    Admiral Collins. They are a wonderful piece of technology, 
Senator. They fly faster. They fly higher. They climb higher. 
They have digitized cockpits. It is the latest technology, 
versus the older technology. We have accepted all six, and we 
had some funding appropriated last year, $60 million, to do the 
engineering development and the missionization of those 
aircraft. By that I mean putting Coast Guard-peculiar sensor 
packages in so that they become true maritime patrol aircraft.
    Right now, they are strategic lift and not maritime patrol 
aircraft. So we are starting that process to put that 
capability in those C-130Js, utilizing that $60 million 
increment as a start.

                     MAKING PACIFIC FLEET ALL 130JS

    Senator Inouye. Would it make sense to make your Pacific 
Fleet all 130Js?
    Admiral Collins. That clearly is in consideration, sir. 
Hopefully, we will have greater clarity on that within a matter 
of a couple of months. Later in the early summer, we will have 
a redefined Fleet mix baseline for Deepwater. And it is going 
to have to look at strategic lift. You know the Pacific better 
than anyone, and you know the long sortie times that are 
required to do our business all through the Western Pacific and 
into the Bering Sea, and in the Southern Pacific, and in all of 
those places.
    So we have to take a very, very hard look at this Fleet mix 
and clearly how we deal with the C-130 Fleet, whether 
modernizing the H models or recommending additional J models 
will be part of that decision process, Senator.
    Senator Inouye. Thank you very much. I have several other 
questions, Mr. Chairman, I would like to submit to the Coast 
Guard, if I may.
    Senator Cochran. Thank you, Senator Inouye.

   BUDGET REQUEST FOR THE PURCHASE AND INSTALLATION OF AN EXPLOSIVE 
                            DETECTION SYSTEM

    Senator Inouye. If I may now ask Admiral Stone: The budget 
includes $400 million for the purchase and installation of an 
explosive detection system, the EDS machines. Letters of intent 
have been signed with eight airports, but it is my 
understanding that the $250 million requested for installation 
would only cover continued payment of existing LOIs. How many 
airports are on the list for installation, and under the 
current approach, how long would it take to install in-line EDS 
machines in the remaining airports on your list?
    Admiral Stone. Currently, sir, we have eight LOIs issued to 
cover nine airports, and for fiscal year 2004 and fiscal year 
2005, that is $800 million that has been apportioned for those 
nine airports in support of those eight LOIs. We have another 
list that we have gathered of airports that have requested 
Letters of Intent to cover their capacity and growth needs. 
That list is approximately 30 airports long.
    We are currently meeting with the AAAE and the ACI to find 
out if in fact that list is reflective of indeed those with the 
greatest need. So that list is being refined of outstanding 
airports that require LOIs to ensure it really encompasses the 
airports around the Nation that have the requirement, rather 
than have just those that have submitted the request.
    For instance, Chicago O'Hare is not on the list of airports 
that have an LOI pending. They have not submitted one, so we 
are reaching out with the AAAE and ACI to get that list 
corrected so that it reflects really the needs of the Nation, 
rather than just those who have submitted the LOI request.
    The $1.2 billion that we have in fiscal year 2004 and 
fiscal year 2005, of which $800 million covers the LOI process, 
leaves us about the $400 million to cover those airports that 
need EDSs installed in order to just remain 100 percent 
electronically capable. Thus, the 75/25 split allows us to keep 
those airports at 100 percent electronic. If in fact it was a 
90/10 split, then we have an issue that we will need to address 
regarding retaining compliance in fiscal year 2005.
    [The information follows:]

    We are currently assessing the structure and criteria of a long 
term program, and therefore do not have a cost estimate. Implementing 
EDS in-line systems at all airports is extremely costly and must be 
considered in light of all the other transportation security needs. 
While this multi-year effort progresses, TSA continues to use its LOI 
criteria, based on achieving and maintaining compliance with the 100 
percent electronic screening requirement at all airports, to determine 
where resources will be allocated. TSA is working with airports that 
will not be able to maintain compliance with the 100 percent electronic 
screening requirement because of increased passenger loads, increased 
and/or additional air carrier service, and/or airport terminal 
modifications and expansions. TSA also continues to evaluate situations 
where an in-line solution makes sense from the standpoint of security, 
efficiency, and reduced staffing needs.

    Senator Inouye. If you have to accelerate your program in 
the next 4 years, how much would it cost to cover all the 
airports on your list?
    Admiral Stone. I will have to get you a more concise 
number, but I would say it has been estimated to be somewhere 
in the area of $4 billion to $6 billion to meet the needs of 
those other airports across the Nation that have the LOI 
requirements.

          LIMIT ON FULL-TIME EQUIPMENT, BAGGAGE AND PERSONNEL

    Senator Inouye. At the present time, your agency operates 
on a limit of 45,000 full-time equipment, baggage, and 
personnel, but is this limitation a realistic one?
    Admiral Stone. Currently, we are once again partnering with 
the airports themselves on the issue of capacity, their 
projected capacity for next year and the year after. We have 
reached an agreement with the airports, as well as with the 
ATA, under the United States Civil Aviation Partnership, in 
which we will use a Boeing model. And the ATA, AAAE, ACI, and 
TSA have all agreed to use this model to look at our Nation's 
airports and come up with a figure that we think reflects the 
screening total requirements.
    Under the 45,000 cap that we are currently operating at 
right now, we do not have a clear picture of what that means at 
our Nation's airports because we still have not shaped 
ourselves properly. We still have some airports that are 
smaller airports with too many screeners there, and larger ones 
that have too few. So we need, internally at TSA, to make that 
adjustment here in the coming months to get a real view for 
what 45,000 FTE looks like.
    We are currently hiring screeners at those airports in 
particular that need screeners in order to meet compliance for 
100 percent electronic. We are currently at 43,600 FTE at TSA 
for our screening force. We are hiring up to 45,000, with the 
priority being those airports that need screeners to ensure 
compliance with congressional mandates.
    Senator Inouye. You have been hiring part-time employees 
and screeners. How are they working out?
    Admiral Stone. Currently, approximately 90 percent of our 
screening force is full time, and 10 percent are part-time 
screeners. However, because of our imbalance currently between 
small airports and larger airports, and the fact that we have 
not internally shaped ourselves correctly, what we have found 
out that those part-time screeners are having to work more 
hours than they signed up for. So we are pursuing this as a 
high-priority item to ensure that we get the right numbers at 
the right airports so we can have that efficiency and 
effectiveness that the airports, the airlines, and TSA all 
want.
    Senator Inouye. As you know, I travel quite a bit, going 
back and forth to Hawaii, and I must commend you and your team 
for a good job.
    Admiral Stone. Thank you, Senator.
    Senator Inouye. Thank you very much.
    Mr. Chairman, I have other questions I would like to----
    Senator Cochran. Thank you, Senator. We expect you to be 
able to be able to respond to those in a timely fashion 
directly to the Senator----
    Admiral Stone. Yes, sir.
    Senator Cochran [continuing]. And to this committee.
    Senator Murray.

                  IMBALANCE IN COAST GUARD SINCE 9/11

    Senator Murray. Thank you, Mr. Chairman.
    Admiral Collins, I understand that given the circumstances 
you believe the Coast Guard's mission is balanced responsibly. 
But according to the recent analysis, the Coast Guard mission 
hour analysis, it appears that since September 11th, the Coast 
Guard is spending about 50 percent less time on drug 
interdiction, environmental protection, and marine safety. And 
there have also been drastic reductions in the hours spent on 
search and rescue, aid to navigation, and enforcement of 
fisheries laws and treaties. At the same time, I see on our 
analysis that hours for homeland security has more than 
doubled. I think it is at 1,130 percent.
    I am really concerned that this additional budget pressure 
on you to focus on homeland security just asks the men and 
women under your charge to work harder in other areas. When do 
you see this trend subsiding?
    Admiral Collins. Obviously, if we go to an orange alert and 
there is additional pressure on. If there is an expeditionary 
war effort that is underway and we have additional pressures on 
our ports as we did in Liberty Shield last spring, then that is 
the priority of the Nation, to deal with that high-profile 
risk.
    So those are the kind of surges we have to deal with, and 
we are prepared to deal with them as an organization and still 
maintain an adequate profile to service the key issues, and 
meet the minimum standards across the board.
    I am very pleased that we have met all our search and 
rescue standards. We have met all our search and rescue 
performance goals.
    Senator Murray. I have. I realize that we did well last 
year, but I am really concerned--I want to ask you 
specifically, does this budget request allow you to return to 
your previous emphasis on the non-homeland security missions 
and at the same time do homeland security?
    Admiral Collins. By the end of 2005, compared to pre-9/11 
levels, we will have increased our total aircraft, cutter, and 
boat hours cumulatively by 68 percent from those previous 
levels. That is a growth in those resource hours----
    Senator Murray. That is our homeland security, correct?
    Admiral Collins. That is across--that is the total for 
all----
    Senator Murray. Does that include fisheries, search and 
rescue----
    Admiral Collins. That is everything. The total available, 
the total boat hours, the total aircraft hours, the total ship 
hours available, as compared to pre-9/11 averages, will go up 
by 68 percent. That is a very positive growth. That is 
reflective, as I mentioned earlier, in that our operation 
expense base went up 51 percent. That gives us greater capacity 
to deal with these surges.
    I do not know what is the normal any more, in terms of what 
is the fixed level. I would rather look at whether we are 
attaining performance, meeting the highest risks, meeting all 
our service responsibilities, and search and rescue standards, 
in particular.
    Here is a case in point: Counter-drugs. Counter-drugs, we 
were, last year, just a little bit, a scotch away, it is a 
technical term a scotch away from setting a record on the 
cocaine seized in the maritime, with fewer assets. Although we 
had a surge, the Liberty Shield, orange, and whatever, the 
seizure rate is up. Why? We are getting better about using 
Intel.
    We are partnering with coalition partners. We are using 
technology better, and we are coordinating interagency better. 
And all of those mean enhanced productivity. So there are ways 
to try to accommodate a particular operation tempo, pressures 
that we have, still get the performance the Nation needs.
    I would predict this year, I will go out on a limb, that we 
will seize over a hundred tons of cocaine this year, with less 
resources, because of the effectiveness of our partnering, and 
the use of Intel.
    Senator Murray. And I congratulate you on that, but I am 
particularly concerned about search and rescue, and marine 
safety, and some of the other areas that are out there. And we 
will be watching that very closely.

                         RESPONSE BOAT PROGRAM

    You have already been asked about some of the Deepwater 
programs and your ability to accelerate it. I am really 
concerned about the aging fleet of cutters and aircraft, as 
well as the status of the responsible program, and I appreciate 
your previous response. But could you provide the committee 
with an update regarding the response boat program and tell us 
whether we are on target to receive the 700 RBS vessels that we 
have previously contracted for and what the status of the RBS 
contract is?
    Admiral Collins. I will provide you with the response 
boats, small, if I could provide you a direct response, and I 
will give you a little matrix. It will show the flow of the 
acquisition, the dollars allocated, how many we are buying each 
year. But the short answer is, we are on schedule with it, and 
I will give you a complete breakdown year by year on it.
    Senator Murray. Okay. If you could submit that----
    Admiral Collins. It is a tremendous asset, by the way, and 
we are very, very pleased with that. Safe Boat is being a 
terrific contractor.
    The other issue, the response boat medium, as you know, we 
have three vessels that were designed and built and delivered 
to us. We are running them through their paces, through an 
evaluation process. And we will be prepared to make a down 
select and an award for a low-rate initial production, that is, 
the second quarter fiscal year 2005.
    Senator Murray. So a year from now.
    Admiral Collins. We will be ready to make an award and 
execute those funds that are in the 2005 request.
    Senator Murray. Okay.
    Admiral Collins. It will be six low-rate, initial 
production, boats that we will fund. We are very pleased, by 
the way, with all three candidates that we have. The good story 
is that all three have provided us with high-quality boats, so 
we will have great competition, as a good thing----
    Senator Murray. Good. We will look forward to that.
    Admiral Collins [continuing]. And we will have some good 
products to choose from.

                             PORT SECURITY

    Senator Murray. Okay. Good. Admiral Stone, as I mentioned 
in my opening statement, port security is really important. For 
me, it is a top priority, and it appears that we still have a 
lot of work to do when it comes to coordinating the Federal 
Government's efforts in this area. Can you help us understand 
how the various port security programs within the Department of 
Homeland Security interact and complement each other, and how 
this budget will help in that effort?
    Admiral Stone. Certainly. The Border and Transportation 
Security, under Under Secretary Hutchinson, both Commissioner 
Bonner and myself, and Admiral Collins' team worked very 
closely with BTS to ensure that we have a coordinated and 
integrated effort.
    For instance, the best practices that will be gleaned from 
Operation Safe Commerce with regard to locks, sensors, GPS 
systems, when they are gathered up, will be coordinated very 
closely with CBP, Commissioner Bonner's team, and also with the 
Coast Guard, to ensure that that sort of integrated approach, 
rather than a stove-piped one, in which those items are just 
taken and then put out as new policies. I think is critical to 
emphasize that we fully intend to take those best practices and 
have that sort of a process.
    Additionally, TSA, in partnership with the Coast Guard and 
CBP, with regard to port security, regularly coordinates the 
results of what the port captain has assessed down at the port 
as being those areas of vulnerabilities and risk to ensure that 
the port grant process reflects those needs. And then those 
monies are then apportioned as a result, in large part due to 
that coordinated effort of what the port captain on the scene 
has evaluated are his needs.
    [The information follows:]

                         Response Boat Program

    The RB-S represents a significant improvement in the Coast 
Guard's operational capability. Multi-Mission Stations, Marine 
Safety Offices, and Maritime Safety and Security Teams use the 
RB-S for a variety of missions. The boat is capable of 45 knots 
and can be armed with two machine guns, making it an ideal port 
security asset. However, its enclosed cabin and excellent sea-
keeping and maneuverability also lend it to being used on a 
full-range of Coast Guard missions.
    The first RB-S was delivered by Safe Boats International of 
Port Orchard, Washington in May 2002, specifically intended for 
homeland security use. By the end of fiscal year 2004, a total 
of 285 boats will be ordered to enhance the Coast Guard's 
homeland security capability and to recapitalize the Utility 
Boat-Light fleet. To date, 155 boats have been delivered. The 
Coast Guard is also analyzing how many of the 700 boats 
authorized under contract are operationally required for future 
purchases. The following table provides the number of boats 
ordered by fiscal year and the associated funding:

                          [Million of dollars]
------------------------------------------------------------------------
                                            Funding for      Number of
               Fiscal year                     boats       boats ordered
------------------------------------------------------------------------
2005 \1\................................            $8.2              40
2004....................................            27.0             139
2003....................................            15.2              84
2002....................................            10.9              62
------------------------------------------------------------------------
\1\ Based on fiscal year 2005 Budget Request.


    Admiral Stone. The TSA approach on the integrated 
intermodal information system, which is a system that we 
believe from point of shipment to point of destination provides 
visibility on an intermodal level for us to, therefore, 
coordinate with every partner that has to do with the security 
of cargo. And how, wherever that originates in the world and 
wherever it ends up in the United States, is another reflection 
of our intent to ensure that from a transportation sector point 
of view, all of our activities and how we monitor that are an 
integrated effort, fully partnered with the CBP, Coast Guard, 
and other organizations that are involved in monitoring those 
shipments as they enter the United States.
    So across the board, from an intermodal perspective, TSA, 
and I know that it is BPS's view, that that has to be the way 
to head if we are going to really be efficient and effective.
    Senator Murray. Well, as you know, Operation Safe Commerce 
is going to have a report by the end of this fiscal year that 
will detail some of the private sector methodology, best 
practices, and technology solutions. And I will be following 
that closely to make sure that the agencies use that 
information, because I think they have done a really good job 
of putting that together. So I will be working with you on 
that.

CONTINGENCY PLAN FOR THE FLOW OR COMMERCE DURING AN INCIDENT AT ONE OF 
                               OUR PORTS

    Let me ask you one other question, Admiral Stone, because 
after September 11th, everyone knows we grounded all of our 
aircraft for a number of days and saw devastating impacts on 
the air transportation industry. My state was impacted, 
obviously, with Boeing. All states were. But the shutdown of 
the West Coast ports last summer during the strike offered us 
kind of a glimpse of what would happen if we saw a similar 
shutdown at any of our seaports. That could cost our economy as 
much as a billion dollars a week.
    I would like to know from you what kind of contingency 
planning is happening within the Administration, and 
specifically, who is in charge of an incident and who is in 
charge of making sure the flow of commerce is not impeded 
should we have some kind of incident at one of our ports.
    Admiral Stone. TSA is charged with developing sector-
specific plans. And then in the area of maritime, for a port 
scenario that you mentioned, the Coast Guard would be lead in 
coordinating that effort from a maritime port point of view. 
But it is TSA's responsibility for the transportation sector to 
develop those plans. That is an ongoing effort with TSA and an 
item of priority as well as the daily coordination with the 
Coast Guard and other----
    Senator Murray. Are those contingency plans developed now, 
should something occur in one of our ports?
    Admiral Stone. The sector-specific plans are still a work 
in progress, and so the real-world events would be coordinated 
by TSA, much like we did during the last threat level orange 
when we had flights of interest, our coordination with the 
Department of Transportation on that was daily and immediate, 
via real-time communications on flights of interest. It would 
be our intent to do similarly in a real-world operation with 
the Coast Guard.
    Senator Murray. Admiral Collins.
    Admiral Collins. As you know, Senator, there is a family of 
planes that is required to be built as part of the MTSA.
    Senator Murray. Right.
    Admiral Collins. We are reviewing thousands, literally 
thousands of those for vessels and facilities, and those 
vessels and facilities. And there are overarching port security 
plans for each port, so over 40 of these. They are done 
collaboratively with the Area Maritime Security Committee.
    We are all major stakeholders in the port to provide an 
overarching plan to respond to contingencies and deal with 
security issues, not unlike the Oil Pollution Act of 1990 
requirement for area contingency plans for oil pollution 
response. The same thing is going to be done on the security 
basis.
    Those will be vetted in the other feeder, the government 
document is the port security assessment that has been done for 
each port. That is really the customer, that is, these 
committees and the captain of the port, so they can take those 
vulnerability assessments, along with threat assessments, and 
develop the appropriate plans and the contingency plans. And 
they will be embedded in each one of these captain of the port 
area plans, all to be completed, by the way, by the end of 
April, reviewed and approved, and in place by July 1 of this 
year.
    Senator Murray. That is all well and good, and I think you 
have done a marvelous job. The ports have done a really good 
job in responding to this. Mr. Chairman, what I am concerned 
about is the budget request. Admiral Collins testified, when 
was it, in the House last year that we would need $1.3 billion 
this year, and we have a $100 million budget request. So we are 
asking our ports to have these plans to be ready to go, and we 
are not funding them. I will have more conversations about 
this, Mr. Chairman, but I am deeply concerned about that.
    Senator Cochran. Thank you, Senator Murray. Senator 
Domenici.

                    FUNDING REAL NEEDS AND NOT WANTS

    Senator Domenici. Thank you very much, Mr. Chairman. First, 
I apologize for being late. I apologize to the witnesses.
    I would like to make a couple of observations and ask you 
to respond. It is not necessarily totally your problem, but I 
am unimpressed with the notion that everybody and every 
community of any size that makes noise will get help from the 
Department of Homeland Security.
    I would like to suggest to you that I do not believe we 
could ever afford to fund everybody that thinks they need a 
fire engine, everybody that thinks they need some 
transportation protection. But rather we have to conclude in 
some reasonable way, what is at risk and then help secure what 
is at risk.
    I do not know if you know. I am not sure that the committee 
members know, that well before this incident, Senators Lugar, 
Nunn, and Domenici put an amendment on the floor of the Senate, 
which passed overwhelmingly. It cost a lot of money, but it 
picked 120 cities, from experts, that needed first responder 
training. It did not pick 6,000. It picked 120.
    Now, might I ask first, Admiral Stone, because it is more 
relevant to you, and then with each hearing, I will ask all the 
way to the top, ``What do you do to evaluate people's concerns, 
versus the reality that we cannot do everything?'' There ought 
to be some way to cover real risks--strike that word--the most 
significant risks, rather than things that people think they 
need.
    Admiral Stone. Sir, I believe strongly, and we have this 
discussion almost every morning when an issue comes up at our 
operations and intelligence briefings, to look at an issue from 
a risk-based decision point of view, looking at three things: 
What is the threat? What is the criticality? And what is the 
vulnerability?
    Senator Domenici. What does ``criticality'' mean?
    Admiral Stone. The criticality? For instance, when the 
issue has come up about general aviation at Reagan Airport.
    Senator Domenici. Okay.
    Admiral Stone. What are the criticality of the assets 
involved in that particular decision? What is the 
vulnerability? There is a reduced reaction time. And then what 
is the threat? Do we believe that Al Qaeda has an interest, and 
terrorist organizations, in that particular modus operandi, to 
do us harm. So whether it has to do with general aviation at 
Reagan, that threat criticality and vulnerability, and then 
making a risk-based decision, I think, is key.
    Senator Domenici. So even though you are not the head of 
the whole department, you are telling me and this committee 
that you know enough to say to us, we are evaluating requests 
versus risk----
    Admiral Stone. Yes, sir.
    Senator Domenici [continuing]. All the time.
    Admiral Stone. Yes, sir.
    Senator Domenici. I might just say, fellow Senators, I have 
been observing and then trying to inquire when I see it, how 
groups rally and seek to impose, through political force, the 
needs of their organizations on the government. I do not think 
you ought to yield to that. I note the other day, and I love 
them, but the fire fighters had a big meeting. They wanted more 
things. I asked them the kinds of things they wanted, it became 
more obvious to me that there was a lot of the demand and the 
requests that just had to do with the fact that they wanted new 
equipment, not that they were at risk and needed new equipment. 
I see a difference. I do not see how we can fund the first, but 
we can the latter.
    If we are going to fund the first, we need a new program to 
say we are going to pay for the needs of the police and firemen 
of America. But that would not be related to this, it would 
seem to me. I could be wrong, and the Senate could say, yes, it 
does, because we do not know what is at risk, so we will cover 
everybody. But as of now, it is risk-oriented in terms of 
granting and assessing needs, and then funding them.
    Admiral Stone. Yes, sir, risk-based decision making is at 
the core of that decision process.

                 FLETC FACILITY AT ARTESIA, NEW MEXICO

    Senator Domenici. Okay. I thank you for that. I just have 
one parochial question, Mr. Chairman. I do not know if you 
know, Mr. Stone, some senators know, because I have been 
somewhat of an open advocate for a secondary FLETC facility 
that is now 12 years old in Artesia, New Mexico. You trained 
your air marshals there until 18 months ago, and then you got 
into an argument and you went to New Jersey.
    See, I do not win them all, Mr. Chairman, but I did not 
think it was a very good idea, and I still do not. I have 
talked to a lot of marshals, and it is interesting enough, 
though, the idea not to put it there, it was just too far away. 
The marshals that went there loved it. So I think it is a 
pretty good training facility.
    But now you have a new program, FFDO.
    Admiral Stone. Yes, sir.
    Senator Domenici. That is, Senator, if pilots want to carry 
arms, they ask, and they become volunteers to become trained so 
they can carry arms. Surprisingly, there are a lot of them, 
well, you might say a lot of them do not want to, but 
surprisingly, a lot of them do. We do not let them carry 
firearms just because they used to be deputy sheriff and know 
how to shoot a gun. They have to go through some pretty good 
training.
    Now, as I understand it, for the FFDO program the trainees 
are being trained at FLETC, Artesia----
    Admiral Stone. Yes, sir.
    Senator Domenici [continuing]. Is that correct?
    Admiral Stone. Yes, sir. The Federal Flight Deck Officer 
Program is the trainees at Artesia.
    Senator Domenici. Now, let me ask you, is the program 
effective and efficient, and what do you think about it?
    Admiral Stone. Extremely so. We are really proud of that 
program. The pilots themselves give us tremendously good 
feedback on the quality of the training in Artesia. Every week, 
we are graduating. We have a queue of folks that are in line to 
fill out all the quotas through the rest of this fiscal year. 
So we could not be more pleased with the quality of the 
training we see, the feedback from the pilots, and the extra 
level of security that that gives us today.
    Senator Domenici. From the standpoint of the Department, is 
this seen as something good, to go ahead and grant these pilots 
this permission and train them if that is what they want?
    Admiral Stone. It is my understanding, yes, sir. When I 
briefed this program up the chain into the Department, it is 
very well received as an additional layer that we are quite 
proud of.
    Senator Domenici. Could I ask, if you know this, what kind 
of feedback are you getting from the pilots with reference to 
this program in the event they have volunteered?
    Admiral Stone. The feedback on the critique sheets has all 
been superb training in Artesia, much better than I had 
thought, based on historical data for what they thought the 
course would be, now to come here and find out that it is top-
shelf training. So all of those critiques that we get back from 
the FFDO pilots have been very complimentary of the process.

                      FEDERAL AIR MARSHALS PROGRAM

    Senator Domenici. Let me shift gears now. A sister 
function, which is bigger in numbers and better known, is the 
marshal program, air marshals. Could you tell me, is that 
program working? Do you know what the morale is of those who 
are in that program? Are you having a significant and sustained 
mainstream or stream of applicants who want to do this?
    Admiral Stone. Sir, I am partnered with ICE, Mike Garcia, 
and his team, that now own the FAMs. However, since December, 
ICE and the Federal Air Marshal Program have sent one of their 
top people to sit in on every ops Intel brief, which we hold 
every day at TSA, so that connectivity and teamwork and 
partnership is reflected in everything that we do in aviation 
now. I think that is a real success story for us.
    From all the indications that I see, that program is being 
run very well. And it is very flexible when we get threat 
indications or we see things that come up, that we immediately 
want to reprogram a FAM to a particular flight. That happens 
instantaneously as a result of that operational focus that we 
have with the FAM, so I would give it high scores as well.
    Senator Domenici. Well, I understand they are paid well. 
There is no question that they make very good money, and they 
can thus afford the flexibility of sometimes working different 
hours and being shipped around when they were not expecting to. 
From talking to them, they understand that, but I have also 
been told that there are more quitting than one would expect 
for such a highly paid program. Is that true, and if so, do you 
know why?
    Admiral Stone. Sir, I do not have any visibility on that 
particular issue.
    Senator Domenici. Could you check that in some reasonable 
way and relate it to some comparable program with high pay like 
that, in terms of the staying power of the program and filling 
the vacancies. And also, are you at full capacity, and if not, 
why?
    Admiral Stone. Yes, sir, I will be happy to look into that.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Domenici. Admiral 
Collins, I noticed in the statement you submitted, in the part 
where you are talking about the need to recapitalize our 
operational assets, you point out that in your 110-foot patrol 
boats there have been 20 hull bridges requiring emergency dry 
docks.

  AVAILABLE NEW TECHNOLOGIES THAT COULD BE USED FOR REPLACEMENT COAST 
                             GUARD VESSELS

    I am wondering to what extent are new technologies 
available that could be used for replacement Coast Guard 
vessels that offer greater efficiencies or other benefits?
    Admiral Collins. Sir, first, let me give you a graphic 
example of one of those bridges. This is an out-plating from 
one of our recent 110s. You can see the corrosion, internal 
corrosion, and a fairly substantial hole. This is typical of a 
number of 110-foot cutters where failures were experienced. 
That, obviously, gives a sense of urgency about getting on with 
this patrol boat program.
    Of the technologies that we are attracted to, one is the 
composite technology. We are working with the Deepwater 
contractor on the surface side of the program. Northrup Grumman 
is exploring the use of a composite technology hull in 
particular for this fast-response cutter, which is this 110-
foot cutter replacement.
    It is attractive from two or three dimensions. Number one, 
lower life-cycle costs. The maintenance and the haul-out cycle 
are much more reduced. The life of the hull is much longer than 
a comparable steel or aluminum hull. So we are looking at it 
very, very eagerly and discussing with Northrup Grumman way 
ahead if, in fact, we do choose to pursue composite technology.
    Senator Cochran. Are there any existing ships that you know 
of that have this technology now and have demonstrated its 
capability?
    Admiral Collins. Yes, sir. One of the leading shipyards in 
the world in this technology is Kockums Shipyards, Karlskrona, 
Sweden. Northrup Grumman is partnering with Kockums Shipyards 
as their technical advisor, if you will, on moving ahead with 
this composite technology. They have built a number of 
minesweepers very successfully, and current frigate, the Visby 
class, which I had the opportunity to go aboard 6 or 7 months 
ago, to sort of kick the tires on this technology, if you will, 
very, very impressive technology. And because of Northrup 
Grumman partnering with one of the world's specialists and the 
use of this technology, it appears to be a very potent team, 
Senator.

                    AUTOMATIC IDENTIFICATION SYSTEM

    Senator Cochran. There is also an indication in your 
statement, in the section dealing with maritime domain 
awareness, where you say, ``An intelligence and warning system 
that detects indicators of potential terrorist activity before 
an attack occurs is necessary to take preemptive and protective 
action.'' You then go on to say you are currently installing an 
automatic identification system in your vessel traffic service 
ports and formalizing requirements to award a contract of a 
nationwide AIS network, the Automatic Identification System.
    Exactly how is that going to work? Is this a new technology 
that is envisioned, or is it something that you feel 
comfortable about moving forward? I notice you are requesting 
$4 million to continue this project. How is that money going to 
be spent?
    Admiral Collins. One approach is to embed AIS technology 
and all our nine VTSs around the country so there will be AID, 
or Automatic Identification System-based vessel traffic 
systems. That will all be completed by the end of this calendar 
year for all those systems. So we will have AIS-based.
    Also, another requirement for AIS is as a result of our 
initiatives with the International Maritime Organization, 
where, as you know, we pushed through an international standard 
for shipping successfully, the international ship and port 
security code, and also SOLAS, Safety of Life At Sea 
amendments, that require AIS on all in-bound commercial ships 
over 300 gross tons no later than 1 December 2004. These are 
transponders that identify position and location and other 
information. These AIS-equipped VTSs can take that signal.
    We also need to be able to receive those VHFM-communicated 
signals in other places beyond those ports. And we are looking 
at all kinds of different options to put AIS equipment on off-
shore platforms. As you well know, in the Mississippi, there 
are over 3,000 off-shore platforms. They could be a great 
location for those systems, so we have the coverage. It is a 
coverage issue. There is also the Rescue-21, which is the VHF 
high-sites that we are putting around the country, is to hang 
AIS systems off of those as well.
    So we are looking at all that infrastructure, trying to 
minimize the infrastructure burden by using existing locations 
and infrastructure in order to get the coverage we want. So we 
think it is a great way to go. We are optimistic about it.
    The other dimension of AIS is long-range tracking, the idea 
of how do you get long-range tracking, because this one is a 
short range. How do you get like over 2,000 miles type of range 
and reporting requirements? This is another program and 
initiative that we are running through IMO to establish it as a 
worldwide standard. We are looking at various options for long 
range.
    It gets complicated real quickly, Mr. Chairman, because it 
has a lot of moving parts, but we are taking a very 
comprehensive look at all of the pieces.

                               RESCUE 21

    Senator Cochran. One other modernization effort, I 
understand, is having some kind of identification system that 
shows the location so that you will not have to guess where the 
ship is.
    Admiral Collins. That is our Rescue 21 project, Senator, 
that is a fairly substantial feature of our capital request in 
2005. It has been in previous years. We are focused to build 
that system out by the 2006 time frame. That is the one that 
establishes high towers around the country and monitors VHF, 
FM, and other distress calls from emergencies at sea. It has 
digital recording capability, and direction-finding capability 
so we can hone in on the signal, fix the position, and take the 
search out of search and rescue. It is a very, very, very, I 
think, positive addition to our capability.

                  CAPPS II DEVELOPMENT AND DEPLOYMENT

    Senator Cochran. Thank you. Admiral Stone, we noticed that 
your request is $892 million more than the adjusted and enacted 
level for fiscal year 2004. And one of the additional requests 
this year that you are making is for a second-generation, 
computer-assisted passenger pre-screening system, the so-called 
CAPPS II.
    I know you envision this as a modern--more modern pre-
screening system than the one that is currently in use by the 
airlines. How soon do you think the TSA will be able to develop 
and deploy this system?
    Admiral Stone. We are confident that we will be able to get 
in place the privacy, redress, and oversight measures that we 
know are key to ensuring that we have the trust and confidence 
of the American people to put forth such a system that we think 
significantly enhances security. The time line for that is we 
hope to have in the spring, the NPRM, the Notice of Proposed 
Rule-making out, and approved within the Department, as well as 
the security directive that we need. So we are looking at being 
able to have the oversight, redress, and privacy pieces, and 
then forwarded to the Department this spring, the NPRM and the 
SD. At that point, the Department will review it and make the 
decision concerning forwarding for testing purposes.
    Once we have the approval to conduct testing, we envision 
that that process will be one in which we are going to want to 
test historical data. So we are going to want to give the 
airlines a couple of months to review the NPRM and the SD, and 
then we will go back and look at a historical month. This is 
our testing approach. So we are hopeful this summer that we 
would be able at some point to be able to conduct that sort of 
a test.

                  EXPEDITED REGISTERED TRAVEL PROGRAM

    Senator Cochran. I was encouraged to know that you are 
concerned about reducing the hassle factor in airports for 
passengers and baggage screening, and that you are considering 
a registered travel program to help accomplish this. Can you 
tell us when you think you might have an expedited program in 
place?
    Admiral Stone. We are very excited about getting a pilot 
going. That first step of actually doing a pilot and having a 
voluntary program where we are looking at groups of individuals 
that have volunteered, and then pairing that up with a 
biometric so that we can then verify that individual and be 
able to have a tailored process, either a dedicated lane, 
depending on the airport, so that we can facilitate the 
registered travelers through the checkpoint in a quicker 
manner. Our goal is in June, to be able to start that pilot and 
run it for about 90 days, and then glean the lessons from it 
with an eye towards continuing into 2005 with a more advanced 
program so that we can get on with the issue of registered 
traveler.

                       UNQUALIFIED AUDIT OPINION

    Senator Cochran. Finally, I think I should congratulate you 
for achieving an unqualified audit opinion for the last fiscal 
year. This is your third consecutive clean audit, I am advised, 
and you are maintaining a clean audit record and correcting 
control weaknesses that were noted in the audit reports. So I 
congratulate you for that.
    Admiral Stone. Thank you, Senator.
    Senator Cochran. Senator Byrd.

          NON-INTRUSIVE SCREENING OF PASSENGERS FOR EXPLOSIVES

    Senator Byrd. Admiral Stone, in December 2001, Richard Reed 
was prevented from exploding his improvised shoe bomb due to 
quick action on the part of the passengers and crew of an 
American Airline flight from Paris to Miami. In the intervening 
2 years, we appear to have increased the screening of checked 
baggage for explosives, but there appears to be little effort 
being made to enhance the screening of passengers themselves 
for hidden explosives.
    The technology and equipment exists to non-intrusively 
screen passengers for explosives. What is TSA doing to address 
this potential threat?
    Admiral Stone. Senator, I just stopped at our Atlantic City 
laboratory to review the explosive trace portal that is 
undergoing testing and certification. We firmly believe at TSA 
that we need to transform our checkpoints. The checkpoints that 
we have today, in the wake of 9/11, got the job done for us.
    The EDS systems that we have today, as well, were out there 
to ensure that we had an extra measure of protection. But now, 
in partnership with the Department of Homeland Security S&T 
Division, we started to review the entire aviation security 
role of TSA. Does the equipment match the threat, whether it be 
sheet explosives or any other potential threat? We are keen to 
ensure that we are investing and transforming our checkpoints 
to reflect the threats that we see coming down the road and 
experiencing today, rather than the box cutters that caused and 
the scenarios that caused 9/11.
    So our intent is to get that equipment certified, tested at 
Atlantic City, and then expedited out into our checkpoints to 
give us that explosive detection capability at our passenger 
checkpoints that you mentioned.
    Senator Byrd. How much of your fiscal year 2005 budget 
request is devoted to enhanced screening of passengers for 
explosives.
    Admiral Stone. We have, for our checkpoint modification, I 
think it is $44 million, or somewhere at $44 million or $46 
million for checkpoint enhancements, of which allows us to 
introduce to our checkpoints additional technologies.

 SECURITY PLANS REQUIRED UNDER THE MARITIME TRANSPORTATION SECURITY ACT

    Senator Byrd. To meet the requirements of the Maritime 
Transportation Security Act, vessel owners and port facility 
owners were required to submit security plans to the Coast 
Guard for review and approval by December 31, 2003. It was 
reported earlier this year that only one-half of all vessels 
and less than one-third of port facilities met the December 31 
deadline.
    According to your testimony, Admiral Collins, those numbers 
have improved dramatically. How many penalties have you levied 
against non-compliant companies?
    Admiral Collins. Senator, we have had about 97 percent of 
all the plans in, so we have really made some progress here 
over the past several months. Total number of notices of 
violations that were issued for the facility side of the plans 
were 63 notices of violation, and for the vessels, were 89 that 
have notices of violations for not meeting submittal 
requirements, Senator.
    But again, we have over 97 percent submitted this date. So 
we are confident that we are going to get all of them in and 
all of them reviewed and all of them approved, as appropriate, 
or adjusted as we go back and work with the submitter to ensure 
that they meet all the requirements of the rule and the law.
    Senator Byrd. Have there been corresponding penalties 
levied against non-compliant companies?
    Admiral Collins. I do not have the exact figures on that, 
Senator, with me today, but I will be glad to give you a prompt 
response on exactly the adjudication of those notices of 
violation.
    Senator Byrd. Very well. If you will, please. How many 
plans have you sent back for revisions? Would you supply that 
information also?
    Admiral Collins. I will provide you with that as well, sir, 
yes.
    [The information follows:]
 Security Plans Required Under the Maritime Transportation Security Act
    As of April 7, 2004, we have issued Notices of Violations (NOVs) to 
95 vessels and 66 facilities. Each of those violations was for failing 
to submit a completed security assessment and has a $10,000 civil 
penalty associated with it. Subsequently, we have issued civil 
penalties in the amount of $25,000 to four of these facilities for 
failing to submit a completed security plan (for a total fine of 
$35,000). These penalties were based on violations of 33 CFR Section 
104.410 for vessels and 33 CFR Section 105.410 for facilities.
    The security plan review and approval process consists of several 
distinct stages.
    For vessels there are two stages. Stage I review determines if a 
plan contains all critical elements outlined in the regulations, and 
Stage II review ensures that security measures specified in the plan 
adequately address the vulnerabilities which are identified in the 
security assessment. Vessel security plans receive final approval 
(Stage 2) from the Coast Guard Marine Safety Center in Washington, DC.
    For facilities there are three stages. Stage I and II review is 
parallel with the vessel Stage I and II, which are completed at the 
National Facility Plan Review Center in Kansas City, KS. Stage III 
consists of a final review that is completed and approved by the local 
Captain of the Port.
    All vessel and facility security plans through Stage II and Stage 
III have been completed.
    The Coast Guard has also issued a total of 157 Notices of Violation 
and civil penalties for failure to submit required security plans.

    Senator Byrd. What are you learning about the security 
needs of vessels and port facilities based on the plans that 
have been submitted?
    Admiral Collins. What we are learning is from the port 
security assessments in terms of vulnerabilities. As required, 
we are doing port security assessments for 55 of our major 
ports around the country. We will complete them all by the end 
of this calendar year, a lot of which is classified, by the 
way.
    But there are a lot of things that are coming out in that 
in terms of vulnerabilities. Generally, I will state, for 
example, underwater threats and how we are vulnerable in our 
ports for underwater threats is just an example of some of the 
things that we are finding in some of these assessments.
    These port security assessments will provide a lot of the 
solid information that we will use to craft these port-wide 
security plans that are also to be completed this spring. But 
all these assessments are sort of source documents to get a 
hold of the vulnerability end of the risk equation that Admiral 
Stone talked about and then match them up with a threat 
assessment as well and to have a complete picture of what gaps 
we need to fill.
    The other interesting thing, Senator, the purpose these 
serve is that when we do evaluate grant applications, that come 
in for port. We are sort of one of the expert witnesses that 
review those applications at the local level. We use all the 
vulnerability assessment we have done as a yardstick against 
which to measure this application as to whether it addresses a 
number of the gaps that have been identified in these 
assessments.
    So I think it is a good system that we have, and a 
comprehensive approach. And we are going to distill down the 
results of these port security assessments into a geographic 
information system display that is available for each one of 
our port security committees around the country so a ready file 
of information, very practical information that can be used by 
the port security including all the stakeholders in the port to 
make the right decisions about which risks and which gap to 
address first, second, and third.

                         PORT SECURITY FUNDING

    Senator Byrd. The Coast Guard estimates that $1.125 billion 
is needed in the first year and $5.4 billion over the next 10 
years for ports to comply with the Federal regulations that 
have been mandated by the Maritime Transportation Security Act. 
Until fiscal year 2005, the president never requested funding 
to help ports implement security improvements, as outlined in 
the MTSA, and his budget request for fiscal year 2005 is 62 
percent lower than the amount Congress provided last year.
    When Secretary Ridge testified before this subcommittee in 
February, he said that he believes port facility owners should 
bear most of the financial burden to harden security at our 
seaports. What evidence do you have that these owners are 
stepping up to the plate and investing their own resources in 
port security?
    Admiral Collins. Many of them have. Many of them have 
security plans already in place. Some of them are exercising 
those. They are aggressively pursuing grants, and use of grants 
to meet the terms and conditions of the new standards. Over 
$500 million, thanks, obviously, to the support of Congress in 
making those funds available. But over $500 million has been 
distributed to ports and port facilities to undertake some of 
this hardening, as you put it. There is $46 million within the 
2005 budget for additional source of grants for ports, and 
ports have the ability to also apply through ODP.
    The applications are reviewed by TSA, the Coast Guard, and 
other expert witnesses to also apply for higher levels of 
funding. There is over $3 billion worth of grant money that is 
included in the overall Department of Homeland Security budget. 
So there is $46 million dedicated and another ability to apply 
for that larger pot, a general pot of grant money as well.
    Senator Byrd. But the Administration is proposing to cut 
those grants by 62 percent. Why?
    Admiral Collins. I do not know exactly the way that final 
pot was determined, Senator. It is about $3.4 billion, as it 
stands now, submitted in the President's budget. Again, we do 
not administer the overall money. But as I recall, $8 billion 
overall has been given out in grant money by the Department of 
Homeland Security. I might look at Admiral Stone to confirm 
that number, but I believe it is $8 billion overall in the past 
2 years. And this represents another $3.5 billion, so a 
substantial amount of money, by anyone's accounting, that has 
been distributed to first responders and other requirements 
throughout the Department, including those port facilities.
    Senator Byrd. I am advised that that $8 billion is for 
first responders, not for port security.
    Admiral Collins. Again, over $500 million was allocated for 
ports and port facilities.
    Admiral Stone. Yes, sir, and with regard--Senator, may----
    Senator Byrd. Admiral Stone.
    Admiral Stone [continuing]. I help on that, or----
    Senator Byrd. Yes.

                      PORT SECURITY GRANT FUNDING

    Admiral Stone. The comment on the $46 million for fiscal 
year 2005 for port security grants is indeed reflective of the 
Department's view that the private sector needs to step up to 
the plate with regard to the security at our Nation's ports.
    Senator Byrd. Mr. Chairman, I hope there is some way we can 
get our arms around this question as to whether or not port 
facility owners are stepping up to the plate and investing 
their own resources in port security, as the secretary 
continues to advise as being the best way to solve this 
problem.
    We cannot seem to come to grips with it. The secretary says 
port facility owners need to provide this security, rather than 
the Federal Government, and yet we cannot seem to find out what 
port facility owners are doing.
    I have one more question. Do I have time to ask it, Mr. 
Chairman?
    Senator Cochran. Yes, sir, as long as Senator Inouye is not 
inconvenienced.
    Senator Byrd. Why do not I turn to Senator Inouye and let 
him ask----
    Senator Inouye. I have no questions.
    Senator Byrd If I have time, I will ask another. Thank you.

                        DEEPWATER BUDGET REQUEST

    The budget includes $678 million for Deepwater, the Coast 
Guard's program to modernize and replace its aging ships, 
aircraft, and communication systems. While this is a slight 
increase over the $668 million provided in fiscal year 2004, we 
believe that a significantly larger amount is needed to keep 
pace with the Coast Guard's homeland security mission 
requirements. It was conceived as a 20-year program, but the 
President's request only keeps the program on a 22-year 
schedule.
    Deepwater was conceived prior to the 9/11 attacks. The 
intention was to ensure that the Coast Guard had the assets to 
maintain its overall capabilities. Following September 11th, 
the Coast Guard's role in protecting the homeland increased 
dramatically, but the Deepwater program has not been adjusted.
    You state in your testimony that the Coast Guard's greatest 
threat to mission performance continues to be aging assets that 
are technologically obsolete. Why then are you only requesting 
enough funding to keep the Coast Guard on pace to complete 
Deepwater in 22 years when the majority of these assets will 
reach the end of their service life by 2008? Admiral Collins, 
please.
    Admiral Collins. Clearly, we are pleased with the continued 
support that we are getting from the Administration and from 
Congress on Deepwater. Obviously, it is a major initiative for 
us. We feel very, very important. The 2005 budget does keep 
most of the major pieces on track for Deepwater, and I think 
how fast we do Deepwater at this point probably falls in the 
out-year category to continue to consider the flow of assets. 
One year, of course, of funding does not continue the total 
flow. It is how you program these assets over time to get on 
the right time line.
    Again, as the operational commander, I am confronted with 
the dilemma to try to balance this number and try to balance it 
between legacy systems, or those old systems that are wearing 
out, and the new systems that have to replace them. And it is a 
dynamic process that we are going to have to collectively deal 
with.
    My apprehension, Senator, is that it is going in the wrong 
direction, that the readiness part, that downward spiral 
phenomena is something that concerns me as an operational 
commander, and the ability to deliver the services. So this is 
a tough question that we have to continue to address.
    Senator Byrd. Admiral, you have been a good soldier. You 
have been a good soldier. You are sticking to the 
Administration's request, but the Coast Guard submitted a 
budget request for over $1 billion to OMB for fiscal year 2005. 
You support the President's request, but I understand that you 
requested $1.1 billion to OMB for approval. What would the 
program time line be if your fiscal year 2005 Deepwater budget 
were $1.1 billion?
    Admiral Collins. That glide slope, Senator, of course, it 
is more than 1 year a program makes, but that glide slope, if 
it was funded at that kind of rate, would be basically a 15-
year program. And that is what that number, consistently 
applied, plus or minus a bit each year customized to the year 
over time, it would lead to a 15-year program.
    Homeland Security Act required the Department and the Coast 
Guard to submit a report to Congress on the feasibility of 
accelerating Deepwater. That report was sent last year. It was 
one of the first reports from the Department that identified 
the feasibility of accelerating.
    The requirement in the Act was to report on the feasibility 
and desirability of accelerating to a 10-year program and so 
forth.
    So that particular report is a matter of record. It has 
been sent to the House and the Senate, and it describes this 
particular course of action as well, Senator.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Byrd. Thank you, Senator Inouye, and thank you, Mr. 
Chairman. Thank you, Admiral Collins. Thank you, Admiral Stone. 
You are both good soldiers.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

          Questions Submitted to the United States Coast Guard

              Questions Submitted by Senator Thad Cochran

              integrated deepwater system (``deepwater'')
    Question. The fiscal year 2005 budget request includes an increase 
of approximately $10 million, for a total of $678 million, for the 
Integrated Deepwater System initiative. Will the requested level of 
funding for fiscal year 2005 put the Deepwater program back on track to 
be completed within the original 20 year time-frame? If not, what level 
of funding would be necessary to achieve this goal?
    Answer. The fiscal year 2005 budget request does not put the 
Deepwater Program on track to be completed within a 20-year time frame. 
To complete the acquisition in 20 years, the Coast Guard estimates the 
Deepwater Program would require $795 million for fiscal year 2005, and 
assumes continued funding at this level adjusted for inflation.
    Question. The Coast Guard is revising the Deepwater program's 
Mission Needs Statement (MNS) to coincide with a post September 11th 
environment. What is the time line for the Department of Homeland 
Security to approve the revised MNS and what impact will the revised 
MNS have on Deepwater program costs and acquisition schedule?
    Answer. The Deepwater MNS has been revised and is under final 
review by Coast Guard leadership. Once complete, the MNS will be 
forwarded to the Department of Homeland Security for review and 
validation. A formal briefing before the Department's Joint 
Requirements Council (JRC) is scheduled for May 25, 2004.
    As approved by DHS, the Coast Guard will engage our Deepwater 
system integrator to determine the most economical implementation plan 
for those new requirements identified in the updated MNS. Some new 
requirements, particularly those that emphasize DHS and DOD 
interoperability, will potentially lead the system's integrator to 
select alternate sub-systems or components in order to achieve any new 
requirements.
    The Integrated Deepwater Systems acquisition strategy and solution 
remain sound. However, increased mission demands, legacy asset 
capability obsolescence, and deterioration in legacy asset materiel 
condition since 1998 have created a performance gap in both capability 
and capacity. The updated MNS is projected to help close this gap. The 
cost and schedule implications have not yet been determined. When new 
requirements are approved, total owner cost estimates and the out-year 
acquisition schedule will be modified as required.
    Question. The fiscal year 2005 budget request for the Maritime 
Patrol Aircraft (MPA) is $5.3 million, a decrease of approximately 
$19.6 million from the fiscal year 2004 enacted level. Why is there 
such a decrease for a program that was significantly funded in fiscal 
year 2004, for which there is a contract to purchase at least four 
aircraft? What impact will this proposed decrease have on the MPA 
program? Will decreased funding for the MPA program delay the delivery 
of these aircraft? What impact does this have on the Deepwater program 
in general?
    Answer. The Coast Guard is currently acquiring the CASA CN235-300M 
as the Deepwater medium range Maritime Patrol Aircraft (MPA). The Coast 
Guard does not have a contract to purchase four aircraft. The Coast 
Guard funded the acquisition of two MPA in fiscal year 2003 and a third 
in fiscal year 2004. The Coast Guard's fiscal year 2005 budget request 
funds the missionization of the third CASA aircraft. This 
missionization includes the logistic complement required for Full 
Operating Capability and partial spare parts used for the logistics 
system start up. Delivery of the first two MPAs is scheduled for 2006, 
with full operational capability in late 2006 or early 2007.
    The Coast Guard is working to align the Deepwater Program with the 
strategic goals and objectives of the Department of Homeland Security 
(DHS). The DHS Joint Requirements Council (JRC) reviewed DHS Aviation 
Requirements in January 2004 at their first meeting. DHS decisions on 
future aviation requirements will determine the exact mix of aircraft 
in the Deepwater plan, at which time the funding and delivery schedule 
will be adjusted, if necessary.
    Question. The fiscal year 2005 funding request for the Vertical 
Unmanned Air Vehicle (VUAV) is $43 million, to continue work that was 
funded in fiscal year 2004 on two VUAV's; however, the requested 
funding level is not sufficient to bring either of the two VUAV's into 
full operational capability. What level of funding would be necessary 
to make one, or both, of these VUAV's fully operational? If funding is 
limited, would it not be better to provide the funds required to bring 
one VUAV into full operation rather than to partially fund two VUAV's, 
as proposed in the budget?
    Answer. The $50 million in fiscal year 2004 provides for detailed 
design of the VUAV and culminates in VUAV critical design review. The 
$43 million in fiscal year 2005 is for production of 2 VUAVs and 
associated ground control stations including developmental and 
operational testing. However, the fiscal year 2004 & fiscal year 2005 
funding of $93 million gets the Coast Guard VUAVs that are at Initial 
Operating Capability (IOC). These VUAVs will not have the necessary 
equipment for air space de-confliction and secure data link, which is 
required for Full Operating Capability (FOC). The funding necessary to 
bring both VUAVs to FOC (includes equipment for air space de-
confliction and secure data link, associated Non-Recurring Engineering 
(NRE), and testing) is approximately $30 million. Bringing one VUAV to 
FOC is not cost efficient, as the cost drivers are the design work, NRE 
and testing, and not the production of the aircraft itself. 
Additionally, two aircraft are needed for IOC testing.
    Question. Re-engining of the HH-65 helicopter was initiated with 
funds appropriated in fiscal year 2004 for other aircraft programs 
within Deepwater. From which program lines have fiscal year 2004 funds 
been moved to address the re-engining of the HH-65? How much funding 
from each line has been reprogrammed? What impact does this shifting of 
funds have on those programs in fiscal year 2004? Are changes to the 
fiscal year 2005 budget request necessary to address the shortfalls in 
fiscal year 2004 funding for the programs from which funds were shifted 
for the HH-65 re-engining?
    Answer. The fiscal year 2004 Deepwater Appropriation has a $67.7 
million Program Planned Activities (PPA Line Item) for ``Air Other 
Contracts/Legacy Sustainment.'' The HH-65 re-engining is an aviation 
legacy asset sustainment project, so it was appropriately funded from 
the Air Other Contracts/Legacy Sustainment PPA and no reprogramming 
from other PPA line items occurred.
    Since the re-engining was not a planned sustainment project for 
fiscal year 2004, the following legacy asset sustainment projects 
previously planned for execution under the fiscal year 2004 Air Other 
Contracts/Legacy Sustainment PPA were deferred in order to fund the 
fiscal year 2004 portion of the HH-65 re-engining. These deferred 
projects include: HH-65 Landing Gear Replacement, HH-65 Integrated 
Radar/FLIR Upgrade, HH-65 Tail Rotor Recapitalization, HH-60 Integrated 
Radar/FLIR Upgrade, HH-60 Service Life Extension, C-130 APS-137 Search 
Radar Replacement, and C-130 Weather Radar Replacement. Additionally, 
HH-60 Avionics upgrade projects was funded at a level lower than 
planned due to the HH-65 re-engining.
    The aviation legacy sustainment projects deferred in fiscal year 
2004 will not require changes to the fiscal year 2005 budget to meet 
shortfalls. Because it is a safety and reliability concern, HH-65 re-
engining remains the highest aviation legacy priority in the fiscal 
year 2005 President's Budget. The aviation legacy asset projects 
deferred in fiscal year 2004 and fiscal year 2005 are necessary and 
will need to be funded in the future to ensure the sustainment of those 
aviation legacy assets until replaced by new IDS assets but do not have 
the immediacy of HH-65 re-engining.
    Question. The fiscal year 2005 budget request for the HH-65 re-
engining includes $75 million for approximately 25 aircraft. Will this 
complete the re-engining effort? If not, what level of funding is 
necessary to complete the re-engining of the Coast Guard's HH-65 fleet? 
What is the projected time-frame for completing this re-engining 
project?
    Answer. The $75 million in the fiscal year 2005 budget request will 
not complete the re-engining effort. Although the exact acquisition 
costs of the HH-65 re-engining will not be known until receipt of ICGS' 
proposal, the budgetary estimate is approximately $3 million per 
aircraft for a total estimated project cost of $288 million. The 25 
aircraft re-engined with fiscal year 2005 funds will bring the total 
number of re-engined aircraft to 41, with 52 remaining to be re-
engined. The required funding for the remaining 52 aircraft is 
approximately $156 million.
    By June 2004, the Coast Guard plans to issue a Delivery Task Order 
(DTO) for the identified solution. The planned implementation schedule 
will be included as part of the final DTO. The Coast Guard estimates 
the re-engining of the HH-65 fleet to take approximately 24 months.
    Question. Once the Coast Guard has modified the HH-65 helicopters 
and added more power to them, will all the safety and reliability 
problems be resolved and will you be able to take the restrictions off? 
If not, why not?
    Answer. The HH-65 re-engining project was designed to address the 
safety and reliability crisis arising from accelerating frequency of 
power loss circumstances and restore the HH-65's operational 
capability. The selected solution, the TurboMeca Ariel 2C2 is expected 
to provide the safety and reliability required for the HH-65's multi-
mission roles. Once the solution is fully implemented, the Coast Guard 
will be able to lift current operational restrictions.
    Question. What is the Coast Guard's logic in using the Integrated 
Coast Guard Systems for the replacement project? GAO reports that it 
might have been faster and cheaper had the Coast Guard conducted the 
acquisition. Could the Coast Guard have completed this project itself?
    Answer. The Coast Guard directed Integrated Coast Guard Systems 
(ICGS) to immediately re-engine the HH-65 after careful consideration 
of other procurement options for the following reasons:
  --The HH-65 is a Deepwater legacy asset. The Coast Guard hired ICGS 
        for the Deepwater project.
  --Part of the re-engining requirement for safety and reliability of 
        this Deepwater asset included maximizing operational 
        effectiveness of Integrated Deepwater systems while minimizing 
        total ownership cost impacts. ICGS was best suited to make that 
        determination.
  --The ICGS proposal was evaluated based upon cost, schedule and 
        performance.
  --The Coast Guard has the advantage of utilizing Deepwater's existing 
        management and measurement systems to track cost, schedule and 
        performance. The safety and reliability crisis dictated that 
        the Coast Guard employ the best method to execute the re-
        engining project. ICGS' corporate approach brings many talents 
        to the acquisition process (e.g. ability to negotiate volume 
        purchase or offer premiums to more expeditiously acquire 
        required stock of engines).
    While the Coast Guard is capable of completing the project, the 
risk associated with removing the HH-65 re-engining project from the 
existing contract with ICGS to effect the MCH conversion was deemed to 
be unacceptably high.
    Question. What is the relationship between the HH-65 replacement 
project and Deepwater? Can you provide us assurances that it won't be 
necessary to re-engine the HH-65 a third time?
    Answer. The Coast Guard has directed that a re-engining project be 
immediately initiated to restore the HH-65 to unrestricted safe and 
reliable operations. The project is designed to address the HH-65 
engine system, the engine and engine control systems, to remedy this 
safety and reliability crisis, and restore the HH-65's operational 
capability.
    The HH-65 re-engining project is a separate and distinct effort 
from the Deepwater Multi-mission Cutter Helicopter (MCH). In the long-
term, the Deepwater plan is still to convert the HH-65 to the Multi-
mission Cutter Helicopter (MCH). While power increases were not the 
focus of this acquisition, the engine chosen, while addressing the 
safety and reliability concerns, also has sufficient power margins to 
allow for that engine to be used in the continuation of the MCH. As 
such, another re-engining should not be necessary.
    Question. What appropriations are being used for the HH-65 
replacement project, and how will this spending affect future spending 
on helicopters for the Coast Guard?
    Answer. The fiscal year 2004 appropriation being used for the HH-65 
engine replacement project is the ``Air Other Contracts/Legacy 
Sustainment'' Program Project and Activities (PPA) line item. This PPA 
line item is also projected to fund re-engining in the fiscal year 2005 
President's budget request. The effect on future helicopter spending is 
that the price of the Multi-mission Cutter Helicopter (MCH) should 
decrease to reflect the fact that engine replacement will no longer be 
required when the HH-65 is converted to an MCH.
    Question. What is the relationship between the HH-65 replacement 
project, the future Multi-mission Cutter Helicopter acquisition, and 
Hitron?
    Answer. The HH-65 re-engining project is an effort to correct a 
safety and reliability concern that is separate and distinct from both 
the Deepwater Multi-mission Cutter Helicopter (MCH) conversion project 
and HITRON.
    The Coast Guard directed the Deepwater acquisition program's 
systems integrator, Integrated Coast Guard Systems (ICGS), a 
partnership of Lockheed Martin and Northrop Grumman, to take immediate 
and definitive action to re-engine the HH-65 fleet to ensure safe and 
reliable operations. In the long-term, the Deepwater plan is still to 
convert the HH-65 to the Multi-mission Cutter Helicopter (MCH). While 
power increases were not the focus of this acquisition, the engine 
chosen, while addressing the safety and reliability concerns, also has 
sufficient power margins to be used with the MCH. The HITRON Airborne 
use of force mission is currently not a Deepwater requirement. There 
is, however, the potential to include this requirement under future 
contract modifications. The Turbomeca engine meets the anticipated 
airborne use of force power requirements should these become part of 
the future MCH mission profile.
    Question. The fiscal year 2005 budget request includes $15 million 
for capability enhancements for HH-60 avionics for one aircraft. How 
many HH-60 aircraft are in the Coast Guard fleet? Does the Coast Guard 
intend to provide these capability enhancements for each HH-60? Is the 
anticipated cost $15 million per aircraft, or will this funding level 
decrease after the first avionics upgrade is completed?
    Answer. There are 42 HH-60 aircraft in the Coast Guard fleet, and 
the Coast Guard intends to provide these capability enhancements to the 
avionics suite of each HH-60. The $15 million request in fiscal year 
2005 is for Non-Recurring Engineering (NRE) work associated with the 
avionics upgrades and does not upgrade any aircraft. The total project 
cost to upgrade all 42 aircraft is estimated at $121 million. This 
amount includes: long lead material, NRE, production, and operational 
test and evaluation. The HH-65 re-engining project is the highest 
priority aviation legacy asset sustainment project. The HH-60 avionics 
upgrade may be deferred if these funds are required to meet an 
accelerated re-engining solution.
    Question. The fiscal year 2005 budget request includes $9 million 
for capability enhancements for HC-130 aircraft radar in one aircraft. 
How many HC-130 aircraft are in the Coast Guard fleet? Does the Coast 
Guard intend to provide these capability enhancements for each HC-130? 
Is the anticipated cost $9 million per aircraft, or will this funding 
level decrease after the first radar upgrade is completed?
    Answer. The Coast Guard currently has 27 total HC-130 ``Hercules'' 
aircraft, 22 of which are operational while 5 are storage or support 
aircraft. In addition, the Coast Guard recently acquired six HC-130J 
aircraft, which are not fully missionized. The $9 million in fiscal 
year 2005 will upgrade the radar on one HC-130H and will also pay for 
the Non-recurring Engineering and Operational Test and Evaluation of 
the first upgraded aircraft. Coast Guard does intend to provide these 
capability enhancements for each HC-130, once funding is available. The 
average unit cost is approximately $3 million.
    Question. Was the fiscal year 2004 funding for the National 
Security Cutter (NSC) sufficient to complete the first NSC, or will a 
portion of the fiscal year 2005 requested funding be needed for its 
completion? The fiscal year 2005 budget request for the NSC is $274.5 
million. Is this funding level sufficient to complete the first and 
second NSC? If not, what additional funding may be necessary for 
completion?
    Answer. The funding for the National Security Cutter (NSC) in 
fiscal years 2002 through 2004 is sufficient to achieve initial 
operating capability for the lead ship. The Coast Guard anticipates 
requesting additional funding in fiscal year 2006 to attain full 
operating capability. Based on current cost projections, the fiscal 
year 2005 budget of $274.5 million for the NSC will complete the second 
NSC through full operating capability.
    Question. The fiscal year 2005 budget request includes $5 million 
for the Offshore Patrol Cutter (OPC). Is this sufficient funding to 
complete the design for the OPC? If not, how much funding is needed for 
completion of the design phase? How much is needed to begin 
construction? When does the Coast Guard anticipate completion of the 
design, beginning construction, and delivery of the first OPC?
    Answer. The $5 million requested in fiscal year 2005 will be 
combined with the $20 million appropriated in fiscal year 2004 to 
continue the requirements analysis, risk assessment and composite 
component analysis associated with the design and development of the 
Offshore Patrol Cutter (OPC). Based on a current projected cost for the 
OPC lead ship of $330 million, completion of the design would require 
an additional $59 million and construction would require an additional 
$246 million. The originally proposed implementation plan included 
acquisition of the first OPC in 2012, but the Coast Guard accelerated 
the design of the OPC to mitigate the risk of the deteriorating 
condition of the Medium Endurance Cutter fleet. Once the design is 
complete and the projected costs are refined, a business case analysis 
will be conducted to determine the optimal time to start the OPC 
construction, factoring in the latest information on the deteriorating 
condition of the Medium Endurance Cutter fleet.
    Question. The fiscal year 2005 budget request includes $60 million 
for the 110-123 foot conversions and the Fast Response Cutter, but the 
request does not specify how much funding is needed for each activity. 
How many 110-123 foot conversions does the Coast Guard expect to 
achieve in fiscal year 2005? How much funding is needed per vessel to 
complete a conversion?
    Answer. The Deepwater Program is conducting an analysis to 
determine the appropriate number of 123-foot patrol boat conversions to 
complete prior to switching to the Fast Response Cutter. A decision is 
expected this fiscal year (2004), and the Business Case Analysis will 
be provided at that time. The unit cost for the 110-foot to 123-foot 
Patrol Boat conversion is approximately $8.2 million per asset.
    Question. The design phase of the Fast Response Cutter (FRC) was 
started in fiscal year 2003. Does the Coast Guard anticipate completion 
of the FRC design in fiscal year 2005? How much funding is necessary to 
complete the design of the FRC? What is the anticipated completion date 
for the design? When does the design phase end and construction begin?
    Answer. The Coast Guard anticipates completion of the Fast Response 
Cutter (FRC) design in fiscal year 2005. The Deepwater Program is 
conducting an analysis to determine the appropriate number of 123-foot 
patrol boat conversions to complete prior to switching to the FRC. A 
decision is expected in fiscal year 2004, and the Business Case 
Analysis (BCA) for accelerating the FRC and the number of 123 
conversions will be provided at that time. Construction could begin as 
soon as fiscal year 2006 if supported by the BCA.
    Question. The fiscal year 2005 budget request includes 
approximately $2.3 million for one Long Rand Interceptor (LRI) and 
three Short Range Prosecutor (SRP) small boats, but does not specify 
how much funding is needed for each. How much funding is necessary for 
one Long Range Interceptor? How much funding is necessary for three 
Short Range Prosecutors?
    Answer. In fiscal year 2005, approximately $1.37 million will 
acquire the three Short Range Prosecutor small boats, and $0.92 million 
will acquire the Long Range Interceptor lead boat.
    Question. The fiscal year 2005 budget request includes $12.5 
million for the surface capability sustainment and enhancement of the 
medium endurance cutter class. This request is an increase of 
approximately $5.5 million over the fiscal year 2004 funding level. 
Please explain this increase.
    Answer. This increase can be explained by the continuing 
deterioration of the legacy surface fleet and the subsequent need to 
recapitalize major subsystems to sustain their operability as projected 
within the Integrated Deepwater System. The $12.5 million for Surface 
Capability Sustainment/Enhancements in the fiscal year 2005 budget 
request will fund a Mission Effectiveness Project (MEP) for the Medium 
Endurance Cutter (WMEC) fleet. The equipment and machinery slated to be 
replaced (e.g., evaporator replacement; propulsion control system 
upgrade; oily water separator replacement; waste heat cooling system 
modifications; and renewal of auxiliary pumps) is geared towards 
extending the service life approximately 5-10 years and ensuring the 
WMECs will remain serviceable until they are retired.
    Question. Funding to begin the development and design phase of 
command, control, communications, computer, intelligence, surveillance 
and reconnaissance (C4ISR), increment 2, was provided in fiscal year 
2004. Will the funding request for fiscal year 2005 complete the 
development and design of C4ISR, increment 2? If not, how much 
additional funding would be required to complete this phase of 
development and design?
    Answer. The two C4ISR increments have two design phases. The first 
design phase is concept and preliminary design; the second design phase 
is detailed design and development. The funding provided in fiscal year 
2004 was for the detailed design and development for C4ISR Increment 1 
(the second of the two design phases for Increment 1). The funding 
requested in fiscal year 2005 is for concept and preliminary design for 
C4ISR Increment 2. In order to complete Increment 2, the detailed 
design and development portion must also be funded at approximately $30 
million.
    Questions. What is the division of program management 
responsibility between the Coast Guard and Integrated Coast Guard 
Systems (ICGS)? Is the Federal Government providing management funds to 
ICGS? How much of the total management cost does ICGS provide? What 
exactly is the fiscal year 2005 budget request of $45 million for 
systems engineering and integration? Are program management funds 
included within each Deepwater line item? If so, how is the Coast Guard 
certain that there are not any duplications in payment to ICGS?
    Answers. The Coast Guard is responsible for all Program Management 
including oversight of the contract with the prime contractor, which is 
the systems integrator in the Integrated Deepwater System (IDS) 
Program. The systems integrator, Integrated Coast Guard Systems, LC 
(ICGS) has the responsibility for Contract Management including the 
subcontractors that execute the contract.
    The Federal Government is providing Contract Management funds to 
ICGS, just as it does on all major acquisitions where a systems 
integrator is engaged to coordinate various subcontracted elements.
    Contract Management funds are provided to ICGS through the Systems 
Engineering and Integration delivery task order. The Coast Guard 
receives Program Management funding through the Government Program 
Management budget category. The division of the $83 million requested 
for these two budget items is approximately 54 percent for ICGS and 46 
percent for the Coast Guard. The $45 million budget request for Systems 
Engineering and Integration represents approximately 8 percent of the 
total contract value in fiscal year 2005, and approximately 6.6 percent 
of the Total Capital Acquisition. It must be emphasized that the 
Government Program Management and ICGS Contract Management are not the 
same thing.
    The fiscal year 2005 budget request for Systems Engineering and 
Integration provides for the following activities:
  --System of Systems Engineering including System Architecture 
        development, Operational Effectiveness analysis, Total 
        Ownership Cost management, and Enterprise level requirements 
        management.
  --Enterprise level System Integration
  --Enterprise level System Integrator Program Management
  --Quality Assurance
  --Integrated Product and Process Development
  --Integrated Master Schedule maintenance and management
  --Aviation, Surface Vessel, C4ISR, and Logistics System Integration 
        at the Enterprise level
  --Contract Management
    Delivery orders for each Deepwater asset include appropriate funds 
to execute the delivery order, just as in any other government 
acquisition. These funds would not typically be classified as Program 
Management.
    The Coast Guard ensures there is no duplication of payment by using 
detailed statements of work at both enterprise and individual asset 
levels to clearly distinguish between activities. Furthermore, ICGS' 
first tier subcontractors maintain and report via timekeeping and 
billing systems that are under the constant oversight of defense 
auditing agencies.
    Question. The fiscal year 2005 budget request includes $38 million 
for government program management. Does this request fully fund all 
program management costs? Are additional program management costs 
contained within other Deepwater line items? How many people does this 
funding request support? Is this enough to support all of the necessary 
personnel to manage the program properly?
    Answer. The $38 million for government program management combined 
with the government personnel (201 military and civilian positions) 
supporting the program (funded from the AC&I Personnel line item) meets 
the Deepwater government program management requirement in fiscal year 
2005. None of the other line items support government program 
management. Fifty percent, or $19 million, of the $38 million in 
government program management provides funding for the equivalent of 
approximately 124 contracted support personnel. The remaining 55 
percent provides funding for such items as modeling and simulation, 
operational test and evaluation, travel, training, studies, phones and 
other administrative support materials. The funding provided in the 
government program management line item and the Deepwater portion of 
the AC&I personnel line item will support the necessary personnel to 
properly manage the program at the requested funding level.

                GAO DEEPWATER PROGRAM MANAGEMENT REPORT

    Question. In 2001, GAO reported on risks facing the Coast Guard as 
it went forward on Deepwater. Just this month, GAO again reported on 
these same risks, in particular that key components the Coast Guard 
needs to effectively manage the program and provide adequate contractor 
oversight were either missing or not fully developed. What is the Coast 
Guard's response to these criticisms?
    Answer. The Coast Guard is dedicated to the continuous improvement 
of Deepwater, welcomes GAO's expertise and guidance, and has responded 
to these management concerns by developing a Plan of Action & 
Milestones (POAM) to correct deficiencies. As part of our 
``partnership'' with GAO we will regularly report back on the status of 
this POAM and seek their feedback.
    The specific quote in this month's GAO Report that references their 
audit of 2001 states, ``Concerns about the Coast Guard's ability to 
rely on competition as a means to control future costs contributed to 
GAO's description of the Deepwater program in 2001 as `risky.' Three 
years later, the Coast Guard has neither measured the extent of 
competition among suppliers of Deepwater assets nor held the system 
integrator accountable for taking steps to achieve competition.''
    The Coast Guard has placed particular emphasis on the ability to 
measure performance within the scope of the program. Over twenty 
measurement items have been defined and measured in the approximate 20 
months that ICGS has been under contract. Additional measures are in 
the process of being defined and measured. This effort continues to 
evolve as the program identifies measures and data sources and as the 
system components mature from design to production, fielding, and 
disposal.
    All of the Integrated Deepwater System items in the first 5 years 
of the contract were fully competed as part of the competition between 
the three industry consortiums led by Litton/Avondale Industries, 
Science Applications International Corporation, and Lockheed Martin 
Naval Electronics and Surveillance Systems. Going forward from contract 
award, the Deepwater Program has included Competition as a factor for 
determining if the contract should be approved for another term and how 
long that term should be. The measures for Competition being proposed 
for adoption include:
  --Percentage of awards competed;
  --Minimizing the number of teaming agreements;
  --Number of advertisements publicizing supplier registration;
  --Number of vendor outreach programs; and
  --Percentage of first tier subcontracts that incorporate the intent 
        of the Federal Acquisition Regulation clause 52-244.5 
        ``Competition in Subcontracting.''
    The Coast Guard's systems integrator, ICGS, has also adopted the 
Open Business Model, initially a Lockheed Martin philosophy, as an 
official policy for ensuring competition. The process ensures full, 
continuous, and open analysis of supplier alternatives throughout the 
program's execution.
  --This approach entails obtaining proposals/quotes from two or more 
        qualified suppliers, and then balancing the cost, quality and 
        delivery of the components after the qualified suppliers have 
        been identified to provide the required components. This model 
        provides the flexibility to capture commercial technology when 
        needed, and it is projected to provide better performance at 
        equal or lower cost.
  --The Open Business Model has been approved by the ICGS Board of 
        Directors and is applicable to all Deepwater transactions.
  --To enforce these regulations, ICGS has appointed a Competition 
        Advocate and Ombudsman tasked to draft implementation 
        procedures for regular reporting to ICGS.
  --Visits by the ICGS Competition Advocate are also planned with 
        Deepwater's industry partners to examine ``make/buy'' decisions 
        and competition practices.
    In addition to the issue of competition, the Coast Guard is 
diligently incorporating GAO's recommendations, as well as other best-
business practices, into its operating procedures. The Coast Guard is 
actively addressing those management practices not in place, and is 
improving and maturing processes for those that are already in 
existence. The following is a summary of recommendations by GAO for 
executive action and the Coast Guard's mitigation strategies:
  --Improve Deepwater program management--take the necessary steps to 
        make Integrated Product Teams (IPTs) effective; ensure adequate 
        staffing is addressed as outlined in the human capital plan 
        (HCP), and ensure operators and maintenance personnel are 
        prepared for the transition to new Deepwater assets.
    --We have clarified IPT roles and responsibilities over the past 20 
            months and are improving processes to attain full 
            competency for each IPT.
    --The personnel funding account did not allow for additional 
            personnel in fiscal year 2004. Several key military billets 
            have been civilianized and military personnel have been 
            brought onboard out of cycle.
    --The HCP will be updated and necessary training billets will be 
            budgeted in sync with the fiscal year 2006 budget cycle.
    --ICGS has recently added representatives at the key maintenance 
            and logistics sites to act as the POC for all maintenance 
            coordination issues.
  --Improve contractor accountability by improving award fee criteria, 
        award fee assessments, system integrator accountability for IPT 
        effectiveness in award fee determinations, Total Ownership Cost 
        (TOC) baseline measuring cost, and criteria for TOC baseline 
        adjustments.
    --We are addressing our processes for evaluating the contractor's 
            performance. Five specific areas of performance were 
            evaluated during the first term. Strict adherence to 
            Federal Acquisition Regulations (FAR) was an overriding 
            principle in all accounts.
    --The contractor award fee score is much lower than typical 
            industry averages. We are confident that the Award Fee 
            level was fair and represented an accurate assessment of 
            contractor performance.
    --Objective measures are being introduced into the award fee 
            process.
    --The Performance Measurement Plan, and in particular the Balanced 
            Scorecard (BSC) Strategy Map clearly articulate how the 
            objectives of the program's BSC identify input, process, 
            and output measures that provide leading indicators of 
            Operational Effectiveness, Total Ownership Cost, and 
            customer satisfaction. BSC metrics continually measure the 
            status of the program and allow for early course 
            corrections if required. Deepwater, as the largest 
            Performance-based acquisition in the Federal government is 
            firmly anchored to metrics and can demonstrate its value to 
            the taxpayer while meeting our customer's requirements.
    --The program has taken a proactive approach to contractor 
            assessment to ensure that course corrections and 
            adjustments can be made before the Award Term assessment in 
            year four, prior to the end of the first term. An 18-month 
            performance assessment was completed on February 23, and 
            approved on March 4.
  --Facilitate cost control through competition with system integrator 
        accountability for competition among second tier suppliers.
    --For subcontracts over $5 million, notification to the Coast Guard 
            is required, to include an evaluation of the alternatives 
            considered, if ICGS subcontracts out to Lockheed Martin 
            and/or Northrop Grumman.
    --The Open Business Model, initially a Lockheed Martin philosophy, 
            is now official ICGS policy and is applicable to all 
            Deepwater transactions. To ensure compliance, ICGS has 
            appointed a Competition Advocate and Ombudsman, who is 
            drafting implementation procedures for regular reporting to 
            ICGS and will examine Make/Buy and competition practices.
    --The program will put additional processes in place to ensure 
            competitive forces are being used to manage costs. An 
            annual independent third party review of transactions will 
            be conducted. The Agency Acquisition Executive will review 
            any subcontract over $5 million awarded to Lockheed Martin 
            or Northrop Grumman.
    --A review of ICGS' application of their Open Business Model vis a 
            vis accountability for ensuring competition will be 
            included in the Award Term Evaluation and measured 
            diligently as discussed earlier.
    Question. Similarly, GAO has reported that while competition is 
critical to controlling Deepwater program costs, the Coast Guard does 
not have a system to measure the extent of competition among suppliers 
of Deepwater assets nor has it held the system integrator responsible 
for taking steps to achieve competition. What is the Coast Guard's 
response to these criticisms?
    Answer. All of the Integrated Deepwater System nominated items in 
the first 5 years of the contract were fully competed as part of the 
competition between the three industry consortiums led by Litton/
Avondale Industries, Science Applications International Corporation, 
and Lockheed Martin Naval Electronics and Surveillance Systems. The 
Coast Guard, the DOT, and the Office of Federal Procurement Policy 
through review and approval of the Request for Proposal indicated that 
this was appropriate competition for the first award term.
    In the current phase of the Deepwater contract the Deepwater 
Program, based on GAO's recommendations, has now included competition 
as a factor for determining if the contract should be approved for 
another term and how long that term should be. The measures for 
competition being proposed for adoption include:
  --Percentage of awards competed;
  --Minimizing the number of teaming agreements;
  --Number of advertisements publicizing supplier registration;
  --Number of vendor outreach programs; and
  --Percentage of first tier subcontracts that incorporate the intent 
        of the Federal Acquisition Regulation clause 52-244.5 
        ``Competition in Subcontracting.''
    The Coast Guard's systems integrator, ICGS, has also adopted the 
Open Business Model, initially a Lockheed Martin philosophy, as an 
official policy for ensuring competition. The process ensures full, 
continuous, and open analysis of supplier alternatives throughout the 
program's execution.
  --This approach entails obtaining proposals/quotes from two or more 
        qualified suppliers, and then balancing the cost, quality and 
        delivery of the components after the qualified suppliers have 
        been identified to provide the required components. This model 
        provides the flexibility to capture commercial technology when 
        needed and it is projected to provide better performance at 
        equal or lower cost.
  --The Open Business Model has been approved by the ICGS Board of 
        Directors and is applicable to all Deepwater transactions.
  --To enforce these regulations, ICGS has appointed a Competition 
        Advocate and Ombudsman tasked to draft implementation 
        procedures for regular reporting to ICGS.
  --Visits by the ICGS Competition Advocate are also planned with 
        Deepwater's industry partners to examine ``make/buy'' decisions 
        and competition practices.

                          SMALL BOAT STATIONS

    Question. What challenges are small boat stations facing in 
balancing search and rescue requirements with new homeland security 
requirements?
    Answer. Broadly, the Coast Guard will continue seeking the 
appropriate balance among all its mission-programs while relentlessly 
pursuing our stated performance goals. In so doing, the Coast Guard 
will continue to focus not only on activity levels (hours), but also on 
achieving the desired outcomes for each Coast Guard mission. Our 
ability to achieve desired outcomes and performance goals have been 
significantly enhanced through improved technology, tactics and 
procedures making our activities that much more effective. Risk-based 
decision-making by local commanders will continue to be the primary 
driving factor behind the specific activity levels (hours) accrued in 
the course of Coast Guard operations.
    At the Station level, the biggest challenges in balancing search 
and rescue (SAR) and homeland security (HLS) requirements are training 
and maintaining the 68-hour workweek standard. There are two primary 
factors that will improve training while maintaining the 68-hour 
workweek standard at Stations: formal training programs and experienced 
command cadre. In fiscal year 2003 and fiscal year 2004, the President 
and Congress provided funding for the Coast Guard to improve both 
areas.
    Formal Training.--The Coast Guard's goal is to increase Boatswain 
Mate ``A'' school throughput by 50 percent over the next 4 years. We 
have also increased recurring proficiency requirements giving qualified 
boat crewmembers more opportunities to practice necessary skills. In 
addition, we have increased the throughput at our resident training 
centers for Small Boat Coxswains, Heavy Weather Coxswains, and Surfmen 
removing some of the training burden from the field units.
    These formal training opportunities provide a strong basic 
foundation for junior personnel. This strong foundation allows the 
command cadre to spend less time teaching basic fundamentals and more 
time teaching job specific tasks.
    Experienced Command Cadre.--The Coast Guard used many of the new 
billets provided by the President and Congress to upgrade senior 
command cadre billets. Additional support billets were also provided at 
both Stations and Groups to relieve the command cadre of administrative 
burdens. These actions were focused on improving management and 
leadership, and providing more time for the command cadre to conduct 
training. Once all of the new billets are filled this year and 
personnel are qualified in their assignments, we anticipate improved 
training and reductions in the average workweek.
    Question. What impact have the additional homeland security 
requirements had on the small boat stations' ability to meet other 
mission requirements, such as drug interdiction and fisheries 
enforcement?
    Answer. Immediately following 9/11, the Coast Guard surged 
resources for homeland security activities. Over the past 2 years, the 
President and Congress have funded the Coast Guard with additional 
resources to address homeland security and all other mission 
requirements.
    As required by Congress, some of these initiatives supported 
Station-level staffing, training, boat standardization, and readiness 
for all missions. Other initiatives were geared specifically toward the 
search and rescue program. The Coast Guard will continue to monitor the 
operating tempo and workload at Stations, and we will work within the 
Administration if additional resources are necessary. We will also use 
all of the resources as intended by the Congress.
    Fishery Enforcement.--Stations continue to contribute significantly 
to the Coast Guard fishery enforcement mission. In fiscal year 2002, 
Stations conducted 974 fisheries enforcement boardings. In fiscal year 
2003, Stations conducted 1,313 fisheries enforcement boardings, a 35 
percent increase over fiscal year 2002 levels. These boardings 
contribute the Coast Guard's domestic fishery program goals.
    Counter-Drug Operations.--The Coast Guard's overall counter-drug 
strategy is to interdict drugs offshore, far from the U.S. border. 
Coast Guard Cutters and Aircraft are primarily used for conducting 
these offshore patrols, however, Stations continue to respond to both 
counter-drug and migrant incidents when necessary.
    Question. Given the increased operating tempo of small boat 
stations following September 11th, do stations have the resources--i.e. 
staff and boats--they need to fulfill all their mission needs? What 
additional resources, if any, are most needed?
    Answer. In fiscal year 2003 and fiscal year 2004, the President and 
Congress provided funding for Stations to maintain a high level of 
service in a busy operating environment. Funding was provided for the 
Coast Guard to add or upgrade over 900 billets at Stations and the 
training and support facilities that serve them. Additionally, over 
$5.5 million of Personal Protective Equipment was provided for Station 
personnel with earmark and supplemental funding. Over 200 Response 
Boat--Smalls were also funded increasing operational capability. As 
required by Congress, these initiatives supported Station-level 
staffing, training, and readiness for all mission areas.
    The President and Congress have also provided substantial funding 
since 9/11 specifically for homeland security. The Coast Guard has used 
some of this funding to purchase seventeen additional 87 foot Coastal 
Patrol boats, 13 Maritime Safety and Security Teams, and over 100 Sea 
Marshals. These new assets have helped reduce the high operating tempo 
observed at Stations immediately following 9/11. The President's fiscal 
year 2005 budget requests operating funds for five 179-foot Patrol 
Coastals providing additional resources to the Coast Guard.
    The Coast Guard will continue to monitor the operating tempo and 
workload at Stations, and we will work with the Administration if 
additional resources are necessary.
    Question. Inspector General reports have raised concerns about the 
lack of senior personnel available at boat stations in recent years to 
train new, or more junior personnel. As Coast Guard increases the 
number of new personnel assigned to stations in fiscal year 2004, what 
impact will this have on stations operations, including the ability of 
senior personnel to train less experienced staff?
    Answer. In fiscal year 2003 and fiscal year 2004, the Coast Guard 
addressed the impact of senior personnel having to train less 
experienced staff by upgrading many senior command cadre positions, 
providing additional administrative support to Stations, and assigning 
additional staff to Groups.
    These actions are focused on improving management and leadership, 
and reducing the administrative burden on the command cadre. In 
addition, we have increased the throughput at our resident training 
centers to remove some of the training burden from the field units. The 
Coast Guard continues assessing the impact of these changes to 
determine what actions, if any, are needed in the future.
    The following highlights specific training efforts discussed above:
  --Established one Ready Boat-Small Standardization (STAN)/Training 
        Team to improve training, professionalism and performance.
  --Added a dedicated course developer/writer/instructor to Training 
        Center Yorktown Coxswain ``C'' School.
  --Added Surfman Apprentices to the National Motor Life Boat School 
        (NMLBS) to reduce the training burden at surf stations and 
        increase the number of qualified Surfmen.
  --Added 41 FTP for Boatswain Mate (BM) `A' School throughput 
        increases.
  --Added 18 FTP for NMLB School Training throughput increases.
    Question. What steps has the Coast Guard taken to address the issue 
of its aging 41-foot utility boat fleet, which is reaching the end of 
its service life?
    Answer. The Coast Guard's fiscal year 2005 funding request includes 
$12 million to begin a limited production of six Response Boats-Medium 
(RB-M). The RB-M is the replacement for the aging 41-foot utility boat 
fleet. After initial limited production, the Coast Guard currently 
projects $140 million in additional funding needs for RB-M in the Five 
Year Capital Investment Plan, which accompanied the President's fiscal 
year 2005 Budget request for Coast Guard.
    Question. What progress has the Coast Guard made in standardizing 
its non-standard boat fleet?
    Answer. Since fiscal year 2002, the Coast Guard has ordered 255 
Response Boat--Smalls. A large majority of these boats were purchased 
to enhance the Coast Guard's maritime homeland security capability in 
critical ports; however, some have been purchased to replace non-
standard boats. By the end of fiscal year 2004, approximately 100 of 
the 350 total Non-Standard Boats will be replaced. We expect to replace 
approximately 12 percent per year thereafter until full replacement in 
fiscal year 2010.

                       PORT SECURITY ASSESSMENTS

    Question. Is the Coast Guard on track to complete the Port Security 
Assessments of the 55 most critical ports in the United States by the 
end of this calendar year? Are additional funds necessary to complete 
these assessments?
    Answer. The Coast Guard has conducted PSAs at 16 of the 55 top 
economically and militarily strategic U.S. ports. The remaining 39 port 
assessments are on schedule, funded and scheduled for completion in 
calendar year 2004.
               research, development, test and evaluation
    Question. Please explain the approximately $1.4 million decrease in 
requested funding for the Coast Guard's research, development, test and 
evaluation account?
    Answer. Prior year CG Research & Development (R&D) appropriations 
included project funds in addition to operating costs of the CG R&D 
Center at Avery Point, CT. The $13.5 million requested in the fiscal 
year 2005 Science and Technology (S&T) budget does not include any 
project funds; the request is intended to fund only facility and 
personnel (support and technical) costs at the CG R&D Center. This 
level is consistent with prior year costs and does not represent a 
decrease given its intent.
    The fiscal year 2004 enacted level of $14.9 million was a 
significant reduction from the fiscal year 2004 request of $22 million 
and prior year appropriations causing a fiscal year 2004 imbalance 
between support costs (facility and personnel) and project funding with 
only approximately $2 million available for fiscal year 2004 project 
support. The CG is working with S&T to restore a proper funding balance 
in fiscal year 2005 and beyond and to develop a project portfolio that 
supports the many maritime security needs as well as the CG's 
``traditional'' non-security mission-programs. Additional project 
funding will be critical to properly support mission needs and regain 
the R&D momentum lost in fiscal year 2004, particularly in areas such 
as Aquatic Nuisance Species and ballast water research. S&T and the CG 
have already agreed upon a base level of additional project funding in 
the amount of $5 million (for a total of $18.5 million) that will be 
targeted toward non-security related projects including maritime 
science and research.
    Question. Will this line item for Coast Guard research and 
development continue to be decreased in subsequent fiscal years until 
there is one lump-sum research and development account within Science 
and Technology for all of the agencies at the Department of Homeland 
Security?
    Answer. No. The Science and Technology Directorate (S&T) and Coast 
Guard (CG) are preparing a formal agreement that will detail the 
coordination and funding mechanisms for future CG Research & 
Development (R&D) capabilities. The foundation for that agreement is 
the consolidation of funding requested in the fiscal year 2005 budget 
($13.5 million). S&T and the CG have further agreed upon a base level 
of additional project funding in the amount of $5 million that will be 
specifically targeted toward non-security related projects including 
maritime science and research. This funding will support CG mission-
programs such as Marine Environmental Protection, Living Marine 
Resources, Search and Rescue, Aids to Navigation and Marine Safety. The 
specific projects in support of these mission-programs will be prepared 
annually for S&T concurrence.
    In addition to this $18.5 million in funding, the Coast Guard will 
submit security-related research requests through S&T for coordination 
across all portfolios and DHS components. The Coast Guard has submitted 
a maritime security R&D portfolio detailing approximately $50 million 
in vital maritime security research initiatives. This portfolio has 
been validated by S&T portfolio managers and will be considered in the 
development of future spending priorities and commitments from S&T. 
Project funding levels for CG and other DHS component requests will 
depend on the risk and cost associated with the project, effect on 
agency missions, linkage to S&T strategic objectives, and 
executability.
    Question. How will consolidating the research and development 
account into the Science and Technology Directorate affect the Coast 
Guard in general, in terms of control over research projects of 
particular interest to the Coast Guard and access to all ongoing 
research at the Department?
    Answer. Through its portfolio manager at S&T, the CG will have 
direct access to, and visibility of, all S&T research and initiatives. 
While funding will be provided through S&T, the CG will retain control 
of the projects in support of its non-Security mission programs. The 
integration of funding and effort will go far to minimize redundancy 
and maximize the effectiveness of Coast Guard R&D while ensuring that 
all Coast Guard mission requirements remain a key part of S&T planning 
and resource decisions.
    Question. How will this consolidation directly affect the Coast 
Guard Research and Development Center in Groton, Connecticut?
    Answer. Unrelated to the funding consolidation, the CG is working 
through the GSA to relocate its Research and Development Center from 
Groton to a nearby, although not yet identified, location in 
southeastern Connecticut. The lease for the current facility expires in 
fiscal year 2006 and cannot be renewed. Even if the current lease could 
be renewed, the existing facility is unsatisfactory (e.g. not meeting 
OSHA code requirements) for a variety of reasons and would not be 
renewed.
    Science & Technology (S&T) has no current plans to make other 
changes to the location or personnel staffing levels of the CG Research 
& Development (R&D) Center.

                         ALTERATION OF BRIDGES

    Question. Since the fiscal year 2004 funding did not complete the 
ongoing bridge projects, how does the Coast Guard intend to continue 
and begin to complete certain bridge projects without additional funds 
in fiscal year 2005?
    Answer. The Coast Guard's Alteration of Bridges request is zero in 
fiscal year 2005, because the three bridges currently under 
construction: the Florida Avenue Bridge in New Orleans, Louisiana; the 
Sidney Lanier Bridge in Brunswick, Georgia; and, the Limehouse Bridge, 
in Charleston County, South Carolina, are highway or combination 
highway/railroad bridges, and are eligible for funding from the Federal 
Highway Administration's Federal-Aid Highway program. Additionally, 
there are five bridge projects with completed designs for alteration: 
the Burlington Northern Santa Fe Bridge in Burlington, Iowa; the 
Burlington Northern Santa Fe Bridge in Fort Madison, Iowa; the Chelsea 
Street Bridge in Boston, Massachusetts; the EJ&E Bridge in Divine, 
Illinois; and, the CSXT (14 Mile) Bridge in Mobile, Alabama. These 
projects will not proceed to construction until approximately 75 
percent of the total estimated cost to alter the bridge is available.
    Question. If no additional funding is provided in fiscal year 2005 
for the Alteration of Bridges, what will happen to the ongoing bridge 
projects?
    Answer. Depending on construction progress and the rate at which 
billings are made against the projects, the funding for any one of 
three bridges currently under construction: the Florida Avenue Bridge 
in New Orleans, Louisiana; the Sidney Lanier Bridge in Brunswick, 
Georgia; and, the Limehouse Bridge, in Charleston County, South 
Carolina, may be depleted. At least 30 days prior to depletion of 
funds, the Coast Guard would give written notice to the bridge owner of 
such exhaustion of funds, consistent with the ``Order of Apportionment 
of Cost''. After receipt of such notice, the owner may continue the 
work with the understanding that no payment for such work will be made 
by the Coast Guard until additional Federal funds become available. If 
the owner elects not to bear the costs, the project would likely have 
to come to a halt, resulting in contract disruption, increased 
contractual costs, and the bridge potentially remaining a hazard to 
navigation.
    In addition, the remaining 11 bridges, for which an Order to Alter 
has been issued, will not proceed to the next phase of development. The 
following table provides a summary of the status of all active Truman-
Hobbs bridge alteration projects.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. Could the Coast Guard be forced, by a court of law, to 
complete bridge projects which had been started because the bridges 
were deemed to be an obstruction to navigable waters by law?
    Answer. Although litigation is a possibility, the Coast Guard does 
not have authority to fund bridge alteration absent a specific 
appropriation from Congress. Therefore, the Coast Guard does not 
believe a court could force it to complete a bridge project, absent an 
appropriation. Also, the bridge owner cannot claim to have relied on 
the Coast Guard funding any amount of the project above the amount 
specified in the Order of Apportionment of Cost. The Order of 
Apportionment of Cost further states: ``Should it become apparent that 
appropriated funds will be exhausted before additional funds are made 
available, the Coast Guard will give at least 30 days written notice to 
the bridge owner of such exhaustion of funds.'' After receipt of such 
notice, the owner may continue with the work with the understanding 
that no payment for such work will be made by the Coast Guard until 
additional Federal funds become available. Since Congress placed the 
program under the Coast Guard's control in 1967, no bridge owner has 
filed a lawsuit to compel the Coast Guard to complete a bridge 
alteration project, because no project has been halted for lack of 
funding.

                             OIL PLATFORMS

    Question. How much does the Coast Guard spend each year conducting 
emergency medical evacuations of personnel from oil platforms located 
in the Gulf of Mexico? Does the energy industry share any of this cost? 
If not, at what point should the energy industry bear some of the cost 
and personnel burden to perform the medical evacuations of their 
employees?
    Answer. The Coast Guard is unable to determine how much it spends 
each year conducting emergency evacuations to oil platform employees. 
Many of the medical evacuations from oil platforms are persons injured 
aboard vessels and brought to nearby platforms for evacuation. The 
Coast Guard proposes this action when practicable, as it is often safer 
to land on the platform to load the patient for transport than it is to 
hoist the individual from a vessel, especially in poor sea conditions. 
The Coast Guard does not record medical evacuation information 
distinguishing between oil platform employees and persons injured at 
sea who were brought to the platform.
    Industry normally shares the cost when an injury occurs on an oil 
platform and an industry supported or procured commercial helicopter at 
the platform, or at a nearby platform, provides transportation to 
medical facilities ashore. If a commercial helicopter is not available, 
or is unable to fly due to poor weather conditions, the Coast Guard 
generally provides the medical evacuation.
    Medical evacuations from oil platforms make up a small percentage 
of cases in this region. In the past 12 months, the Coast Guard has 
conducted a total of 200 medical evacuations in that region, 13 of 
which were from oil platforms. A medical evacuation at sea is 
considered search and rescue, a traditional Coast Guard mission. The 
Coast Guard does not charge or accept charges for search and rescue.
    Lastly, on a purely voluntary basis, the oil platforms have allowed 
Coast Guard helicopter to refuel at their platforms, which greatly 
extends the range of the HH-65. This ``good Samaritan'' refueling 
ability pays huge dividends, making Coast Guard operations possible at 
much greater distance from shore.
    Question. Are any critical Coast Guard missions set-aside or 
overlooked in favor of medical evacuations from the oil platforms in 
the Gulf of Mexico? How many man hours are devoted to this task?
    Answer. No, there are no missions that are set-aside or overlooked 
in favor of medical evacuations from oil platforms. The Coast Guard 
performs a small number of medical evacuations from oil platforms. In 
the past year, only 13 of the 200 medical evacuations that occurred in 
this region were from oil platforms.
    In most cases, when an injury occurs on an oil platform an industry 
supported or procured commercial helicopter at either the platform or 
at a nearby platform provides the transportation to medical facilities 
ashore. However, in the event a commercial helicopter is not available, 
or poor weather conditions preclude the use of commercial helicopters, 
the Coast Guard will be contacted and will dispatch a resource to 
provide the medical evacuation depending upon the seriousness of the 
injury. A medical evacuation at sea is considered SAR and is a critical 
Coast Guard mission.
    The Coast Guard is unable to determine the man-hours devoted to 
evacuating oil platform employees. Many of the medical evacuations are 
persons injured aboard vessels and brought to nearby platforms for 
evacuation. The Coast Guard proposes this action when practicable, as 
it is often safer to land on the platform to load the patient for 
transport than it is to hoist the individual from a vessel, especially 
in poor sea conditions. The Coast Guard does note record medical 
evacuation information distinguishing between oil platform employees 
and persons injured at sea who were brought to the platform.
    Lastly, on a purely voluntary basis, the oil platforms have allowed 
Coast Guard helicopter to refuel at their platforms, which greatly 
extends the range of the HH-65. This ``good Samaritan'' refueling 
ability pays huge dividends, making Coast Guard operations possible at 
much greater distance from shore.
            gulf coast maritime domain awareness initiative
    Question. There is a concern in the Gulf of Mexico with Maritime 
Domain Awareness, as well as the need for developing a Common Operating 
Picture for offshore energy facility security and protection of key 
port and critical infrastructure. What are the Coast Guard's plans to 
help address this concern?
    Answer. The Coast Guard will install Automatic Identification 
System (AIS) sensors on platforms that span the Gulf of Mexico from 
Port Isabel to Mobile, AL. Partnerships will be created with the 
platform owners to begin collecting AIS data by the end of fiscal year 
2004. Plans for the second phase of this project include adding radar 
and ancillary sensors. All sensor data will be integrated into the 
Common Operational Picture (COP) that will be displayed at the Eighth 
District Command Center in New Orleans, the Joint Harbor Operations 
Centers, and Sector Command Centers along the Gulf Coast.
    Further technological enhancements already planned to improve 
interoperability and coordination include Rescue 21, implementation of 
the Global Maritime Distress and Safety System (GMDSS), and the Ship 
Security Alert System.
    Partnerships and teaming efforts are in place to create a community 
of stakeholders with resources to help prevent security incidents in 
ports and around platforms. Working through the Area Maritime Security 
Committee (AMSC), a part of the Gulf Security Committee, we are 
improving communication among offshore platform operators and the Coast 
Guard. Outreach efforts with Homeland Security and Homeland Defense 
partners to create coordinated response procedures are being devised.
    Question. Does the Coast Guard support using existing technologies, 
such as the Navy's Littoral Surveillance System, to demonstrate 
potential dual use Homeland Security applications to help support the 
mission?
    Answer. The Coast Guard fully supports using existing technologies 
to expand Maritime Domain Awareness where appropriate. We are 
evaluating several existing technologies to expand MDA, including the 
Littoral Surveillance System (LSS). Other systems under review include 
Network Centric Collaborative Targeting (NCCT) and Global Network-
Centric Surveillance and Targeting (GNCST).
    Part of the Coast Guard's MDA effort includes the development and 
fielding of a Common Operational Picture (COP). The COP operates with 
the Global Command and Control System--Joint architecture. Any systems 
adopted for homeland security, must be interoperable and compatible 
with this architecture.
    Overall, the LSS provides limited capability when compared to other 
systems and it is not currently compatible with the Global Command and 
Control System-Joint Architecture. There are other systems that provide 
greater capability, such as, the planned Gulf of Mexico project (which 
includes a NCCT component) and the Hawkeye system that provide port 
surveillance and tracking functionality. The Coast Guard is partnering 
with the Office of Naval Research to work on these initiatives.
                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

    Question. The Trans-Alaska Pipeline System provides 20 percent of 
the Nation's domestic crude oil and 48 percent of the West Coast fuel 
supply through the Port of Valdez. Does the Coast Guard have adequate 
armed helicopter surveillance to protect the vessels moving through the 
Prince William Sound? If the Coast Guard is intends to arm MH-60 
helicopters with M-240 machine guns and sniper rifles, how will this be 
achieved without negatively impacting the missions that these assets 
are performing?
    Answer. The Coast Guard does not currently have armed helicopter 
surveillance of vessels moving through Prince William Sound. The Coast 
Guard conducted a surge operation, during a period of increased 
national threat (orange) to the Homeland, to protect tankers moving 
thru Prince William Sound (PWS) and in and out of Valdez, AK. The Coast 
Guard deployed a MH-68 Helicopter Interdiction Tactical Squadron 
(HITRON) helicopter to CG Air Facility Cordova. This short-term 
deployment was in response to validated intelligence and not to an 
increase in the national threat level.
    The Coast Guard is also taking additional measures to protect 
vessels transiting Price William Sound. Since 9/11/01, three response 
boats have been located to Valdez. In August of 2003, the cutter LONG 
ISLAND was relocated from San Diego, CA to Valdez, AK. Additionally, a 
Marine Safety and Security Team will be established in Anchorage later 
this year.
    The Coast Guard's long-term plan is to add Airborne Use of Force 
(AUF) capability to all organic helicopters. Arming HH-60 helicopters 
doesn't detract from their ability to conduct all USCG missions. 
Rather, it provides Coast Guard operational Commanders an additional 
capability to counter imminent homeland security threats that currently 
does not exist in the service's main-stream helicopter fleet.
    Question. Alaska is slated to receive a Maritime Safety and 
Security Team (MSST) by the end of fiscal year 2004. Will this team 
require armed helicopter support for its missions?
    Answer. Currently there are no plans for mandating that the 
Maritime Safety and Security Team (MSST) have dedicated armed 
helicopter support to perform their missions. The Coast Guard 
recognizes the inherent advantage of Airborne Use of Force (AUF) and is 
exploring this in conjunction with the development of enhanced law 
enforcement counter terrorism capabilities. The Coast Guard requests 
$1.8 million for armed helicopters in fiscal year 2005 to begin 
prototyping AUF aboard the HH60J helicopters in Cape Cod, MA. The 
intent is to arm all Coast Guard helicopters in the future. The HH65 
helicopter will require upgraded engine power to accommodate the 
increased weigh of AUF weapons and armor, which should be accomplished 
coincident to a safety and reliability upgrade of the powertrain over 
the next 18-24 months. The HH-60J has sufficient power margins to 
execute the AUF mission now. HH60J units are located strategically 
throughout the United States, including Kodiak and Sitka, Alaska.
    Question. What steps is the Coast Guard taking to ensure that 
necessary support facilities are available for the forward deployment 
of C-130s to Shemya, Galena, or Cold Bay during the high threat season 
along the MBL?
    Answer. The Coast Guard regularly deploys C-130 aircraft to Shemya 
and Galena for Maritime Boundary Line (MBL) and High Seas Drift Net 
(HSDN) enforcement patrols. Similarly, HH-60 aircraft deploy to Cold 
Bay for Bering Sea Crab for Search and Rescue (SAR) standby. These 
airfields are also used periodically outside these deployments. All 
three airfields are vital to mission performance.
    The Coast Guard has found the facilities to be adequate over the 
last several years. During regular deployments to these airfields, 
Coast Guard aircrews evaluate the support facilities and work with the 
air facility directly to address these issues. Prior to deploying, 
facility assessments are conducted ensuring all requirements are met 
for the upcoming deployment.
    Question. The City of Valdez is currently in the process of 
completing a feasibility study for constructing a new harbor basin. 
Does the Coast Guard have shore side infrastructure needs that should 
be incorporated into the City of Valdez's plan?
    Answer. The Coast Guard has shore side and waterfront 
infrastructure needs in Valdez for small boat forces and the USCGC LONG 
ISLAND; a 110-foot patrol boat. The Coast Guard is currently evaluating 
shore infrastructure alternatives at Valdez to meet current and 
projected needs including construction on existing Coast Guard 
property, as well as possible integration into the City of Valdez 
Harbor Basin Project should the City of Valdez decide that a new harbor 
basin is feasible. The Coast Guard will consider the timeliness and 
overall cost of the various alternatives and related impacts to current 
and projected Coast Guard missions prior to deciding on a preferred 
alternative.
    Question. The fiscal year 2005 Homeland Security budget request 
provides $152,000 to begin implementation of the Maritime 
Transportation Security Act of 2002 (MTSA) in Alaska. Will the Coast 
Guard's implementation of the MTSA require commercial fishing vessels 
and other vessels over 65 feet to purchase Automatic Identification 
System equipment?
    Answer. Yes. Automatic Identification System (AIS) equipment will 
eventually be required onboard commercial vessels greater than 65 feet 
in length with the exception of passenger vessels certified to carry 
less than 151 passengers-for-hire (they will not be required to carry 
AIS). AIS will also be required onboard towing vessels of 26 feet or 
more in length and more than 600 horsepower, in commercial service, 
while navigating in a Vessel Traffic Service (VTS) area. With the 
exception of fishing vessels greater than 65-feet in length, the above 
vessels will be required to have AIS equipment not later than December 
31, 2004. Fishing vessels greater than 65 feet in length will not be 
required to carry the AIS equipment until December 31, 2005.
    Question. The fiscal year 2005 budget for Homeland Security 
transfers the Coast Guard's research and development funding to the 
Science and Technology Directorate. The fiscal year 2005 budget 
proposes to reduce Coast Guard RDT&E to $13,500,000, a reduction of 
$1,400,000 from fiscal year 2004 enacted levels. What impact will this 
reduction and transfer have on the Coast Guard's ability to develop new 
technologies to help maintain traditional missions in accordance with 
Section 888 of the Homeland Security Act?
    Answer. The Science and Technology Directorate (S&T) and CG are 
preparing a formal agreement that will detail the coordination and 
funding mechanisms for CG R&D capabilities in fiscal year 2005 and 
beyond. The foundation for that agreement will be the consolidation of 
funding requested in the fiscal year 2005 budget. For fiscal year 2005, 
the CG R&D center facility, personnel and maintenance expenses will be 
funded through S&T in the amount of $13.5 million. In addition, S&T and 
the CG have agreed upon a base level of additional project funding in 
the amount of $5 million that will be specifically targeted to support 
``traditional'' CG mission-programs such as Marine Environmental 
Protection, Living Marine Resources, Search and Rescue, Aids to 
Navigation and Marine Safety. The specific projects in support of these 
mission-programs will be prepared annually for S&T concurrence.
    In addition to this $18.5 million in funding, the Coast Guard will 
submit security-related research requests through S&T for coordination 
across all portfolios and DHS components. The Coast Guard has submitted 
a maritime security R&D portfolio detailing approximately $50 million 
in vital maritime security research initiatives. S&T portfolio managers 
have validated this portfolio. While not yet funded, it will be 
considered in the development of future spending priorities and 
commitments from S&T.
    Provided that CG mission requirements totaling $18.5 million are 
adequately addressed and funded, the integration of funding and effort 
within S&T will go far to minimize redundancy and maximize the 
effectiveness of CG R&D while ensuring that all CG mission 
requirements, as outlined in Section 888 of the Homeland Security Act, 
remain a key part of S&T planning and resource decisions.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                             MISSION HOURS

    Question. Based on the most recent quarterly report on mission 
hours, the Coast Guard continues to dedicate less time to traditional 
missions compared to pre-September 11, 2001 levels. However, the Coast 
Guard continues to meet or exceed performance goals in those areas. 
What are the reasons for maintaining or exceeding performance standards 
in non-homeland security mission areas when mission hours dedicated to 
those areas have decreased since September 11, 2001? Please include 
specific technology that has improved performance, improved 
intelligence mechanisms, and efforts to partner with other Federal, 
State and local partners that have improved performance.
    Answer. Based on measurements in fiscal year 2003, the Coast Guard 
met its performance goals in each non-homeland security program area. 
In many mission program areas the Coast Guard is leveraging emerging 
technology, intelligence, and partnerships with other Federal, State 
and local governments to increase or maintain specific performance with 
fewer dedicated resource hours than historical standards. Specific 
examples include:
    Emerging Technologies.--Night Vision Goggles used by cutter, 
aircraft and maritime safety and security team personnel allow for safe 
operations and enhanced ability to detect objects in the water during 
nighttime Search and Rescue operations. Self Locating Datum Marker 
Buoys used in the search and rescue program provide up to date data 
that can be used to better determine where to begin a search. The Coast 
Guard intends for this technology to improve both search effectiveness 
and efficiency. Boarding officers and marine inspectors are using 
Personal Digital Assistants (PDAs) to conduct and record their work. 
The Coast Guard expects that using PDAs will reduce redundant paperwork 
and facilitate electronic database entries.
    Intelligence Improvements.--The placement of Field Intelligence 
Support Teams to provide tactical intelligence support to Coast Guard 
operational commanders by collecting and reporting suspicious or 
criminal activity, communicating with other agencies at the local 
level, and rapidly disseminating intelligence to the Captain of the 
Port other local commanders and the Coast Guard intelligence program. 
New Intelligence Centers were created in 2003; two Maritime 
Intelligence Fusion Centers have been sited in Atlantic and Pacific 
Areas. These centers increase collection and analytical capabilities 
enhancing the Coast Guard's ability to fuse intelligence from various 
sources and improve the timeliness and quality of theater-level 
intelligence support to Coat Guard operational forces. In 2001 the 
Coast Guard joined the United States Intelligence Community (IC), a 
federation of executive branch agencies and organizations that work 
separately and together in intelligence-gathering activities.
    Partnerships.--Interagency Flight Schedules--In Miami, the Coast 
Guard and the Immigration and Customs Enforcement office have developed 
a combined flight schedule to integrate patrol schedules and assets, 
which has led to less overlap in response efforts, saving time and 
resources for both agencies. This not only provides efficiencies to 
security patrols but also frees up Coast Guard assets for non-homeland 
security missions. Partnerships with organizations such as the U.S. 
Power Squadron and Boat United States enable the Coast Guard to 
distribute information on safe boating practices to the recreational 
boating public. These efforts also advocate for public boating 
education, which has been shown to lead to improved boating safety. The 
National Marine Fisheries Service is providing the Coast Guard access 
to their National Vessel Monitoring System (N-VMS) data, enabling the 
Coast Guard to better maintain surveillance of fishing fleets and 
respond to illegal activity. This partnership is allowing the Coast 
Guard to allocate enforcement resources more effectively.
    Question. The Commandant testified that with the budget increases 
received since fiscal year 2003 and with the increase included in the 
fiscal year 2005 request, the Coast Guard will be close to levels in 
place before September 11, 2001 in its traditional mission areas. Since 
the Coast Guard is already meeting or exceeding performance goals in 
traditional mission areas with less hours dedicated to those missions, 
is the Coast Guard adjusting performance goals upward to accommodate 
for the additional hours that will be dedicated to those areas? If so, 
please be specific. If not, why?
    Answer. The Coast Guard will continue to seek the appropriate 
balance among all its mission-programs and relentlessly pursue our 
stated performance goals. The Coast Guard will continue to focus not 
only on activity levels (hours) but also on achieving the desired 
outcomes for each Coast Guard mission. Our ability to achieve desired 
outcomes and performance goals can be significantly enhanced through 
improved technology, tactics and procedures making our activities that 
much more effective. Risk-based decision-making by local commanders 
will continue to be the primary driving factor behind the specific 
activity levels (hours) accrued in the course of Coast Guard 
operations.
    The Coast Guard's fiscal year 2005-2009 budget request highlights 
improvements in performance targets for most of the Coast Guard's non-
homeland security missions, again driven by desired outcomes and not 
solely resource hours. For example:

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year
                                 -------------------------------------------------------------------------------
                                       2005            2006            2007            2008            2009
----------------------------------------------------------------------------------------------------------------
SAR (percent)...................              86              87              87              87              88
Marine Environmental Protection.              40              40              38              37              35
Aton............................           1,831           1,748           1,664           1,600           1,535
----------------------------------------------------------------------------------------------------------------
SAR--Percent of mariners whose lives are in distress that are saved.
Marine Environmental Protection--Number of spills (>100 gallons) per 100 million.
Tons of Oils and Chemicals shipped.
Aton--5-year average number of collision, groundings, and allisions (striking a fixed object).

                         OPERATION NOBLE EAGLE

    Question. Since the attacks of September 11, 2001, the U.S. 
military has been providing domestic air support for homeland defense 
purposes. In public discussions, NORTHCOM General Ralph Eberhart said 
that the Department of Defense was reviewing whether there should be a 
similar function in place to support Coast Guard efforts in U.S. 
waters. Is such a plan being discussed with the Coast Guard and what 
benefits would be gained from U.S. military support?
    Answer. Collaboration continues to grow in the area of Maritime 
Domain Awareness. Several steps have been taken toward establishing a 
cohesive national strategy to achieve Maritime Domain Awareness, such 
as establishing a Navy-Coast Guard steering group and the co-sponsoring 
of an Assistant Secretary of Defense of Homeland Defense--DHS National 
Maritime Domain Awareness Summit scheduled for May 7, 2004. Maritime 
Domain Awareness is a mutual effort of the DHS, the DOD, and the entire 
Intelligence Community. Inherent to our increased awareness will be 
efforts to improve our national ability to respond to all threats in 
the maritime environment. Much work has been done to streamline the 
process of providing DOD assets to the Coast Guard when the situation 
warrants. These efforts are ongoing and have not yet been fully 
implemented. Also, an agreement that will allow Coast Guard forces to 
execute defense missions quickly is close to implementation. Both of 
these initiatives contribute to a growing integration of effort between 
the DHS and DOD. Together, NORTHCOM, the U.S. Navy, and the U.S. Coast 
Guard, Immigration and Customs Enforcement, Customs and Boarder 
Protection, and Transportation Security Administration are working 
collaboratively to fashion a more secure maritime environment for the 
nation.

                       SUPPORTING EFFORTS IN IRAQ

    Questions. The fiscal year 2004 supplemental appropriations act 
provided $80 million to the Coast Guard for continued operations in 
Iraq. The Coast Guard currently maintains four 110 foot patrol boats, a 
port security unit, and other support personnel for operations in Iraq. 
There are approximately 375 personnel dedicated to Operation Iraqi 
Freedom.
    What is the monthly cost to support and operate these assets? When 
will the $80 million provided in the fiscal year 2004 supplemental be 
depleted? The Secretary testified earlier this year that there will not 
be a supplemental spending request this year for the Department. Will 
the Coast Guard be able to cover operational expenses related to assets 
dedicated to Operation Iraqi Freedom in fiscal year 2004? If Coast 
Guard assets are needed to maintain support for Operation Iraqi Freedom 
in fiscal year 2005, what will the total cost be to operate and support 
those assets?
    Answer. The average monthly cost to support and operate Coast Guard 
Assets funded via the 2004 Emergency Supplemental Appropriation 
supporting the Global War on Terrorism is approximately $6.7 million 
per month.
    The $80 million provided to the Coast Guard in the fiscal year 2004 
Emergency Supplemental, via transfer from the Navy, will be completely 
obligated by September 30, 2004.
    The Coast Guard will be able to cover current operational expenses 
related to missions, assets and personnel dedicated to the Global War 
on Terrorism (including Operation Iraqi Freedom and Operation Enduring 
Freedom) in fiscal year 2004.
    At the current level of Coast Guard participation in term of assets 
and personnel requirements, the Coast Guard estimates it will cost 
between $95 million to $105 million to operate and support the Global 
War on Terrorism (including Operation IRAQI FREEDOM and Operation 
ENDURING FREEDOM) in fiscal year 2005. The Coast Guard is continuing to 
work with the Department of Defense and the Department of Homeland 
Security to further refine fiscal year 2005 mission tasking in support 
of the Global War on Terrorism and the overall resources required to 
support these operations.

                 DEEPWATER AWARDS TO PRIME CONTRACTORS

    Questions. According to a recent report by the General Accounting 
Office, the Coast Guard does not have the capability to assess the 
performance of the Deepwater program. Yet, the Coast Guard awarded the 
prime contractors with a $4.0 million bonus for work accomplished in 
the first year of the contract based on an 87 percent rating. The ICGS 
received this rating despite schedule delays, such as the delivery of 
the 123 foot cutter, which was delayed by 4 months. The schedule for 
the Maritime Patrol Aircraft has slipped as well.
    The Department of Defense recently renegotiated the contract for 
the USS Dwight D. Eisenhower so that the prime contractor will receive 
its bonus only if the project is completed on time and meets specified 
targets. (1) Would the Coast Guard be willing to consider this approach 
for the Deepwater contract? (2) What benefits do the taxpayers receive 
by awarding bonuses to the contractor before the work is completed and 
when specific targets have not been met? (3) What benefits do the 
taxpayers receive if the contractor receives performance bonuses only 
if the project is completed on time and meets specified targets?
    Answers. Would the Coast Guard be willing to consider this approach 
for the Deepwater Contract?
    Yes--in fact, Deepwater has adopted part of this approach already 
in the structure of the Award Term incentive. ICGS is only able to earn 
additional award term periods if deliveries are timely. For instance, 
in order to earn an additional 5 award term, they must receive a 
performance rating of ``excellent.'' Under the award term plan an 
``excellent'' rating is defined as: The Contractor's overall 
performance record strongly supports its ability to manage risks and 
actually deliver as planned.
    At this time, the award fee that is tied to certain Delivery Task 
Orders is being revised to focus more on schedule as compared to the 
earlier award fee criteria. One feature of this incentive for an award 
fee early in the contract to help reinforce the partnership approach, 
which has been identified as a ``Best Practice.'' To wait until the 
contract delivered a product before providing an incentive was judged 
as not keeping with the intent to build a partnership early on between 
industry and the government. The targets for the award fee that was 
cited in the GAO report was an annual award fee for System Engineering 
and Integration.
    (2) What benefit does the taxpayer receive by awarding bonuses to 
the contractor before the work is completed and when specific targets 
have not been met?
    Incentives for contractors serve many purposes. One purpose of 
incentives is to motivate the contractor to focus on contractor 
performance/behavior at critical times in the contract. One dimension 
of the IDS contract incentive approach is to focus on partnership 
between the Coast Guard and ICGS.
    (3) What benefit does the Taxpayer receive if the contractor 
receives performance bonuses only if the project is completed on time 
and meets specified targets?
    The benefit that the taxpayer receives is that the contactor 
receives incentives only if the project is completed on time and meets 
specified targets, is the best-case scenario. However, in a different 
scenario where the contractor is behind on schedule and cannot make up 
the time, this creates a situation where there is no additional 
incentive for the contractor to try to make the delay as short as 
possible. In this scenario, the contractor will, at the time, be 
working only to the exact letter of the contract specifications, not to 
the spirit of a partnership to reach mutually agreeable results. At 
that time, any situation in which the government has even partial 
responsibility will be seized on by the contractor to initiate a 
contract claim; a claim that could have potentially been avoided if an 
incentive was still in place. This is the reason that the IDS contract 
strategy contains two types of incentives:
  --Specific Short-Term Award Fee.--Results in a short-term (usually 1-
        year period) award fee. This provides a dollar amount award fee 
        based on an Award Fee Determination is usually targeted at very 
        specific performance for the period.
  --Long-Term Award Term.--Results in a longer term evaluation and in 
        the case of IDS, the term evaluation period is for the first 5 
        years and is determined during the last year. This incentive, 
        which if awarded, is for another award term from 1 to 5 years 
        allowing the contractor to keep performing under the contract 
        for the period of time awarded. The following four factors are 
        included in the Award Term Assessment:
  --Operational Effectiveness
  --Total Ownership Cost
  --Customer Satisfaction
  --Competition
    If deliveries occur late, that performance will be reflected in 
Total Ownership Coast and Customer Satisfaction. If specific targets 
are not met, then Operational Effectiveness and Customer Satisfaction 
will reflect that Performance.
    If there is a continuation of late deliveries, the Deepwater 
Program, which is measuring the schedule, will reflect that in it's 
Award Term Assessment and the Award Term could be adjusted accordingly; 
from zero to five additional years under the contract. Again, if ICGS 
complete all other assets on time and meets all required targets, the 
Award Term Assessment would reflect this overall performance and 
balance the achievement of the rest of the deliverables with these 
start up delays.
    By continuing both short and long-term incentives, along with 
robust performance measuring, Deepwater has the tools and methodology 
in place to appropriately manage this Performance Based Acquisition, 
yet respond to any changes in DHS priorities and changes in funding.
    With respect to GAO's comments, the following is provided:
  --GAO states the Coast Guard does not have the capability to assess 
        the performance of the Deepwater Program. The Coast Guard does 
        have the capability to assess performance. As stated in the GAO 
        report, the Coast Guard assessed the performance for the first 
        year to be 87 percent; since then we have documented and 
        evaluated ICGS' logistics system at 79 percent and their 
        service in providing HITRON at 90.6 percent. The process for 
        assessment does need improvement and more objectivity, which 
        the Coast Guard is currently implementing.
  --The award fee that was cited was for the first year's System 
        Engineering and Integration and was not for the 123-foot cutter 
        or the Maritime Patrol Aircraft.
  --Delaying any incentive until an approximate 20-year program is 
        complete would not allow the government to recoup the benefit 
        of having incentives consistently provided at smaller intervals 
        of time.

                          DEEPWATER MANAGEMENT

    Question. As GAO states in its recent report on the management of 
the Deepwater program, the two first tier subcontractors have sole 
responsibility for determining whether to hold competitions for 
Deepwater assets or to provide these assets themselves. The GAO said 
that the Coast Guard does not have the mechanism in place to hold the 
contractor accountable. What is the Coast Guard doing to ensure that 
future contract decisions are made on a competitive basis?
    Answer. The Deepwater Program, working with GAO, is now including 
additional competition factors for determining if the contract should 
be approved for another term and the length of a subsequent term. The 
measures for competition being proposed for adoption include:
  --Percentage of awards competed;
  --Minimizing the number of teaming agreements;
  --Number of advertisements publicizing supplier registration;
  --Number of vendor outreach programs; and
  --Percentage of first tier subcontracts that incorporate the intent 
        of the Federal Acquisition Regulation clause 52-244.5 
        ``Competition in Subcontracting.''
    The Coast Guard's systems integrator, ICGS, has also adopted the 
Open Business Model, initially a Lockheed Martin philosophy, as an 
official policy for ensuring competition. The process ensures full, 
continuous, and open analysis of supplier alternatives throughout the 
program's execution.
  --This approach entails obtaining proposals/quotes from two or more 
        qualified suppliers, and then balancing the cost, quality and 
        delivery of the components after the qualified suppliers have 
        been identified to provide the required components. This model 
        provides the flexibility to capture commercial technology when 
        needed, and it is projected to provide better performance at 
        equal or lower cost.
  --The Open Business Model has been approved by the ICGS Board of 
        Directors and is applicable to all Deepwater transactions.
  --To enforce these regulations, ICGS has appointed a Competition 
        Advocate and Ombudsman tasked to draft implementation 
        procedures for regular reporting to ICGS
  --Visits by the ICGS Competition Advocate are also planned with 
        Deepwater's industry partners to examine ``make/buy'' decisions 
        and competition practices.

                          DEEPWATER ESTIMATES

    Question. How much would be required in fiscal year 2005 to put the 
Deepwater program on track for completion in 20 years as originally 
planned? Please provide the outyear costs to meet a 20 year schedule. 
Provide estimates for completion in 15 years and 10 years as well.
    Answer. This is a complex, multi-variable equation, and as such 
developing comprehensive systems-wide analysis on various levels is 
challenging. The table below is based on an approximate total 
acquisition cost of the IDS project scoped out prior to 9/11 at 
approximately $12 billion (in 1998 dollars).

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Est. fiscal year 2005 funding level.............................          $1,892          $1,105            $795
Est. number of years............................................              10              15              20
Est. completion date............................................            2011            2016            2021
Notes:
----------------------------------------------------------------------------------------------------------------
The estimated number of years to complete represents a rough order of magnitude estimation. These estimates will
  be impacted by the materiel condition of legacy assets, deterioration trends, evolving Coast Guard missions/
  demands within DHS and fluctuation in funding over the life of the project.
The estimated completion date assumes funding begins in 2002 and ends in year depicted. Actual full
  implementation is approximately 2 years after end of procurement.
The estimated funding level for 20 and 15 years are in 2005 dollars and assume continued funding at this level
  adjusted for inflation.
The estimated funding level for 10 years is in 2005 dollars and assumes the cash flows as provided in the March
  07, 2003 Report to Congress on the feasibility of accelerating IDS.

    Question. For each asset planned to complete the Deepwater program, 
provide the total cost for each asset a functional description of the 
use of each asset, and the number of each asset the Coast Guard 
currently plans to acquire.
    Answer. A table is shown below which includes the number and 
projected unit cost for each major asset the Coast Guard plans to 
acquire through the Integrated Deepwater System acquisition program.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                     Average
                   Assets                       Lead Asset(s)    Lead Asset(s)  Projected Follow-  Follow-on Qty
                                               Projected Cost         Qty            on Cost
----------------------------------------------------------------------------------------------------------------
National Security Cutter (NSC) \1\..........            $475                 1            $265                 7
Offshore Patrol Cutter (OPC) \1\............             330                 1             175                24
Fast Response Cutter (FRC) \1\..............              78                 1              40                57
123 (110 to 123 Conversion).................              16.5               1               8.2          \2\ 48
Maritime Patrol Aircraft (MPA)..............             145                 2              33                33
Vertical Take-off & Landing Unmanned Air                 138                 2               5.3              66
 Vehicle (VUAV).............................
Multi-mission Cutter Helo (MCH).............              82                 1               6.2              92
Vertical Take-off & Landing Recovery &                   110                 2              15.0              32
 Surveillance Aircraft (VRS)................
High Altitude Endurance Unmanned Air Vehicle
 (HAE-UAV)..................................   In accordance with the original IDS implementation plan, the HAE-
                                                UAV will be leased starting in fiscal year 2016 using Operating
                                               Expense Funding based on the ICGS Implementation Plan. The lease
                                               will provide approximately 16,100 hours of surveillance per year
                                                 at an approximate cost of $4,000 per hour in fiscal year 2002
                                               dollars. The average annual cost per year is approximately $64.5
                                                             million in fiscal year 2002 dollars.
----------------------------------------------------------------------------------------------------------------
\1\ Includes DHS Capability for CBR (Chemical, Biological and Radiological) capability, interoperability with
  DHS and other Government Agencies (OGAs), selected counter measures and protection from certain terrorist
  weapons.
\2\ The number of 123 conversions will be decided based on the Business Case Analysis (BCA) currently underway
  on when to shift to the Fast Response Cutter (FRC).

    At full implementation, the Integrated Deepwater System comprises 
three classes of new cutters and their associated small boats, a 
combination of new and upgraded fixed-wing manned aircraft, a 
combination of new and upgraded helicopters, and both cutter-based and 
land-based unmanned air vehicles (UAVs). All of these highly capable 
assets will be linked with state-of-the-art Command, Control, 
Communications, Computers, Intelligence, Surveillance and 
Reconnaissance (C4ISR) systems, and will be supported by an integrated 
logistics regime. The following are functional descriptions of each 
asset listed above.
    Upon departure for patrol, each NSC and OPC will be outfitted with 
the small boat package and aviation detachment most appropriate for 
that particular patrol. These cutters will have the capability to 
deploy with two MCHs or four VTOL Unmanned Air Vehicles (VUAVs) or a 
combination of these. Additionally, the NSC and OPC will be able to 
land, launch, hangar, service, and replenish the VTOL Recovery and 
Surveillance (VRS) helicopter.
    Fast Response Cutters (FRCs) can be deployed independently in 
support of law enforcement, port security, search and rescue, and 
defense operations missions. Typical missions include near-shore 
fisheries, choke point interdiction, barrier patrols, and providing a 
show of presence in areas of concern.
    The 123-foot Patrol Boat is a modification of the 110-foot Island-
Class Patrol Boat. The renovation extends the length 13 feet to allow 
for the installation of a stern boat launch--enhancing small boat 
launch and recovery. The renovation includes a new superstructure and 
pilothouse, including a 360-degree bridge for increased visibility and 
a large increase in available deck space. The renovation also includes 
upgrades to the C4ISR suite to provide for increased capabilities in 
communications, detection and prosecution.
    The Multi-Mission Cutter Helicopter (MCH) is an upgraded version of 
the legacy short-range recovery helicopter, the HH-65. The HH-65 will 
undergo a Service Life Extension Plan (SLEP) that will yield a like-new 
aircraft. The MCH will assist in the missions of search and rescue, 
enforcement of laws and treaties, as well as maritime homeland security 
missions.
    The CASA CN 235-300M (Maritime Patrol Aircraft) is a transport and 
surveillance, fixed-wing aircraft that will be used to perform search 
and rescue missions, enforce laws and treaties including illegal drug 
interdiction, marine environmental protection, military readiness, and 
International Ice Patrol missions, as well as cargo and personnel 
transport. It can perform aerial delivery of search and rescue 
equipment such as rafts, pumps, and flares, and it can be used as an On 
Scene Commander platform.
    The AB-139 VRS (Vertical Take-off and Landing Recovery and 
Surveillance Aircraft) is proposed as the Integrated Deepwater System 
medium-range recovery aircraft, and would begin introduction in 2014. 
These helicopters will be used as medium range responders for offshore 
operations, and can provide shore-based aviation surveillance 
capability.
    The Bell HV-911 ``Eagle Eye'' Vertical Takeoff and Landing Unmanned 
Aerial Vehicle (VUAV) is a low maintenance shipboard deployable 
unmanned aircraft. The VUAV will allow the Coast Guard to extend the 
surveillance, classification and identification capability of its major 
cutters through its speed, range, and endurance. This asset will be 
used for maritime homeland security, search and rescue missions, 
enforcement of laws and treaties including illegal drug interdiction, 
marine environmental protection, and military preparedness.
    The proposed High Altitude Endurance Unmanned Air Vehicle (HAE-
UAV), Northrop Grumman's RQ-4A Global Hawk, will bring even further 
capability to the Coast Guard aviation solution. Providing an air 
solution that is built on speed and endurance, the HAE-UAV can get on-
site quickly with an air speed up to 400 knots. With its 12,500 
nautical mile range and 38 hour endurance combined with satellite and 
line-of-sight communication links to other air and surface platforms 
and operations centers ashore, the Global Hawk from a height of 65,000 
feet can use its high-resolution sensors to conduct surveillance and 
monitoring operations in adverse weather conditions, day or night, over 
an area about the size of Illinois in 24 hours. HAE-UAVs will possess 
the ability to transmit data and other imagery to shore-based Command 
and Control (C2) centers as part of the Common Operational Picture 
(COP).
    Question. Provide the total cost that will be required for prime 
contractor program management in fiscal year 2005 and over the life of 
the Deepwater contract.
    Answer. The table below provides enacted appropriation history for 
the Integrated Deepwater System (IDS) from fiscal year 2002 through 
fiscal year 2004, including Total Capital Acquisition and Systems 
Engineering and Integration (prime contractor program management). The 
table also provides the funding at the President's Budget for fiscal 
year 2005, and projections for the outyears until the acquisition is 
built out.

                        [In Millions of Dollars]
------------------------------------------------------------------------
                                                              System
               Fiscal year                 Total capital   engineering &
                                            acquisition     integration
------------------------------------------------------------------------
2002....................................           320.2            53.9
2003....................................           474.9            43.4
2004....................................           664.3            41.9
2005....................................           678.0            45.0
2006....................................       \1\ 688.8        \3\ 41.8
2007....................................       \1\ 700.6        \4\ 40.4
2008....................................       \1\ 713.2        \4\ 38.7
2009....................................       \1\ 726.0        \4\ 37.4
2010....................................       \2\ 739.8        \4\ 37.0
2011....................................       \2\ 753.9        \4\ 38.0
2012....................................       \2\ 768.2        \4\ 38.4
2013....................................       \2\ 782.8        \4\ 37.0
2014....................................       \2\ 797.7        \5\ 36.9
2015....................................       \2\ 812.8        \5\ 38.2
2016....................................       \2\ 828.2        \5\ 38.9
2017....................................       \2\ 844.0        \5\ 40.1
2018....................................       \2\ 860.0        \5\ 39.7
2019....................................       \2\ 876.4        \5\ 39.6
2020....................................       \2\ 893.0        \5\ 40.0
2021....................................       \2\ 910.0        \5\ 40.7
2022....................................       \2\ 927.3        \5\ 41.6
2023....................................       \2\ 944.9        \5\ 39.3
                                         -------------------------------
      Total.............................  ..............           887.9
------------------------------------------------------------------------
\1\ Then Year Dollars provided in the Coast Guard's Capital Investment
  Plan.
\2\ Then Year Dollars, based on the final year of Capital Investment
  Plan, inflated using a 1.9 percent inflation factor.
\3\ Systems Engineering & Integration amount based on proposal prices
  provided in June 2002.
\4\ Then Year Dollars based on Systems Engineering & Integration amount
  proposal prices provided in June 2002 and then inflated using OMB/USCG
  Non-pay Inflation.
\5\ Then Year Dollars based on Systems Engineering & Integration amount
  proposal prices provided in June 2002 and then inflated using a 1.9
  percent inflation factor from 2014 through 2023.

                         DEEPWATER PATROL BOATS

    Question. The Deepwater contract with the Integrated Coast Guard 
Systems (ICGS) calls for the modification and conversion of 49 110 foot 
patrol boats to 123 foot patrol boats. According to the Coast Guard, 
the number of 123 foot conversions may change based on an ongoing 
Business Case Analysis on when to shift to the Fast Response Cutter 
(FRC).
    What is the timeline to complete this analysis and how will it 
affect resources appropriated to date and requested in fiscal year 
2005?
    Answer. The Business Case Analysis on accelerating the acquisition 
of the Fast Response Cutter (FRC) is expected in fiscal year 2004. The 
results of the Business Case Analysis will not affect resources 
appropriated to date or requested for fiscal year 2005. The Coast Guard 
will use this analysis to assist in determining the appropriate number 
of 123-foot patrol boat conversions, while accelerating the FRC as 
appropriated in the IDS Patrol Boat Line item.

             SECURITY PLANS FOR VESSELS AND PORT FACILITIES

    Question. To meet the requirements of the Maritime Transportation 
and Security Act (MTSA), vessel owners and port facility owners were 
required to submit security plans to the Coast Guard for review and 
approval by December 31, 2003.
    How many vessel and port facility owners failed to submit a 
security plan? How many penalties have you levied against non-compliant 
companies? How many plans have you sent back for revisions? Based on 
the plans that have been submitted to the Coast Guard, what is being 
learned about the security needs of vessels and port facilities?
    Answer. As of April 7, 2004, the Coast Guard has issued Notices of 
Violation to 95 vessels and 66 facilities. Each of those violations was 
for failing to submit a completed security assessment and has a $10,000 
civil penalty associated with it. Subsequently, the Coast Guard has 
issued civil penalties in the amount of $25,000 (additional) to four of 
these facilities for failing to submit a completed security plan. These 
penalties were based on violations of 33 CFR Section 104.410 for 
vessels and 33 CFR Section 105.410 for facilities.
    The Coast Guard is following a three-step process to review and 
approve facility security plans. The first-step is a broad overview, 
the second-step is a detailed review, and the third-step is an on-site 
inspection. On-site inspections have just recently commenced. Plans may 
require revision during any stage of review or inspection.
    The Coast Guard is following a two-step process to review and 
approve vessel security plans. The two stages are similar to the first 
two stages used for facility plans, but there is no on-site inspection 
required. Also like facilities, vessel security plans may require 
revision during either stage of review.
    As of April 7, 2004, the Coast Guard had received 9,250 vessel 
security plans. Of the total vessel security plans received, 1,884 are 
being revised. The Coast Guard Marine Safety Center is currently 
engaging these vessel owner/operators to ensure these vessels meet the 
July 1, 2004 deadline.
    As of the same date, the National Plan Review Center had received 
3,181 facility security plans. Of the total facility security plans 
received, 383 are being revised. The Coast Guard National Plan Review 
Center is currently engaging these facility owners and/or operators to 
ensure these facilities meet the July 1, 2004, deadline.
    The Coast Guard has two concerns as plans are being reviewed: (1) 
Assessment Reports required to go forward with the plans are often too 
abbreviated and may require the COTP to read the entire assessment 
prior to going forward with approval; and (2) regulations do not 
require a layout of the facility which would help the plan reviewers. 
The latter issue can be worked around with overhead images and prior 
submissions from the facility that have layouts.
    Question. When Secretary Ridge testified before this subcommittee 
in February, he said that he believes port facility owners should bear 
most of the financial burden to harden security at our seaports. What 
evidence do you have that these owners are stepping up to the plate and 
investing their own resources in port security?
    Answer. The Federal Government is bearing most of the financial 
burden to harden security at our seaports. Department of Homeland 
Security spending on port security increases by $224 million (13 
percent) in the President's Budget, from $1,661 million in 2004 to 
$1,885 million in 2005. Within the 2005 total is $1,675 million for 
Coast Guard port, waterway, and coastal security activities, including 
over $100 million to implement the Maritime Transportation Security Act 
(MTSA). The DHS port security total also includes $164 million in U.S. 
Customs and Border Protection for the Container Security Initiative and 
the Customs Trade Partnership Against Terrorism, and $46 million in the 
Office for Domestic Preparedness for port security grants.
    Port facility owners must also do their share. The owners/operators 
of these regulated facilities realize that they must be fully compliant 
with approved facility security plans by July 1, 2004 or face 
suspension of operations. All indicators are that they are working hard 
in preparation to meet the enforcement date. As of March 23, 2004, 
3,205 facilities have submitted security plans to the National Plan 
Review Center in Kansas City, KS. This represents approximately 99 
percent of the facilities required to submit plans. In addition to 
preparing their plans, facility owner/operators are purchasing and 
installing physical security equipment and providing training to their 
personnel. Coast Guard inspectors are observing improved access control 
and personnel monitoring, fencing, security patrols, and signage during 
facility security spot checks conducted in conjunction with other 
required visits.

                    AUTOMATIC IDENTIFICATION SYSTEM

    Question. The Maritime Transportation Security Act, which President 
Bush signed on November 25, 2002, requires vessels entering U.S. ports 
to have an automatic identification system (AIS) on board by the end of 
2003 that will identify the ship, the size of the ship and the type of 
cargo on the ship when they arrive at U.S. ports. Congress appropriated 
$24 million in fiscal year 2004 to install towers at selected ports and 
to initiate a plan to create a nationwide system for all major 
seaports. Your fiscal year 2005 request includes only $4 million to 
continue this effort. The Coast Guard indicates that by the end of 
fiscal year 2004, only 9 seaports will be able to receive AIS signals 
from vessels entering our ports. Of the 9 seaports, how many will have 
full AIS coverage?
    Answer. By December 31, 2004, all nine ports will have full AIS 
capability installed as part of their Vessel Traffic Service (VTS) 
system:
  --New York
  --Houston/Galveston
  --San Francisco
  --Puget Sound (Seattle-Tacoma)
  --Prince William Sound (Valdez)
  --St. Marys River (Sault Ste. Marie, MI)
  --Berwick Bay (Louisiana)
  --Lower Mississippi River (New Orleans)
  --Los Angeles-Long Beach
    In addition, the Coast Guard is already operating basic (primarily 
receive-only) AIS installations in the following locations:
  --Miami and Florida Keys
  --Long Island Sound (Groton, CT)
  --Hampton Roads (Norfolk, VA)
    By the end of CY 2004, the Coast Guard intends to have established 
additional AIS capability (primarily receive-only, but possibly more 
robust) at additional locations nationwide. These sites will be 
determined based on a variety of criteria, including the expected 
density of AIS-equipped vessels in the area, existing command and 
control capability to put the data to use, compatibility and support 
for the more extensive and capable system currently in the planning 
stages, and coordination with other needs and assessments. These sites 
will include use of offshore NOAA and other buoys and may include some 
non-recurring investment in satellite capability. A more detailed plan 
will be available by June 2004.
    Question. The Coast Guard indicated that a contract award to 
implement a nation-wide system would be made by the end of fiscal year 
2004 or early fiscal year 2005. Is that information still accurate? If 
the $4 million requested in fiscal year 2005 were approved, how many 
additional ports would be outfitted with AIS technology?
    Answer. The Coast Guard is currently developing a nationwide 
implementation plan for AIS consistent with Coast Guard and Department 
of Homeland Security requirements associated with major systems 
acquisitions. We anticipate awarding a contract for this initiative in 
late fiscal year 2004 or early fiscal year 2005. In the meantime, we 
intend to deploy interim AIS capability in several ports during fiscal 
year 2004. By December 31, 2004, the following ports will have full AIS 
capability installed as part of their Vessel Traffic Service (VTS) 
system:
  --New York
  --Houston/Galveston
  --San Francisco
  --Puget Sound (Seattle-Tacoma)
  --Prince William Sound (Valdez)
  --St. Mary's River (Sault Ste. Marie, MI)
  --Berwick Bay (Louisiana)
  --Lower Mississippi River (New Orleans)
  --Los Angeles-Long Beach
    In addition, the Coast Guard is already operating basic (primarily 
receive-only) AIS installations in the following locations:
  --Miami and Florida Keys
  --Long Island Sound (Groton, CT)
  --Hampton Roads (Norfolk, VA)
    Interim sites will include use of offshore NOAA and other buoys and 
may include some non-recurring investment in satellite capability. A 
more detailed plan will be available by June 2004.
    The $4 million requested in fiscal year 2005 will be used to 
continue building out the nationwide AIS system. Once the Acquisition 
Project Baseline is developed, a total project cost estimate will be 
known and we will be able to provide an estimate of the number of 
additional ports that will be outfitted with AIS technology. It is 
important to note that each port will have unique requirements so there 
will be no standard AIS cost per port.

                         RESEARCH & DEVELOPMENT

    Question. Section 307 of the Homeland Security Act requires a joint 
agreement between the Under Secretary of the Science & Technology 
directorate and the Commandant on R&D spending for the Coast Guard. The 
Homeland Security Act specifies 10 percent of funding for the Homeland 
Security Advanced Research Projects be spent on Coast Guard related 
mission areas. Last year, the Committee was notified that the ``Coast 
Guard is working with DHS to develop processes and policy for 
compliance with Section 307 of the Homeland Security Act.'' Has a 
policy been developed to comply with Section 307 of the Act?
    Answer. No. Subsequent to the Coast Guard reply cited, DHS and CG 
legal counsel advised that without a specific (Homeland Security 
Advanced Research Project Agency) HSARPA appropriation, no funds are 
statutorily designated to be set aside for CG related mission areas as 
outlined in Section 307. Although the Homeland Security Act provides 
authorization to do so (Figure 1), there have been no funds 
appropriated specifically for HSARPA since enactment of the Homeland 
Security Act. HSARPA is not a line item in the S&T budget. Rather, 
funds have been appropriated toward a number of specific portfolios 
organized generally by threat. It has evolved into an execution means 
by which S&T will award competitive, merit-reviewed grants, cooperative 
agreements or contracts to public or private entities to meet S&T 
requirements.
    Nonetheless, the Science and Technology Directorate (S&T) and CG 
will develop a formal agreement that will detail the coordination and 
funding mechanisms for CG R&D capabilities in fiscal year 2005 and 
beyond. This agreement will not be limited to HSARPA but rather the 
interaction of the Coast Guard/Maritime portfolio with all the 
executing arms of S&T (e.g. HSARPA, Office of Research and Development 
(ORD), etc).

    ----------------------------------------------------------------

    ``(2) Authorization of Appropriations.--There are authorized to be 
appropriated $500,000,000 to the Fund for fiscal year 2003 and such 
sums as may be necessary thereafter.
    ``(3) Coast Guard.--Of the funds authorized to be appropriated 
under paragraph (2), not less than 10 percent of such funds for each 
fiscal year through fiscal year 2005 shall be authorized only for the 
Under Secretary, through joint agreement with the Commandant of the 
Coast Guard, to carry out research and development of improved ports, 
waterways and coastal security surveillance and perimeter protection 
capabilities for the purpose of minimizing the possibility that Coast 
Guard cutters aircraft, helicopters and personnel will be diverted from 
non-homeland security missions to the ports, waterways and coastal 
security mission.''

    ----------------------------------------------------------------

      Figure 1.--Excerpt from Section 307 of Homeland Security Act

    Question. For fiscal year 2005, the Department proposes to move 
funding for Coast Guard R&D to the Science & Technology (S&T) 
directorate. The S&T request includes $13.5 million to operate the 
Coast Guard's R&D Center in Groton, CT and an additional $5 million for 
R&D activities for a total of $18.5 million. In addition to this 
funding, how will the Coast Guard benefit from S&T research? What 
specific technologies are being explored to support the Coast Guard's 
mission?
    Answer. Through its portfolio manager at S&T, the CG will have 
direct access to, and visibility of, all S&T research and initiatives. 
The integration of funding and effort will go far to minimize 
redundancy and maximize the effectiveness of Coast Guard R&D while 
ensuring that all Coast Guard mission requirements remain a key part of 
S&T planning and resource decisions. For example, S&T has provided $7.1 
million of fiscal year 2003/2004 funds for support of a project in 
South Florida exploring communications, sensors, data fusion concepts, 
and modeling and simulation (Project Hawkeye). The integration of these 
technologies provides improved maritime security for Miami and Port 
Everglades while providing a rapid prototyping prelude to potential 
Coast Guard-wide installations.
    As stated, S&T has also agreed upon a base level of project funding 
of $5 million that will be specifically targeted toward non-security 
related projects including maritime science and research. This funding 
will be designed to support CG mission-programs such as Marine 
Environmental Protection, Living Marine Resources, Search and Rescue, 
Aids to Navigation and Marine Safety. The specific projects in support 
of these mission-programs will be prepared annually for S&T 
concurrence.
    In addition to the $18.5 million in funding cited, the Coast Guard 
will submit security-related research requests through S&T for 
coordination across all portfolios and DHS components. The Coast Guard 
has submitted a maritime security R&D portfolio detailing approximately 
$50 million in vital maritime security research initiatives. While not 
yet funded, this portfolio has been validated by S&T portfolio managers 
and will be considered in the development of future spending priorities 
and commitments from S&T. As the lead Federal agency for maritime 
security, the CG is being afforded an important role within S&T to 
construct and help prioritize research and development needs in the 
maritime domain.

                            HH-65 HELICOPTER

    Question. The Coast Guard is currently in the process of purchasing 
LTS-101-850 engines for the HH-65 to address safety, reliability, and 
engine power issues. This approach is intended to provide an interim 
solution to documented power failures. How many of the LTS-101-850 
engines have been purchased? How many of the LTS-101-850 engines are 
needed to provide the interim solution for the HH-65 before full 
reengineering is completed and what is the associated cost?
    Answer. To date, the Coast Guard has purchased 61 LTS-101-850 
engines at a cost of $5.9 million.
    The only reason to purchase additional 850 engines (38 at $4 
million) would be to provide an interim safety and reliability 
enhancement throughout the approximate 24-month duration of Integrated 
Coast Guard System's (ICGS) Turbomeca re-engining project. The LTS-101-
850 engine, while not equipped with electronic fuel controls, offers an 
additional margin of safety in an emergency situation. We owe our 
aircrews nothing less until the fleet is re-engined. Based upon current 
schedule projections, there is a 10-14 month ``underlap'' where the 
Coast Guard would directly benefit from the additional engines.
    These engines require long-lead time component purchases that must 
be accounted for in the procurement decision process. The Coast Guard, 
however, will wait until the completion of the current field evaluation 
and subsequent inspection of the LTS-101-850 engines that are installed 
on two Coast Guard Air Station Miami Helicopters. One helicopter has 
completed the initial 150 hour evaluation and is currently being 
inspected, while the second aircraft still has 36 hours of evaluation 
remaining prior to inspection. After completion of testing and 
inspection, the Coast Guard intends to re-evaluate the need for 
additional engines based upon the results and both LTS-101-850 and 
Turbomeca installation schedule updates
    Below is the latest draft installation schedule based on 
information from the new engine system selected manufacturer, 
Turbomeca. This schedule is not final. The Coast Guard is hopeful that 
the new engine installations move further to the ``left.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. At the same time, the Coast Guard recently announced the 
selection of Turbomecca to re-engine the HH-65. The Coast Guard 
estimates that this re-engining will cost $250 million over a 24 month 
period. Will this engine be compatible with the Deepwater Multi-Mission 
Cutter Helicopter or will another engine replacement be required?
    Answer. The Coast Guard has directed that a re-engining project be 
immediately initiated to restore the HH-65 to unrestricted safe and 
reliable operations. The project is designed to address the HH-65 
engine system, the engine and engine control systems, to remedy this 
safety and reliability crisis, and restore the HH-65's operational 
capability.
    The HH-65 re-engining project is a separate and distinct effort 
from the Deepwater Multi-mission Cutter Helicopter (MCH). In the long-
term, the Deepwater plan is still to convert the HH-65 to the Multi-
mission Cutter Helicopter (MCH). While power increases were not the 
focus of this acquisition, the engine chosen, while addressing the 
safety and reliability concerns, also has sufficient power margins to 
allow for that engine to be used in the continuation of the MCH.

                     HIGH INTEREST VESSEL BOARDINGS

    Question. U.S. Customs and Border Protection use an automated 
targeting system to identify shipments that pose a potential terrorist 
risk. It is unclear if this information is shared with the U.S. Coast 
Guard, which could be useful in identifying high interest vessels. Is 
this information being shared with the Coast Guard? If not, would this 
information be a useful tool for the Coast Guard to use?
    Answer. Yes, Automated Targeting System information is shared 
through an exchange of liaisons between the Coast Guard and the U.S. 
Customs and Border Protection's National Targeting Center (NTC). The 
Coast Guard's Intelligence Coordination Center (ICC) and the NTC have 
exchanged full-time liaisons to pass information each center develops 
about suspect ships, people, and cargoes. This has been a highly 
effective partnership and has given each center much greater visibility 
into specific maritime cases and concerns as they arise, resulting in 
better coordination of information flow and operational planning. ICC's 
COASTWATCH program (a partnership with the U.S. Navy's Office of Naval 
Intelligence) uses data collected via the ICC/NTC partnership, coupled 
with the information received through our 96-hour Advanced Notice of 
Arrival (ANOA) rules, intelligence, and other appropriate law 
enforcement information, to identify Vessels of Interest, providing 
crew, cargo, and vessel screening prior to a vessel's arrival in U.S. 
ports.
    At the local level, Vessels of Interest are factored into the 
decision making process to determine which vessels should be designated 
and or boarded as High Interest Vessels (HIVs). Additionally, because 
of the U.S. Coast Guard's solid working relationship with Customs and 
Border Protection (CBP), input provided by CBP at the local level is 
also considered when determining which vessels should be boarded as 
HIVs.
    The Coast Guard is incorporating an option into our 96-hour vessel 
ANOA requirements to permit the electronic submission of information 
(e-NOA). The Coast Guard and CBP have been working together to 
incorporate CBP's reporting requirements into the e-NOA system. This 
consolidated e-NOA system will include the capability to capture crew, 
passenger, cargo, and vessel arrival information for both agencies. It 
is anticipated that e-NOA will be operational by the summer of 2004. By 
allowing industry to submit Coast Guard and CBP reporting requirements 
together, DHS will enhance its information sharing capabilities, 
thereby significantly enhancing the processing and identification of 
security and safety risks posed by vessels entering U.S. ports.

                            SHORE FACILITIES

    Question. The Coast Guard's request for shore facility projects is 
$5 million in fiscal year 2005. According to the Coast Guard, $146 
million is needed on an annual basis for recapitalization needs to 
support shore facility assets valued at $7.2 billion. With such 
valuable assets, why does the Coast Guard continue to neglect shore 
facilities? Does the Coast Guard have a plan in place to address the 
needs of its shore infrastructure? Provide a list of projects in need 
of shore facility funding in priority order.
    Answer. The Coast Guard is deeply concerned about its entire 
infrastructure, including shore facilities. However, funding priority 
must be placed on recapitalization efforts of operational first 
response platforms such as Deepwater and Rescue 21. Shore facility 
sustainment will be managed by targeted maintenance practices, 
increased use of leased facilities, and ensuring shore infrastructure 
costs are included in major AC&I projects, such as Deepwater and the 
Great Lakes Icebreaker replacement. Increases in the Basic Allowance 
for Housing also help and reduce the need for Coast Guard owned housing 
projects. Additionally, the Coast Guard is pursuing Public-Private 
Venture housing opportunities authorized in the Maritime Transportation 
Security Act of 2002. Other Coast Guard initiatives currently being 
developed that will assist in being good stewards of shore facilities 
include enhanced real property authorities, such as the ability to 
sublease and outlease property, exchange and sell property, and dispose 
of excess property with sale proceeds being reinvested in the capital 
plant. The Coast Guard is on budget in fiscal year 2005 for $151 
million recurring OE shore facility maintenance costs and an additional 
$5 million for shore AC&I projects.
    Provided below is the budgeted Shore Facilities Requirements List 
(SFRL) for fiscal year 2005, followed by a backlog of listing of fiscal 
year 2005 unfunded projects. While the Coast Guard planning process 
addresses projects that require funding beyond fiscal year 2005, these 
projects have not been prioritized and are not included in the fiscal 
year 2005 SFRL attached.

   FUNDED SHORE FACILITIES REQUIREMENTS LIST (SFRL)--FISCAL YEAR 2005
------------------------------------------------------------------------
         BENEFITTING UNIT            PROJECT DESCRIPTION     EST (000)
------------------------------------------------------------------------
MAJOR AC&I: ISC Honolulu            Small Arms Range....          $1,600
SURVEY AND DESIGN: Various          Shore Operational &            1,000
                                     Support Projects.
MINOR AC&I: Various                 Minor Construction             1,600
                                     Projects.
WATERWAYS AND AIDS TO NAVIGATION:   Various Locations...             800
 Various
                                                         ---------------
      TOTAL.......................  ....................           5,000
------------------------------------------------------------------------


  UNFUNDED SHORE FACILITIES REQUIREMENTS LIST (SFRL)--FISCAL YEAR 2005
------------------------------------------------------------------------
         BENEFITTING UNIT            PROJECT DESCRIPTION     EST (000)
------------------------------------------------------------------------
MAJOR AC&I:
    ISC Kodiak, AK................  Consolidate Support           $8,500
                                     Facilities.
    AR&SC Elizabeth City, NC......  Consolidate                    6,300
                                     Facilities Phase I.
    Base Galveston, TX............  Rebuild Station/               6,400
                                     Waterfront.
    Group Woods Hole, MA..........  Replace ANT and                3,750
                                     Admin Building
                                     Phase I.
SURVEY AND DESIGN: Various          Shore Operational &            4,000
                                     Support Projects.
MINOR AC&I: Various                 Minor Construction             2,750
                                     Projects.
WATERWAYS AND AIDS TO NAVIGATION:   Various Locations...           4,200
 Various
COAST GUARD HOUSING:
    Cordova, AK...................  Replace Cordova                4,000
                                     Housing, Phase I.
    USCGA, New London, CT.........  Chase Hall Barracks           15,000
                                     Renovation Phase I.
                                                         ---------------
      TOTAL.......................  ....................          54,000
------------------------------------------------------------------------

       MARITIME TRANSPORTATION SECURITY ACT (MTSA) IMPLEMENTATION

    Question. The budget request includes $101.7 million for the 
implementation of the MTSA. What follow-on costs are necessary to meet 
the requirements of the MTSA (specify by fiscal year)?
    Answer. The fiscal year 2005 budget request is designed to bring 
MTSA implementation close to the annual recurring steady state for 
personnel, associated support funds, and contract resources. These 
resources will be used to address the permanent increase in workload 
associated with MTSA. This workload includes continued verification of 
domestic vessel and facility security requirements, a robust Port State 
Control program to ensure compliance with international security 
requirements, continuous updates and improvements to the National and 
Area Maritime Security plans, and the assessment of domestic and 
foreign ports for compliance. Additional follow-on costs of MTSA 
initiatives are $12.9 million in fiscal year 2006.
                                 ______
                                 

            Questions Submitted by Senator Daniel K. Inouye

                         NON-SECURITY MISSIONS

    Question. When the Coast Guard was moved to the Department of 
Homeland Security, Congress included a provision in the Homeland 
Security Act of 2002 to ensure that the Coast Guard continued to carry 
out its non-security missions. Section 888 of the Act states that the 
Secretary, ``may not substantially or significantly reduce the missions 
of the Coast Guard or the Coast Guard's capability to perform those 
missions, except as specified in subsequent Acts.''
    However, concern has been raised about the Coast Guard's ability to 
maintain its non-security missions as the hours ships and aircraft are 
used for these missions have not reached pre-September 11 levels. I was 
concerned by a report to the Congress that several of the districts, 
including Honolulu, have ``insufficient personnel'' for its search and 
rescue missions.
    It is my understanding that your performance measures were enhanced 
through the assistance of other agencies. In addition, certain 
performance goals are not reflective of the success of the maintenance 
of your effort. I do not find it helpful that the performance measure 
for compliance with domestic fisheries regulations is how many 
fisherman, of those reviewed, were found to be in compliance. If the 
Coast Guard interviewed one fisherman who was in compliance, the Coast 
Guard would have 100 percent performance on this measure.
    Can you tell me what you are doing to ensure that the non-security 
missions that are so critical to my state are being met and that the 
performance measures are a true reflection of your efforts?
    Answer. Based on all measurements completed to date, the Coast 
Guard met its performance goal in each non-homeland security mission-
program area including our goal for Search and Rescue for fiscal year 
2003. Program performance is the most important element of the Coast 
Guard Performance Management System. Program managers establish 
measures to accurately portray organizational performance. The measures 
are data-driven, fully documented, meaningful, and focus on outcomes. 
Using the performance measures, and with an emphasis toward improving 
effectiveness, the Coast Guard Commandant establishes long-term 
performance outcome targets that are linked to the strategic intent of 
the organization, including maintaining the balance between homeland 
security and non-homeland security missions. While the Coast Guard has 
been lauded in the past for its performance measurement efforts, it has 
recognized and acknowledged that limitations in these measures 
sometimes exist. The Coast Guard has been working with GAO through the 
recent audit examining the relationship between resources and results, 
and OMB through the Performance Assessment Rating Tool (PART) reviews, 
and other independent evaluation efforts to continually review and 
improve program measures' clarity and objectivity. Examples of measures 
that have recently been revised or are currently under review include:
    Several years ago, the Search and Rescue program was measured by 
the percent of persons in U.S. jurisdictional waters in distress that 
were saved, after the Coast Guard was notified. This measure was 
changed to include the percentage all persons in U.S. jurisdictional 
waters in distress, with no restriction on Coast Guard notification. 
This change occurred as program managers realized that communication 
improvements and other non-Search and Rescue safety programs were 
inputs to the measure of safety as well as that of a simple Search and 
Rescue response measure.
    Two years ago, the Short Range Aids to Navigation (AtoN) program 
was measured by the statistic of Short Range Aid availability. While 
this measure provided information on the percent of Coast Guard Aids to 
Navigation that were working properly and on-station, there was little 
connection to performance of these aids and benefit to the public. When 
this was brought to the Coast Guard's attention through an Office of 
Management and Budget (OMB), Performance Assessment Rating Tool (PART) 
review, a change was made to measure the AtoN program by the number of 
Collisions, Allisions and Groundings that occur in U.S. waterways.
    The illegal drug interdiction measure was recently refined to 
include not only cocaine seized by the Coast Guard but also to account 
for cocaine thrown overboard or destroyed by smugglers. This refined 
measure, which encompasses both the cocaine lost to the smuggler as 
Coast Guard assets draw near, causing the smugger to jettison, burn, 
and otherwise destroy their product, as well as the cocaine actually 
seized by the Coast Guard, will more accurately reflect counter-drug 
efforts and results.
    With regard to the concern expressed in the question regarding the 
domestic fisheries performance measure of a compliance rate; both the 
Coast Guard and OMB, through its PART review, believe this rate to be a 
sound measure. The observed compliance rate measure is the total number 
of Coast Guard domestic fishing vessel boardings minus the boardings 
that had significant violations divided by the total number of Coast 
Guard fishing vessel boardings. Only boardings that have a significant 
violation--a living marine resource violation that results in 
significant damage or impact to the fisheries resource, significant 
monetary advantage to the violator, or has high regional or national 
interest--are counted.
    Historically, domestic compliance rates, which are based on over 
3,000 boardings (post 9/11 statistic) annually, have been within the 
95-98 percent range and movement within this range is expected and 
mostly beyond CG control as economic and social factors other than 
enforcement presence motivates individuals to violate the law. As a 
result, a floor has been established at 97 percent observed compliance 
to evaluate if CG levels of enforcement are sufficient to ensure wide-
scale compliance with regulations.
    Historical data illustrates Coast Guard enforcement presence does 
in fact affect observed compliance rates and also that there is a delay 
between enforcement presence/absence and fisheries compliance rates. 
Although observed compliance rate will not perfectly indicate the 
actual industry-wide compliance rate, it should serve as a reasonable 
indicator of the actual compliance rate when enforcement resource 
effort is sufficient to make performance tracking possible.
    In regard to the comment concerning ``insufficient resources'' in 
Honolulu, the Coast Guard is careful to distinguish between mission 
performance measures and internal program standards put in place to 
ensure the long-term maintenance of our resources, including our most 
valuable asset, our people. As stated above the Coast Guard has 
successfully met all mission performance goals for the search and 
rescue mission. The Coast Guard has adequate resources to meet 
performance and on-scene response standards for search and rescue in 
Hawaii. However, the Coast Guard has recently adopted an internal 
program standard, driven by requirements set forth in MTSA 2002, 
requiring command center watchstanders responsible for search and 
rescue to limit their watch length to 12 hours in duration, except in 
emergency or unforeseen circumstances.
    The Coast Guard measures and reports quarterly to Congress on our 
ability to meet this standard. The Coast Guard has demonstrated 
incremental improvement in achieving this standard, however, routine 
personnel transfers and substantial training requirements for newly 
assigned personnel continue to challenge the Coast Guard's ability to 
meet the 12-hour standard at all times. The Coast Guard is reviewing 
the staffing standards for our command centers, and is developing 
recommendations to ensure our ability to meet and maintain a year-round 
capability to meet the 12-hour watch requirement.

                             PORT SECURITY

    Question. As part of the Maritime Transportation Security Act, 
9,000 vessels and 3,500 facilities were supposed to have filed security 
plans by December 31, 2004. It is my understanding that you have 
received 97 percent of the security plans and that more than half of 
them are in the second stage of review. Area security and contingency 
response plans must be completed by July 1, do you anticipate a similar 
compliance rate? How does the cost of implementation affect the 
adequacy of the security plans submitted? On December 30, 2002, the 
Coast Guard estimated the total cost of implementing security in our 
seaports at $7.2 billion over the next 10 years. Is that estimate still 
accurate and how much has been spent toward that total to date? The 
President's budget requests $46 million for Port Security Grants. Will 
that be sufficient to bring our vessels and facilities into compliance 
with the security plans?
    Answer. Each Federal Maritime Security Coordinator submitted an 
Area Maritime Security (AMS) Plan to the respective Coast Guard 
District Commander for initial review on April 1, 2004. In order to 
meet the entry-into-force date of the new International Ship and Port 
Facility Security (ISPS) Code and Safety of Life at Sea (SOLAS) 
amendments, the Coast Guard must review and approve all AMS plans by 
June 30, 2004 and communicate U.S. port compliance with the ISPS Code 
to the International Maritime Organization.
    In the final MTSA regulations, the Coast Guard estimated the 
industry cost for implementing Section 102 of the MTSA security 
requirements as approximately $1.5 billion in the first year, and $7.3 
billion over the next 10 years. The port security grants to date have 
provided approximately $500 million.
    The Coast Guard does not believe the cost of implementation 
affected the adequacy of the facility and vessel security plans 
submitted for review. The MTSA security regulations were specifically 
developed to be performance based in order to provide owners/operators 
the latitude to implement the most cost-effective security controls to 
meet their specific circumstances.
    The fiscal year 2005 Department of Homeland Security (DHS) budget 
proposes a significant increase for port security activities. Grants to 
facilities are a small part of DHS's total investment in port security. 
Department of Homeland Security spending on port security increases by 
$224 million (13 percent) in the President's Budget, from $1,661 
million in 2004 to $1,885 million in 2005. Within the 2005 total is 
$1,675 million for Coast Guard port, waterway, and coastal security 
activities, including over $100 million to implement MTSA. The DHS port 
security total also includes $164 million in U.S. Customs and Border 
Protection for the Container Security Initiative and the Customs Trade 
Partnership Against Terrorism, and $46 million in the Office for 
Domestic Preparedness for port security grants.

                                HC-130J

    Question. The Coast Guard has expanded its mission since September 
11, 2001 and has been transferred from the Department of Transportation 
to the Department of Homeland Security. Thirteen Maritime Safety and 
Security Teams and eight Port Security Units have been deployed. With 
these changes, has there been an increased requirement for airlift 
capacity?
    Answer. Yes. Since 9/11, the Coast Guard has redefined and expanded 
organic lift requirements. The Coast Guard must be capable of providing 
organic aviation transport of National Strike Force personnel and 
equipment within 6 hours and must be capable of providing aviation 
transport of MSSTs within 12 hours of notification. Ongoing efforts to 
expand the Deepwater contract to reflect post-9/11 mission requirements 
and DHS Aviation Council study efforts will shape our aviation heavy 
lift and transport capability.
    Question. Pursuant to funding provided in the fiscal year 2001 
Military Construction bill, the Coast Guard recently received delivery 
of the first of six HC-130J Super Hercules aircraft. Could you discuss 
with us those aircraft, the benefits to DHS, and the advantages of the 
new 130Js over the 130Hs currently in service? In your opinion, is the 
HC-130J, the best aircraft available to replace your aging air fleet?
    Answer. The HC-130J provides the USCG and DHS a modern long-range 
patrol and heavy lift aircraft that will remain in the DHS inventory 
well into the future. This capability will provide DHS the ability to 
provide heavy-lift through a variety of mission profiles, and will 
enable the Department to remain in the forefront of disaster response 
and Homeland Security missions. The HC-130J is a completely new 
aircraft enabling a substantially better level of performance. Even in 
their current unmissionized state, the C-130J provides a substantially 
greater heavy lift capability than the aging HC-130H. Missionization to 
full capability as maritime patrol aircraft is scheduled to begin in 
fiscal year 2004. The missionization suite was designed to reflect post 
9/11 mission requirements, and will be fully interoperable with DHS, 
DOD, and the Deepwater systems. Fully digitized and equipped with a 
contemporary electronics suite, the missionized HC-130J will fly faster 
and have greater range with a smaller crew. The legacy asset HC-130H is 
increasingly more expensive to maintain and will be costly to modernize 
to homeland security and Deepwater mission requirements. At Full 
Operational Capability (FOC), the HC-130J will meet all current DHS/
USCG long range maritime patrol and heavy airlift requirements.
    Question. The first six HC-130Js are planned to be based at the Air 
Station in Kodiak, Alaska. This would leave the Coast Guard with a mix 
of HC-130Js and Hs in your Pacific Fleet. What are the benefits of an 
all HC-130J Pacific Fleet?
    Answer. In the Pacific Area, C130s operate over some of the world's 
largest expanses of water in the most arduous weather conditions. In 
addition to the performance increases and modern replacement benefits, 
an all C-130J fleet in the Pacific Area would allow the Coast Guard to 
more rapidly grow an experienced operator cadre/community to operate 
and maintain this aircraft. Additionally, the service would benefit 
from reduced training costs, as some members would transfer from one C-
130J unit to another, eliminating qualification costs. Economies of 
scale would produce parts and logistics support savings as well.
    Question. What are your funding requirements to fully deploy and 
maintain the first six HC-130Js? Is that request contained in the 
President's budget?
    Answer. Total additional funding required to missionize and achieve 
Full Operational Capability (FOC) of HC-130Js by the end of fiscal year 
2007 is $187 million. A funding request for missionization and full 
system acquisition is not included in the President's budget.
                                 ______
                                 

           Questions Submitted by Senator Ernest F. Hollings

       OVERALL COAST GUARD BUDGET REQUEST ONLY 6 PERCENT INCREASE

    Question. The Commandant of the Coast Guard testified that the 
Coast Guard was on track to restore resources and performance of non-
security missions, such as search and rescue of stranded mariners, to 
pre-9/11 levels. However, a draft GAO report (non-public until mid-
March) finds that the resource hours dedicated to the search and rescue 
mission search & rescue is down 22 percent from pre 9/11 levels. The 
resource hours dedicated to many other non-security missions, such as 
fisheries enforcement, living marine resources, and drug interdiction, 
are all down as well.
    Does this budget really fund the Coast Guard at sufficient levels? 
The request is really only a 6 percent increase over what we enacted 
last year, if you include the supplementals. Why is Coast Guard getting 
so little of the increase when it has so many responsibilities related 
to security and non-security missions?
    Answer. Yes, the fiscal year 2005 budget request is sufficient to 
fund Coast Guard operations. A 6 percent increase is not a fair 
comparison since the fiscal year 2004 Coast Guard budget includes 
supplemental funding provided for Iraqi Freedom and Hurricane Isabel. 
Supplemental appropriations are for specific purposes and are non-
recurring. Therefore, the fiscal year 2005 Coast Guard budget would not 
reflect this funding.
    While the draft GAO report referenced in this question noted that 
that the resource hours for non-homeland security programs decreased, 
the report also had the following conclusion: ``The Coast Guard's 
performance results--measures used to track each program's annual 
progress--generally did not mirror the trends in resource use. Instead, 
results for programs GAO reviewed were generally stable or improved 
regardless of the resources applied, and nearly all of the programs 
that GAO reviewed met their performance targets.'' (Draft GAO-04-043, 
March 2004).
    Search and Rescue (SAR) is a demand driven mission. While resource 
hours for SAR are down, it is due to less distress calls than from lack 
of resource hours. Also from the GAO report: ``the search and rescue 
program's target for fiscal year 2003 was to save 85 percent of 
mariners in distress and the program achieved this goal by saving over 
87 percent of them.''
    While resource hours are an important measure, the Coast Guard 
relies on the judgment of the operation commander to apply available 
resources based on the risks in the relevant area of operations. This 
flexibility is critical to apply Coast Guard resources to the numerous 
missions mandated in Section 888 of the Homeland Security Act of 2002.
    Question. I am hearing reports that the Coast Guard's resource 
hours for most non-security missions are still down below pre 9/11 
levels. For example, I've heard that the search and rescue mission is 
down 22 percent from pre 9/11 levels. What can you tell me about that?
    Answer. The Coast Guard will continue seeking the appropriate 
balance among all its mission-programs while relentlessly pursuing our 
stated performance goals. In so doing, the Coast Guard will continue to 
focus not only on activity levels (hours), but also on achieving the 
desired outcomes from those levels. Our ability to achieve desired 
outcomes and performance goals have been significantly enhanced through 
improved technology, tactics and procedures making our activities that 
much more effective. Risk-based decision-making by local commanders 
will continue to be the primary driving factor behind the specific 
activity levels (hours) accrued in the course of Coast Guard 
operations.
    The number of resource hours utilized for search and rescue (SAR) 
decreased by 22 percent in fiscal year 2003 from a pre-9/11 average 
level. However, this decrease in resource hours was not indicative of a 
decrease in service or performance. SAR is a demand driven mission, and 
the Coast Guard continues to respond to all mariners in distress. In 
fiscal year 2003, the Coast Guard met its 85 percent SAR performance 
goal by saving 87 percent of all mariners in distress.
    The Coast Guard's SAR program is a system with a variety of 
components. Aircraft, cutters, and boats play a large role in the 
response system, but overall SAR performance is not based on resource 
hours alone. For example, maritime safety and prevention programs, 
technology advancements for the boating public, enhanced communication 
and tracking systems, and improved safety equipment are just a few of 
the initiatives that factor into the Coast Guard's SAR program.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

    Questions. The U.S. Coast Guard awarded General Dynamics Decision 
Systems a $611 million contract to replace its outdated communications 
system in a project titled Rescue 21. This is a massive Federal 
investment in our maritime communications infrastructure. The Rescue 21 
section of the Coast Guard's website, however, has not been updated 
since May 9, 2003, so it is very difficult for the American public to 
keep updated on the project's implementation process and schedule. 
Could you please give me a status update on the project? I understand 
there may be some questions about deficiencies in the design phase of 
the project. Does the Coast Guard have adequate oversight of the 
contractor and are financial controls in place to ensure that the 
public investment is protected? When does the Coast Guard plan to 
implement Rescue 21 on Lake Champlain and Lake Memphremagog to cover 
these important border entry points into the United States? The Coast 
Guard's mission on Lake Champlain can lead to simultaneous rescue calls 
at opposite ends of the lake. First responders often have to rely on 
either a Coast Guard helicopter from southern New England or a Vermont 
Army National Guard helicopter to support them on search and rescue 
missions. Both options take precious hours to implement and cut short 
the window of opportunity for a successful rescue. With the Coast Guard 
seeking a 9 percent increase in their budget this year, are there any 
plans to post a Coast Guard helicopter on Lake Champlain?
    Answers.
Status Update
    While conducting Formal Qualification Testing (FQT) in January 
2004, several significant software (SW) defects were discovered in 
functional areas such as archive/restore, fault management, channel 
performance, Group Command Centers/Station operations, vessels and 
voice quality that required performance fixes and retesting. An 
additional FQT test event was scheduled for March/April to retest 
defects discovered in January 2004.
    While conducting preliminary FQT testing in early March to prove 
that previous issues had been resolved, GDDS discovered a new defect 
that has a severe impact on the asset tracking functionality of the 
system. This defect was hidden by an earlier problem and revealed by 
the latest software fixes. GDDS is currently working with the equipment 
manufacturer to analyze the defect and identify appropriate corrective 
action. Until GDDS can fix this asset-tracking problem, the FQT 
regression testing is necessarily on hold.
    Consequently, Initial Operating Capability (IOC) and Full Operating 
Capability (FOC) schedules will be impacted by the technical issues and 
testing activities discussed. IOC will be delayed by approximately 1 
year (to Sep 2004), and the Coast Guard anticipates the project being 
45 percent complete by the end of 2005. Achieving FOC in 2006 is at 
risk and is still being evaluated. The Coast Guard and GDDS have formed 
a joint deployment team to streamline the regional deployment process 
and identify tasks that can be performed concurrently or more 
efficiently to complete the maximum number of regions by the end of 
2006. The deployment team is using the experience of the first 6 
regions to redefine processes and align activities to accelerate 
deployment. Future deployment dates of Rescue 21 will depend upon 
GDDS's ability to accelerate their work, deploy innovations and do 
parallel deployments as the system is built out.
    The Rescue 21 section of the Coast Guard's website was recently 
updated on April 9, 2004. IOC and Low Rate Initial Program (LRIP) 
region schedules were updated. Group schedule updates still pending.
Oversight
    The Coast Guard has 54 staff members dedicated to the Rescue 21 
project. Several of these staff members are dispersed throughout the 
United States to ensure appropriate oversight of the nationwide 
deployment.
    Additionally, the Coast Guard has agreements in place with the 
Space and Naval Warfare Systems Center, San Diego and U.S. Department 
of Commerce National Telecommunication Information Administration 
(NTIA)/ITS Institute for Telecommunication Sciences for technical/
quality assurance support and Booz Allen Hamilton for project 
management and administrative support.
    Finally, the Coast Guard has leveraged existing GSA contracts to 
award blanket purchase agreements to a public relations firm to assist 
with community/public outreach, an environmental consulting firm to 
ensure compliance with applicable environmental laws and regulations, 
and an information technology firm to ensure contractor performance 
metrics are properly developed, monitored and archived.
Financial Controls
    Approximately 80 percent of the costs associated with the Rescue 21 
deployment will be paid using fixed price delivery orders. These costs 
were established during the proposal evaluation phase of the project 
and are not expected to change. The remaining 20 percent of the work 
will be paid for using cost plus incentive fee delivery orders for 
which target prices were also established during the proposal 
evaluation phase. Incentive fee contract structures provide motivation 
for the contractor to remain within cost goals.
Lakes Champlain and Memphremagog
    Lake Champlain will receive Rescue 21 as part of the Activities New 
York deployment currently scheduled for 2005. Lake Memphremagog was not 
identified as part of the Rescue 21 operational requirement, and is not 
scheduled to receive Rescue 21.
Coast Guard Mission on Lake Champlain
    Coast Guard Station Burlington, located at Burlington, VT conducts 
search and rescue (SAR) on Lake Champlain and responds to approximately 
200-300 cases annually, mostly during a the peak season for 
recreational boaters between June through August. Lake Champlain's 
shoreline includes portions of Vermont, New York and Canada, and 
measures approximately 100 nautical miles (north and south) by eight 
nautical miles (east and west). The Coast Guard's small boat response 
station has 25 persons assigned for Coast Guard missions including 
search and rescue, and also maintains aids to navigation on the lake.
    Coast Guard aircraft from Air Station Cape Cod are capable of 
responding to search and rescue cases on Lake Champlain within the 
Coast Guard's SAR program standards. However, they do not normally do 
so because of the other resources nearby which can provide a quicker 
response. Considering the narrow characteristics of the lake and that 
there are a large number of local responders, including local police 
and fire departments in the cities surrounding the lake, and that 
helicopters from the New York State Police, the Air National Guard, and 
U.S. Customs & Border Protection agency provide search assistance, the 
Coast Guard does not presently have any plans to post an aircraft at 
Lake Champlain.
                                 ______
                                 

     Questions Submitted to Transportation Security Administration

              Questions Submitted by Senator Thad Cochran

                          FLIGHT CANCELLATIONS

    Question. The Department requested a number of international 
flights to be cancelled at the end of December and again in January due 
to intelligence of possible terrorist activity. The cancellations 
caused inconvenience and financial losses for airlines and passengers 
alike and some aviation organizations have publicly questioned the need 
to cancel flights without being made aware of what specific 
intelligence was uncovered.
    Do you feel the Department was justified in the cancellation of 
these flights based on intelligence indicating that commercial 
airliners continue to be at risk of highjackings?
    Answer. The decision to cancel flights was made by the foreign 
carriers and governments upon specific intelligence that warranted such 
action. DHS shared information with our foreign counterparts and 
foreign air carriers, which led to their decisions to cancel flights 
and/or implement enhanced security measures.
    Question. How would you describe the cooperation of commercial 
airliners in the request to cancel these flights?
    Answer. During the holiday period, DHS received specific 
information and shared it appropriately with French and British allies, 
resulting in their decisions to cancel these flights. DHS and our 
European allies continue to work in close collaboration to share best 
practices and enhance aviation security.
    Question. Are passenger manifests being provided in a timely 
fashion by the airlines to the Department of Homeland Security?
    Answer. Air carriers as a general rule are fully compliant with 
existing CBP requirements for advanced passenger information system 
(APIS) transmissions, which must be submitted after takeoff. However, 
to vet flights of interest over the holiday threat period, TSA required 
that, upon request, airlines provide DHS with passenger manifests a 
specified time in advance of departure. All such requests were 
generally accommodated, and DHS continues to work closely with both the 
State Department and foreign carriers to ensure that additional 
requests are accommodated appropriately.
    Question. With intelligence showing that terrorists have considered 
a dirty bomb or a chemical or biological weapon release on airliners, 
what precautions are in place at our Nation's airports to prevent a 
possible radiological, nuclear, chemical or biological attack on an 
aircraft?
    Answer. TSA believes that existing operating procedures and current 
technology in the area of explosives detection would enable TSA to 
detect and interdict such a threat. In addition, the Department of 
Homeland Security continues to fund an aggressive program to improve 
the technology capable of detecting and mitigating such threats. As you 
are aware, TSA is also working to replace its passenger prescreening 
system to improve our ability to detect and stop any terrorist 
attempting to board an aircraft, including one possessing 
unconventional weapons.
    Question. Secretary Ridge testified before this Committee that the 
Executive amendment which directed the airlines to place Federal air 
marshals on international flights should have more appropriately been 
sent through diplomatic channels first. What new protocols or 
procedures have since been implemented by the Transportation Security 
Administration to communicate through diplomatic channels in the event 
that future flights are determined to be at high risk of terrorist 
attack?
    Answer. The regulatory instrument that allows TSA to require 
additional security of foreign air carriers is an emergency amendment 
to the security program of the affected foreign air carrier. It is the 
regulated party, (i.e. the air carrier) which must be the recipient of 
that instrument. However, we are aware that issuance of emergency 
amendments alone does not provide enough information to the foreign 
authority (which may differ from country to country) responsible for 
air marshals or other security functions involved in an emergency 
amendment. To remedy this, TSA, under DHS leadership, will use 
diplomatic channels, particularly in cases requiring immediate action 
by foreign air carriers, to inform affected air carriers and the 
foreign authority of their respective government concurrently. TSA will 
work through the Department of State and the affected U.S. Embassies, 
which will, in turn, reach out to the appropriate foreign authority to 
ensure that the requirements of the emergency amendment are conveyed.

                             RAIL SECURITY

    Question. Under Secretary Hutchinson testified before this 
Committee previous to the terrorist train bombings in Madrid that the 
Transportation Security Administration is working with other Federal 
Departments and agencies within the Department of Homeland Security to 
secure various transportation sectors including rail. The Department of 
Homeland Security recently announced additional security initiatives to 
further reduce vulnerabilities to transit and rail systems.
    In light of the attacks that took place on light-rail, passenger 
trains in Spain recently can you further elaborate on the luggage 
screening pilot program announced recently to be carried out by the 
Department of Homeland Security and coordinated with Amtrack and the 
Federal Railroad Administration?
    Answer. TSA, AMTRAK, and Federal Railroad Administration have 
combined efforts to institute a passenger and carry-on baggage 
screening prototype for explosives in a rail environment known as the 
Transit and Rail Inspection Program (TRIP). Under this project, TSA 
will seek to determine the feasibility of screening in a passenger rail 
environment. TSA hopes that such a project will help identify measures 
that would permit an appropriate level of screening that reflects the 
individual characteristics of each type of passenger rail traffic. The 
pilot project leverages present and prototype technologies and will 
evaluate their feasibility in a rail environment. As the primary 
stakeholder, AMTRAK is immersed in the review and implementation of 
this project. This program is expected to commence by early May 2004.
    Question. What new technologies and screening concepts will be 
implemented?
    Will explosive detection systems and/or explosive trace detection 
which are used to screen luggage placed on airliners be used to screen 
luggage placed on trains?
    Answers. The pilot program will assess different types of screening 
equipment already in use or being tested today.
    Question. Will additional funding be requested by the 
Transportation Security Administration for the additional rail security 
measures announced yesterday either by a supplemental funding request 
or by budget amendment?
    Answer. TSA will fund the additional rail security initiatives that 
were recently announced from within its fiscal year 2004 appropriation 
for Maritime and Land Security. For fiscal year 2005, there are no 
plans to seek additional funding for rail security above what is 
included in the fiscal year 2005 President's Request.
    Question. Can you provide further detail on how the Transportation 
Security Administration is using the expertise of Information Analysis 
and Infrastructure Protection (IAIP) and Science and Technology (S&T) 
assistance to prevent a terrorist attack on our railways and also on 
our subway systems?
    Answer. TSA staff and its parent directorate, the Border and 
Transportation Security Directorate, work closely and collaborate on a 
daily basis with both S&T and the Information Analysis (IA) and the 
Infrastructure Protection (IP) Divisions of the IAIP Directorate, on 
issues related to rail and transit security. IA shares intelligence and 
threat analysis daily with all DHS entities and other relevant 
stakeholders. Since the Madrid bombings, DHS stood up a working group 
to develop operational Courses of Action (COAs). Members of this 
working group include representatives from BTS, TSA, IA, IP and the 
Department of Transportation.
    TSA has partnered with IP on several important issues in 
safeguarding our nation's critical infrastructure including working 
together to conduct vulnerability assessments and security reviews. 
Moreover, IP has invited TSA to participate in site assistance visits 
(SAV) to determine a baseline level of security for select elements of 
the nation's critical infrastructure. One current example involves a 
joint assessment of subway system ventilation shafts to determine 
vulnerability to chemical or biological attack. Additionally, TSA, in 
coordination with FRA, IP and industry representatives, is currently 
conducting an in-depth assessment of the District of Columbia rail 
corridor.
    TSA has been communicating its operational requirements to the 
Science and Technology (S&T) directorate. TSA has engaged S&T in an 
effort to help meet the more immediate R&D needs of screening 
passengers and their baggage in the rail and transit environment with 
relevant technologies sensitive to the operational concerns of 
throughput and high levels of detection.
    TSA works closely with IA and S&T to better understand and prevent 
terrorist attacks on our Nation's railroads. Our warning and 
information products are vetted with IA and S&T representatives to 
provide the best informed assessments possible. Additionally, vetting 
and strong analyst-to-analyst coordination ensure strong positive 
information sharing across the Department.
    Question. Have vulnerability assessments been completed by 
Information Analysis and Infrastructure Protection on high-density 
urban areas to target resources toward the railways greatest weaknesses 
or are these assessments still taking place?
    Answer. On May 14, 2003, the Department of Homeland Security 
awarded $65 million in Mass Transit Grants to help secure the 20 
highest risk transit systems in the United States based on ridership. 
The money may be used for the following: (1) the installation of 
physical barricades; (2) area monitoring systems such as video 
surveillance, motion detectors, thermal/IR imagery and chemical/
radiological material detections systems; (3) integrated communications 
systems; (4) prevention planning, training and exercises; and/or (5) 
operations activities conducted during ORANGE alert from January 2003 
through April 2003. New York City Transit received $26.7 million, 41 
percent of the $65 million. The Chicago Transit Authority, the second 
largest transit agency by ridership, received $5.1 million.
    On November 13, 2003, the Department of Homeland Security awarded 
another $53 million to the top 30 transit agencies with heavy rail, 
subway and commuter rail systems. A weighted average factoring both 
ridership and system route miles was used to determine the amounts 
received. Each qualifying system received no less than $800,000. Due to 
the previous allocation of funds to New York City Transit, the MTA 
subway system was capped at $10 Million, allowing for the allocation of 
more funds to other properties.
    The grants were administered by DHS's Office for Domestic 
Preparedness (ODP). TSA provided modal expertise to ODP on the 
allotment of this grant money to the mass transit industry.
    TSA is currently conducting an assessment of critical mass transit 
assets. The results will be used to identify locations for enhanced, 
facilitated assessments. To-date, TSA has performed an assessment on 
approximately 65 percent of critical subway assets. Approximately 30 
percent of light rail critical assets have been assessed. The 
criticality assessment of mass transit assets is scheduled for 
completion by July 2004.
    DHS has conducted Site Assist Visits (SAVs) of several rail 
stations in high-density urban areas, including New York's Penn Station 
and Grand Central Station and Washington D.C.'s Union Station. Teams of 
security experts, along with the owner/operator of the site, identifies 
vulnerabilities and suggest remediation actions. Thanks to these and 
other visits to rail facilities, we have compiled Common 
Characteristics and Vulnerability reports and Potential Indicators for 
Terrorist Attack reports (CV/PI) for railroad yards and railroad 
bridges and disseminated them to owners/operators, security planners, 
and law enforcement agencies. The Department has also funded a study of 
possible protective measures that can be applied to railcars 
transporting chemicals and recommendations are expected shortly. In 
addition we have received dozens of other rail and subway vulnerability 
assessments, including those for the 30 largest systems in the country 
and have included them in our database. We have also completed an 
assessment of a 15 mile DC corridor for HAZMAT rail shipment and are 
considering additional assessments in other major urban areas.

                               AIR CARGO

    Question. Congress provided $85 million for fiscal year 2004 for 
the Transportation Security Administration to hire additional screeners 
to inspect air cargo and for research and development of explosive 
detection systems in order to screen for explosives in air cargo, both 
the larger palletized cargo and the individual pallets, or individual 
boxes known as ``break bulk''.
    With the increase in air cargo security funding provided for fiscal 
year 2004, how many additional screeners have been hired to inspect air 
cargo to date, and when do you expect to be fully staffed?
    Answer. As of March 23, 2004, the funding provided in the 
Department of Homeland Security Appropriations Act, 2004 (Public Law 
108-90) enabled TSA to hire 100 new cargo inspectors. All 100 cargo 
inspector positions have been selected, and paperwork is being 
processed by TSA Human Resources. We anticipate extending job offers to 
these applicants and bringing them on board within the next 2 months.
    Question. What is the status of laboratory testing of commercial 
off-the-shelf explosive detection systems on air cargo?
    How has the current technology performed on break bulk cargo?
    When do you expect to issue a request for proposal for this 
technology, and when will a pilot program begin at selected airports?
    Answer. TSA, working with the air carriers, has screened cargo 
using Explosives Detection System (EDS) technology currently deployed 
at airports for checked baggage screening. TSA also issued a Market 
Survey for vendors of currently available explosives detection 
technology for break bulk cargo screening and is in the process of 
conducting a lab evaluation and pilot test for the equipment that has 
been offered by vendors for evaluation. The controlled study of 
suitability of use of the currently available EDS technology is 
scheduled to begin in June and will be completed by September 30. Once 
that study is completed, TSA will determine to what extent the 
technology is a feasible solution for some categories of cargo 
screening. TSA is planning on issuing an RFP in the third quarter of 
fiscal year 2004 to solicit additional vendors to participate in lab 
evaluations and airport pilots for break-bulk cargo screening.
    TSA has also issued an RFP for technology to screen containerized 
cargo and U.S. mail. TSA is currently evaluating the proposals 
submitted under that RFP and anticipates awarding grants for technology 
development in the fourth quarter of fiscal year 2004.
    Question. Can the Committee expect to receive by April 1, 2004, the 
report directing TSA to provide options to inspect air cargo, the 
associated costs, and timetable for pursuing technological solutions to 
allow for the most efficient and targeted inspections of cargo being 
carried on passenger aircraft?
    Answer. TSA has prepared the report to Congress covering potential 
technology solutions for cargo screening. Once review and coordination 
is completed through DHS, the report will be delivered to Congress.
    Question. What enhancements are being made to the current Known 
Shipper program to guarantee the safety of air cargo?
    Answer. Since 9/11, significant enhancements have been made to the 
Known Shipper program. The requirements for new shippers applying for 
Known Shipper status have been strengthened. In addition, methods for 
confirming the authenticity of established Known Shippers have been 
improved. In order to substantiate the legitimacy of known shippers 
further, air carriers have been required to conduct site visits of 
known shippers' facilities. Additionally, TSA is close to completing an 
automated Known Shipper Database, which will allow TSA to vet 
applicants to the program more thoroughly for legitimacy by comparing 
data submitted by applicants against terrorist watch lists, other 
government databases, and other publicly available information. 
Eventually, TSA's Known Shipper Database will be one part of a larger 
freight assessment database intended to target high risk cargo 
shipments for additional screening.
    Question. Would it currently be feasible to inspect 100 percent of 
all air cargo being placed on aircrafts, as proposed by some in 
Congress, and, in your opinion, how do you feel the flow of commerce 
would be affected if air cargo was restricted from being placed on 
aircraft unless 100 percent inspection of air cargo took place?
    Answer. It is neither feasible nor optimal to physically inspect 
100 percent of air cargo. The sheer volume of air cargo transported in 
the United States and limitations on available technology render the 
inspection of all air cargo infeasible without a significant negative 
impact on the operating capabilities of the transportation 
infrastructure of the United States and the national economy. 
Limitations of technology and infrastructure make physical screening of 
100 percent of air cargo impractical in terms of the flow-of-commerce. 
This would also be an ineffective use of homeland resources.
    TSA's goal is to ensure that all cargo is screened to determine 
risk and that 100 percent of high-risk cargo is inspected. TSA is 
aggressively pursuing next-generation technological solutions. 
Meanwhile, TSA is taking steps to implement measures outlined in the 
Air Cargo Strategic Plan and is doing everything possible to ensure 
that cargo going on planes is secure, including requiring random 
inspections of passenger air cargo, prohibiting the transport of cargo 
on passenger aircraft by unknown shippers, and increasing the number of 
TSA air cargo compliance inspectors.
    Question. To date, what has been learned of the pilot program 
conducted by the Transportation Security Administration, the United 
States Postal Service, and air carriers to assess the feasibility of 
using canine teams to screen certain classes of priority mail?
    Answer. In early 2002, TSA, the U.S. Postal Service (USPS) and the 
aviation industry agreed that additional security screening measures 
needed to be identified and developed before resuming transport of mail 
on passenger aircraft. We agreed that explosives detection 
effectiveness, throughput capacity, and costs associated with the 
screening were paramount considerations in identifying additional 
measures. Protecting the privacy of mail was also a critical factor in 
determining the least intrusive method to be used.
    In June 2002, TSA conducted operational tests and evaluations 
(OT&E) at six major airports with assistance from the USPS and airline 
industry. The purpose of these tests was to determine and demonstrate 
the ability of TSA-certified explosives detection canines to detect 
explosives in packages that simulated Express Mail and Priority Mail 
products and which were independently introduced into actual mail. We 
also wanted to compare the throughput capabilities of both X-Ray and 
canine resources under actual airline operational conditions.
    The results were successful. In November 2002, TSA established 
eleven major airport canine screening operations for priority mail 
exceeding a certain threshold through partnership agreements with the 
USPS and the airline industry. To date, over 17 billion packages have 
been successfully screened by TSA-certified explosives detection canine 
teams. Currently we are expanding our TSA Canine Pilot screening 
efforts into various cargo and mail equipment configurations. TSA is 
proceeding with OT&E in two phases:
  --Phase I tested various explosive targets/distracters that were 
        introduced into multiple cargo configurations at six major 
        airports. All testing was conducted under actual cargo 
        operations and various weather conditions. The OT&E is complete 
        and the preliminary results are promising. The final report is 
        due at the end of April 2004.
  --Phase II is tentatively scheduled to begin in May 2004 and to be 
        completed in July 2004. The tests will be conducted at six 
        major airports where we will expand explosives detection 
        investigation using multiple cargo airline containers, airline 
        ground support equipment and USPS rolling stock equipment 
        configurations under actual cargo/mail operations and 
        environments. Test results will be analyzed and recommendations 
        will be proposed to expand and streamline screening of cargo 
        and mail exceeding a certain threshold at other major airports 
        using TSA-certified explosives detection canine teams along 
        with other technologies for mail and cargo being transported on 
        passenger aircraft.
      computer assisted passenger pre-screening system (capps ii)
    Question. The President's fiscal year 2005 budget requests a $25 
million increase for the Computer Assisted Passenger Pre-screening 
System (CAPPS II) currently being tested by the Transportation Security 
Administration. However, CAPPS II has been slow in developing because 
of delays in obtaining passenger data needed for testing due to privacy 
concerns by air carriers.
    How is the Department working with the airlines to alleviate 
privacy concerns in light of recent disclosures that air carriers have 
shared passenger records with other government agencies and private 
contractors without the passengers knowledge?
    Answer. Comprehensive privacy training--in-person, online, and via 
video, for all employees is underway and on track towards completion by 
the end of calendar year 2004. TSA has already completed an initial 
``privacy education week'' for all 55,000 employees that included live 
and video privacy training. Many other components of DHS already have 
systematic privacy education for employees--both upon hiring and 
annually thereafter. The DHS Chief Privacy Officer, assisted by a 
privacy compliance officer, has undertaken a DHS-wide review of 
internal education programs to ensure that all employees are aware of 
and tested on privacy practices and principles. The Privacy Office will 
report on the progress of this program in its annual report to Congress 
later this spring, and annually thereafter. Further, the DHS Chief 
Privacy Officer proposed the implementation of rules in the public and 
the private sector governing the use of private-sector data. The DHS 
Privacy Office has already begun work with numerous private-sector 
industry groups to facilitate that work. Organizations such as the U.S. 
Chamber of Commerce, the Council for Excellence in Government, the Air 
Transport Association, the Markle Foundation, and others, are all 
considering the evolution of public-private information partnerships. 
Further, the Department is reviewing the need for a department-wide 
Privacy Statement that would include principles for the use of private-
sector data. Again, many DHS components already have their own privacy 
statements. We look forward to publishing a DHS Privacy Statement later 
this summer.
    Question. When will the Department issue a security directive to 
mandate airlines to turn over passenger information to test the CAPPS 
II system?
    Answer. A timeframe for collection of passenger data for testing is 
still under review.
    Question. How can assurances be made to prevent identity theft by a 
potential terrorist intent on using legitimate individuals information 
to get around the CAPPS II background checks?
    Answer. While no system can be 100 percent effective in preventing 
identity theft, we believe that the CAPPS II system will represent a 
quantum leap forward in efforts to defeat this growing problem. CAPPS 
II will rely on an improved version of the best practices used by the 
banking and credit industries to combat identity theft and fraud.
    Where a legitimate identity is stolen, there is any number of 
indicia, including errors or inconsistencies in the information as 
transmitted by the thief, which could reveal the theft. Further, CAPPS 
II will make use of a database containing up-to-date information about 
stolen identities, which will further protect against terrorists who 
use this means to conceal themselves.
    Again, no system can be 100 percent effective, which is why CAPPS 
II will be part of a layered ``system of systems'' involving physical 
scrutiny, identity-based risk assessment, and other security 
precautions on aircraft and at airports.
    Question. Do you feel that such a funding increase is warranted for 
CAPPS II with the delays that have been faced to date?
    Answer. Yes, because we expect a new system to be put in place 
during fiscal year 2005, which will require an increase in resources.
    Question. The system currently operated by commercial airlines 
since 1996, CAPPS I, continues to have problems with ``false 
positives'' where passengers are erroneously delayed or prohibited from 
boarding their scheduled flights due to having a similar name with 
individuals that have been flagged by airlines as being a potential 
terrorist.
    With the problems faced in the current CAPPS I system, what method 
of redress will be implemented with CAPPS II to resolve complaints of 
passengers who believe they are erroneously selected for additional 
security?
    Answer. First, it is important to note that the ID authentication 
portion of the CAPPS II program under development is expected to reduce 
dramatically the percentage of individuals mistakenly flagged for 
automatic additional security screening. In the instances where 
individuals believe they have been mistakenly flagged under CAPPS II, 
TSA is committed to providing a fair, comprehensive, and customer-
friendly redress process. As part of the development of the CAPPS II 
system, we are designing a redress process to resolve complaints by 
passengers who assert that they have been incorrectly prescreened or 
consistently selected for enhanced screening. An essential part of the 
redress process is the establishment of the CAPPS II Passenger 
Advocate. The Passenger Advocate will act as a surrogate for passengers 
who, for security classification reasons, will not have access to all 
the information used by CAPPS II. When a passenger submits a complaint 
and provides the Government with permission to observe and monitor the 
results of the risk assessment during the complainant's future flights, 
TSA will work with other government agencies and commercial data 
providers to determine if the complaint is related to prescreening or 
due to another part of the screening process (e.g., random selection), 
and determine if selection by CAPPS II is related to data that may be 
appropriately corrected. Passengers will be afforded the opportunity to 
appeal these results to the TSA Privacy or Civil Rights Office and 
then, if warranted, to the DHS Privacy or Civil Rights Office. The 
redress program will be published and widely publicized before CAPPS II 
is implemented.
    Question. How does a passenger clear one's name if he or she 
continues to be flagged as a flight risk?
    Answer. Under the current system passengers may be required to 
undergo secondary screening or be subject to other additional security 
procedures due to random selection, CAPPS I selection, or the TSA-
administered No-Fly List. In addition, airlines may have their own 
criteria for singling out travelers distinct and independent of the 
current system. Since CAPPS I is administered by the airlines, TSA is 
only in a position to address passengers flagged as a flight risk based 
on the No-Fly List.
    The Transportation Security Administration (TSA) currently has 
established procedures within the Office of the Ombudsman to receive 
and resolve complaints by any passenger denied boarding because the 
individual's name appears on the No-Fly List. A traveler who contacts 
TSA regarding possible discrepancies within the current system is asked 
a series of questions to ascertain whether the issue is related to the 
No-Fly List. If it is related to the No-Fly List, the traveler submits 
a written description of the problems encountered and proof of 
identity. Upon receipt, TSA will determine whether there is any threat 
to aviation or national security that would prohibit the individual 
from flying. TSA may conduct a background check in making this 
determination. If the traveler is cleared to fly, air carriers and 
other appropriate parties will be notified. The TSA Office of the 
Ombudsman will forward a letter to notify the individual of the 
results.
    CAPPS II, if implemented, will improve this system considerably. 
CAPPS II will reduce the number of persons requiring additional 
screening by ending the use of outdated information and rules resident 
in the CAPPS I system. Further, by using risk analysis and identity 
authentication tools, CAPPS II should substantially reduce the number 
of travelers automatically selected for secondary screening.

                        RESEARCH AND DEVELOPMENT

    Question. The Congress made $154 million available for the 
Transportation Security Administration (TSA) to conduct research and 
development activities in an effort to improve current transportation 
sector security technology. Of the funds provided for fiscal year 2004, 
the Transportation Security Administration will target detection of 
chemical, biological, or similar threats and devices that could be 
released on or within an aircraft. With the testimony of Secretary 
Ridge before this Committee last month that the Department does not 
currently have the capability to screen for biological weapons that may 
be carried on board a commercial airliner, significant concern is 
warranted.
    Will the Transportation Security Laboratory conduct separate 
research on methods to detect chemical or biological weapons or will 
this research be coordinated with the Science and Technology (S&T) 
Directorate and the work carried out currently within that 
directorate's Biological Countermeasures Portfolio?
    Answer. TSA will be working closely with the S&T Directorate to 
identify technological solutions for screening to detect chemical and 
biological weapons. The TSA's Transportation Security Laboratory will 
play a critical role in identifying TSA's needs and specific 
operational considerations that must be taken into account as potential 
technologies are developed.
    Question. The Transportation Security Laboratory previously focused 
solely on the threat to civil aviation but has begun research and 
development on threats against cars and trucks by explosives.
    How will the Transportation Security Laboratory coordinate its 
research on transportation targets with the Science and Technology 
Directorate's High Explosives Portfolio?
    Answer. TSA has a strong working relationship with the S&T 
Directorate. We continue to meet with S&T personnel on a regular basis 
to discuss ongoing projects to ensure no duplication of efforts and to 
ensure projects undertaken are consistent with the overall goals of 
DHS.
    Question. Of the funds provided for fiscal year 2004, $45 million 
has been made available to develop next-generation Explosive Detection 
Systems (EDS) for the detection of explosive materials in passengers 
checked baggage.
    How has the research and development progressed to date to enhance 
the performance of existing Explosive Detection Systems that are 
currently deployed at airports and also with manufacturers of new 
technologies and when will these new technologies be ready for 
deployment in our nation's airports?
    Answer. Advances including reductions in false alarms, improved 
machine reliability, and reductions in operational expenditures have 
sufficiently matured where they will begin to be deployed by no later 
than next year based on currently-planned equipment deployments. 
capability, increased throughput, and reduce the size of EDS solutions. 
Some equipment will be best suited for smaller airports or checkpoints, 
while other equipment is being designed for in-line deployment.
    New technologies will be developed under TSA's Manhattan II 
project. TSA will be posting a request for information in the third 
quarter of fiscal year 2004. While TSA will explore the potential of 
all relevant technologies, we expect promising technologies to include 
the demonstration of novel x-ray sources, different geometry, and the 
development of multi-spectral detector arrays. Combined technologies 
may play a role, and nanotechnology may provide new elements for 
detection strategies.
    Question. Are there any new threat analyses that warrant a need to 
expand the criteria for certifying Explosive Detection Systems that are 
not currently included in the screening of passenger baggage?
    Answer. TSA continually evaluates its certification criteria for 
explosives detection technology to ensure both the types and amounts of 
explosives that the technology can identify are reflective of the 
threat. TSA has efforts underway to expand the types of explosives that 
can be identified, while also reducing the amount of explosives that 
would automatically trigger detection.
    Question. The Presidents fiscal year 2005 budget proposes to 
consolidate all research department-wide into the Science and 
Technology Directorate, except for the research carried out by the 
Transportation Security Administration's Laboratory. With the concern 
of carrying out research in a parallel manner do you believe it would 
best serve the Department if the Transportation Security Administration 
research and development activities were consolidated with the Science 
and Technology Directorate research activities?
    Answer. TSA believes that the constant demand for improved 
technology performance and the very specific detection capabilities 
needed to support TSA's mission requires that TSA have a highly 
specialized applied R&D program. As new weapons are developed, TSA must 
be able to meet its immediate operational needs by refining and 
enhancing current technologies to counter those threats and by 
identifying gaps to ensure R&D is well focused on continually improving 
capabilities. TSA must also be able to leverage its human factors 
efforts to identify methodologies, training and operational tools, and 
develop technology that will foster improved performance. TSA will 
continue to coordinate closely with the S&T to ensure that we can adapt 
to and address changing threats without duplicating S&T's efforts.
    Question. In the search for new technology to detect and prevent 
weapons and explosives from being carried onto airliners, the 
Transportation Security Administration is evaluating technologies to 
make the screening process more effective and less time-consuming. How 
has the research and piloting of new passenger checkpoint technologies, 
such as passenger body scanners and explosive trace detection portals, 
made promising advances in detecting explosives and/or biological or 
chemical weapons from being carried onto commercial airliners and when 
do you believe the piloting of these new technologies at airports will 
take place?
    Answer. TSA has developed a roadmap for the operational testing and 
evaluation of checkpoint technologies to improve TSA's ability to 
detect explosives being carried on persons and in carry-on baggage. 
Highlights from our Roadmap are as follows:
  --Explosives Detection Portals.--Continued development and pilot 
        deployment in the 3rd quarter of fiscal year 2004;
  --Document Scanners.--Continued development and pilot deployment in 
        the 2nd or 3rd quarter of fiscal year 2004;
  --Cast & Prosthetic Device Scanners.--Continued deployment and pilot 
        deployment in the 2nd quarter of fiscal year 2004;
  --Explosives Detection Systems (EDS) for carry-on baggage.--Define 
        performance metrics and solicit vendor participation 2nd or 3rd 
        quarter of fiscal year 2004;
  --Explosives Detection Technology for screening liquids.--Establish 
        the performance metrics for this technology and solicit vendors 
        of existing technologies to participate in an evaluation 
        against this qualification standard.

     LETTERS OF INTENT (LOI) FOR EXPLOSIVE DETECTION SYSTEM (EDS) 
                              INSTALLATION

    Question. The Congress has made available over $1.5 billion for the 
installation of explosive detection systems and the Letter of Intent 
(LOI) program to safeguard commercial airliners from a terrorist attack 
by explosives.
    What savings can be achieved on an airport-by-airport basis in 
personnel costs by installing Explosive Detection Systems ``in-line'' 
as opposed to terminal lobby protocols?
    Answer. The degree of costs vs. benefits will vary from airport to 
airport because of differing airport configurations. TSA is in the 
process of refining its return on investment analysis model at the same 
time that it is revising its staffing model. TSA will continue to 
assess the extent to which in-line systems benefit operational 
efficiency.
    Question. With the current cost share in place (90/10) and the 
President's budget request of $250 million, how many Letters of Intent 
does TSA intend on signing in fiscal year 2005?
    Answer. TSA currently expects that all resources will be utilized 
for currently-signed LOIs as well as other EDS integration activities. 
However, TSA will assess the need for additional in-line integration 
and resource availability on an ongoing basis.
    Question. How much of the $1.5 billion made available by Congress 
remains available for terminal modifications and what is the cost 
estimate to meet the necessary terminal modifications required at all 
commercial service airports across the country?
    Answer. The $1.488 billion appropriated in fiscal years 2002, 2003 
and 2004 has been used for the following requirements:
  --$828 million to cover facility modification and equipment 
        installation costs to meet the Congressional mandate to provide 
        for and conduct 100 percent screening of all checked baggage 
        for explosives at over 440 airports,
  --$259.4 million in support of the first eight completed Letters of 
        Intent (LOIs), including the 2 LOIs issued on February 15, 
        2004,
  --$20 million for contract support to complete various tasks 
        associated with the installation of explosives detection 
        systems (EDS) and explosives trace detection (ETD) equipment, 
        including site acceptance testing of EDS and ETD equipment at 
        the time of delivery from the vendors and once installed at an 
        airport, engineering and installation services from equipment 
        vendors, and administrative and technical support work,
  --$30 million to individual airports for completion of projects 
        associated with EDS/ETD equipment installation, including HVAC 
        installation, demolition work, and electrical work,
  --The remaining $350 million of the fiscal year 2004 installation 
        funding will be allocated for direct contracts between TSA and 
        individual airports for in-line EDS installations, with a 
        portion to be carried over into fiscal year 2005 to use along 
        with fiscal year 2005 funding to make fiscal year 2005 LOI 
        reimbursement payments for the 8 existing LOIs.
    Question. Will the agency fund terminal modifications at airports 
outside of the LOI process?
    Answer. At the current funding level, and applying the 75/25 cost 
share formula, TSA can support the following:
  --Reimbursement payments for the 8 existing LOIs;
  --Installation and multiplexing of EDS technology at the LOI 
        airports; and
  --EDS and ETD non-LOI installation work needed at 12 airports to 
        provide equipment capacity. The airports selected in this 
        category have a need for increased equipment capacity because 
        of increased passenger loads and airport terminal expansion 
        projects to support increases to air carrier service.
    Question. With so many needs and limited resources, how is the 
agency prioritizing on an airport-by-airport basis?
    Answer. TSA continues to use its prioritization factors to 
determine where limited resources will be allocated. TSA's first 
priority is to achieve compliance with the 100 percent electronic 
screening requirement at all airports. Simultaneously, TSA is working 
with airports that will not be able to maintain compliance with the 100 
percent electronic screening requirement because of increased passenger 
loads, increased and/or additional air carrier service, and/or airport 
terminal modifications and expansions.

                    PASSENGER AND BAGGAGE SCREENERS

    Question. In a report issued last month reviewing the 
Transportation Security Administration's process for conducting 
background checks on Federal passenger and baggage screeners, the 
Inspector General of the Department of Homeland Security made a list of 
twelve recommendations to the Administrator of the Transportation 
Security Administration to improve its management of the background 
check process for screeners. What procedures have been put into place 
to guarantee all passenger and baggage screeners that are currently 
employed and also individuals that are applying for a screening 
position have a full background check?
    Answer. TSA is aggressively implementing the Inspector General's 
(OIG) twelve recommendations. A significant part of our actions have 
been focused on ensuring that all screeners have had the necessary 
background checks and that all screener candidates receive a background 
check before they are hired.
    Processes are in place to ensure that all screener candidates are 
subject to a fingerprint based criminal history check that is 
successfully adjudicated BEFORE they are hired. In addition, prior to 
hiring, all screener candidates undergo a commercially conducted pre-
screen investigation that checks criminal history (based on an FBI 
fingerprint check and a check of local criminal histories), credit 
history and specific watch lists (TSA's No Fly and Selectee Lists). 
Successful adjudication of both the fingerprint check and the 
commercially conducted pre-screen investigation are absolute 
requirements before hiring takes place. After hiring, all new screeners 
undergo an Office of Personnel Management (OPM) Access National Agency 
Check and Inquiries (ANACI) investigation.
    This combination of background checks, both before and after 
hiring, provides the best available process to ensure security while 
maintaining a fully staffed screener workforce. The pre-employment 
checks (the fingerprint check and the commercially conducted pre-screen 
background check) take approximately 2-3 weeks to complete, thus 
allowing timely hiring of screeners. The OPM-conducted ANACI is more 
thorough but takes several months to complete; the ANACI provides a 
more in-depth review of a person's background which further mitigates 
security risk. TSA undertook a major effort in Q3/Q4 of fiscal year 
2003 to complete and adjudicate the required background checks 
(fingerprint, pre-employment and OPM ANACI) on all currently employed 
TSA screeners. Since then, all newly hired screeners have been subject 
to the processes and checks described above for screener candidates.
    Question. The Transportation Security Administration is currently 
in the process of an annual recertification of airport screeners to be 
completed by the end of this month.
    Can you explain the testing standards of the recertification 
process and what contractor oversight TSA is performing to ensure 
adequate testing the screeners for recertification is being carried 
out?
    Answer. The Aviation and Transportation Security Act (ATSA) 
requires that TSA shall conduct an annual proficiency review of each 
individual assigned screening duties.
    TSA completed the 2003/2004 re-certification process in March 2004 
for both Federal and private contract screeners. TSA is meeting this 
requirement through a national re-certification program for 
Transportation Security Screeners, Leads, and Supervisors. For the 
2003/2004 re-certification cycle (October 2003 through March 2004), the 
program consisted of a series of certification modules for either the 
Passenger/Dual Function (Passenger and Checked Baggage) or Checked 
Baggage screening function. The modules used were:
    Passenger/Dual Function Screeners:
  --Module 1.--Standard Operating Procedure (SOP) Job Knowledge Test, 
        (Screener and Supervisor versions)
  --Module 2.--X-Ray Image Interpretation Test, and
  --Module 3.--Practical Skills Demonstration
    Checked Baggage Screeners:
  --Module 1.--SOP Job Knowledge Test (Screener and Supervisor 
        versions) and
  --Module 3.--Practical Skills Demonstration
    In addition, a screener must have a ``meets standards'' for his/her 
annual Performance Rating by the FSD at his/her airport to be re-
certified.
    The national re-certification program's objective is to ensure that 
screeners demonstrated proficiency in the knowledge and skills that are 
critical to a screener's ability to provide world class security and 
world class service. As part of the development of this program, TSA 
employed a rigorous technical process to develop the assessment content 
and set proficiency requirements (i.e., passing scores) for each 
module. TSA implemented a valid and fair assessment process with the 
appropriate standards in place to certify that its screener workforce 
is proficient and capable of providing the security and service 
expected.
    Modules 1 and 2 were administered by local FSD staff (in most cases 
the airport Training Coordinator). Our training contractor, Lockheed 
Martin, administered Module 3. TSA government employees conducted 
quality assurance audits of the contractor throughout the re-
certification process and observed approximately 16 percent of the 
airports re-certification practical demonstrations.
    Question. Are the screeners being tested on TSA standard operating 
procedures and what is the pass/fail rate of the screeners that have 
been tested so far?
    Answer. Yes, screeners were tested on the standard operating 
procedures in Modules 1 (SOP knowledge test) and Module 3 (Practical 
skills demonstration). Less than 1 percent of the screeners failed 
fiscal year 2003-04 re-certification testing.
    Question. Congress limited the number of screeners employed by TSA 
to 45,000 full time-equivalents (FTE). Currently TSA is under that 
threshold and intends on hiring more screeners to comply with the 
45,000 cap. Do you believe that the 45,000 FTE limitation gives TSA an 
adequate number of screeners to carry out passenger and baggage 
screening?
    Answer. TSA is managing to keep the workforce under the 45,000 FTE 
level by creating a more flexible workforce. TSA is better coordinating 
airline schedules and passenger load with staffing needs, is increasing 
the proportion of part-time to full-time screeners, and is 
strategically using its mobile national screener force to meet seasonal 
fluctuations in workload. TSA expects to have a part-time screener 
workforce of close to 20 percent by the end of the current fiscal year. 
Part-time screeners create additional operational flexibility when 
scheduling screeners to satisfy varying levels of demand. As a result 
of reducing excess capacity at periods of lower demand, TSA is seeking 
to make more FTEs available to the system as a whole during peak 
periods.
    Question. Is the 10 minute passenger screening standard wait-time 
still in place or have new standards been implemented?
    Answer. TSA is committed to providing world-class customer service 
while ensuring freedom of movement for people and commerce by keeping 
our nation's transportation systems secure. We have done research, 
including focus groups, on customer satisfaction and devised a more 
robust methodology to assess the passenger experience, focusing not 
just on wait times, but on the totality of customers' interactions with 
the full range of screening processes. We have found that wait time is 
not a significant driver of the public's satisfaction with and 
confidence in TSA. In fact, most respondents in focus groups said that 
they would rather wait longer in line if security was better, and it is 
more important that the security process be thorough, attentive, and 
efficient than merely fast.
    In light of feedback from our research, TSA has developed a 
Customer Satisfaction Index for Aviation Operations (CSI-A). The CSI-A 
is comprised of results from passenger surveys conducted at airports, 
along with national poll results and complaints and compliments 
received by TSA. Passenger survey results display a high level of 
customer satisfaction, as 92 percent of the more than 15,000 
respondents indicated they were satisfied'' or ``very satisfied'' with 
their overall experience. National polls conducted by the Bureau of 
Transportation Statistics bi-monthly support these findings of customer 
satisfaction. Finally, airports show a downward trend in complaints 
relative to compliments.
    Nonetheless, TSA is committed to measuring wait time information at 
Federalized passenger checkpoints. In 2002, initial wait time data was 
collected at all 82 Category X and I airports (covering approximately 
95 percent of annual originating enplanements). Wait times at the 
remaining airports are predicted to be minimal, so we collect data from 
a sampling of Category II, III and IV airports in order to identify 
trends. We have found that most airports do meet the 10-minute standard 
most of the time. TSA will continue to collect wait time data at all 
major and a sampling of smaller airports to establish a good 
understanding of wait times, as well as how our service and staffing 
models impact wait times. We will continue to monitor wait times 
system-wide--by collecting data at all major airports for a 2-week 
period 3 times per year--to ensure that the same patterns hold over 
time.

                      REGISTERED TRAVELER PROGRAM

    Question. Congress provided $5 million for fiscal year 2004 for the 
Registered Traveler program to conduct a pilot program at selected 
domestic airports to expedite the security screening and check-in of 
passengers that voluntarily submit their personal data for a background 
check in order to be enrolled into a passenger registration and 
identity verification system.
    What has been accomplished to date on the Registered Traveler 
program with the funds provided by Congress? What do you intend to 
accomplish in the pilot program by the end of fiscal year 2004, and 
what enhancements do you propose with the requested increase of $10 
million for fiscal year 2005?
    Answer. Over the past year, TSA, in coordination with both internal 
and external stakeholders has developed a strategy for conducting a 
limited number of Registered Traveler (RT) Pilots in 2004 that will 
allow the Department to evaluate the merits of the program without 
disrupting airport operations or compromising security.
    TSA intends to conduct RT Pilots at a limited number of airports 
beginning in June 2004. The Pilot programs will assess improvements in 
security and enhancements in customer service for passengers. The 
pilots will last approximately 90 days. Results of these pilots will be 
analyzed beginning in October 2004 to determine the program's effect on 
security and service.
    Upon conclusion of the pilots, a determination will be made 
regarding best practices and necessary enhancements required for a 
larger implementation of the program. The fiscal year 2005 budget 
request includes $15 million for additional start-up costs, such as IT 
infrastructure and staffing for this program. TSA anticipates that 
future operational program costs for the Registered Traveler Program 
would be covered by fees incurred by participants. Thus, the Registered 
Traveler Program would be self-funded.
    Question. Will biometrics be the cornerstone of the Registered 
Traveler program or will is it be just one component being considered 
as the pilot program takes place?
    Answer. During the RT Pilot, TSA will assess biometric technology 
solutions to enhance identity verification capabilities at the 
passenger security checkpoint. These biometric tools will be tested in 
conjunction with business processes, including potential 
reconfiguration of lines and lanes, to develop a secure and expedited 
travel experience.
    Question. Do you see Registered Traveler as a precursory test for 
CAPPS II?
    Answer. The Registered Traveler Pilot Program is purely voluntary 
and will offer a secure and expedited travel experience for those who 
wish to participate. In addition to submitting personal data, RT 
participants will also be requested to submit biometrics (fingerprint 
and iris scan) that will not be components of the CAPPS II program. 
However, depending on the nature and structure of any deployable RT and 
CAPPS II program, there may be clear functional synergies and 
overlapping capability. TSA will work to ensure that these are 
identified and assessed.
    Question. In what airports will the pilot programs take place and 
how will travelers voluntarily sign up?
    Answer. Final decisions regarding specific locations for the 
Registered Traveler Pilot have not yet been made. TSA envisions that 
voluntary enrollment for the RT Pilot will likely take place at the 
designated airport locations.
   transportation security administration fiscal year 2004 shortfall
    Question. Does TSA have adequate funding for fiscal year 2004 or is 
it facing funding shortfalls in certain programs and activities?
    Answer. The fiscal year Homeland Security Appropriations Act was 
signed into law on October 1, 2003. In addition to these new 
appropriations, TSA has carryover funding from fiscal year 2003 that is 
available to be spent in fiscal year 2004. A spend plan has been 
developed for fiscal year 2004 that allows TSA to meet its requirements 
within available funding.
    Question. What specific funding shortfalls do you anticipate for 
fiscal year 2004?
    Answer. TSA anticipates that it will meet its fiscal year 2004 
requirements within available funding.
    Question. How do you intend to address the funding shortfall 
problems (better management and fiscal controls, a proposed 
reprogramming of TSA funds, or other funds provided to the Department 
from other programs and activities)?
    Answer. TSA has been working to improve its fiscal controls and 
management of the agency as it transforms itself from a start-up agency 
to a maturing organization. In fiscal year 2004, TSA is requesting 
$154.6 million in funding to be shifted among programs to meet emerging 
requirements.
    Question. If a reprogramming of funds will be necessary, when can 
we expect that proposal to be submitted to the Committee?
    Answer. The reprogramming was transmitted to Congress on April 23, 
2004.
    Question. Will an amendment to the fiscal year 2005 budget request, 
as submitted, be required in light of these shortfalls?
    Answer. The Administration does not intend to submit a fiscal year 
2005 budget amendment for TSA.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                         TSA: SECURITY CONTRACT

    Question. We recently received notification of a security contract 
for TSA facilities in Northern Virginia that totals a minimum of $5.3 
million a year for 5 years. That appears to be an extremely large 
amount of money to provide staff and equipment to screen people and 
their belongings as they enter the two facilities.
    Please justify for the record the number of security employees and 
types of equipment that your agency will be obtaining under this 
contract. If the response needs to be classified, please provide the 
subcommittee with an appropriately classified response.
    Answer. The contract security guard force at TSA Headquarters at 
Pentagon City and the Transportation Security Operations Center (TSOC) 
(formerly TSCC) in Chantilly, Virginia is responsible for protection of 
the facilities and for processing the entry of employees and visitors 
to both locations. The decision was made pursuant to guidance received 
from the Department of Homeland Security (DHS) and also to comply with 
the guidelines established by the Department of Justice (DOJ) in 1995, 
entitled ``Vulnerability Assessment of Federal Facilities.'' Security 
surveys and risk/threat assessments for both facilities confirmed the 
level of security required. Both facilities house Sensitive 
Compartmented Information Facilities (SCIF) within their space, as well 
as other sensitive critical assets. Director of Central Intelligence 
Directive (DCID) 6/9, effective 18 November 2002, requires an immediate 
security response to an alarm in this facility. (DCID 6/9; 3.1.2.1) 
Additional factors, including the fact that both facilities are 
operational 24 hours a day, 7 days per week and the ongoing threat 
environment, impacted the decision.
    The TSA Protective Security contract was solicited on a competitive 
basis among eight vendors. This acquisition was awarded utilizing those 
contractors from the General Service Administration's Federal Supply 
Schedule 98 (Law Enforcement--Security Facilities Management). Under 
these guidelines, a 5-year firm-fixed labor hour Blanket Purchase 
Agreement (BPA) was awarded. Each year, funded individual task orders 
will be written and ordered against the BPA. After conducting market 
research on the per hour cost for Security Guards in the DC Metro area, 
it was determined that a single contract with one security guard 
company managed by TSA would be the most cost effective. Among the 
eight vendors bidding for the contract, the one chosen was the less 
expensive of the two most qualified vendors, and the cost was well 
within the Washington area average.
    Under this contract, the security guard company will be providing 
personnel with weapons and uniforms, obtaining clearances for the 
guards, supplying associated security equipment and training for its 
personnel, and providing on-site supervision. Security personnel 
employed by the contractor to protect TSA's facilities are U.S. 
citizens, and many of them are armed or possess Secret Security 
Clearance, or both. The total man-hours worked by the Security Guard 
personnel at both TSA Headquarters and TSCC is approximately 4,000 
hours per week. Besides the screening of visitors and their belongings 
prior to entering TSA facilities, duties include providing escort for 
contractors, security for VIP visits, responding to alarms, patrolling 
the grounds and staffing the control center at both locations for 24 
hours, 7 days a week.

                  EXPLOSIVES DETECTION FOR PASSENGERS

    Question. In December, 2001, Richard Reid was prevented from 
exploding his improvised ``shoe bomb'' due to quick action on the part 
of the passengers and crew of an American Airlines flight from Paris to 
Miami. In the intervening 2 years, we appear to have increased the 
screening of checked baggage for explosives, but there appears to be 
little effort being made to enhance the screening of passengers 
themselves for hidden explosives.
    The technology and equipment exist to non-intrusively screen 
passengers for explosives. What is TSA doing to address this potential 
threat? How much of your fiscal year 2005 budget request is devoted to 
enhanced screening of passengers for explosives? Of the requested 
funds, how much are estimated to be used to procure the latest proven 
explosive detection portals?
    Answer. TSA has developed a roadmap for the operational testing and 
evaluation of checkpoint passenger screening technologies to improve 
TSA's ability to detect explosives being carried on persons and in 
carry-on baggage. Below is a list of the technologies to be pilot 
tested at airports and the timeframe in which that testing will be 
accomplished:
  --Explosives Detection Portals--continue development and pilot 
        deployment in the 3rd quarter of fiscal year 2004;
  --Document Scanners--continue development and pilot deployment in the 
        2nd or 3rd quarter of fiscal year 2004;
  --Cast & Prosthetic Device Scanners--continue development and pilot 
        deployment in the 2nd quarter of fiscal year 2004;
  --Explosives detection systems (EDS) for carry-on baggage--define 
        performance metrics and solicit vendor participation 2nd or 3rd 
        quarter of fiscal year 2004; and
  --Explosives detection technology for screening liquids--establish 
        the performance metrics for this technology and solicit vendors 
        of existing technologies to participate in an evaluation 
        against this qualification standard.

                    AIRPORT FUNDING FORMULA CHANGES

    Question. President Bush signed the FAA Reauthorization bill into 
law in December, 2003. That law mandates that the Federal government, 
through the TSA, cover 90 percent of the costs associated with airport 
security improvements including the installation of explosive detection 
devices. Less than two months later, however, the President submitted a 
budget to the Congress that would increase the burden on airports for 
meeting Federal security mandates. He proposes to change the amount of 
the Federally-covered expenses from 90 percent to only 75 percent. This 
appears to be yet another example of this Administration passing the 
security buck to someone else. In this case it is the airports and 
local taxpayer-funded airports. In other cases it is seaports or some 
other transportation entity.
    How can the Administration justify agreeing to fund 90 percent of 
airport security costs in December and then provide funding for only 75 
percent of the costs in February?
    Answer. The 75 percent Federal funding level has been a long 
established cost share formula with the aviation industry. Because 
industry shares security responsibilities with the Federal Government, 
and because airports and airlines receive efficiency benefits from in-
line systems, it is fair that they also share financial 
responsibilities at this level for installation of systems that will 
ease passenger flow and provide increased security levels at airports. 
Additionally at the 75 percent cost share related, TSA can use it 
allocated funding to support current LOI airports as well as those 
airports that have not received LOI but were additional equipment 
capacity is needed to accommodate increased passenger loads.

                      CARGO AND CONTAINER SECURITY

    Question. Two years ago, Congress created and funded Operation Safe 
Commerce. Late last year, the Bureau of Customs and Border Protection 
announced a ``smart container'' initiative. And just 2 weeks ago, the 
Homeland Security Advanced Research Projects Agency issued a 
solicitation for inexpensive container security technologies and 
offered up to $2 million towards that effort. It appears to me that 
there are too many cooks in this particular homeland security kitchen. 
Who is in charge of the security of shipping containers? Which agency 
is setting the standards and which one or ones is responsible for 
implementing them?
    Similarly, in regard to Operation Safe Commerce, what is TSA doing 
to set shipping security standards and how is TSA working with CBP in 
this effort? Once the various OSC shipping tests are completed and the 
reports submitted, who will be in charge of implementing the ``lessons 
learned'' and ensuring that they are implemented? Do you envision the 
establishment of national standards in this regard?
    Answer. Secretary Ridge delegated authority and responsibility for 
implementing the Maritime Transportation Security Act's Secure Systems 
of Transportation (SST) and performance standard sections to BTS.
    In order to ensure that international and domestic approaches to 
cargo security are coordinated and policies are consistent, under BTS 
leadership, a working group consisting of TSA, CBP, USCG and S&T 
personnel has been meeting regularly, and is conducting a gap analysis 
on existing cargo security and intelligence programs, coordinate 
existing containerized cargo security programs and R&D efforts to 
identify synergies and coordinate existing DHS component activities in 
the containerized cargo security environment.
    The goal of this effort is to ensure effective cargo security from 
point of origin to final destination. We will achieve this goal by 
leveraging existing legacy programs like CSI and CTPAT, adding 
enhancements, and setting minimum performance standards to close 
identified vulnerabilities. We will also apply lessons learned from 
Operation Safe Commerce and the SST interagency working group with CBP 
and USCG.

                AIRLINE PASSENGER SCREENING: WAIT TIMES

    Question. Last summer, my staff asked TSA personnel for information 
regarding wait times experienced by airline passengers at various 
airports. We are concerned that the cap on passenger screeners might be 
resulting in an increase in the time spent by passengers waiting in 
lines to be screened. My staff has renewed that request at regular 
intervals, and yet no information has been provided to them.
    Last week, my staff went to Seattle on subcommittee business and 
had meetings with TSA personnel at the Seattle-Tacoma Airport. They 
were informed that records are kept every half hour of wait times at 
the various checkpoints at SeaTac and that average wait time 
information is submitted to TSA headquarters. Why have your 
representatives been unable to provide my staff with the requested 
information? When can we expect to receive this information?
    Answer. Each month, TSA instructs approximately 26 U.S. airports to 
conduct a wait time study covering two consecutive weeks. These 
airports are selected according to geographical and size categories in 
order to allow TSA to extrapolate across the full range of airport 
diversity. All Category X and I airports--as well as select Category 
II, III and IV airports--will be chosen to collect data at least three 
times each over the course of the year. The monthly airport selections 
are balanced in order to provide consistent data for headquarters 
analysis.
    In March, the average wait time for the sample of 26 airports was 
3.1 minutes, with an average of 10.4 minutes at peak time. At Seattle, 
average wait time was 4.2 minutes and the average at peak time was 16.5 
minutes.

                             RAIL SECURITY

    Question. Current events such as the subway and rail bombings in 
Moscow and Madrid prove the point that we need an agency solely focused 
on protecting all modes of transportation. Congress created the 
Transportation Security Administration for just that purpose. In light 
of the Madrid bombings, has TSA developed a broader-based plan that 
would address the known threat to mass transit and rail security? Did 
TSA request additional fiscal year 2004 funds from the Department to 
assist in implementing this plan?
    Answer. In the months preceding the Madrid and Moscow incidents, 
DHS, in close coordination with our partners at the Department of 
Transportation (DOT), State and local governments, and transit and rail 
operators, took a number of steps to address vulnerabilities in the 
rail and transit systems to improve our security posture against such 
attacks. These efforts spanned the spectrum of security, from 
information sharing and awareness through prevention, response and 
recovery to a potential terrorist rail attack in the United States.
    On March 22, 2004, Secretary Ridge announced additional measures to 
strengthen security for our rail and transit systems. Most of these 
measures were low or no-cost items and procedures funded out of 
existing agency resources. DHS will build on many of the security 
measures recommended during the past 2 years for implementation to mass 
transit and passenger rail authorities by DHS, the Federal Transit 
Administration and the Federal Railroad Administration.
    Based on assessments from law enforcement and intelligence 
agencies, specific threat assessments and analysis, and the use of risk 
management principles, TSA continually evaluates, prioritizes and 
targets the use of available funds to reduce or eliminate the security 
threat.
    Question. What is TSA doing to more systemically address these 
threats rather than just reacting to them? Is TSA coordinating efforts 
in this regard with other agencies in the Department of Homeland 
Security?
    Answer. Ensuring that our nation's transportation systems are 
secure must be accomplished through effective partnering between 
appropriate Federal, State, local and private industry entities. We 
have consistently held that that this responsibility must involve the 
coordination of appropriate Federal, State, local and private industry 
partners, many of whom were already in the business of providing 
security for their particular piece of the transportation puzzle. TSA's 
main charge, both under ATSA and now as part of the DHS family, is to 
help coordinate these efforts under the guidance of the Secretary and 
the Under Secretary for Border and Transportation Security, identifying 
gaps and working with appropriate partners to ensure that existing 
security gaps are filled. However, other entities within both the 
Department and other agencies in the Federal Government have devoted 
considerable resources to securing modes of transportation other than 
aviation, including the Coast Guard and U.S. Customs and Border 
Protection for port, maritime and cargo security, the Information 
Analysis and Infrastructure Protection Directorate for critical 
infrastructures; the Office of Domestic Preparedness in transit 
security grants; DOT modal administrations; and State, local and 
private sector partners.
    TSA's efforts in non-aviation security over the past 2 years have 
focused on greater information sharing between industry and all levels 
of government, assessing vulnerabilities in non-aviation sectors to 
develop new security measures and plans, increasing training and public 
awareness campaigns, and providing greater assistance and funding for 
non-aviation security activities. In partnership with other component 
agencies of the Department of Homeland Security (DHS) and in 
coordination with the Department of Transportation (DOT), State, local 
and private sector partners, TSA will continue to leverage existing 
security initiatives, coordinate the development of national 
performance-based security standards and guidance; identify areas where 
regulations may be necessary to improve the security of passengers, 
cargo, conveyances, transportation facilities and infrastructures; and 
identify areas where better compliance with established regulations and 
policies can be achieved. TSA will work with DHS components, modal 
administrators within DOT, and its government and industry stakeholders 
to continue these efforts, establish best practices, develop security 
plans, assess security vulnerabilities, and identify needed security 
enhancements.

                              CANINE TEAMS

    Question. You mention in your testimony that you request $17 
million in fiscal year 2005 to support 354 canine teams. Your prepared 
statement on this funding seems solely focused on aviation security as 
it relates to K-9 teams. Yesterday, as part of his rail and transit 
security initiative, Secretary Ridge said that the Department will 
develop a rapid deployment Mass Transit K-9 program by using existing 
Homeland Security explosive K-9 resources.
    Once again, it appears that the Department is robbing Peter to pay 
Paul. It appears that you will be pulling K-9 teams away from airports 
and the protection of Federal buildings and using them for mass 
transit, thus degrading security in one transportation mode to begin 
beefing up security in another mode. By refusing to seek additional 
funds to address this very real threat it truly calls into question the 
seriousness of this Administration in its effort to secure the 
homeland.
    Does the initiative announced yesterday mean that you will be 
pulling existing K-9 teams away from protecting airports and Federal 
buildings to use them for rail and mass transit security? Did TSA 
request funds for the creation of new teams this fiscal year to address 
the threat to mass transit? Do you anticipate receiving any new 
resources this year for the creation of canine teams dedicated, 
trained, and certified for the rail environment? If the Department 
plans on waiting until the fiscal year 2005 Homeland Security 
appropriations bill is signed into law, I would caution that 
intelligence indicates the threat is imminent and the Department's 
track record on obligating grant funding is spotty at best.
    Answer. DHS will establish Rapid Response Teams (i.e., K-9 units) 
for rail and mass transit security through the Federal Protective 
Service (FPS). FPS will utilize dog team reasources from across the 
government. TSA will not be pulling canine units out of the airports 
unless, potentially, this is part of an action to respond to specific 
incidents or intelligence which warrants use of a Rapid Response Team. 
TSA will use its existing resources to provide dog team training 
assistance to transit operators

                         THE THREAT FROM HAMAS

    Question. On March 22, the so-called spiritual leader of Hamas, 
Sheik Ahmed Yassin, was assassinated in an attack authorized by Israeli 
Prime Minister Sharon. It was an attack about which the U.S. government 
apparently had no advance knowledge. However, as a result of the 
attack, Hamas has stated that it blames the United States and there are 
some reports that it plans to bring its reign of terror to U.S. shores.
    Not only was Sheik Yassin a spiritual leader, he was also known as 
the ``father of the suicide bomber''. I am deeply troubled that the 
``eye for an eye'' tactics of daily life in the Middle East may soon 
arrive here at home. We have already witnessed backpacks exploding and 
killing over 200 in Madrid. Based on the Secretary's statement of March 
22 and the threat advisories we have seen, I fear that it will not be 
long before suicide bombers begin detonating themselves in our public 
places, our sidewalk cafes, our buses, or our subways.
    What is the Department doing to prevent these types of suicide 
attacks in this country? Are there plans prepared to address this 
looming threat? Or does the Department just plan to wait for the 
inevitable attack and then respond?
    Answer. Suicide bombers usually look for crowded public locations 
(shops, restaurants, clubs, etc.) to detonate themselves for the sole 
purpose of killing and injuring as many people as possible. Public 
transportation targets in other parts of the world have been subjected 
to suicide bomber attacks, especially busses. Stopping suicide bombers 
intent on detonating themselves on or near a bus, ferry or other mass 
transit venue or terminal requires at minimum a multi-pronged approach 
that includes: (1) good intelligence and law enforcement response; (2) 
training operators to recognize the behavior patterns and mannerisms of 
suicide bombers; (3) and educating passengers to do the same. We also 
should explore physical inspection alternatives, as we are doing on a 
test basis in New Carrollton, Maryland. It is not clear, however, if 
this alternative is viable or effective.

                                  TWIC

    Question. The MTSA requires the creation of a national 
Transportation Worker Identification Credential (TWIC). Truck drivers, 
airport employees and all other individuals requiring access to secure 
transportation areas in the performance of their duties will be 
required to carry this credential. Please provide the Administration's 
views on the wisdom of using a centralized and existing card production 
facility for the production of the TWIC cards, including an evaluation 
of the associated costs and benefits. What is the status of the 
prototype project?
    Answer. During the development process, data, technical information 
and lessons learned were gathered from a wide range of sources 
including industry stakeholders and other Federal credentialing 
projects. The RFP for the TWIC Prototype Phase will be released in the 
immediate future. The proposed plan leverages the stakeholder 
relationships established over the past 24 months and during the 
Technology Evaluation Phase, as well as a partnership with the State of 
Florida for the network of deep-water ports. The goal of the prototype 
is to evaluate the full range of TWIC business processes within a 
representative operational environment. The plan includes facilities 
and workers from all transportation modes and is focused in three 
regions, Philadelphia-Wilmington, Los Angeles-Long Beach, and the 
Florida ports.
    Various card production options were evaluated within the context 
of system requirements. Centralized card production using existing 
Federal card production facilities that meet all of the system 
requirements was determined to be the most cost effective solution for 
the prototype phase. Key factors in the evaluation included: physical 
security and controlled access to the production process; secure supply 
chains for card stock and special security features (e.g. holograms, 
special inks, secret keys); standardization of training; and, economies 
of scale with high capacity production machines. Centralized card 
production will be further evaluated during the prototype, and the 
final evaluation report will include a detailed analysis on all card 
production options and a recommendation for DHS decision.

                          REGISTERED TRAVELER

    Question. Last week TSA announced its plan to begin a registered 
traveler program in which frequent airline travelers would pay a fee 
and be provided expedited processing at airport security checkpoints. 
Your budget request includes $15 million to ``expand contract support 
and technology resources''. Please describe the planned registration 
fee and the estimates of the total cost of the program. How much would 
the fee need to be increased to cover the proposed $15 million proposed 
expansion. How can the full cost of the program be recovered from 
business travelers and others who voluntarily join the program as 
opposed to passing on some of the costs associated with the program to 
all taxpayers?
    Answer. TSA intends to conduct RT pilots projects at a limited 
number of U.S. airports beginning in June 2004. The pilot programs will 
assess improvements in security and enhancements in customer service 
for participating passengers. The pilots will last approximately 90 
days. Results of these pilots will be analyzed beginning in October 
2004 to determine the program's effect on security and service.
    During the RT pilot, TSA will test technology in the form of 
biometric tools to enhance identity verification at the passenger 
screening checkpoint, in conjunction with business processes, including 
potential reconfiguration of select checkpoint lines and lanes. TSA 
will be testing a range of technology and operational variables. The RT 
pilots will monitor and assess possibilities for a secure and expedited 
travel experience for those who volunteer to participate in the 
program. The number of participants in the RT pilots will be capped at 
10,000 spread across a small number of airport locations. It is 
anticipated that this small RT pilot test will not have a detrimental 
effect on either those who do not volunteer or on the screener 
workforce. Upon conclusion of the pilots, determinations will be made 
regarding best practices and necessary enhancements required for a 
larger implementation of the program.
    The cost of the RT pilot programs will be funded by $5 million 
earmarked for the Registered Traveler program in the Homeland Security 
Appropriations Act, 2004 (Public Law 108-90). Contrary to what was 
reported in the media, TSA is not planning to charge a fee to 
passengers who participate in the 90-day RT pilots.
    TSA will await the results of the pilot program prior to making any 
decisions regarding the implementation of a Registered Traveler program 
in fiscal year 2005, including what costs would be incurred by those 
passengers who wish to participate in the voluntary program. TSA 
anticipates that future operational program costs for the Registered 
Traveler Program would be covered by fees incurred by participants. 
Thus, the Registered Traveler Program would become self-funded.

                             HOLLYWOOD JOB

    Question. I understand that TSA is looking to hire an individual to 
serve as a liaison to the Hollywood film and television industry and 
that the person would be paid at the GS-15 level. How many TSA 
screeners could be hired with the $136,000 that the GS-15 Hollywood 
liaison will be paid?
    Answer. Public Affairs utilized an open, funded position from one 
of its bureau offices to create the Director of Entertainment Liaison 
position to represent the entire Department. By taking an FTE from an 
office where reorganization had created efficiencies in workload, the 
position utilized those efficiencies to create a position with value 
added to the Department.
    The Entertainment Liaison Office is a necessary addition to the 
Office of Public Affairs. This person will work with television and 
movie producers to ensure that they do not take ``editorial license'' 
with Homeland Security matters that could provide the public with false 
impressions or inaccurate information. We spend a great deal of effort 
to educate people to help them to be better prepared for any possible 
disaster--natural or manmade. Millions of Americans get information 
through the entertainment industry. This position will help to ensure 
that these people get an accurate portrayal of the department's 
mission, policies, and activities, while proactively working to help 
the American public better identify DHS functions. The Entertainment 
Liaison office will guide the direction of documentaries and law 
enforcement ``reality'' shows to provide real information about how the 
country is better prepared today.
    This is not a unique position in government. Many other Federal 
agencies already utilize a liaison with the entertainment industry. The 
CIA has a Hollywood liaison, and the Department of Defense houses a 
large staff to serve the same function.
    This position hired at a salary level of $136,000 (GS-15) would be 
comparable to hiring approximately 3 TSA screeners (see breakout 
below.)

------------------------------------------------------------------------

------------------------------------------------------------------------
Base salary.............................................         $23,600
Locality pay (assumed Los Angeles area).................          +4,732
Benefits................................................          +8,260
Dual position training..................................          +3,130
                                                         ---------------
      Total.............................................         39,722
------------------------------------------------------------------------
$136,000/39,722=3.4 screeners.


                   MARITIME AND LAND: A LACK OF FOCUS

    Question. I remain strongly concerned that moving the funds from 
TSA will result in a diminishment of focus from your agency--and the 
Department--on non-aviation modes of transportation. That would be in 
direct contravention of the intent of Congress when it passed the 
Aviation and Transportation Security Act in November 2001. That Act 
gives TSA the responsibility for ``security in all modes of 
transportation.''
    During the hearing, you indicated that upon further reflection in 
regard to the movement of TSA's grant funds to ODP, the Department had 
determined that TSA's ``subject matter specialists/expertise'' would 
remain at TSA. Please confirm for the record that this statement is 
accurate. If this is not the case, please explain why and please tell 
the subcommittee when you learned that this would not be the case and 
from whom. Also, please provide the Subcommittee with the number of 
subject matter specialists TSA employs as of March 19, 2004, in the 
areas of mass transit, seaports, rail, trucking, and buses.
    Answer. It is anticipated that the Transportation Security 
Administration (TSA) will continue to provide operational expertise on 
the grant programs through participation in pre-award management 
functions. These include determination of eligibility and evaluation 
criteria, solicitation and application review procedures, selection 
recommendations and post award technical monitoring.
    As of April 21, 2004, the Transportation Security Administration 
(TSA) surface transportation (i.e., maritime and land) had 120, 
including 23 for rail and mass transit, and 14 for the maritime 
environment TSA is reorienting its subject matter expertise as roles 
and missions are better defined between itself and other DHS 
components. As TSA expands its activities on in rail and mass transit 
security, for example, we would expect to have additional subject 
matter experts and few in other areas where such experts exist in other 
DHS components.

                           CAPPS II--TESTING

    Question. Also, of the funds requested for this program in the 
fiscal year 2005 budget request, what is requested solely for 
additional testing of the program--as opposed to implementation and 
operation of the system?
    Answer. There are two components to the plan for CAPPS II testing: 
testing with historical PNR data and full system testing that will take 
place once connectivity is established with an airline to test with 
live data. TSA estimates the cost associated with completing system and 
performance testing at $5 million. This involves testing the system 
``end to end'' to validate the ability of the system to receive all of 
the different types of records from the airlines and post the results 
of the risk assessment on the boarding pass. Once system testing has 
been completed, performance testing is required to verify that the time 
required to complete each end-to-end transaction meets the system 
performance standards.

                           AIR CARGO SECURITY

    Question. On December 24th, 2003 six flights between Paris and Los 
Angeles were cancelled due to security concerns. In the week following 
the cancellation, U.S. officials ``significantly increased'' inspection 
of air cargo on foreign flights--a source of widespread concern as a 
potential mode of attack for terrorist.
    The vast majority of cargo carried on passenger aircraft still is 
not screened for potentially deadly threats. Their checked bags and 
carry-on luggage are screened--even their persons are submitted to 
oftentimes humiliating searches, but other forms of cargo carried in 
the belly of the plane are not. In fact, according to a September 2003 
report issued by the Congressional Research Service less than 5 percent 
of cargo placed on passenger airplanes is screened.
    The Aviation and Transportation Security Act requires that the 
agency ``provide for the screening of all passengers and property, 
including United States mail, cargo, carry-on and checked baggage, and 
other articles that will be carried aboard a passenger aircraft,'' yet 
TSA is primarily relying on an administrative process called the 
``known shipper program'' to meet this requirement instead of 
physically screening the cargo.
    Sadly--even after this Committee and this Congress added funds in 
last year's budget to enhance research and test methods of inspection 
for air cargo--your budget fails to provide increased funds to address 
this very real threat. Mr. Secretary, why have no funds above the $85 
million Congress provided in fiscal year 2004 been requested for fiscal 
year 2005? Does the Bush Administration believe that the threat to air 
cargo is not real?
    Answer. DHS is committed to a strong air cargo screening program 
and its request bears this out. The Administration's fiscal year 2005 
budget request represents a significant increase over the fiscal year 
2004 request, and is consistent with the additional funds appropriated 
last year by Congress in excess of the fiscal year 2004 request, which 
are being used to accelerate TSA's air cargo security program. TSA has 
already taken a number of significant steps to reduce vulnerabilities 
in this arena, including prohibiting cargo from unknown shippers, 
significantly increasing the number of physical inspections of air 
cargo on passenger and all cargo aircraft, increasing its air cargo 
inspections workforce, strengthening the criteria for consideration as 
a known shipper, automating the validation of known shippers and 
indirect air carriers, and expediting research and development efforts 
to identify potential new technological solutions for the inspection of 
air cargo on passenger aircraft. TSA is also working closely with CBP 
to develop a targeting tool which will permit effective identification 
of high risk cargo with the ultimate goal of requiring the inspection 
of all such high risk cargo.
    TSA is committed to a threat-based, risk-managed approach to air 
cargo security. The Air Cargo Strategic Plan outlines a layered 
security strategy that does not rely on any single solution, but 
rather, includes measures that secure critical elements of the entire 
air cargo supply chain, with the ultimate goal of assessing the 
relative risk of air cargo and then focus existing resources on 
inspecting 100 percent of cargo that is determined to be of higher 
risk. Among the layers within the cargo security system are the Known 
Shipper program, Indirect Air Carrier certification system, procedures 
to secure cargo during transport to the airport, training of air 
carrier and Indirect Air Carrier personnel, and screening directives 
established in November 2003. TSA has expanded the Known Shipper 
database by involving more companies and collecting more information. A 
key change to the Known Shipper program will be the full deployment of 
TSA's pilot Known Shipper Automated Database. TSA has already begun to 
implement this automated database and expects full deployment by the 
end of the calendar year. TSA is committed to advancing evolving ideas 
and concepts that can be analyzed and implemented to make the cargo 
security system even more secure. TSA is also aggressively pursuing 
next generation technological solutions that will allow us to enhance 
security for the entire air cargo supply chain.
    Question. The fiscal year 2004 Homeland Security Appropriations Act 
called for the hiring of 100 new inspectors to begin a more rigorous 
focus on air cargo security. We are now halfway into the fiscal year, 
but I understand that TSA has only offered positions to five people. 
Why has TSA made so little progress on this important program over the 
last 5 months? Is hiring air cargo security inspectors not a high 
priority for TSA?
    Answer. The funding provided in the Department of Homeland Security 
Appropriations Act, 2004 (Public Law 108-90) enabled TSA to hire 100 
new cargo inspectors. All 100 cargo inspector positions have been 
selected, and paperwork is being processed by TSA Human Resources. We 
anticipate extending job offers to these applicants and bringing them 
on board within the next 2 months.

                TSA: SLOW MOVEMENT OF APPROPRIATED FUNDS

    Question. The fiscal year 2004 Homeland Security Act was signed 
into law on October 1, 2003. Yet in the intervening six months, TSA has 
yet to obligate the $22 million Congress appropriated for trucking 
industry grants, the $17 million we provided for Operation Safe 
Commerce, the $10 million we provided for bus security grants, the $7 
million we provided for hazardous material grants, nor the $4 million 
we provided for nuclear detection and monitoring. Additionally, $50 
million still remains unobligated from the funds Congress provided for 
port security grants.
    Please respond for the record on when we can expect these funds to 
be obligated. The threat to these transportation modes is real and the 
delay in getting these funds out to the intended recipients does not 
lay with the Congress.
    Answer. In the coming months, TSA plans to request proposals for 
funding or announce awards for a number of programs. These include:
  --TSA anticipates issuing a Request for Applications (RFA) for both 
        the fourth round of Port Security Grants Program ($50 million 
        remaining from fiscal year 2004) and Intercity Bus Security 
        grants by late spring, 2004, with final awarding of grants 
        expected in late summer.
  --A fourth quarter fiscal year 2004 release of the RFA is anticipated 
        for both the Highway Watch Program and Operation Safe Commerce, 
        with final award anticipated in the fall.
  --TSA intends to announce Request for Proposals for the Truck 
        Tracking Project in early summer. Final award is anticipated in 
        early fall, 2004.
  --Award for Nuclear Detection and Monitoring is anticipated by mid-
        summer, 2004.

                     TSA FUNDING: ADEQUACY OF FEES

    Question. Your budget request for fiscal year 2005 assumes that you 
will receive $750 million in air carrier fees. The Congressional Budget 
Office estimates that only a total of $350 million of these fees is 
expected to be collected during the fiscal year. If that is correct, 
your budget request is already short by nearly $400 million. I 
understand that you have the authority administratively to require the 
collection of the total amount of $750 million of these fees. Do you 
intend to use that authority?
    If you do not intend to exercise your authority, this Committee 
certainly does not have the resources to fill that kind of a gap in 
funding. Will you be submitting a budget amendment to seek the 
additional $400 million? If you do intend to exercise this authority, 
please provide this Subcommittee with your schedule for announcing this 
change.
    Answer. The air carrier fee was established by Congress as a means 
to allow the Federal Government to offset some of the costs it assumed 
from the airlines when the responsibility for passenger and property 
screening shifted from those airlines to the Transportation Security 
Administration. The Aviation and Transportation Security Act set the 
maximum level of this fee at the cost that the airlines incurred for 
providing security screening in 2000.
    To assist TSA with determining what the airlines had spent on 
security screening prior to TSA assuming those functions, the agency 
required airlines to complete an extensive cost questionnaire on the 
costs the carriers incurred in 2000. Industry memorandums and 
Congressional testimony both pre and post 9/11 indicated that the 
airlines spent as much as $1 billion on security screening. Based on 
that information, TSA conservatively estimated that the industry's 
costs would be $750 million. However, the total reported by the airline 
industry through the cost questionnaires was around $350 million. 
Independent audits also could not validate the completeness of the 
industry's reported costs. As the air carrier fees are currently being 
paid based on the airline cost submissions, there is an approximately 
$400 million difference between fees being paid and costs originally 
reported by the industry.
    TSA is continuing to review the results of the audits and is 
working with the airlines to validate their cost data. Should the data 
be substantiated, TSA will consider the use of its administrative 
authority to allocate and obtain these fees. Other alternatives under 
consideration are the resubmission of the legislation proposed by the 
Administration early in the current Congress, as well as technical 
adjustments to TSA appropriations language that would mandate fee 
collections.

         INSUFFICIENT USE OF SCREENING EQUIPMENT--GAO TESTIMONY

    Question. On February 12, GAO's Director for Homeland Security and 
Justice, Cathleen Berrick, testified before the House Subcommittee on 
Aviation. In her testimony, she observed that while the TSA has made 
progress in its checked baggage processes, ``it continues to face 
challenges in attaining 100 percent screening using explosive detection 
systems 100 percent of the time.'' She notes that, ``Of the airports 
reporting that they were not screening 100 percent of checked baggage 
the number of consecutive days that they were not conducting this 
screening ranged between 1 to 371 days.''
    Rear Admiral Stone, what steps are you taking to remedy the 
deficiencies noted by the General Accounting Office? Is it the result 
of a lack of screeners, a lack of equipment, or a lack of sufficient 
funds to place the right number of screeners with the right equipment 
in the right locations?
    Answer. TSA is aggressively working to resolve both the equipment 
and staffing issues to ensure that we are able to conduct screening of 
100 percent of passengers' checked baggage for explosives at all U.S. 
airports. To that end, we are deploying additional equipment at five 
major airports and adding more than 1,400 baggage screeners to those 
airports where some baggage is screened through alternative methods 
allowed by law.
    During the next several months, TSA will also complete the 
development and deployment of a state-of-the-art modeling process that 
will define the staffing requirements, including those associated with 
baggage screening equipment, for each airport, as well as for the 
Agency as a whole.

                        TSA: INJURY AND ILLNESS

    Question. According to a Department of Labor study, workers at the 
Transportation Security Administration (TSA) suffered from more 
injuries and illnesses than employees at any other agency in the 
Federal Government last year. The TSA suffered more than 5 times as 
many job related injury and illness events as did their counterparts at 
other agencies. Nearly 20 percent of the 65,250 TSA employees at the 
time were hurt or sickened in the workplace last year, compared with 
only 3.7 percent of workers in the rest of the Federal Government. TSA 
employees were only 3.3 percent of the Federal workforce at the end of 
fiscal 2003. But their injuries and illnesses, 12,632 during that 
period, comprise more than 15 percent of all such incidents among 
government workers, according to the report.
    What are you doing to modify your screener training program to 
ensure that employees are protected from injuries in the work place? 
What thought, if any, has been given to using different equipment that 
might assist workers in screening baggage without the chance of serious 
injury?
    Answer. The Department of Labor reported that TSA had the highest 
injury and illness rate among Federal agencies in fiscal year 2003, 
measured by the number of employees injured filing claims with the 
Office of Worker's Compensation.
    About 70 percent of TSA's claims were related to baggage handling, 
which is very different than the work undertaken by most Federal 
agencies. TSA has compared its injury and illness rate with the rates 
found in private sector companies performing closely related 
activities, such as baggage and parcel handling, and found that the 
rates for that type of work were similar to TSA's experience.
    The high injury rate is partially attributable to the necessarily 
short time frame in which TSA was required to become operational. TSA's 
new baggage screening equipment had to be placed in airport space that 
was not designed to accommodate the equipment. Some operations must be 
performed in ergonomically unsuitable areas where there is insufficient 
space to perform safely repetitive baggage handling work. Eighty 
percent of claims related to baggage handling involved sprains and 
strains primarily to the back, but also to shoulders, knees and wrists.
    TSA is currently working to develop and promulgate a series of 
safety related training topics as part of the screener recurrent 
training program. A course on safe lifting techniques has already been 
fielded. Training media will include video and Web-based training. 
Specific courses in development include Bloodborne Pathogens Awareness, 
Hazard Communications, Materials Handling and Lock-out/Tag-out, General 
Safety, and Slips, Trips, and Falls. Safety Action Teams are being 
established at every airport and programs are underway to identify and 
train collateral duty safety and health representatives across the 
agency. Finally, TSA has initiated a program to conduct hazard 
assessments at all of its airports in order to identify additional 
areas where accident prevention actions are necessary.
    With the installation at some airports of new integrated baggage 
conveyor, in-line explosives detection systems, that greatly reduce 
manual baggage handling, some injury rates are already beginning to 
fall. In time, TSA anticipates that its efforts to field a 
comprehensive occupational safety and health program, establish a 
safety culture, train supervisors and employees, and make baggage 
handling system changes to minimize lifting, will result in significant 
improvement in TSA's injury rates.

                           LETTERS OF INTENT

    Question. In response to a question during the hearing, you 
indicated that upwards of 30 airports are seeking letters of intent 
(LOIs) with you. You also indicated that the Office of Management and 
Budget had limited the number of LOIs that you are able to enter into 
to eight. If your analysis of the 30 airports proves the validity of 
these requests, how much additional funding would be required to fund 
them?
    Answer. While numerous airports have expressed interest in LOI 
security funding TSA continues to use its LOI criteria, based on 
achieving and maintaining compliance with the 100 percent electronic 
screening requirement at all airports, to determine the allocation of 
resources. TSA is working with airports that will not be able to 
maintain compliance with the 100 percent electronic screening 
requirement because of increased passenger loads, increased and/or 
additional air carrier service, and/or airport terminal modifications 
and expansions. The President's Budget for fiscal year 2005 supports 
previously issued 8 LOIs for 9 airports, and assumes a 75/25 cost share 
formula as set forth in the Consolidated Appropriations Resolution, 
2003. TSA also supports airports that have not received an LOI, but 
where additional funding for equipment is needed to accommodate 
increased passenger loads and new air carrier service. TSA continues to 
evaluate situations where an in-line solution makes sense from the 
standpoint of security, efficiency, and reduced staffing needs.
                                 ______
                                 

            Questions Submitted by Senator Daniel K. Inouye

    Question. The budget request includes $400 million for the purchase 
and installation of Explosive Detection System (EDS) machines. Letters 
of Intent (LOI) have been signed with eight airports for the 
reimbursement of construction costs associated with the integration of 
the new EDS machines for in-line baggage screening. It is my 
understanding that the $250 million requested for installation would 
only cover continued payment of the existing LOIs.
    How many airports are on your list for installation, and under the 
current approach how long would it take to install in-line EDS machines 
at the remaining airports on your list? What would it cost over the 
next 4 years to accelerate the program and install in-line EDS machines 
at all the airports on your list?
    Answer. TSA continues to use its LOI criteria, based on achieving 
and maintaining compliance with the 100 percent electronic screening 
requirement at all airports, to determine where resources will be 
allocated. TSA is working with airports that will not be able to 
maintain compliance with the 100 percent electronic screening 
requirement because of increased passenger loads, increased and/or 
additional air carrier service, and/or airport terminal modifications 
and expansions. The President's Budget for fiscal year 2005 supports 
previously issued LOIs for 9 airports, and assumes a 75/25 cost share 
formula as set forth in the Consolidated Appropriations Resolution, 
2003. TSA also continues to evaluate situations where an in-line 
solution makes sense from the standpoint of security, efficiency, and 
reduced staffing needs.
    Question. TSA currently operates under a statutory limit of 45,000 
full-time equivalent baggage and personnel screening employees. How has 
this limitation affected your ability to serve the flying public and 
ensure short wait times? TSA is required by this limitation to hire 
significant numbers of part-time employees. Has it been difficult to 
hire and retain part-time employees for these screening positions?
    Answer. TSA is managing to keep the workforce under the 45,000 FTE 
level by creating a more flexible workforce. TSA is better coordinating 
airline schedules and passenger load with staffing needs, is increasing 
the proportion of part-time to full-time screeners, and is 
strategically using its mobile national screener force to meet seasonal 
fluctuations in workload. TSA now has in excess of 15 percent of its 
screener workforce as part-time screeners, and TSA expects to have a 
part-time screener workforce of close to 20 percent by the end of the 
current fiscal year. Part-time screeners create additional operational 
flexibility when scheduling screeners to satisfy varying levels of 
demand. As a result of reducing excess capacity at periods of lower 
demand, TSA is seeking to make more FTEs available to the system as a 
whole during peak periods.
    While TSA is highly conscious of customer service concerns, the 
security of the nation's transportation system will always be our top 
priority. Staffing standards, accordingly, should be determined based 
on the goal of achieving the appropriate balance between world class 
security and world class customer service in operating environments 
unique at each airport. Throughout the workforce transformation 
process, our screeners have continued to meet world class standards for 
effectiveness and customer service. They have kept wait time consistent 
with previous performance across the system, while providing a level of 
courtesy that received an 86-percent approval rating according to the 
most recent survey. TSA is proud of the professionalism and dedication 
that its screeners demonstrate every day in the performance of their 
duties.
    Question. Section 1012 of the USA PATRIOT Act requires a background 
investigation of holders of Commercial Driver's Licenses (CDL) who seek 
to carry hazardous materials (hazmat). States must provide biographical 
and criminal history information and fingerprints to TSA on CDL holders 
seeking a state hazmat endorsement. The deadline for states to comply 
has been moved from November 3, 2003 to April 1, 2004, and again to 
December 1. However, to date, the TSA has not provided the states with 
sufficient guidance, including technical standards for the collection 
of fingerprints, to implement fingerprint-based background checks. In 
addition, no funding has been made available to the states to implement 
this program.
    What steps has TSA taken to implement the requirements of Section 
1012 and what is TSA's timeline to provide guidance to the states on 
the process and standards for fingerprint collection and transmittal of 
fingerprints to TSA by the states and notification of qualification by 
TSA back to the states?
    Answer. TSA has been working with the FBI to establish the 
technical standards and processes for the collection and transmission 
of driver fingerprints. Once these processes are finalized, they will 
be transmitted to the States. We estimate that these standards and 
processes will be provided to the States over the course of the next 
month.
    On April 1, 2004, Secretary Ridge sent a letter to each Governor 
outlining the current status of the Hazmat Truck Driver Program. In 
that letter, Secretary Ridge asked each Governor to provide TSA a State 
Point of Contact (POC) for this Program to facilitate communications 
between TSA and other organizations involved in this process. All 
fingerprint standards and processes will be provided to the States 
through their respective POCs.
    TSA has also been working with the American Association of Motor 
Vehicle Administrators (AAMVA) to develop a system for the transmission 
of biographical data to TSA for use in the security threat assessment 
process, and the subsequent results notification to the appropriate 
State and Federal authorities. Initial information related to this 
initiative has already been provided to the States. Additional 
information related to this aspect of the program will be provided to 
the States through their POC.
    Question. Is funding included in your budget request, or the 
request of any other agency to help states defray the cost of complying 
with Section 1012?
    Answer. TSA has identified limited funding in fiscal year 2004 to 
support some of the necessary infrastructure to support the Hazmat 
Truck Driver Program. However, an effective partnership between the 
Federal Government, the States and industry is both necessary and is 
currently being forged to develop and fund start-up solutions on a 
State-by-State basis. Longer term, the Hazmat Truck Driver Program will 
be fee based and TSA envisions that fees will support the program in 
its entirety. We anticipate working with the States and industry to 
develop the details of a fee rule, which will be published later in CY 
2004.
    Question. When will TSA be ready to accept and process State 
submitted fingerprints of commercial drivers seeking a hazmat 
endorsement?
    Answer. TSA will be ready to accept and process State submitted 
fingerprints no later than January 31, 2005 in accordance with the 
existing final rule. However, we do anticipate a limited number of 
pilot States beginning to submit fingerprints beginning in fiscal year 
2005. Working with these pilot States will allow TSA to apply ``lessons 
learned'' during the pilot to systems and processes associated with the 
submission of fingerprints. We anticipate that this technique will 
facilitate a much smoother start-up for the vast majority of States.
    Question. The budget justification submitted by TSA includes 
detailed information about the numbers and types of items confiscated 
by TSA employees at airport security checkpoints. In the last year, TSA 
has intercepted more than 2.8 million prohibited items and arrested 700 
people. Can you help me put that in context and tell me how many how 
many passenger screenings were performed last year? Also, of the 700 
arrests, how many convictions have there been?
    Answer. TSA performed approximately 500 million passenger 
screenings last year. TSA's records in the period February, 2002-
February, 2004, show that 2,678 individuals were arrested for 
possessing a prohibited item that was discovered at a passenger 
screening checkpoint. The majority of arrests were made by State or 
local law enforcement agencies; only a small number were performed by 
Federal law enforcement authorities. The Department of Justice, along 
with State and local prosecuting authorities, are in a better position 
to ascertain the exact number of convictions.
                                 ______
                                 

           Questions Submitted by Senator Ernest F. Hollings

    Question. The budget for FTE's for full time positions was set at 
220 for the Transportation Security Administration's Maritime and Land 
Division, yet it is my understanding that to date, this Division is 
only operating with 160.
    You have a number of responsibilities, such as conducting criminal 
background checks, that are languishing. What is taking so long in 
hiring the remaining 60 Full Time Employee positions that, I understand 
are budgeted for the Transportation Security Administration's Maritime 
and Land Division but not yet hired?
    Answer. TSA is hiring to the level proposed in the fiscal year 2005 
President's Budget.
    Question. Right now, TSA has absolutely no staffing standards at 
airports. Wait times vary from nothing to hours, depending upon the 
airport. On March 9, 2004 the Washington Post said small airport 
security is no good and that you do not meet the 100 percent screening 
requirements of the law--yet, classified submissions by TSA continue to 
tell us that only a handful of airports have problems.
    You continue to support a cap on screeners, dooming the process to 
fail. When will you put in staffing standards that make senses (e.g., a 
maximum 10 minute wait that Secretary Mineta promised us)?
    Answer. TSA is managing to keep the workforce under the 45,000 FTE 
level by creating a more flexible workforce. TSA is working with air 
carries and airports to improve coordination of airline schedules and 
passenger loads with staffing needs, is increasing the proportion of 
part-time to full-time screeners, and is strategically using its mobile 
national screener force to meet seasonal fluctuations in workload. TSA 
expects to have a part-time screener workforce of close to 20 percent 
by the end of the current fiscal year. Part-time screeners create 
additional operational flexibility when scheduling screeners to satisfy 
varying levels of demand. As a result of reducing excess capacity at 
periods of lower demand, TSA is seeking to make more FTEs available to 
the system as a whole during peak periods.
    Throughout the workforce transformation process, our screeners have 
continued to meet world class standards for effectiveness and customer 
service. They have kept wait time consistent with previous performance 
across the system, while providing a level of courtesy that received an 
86-percent approval rating according to the most recent survey. Despite 
the dynamics in the workload, even during the holiday rush season and 
the recent Orange Threat Level period, our screeners have provided 
world class security and world class service for effectiveness, 
efficiency, and customer satisfaction. TSA is proud of the 
professionalism and dedication that its screeners demonstrate every day 
in the performance of their duties.
    Question. You also committed to putting in explosive detection 
systems--automated systems in line--when will that job be completed?
    Answer. TSA's top priority is security, and consequently, TSA will 
focus its available funds for EDS at those airports that require 
additional funding in order to comply with the requirement to conduct 
screening of all checked baggage using electronic means. Changes to 
passenger throughputs, terminal modifications, and airport expansions 
make fulfilling TSA's goal of 100 percent electronic baggage screening 
a constantly moving target. TSA balances many competing priorities for 
available funds and will continue to review its priorities to maximize 
the utilization of the funds available.
    Question. Airports are seeking long term letters of intent (LOI) 
from you to fund reconstruction for security projects. You gave out 
LOI's to 8 or 10 airports, but there are another 20 or so waiting. How 
much money do you need to get the job done this year? Miami, for 
example, is rebuilding the entire airport--a $4.8 billion project, that 
needs $200 million for security systems, but there is no money in your 
budget to meet that need.
    Answer. TSA continues to use its LOI criteria, based on achieving 
and maintaining compliance with the 100 percent electronic screening 
requirement at all airports, to determine where resources will be 
allocated. TSA is working with airports that will not be able to 
maintain compliance with the 100 percent electronic screening 
requirement because of increased passenger loads, increased and/or 
additional air carrier service, and/or airport terminal modifications 
and expansions. The President's Budget for fiscal year 2005 supports 
previously issued LOIs for 9 airports, and assumes a 75/25 cost share 
formula as set forth in the Consolidated Appropriations Resolution, 
2003. TSA also continues to evaluate situations where an in-line 
solution makes sense from the standpoint of security, efficiency, and 
reduced staffing needs.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

    Question. A recent GAO study concluded that the Computer-Assisted 
Passenger Prescreening System, or CAPPS II, is not ready for prime 
time. According to the report: ``The system as it currently exists 
offers only limited functionality in a simulated environment.'' I am 
concerned that the program's weaknesses may limit its effectiveness and 
it lacks sufficient protections for the civil liberties of ordinary, 
law-abiding travelers. I am also concerned by reports that the 
administration plans to force the airlines to hand over passenger data.
    Since I understand TSA plans to launch CAPPS II later this year and 
has requested a total of $60 million in fiscal year 2005 for further 
development of CAPPS II, I would like to know the following:
    How much has been spent by TSA on CAPPS II development in each 
fiscal year so far?
    Answer. Commitments/obligations on CAPPS II development to date 
(April 26, 2004) are as follows:

                        [In millions of dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
Fiscal year 2002 & 2003.................................            58.4
Fiscal year 2004 (to date)..............................            28.1
                                                         ---------------
      TOTAL.............................................            86.5
------------------------------------------------------------------------

    Question. How exactly does TSA plan to spend the additional $60 
million in the fiscal year 2005 budget request should it be 
appropriated by Congress?
    Answer. TSA intends to spend the $60 million in the following 
manner:

                        [In millions of dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
Facilities leases, Utilities and Maintenance............             3.3
IT and Telecommunication................................             5.2
Infrastructure support (security, FTEs, etc.)...........            10.8
CAPPS II Development and Operations.....................            40.7
------------------------------------------------------------------------

    Question. What is TSA doing to address the shortcomings and 
vulnerabilities of CAPPS II as described in the GAO study and outlined 
in the January 14, 2004, letter Senator Feingold and I sent to 
Secretary Ridge and copied you?
    Answer. As indicated in the GAO report itself, the primary problem 
faced by CAPPS II at the present time is the fact that we have not yet 
been able to begin testing with actual data. The absence of this data 
has hindered our ability to answer each of the answers sufficiently for 
GAO, which uses strict auditing review procedures standards, to certify 
that program development in those areas is complete. We are confident 
that each of the points raised in the GAO report will be answered to 
your satisfaction prior to implementation of the system.
    Question. According to recent reports, the airline industry has 
indicated a willingness to participate in CAPPS II, provided that TSA 
complies with seven privacy principles. Has TSA agreed to these privacy 
principles? If not, please explain.
    Answer. TSA has no disagreement with the seven Passenger Privacy 
Principles recently released by the Air Transport Association (ATA). 
The principles are consistent with the Fair Information Principles that 
TSA used to develop its privacy management program for CAPPS II and the 
building block for the agency's privacy policies and practices.
    Question. Presidential Directive 63 called for the creation of 
private sector Information Sharing and Analysis Centers to protect our 
critical infrastructures from terrorist attack. At the request of the 
U.S. Department of Transportation, the Surface Transportation 
Information Sharing and Analysis Center (ST-ISAC) was formed. The ST-
ISAC collects, analyzes, and distributes critical security and threat 
information from worldwide resources to protect its members' vital 
information and information technology systems from attack.
    Right now this valuable information is only available to paying 
members of the ST-ISAC. With the TSA seeking an $892 million funding 
increase for fiscal year 2005, why was funding not included in the TSA 
request to make the ST-ISAC information available to all public transit 
operators across the country--especially since most cannot afford new 
equipment and operators much less afford to subscribe to the ST-ISAC?
    Answer. DHS and TSA utilize numerous avenues for distributing and 
receiving information for the various transportation sectors. TSA's 
Transportation Security Operations Center (TSOC) receives information 
from ISACs as well as from multiple other sources. We provide 
information to the ISACs for distribution to their members since they 
have established communication methods with their members. 
Additionally, TSA is committed to establishing effective lines of 
communication to all stakeholders regardless of their membership with 
any particular ISAC. TSA is developing contacts lists for all of the 
non-ISAC stakeholders. As envisioned, all stakeholders would have 
access to general information. Specific persons would have access to 
sensitive information, provided they have signed non-disclosure 
agreements.
    Question. It has been reported that the Federal Government is 
spending $4.5 billion on aviation security this year but only $65 
million on rail security--even though 5 times more people take trains 
everyday than planes. The catastrophic Madrid bombings reflect that 
this reality is fraught with severe risks.
    Senator Hollings introduced a bill last week to allot $515 million 
for risk assessments and security improvements for our Nation's rail 
system. Unfortunately, he has introduced the bill twice before and it 
has gone nowhere.
    Last year a survey of transit agencies by the American Public 
Transportation Association (APTA) identified some $6 billion in unmet 
security needs that remain today.
    What is TSA's position on the $6 billion in unmet security needs 
described by APTA? And what does TSA expect to do to address those 
needs?
    Answer. Ensuring that our nation's transportation systems are 
secure must be accomplished through effective partnering between 
appropriate Federal, State, local and private industry entities. DHS is 
charged with responsibility for working to protect all modes of 
transportation, but it has consistently held that that this 
responsibility must be shared with Federal, State, local and private 
industry partners, many of whom were already in the business of 
providing security for their particular piece of the transportation 
puzzle. TSA's main charge, both under ATSA and now as part of the DHS 
family, is to help coordinate these efforts under the guidance of the 
Secretary and the Under Secretary for Border and Transportation 
Security, identifying gaps and working with appropriate partners to 
ensure that existing security gaps are filled.
    Recognizing this, the Department of Homeland Security (DHS) has 
requested substantial resources in fiscal year 2005 across the agencies 
within the Department involved with securing transportation modes other 
than aviation, including resources in the Coast Guard and CBP for ports 
and maritime security; in Customs and Border Protection (CBP) for cargo 
security; in Information Analysis and Infrastructure Protection (IAIP) 
for vulnerability assessments, intelligence, and infrastructure 
protection for all sectors including transportation; and in Emergency 
Preparedness & Response (EP&R) for emergency response to only name a 
few. In addition to working with other DHS components, TSA works 
closely with our sister Federal agencies outside of DHS to ensure that 
all government resources are maximized. For example, under the 
leadership of BTS and DHS, TSA is coordinating key standards-setting 
efforts in areas such as transit and rail security, and is working 
closely with modal administrations of the Department of Transportation 
to help leverage their existing resources and security efforts to 
accomplish security goals.
    Specifically, funds provided for transit and rail security in 
fiscal year 2003 and fiscal year 2004 total $215 million--$115 for 
transit security grants under the Urban Area Security Program, and $100 
million for upgrades to rail tunnels in the Northeast Corridor.
    Question. As you may know, law enforcement officials from New 
England and New York have been national leaders in establishing an 
initiative for cargo container security called Operation Safe Commerce 
Northeast (OSC Northeast.) OSC Northeast represents a comprehensive 
coalition of Federal agencies, State governments, and private sector 
businesses committed to the concept of enhancing border and 
international transportation security without impeding free trade and 
international commerce.
    The economy will face a grave disruption should a catastrophic 
event occur related to international trade corridors. We are very 
vulnerable along our Northern Border, and the OSC Northeast group would 
enhance the safety of cargo entering the United States through New 
England and Canadian ports. Therefore, I believe the TSA should better 
engage and utilize the resources of OSC Northeast.
    In light of administration's budget proposal to cut in half the $58 
million Operation Safe Commerce program--citing $28 million in unspent 
funds already approved by Congress for the program that may be 
redirected to overspending in other areas of TSA:
    Will TSA use some of these funds to expand the program to OSC 
Northeast since there are no restrictions on aiding just three ports in 
the second round of appropriations?
    Answer. First, it is important to note that TSA's final spend plan 
submission for fiscal year 2003 included all $58 million earmarked for 
Operation Safe Commerce. OSC Northeast was eligible to apply for OSC 
fiscal year 2002-03 funding through any of the three Load Centers, 
including the Port Authority of New York and New Jersey, but did not do 
so. OSC Northeast did apply for a port security grant, but its 
application was not selected. The OSC program is nearing completion. We 
expect to assess results starting this summer.
    Question. What steps are TSA taking to incorporate the efforts of 
OSC Northeast into our national port security strategy?
    Answer. The OSC Executive Steering Committee carefully reviewed the 
OSC Northeast report of November 2002. The review had a significant 
impact in guiding the current OSC efforts, including examination of 
security throughout entire supply chains, use of a systematic approach 
to container security (including multimodal activities), coordination 
with related initiatives, examination of costs and benefits of the 
selected solutions and the need for solutions to work for all modes of 
transportation.
                                 ______
                                 

                Question Submitted by Senator Harry Reid

               HAZARDOUS MATERIAL TRANSPORTATION FUNDING

    Question. Admiral Stone, the fiscal year 2004 Homeland Security 
appropriations law included $7 million for a hazardous material truck 
tracking program. The University of Nevada, Las Vegas is working with a 
national leader in truck tracking to establish a national center to 
track commercial trucks carrying hazardous material and has submitted a 
proposal to use a portion of this funding. When can we expect to hear 
about the allocation of the $7 million?
    Answer. The Transportation Security Administration (TSA) expects to 
solicit proposals on a competitive basis for the truck tracking 
initiative in the summer of 2004. All interested parties will be 
invited to submit proposals in response to this announcement.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Admiral Collins and Admiral Stone, we 
appreciate very much your cooperation with our subcommittee. 
Our next hearing on the budget request for the Department of 
Homeland Security will be held on Tuesday, March 30, in this 
room, SD-124. At that time, the Commissioner of the Bureau of 
Customs and Border Protection, Robert Bonner; the Assistant 
Secretary of the Bureau of Immigration and Customs Enforcement, 
Michael Garcia; and the Director of the Bureau of Citizenship 
and Immigration Services, Eduardo Aguirre, will be here to 
discuss the budget for the programs and activities under their 
jurisdiction. Until then, the subcommittee stands in recess.
    [Whereupon, at 12 noon, Tuesday, March 23, the subcommittee 
was recessed, to reconvene at 10 a.m., Tuesday, March 30.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        TUESDAY, MARCH 30, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Shelby, Byrd, Leahy, 
and Murray.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENTS OF:
        EDUARDO AGUIRRE, JR., DIRECTOR, U.S. CITIZENSHIP AND 
            IMMIGRATION SERVICES
        ROBERT C. BONNER, COMMISSIONER, BUREAU OF CUSTOMS AND BORDER 
            PROTECTION
        MICHAEL J. GARCIA, ASSISTANT SECRETARY, BUREAU OF IMMIGRATION 
            AND CUSTOMS ENFORCEMENT

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The hearing will please come to order. 
Today we continue our review of the President's fiscal year 
2005 budget request for the Department of Homeland Security. We 
will specifically consider the request for programs and 
activities of three of the department's agencies: Citizenship 
and Immigration Services, Customs and Border Protection, and 
Immigration and Customs Enforcement.
    I am pleased to welcome the Director of Citizenship and 
Immigration Services, Mr. Eduardo Aguirre; the Commissioner of 
the Bureau of Customs and Border Protection, Mr. Robert Bonner; 
and the Assistant Secretary of the Bureau of Immigration and 
Customs Enforcement, Mr. Michael Garcia. We thank you for 
submitting copies of your statements in advance of the hearing. 
These will be made a part of the record. And we invite you each 
to make any comments you think would be helpful to the 
committee's understanding of the budget request.
    Before asking the witnesses to proceed, however, I am happy 
to yield to Senator Byrd and other Senators who may wish to 
make opening statements.
    Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you, Mr. Chairman, comrades on the 
committee. You see, I am ahead of everybody else on the Hill. 
Fifty-one years on the Hill entitles me to call my friends here 
``comrades.''
    Welcome to our distinguished witnesses. The men and women 
under your direction have a great impact on the safety of 
American citizens, as well as visitors to our country. 
Secretary Ridge has promoted the concept of one face at the 
border. And I support that concept. However, I remain concerned 
that there are real vulnerabilities facing us Nation that 
require immediate response.
    Last December, Secretary Ridge said, ``The strategic 
indicators, including al-Qaeda's continued desire to carry out 
attacks against our homeland, are perhaps greater now than at 
any point since September 11.'' On March 11, terrorists armed 
with backpacks filled with explosives coordinated an attack 
that resulted in the deaths of nearly 200 people in Madrid. I 
would expect that the administration would anticipate these 
kinds of threats and address such threats with a robust 
defense.

                    REVIEW OF THE PRESIDENT'S BUDGET

    Yet, as I review the administration's budget, America's 
defense is far too reliant on paper, on studies, and on 
reports, rather than on the layered defense that the President 
and the Secretary often describe in their homeland security 
speeches. Let me just give a few examples.
    Nearly 9 million commercial containers are brought into 
this country each year through our ports. Yet, only 5 percent 
of them are inspected. We have all heard these figures time and 
time again.
    On January 5, 2004, the new visa tracking system, known as 
US VISIT, began operation at 115 airports and 14 seaports. 
Customs and Border Protection inspectors are collecting data on 
visitors entering our country, but the Bush Administration 
still has no clear plan for confirming who is exiting the 
United States. We have no way of knowing whether aliens, who 
are supposed to have left the country, have in fact left the 
country.
    At the same time, we need to ensure that sufficient funds 
are provided to integrate the various existing biometric 
databases. We need to make sure that the US VISIT system and 
the Border Patrol IDENT system are compatible with the FBI's 
Integrated Automated Fingerprint Identification System. At our 
March 9 hearing, Secretary Hutchinson attempted to address this 
issue, but I believe that he fell short in his response.

                      NEED FOR INTEGRATED SYSTEMS

    We need to have integrated systems that can talk to each 
other. We must know whether an alien trying to come into this 
country, or already in this country, has a criminal history. By 
integrating these systems, CBP would know if an alien is a 
security risk and could refuse him entry into the country, or 
remove him from the country, or imprison him. We simply cannot 
be satisfied with the incompatible systems that result in 
murderers and other criminals walking through holes in our 
border security.

                     SHORTCOMINGS IN BUDGET REQUEST

    The Federal Air Marshal Service does not have sufficient 
resources this year to maintain the number of air marshals on 
targeted domestic and international flights. And because the 
Administration has proposed no increase for next year, a bad 
problem could become even worse next year.
    The President has proposed a sweeping amnesty for people 
already residing illegally in this country. Yet, the 
President's budget request includes only modest increases for 
programs that attempt to cope with our growing illegal alien 
population, and provides insufficient funds to robustly enforce 
our existing immigration laws. When I inquired of Secretary 
Ridge just how he would pay to implement the President's 
amnesty program, he could not provide an answer.
    I want to make sure that this subcommittee and this 
Congress provide real homeland security to the American people, 
not just assurances on paper. The President stubbornly has told 
this agency not to seek supplemental appropriations this year. 
Just last week we learned that, more than a year after setting 
up the new department, there still is not a complete accounting 
of the funds which have been made available for the operation 
of your agencies.

                             HIRING FREEZES

    The department has imposed hiring freezes so that the 
department's accounts, along with its OMB overseers, can audit 
the books. Air marshals are not being hired. Inspectors at our 
ports of entry and criminal investigators are not being hired. 
We are 6 months into the fiscal year. I simply do not 
understand why the Administration has not proposed a solution 
to this problem. Homeland security cannot wait.

                        THE NATION IS VULNERABLE

    I have never claimed to be the Oracle at Delphi, but there 
are many times these days when I feel like Diogenes. I am 
looking for an honest man. I am seeking someone who can tell 
this President that this Nation is vulnerable and that this 
President leaves us vulnerable for another year.
    Time and again, my colleagues and I have tried to provide 
this department with the additional resources we believe it 
needs to surely provide security to the homeland. And time and 
again, this Administration has stiff-armed our efforts, 
labeling amendments for border security, port security, air 
cargo security, and rail security as wasteful spending.

                        ALLEGED BUDGET SHORTFALL

    I hope we can get to the bottom of this alleged budget 
shortfall for the department quickly. It is a problem not of 
Congress's making. I will be discussing many of these issues. I 
appreciate the fine work of our witnesses and the courageous 
men and women who work for you. I look forward to hearing from 
you.
    Thank you, Mr. Chairman.
    Senator Cochran. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman. I could not help 
but think as I listened to both your statement and to Senator 
Byrd's statement, that the witnesses before us this morning all 
bear great responsibility for keeping our Nation secure. All 
three of you do. And we all thank you for your service.

                     HIRING FREEZES FOR ICE AND CBP

    But when we come together here today, I am concerned about 
the hiring freeze that is in place in part or in all of your 
agencies. I understand that the Bureau of Immigration and 
Customs Enforcement, ICE, the Bureau of Customs and Border 
Protection, CBP, are facing a budget shortfall of more than 12 
percent. It is really inexcusable to hear about a hiring freeze 
in critical national security agencies, especially after the 
administration has so stridently opposed efforts by Senator 
Byrd and others, many others, in Congress to make homeland 
security the priority that it needs in the national budget.
    We know full well that the administration budget's 
priorities ultimately is the White House prerogative and not 
yours. My criticism is not directed at you. But this morning 
the American people need to hear an explanation how this could 
have happened and what this freeze will mean to the missions of 
your agencies and what is being done in the meantime to protect 
the security of the American people.
    We ask these questions because, as Senator Byrd has pointed 
out so many times, under the Constitution the question of 
spending starts here in the Congress, not on the other end of 
Pennsylvania Avenue. We hold the purse strings.

         LAW ENFORCEMENT TRAINING CENTER IN WILLISTON, VERMONT

    Now I am glad that ICE is making increased use of the Law 
Enforcement Support Center, LESC, in Williston, Vermont. For 
years the LESC has done an excellent job of providing 
information to State and local police departments throughout 
the Nation regarding the immigration status and identities of 
aliens suspected, arrested, or convicted of criminal activity. 
I had the pleasure of joining Mr. Garcia there last summer.
    I recall at one point during the discussion we were talking 
to somebody about that it is open 24 hours, 7 days a week. What 
happened earlier that winter, one time we had a 3-foot snowfall 
overnight. And this got kind of puzzled looks. Well, everybody 
came to work, of course. I mean, what else would they do? It 
was only 3 feet. It kind of screwed up the parking lot, but 
everybody got to work.
    But I think that when it is done, including this work at 
ICE, Operation Predator, designed to catch sex offenders, I 
think that is extremely important. But I am also concerned that 
LESC may not receive the resources its needs to accomplish its 
additional workload. I hope that will be addressed today.

              TRIPS AROUND THE COUNTRY TO VARIOUS OFFICES

    Incidentally, I know all of you make trips around the 
country to the various departments. Those are meaningful. I 
mentioned to Mr. Garcia earlier this morning, when I was coming 
out of mass on Sunday, somebody came up to me and said that 
they were there when he came through and was delighted that he 
actually took time and asked them what they do and how they do 
it, what is involved in their job. I am sure there were a whole 
lot of other people he asked. But this particular person 
remembered this. It was almost a year later.

                      CIS BUDGET REQUEST CONCERNS

    Now turning to Mr. Aguirre's agency, I am concerned about 
the President's proposed budget for Citizenship and Immigration 
Services, CIS.. The budget calls for a 40-percent cut in the 
amount of directly appropriated funds for CIS from the nearly 
$235 million appropriated for the current year. They are 
cutting it, Mr. Chairman, to $140 million for fiscal year 2005.
    Now this cut comes at a time where we are way, way, way far 
from fulfilling the President's own promise to reduce the 
average wait time for applicants for immigration benefits to 6 
months by 2006. It was a great speech. It was a great promise. 
I agree with the President entirely. But after making the 
speech, he did not cut the funds to make sure the promise could 
be realized.
    It also comes at a time when the President has proposed a 
worker program that would significantly increase the CIS 
workload. Yet another great speech, a large Hispanic 
population. But I guess it proved unpopular with some in the 
President's party, so we have not heard more about it. But we 
know it is still floating out there.
    In fact, I wrote to the President in January. I asked him 
to submit a legislative proposal to Congress for implementing 
his plan. He announced it with great fanfare. And I was curious 
just how it is going to be done. We only have a few real 
working days left in the Congress this year, and we have yet to 
receive a response.

                 INCREASE CAP FOR THE H2B VISA PROGRAM

    I would like to raise one other policy issue while Mr. 
Aguirre is here. I hope the CIS and the administration as a 
whole will support bipartisan efforts in Congress to increase 
the cap for the H2B visa program. Your department recently 
announced that the statutory cap for this program has already 
been reached, if I am correct. It is causing tourism-dependent 
businesses across the country to fear they will be unable to 
serve their customers this summer.

                           prepared statement

    I am enjoying with at least 13 of my colleagues, including 
Senator Stevens, the chairman of the full committee, to 
introduce S. 2252, the Save Summer Act of 2004. It would 
increase the cap for the current fiscal year by 40,000. I would 
urge the administration to support it.
    Mr. Chairman, I look forward to the testimony. I thank you 
for your usual courtesy and giving me a chance to make a 
comment.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    The witnesses before us this morning all bear great responsibility 
for keeping our Nation secure, and we thank you for your service. Yet 
as we come together today, there is a hiring freeze in place at all or 
part of each of your agencies.
    I understand that the Bureau of Immigration and Customs Enforcement 
(ICE) and the Bureau of Customs and Border Protection (BCBP) are facing 
a budget shortfall of more than 12 percent. It is outrageous to hear 
about a hiring freeze in critical national security agencies after the 
Bush Administration has so stridently opposed attempts by the Ranking 
Member and many, many others in Congress to make homeland security the 
priority that it needs to be in the national budget. We know full well 
that setting the Administration's budget priorities ultimately is the 
White House's prerogative, and not yours. But this morning the American 
people need to hear an explanation of how this could have happened, 
what this freeze will mean to the missions of your agencies, and what 
is being done in the meantime to protect the security of the American 
people.
    Meanwhile, I am glad that ICE is making increased use of the Law 
Enforcement Support Center (LESC), in Williston, Vermont. For years, 
the LESC has done an excellent job of providing information to state 
and local police departments throughout the nation, regarding the 
immigration status and identities of aliens suspected, arrested, or 
convicted of criminal activity. I had the pleasure of joining Mr. 
Garcia last summer at the LESC to announce an expansion of its role, 
including its work in ICE's Operation Predator, designed to catch sex 
offenders. At the same time, I am concerned that the LESC may not 
receive the resources it needs to accomplish its additional workload. I 
hope that Mr. Garcia will address those concerns today.
    Turning to Mr. Aguirre's agency, I am concerned about the 
President's proposed budget for Citizenship and Immigration Services 
(CIS). The budget calls for a 40 percent cut in the amount of directly 
appropriated funds for CIS, from the nearly $235 million appropriated 
for the current year, to $140 million for fiscal year 2005. This cut 
comes at a time when we are still far from fulfilling the President's 
promise to reduce the average wait time for applicants for immigration 
benefits to 6 months by 2006. It also comes at a time when the 
President has proposed a guest worker program that would significantly 
increase the CIS workload. Of course, the guest worker program may have 
simply fallen off the President's radar screen now that it has proven 
unpopular with some in his party. I wrote to the President in January 
and asked him to submit a legislative proposal to Congress for 
implementing his plan. Despite the ever-shrinking legislative year 
ahead of us, I have still not received a response.
    I would like to raise one other policy issue with Mr. Aguirre while 
he is here. I hope that CIS and the Administration as a whole will 
support bipartisan efforts in Congress to increase the cap for the H-2B 
visa program. Your department recently announced that the statutory cap 
for this program had already been reached, causing tourism-dependent 
businesses across the country to fear they will be unable to serve 
their customers this summer. I have joined with at least 13 of my 
colleagues--including the Chairman of the full committee--to introduce 
S. 2252, the Save Summer Act of 2004. This bill would increase the cap 
for the current fiscal year by 40,000. It is a necessary response to a 
critical and unexpected problem, and I urge the Administration to 
support it.
    I look forward to hearing your testimony.

    Senator Cochran. Thank you, Senator.
    Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman.
    First, Mr. Secretary, let me thank you for the bureau's 
efforts to stop the exploitation of children. I have worked 
with you and your predecessors for many years to ensure that 
the people that would take advantage of and seek to prosper 
from the exploitation of children are prosecuted to the fullest 
extent of the law. I remain committed to working with you to 
eliminate the threat to our children.
    In addition, I know you have been working with our partners 
at the National Center for Missing and Exploited Children. Let 
me encourage you to maintain that partnership. I think it has 
been very valuable and it works. The center is an invaluable 
asset, I think, in our quest to protect our children in 
America.

                           OPERATION PREDATOR

    I understand that Operation Predator is underway. And 
Senator Leahy alluded to that. I am interested in its progress 
and what the funding requirements are to maintain this 
important program in 2005. I am also interested in learning of 
any additional programs that are dedicated to eliminating 
crimes against children, I would appreciate it if you would 
take the time to go over some of these in your testimony or 
questions.

         NUMBER OF ILLEGAL ALIENS RESIDING IN THE UNITED STATES

    Among your many goals here is the charge to secure our 
borders, Mr. Director, and to control illegal immigration. I am 
told that the most current estimates place the number of 
illegal aliens in our country at over 8 million. I believe it 
is much more than that.
    Gentlemen, what is your best estimate on the number of 
illegal aliens currently residing in this country? How many new 
illegal aliens entered the country last year? Is that an 
increase or a decrease from the previous year? I fear that it 
is an increase. If we are so uncertain about the numbers, does 
that not seem to indicate that we are not doing enough to 
secure our borders and our homeland?

                               OVERSTAYS

    Another major problem with our immigration system is the 
fact that many of these people currently counted as illegals 
actually entered the country legally, but have overstayed their 
visas. Do you have any recent numbers on visa overstays, given 
that this makes up a large part of our illegal population?
    Next, what is your agency doing right now, and what are you 
planning to do in the future, to ensure that this does not 
continue to be a problem? That is, they get a visa, they come 
in, they do not go back, and you do not know where they are. 
There must be a way to keep track of these folks.

       STEMMING THE FLOW OF ILLEGAL ALIENS INTO THE UNITED STATES

    I spent this past week conducting county meetings all over 
the State of Alabama, my State. Without fail, at every meeting 
I was asked what the Federal Government was doing to stem the 
flow of illegal aliens into the United States. Unfortunately, 
my answer to them was, ``obviously not enough.''
    What is the directorate doing to make our borders more 
secure and eliminate the influx of illegal aliens in this 
country? How many aliens have been detained and deported in the 
last year? I am asking these questions, and I hope you will 
touch on all of them.
    If a Mexican citizen looking for work can pay a fee to a 
coyote to traverse our border, what is to keep terrorists that 
will do us harm from doing the same thing? I have been told 
many times, and I believe it, that rewarding bad behavior only 
encourages more bad behavior. We learn that as children. 
Currently, if you break the law entering the United States, you 
get a job. Now that is not what the law provides, but it sure 
seems to be what is happening.
    I have serious concerns about the ramification of proposals 
that sound a lot like the amnesty of 1986. If the current 
proposals are put into effect, the criminal would not only get 
a job, but social security and welfare benefits as well. I have 
been told that the rate of illegal immigration actually 
increased after the 1986 amnesty. Is there any truth to that 
statement? Would you agree that we spend too much time and 
money on the vetting process for those following the paths to 
legal immigration, and not enough trying to catch those people 
who are willing to break the law and pay $50 to be at work in 
the States in a couple of days. What are we going to do, or 
what are you going to do, to rectify the problem?
    I know I have posed a number of questions here in a short 
time. And I hope you will address them.
    Mr. Chairman, thank you.
    Senator Cochran. Thank you, Senator.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman. I want to join all 
of my colleagues in welcoming our witnesses today. You have a 
tremendous task before you. And I want to thank you for your 
service.

             $1.2 BILLION SHORTFALL CAUSE OF HIRING FREEZE

    I became increasingly concerned about the level of the 
President's budget request when I read that, according to the 
Wall Street Journal, a $1.2 billion shortfall has caused a 
hiring freeze within your agency. So I hope your testimony will 
clear up whether that is actually a computer glitch or an 
accounting error resulting from combing budgets from legal 
agencies or a real budget shortfall that this subcommittee will 
need to deal with.

                  SECURING LAND AND SEAPORTS-OF-ENTRY

    Mr. Chairman, my questions today will focus on the 
administration's plan for securing our ports of entry, both on 
land and our seaports. As we all know, many experts in the 
security arena, including some in your own department, have 
said that securing cargo coming into this country should be one 
of our Nation's highest priorities. I could not agree more. We 
absolutely need a coordinated plan for a nationwide cargo 
security regime.

                              TURF BATTLES

    However, I have been very disappointed with the turf 
battles that have been going on between Customs, TSA, and the 
Coast Guard as to who is in charge of cargo security. So I will 
want to explore with Commissioner Bonner how he plans on 
working under Secretary Hutchinson to implement each of the 
Department of Homeland Security's port and security programs 
into one coordinate regime.

                            CUSTOMS OFFICERS

    I am also interested to hear how our Customs and Border 
Protection (CBP) officers are being received overseas and the 
level of cooperation foreign customs agents are provided within 
programs like CSI and C-TPAT. I will also have questions about 
the implementation of security technology, such as radiation 
portal monitors at our ports of entry.
    Mr. Chairman, as always, I look forward to an informative 
hearing. I will have more specific topics to discuss with our 
witnesses during the question and answer period.
    Thank you very much.
    Senator Cochran. Thank you, Senator.
    Senator Stevens.
    Senator Stevens. Mr. Chairman, thank you very much. I have 
come to hear the testimony. No questions.
    Senator Cochran. Thank you very much, Senator.
    We are now ready to proceed. Mr. Aguirre, we will be glad 
to hear from you any opening statement that you have or 
comments in explanation of the President's budget request for 
your agency.

                   STATEMENT OF EDUARDO AGUIRRE, JR.

    Mr. Aguirre. Good morning, Chairman Cochran and Ranking 
Member Byrd and members of the subcommittee. My name is Eduardo 
Aguirre. And I have the honor of serving as the first Director 
of the U.S. Citizenship and Immigration Services within the 
Department of Homeland Security.
    In previous congressional testimony, I have shared my story 
of having arrived to the United States as a 15-year-old 
unaccompanied minor from Cuba. My parents sent me here to 
escape a repressive regime and to experience the freedoms and 
opportunities found only in America. I became a product of the 
legal immigration track, the very system that I am now charged 
with fundamentally transforming.
    We are a welcoming . And hard work and patriotism of our 
immigrants has made our Nation prosperous. We seek to continue 
to improve the administration of immigration benefits for the 
more than 6 million applicants who legally petition USCIS every 
year. Last year, upon creation of the USCIS, a team of 15,000 
and I embraced a simple but imperative mission, making certain 
that the right applicant receives the right benefit in the 
right amount of time or preventing the wrong individuals from 
obtaining our benefits.

                            THREE PRIORITIES

    We established three priorities that guide every aspect of 
our work: Eliminating the immigration benefit application 
backlog, improving customer service, while enhancing national 
security. As we mark our institutional 1-year anniversary, I am 
particularly pleased with the progress we have made and the 
professionalism exhibited by our employees day in and day out, 
while mitigating security threats that we know to be real and 
relentless.

                        ACCOMPLISHMENTS TO DATE

    To date, we have initiated online options for two 
application types, as well as case status updates. And we will 
be adding six more applications in May, which will account for 
over 50 percent of our work. We have established the Office of 
Citizenship. We have eliminated lines at some of our highest 
volume offices, and much more.
    USCIS is one of the largest fee-funded agencies in the 
Federal Government, charging fees from a variety of benefits 
from individuals seeking to enter, reside, or work in the 
United States. Therefore, the actual cash flow for our business 
operations vary from year to year with the number of 
immigration benefit applications received.

                           BACKLOG REDUCTION

    Mr. Chairman, as you know too well, backlogs from 
immigration benefit applications began to grow during the 
1990s, seeing an overall 77-percent increase from fiscal year 
1993 to fiscal year 2001. Beginning with fiscal year 2002, 
President Bush pledged and the Congress supported a multi-year 
$500 million initiative to attain the universal 6-month 
processing time standard by fiscal year 2006 for all 
immigration benefit applications while providing quality 
service to all customers.
    The President's fiscal year 2005 budget request seeks an 
additional $60 million in appropriated funds to boost the total 
dedicated to backlog reduction efforts to $160 million. The 
overall budget request for USCIS is $1.711 billion, which is 
$140 million in discretionary appropriated funds and $1.571 
billion in fees.
    The old INS developed a comprehensive backlog elimination 
plan prior to September 11, 2001, to achieve this goal. And we 
initially realized significant improvements in fiscal year 
2002. Processing times for applications averaged by type 
between 3 and 72 months. By the end of the year, these same 
averages were reduced to between 1 and 26 months. However, as 
we all know, September 11, 2001, profoundly affected our 
business operations, employees, and stakeholders. New guidance 
was issued. Security background checks were enhanced. And new 
processes were implemented. Already, many applications were 
subject to fingerprint and background checks. The enhanced 
checks instituted in July 2002 represents an additional set of 
name checks against a variety of workout databases housed in 
the Interagency Border Inspection System, which is also called 
IBIS.

                            SECURITY CHECKS

    Approximately 35 million security checks were performed 
last year by our agency. This change in the way we process 
immigration benefit applications has meant higher processing 
costs for USCIS. We make no apologies for our commitment to the 
integrity of the immigration system. And we will not cut a 
single corner or compromise security to process an application 
more quickly. We are making America safer against security and 
criminal threats one background check at a time.

                         SECURITY ENHANCEMENTS

    To ensure that our backlog does not increase further, we 
are currently seeking to adjust our fee schedule through the 
regulatory process by recovering costs associated with 
comprehensive security enhancements instituted after September 
11, 2001. The cost of these security enhancements is about $140 
million annually or $21 per application.

                             NEW PRIORITIES

    The fee adjustments will also support new priorities, such 
as establishing a refugee corps and establishing the new Office 
of Citizenship. In addition, USCIS will develop study materials 
and teaching guides to ensure that the process of preparing for 
naturalization is more meaningful, as well as developing 
standardized testing procedures.
    We fully realize that increased funding along will not 
enable us to realize our goals. We are taking a hard look at 
the way we currently conduct our business. We are aggressively 
working to modernize our systems and increase our capacity 
through the reengineering of processes to include developing 
mechanisms to interact with customers in a more forward-
reaching manner.

                      NEW BACKLOG ELIMINATION PLAN

    We are now in the process of finalizing a new backlog 
elimination plan that will outline changes to our business 
processes and which will set forth our revitalized mission of 
delivering immigration service in the future.

                        TEMPORARY WORKER PROGRAM

    On January 7, as has been mentioned here before, President 
Bush courageously confronted a broken system, one that has been 
ignored for too long. From the East Room of the White House, he 
called for Congress to deliver true reform and a new temporary 
worker program that facilitates economic growth, enhances 
national security, and promotes compassion. Many have asked how 
USCIS would implement its part of the President's temporary 
worker program should Congress pass the legislation.
    One of the principles of the President's proposed program 
is that it should be simple and user friendly, thus one that 
can be effectively administered. The President's proposal calls 
for aliens present in the United States as of January 7, 2004, 
to pay a processing fee upon enrolling in the program. USCIS 
anticipates recovering the cost of processing the applications 
through collections of a processing fee, as it is done 
currently with most immigration applications. The processing 
fee will be set based on a full cost recovery.

                           prepared statement

    Mr. Chairman, this concludes my prepared remarks. Thank you 
for your invitation to testify before this committee. And I 
look forward to your questions.
    [The statement follows:]

              Prepared Statement of Eduardo Aguirre, Jr.,

    Good afternoon Chairman Cochran, Ranking Member Byrd and Members of 
the Subcommittee. My name is Eduardo Aguirre and I have the honor of 
serving as the first Director of U.S. Citizenship and Immigration 
Services, within the Department of Homeland Security.
    We are a welcoming Nation, and the hard work and patriotism of our 
immigrants has made our Nation prosperous. We seek to continue to 
improve the administration of immigration benefits for the more than 
six million applicants who petition USCIS on an annual basis.
    We continue to commit ourselves to building and maintaining an 
immigration services system that provides information and benefits in a 
timely, accurate, consistent, courteous, and professional manner; while 
preventing ineligible individuals from receiving benefits. Put more 
simply, it is our job to make certain that the right applicant receives 
the right benefit in the right amount of time, while preventing the 
wrong individuals from obtaining our benefits.
    USCIS is one of the largest fee-funded agencies in the Federal 
government--charging fees for a variety of benefits from individuals 
seeking to enter, reside, or work in the United States. Therefore, the 
actual cash flow for our business operations, including a network of 
250 local offices, Application Support Centers, Service Centers, Asylum 
Offices, National Customer Service Call (NCSC) Centers, Forms Centers, 
and Internet portals, varies from year to year with the number of 
immigration benefit applications received.
    In any typical work day, our workforce of 15,500 (one-third of whom 
are contractors) will:
  --Process 140,000 national security background checks;
  --Receive 100,000 web hits;
  --Take 50,000 calls at our Customer Service Centers;
  --Adjudicate 30,000 applications for immigration benefits;
  --See 25,000 visitors at 92 field offices;
  --Issue 20,000 green cards; and
  --Capture 8,000 sets of fingerprints and digital photos at 130 
        Application Support Centers.
    USCIS has established three priorities: (1) eliminating the 
immigration benefit application backlog, (2) improving customer 
service, while (3) enhancing national security. In our first year of 
operation we have: initiated on-line options for a few application 
filings and case status updates; established the Office of Citizenship; 
eliminated lines at some of our highest volume offices; introduced a 
toll-free customer service help line; streamlined the Certificate of 
Citizenship process for internationally adopted children; developed a 
more secure travel document for permanent residents; and fleshed out 
our leadership team.
    Backlogs of immigration benefit applications began to grow during 
the 1990s. Overall, there was a 77 percent increase from fiscal year 
1993 to fiscal year 2001. The primary factors contributing to the 
backlogs were a dramatic increase in the number of applications and 
petitions received, delays in securing funding and positions to process 
this increasing number of applications, the lengthy 2 amount of time it 
takes to recruit, hire and train adjudicators, and the lack of a 
comprehensive approach to monitoring, supporting and maintaining timely 
processing.
    Beginning in fiscal year 2002, the President pledged, and the 
Congress supported, a multi-year $500 million initiative to attain a 
universal 6-month processing time standard for all immigration benefit 
applications while providing quality service to all customers. We 
developed a comprehensive Backlog Elimination Plan prior to September 
11, 2001 to achieve this goal. The Plan called for improvements to 
processes and expanded quality assurance efforts designed to achieve a 
high level of performance. We initially realized significant 
improvements. In fiscal year 2002, processing times for applications 
averaged, by type, between 3 and 72 months. By the end of the year, 
these same averages were reduced to between one and 26 months.
    However, September 11, 2001 profoundly affected our business 
operations, employees, and stakeholders. New guidance was issued, 
security background checks were enhanced, and new processes were 
implemented, including conducting interviews for the National Security 
Entry Exit Registration System (NSEERS) Program.\1\ Additionally, since 
July 2002, we formally enhanced our security background checks on the 
processing of all immigration benefit applications to ensure that those 
who receive immigration benefits have come to join the people of the 
United States in building a better society and not to do us harm.
---------------------------------------------------------------------------
    \1\ Program transferred to BTS in November of 2003.
---------------------------------------------------------------------------
    The process of performing enhanced security checks has been 
designed to compare information on applicants, and other beneficiaries 
as appropriate, who apply for an immigration benefit against various 
Federal lookout systems. The enhanced check instituted in July 2002 
represents an additional set of name checks against a variety of 
lookout databases housed in the Interagency Border Inspection System 
(IBIS). Already, many applications were subject to fingerprint and 
background checks.
    The purpose of conducting security checks is to help law 
enforcement agencies identify risks to the community and/or to national 
security and to prevent ineligible individuals from obtaining 
immigration benefits. On the vast majority of applications, we perform 
two checks; one when the application is initially received, and one at 
the time of adjudication. Approximately 35 million security checks are 
performed annually.
    In most of these cases (some 97 percent), the checks take only a 
few minutes. In the event of a ``hit'', however, we must hold that 
application without resolution until the security issue at hand is 
resolved. Last fiscal year, we processed a little over six million 
immigration benefit applications. Approximately 7 percent of the 
applications processed resulted in an initial security hit, and after 
further scrutiny, 2 percent resulted in confirmed security or criminal 
threat matches.
    This change in the way we process immigration benefit applications 
has meant higher processing costs for USCIS because the costs of 
performing these checks were not factored into the existing fee 
schedule. As a result, existing resources have been diverted to perform 
the additional security checks until the fees could be adjusted to 
cover these costs. Although the security enhancements have meant longer 
processing times in some categories and a significant growth in the 
application backlog, USCIS has taken the position that security 
absolutely will not be sacrificed in our search for increased 
efficiency. USCIS will continue to coordinate and identify suspected 
benefit fraud cases and refer them to ICE for enforcement action.
    Our intra-government coordination demonstrates that our approach 
realizes the intended results. By way of example, within the last month 
our background check procedures identified individuals wanted for 
murder in Portland and sexual assault in Miami. We are making America 
safer against security and criminal threats, one background check at a 
time.
    I believe that the President's fiscal year 2005 budget will set us 
on the right path toward enhancing immigration services. The budget 
includes a total for USCIS of $1.711 billion, $140 million in 
discretionary appropriated funds and $1.571 billion in fees, and seeks 
an additional $60 million to boost the total dedicated to backlog 
reduction efforts to $160 million. Our overall goal is to achieve a 6-
month processing time standard for all immigration benefit applications 
by fiscal year 2006.
    To ensure that our backlog does not increase further, we are 
currently seeking to adjust our fee schedule through the regulatory 
process by recovering costs associated with comprehensive security 
enhancements instituted after September 11, 2001. The annual cost of 
these security enhancements are about $140 million or about $21 per 
application.
    The fee adjustments will also support new activities such as 
establishing a refugee corps to improve the quality of refugee 
adjudications and establishing the new Office of Citizenship \2\ to 
promote instruction and training on citizenship responsibilities to 
both immigrants and U.S. citizens. The Office of Citizenship is 
developing initiatives to target immigrants at two critical points on 
their journey toward citizenship: when they obtain permanent resident 
status and as they begin the formal naturalization process. In the 
past, the Federal government provided few orientation materials for new 
immigrants. In contrast, CIS will reach out to new immigrants at the 
earliest opportunity to provide them with information and tools they 
need to begin the process of civic integration. In addition, CIS will 
develop study materials and teaching guides to ensure that the process 
of preparing for naturalization is meaningful, so that immigrants who 
choose to become U.S. citizens have a real understanding of the 
commitment they are making when they take the Oath of Allegiance to the 
United States. The establishment of a Refugee Corps will provide a 
strong and effective overseas refugee processing program able to 
fulfill the U.S. Refugee Program's humanitarian objectives and more 
efficiently identify inadmissible persons and those who are of national 
security interest.
---------------------------------------------------------------------------
    \2\ As required by the Homeland Security Act of 2002.
---------------------------------------------------------------------------
    We fully realize that increased funding alone will not enable us to 
realize our goals. We are taking a hard look at the way we currently 
conduct our business. We are aggressively working to modernize our 
systems and increase our capacity through the reengineering of 
processes, the development and implementation of new information 
technology systems, and the development of mechanisms to interact with 
customers in a more forward-reaching manner. For example, USCIS has 
recently eliminated the backlog of applications for the Certificate of 
Citizenship on Behalf of an Adopted Child with a program that 
proactively provides parents the certificate.
    We are now in the process of finalizing a new Backlog Elimination 
Plan that will outline changes to our business processes, and which 
will set forth our revitalized vision of delivering immigration 
services in the future.
    Additionally, we are examining the standard of knowledge in the 
current citizenship test to ensure that prospective and new citizens 
know not only the facts of our Nation's history, but also the ideals 
that have shaped that history.
    The project management team for this initiative recently met with 
over a dozen historians, civics experts, and adult educators to discuss 
the redesign of the U.S. history portion of the naturalization test 
with the goal of making the test more meaningful, substantive, and 
fair. This group is examining the meaning of significant events that 
occurred in our Nation's history, and is exploring ways in which 
naturalization candidates may better retain the significance of these 
events. Recognizing that many Americans have strong beliefs about what 
our new citizens should know about our country, we plan to publish the 
proposed test content in the Federal Register and ask for public 
comment. We believe that many Americans would like to have a say in 
what we are asking our new citizens to learn, and we are eager to hear 
from them. We look forward to briefing you and other Members of 
Congress on our proposed new citizenship test content and receiving 
your feedback, as well.
    In a related effort, this same team is working to redesign the 
current citizenship testing methodology in an effort to ensure more 
uniform results. Currently, a candidate in Los Angeles is, in all 
likelihood, not tested the same way or asked the same questions as a 
candidate taking the same exam on the same day in Boston. Therefore, we 
are developing standardized testing procedures so that applicants can 
be assured that they are experiencing an equitable testing process.
    We do not want to make the test more difficult. We do not want to 
make it less difficult. We want to make it more meaningful in a way 
that does not have an adverse impact on any particular group of 
applicants. Therefore, we will carefully pilot test the revised 
English, history, and government tests before implementing them. And, 
we will continue to consult with our stakeholders to solicit their 
input.
    Our plan is to implement the new test and testing process in 2006. 
Given the importance of the ultimate benefit for those tested--U.S. 
citizenship--this process is not one that can or should be rushed. We 
are committed to improving the current process and to improving it in 
the right way.
    As we celebrate our institutional 1-year anniversary, USCIS has 
stood up an organization of which we are very proud. We have 
established a leadership team, improved many of our operational 
processes, and continue to strive to make further improvements. The 
funding requested in the President's fiscal year 2005 budget request is 
an important factor in continuing to improve the service we can offer 
our customers.
    This concludes my prepared remarks. I thank you for the invitation 
to testify before this committee and I would be happy to answer any 
questions.

    Senator Cochran. Thank you, Mr. Aguirre.
    Mr. Bonner, we will be glad to hear from you now.

               STATEMENT OF COMMISSIONER ROBERT C. BONNER

    Mr. Bonner. Yes, Mr. Chairman. Thank you. Senator Byrd, 
other members of the subcommittee, I am pleased to be here to 
discuss the Customs and Border Protection, or CBP, 2005 budget 
request. Let me just make a couple of observations. First of 
all, one of the most important ideas of the reorganization into 
the Department of Homeland Security was to do, as Secretary 
Ridge put it, create one face at the border, one agency for our 
borders to manage and secure the borders of our country. And 
that started on March 1, 2003, just over a year ago.
    When all of the immigration inspectors of the former INS, 
all the agriculture border inspectors from the Department of 
Agriculture, all of the border patrol agents merged with the 
bulk of the U.S. Customs Service to form the Bureau of Customs 
and Border Protection, an agency within the Department of 
Homeland Security, responsible for managing and securing our 
Nation's borders.
    CBP is the largest and perhaps one of the most profound 
actual mergers of people and functions taking place as a result 
of the Department of Homeland Security reorganization. The 
number of employees in CBP equals about one-fourth of all the 
employees of the Department of Homeland Security. And that is 
not particularly surprising when one considers the importance 
of the security of our borders to the security of our homeland.
    By unifying the border agencies we are, and we will be, 
more effective and more efficient than we were when border 
responsibilities were literally fragmented among four different 
entities or agencies of our government, reporting to three 
different departments of our government, which is the way we 
were organized before March 1, 2003, before the creation of the 
Department of Homeland Security.
    And I will also report to this subcommittee that we have 
made great progress towards successfully completing this 
historic merger.
    In the last year alone, I have selected one port director 
for each and every one of the 300 plus ports of entry to the 
United States. We no longer have two or three different port 
directors for agriculture, immigration, and customs. We have 
one port director at all ports-of-entry into this country.

                             CBP INSPECTORS

    We have provided antiterrorism training for all CBP 
inspectors and equipped all front line inspectors with 
radiation detection devices. We have implemented unified 
primary inspections at our international airports. So for the 
first time, we are performing a primary inspection, not just 
for immigration, but for all purposes, immigration, customs, 
and agriculture purposes. No more running the gauntlet of three 
different agencies when you enter the United States at one of 
our international airports.

INTEGRATION OF PASSENGER ANALYSIS UNITS AND CONSOLIDATED ANTITERRORISM 
                         SECONDARY EXAMINATIONS

    We have integrated our passenger analysis units and 
consolidated our anti-terrorism secondary examinations, so that 
all of our customs and immigration expertise and authorities 
are brought to bear, and are used in identification, 
questioning, and searching of potential terrorists arriving at 
our borders.

  NEW CBP UNIFORM FOR ALL CBP INSPECTORS AND CREATED AN OFFICE OF THE 
                             BORDER PATROL

    We have rolled out a new CBP uniform for all of CBP 
inspectors at our ports of entry. All 19,000 CBP inspectors 
will be in this new uniform by July of this year. And many of 
them already are. And we have integrated the border patrol in 
CBP by creating an Office of the Border Patrol. We have revised 
the border patrol's national strategy to reflect the priority 
mission of CBP and the Department of Homeland Security. And we 
have implemented portions of that by stationing now over 1,000 
border patrol agents at our northern border sectors.

                        PRIORITY MISSION OF CBP

    The priority mission of CBP is preventing terrorists and 
terrorist weapons from entering our country, but we recognize 
that to do that mission we need to carry it out without 
stifling the flow of legitimate trade and travel that is so 
vital to our country's economy and to our way of life. Those do 
not have to be mutually exclusive and we are pursuing smart 
border initiatives to make them mutually reinforcing.
    For example, rather than physically inspecting the 
approximately 23 million containers that arrive by sea, rail, 
and truck into the United States yearly, which would be 
tantamount to closing our borders down and shutting down our 
economy, we have taken measures to identify the high-risk 
containers and inspect them rapidly, using state-of-the-art 
technology when they arrive at our seaports or our land 
borders.
    We are obtaining electronic data on virtually all shipments 
that are coming to the United States. And we are using that 
data in our automated targeting system to identify all 
potentially high-risk containers, particularly for the 
terrorist threat. And we are inspecting all high-risk 
containers for terrorist weapons using our non-intrusive 
inspection technology and our radiation detection technology.

                     CONTAINER SECURITY INITIATIVE

    We are also, though, employing a layer defense which is an 
extended border strategy. And that is through the Container 
Security Initiative. We are pushing our zone of security beyond 
our physical borders by placing our personnel overseas to work 
with other governments to target, identify, and inspect their 
high-risk containers destined for the United States, and 
destined for our seaports before they are loaded aboard vessels 
at foreign seaports.
    I am not going to discuss this chart I put up here but that 
chart indicates in a nutshell that already countries, 38 
foreign ports, have agreed with us to deploy and implement the 
Container Security Initiative. And we have already moved out 
rapidly and have implemented, by stationing our personnel 
overseas as CSI targeters at 18 foreign seaports. And, of 
course, we are not stopping there. We are going to continue to 
expand the container security initiative.

              CUSTOMS TRADE PARTNERSHIP AGAINST TERRORISM

    We also, under the Customs Trade Partnership Against 
Terrorism, we are working with the private sector to increase 
the security of their supply chains, literally from the foreign 
loading docks to our ports of entry into the United States.

                    FISCAL YEAR 2005 BUDGET REQUEST

    Our budget request, Mr. Chairman, for 2005 for program 
increase is $190 million. That includes funding for the 
container security initiative to continue its expansion, 
funding to expand the Customs Trade Partnership Against 
Terrorism. There is some significant funding for radiation 
detection equipment to further expand our portal radiation 
monitors and other detection equipment at our ports of entry 
into the United States to better detect against radiological 
and even nuclear weapons.

                           PREPARED STATEMENT

    There is funding for the enhancements of our automated 
targeting system, as well as for surveillance and sensoring 
technology for the border patrol, and some funding for UAVs to 
deploy and operate Unmanned Aerial Vehicles to better detect 
illegal crossings at our borders.
    So I want to thank you, Mr. Chairman and members of this 
committee, for the support you have given already to Customs 
and Border Protection. And in working together, I am confident 
that we will succeed in better securing our borders against the 
terrorist threat.
    That concludes my statement, Mr. Chairman. And I will 
answer any questions at the appropriate time that you or this 
subcommittee may have.
    [The statement follows:]

                 Prepared Statement of Robert C. Bonner

                       INTRODUCTION AND OVERVIEW

    Chairman Cochran, Ranking Member Byrd, Members of the Subcommittee, 
it is a privilege and an honor to appear before you today to discuss 
Customs and Border Protection's (CBP) fiscal year 2005 budget request.
    I want to begin by expressing my gratitude to the Committee on 
Appropriations for the support it provided for important initiatives 
implemented by CBP last year. That support enabled CBP to make 
significant progress in protecting our country against the terrorist 
threat. I also want to thank Congress for the support it provided in 
creating the new Department of Homeland Security, and the new Customs 
and Border Protection agency within that Department. As the head of 
CBP, I look forward to working with you to build on these successes.
    The priority mission of CBP is to prevent terrorists and terrorist 
weapons from entering the United States. That extraordinarily important 
priority mission means improving security at our physical borders and 
ports of entry, but it also means extending our zone of security beyond 
our physical borders--so that American borders are not the first line 
of defense.
    And we must do this while continuing to perform our traditional 
missions well. These missions include apprehending individuals 
attempting to enter the United States illegally, stemming the flow of 
illegal drugs and other contraband, protecting our agricultural and 
economic interests from harmful pests and diseases, protecting American 
businesses from theft of their intellectual property, regulating and 
facilitating international trade, collecting import duties, and 
enforcing U.S. trade laws. In fiscal year 2003, CBP processed 26.1 
million trade entries, collected $24.7 billion in import duties, seized 
2.2 million pounds of narcotics, and processed 412.8 million 
pedestrians and passengers and 132.2 million conveyances.
    We must perform all of this important security and border-related 
work without stifling the flow of legitimate trade and travel that is 
so important to our nation's economy. In other words, we have ``twin 
goals'': Building more secure and more efficient borders.
    Our total program increase request for fiscal year 2005 is $223 
million. These funds will help CBP fulfill its priority mission of 
preventing terrorists and terrorist weapons from entering the United 
States. As Commissioner, I will also devote needed funds to support the 
automation and information technology programs that will improve 
overall operations of the agency, and I will devote funds to support 
the traditional missions for which CBP is responsible.
    Mr. Chairman, although I will touch on each of these areas in my 
statement, and outline the actions CBP has taken or is planning to take 
in each, I want to point out that in many cases, funds spent in one 
area have a direct and positive impact on other areas. For example, 
funds spent on automation and information technology provide invaluable 
assistance to our priority mission of preventing terrorists and 
terrorist weapons from entering the United States. Also, funds spent on 
our priority mission often result in improvements in our effectiveness 
and efficiency in carrying out our traditional missions, such as 
interdicting narcotics, and vice versa.
    By way of summary of the fiscal year 2005 budget for CBP, I can 
tell you that the program increases we are requesting include:
  --$25 million for the Container Security Initiative, which will 
        support the continued expansion of the program, including the 
        stationing of CBP personnel in additional key international 
        seaports to examine high-risk cargo before it is placed on 
        ships bound for the United States;
  --$15 million for the Customs-Trade Partnership Against Terrorism to 
        increase supply chain security and expedite the clearance of 
        legitimate trade;
  --$50 million for Radiation Detection and Non-Intrusive Inspection 
        Technology to detect weapons of mass destruction;
  --$21 million for Targeting Systems Enhancements to identify high-
        risk travelers and goods for inspection while allowing the vast 
        majority of law abiding travelers and commerce to continue 
        unimpeded;
  --$64 million for Border Patrol Surveillance and Sensor Technology 
        for the expansion of the remote video system along the southern 
        and northern borders to detect illegal crossings and to 
        increase the effectiveness of agents responding to such 
        crossings;
  --$10 million for Unmanned Aerial Vehicles to develop, procure, 
        deploy, and operate a system of unmanned aerial vehicles to 
        support the Border Patrol by detecting and monitoring illegal 
        border crossings; and
  --$5 million to support the International Trade Data System (ITDS) to 
        revolutionize the way international trade data is collected, 
        disseminated, and used.
    In my statement, I will discuss these programs and others that CBP 
has been working on during the past year. I would like to begin, 
though, with a brief update for the Subcommittee on the status of CBP 
after 1 year.

                CUSTOMS AND BORDER PROTECTION AT 1 YEAR

    On March 1st, the Department of Homeland Security celebrated its 1 
year anniversary as a Department. The anniversary marked the successful 
transfer of approximately 42,000 employees from the U.S. Customs 
Service, the Immigration and Naturalization Service, and the Animal and 
Plant Health Inspection Service (APHIS) to the new Customs and Border 
Protection agency in the Department of Homeland Security. CBP is the 
largest actual merger of people and functions within the Department of 
Homeland Security. Indeed, about one-fourth of the personnel of DHS are 
housed within CBP. That is not surprising considering how important the 
security of our borders is to the security of our homeland.

One Face at the Border
    To create CBP, on March 1, we took a substantial portion of U.S. 
Customs and merged that with all of the immigration inspectors and 
Border Patrol from the former INS, and inspectors from the Department 
of Agriculture's APHIS. This means that for the first time in our 
country's history, all agencies of the United States Government with 
significant border responsibilities have been integrated and unified 
into a single Federal agency responsible for managing, controlling and 
securing our Nation's borders.
    At CBP, we are creating, as Secretary Ridge has called it, ``One 
Face at the Border''--one border agency for our country. In the year 
following its creation, CBP has made significant strides toward 
unification. And America is safer and its border are more secure than 
they were when border responsibilities were fragmented in three 
different departments of government, as they were before March 1, 
2003--before the creation of the Department of Homeland Security.
    On March 1, 2003, CBP designated one Port Director at each port of 
entry and put in place a single, unified chain of command. This was the 
first time there has ever been one person at each of our nation's ports 
of entry in charge of all Federal Inspection Services. And in terms of 
an immediate increase in antiterrorism security, on Day One, all 
frontline, primary inspectors at all ports of entry into the United 
States were equipped with radiation detection devices. Since March 1, 
2003, all inspectors have also received antiterrorism training.
    Last year, we began rolling out unified CBP primary inspections at 
international airports around the country, starting with U.S. citizens 
and Lawful Permanent Residents. Unified primary means that the CBP 
inspector in the booth will conduct the primary inspection for all 
purposes--immigration, customs, and agriculture. Launched at Dulles, 
Houston, JFK, Newark, LAX, Atlanta, Miami, San Francisco, unified 
primary is now operational at all major international airports. This is 
a major step forward in eliminating the process of travelers 
potentially having to ``run the gauntlet'' through three separate 
inspection agencies. Although legacy customs and immigration inspectors 
have assumed interchangeable roles at the land border ports of entry 
for years, this is the first time unified primary has been done on a 
national scale at our country's airports.
    Along with unified primary, we have also developed and are 
implementing combined anti-terrorism secondary which leverages the 
expertise and authorities of both legacy customs and immigration to 
conduct a joint secondary inspection of passengers deemed high-risk for 
terrorism. CBP has also begun to coordinate and consolidate our 
passenger analytical units--the units that identify potential high-risk 
travelers for inspection. Again, this brings together the customs and 
immigration experience and authority to more effectively and 
efficiently identify and interdict individuals who pose a possible 
terrorist risk.

Unifying Symbols and the CBP Officer Position
    Since July 2003, we have begun rolling out a new CBP uniform and 
patch for all CBP inspectors at our Nation's ports of entry. It will 
replace the three different customs, agriculture, and immigration 
inspectional uniforms and patches. The new uniform and patch represent 
our most visible unifying symbols to the American public. The new 
uniform is being implemented in four phases. In the first phase, 
completed as of October 1, 2003, all CBP managers and supervisors 
converted to the new uniform. Other CBP uniformed personnel will be 
phased in at various points with implementation scheduled to be 
complete by July of this year.
    All of these actions are helping us unify and become more effective 
as an agency. Perhaps our most significant step toward achieving ``One 
Face at the Border,'' though, was announced by Secretary Ridge on 
September 2, 2003: the rollout of the new ``CBP Officer'' position. As 
of October, 2003, we stopped hiring and training legacy ``immigration'' 
or ``customs'' inspectors and began hiring and training a new group of 
``CBP Officers,'' who will be equipped to handle all CBP primary and 
many of the secondary inspection functions, in both the passenger and 
cargo environments. We are also deploying CBP Agriculture Specialists 
to perform more specialized agricultural inspection functions in both 
these environments.

Integrated Training
    Training is a very important component to the roll out of the CBP 
Officer. We have created a new 14 week, 71-day basic course that 
provides the training necessary to conduct primary processing and to be 
familiar with secondary processing of passengers, merchandise, and 
conveyances in all modes of transport--air, sea, and land. The new CBP 
Officer course was built from the 53-day basic Customs inspector course 
and the 57-day basic Immigration inspector course, with redundancies 
removed, and with additions to address anti-terrorism and CBP's role in 
agriculture inspection. The training also supports the traditional 
missions of the legacy agencies integrated in CBP. Our first CBP 
Officers were hired on September 22, 2003, and they immediately started 
training at the Federal Law Enforcement Training Center (FLETC).

Enhanced Security Between Ports of Entry
    We have also worked very hard to integrate the Border Patrol into 
CBP and simultaneously to improve the security of our country between 
the ports of entry. We have revised and refocused the Border Patrol's 
National Strategy, which had previously been focused on preventing the 
flow of illegal aliens and drugs between ports of entry on our border 
with Mexico. It now includes an aggressive strategy for protecting 
against terrorist penetration, at both our northern and southern 
borders.
    And we have started implementing this Strategy. On 9-11, there were 
only 368 authorized positions for Border Patrol agents for the entire 
northern border. In the last year, we have added almost 500 agents to 
the northern border, giving us more than 1,000 total--exceeding the 
goal I set soon after March 1, 2003. This staffing increase will better 
secure our border against terrorist penetration.
    But we are doing more than just adding staffing. We are adding 
sensors and other technology that assist in detecting illegal crossings 
along both our northern and southern borders, including Remote Video 
Surveillance (RVS) systems. These RVS systems are real-time remotely 
controlled force enhancement camera systems, which provide coverage 
along the northern and southern land borders of the United States, 24 
hours per day, 7 days a week. The RVS system significantly enhances the 
Border Patrol's ability to detect, identify, and respond to border 
intrusions, and it has a deterrent value as well.
    And we have seen gains in security by integrating the Border Patrol 
into CBP. For example, the Office of Field Operations and the Office of 
the Border Patrol are now able to quickly and easily share equipment 
and information to support one another, and have done so on many 
occasions, whether it be the use of radiation detection equipment at 
higher threat conditions, or the use of truck imaging equipment to 
detect and deter human smuggling.
meeting our twin goals: building more secure and more efficient borders
    As the single, unified border agency of the United States, CBP's 
mission is vitally important to the protection of America and the 
American people. In the aftermath of the terrorist attacks of September 
11th, we have developed numerous initiatives to meet our twin goals of 
improving security and facilitating the flow of legitimate trade and 
travel. Funds from the fiscal year 2005 budget will help us expand 
those initiatives and to begin new ones to ensure further protection of 
both the American people and the American economy. Our strategy in 
implementing these initiatives involves a number of factors, including: 
(A) constantly improving and expanding our targeting systems to better 
screen more people and goods entering and departing the United States; 
(B) pushing our ``zone of security outward'' by partnering with other 
countries; (C) pushing our ``zone of security outward'' by partnering 
with the private sector; (D) deploying advanced inspection technology 
and equipment at our ports of entry to detect weapons of mass 
destruction; and (E) deploying advanced detection and monitoring 
equipment between our ports of entry to detect illegal crossings.

Enhancing our ability to identify high-risk people and cargo
    Information is one of the most important keys to our ability to 
increase security without stifling legitimate trade and travel. Good 
information enables us to more accurately identify--or target--what is 
``high risk,'' defined as a potential threat, and what is low risk or 
absolutely no risk whatsoever. The separation of high risk from no risk 
is critical because searching 100 percent of the cargo and people that 
enter the United States would unnecessarily cripple the flow of 
legitimate trade and travel to the United States. What is necessary and 
advisable is searching 100 percent of the highrisk cargo and people 
that enter our country. To do this, we need to be able to identify what 
is high risk, and do so as early in the process as possible. CBP has 
several programs and initiatives that help us accomplish that task.

            Advance Electronic Information
    Since September 11th, CBP has taken numerous steps to ensure that 
it has the information it needs, at the right time, to identify all 
high-risk people and shipments destined for the United States. As a 
result of these efforts, and the strong support of the Congress, CBP 
now has, among other authorities, the statutory authority to require 
Advance Passenger Information and Passenger Name Record data on all 
people flying into and out of the United States, as well as advanced, 
electronic manifest data on cargo destined for or departing the United 
States. CBP has worked aggressively to promulgate and implement 
regulations pursuant to these enabling statutes. For example, we are 
currently implementing regulations requiring advance, electronic 
manifest (or similar) data on virtually all cargo coming into the 
United States by any mode (rail, truck, aircraft, vessel), whereas this 
data was previously provided on a voluntary, and very limited basis. 
These requirements should be fully implemented by early fiscal year 
2005.

            National Targeting Center (NTC)
    The NTC began around the clock operations on November 10, 2001, 
with a priority mission of providing tactical targeting and analytical 
research support for Customs' anti-terrorism efforts. As personnel from 
Customs, the INS, and the USDA came together on March 1, 2003, under 
the umbrella of CBP, the NTC mission broadened commensurately with the 
CBP role in support of Homeland Security.
    The NTC is primarily staffed by CBP Officers and analysts that are 
experts in passenger and cargo targeting for air, sea, and land 
operations in the inbound and outbound environments. The NTC develops 
tactical targets--potentially high-risk people and shipments that 
should be subject to a CBP inspection--from raw intelligence, trade, 
travel, and law enforcement data. NTC also supports CBP field elements, 
including Container Security Initiative (CSI) personnel stationed in 
countries throughout the world, with additional research assets for 
passenger and cargo examinations.
    In January 2003, the NTC staff relocated to a state-of-the-art 
facility. The new facility is designed to accommodate representatives 
from all CBP disciplines, including representatives from the Office of 
Border Patrol, the Office of Intelligence, and the Office of 
Information and Technology, as well as liaison staff from the law 
enforcement and intelligence communities. The NTC has developed liaison 
with the Office of Naval Intelligence and the U.S. Coast Guard via an 
exchange of personnel with the National Marine Intelligence Center. NTC 
has also exchanged personnel with the Transportation Security 
Administration, the Department of Energy, and provided targeting 
expertise to the DHS Operations Center.
    The funding sought in fiscal year 2005 will enable the NTC to 
continue to expand its infrastructure and personnel to meet the needs 
of CBP as we see continued increases in passengers and commercial 
shipments coming to the United States. It will also enable the NTC to 
continue to play a central role in interagency activities related to 
identifying highrisk people and cargo.

            Automated Targeting System
    The Automated Targeting System (ATS), which is used by NTC and 
field targeting units in the United States and overseas, is essential 
to our ability to target high-risk cargo and passengers entering the 
United States. ATS is the system through which we process advance 
manifest and passenger information to pick up anomalies and ``red 
flags'' and determine what cargo is ``high risk,'' and therefore will 
be scrutinized at the port of entry or, in some cases, overseas.
    The funding increases sought for ATS in the fiscal year 2005 budget 
will allow for the continued improvement of the system as well as 
provide it with the capacity to process the electronic data related to 
the ever-increasing number of people and goods entering the United 
States. For example, the funding will allow us to develop and implement 
a version of ATS that, for the first time, will be able to identify 
potentially high-risk travelers in passenger vehicles. It will also be 
used to upgrade our passenger targeting system by improving the amount 
of government data that the system can access and analyze as well as 
provide us with the capacity to train more people on the use of the 
system. On the cargo side, the funding will permit ATS to increase its 
capacity and upgrade its capabilities by utilizing cutting edge 
information analysis technologies developed by CBP and the private 
sector.

Pushing our Zone of Security Outward--Partnering with Other Countries
            Container Security Initiative (CSI)
    To meet our priority mission of preventing terrorists and terrorist 
weapons from entering the United States, I believe CBP must ``push our 
zone of security outward''--so that our borders are not the first line 
of defense to keep terrorists and terrorist weapons out of the United 
States. We have done this by partnering with other countries on our 
Container Security Initiative (CSI), one of the most significant and 
successful homeland security initiatives developed and implemented 
after 9-11.
    Almost 9 million cargo containers arrive at U.S. seaports annually. 
Because of the sheer volume of sea container traffic and the 
opportunities it presents for terrorists, containerized shipping is 
uniquely vulnerable to terrorist attack. Under CSI, which is the first 
program of its kind, we are partnering with foreign governments to 
identify and inspect high-risk cargo containers at foreign ports, 
before they are shipped to our ports and pose a threat to the United 
States and to global trade.
    The four core elements of CSI are:
  --First, identifying ``high-risk'' containers, using ATS and the 24-
        hour rule, before they set sail for the United States.
  --Second, pre-screening the ``high-risk'' containers at the foreign 
        CSI port before they are shipped to the United States.
  --Third, using technology to pre-screen the high-risk containers, 
        including both radiation detectors and large-scale imaging 
        machines to detect potential terrorist weapons.
  --Fourth, using smarter, ``tamper-evident'' containers--containers 
        that indicate to CBP officers at the port of arrival whether 
        they have been tampered with after the security screening.
    CSI continues to generate exceptional participation and support. 
The goal for the first phase of CSI was to implement the program at as 
many of the top 20 foreign container ports--in terms of volume of cargo 
containers shipped to United States seaports--as possible. Those ports 
account for nearly 70 percent of all cargo containers arriving at U.S. 
seaports. Today, the governments representing 19 of the top 20 ports 
have agreed to implement CSI, and I am confident that we will reach 
agreement with the 20th port very soon.
    We announced the second phase of CSI in June 2003. Under CSI Phase 
II, we will implement CSI at other foreign ports that ship a 
significant volume of cargo to the United States, and that have the 
infrastructure and technology in place to support the program. We have 
already signed CSI agreements with Malaysia, Sweden, South Africa, and 
Sri Lanka. Once we have Phase II implemented, we anticipate that CSI 
will cover approximately 80 percent of the containers coming to the 
United States.
    Right now, CSI is operational in the following locations: 
Rotterdam, the Netherlands; Le Havre, France; Bremerhaven and Hamburg, 
Germany; Antwerp, Belgium; Singapore; Yokohama, Japan; Hong Kong; 
Gothenburg, Sweden; Felixstowe, United Kingdom; Genoa and La Spezia, 
Italy; Busan, Korea; Durban, South Africa; and Port Kelang, Malaysia. 
These locations account for nearly 70 percent of all cargo containers 
destined for the United States.
    I want to express my gratitude to the Committee members for their 
support of CSI in fiscal year 2004. With the $25 million increase in 
funding that we are requesting for CSI in fiscal year 2005, we will 
have CSI in place and operational at as many as 40 seaports around the 
world.

            Immigration Control Officers (ICOs)
    Over the last few years, we have also started applying the concept 
underlying CSI, i.e., pushing our zone of security beyond our borders, 
to the movement of people. This effort originated with the INS and its 
Immigration Control Officer (ICO) program. Through CBP, this effort is 
continuing, and being refined to better address the terrorist threat.
    The roles and responsibilities of the ICOs are to: (1) seek to 
prevent the onward movement of people positively identified as 
presenting a security threat to the carrier or passengers on 
international flights destined to the United States; (2) disrupt and 
deter the smuggling of special interest aliens, or fraudulently 
documented and otherwise inadmissible aliens destined to the United 
States; (3) provide advance notice of passengers on onward transit 
airports and destination airports whose true identity and purposes 
warrant closer inspection; (4) collect law enforcement intelligence on 
known and suspected smugglers and smuggling facilitators; (5) seek, 
through cooperation with host government law enforcement agencies and 
U.S. law enforcement agencies, the apprehension and prosecution of 
smugglers, facilitators and other identified criminal aliens; and (6) 
provide training in fraudulent detection, migration trends, passenger 
assessment and related topics to United States and host government law 
enforcement, immigration and carrier personnel. The ICOs carry out 
their responsibilities in accordance with the Code of Conduct for 
Immigration Liaison Officers of the International Air Transport 
Association.
    Canada, Australia, the United Kingdom and the Netherlands have ICOs 
stationed around the world. In concert with our international partners, 
the INS launched Operation Global Shield in October 2002 with the 
deployment of officers to more than a dozen locations, including major 
transit hubs in Central and South America, Europe and the Far East. 
This was a very successful effort. Operation Global Shield resulted in 
2,971 interceptions in a 5 month period.
    CBP is now building on the lessons learned from Operation Global 
Shield as well as the experiences of our international partners to 
refine the ICO concept to better respond to the threat of international 
terrorism. The United States currently has over 70 legacy immigration 
personnel overseas, many of whom are engaged in ICO activities, but not 
on a full time basis. At CBP, we will be working with these personnel 
to refine their ICO work to ensure that we prevent potential terrorists 
from boarding aircraft destined for the United States. We will also be 
putting in place a new, refined ICO program in Warsaw, Poland in the 
near term to test and refine our antiterrorist measures before 
expanding the program to other locations.

Pushing our Zone of Security Outward--Partnering with the Trade
            Customs-Trade Partnership Against Terrorism (C-TPAT)
    The Customs-Trade Partnership Against Terrorism (C-TPAT) is a 
voluntary partnership between CBP and industry to secure international 
supply chains from end to-end. Through C-TPAT, participants develop and 
maintain secure supply chains from the foreign factory floor to the 
ultimate destination in the U.S. CBP, in return, offers C-TPAT 
shipments expedited processing and provides C-TPAT participants with 
other benefits.
    The program is rigorous. In order to join C-TPAT, a company must 
conduct a self-assessment of its current supply chain security 
procedures using C-TPAT security guidelines developed in partnership 
with logistics and security experts from the trade. A participant must 
also commit to increasing its supply chain security by addressing any 
vulnerabilities that exist. Perhaps most importantly, participants also 
make a commitment to work with their business partners and customers 
throughout their supply chains to ensure that those businesses also 
increase their supply chain security. By leveraging the influence of 
importers and others on different participants in the supply chain, C-
TPAT is able to increase security of U.S. bound goods at the time of 
container stuffing. This reach--to the foreign loading dock--is 
critical to the goal of increasing supply chain security.
    Although C-TPAT is a partnership, we are not simply taking the 
participants at their word when it comes to their supply chain 
security. As a former President once said: ``Trust, but verify.'' 
Applying this lesson, we have created a cadre of specially trained 
supply chain security specialists to validate the commitments made by 
C-TPAT participants--to ensure that they are increasing supply chain 
security as they have promised CBP. These specialists meet with 
personnel from C-TPAT participants and their business partners and 
observe the security of their supply chains, including security at 
overseas loading docks and manufacturing plants. Through this process, 
we work with C-TPAT participants to identify ways that they can further 
increase their supply chain security and we ensure that companies that 
are not honoring their commitments lose their C-TPAT privileges.
    C-TPAT is currently open to all importers, cross-border air, sea, 
truck, and rail carriers, brokers, freight forwarders, consolidators, 
non-vessel operating common carriers (NVOCCs), and U.S. Marine and 
Terminal operators. We are currently enrolling certain foreign 
manufacturers in the C-TPAT program as well, and we will continue to 
develop ways to include this important element of the supply chain in 
the program. The intent is to construct a supply chain characterized by 
active C-TPAT links at each point in the logistics process.
    As of March 12, 2004, the C-TPAT participation and validation 
numbers are as follows:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                      Oldest
                                                                Security    Certified   Insufficient   Responses     Security   Validations  Validations
                                                   Partners     Profile      Partners     Security        Sent     Profile Not   Initiated    Completed
                                                                Received                  Profiles                   Reviewed
--------------------------------------------------------------------------------------------------------------------------------------------------------
Importers......................................        3,519        2,434        1,580           277        1,857           41          305           65
Carriers.......................................          998          803          519            90          609           34          183           40
Brokers/Forwarders.............................        1,205          934          759           109          868           31          208          106
Foreign Manufacturers..........................          118           58           45             1           46           21            0            0
Marine Port Auth. & Terminal Op................           41           32           23             4           27           36           22           10
                                                --------------------------------------------------------------------------------------------------------
      Total....................................        5,881        4,261        2,926           481        3,407          N/A          718          221
--------------------------------------------------------------------------------------------------------------------------------------------------------

            Free and Secure Trade (FAST)
    Building on C-TPAT, we have created the Free and Secure Trade 
(FAST) program with Canada and Mexico. This program increases the 
supply chain security of goods moving across our land borders and also 
facilitates the movement of legitimate commerce by aligning customs 
processes on both sides of the border and offering the most expedited 
customs processing available on the land border. To be eligible for 
FAST processing, importers, carriers, and manufacturers (on the 
southern border) must participate in C-TPAT and must use a FAST-
registered driver. Because each participant must meet C-TPAT supply 
chain criteria and the driver must be vetted by CBP (including 
exhaustive database checks and a personal interview), the FAST program 
substantially increases the security of supply chains across our 
northern and southern borders. And because FAST relies on advanced 
electronic data transmissions and transponder technology, CBP can offer 
FAST shipments the most expedited clearance procedures available today. 
With these procedures in place, CBP can focus its security efforts and 
inspections where they are needed most--on high-risk commerce.
    FAST is currently operational at 11 major northern border crossings 
and 2 major southern border crossings. The program will expand to 
additional locations in fiscal year 2005.
    I would like to thank the Committee for its consistently strong 
support for C-TPAT and FAST. The $15 million funding increase we have 
sought for C-TPAT in fiscal year 2005 will enable us to continue to 
expand both programs by enrolling additional participants. It will also 
allow us to add a substantial number of supply chain security 
specialists to our ranks, thereby ensuring that as the program grows, 
we will be able to conduct an appropriate number of validations. As a 
result, we will substantially increase the security of our 
international supply chains.

Using Technology to Detect Weapons of Mass Destruction at our Ports of 
        Entry
    As trade increases, CBP's reliance on Non-Intrusive Inspection 
(NII) technology to secure the borders becomes more and more critical. 
Only by using NII technology to speed the inspections process for 
weapons of mass destruction and contraband can CBP meet its twin goals 
of increasing security and at the same time facilitating trade.
    CBP uses various technologies in different combinations to 
substantially increase the likelihood that a nuclear or radiological 
weapon or weapons grade material will be detected. In addition, CBP 
uses NII technology to detect and interdict narcotics, currency and 
other contraband secreted in large containers and commercial shipments. 
Technologies deployed to our nation's land, sea and air ports of entry 
include largescale X-ray and gamma-imaging systems--systems that can 
image the contents of an entire container in seconds. These systems 
include the Vehicle and Cargo Inspection System (VACIS), Mobile VACIS, 
Truck X-ray, Mobile Truck X-ray, Rail VACIS, Mobile Sea Container 
Examinations Systems and the Pallet Gamma-ray System. In September 
1996, our first large-scale NII system, a Truck X-ray, became 
operational in Otay Mesa, California. Today, we have 145 large-scale 
NII systems deployed.
    In addition, we have developed and begun implementing a national 
radiation detection strategy. Pursuant to that Strategy, we are 
deploying nuclear and radiological detection equipment to include 
personal radiation detectors (PRDs), radiation portal monitors (RPMs) 
and next generation radiation isotope identifier devices (RIIDs). In 
combination with our layered enforcement strategy--working overseas to 
prevent the proliferation of nuclear materials and to detect them 
before they are shipped to the United States--and our use of multiple 
inspection technologies, these tools currently provide CBP with 
significant capacity to detect nuclear or radiological materials. Our 
fiscal year 2005 request for $50 million would provide CBP with the 
funding to continue to purchase and deploy the technologies needed to 
implement its national radiation detection strategy.

Using Technology to Detect and Monitor Illegal Crossings Between our 
        Ports of Entry
            Integrated Surveillance Intelligence System (ISIS)
    ISIS is a critical part of CBP's strategy to build smarter borders. 
By using remotely monitored night-day camera and sensing systems, the 
Border Patrol can better detect, monitor, and respond to illegal 
crossings. This, in turn, is critical to the Border Patrol's ability to 
increase its apprehension capabilities, particularly along our northern 
border. As a result, the deployment of ISIS is a critical component of 
the Border Patrol's revised National Strategy to prevent terrorists 
from entering the United States and to gain control of our nation's 
borders.
    ISIS consists of three independent components: (1) the remote video 
surveillance (RVS) camera system; (2) sensors; (3) the Integrated 
Computer Assisted Detection (ICAD) database. The RVS system integrates 
multiple color, thermal and infrared cameras, which are mounted on 
various structures, into a single remote controlled system. The network 
of sensors consists of seismic, magnetic and thermal devices used to 
detect and track intrusions. ICAD software components assist in the 
coordination and data collection of agent deployment in response to 
sensor alarms.
    The $64.1 million in ISIS funding sought in 2005 would enable CBP 
to broaden substantially its ISIS coverage of the northern and southern 
borders--to deploy the system where no ISIS coverage currently exists. 
This is important because Border Patrol experience has shown that in 
locations where ISIS is deployed, fewer agents can do a better job of 
securing the border. ISIS acts as an important force-multiplier that 
allows Border Patrol agents to remotely monitor the border and respond 
to specific illegal border crossings rather than having to exhaustively 
patrol an area adjacent to the border. By contrast, Border Patrol 
operations without ISIS support are not only less effective, they are 
more resource-intensive and less safe for Agents.

            Unmanned Aerial Vehicles (UAVs)
    Like ISIS, Unmanned Aerial Vehicles (UAVs) are both an important 
part of the smarter border strategy and an essential element of the 
Border Patrol's revised National Strategy. UAVs equipped with 
sophisticated on-board sensors have the potential to provide 
unparalleled surveillance capability. UAVs provide long-range 
surveillance. As a result, they are especially effective force-
multipliers because they have the capacity to remain on station much 
longer than other airborne assets, and are particularly useful for 
monitoring remote land border areas where patrols cannot easily travel 
and infrastructure is difficult or impossible to build.
    UAVs will perform missions involving gathering intelligence on 
border activities was well as conducting surveillance over open water 
along the Gulf Coast, the Florida peninsula and the Great Lakes region 
on the northern border. The high endurance of the larger classes of 
UAVs permits uninterrupted overnight or around-the-clock coverage, and 
the size and operating altitudes can make UAVs effectively undetectable 
by unaided human senses. UAVs will also contribute to enforcement 
effectiveness and officer safety by providing communications links for 
coordinating multiple units on the ground is important in remote border 
operating areas.
    The $10 million in funding sought for UAVs will enable CBP to 
capitalize more fully on the UAV research that has taken place in a 
military context, and to apply UAVs in support of the Homeland Security 
mission. The funding would allow CBP to deploy and operate a system of 
unmanned aerial vehicles in support of the Border Patrol and other 
components of Customs and Border Protection. The use of UAVs will 
complement the other intrusion detection and intelligence gathering 
components of the border surveillance network to meet the mission of 
stopping the illegal entry of terrorists, smugglers and others into the 
United States.

                   AUTOMATION/INFORMATION TECHNOLOGY

    Mr. Chairman, no discussion of a successful strategy to protect the 
American people and the American economy in the 21st century would be 
complete without consideration of the central importance of automation 
and information technology to CBP's mission.
Automated Commercial Environment
    The Automated Commercial Environment (ACE) is an important project 
for CBP, for the business community, for our country, and for the 
future of global trade. If done properly, it will reform the way we do 
business with the trade community. It will also greatly assist CBP in 
the advance collection of information for targeting high-risk cargo to 
better address the terrorist threat. And in doing so, it will help us 
expedite the vast majority of low-risk trade.
    The successful implementation of ACE has been and continues to be 
one of my top priorities as Commissioner. Increasing support from 
Congress and the Administration for ACE has been essential to the 
development of the new system. Funding of $319 million in fiscal year 
2004 has enabled us to continue development and begin to deliver on the 
first installment of ACE benefits to the trade community. Indeed, since 
my testimony last year, I can tell you that the development of ACE and 
the efforts to put its capabilities to work on America's borders have 
continued full throttle while CBP works with the Homeland Security 
Investment Review Group to analyze the existing IT systems being used 
by DHS agencies, identify redundant technology investments, and plan 
for the DHS's IT architecture. Among many other accomplishments, this 
past year brought ACE release to the public for the first time. 
Currently, 50 importer accounts and related CBP personnel have access 
to the ACE Secure Data Portal to conduct their CBP business 
transactions on-line. This portal provides reliable, secure, highspeed 
access to critical information. When fully deployed, this will be the 
basic tool by which all users within the trade community and government 
access ACE.
    I want to thank Congress again for its past support of ACE. The 
continued support of ACE with $322 million in funding for fiscal year 
2005 will enable us to keep pace with our schedule for ACE releases in 
2004 and 2005. Those include:
  --Summer 2004.--Release 3 (Account Revenue: Periodic Statements and 
        Payments): Initial account revenue will be enabled, allowing 
        accounts to centralize payment processing and utilize periodic 
        statement and payment capabilities as well as ACH Credit and 
        Debit.
  --Winter 2005.--Release 4 (Truck Manifest and e-Release): Cargo 
        Processing will be introduced with the implementation of 
        Automated Truck Manifest and Preferred & eRelease for trucks. 
        This will allow for quicker entry for pre-filed and pre-
        approved cargo.
            International Trade Data System (ITDS)
    One important, fully integrated component of ACE is the 
International Trade Data System (ITDS). The ITDS initiative is an e-
Government strategy being designed developed, and deployed jointly with 
ACE that will implement an integrated, government-wide system for the 
electronic collection, use, and dissemination of the international 
trade transaction data required by the various trade-related Federal 
agencies.
    ITDS will simplify and streamline the regulation, promotion, and 
analysis of international trade. It will also assist importers, 
exporters, carriers, and brokers in complying with Federal trade, 
transportation, and other regulations by streamlining business 
processes. ITDS is customer focused and will serve as the government's 
``single window'' into international trade data collection and 
distribution.
    In conjunction with ACE, ITDS will also improve risk assessment. By 
centralizing and integrating the collection and analysis of 
information, ACE will enhance CBP's ability to target cargo, persons, 
and conveyances. The trade data will allow for advanced inter-agency 
assessment of risks and threats to determine which goods and people 
must be scrutinized. In addition, Through ACE, the ITDS will be capable 
of linking the government's law enforcement and other databases into 
one large-scale relational database that tracks all commerce crossing 
our borders. ITDS thus extends the functionality of ACE by bringing 
together critical security, public health, public safety, and 
environmental protection agencies under a common platform.
    The $5 million increase we are requesting in the fiscal year 2005 
budget for ITDS will allow us to ensure integration of ITDS with key 
Federal agencies, and keep us on schedule to have full functionality 
rolled out by winter 2006-2007.

                       OTHER TRADITIONAL MISSIONS

    Although CBP's priority mission is preventing terrorists and 
terrorist weapons from entering the United States, we know that we 
must--and will--accomplish that priority mission while continuing to 
perform our traditional missions well. Included among those missions 
are our responsibilities for interdicting drugs, apprehending 16 
individuals who enter the United States illegally, regulating and 
facilitating international trade, and protecting U.S. agricultural and 
economic interests from harmful pests and diseases.

            Drug Interdiction
    Our counterterrorism and counternarcotics missions are not mutually 
exclusive, and one does not necessarily come at the expense of the 
other. The initiatives we have put in place to prevent terrorists and 
terrorist weapons from entering the United States have enabled us to be 
more effective in seizing other illegal contraband, including illegal 
drugs. Indeed, one of the first results we saw after implementing ATS 
for commercial trucks on the land border was a large narcotics seizure 
from a targeted shipment. And, it is worth noting that the lessons we 
have learned in our battle against international drug trafficking will 
help us in the fight against international terrorism.
    It would be a grave mistake for drug traffickers and other 
criminals to misinterpret our focus on terrorism as a weakening of 
resolve on other fronts. If anything, we have made life even more 
miserable for drug smugglers as we have intensified our overall 
presence along America's borders. Our heightened state of security 
along America's borders has strengthened, not weakened, our 
counternarcotics mission. As we have added staffing for both inspectors 
at the ports of entry and Border Patrol Agents between the ports of 
entry, acquired more inspection technology, conducted more questioning 
of travelers, and carried out more inspections of passengers and goods 
in response to the terrorist threat, we have seized greater amounts of 
narcotics. In fiscal year 2003, for example, we seized more than 2.2 
million pounds of illegal drugs, and made some of the largest 
individual seizures ever recorded by officers safeguarding our borders.
    Effective coordination between inspectors at the ports of entry and 
agents who carry out investigative activities is essential to the 
success of our counternarcotics mission. For that reason, CBP will 
continue to cooperate closely with special agents from U.S. Immigration 
and Customs Enforcement to carry out this mission.
Apprehending individuals entering illegally between the ports of entry
    The Office of the Border Patrol is specifically responsible for 
patrolling the 6,000 miles of Mexican and Canadian international land 
borders and 2,000 miles of coastal waters surrounding the Florida 
Peninsula and the island of Puerto Rico. Its primary task is securing 
America's borders between official ports of entry by preventing the 
illegal entry of people, goods, and contraband across our borders.
    The Border Patrol relies on agents, enforcement equipment (such as 
a fleet of specialized aircraft and vehicles of various types), 
technology (such as sensors and night vision cameras), tactical 
infrastructure (such as roads and vehicle barriers), and intelligence 
to carry out its mission. Applied in the correct combination, these 
resources can effectively deter, detect, monitor, and respond to 
illegal border crossings, as we have seen in locations such as the San 
Diego Sector and during operations such as Desert Safeguard.
    In fiscal year 2003, the Border Patrol played a key role in 
safeguarding the United States from the entry of terrorists, criminals, 
and illegal immigrants. Among the 931,557 people apprehended by the 
Border Patrol in fiscal year 2003 were:
  --Two Indian aliens illegally in the United States who were wanted in 
        Canada for attempted murder after they allegedly tied-up, 
        tortured, doused in gasoline, and lit a person on fire;
  --One of the ten most wanted criminals in Texas;
  --An Iranian citizen illegally in the United States with an extensive 
        criminal history and who may have been involved in bomb making 
        and other serious illegal activity at the time of his arrest at 
        the San Clemente checkpoint;
  --A Turkish citizen illegally in the United States who may have been 
        involved in serious illegal activity at the time of his arrest 
        at McAllen International Airport; and
  --An alleged resident of the United Arab Emirates illegally in the 
        United States who may have been involved in serious illegal 
        activity at the time of his arrest in Louisiana.
    Building on these gains, and drawing on the lessons we learned 
during Desert Safeguard, CBP is working with other agencies and the 
Mexican Government to implement the Arizona Border Control Initiative 
this year. Under this initiative, CBP will substantially reduce the 
number of illegal entries that occur in Arizona this year and, as a 
result, will reduce the number of deaths that occur as aliens try to 
cross the Arizona desert during the warmest months of the year.
Preventing individuals from entering illegally at the ports of entry
    With respect to preventing individuals from entering the country 
illegally at the ports of entry, CBP continues to stop hundreds of 
thousands of people a year who are inadmissible into the United States 
for a variety of reasons, including prior immigration violations, 
criminal history, or the possession of false or fraudulent documents.
    We are helped in this effort by our close work with the Department 
of State to ensure CBP inspectors have the tools they need to verify 
the identity of visa holders and the authenticity of visas issued by 
the Department of State. Data on holders of immigrant visas is 
transferred electronically to ports of entry. When the electronic 
record is updated to reflect an immigrant's admission at a port of 
entry, that data is transferred electronically to the Bureau of 
Citizenship and Immigration Services (CIS) for production of a 
permanent resident card and creation of the immigrant file.
    More importantly, with the successful implementation of US VISIT at 
our international airports earlier this year, CBP officers now have 
access to photographs and data transmitted electronically by the 
Department of State relating to holders of nonimmigrant visas. This 
permits officers on the primary line to review visa application data 
and verify the identity of the holder. This has virtually eliminated 
the possibility that a traveler could use a false or fraudulent visa to 
enter the United States.

Regulating and facilitating international trade
    CBP maintains responsibility for regulating and facilitating 
legitimate international trade. As I mentioned earlier, many of the 
initiatives CBP implements serve the twin goals of increasing security 
and facilitating trade. With the right level of industry partnership 
and the right combination of resources, we can succeed not only in 
protecting legitimate trade from being used by terrorists, we can 
actually build a better, faster, more productive system of trade 
facilitation for the U.S. economy.
    We have continued to work with the trade on these matters over the 
past year, and we will continue to do so in the year ahead. For 
example, we worked with all segments of the maritime trade to make 
changes to the 24-hour rule and our computer systems to better 
facilitate the movement of sea containers in our domestic seaports and 
to inland destinations. We also worked very closely with the trade to 
craft and implement our Trade Act regulations, and we will continue 
this process during the rest of this year. Finally, we have partnered 
with the trade and technology companies to design and test a smarter, 
more secure sea container. More importantly, members of the trade are 
using this container. Through C-TPAT, we have partnered with several 
large importers to begin using these containers, and we expect to see 
their use rise substantially in the months ahead.

Protecting U.S. agricultural and economic interests and the food supply
    CBP now overseas the enforcement of the laws and regulations 
pertaining to the safe importation and entry of agricultural food 
commodities into the United States. The traditional goals of the 
Agriculture Inspections (AI) program have been to reduce the risk of 
introduction of invasive species into the United States, protect U.S. 
agricultural resources, maintain the marketability of agricultural 
products, and facilitate the movement of lawabiding people and 
commodities across the borders. Accordingly, inspecting potentially 
high-risk travelers and cargo is critical to keeping the prohibited 
items out of the United States, monitoring for significant agricultural 
health threats, encouraging compliance with regulations, and educating 
the public and importers about agricultural quarantine regulations.
    With the creation of CBP, the AI program has expanded its focus to 
include a new priority mission of preventing potential terrorist 
threats involving agriculture. Indeed, the threat of intentional 
introductions of pests or pathogens as a means of biological warfare or 
terrorism is an emerging concern. To address this threat and to enhance 
its traditional AI missions, CBP has already begun using the Automated 
Targeting System, and its collective expertise regarding terrorism and 
agriculture, to strengthen our ability to identify shipments that may 
pose a potential risk to our agricultural interests.
    In addition, CBP has worked closely with the Food and Drug 
Administration (FDA) to implement the Public Health Security and 
Bioterrorism Preparedness and Response Act of 2002 to guard against 
threats to the food supply. In the last several months, we have 
modified our electronic data collection systems to collect data from 
the trade required under the Bioterrorism Act, implemented a joint 
risk-management system for food shipments with FDA that builds off or 
Automated Targeting System, and commissioned CBP officers to utilize 
FDA authorities in certain circumstances at the ports of entry. These 
efforts have built on our priority and traditional missions to make the 
food supply more secure, and will be supported in part by the targeting 
funding sought in the fiscal year 2005 budget.

                               CONCLUSION

    Mr. Chairman, Members of the Subcommittee, I have outlined a broad 
array of initiatives today that, with your assistance, will help CBP 
continue to protect America from the terrorist threat while fulfilling 
our other traditional missions. Because of your support, and because of 
the creation of DHS and CBP, we are far safer today than we were on 
September 11th. But our work is not complete. With the continued 
support of the President, DHS, and the Congress, CBP will succeed in 
meeting the challenges posed by the ongoing terrorist threat and the 
need to facilitate ever-increasing numbers of legitimate shipments and 
travelers.
    Thank you again for this opportunity to testify. I would be happy 
to answer any of your questions.

    Senator Cochran. Thank you, Mr. Bonner.
    Mr. Garcia, you may proceed.

                     STATEMENT OF MICHAEL J. GARCIA

    Mr. Garcia. Thank you, Mr. Chairman. Good morning. Good 
morning, Senator Byrd, distinguished members of the 
subcommittee. It is a pleasure to be with you today to discuss 
the President's fiscal year 2005 budget request for the 
Department of Homeland Security's U.S. Immigration and Customs 
Enforcement. The request of just over $4 billion reflects the 
vital role ICE plays in the Department's overall mission of 
ensuring the security of the American people.
    A little more than 1 year ago, ICE was formed by combining 
the investigative and intelligence arms of the former INS and 
the U.S. Customs Service, including Air and Marine operations, 
as well as the Federal Protective Service and more recently the 
Federal Air Marshal Service. By integrating these once-
fragmented resources, the Department of Homeland Security not 
only created the second largest investigative agency in the 
Federal Government, but it also created a dynamic and 
innovative new law enforcement organization focused on homeland 
security, specifically border security, air security, and 
economic security.
    Senator Byrd mentioned that we are looking at the 
vulnerabilities facing this. And the primary mission of ICE and 
the Department of Homeland Security is to detect and address 
those vulnerabilities in our national security, whether those 
vulnerabilities expose our financial systems to exploitation or 
our borders to infiltration.

                  ACCOMPLISHMENTS WITHIN THE PAST YEAR

    Earlier this month, the dedicated men and women of ICE 
joined me in celebrating our 1-year anniversary and our many 
accomplishments within the past year. I will highlight only a 
few.
    ICE is protecting U.S. economic security. And since last 
March, ICE financial investigations have yielded more than 
1,300 arrests and seized more than $150 million in assets.
    In July, ICE launched Cornerstone, a comprehensive 
initiative that forms a new partnership with the financial, 
commercial, and trade sectors to identify and mitigate U.S. 
economic vulnerabilities.
    Last fall, ICE launched Ice Storm, a comprehensive 
initiative to combat violent human smuggling organizations 
along the southwest border, with particular focus on Arizona. 
Ice Storm has resulted in more than 2,000 administrative and 
criminal arrests, 170 indictments, and the seizure of more than 
80 weapons and $2 million. Local police credit Ice Storm with 
the more than 30-percent drop in homicides in the Phoenix area 
in the last quarter of 2003 compared to the same period of a 
year ago.

                           OPERATION PREDATOR

    Senator Shelby mentioned Operation Predator. That is an 
operation we launched last July with the secretary. We targeted 
child sex predators worldwide under this operation, which fuses 
the authorities and resources of virtually every ICE component 
into a comprehensive campaign against child sex predators. To 
date, Operation Predator has produced unprecedented results 
with the arrest of more than 2,000 child sex predators 
nationwide.

                      FEDERAL AIR MARSHALS SERVICE

    The ICE Federal Air Marshals Service became a distinct ICE 
division in November of 2003. ICE agents are being cross-
trained as Federal air marshals, giving ICE FAMS a cadre of 
trained agents for use when needed. Since September 11, ICE 
FAMS have provided security on hundreds of thousands of 
flights, protected millions of passengers, flown millions of 
miles. Their efforts have helped keep the U.S. civil aviation 
sector free of terrorism since September 11, 2001.

                    FISCAL YEAR 2005 BUDGET REQUEST

    The President's fiscal year 2005 budget will continue to 
strengthen ICE's efforts to protect the homeland through the 
unique investigative and enforcement tools of this agency. The 
proposed 2005 budget and plan to enhance the department's 
commitment to securing the homeland is designed to build upon 
the strong foundation I have just described. The President's 
2005 budget request seeks over $4 billion for ICE, $320 million 
more than 2004, an increase of 8 percent.
    The requested increases include $186 million for ICE to 
fund improvements in immigration enforcement both domestically 
and overseas, including the more than doubling of current 
worksite enforcement efforts, increased resources to combat 
benefits fraud and investigate violations of the SEVIS and US 
VISIT systems, and approximately $100 million increase for the 
detention and removal of illegal aliens. Detention or removal 
illegal aliens present in the United States is critical to the 
enforcement of our immigration laws. And the requested funding 
will expand ongoing fugitive apprehension efforts, the removal 
from the United States of jailed illegal aliens, and additional 
detention and removal capacity.
    Critical to the removal process is ICE's ability to 
effectively litigate cases before the immigration court. The 
budget includes our request for $6 million enhancement to 
provide additional attorneys to keep pace with an increasing 
caseload. Our budget also seeks $14 million to support our 
international enforcement efforts related to immigration, 
including enabling ICE to provide visa security by working 
cooperatively with U.S. consular offices to review these 
applications.
    The budget request also seeks $40 million in total 
enhancement for Air and Marine operations, for long-range 
radar, and increased P-3 flight hours.

             RECONCILIATION OF THE FISCAL YEAR 2004 BUDGET

    Many challenges lie ahead, including reconciliation of the 
2004 budget, as was mentioned earlier today, and the mapping 
issues that go with that. These are serious issues, and this is 
a serious undertaking. I very much appreciate the support of 
the subcommittee members. It is a great responsibility. We are 
committed to protecting the homeland with new approaches to old 
problems and new approaches to the new challenges we face after 
September 11.

                           PREPARED STATEMENT

    We are committed to managing the transition, as 
Commissioner Bonner mentioned, of the INS distribution of 
assets, as well as the Customs breakup. This is a very complex 
reorganization. And in it we are also committed to being 
fiscally responsible.
    I look forward to working with you, Mr. Chairman and 
members of this subcommittee. This concludes my prepared 
statement. I would be happy to answer any questions you might 
have at this time.
    Senator Cochran. Thank you, Mr. Garcia.
    [The statement follows:]

                Prepared Statement of Michael J. Garcia

Introduction
    Good morning Chairman Cochran, Senator Byrd, and distinguished 
Members of the Subcommittee. It is a pleasure to be with you today to 
discuss the President's fiscal year 2005 budget request for the 
Department of Homeland Security's (DHS) U.S. Immigration and Customs 
Enforcement (ICE). This $4.011 billion request reflects the vital role 
ICE plays in the Department's overall mission of ensuring the security 
of the American people and our way of life.
    A little more than one year ago ICE was formed by combining the 
investigative and intelligence arms of the former Immigration and 
Naturalization Service (INS) and the U.S. Customs Service, including 
Air and Marine Operations, as well as the Federal Protective Service 
and the Federal Air Marshal Service. By integrating these once 
fragmented resources, the Department of Homeland Security not only 
created the second largest investigative agency in the Federal 
government, but it also created a dynamic and innovative new law 
enforcement organization uniquely and exclusively focused on homeland 
security--specifically border security, air security, and economic 
security.
    The primary mission of ICE and the Department of Homeland Security 
is to detect and address vulnerabilities in our national security--
whether those vulnerabilities expose our financial systems to 
exploitation or our borders to infiltration. With its enhanced ability 
to investigate immigration and customs violation--for example our 
ability to target human smuggling alongside of narcotics, weapons, and 
other forms of smuggling and follow the illicit money trail wherever it 
may lead--ICE is in a unique position to enforce our homeland security 
missions in ways never before possible.
    Earlier this month the dedicated men and women of ICE joined me in 
celebration of our one-year anniversary and our many accomplishments 
within the past year. This, of course, could not have been accomplished 
without the support of Congress and the fiscal year 2004 
Appropriations. Our accomplishments this year are many but I will only 
highlight a few:
    Targeting Child Sex Predators Worldwide.--Operation Predator fuses 
the authorities and resources of virtually every ICE component into a 
comprehensive campaign against child sex offenders. To date, Operation 
Predator has produced unprecedented results with the arrest of more 
than 2,057 child sex predators nationwide.
    Protecting U.S. Economic Security.--Since last March, ICE financial 
investigations have yielded more than 1,330 arrests and seized $154 
million in assets. In July, ICE launched Cornerstone, a comprehensive 
initiative that forms a new partnership with the financial, commercial 
and trade sectors to identify and mitigate U.S. economic 
vulnerabilities.
    Tracking down Arms, Money, and Artifacts in Iraq.--ICE deployed the 
first-ever civilian team of agents to Iraq in support of Operation 
Iraqi Freedom. The agents secured 75 silkworm missiles in Iraq that 
could have been used against coalition forces. They recovered $32 
million in cash withdrawn by Saddam Hussein's son just before the war 
and recovered 39,400 manuscripts and more than 1,000 treasures looted 
from the Iraqi National Museum.
    Dismantling Violent Human Smuggling Organizations.--Last fall, we 
launched ICE Storm, a comprehensive initiative to combat violent human 
smuggling organizations along the Southwest border--with a particular 
focus on Arizona. In its first 180 days, ICE Storm resulted in more 
than 700 criminal and administrative arrests, 90 indictments and the 
seizure of 46 assault weapons and nearly $2 million. Local police 
credited ICE Storm with a more than 30 percent drop in homicides in the 
Phoenix area in the last quarter of 2003, compared to the same period 
the previous year.
    Enhancing Civil Aviation Security.--The ICE Federal Air Marshal 
Service (FAMS) became a distinct ICE division in November 2003. ICE 
agents are being crosstrained as air marshals, giving ICE FAMS a cadre 
of trained agents in times of need. ICE also signed an agreement with 
the U.S. Secret Service that increases flight coverage. Since 9/11, ICE 
FAMS have provided security on hundreds of thousands of flights, 
protected millions of passengers and flown millions of miles. Their 
efforts have helped keep the U.S. civil aviation sector free of 
terrorism since 9/11.
    Apprehending and Removing Criminal Aliens from the United States.--
Since March 1, 2003, ICE's Detention and Removal Office (DRO) has 
removed more than 52,684 criminal aliens and 40,802 non-criminal 
aliens. DRO detains more than 230,000 aliens each year. ICE's DRO has 
more than 18 fugitive absconder teams across the Nation and created a 
``Most Wanted'' list of the most dangerous criminal aliens. In the 
first 2 weeks, ICE captured or confirmed the removal of all 10 of the 
original 10 ``Most Wanted.''
    Improving Security at U.S. Federal Facilities.--The transfer of the 
Federal Protective Service to ICE has provided FPS with access to 
information never before at its disposal, enabling it to perform its 
mission more effectively. ICE FPS secures more than 8,800 federally 
owned and leased facilities. In fiscal year 2003, ICE FPS seized or 
stopped the entry of more than 108,800 weapons and other items. During 
the same period, ICE FPS officers made more than 2,800 arrests and 
covered more than 2,100 demonstrations.
    Securing Critical Airspace in the U.S., While Protecting Land and 
Sea Borders.--ICE's Air and Marine Operations (AMO) division has 
dramatically increased its role in homeland security missions while 
maintaining its traditional drug interdiction and law enforcement 
efforts. AMO created a permanent National Capital Region branch that 
provides 24/7 airspace security coverage over the Washington, DC area. 
AMO provided airspace security coverage during ``Orange Alert'' threats 
and events like the State of the Union address and Super Bowl. All the 
while, AMO assets were involved in drug and alien smuggling operations 
that seized more than 76,000 pounds of cocaine, 335,000 pounds of 
marijuana, and arrested more than 980 individuals.
    Harnessing Intelligence to Further Enforcement Efforts.--ICE's 
Intelligence Division integrated the intelligence components of the 
former Immigration and Naturalization Service and the U.S. Customs 
Service into a robust force that supports the enforcement needs of all 
ICE operational divisions. ICE Intelligence vetted roughly 60,000 
commercial airline passengers and crewmembers through a multi-stage 
process during the ``Orange Alert'' terror threat level during December 
2003 and January 2004 period.
    ICE continues to pursue its homeland security mission by building 
upon the traditional missions, resources, authorities and expertise of 
the legacy agencies it inherited. ICE is bringing new approaches to 
traditional areas of law enforcement and creating enforcement programs 
in response to its homeland security mission. The President's fiscal 
year 2005 Budget will continue to strengthen ICE's efforts to protect 
the homeland through its unique investigative and enforcement tools.
Budget Request for fiscal year 2005
    The proposed fiscal year 2005 budget--a plan to enhance the 
Department's commitment to securing the homeland--is designed to build 
upon the strong foundation I have described. The President's fiscal 
year 2005 Budget request seeks $4.011 billion for ICE, $302 million 
more than fiscal year 2004, which represents an increase of 8 percent. 
This request for ICE includes resources to support border, air and 
economic security activities. These funds will also reduce 
infrastructure vulnerability, promoting safe and secure Federal 
properties for both employees and visitors. The remaining budget 
discussion will cover the major program areas: Investigations, 
Detention and Removal Operations, Air and Marine Operations, Federal 
Protective Service and the Federal Air Marshal Service, as well as our 
requested fiscal year 2005 budget enhancements.
    The Office of Investigations.--Budget request includes $1.046 
billion for the investigations and intelligence programs. These 
resources will advance national security and homeland defense against 
terrorist cells and their supporters in the United States through 
enhanced cooperation and integration with other Federal law enforcement 
agencies and the intelligence community. The Investigations program 
protects our homeland by, among other things, dismantling terrorist 
financing networks, by identifying and remediating vulnerabilities in 
the financial system that could be exploited by terrorist 
organizations, preventing the importation of weapons of mass 
destruction and other instruments of terror into the United States, 
disrupting narcotics smuggling and money laundering organizations, 
enforcing embargoes, trade agreements, and sanctions imposed by the 
U.S. government against foreign countries, and safeguarding children 
against exploitation through crimes involving pornography, sex tourism, 
and forced child labor.
    The President's fiscal year 2005 Budget request seeks $78 million 
in total enhancements for the Investigations Program. This includes:
  --$23 million/200 FTE for Worksite Enforcement. Consistent with the 
        goals of the President's proposed new temporary worker program 
        to match willing foreign working workers with willing U.S. 
        employers, enforcement of immigration laws against companies 
        that break the law and hire illegal workers will increase. This 
        increase will more than double the level of resources devoted 
        to traditional worksite enforcement.
  --$16 million/65 FTE for Compliance Teams. As part of its overall 
        immigration enforcement strategy, ICE will continue to analyze 
        data generated through the Student and Exchange Visitor 
        Information System and US VISIT program in an effort to detect 
        individuals who are in violation of the Nation's immigration 
        laws. This enhancement will increase funding for ICE's SEVIS 
        and US VISIT compliance efforts by over 150 percent.
  --$14 million/90 FTE for International Affairs. Pursuant to Section 
        428 of the Homeland Security Act of 2002 and the Memorandum of 
        Understanding between the Departments of Homeland Security and 
        State, ICE's fiscal year 2005 budget includes an increase of 
        $10 million to support a new Visa Security Unit (VSU). The VSU 
        and DHS staff stationed at overseas posts, including Saudi 
        Arabia, will work cooperatively with U.S. Consular Officials to 
        promote homeland security in the Visa process. In addition, an 
        increase of $4 million is requested to replace funding 
        previously provided through the Immigration Examinations Fee 
        Account.
  --$25 million to support Benefit Fraud. Immigration fraud poses a 
        threat to national security and public safety because it 
        enables terrorists, criminals, and illegal aliens to gain entry 
        and remain in the United States and diverts resources and 
        benefits from legitimate claimants. In cooperation with the 
        U.S. Citizenship and Immigration Service (USCIS), ICE's goal is 
        to detect, combat, and deter immigration fraud through 
        aggressive, focused, and comprehensive investigations. This 
        enhancement will provide stable funding to ICE's benefits fraud 
        program by replacing funding previously provided through the 
        Immigration Examinations Fee Account.
    The President's fiscal year 2005 budget requests $1.209 billion for 
detention and removal activities, which represents an increase of $125 
million from fiscal year 2004. Although this is an increase for the 
detention and removal program, we project a decrease in revenue 
collected in the Breached Bond/Detention Fund. Consistent with ICE's 
10-year Detention and Removal Strategic Plan, these resources will be 
used to enhance public safety and national security by ensuring the 
departure from the United States of removable aliens.
    The funding will also help ICE meet its detention needs. Since 
1994, the average daily population of detainees has grown to more than 
20,000, from less than 6,000. This rapid growth was a result of 
expanded enforcement capabilities and changes in detention requirements 
resulting from the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996. The fiscal year 2005 budget request will 
support the use of state and local detention facilities, the eight 
Service Processing Centers, the seven contract detention facilities, 
and joint DHS/Bureau of Prison facilities to detain those aliens 
subject to removal.
    Our overall objective, however, is the removal of aliens unlawfully 
present in the United States, not their detention. In fiscal year 2003, 
ICE removed more than 140,000 individuals including 76,000 criminal 
aliens.
    ICE is also committed to aggressively tracking, apprehending, and 
removing fugitive aliens, those who have violated U.S. immigration law, 
been ordered deported by an immigration judge, then fled before the 
order could be carried out. This budget request will allow ICE to 
continue its efforts to fulfill that commitment through the Fugitive 
Operations Initiative.
    The President's fiscal year 2005 Budget request seeks $108.2 
million in total enhancements for the Detention and Removals Program. 
This includes:
  --$30 million/140 FTE for the Institutional Removal Program (IRP). 
        The IRP is designed to ensure that aliens convicted of crimes 
        in the United States are identified, processed, and, where 
        possible, removed prior to their release from a correctional 
        institution. This enhancement will further ICE's plans to 
        expand the program nationally to all Federal, State, and local 
        institutions that house criminal aliens, while ensuring more 
        efficient processing and case management.
  --$50 million/118 FTE for Fugitive Operations. The resources 
        requested are to continue the implementation of the National 
        Fugitive Operations Program (NFOP), established in 2002, which 
        seeks to eliminate the existing backlog and growth of the 
        fugitive alien population over the next six years.
  --$11 million/30 FTE for Alternatives to Detention. This initiative 
        provides the resources to establish additional non-traditional 
        family and female detention settings and establish community 
        supervision operations. This will provide effective supervision 
        of persons released into the community during immigration 
        proceedings or while awaiting removal in certain circumstances 
        while reducing costs and ensuring compliance.
  --$5 million/14 FTE for detention bed space. An increase in bed space 
        to accommodate the higher volume of apprehended criminal 
        aliens. With this additional funding, ICE will enhance its 
        ability to remove illegal alien--particularly those convicted 
        of crimes while in the United States.
  --$6.2 million for Caribbean Region Interdiction. Pursuant to 
        Executive Order, the Department of Defense, Homeland Security 
        and State share responsibility for responding to the migration 
        of undocumented aliens in this region. The resources requested 
        will support the Department's share of the cost of housing 
        migrants as they await determination of any immigration claims.
  --$6 million/40 FTE for the Legal Program Backlog Elimination. During 
        fiscal year 2001 and fiscal year 2002, the Legal Program saw an 
        average increase of 19,200 cases in the backlog of matters in 
        Immigration Court. To keep pace with the increased number of 
        cases, additional attorneys and support staff are required. 
        This enhancement will provide a funding increase of more than 
        20 percent to ICE's backlog elimination program.
    The fiscal year 2005 President's budget also seeks $373 million in 
Air and Marine Operations (AMO) appropriations. AMO maintains a fleet 
of 133 aircraft and 82 vessels to protect the Nation and the American 
people against the terrorist threat and the smuggling of narcotics and 
other contraband. Aircraft are also used in support of ICE's combined 
investigation work.
    An essential element of these deployments is the work carried out 
by the Air and Marine Operation Center (AMOC), located in Riverside, 
California. This state-of-the-art center is linked to a wide array of 
civilian and military radar sites, aerostats, airborne reconnaissance 
aircraft and other detection assets, which provide 24-hour, seamless 
radar surveillance throughout the continental United States, Puerto 
Rico, the Caribbean, and beyond. AMOC allows ICE to identify, track, 
and support the interdiction and apprehension of those who attempt to 
enter U.S. airspace with illegal drugs or terrorist objectives.
    The President's fiscal year 2005 Budget request seeks $40.5 million 
in total enhancements for Air and Marine Operations. This includes:
  --$28 million for Increased P-3 Flight Hours. P-3 aircraft are 
        critical to interdiction operations in the source and transit 
        zones as they provide vital radar coverage in regions where 
        mountainous terrain, expansive jungles and large bodies of 
        water limit the effectiveness of ground-based radar. This 
        request will increase P-3 flight hours from 200 to 600 per 
        month.
  --$12.5 million for Long Range Radar. Primary Long Range Radar 
        provides position information (geographic/altitude) of airborne 
        objects and flight data information to civil aviation, defense, 
        and law enforcement agencies. ICE uses the radar to receive 
        data for drug interdiction efforts along the southern border.
    The fiscal year 2005 budget request includes $478 million in 
reimbursable authority for the activities of the Federal Protective 
Service (FPS). The FPS provides for the security and related law-
enforcement functions at more than 8,800 Federal facilities/buildings 
across the Nation. These funds will support several initiatives 
designed to protect Federal facilities from terrorist attacks, 
including a nationwide K-9 bomb detection program and another aimed at 
improving our capability to respond to weapons of mass destruction. FPS 
will also be able to improve its communication capabilities and enhance 
its intelligence sharing processes.
    The fiscal year 2005 budget request includes $613 million in 
Federal Air Marshals Service appropriations.\1\  The FAMS transferred 
from the Transportation Security Administration (TSA) to ICE in 
November 2003. This movement of the FAMS to ICE will significantly 
increase the number of Federal law enforcement agents to deploy during 
times of increased threats to aircraft ultimately providing a surge 
capacity during increased threat periods or in the event of terrorist 
attack. To date, 176 ICE agents have gone through FAMS training and we 
anticipate training up to 800 by the end of the fiscal year. This 
cross-training creates a ``surge capacity'' to effectively deal with 
specific threats related to aviation security. And, on February 25, 
2004, ICE and the U.S. Secret Service entered into an agreement that 
will bolster U.S. aviation security by providing a ``force multiplier'' 
to ICE's FAMS. Under the terms of the agreement, the Secret Service 
will provide the ICE FAMS with travel information for armed personnel 
traveling on U.S. commercial flights during their normal course of 
business and will enable the ICE FAMS the flexibility to deploy their 
Federal Air Marshals to a wider range of flights, while providing 
greater flexibility to conduct FAMS missions at maximum levels based on 
its concept of operations.
---------------------------------------------------------------------------
    \1\ The President's Budget reflects a transfer of $10 million from 
the Federal Air Marshals Service (FAMS) program to Science and 
Technology (S&T) for research and development. This consolidation of 
research and development funding in S&T will provide for greater 
oversight of research and development activities in the Department and 
enhance service to FAMS. This funding will be devoted to FAMS air-to-
ground Communications project.
---------------------------------------------------------------------------
Conclusion
    The fiscal year 2005 budget request for the ICE supports the 
President's National Strategy for Homeland Security, the framework for 
accomplishing our complex mission to protect the homeland, and ICE's 
mission to enforce immigration and customs law, locate and remove 
aliens unlawfully present in the United States, protect jobs for those 
who are legally eligible to work, maintain a nationwide anti-smuggling 
program, enforce laws against money-laundering and child pornography, 
and protect Federal property and air security.
    While many challenges lie ahead, we continue to build and foster a 
premier law enforcement agency from the powerful tools and authorities 
we have been given. The men and women of ICE stand ready to continue to 
build a successful organization for the present and future. The fiscal 
year 2005 budget request provides the resources to enable ICE to manage 
its responsibilities and continue its work to secure the homeland to 
protect and serve the American people.
    I look forward to continuing to work with you to accomplish these 
objectives while continuing to manage a world class law enforcement 
organization to protect this Nation against anyone who would do it 
harm. We are committed to preventing terrorist attacks and reducing 
systemic vulnerabilities that threaten the security of the country.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

                          SHORTFALL IN FUNDING

    Senator Cochran. I hope that during the first round of 
questions we will be able to limit our time to 5 minutes each. 
And that will give us all an opportunity to ask a second round 
of questions, if that is the wish and pleasure of the senators 
on the subcommittee.
    Let me start by bringing up this issue of the shortfall in 
funding. In the Congressional Quarterly yesterday, Monday, 
March 29, there is an article that discusses this and carries 
some quotations from administration officials, a spokesman from 
the Border and Transportation Security Directorate, which 
suggested that there is not an actual shortfall in the funding. 
And the official, Dennis Murphy, is quoted as saying, ``We're 
projecting that the spending rate may need to be slowed down. 
And we just need to take the foot off the accelerator a bit.''
    My question is: Is that an appropriate assessment in the 
judgment of this panel? I notice that it may be that not all of 
your agencies are affected by this. But I think Mr. Bonner's 
and Mr. Garcia's are.
    Mr. Bonner, what is your reaction to that?
    Mr. Bonner. First of all, I do not want to parse words 
here, but, I mean, there is not an actual shortfall, but there 
is a potential shortfall. Let me just say from the----
    Senator Cochran. Press the button on your mike.
    Mr. Bonner. Maybe it is just not close enough, Senator. Is 
that better?
    Senator Cochran. Yes.
    Mr. Bonner. Okay. I was just saying that without trying to 
parse words too carefully here, I think it is more appropriate 
to characterize this as a potential shortfall, not an actual 
shortfall. And the reason I say that is, I am going to speak 
just from the perspective of Customs and Border Protection 
here. And that is that as part of what I do as a manager of the 
agency every year is to, at the end of the first quarter, I 
take stock, I get a report from my budget office as to where we 
stand. And I was concerned after the end of the first quarter 
review that with the rate of spending as to whether or not we 
were going to be within budget at the end of the year and not 
be deficient.
    And secondly, the possible impact of the reconciliation of 
budget allocations between, potentially between, CBP and ICE, 
which is something, by the way, I believe that will be 
completed by the Department in the next several weeks. But I 
was concerned about that. And as a prudent manager of Customs 
and Border Protection, I directed that we curtail 
nonoperational travel, that we curtail nonoperational overtime, 
not overtime that is related to mission performance here. And I 
also believe that we should have a temporary suspension of 
hiring, except for Border Patrol agents at Customs and Border 
Protection, so we could get a clear picture of our spending 
rate and our budget.
    And when I say temporary, I mean temporary. And that is 
that we would suspend--and we are just starting this. It would 
be a short suspension that could literally be several weeks. 
And then I would be hopeful that we would be able to resume 
hiring. I do not know. I mean, this will depend upon what our 
budget picture looks like when we take stock in 3 or 4 weeks.
    But on the positive side, I do want to tell this 
Subcommittee that we did move out at the beginning of the year 
aggressively in terms of hiring new employees at Customs and 
Border Protection. And we have already hired, so any suspension 
here does not affect what we have already hired. We have 
already hired 2,700 employees. And these include 1,500 
Inspectors, CBP Inspectors, 800 Border Patrol agents, and some 
other personnel.
    And we are also looking very closely at the attrition rate 
here in terms of--right now, that looks pretty encouraging in 
terms of both the Border Patrol agents and CBP Inspectors. The 
attrition rates right now, if this holds up, are lower than 
projected. They are as low, by the way, this year as 5.5 
percent right now for Border Patrol agents. And I think some of 
you know that the attrition at the Border Patrol was close to 
20 percent just 2 years ago, when it was part of the INS.
    So again, all that we are doing here is we are looking at 
this very, very closely. And we are making some temporary 
adjustments. And we will then have to make some decisions as to 
whether or not we can resume hiring or whether we have to 
suspend it further. But that would be my overall assessment, 
Mr. Chairman.

                              ICE RESPONSE

    Senator Cochran. Thank you.
    Mr. Garcia, what about the Bureau of Immigration and 
Customs Enforcement that you are responsible for? What is the 
effect of this on your agency?
    Mr. Garcia. Yes, Mr. Chairman. A similar effect to what 
Commissioner Bonner was describing. We have imposed a temporary 
hiring freeze. There is no category within ICE that is exempt 
from that at the moment. We have been hiring up to the point of 
the end of the first quarter and imposed this, again looking 
down the road, looking at the spending rate.
    But from the perspective of my agency, we are very much 
concerned with mapping issues, distribution issues, 
particularly in the IT context, services being provided, and 
mapping funding to the provision of those services are very 
complicated issues, if you look at the size of the legacy 
agencies that were involved, the services that were provided, 
and the split that we have accomplished very successfully. You 
can appreciate the complexity of those issues.
    We are very much watching that process, optimistic that we 
will, working together, have firmer numbers within the next 
several weeks, that we can then reassess, as Commissioner 
Bonner said, again look at spending rates, look at the harder 
numbers, and see what are the steps that we need to take to be 
fiscally responsible, which may not, and we all hope will not, 
include a hiring freeze.

           POSTPONING OR DEFERRING OF ANY PROGRAM INITIATIVES

    Senator Cochran. Have either one of you had to postpone or 
defer any program initiatives, any activities that would defer 
initiatives that you had already planned or put in place? Have 
you postponed doing anything that you intended to do?
    Mr. Bonner. We have not at CBP. And I hope we do not have 
to. But we have not at this point.
    Senator Cochran. Mr. Garcia, what about you?
    Mr. Garcia. None of the new programs or operations. We have 
not gone forward with the 2004 enhancements as of yet.

                           IMMIGRATION SYSTEM

    Senator Cochran. Thank you.
    Senator Byrd. Our immigration system is underfunded and 
understaffed. The Bureau of Immigration and Customs Enforcement 
has just over 13,000 criminal investigators to locate and 
remove 8 million to 11 million illegal aliens. This is one 
among many responsibilities. Following the passage of the 1986 
amnesty for 2.7 million illegal aliens, the INS had to open 
temporary offices, hire new workers, and divert resources from 
enforcement areas in order to process amnesty applicants. The 
result was chaos that produced rampant fraud.
    The backlog of immigrant applications is larger today, 6 
million and rising. The President's amnesty proposal would dump 
another 8 million immigrant applications onto an already 
beleaguered immigration system. It took only 19 temporary visa 
holders to slip through the system to unleash the horror of the 
September 11 attacks. The President's amnesty would shove 8 
million illegal aliens through our security system, many of 
whom have never gone through any background check.
    If there are no new resources in the budget to implement 
the President's amnesty proposal, implementation of the reform 
proposal would create incredible stresses on an already 
stressed border security system. It is a recipe for disaster.

                   FUNDING FOR ENFORCEMENT ACTIVITIES

    While I note that your budget has several modest proposals 
to deal with the existing enforcement shortcomings, would you 
inform the subcommittee how much additional money is included 
in the President's budget to implement your enforcement 
activities in support of the President's amnesty proposal?
    This question is for Mr. Garcia.
    Mr. Garcia. Thank you, Senator Byrd. As a starting point, 
looking at the 2005 enhancements, we do have $23 million for 
worksite enforcement related to the possibility of a temporary 
worker program. But I think there is a much more complex 
approach to whatever legislation, if any, is ultimately passed, 
which would be, one, we have split the INS apart and now have a 
mission focus on enforcement both at the border and in the 
interior, and a separate services bureau focused on providing 
that service.
    We have made tremendous strides in that reorganization, 
focusing a very powerful enforcement tool on the enforcement 
mission within ICE and within CBP. We have reorganized within 
ICE. We have moved, are in the process of moving, excuse me, 
the Institutional Removal Program out of investigations and 
into Detention and Removal, which will free up additional 
investigative resources within that division.
    All of these pieces moving forward look at how do we place 
integrity within our immigration system? How do we enforce visa 
security, US VISIT, our compliance enforcement operation, which 
we have again asked for an enhancement for in 2005. This is a 
complex, comprehensive approach to the shortcomings that you 
have described, Senator. So I cannot point to you one place in 
our budget where we would address any proposed legislation or 
where we would address specific shortcomings of the past. We 
are taking a comprehensive approach to those problems.
    I would also add that we are very much alert to the 
possibility of fraud within the immigration system. I have 
taken steps to address that already. And we will very much look 
to participate in the process of crafting legislation that can 
ensure that whatever benefits or whatever program is designed 
gets to the people it was intended to get to.
    I was a prosecutor in the Nineties. I prosecuted cases 
involving benefits fraud in some very unfortunate context. I 
know the risks firsthand. And I would very much feel the 
responsibility to participate in that process, to look at how 
that program is crafted and what steps we can build into it to 
make it less susceptible to fraud.
    Mr. Aguirre. Senator, may I tag along to that, if I could?
    Senator Byrd. Please.

                                BACKLOG

    Mr. Aguirre. Just a couple of comments. One, the backlog, 
Senator, is not 6 million. We have 6 million pending cases. But 
of those, 3.6 are backlog. In other words, they are behind our 
normal processing time. Now, that is plenty, but it is not 6 
million.

                        TEMPORARY WORKER PROGRAM

    You mentioned the President's proposal as an amnesty. I do 
not consider it so. In fact, I think it is not an amnesty. I 
think it is a temporary worker program that would identify 
these 8 million individuals and would put them within a legal 
program where we would be allowed to do background checks. 
Indeed, these individuals are not within our radar scope today, 
but would be once they apply.
    And there is mention about the fact that there is no 
provision in our Bureau for the President's proposal. Of 
course, there is not, because we are waiting for the Congress 
to flesh out, if you will, the details of the proposed 
legislation so that we can then put a fee that would be matched 
against the cost of processing these applicants. So in other 
words, once the Congress acts, and we certainly hope the action 
will come forth, we will match whatever work is required behind 
that legislation to charge the applicants for the cost of 
processing that application.
    Senator Byrd. I appreciate your comments. I am of the 
opinion that the President's new alien amnesty program is quite 
ill-advised. If you are requesting any new resources, how much 
extra would be needed to implement this sweeping amnesty?
    Mr. Aguirre. Senator, are you finished with your question?
    Senator Byrd. Yes. Anyone.
    Mr. Aguirre. I am sorry. I did not want to interrupt.
    We are requesting additional resources, but not in relation 
to the President's initiative on the temporary worker program. 
The temporary worker program awaits congressional action. And 
until such time as the Congress tells us exactly what the 
Congress wants us to do, we really cannot build a program to 
suit it. Once that program is identified, we will cost it out. 
And there will be a fee associated with that. I expect that the 
fee will be 100 percent covering the cost of the program.
    Senator Byrd. Mr. Garcia.
    Mr. Garcia. Yes, Senator Byrd. As I mentioned earlier, we 
have asked for $23 million in worksite enforcement really to 
position ourselves, one, in an important area of enforcement 
for us, but to also set the stage, so to speak, for working 
with Congress on whatever legislation is passed and looking at, 
again, that integrity of the system, the counter-fraud efforts, 
that will match up with an effective temporary worker program, 
whatever the scope of that program is ultimately decided upon.
    Senator Byrd. My time is up.
    Senator Cochran. Yes, sir.
    Senator Leahy.

                 LAW ENFORCEMENT SUPPORT CENTER BUDGET

    Senator Leahy. Thank you, Mr. Chairman.
    Mr. Garcia, to go back to the Law Enforcement Support 
Center, and as I said, I am very happy with those areas, 
especially Operation Predator among others, when I heard from 
law enforcement agencies and others around the country of the 
support they have gotten from that and how helpful it is to 
them, I want to keep it helpful. Having begun my public career 
in law enforcement, I am very sensitive to what their needs 
are.
    The President's budget proposal did not include a specific 
budget for the LESC. I would assume that the base budget from 
this year will be continued the upcoming year. But the demand 
increases all the time. How do you make sure that--I mean, the 
demand--the more--the LESC, success breeds success. The more 
they accomplish, they more they are heard about from other law 
enforcement, the more they get called upon, I think--I do not 
have the exact figures here, but I know you would find that the 
requirements and the requests continue to go up.
    How are you going to do that? How are you--if the budget is 
the same, how are you going to keep up with the requests?
    Mr. Garcia. Thank you, Senator Leahy. A number of points. 
First, the obvious point is the LESC really is the crown jewel 
of our State and local cooperation efforts, tremendous 
facility, has seen an increase in responsibility, increase in 
workload, and an increase in the incredibly important 
information it puts out to the field.
    You mentioned an increase in inquiries. They were up about 
175,000 this year over the year before, an incredible number 
showing, I think, the realization on the part particularly of 
State and local officials of what a service the LESC can 
provide. We are committed to continuing to provide that service 
and enhancing our capability to do that.
    You are right, the LESC budget is built into the base 
budget for the Office of Investigations. We have also set aside 
money, and I believe we have briefed some of your staff members 
on enhancements for the facility itself of up to, I believe, $5 
million for enhancements to that facility. We are also putting 
new programs within LESC. We recently moved the Central States 
Command Center from Chicago to Vermont, recognizing how 
efficient it is to have that all under one roof.
    As we move programs, we move money with them. We mentioned 
Predator. We have set up the 800 hotline there in Vermont, 
incredibly successful. And I will give one example. We got a 
call into that hotline in Vermont, a citizen call, saying they 
believed that somebody was abusing minors in a house and that 
that person may have had AIDS. We responded with the local 
officials--it was in Massachusetts--out of Vermont to the local 
officials with our ICA agents, arrested the individual, charged 
him with sexual offenses against minors. And we launched an 
immigration detainer, because in fact he was an illegal alien. 
An example of the capability of the LESC, the response 
capability, and then the actual public safety benefit of that 
response. We are committed to expanding upon that capability. 
And I think the LESC is going to grow in importance.
    And as you mentioned, Senator, as it does, we will look at 
the OI budget, we will look at resources we have allocated for 
these programs, and we will look at our ability to do that out 
of the LESC in more effective ways.
    The example I give of the LESC benefit all the time is, a 
State trooper pulls somebody down, flags someone down on the 
side of a road. He is by himself. He is approaching that car. 
That trooper can call the LESC 24 hours a day, 7 days a week, 
and find out if that person in the car is a reentering felon. 
Is that not information that trooper would want to know as they 
approach a car in the middle of the night on the side of a 
highway?
    That is the type of service the LESC can provide. And 
again, Senator, we are committed to working with you, with 
Congress, to ensure that that center maintains a central role 
in supporting our colleagues and in supporting those new 
programs like Operation Predator.
    Senator Leahy. Well, I appreciate that. It is a sad story 
you tell of the situation in Massachusetts. Unfortunately, as 
you know and I know, it occurs in too many places. We all wish 
it did not occur at all. But to the extent it occurs, let us be 
thankful we can move quickly to stop it from continuing.

                     GUEST WORKER PROGRAM CONCERNS

    Mr. Aguirre, I heard your answer to the question--I am 
still a little bit concerned--on this guest worker program of 
the President. You said if we passed this, we will assume that 
there will then be a request for funds to do it. But it is--I 
think we are getting kind of the cart before the horse. We are 
still waiting for the President's proposal. I mean, it is the 
President's proposal. It is not a congressional proposal. The 
President is the one who made the speech. It was done with a 
great deal of fanfare.
    Are we going to get a proposal from the White House? I 
mean, I and others have asked for this for several months now. 
Are we going to get a request for a proposed legislation, or 
has the White House shelved this proposal?
    Mr. Aguirre. Well, no, Senator, I think the White House has 
not shelved this proposal. I think the White House was very 
serious on January 7, when the President issued his call to the 
Congress to act. Subsequent to that, during the State of the 
Union and probably at least a dozen times that I can count, the 
President has mentioned again and again that he expects the 
Congress to act on his initiative.
    Now the way I understand government, of course, I am coming 
from the private sector only 3 years ago, I see the Congress as 
enacting the legislation and I see the Administration as 
administering the legislative----
    Senator Leahy. Well, usually when the President has a 
proposal, especially one that they announce with such great 
fanfare, they actually send it up here. Other than the speech 
and the press releases and the handouts at selected fund 
raisers, we have not seen any legislation. Are we going to get 
legislation?
    Mr. Aguirre. Well, Senator, the legislation that I have 
seen has been a number of bills that have been introduced by 
various members of the Congress. My understanding is that the 
legislation was expected to come from within the Congress, not 
from the White House. But the point is, Senator, I guess if you 
are looking to the substance----

                        BACKLOG REDUCTION ISSUE

    Senator Leahy. If that is the case and the President has 
also promised to reduce the average wait time for applicants 
for immigration benefits to 6 months, if you have these two 
goals, I mean, this is an enormous, enormous increase in work. 
Why is there not any money being requested for either one of 
these things, either to get rid of the backlog or for this 
guest worker program of the President's?
    Mr. Aguirre. Well, yes, Senator. If I may take them one at 
a time, I think the backlog is one that we have finally begun 
to get some traction on it. There will be a backlog reduction/
elimination plan that will be coming to the Congress in the 
coming weeks. We expect to fulfill the President's commitment 
that I have inherited to eliminate the backlog by September of 
2006.
    As you very well know, after 9/11, that took a serious 
setback. And we are correcting that. And with the reallocation 
or repatriation, if you will, of many of the adjudicators that 
were sent on to do something else, I think we are going to get 
some traction here. We have already found some of our district 
offices meeting the backlog reduction. And we are continuing on 
as well.
    I separate the backlog reduction initiative from the 
President's temporary worker proposal because I think they are 
apples and apples. I think we will be able to implement the 
program based on the Congress legislation that will be 
innovative, that will be technologically efficient, that will 
allow us to process people----
    Senator Leahy. But you need more funds.
    Mr. Aguirre. I think we will need more funds through the 
fees that will be joining the application.
    Senator Cochran. Senator, your time has expired.
    Senator Leahy. Thank you.
    Senator Cochran. Senator Shelby.
    Senator Leahy. I have some other questions for the next 
round.
    Senator Cochran. Absolutely. Sure.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

         NUMBER OF ILLEGAL ALIENS RESIDING IN THE UNITED STATES

    Secretary Garcia and gentlemen, I asked this other in my 
opening statement. What is your best estimate, Mr. Secretary, 
of the number of illegal aliens currently residing in the 
United States of America?
    Mr. Garcia. Senator, you mentioned some of the numbers 
earlier. The number, I think, that is posted on the website is 
7 million. I have the 8 million number as well. I think it 
again reinforces----
    Senator Shelby. You do not really know, do you, honestly?
    Mr. Garcia. I think, Senator, it again reinforces your 
point that it is a very difficult number to identify because of 
what you are trying to quantify.
    Senator Shelby. Is that an increase or a decrease, say, 
from the previous year?
    Mr. Garcia. I could not give you that answer, Senator. I do 
not mean to be evasive. I do not know. I think it would be 
difficult to answer.
    Senator Shelby. Mr. Bonner, do you have a judgment on that?
    Mr. Bonner. My judgment is that the numbers of illegal 
aliens that are successfully entering the United States has 
marginally decreased.
    Senator Shelby. And what do you base that on?
    Mr. Bonner. I base that on the fact that the Border Patrol 
apprehensions--most, of course, the illegal migration, the 
spigot, if you will, is the southern border. The Border Patrol 
apprehensions last year were 931,000 illegal aliens 
apprehended. The vast, vast majority of that was at our border 
with Mexico. I believe that that number is to some extent a 
surrogate for the number of people that have successfully and 
illegally crossed our border. And that apprehension number, has 
been steadily declining for several years.
    Now by the way----
    Senator Shelby. How do you get to the high number of 7, 8, 
perhaps 10 million? You know, we do not know the exact number.
    Mr. Bonner. Yes. It is estimated between----
    Senator Shelby. If you are stopping everybody at the 
border, how are they getting in?
    Mr. Bonner. We are certainly not stopping everybody at the 
border.
    Senator Shelby. I know that.
    Mr. Bonner. No question about it. I mean, right now we have 
the Arizona border, which is substantially where there is mass 
migration taking place virtually every day. That is why we have 
instituted the Arizona Border Control Initiative, to get 
control of that.
    But I would say this. If you look over the past number of 
years, we have, through Border Patrol increases, Border Patrol 
sensoring technology, I believe with the adding of UAVs and 
some sensoring technology in this budget, we are getting 
marginally better control over our border in terms of illegal 
migration. Now does that mean nobody is getting through?
    Senator Shelby. You used the word ``marginally.''
    Mr. Bonner. Well, we need to do a lot better.
    Senator Shelby. Okay.
    Mr. Bonner. And it is very difficult to estimate the 
numbers of illegal aliens that have gotten through and that are 
adding to that base of illegal aliens that are residing 
illegally in the United States. But I would say that there is 
some reason to believe that we have gotten somewhat better 
control of the border. And I say this anecdotally.
    Senator Shelby. Sure, you do.
    Mr. Bonner. Let me just tell you that I know that if you 
take significant parts, of the California border and the Texas 
border, where there have been substantial increases in Border 
Patrol staffing, improvements in the sensoring and technology 
that is being used to detect illegal crossings, that we have 
better control over a lot of the segments of our southern 
borders than we did going back, say, 5 to 10 years ago.
    We have to, by the way, we have to get better. I do not 
mean to say this nirvana here.
    Senator Shelby. I know that. I know that.
    Mr. Bonner. So it is very hard to say. Probably 60 percent, 
by the way, is the estimate of the----

                         ADEQUACY OF RESOURCES

    Senator Shelby. Do you have enough resources? This was 
asked by Senator Byrd and others. Do you have enough resources 
to do the job to protect our borders considering that there are 
probably 7 to 10 million illegal aliens in this country?
    Mr. Bonner. If we cannot--do we have enough resources? We 
have, by the way, through this subcommittee and through the 
Congress and the President's request, we have been adding 
resources. We have a request here for a very significant amount 
of funding for better sensoring technology to control better 
parts of our border.
    I am very sanguine about the prospects through the use of 
unmanned aerial vehicles. For the first time, the Border Patrol 
is pioneering the use of UAVs. We will start that later this 
year, I believe, at the Southwest border. But it will give us 
much better detection capability against illegal migration 
across our Southern border. Potentially, as you know, because 
of the terrorist threat, we also need to be concerned about the 
Northern border, as well.
    Senator Shelby. Absolutely both.

                      IS THE CHALLENGE TOO GREAT?

    Mr. Bonner. So we are moving in the right direction. But it 
is an extremely difficult thing. I actually think, by the way, 
if I could add, I think the President's temporary worker----
    Senator Shelby. It is the challenge. I respect all three of 
you. And I know you are dedicated here.
    Mr. Bonner. Yes, sir.
    Senator Shelby. But is the challenge too great to win?
    Mr. Bonner. No.
    Senator Shelby. In other words, we are losing. We are 
losing the war on illegal aliens now, if there are 7 to 10 
million people here illegally that never had a background 
check, you do not know anything about them. And they are coming 
here. They are staying here. They are working here. And what 
does that say to the people who come here legally and go 
through the hoops?
    Mr. Bonner. Well, I think----
    Senator Shelby. Like you did, sir.
    Mr. Bonner. Well, perhaps Dr. Aguirre can respond to that. 
But I just want to say, Senator, that we can do this. We are, I 
believe, getting greater control over the border. We need to do 
that. If we cannot cut off the spigot for illegal migration 
coming in, well, we cannot ever address this problem seriously. 
Then we have to figure out what to do with the 7, 8, or 10 
million illegals that are here in this country and figure out 
what is the best, from a point of view of practicality, 
realism, and policy, what is the best approach to that problem.

                           OVERSTAYS ON VISAS

    Senator Shelby. And what about--before my time expires, 
maybe you can answer afterward. What about the overstay on 
visas? People come here legally, millions of people come to 
this country legally. What do you do to track those people once 
they are here? How do you know they have gone back unless there 
is a central system checking?
    Mr. Bonner. Customs and Border Protection is to prevent 
them from entering. And ICE has the responsibility----
    Senator Shelby. Mr. Garcia.
    Mr. Bonner [continuing]. To remove them, if we have failed.
    Mr. Garcia. Thank you, Senator. We have the enforcement 
side of US VISIT that has been mentioned earlier. Last year, 
when we stood up ICE, we created a compliance enforcement unit, 
basically to put that integrity in the system. It looks at US 
VISIT. It looks at SEVIS, where we have had problems with 
students coming in, students not going to school, not 
attending, dropping out.
    Senator Shelby. Sure.
    Mr. Garcia. We have made tremendous progress on that.
    Senator Shelby. That is how a lot of the terrorists got 
here. They came here legally, did they not?
    Mr. Garcia. One of the Trade Center----
    Senator Shelby. Some of them overstayed their visas.
    Mr. Garcia. The driver of the World Trade Center bombing of 
the van in 1993 was a student who had come here on a student 
visa, had never gone to school. We take that very seriously. We 
have prioritized the leads using intelligence, using other 
information. We vet those at Headquarters, and we send those 
out into the field. We have been doing that for some time now. 
We are seeking additional funding in 2005 for that program.
    Asa Hutchinson and I both believe that it is incredibly 
important in maintaining that integrity in the system, in 
addition to its national security implications.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Cochran. Senator Murray.

              LESSONS LEARNED FROM OPERATION SAFE COMMERCE

    Senator Murray. Mr. Bonner, at the 2002 Western Cargo 
Conference, you said, and I quote, ``The American people on the 
global trading system are more secure, if we screen cargo 
containers that present a high risk for terrorism as early as 
possible and certainly before they reach U.S. shores.''
    I really agree with that. And I am pleased that the two 
most prominent cargo security programs within Customs, C-TPAT 
and CSI, seek to push out our borders to foreign ports. Those 
programs will eventually help expand our various cargo security 
programs into a standard system for sending goods throughout 
the world. But they are not going to get the job done alone. We 
have now spent $58 million on a program called Operation Safe 
Commerce, which is working to test the security of 19 different 
supply chains running through 5 different ports, which 
compromise the 3 largest load centers in the country. In fact, 
more than 80 percent of our cargo goes through those ports.
    I think it is really imperative that we are able to learn 
from all of our port security programs. And we need to tie them 
together and rapidly instituted a large-scale operationally 
cargo security program in the United States.
    Commissioner Bonner, would you tell the committee how you 
are planning to implement the lessons that we have learned from 
Operation Safe Commerce into an overall cargo security 
standard?
    Mr. Bonner. I would be happy to do that, Senator. You and I 
have worked a lot on this issue. But first of all, Operation 
Safe Commerce has been a very valuable test bed for different 
kinds of technologies that would be useful in better securing 
the movement of particularly ocean-going cargo containers from 
various places in the world to the United States. And as you 
indicated I think earlier, 8 to 9 million ocean-going cargo 
containers arrive at our U.S. seaports annually, including some 
of our major ports on the West Coast like Seattle and Tacoma.
    But the approaches to take the lessons there to develop and 
essentially to improve even more the supply chain security 
regimen. And there are two key elements to that. One is, and I 
believe we can do this through the Customs Trade Partnership 
Against Terrorism, leveraging U.S. importers and foreign 
suppliers to increase essentially the point of loading security 
to meet best practices and standards at the point that the 
containers are actually loaded at foreign manufacturers' 
facilities, whether that is in Asia or Europe or elsewhere.
    And secondly, using the lessons from Operation Safe 
Commerce to develop best practices and minimal standards, if 
you will, for a smarter, more secure container to be used in 
terms of the movement of those goods to the U.S. seaports. And 
when I say a smarter container, I mean one that, at the 
minimum, can be read by U.S. Customs and Border Protection 
Inspectors either upon arrival or at the CSI ports, as we 
expand those to more and more ports overseas, to determine 
whether it has been tampered with enroute.
    So those are at least a couple of the things that we are 
looking at to see if we cannot implement to improve the overall 
security of global trade and movement of cargo to the United 
States.

                REPORT DUE AT THE END OF THE FISCAL YEAR

    Senator Murray. So we expect a report from them by the end 
of this fiscal year. And you are going to be using the 
information that they have learned from that to get to some 
kind of security standard.
    Mr. Bonner. It is still being evaluated. But I certainly 
intend to. I believe, based upon the preliminary reports I have 
obtained, that there are some very useful things that have been 
done that are going to inform us and help guide us to an 
improved security of the movement of cargo.
    Senator Murray. Okay. Well, I do want to work with you on 
that. There is still $17 million to go out. They have spent a 
great deal of time, our taxpayers dollars and money on this. 
And I think we can learn a lot from them. We want to make sure 
it is used and used wisely.

       INSTALLATION OF RADIATION PORTAL DEVICES AT PORTS OF ENTRY

    Commissioner, let me also ask you, Customs is beginning the 
process of installing these radiation portal devices at ports 
of entry throughout the Nation. It seems to me it is a little 
bit late to check for radiation. Both the ports of Seattle and 
Tacoma are located right next to our downtown businesses and 
residential areas. And a ship bound for these ports travels 
through the Puget Sound before they get there. They pass by a 
major refinery compound, three Navy bases that each home port 
nuclear powered vessels, and a major petroleum tank farm.
    Why have you decided, at least initially, not to push out 
the borders when it comes to this kind of technology? And can 
you tell us if you plan on deploying these monitors to foreign 
ports that are participating in C-TPAT?
    Mr. Bonner. I think our objective and our intention is to 
do both. In other words, we are talking about a layered defense 
in-depth strategy. But we do want to do everything we can, 
particularly given the catastrophic consequences of 
radiological weapons, to improve our ability to detect them 
when they are arriving at our borders. And this is, of course, 
our land borders. We have already deployed now almost 250 
radiation portal monitors, very sensitive radiation detection 
equipment, along many places on our land border, particularly 
Canada. We are now expanding to seaports and so forth.
    But at the same time, we want to make sure that containers, 
through the Container Security Initiative, as part of the 
security screening of those containers that are identified as 
posing potential risk for terrorist threat; and that is, 
potentially risk that a terrorist organization like the al-
Qaeda could have concealed a weapon in those containers, that 
they are not only run through the large-scale X-ray scanning 
equipment, which is important to detect weapons, and 
potentially weapons of mass destruction, but they are also run 
through radiation detection. And that is part of CSI.
    Now, part of radiation detection is radiation isotope 
identifiers, handheld devices, and the like. We have at one 
foreign port, working with the Department of Energy, we are 
doing what I call ``CSI plus'', which is to deploy radiation 
portal detection systems that have the capacity for being not 
only very sensitive, but detecting potentially every container 
moving into that foreign port, including all containers that 
are ultimately outbound to the United States. And we have done 
that, working with the Department of Energy. And I give the 
Department of Energy much credit here but working in tandem 
with our U.S. Department of Energy, we have done that at the 
first CSI port, which is the Port of Rotterdam.
    And I do not know that that has been implemented yet, but I 
expect that it is going to be implemented within the next month 
or so. And so we do see that is what we want to do. If we can 
get these foreign seaports to install more sophisticated 
radiation detection equipment, it is something we want to do. 
We have started that. We have a long way to go.

                 PACIFIC NORTHWEST NATIONAL LABORATORY

    Senator Murray. Okay. As you know, the Pacific Northwest 
National Laboratory is the contracting authority for installing 
those devices. Can you give us a quick update of their 
performance and how the project is progressing?
    Mr. Bonner. Well, my assessment is that they have been 
very, very helpful to us in terms of helping Customs and Border 
Protection select the most appropriate and best radiation 
detection equipment that makes sense for a port environment. In 
the port environments, there are several port environments. 
There is the land border port environment and there is the 
seaport and the like.
    So, they have been very helpful with us in terms of 
assisting us in terms of the testing and the selection and the 
actual installation of this equipment to make sure that we have 
the kinds of protocols that resolve when you do get a radiation 
hit. And we do get hits on these things, that we can determine 
quickly whether it is an innocent radiation-emitting source or 
whether it is something that we need to be concerned about.
    Senator Murray. Well, that goes to another question I had.
    Senator Cochran. Senator, your time has expired.

                                 PORTS

    Senator Murray. Could I just follow up on his last comment? 
Because we have heard from a number of people in the ports that 
they want to know what happens when there is a positive reading 
from these devices and what the protocol is, you know, whether 
the facilities shut down and who is in charge of making those 
decisions. And if you could share with us what that is?
    Mr. Bonner. There is a protocol and I will make sure that 
all of our CBP port directors make sure they have had that 
discussion within the context of the port security committees 
that exist at each port with the Coast Guard.
    Senator Murray. Good. Thank you.
    Senator Cochran. Thank you, Senator.

                   REQUEST FOR DETENTION AND REMOVAL

    Mr. Garcia, one of the largest increases requested by your 
bureau is for detention and removal of people who are illegally 
in the country. It is an increase of $108 million, just about 
10 percent for this activity. Could you tell us what the 
specific needs are here and how you will use those additional 
funds?
    Mr. Garcia. Certainly, Senator. Detention and Removal is a 
very important program, a very important tool in enforcing 
immigration laws and maintaining the integrity of that 
immigration system that we were talking about earlier. A number 
of programs, I believe, were neglected in the past, 
particularly the Institutional Removal Program and the Alien 
Absconder Program.
    If you look at the funding enhancements for 2005, that is 
about $80 million of the dollar amount that you were speaking 
about. Institutional removal goes into the prison facilities, 
Federal, State, and also local facilities, and makes sure that 
we process illegal aliens or aliens subject to removal who are 
in those facilities. They could be very violent inmates, 
inmates with a history of violent criminal activity, predators, 
child sex predators.
    We have done a good job in the past of reaching the Federal 
facilities, according to a GAO report, a fairly good job at the 
State level, and a not very good job, and one we need to make 
much improvement on, on a local level. We are looking to 
transfer that program out of Investigations into the Detention 
and Removal Division, where I strongly believe it belongs, and 
increase our capability to place those inmates into the system 
at an earlier time period so that we streamline the process and 
make it more efficient, so we are holding those inmates for 
less time before they are ultimately removed from the United 
States.
    In fiscal year 2003, ICE removed 140,000 people from the 
United States. That is a very large number. It is a very large 
system. It needs improvement. The money in this request for 
enhancements will go towards that and making it more efficient.
    Fugitive Operations. The number of fugitives estimated in 
the country range up to 400,000. Those are people with final 
orders of deportation who have not complied. A subset of that, 
about 40,000, again an estimate, criminal aliens who have not 
complied with final orders of removal.
    We are very aggressively using fugitive alien teams to go 
after those absconders. We are prioritizing again, looking at 
the public safety value, going after those with a criminal 
record. Again, the biggest public safety value, we have a top 
ten list. We have been very successful advertising.
    This money will go to increasing those Fugitive Operations 
Teams, we call them, 30 additional teams across the United 
States. So it is really again that comprehensive approach to 
looking at integrity of the system and recognizing that an 
important part of that is the detention removal system.

        COOPERATION OF LOCAL AND STATE LAW ENFORCEMENT OFFICIALS

    Senator Cochran. Are you successful in getting the 
cooperation of local and State law enforcement officials in 
helping you achieve your goals?
    Mr. Garcia. Yes, Senator. Again, you have to look at the 
are. And there is a wide range of options available. At one 
side of the spectrum is States that want to actively 
participate in enforcement. And there is a provision, 287G it 
is called, for doing that, where we provide training to local 
officials. And we did it in Senator Shelby's State most 
recently.
    The LESC that I spoke about earlier provides another 
opportunity for cooperation. Anti-gang work, we have been very 
successful working in Chicago, L.A., Charlotte in anti-gang 
work, working with State and local officials. So there is a 
very wide spectrum to that cooperation.
    I believe that the Institutional Removal context is an area 
where we can do more working with the States. It is a benefit 
to both. It makes our work more efficient, where the States 
will flag or bring to our attention inmates who should be in 
our system. And we can remove those criminal aliens from 
probation or parole systems that cost the State money in terms 
of supervisory dollars. So I think that is an area where we are 
going to move much more aggressively in the State and local 
cooperation area.

                ACKNOWLEDGEMENT OF HARD WORK AND SUCCESS

    Senator Cochran. Well, I want to commend you for the hard 
work and the good job you are doing, your bureau is doing. I 
think we have seen a lot of new initiatives developed and a lot 
of success stories that have not gotten the attention they 
probably should have.
    Mr. Garcia. Thank you, Senator.

UPDATING CITIZENSHIP PROCESSES AND LOOKING AT THE TEST THAT IS GIVEN TO 
             THOSE SEEKING CITIZENSHIP IN THE UNITED STATES

    Senator Cochran. Mr. Aguirre, I know that you are in the 
process of updating citizenship processes and looking at the 
test that is given those who are seeking to obtain citizenship 
in our country. Could you tell us a little about what you are 
doing in that area and whether there are any additional funds 
requested to support those activities?
    Mr. Aguirre. Well, yes, Senator. Thank you. As mandated by 
Congress, we have instituted an Office of Citizenship, which is 
actually responsible for the citizenship aspect of immigration 
or, if you will, the naturalization aspect of immigration. That 
office is looking at various aspects. One, we are trying to 
make the test of citizenship a better process. It is a good 
process now, but I think it can be improved.
    We have gone through a pilot project last year to look at 
better ways to deal with the English portion of the test and 
see how we can have a more meaningful process. That pilot is 
now back. We have had some very good reports from some of the 
NGOs. And we are trying to fine tune and see how we can make it 
better.
    Additionally, there is a provision for history and civics, 
which is also part of the test that an applicant must go 
through before they are granted naturalization. We are looking 
at ways to see if we can make it a more meaningful approach 
where the questions are not the end, but the end is the 
learning and the question is part of the component. And to that 
end, sir, we are working with academicians. We are working with 
historians. We are working with the Department of Education to 
see how we can do the learning a more meaningful aspect, 
particularly since many of these applicants are slow in their 
English knowledge. We want to see how we can improve their 
understanding of what it is to be an American, not only from an 
historical standpoint, but also the civic responsibilities that 
one assumes when they become a citizen. That is all part of the 
element. And yes, sir, we do have an inclusion in our budget to 
accommodate that.
    Senator Cochran. Thank you very much.

      REQUEST FOR THE CUSTOMS TRADE PARTNERSHIP AGAINST TERRORISM

    Mr. Bonner, there is a request for an additional $15 
million to expand the Customs Trade Partnership Against 
Terrorism. Could you tell us how these resources are going to 
be used and what the purpose of that program is?
    Mr. Bonner. Yes, Senator, Mr. Chairman. It is essentially 
twofold. One is to be able to expand the validation of the C-
TPAT partners. In other words, they enter into a commitment 
with U.S. Customs and Border Protection to take certain mission 
measures, best practices, to improve their supply chain 
security literally from their foreign vendors to our ports of 
entry. And we want to, as the old saying of some former 
President was ``trust, but verify.'' So we are expanding our 
validation capability, so we are doing more validation.
    And as we validate, more people understand that this is not 
window dressing. This is serious stuff. If you are going to get 
expedited treatment upon arrival, you need to take these 
measures that you have committed to take. So part of it is for 
that. Part of it is to further expand the base of C-TPAT 
partners. We already have 5,900 companies, including many of 
the major U.S. importers that are part of C-TPAT. In fact, the 
importers alone are about 3,500. These are major importers that 
account for over 40 percent or more of the all of the incoming 
cargo coming into the United States. So it also will be funding 
to expand and administer the program.
    Senator Cochran. Thank you.
    Senator Byrd.
    Senator Byrd. I believe, Mr. Chairman, that this will 
complete our series of hearings, will it not?

                       KUDOS FOR CHAIRMAN COCHRAN

    I want to thank you Mr. Chairman for conducting these 
hearings as you have. It should also be noted that the chairman 
always calls on the other members of the committee to ask 
questions, and then he allows a second go-around. He does not 
ask his questions until the other members have asked their 
questions, and sometimes it is 2 hours before he asks his 
questions. So, that courtesy should not be overlooked. I have 
observed it, and I thank the chairman for the courtesies that 
he continually extends to the other members of the committee. 
He is a good chairman. He is not only fair to his colleagues on 
the committee, but he is also very fair and considerate of the 
witnesses.

 IS THERE MONEY IN THE PRESIDENT'S BUDGET TO IMPLEMENT THE PRESIDENT'S 
                           AMNESTY PROPOSAL?

    Earlier, Senator Shelby asked whether there is money in the 
President's budget to implement the President's amnesty 
proposal. I do not believe that we got a complete answer, and 
this is nobody's fault. Mr. Aguirre said that immigration 
services would be paid for with the new fees. I accept that. 
But we did not hear, I do not believe, from Mr. Garcia or Mr. 
Bonner.
    Certainly there would be higher costs for security 
background checks, for guest worker enforcement, for removal of 
aliens, for workplace enforcement, and for increased travel 
across the borders. The modest increases in the budget will 
barely keep up with current needs. What will the increased 
costs be, if the President's amnesty program is approved? And 
why are these funds not in the budget?
    Mr. Bonner, do you want to take a shot at that question?
    Mr. Bonner. Well, first of all, you are right, Senator 
Byrd. There are no funds, per se, in the CBP budget for the 
Temporary Worker Program that has been proposed. And I would 
make the comment that from a CBP perspective, and as the 
President has indicated, that if there were to be a Temporary 
Worker Program enacted, it would have to have a very strong 
border enforcement for a security aspect to it.
    And right now, we, of course, have a sizable Border Patrol. 
I discussed with Senator Shelby that we have a ways to go here. 
But I do think one thing that has been lost is that in the 
Temporary Worker Program proposal, that it does hold the 
promise, I think, as outlined, if you had a Temporary Worker 
Program, it potentially could relieve some of the pressure at 
the border in terms of illegal migration and give us a better 
ability to control the border, Senator Byrd. And that has 
always been important as a national objective of the United 
States.
    But let me tell you right now it is absolutely essential, 
because we need to reduce the flow of mass migrations at our 
Southern border in order to increase our prospects for 
identifying and apprehending terrorists who may be attempting 
to illegally enter our country. So I do think that there is a 
policy aspect to this that could help us get a better and 
firmer control of the border, which we need for homeland 
security purposes.
    But once if there were a bill that took final shape, 
obviously I would like to have an opportunity to discuss 
initially within the Administration what I think would be 
needed to better control the intake spigot, because we ought 
not to have a Temporary Worker Program and still have, whatever 
it is, 300,000 or 400,000 illegal aliens entering our country 
to both seek jobs or for other purposes.
    Senator Byrd. Are you in a position at this moment to 
submit an estimate as to the resources that would be needed?
    Mr. Bonner. I certainly do not have it at my fingertips, 
but I would certainly, if you requested it, I would take under 
advisement as to how we might be able to get that information 
to you.
    Senator Byrd. Would you do that for the subcommittee?
    Mr. Bonner. I will make every effort to do it. Obviously, 
Senator, I will also have to work this through the Department 
and through the Administration. But I will make every effort to 
get you that information.
    Senator Byrd. Very well. If you would, please.

                              ICE RESPONSE

    Mr. Garcia, would you make an effort along those lines?
    Mr. Garcia. Just to clarify, Senator, looking for a number 
in terms of enforcement on the President's Temporary Worker 
proposal? I would echo what Director Aguirre said in terms of 
without the outline and without the participation and 
structuring how that is enacted and how it rolls out, it would 
be very difficult to speculate as to the resources needed to 
enforce it. I think the most productive area to go here, again, 
is to lend our expertise to the process.
    And again, looking at the lessons learned, and I think you 
mentioned a few in your earlier remarks, of other legislation 
in the past to see how we can build in provisions that will 
limit the amount of fraud, anti-fraud work investment we need 
to make, and then again to look at what is the scope of the 
legislation, how will that affect the population that is in the 
United States in our ongoing enforcement efforts, and then to 
calculate what do we need to ensure the integrity of the system 
that we have all been talking about.
    I think without concrete provisions or at least an outline 
of where that legislation is going when enacted, it would be a 
very difficult exercise to calculate the amount of money we 
would need on the enforcement side.
    Senator Byrd. Well, it sounds to me as if the President was 
just posturing when he proposed an amnesty program. Nobody 
seems to have in mind a figure as to what this is going to 
cost. Certainly Congress is going to need to know more than you 
are able to tell us. You do not seem to have the slightest idea 
as to what this is going to cost. We are going to need to know 
these things.

              BUDGET REQUEST FOR THE FEDERAL AIR MARSHALS

    All right. The budget request for the Federal Air Marshals 
is essentially a flat-line request similar to last year's 
funding level. Yet, on two occasions in less than a year, late 
last summer and again over the recent winter holidays, the 
threat level was raised to Code Orange, in large part because 
intelligence and other indicators led the department to believe 
that there were enhanced threats to the United States via 
airplanes flying into or over this country.
    However, based on budget briefings with my staff, I 
understand that the resources directed to this program are not 
sufficient to hire the number of air marshals needed to 
maintain a more robust presence on targeted flights. On March 
9, I wrote to Secretary Ridge expressing my concerns about the 
potential that we may not have sufficient personnel to cover a 
significant percentage of targeted flights this year, and that 
this problem will only be compounded given the inadequate 
funding requested in the fiscal year 2005 budget.
    While we are unable to talk in specifics, I am concerned 
about the inability of your agency to, at a minimum, replace 
retiring air marshals. Are you aware, Mr. Garcia, of my letter 
to Secretary Ridge?
    Mr. Garcia. I became aware of it in preparation for this 
hearing, Senator.
    Senator Byrd. Do you know when I will get a response to my 
letter, ensuring me that the Department will maintain a robust 
staffing level of air marshals?
    Mr. Garcia. I will follow up with that, Senator, and get 
back to you. Obviously, you share, as the Department, your 
concern, the importance you place on the air marshal program.
    Senator Byrd. If my understanding of the Air Marshal budget 
and the status of the Air Marshal program is even close to 
being accurate, why are you not requesting more funding for 
hiring additional Air Marshals, ensuring that they receive 
advanced training, and increasing the tools at their disposal 
for the protection of airplanes and their passengers?
    Mr. Garcia. Senator, I think, as I mentioned earlier, the 
Air Marshals are our newest division within ICE. They came to 
ICE, I believe, in early November this past year. We are in the 
process of looking at the Federal Air Marshal Service as a law 
enforcement division within ICE, seeing how we can support 
their mission and how they support the broader ICE goals.
    We are looking at a number of different things. You 
mentioned code orange. During the most recent threat level, the 
raising of the threat level most recently, we in fact were able 
to deploy ICE agents who had been trained as Air Marshals to 
fly, I believe, more than 300 missions with the Air Marshals 
and increase their capacity. So we are looking at a number of 
different things.
    One of the things we are looking at very closely, as you 
know, and I believe you have been briefed, are our budget 
issues and our future looking down the road at the FAMS and 
what their capabilities are. That is an incredibly important 
mission, as I mentioned earlier, in ensuring civil aviation 
security. I look forward to working with this Subcommittee on 
the very important issues facing the Air Marshals and 
continuing to support that vital mission.
    Senator Byrd. How is my time running?
    Senator Cochran. Your time has expired.
    Senator Byrd. All right. Thank you. I am glad I didn't ask 
the question earlier.
    Senator Cochran. Thank you very much, Senator.
    Senator Shelby.

                             VISA OVERSTAYS

    Senator Shelby. Thank you. I want to go back on the visa 
overstays. How many people come into this country legally each 
year? That is, as a student, business, vacationing, so forth. 
It has to be in the millions.
    Mr. Bonner. Tens of millions.
    Senator Shelby. Tens of millions. So they get a visa to 
come to this country most of the time, do they not?
    Mr. Bonner. Yes, Senator. They get a visa unless they are 
traveling into the United States from a visa waiver country, in 
which case they would not require a visa.
    Senator Shelby. And how many countries do we have visa 
waiver agreements with?
    Mr. Bonner. The last time I checked it was about 16 or 17. 
Do not hold me to the exact number, but in that ballpark.
    Senator Shelby. Do any of those countries come out of the 
Middle East?
    Mr. Bonner. No, I do not believe there are any countries on 
the Middle East that are visa waiver countries anymore.
    Senator Shelby. Okay. Now how many--how do you keep up 
with--let us say there are tens of millions. Is ten million too 
few people?
    Mr. Bonner. Oh, on an annual basis, there are more than 
that that come in under visa----
    Senator Shelby. Twenty million? Twenty-five million? Just 
give your best shot.
    Mr. Bonner. I think it is probably around 30 million.
    Senator Shelby. Thirty million people.
    Mr. Bonner. Let me do it this way: It is 30 million through 
our international airports, more or less.
    Senator Shelby. Thirty million people.
    Mr. Bonner. When you talk about our land borders, you are 
talking about even more gigantic numbers of people that are 
coming in with temporary worker cards or with visas.
    Senator Shelby. Okay. Now how do you keep up with this huge 
number of people? Do you have the resources, one, to keep up 
with it? Let us say I came in, and had a visa. How would you 
keep up with me? And let us say I came from a country that did 
not require a visa, and I come in and they stamp my passport. 
How do you know if I ever leave, is what I am getting at.
    Mr. Bonner. One of the great accomplishments of the 
Department of Homeland Security has been that at our 
international airports we have instituted the US VISIT program 
and technology. And so we know everybody that is coming in with 
a visa at the time they are presenting themselves to a CBP 
inspector at our international airports. One, whether they have 
been issued a visa. We actually have on the screen the visa 
with their photographs. We take a biometric, which are the two 
fingerprint scans. And we can determine with virtual certainty 
that the person presenting themselves to us is the person who 
was issued the visa in the first instance by the State 
Department.
    Now we did not have that capability before.
    Senator Shelby. Sure. I know.
    Mr. Bonner. By the way, we also have a 994 form, that has 
some information in it that is not fully automated about the 
person.
    Senator Shelby. You are talking about tools. You are 
getting better tools, I understand, to deal with.
    Mr. Bonner. Yes, sir.
    Senator Shelby. And that is good. And you are probably 
going to need more. But my real thrust here is, if you have and 
I will just use 30 million people coming to the United States, 
and you have an entry stamp for them, you know that they come 
in, do you have a correlation to when they leave? And is that 
closed, in other words?
    Mr. Bonner. Well, we have some correlation there, because 
if they----

             WHO IS IN THE COUNTRY LEGALLY AND OVERSTAYED?

    Senator Shelby. You see what I am getting at. In other 
words, do you really know who is in this country legally, that 
come legally and over stay?
    Mr. Bonner. Well, the answer to that one is that we do not 
know everybody that has overstayed visas that has come into the 
United States, because there is not a fully perfected automated 
exit system at this point.
    Senator Shelby. Sure.
    Mr. Bonner. We are starting the prototype of that through 
the Border and Transportation Security Directorate of the 
Department by trying to model that at airports. And then to 
have a complete system, we will obviously have to include the 
land borders. So the answer is--you know, by the way, 
ultimately----
    Senator Shelby. The answer is no, you do not have it.
    Mr. Bonner [continuing]. If they get into the country----
    Senator Shelby. Is that fair?
    Mr. Bonner. If they get into the country----
    Senator Shelby. Mr. Bonner.
    Mr. Bonner. Yes. Yes, sir.
    Senator Shelby. Is the answer, as we speak today, as you 
speak today, the answer is no, you do not have the system in 
place to really keep up with it.
    Mr. Bonner. Not a foolproof system. We have a system.
    Senator Shelby. Sure. We know you have a system.
    Mr. Bonner. But it is not a system that tells us that 
everybody that has entered on a visa for a period of time has 
not overstayed that visa. And if they have overstayed, then we 
have issues of identifying who they are, where they are. And 
then, as Assistant Secretary Garcia was saying, ICE then has 
the responsibility for essentially locating and removing. And 
there are huge numbers we are talking about.
    Senator Shelby. And how many? Let us assume of the 30 
million that come in, that there are a lot of people that do 
not go back. I do not know how many, but it has to be heavy.
    Mr. Bonner. That overstay their visa.
    Senator Shelby. Sure, overstaying their visa. What do you 
do about it? And how many have you found and deported that have 
overstayed their visa?
    Mr. Bonner. I will give you a way of looking at that. And 
that is and again, these are estimates.
    Senator Shelby. No. I do not want to just look at it. We 
want to know. Go ahead.
    Mr. Bonner. Yes. But let us start with what are some 
estimates.
    Senator Shelby. Sure.
    Mr. Bonner. And that is, if you estimate that there are 8 
million people that are illegally residing in the United 
States, and the figure might be higher, but if it is 8 million, 
the estimates are that about 40 percent of those are visa 
overstays.
    Senator Shelby. Okay.
    Mr. Bonner. So 3 million plus. And then the question is, 
well, how do you prioritize that, particularly in light of the 
terrorist threat, criminal aliens and the like, to devote 
resources to go after them. And I do not think the resources 
are necessarily sufficient to do that. But ICE is the one that 
has the resources and the responsibility. And I do not mean to 
pass the buck here in any sense, but it is an issue then as 
to----
    Senator Byrd. We do need to talk about the bucks. That is 
what the senator is trying to find out.
    Senator Shelby. We are trying to get to the bottom of this. 
What are the real numbers? What are you doing about it? And if 
you are not doing a lot about it, and obviously you are not 
doing what you could, what do you need? Do you need resources 
to do it?
    Senator Cochran. Do you want to answer that?

                   ICE RESPONSE TO OVERSTAY QUESTION

    Mr. Garcia. Yes. Thank you, Senator. To pick up, I guess, 
where Rob left me, since the initiation of NCR or SEVIS, a 
tremendous amount of information has been generated. You hit on 
it, Senator, when you say our exit controls. And Commissioner 
Bonner was talking about it. We get these leads in. We have had 
20,000 NCR US VISIT now, SEVIS leads, resolved at headquarters. 
Out of that group, we have sent 1,200 leads out into the field 
to be resolved in our field offices.
    We have to take the indications of overstay and violations. 
And then we have to check the systems. We have to look at the 
exit data. And we have to do follow-up. And we have to 
prioritize.
    Senator Shelby. Excuse me. If it is 40 percent of the 
illegal aliens, just use that for an example, of 8 million, 
that is 3 million, a little more than 3 million, if it was 8 
million, 40 percent of that, 3 million overstays. It seems that 
you are just overwhelmed. If there are 3 million illegal aliens 
here because they overstayed their visas and you do not know 
where they are--maybe you know who they are, because there is 
no exit, or maybe you do not know that.
    I am not here to call you down on it, because I know you 
are sincere and you are competent. But I think you have a 
tremendous problem, or we do in this country.
    Mr. Garcia. A long time to get to that population, looking 
at the past and the future. I had one particularly egregious 
case last week where someone was in overstay from 1986, 
committed a horrendous act against a 3-year-old child in 
Maryland. So that shows you the scope of how far back we are 
looking.
    Going forward, which is a little bit different conversation 
that we have been talking about here with the new US VISIT, the 
new SEVIS system--I know, Senator, you are familiar with the 
old systems and how much of an improvement this has been. We 
are working with that prospectively to look at these 20,000 
leads and the 1,200 we have sent out to put deterrence into the 
system, which was not there before, I believe.
    Then you look at the past. And you say: How do we 
prioritize that child sex predator that has been here since 
1986 and the other ones that pose a public safety risk? How do 
we work with whatever legislations? How do we address that all 
in a meaningful way? And I think that is what we are all 
working towards here at the table.

           DOES ICE HAVE ENOUGH RESOURCES TO HANDLE OVERSTAY?

    Senator Shelby. But my real question, do you have enough 
resources to do that?
    Mr. Garcia. Yes, in where we are going. And if you look at 
the initiatives we have asked for, there is compliance 
enforcement enhancement there. We have been doing that, 
building that out of base up till now. We are asking for $16 
million coming here to look at processing more leads and 
building a targeting system that is even more meaningful. 
Because again, enforcement is partly deterrence. And we have to 
send that message out.
    Senator Shelby. Thank you for your indulgence, Mr. 
Chairman.
    Senator Cochran. Senator, thank you.
    I have two final questions and other senators may have 
other questions. We are going to have a vote, I think, at about 
12:15 on the Senate floor. So we are about through, if that is 
any consolation to you.

       $64 MILLION REQUEST FOR SENSOR AND SURVEILLANCE TECHNOLOGY

    I notice in the budget request there is $64 million being 
requested for sensor and surveillance technology. There is 
technology currently deployed between the land ports of entry, 
but you are developing a project plan for the $64 million 
request, as I understand it. Do you have any idea what the 
total cost of finishing the installation of sensor technology 
is going to be? Mr. Bonner, I guess that is a question you 
should answer.
    Mr. Bonner. It is, because this is sensoring technology for 
the Border Patrol to better control and detect against illegal 
crossings by illegal migrants, drug smugglers, potential 
terrorists. And the $64 million is going to help us immensely 
in terms of expanding the things like the remote video system 
and the ISIS system and the ground sensors that we use at 
strategic places along the Southwest border. And of course, 
unfortunately since 9/11, we have had to give more attention to 
our Northern border with Canada, too, in terms of understanding 
who and what may be crossing that border, so that the Border 
Patrol is then able to respond and apprehend those that 
illegally cross our borders.
    But you are asking me what the total is. I do not have the 
number. I mean, the goal is to have sensoring technology, which 
could include ground sensors, the sophisticated camera 
sensoring systems, plus UAVs, and we have funding for that. To 
give us a more comprehensive picture, that is the goal, of 
illegal penetration of our borders at the most vulnerable 
areas. I mean, there are some areas of our border that are, for 
example, I mean, in the Rocky Mountains on the Canadian border 
during the winter it is virtually impassable. So we are looking 
at it in terms of where the vulnerabilities are. The goal is to 
expand the sensoring system to give us sufficient visibility 
that we have substantial control over and detection 
capabilities for people moving across the border.
    Mr. Chairman, what the total number is, I do not have it 
right now. It would be more than the $64 million that is being 
requested in the 2005 budget request.

            $10 MILLION REQUEST FOR UNMANNED AERIAL VEHICLES

    Senator Cochran. There is also an indication that you need 
funding up to $10 million to develop a system of unmanned 
aerial vehicles to support the Border Patrol and other 
components of Customs and Border Protection. Are you proceeding 
now to use funds from other sources under your control in order 
to get moving on this program in connection with the Arizona 
Border Control Initiative, for example?
    Mr. Bonner. Yes, we are. And even in 2004 we are proceeding 
to develop and actually deploy an unmanned aerial vehicle in 
support of the Arizona Border Control Initiative to better 
control the Arizona border. And I believe that we are going to 
be able to do that sometime by the May/June time frame, 
actually deploy a UAV that will cover and detect along a 
significant portion of the Arizona border. The funding for this 
is not in our budget. But we have identified funding through 
Under Secretary Hutchinson and the Department of Homeland 
Security through the Science and Technology area to essentially 
pilot and determine how effective a UAV is in terms of 
detecting. So that in 2005, we should be able to have a good 
understanding of what we need to actually deploy on a more 
permanent basis on the Southwest border at particular critical 
segments, as well as on our Northern border with Canada.
    Senator Cochran. Mr. Garcia, I think the Coast Guard and 
Air Marine Program within your bureau have tested the concept 
of unmanned aerial vehicles in their operations. Is your 
experience going to be shared, or will this be communicated to 
the other agencies so they will have the benefit of your 
understanding and your experience?
    Mr. Garcia. Absolutely, as far as the Air and Marine goes. 
We are working down in Arizona. And I am working very closely 
with Commissioner Bonner.
    Senator Cochran. Senator Byrd, those are my last two 
questions.
    Senator Byrd. Thank you.
    Senator Cochran. I yield to you for whatever time you need.
    Senator Byrd. Thank you, Mr. Chairman. I will submit most 
of my remaining questions for the record. I do have two that I 
will ask at this time. Then we will go to the floor for our 
vote.

           CONTINUED DUMPING AND SUBSIDY OFFSET ACT TRADEOFF

    On March 19, Commissioner Bonner, CBP issued its annual 
report for 2003 on the Continued Dumping and Subsidy Offset Act 
Trade law. This is a law that I helped to enact that allows 
Customs and Border Protection to reimburse U.S. companies that 
have been injured by unfair trade practices with funds that are 
collected as import duties on unfairly traded imports. CBP's 
report states that, while CBP should have distributed at least 
$320 million in collected duties to eligible U.S. companies and 
workers in 2003, it was able to distribute only $190 million.
    CBP failed to collect $130 million from unfair traders. 
Most of the uncollected $130 million consists of import duties 
not collected by CBP on goods from China in particular. While 
part of the problem is that Chinese companies are refusing to 
pay these duties, it also appears that CBP is failing to 
enforce the U.S. trade laws, because it is not diligently 
pursuing the parties who are refusing to pay these duties. Why 
is CBP not collecting millions of dollars in duties on unfairly 
traded imports as required by U.S. law?
    Mr. Bonner. First of all, we take very seriously at Customs 
and Border Protection, Senator Byrd, our responsibilities under 
the Byrd amendment. And I believe that the answer to that lies 
in essentially three factors, most of which are beyond the 
control of Customs and Border Protection. The first factor is 
that when there is a preliminary proceeding against a Chinese 
company, and these are mainly agricultural products, and it is 
the then Commerce Department that determines what the 
preliminary antidumping duty rate is going to be. And in many 
instances, as I think you know, it has turned out that when 
there is a final order, the antidumping duty rate is much 
higher than the Commerce Department originally set.
    So that means that the bonds, the Custom bonds, that were 
to secure the payment of the antidumping and/or countervailing 
duties in many instances were not adequate.
    Secondly, the Chinese companies in many instances have 
essentially not come in and defended the antidumping charges. 
And therefore, that has resulted in punitive antidumping duties 
being levied at a much higher rate.
    The second factor is that once the antidumping duty final 
order is entered by the Commerce Department, we have found that 
the companies that were in China that were shipping the garlic, 
the mushrooms, or the other agriculture products, those 
companies simply fade into the woodwork and new companies 
appear. So they are changing, essentially, new shippers. And 
under the Commerce Department rules, unless you can show that 
the new shipping company is, in fact, an alter ego of, owned or 
controlled by the shipping companies that are subject to the 
antidumping duty, they are not viewed as having to pay the 
antidumping duty.
    And the third thing, unbelievably, is that for the 
inability to collect this $130 million more or less that you 
have talked about is the fact that surety companies that have 
been approved by Treasury Department, a number of them, 
including one large one in Los Angeles, have essentially 
defaulted. In other words, they were standing behind bonding 
these shipments. And they are not in a position to pay.
    So the long and short of it is, we clearly need to do 
better. We are engaged with the Commerce Department to address 
those two issues, and with the Treasury Department to address 
the issue of the adequacy of the surety, to have a better 
chance of recovering more of the antidumping duties.
    That said, by the way, I still think, given the system, no 
matter how hard we try to approach this issue, it is very 
difficult for me to sit here and say that we are going to be 
able to collect 100 percent of anti-dumping duties that are 
ultimately assessed in final orders by the Commerce Department. 
We are going to do our best, and we are doing our best to do 
that.

                    WHY IS CHINA MORE OF A PROBLEM?

    Senator Byrd. Why does the problem seem to involve more 
imports from China than from any other country?
    Mr. Bonner. Well, first of all, I mean in one sense, 
leaving aside Canada, more goods are imported from China than 
any other country of the world to the United States. China went 
into second place behind Canada in terms of volume of imports 
into the United States last year, according to Customs and 
Border Protection data. It surpassed Mexico, which had 
surpassed Japan. So more of our imports are coming from China.
    Secondly, we are concerned from an enforcement point of 
view that, particularly in this area that you are describing, 
at least some companies, particularly with agriculture 
products--and we have also seen illegal trans-shipments of 
textiles and that sort of thing through essentially other 
countries from China. We are concerned that it probably is the 
number one enforcement issues for both antidumping duties and 
for evasion of U.S. trade laws that relate to textiles.
    But part of it is, they are a major exporter. And part of 
it is that we need to enforce the antidumping duty laws, which 
ultimately under the Byrd amendment result in funds to the 
injured U.S. industry. So we are committed to working on this. 
And we clearly have some work to do to make sure that our rate 
of recovery is higher than it is right now of the antidumping 
duties.
    Senator Byrd. All right. I hope that you will carry out 
that commitment vigorously.
    Mr. Bonner. Yes, sir.

                   INTEGRATED FINGERPRINT DATA BASES

    Senator Byrd. I have one final question now, Mr. Chairman.
    During our March 9 hearing with Secretary Hutchinson, the 
issue of integrating fingerprint databases was raised by 
subcommittee members of both parties. The ability of illegal 
aliens and criminals to slip through our inspection and 
investigation webs and do harm to U.S. citizens has been amply 
documented. It is of the greatest concern to me and should be 
one of the department's primary goals.
    At one point, Secretary Hutchinson stated that the 
fingerprint databases would be integrated by the end of the 
year. At another point, he said that the department would find 
the necessary $4 million or so to ensure that border patrol 
agents had access to this information at all of the sites.
    I want to make sure that what he said would be done can 
actually be done. Earlier this year, the Department of 
Justice's Inspector General said it would take several years to 
achieve the goal of fully integrating the Justice Department's 
two-fingerprint system, known as the Automated Biometric 
Identification System, or IDENT, with the FBI's IAFIS 
fingerprint database. But, Secretary Hutchinson said that it 
was a priority and would be done in a matter of months.
    Now who is right?
    Mr. Bonner. Well, I think Under Secretary Hutchinson is 
right here, if I understand what the issue is. And I believe 
the issue is whether and how long it will take us to integrate 
the IDENT and IAFIS system for at least our front line, which 
is our border line, and at least at some of our ports of entry 
for inspectors. And in that regard, Senator Byrd, there is an 
integrated system that essentially permits the integration of 
both IDENT and IAFIS. And that system allows, for example, at a 
Border Patrol station, allows the ten prints that are taken to 
be run against both the IDENT and the IAFIS system.
    The IAFIS, of course, as you know, is the FBI's master 
criminal fingerprint system in Clarksburg, West Virginia. And 
also at the same time run against the IDENT database. So the 
question is a deployment issue for CBP. And I am not talking 
about State and local law enforcement here. I am just talking 
about Customs and Border Protection.
    And I believe right now, we have deployed some of these 
integrated systems to Border Patrol stations. We have deployed 
about 96 integrated systems to 31 border patrol stations. The 
plan is to deploy 255 of these integrated systems, which would 
be to all of the Border Patrol stations by the end of the year. 
Now that might not be this fiscal year but it may be the end of 
the calendar year.
    And then secondly, we have had IAFIS systems at 48 of the 
major ports of entry. Of those 48, 27 can do both, run against 
the IDENT and the IAFIS system. And we plan to have the 
integrated system, if you will, at all 48 of those ports also 
by the end of the year. So we do have an integrated system.
    Now the only thing I can tell you about the Justice 
Department, is that it may be that for purposes of State and 
local law enforcement having the capability of running prints 
through both IAFIS and IDENT, it may be that that is going to 
take longer. I do not know the answer to that. But perhaps that 
is going to take several years.
    But I know for CBP, which is the front line agency of the 
U.S. Government at our borders, we are making excellent 
progress in terms of rolling out that integrated system. With 
the right procedures in place, it will give you a better means 
of protecting against criminal aliens being able to get into 
the United States.
    Senator Byrd. I fully support the statement of the IG and 
the Justice Department when he states as follows, ``This 
integration is critical to identifying illegally entering 
aliens on lookout lists or with criminal histories. But 
progress has been slow.''
    Mr. Chairman, I raised my concerns with Secretary Ridge 
about fingerprint database integration in relation to his plan 
for deploying the US VISIT system. I cannot stress enough the 
importance of moving forward on this effort as expeditiously as 
possible. The lives of our citizens are at stake.
    The FBI tells us that the Hutchinson proposal does not 
provide access for State and locals. This is a weakness that 
must be met.
    I thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you, Senator Byrd.
    Thank you, all of our witnesses, for your cooperation with 
our subcommittee. As you know, written questions may be 
submitted to you for the record. And we ask you respond to them 
within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                   ARIZONA BORDER CONTROL INITIATIVE

    Question. Under Secretary Hutchinson recently announced the Arizona 
Border Control Initiative. The announcement mentioned 260 Border Patrol 
agents, assigning 4 additional helicopters, $1 million for new sensor 
technology, $2 million to house additional apprehended illegal aliens, 
and other unspecified resources for detention. How are CBP and ICE 
paying for the Arizona Border Control Initiative?
    Answer. CBP has identified funding within the fiscal year 2004 
appropriations for the placement of the 260 agents, new sensors 
technology and the additional helicopters for the initiative. ICE is 
funding its efforts associated with the Arizona Border Control 
Initiative from within its fiscal year 2004 appropriations.
    Question. Where are the funds coming from to pay for the permanent 
transfer of 200 border patrol agents?
    Answer. CBP and the Border Patrol will request approval of the 
appropriations committees to use supplemental funds which remain 
unspent after the completion of the relocation of the 400 agents to the 
northern border in fiscal year 2004. CBP has met the mandate to triple 
the number of agents on the northern border. Approximately $2.5 million 
is required to move the 200 agents into the Arizona border area.
    Question. What impact will these actions have on initiatives funded 
by the fiscal year 2004 Appropriations Act and on base programs and 
staffing needs?
    Answer. The Arizona Border Control Initiative is a high priority 
border enforcement operation to control illegal entry in these areas. 
The impact of ABC on lower priority base programs will be minimal and 
no changes in current border operations are anticipated. In addition, 
there will be little or no staffing impacts along the other border 
sectors due to the Arizona Border Control Initiative other than the 
relocation of the 200 agents.
    Question. Which border patrol sectors are losing agents and 
helicopters to Tucson?
    Answer. Four helicopters were transferred to Tucson from the San 
Diego Sector. The transfer of 200 agents is pending receipt of a 
selection list of qualified applicants. Applicants will in all 
likelihood come from across the entire United States.
    Question. Will this initiative need to be pulled back in light of 
the funding problems within CBP and ICE which have initiated a hiring 
freeze and other actions to slow down or stop spending? If not, why?
    Answer. Securing our Nation's borders is a top priority of CBP. The 
current emphasis of our enforcement strategy is gaining control of the 
illegal traffic entering through the State of Arizona. It is 
anticipated the ABC Initiative will continue as planned. This 
initiative will not be affected by the temporary suspension of hiring 
or by other steps being undertaken to address the budget issues to 
which you refer. This initiative is a high-priority for the Department, 
CBP, and ICE.

                           OVERSEAS STAFFING

    Question. CIS, CBP and ICE each have overseas responsibilities, 
some inherited from legacy agencies and some stemming from new 
initiatives. The President's budget requests increased resources for 
overseas staffing for CBP and ICE, while CIS has plans for a formal 
Refugee Corps overseas. How will your organizations cooperate overseas?
    Answer. The Office of the Secretary is conducting a detailed review 
of the role of DHS overseas, including the management structure that 
best advances the full range of the international liaison, enforcement, 
inspection and services missions of the Department.
    Question. Will each organization have separate overseas management 
structures? If not, how will these resources be managed?
    Answer. The Office of the Secretary is conducting a detailed review 
of the role of DHS overseas, including the management structure that 
best advances the full range of the international liaison, enforcement, 
inspection and services missions of the Department.

               Citizenship and Immigration Services (CIS)

                         BACKLOG REDUCTION PLAN

    Question. What is the current size of the application backlog?
    Answer. Information on the current backlog and USCIS plans to 
eliminate it will be provided to Congress in the coming months in a 
revised Backlog Elimination Plan.
    Question. How does CIS define and determine the size of the backlog 
of applications?
    Answer. In developing the revised Backlog Elimination Plan, USCIS 
is reviewing how it defines and thus quantifies the backlog. 
Information on the current backlog and USCIS plans to eliminate it will 
be provided to Congress in the coming months in a revised Backlog 
Elimination Plan.
    Question. What impact is the reduction in fee receipts currently 
being experienced by CIS having on your ability to reduce the 
application processing backlog? Answer. While it is true that overall 
fee revenues are lower so far this fiscal year, this is due to a 
decrease in new applications received. Thus, even though fee revenue 
thus far this year is lower, it is important to note that workload is 
lower, too--thus enabling us to better focus on backlog cases.
    Question. Last week the Department announced the settlement of the 
Catholic Social Services and Newman Legalization cases. What is the 
estimate of the potential number of applications that will be filed as 
a result of these settlements, and will those applications have any 
impact on CIS's ability to reduce the backlog?
    Answer. There is no way of predicting exactly how many people will 
be able to apply during this new application period. However, many of 
the possibly impacted individuals were also eligible to apply for two 
previous programs set up by the legacy INS--the Questionnaire Program 
and the LIFE Legalization program.
    It is expected that many applicants who may be eligible to apply 
for this new proposed settlement program did actually apply under the 
other programs and may have applications already being processed.
    So, since the total number who applied under those two programs 
COMBINED is approximately 70,000--there is a good possibility that the 
number of applicants who come forward with this latest program will be 
less than 70,000.

                          GUEST WORKER PROGRAM

    Question. While it is difficult to answer this question so early in 
the process: how long do you anticipate it will take CIS to have a 
Guest Worker program up and running after legislation is passed and 
signed into law?
    Answer. You are correct. It is difficult to answer this question. 
The complexity of the final legislation that Congress passes will, in 
turn, determine the complexity of implementing the program and any 
subsequent regulations and field guidance that will need to be written 
to support the plan. However, the key to processing temporary worker 
petitions quickly and efficiently will be simplicity in the design of 
the legislation.
    Question. What impact will the addition of a Guest Worker Program 
have on CIS's ability to reduce the application backlog? Answer. We 
will meet the President's backlog reduction goals by 2006. As stated 
above, the key to processing temporary worker petitions quickly and 
efficiently is simplicity in the design. Based upon the legislation 
that Congress passes, we will use fees to support applicant processing 
and documentation.

                            REFUGEE SERVICES

    Question. Since fiscal year 2001, we have seen a dramatic decrease 
in the number of refugee admissions. In fiscal year 2001, the U.S. 
Government admitted over 69,000 refugees from around the world, while 
last fiscal year, only 28,000 refugees were admitted to the United 
States. The ceiling was 70,000 admissions for fiscal year 2003. It is 
very important that we ensure that the employees involved with Refugee 
screening are kept safe, and that we are diligently screening those 
refugees that are eligible for admission. What is CIS doing to ensure 
that all qualified refugees are being screened and admitted to the 
United States?
    Answer. USCIS is committed to steadfast resettlement of refugees in 
need. The terrorist attacks of September 11, 2001 prompted significant 
and more time-consuming changes in U.S. Refugee Program (USRP) 
processing procedures. Increased attention is now being given to more 
carefully screening applicants and more closely scrutinizing overseas 
refugee processing sites to ensure the safety and security of our 
officers. These procedural changes have enhanced the U.S. Government's 
ability to prevent terrorists and other undesirable persons from using 
the USRP to gain entry into the United States. However, they have also 
slowed the pace of overseas processing and, in turn, contributed to the 
reduction in refugee admissions. To address this, the USCIS is working 
to improve and streamline refugee screening, security checks and 
interview methods. USCIS is also working with the other implementing 
partners to expand access to the USRP by identifying new groups 
eligible for resettlement consideration. Consequently, from a low point 
of 27,113 total admissions in fiscal year 2002, the Department of State 
projects that admissions in fiscal year 2004 will significantly surpass 
this figure.
    Finally, USCIS has recently received resources through the revised 
fee schedule to establish a Refugee Corps in fiscal year 2004. This 
cadre of refugee-dedicated adjudicators will divide their time between 
Headquarters and the various overseas processing sites. This will 
result in a stronger and more effective overseas refugee-processing 
program without compromising the USRP's humanitarian objectives. A 
Refugee Corps will also help ensure more timely and satisfactory DHS 
responsiveness to USRP commitments and admissions goals.
    Question. The submitted testimony for CIS mentioned plans for the 
formal establishment of a Refugee Corps. Please explain when you plan 
to have this accomplished, what the expected annual costs will be, how 
many people will be assigned to this Corps, and what goals and 
objectives the program will have.
    Answer. The establishment of a dedicated refugee corps is funded 
through the recently announced fee adjustments. These fee adjustments 
took effect on April 30, 2004. Implementation of the refugee corps will 
take place shortly thereafter. This new structural and functional 
arrangement will greatly improve the quality of refugee adjudications 
and oversight, provide cost-effective immigration services, and 
significantly improve the Nation's ability to secure our borders 
without compromising humanitarian objectives. USCIS anticipates fee 
revenues will fund 109 positions at an annual cost of $18.5 million.
    Question. How will the Refugee Corps work with the ICE's Overseas 
Visa Security Units and U.S. Consulates?
    Answer. The refugee-dedicated resources of the Refugee Corps, as 
supported and deployed by USCIS will work closely with Immigration and 
Customs Enforcement (ICE) overseas offices and U.S. Consulates on a 
variety of refugee application fraud and security matters. For example, 
the overseas ICE offices will assist deployed Refugee Corps 
adjudicators in developing and implementing various refugee fraud 
detection and deterrence methods. While at overseas refugee processing 
locations, the Refugee Corps will, in turn, refer emergent fraudulent 
refugee cases and cases having national security interest to ICE for 
advice and possible investigation, as appropriate. The Corps will also 
coordinate security check results such as Consular Lookout and Support 
System (CLASS) and Security Advisory Opinions (SAOs) with ICE offices 
and U.S. Consulates, as needed; and engage in mutual information-
sharing regarding refugee applicant civil registry documents and other 
documentation to insure their validity and legality. Finally, the 
Refugee Corps will work with ICE overseas offices and other U.S. 
Embassy components to investigate and approve overseas refugee 
processing sites thereby helping ensure the safety, security and health 
of Refugee Corps adjudicators.

                             BENEFIT FRAUD

    Question. The President's Budget proposes to replace the funds 
provided to ICE for benefit fraud from the Examinations Fee Account, 
with appropriated dollars. What resources does CIS plan to devote to 
benefit fraud in fiscal year 2005?
    Answer. USCIS is currently reviewing all of its business processes 
as a part of the revised backlog elimination plan. Therefore, the 
funding to support benefit fraud responsibilities in 2005 is under 
review.
    Question. What will CIS use the $25 million in Examinations Fee 
Account funds for that it will retain in fiscal year 2005?
    Answer. USCIS is currently reviewing all of its business processes 
as a part of the revised backlog elimination plan. Therefore, the 
funding to support benefit fraud responsibilities in 2005 is under 
review.
    Question. How many benefit fraud cases were investigated and 
prosecuted in each of fiscal years 1998-2003? How many defendants were 
involved in each of the cases in each year?
    Answer: Statistical Response:

----------------------------------------------------------------------------------------------------------------
                                               Cases
           Fiscal year           --------------------------------   Principals        Aliens        Defendants
                                      Opened         Completed       Involved        Involved       Prosecuted
----------------------------------------------------------------------------------------------------------------
2003............................           2,522           2,031             932           1,885             213
2002............................           1,932           1,919             258             383             994
2001............................           2,613           2,662             655             927             185
2000............................           3,140           2,965             532           3,009             189
1999............................           5,315           3,648             706           1,705             252
1998............................           4,311           3,802             639             944             283
----------------------------------------------------------------------------------------------------------------

    The table above reflects the best available benefit fraud 
statistics historically collected by the former INS. Some of the 
statistics reflecting closed cases relate to cases opened in a previous 
year.
    Question. Of the applications that you receive annually, what is 
the total estimated size of the fraud problem, by type of fraud?
    Answer. GAO's January 2002 report on immigration benefit fraud 
States that, ``Although the extent of the benefit fraud problem is not 
known, internal and external reports indicate that the problem is 
pervasive and significant.'' There is no current estimate of the fraud 
problem.

                              CITIZENSHIP

    Question. Please give the Committee a fuller understanding of why 
today there is not uniformity across the country in the administration 
of the current citizenship test.
    Answer. The lack of uniformity actually dates back to 1790, when 
the first Congress entrusted naturalization to the courts and let them 
prescribe their own rules. From 1926-1990, the courts and INS shared 
responsibility for naturalization processing. In 1936, INS directed 
examiners to use uniform procedures and to determine applicants' 
character and attitude towards the United States rather than testing 
ability to memorize facts and phrases. The Immigration Act of 1990 gave 
INS full responsibility for naturalization adjudication.
    In 2000, INS issued a policy memorandum to its field offices to 
standardize certain aspects of the testing process, such as which 
sources officers should use when selecting test questions, the length 
of the test, and passing scores. In 2001, INS awarded a contract to a 
testing development company to assist it in the overall redesign of the 
testing process. This project includes defining appropriate assessment 
content and standards for the speaking, reading, writing, and U.S. 
history and government tests; and developing a revised test process, 
including test specifications/item content, item formats, equivalent 
forms, appropriate delivery systems, scoring rules, and administration 
procedures. It's important to not rush standardization at the expense 
of creating a reliable, valid and fair test.
    We are moving forward on all of these related goals. We completed a 
pilot test of revised English test items (reading, writing and 
speaking) in 2003. This year, we plan to finalize revised U.S. history 
and government content; conduct studies including test format, and test 
administration mode; and begin a pilot test of the complete revised 
English, U.S. history and government test. We also have asked the 
National Academies of Science to provide us with advice concerning the 
reliability, validity and fairness of the proposed changes to the test. 
These steps are all vital to ensuring that our revised test will meet 
these requirements.
    Question. Please provide a more detailed explanation of what the 
Office of Citizenship is working on.
    Answer. Established by the Homeland Security Act of 2002, the 
Office of Citizenship is responsible for promoting public awareness of 
the rights and responsibilities of citizenship. Specifically, the 
mandate of this office is to promote civic integration of immigrants 
through training and development of educational materials.
    The Office of Citizenship is targeting immigrants at two critical 
points on their journey toward citizenship: upon arrival in the United 
States and as they begin the formal naturalization process. The office 
is in the process of developing a ``New Immigrant Orientation Guide'' 
which will be presented to the approximately one million immigrants 
welcomed to permanent residence every year. In addition to the guide, 
and in close coordination with community and faith-based based 
organizations, the office will also host new immigrant orientation 
sessions in communities across the country.
    In the citizenship preparation arena, the office will develop new 
educational materials that include study and teacher guides that 
promote a deeper understanding of American history and civics. The 
American history and civics content will be closely coordinated with 
the Department of Education and the ``We the People'' initiative of the 
National Endowment for the Humanities.
    Our office is currently conducting focus groups in key cities 
across the country in order to proactively identify the strengths and 
gaps associated with their immigrant integration and citizenship 
preparation initiatives. Finally, we plan to publish a report of our 
findings in September when we host our first national civic integration 
conference on the theme ``Celebrate Citizenship, Celebrate America.''
    Question. How many people do you plan to have on the staff of the 
Office of Citizenship? Will they all be located in DC or placed around 
the country?
    Answer. The Office of Citizenship is currently staffed by the Chief 
of the Office, two Deputy Chiefs responsible for Program Development 
and Outreach; eight senior Policy Analysts and Outreach Specialists 
working in its DC Headquarters; and 18 Community Liaison Officers in 
the following regional and field offices: Arlington, Atlanta, 
Burlington, Chicago, Dallas, Denver, Detroit, Houston, Los Angeles, 
Laguna Niguel, Miami, New Orleans, New York, Phoenix, Portland, San 
Antonio, San Diego and San Francisco.
    Question. Will the Office of Citizenship work with organizations 
outside of the Department to carry out its mission?
    Answer. In order to fully realize its mandate, the Office of 
Citizenship will work in partnership with Federal, State and local 
agencies, community and faith-based groups and private organizations 
that share an interest in civic engagement and involvement. Community 
Liaison Officers in regional and field offices are primarily 
responsible for establishing this important outreach portfolio and have 
conducted hundreds of community meetings and forums in an effort to 
build robust coalitions and long-term commitments around civic 
integration initiatives. We are currently researching statutory and 
legislative authorities to enhance our ability to partner with the 
private sector.

                     ON-LINE FILING OF APPLICATIONS

    Question. When is the next expansion of the on-line filing of 
benefit applications planned?
    Answer. The next group of forms that will be automated for on-line 
filing is scheduled to complete testing on April 30, 2004 and is 
planned to be available to the public during the first week of May 
2004.
    Question. Which applications do you plan to add next?
    Answer. The group of forms that is planned to be available to the 
public by the first week of May 2004 are:
    Form I-129, Petition for a Nonimmigrant Worker
    Form I-131, Application for Travel Document
    Form I-140, Immigrant Petition for Alien Worker
    Form I-539, Application to Extend/Change Nonimmigrant Status
    Form I-821, Application for Temporary Protected Status
    Form I-907, Request for Premium Processing
    Question. What impact has on-line filing of applications had on the 
processing time of applications?
    Answer. Because receiving the data comprises only a small part of 
the adjudicative process and e-filing is still in its infancy at USCIS, 
e-filing has not yet resulted in significant processing time savings. 
Results will improve as e-filing opportunities are expanded, processes 
are changed to maximize the benefits of e-filing, and USCIS develops an 
IT infrastructure capable of moving complete files electronically. At 
present, e-filing is a customer service initiative with potential for 
significant efficiency gains.
    Question. Has on-line filing helped you to reduce the backlog of 
applications?
    Answer. As indicated above, e-filing, at this time, is primarily a 
customer service initiative that provides our applicants with an 
alternative to filing by mail or filing in person. It allows customers 
to pay their fee on-line via credit card or transfer of funds; and 
provides the applicant with instant evidence of their filing. 
Electronic filing does not decrease the amount of effort or time 
necessary to review an application or render a decision. In the future, 
e-filing will be both a customer service program, as well as an 
efficiency program when USCIS deploys an IT infrastructure capable of 
moving complete files electronically.

                RELATIONSHIP WITH IMMIGRATION OMBUDSMAN

    Question. In July of 2003, Secretary Tom Ridge appointed Prakash I. 
Khatri to serve as the first Citizenship and Immigration Services 
Ombudsman for the Department of Homeland Security. What is the working 
relationship between CIS and the Ombudsman's office?
    Answer. The Director of USCIS meets periodically in common cause 
with the Ombudsman to discuss issues, his recommendations, and their 
feasibility. The Director established an Office of Customer Management 
Relations (OCRM) led by a career senior executive who reports directly 
to the Director, to provide counsel, access to USCIS operations, 
facilitate the sharing of information, and coordinate responses to 
issues raised by the Ombudsman's Office.
    In addition, numerous field visits have been arranged for the 
Ombudsman in gaining knowledge of operational challenges and in 
collecting ideas from field staff. A collegial relationship is ongoing 
between the two Offices.

                  Customs and Border Protection (CBP)

                           CONTAINER SECURITY

    Question. What achievements has the Department made in increasing 
cargo security? When will the new three-pronged strategy be completely 
implemented?
    Answer. The Department has made significant strides in improving 
cargo security through programs such as the Container Security 
Initiative (CSI), the Customs-Trade Partnership Against Terrorism (C-
TPAT), Free and Secure Trade (FAST), the National Targeting Center, the 
deployment of non-intrusive inspection technology and radiological 
detection cargo screening technology at our ports of entry. In 
addition, implementation of the 24-hour rule for the transmission of 
cargo manifests has all contributed to improved security in the cargo 
environment.
    Implementation of the three pronged strategy: pushing our borders 
outward; advanced targeting and analysis of cargo and passengers before 
arrival at our borders; and intensive inspection of cargo and 
passengers at our borders is a process. Implementation of this process 
continues through the fiscal year 2005 President's initiatives for the 
Container Security Initiative, the Customs-Trade Partnership Against 
Terrorism, Systems for Targeting, and Radiation and Nuclear Screening 
Technology. Initiatives like these can be expected in the future in 
accord with the level of threat.
    Question. The budget requests over $105 million in enhancements to 
improve the ability of inspectors to target, inspect, and screen 
passengers and cargo at land, air, and sea ports. Having radiation 
monitors and increasing our ability to use computers to target and 
screen cargo and passengers is critical. Are there a sufficient number 
of inspectors on the front lines to handle physical inspections of 
cargo and passengers?
    Answer. With the additional resources provided for in the fiscal 
year 2002 Emergency Supplemental, the fiscal year 2003 appropriation 
and Wartime Supplemental, and the fiscal year 2004 appropriation, as 
well as the joining of the three agencies to form CBP, we believe we 
have adequate staffing to handle physical inspections of current levels 
of cargo and passengers.
    Question. Are there any plans to extend a Container Security 
Initiative-like project to bulk and break-bulk shipments?
    Answer. At this time, CBP is not planning to extend a CSI-like 
project to prescreen bulk and break-bulk shipments. CBP will continue 
to collaborate with the U.S. Coast Guard on vessels of interest and 
certain dangerous cargos at both a national and field level, and 
conduct joint boardings when warranted.

              CUSTOMS-TRADE PARTNERSHIP AGAINST TERRORISM

    Question. The budget requests an additional $15 million to expand 
the Customs-Trade Partnership Against Terrorism (C-TPAT). These new 
resources will allow Customs and Border Protection to increase the 
validation process within C-TPAT. According to the submitted testimony, 
221 validations have been completed on 2,926 certified partners. How 
many more validations will CBP be able to complete each year with the 
new resources?
    Answer. To date, over 700 validations have been initiated with over 
240 completed. Our goal for the current calendar year is to have 
completed a total of 400 validations. C-TPAT will continue to increase 
the number of validations performed for calendar year 2005. The 
increase will be guided by several factors including but not limited to 
membership levels, number of supply chain specialists on board, and 
threat level.
    Question. How often does CBP plan to validate each of the 
participants in the program?
    Answer. A C-TPAT participant is selected for validation based on 
risk management principles. Validations may be initiated based on 
import volume, security related anomalies, strategic threat posed by 
geographic regions, participation in expedited release programs, a 
relative sampling of industry sectors (e.g. carriers, brokers, 
forwarders, importers), and/or other risk related information. 
Alternatively, a validation may be performed as a matter of routine 
program oversight.
    Question. None of the 188 initiated validations have been on any of 
the 45 certified foreign manufacturers enrolled. When does CBP plan to 
begin reviewing foreign manufacturers?
    Answer. Foreign manufacturers will be included in the next group of 
C-TPAT validations to be initiated in calendar year 2004.
    Question. What performance measures have been developed to gauge 
the success of the C-TPAT program?
    Answer. Internal measures include program marketing and acceptance, 
which is measured by the number of C-TPAT partners enrolled and 
certified by CBP. The impact of enrollment is measured by identifying 
the percentage of trade controlled by those C-TPAT companies. Another 
internal measure is examination risk management, which involves 
quantifying and measuring the impact C-TPAT has on cargo inspections 
performed on ``known risk'' C-TPAT partners, compared to shipments 
where the risk is unknown or targeted as high.
    External measures include the C-TPAT validation process, which is 
used to verify the participant's supply chain security processes. C-
TPAT Supply Chain Specialists identify strengths and weaknesses found 
during the validation and recommend action items in the validation 
report. The results of all validations are captured to measure the 
overall performance of validated companies.

                        UNMANNED AERIAL VEHICLES

    Question. The President's budget includes a request for $10 million 
to develop, procure, deploy, and operate a system of unmanned aerial 
vehicles to support the Border Patrol and other components of Customs 
and Border Protection. According to the information we have been given 
regarding the Arizona Border Control Initiative, this project will 
begin in June with funding from the Science and Technology Directorate. 
Are any of CBP's direct funds going to support this effort this fiscal 
year?
    Answer. No. All funding supplied for this effort has been provided 
by the DHS Office of Science and Technology.
    Question. Both the Coast Guard and the Air and Marine program 
within ICE have tested the concept of using unmanned aerial vehicles in 
their operations. Will CBP be working cooperatively with these 
organizations during fiscal year 2005 on this test?
    Answer. BTS and the Science and Technology Directorate co-chair the 
DHS UAV Working Group which meets regularly and consists of BTS 
component and U.S. Coast Guard managers responsible for aviation 
assets. The working group provides a forum for collaboration and with 
the DHS UAV Executive Steering Committee it will ensure that the needs 
of CBP, ICE, TSA and the U.S. Coast Guard are addressed and deployments 
and concepts of operations are coordinated within the DHS.
    Question. What are the long-range plans for the use of UAVs along 
the land border? Will this be a joint program with ICE's Air and Marine 
Office?
    Answer. DHS is exploring new technology to meet aerial border 
security mission requirements. UAVs hold promise in some applications. 
This mission will be supported through a variety of systems. Sensors 
such as TARS, UAVs, rotary and fixed wing aircraft, and ground-based 
equipment and personnel to operate and maintain these systems must be 
coordinated by DHS and Department of Defense components, and aligned 
against the highest critical vulnerabilities and threats. ICE AMO is an 
integral part of the team that is developing and fielding this 
capability.

                   SENSOR AND SURVEILLANCE TECHNOLOGY

    Question. Staff from CBP have informed us that they are currently 
working on a complete review of the sensor and surveillance technology 
currently deployed between the land ports of entry and are developing 
the project plan for the $64 million requested for this effort for 
fiscal year 2005. When will the plan for the fiscal year 2005 resources 
for Sensor and Surveillance Technology be made available to the 
Committee?
    Answer. The appropriations staff will receive a comprehensive 
briefing on our plans for this system and its operational goals that 
reflect the new anti-terrorism mission in the near future.
    Question. When can we expect to have all of the Northern and 
Southern border comprehensively covered by these systems? In fiscal 
year 2006, or beyond that?
    Answer. The appropriations staff will receive a comprehensive 
briefing on our plans for this system and its operational goals that 
reflect the new anti-terrorism mission in the near future.
    Question. What is the total cost of finishing the installation of 
all sensor technology?
    Answer. At this time we are formulating a new strategic plan based 
on the new anti-terrorism priority. More comprehensive information on 
future program direction and requirements will be provided in the near 
future.
    Question. The request for enhanced surveillance technology in this 
budget does not include any resources for additional law enforcement 
communications assistants. If the number of remote video surveillance 
systems is increasing, won't there be a need for more personnel to 
monitor the cameras?
    Answer. The ISIS program does not anticipate a need for additional 
law enforcement communications assistants; we expect that the 
successful integration of proven technologies will provide this real-
time intelligence directly to the agents in the field. This will reduce 
the need for law enforcement communications assistants to process this 
information.

                    AUTOMATED COMMERCIAL ENVIRONMENT

    Question. CBP has been working on modernizing the information 
technology systems that it uses for some time. The most significant 
project is the Automated Commercial Environment, known as ACE. CBP has 
been working closely to resolve problems with the prime integrator on 
ACE for the last year. Is the project back on track?
    Will the project be completed on time, or does the overall project 
timeline need to be revised and extended?
    Is the project maintaining its projected budget? Is the project 
continuing to experience cost overruns?
    Answer. CBP continues to aggressively work to put ACE capabilities 
to work on America's borders. The first deployment of ACE, completed in 
the winter 2003, focused on the technical infrastructure. It provided 
the foundation for a secure, reliable, high-speed access to critical 
CBP information. The second release of ACE, deployed in summer 2003, 
included an Enterprise Web portal that provides CBP Account Managers 
and selected importers controlled access to information such as the 
account's trade activity, and facilitates collaboration and 
communication among the various groups.
    Subsequent ACE capabilities will be fielded between June 2004 and 
the end of ACE development, which includes; Periodic Payment (Release 
3), e-Manifest Trucks (Release 4), ACE Selectivity Releases, End-to-End 
e-Processing (Release 6), and ACE Wrap-Up (Release 7).
    During the past year, U.S. Customs and Border Protection has worked 
very closely with the e-Customs Partnership (eCP) to address 
performance issues. This includes extensive analysis of the program to 
incorporate process, planning, and organizational enhancements to help 
contain costs and minimize schedule delays. The CBP efforts have also 
included frequent meetings and dialogue with senior executives from 
IBM, the leading eCP partner, to reinforce CBP high standards and 
expectations. The response from IBM leadership has been positive, and 
they have clearly indicated their commitment to the Automated 
Commercial Environment (ACE) project. Meetings with IBM executives 
continue monthly.
    Based on intensified CBP oversight, the current estimated cost 
variance for ACE is within 10 percent of the program baseline. Based on 
benchmarks for similarly complex programs, the program variances are 
within expected boundaries. The CBP continues to conduct cost 
containment activities and have made great strides in improving our 
ability to better forecast variances through Earned Value Management. 
We have incorporated lessons learned into ACE development, including 
improving the requirements definition process, and conducting more 
comprehensive system development gate reviews based on refined 
criteria.
    Though CBP is developing schedule scenarios that result in ACE 
completion dates ranging from 2009 to 2012, no formal change has been 
made to the project schedule. A revised project schedule will be 
published in the June 2004 update of the ACE Program Plan and in the 
fiscal year 2006 OMB Exhibit 300 for ACE after the results of the 
ongoing Global Business Blueprint (defining future CBP business 
processes and the technology requirements) are known.

                        AGRICULTURAL INSPECTIONS

    Question. How has CBP's ``Officer for the Future'' Plan been 
developed to include additional training for the Agriculture Quarantine 
Inspection function?
    Answer. Consistent with the Homeland Security Act and subsequent 
Memorandum of Agreement between USDA and DHS, it was agreed by both DHS 
and USDA that USDA would supervise and provide educational support and 
systems to ensure that DHS employees receive the training necessary to 
carry out the USDA functions transferred to DHS. As a result, USDA has 
linked with DHS in defining training module content specific to the 
agriculture quarantine inspection mission. More specifically:
  --The new hire CBP Officer will receive 12 hours of instruction in a 
        course titled Threat to Agriculture covering agriculture 
        fundamentals during the basic academy. This course is taught by 
        USDA instructors and covers: the importance of U.S. 
        agriculture; the impact of introduced pests; the agriculture 
        mission; statutory authorities; agricultural bioterrorism; 
        safeguarding; and agriculture secondary inspection referrals. 
        This training is mandatory.
  --Current CBP Inspectors will receive a CD-ROM version of the same 
        course, titled Agriculture Fundamentals, covering the same 
        material. This training is mandatory for CBP Inspectors and 
        when issued to the field, will be completed within 120 days.
  --A second component of mandatory agriculture quarantine inspection 
        training, titled Agriculture Procedures, will be developed over 
        the next few months by USDA and DHS. This mandatory course will 
        be taken by both the new hire CBP Officer and current CBP 
        Inspectors. USDA will direct course content and course delivery 
        will be conducted by DHS.
    Question. What specific actions are being taken to train Customs 
and Border Protection officers to detect potential illegal contraband 
that may pose a risk of introducing a foreign animal disease into the 
United States? Do you believe that this training is sufficient to 
inform officers about the threats and potential damage, economic and 
otherwise, to a huge sector of the U.S. economy that foreign animal 
diseases pose?
    Answer. All new hire CBP Officers are required to receive the USDA-
instructed course, Threats to Agriculture, while at the CBP Academy. 
Current CBP Inspectors are required to take the same course, in a CD-
ROM format. The course was designed by USDA and includes an overview of 
foreign animal diseases, including vectors, fomites, and impacts of the 
diseases. The next phase of training, yet to be developed by USDA and 
DHS, is the Agriculture Procedures course, which will provide more 
specific training in the Agriculture Quarantine Inspection arena, 
including additional training on foreign animal diseases.
    Question. How many CBP Officers have completed the 12 to 16 hours 
of Agriculture Quarantine Inspection training required to be a fully 
certified CBP officer?
    Answer. The number of hours of required (mandatory) training for 
the CBP Officers is still not determined as the second component of 
training, Agriculture Procedures, is not yet developed. The new hire 
CBP Officers receive a total of 12 hours of training conducted by USDA 
at the CBP Academy during their basic training. Current CBP Inspectors 
will receive the same course as the new hire, but it will be delivered 
in an electronic, CD-ROM format. All CBP Inspectors will be required to 
take this course within 120 days of field delivery. The intent of this 
training is to have the CBP non-agriculture workforce begin their 
agriculture curricula from the same starting point. From October 2003 
through April 13, 2004, a total of 823 CBP Officers have completed the 
12-hour portion at the CBP Academy.
    Question. What is the status of the former U.S. Department of 
Agriculture Inspectors that were transferred to the Department of 
Homeland Security in the middle of last year?
    Answer. The former USDA Agriculture Inspectors have been placed 
into a newly defined position description, the CBP Agriculture 
Specialist. This position is in the 401 series with a full performance 
level at the GS-11 level. The full performance level for the PPQ 
Officer was a GS-9. The new duties incorporated in that position 
description include:
  --serving as an expert and technical consultant in the areas of 
        inspection, intelligence, analysis, examination, and law 
        enforcement activities related to the importation of 
        agricultural/commercial commodities and conveyances;
  --applying a wide range of laws and regulations determining the 
        admissibility of agriculture commodities while preventing the 
        introduction of harmful pests, diseases, and potential agro-
        terrorism into the United States;
  --participating in special enforcement, targeting, or analysis teams 
        charged with collecting and analyzing information and 
        identifying high-risk targets;
  --conducting visual and physical inspections of cargo, conveyances, 
        or passenger baggage;
  --planning, conducting, and supervising remedial actions;
  --participating in pre-arrival risk analysis; and
  --serving as a training officer.

               Immigration and Customs Enforcement (ICE)

                          WORKSITE ENFORCEMENT

    Question. Please provide a chart with the total resources, FTE and 
dollars, devoted to worksite enforcement for each of fiscal years 1998-
2003.
    Answer. The worksite enforcement budget has always been part of the 
base budget and has not been separately tracked. The FTE are provided 
in the chart below.

----------------------------------------------------------------------------------------------------------------
           Fiscal year                 1999            2000            2001            2002            2003
----------------------------------------------------------------------------------------------------------------
FTE Source: PAS.................             278             202             134             152             105
----------------------------------------------------------------------------------------------------------------

                           VISA SECURITY UNIT

    Question. The President's budget requests an increase of $10 
million to support the Visa Security Unit. According to the budget, 
this unit was established in fiscal year 2003, but is receiving its 
current year funding from outside of ICE. Where is the funding for the 
Visa Security Unit coming from for fiscal year 2004?
    Answer. The Visa Security Program for fiscal year 2004 was an 
unfunded mandate and ICE resources were used for the current TDY 
deployment to Saudi Arabia of Visa Security Officers. The BTS 
Directorate will be seeking reprogramming authority to address funding 
requirements for sustainment of the Saudi deployment and expansion to 
four other countries in fiscal year 2004. Financial support for this 
Presidential priority will be from ICE and CBP operational funding.
    Question. How many personnel have been hired for this program to 
date?
    Answer. No staff have been hired for this program to date. The 
program has been operating with detailees at headquarters and in Saudi 
Arabia.
    Question. What is the expected staffing level for end of fiscal 
year 2004?
    Answer. The Saudi deployment would be 6 officers and ICE 
Headquarters would have 10 at the end of fiscal year 2004.
    Question. How many of the personnel in this program will be 
stationed overseas?
    Answer. As of April 30, 2004, there are 4 Visa Security Officers in 
Saudi Arabia. New rotations are planned for the departing officers.
    Question. What performance measures have been developed to gauge 
the success of this program?
    Answer. One of the key issues in the development of the Visa 
Security Program is assuring that measures can be identified that 
properly attribute the added value of DHS in the visa process. Measures 
include the following: number of visa applications reviewed by DHS 
officers; number referred for investigation and further analysis; and 
numbers approved and denied in consultation with the Department of 
State.

             REDIRECTING THE BASE--OFFICE OF INVESTIGATIONS

    Question. The President's Budget proposes important changes to the 
funding of the Office of Investigations within ICE. The budget proposes 
to replace $25 million in funding from the Examinations Fee Account 
that currently funds benefit fraud with appropriated dollars. The 
budget also proposes moving the responsibility for the Institutional 
Removal Program from the Office of Investigations to the Detention and 
Removals Program, but leaves the base funding within the Office of 
Investigations. Why should appropriated dollars replace mandatory 
dollars for benefit fraud?
    Answer. The appropriated funds are requested for benefit fraud 
investigations. The shift will allow the examinations fee to be used 
solely for immigration services and provide appropriated resources for 
enforcement activities. With respect to the institutional removal 
program, the demands for Detention and Removal have increased 
substantially and been met by investigators, which has had a negative 
impact on the investigation program. The request provides less 
expensive and more appropriate personnel resources to the Detention and 
Removal Program, while at the same time preserving the original intent 
and capacity requirements for the Office of Investigations.
    Question. Will this shift increase the total resources devoted to 
benefit fraud?
    Answer. The approval of $25 million in appropriated funds would not 
increase the resources devoted to benefits fraud but simply replace 
funds previously provided from the Examinations Fee. These funds 
provide the resources for approximately 140 existing ICE positions and 
operational expenses. These resources enable ICE to maintain its 
investigations of benefit fraud organizations and egregious fraud 
violators.
    Question. Under the budget proposal, the base funding for the 
Institutional Removal Program remains within the Office of 
Investigations. What investigative priorities will these resources be 
redirected to?
    Answer. The fiscal year 2005 request is a result of a planned 
realignment of the Institutional Removal Program (IRP) from OI to DRO. 
Managing and executing the program in one office will prove more 
effective and productive than in its current bifurcated state. Special 
Agents within OI that will be freed up from IRP work they currently 
perform will be able to dedicate much-needed investigative hours to 
public safety and national security cases. There are renewed demands 
for investigation of non-incarcerated criminal aliens and violent gang 
enforcement.

                     LAW ENFORCEMENT SUPPORT CENTER

    Question. What are the base resources, FTE and dollars, for the Law 
Enforcement Support Center (LESC) for fiscal year 2004? What are the 
requested resources for the LESC for fiscal year 2005?
    Answer. General expense funding for fiscal year 2004 is budgeted at 
$1.9 million, which includes $869,000 from the War Supplemental. In 
fiscal year 2004, there are 287 positions authorized, of which 9 are 
currently vacant. No increases are anticipated for fiscal year 2005.
    Question. It is the Committee's understanding that there are 
approximately $5 million in facility improvements that are needed at 
the LESC. Is this accurate? If, yes please provide the Committee with 
an itemized list for the $5 million.
    Answer. Due to increased law enforcement inquiry workload and the 
projected growth in the NCIC program, the LESC submitted an out-of-
cycle space request for 80,309 additional sq. ft of expanded facility 
space at the LESC's present location in January 2002. That request was 
subsequently approved and the one-time costs of $3.7 million associated 
with expansion were approved and transferred to GSA.
    Since the submission of the space request in January 2002, the 
LESC's core workload has grown from 240,000 queries to a projected 
744,000 queries per year in 2004. Additionally since establishment of 
DHS and ICE, the LESC has taken on new, critical law enforcement tasks. 
This growth combined with new tasks exceeded the projected growth that 
was the basis of the original space request. Additionally, once the 
80,000-sq. ft. expansion is completed, the current LESC site would not 
allow for any additional facility expansion. The constraints of the 
current site would eventually drive the LESC into a multi-site 
operation to continue to expand workload and mission. For these and 
other reasons, including physical security concerns, it was determined 
not to proceed with the 80,000 sq. ft. addition, but instead pursue a 
larger, more secure site that would not limit future expansion or the 
LESC mission and ability to perform its important law enforcement work.
    The $3.7 million transferred to GSA to fund the one-time costs 
associated with the addition is on account with GSA for 5 years and can 
be used at another LESC site or facility. That amount is in addition to 
approximately $1.5 million that was previously on account with GSA for 
internal reconfigurations at the current site for a total of 
approximately $5.2 million that is available for LESC facility 
expansion and improvement.
    The LESC has completed necessary improvements at the current site. 
Planning for a larger facility that will meet all of the current and 
future physical infrastructure needs of the LESC's expanding workload 
and mission is ongoing.

                         DETENTION AND REMOVALS

    Question. The budget requests $5 million for additional detention 
bedspace. What percentage increase in additional bedspace will this 
provide?
    Answer. Approximately 150 beds or less than 1 percent of current 
bed space.
    Question. Given the increased level of resources that the budget 
proposes to devote to enforcement, as well as the increased vigilance 
that US VISIT allows at ports of entry, are enough resources being put 
towards detention?
    Answer. DRO is currently funded for approximately 20,000 beds.
    Question. Will ICE be working with the U.S. Department of Justice, 
Detention Trustee, where appropriate, in the management of the 
detention program? Has a Memorandum of Understanding been signed with 
the Department of Justice?
    Answer. Yes, DRO is working with DOJ, Office of the Federal 
Detention Trustee (OFDT) in the management of the detention program. A 
memorandum of understanding was signed with the Justice Department on 
1/28/2004.
    Question. How is the relationship with the Department of Justice 
structured? Who will be responsible for procurement and contracting?
    Answer. ICE and the OFDT signed an Inter-Agency Agreement on 1/28/
2004. The agreement establishes OFDT as a procurement service provider 
to ICE for non-Federal detention requirements. Since establishment of 
the agreement, ICE and OFDT have made substantial progress toward fully 
implementing the service provider relationship. ICE has identified 5 
non-Federal secure detention requirements for procurement action by 
OFDT and both entities are cooperating to establish a schedule for the 
transition of ICE inter-governmental service agreements and 
administration of the non-Federal detention inspection program to OFDT.

                          FUGITIVE OPERATIONS

    Question. The President's budget requests an increase of $50 
million to create an additional 30 fugitive operations teams. It is 
estimated that each of these teams will be able to apprehend and remove 
up to 500 fugitive aliens a year. Of the approximately 400,000 
absconders, how are you prioritizing which fugitives you pursue first?
    Answer. National Security and criminal cases are the highest 
priority, then cases that have a higher probability of removal, and 
other non-criminal aliens. There are several initiatives being 
implemented to help identify and locate our absconder population. ICE 
has implemented an interface between ICE and CBP systems that 
identifies fugitives when they return to the United States. Inspectors 
will now be alerted when an ``absconder'' is identified at a port of 
entry.
    DRO entered into an agreement with Citizenship and Immigration 
Services whereby DRO is notified when an alien applies for benefits and 
is identified as an absconder. In these cases, CIS provides us with the 
most current information such as home address.
    Question. Based on the information provided in the budget, once 
additional fugitive operations teams are fully deployed, ICE will be 
able to locate and remove 23,000 aliens a year. Your testimony states 
that the national Fugitive Operations program strategy calls for 
eliminating the backlog of absconders in 6 years. Removal of 23,000 
aliens a year for 6 years does not quite add up to 400,000. How will 
ICE accomplish this goal?
    Answer. Our strategic plan ``Endgame'' calls for the elimination of 
the fugitive backlog within 10 years based on significant increases in 
the fugitive program. This will require 300 teams over that time 
period.
    We are also implementing new initiatives targeting data integrity. 
Through data dumps and systems analysis we are removing cases that are 
incorrectly identified as fugitives (Self Deport, Benefits granted, 
etc.)

                       ALTERNATIVES TO DETENTION

    Question. What are the results so far of the Alternatives to 
Detention program?
    Answer. DRO began utilizing alternatives to detention, or community 
based programs, in August 2002, with the opening of a community based 
residential program for 250 non-criminal females that were previously 
held in a local jail in South Florida.
    DRO began testing the applicability of electronic monitoring 
devices (EMDs) in May 2003 in six Field Offices (Anchorage, Miami, 
Detroit, Portland, Seattle, & Chicago). Traditional EMDs have been 
utilized with just over 100 illegal aliens as an alternative to secure 
detention. Supervision of these cases was initially conducted as a 
collateral duty and was found to be very staff intensive. Efforts are 
underway to integrate the traditional EMD house arrest program into the 
Intensive Supervision Appearance Program (see below). Telephonic or 
administrative reporting technology has been utilized as an automated 
reporting device for just over 500 aliens that are living in the 
community on Orders of Supervision. This technology has the potential 
to assist DRO in effective case management. A summary report on the use 
of these two technologies will be completed after 1 year of the pilot. 
Additionally, DRO and the Federal Protective Service (FPS) are 
exploring the possibility of utilizing FPS for monitoring of the EMD 
program technology, currently being provided through a contract with an 
EMD provider.
    Pursuant to the Zadvydas v. Davis Supreme Court decision, there are 
presently a significant number of Post Order Custody Review (POCR) 
cases that are eligible for release, but are in need of rehabilitation 
programs for substance abuse, mental health, anger management, sex 
offender, etc. In September 2003, as an Alternative to Detention 
initiative, a Condition of Release Program for POCR cases was developed 
through our existing reimbursement agreement with the Division of 
Immigration Health Services (DIHS). Through this Program, DIHS will 
review POCR cases, and identify rehabilitative programs. As of March 
2004, 53 POCR cases have been forwarded to DIHS for review and program 
placement.
    DRO recently announced the contract award selection of Behavioral 
Interventions, Inc. (BI) of Boulder Colorado for the provision of 
community-based supervision of 200 aliens in each of the following 
eight Field Offices: Baltimore, Philadelphia, Miami, St. Paul, Denver, 
Kansas City, San Francisco, and Portland. The program is designed to 
supervise aliens that can be released into the community to ensure 
their attendance at Immigration Court hearings and compliance with 
Court orders.
    The contractor will provide Intensive Supervision Appearance 
Programs (ISAP) services for 200 aliens in the initial eight sites 
during fiscal year 2005. ICE plans to expand the initial capacity to 
400, and to add one additional site with a capacity of 200.
    Question. What is necessary, besides just more funding, to see a 
larger scale implementation of this alternatives program?
    Answer. While community based sanctions has been utilized for over 
30 years by the criminal justice system with proven results, there has 
been very little application or research on these types of services for 
illegal aliens. Staff, program research and development resources are 
necessary to determine if these pilot programs would be effective with 
illegal aliens and to develop replication models for expansion.

                          FEDERAL AIR MARSHALS

    Question. The budget request for the Federal Air Marshal Program 
(FAMS) does not include any funds to provide pay raises, within-grade 
increases, or any other adjustments to base in fiscal year 2005. What 
resources are necessary to provide the FAMS with the same adjustments 
to base as the other components within ICE as well as the Department of 
Homeland Security? Please provide an itemized list of the necessary 
adjustments to base for the FAMS.
    Answer. The FAMS and DHS are working to determine how best to 
manage FAMS' resources. FAMS is developing performance-based measures 
that will determine the optimal number of Federal air marshals and 
resources to provide the necessary aviation security.
    Question. What impact will the fiscal year 2005 President's budget 
request have on staffing within FAMS as compared to fiscal year 2004?
    Answer. The FAMS will adjust its staffing as necessary to meet its 
highest priority missions with available resources. In doing so, the 
FAMS will consider other enhancements within the aviation security 
system.
    Question. Previously, there has been a problem with retention of 
FAMS. What is the current attrition rate as compared to that in 
previous years?
    Answer. Since the start of the fiscal year 2004, Federal Air 
Marshal attrition has been roughly 9.4 employees per pay period. This 
attrition rate is down significantly from the fiscal year 2003 level, 
when the Service's attrition averaged approximately 33 per month. In 
turn, the fiscal year 2003 rate was well below the roughly 58 Federal 
Air Marshals lost per month during the last quarter of fiscal year 
2002. Although the FAMS' attrition rate remains in flux, the reduced 
number of employees leaving the program is attributed to the progress 
made towards completing the FAMS' stand up, stabilizing the workforce, 
implementing quality of work life initiatives, and otherwise working to 
improve procedures and management systems to encourage employee 
retention.

           AIR AND MARINE OPERATIONS--NORTHERN BORDER AIRWING

    Question. The Air and Marine Operations program has been stretched 
very thin for the last 2 years. Long-term repetitive details of 
personnel and assets are being used to protect the Northern Border and 
the National Capital Region. The appropriation for fiscal year 2004 
includes resources for the establishment of a permanent Northern Border 
Airwing. What is the status of establishing the permanent Northern 
Border airwing funded for fiscal year 2004?
    Answer. The fiscal year 2003 War Supplemental provided $20.5 
million to launch the Bellingham Air Branch, the first of five Northern 
Border Branches. Planned allocation is as follows: $2.5 million for 
personnel transfers, $12.6 million for medium lift helicopter 
acquisition and $6.6 million for multi-role enforcement aircraft. 
Staffing will be provided through a combination of new hires and the 
transfer of experienced personnel from other AMO field locations.
    In fiscal year 2004, AMO received $35.2 million in Operations and 
Maintenance (O&M) funding to launch AMO's Northern Border Branch in 
Plattsburgh, NY. Planned allocation is as follows: $10 million for 
medium lift helicopter acquisition and $6.6 million for multi-role 
enforcement aircraft, $9.7 million for facility and $2.7 million for 
aircraft spares. An additional $5.4 million was appropriated in 
Salaries and Expenses funding to cover the cost of 36 personnel.
    Plattsburgh and Bellingham each will be equipped with three 
aircraft, including one Multi-Role Enforcement Aircraft (Pilatus PC-12 
fixed-wing), one Medium Lift Helicopter and one Light Enforcement 
Helicopter.
    The President's fiscal year 2005 budget includes $35.2 million to 
launch the third Northern Border Branch.
  --The funds from these two appropriations were combined to purchase 
        one medium lift helicopter.
    Question. How has the recently announced hiring freeze affected the 
Northern Border airwing?
    Answer. The recently announced hiring freeze did not affect our 
build-up of the Northern Border air wing.
    Question. When will the aircraft and other equipment be procured?
    Answer. The procurement process has already begun for the aircraft 
and other equipment. The four AS-350 A-Star helicopters are scheduled 
to be delivered during the June-December 2004 timeframe. Taking into 
consideration the 120-day communication and sensor installation 
process, the first operational helicopter will be delivered in October 
2004 with follow-on delivery of the remaining 3 helicopters at 1 every 
60 days.
    The first PC-12 (Multi-Role Enforcement Aircraft) is scheduled for 
delivery during May 2004. The second aircraft is scheduled for delivery 
October 2004. Both aircraft will be configured with the Wescam 
Integrated Situation Awareness Display System (ISADS) electro optic/
infrared.
    Question. Even with the establishment of this airwing, to what 
extent will ICE still have to rely on detailees to cover the Northern 
Border and the National Capital Region?
    Answer. The Northern Border will have to rely on detailee 
augmentation during surge operations or designated heightened alert 
postures.
    We are currently maintaining the NCR Branch primarily through the 
use of rotational detailee assignments. We are requiring aviation 
personnel to travel on a temporary duty status, as well as, the 
redeployment of aircraft from southern border locations to the 
Washington, D.C. area in order to provide on-going mission critical 
support. All costs for that operation have been covered using Air and 
Marine Operations fiscal year 2004 Operations and Maintenance funding.

                            LONG-RANGE RADAR

    Question. What is the total amount that the Federal Aviation 
Administration (FAA) has in its fiscal year 2004 budget for operating 
the Long-Range radar system?
    Answer. Questions regarding FAA's distinct budget line items should 
be addressed to the FAA.
    Question. How much is being requested by other agencies for fiscal 
year 2005 for the Long-Range radar system?
    Answer. The Long-Range Radar (LRR) funding, a new fiscal year 2005 
line item to help fund the FAA radar system that feeds information to 
the AMOC, is a $12.5 million increase to the AMO base, ``other 
services'' line item.
    Question. Why are new resources being requested in the fiscal year 
2005 budget to allow the Department to pay the FAA for this service, as 
opposed to a transfer from the FAA budget?
    Answer. FAA has indicated recently that to continue to maintain and 
operate this system as mandated in past Federal legislation, it would 
need to start charging user agencies for the data.

                     TETHERED AEROSTAT RADAR SYSTEM

    Question. The information provided by the Tethered Aerostat Radar 
System (TARS), known as TARS, is a critical component in the 
Department's efforts to interdict illicit air traffickers. Do you 
believe that the Department of the Defense is providing sufficient 
support to the TARS program to enable the Air and Marine Program to 
effectively carry out its mission?
    Answer. The TARS program has declined from 14 operational sites to 
8 operational sites (Lajas, Puerto Rico, is due back on-line in May 
2004). Questions regarding costs for operating these sites should be 
addressed to DOD, which maintains and operates the system. AMO is an 
end user of the data provided by these valuable national assets.
    Question. Is the Department of Homeland Security working with the 
Department of Defense to ensure proper maintenance and upgrades of 
TARS?
    Answer. AMO is currently working closely with all the agencies 
involved in the counter-narcotics and border security missions, 
including USIC, ONDCP, DOD, and DHS to communicate the requirements for 
the continued use of the TARS. Recent close coordination and meetings 
between the Department of Homeland Security and the Deputy Assistant of 
Defense for Counter Narcotics have resulted in frank and open 
discussions related to TARS. The dialogue is productive and ongoing at 
this time, and DHS' requirements have been acknowledged by DOD.
    Question. Does ICE have the necessary expertise and personnel to 
take over the management and maintenance of the TARS program?
    Answer. TARS is now under the purview of DOD and should be operated 
in line with DHS operational needs.
    Question. What is the estimated funding needed for ICE to assume 
management of the TARS program?
    Answer. TARS is now under the purview of DOD and should be operated 
in line with DHS operational needs.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                  Citizenship and Immigration Services

                 IMPACT OF THE PRESIDENT'S REFORM PLAN

    Question. How many new petitions do you expect the President's 
Immigration Reform Plan to generate?
    Answer. This information will be available once Congress has 
drafted the legislation and the specifics are known.

                   MACHINE-READABLE PASSPORT DEADLINE

    Background: The Enhanced Border Security and Visa Entry Reform Act 
of 2002, which President Bush signed into law on May 14, 2002, 
established October 26, 2004, as the deadline by which the 27 existing 
``visa waiver'' countries must have machine readable visas in order for 
their citizens to enter the United States. Last week, Secretaries Ridge 
and Powell sent a letter to various Congressional leaders urging that 
the October 26, 2004 deadline be pushed back to December, 2006. The 
countries which would be affected by this law have had nearly 2 years 
to comply with this requirement. This is not something new which we 
just pulled out of thin air.
    I understand that certain lobbying organizations, such as the 
Travel Industry Association of America, have praised this proposed 
delay in the deadline. However, I predicted this outcome when the 
Enhanced Border Security Act was on the Senate floor.
    We know that terrorists have attempted to gain entry to the United 
States through the visa waiver program. The December 2001 ``shoe 
bomber'', Richard Reid, benefited from attempting to come to the United 
States from a ``visa waiver'' country. We know that tens of thousands 
of passports from visa waiver countries have been stolen in recent 
years and sold on the black market. We know that machine-readable 
passports can help to filter potential terrorists who try to enter the 
United States through the visa waiver program. I do not want to 
discourage legitimate tourists and other travelers from coming to visit 
our country, but border security must remain one of the Department's 
paramount priorities. The law was passed nearly 2 years ago. There has 
been ample time for the Administration to work with the visa waiver 
countries in meeting this deadline. The Administration's job was to get 
these countries to meet the requirements of the law.
    Question. How is it in the interest of our domestic security to 
push back even further the deadline requiring machine-readable 
passports from visa waiver countries? What steps did the Administration 
take over the last 2 years to ensure that visa waiver countries would 
be able to meet the deadline?
    Answer: The EBSVERA requires that beginning on October 26, 2004, 
Visa Waiver Program (VWP) countries must certify that they have a 
program in place to issue their nationals machine-readable passports 
that are tamper-resistant and incorporate biometric and document 
authentication identifiers that comply with International Civil 
Aviation Organization (ICAO) standards in order to continue to 
participate in the VWP. The law also requires that visitors coming to 
the United States under the VWP present machine-readable, tamper-
resistant passports that incorporate biometric and document 
authentication identifiers, if the passports is issued on or after 
October 26, 2004.
    While most, if not all, VWP countries will be able to certify that 
they have a program in place to issue biometric passports by the 
October deadline, very few, if any, VWP countries will actually be able 
to begin issuing biometric passports by that date. The issue is not 
lack of will or commitment to achieving the standard by these 
countries, but rather challenging scientific and technical issues. For 
the same challenging technical reasons, DHS is also not currently in a 
position to acquire and deploy equipment and software to biometrically 
compare and authenticate these documents. It is not in any country's 
interest, including our domestic security interest, to produce or 
accept biometric passports with questionable standards and an immature 
biometric technology.
    DHS is encouraged by the progress that has been made by VWP 
countries to meet the emerging ICAO standards. We believe that by the 
fall of 2006, the technology required to implement successfully a 
security system based on the ICAO standards will be much more settled 
and allow DHS to derive the security benefits envisioned when the 
original EBSVERA was enacted.
    As you know, changing the deadlines requires Congressional action, 
and a memorandum concerning this issue was forwarded to Congress signed 
by Secretaries Ridge and Powell requesting an extension of the 
deadlines until November 30, 2006. The Secretaries also testified 
before Congress on this issue on April 21, 2004.

           IMMIGRATION PROCESSING FEES AND THE BACKLOG (CIS)

    Question. The number of immigrants awaiting decisions from CIS--
including citizenship and permanent resident status--increased 59 
percent in the past 3 years. Despite $160 million appropriated in the 
past 2 years to remedy the logjam, nearly 6.2 million applications were 
pending at the end of September, according to a General Accounting 
Office report. The GAO probe revealed that fees charged by Citizenship 
and Immigrations Services are insufficient to cover the cost of 
processing applications--in part due to expanding security costs. 
According to the GAO, ``CIS knows neither the cost to process new 
applications nor the cost to complete pending applications,'' the 
report said.
    In anticipation of President Bush's immigration overhaul, the GAO 
recommended that Homeland Security Secretary Ridge direct CIS to study 
the fees and determine how much money will be needed to remedy the 
backlog. In an August interview with Government Executive magazine, 
Director Aguirre, you vowed to significantly reduce wait times and 
application backlogs for immigration benefits by increasing the 
agency's efficiency through new information technology investments.
    Based on the funding proposed by the President, how much of the 
backlog will CIS be able to eliminate in 2005?
    Answer. Information on the current backlog and USCIS plans to 
eliminate it will be provided to Congress in the coming months in a 
revised Backlog Elimination Plan. USCIS will meet the President's goals 
of eliminating the backlog and achieving a 6-month processing standard 
for all immigration applications by 2006.
    Question. I understand that in order to meet the President's 
backlog reduction goal by fiscal year 2006, your agency must achieve a 
42 percent increase in productivity. Two questions--First, what 
specific steps are you taking to produce 42 percent increase in 
productivity? Second, it is essential that you ensure that security 
background checks are done correctly. If a 42 percent productivity 
improvement is not accomplished, what will the impact be on making sure 
that security background checks are completed?
    Answer. Information on the current backlog and USCIS plans to 
eliminate it will be provided to Congress in the coming months in a 
revised Backlog Elimination Plan. USCIS will meet the President's goals 
of eliminating the backlog and achieving a 6-month processing standard 
for all immigration applications by 2006.
    USCIS will continue to explore ways of improving the efficiency of 
our national security check processes, but will not place backlog 
elimination requirements above national security requirements. Backlog 
elimination will be achieved through efficiency efforts, through 
development of information technology programs that automate manual 
processes, and from reengineering processes to reduce adjudication time 
without sacrificing the integrity of the adjudicative process.

                    PRESIDENT'S IMMIGRATION PROPOSAL

    Question. What impact would the President's immigration proposal, 
if enacted, have on the immigration application backlog and on efforts 
to reduce the backlog? Would the temporary work permits envisioned in 
the President's plan be issued before or after the benefits sought by 
the 6.2 million applications in the backlog? What is the plan for 
insuring that the backlog reduction program does not increase benefits 
fraud by encouraging the rubber-stamping of applications?
    Answer. USCIS will need to review specific legislative proposals 
before it can comment on the potential impact on USCIS' capabilities.

   Citizenship and Immigration Services and Immigration and Customs 
                              Enforcement

                             BENEFITS FRAUD

    Question. Who is responsible for investigating benefits fraud? Both 
CIS and ICE have asked for funding to investigate benefits fraud, but 
neither seems to know which is actually responsible.
    Answer. A January 2002 General Accounting Office (GAO) Report-02-66 
entitled ``Immigration Benefit Fraud--Focused Approach is Needed to 
Address Problems'' raised concerns about identifying immigration fraud. 
As a part of the USCIS efforts to reengineer its business processes and 
eliminate the backlog, the agency is also looking closely at ways to 
identify and decrease benefits fraud. Immigration and Customs 
Enforcement will continue to play a vital role in investigating 
suspicious cases and/or prosecuting the participants in a scheme in 
conjunction with Federal, state, and local prosecutors.
    ICE will continue to perform those enforcement duties enumerated in 
the OPM classification standards for an 1811 occupational series 
criminal investigator.

               IMMIGRATION REFORM AND CONTROL ACT (ICRA)

    Question. What lessons from the 1986 Immigration Reform and Control 
Act (IRCA) legalization programs have been applied to the President's 
Immigration Reform Plan?
    Answer. The IRCA planning teams developed a strategy that enabled 
the Service to quickly expand its adjudicative capacity through the 
establishment of temporary regional processing centers and local 
interview offices. Temporary employees were hired and trained 
specifically to adjudicate that workload. INS reassigned experienced 
executives and managers at all levels to oversee operations, but relied 
heavily on the skills or retired executives and managers (reemployed 
annuitants). This strategy enabled the Service to continue its efforts 
to process the normal casework plus handle the surge in workload caused 
by the passage of IRCA.
    Key components of IRCA were: the development of the regional 
processing center concept, development of a modular office plan for 
field interviewing sites, automated data systems to record 
transactions, and receipt of authority from Congress to expedite 
certain leasing and contracting requirements. In addition, INS received 
authority to reemploy annuitants without salary offset. The reemployed 
annuitant program was absolutely critical to the overall success of the 
program.
    INS worked closely with Congress prior to the passage of IRCA, and 
that cooperation was also instrumental in INS being able to meet the 
requirements for the legalization provisions of IRCA.
    Question. What were the total costs of IRCA's two legalization 
programs (please break down by main components) and how much revenue 
was generated in total by the fees charged to process IRCA 
applications?
    Answer. The IRCA program was totally fee-funded. Therefore, the 
number of applications filed and their respective fees determine the 
total cost of the program. Our analysis to date of the program has 
determined a total application workload of approximately 2.7 million, 
with costs/fee revenues totaling $245 million. The breakdown of this 
program is as follows: (1) Application for Permanent Residency (2.68 
million applications/$241 million), and (2) Application for Status as a 
Temporary Resident (6,700 applications/$3.7 million).
    Question. How much will the President's Immigration Reform Plan 
cost, and what components comprise the total cost?
    Answer. It is expected that costs associated with the USCIS 
workload would be covered with fees like all other application and 
petition processing.
    Question. How many full-time equivalent (FTE) personnel will be 
necessary to implement the President's Immigration Reform Plan? What 
level of fees or additional appropriations would be necessary to hire 
those additional FTEs without further increasing the deficit?
    Answer. This information will be available once Congress has 
drafted the legislation and the specifics are known.

                         DATA BETWEEN 1996-2003

    Question. Please provide a comparison of the size of the fugitive 
alien population from 1996-2003. Please also provide the same 
information regarding the backlog, as well as the backlog of matters 
pending in the Immigration Court for the same period.
    Answer. Below are the estimates of the number of fugitive aliens 
based on the year that they received their order of removal, based on 
information in the Deportable Alien Control System (DACS).

------------------------------------------------------------------------
                       Fiscal year                          Absconders
------------------------------------------------------------------------
1996....................................................         130,296
1997....................................................         157,220
1998....................................................         186,944
1999....................................................         214,580
2000....................................................         239,656
2001....................................................         265,427
2002....................................................         295,336
2003....................................................         320,364
------------------------------------------------------------------------

    ICE defers to the Executive Office of Immigration Review (EOIR) to 
respond to your question regarding the number of backlogs of matters 
pending in the Immigration Court for the same period of time.

                     Customs and Border Protection

                    TERRORIST WATCH LIST INTEGRATION

    Question. One of the most important items on the Department's list 
of unfinished business is the integration of terrorist watch lists. 
Earlier this year, Secretary Ridge said the list would be fully 
functional ``by mid-May.'' Because the agencies you oversee--Customs 
and Border Protection and Immigration and Customs Enforcement--rely 
daily on accurate information about the potential threats to this 
country posed by individuals on these lists, I would expect that the 
integration of this information would be a priority.
    It is not clear to me whether the integration of the watch lists is 
an FBI responsibility or that of the Department. Is it a DHS 
responsibility or an FBI responsibility to integrate the watch lists 
and when do you expect the integration to be complete?
    Answer. Terrorist Watch Lists are the responsibility of the 
Terrorist Screening Center (TSC), and the Terrorist Threat Integration 
Center (TTIC). CBP submits names for watch listing to the TTIC through 
CBP's Office of Intelligence. Since the CIA, FBI and DHS have joint 
responsibility for the TTIC (TSC is a subsidiary of the TTIC), the 
responsibility lies with the TTIC as a whole. Currently, the Director 
of the CIA oversees that operation of the TTIC.

                     CONTAINER SECURITY INITIATIVE

    Question. An additional $25 million is requested for fiscal year 
2005 to expand the Container Security Initiative. This innovative 
program has placed CBP inspectors at numerous overseas seaports to work 
with their host country counterparts at targeting potentially dangerous 
containers for enhanced inspection prior to being loaded on U.S.-bound 
ships.
    In December, Subcommittee staff were able to see this program in 
action in Asia. They spoke with the inspectors, discussed their working 
relationships with the host country inspectors, and witnessed both the 
physical inspection of individual containers. The U.S. inspectors were 
quite enthusiastic about performing their duties. But both they and the 
foreign counterparts expressed concern that our personnel were being 
rotated through the countries on a temporary basis, as opposed to being 
in country for extended tours of duty. In part because of cultural 
differences in various countries, they stressed the importance of 
remaining overseas to strengthen working relationships with the foreign 
customs officials rather than starting from scratch with each new team 
of U.S. inspectors.
    Does your budget request provide for longer tours of duty for CSI 
team members? Are you actively making CSI tours a career ``enhancer'' 
for your personnel--most of whom are not oriented to working overseas? 
Are your people receiving the necessary support from U.S. ambassadors 
in establishing and expanding the CSI presence overseas? Also, what 
would be costs of fully funding all Phase II CSI ports?
    Answer. Our budget includes funding for permanent overseas 
positions. We are currently using TDY (temporary duty) personnel 
overseas but have initiated the process for obtaining State Department 
approval for the permanent positions. The embassy is providing the 
necessary support to enable CSI to establish and expand its presence 
overseas. That is evidenced by the State Dept's willingness to approve 
NSDD 38's to establish permanent positions in the respective countries. 
The NSDD38 (National Security Decision Directive) requests are 
currently being processed at DHS and will be forwarded to Department of 
State for final approval. We have also developed a comprehensive 
training program for the permanent employees, which include 
operational, administrative and cultural training. We are working 
closely with the overseas posts to transition our temporary staff to 
permanent staff.
    Costs for funding the future ports are impacted by the opening date 
of the port, infrastructure requirement, staffing and equipment, etc. 
Our projected budget for fiscal year 2005 is sufficient to cover the 
costs of our expansion ports that will open in fiscal year 2005.

                 OVERSEAS AIRLINE PASSENGER INSPECTION

    Question. There have been press reports that your agency is 
considering placing CBP inspectors at certain targeted overseas 
airports to pre-screen passengers before they board flights to the 
United States. I understand that the goal is to prevent potential 
terrorists from boarding a plane and either hijacking it or blowing it 
up. That is certainly a goal we all share.
    However, because they screen passengers who board U.S.-originated 
flights, is this not more properly a Transportation Security 
Administration role? Will you be screening all passengers or only those 
holding foreign passports?
    If you are accessing passenger databases, which databases are they 
and what privacy protections are you planning on implementing? Also, 
when will Congress be notified of this program? We've only see reports 
on it in the media.
    Answer. U.S. Customs and Border Protection (CBP) Officers will be 
deployed overseas to perform a tactical function, the goal of which is 
to prevent the onward movement of people identified as national 
security threats. This program will replace the legacy INS Immigration 
Control Officer (ICO) Program. The Immigration Security Initiative 
(ISI) will also disrupt or deter the transportation of inadmissible 
aliens and the proliferation of fraudulent documents. In the course of 
these duties, the ISI will provide information to host countries, or 
appropriate authorities regarding travelers of interest.
    Although these efforts can result in the development of 
intelligence information, the primary function of the ISI is to use 
current targeting and passenger analysis information provided by the 
National Targeting Center (NTC) and the Forensic Document Lab (FDL) to 
focus on high-risk persons. These efforts may lead to the apprehension 
and prosecution of criminals and persons of national security interest 
by host countries, the disruption of attempts to smuggle aliens and 
contraband, and the disruption of attempts to enter the United States 
with fraudulent documents.
    When an ISI Officer identifies a traveler that should be prevented 
from boarding a flight to the United States, the ISI will work with the 
host country's immigration and/or customs control authority and the air 
carrier who will take the appropriate action to prevent the person from 
boarding the flight. The ISI will not have any authority in the host 
country to take such action. Information provided to the host country 
on these types of individuals will be vetted through the appropriate 
authorities before any information is released to the host country.
    Both TSA and CBP perform important functions in ensuring the safety 
and security of the United States. However, TSA does not have the 
authority CBP holds to perform the particular targeting function of ISI 
in another country. ISI is the tool that we propose to use in deterring 
individuals that may pose a threat to the safety and security of the 
United States from boarding U.S.-bound flights, not U.S.-originated 
flights.
    In fiscal year 2004, CBP will initiate a pilot of the ISI program 
in Warsaw, Poland. We estimate the cost to be approximately $500K for 
each ISI site. Once the pilot is evaluated we'll have better 
information regarding the future of the initiative.

                          ISIS BORDER COVERAGE

    Question. How much of the northern border and how much of the 
southern border is covered by ISIS?
    Answer: Currently the ISIS program covers the following:
  --Northern land border: 99 miles
  --Southern land border: 290.5 miles
  --Total: 389.5 miles

                         BORDER PATROL STAFFING

    Question. Have the USA Patriot Act's requirements for Border Patrol 
staffing on the Northern Border been met? If so, when was this goal 
achieved? Was this achieved through the transfer, on either a temporary 
or permanent basis, of personnel from the Southwest Border or 
elsewhere? If so, does your budget request provide sufficient funds to 
restore staffing at those locations to their authorized levels? If not, 
what additional funds and FTEs are required to reach that goal?
    Answer. The number of agents on the northern border had been 
increased to 1,006 as of the end of December 2003. This is triple the 
number of agents that were assigned along the northern border prior to 
9/11 and meets the Patriot Act's requirement for staffing on the 
Northern border. The number of agents currently assigned to the 
northern border remains at 1,006.
    The agent increase was accomplished through the permanent 
relocation of experienced agents from across the nine southern border 
sector areas. The CBP budget has sufficient funds to backfill the agent 
vacancies through a combination of new agent hires and the relocation 
of agents among the southern border areas. Additional funds and FTEs 
will not be required to restore the staffing levels at the southern 
border

                         ALTERNATIVES TO VACIS

    Question. My staff is aware of the existence of non-intrusive 
inspection technology (such as back-scatter gamma ray devices) that 
provides a higher degree of resolution when inspecting shipping 
containers and other closed containers. In fact, they saw some of these 
devices in use at a seaport in Asia late last year. Is CBP considering 
the procurement of next-generation devices which provide enhanced 
resolution either when replacing existing, aging systems or for 
deployment at new locations? If so, what are the approximate costs of 
the systems under consideration versus the costs of the existing 
systems? Do these newer systems provide a significant improvement for 
inspectors over existing systems? Conversely, if you are not 
considering procuring new systems, why not? Is it due to cost, other 
considerations, or both?
    Answer. ``Back-scatter'' technology, which is associated with X-ray 
systems and not gamma ray systems, was developed by American Science 
and Engineering (AS&E) in the 1980's. For many years now, Customs and 
Border Protection (CBP) has operated a large number of devices, which 
have this capability, including large-scale truck/container imaging 
systems. Back-scatter images can indeed provide information, which is 
not available from a transmission X-ray or gamma ray image. Like any 
technology though, it has its limitations--the amount of penetration 
into vehicles or containers, and the resulting image, depends in large 
part on the type and amount of commodity being scanned. CBP operates a 
variety of X-ray and gamma ray imaging systems.
    The costs of the back-scatter technology will vary depending on the 
configuration of the system. There are back-scatter-only systems which 
cost less than gamma ray imaging systems and there are transmission/
back-scatter X-ray systems which cost significantly more than gamma ray 
systems. The requirements, which define what type of system is needed 
to meet operational demands, are much broader than just this single 
technical criteria. CBP recently purchased a new AS&E product, the ZBV 
(back-scatter only) X-ray van, which is now being tested in Arizona. We 
are preparing to field two new high (>6 MeV) energy, mobile sea 
container X-ray systems later this summer to U.S. seaports. CBP also 
recently upgraded an existing 2.5 MeV mobile X-ray system to 3.8 MeV, 
and is now testing it at the Port of Baltimore. CBP continually 
evaluates promising new technologies, which have the potential to 
enhance or replace existing systems.

              ENHANCING BORDER PATROL INTEGRATION INTO CBP

    Question. During briefings with my staff it appears that 
coordination and integration of certain Border Patrol activities, 
programs, and systems has not gone as smoothly as it might otherwise be 
expected. Sometimes it appears that inquiries made by staff come as a 
surprise to Border Patrol and the CBP staff. For instance, we asked 
questions about the procurement of high-endurance vehicles for the 
Border Patrol only to learn that the CBP vehicle management team was 
working on a longer-term vehicle management plan of which Border Patrol 
was not a part. I understand there are growing pains and learning 
curves when creating a new Department, but issues such as development 
of a unified inventory of goods and activities seems rather basic. What 
concrete steps have CBP and Border Patrol taken to ensure that each 
entity knows what the other is doing?
    Answer. With the merger of the U.S. Border Patrol into U.S. Customs 
and Border Protection (CBP), the integration of border patrol 
activities was established as one of our highest priorities. The Border 
Patrol was established as an Office reporting directly to the 
Commissioner with the Chief of the Border Patrol having equal status to 
our Assistant Commissioners. Border Patrol Sector Chiefs participate in 
all CBP Executive Leadership meetings. Representatives from the U.S. 
Border Patrol have been included in all transition management 
activities and in some instances have actually served as the leaders of 
groups addressing integration and merger issues. The issues addressed 
not only operation mission responsibilities, but mission support 
operations as well.
    Knowing that the Border Patrol's functions and responsibilities are 
key to the security of our homeland, the following are examples of 
integration activities in which the Border Patrol has been, and will 
continue to be actively involved:
  --Immediate participation in the CBP ``around the clock'' Situation 
        Room.
  --Integration of border patrol agents into CBP's intelligence 
        structure.
  --Identification of resources, staffing, and property transfers and 
        modifications to information systems necessary to stand up CBP 
        on October 1, 2003.
  --Analysis of vehicle fleet requirements as part of CBP's replacement 
        and upgrade strategy.
  --Participation in a procurement ``War Room'' to train and certify 
        border patrol employees in CBP contract and procurement 
        processes and reduce an inherited backlog of outstanding 
        procurement actions.
  --Determining the process and infrastructure to consolidate the 
        tactical communications program in order to create more unified 
        communications structure and assure officer safety through 
        interoperability.
  --Migration of and training for all border patrol employees to CBP's 
        administrative systems for processing travel, payroll, 
        procurement, and human resources.
  --Identifying technologies to share and to use as force multipliers 
        to increase CBP's enforcement capacity.
  --Designing a process for incident reporting to ensure clear 
        reporting for rapid notification to senior management of 
        significant incidents.
  --Developing a strategy, policies and procedures for integrating the 
        processing of seizures, forfeitures, fines and penalties into a 
        consolidated process for all of CBP to assure property and 
        fiscal accountability.
  --Proposing an integration plan for unifying operational policies, 
        resource management and best practices for the CBP Canine 
        program.
  --Cross training Border Patrol agents in anti-terrorism concepts and 
        techniques.

                         BORDER PATROL VEHICLES

    Question. What is the status of the review of the need for high-
endurance vehicles for the Border Patrol? What performance measures are 
you using for determining the need to procure additional or different 
high-endurance vehicles? Are there funds in the fiscal year 2005 budget 
request to procure additional high-endurance vehicles?
    Answer. U.S. Customs and Border Protection (CBP) recently entered 
into a contract with Nevada Automotive Transportation Center to conduct 
a terrain mapping study. This is a joint effort between the Office of 
Finance and the Office of Border Patrol Information Technology Unit. 
Information obtained from the study will be used to evaluate the 
terrain and recommend the type of high-endurance vehicles needed to 
meet mission requirements and provide for Agent safety.
    CBP will determine the correct vehicle to be procured based on life 
cycle studies, performance measures and the out come of the terrain 
mapping study. The performance measures will include, mission 
requirements, life cycle costs, durability and downtime of vehicles.
    Currently, there are no funds designated in the fiscal year 2005 
budget to procure additional or replacement high-endurance vehicles.

                LAND BORDER ``EXIT'' CONTROL OF US VISIT

    Question. What impact will the ``exit'' component of US VISIT have 
on the land borders? Do you anticipate that additional outbound 
inspection lanes or other facilities modifications will have to be 
created in the coming years? If so, when can we expect to receive an 
estimated plan of those construction and other requirements? Is CBP an 
active participant with the US VISIT program office?
    Answer. The impact of the US VISIT exit program on land border 
facilities, outbound lanes, and possibly staffing will depend on the 
process/solution that is deployed. It will also depend upon the timing 
of the rollout of the exit strategies.
    After US VISIT awards a contract to their prime integrator for the 
land border entry/exit system, expected in mid-fiscal year 2004, and 
the integrator offers a more comprehensive solution, CBP will better 
understand the extent of the impact to our operations. CBP will 
continue to work closely with US VISIT to develop an exit solution. .

                            COBRA EXTENSION

    Question. What is CBP currently doing to fix the COBRA overtime cap 
issue which has caused Customs Inspectors and new CBP officers to lose 
the ability to contribute $2,500 towards their base pay for calculating 
their retirement annuity? The current overtime earning cap has been 
reduced from $30,000 to $25,000 due to a legislative language drafting 
issue in the fiscal year 2004 DHS Appropriations bill. Does your budget 
request provide a legislative fix to this unintentional drafting error?
    Answer. This unintentional oversight is being addressed through 
various channels. The Department of Homeland Security is working on a 
legislative change to equalize the overtime caps for all U.S. Customs 
and Border Protection (CBP) employees, while CBP is investigating the 
possibility of cap waivers that would allow officers to exceed the 
$25,000 cap in fiscal year 2004.
    Question. Does the fiscal year 2005 Budget assume the merging of 
Customs/INS/Agriculture user fees? In addition, what does the fiscal 
year 2005 budget estimate will be received in COBRA user fees for 
fiscal year 2004?
    Answer. The fiscal year 2005 Budget does not assume that the 
Customs/INS/Agriculture user fees will be merged. CBP is projecting 
that $303 million will be received in COBRA user fees in fiscal year 
2004.
    Question. Does the fiscal year 2005 budget assume the 
reauthorization of COBRA which is set to expire on March 31, 2005?
    Answer. Public Law 108-121 reauthorized COBRA through March 1, 
2005. The fiscal year 2005 budget assumes that COBRA will be 
reauthorized beyond the March 1st expiration date.

                      SIXTH DAY OF FLETC TRAINING

    Question. What is the Department doing to correct the problem of 
the Department not paying legacy Customs Inspectors and new CBP 
officers for their required work on the sixth day of basic training at 
the Federal Law Enforcement Training Center (FLETC)?
    Answer. We do pay employees covered by the Fair Labor Standards Act 
(FLSA) overtime while engaged in training at FLETC for 6 day weeks. The 
Government Employee and Training Act (GETA) prohibits us from paying 
non-FLSA employees under FLSA provision. Our COPRA covered front-line 
personnel are not subject to FLSA. COPRA was specifically designed for 
Customs Officers and is the exclusive pay act for our Customs legacy 
personnel. Our agency position on this matter was recently sustained in 
an arbitration decision.

                             CROSS-TRAINING

    Questions: What amount of training dollars per officer (i.e., 
``modular costs'') is currently being spent for customs training vs. 
immigration training?
    Is CBP requiring both legacy Customs and legacy INS/Border Patrol 
personnel to attend cross-training programs? What percentage of legacy 
Customs vs. INS/Border Patrol personnel has actually completed such 
training? Does CBP intend that all enforcement personnel will undergo 
such cross-training, and if so, when is that training expected to be 
completed?
    Legacy immigration inspectors have said that compact discs (CDs) 
are being used for training legacy Customs personnel in immigration 
law, while legacy INS/Border Patrol personnel must attend in-person 
training in Customs law. How does CBP ensure that the material on the 
CDs is being learned? What evidence does CBP have that training at-home 
training with a CD is as effective as in-person training?
    Answer. The CBP Officer Training Modules are being developed by CBP 
under one initiative using field subject matter experts with experience 
in customs, immigration and agriculture for the determination of course 
content. Each individual will receive the training needed to achieve 
full competency as a CBP Officer. Costs are not allocated on a per-
officer basis as each officer receives a training package tailored to 
meet their individual need.
    CBP will require both legacy Customs and legacy INS inspectors to 
attend cross training programs. There are many different audiences for 
the different modules:
  --New CBP Officers
  --CBP Customs Inspectors
  --CBP Immigration Inspectors
  --CBP Agriculture Specialists
  --New CBP Agriculture Specialists
    Because of the differences in roles and geographic areas served, 
Border Patrol personnel were not integrated into the CBP Officer 
position and are not required to participate in the cross-training 
initiatives.
    Of the 21 training modules that have been developed to support CBP 
Officer training priorities, 15 have been identified as cross-training 
programs for legacy Customs inspectors, INS inspectors, or both. 
Integrated training modules will be rolled-out and delivered over the 
next 12-months.
    Integrated training will be delivered in the field locations. There 
are different delivery methods for the modules, ranging from classroom, 
to computer-based, to video, to on-the-job. And, there is different 
timing for delivery of the modules; for example, some will be taken by 
new CBP Officers as soon as possible after their return from the 
Academy. The integrated training for other CBP Officers will be 
mandatory, and will be based on the operational needs of a given port. 
Inspectors who are converted to the CBP Officer position will not be 
expected to perform new functions until they have demonstrated the 
knowledge and skills required for that function.
    Compact Discs (CDs) are being used solely as a prerequisite to 
classroom training. The CDs are a 6-hour course in Fundamentals of 
Immigration, and a 10-hour course in Immigration Law. All CD self-study 
training includes rigorous tests that are administered to ensure 
students are prepared for the 5 days of intensive classroom training 
that provides additional study and application of the law.
    The classroom portion is followed by an extensive on-the-job 
training requirement. Finally, additional classroom instruction will be 
provided to prepare the Officers for more advanced tasks. Approximately 
80 hours of instruction will be delivered to each Officer. The same 
method of training is being developed for customs law.
    Currently customs law is being delivered as a course at the CBP 
Academy to new Officers.
    Due to the complexity and immediate need to get this training to 
the intended users, CBP determined that the best method for delivering 
immigration law training to legacy Customs personnel was by Compact 
Disc (CD). By using CD's, the officers could complete the training as 
required and have a consistent, convenient, available, ready-reference 
information to use. The completion of the CDs takes place during the 
CBP Officers regular duty assignments; the CBP Officers do not complete 
these CD's at home.
    The Officer is evaluated by an examination at the end of each 
module. If successful, the officer receives a certificate of completion 
for that specific module of training. If unsuccessful, the Officer 
receives feedback and information as to what areas of the training 
requires more study. The Officer is required to repeat that module and 
re-take the examination until the modules are completed at the required 
knowledge level.

                   CONTINUED DUMPING AND SUBSIDY ACT

    Question. Please provide an update on CBP efforts to implement last 
year's Treasury IG recommendations on how to improve administration of 
the Continued Dumping and Subsidy Offset Act.
    Answer. CBP has completed three fiscal year cycles under the CDSOA. 
To date, CBP has disbursed over $750 million to affected domestic 
producers. An additional $50 million in fiscal year 2003 duties is 
currently being withheld pending the outcome of a court case. Total 
number of claims processed to date is over 4,000. As a result of a 
recent IG investigation into this program, CBP has added resources, 
improved process controls, and transferred responsibility for the 
program to the CBP Chief Financial Officer. CBP is currently in the 
planning stages for the fiscal year 2004 disbursement process. We will 
be publishing a Federal Register Notice in June or July, announcing our 
Intent to Disburse fiscal year 2004 funds and inviting affected 
domestic producers to file their certifications in a timely manner. 
Under the existing statute, we are required to disburse the fiscal year 
2004 funds no later than 60 days after the end of the fiscal year, or 
November 29, 2004.
    Question. How much was spent in fiscal year 2002-2004 to administer 
the program? What is the estimated cost for fiscal year 2005?
    Answer. From fiscal year 2002-2005, the estimated annual expenses 
incurred by Customs and Border Protection (CBP) to administer this 
program are approximately 18 FTE and $1.9 million.
    Question. On March 19, 2004, CBP issued its Annual Report (2003) on 
the ``Byrd Amendment'' trade law. This is a law I helped enact that 
allows CBP to reimburse U.S. companies that have been injured by unfair 
trade with funds that are collected as import duties on unfairly traded 
imports. The CBP report states that, while CBP should have distributed 
at least $320 million in collected duties to eligible U.S. companies 
and workers in 2003, it was able to distribute only $190 million 
because CBP failed to collect $130 million from unfair traders. Most of 
the uncollected $130 million consists of import duties not collected by 
CBP on goods from China, in particular. While part of the problem is 
that Chinese companies are refusing to pay these duties, it also 
appears that CBP is failing to enforce the U.S. trade laws because it 
is not diligently pursuing the parties who are refusing to pay these 
duties.
    Why is CBP not collecting millions of dollars in duties on unfairly 
traded imports as required by U.S. law?
    Answer. CBP is correctly assessing duties on all imports into the 
United States as required by U.S. law. CBP charges importers for post 
entry changes to this assessment. CBP vigorously pursues collection of 
all outstanding debt liabilities.
    Question. If the duties are not now being paid, what does CBP plan 
to do to make certain that the duties are paid and collected in the 
future?
    Answer. CBP has developed a national trade strategy that 
specifically addresses the high priority issues and risks in trade. 
Anti dumping and countervailing duty (AD/CVD) and revenue collection 
are two priorities within the strategy. Action plans have been 
developed to address specific risks to these issues. Included in the 
plans are innovative approaches to establishing bonding limits, 
specifically for anti-dumping imports, that are commensurate with the 
financial risks of the transaction.
    Question. Why, in your view, does the problem seem to involve more 
imports from China than from any other country?
    Answer. There are a number of possible factors. There are currently 
more anti-dumping and countervailing duty orders in place for China 
(54) than for any other country. In addition, China has been named in 
half of the 16 petitions filed with the International Trade Commission 
(ITC) in the last 7 months.
    There is also volatility in the deposit rates issued by the 
Department of Commerce (DOC) and administered and enforced by CBP for 
dumping cases concerning China. DOC adopts the presumption that the PRC 
is a nonmarket economy during their investigations. The success or 
failure of a particular exporter/producer to satisfy DOC that they are 
independent from the PRC government affects the rate they are subject 
to. It is possible for deposit rates to fluctuate significantly during 
the course of the DOC investigation as well as in the final rate 
depending on their ability to respond to DOC.
    Question. How does CBP specifically plan to address the fact that 
the bulk of the problem concerns imports from China?
    Answer. CBP currently has in place trade strategies that focus 
specifically on anti-dumping/countervailing duty and revenue. Each of 
these plans has a multi-office working group responsible for the 
development, oversight and evaluation of the plans. These plans have 
already developed and implemented a number of actions that address 
dumping as a whole and by inclusion, China. These actions include 
identification and clean up of outstanding dumping entries, increased 
operational oversight of the dumping process, development of improved 
mechanisms to ensure and monitor adequate bonding of dumping entries, 
and improved communication with DOC.
    Question. Some believe that, if it were not for the Byrd Amendment, 
CBP would have no way of knowing that these millions of dollars in 
duties were not being collected. If this is true, do you believe that 
CBP should adopt additional ways to determine whether import duties are 
being paid by importers and collected by the United States Government?
    Answer. While CBP does have adequate controls in place to ensure 
that collectible debt is collected, we are working to strengthen these 
controls to help us identify potential uncollectible debt earlier in 
the process.
    CBP has standard reports that list all unpaid and overdue bills, 
including those for unpaid anti-dumping and countervailing duties. Some 
anti-dumping and countervailing duties have not been and will not be 
collected when importers go out of business or go bankrupt, and bond 
coverage is insufficient. As a part of the normal business process, 
those amounts would not have been collected and deposited into general 
fund receipts. Until the Byrd Amendment, these uncollected amounts were 
not directly related to the injured parties involved with anti-dumping 
and countervailing duty cases. The relationship that injured parties 
now have regarding the anti-dumping and countervailing duty amounts 
uncollected, as direct beneficiaries, makes this issue now especially 
significant.
    Question. In your response to my questions at today's hearing 
regarding why Customs has been unable to collect duties on unfairly 
traded imports--particularly from China--you indicated that there is a 
need to address systemic problems at both the U.S. Department of 
Commerce and the U.S. Department of the Treasury. Could you please 
advise me of the specific actions, including regulatory reform, that 
CBP is and will be asking these other agencies to undertake to better 
enable CBP to collect duties on unfairly traded imports?
    Answer. CBP and DOC have working groups which meet together on a 
regular basis to identify the systematic problems and to develop action 
plans to address these problems. CBP has also undertaken a national 
bond review program which is increasing the monitoring of bond 
sufficiency to ensure that sufficient bonds are in place at all times 
to protect the revenue. Legislative proposals are also being considered 
which would reinforce CBP's ability to require sufficient bonds.
    Questions. CBP's Annual Report on the Continued Dumping and Subsidy 
Offset Act (``CDSOA'') for fiscal year 2003 showed that CBP was unable 
to collect over $130 million in antidumping duties in 2003. Of these 
uncollected duties, over $100 million relate to Chinese imports. There 
have been reports that these uncollected duties reflect active efforts 
by Chinese parties and their U.S. affiliates to avoid paying U.S. 
antidumping duties by, among other things, quickly importing large 
amounts of goods, then filing for bankruptcy to avoid liability for 
duties and engaging in other fraudulent conduct.
    Answer. We don't know if these were fraudulent situations. However, 
in these situations it is important to determine timely that an anti-
dumping or countervailing duty case is a factor in the importation. 
When it is, adequate bond coverage should be required based on the 
findings that anti-dumping and countervailing duties are warranted. In 
addition, the bond amount should not be limited to the preliminary 
determination rate, but at least set at 100 percent of the value of the 
commodity involved on an entry by entry basis. This would resolve under 
collection situations in the major portion of cases where preliminary 
determination rates were understated and bond amounts were set 
accordingly. In the event that an importer goes out of business or 
bankrupt, then the bond amount would be sufficient in most cases (at 
least where the final determination rate by DOC is not greater than 100 
percent of the value of the imported merchandise).
    Question. Has CBP seen evidence of such conduct with respect to 
importations from China of goods subject to antidumping duty orders?
    Answer. On a case-by-case basis, there appears to be instances 
where importers of Chinese merchandise bring in a large volume subject 
to anti-dumping duties and file bankruptcy prior to CBP's collection of 
the full assessment of these duties.
    Question. Is there evidence of an organized effort by China, 
Chinese parties, affiliated U.S. parties and/or their representatives 
to avoid these duties? Could you provide such evidence?
    Answer. No, CBP has no evidence of a Chinese conspiracy in this 
area.
    Question. Please explain the various means by which these parties 
are avoiding the payment of import duties. Please quantify the extent 
to which these means contribute to CBP's inability to collect duties in 
specific Chinese antidumping duty cases.
    Answer. We know that bills have been issued to some importers who 
filed for bankruptcy, therefore forcing us to collect outstanding debt 
from the surety. This has caused financial problems for some surety 
companies, which have then been forced into bankruptcy. Part of the 
work being done within CBP includes the identification of the areas of 
concern and then the quantification of these areas to prioritize them.
    Question. To what extent does the ability of importers to post 
bonds on imports by ``new shippers'' from China contribute to the 
ability of Chinese parties and their U.S. affiliates to avoid paying 
antidumping duties?
    Answer. The ``new shipper'' designation allows for a deferral of 
payment of potential AD/CVD if the party is indeed a new shipper.
    Question. Does CBP have evidence that these parties are 
fraudulently obtaining new shipper bonds? Please explain.
    Answer. CBP has no evidence that these parties are fraudulently 
obtaining ``new shipper bonds''. There is no ``new shipper bond'', just 
the Customs Bond. ``New shipper'' is a status that certain parties can 
claim, which is issued by Commerce.
    Question. Are there steps that CBP has taken or can take to alert 
bonding companies to the potential financial risks posed by Chinese 
``new shippers'' and their U.S. affiliates?
    Answer. No. Companies are granted bonding authority by the 
Department of Treasury. The normal business process involving 
importation has sureties bonding the importer of a record's entry 
transactions based on possible duties, taxes and fees involved, and 
other regulatory reasons that require an entry bond. When a preliminary 
determination is published in the Federal Register, the public is 
advised, and bond coverage is administered accordingly by CBP. This 
public information and other information that a surety can require 
(including the financial ability of the importer of record to pay their 
duties, taxes and fees) should be sufficient.
    Question. Current law permits importers of goods from ``new 
shippers'' to pay deposits of estimated dumping duties by posting 
bonds, rather than making cash deposits, as occurs in most other cases. 
A longstanding agreement between the Department of Commerce and CBP 
requires that such bonds be in the form of single entry bonds 
(``SEBs''). In recent years there have been frequent reports that, 
notwithstanding its agreement with the Department of Commerce, CBP has 
not been obtaining SEBs for ``new shipper'' imports and in other 
required instances.
    To what extent does the amount of uncollected duties shown in the 
2003 CDSOA report reflect CBP's failure to obtain required SEBs? For 
each antidumping duty case for which there were uncollected duties in 
fiscal year 2003, please quantify the extent to which CBP's inability 
to collect duties was attributable to a lack of requisite SEBs or other 
deficiencies in bonding.
    Answer. Extensive research will be required to provide a response 
to this question in consultation with the Committee.
    Question. The CDSOA report for 2003 reports that there is over $283 
million in antidumping duty-related bonds in individual antidumping 
duty clearing accounts for unliquidated entries. To what extent are 
these bonds the required SEBs as opposed to standard continuous bonds? 
To the extent that these bonds are not the required SEBs, what, if 
anything, can CBP do to require SEBs for these amounts?
    Answer. CBP cannot determine which amounts are covered by SEB vs. 
continuous bonds. CBP lacks authority to obtain retroactive SEBs.
    Question. Please detail the steps being undertaken by CBP and the 
Department of Commerce to require SEBs on all import entries for which 
they are required? Please confirm that SEBs are being obtained in all 
cases in which they are required and explain how CBP has verified this 
conclusion. If SEBs are not being obtained in all required cases, 
please explain why not and explain what CBP is doing to address the 
problem.
    Answer. DOC may also allow bonding in AD/CVD cases other than new 
shipper reviews. In accordance with T.D. 85-145, CBP requires single-
entry bonds in instances where bonding is permitted and the deposit 
rate is 5 percent or greater. Policy reminders have been issued to all 
field locations and importers of their responsibility to secure a 
single-entry bond in these instances to cover AD/CVD duties.
    ACS (Automated Commercial System) has the capability to track the 
existence of only one type of bond. The majority of importers have 
continuous bonds to cover normal imports. CBP instituted a policy in 
October 2003 that requires additional bond reporting requirements to 
track single-entry bonds electronically. CBP monitors this requirement 
on a monthly basis.
    Question. Please explain how domestic producers can confirm that 
imports of competing goods subject to antidumping duty orders are 
secured by required cash deposits or SEBs. Who are the points of 
contact at CBP on this issue?
    Answer. Domestic producers cannot confirm this information. This 
information is contained on CBP entry documents. CBP has long 
considered information on entry documents exempt from disclosure 
pursuant to 5 U.S.C. 552(b)(4). Furthermore, the Trade Secrets Act (18 
U.S.C. 1904) prohibits Federal employees from disclosing such 
information and imposes personal sanctions on employees who do so.
    Question. Is there any way of advising when bonds are issued and 
how they can be tracked from the point of issuance? What percent of 
bonds are collectable? Why is it that in cases involving critical 
circumstances, a very small portion is collectible? Is the problem one 
of administration between the Commerce Department and Customs? Could an 
importer be held liable if the exporter refuses to pay?
    Answer. There is no way of advising when bonds are issued and 
tracking them from the point of issuance. Data is not currently 
available to determine what percent of bonds are collectable. In the 
cases involving critical circumstances, a very small portion is 
collectible because the bonds are issued at the time the goods are 
released, based on the amount of duties/taxes/fees assessed when the 
goods are released. CBP does not have the legal authority to demand an 
increase in a bond retroactively (after the release of the goods), 
which, in critical circumstances is when CBP becomes aware of the fact 
that a higher bond amount is needed. CBP is working on legislative 
initiatives, which may include a statutory change that would allow us 
to demand a higher bond retroactively. The importer is always held 
liable for payment of duties/taxes/fees.
    Question. Finally, if there is a serious problem in cases where 
bonds are permitted, wouldn't a logical solution be simply to require 
cash deposits--at least in all new shipper reviews?
    Answer. The Department of Commerce has jurisdiction in this matter 
and can best address it.
    Question. Explain and quantify the budgetary, manpower, technical 
and other impacts on CBP of administering the bonding option for 
imports from new shippers under antidumping duty orders.
    Answer. While CBP is unable to quantify the manpower impact of 
administering the bonding option for imports from new shippers under 
anti-dumping orders, our inability to require the bonds post release 
hinders our collection efforts drastically. If a party claims new 
shipper status, then the determination is made at a later date that the 
party actually was not eligible for new shipper status. CBP has no 
legal authority to retroactively require a bond for those entries that 
were released (and bonded) under the benefits of new shipper status.
    Question. On December 4, 2003, the White House Office of 
Communications issued ``The President's Determination on Steel,'' which 
stated that President Bush ``is committed to America's steel workers 
and to the health of our steel industry.'' It also stated that, 
``[s]teel import licensing, established when the safeguard measures 
were imposed, will continue to provide WTO-consistent data collection 
and monitoring of steel imports. This will enable the Administration to 
quickly respond to future import surges that could unfairly damage the 
industry.''
    The President's Proclamation of the same date similarly stated that 
``the licensing and monitoring of imports of certain steel products 
remains in effect and shall not terminate until the earlier of March 
21, 2005, or such time as the Secretary of Commerce establishes a 
replacement program.''
    Secretary Evans made several comments to the media on December 4, 
2003, regarding the Administration's commitment to the U.S. steel 
import monitoring and licensing system and indicated that it would be 
expanded to include steel products that were not subject to 201 tariffs 
and quotas. I want to be certain that the Administration remains fully 
committed to this effort.
    Could you please advise me as to whether the Administration has a 
plan to expedite the adoption of the new, expanded program?
    Answer. In the President's Proclamation, the President stated that 
``the licensing and monitoring of imports of certain steel products 
remains in effect and shall not terminate until the earlier of March 
21, 2005, or such time as the Secretary of Commerce establishes a 
replacement program.'' The President has clearly assigned the authority 
to establish a replacement program with the Secretary of Commerce and 
therefore Customs and Border Protection (CBP) is not in a position to 
offer comments on the Secretary's plans to expedite the adoption of the 
new, expanded program. As the licensing system was established in March 
2003, CBP's role in the system consists solely of the collection of the 
licenses that have been issued by the Department of Commerce. All other 
implementation and monitoring responsibilities lie with the Department 
of Commerce.
    Question. Could you also please advise me of when the 
Administration intends to request public comment with respect to its 
new import monitoring and licensing system?
    Answer. The responsibility of the licensing system lies with the 
Department of Commerce; CBP is not in a position to respond as to when 
the Department of Commerce intends to request public comment with 
respect to its new import monitoring and licensing system.
    Question. When would you estimate that it will be up and running?
    Answer. CBP is not in a position to estimate when the Department of 
Commerce will implement the new import monitoring and licensing system. 
CBP is committed to taking the necessary steps to implement programming 
and operational changes needed to successfully enforce the licensing 
program once the Department of Commerce has established it.
    Question. What assurances can you provide that the system will be 
operational by that date?
    Answer. CBP will defer to the Secretary of Commerce on the 
timelines for implementation of the new licensing and monitoring 
system.
    Question. The U.S. domestic steel industry and CBP have maintained 
a mutually beneficial partnership since the mid-1960's. The keystone of 
the Customs-Steel Partnership is a program of seminars and meetings 
where experts from the U.S. steel industry train Customs officials in 
the important aspects of steel identification, classification, trade 
law, and commercial issues. The program also provides steel mill tours, 
reference books, videos, sample kits, and other work tools for Customs 
officials. Customs brokers, invited to the meetings at Customs' 
request, serve as the link between importers. Customs also derives 
significant benefits from the seminars.
    When the President ended the Section 201 remedies for steel more 
than a year before originally scheduled, he promised to continue to 
focus on steel licensing, import monitoring, and the enforcement of our 
trade laws. The Customs training program provides significant 
enforcement education to this end. Congress appropriated $1.25 million 
to fund the Customs Steel Partnership training programs in fiscal year 
2003 and fiscal year 2004. We would like to see the same level of 
effort in Customs training during the coming fiscal year and want to 
work with the Administration to secure an appropriation of $500,000 for 
fiscal year 2005.
    Will the Administration support the continuation of funding for 
this vital program as part of the Homeland Security appropriation in 
the amount of $500,000 for fiscal year 2005?
    Answer. The funding is provided as part of the Homeland Security 
appropriations for fiscal year 2003 to enhance CBP's ability to train 
and enforce steel trade laws was a key component in the agency's 
ability to administer and enforce the Steel 201 Proclamation. The 
President's fiscal year 2005 Budget for CBP addresses the 
organization's highest priorities.
    Question. Can CBP confirm the view expressed by many Customs 
officials involved in the Customs Steel Partnership, that its benefits 
are considerable? So much so that it and the Customs Steel Partnership 
Training Program in particular serve as a model for the establishment 
of other Industry/Customs Partnerships?
    Answer. CBP can confirm that the Customs Steel Partnership Training 
Program provided benefits to CBP as well as the importing community. 
The training sessions continue to include Customs Brokers, importers 
and exporters. While the Customs Steel Partnership has allowed CBP to 
expand the size of the audience to be trained, there may perhaps be a 
more efficient manner in which to fund and/or administer the funding 
for said Customs Steel Partnership Training Program. Due to the 
complicated procurement and budget procedures under which CBP operates, 
it may be more beneficial for all parties involved if there is direct 
funding provided by the Steel Industry. CBP could continue the 
partnership with the Steel Industry, as we have since the mid-1960's, 
but perhaps there is a more mutually beneficial avenue in which to 
continue and enhance said partnership.
    Question. Concerns exist about the adequacy of existing practices 
surrounding the enforcement of the U.S. antidumping duty law against 
imports from non-market economies, but particularly China. With the 
extraordinary trade deficit that the United States is running with 
China, can you provide details of what changes in the enforcement of 
the U.S. dumping law are being considered for non-market economy cases 
and when the agency will be implementing such changes?
    Answer. This would be best addressed by the Department of Commerce.
    Question. Last year, the Department of the Treasury's Office of the 
Inspector General completed an audit of CBP compliance with the 
Continued Dumping and Subsidy Offset Act (CDSOA). The OIG's report, 
which was issued in August 2003, by the DHS IG, found a number of areas 
in which CBP could improve its management of this program. 
Specifically, it noted the need to (1) properly establish special 
accounts, and (2) pay claimants within 60 days after the end of the 
fiscal year. In addition, the OIG stated that CBP had not instituted 
standard operating procedures and adequate internal controls for the 
management of the CDSOA program. CBP said it had established a CDSOA 
working group to address both the recommendations and management 
considerations identified by the OIG.
    What has the working group done to address the recommendations and 
management considerations identified by the OIG? Has it established 
special accounts? Are claimants paid within 60 days of the end of the 
year? Are checks sent to proper addresses? Who is responsible for 
preparing and sending the checks on time?
    Answer. The working group recommended, and the Deputy Commissioner 
approved, the consolidation of responsibility for most of the program 
with the Office of Finance, National Finance Center (NFC). Once this 
was done, procedures and controls could be strengthened. This included 
the establishment of crosschecks to identify problems such as the 
overpayments reported by the OIG.
    Timely liquidation of entries and validation of claimants' costs 
and production were not transferred to OF-NFC.
    Special accounts were established at the beginning of the program 
and remain in place and properly utilized. However, due to current 
system limitations, CBP must make manual adjustments to the balances in 
these accounts to determine the actual amounts available for 
disbursement. This limitation will exist until full implementation of 
the new Automated Commercial Environment (ACE) system.
    Question. How much was spent in fiscal years 2002-2004 to 
administer the program? What is the estimated cost for fiscal year 
2005?
    Answer. All disbursements for 2003, which were not restricted by 
pending litigation, were processed within the allotted time. We expect 
to meet the time requirements for 2004 and future years.
    Checks are sent to the addresses on the claims submitted to us. If 
the claimants or their attorney inadvertently include the wrong 
address, we have no way of knowing that.
    The Office of Finance, National Finance Center processes the 
disbursements. The actual checks are issued by Treasury's Financial 
Management Service based on NFC certifications.
    Actual costs for administering the program were not separately 
collected for fiscal year 2002-2004, but are estimated to have 
increased from approximately $500,000 in the first year to 
approximately $1.2 million for 2004, and to an estimated $1.8 million 
for 2005. The increase year by year is due to the increased complexity 
and size of the program.
    Question. What mechanisms are being used currently to ensure that, 
when Commerce issues liquidation instructions to Customs, the 
liquidations are timely made? There have been reports of numerous cases 
recently involving Customs' failure to liquidate timely and, as a 
result, the agency fails to collect duties lawfully owed.
    Answer. CBP meets biweekly with Commerce concerning operational 
issues related to dumping. These meetings address issues that include 
the mechanisms and procedures by which liquidation instructions are 
transmitted by Commerce to CBP.
    An inventory of all unliquidated entries is created on a regular 
basis and these entries are compared to liquidation instructions that 
CBP has received from Commerce. Instances identified by CBP where 
entries are being held but for which specific liquidation instructions 
do not appear to have been issued are provided to Commerce for their 
research and action.
    Question. What mechanisms are being used currently to ensure that, 
when bills are sent to importers, they are paid? The trade community 
hears, unfortunately, that in many instances there is little or no 
follow-up by Customs on outstanding bills. Even if single entry bonds 
are required by Customs and proper proof of their existence is received 
by Customs, it is still important that the bills be collected because 
it is the importers who are required to pay, and if Customs merely 
expects to collect from bonding companies, two things result: (a) the 
amount of duties collected may be severely less than what is actually 
due and (b) the bonding companies may themselves be unable to pay if 
their exposure goes beyond their risk planning.
    Answer. CBP takes the following actions to collect delinquent bills 
from importers:
  --Monthly bills are issued and interest is assessed against an 
        importer of record on unpaid billed amounts;
  --Refunds scheduled for payment to an importer of record are offset 
        against open delinquent bills owed by that importer;
  --Sanctions are administered against an importer of record, that 
        require payment of duties on merchandise currently being 
        imported before the release of merchandise into the commerce of 
        the U.S. permitted;
  --Formal demand for payment notices are issued and collection 
        litigation actions are taken against any surety with a bond 
        contract covering respective delinquent duty liability amounts; 
        and
  --Litigation actions are taken against delinquent importers of record 
        on any amounts remaining unpaid.

                       NOTICE AND PROTEST PROCESS

    Bills issued to importers of record are not delinquent until 
protest period authorized by law has expired or an applicable protest 
has been denied. Throughout the collection process, monthly bills are 
issued to the importer of record and in addition a formal office of any 
billed amount covered by surety bonds that remain unpaid are issued to 
the applicable surety. The importer of record can legally challenge 
their bill, thus aggressive collection efforts do not commence at this 
stage of the process until at least 90 days from the respective entry 
liquidation date has passed (19 USC 1541). If protest is filed, no 
aggressive collection action is taken until a final resolution of the 
protest. A surety may also file protest. On average, 45 percent of duty 
bills issued are protested. Interest charges are assessed throughout 
the billing process.

           AGGRESSIVE COLLECTION AGAINST DELINQUENT ACCOUNTS

    When protest is filed, in addition to regular monthly billing 
notices, dunning letters are sent to the importer of record demanding 
payment. When a protest is not filed or denied, additional dunning 
letters are sent to the applicable surety with appropriate background 
documents (CF 7501 (formal entry), liquidation worksheets, etc.) as a 
follow up to the monthly Formal Demand on Surety for Payment of 
Delinquent Bills (612 Report). During any period of delinquency, 
refunds payable to an importer of record are used to offset the 
delinquent debt they owe. Importers with delinquent bills are 
sanctioned, and accordingly must pay duties owed on current imports 
before the release of merchandise into the commerce of the United 
States is permitted. A surety bond serves as an additional security in 
the event that an importer goes out of business, files for bankruptcy 
or otherwise fails to timely a pay delinquent amount owed.

    Joint Customs and Border Protection and Immigration and Customs 
                              Enforcement

                    OVERSEAS OPERATIONS INTEGRATION

    Question. I have heard various reports of how the division of labor 
of formerly independent components now merged into DHS is working. 
While the melding of functions is proceeding apace stateside, the same 
personnel have no clear guidance as to how they are to operate 
overseas. Who is in charge of your agencies overseas? Does it vary from 
country to country? Does it make sense to have international affairs 
offices in both agencies? Do the operational and informational 
stovepipes, currently being eliminated here at home, still exist 
overseas? If so, what steps are each of you taking to eliminate them?
    Answer. The Office of the Secretary has initiated a detailed review 
of the role of DHS overseas, including the management structure that 
best advances the full range of the international liaison, enforcement, 
inspection and services missions of DHS.

                        UNMANNED AERIAL VEHICLES

    Question. The CBP budget includes a request of $10 million for 
testing and development of a UAV program. At the same time, I 
understand that ICE has been using its own funds to test the possible 
deployment of a series of UAVs along the Northern and Southern Borders 
to provide real time intelligence to inspectors and agents in the 
performance of their duties. What are the unique needs of each agency 
that would necessitate the need for development of two separate UAV 
programs?
    Answer. The Coast Guard operates primarily in the maritime domain 
along the coast and well offshore; the Border Patrol operates close to 
the border, between the ports of entry both in the maritime and 
terrestrial domain, but primarily in the terrestrial domain; and AMO 
operates in both areas but has additional requirements (e.g., airspace 
security) within internal airspace. Some overlap in geographical and 
mission requirements exits, and DHS is working to minimize those. All 
operations that support border security require a detection capability, 
and because of the operating environment, the platforms that provide 
that detection capability may need to be different in order to best 
meet the mission requirements. Therefore it makes sense that each 
component, as well as Science and Technology, be involved in the 
testing of UAVs.
    Question. How do these programs relate to one another and would not 
the Department's interests be best served by a joint program or one 
program which would meet the needs of both agencies (as well as 
potentially other DHS entities)?
    Answer. BTS and the Science and Technology (S&T) Directorates co-
chair the working group that coordinate each components plans regarding 
use and testing of UAVs. Through the Joint Requirements Council (JRC) 
the Aviation Management Council, and the UAV Executive Steering 
Committee in conjunction with the UAV working group, the Department 
will ensure that UAVs will be tested, deployed and eventually procured 
in a way that meets the needs of the Department jointly. The UAV 
working group is currently participating in an analysis of alternatives 
(AoA) for aerial surveillance needs within BTS. Once this report is 
complete we will begin a process to establish a DHS-wide concept of 
operations (CONOP). The CONOP will identify unique needs and ensure 
that redundancy and overlaps are minimal and that systems procured and 
deployed on behalf of the DHS are interoperable. At the conclusion of 
the AoA, DHS will also determine the need for UAVs as a permanent asset 
for its components. It is likely that UAVs could support other current 
and emerging sensing technologies to monitor the U.S. borders between 
ports of entry, and their acquisition will be considered and evaluated 
in terms of cost and performance in view of all the other alternative 
contemplated.
    The data and results obtained in the component-specific deployments 
and feasibility studies will be shared within BTS, and the U.S. Coast 
Guard. The evaluations and tests already conducted by ICE/AMO the U.S. 
Coast Guard have been shared within the context of the working groups.
    Question. If not, please explain in detail how the Department can 
justify development of separate programs given limited resources.
    Answer. A coordinated effort for UAV development and testing is 
being addressed within the Department of Homeland Security.

                           TETHERED AEROSTATS

    Question. What is the value of the aerostat system to the DHS 
interdiction and border security mandate?
    Answer. At the lower altitudes in which many suspect aircraft 
operate, the Tethered Aerostat Radar System (TARS) is the main source 
of data, which the AMO uses to sort targets and determine operational 
responses. The Tethered Aerostat Radar System (TARS) for Border and 
Transportation Security (BTS) is a critical component in the 
interdiction of illicit air traffickers as well as our border security 
system. It is the only fixed system that provides low-level radar 
coverage (100-500 feet above ground level) of air targets with 
altitude, speed, heading, and Identifier Friend or Foe (electronic 
transponder) capability. The system also provides a platform for radio 
relay equipment. Without TARS, radar coverage along the southern border 
of the United States and Puerto Rico is severely diminished. Also, 
modified TARS are able to provide surveillance of maritime targets in 
coastal regions and limited land targets. The sea and land capabilities 
of the system are not being employed.
    Today, nearly all of our joint air interdiction efforts in Northern 
Mexico are directly attributable to TARS. When TARS coverage is not 
available, BTS (ICE AMO) must rely upon scarce and much more expensive 
systems in an attempt to fill the resultant surveillance gaps. 
Currently, the alternative is to use our airborne early warning (AEW) 
aircraft (low density/high demand and high cost assets). AEW costs can 
be 6-14 times higher than the cost per hour of TARS coverage and their 
availability is limited since they are tasked with missions in the 
source and transit zones, in addition to other homeland security 
flights.
    Question. Has there been an impact from the non-operational status 
of the Lajas, PR TARS? If so, what are the impacts from the loss of 
Lajas TARS?
    Answer. Prior to the shutting down of the Lajas, PR, TARS site, the 
vast majority of suspect air tracks avoided approaching or attempting 
to land or over fly the land mass of Puerto Rico, opting instead to 
transit to Hispaniola to the west and the Virgin Islands to the east.
    Since Lajas was the primary tracking sensor for this area, the 
impact of the loss of its information is difficult to assess. However, 
until the site returns to operational status, AMO will continue to 
monitor the changing threat picture through the use of limited tracking 
information from FAA radar, intelligence assessments, and post-seizure 
analysis of interdictions.
    Question. Should this TARS remain in non-operational status, what 
are the prospects for future drug interdiction efforts in Puerto Rico 
and the Caribbean? Are there other locations where the aerostats had 
existed and were removed (i.e. The Bahamas)? What was the impact to 
drug interdiction resulting from the removal of those assets?
    Answer. The system's greatest potential would be achieved as a 
series of TARS sites linked to form a continuous radar detection 
blanket that reaches 150 miles beyond the U.S. border. Maintaining a 
complete ``radar fence'' is imperative for several reasons.
  --An effective surveillance system of this type serves multiple 
        national objectives including:
    --Homeland Security--counter illicit traffickers (air, land and 
            sea) and unauthorized border incursions
    --Air sovereignty/Advanced Airborne Early Warning
    --Air Traffic Control, flight safety
  --The U.S. Interdiction Coordinator reports:
    --Suspicious air tracks in the CENTAM corridor increased from 50 to 
            200 in 2003
    --Air seizures increased ten-fold in 2003 over the 10-year average
    --Maritime successes have forced drug traffickers to alter their 
            methods to air routes.
  --The illicit trafficking and unauthorized border incursion threat 
        vectors continually change. Therefore, we need a system that is 
        effective against all threat vectors.
    Question. There has been some discussion regarding the possible 
transfer of the aerostat systems from the Defense to Homeland Security 
departments. Though DOD is the owner of these assets, I understand that 
DHS is the primary consumer of the intelligence they collect. Do you 
feel that the Defense Department has adequately considered the needs of 
DHS, or consulted with you, regarding the continued operation of these 
aerostats? What is the Department's position on such a future transfer 
of responsibility of these TARS systems?
    Answer. DHS believes that this critical system supports homeland 
security and provides a critical detection and monitoring capability. 
That mission is a DOD responsibility. Operation of TARS should remain 
in DOD.

                             CROSS-TRAINING

    Question. Representatives of the Department of Homeland Security 
Council (the union comprised of legacy INS employees) reported at a 
press conference on March 3 that no more than 5 percent of Immigration 
and Customs enforcement personnel have received cross-training. When 
does DHS expect to complete cross-training of all existing personnel? 
What percentage of all needed cross-training is funded in the 
President's fiscal year 2005 budget proposal?
    Answer. OI conducted a manual survey the last week of March 2004. 
At that time 830 Special Agents had completed the cross-training. This 
accounts for 19 percent of the 4,463 agents targeted for cross-training 
in this fiscal year. The Automated Class Management System is expected 
to be on-line shortly. At that time, training statistics will be more 
readily available.
    OI has established a target to complete the cross-training for all 
non-supervisory Special Agents GS-05 through GS-13 by the end of fiscal 
year 2004. This cross-training will be accomplished using a train-the-
trainer format with initial training being conducted at the Federal Law 
Enforcement Training Center (FLETC).
    Cross-training beyond this priority group will be completed in 
fiscal year 2005 and will be funded out of base dollars.

                             PAY DISPARITY

    Question. A pay disparity of a full grade exists between 
Immigration Special Agents (GS-12) and Customs Special Agents (GS-13). 
It appears that the new regulations proposed by the Administration 
would hide this disparity within a pay scale, rather than addressing it 
directly. Is this correct? If so, what impact is this disparity having 
on morale within ICE
    Answer. Issues regarding ICE Criminal Investigator pay parity have 
been resolved. Over the last year, we gave careful thought to the many 
variables involved in this matter prior to integrating the new duties 
of the national security and counter-terrorism mission with the legacy 
Customs and INS duties. During this time, we submitted proposals to 
resolve the issues related to this integration to a sample of the CI 
population and higher level ICE and DHS management to give this 
sensitive matter the care and consideration it deserved, all of which 
took time. All ICE CIs will be assigned to the new position 
descriptions. Employees will be either reassigned at their current 
grade level or promoted if all eligibility requirements are met with an 
effective date of May 2, 2004. We believe this action will enhance 
ICE's ability to fulfill its mission, which in turn can improve morale, 
productivity and, ultimately, performance of crucial work in national 
security and terrorism investigations. Based upon this action, all ICE 
CIs will be similarly situated once the new HR system is finalized and 
implemented.

                         ASSET FORFEITURE FUND

    Question. Many of the programs now under the purview of ICE were 
enhanced by a productive working relationship with the Treasury 
Forfeiture Fund. This working relationship still exists today. 
Typically, the agencies that contributed to the fund were able to draw 
on the same funds to increase mission capabilities in many areas. This 
process worked well.
    I understand, however, that there are plans to cede control of this 
Fund to the Department of Justice. Are you concerned about losing 
access to the asset forfeiture fund? What impact would it have on your 
investigations if your agency were not able to have access to the 
resources that you have, in fact, contributed to the Fund?
    Answer. As you note, the Administration has proposed to 
consolidation of the Government's Asset Forfeiture Funds within the 
Department of Justice. Consolidating operation of these funds offers 
enormous opportunities for efficiency gains and reductions to overhead 
costs.
    If the consolidation proposal is approved by the Congress, DHS will 
work with the Department of Justice to ensure that its proceeds from 
the fund are maintained and disbursed appropriately. The Department 
does not expect the proposed consolidation of the funds and their 
administration to affect the availability of fund balances or its 
future proceeds.
    Question. Is consideration being given to creating a separate/new 
Department of Homeland Security Asset Forfeiture Fund to which all DHS 
components would contribute and have access?
    Answer. The Administration has proposed to consolidate the 
government's Asset Forfeiture Funds at the Department of Justice. There 
is no current Administration proposal to establish a Department of 
Homeland Security Asset Forfeiture Fund.

                  Immigration and Customs Enforcement

                          WORKSITE ENFORCEMENT

    Question. In its 1997 Executive Summary, the U.S. Commission on 
Immigration Reform found that ``reducing the employment magnet is the 
lynchpin of a comprehensive strategy to deter unlawful migration.'' 
Despite this fact, worksite enforcement has been last on the list of 
enforcement priorities. According to a Jan. 11, 2004 article published 
in the San Diego Union-Tribune, arrests of illegal aliens at worksites 
have dropped from 8,027 in 1992 to 1,254 in 2002, and the number of 
Notices of Intent to Fine has dropped from 1,063 to 13. The explanation 
for this drop in enforcement, according to Joe Greene, deputy assistant 
director of ICE, is that employer sanctions don't work and that they 
``didn't seem to be making a dent in changing the practices of 
employers.'' Does Mr. Greene's statement represent the official policy 
of the Bush Administration?
    Answer. Since September 11, 2001, ICE's worksite enforcement role 
has gone beyond that of merely reducing the job magnet. It has become a 
matter of national security. As a measure of its role in national 
security, the ICE Headquarters Worksite Enforcement Unit (now called 
the Critical Infrastructure Protection unit) has been aligned under the 
National Security Division. In the interest of national security, ICE 
is increasing its worksite enforcement efforts and has instructed its 
field offices to focus their worksite enforcement investigations on 
Businesses of National Interest (BNI). ICE defines a BNI as a private 
or public entity that provides goods or services vital to our national 
security and economy, or whose infiltration would pose a serious threat 
to our domestic security.
    Question. Your proposed $23 million increase is just a drop in the 
bucket. Do you believe that the failure to make worksite enforcement a 
more important priority is one of the reasons that there are between 8 
and 11 million aliens illegally present in the United States today? 
Please provide a list of the number of worksite enforcement actions 
undertaken each year between 1999-2003.
    Answer. There are numerous overlapping factors contributing to the 
Nation's illegal immigration problem. Worksite enforcement is just one 
of the immigration enforcement programs that ICE administers. 
Statistics show that ICE initiated more worksite enforcement/critical 
infrastructure protection cases during fiscal years 2002 and 2003 than 
there were in fiscal years 1999 and 2000.

----------------------------------------------------------------------------------------------------------------
                                                                                     Fiscal year
                                                                    --------------------------------------------
                                                                       1999     2000     2001     2002     2003
----------------------------------------------------------------------------------------------------------------
Cases initiated....................................................    2,834    1,766      856    3,428    1,547
----------------------------------------------------------------------------------------------------------------

                               BENCHMARKS

    Question. The ICE budget requests increases for the detention and 
removal and institutional removal programs. What benchmarks does the 
agency use to determine the specific benefits which will be achieved 
through these increases? What performance measures are used to 
determine the effectiveness of these programs?
    Answer. DRO is currently developing a new performance measure to 
demonstrate the expected outcome of improved IRP management. This 
measure shows the percentage of IRP removals that had received a final 
order of removal prior to the completion of the criminal sentences and 
prior to release into DRO custody. In numerical terms it will be 
expressed as: number of cases with pre-release final orders/total 
number of IRP removals.
    Reaching 100 percent on this measure would mean that DRO does not 
have to expend detention resources on IRP cases that are still awaiting 
a decision from an immigration judge. All IRP cases would already have 
a removal order when they complete their criminal sentence, and they 
would only need to be detained by DRO for the time that it would take 
to arrange and conduct the removal. This would mean a much more 
efficient use of resources. Because this measure has not been used 
before, it will be baselined at the end of fiscal year 2004.
    Canine Teams Last week, as part of his rail and transit security 
initiative, Secretary Ridge said that the Department will develop a 
rapid deployment Mass Transit K-9 program by using existing Homeland 
Security explosive K-9 resources, including those of the Federal 
Protective Service.
    Once again, it appears that the Department is robbing Peter to pay 
Paul. It appears that the Department will be pulling K-9 teams away 
from airports and the protection of Federal buildings and using them 
for mass transit, thus degrading security in one transportation mode to 
begin beefing up security in another mode. By refusing to seek 
additional funds to address this very real threat it truly calls into 
question the seriousness of this Administration in its effort to secure 
the homeland.
    Question. Does the initiative announced last week mean that you 
will be pulling existing K-9 teams away from protecting Federal 
buildings or from airports to use them for rail and mass transit 
security?
    Answer. In support of Department of Homeland Security (DHS) efforts 
to strengthen rail and transit security, the Federal Protective Service 
was tasked to develop a plan for ensuring the availability of Explosive 
Detector Dog (EDD) support, if and when required. The intent of the 
initiative is to be ready to surge EDDs to an area needing heightened 
security if that becomes necessary. The law enforcement elements of the 
DHS have established EDD capability in support of their primary 
missions. Most of these elements maintain existing cooperative 
relationships with the state, local, and transit authorities within 
their local jurisdictions whereby they participate in joint training 
exercises, share information, and respond to requests for support and 
assistance on an ad hoc basis. The plan for the EDD-RDF builds upon 
these existing relationships and expands it to ensure that DHS EDD 
support is available to all jurisdictions across the Nation. The 
mission of the EDD-RDF will be to provide expanded capability to mass-
transit systems within the United States by assisting State, local, and 
transit authorities in the event of an increased threat situation. The 
EDD-RDF is designed to enhance security and explosive detection 
capabilities, as well as to provide a strong psychological deterrence 
to terrorist activities. The RDF consists of existing DHS EDD assets, 
and will be available 24-hours a day, 7-days a week. The EDD teams 
should be able to deploy to any location within the United States 
within 24 hours. Deployments will be based on specific intelligence 
developed within the DHS, response to specific requests for 
augmentation, or actual incidents.

               LIMITED IMMIGRATION ENFORCEMENT RESOURCES

    Question. Your budget request for fiscal year 2005 represents a 
more than 9 percent increase over the funding level provided by 
Congress for this year. While this is a step in the right direction, 
the fact remains that limited budget resources constrain you in the 
various types of activities your personnel can take to enforce existing 
immigration laws--much less implement a sweeping alien amnesty law such 
as the President has suggested. It calls into question the importance 
the Administration places on immigration enforcement.
    I realize that your budget requests incremental increases in 
programs such as institutional removal, fugitive operations, 
alternatives to detention, worksite enforcement, compliance teams, and 
benefit fraud operations. But these increases are not sufficient.
    I do not know what the budget resolution's topline discretionary 
spending level will be, nor do I know what allocation this Subcommittee 
will receive. However, if we were able to find additional resources for 
immigration enforcement, where would you suggest we provide additional 
funds?
    Answer. The President's fiscal year 2005 Budget provides sufficient 
resources for immigration enforcement by more than doubling the number 
of worksite investigations currently performed by ICE.

                                CHIMERA

    Question. The Enhanced Border Security and Visa Entry Reform Act 
requires all immigration databases to be made interoperable and, 
eventually, combined into the Chimera data system, which is to include 
all known immigration, law enforcement, and intelligence data on 
aliens. What progress has been made thus far on creating the Chimera 
data system? What roles are ICE and DHS playing in this process? Which 
agency has the lead in ensuring that the Chimera system is created?
    Answer. On the 28th of October 2002 the former Immigration and 
Naturalization Service published an informational document regarding a 
comprehensive information technology planning and infrastructure 
modernization program called ``Atlas''. That document was entitled the 
``Atlas Business Case'' and provided a concise high-level view that 
demonstrated the INS' confidence in Atlas' strategic, technical, and 
financial merits. The business case reflected investment principles, 
emulation of industry best practices, and compliance with the Clinger-
Cohen Act of 1996, as well as with other related legislative and 
government guidance.
    Consistent with the urgencies of the Government's post-September 11 
security agenda, the Atlas Business Case was subsequently socialized 
and promoted within the Department of Justice and sent to the Hill for 
budgetary consideration. It was understood that the Atlas Program would 
be the fundamental IT infrastructure foundation on which INS business 
applications would operate. In its business case, the former INS 
illustrated that the successful Atlas transformation strategy would 
hinge upon a robust IT infrastructure containing a secure, scalable 
backbone that would support all INS business processes. Atlas, it was 
shown, would also provide database interoperability at the 
infrastructure level and support data sharing at the applications 
level. From the beginning, the Atlas design strategy also supported 
emerging Department of Homeland Security (DHS) requirements. Unlike the 
previous environment, Atlas was proposed to reside within an integrated 
Enterprise Architecture (EA) that would harmonize the following:
  --System hardware, including mainframes and servers
  --Data services, including data and voice circuits
  --Data communication equipment, including servers, switches, local 
        area networks (LAN), wide area networks (WAN), routers, and 
        cabling
  --Computer security, information assurance activities and enterprise 
        information. This, specifically, is the area that would later 
        come to be identified as the focus area for the suggested 
        Chimera project.
  --Workstations, including personal computers and laptops and 
        enterprise-wide software (i.e., office automation, e-mail, 
        operating system, etc.)
  --Operational support to maintain and operate the modernized IT 
        infrastructure
    Perhaps in contemplation of partitioning and re-tasking of the 
former INS and its resources, or perhaps in calculating the initial 
complexity and cost of implementing Atlas, a counter-suggestion was 
made in committee and transmitted back to the Department of Justice and 
the former INS that certain specific information security and assurance 
attributes of Atlas could be separately expedited and put into action 
under a new initiative tentatively labeled ``Chimera''.
    However, other program initiatives under way at former INS and the 
new Department of Homeland Security were also addressing the same 
security concerns. In particular, the ``US VISIT'' program had pursued 
the same set of concerns and an active, high-precision approach for 
addressing critical information security and assurance requirements.
    Because of the US VISIT Program's ongoing and comprehensive 
approach to information security and assurance requirements within the 
DHS sphere of immigration-related operations, Chimera has been 
suspended and is being revisited to determine its potential as a 
duplicative effort.

                             ALIEN REMOVALS

    Question. Please compare criminal and non-criminal alien removals 
from 1990-2003.
    Answer:
Removals: Criminal and Non-criminal
    The following data were collected in the Deportable Alien Control 
System (DACS). These data include expedited removals. The criteria for 
categorizing criminal/non-criminal and the data system used to capture 
the data have been consistent since fiscal year 1993. Prior to fiscal 
year 1993 the criteria were slightly different. In addition, multiple 
data systems were used to collect the data and not all those data 
systems supported the 1993+ criteria (see separate table below).

----------------------------------------------------------------------------------------------------------------
                                                                                     Criminal      Non-criminal
                           Fiscal year                            Total removals     removals        removals
----------------------------------------------------------------------------------------------------------------
1993............................................................          42,542          29,458          13,084
1994............................................................          45,674          32,512          13,162
1995............................................................          50,924          33,842          17,082
1996............................................................          69,680          38,015          31,665
1997............................................................         114,432          53,214          61,218
1998............................................................         173,146          60,965         112,181
1999............................................................         180,948          70,417         110,531
2000............................................................         186,056          72,114         113,942
2001............................................................         177,818          72,434         105,384
2002............................................................         150,237          71,636          78,601
2003............................................................         188,292          80,355         107,937
----------------------------------------------------------------------------------------------------------------


                        PRE-FISCAL YEAR 1993 STATISTICS ON CRIMINAL/NON-CRIMINAL REMOVALS
----------------------------------------------------------------------------------------------------------------
                                                                                     Criminal      Non-criminal
                           Fiscal year                            Total removals     removals        removals
----------------------------------------------------------------------------------------------------------------
1990............................................................          30,039           8,971          21,068
1991............................................................          33,189          14,475          18,714
1992............................................................          43,671          20,098          23,573
----------------------------------------------------------------------------------------------------------------

                            ARREST AUTHORITY

    Question. As part of the 1990 Immigration Act, Congress authorized 
general arrest authority for all immigration law enforcement officers. 
INS never developed regulations to implement this authority. Has DHS 
developed such regulations?
    Answer. Yes, ICE issued a memo implementing general arrest 
authority for the ICE Office of Investigations and Detention and 
Removal in November 2003.

                          WORKSITE ENFORCEMENT

    Question. The President's budget proposal would increase funding 
for worksite enforcement by $23 million. It also proposes the addition 
of 150 ``work certification'' positions--a position that does not 
currently exist. Does the inclusion of this additional funding mean 
that worksite enforcement will become a higher priority for ICE? What 
priority will DHS give the nationwide expansion of the workplace 
verification pilot programs, as passed by Congress late last year?
    Answer. Enforcement efforts targeting companies that break the law 
and hire illegal workers will need to increase in order to ensure the 
integrity of the temporary worker system. President Bush's Fair and 
Secure Immigration Reform proposal provides for an enhanced worksite 
enforcement program, and the $23 million requested for fiscal year 2005 
for worksite enforcement will allow ICE to enhance its worksite 
enforcement program and provide credible deterrence to the hiring of 
unauthorized workers. ICE worksite enforcement investigations generally 
involve a review of company employment records to verify the 
immigration status of workers and to determine if the employer has 
committed any violations. ICE special agents also conduct extensive 
outreach initiatives to educate employers as to their legal 
responsibilities.
    Additionally, the Basic Pilot Program, an automated system 
administered by USCIS, enables employers to verify the immigration 
status of newly hired workers. It is currently available in six States 
but, we understand, will be available to employers in all 50 States by 
the end of this year. This is a voluntary program and is currently 
provided at no cost to employers. Information on the Basic Pilot 
Program is available to the public on the USCIS website.
    Question. Does the President's budget proposal include sufficient 
funding to meet the December deadline for nationwide expansion of the 
pilots? Will the new ``work certification'' agents work exclusively to 
enforce employer sanctions? What increase in ``Notices of Intent to 
Fine'' can be expected from these 150 positions and the doubling of 
funding?
    Answer. If the new special agent positions are funded and 
designated for the worksite enforcement program, it is anticipated that 
they will be used in that capacity. It is difficult at this point to 
project the increase in Notices of Intent to Fine that will be 
accomplished by the enhancements due to factors such as the rate at 
which the new personnel can be hired, trained and deployed. The budget 
enhancement will enable ICE to place additional emphasis on a 
traditional worksite enforcement program that offers credible 
deterrence to the hiring of unauthorized workers while retaining its 
focus on a Critical Infrastructure Protection program that has produced 
national initiatives such as Operation Tarmac and Operation Glowworm.
    Question. In May 1998, the Commissioner of the INS announced a new 
internal policy on workplace enforcement efforts. This policy required 
approval of a written ``operation plan'' by a District Director, a 
Regional Director, the Public Affairs Office, and the Community 
Relations Office before any worksite enforcement operation to arrest 
``one or more unauthorized aliens'' could be undertaken. This policy 
was reiterated in a memo to field agents at least as recently as Feb. 
13, 2002.
    Is this policy still in place?
    If so, isn't it unlikely that there will be any increase in 
worksite enforcement, considering the obstacles set up by this policy?
    If not, what is the current policy?
    Answer. No, the old policy is no longer in place. Current policy, 
which went into effect on July 24, 2003, states that a Special Agent in 
Charge (SAC) may approve a Worksite Enforcement Operation Plan that 
targets a Business of National Interest (BNI). A SAC may, at his or her 
discretion, delegate this authority to an Associate Special Agent in 
Charge, or Acting. The Chief of the Headquarters Critical 
Infrastructure Protection unit must approve any worksite enforcement 
investigation or enforcement operation that targets an employer or 
entity that is not a BNI.
    Question. Has someone within DHS been tasked with the job of 
reviewing all old policies and recommending changes to those that 
actually deter enforcement?
    Answer. Old policies are reviewed to assure they contribute to 
enhancing enforcement rather than hindering it
    Question. The State Criminal Alien Assistance Program provides 
reimbursement to States for the costs of incarcerating alien murderers, 
rapists, child molesters, drug smugglers and other criminal aliens. The 
President's budget proposal eliminates all funding for SCAAP.
    Is DHS proposing an alternative to States incarcerating these 
criminal aliens or does it expect the costs of incarcerating criminal 
aliens to drop dramatically in the next year? And if so, on what basis?
    Answer. For fiscal year 2005, the Administration proposes 
significant investments in border control and immigration enforcement 
efforts. For U.S. Customs and Border Protection (CBP), the President 
proposes in enhance Border Patrol Surveillance and Sensor Technology by 
$64 million for the continued expansion of the Remote Video System 
along the southern and northern borders thereby increasing the 
effectiveness of Border Patrol Agents. The expanded system will provide 
for significantly enhanced detection and monitoring capability between 
the ports of entry and increase officer safety. In addition, the fiscal 
year 2005 Budget seeks $10 million to develop, procure, deploy, and 
operate a system of unmanned aerial vehicles to support the Border 
Patrol and other components of CBP.
    In addition, the fiscal year 2005 President's Budget proposes 
enhancements for numerous immigration enforcement efforts of the U.S. 
Immigration and Customs Enforcement. Funds sought will support enhanced 
compliance teams, detention and removal efforts, and international 
enforcement efforts related to immigration and visa security. These 
efforts will enhance our border security and bolster our ability to 
enforce our Nation's immigration laws.

                         INVESTIGATIVE EMPHASIS

    Question. One area of concern that legacy immigration personnel 
have is whether Customs personnel and issues are dominating the 
immigration side of the equation in the Bureau of Immigration and 
Customs Enforcement, so that enforcement of immigration laws is given 
lower priority than enforcement of customs laws.
    What is the number of ICE Special Agents in Charge who are ``legacy 
Customs'' personnel? What is the number of ICE Special Agents in Charge 
who are ``legacy INS'' personnel?
    Answer. As of April 27, 2004, there are 27 SAC offices. Assignments 
are as follows:
  --16 have ``legacy Customs'' personnel permanently assigned as SACs.
  --3 have ``legacy INS'' personnel permanently assigned as SACs.
  --Of the 8 remaining, the acting supervisors are: 7 ``legacy 
        Customs'' and 1 ``legacy INS''.
  --Permanent selections in progress: 2 have ``legacy Customs'' 
        selectees and 1 has a ``legacy INS'' selectee.
    Question. What is the number of ICE Senior Executive Service (SES) 
positions in the Investigations program occupied/encumbered by ``legacy 
Customs'' personnel? What is the number of ICE Senior Executive Service 
(SES) positions in the Investigations program occupied/encumbered by 
``legacy INS'' personnel?
    Answer. There are 22 SES positions in the Office of Investigations. 
Seventeen (17) are filled with ``legacy Customs'' personnel and 5 are 
filled with ``legacy INS'' personnel.
    Question. What is the number of ICE GS-15 supervisory positions in 
the Investigations program occupied/encumbered by ``legacy Customs?'' 
What is the number of ICE GS-15 supervisory positions in the 
Investigations program occupied/encumbered by ``legacy INS?''
    Answer. As of April 27, 2004, there were 68 GS-1811-15s in the 
Office of Investigations, 52 of which are ``legacy Customs'' and 16 are 
``legacy INS''.
    Question. What is the number of ICE HQ component or division chief 
positions in the Investigations program occupied/encumbered by ``legacy 
Customs?'' What is the number of ICE HQ component or division chief 
positions in the Investigations program occupied/encumbered by ``legacy 
INS?''
    Answer. There are 5 divisions at Headquarters in the Office of 
Investigations. Three of those divisions are headed by ``legacy 
Customs'' personnel and 2 are headed by ``legacy INS'' personnel.
    Question. Some have indicated that ``legacy Customs'' personnel, 
particularly in managerial positions, have not diligently attended to 
their duty to enforce immigration provisions now under the ICE mandate, 
essentially treating customs as more important than immigration 
enforcement. What steps are being taken to ensure that former Customs 
personnel do not neglect their duty to enforce immigration laws?
    Answer. In ICE, legacy INS and Customs investigators are being 
cross-trained to maximize law enforcement authorities and capabilities. 
This force multiplier is intended to expand the capability of our newly 
shared authorities in the area of investigations and intelligence. Each 
individual ICE agent has a responsibility to utilize all of the tools 
in his/her collective INS and Customs enforcement arsenal to identify, 
investigate, prevent and deter criminals or terrorists from exploiting 
vulnerabilities as a means of harming our country.
    Question. What is the number of 1801-series Detention & Removal 
Officers in ICE? Whereas the 1801s are responsible for carrying out the 
administrative enforcement and removal provisions of the immigration 
code, how are they distributed nationwide? How are they empowered to do 
their duty more effectively and efficiently using technology and in 
coordination and cooperation with State and local law enforcement? 
Answer:

------------------------------------------------------------------------
                                                            Immigration
                District                    Deportation     Enforcement
                                              Officer          Agent
------------------------------------------------------------------------
Anchorage...............................               5               4
Atlanta.................................              25              35
Baltimore...............................              21              23
Boston..................................              32              45
Buffalo.................................              21             113
Chicago.................................              37              42
Cleveland...............................               4               3
Dallas..................................              29              46
Denver..................................              21              56
Detroit.................................               9               8
HQ......................................              86               0
El Centro...............................               0              11
El Paso.................................              35             133
Helena..................................               6              12
Honolulu................................               8               9
Harlingen...............................              31             130
Houston.................................              41              50
Kansas City.............................              13              28
Los Angeles.............................              84             145
Miami...................................              57             178
Newark..................................              42              43
New Orleans.............................              40              88
New York City...........................              59             158
Omaha...................................               7              23
Philadelphia............................              35              42
Phoenix.................................              51             162
Portland, ME............................               2               4
Portland, OR............................               8              21
San Juan................................              11              42
Seattle.................................              23              36
San Francisco...........................              44              85
San Antonio.............................              24              79
San Diego...............................              60             222
St. Paul................................               9              16
Washington, DC..........................              18              14
                                         -------------------------------
      Total.............................             998           2,106
                                         ===============================
      Grand Total.......................               3,104
------------------------------------------------------------------------

    DRO is directly involved with State and local law enforcement 
agencies in the search and apprehension of fugitives. DRO continues to 
expand the use of technology in an effort to apprehend fugitive aliens. 
A recent example is providing the officers of the Miami Fugitive 
Operations Team with Blackberry devices. A Blackberry device will 
eventually enable Officers to search names in NCIC (criminal history) 
and the Division of Motor Vehicles. In addition, we are entering into 
an agreement with the United States Marshals Service to expand our 
databases. The agreement will allow DRO and the USMS to compare 
databases on warrants and select and search for fugitives of joint 
interest. DRO is also planning to purchase laptop computers with 
wireless modems so Officers can conduct field inquires. DRO is 
expanding the use of commercial databases containing biographical 
information on a person, such as last known address, in an effort to 
locate and apprehend fugitives.
    Question. What is the number of 1811-series Special Agent/Criminal 
Investigator personnel in ICE? How are they distributed geographically? 
Whereas 1811s are the ``detectives'' responsible for complex, 
protracted investigative casework largely dealing with the criminal 
provisions of the immigration code, how do they coordinate and 
cooperate with both 1801s and with State and local law enforcement, 
especially pursuant to cases where State or local officers encounter an 
alien lawbreaker?
    Answer. As of April 27, 2004, there were 5,464 special agents 
assigned to the Office of Investigations, as follows.

------------------------------------------------------------------------
                Organizational Component                     On Board
------------------------------------------------------------------------
HQ--Office of Investigations............................             289
SAC Atlanta, GA.........................................             181
SAC Baltimore, MD.......................................              78
SAC Boston, MA..........................................             155
SAC Buffalo, NY.........................................             109
SAC San Juan, PR........................................             128
SAC Chicago, IL.........................................             312
SAC Dallas, TX..........................................             139
SAC Denver, CO..........................................             109
SAC Detroit, MI.........................................             175
SAC El Paso, TX.........................................             220
SAC Houston, TX.........................................             206
SAC Los Angeles, CA.....................................             389
SAC Miami, FL...........................................             335
SAC Newark, NJ..........................................             143
SAC New Orleans, LA.....................................             221
SAC New York, NY........................................             382
SAC St Paul, MN.........................................              96
SAC San Antonio, TX.....................................             315
SAC San Diego, CA.......................................             330
SAC San Francisco, CA...................................             260
SAC Seattle, WA.........................................             216
SAC Tampa, FL...........................................             177
SAC Tucson, AZ..........................................             143
SAC Phoenix, AZ.........................................              95
SAC Washington, DC......................................             108
SAC Philadelphia, PA....................................             107
SAC Honolulu, HI........................................              46
                                                         ---------------
      TOTAL.............................................           5,464
------------------------------------------------------------------------

    A key objective of DHS and ICE is to share information with our 
State and local partners in law enforcement that contributes directly 
to the security and safety of the United States and the American 
people. The Law Enforcement Support Center (LESC) in Vermont is the 
vital DHS and ICE point of contact with the entire law enforcement 
community and is on the cutting edge of the Federal effort to share 
critical enforcement information with state, county, local and even 
international law enforcement officers. It is a national, single point 
of contact, law enforcement center that provides timely immigration 
status and identity information and real-time assistance to local, 
state and Federal law enforcement agencies on aliens suspected, 
arrested or convicted of criminal activity. The primary user of the 
LESC continues to be State and local law enforcement officers seeking 
information about an alien encountered in the course of their daily 
duties.
    Question. Is ICE requiring both legacy Customs and legacy INS 
enforcement personnel to attend cross-training programs? What 
percentage of legacy Customs vs. INS personnel has actually completed 
such training? Does ICE intend that all enforcement personnel will 
undergo such cross-training, and if so, when is it expected to be 
completed?
    Answer. Yes, all OI Special Agents will be cross-trained in both 
legal and investigative blocks of instruction.
    OI conducted a manual survey the last week of March 2004. At that 
time 830 Special Agents had completed the cross-training. This accounts 
for 19 percent of the 4,463 agents targeted for cross-training in this 
fiscal year. Of the 830 who have completed the cross-training, 57 
percent are legacy immigration agents and 43 percent are legacy customs 
agents. The Automated Class Management System is expected to be on-line 
shortly. At that time, training statistics will be more readily 
available.
    OI has established a target to complete the cross-training for all 
non-supervisory Special Agents GS-05 through GS-13 by the end of fiscal 
year 2004. This cross-training will be accomplished using a train-the-
trainer format with initial training being conducted at the Federal Law 
Enforcement Training Center (FLETC).
    Cross-training beyond this priority group will be completed in 
fiscal year 2005.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

    Question. Mr. Bonner, Mr. Garcia, there is now a hiring freeze in 
place at both your agencies, as well as at Mr. Aguirre's agency, and I 
understand you are facing a budget shortfall of more than 12 percent. 
It is outrageous to hear about a hiring freeze in critical national 
security agencies after the Bush Administration has strongly opposed 
attempts by the Ranking Member and many many others in Congress to 
increase funding for DHS. How could this have happened, and what 
funding does Congress need to provide so you can at least replace law 
enforcement agents who resign from your agencies?
    Answer. The budgets for our agencies have increased substantially 
since fiscal year 2001 and we are not facing a budget shortfall. As a 
result of budget reviews of our agencies and the Department, we 
supported a hiring freeze as a prudent measure in the face of 
uncertainties in budget allocation and adjustments in fee collection 
forecasts.
    The Department established a review team composed of staff from the 
CFO's Office, BTS, CIS, and the Coast Guard to assess the situation. 
The review team engaged in a detailed budget reconciliation effort 
among the three Bureaus. The team examined the allocation of resources 
and services throughout the three Bureaus, and this effort resulted in 
an immediate internal realignment of $212 million. A subsequent 
internal realignment of approximately $270 million is possible, pending 
additional discussions and coordination of the final documentation and 
billing.
    The Congress has recognized that funds may need to be realigned 
between ICE, CBP, and CIS. In the Joint Explanatory Statement (H. Rpt. 
108-280) accompanying the Department of Homeland Security 
Appropriations Act, 2004 (Public Law 108-90), the Congress recognized 
that the budgetary resources may need to be realigned. Specifically, 
the Congress noted: ``The conferees are aware that the Department is 
conducting a comprehensive review of administrative and other mission 
responsibilities, particularly as they affect ICE and other agencies 
that have inherited multiple legacy missions. While funding provided by 
this conference agreement is based on the best possible information 
available, the conferees understand there may be a need to adjust 
funding to conform to the decisions resulting from the review.'' A 
similar statement was included under the heading discussing CBP.
    Over the past year, these three Bureaus have undergone major, 
successful reorganizations by incorporating programs, staff, and 
resources from legacy programs at the Immigration and Naturalization 
Service and the Customs Service (as well as the General Services 
Administration and the Department of Agriculture) and a realignment of 
functions to strengthen the security of the Nation. Through this 
process, which included successful reassignment of over 50,000 
employees from the legacy agencies, robust hiring continued to ensure 
adequate staffing to accomplish mission objectives. However, the 
transformation effort has not been without challenges and each Bureau 
continues to integrate everything from budgets to uniforms to Standard 
Operating Procedures in virtually every area. We have made great 
progress to date.
    During a review of the status of execution of the fiscal year 2004 
budget, the ICE and CBP determined that implementation of hiring 
restrictions was a prudent managerial measure not just to stay within 
2004 appropriations, but for mission-related objectives. CIS had 
already instituted hiring restrictions since the beginning of the year 
due to lower than anticipated fee projections. Additional focus was, 
and is required to work through funding realignments related to the 
establishment of the three new Bureaus. This work recognized the 
tremendous effort of the Administration and the Congress to establish 
the Department but also acknowledged that some of the finer details on 
funding and provision of support services required negotiations and 
reconciliation between the three Bureaus. The work has been on-going, 
but agreements have been recently reached to realign funds to cover 
costs of services incurred by the Bureaus. Formal memoranda of 
agreement will be implemented between the three Bureaus, which will 
help ensure that funding is aligned with services rendered.
    The Department is committed to the security of the Nation and we 
will continue to work towards successful establishment of the three 
Bureaus, CBP, CIS, and ICE. To that end, we will continue to work with 
the Congress, in particular through the appropriations process, to 
ensure that funds are aligned to mission objectives consistent with 
Congressional intent.
    Question. Mr. Garcia, I am pleased that you and other components of 
the Executive Branch are making such good use of the Law Enforcement 
Support Center, located in my home State of Vermont--including its role 
in Operation Predator. The LESC provides information to State and local 
police departments throughout the Nation, regarding the immigration 
status and identities of aliens suspected, arrested, or convicted of 
criminal activity. You joined me in Vermont last August to announce 
expanded capabilities at the LESC. I look forward to continuing to work 
with you to ensure that the LESC is as helpful as possible to law 
enforcement officers throughout our Nation.
    At the same time, I want to ensure that adequate funding is 
available for the LESC to perform its various functions. The 
President's proposal did not include a specific budget for the LESC, 
leaving me only to assume that the base budget from this year will be 
continued in the upcoming fiscal year. Considering the increased 
demands on the LESC and their expanded capabilities, how will you 
ensure that the LESC has the resources it needs to perform its vital 
role of supporting Federal, State and local law enforcement?
    Answer. All of the new or increased activity levels at the LESC 
that are contributing significantly to national security and public 
safety have been accomplished within existing resources. ICE has 
clearly recognized the value of the LESC as demonstrated by the steps 
taken to increase productivity and is determined to expand the role of 
the LESC not only within the broader law enforcement community, but 
also within DHS and ICE.
    In order to ensure the LESC is properly positioned to address its 
expanding workloads and roles within the law enforcement community, ICE 
conducted a detailed analysis of current and projected operational 
requirements and the resources that would be necessary to assure their 
continuation and expansion. That analysis, which included examination 
of staffing, facility and other resource needs, resulted in a 
comprehensive, strategic document. Some of the recommendations have 
already been implemented or are in the planning or implementation 
process.
    Question. Mr. Aguirre, the President's budget proposes a 40 percent 
cut in the amount of directly appropriated funds for the Bureau of 
Citizenship and Immigration Services (CIS), from the nearly $235 
million appropriated for the current year to $140 million for fiscal 
year 2005. At the same time, the President has proposed a guest worker 
program that would significant increase the CIS workload.
    Why is the President proposing a 40 percent cut in an agency whose 
workload he wants to increase dramatically?
    Answer. The President's fiscal year 2005 Budget is not proposing a 
cut in the USCIS budget. In fact, the President's budget includes a 
$300 million increase over last years levels, including an additional 
$60 million in discretionary funding towards backlog reduction efforts 
aimed at achieving a 6-month processing time for all immigration 
benefit applications by fiscal year 2006.
    The President's fiscal year 2005 budget reflects the recent changes 
by USCIS to adjust its fee schedule. This fee adjustment includes 
amounts for administrative support services ($155 million) previously 
funded through appropriated funds (tax dollars). Thus, this proposal 
has no impact on the USCIS budget except for the fact that the funding 
source for these services will be by way of fees versus tax dollars. 
With the exception of the $140 million in appropriated backlog 
reduction funds, USCIS will be a wholly fee-funded agency in fiscal 
year 2005.
    Beginning in fiscal year 2002, USCIS has been receiving a total of 
$100 million in funds for backlog reduction to achieve the 6-month 
processing time. The $100 million is made up of $80 million in 
appropriated funds and $20 million in premium processing fees. The 
President is proposing a 60 percent increase for backlog reduction 
efforts in fiscal year 2005, bringing the total backlog reduction funds 
from $100 million to $160 million ($140 million in appropriated funds 
and $20 million from the premium processing fees).
    Question. Speaking of the guest worker program, I wrote to the 
President in January and asked him to submit a legislative proposal to 
Congress that would implement his plan. As you know, we have a short 
legislative year ahead of us, but I have still not received a response. 
Are the media reports suggesting the President has shelved his guest 
worker program accurate? If not, why has he not submitted proposed 
legislation? Will he do so?
    Answer. On January 7, 2004, the President announced principles in 
creating a new temporary worker program that would match willing 
foreign workers with willing U.S. employers when no Americans can be 
found to fill the jobs. We look forward to working with Congress to 
develop legislation that incorporates the best ideas for the American 
worker and our foreign visitors. Through the principles outlined by the 
President, the best course to the end goal of opportunity, security, 
safety, compassion, jobs and growth can be achieved.
    Question. President Bush has promised to reduce the average wait 
time for applicants for immigration benefits to 6 months by 2006. In 
light of that goal, and the increased burden the President would place 
on the CIS through the guest worker program, why did the President's 
not seek increased funds for backlog reduction?
    Answer. As stated above, the President is proposing a 60 percent 
increase for backlog reduction efforts in fiscal year 2005, bringing 
the total backlog reduction funds from $100 million to $160 million 
($140 million in appropriated funds and $20 million from the premium 
processing fees).
    Question. Mr. Aguirre, I have joined with many other Senators in 
writing to Secretary Ridge and opposing the potential outsourcing of 
1100 Immigration Information Officers (IIOs). My colleagues and I 
believe that these IIOs perform important work--including background 
checks on applicants for immigration benefits--that we should not be 
delegating to the private sector, especially at a time of continuing 
threats of terrorism. (A) As the supervisor of these IIOs, do you 
believe they are performing their jobs well? (B) Do you believe they 
should be replaced by private contractors?
    Answer. Many IIOs individually do an excellent job. But we have a 
very significant customer challenge that we have yet to meet. INS was 
known for long lines, and lengthy waits at its local offices, and was 
not considered particularly responsive to written correspondence. 
Clearly we need to make some changes. USCIS has already started the 
process with expansions of our toll-free call center services, case 
status on-line, InfoPass appointments, and initiatives to reduce lines 
and improve customer service. Introducing an element of competition 
through the A-76 process should further stimulate innovation and 
improvements, with the current workforce being one of the competitors 
in this process.
    Question. Mr. Garcia, I have supported and helped to obtain funding 
for Legal Orientation Proceedings for immigration detainees, with the 
view that the immigration system works better for all parties when 
detained aliens are informed as to whether they have a legitimate legal 
case to stay in the United States. Congress appropriated $1 million for 
orientation proceedings in fiscal year 2003, but DHS has still not 
transferred that money to the Executive Office for Immigration Review 
so the proceedings can take place. Can you tell me when that money will 
be transferred, and why it has taken so long?
    Answer. The Department of Homeland Security (DHS) appreciates the 
attention and funding Congress has appropriated annually to fund the 
Legal Orientation Program for Immigration Detainees. As you know, the 
former Immigration and Naturalization Service (INS) was abolished on 
February 28, 2003, shortly after the fiscal year 2003 Appropriations 
was signed into law on February 20, 2003. One of its successor 
agencies, the U.S. Immigration and Customs Enforcement (ICE), began to 
manage the funding appropriated for the Legal Orientation Program. Late 
in fiscal year 2002, the former INS transferred $1 million to the 
Executive Office for Immigration Review (EOIR) for the Legal 
Orientation Program. However, this transfer was not made in fiscal year 
2003. Also, throughout fiscal year 2003, EOIR had fiscal year 2002 
funding available to use for their Legal Orientation Program. In fiscal 
year 2004, ICE has transferred $1 million to EOIR for the Legal 
Orientation Program, under a reimbursable agreement that was signed on 
February 2, 2004.

                         CONCLUSION OF HEARINGS

    Senator Cochran. This concludes our scheduled hearings on 
the President's fiscal year 2005 budget request for the 
Department of Homeland Security. I appreciate the cooperation 
and assistance of all members of the subcommittee, especially 
the distinguished Senator of West Virginia, my friend, Senator 
Byrd, as well as the dedicated hard work of the staff of this 
subcommittee.
    The hearing is recessed.
    [Whereupon, at 12:15 p.m., Tuesday, March 30, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2005 budget 
request for programs within the subcommittee's jurisdiction.]

     Prepared Statement of the Association of American Universities

    Mr. Chairman, Members of the Subcommittee: I am pleased to have 
this opportunity to present the views of the Association of American 
Universities (AAU) concerning the fiscal year 2005 budget proposal for 
the Department of Homeland Security Science and Technology (S&T) 
Directorate. AAU is an organization of 62 leading public and private 
research universities.
    Let me begin by thanking Chairman Cochran, Ranking Member Byrd, and 
members of the subcommittee for their efforts last year in helping the 
new Department of Homeland Security (DHS) get up and running. I would 
especially like to thank them for their recognition of the role that 
universities can play in helping the Department fulfill its mission and 
for your strong support of the university programs within the DHS S&T 
Directorate. You all have done the nation a great service, and your 
work to ensure the security of our homeland is very much appreciated.
AAU Urges Strong Support of Homeland Security S&T
    AAU supports the $1.039 billion proposed in the President's fiscal 
year 2005 budget request for the DHS S&T Directorate. The primary 
interest of the university community continues to be with DHS 
University Programs, which support the DHS scholarship, fellowship, and 
university center programs. AAU requests $70 million for DHS university 
programs in fiscal year 2005, the same level approved by Congress in 
fiscal year 2004. This is $40 million more than the President's fiscal 
year 2005 request.
    AAU recommends that this additional $40 million be used to support 
new DHS university-based centers and other innovative university-based 
research programs. This is consistent with AAU's view that DHS S&T 
programs should focus not only on the development of technologies with 
near-term applications but also on helping generate the fundamental 
knowledge, cutting-edge science, and human infrastructure needed to 
meet the nation's future homeland security needs. AAU also supports 
funding for S&T staffing and administration at a level that allows the 
directorate to ensure that S&T funds are awarded to projects fairly and 
competitively, based on scientific and technical merit.
The Role of Universities in Homeland Security
    There are several reasons why AAU believes that continued strong 
support for university research and training is needed and can greatly 
assist the Department of Homeland Security. Let me briefly highlight 
three of them:
    Long-Term University-Based Research is Critical to Homeland 
Defense.--Science and engineering research conducted on university 
campuses is the foundation for many of the technologies now being 
deployed to prevent, detect, and treat victims of chemical, biological, 
radiological, nuclear and conventional terrorist attacks. As with 
university-based basic and applied defense research programs, 
fundamental knowledge and research generated at universities will serve 
as the ``seed corn'' from which future homeland security technologies 
will grow.
    Universities Are an Important Resource in the Domestic War on 
Terror.--University medical facilities and personnel were critical in 
providing medical care and emergency response services after the 
September 11, 2001, attacks in New York City and Washington D.C. When 
the anthrax attacks occurred on Capitol Hill, university researchers 
were called on to help Americans better understand the threat posed by 
biological agents and to provide critical information that enabled 
federal agencies and Congress to respond effectively.
    University researchers are actively exploring new methods to 
safeguard the nation, including detection of, and response to, domestic 
biological, chemical, nuclear, and radiological attacks; risk 
assessment; cybersecurity; protection of critical infrastructure; and 
developing a better understanding of the behaviors and motivations of 
those who engage in terrorist activities.
    Universities Are Leading Homeland Security Training and 
Coordination.--Universities continue to work with government officials 
at all levels, industry and non-profit leaders, and first-responders to 
develop coherent, effective homeland security strategies. Colleges and 
universities are also developing new programs to train first responders 
and educate students to address current and future homeland security 
challenges.
Conclusion
    Let me conclude by saying that in addition to being able to assist 
the Department of Homeland Security in fulfilling its science and 
technology and training objectives, AAU and its member universities are 
working to ensure safety and security on university campuses. This 
includes compliance with the new biological and select agent 
regulations and efforts to help ensure that new systems to track 
foreign students--as required by law--are in place. AAU urges that in 
addition to providing funding for homeland security S&T, Congress and 
the Administration provide adequate funding to support university 
efforts to respond to these new requirements for campus-based homeland 
security. With your support, and working together, the nation's 
research universities will be able to continue to help fight terrorism 
and ensure domestic security.
    Again, I appreciate your ongoing work in support of homeland 
security. Thank you for the opportunity to submit testimony. Please let 
me know should you have any questions.
                                 ______
                                 

  Prepared Statement of the American Public Transportation Association

    Mr. Chairman, thank you for this opportunity to submit written 
testimony on the security and safety of public transportation systems. 
We appreciate your interest in transportation security, and we look 
forward to working with you as you develop the fiscal year 2005 
appropriations bill for the Department of Homeland Security.

                               ABOUT APTA

    The American Public Transportation Association (APTA) is a 
nonprofit international association of over 1,500 public and private 
member organizations including transit systems and commuter rail 
operators; planning, design, construction, and finance firms; product 
and service providers; academic institutions; transit associations and 
State departments of transportation. APTA members serve the public 
interest by providing safe, efficient, and economical transit services 
and products. Over ninety percent of persons using public 
transportation in the United States and Canada are served by APTA 
member systems.

                                OVERVIEW

    Mr. Chairman, public transportation is one of our Nation's critical 
infrastructures. We cannot over emphasize the importance of our 
industry to the economic vitality of this country. Over 9.5 billion 
transit trips are taken annually on all modes of transit service. 
People use public transportation vehicles over 32 million times each 
weekday. This is more than 16 times the number of daily travelers 
aboard the Nation's airlines, and 450 times the number of travelers on 
Amtrak.
    The American people rightfully expect that they can travel to work, 
school, and any destination on public transit without fearing for their 
safety and security. Our industry is fully engaged in meeting this 
responsibility. However, the American people, and we also require the 
full support of the Federal Government to effectively address this 
challenge.
    America's public transportation services are by design and 
necessity an open environment. Safety and security are thus the top 
priority of the public transportation industry. Transit systems took 
many steps to improve security prior to the horrific terrorist attacks 
of September 11, 2001, and have significantly increased efforts since 
then by spending approximately $1.7 billion on security and emergency 
preparedness programs and technology. These expenditures have been made 
from local transit agency's own budgets with minimal Federal funding. 
Recent terrorist attacks in Madrid only highlight the need to 
strengthen security on public transit systems and to do so without 
delay.
    In a recent APTA survey transit systems identified both capital and 
operating actions that would enhance transit security; transit agencies 
around the country have identified in excess of $6 billion in transit 
security needs. State and local governments and transit agencies are 
doing what they can to improve security, but it is important that the 
Federal Government be a full partner in the effort to ensure the 
security of the Nation's tens of millions of transit users.
    We urge the Congress to act decisively on this issue. In light of 
the documented needs, we respectfully request Congress to provide $2 
billion in the fiscal year 2005 Homeland Security Appropriations bill 
for transit security. Of that amount, we suggest that $1.2 billion be 
provided for capital needs such as improved inter-operable radio 
communications, strengthening access control to facilities, and 
establishing emergency operations control centers, and that $800 
million be provided for security related operating costs, including 
threat assessments, planning, public awareness, training, and drills.
    We further request that the existing process for distributing 
Office of Domestic Preparedness (ODP) Federal grant funding be modified 
so that funds are distributed directly to transit agencies as was done 
in fiscal year 2003, rather than through State Administrating Agencies 
(SAA) as was done in fiscal year 2004.

                     PUBLIC TRANSPORTATION SECURITY

    Mr. Chairman, transit employees are on the front line in our 
Nation's effort against terrorism. They are the first responder 
evacuation teams who will assist in getting the public out of critical 
incident areas and our cities in the event of a terrorist attack. This 
was evident on September 11, 2001, when public transportation systems 
in New York City, New Jersey and Washington D.C. helped safely evacuate 
citizens from center cities. Indeed, this same story was true around 
the country as transit systems quickly and efficiently evacuated people 
from closed airports and downtown areas. We remember that the 
interstate highway program was begun by President Eisenhower as a 
national defense interstate highway program. It is clear now that 
public transportation too has a significant national defense component 
and is a fundamental element in responding to terrorist attacks and 
other community disasters and emergencies.
    In that connection, APTA has played a critical role in 
transportation security and works closely with a number of Federal 
agencies in this regard, notably the Federal Transit Administration 
(FTA) and the Federal Railroad Administration of the U.S. Department of 
Transportation, and the Transportation Security Administration (TSA), 
the Office of Domestic Preparedness (ODP), and the Directorate of 
Information Analysis & Infrastructure Protection of the U.S. Department 
of Homeland Security. At the program level, APTA works closely with 
these agencies to administer an industry audit program that oversees a 
system safety and security management plan for transit systems around 
the country. Our safety audit program for commuter rail, bus, and rail 
transit operations has been in place for many years and includes 
elements specific to security planning and emergency preparedness. 
Separately, in connection with Presidential Decision Directive Number 
63, we are pleased to have been designated a Public Transportation 
Sector Coordinator by the Department of Transportation, and as my 
testimony notes below, we have established a Transit Information 
Sharing Analysis Center (ISAC) that provides a secure two-way reporting 
and analysis structure for the transmission of critical alerts and 
advisories to transit agencies around the country. This ISAC is also a 
mechanism for transit agencies to provide information to the DHS.
    Since the events of 9/11, State and local public transit agencies, 
like all State and local entities, have spent significant sums on 
police overtime, enhanced planning and training exercises, and capital 
improvements related to security. As mentioned in the overview, a 2004 
APTA survey of transit agencies around the country has identified in 
excess of $6 billion in added transit security needs. These include 
both one-time capital investments and recurring operating expenses 
related to security. It is important to note that these costs are above 
and beyond the capital infrastructure needs we have identified under 
the TEA 21 reauthorization effort.

                               BACKGROUND

    Mr. Chairman, prior to and following September 11, 2001, the date 
of the most devastating terrorist attack in U.S. history, American 
public transportation agencies have taken significant measures to 
emphasize their security and emergency preparedness to adjust to 
society's new State of concern. Although agencies had a wide range of 
security initiatives in place at the time of the World Trade Center and 
Pentagon attacks and already had developed emergency response plans, 
the September 11 incidents caused the agencies to focus, strengthen, 
and prioritize additional security efforts.
    Transit agencies have had an excellent safety record and have 
worked for years to enhance their system security and employee security 
training, partly responding to government standards, APTA guidelines, 
and by learning through the attacks on transit agencies abroad. For 
example, the 1995 sarin gas attack in the Tokyo subway system caused 
U.S. transit properties managing tunnels and underground transit 
stations to go on high alert. The San Francisco Bay Area Rapid Transit 
District, for instance, responded to the possible threat of chemical 
weapons attacks by sending a police team to Fort McClellan, Alabama, to 
learn response tactics from U.S. Army chemical weapons experts.
    In the months following the September 11 terrorist attacks, transit 
agencies of all sizes worked to identify where they might be vulnerable 
to attacks and increased their security spending for both operations 
and capital costs. The agencies subsequently upgraded and strengthened 
their emergency response and security plans and procedures, taking 
steps to protect transit infrastructure and patrons and increase 
transit security presence while giving riders a sense of security.
    Some initiatives around the country include:
  --Increased surveillance via closed circuit TV
  --Increased training for employees
  --Hired more police, K-9 units added
  --Chemical detection systems being tested
  --Infrastructure design to eliminate hiding places
  --Drills are routinely held with first responders
  --Encouraging riders to be vigilant for suspicious activities or 
        items.
    After September 11, many transit organizations worked to prevent 
unauthorized entry into transit facilities. The need for employees and 
passengers to stay alert and report suspicious occurrences became a key 
goal of many agencies. These efforts are paying off. But while many 
transit agencies are more secure than prior to September 11, more needs 
to be done.
    Since the attacks, APTA and the Federal Transit Administration have 
emphasized the need for effective transit security and emergency 
preparedness. FTA has sent security resources toolkits to transit 
agencies; completed security-vulnerability assessments of the Nation's 
largest transit systems; and provided technical support and grants of 
up to $50,000 to fund agency emergency drills.
    FTA continues to provide emergency preparedness and security forums 
nationwide. In emphasizing the importance of enhancing transit 
security, FTA Administrator Jennifer L. Dorn noted that thousands of 
lives were spared on September 11 in New York City and Washington 
``because of the quick action of first responders and transit 
workers.''
    APTA has launched additional efforts to further transit industry 
security and preparedness, collaborating with FTA in developing 
emergency preparedness forums, and sponsoring and organizing security-
related conferences and workshops. Moreover, APTA developed a list of 
critical safety and security needs faced by the transit industry, which 
it has provided to the Department of Transportation and the U.S. 
Congress.
    public transportation information sharing analysis center (isac)
    Presidential Decision Directive Number 63 authorizes and encourages 
national critical infrastructures to develop and maintain ISACs as a 
means of strengthening security and protection against cyber and 
operations attacks. APTA is pleased to have been designated a Public 
Transportation Sector Coordinator by the U.S. Department of 
Transportation, and in that capacity has received a $1.2 million grant 
from the Federal Transit Administration to establish a transit ISAC. 
APTA recently formalized an agreement with a private company to 
implement the ISAC and make it available to public transit systems 
around the country.
    This ISAC for public transit provides a secure two-way reporting 
and analysis structure for the transmission of critical alerts and 
advisories as well as the collection, analysis and dissemination of 
security information from transit agencies. The public transit ISAC 
also provides a critical linkage between the transit industry, the U.S. 
Department of Transportation, the Transportation Security 
Administration, and the Office of Homeland Security. A request for 
funding to continue this ISAC has been submitted to the Department of 
Homeland Security's Directorate of Information Analysis & 
Infrastructure Protection.

                   ONGOING TRANSIT SECURITY PROGRAMS

    Mr. Chairman, while transit agencies have moved to a heightened 
level of security alertness, the leadership of APTA has been actively 
working with its strategic partners to develop a practical plan to 
address our industry's security and emergency preparedness needs. 
Shortly after the September 11 events, the APTA Executive Committee 
established a Security Task Force under the leadership of Washington 
Metro's CEO, Richard A. White. The APTA Security Task Force has 
established a security strategic plan that prioritizes direction for 
our initiatives. Among those initiatives, the Task Force serves as the 
steering group for determining security projects that are being 
implemented through over $2 million in Transit Cooperative Research 
funding through the Transportation Research Board.
    Through this funding, APTA held four transit security workshop 
forums for the larger transit systems with potentially greater risk 
exposure. These workshops provided confidential settings to enable 
sharing of security practices and applying methodologies to various 
scenarios. The outcomes from these workshops were made available in a 
controlled and confidential format to other transit agencies unable to 
attend the workshops. The workshops were held in New York, San 
Francisco, Atlanta, and Chicago.
    In partnerships with the Transportation Research Board, the APTA 
Security Task Force has also established two TCRP Panels that 
identified and initiated specific projects developed to address 
Preparedness/Detection/Response to Incidents and Prevention and 
Mitigation. The Security Task Force emphasized the importance for the 
research projects to be operationally practical.
    In addition to the TCRP funded efforts, a generic Checklist For 
Transit Agency Review Of Emergency Response Planning And System Review 
has been developed by APTA as a resource tool and is available on the 
APTA website. Also through the direction of the Security Task Force, 
APTA has reached out to other organizations and international 
transportation associations to formally engage in sharing information 
on our respective security programs and directions and to continually 
work towards raising the bar of safety and security effectiveness.
    Within this concept of partnership and outreach, APTA also 
continues in its ongoing collaboration with the Federal Transit 
Administration to help in guiding and developing FTA programs. Among 
these are regional Emergency Preparedness and Security Planning 
Workshops that are currently being delivered through the Volpe Center 
and have been provided in numerous regions throughout the United 
States. The primary focus of such workshops has been to assist 
particularly smaller transit systems in building effective emergency 
response plans with first responders and their regional offices of 
emergency management. Also within this partnership, APTA has assisted 
the FTA and the National Transit Institute in the design of a new 
program ``Security Awareness Training for Frontline Employees and 
Supervisors.'' This program is now being provided by NTI to transit 
agencies throughout the Nation.
    Collaborative efforts between APTA, FTA, Volpe Center, and the 
National Transit Institute are also underway to establish a joint 
website that will specifically gather and disseminate effective transit 
practices with initial emphasis on safety and security.
    As you may be aware, APTA has a long-established Safety Audit 
Program for Commuter Rail, Bus, and Rail Transit Operations. Within the 
scope of these programs are specific elements pertaining to Emergency 
Response Planning and Training as well as Security Planning. In keeping 
with our industry's increased emphasis on these areas, the APTA Safety 
Audit Programs have similarly been modified to place added attention to 
these critical elements.
    APTA's Committee on Public Safety continues to provide a most 
critical forum for transit security professionals to meet and share 
information, experiences and programs and to also provide valuable 
input to programs being developed by the FTA.

                       SECURITY INVESTMENT NEEDS

    Mr. Chairman, after the awful events of 9/11, the transit industry 
invested some $1.7 billion in enhanced security measures building on 
the industry's considerable efforts already in place. At the same time, 
our industry undertook a comprehensive review to determine how we could 
build upon our existing industry security practices. This included a 
range of activities, some of which I discussed earlier in my testimony, 
including research, best practices, education, information sharing in 
the industry, surveys and the like. As a result of those efforts we are 
now at a phase where we know what we can most effectively do in terms 
of creating a more secure environment for our riders and have 
accordingly identified critical security investment needs.
    Our latest survey of public transportation security identified 
needs of at least $5.2 billion in additional capital funding to 
maintain, modernize, and expand transit system security functions to 
meet increased security demands. Over $800 million annually for 
increased operating costs for security personnel, training, technical 
support, and research and development have been identified, bringing 
total additional transit security funding needs to more than $6 
billion.
    Responding transit agencies were asked to prioritize the uses for 
which they required additional Federal investment for security needs. 
Priority examples of operational needs include:
  --Funding current and additional transit agency and local law 
        enforcement personnel
  --Funding for over-time costs and extra security personnel during 
        heightened alert levels
  --Training for security personnel
  --Joint transit/law enforcement training
  --Security planning activities
  --Security training for other transit personnel
    Priority examples of security capital investment needs include:
  --Radio communications systems, including operational control center 
        redundancy
  --Security cameras on-board transit vehicles and in transit stations
  --Controlling access to transit facilities and secure areas
  --Automated vehicle locator systems
  --Security fencing around facilities
    Transit agencies with large rail operations also reported a 
priority need for Federal capital funding for intrusion detection 
devices.
    To date the DHS has allocated some $115 million for public 
transportation security through its Office of Domestic Preparedness. 
While we appreciate this support from the Department, we must build on 
those initial investments and begin to address the $6 billion in 
critical needs the transit industry has identified. We believe that a 
funding level of $2 billion in the fiscal year 2005 Homeland Security 
Appropriations bill would effectively begin the process of funding 
those needs. Of that amount, we suggest that $1.2 billion be provided 
for transit capital needs, and that $800 million be provided for 
transit agencies for operating costs.
    The Administration's fiscal year 2005 budget, however, does not 
specifically call for investment in public transportation security. We 
think it should. Currently ODP grants for transit systems are made 
available through the States, which means that our transit systems do 
not have a direct relationship with DHS, and which also means that the 
process of getting the funds to the local transit systems can be 
lengthy. Mr. Chairman, our Nation's transit systems have a direct and 
cooperative working relationship with DOT's Federal Transit 
Administration which allocates Federal capital investment directly to 
them, and we believe this is an excellent model that we would like to 
see developed with the DHS. We stand ready to help in any way we can in 
that regard.

                               CONCLUSION

    Mr. Chairman, in light of our Nation's heightened security concerns 
post 9/11, and the bombings in Madrid, tens of millions of Americans 
relying on public transportation expect the services they use to be 
made more secure. Increased Federal investment in public transportation 
security by the Congress and DHS is critical. The public transportation 
industry has made great strides in transit security improvements since 
9/11 but much more needs to be done. We look forward to building on our 
cooperative working relationship with Congress and the Department of 
Homeland Security to begin to address these needs. We again thank you 
and the Committee for allowing us to submit testimony on these critical 
issues and look forward to working with you on safety and security 
issues.
                                 ______
                                 

  Prepared Statement of the Association of State Dam Safety Officials

    Dear Chairman Cochran and Members of the Subcommittee: The 
Association of State Dam Safety Officials (ASDSO) is pleased to offer 
testimony on the President's proposed fiscal year 2005 budget for the 
Department of Homeland Security.
    The Association of State Dam Safety Officials respectfully requests 
that the Subcommittee increase the Administration's proposed budget of 
$5.9 million to $8.6 million to fully fund the National Dam Safety 
Program at its authorized level for fiscal year 2005. The Association 
further requests that these funds be earmarked for the sole purpose of 
carrying out mandates authorized in the National Dam Safety and 
Security Act of 2002.
    The Association of State Dam Safety Officials is a national 
organization of more than 2,200 state, Federal and local dam safety 
professionals and private sector individuals dedicated to improving dam 
safety through research, education and technology transfer. ASDSO 
represents the 50 state dam safety programs, as the state dam safety 
officials are the governing body of the Association. Our goal is simply 
to save lives, prevent property damage and to maintain the many 
benefits of dams by preventing dam failures.
    During the 1970s this country suffered devastating dam failures 
that caused tragic loss of life and enormous property damage; and 
focused national attention on the catastrophic consequences of dam 
failures. Those historic failures and recent dam failures serve as a 
constant reminder that dams must always be properly constructed, 
properly designed and properly operated and maintained to provide vital 
benefits and prevent failures.
    Today our focus in not only on the safety of dams related to 
maintenance issues but on security as the Nation faces a significant 
challenge to protect our infrastructure from terrorist attacks. 
Protection of U.S. dams is a major concern and focus of national 
strategic planning efforts within the Department of Homeland Security.
National Dam Safety Program
    The National Dam Safety Program Act of 1996 (Public Law 104-303) 
created the first national program that focused on improving the safety 
of the Nation's dams. Congress reauthorized the program through the Dam 
Safety and Security Act of 2002 (Public Law 107-310) and made modest 
increases in the authorized funds. This small, yet critical program 
provides much needed assistance to the state dam safety programs in the 
form of grant assistance, training and research; and through 
facilitating the exchange of technical information between Federal dam 
safety partners and the states. The program provides $6 million in 
grant assistance to states based on the relative number of dams in each 
state. The grants may be utilized to best suit the individual state's 
needs. In addition, the National Dam Safety Program provides $500,000 
each year to be used for training of state dam safety engineers and 
$1.5 million annually for research. These research funds are used to 
identify more effective methods of evaluating the safety of dams and 
more efficient techniques to repair dams. And now, these research funds 
can be used to develop better methods to assess and improve the 
security of dams.
    There are over 79,000 dams in the United States, but the 
responsibility of assuring their safety falls on the shoulders of the 
states, as they regulate 95 percent of the country's dams. Because of 
limited staff and limited funding, most states are overwhelmed by that 
challenge. Table 1 attached to this testimony provides state-by-state 
data on the number of dams, the number of staff, the state budget and 
the number of dams that are considered ``unsafe.'' Unsafe means that 
they have identified deficiencies that make the dam more susceptible to 
failure, which may be triggered by a large storm event, an earthquake 
or simply through inadequate maintenance. Currently states have 
identified over 3,300 dams as being deficient, or unsafe. In Kentucky 
the state lists 88 unsafe dams including 36 that are classified as high 
hazard potential. In Pennsylvania there are 531 unsafe dams and 98 of 
these are classified as high hazard potential.
    There are over 10,000 dams classified as high hazard potential 
meaning that the consequences of the dam's failure will likely include 
loss of human life and significant downstream property damage. Every 
member of this Subcommittee has high hazard dams in their home state. 
There are 217 high hazard potential dams in Kentucky, 861 high hazard 
potential dams in Texas and 1,027 high hazard potential dams in North 
Carolina. According to the National Inventory of Dams more than 53 
percent of the high hazard potential dams have not been inspected in 
the last ten years. High hazard potential dams should be inspected 
every year.
    The task for state dam safety programs is staggering; in Iowa where 
there are over 3,300 dams there are only 1.25 full time employees 
assigned to the dam safety program. Texas has over 8,000 dams with only 
5 engineers in their dam safety program; and Minnesota, which has 
almost 1,000 dams, only has a staff of 2.1 full time employees
    The American Society of Civil Engineers' 2003 Progress Report for 
America's Infrastructure listed a downward trend line indicating that 
the condition of the Nation's dams continues to decline. The dams 
across the United States are aging as 85 percent of the dams will be 50 
years or older by the year 2020.
    Downstream development within the dam failure flood zone places 
more people at risk. When homes are built in the dam failure flood zone 
below a low hazard dam, (low hazard: failure is not expected to cause 
loss of life or significant property damage) the dam no longer meets 
dam safety criteria as the potential consequences of a failure now 
include loss of life.
Federal Leadership Role
    There is a clear need for continued Federal leadership to provide 
assistance in support of dam safety. This country suffered several 
large and tragic dam failures in the 1970s that focused attention on 
dams and prompted Congress to pass national dam safety legislation. In 
1972, the Buffalo Creek Dam in West Virginia failed and killed 125 
individuals; in 1976 the Teton Dam failure in Idaho caused $1 billion 
in damages and 14 deaths; the Kelly Barnes Dam in Toccao Falls, Georgia 
failed in 1977 killing 39 Bible college students; also in 1977 40 
people died from the failure of the Laurel Run Dam in Pennsylvania; and 
in 1996 the 38 foot tall Meadow Pond Dam in Alton, New Hampshire failed 
killing one woman and causing $8 million in damage.
    However, the recent failure of the Silver Lake Dam in Michigan in 
May 2003 again demonstrated the enormous potential damages that dam 
failures can produce. This dam failure caused more than $100 million in 
damages including $10 million in damages to utilities, $4 million to 
the environment, $3 million to roads and bridges and flooded 20 homes 
and businesses. In addition, the Silver Lake Dam failure flooded a 
major power plant, which in turn caused the closure of two iron mines, 
putting 1,100 miners temporarily out of work.
    Just last month on March 12, 2004, the Big Bay Lake Dam in 
Mississippi failed destroying 48 homes, damaging 53 homes, 2 churches, 
three businesses and a fire station and washing out a bridge. This dam, 
which cost $2.5 million to construct, has caused many millions in 
damages, will require downstream homeowners and businesses to rebuild, 
caused significant loss of property values around the lake and has 
resulted in $100 million lawsuit filed against the dam owner on behalf 
of the homeowners.
    Dam failures do not respect state boundaries, as a dam failure in 
one state may cause loss of life and property damage in an adjacent 
state. The Federal Government funds the recovery costs from the 
President's disaster relief fund and through the Flood Insurance 
Program, but the cost of one small dam failure can easily exceed the 
annual costs of the National Dam Safety Program. Full funding of the 
National Dam Safety Program is an investment in public safety that will 
be repaid many times over in fewer dam failures, reduced Federal 
expenditures for dam failure recovery and, most importantly, fewer 
lives lost.

Benefits of the National Dam Safety Program
    The National Dam Safety Program has been very successful in 
assisting the state programs. The training program is created is one 
aspect of this success ($500,000). This training provides access to 
technical courses and workshops that states engineers could not 
otherwise attend. Examples include Dambreak Analysis, Concrete 
Rehabilitation of Dams, Slope Stability of Dams, Earthquake Analysis, 
Emergency Action Planning and many others including recent training in 
Dam Site Security. Training courses are also offered through FEMA's 
training facility at their Emergency Management Institute in Maryland 
where state dam safety inspectors receive training at no cost to the 
states.
    The Research Program is an important program to all within the dam 
safety community. Its funds have been used to identify future research 
needs such as inspections using ground penetrating radar or risk 
analysis. In addition, these funds have been used to create a national 
library and database of dam failures and dam statistics at the National 
Performance of Dams Program at Stanford University as well as a 
national clearinghouse and library of dam safety bibliographic data at 
ASDSO.
    Research funds are currently being used to provide security 
training, security assessment tools and best management practices for 
states to utilize in addressing potential terrorists actions against 
the 75,000 non-Federal dams. The small increase ($500,000) in the 
funding levels authorized by the 2002 act was intended to address dam 
site security. Dam site security is now an urgent area of concern for 
state dam safety officials both in training needs and in research to 
better understand and respond to potential threats to dams.
    The most valuable benefit to the state programs comes from the 
State Grant Assistance Program. The grants are based on the number of 
dams in each of the participating states and are used as an incentive 
to encourage states to improve their program by meeting basic criteria 
such as:
  --State statutory authority to conduct inspections of dams;
  --State authority to require repairs to unsafe dams; or
  --State policies that address dam site security at non-Federal dams.
    Use of these grants is left up to the state's discretion as each 
state has its own unique challenges. States have utilized grant funds 
to perform dam failure and dam stability analyses, to hire additional 
staff to conduct inspections and to conduct owner education workshops. 
In addition, grant funds have enabled states to provide additional 
staff training, and to purchase equipment such as computers, field 
survey equipment and software, and remote operated cameras for internal 
inspections.
    As we begin to realize the benefits of the grant assistance 
program, dam safety inspections have increased and so has the number of 
Emergency Action Plans, used to notify and evacuate downstream 
populations in the event of a failure, it is disappointing to see that 
appropriations over the past 2 years are well below the authorized 
levels. They have remained at the previous level of $5.9 million. 
Despite the increase in funding approved by Congress in the Dam Safety 
and Security Act of 2002 to $8.6 million, the states have not realized 
any increase in assistance. Moreover, budget reductions at have further 
reduced the state grant assistance funds by almost 22 percent.
    Table 2, attached to this testimony, provides information on the 
amount of state grant assistance received for each state, the potential 
grant funding if fully funded at authorized levels and the grant amount 
each state will lose as a result of the reduced funding. The lost 
grants come at a difficult time when development below dams creates 
more high hazard potential dams, dams continue to age and, now, 
security issues must be addressed by the states.

Dam Security of Non-Federal Dams
    The horrific events of September 11, 2001 have focused 
unprecedented attention on the security of our Nation's critical 
infrastructure, including dams. Dams, in fact, have been identified by 
intelligence and law enforcement agencies in specific threat alerts. 
Federal agencies that own dams, such as the U.S. Army Corps of 
Engineers and the Bureau of Reclamation, have been conducting 
vulnerability assessments and security improvements on these Federally 
owned dams. However, little has been provided by the Federal Government 
in leadership or assistance to the states who have similar and equally 
urgent dam security demands.
    Security experts advise that it is very difficult to make a site 
completely safe from intentional acts of terror. They offer that their 
goal is to enhance security and effectively deter a potential attack at 
a site so that the terrorist will seek another site with less security. 
The improved security at federally owned dams makes non-Federal dams 
more attractive targets. There are clearly thousands of non-Federal 
dams that are potential targets based on type of construction, size, 
purpose (water supply, hydro power, flood control); and on the 
population and infrastructure at risk below the dam. Federal leadership 
is urgently needed to provide technical and financial assistance to 
states for training, for conducting vulnerability assessments and for 
identifying and implementing security improvements on dams determined 
to have an inadequate security program.

Conclusion
    Dams are a vital part of our aging national infrastructure that 
provide many vital benefits, but that also pose a threat to life and 
property if they fail. The National Dam Safety Program is a valuable 
program that offers assistance to states as an investment in public 
safety. One dam failure alone, as evidenced by the Silver Lake Dam 
failure in 2003, can easily exceed the $8.6 million authorized for this 
program. The National Dam Safety Program, administered by FEMA, is a 
modest and prudent investment protecting public safety.
    Therefore, the Association of State Dam Safety Officials 
respectfully requests that this Subcommittee increase the 
Administration's proposed funding for the National Dam Safety Program 
from $5.9 million to the full authorized level of $8.6 million; and 
further earmark these funds to be used only for the National Dam Safety 
Program in the Department of Homeland Security.
    Thank you Mr. Chairman and Members of the Subcommittee for this 
opportunity offer this testimony. The Association looks forward to 
working with you and the Subcommittee staff on this important issue of 
safe dams.

                                    TABLE 1.--ASSOCIATION OF STATE DAM SAFETY OFFICIALS--STATE-BY-STATE STATISTICS ON DAMS AND STATE SAFETY REGULATION--2004
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                              Total Dams in    Dams Under State Regulation         State-Determined Deficient Dams \3\       State Dam Safety     State Staff Dedicated to Dam
                                                National                   \2\              ------------------------------------------------  Budget (<greek-          Safety Regulation
                   State                      Inventory \1\ --------------------------------                                                   e> thousand)   ----------------------------------
                                               (2002 NID)         Total            HH             Total            HH              SH                              Total FTEs      Dams Per FTE
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama \4\................................           2,102               0             171              NA  ..............  ..............              $0                 0                 NA
Alaska.....................................             104              82              16              NR  ..............  ..............             105.5               1                 82
Arizona....................................             328             251              85              58              44              14             570.0               8                 31
Arkansas...................................           1,225             407             102              24              22               1             331.0               4.6               88
California.................................           1,471           1,225             335              57               2              26           7,800.0              61                 20
Colorado...................................           1,684           1,879             327             220              35              52           1,400.0              12                157
Connecticut \4\............................             720           2,000             236              12              NR              NR             472.0               4.3              465
Delaware \4\...............................              61              98               9              NR  ..............  ..............              NR                NR                 NR
Florida....................................             724         \4\ 778         \4\ 100             >20              NR              NR              NR                NR                 NR
Georgia \4\................................           4,470           3,412             399             105              NR              NR             682.0              10                341
Hawaii \4\.................................             122             129              56               0               0               0             135.0               2                 65
Idaho \4\..................................             393             439             106              NR  ..............  ..............             350.0               7.5               59
Illinois...................................           1,456           1,326             173             >22              13               9             345.0               5.5              241
Indiana....................................           1,069           1,129             238              NR  ..............  ..............             340.0               5                226
Iowa.......................................           3,249           3,303              74              16               8               7              55.0               1.25           2,642
Kansas.....................................           5,634           5,890             192              23              13              10             271.0               7.58             777
Kentucky...................................           1,051           1,002             175              88              36              35           1,600.0              14                 72
Louisiana..................................             357             465              13              17               1               3              NR                 9                 52
Maine......................................             641             843          \4\ 26              68               7              35          \4\ 46.0               1.5              562
Maryland...................................             291             355              63              10               1               5             416.6               5.5               65
Massachusetts..............................           1,490           2,917             333              40              22              18             500.0               4                729
Michigan...................................             943           1,039              80              18               3               7              NR                 4.8              216
Minnesota..................................             986           1,442              40             250               2              20             250.0               2.1              687
Mississippi................................           3,315           3,594             282              NR  ..............  ..............             137.8               4.5              799
Missouri...................................           4,854             640             445              15              11               4             192.9               4                160
Montana....................................           2,885           2,874             101             >11              11              NR             330.0               5.25             547
Nebraska...................................           2,179           2,173             113             130               7              48             289.0               5.67             383
Nevada.....................................             469             599             128             >29               5               4              NR                 2.25             266
New Hampshire..............................             645             838              86             590              63             159             612.0               7                120
New Jersey.................................             792           1,680             194             567              50             317           1,251.0              18                 93
New Mexico.................................             375             390             156              61              38              14             450.0               6                 65
New York \4\...............................            1964           5,021             380             >54              NR              NR             746.0               6.3              797
North Carolina.............................            2723           4,638           1,027             >61              NR              NR             902.0              17                273
North Dakota...............................             685           1,758              20              19               5              11             200.0               4.5              391
Ohio.......................................           1,325           1,727             462              NR  ..............  ..............           1,020.0              11                157
Oklahoma...................................           4,610           4,485             184               5               3               1             185.0               1.8            2,492
Oregon \4\.................................             820           3,733             122               0               0               0             255.0               3.1            1,204
Pennsylvania...............................           1,442           3,044             770             531              98              23           2,039.0              24                127
Puerto Rico................................              34              36              34               0               0               0             600.0               8                  5
Rhode Island...............................             185             565              16               0               0               0              99.6               1.2              471
South Carolina.............................           2,447           2,312             153               3              NR              NR              NR                 4.5              514
South Dakota...............................           2,377           2,328              47              >3               3              NR              NR                 2.5              931
Tennessee..................................           1,051             638             148               5               3               1             275.0               7                 91
Texas......................................           7,025           8,133             861              NR  ..............  ..............             300.0               5              1,627
Utah.......................................             752             649             192              82              82              NR             460.0               7                 93
Vermont....................................             354             538              55              NR  ..............  ..............             215.0               2.2              245
Virginia...................................           1,586             521             112              54              31              13             475.6               7                 74
Washington.................................             832             933             135              32              13              14             550.0               6.5              144
West Virginia..............................             543             362             266              38              35               3             454.5               6                 60
Wisconsin..................................           1,097           3,748             243              NR  ..............  ..............             487.0               6.25             600
Wyoming....................................           1,335           1,374              76               3               0               1             142.1               5.09             270
                                            ----------------------------------------------------------------------------------------------------------------------------------------------------
      TOTAL................................          79,272          89,742          10,157          >3,341             645             837          28,337.6             359.24         20,576
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes dams of any size that are likely to pose a significant threat to human life or property in case of failure, and all other Federal and non-Federal dams > 25 high that impound > 15
  acre feet; and dams > 6 high that impound > 50 acre-feet.
\2\ Estimated number of all dams under state regulatory control.
\3\ Dams with identified deficiencies by state definition (varies state to state) derived from state inventory in column 2.
\4\ 2003 data
NR-Not Reporting. Some states do not keep data on these categories.

  Prepared Statement of the Association of State Floodplain Managers, 
                                  Inc.

    The Association of State Floodplain Managers, Inc. (ASFPM) is 
pleased to share comments on four specific aspects of the fiscal year 
2005 budget proposal for the Department of Homeland Security, Emergency 
Preparedness and Response Directorate (FEMA):
  --Restoration of 15 percent formula for Hazard Mitigation Grant 
        Program funding;
  --Protection of NFIP funds from transfer for other purposes;
  --Support for continued funding for modernization of flood maps;
  --Urge increase in NFIP Community Assistance Program funds for state 
        technical assistance;
  --Urge appropriation of funds to address the NFIP's repetitive loss 
        problem, given imminently pending authorizing legislation; and
  --Continue to retain a separate account for the Flood Mitigation 
        Assistance Program.
  --Monitor how the Department of Homeland Security addresses natural 
        hazards and mitigation.
    The Association of State Floodplain Managers, Inc. and its 19 state 
chapters represent over 6,500 State, local, and private sector 
officials as well as other professionals who are engaged in all aspects 
of floodplain management and hazard mitigation. All are concerned with 
reducing our Nation's flood-related losses and reducing the costs of 
flooding.

 RESTORATION OF 15 PERCENT FORMULA FOR HAZARD MITIGATION GRANT PROGRAM

    ASFPM urges restoration of the 15 percent formula used to determine 
amounts made available post-disaster for the Hazard Mitigation Grant 
Program (HMGP) authorized by the Stafford Act as Section 404. States 
across the country have evidence that the most effective time to garner 
support for mitigation projects is in the aftermath of disasters. While 
mitigation planning is a vital activity to identify hazards and 
potential risks, only actual damaging events generate significant 
public interest and State and local financial support. The fact is that 
most cities, counties and towns across the country have many immediate 
and pressing financial needs. Regardless of the statistical evidence of 
the likelihood of future disaster occurrence, communities will not 
place mitigation higher than today's demands for education, social 
programs, local first responders, and the like. This is especially true 
in smaller communities where financial resources are always tight.
    On the proverbial ``sunny day,'' flooding is a low priority for the 
millions of homeowners and business owners in the Nation's flood hazard 
areas--regardless of the mounting evidence that future floods will 
occur. Homeowners and business owners view offers for buyouts, 
elevations, and retrofit floodproofing very differently when they are 
shoveling mud, coping with toxic mold, or faced with collapsed 
foundations. Restoring HMGP to the 15 percent formula will provide 
resources to those who have just experienced damage and are most 
receptive to change.
    Pre-disaster funding should be directed to community-based planning 
in order to prepare communities to undertake mitigation projects when 
the disaster strikes. It would also be reasonable to make pre-disaster 
mitigation funds available to support public projects that address at-
risk State and community buildings and public infrastructure--among the 
more costly categories of public disaster assistance. These projects, 
which do not require direct and voluntary participation of property 
owners, can readily be designed and implemented in the pre-disaster 
context and provide broad public benefits.
  --ASFPM urges the Subcommittee to restore the Hazard Mitigation Grant 
        Program formula to 15 percent of certain Federal disaster 
        expenditures. The Disaster Mitigation Assistance Act of 2000 
        calls for communities to have pre-disaster local mitigation 
        plans in order to access HMGP. One result of this requirement 
        is that communities will be better prepared to identify 
        eligible activities after the next declared disaster, thus 
        further shortening the time needed to obligate and expend the 
        HMGP funds.
  --ASFPM recommends that the Subcommittee fully investigate the 
        implications of the nationwide pre-disaster program funded in 
        fiscal year 2003. Initiated in 2002 as a pilot program, the 
        pre-disaster mitigation program was not, as originally 
        intended, evaluated prior to authorization of PDM in the 
        Disaster Mitigation Action of 2000. Particular attention should 
        be paid to citizen, community and State receptivity to 
        mitigation offers and how the ability to provide the non-
        Federal cost share differs in the pre- and post-disaster 
        periods. Another critical aspect to attend to is whether and 
        how FEMA balanced different hazards, different geographic 
        areas, and communities of different sizes and capabilities.
          protect nfip funds from transfer for other purposes
    The National Flood Insurance Program (NFIP) collects premiums and 
policy service fees from just 4.4 million flood insurance 
policyholders. These funds are authorized for specific purposes 
directly related to administration of the NFIP. Certain Federal 
employees are supported by these funds, as are such activities as the 
Flood Mitigation Assistance grant program, grants to States to provide 
technical assistance to local governments, and flood mapping. Because 
these funds are not general taxpayer funds, it is vital that they are 
used only for the specific purposes for which they are collected.
  --ASFPM urges the Subcommittee to require DHS to disclose funds 
        collected from NFIP policyholders that have been transferred 
        for other purposes. We further urge the Subcommittee to 
        prohibit the transfer of NFIP funds, and funds authorized and 
        appropriated for the Map Modernization Initiative, for other 
        purposes by DHS.
  --ASFPM urges the Subcommittee to require DHS to report on the use of 
        certain NFIP funds to support Federal employees, specifically, 
        the number of such positions, where they are located, how many 
        are vacant and for what period of time, and how those specific 
        positions directly support the NFIP.

              CONTINUE SUPPORT FOR FLOOD MAP MODERNIZATION

    Good flood maps play a major role in disaster cost reduction 
through wise floodplain management and are use for many purposes beyond 
the immediate needs of the National Flood Insurance Program. FEMA 
estimates that local regulation of flood hazard areas, using the flood 
maps, avoids property losses of over $1 billion each year. FEMA's 
estimate does not count the benefits associated with using the maps to 
guide development to less hazard-prone areas. Flood maps yield benefits 
at all levels of government, including reducing the need for Federal 
disaster assistance when people build elsewhere or build to minimize 
damage.
    Initiated with the fiscal year 2003 appropriation of $200 million 
for the multi-year Flood Map Modernization effort, FEMA and States will 
use current technologies to expedite cost-effective collection of 
mapping data and to develop the models to identify flood-prone areas. 
This will yield digitized map products that will be accessible on the 
Internet and reduce future costs associated with ongoing map revisions 
and updates.
  --ASFPM strongly endorses the Administration's request for $200 
        million and urges the Subcommittee to request that FEMA report 
        on technical partnerships that are forming with States and 
        communities, incentives offered to foster those partnerships, 
        and to revisit the time and cost estimates for completion of 
        the initiative.
  --ASFPM urges the Subcommittee to express its expectation that FEMA 
        will address State-identified priorities and that quality data 
        and quality maps are the objective--rather than focus only on 
        the quantity or the average age of maps. High quality products 
        also serve as incentives and justification for investment of 
        State and local funds.

 INCREASE NFIP COMMUNITY ASSISTANCE PROGRAM FUNDS FOR STATE TECHNICAL 
                               ASSISTANCE

    The Community Assistance Program (CAP), funded by 4.4 million NFIP 
flood insurance policyholders, provides small, cost-shared grants that 
provide partial support of State floodplain programs that, in turn, 
provide technical assistance to nearly 20,000 local jurisdictions that 
administer the NFIP's minimum floodplain management regulations. CAP is 
critical because the best way to limit increases in future flood damage 
is to build State capability to work with and train local officials to 
ensure that developers comply with the rules and post-flood recovery is 
undertaken properly. FEMA's staff is too small to provide this vital 
assistance to nearly every community in the country, thus the 
partnership with States was established. In 1995, CAP was funded at 
$4.2 million which, even then, was insufficient to establish adequate 
capacity in every State.
    Currently, CAP stands at $7 million. Although the increased funding 
has improved state capacity and capability to meet the demand, the 
increased workload of state floodplain management offices has far 
outstripped the increased funding. The increased state workload is due 
to the following factors: more demand for technical assistance and 
training of local officials; nationwide emphasis on pre- and post-
disaster planning and coordination; more communities participating in 
the NFIP; significant increases in the number of properties insured by 
the NFIP; and decreases in FEMA staff, which shifts even more 
programmatic responsibilities to the States. Importantly, the FEMA Map 
Modernization program is generating extreme demands for assistance and 
coordination (implementation is expected to last at least 7 years). It 
is reasonable to predict that Map Modernization program alone will 
necessitate at least one additional full time employee in each State 
floodplain management office, which would require approximately $3.75 
million.
  --ASFPM urges increasing CAP funding to $10 million in order to 
        increase the technical assistance and training the states 
        provide to the 20,000 communities in the NFIP as FEMA's 
        partners, and to successfully implement the Map Modernization 
        Program.

   EXPECT AUTHORIZATION TO ADDRESS THE NFIP'S REPETITIVE LOSS PROBLEM

    The National Flood Insurance Program's authorization is due to 
expire on June 30, 2004. On November 20, 2003, the House of 
Representatives passed the Flood Insurance Reform Act of 2003 (HR 253) 
and the Senate Subcommittee on Economic Policy recently marked up the 
companion bill (S. 2238). FEMA has characterized the disproportionate 
amount of claims paid on a very small percentage of NFIP-insured 
properties as the most significant factor that drives increases in the 
cost of flood insurance. Having more flood-prone homes and businesses 
insured by the NFIP is an effective way to reduce the Federal burden of 
disaster assistance.
    Both the House and Senate bills authorize augmentation of the 
existing Flood Mitigation Assistance grant programs to focus on 
repetitive loss problem, and both bills authorize the transfer of funds 
from the National Flood Insurance Fund (generated by premium and fee 
income). The Flood Mitigation Assistance program is mature, with 
virtually all states currently active to some degree, therefore new 
funds can be used immediately. Because the NFIP must be reauthorized 
and extended before June 30, 2004, action on the bills is expected 
before work on appropriations is completed.
  --ASFPM requests that the Subcommittee monitor progress on the Flood 
        Insurance Reform Act of 2004. If the S. 2238 passes prior to 
        final action on the fiscal year 2005 budget, ASFPM urges the 
        Subcommittee to include in the fiscal year 2005 budget the 
        authorized transfer of funds from the National Flood Insurance 
        Fund to the National Flood Mitigation Fund.
  --Continue to Retain A Separate Account for the Flood Mitigation 
        Assistance Program
    The ASFPM appreciates direction in the fiscal year 2004 
appropriations that FEMA maintain the Flood Mitigation Assistance 
Program (FMA) funds separate from other mitigation funds. FMA was 
authorized by the National Flood Insurance Reform Act of 1994, which 
also created the National Flood Mitigation Fund as a separate account. 
FMA is not supported with general funds, but is funded entirely by a 
portion of the service fee collected from the 4.4 million flood 
insurance policies. Therefore, the ASFPM is concerned with the 
Administration's proposal to combine FMA funds with other mitigation 
funds, even to achieve accounting efficiencies. To ensure 
accountability to the policyholders and to ensure that these funds are 
used only for the explicit purposes authorized, the FMA funds are best 
kept separate. In particular, how FMA is administered must not be 
changed. FMA is specifically intended to support cost containment for 
the NFIP, in part by addressing the problem characterized as repetitive 
losses, but also to mitigate against severe flood damage and imminent 
threats due to coastal erosion.
  --ASFPM urges the Subcommittee to clarify--again--that Flood 
        Mitigation Assistance Program funds in the National Flood 
        Mitigation Fund are not to be co-mingled with pre-disaster 
        mitigation funds.

   MONITOR HOW THE DEPARTMENT OF HOMELAND SECURITY ADDRESSES NATURAL 
                         HAZARDS AND MITIGATION

    Millions of Americans are at risk--every day--of experiencing 
floods, tornados, earthquakes, hurricanes, wildfires, severe winter 
storms, and other natural hazards. From a broad perspective, ASFPM is 
disturbed that the Department of Homeland Security has deliberately 
diminished focus on natural hazards. Despite continued verbal 
assertions of commitment to FEMA's all-hazards mission, DHS has reduced 
cohesiveness of programs and reduced staff who deal with hazards and 
mitigation. The following are specific concerns: transferring FEMA 
funds to areas of DHS that are not under the jurisdiction of the Under 
Secretary for Emergency Preparedness & Response; detailing FEMA staff 
out of that directorate; and reducing support for the vital network of 
State and local public safety and disaster mitigation officials.
  --ASFPM urges the Subcommittee to monitor DHS proposals and actions 
        that affect FEMA programs and staff to prevent unwise and 
        unnecessary reduction in FEMA's effectiveness, which in turn 
        will jeopardize State and local efforts to deal with natural 
        hazards and mitigation.
                                 ______
                                 

   Prepared Statement of the International Association of Emergency 
                                Managers

    Chairman Cochran, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for this opportunity to provide a statement 
for the record regarding the fiscal year 2005 budget proposal for the 
Department of Homeland Security.
    My name is Daryl Lee Spiewak, and I am the emergency programs 
manager for the Brazos River Authority in Waco, Texas. I am a certified 
emergency manager, a certified Texas emergency manager, and a Texas 
certified floodplain manager. I currently serve as the President of the 
International Association of Emergency Managers (IAEM). Our over 2,000 
members include emergency management professionals at the State and 
local government levels, the military, private business and the 
nonprofit sector in the United States and in other countries. Most of 
our members are city and county emergency managers who perform the 
crucial function of coordinating and integrating the efforts at the 
local level to prepare for, mitigate the effects of, respond to, and 
recover from all types of disasters including terrorist attacks.
    We respectfully submit suggestions on two particular issues 
relating to the Department of Homeland Security budget for 2005.
Emergency Management Performance Grants (EMPG)
  --Reject administration request to cap at 25 percent amount which can 
        be used for personnel.
  --Request that the funding cut be rejected and the amount increased.
  --Request the program retain all hazards emphasis, including 
        terrorism.
  --Urge that funding be specifically designated in the Appropriations 
        Bill and maintained as a separate account.
Hazard Mitigation Grant Program (HMGP)
  --Urge the Committee to return the funding level to 15 percent of 
        certain eligible disaster costs.
    In addition, we would like to offer our support for the 
Administration's request for $200 million to continue the Map 
Modernization program and for the $150 million request to continue the 
PreDisaster Mitigation program.
Emergency Management Performance Grants
    The Emergency Management Performance Grants (EMPG) are pass-through 
funds to State and local emergency management offices to provide a 
foundation for basic emergency preparedness and response capabilities. 
Congressional report language has referred to the program as ``the 
backbone of the Nation's emergency management system.'' This funding 
has existed in the past under several different names such as the 
Emergency Management Assistance Program and State and Local Assistance 
Program which were actually more appropriate names. This program is 
different from most grants, in that it is a continuing program with 
deliverables and requirements which must be met in order to receive 
funding the following year.
    We very much appreciated the support of the House and Senate 
Appropriations Committees for EMPG in the fiscal year 2004 Department 
of Homeland Security Appropriations Bill. Congress specifically 
designated funds in a separate account, increased the amount from the 
fiscal year 2002 level to $179 million; specifically indicated the 
funds could continue to be used for personnel costs and supported the 
all hazards approach. The House Report recognized that ``State and 
local emergency managers rely on these funds for a variety of expenses, 
but predominately for personnel who plan, train, coordinate, and 
conduct exercises and other functions essential to effective 
preparedness, mitigation, response, and recovery efforts.''
    Reject Cap on Expenditures for Personnel.--Since the purpose of the 
program is to provide support for State and local emergency management 
personnel, the Administration's request to cap the amount of funds 
which can be used for personnel at 25 percent of each grant is 
puzzling. Since the functions of emergency management are almost 100 
percent personnel driven, such as planning, coordinating, exercise 
design, training, and public education, the effect of the 25 percent 
cap would be devastating. States have estimated that this cap would 
result in potential losses of up to 60 percent of their emergency 
management staff. In some localities it would result in the elimination 
of whole programs. We would be cutting capacity at the very time we 
need to be building capacity.
    Perhaps to put this proposed cap in perspective one could consider 
the effect on the functioning of a Congressional office or a 
Congressional Committee if directions were given to only spend 25 
percent of the funds received for running the offices on personnel and 
administrative costs.
    Reject Funding Cut and Increase Funding.--Historically, funding for 
EMPG has been inadequate. The program was intended to be 50 percent 
Federal and 50 percent State or local funding. Currently many 
jurisdictions receive 20 percent or less. Some jurisdictions do not 
receive any EMPG monies due to inadequate funding levels. State and 
local emergency management programs are in desperate need of financial 
support if they are to continue to meet the requirements of all hazard 
planning and coordination as well as implement the President's homeland 
security strategy in States, counties, cities and neighborhoods across 
America. The new security concerns arising from the current world 
situation make the coordination and unifying role served by emergency 
managers more important than ever. Given continued support and funding, 
emergency managers have the skills, the expertise, and the willingness 
to rise to the planning and coordinating challenges presented by the 
full range of hazards affecting their communities.
    We respectfully request that the $9 million reduction in the 
President's request be rejected and that the funding be increased. A 
2004 study by the National Emergency Management Association (NEMA) 
indicates that at the 50-50 shared cost level there is a $245 million 
shortfall.
    Maintain the All Hazards Approach.--Legislative language is 
included in the Administration's 2005 request giving ``priority to 
homeland security activities.'' The simple fact is that almost all 
emergency management activity creates a generic capacity to deal with 
crises. For nearly 50 years, the Federal Government has provided 
funding assistance to State and local governments to support a 
comprehensive national emergency management system. During that time, 
the Federal emphasis has shifted on numerous occasions and our members 
have adjusted programs accordingly. There is no doubt that ``homeland 
security'' (currently, although we believe, incorrectly, defined as 
terrorism) has priority today, but the proposed language certainly has 
the potential to limit the ability of the emergency management system 
to adjust to changes in the future and is therefore problematic.
Hazard Mitigation Grant Program
    Restore Hazard Mitigation Grant Program (HMGP) to 15 percent. The 
Hazard Mitigation Grant Program in the Emergency Preparedness and 
Response Directorate provides post disaster mitigation funding. The 
program is authorized in Section 404 of the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act (Public Law 93-288) and the monies 
are provided from the President's Disaster Relief Fund. We appreciate 
the House and Senate Appropriations Committees retaining the program 
rather than terminating it as requested in the Administration's Budget 
requests in fiscal year 2003 and fiscal year 2004. However, the fiscal 
year 2003 Omnibus Appropriations bill changed the formula used to 
determine hazard mitigation funding from 15 percent to 7.5 percent of 
eligible disaster costs. In order to reduce future disaster costs, 
commitments must be made to both pre-disaster and post disaster 
mitigation. Citizens and elected officials are most receptive to 
undertaking projects and initiatives that reduce the impacts of future 
disasters immediately after a disaster has occurred. Without the HMGP 
funding, those opportunities will be missed.
    The House unanimously passed H.R. 3181 in November of 2003 which 
would have restored the funding to 15 percent. This bill is pending in 
the Senate Environment and Public Works Committee and at this time it 
is not known if action will be completed given the limited time left in 
this legislative session. We, therefore, urge that the HMGP program be 
restored to 15 percent.
Flood map Modernization and PreDisaster Mitigation
    IAEM supports the Administration's request for $200 million for 
flood map modernization. Flood maps play a key role in disaster 
reduction, mitigation, and community planning and development 
activities. Many of the flood maps in place are 15 to 30 years old and 
do not reflect recent development and may contain inaccurate 
information about the floodplains as a result. FEMA estimated the cost 
of a multi-year map modernization plan at $750 million over a 7-year 
period. We support this multi-year effort.
    IAEM supports the Administration's request for $150 million for 
predisaster mitigation. We believe that both predisaster and post 
disaster funds are important for reducing future disaster costs. We 
support administrative funds being available to FEMA to administer the 
program and urge that FEMA review and streamline the application 
process.
    Thank you for giving us the opportunity to provide this testimony. 
We would welcome the opportunity to provide additional information to 
the Subcommittee.
                                 ______
                                 

  Prepared Statement of the National Emergency Management Association

Introduction
    Thank you Chairman Cochran, Ranking Member Byrd, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with a statement for the record on the Department of Homeland Security 
(DHS) fiscal year 2005 budget. I am Edward F. Jacoby, Jr., President of 
the National Emergency Management Association and Director of the New 
York State Emergency Management Office. In my statement, I am 
representing the National Emergency Management Association (NEMA), 
whose members are the state emergency management directors in the 50 
States and the U.S. territories. NEMA's members are responsible to 
their governors for emergency preparedness, homeland security, 
mitigation, response, and recovery activities for natural, man-made, 
and terrorist caused disasters.
    At this time, the Department of Homeland Security has been in place 
for over a year and the state of emergency management in our Nation is 
of grave concern. Each day, State and local governments are responding 
to natural and man-made disasters, the threat of terrorism remains 
elevated while fortunately, actual terrorism incidents remain sporadic 
on U.S. soil. The multi-hazards emergency system continues to be the 
means to practice and exercise for devastating acts of terrorism, while 
at the same time preparing the Nation for hurricanes, tornadoes, 
hazardous materials spills, and floods. Yet, all-hazards preparedness 
may be a thing of the past as more focus is being placed on terrorism. 
We must ensure that our capability to deal with many hazards, including 
terrorism remains intact and that we do not shift our focus to 
preparedness for a single peril.
    The capability to coordinate an effective response to an event does 
not change by the type of disaster. The all-hazards approach relies 
upon the maintenance of plans, trained personnel to carry them out, and 
supporting infrastructure in the form of emergency operations 
facilities with inter-operable communications. We must continue this 
approach in practicing and exercising for devastating acts of 
terrorism, as well as day-to-day emergencies. We cannot afford to lose 
the system we have in place to deal with all disasters in order to 
build new infrastructure for homeland security's sake.
    The Department of Homeland Security budget provides critical 
support to State and local emergency management programs through actual 
dollars, grants, and program support. This year, NEMA would like to 
address three main issues with the proposed Federal budget for 
Department of Homeland Security.
  --Extreme concern for the 25 percent cap on personnel use and the cut 
        to the Emergency Management Performance Grant (EMPG) program;
  --Support for continuing and enhancing the Homeland Security Grants, 
        which must be coordinated and managed through the States; and
  --Concern about the reduced formula for the post-disaster Hazard 
        Mitigation Grant Program (HMGP).

              EMERGENCY MANAGEMENT INFRASTRUCTURE FUNDING

    The Emergency Management Performance Grant (EMPG) is the single 
all-hazards emergency preparedness grant program in support of capacity 
building at the State and local level. While the State and local 
government partnership with the Federal Government to ensure 
preparedness dates back to the civil defense era, increased 
responsibilities over the last decade have fallen on State and local 
governments. With the recent expanded focus on terrorism and the 
increased demands of the Federal Government to assist in the National 
Strategy for Homeland Security, EMPG is the vital source of funding to 
assist State and local governments in ensuring that the infrastructure 
is in place to address all of the traditional hazards that threaten 
communities--including terrorism.
    More than any other intergovernmental program, emergency management 
and disaster response are a joint and shared responsibility among all 
levels of government. The increase or decrease in resources for one 
level has a direct impact on the other partners. For example, a 
decrease in the capability of local governments to respond to any 
disaster automatically passes the burden of cost and long-term 
redevelopment activities to the State, and then to the Federal 
Government. Unfortunately, the consequences of such policies are much 
more significant in terms of the effects of disasters on our citizens 
and communities. The inability to respond to life-threatening 
emergencies by the local government cannot be replaced by efforts at 
the State and Federal levels. Likewise, the basic elements of 
comprehensive emergency preparedness cannot be replaced by narrow 
program funding for homeland security efforts.
    The President's budget proposal will have a devastating impact on 
the Nation's emergency management system at the same time that 
responsibilities are increasing for new and emerging hazards. The 
proposal decreases funding for the EMPG program by $9 million, 
increases the focus on terrorism, and most destructively, the proposal 
imposes a 25 percent cap on personnel uses of the EMPG grants. Over the 
last 2 years, Congress has affirmed the importance of EMPG in 
appropriations bills in language addressing the significance of the 
program and increased the levels of funding for the program twice. 
Prior to these increases in fiscal year 2003 and 2004, the program had 
been straight lined for over a decade. NEMA is appreciative of 
Congress' recognition of the EMPG program, but this year we 
respectfully ask that Congress not only address the programs 
shortfalls, but maintain the EMPG multi-hazard approach and the 
program's flexibility to be used for personnel without arbitrary 
constraints.
    EMPG is the only all-hazards program that State and local 
governments can use to build their emergency management capacity. The 
grants can be used for personnel, planning, training, exercises, 
warning systems, emergency operations centers, public outreach, and 
interagency coordination. EMPG is a flexible program that allows State 
and local governments to tailor funds to address the specific risks and 
needs of their jurisdiction. While it is called a grant, EMPG is really 
a cost-share system which ties together the emergency management system 
of local, State, and Federal Governments. EMPG's modest Federal 
increases in 2003 and 2004 helped the program grow, but the program 
continues to be funded at greater levels by State and local 
governments. States are continuing to increase their out of pocket 
costs in order to ensure there is adequate funding for local programs. 
In fact, a 2004 NEMA study found that there is approximately a $245.9 
million shortfall in EMPG for all 50 States. This means that many 
communities that would like to implement a full-time, professional 
emergency management capability cannot do so because of shortfalls in 
Federal funding. Further, EMPG is primarily used as a pass-through 
program for local governments, so the shortfall affects our smallest 
localities that are often those most in need of emergency preparedness 
planning.
    Changing the focus of the program to terrorism could severely 
hamper the ability of State and local government capabilities to 
respond to a wide range of events with a higher likelihood of occurring 
such as natural disasters, non-traditional disasters like the Columbia 
Space Shuttle explosion, Mad Cow disease, West Nile virus, civil 
unrest, and hazardous material incidents. An increased homeland 
security focus must be viewed as an enhancement to our basic emergency 
management capacity. Success in building vigorous and robust 
capabilities for homeland security will be sabotaged by taking away the 
basic building blocks of the emergency management system. While 
terrorism is a major focus at this time, we must balance preparedness 
efforts by integrating terrorism as one of the many threats facing our 
Nation, rather than the current approach of making all other 
preparedness efforts a subset of terrorism. Further, Homeland Security 
Presidential Directive 8 States that, ``to the extent permitted by law, 
Federal preparedness assistance will be predicated on the adoption of 
statewide comprehensive all-hazards preparedness strategies.'' The all-
hazards approach cannot be dismissed based upon the assumption that one 
threat is greater and more significant than the other. After all, no 
one really has a crystal ball to predict what the next disaster or 
emergency may be. However, last year there were no terrorism disaster 
declarations and 56 major disaster declarations, 19 emergency 
declarations, and 46 fire suppressions declarations. Our system for 
day-to-day public safety and homeland security must be mutually 
supportive and nimble enough to address any hazard.
    The most significant attack on the way that emergency management 
functions in this country is the proposal to cap personnel costs for 
EMPG at 25 percent. The cap will result in immediate, near-term and 
long-term degradations in the Nation's ability to effectively address 
emergencies and disasters. Citizens and communities that handled 
emergencies locally may no longer be able to do so and the 
responsibility and costs will be passed to the next higher level of 
government. But the costs will be greater, more frequent, and more 
dramatic. A 2003 NEMA survey on EMPG found that 1,565.5 or 42.9 percent 
of state level full time positions are supported in part by EMPG funds. 
Eighty-three part-time state emergency management personnel are funded 
in part or entirely with EMPG funds. At the local level, 2,172 full-
time positions and 1,184 part-time positions are supported by EMPG. 
States are reporting to NEMA potential losses of up to 60 percent of 
their emergency management personnel should this arbitrary cap be 
imposed. A snap-shot of the impact in Mississippi shows that 75 percent 
of state emergency management personnel and 95 percent of local 
emergency management personnel are funded by the program and both 
programs would have to sustain significant cuts under the proposal. In 
West Virginia, the cap could cost the State 18 full-time employees from 
emergency management and 38 full-time employees in local positions for 
emergency management. While the Administration explains that this 
measure would allow for more training and exercises, we find it hard to 
understand how extra training and exercises could be accomplished with 
less man-power. Emergency management personnel, particularly at the 
local level, provide the coordination function for all disaster and 
emergency response. How can we expect the response to terrorism to be 
effective and efficient without proper coordination among responders?
    The Federal Government must continue the commitment to ensuring 
national security though all-hazard preparedness. Without adequate 
numbers of State and local personnel to operate the all-hazards 
emergency management system, the infrastructure used to prevent, 
prepare for, respond to, and recover from all disasters will collapse. 
Congress must affirm the intent of the program and also ensure 
predictable funding levels for the program.

                    HOMELAND SECURITY GRANT PROGRAM

    Congress has made significant attempts to ensure that the Homeland 
Security Grant Program is streamlined and provides greater flexibility. 
We appreciate the attention and funding that the Congress has given to 
ensuring emergency responders are adequately prepared for domestic 
terrorism threats. Emergency responders are better prepared today to 
face the various threats associated with terrorism because of the 
Federal commitment to address the war on terrorism that is being played 
out in our States, cities, and towns. States continue to take an all-
hazards approach to disaster preparedness as we have integrated our 
domestic preparedness efforts into the proven systems we already use 
for dealing with both man-made and natural disasters.
Funding Levels
    This year, we are concerned about the President's budget proposal 
for homeland security that would cut over $600 million in funding that 
has been dedicated to improving emergency responder preparedness for 
homeland security. The Federal Government must maintain its commitment 
to ensure that homeland security preparedness continues and the 
Constitutional responsibility to maintain a national defense is not 
compromised. Continuity of effort can only be maintained by State and 
local governments with adequate Federal support, especially when it 
deals with the front line emergency responders. Reductions in funding 
will immediately be translated into reductions in prevention, 
protection, and preparedness activities. We cannot afford to lose the 
strides that we have already made in protecting our country by limiting 
funding, where more is still necessary to achieve the objectives in the 
National Strategy for Homeland Security. The funding level must be 
appropriately increased to address areas where shortfalls exist. 
Further, continued or increased funding should not take away from 
traditional all-hazards capacity building programs for public safety, 
public health, and emergency management.

One Stop Shop for Grants Information
    The Congressionally created and appointed Advisory Panel to Assess 
Domestic Response Capabilities for Terrorism Involving Weapons of Mass 
Destruction (known as the Gilmore Commission) initially said a 
``Federal focal point and clearinghouse for related preparedness 
information and for directing State and local entities to appropriate 
Federal agencies is needed,'' in their first report to Congress on 
December 15, 1999. NEMA affirmed the notion of a single visible point 
of contact and coordination of information for State and local 
governments in the August 25, 2000 Resolution on States' Principles for 
a National Domestic Preparedness Strategy.

Congressional Legislation to Simplify the Grants Process
    As Congress considers legislation to address and reform the 
Homeland Security Grants, we ask that you take NEMA's suggestions into 
consideration. The suggestions include the following:
  --All efforts to increase emergency management capacity must be 
        coordinated through the states to ensure harmonization with the 
        state emergency operations plan, ensure equitable distribution 
        of resources, and to synthesize resources for intra-state and 
        inter-state mutual aid. Also, the Stafford Act, which governs 
        the way disaster assistance is allocated, successfully uses 
        States and Governors as the managers of Federal disaster relief 
        funds for local governments, which can become overwhelmed and 
        in need of assistance when disasters occur.
  --States understand the need to get funding quickly to the first 
        responders and have long coordinated statewide and regionally 
        to ensure adequate state assistance to local governments for 
        emergency preparedness and response;
  --Each State must have a base minimum level of funding to ensure the 
        capacity to respond to any event. Such capacity is necessary 
        for homeland security because of the changing nature of the 
        threat and also because of the importance our emergency system 
        places on mutual aid to respond to events;
  --Traditional emergency management capacity building programs like 
        EMPG must be continued as separate and distinct from the 
        homeland security grants programs;
  --Duplicative requirements in the grants process must be eliminated 
        and flexibility in the use of the grants must be enhanced; and
  --Federal streamlining is necessary to consolidate the Federal grant 
        application process for homeland security funds in order to 
        ensure that funding can be provided faster to first responders. 
        The current application submission, review, and approval 
        process is lengthy and should be reviewed for efficiency.

Fiscal Conditions and Match Requirements
    Further, because the war on terrorism is a national emergency and 
States and local governments continue to be in the toughest fiscal 
situations since the deep recession in the early 1980s, we must be wary 
of programs that would require significant matches. In fact, for local 
governments to meet the match would be even more difficult given their 
fiscal constraints. If a significant match is required, the application 
of this initiative will only go to those agencies and governments that 
can fiscally afford the match and not necessarily where the need is 
greatest. If a match is necessary, we would suggest that the match be 
non-fiscal or in the form of a deliverable as opposed to soft or hard 
dollars. We also recommend continuation of the current match 
requirements for Emergency Operations Centers enhancements of 75 
percent Federal and 25 percent State and local. Waivers may be a way 
for the Federal Government to also address the lack of capital for a 
match when State and local governments are experiencing fiscal 
distress.

Flexibility for Personnel to Manage the Program
    Greater flexibility to use some of the first responder grants for 
personnel both at the State and local level to manage the programs is 
critical to completing the preparedness mission. As an existing funding 
stream, EMPG is used in part to fund State and local staff to manage 
critical programs including the homeland security grants. The First 
Responder Grants should recognize that personnel are necessary to 
manage these programs, particularly when rigid deadlines are set for 
obligating millions of dollars and accountability is paramount. State 
and local government, emergency management, and responder organizations 
are already working at a maximum capacity within existing resources and 
need Federal support for more than the purchase of equipment. 
Flexibility based on strategic approaches should be the norm, not 
single-issue, narrowly focused grants.

Standards and Strategy
    NEMA has long supported the development of standards to ensure 
interoperability of equipment, communications, and training across 
State, regional, and local jurisdictions. In terms of establishing 
voluntary minimum standards for the terrorism preparedness programs of 
State and local governments, NEMA offers itself as a resource in this 
area. Our organization, along with other stakeholder groups such as the 
Federal Emergency Management Agency, International Association of 
Emergency Managers, National Governors' Association, National 
Association of Counties, International Association of Fire Chiefs, and 
others, has developed and implemented the Emergency Management 
Accreditation Program (EMAP). EMAP is a voluntary standards and 
accreditation program for State and local emergency management that is 
based on NFPA (National Fire Protection Association) 1,600 ``Standard 
for Disaster/Emergency Management and Business Continuity Operations'' 
(an ANSI or American National Standards Institute approved standard) 
and FEMA's Capability Assessment of Readiness (CAR). EMAP is currently 
conducting baseline capability assessments of all states, some of which 
are pursuing accreditation in conjunction with this initial assessment. 
The State of Florida and the District of Columbia were granted 
accreditation through the program. NEMA suggests that these standards 
already being collaboratively developed through EMAP be considered in 
the development of minimum standards for training, exercises and 
equipment. The EMAP baseline capability assessment process should also 
be considered as a model when considering changes or refinements to 
other assessment processes conducted by the Department of Homeland 
Security.
    Further, NEMA has called for a long-term strategy for our Nation's 
homeland security that becomes the ``roadmap'' for the future of our 
Nation on homeland security. Such an effort must define the ``new 
normalcy'' and also address what State and local governments must 
accomplish in order to be prepared for a homeland security event. NEMA 
sees a role for the Gilmore Commission or a similar body to undertake 
the development of such a National Long-Term Strategy for Homeland 
Security. Such an effort must include input from State and local 
stakeholders.

        HAZARD MITIGATION GRANT PROGRAM & PREDISASTER MITIGATION

    NEMA supports efforts by the Congress and the Administration to 
continue both pre- and post-disaster mitigation activities. The two-
pronged effort can help to address Federal costs towards disasters, 
because both programs can help to lower overall disaster costs. NEMA 
calls on Congress to reauthorize the predisaster mitigation program 
before December 31, 2004 and to also restore the post-disaster Hazard 
Mitigation Grant Program (HMGP) formula to 15 percent.
    Effective February 20, 2003, Congress changed the formula for post-
disaster mitigation grants from 15 percent to 7.5 percent. This change 
limits the availability of funds for post-disaster mitigation and 
prevents the lessons learned from disasters from being immediately 
incorporated into mitigation projects to prevent losses of life and 
destruction of property. As a result, State governments no longer can 
offer property buy-outs or other mitigation measures to as many 
disaster victims. The months immediately following disasters provide 
unique opportunities to efficiently incorporate risk reduction measures 
in a very cost-effective manner, in many cases lowering the overall 
cost of the project by leveraging other funding sources including 
insurance settlements. We ask that you restore the formula to 15 
percent this year in order to address mitigation needs.
    Some of the most vivid examples of projects that were not funded in 
fiscal year 2003 because of the formula reduction include HMGP projects 
from recent disasters. These properties and projects will remain 
vulnerable with continued risk in future disasters. Some of these 
include:
  --3 acquisitions, 7 elevations, and 7 flood proofing projects for 
        properties flooded during Hurricane Isabel and Tropical Storm 
        Henri in Delaware;
  --3 outdoor warning siren proposals, one acquisition project for 18 
        structures, and one stormwater handling system improvement 
        project as a result of a flood declaration in Kentucky;
  --over 88 families who were flood victims remain untouched by post-
        disaster mitigation in West Virginia because of the formula 
        change; and
  --over $18.5 million in projects resulting from Hurricane Isabel will 
        remain unfunded in Maryland as a result of the lack of post-
        disaster funds.
    The HMGP has proven to be a highly effective tool in steering 
communities toward risk reduction measures, in many cases breaking 
repetitive loss cycles that have cost other Federal disaster relief 
programs multiple times. Cost-benefit analysis is currently a 
requirement for predisaster mitigation programs. We must not lose these 
opportunities to initiate projects to enhance our communities and 
reduce future disaster costs.

                      EMERGENCY OPERATIONS CENTERS

    In fiscal year 2002, $56 million was appropriated to the Federal 
Emergency Management Agency to address Emergency Operations Centers 
(EOCs) improvements. EOCs are the coordination point for State and 
local government in the response and recovery of any disaster or 
incident. After September 11, 2001, NEMA's members saw an implicit and 
urgent need to upgrade the Nation's emergency infrastructure and to 
make it more redundant. After all, the New York City EOC was destroyed 
on that very day as it stood within the World Trade Center 7 Complex. 
The coordinated response effort of the NY State Emergency Management 
Office and the NY Office of Emergency Management was later moved to 
Pier 92 in New York City as a temporary EOC. However, losing the NYC 
EOC provided a valuable lesson to be learned by all States and 
localities on redundancy. The $56 million was allocated to states to 
begin the planning process to assess necessary infrastructure and 
security improvements and security measures to be taken. Since then no 
dedicated Federal funding has been provided for the implementation of 
these plans. Many State and local facilities are out of date; do not 
have the interoperable technology to coordinate with the Federal 
Government or among State and local levels; and lack adequate security 
features. Federal assistance is necessary to match State and local 
commitments to upgrade their EOCs as an integral part of the Nation's 
emergency response system. According to a 2003 NEMA survey, it is 
projected more tan $1.6 billion will be needed to construct and 
maintain State and local primary and alternate EOCS over the next 2 to 
5 years. This includes the costs to consistently upgrade equipment and 
software, train personnel, and conduct operations during emergency and 
non-emergency situations.

                               CONCLUSION

    As we continue to build national preparedness efforts through the 
Department of Homeland Security, we must not forget about the multi-
hazard approach to incident management and the role it plays in 
preventing the loss of life and devastation to our communities on a 
daily basis. We must be prudent and thoughtful in addressing homeland 
security enhancements to our exisiting emergency preparedness and 
response system. In this year's appropriations process Congress will 
make critical decisions that shape the future of emergency management 
in this country. As you begin your consideration, we ask you to 
recognize the importance of the EMPG program in building capacity 
through people at the State and local level. I thank you for the 
opportunity to testify on behalf of NEMA and appreciate your 
partnership.
                                 ______
                                 

   Prepared Statement of the National Flood Determination Association

    Mr. Chairman and members of the Subcommittee, The National Flood 
Determination Association (NFDA) strongly supports the $200 million 
requested in the President's most recent fiscal year 2005 budget for 
map modernization. NFDA is a national nonprofit organization comprised 
of flood determination companies, their vendors, re-sellers and other 
industry associates involved in the making, distributing and reselling 
of flood zone determinations.
    The flood zone determination industry is a key stakeholder in the 
map modernization initiative. By producing flood zone determinations 
for the lending industry to assist them with the compliance 
requirements of the National Flood Insurance Program (NFIP) and the 
National Flood Insurance Reform Act, NFDA recognizes accurate flood 
maps are an important part of compliance with requirements of the NFIP. 
Today, FEMA paper flood maps are the maps of record for compliance, and 
the flood zone determination industry is the single largest extensive 
user of the maps. In 2001 and 2002, our industry completed 24,507,632 
and 30,211,047 flood zone determinations respectively, related to newly 
originated loans for the mortgage industry. In addition, we completed 
another 5,472,532 and 4,906,743 determinations for the same years for 
loans we were tracking on behalf of lenders that were affected by map 
revisions.
    Map modernization is a positive initiative, not only for the flood 
zone determination industry, but for State and local communities as 
well. By employing state-of-the-art technology, such as Geographic 
Information Systems (GIS) and Geographic Positioning Systems (GPS), 
communities can map their flood risk digitally. As a result, the 
updated maps will be easier and more cost-efficient to update as 
conditions change. In addition, digital flood maps are dynamic visual 
tools for State and local officials, land-use planners, private 
businesses, environmental protection organizations and emergency 
management personnel to recognize and chart areas for future 
development and plan for public safety.
    NFDA has been given the opportunity to provide feedback on the 
current FEMA maps, most of which are greater than 10 years old, in an 
effort to improve the quality of the existing maps as well as create 
some standards for the new maps to be published. These technical 
mapping meetings provide a communication forum that enables the end 
users of the maps, FEMA, and its contractors to identify practical 
solutions to the daunting challenge of maintaining and enhancing the 
accuracy and quality of the FEMA maps.
    As a result of the success from the technical mapping meetings, 
NFDA strongly encourages map modernization representatives to establish 
an advisory committee comprised of stakeholders and FEMA and contractor 
representatives as a means of ensuring regular, consistent 
communication takes place regarding this initiative. In order for the 
new maps to be truly effective, it is critical to emphasize quality 
over quantity. The use of new flood studies to develop quality data 
rather than re-use of possibly out-of-date data is key to achieving 
truly accurate flood maps. Development of consistent mapping standards 
for all communities is also important. An advisory committee modeled on 
the technical mapping advisory council established for 5 years by the 
Flood Insurance Reform Act of 1994 would be able to review the metrics 
used for establishing standards, as well as make recommendations for 
enforcement of those standards in order to create and retain a quality 
product.
    As strong supporters of FEMA, the National Flood Determination 
Association also strongly supports reauthorizing the National Flood 
Insurance Program for 3 more years. Multi-year reauthorization is 
important to the prevention of a program lapse similar to the one that 
occurred in January of 2003 when the NFIP was unauthorized for 13 days.
    Additionally, NFDA asks that important programs such as the natural 
disaster programs remain within FEMA's jurisdiction. Removing such 
programs is a threat to FEMA's effectiveness, and it is important that 
FEMA is allowed to maintain its management without interruption.
    In closing, our association has been an avid supporter of FEMA and 
its map modernization initiative since its inception, and is pleased to 
offer our continued support in the future. As a part of that support, 
we ask that the Committee appropriate the $200 million requested for 
map modernization and reauthorize the NFIP for 3 more years.
                                 ______
                                 

      Prepared Statement of the National Treasury Employees Union

    Chairman Cochran, Ranking Member Byrd, distinguished members of the 
Subcommittee; I would like to thank the Subcommittee for the 
opportunity to comment on the fiscal year 2005 budget for the 
Department of Homeland Security (DHS) and specifically its impact on 
the DHS Bureau of Customs and Border Security (CBP).
    As President of the National Treasury Employees Union (NTEU), I 
have the honor of leading a union that represents over 13,000 Customs 
and Border Protection employees who are stationed at 307 ports-of-entry 
across the United States. Customs and Border Protection officers, 
canine enforcement officers, and import specialists make up our 
Nation's first line of defense in the wars on terrorism and drugs as 
well as the facilitation of lawful trade into the United States. In 
addition, legacy Customs personnel are responsible for ensuring 
compliance with import laws and regulations for over 40 Federal 
agencies, as well as stemming the flow of illegal contraband such as 
child pornography, illegal arms, weapons of mass destruction and 
laundered money.
    In 2003, legacy Customs Service employees seized over 2.2 million 
pounds of cocaine, heroin, marijuana and other illegal narcotics. 
Customs and Border Protection Officers also processed over 412 million 
travelers last year, including over 1 million cars and trucks. These 
numbers continue to grow annually. Over the last decade trade has 
increased by 137 percent. Legacy U.S. Customs Service personnel 
facilitate more trade, and interdict more drugs than any other agency 
within the Customs and Border Protection Bureau. The legacy Customs 
Service collects over $20 billion in revenue on over 26 million entries 
involving over $1.2 trillion in international trade every year. The 
legacy Customs Service also provides the Federal Government with its 
second largest source of revenue. Last year, the legacy Customs Service 
deposited over $24.7 billion into the U.S. Treasury.

                        FISCAL YEAR 2005 BUDGET

    The President's fiscal year 2005 budget requests a funding level of 
$40.2 billion for the Department of Homeland Security and from that 
total $6.2 billion is requested for the Bureau of Customs and Border 
Protection (CBP). The CBP includes the legacy inspection and border 
security personnel of the Customs Service, INS, Border Patrol and 
APHIS. The focus of the CBP is security at and in-between ports-of-
entry.
    Unfortunately, the President's request for the CBP represents a 
token increase from last year's appropriations for all of the agencies 
transferred into the CBP. NTEU believes that this recommendation is 
simply inadequate to meet the needs of Customs and other border 
security personnel, especially in light of their additional homeland 
security missions such as the Customs Trade Partnership Against 
Terrorism (C-TPAT), the Container Security Initiative (CSI), U.S. VISIT 
and the 24-Hour Rule that requires advanced transmission of accurate 
cargo manifest information to the CBP.
    In addition to annual appropriations, Customs also receives funds 
from a user fee account known as the COBRA account. This user fee 
account funds all inspectors' and canine enforcement officers' overtime 
pay as well as approximately 1,200 Customs positions across the 
country. The COBRA account is funded with user fees collected from air 
and sea passengers entering the United States (except from the 
Caribbean and Mexico), commercial vehicles, commercial vessels/barges 
and rail cars. The COBRA fund was recently reauthorized and now will 
expire on March 31, 2005. However, the President's fiscal year 2005 
budget does not address the future reauthorization of COBRA or the 
possible integration of the COBRA fees with other CBP user fees. The 
COBRA fund must continue to be reauthorized or Congress must 
appropriate additional funds to make up for the loss of the user fees 
in the future.
    Despite the increased threats of terrorism, the dramatic increases 
in trade resulting from NAFTA, and new drug smuggling challenges, CBP 
personnel has confronted its rapidly increasing trade workload and 
homeland security missions with relatively static staffing levels and 
resources. While staffing was increased in last year's supplemental and 
fiscal year 2004 appropriations, in the last 10 years, there simply 
have not been adequate increases in staffing and resource levels for 
inspectional personnel and import specialists to successfully conduct 
their missions. The events of September 11 brought attention to the 
fact that the Northern border, and especially the Nations' seaports, 
and the Southwest border are still in urgent need of additional 
personnel and resources.
    In fact, Customs' recent internal review of staffing, known as the 
Resource Allocation Model or R.A.M., shows that the Customs Service 
alone needed over 14,776 new hires just to fulfill its basic mission 
and that was before September 11. In addition, in 2001 the Patriot Act 
called for a tripling of the number of Northern Border personnel from 
the roughly 2,300 personnel who were on the border in the fall of 2001 
to 6,900 by the end of 2004, a number that DHS is far short of 
reaching. According to the testimony of Commissioner Robert Bonner 
before the 9/11 commission on January 28, 2004, the CBP currently has 
approximately 3,900 CBP personnel on the northern border.
    Traffic volume at U.S. land ports-of-entry has steadily increased 
as our shared borders with Mexico and Canada have become more open as a 
result of the NAFTA and other trade initiatives. The steady increase of 
commercial and non-commercial traffic has led to increased wait times 
at many land ports-of-entry, particularly those along the Southwest 
border. Wait times along the Southwest border can often extend to 45 
minutes or more during peak hours. Such lengthy delays can be both 
irritating and costly to businesses and the traveling public.
    The lack of resources at ports-of-entry is also a problem along the 
Northern Border and at seaports. Port security, largely overlooked in 
the Homeland Security Act, must also be a priority of this committee. 
The fiscal year 2005 budget provides only $50 million for port security 
grants as part of the Transportation Security Administration 
appropriation, a reduction of almost $100 million in grant money for 
ports from the President's fiscal year 2004 budget. Each year more than 
16 million containers arrive in the United States by ship, truck and 
rail. In the last 5 years alone, Customs has witnessed a 60 percent 
increase in trade entries processed, and this rate is expected to grow 
an average of 8 to 10 percent a year. Port security must remain a high 
priority for the Department of Homeland Security.
    With increased funding for resources, modern technologies, such as 
Vehicle and Cargo Inspection Systems (VACIS), which send gamma rays 
through the aluminum walls of shipping containers and vehicles to 
enable Customs inspectors to check for illegal drugs or weapons of mass 
destruction, as well as decreasing the amount of time shipping 
containers are out of the supply chain, could be acquired. Other 
technologies, such as portable contraband detectors (a.k.a. Busters), 
optical fiber scopes and laser range finders can be invaluable to 
Customs personnel protecting our borders from terrorists and illegal 
drugs. However, adequate and consistent funding for personnel to 
operate these technologies has not been forthcoming. On a daily basis, 
CBP officers are being tasked with additional anti-terrorism, trade, 
immigration, agriculture and drug smuggling initiatives with little 
increase in across the board staffing, leaving many ports of entry with 
too few personnel to successfully carry out all of the DHS mission 
priorities.

                          CBP PERSONNEL ISSUES

CBP Personnel Overtime Cap
    An aspect of the consolidation of legacy Customs, INS and APHIS 
inspectors into a single front-line border security position that needs 
to be addressed immediately by this subcommittee is the correction of 
the overtime cap language for all CBP employees. When legacy Customs 
employees joined together last March to form the Bureau of Customs and 
Border Protection, the Department and Congressional appropriators 
realized the differences in overtime systems between the various border 
agencies. Unfortunately, the fiscal year 2004 DHS Appropriations bill 
included a provision that, while intending to provide greater 
consistency in overtime earnings among the front line CBP workforce, 
has instead created additional problems for the CBP workforce, more 
specifically, legacy Customs personnel and the new CBP officers.
    Specifically, the fiscal year 2004 DHS Appropriations bill states 
that all CBP employees are subject to a $30,000 annual overtime cap 
(legacy Customs, INS, APHIS, & new CBP officers). However, the fiscal 
year 2004 appropriations language does not address COPRA (Customs 
Officer Pay Reform Act) overtime earnings for legacy Customs personnel 
and new CBP officers. The original language of the COPRA law included a 
$25,000 cap. However, for the past several years, the annual 
appropriations bills specifically amended COPRA to provide for an 
increase to $30,000 as an overtime cap. Unfortunately, this year's 
(fiscal year 2004) appropriation does not contain this amendment and 
has had the unintended effect of re-instituting a $25,000 cap for only 
those employees covered by COPRA (legacy Customs personnel and the new 
CBP officers).
    Commissioner Bonner is well aware of this problem, as he indicated 
in a November 2003 Commissioner's message to all CBP employees stating 
that, ``we believe that this disparity was not intentional and we have 
begun to take all necessary steps to correct it through the proper 
channels. At my direction, the CBP Office of Congressional Affairs is 
now working with the Department to address this inconsistency through a 
legislative correction.'' NTEU hopes that the Commissioner, working 
closely with the members of this subcommittee, can fix this situation 
both retroactively for legacy Customs employees this year and 
prospectively in the fiscal year 2005 DHS Appropriations bill.
FLETC 6 Day Training Issues
    On January 1, 2002, at the request of the Federal Law Enforcement 
Training Center (FLETC), the legacy U.S. Customs Service implemented a 
6-day a week training schedule for all basic training courses for 
Customs officers in order to accommodate the higher volume of employees 
being sent to FLETC as a result of the events of September 11.
    Unfortunately, as a result of the 6-day a week basic training 
schedule, the legacy U.S Customs Service, and now the Bureau of Customs 
and Border Protection (CBP) have refused to compensate legacy customs 
officers and the new CBP officers for their sixth day of basic training 
at FLETC. Legacy Customs officers and the new CBP officers receive no 
pay, either ``straight time'' or overtime pay for their work on the 
sixth day of basic training. While there may be disagreement as to what 
overtime system may be appropriate, it is outrageous that these 
employees are required to work 1 day a week for no pay at all.
    This inequity has become even more egregious for legacy Customs 
inspectors due to a recent decision of the Bureau of Immigration and 
Customs Enforcement (BICE), that authorized the retroactive payment of 
FLSA overtime to legacy immigration inspectors who, like legacy Customs 
officers had been assigned to a 6-day workweek while attending their 
basic training at FLETC since January 1, 2002. Again, by forcing 
hundreds of newly trained legacy Customs inspectors and new CBP 
officers to work a sixth day without any compensation while their 
legacy INS counterparts receive FLSA overtime is certain to hinder the 
esprit-de-corps and development of the Department of Homeland 
Security's ``One Face at the Border Initiative'' which has merged the 
legacy Customs and INS inspectional workforces into one border security 
position within DHS. The committee needs to work closely with DHS and 
the CBP bureau to immediately correct this training pay inequity for 
legacy Customs employees and the new CBP officers.

One Face at the Border
    As the subcommittee is aware, on September 2, 2003, Secretary Tom 
Ridge announced the creation of a new CBP officer position and the 
``One Face at the Border'' initiative. Under this plan, a new position, 
the Customs and Border Protection Officer (CBPO) would combine the 
duties of legacy inspectors from Customs, INS and APHIS into a single 
front-line border security position at the 307 official ports-of-entry 
across the United States.
    NTEU believes that combining the border protection responsibilities 
that were held by three highly-skilled specialists into a ``super 
inspector'' raises some serious concerns. Each of the job 
responsibilities from the three legacy inspection agencies is highly 
specialized and distinct. By utilizing one employee to perform all 
three primary and secondary inspection functions, will the agency lose 
the expertise that has made the United States border inspection 
personnel second to none?
    NTEU believes that the CBP officer position was created with the 
assumption that the basic skill sets for legacy Customs and INS 
inspectors are similar and NTEU would have to agree with this statement 
as far a primary inspection is concerned. However, it is in secondary 
inspections where expertise is needed. It is in secondary inspections 
where legacy Customs and INS experts ``drill down'' to seek the facts 
they have been trained to find.

CBP Officer Training
    Prior to the creation of the CBP officer position, legacy Customs 
inspectors received 9 to 12 weeks of intensive basic training on 
Customs Service rules and regulations alone. Now, the new CBP officer 
will receive only 14 weeks of training for all Customs, INS, and APHIS 
rules and regulations. Under the new CBP officer training guidelines, 
legacy inspectors currently on the border will be transitioning into 
the new position in the spring of this year by way of classroom 
training, CD-ROM computer teaching and on-the-job training. While the 
new training will lead to a broader knowledge of the INS, Customs and 
APHIS rules and regulations of entry for passengers and goods entering 
the United States, there is a concern as to whether it will provide the 
specialized expertise necessary to ensure the successful accomplishment 
of the critical missions of the Department of Homeland Security.
    Another aspect of the ``One Face at the Border'' initiative that 
needs more thorough scrutiny is the lack of details with regard to the 
secondary inspection process at ports of entry. Currently, legacy 
Customs and INS inspectors are ``cross-trained'' as to the most basic 
Customs and INS procedures for entry into the United States for 
passengers and goods. However, if a legacy Customs inspector is faced 
with a complicated visa entry situation at an airport or land border 
primary inspection station they have the ability to send the passenger 
to a more intensive secondary inspection where an experienced legacy 
INS inspector can make a determination as to the validity of a 
particular visa. It is unclear whether experts in visa issues or other 
specific Customs and INS border protection matters will continue to be 
readily available for secondary inspection. This issue is even more 
urgent in light of the fact that on January 5, 2004, DHS rolled out its 
new entry/exit visa processing system known as U.S. VISIT. Operating at 
115 airports and 14 seaports across the country, and eventually 
expanding to the 50 largest land border ports of entry by the end of 
2004, U.S. VISIT is currently being manned by only legacy INS 
inspectors because legacy Customs inspectors do not have the on the job 
experience to thoroughly determine the validity of a particular visa or 
passport. NTEU feels strongly that if border initiatives such as U.S. 
VISIT are to be successful, specific expertise must be maintained among 
the CBP officer ranks as it relates to Customs and INS regulations.

Law Enforcement Officer Status
    In addition, legislative action that would help to ensure the 
retention of Customs and other CBP personnel could include granting law 
enforcement status for legacy Customs Inspectors, Canine Enforcement 
Officers and other border security personnel in the CBP. For example, 
legacy Customs Service Inspectors and Canine Enforcement Officers 
continue to be the Nation's first line of defense against terrorism and 
the smuggling of illegal drugs and contraband at our borders and in our 
ports. Legacy Customs Service Inspectors have the authority to 
apprehend and detain those engaged in terrorism, drug smuggling and 
violations of other civil and criminal laws. Canine Enforcement 
Officers and Inspectors carry weapons, and at least 3 times a year they 
must qualify and maintain proficiency on a firearm range. Yet, they do 
not have law enforcement officer status. They are being denied the 
benefits given to other Federal employees who they have been working 
beside to keep our country safe. Legacy Customs employees face real 
dangers on a daily basis, granting them law enforcement officer status 
would be an appropriate and long overdue step in recognizing and 
retaining the Customs personnel who continue to protect our borders 
from terrorism and drugs. There currently is a bill before the House HR 
2442, which would grant law enforcement status to CBP personnel. 
Representative Filner introduced this bill and it currently has 101 
cosponsors. I would ask the members of this subcommittee to cosponsor 
this very important legislation.

DHS Proposed Personnel Regulations
    As the committee is aware, the Homeland Security Act of 2002 
authorized the Secretary of Homeland Security and the Director of OPM 
to develop new human resources (HR) systems for Federal employees in 
the Department of Homeland Security in the areas of pay, performance 
management, job classification, labor-management relations, and 
disciplinary matters. As part of the creation of the new DHS HR system, 
a design team composed of DHS managers and employees, HR experts from 
DHS and OPM, and representatives from the agency's three largest 
unions, including NTEU, were assembled to develop a wide range of HR 
options for consideration by Secretary Tom Ridge and OPM Director Kay 
Coles James who will develop the new DHS HR system.
    To support the effort to create the new DHS personnel system, the 
President's fiscal year 2005 budget provides the department with $102.5 
million to develop and implement a new performance-based pay system for 
DHS personnel including funding for a pay for performance pilot program 
within the Coast Guard. NTEU is strongly opposed to the $102.5 million 
requested in the President's budget to fund the implementation of this 
ill-conceived program and believes that this funding would be better 
spent by this committee on additional staffing and equipment to protect 
or borders from terrorism.
    As a member of the DHS Human Resources Design Team NTEU has always 
strongly advocated that in designing pay, classification and 
performance management systems for DHS, that the principles of 
credibility, transparency and accountability must be honored and 
applied to the DHS HR options that were introduced by Secretary Ridge 
and Director James in February. Unfortunately, the proposed DHS 
personnel regulations neither honored nor applied the principles that 
employees in the department deserve.
    As the Committee is aware, the public comment period on the 
proposed DHS personnel regulations, closed on March 22, 2004. It is our 
understanding that DHS received over 2,000 comments during the past 
month from DHS employees, Members of Congress, employee representatives 
and the general public. From an initial review of the submitted 
comments, it can be safely said that the vast majority of the comments 
oppose the proposed pay and job classification system for DHS 
personnel.
    The proposed DHS personnel regulations propose to implement a 
radical change to pay and job classification systems for DHS employees, 
and to increase the linkage between pay and performance. However, no 
reliable information exists to show that this system will enhance the 
efficiency of DHS operations and promote homeland security. Indeed, 
most of the key components of the system are not clearly determined in 
the proposed regulations. The proposed regulations consist only of 
broad statements concerning the creation of occupation clusters of 
related positions in the department and the ability of DHS/OPM to 
create a number of ``pay bands'' for each cluster that relates to skill 
level. The ``pay band'' ranges will be set by an extremely complicated 
formula of mission requirements, local labor market conditions, 
availability of funds, and pay adjustments received by other Federal 
employees.
    The proposed pay system lacks the transparency and objectivity of 
the General Schedule. Critical decisions on pay rates for each band, 
annual adjustments to these bands and locality pay supplements and 
adjustments will no longer be made in public forums like the U.S. 
Congress or the Federal Salary Council, where employees can watch the 
process and have the opportunity to influence its outcome. Rather, 
these decisions would now be made behind closed doors by a group of DHS 
managers (sometimes in coordination with OPM) and their consultants.
    If the proposed system is implemented, employees will have no basis 
to accurately predict their salaries from year to year. They will have 
no way of knowing how much of an annual increase they will receive, or 
whether they will receive any annual increase at all, despite having 
met or exceeded all performance expectations identified by the 
Department. The ``pay-for-performance'' element of the proposal will 
pit employees against each other for performance-based increases. 
Making DHS employees compete against each other for pay increases will 
undermine the spirit of cooperation and teamwork needed to keep our 
country safe from terrorists, smugglers, and others who wish to do 
America harm.
    One thing is clear. The proposed pay system will be extremely 
complex and costly to administer. A new bureaucracy will have to be 
created, and it will be dedicated to making the myriad, and yet-to-be 
identified, pay-related decisions that the new system would require.
    In the area of labor relations, NTEU is extremely disappointed by 
the proposed DHS personnel system. Despite the congressional mandate to 
protect an employee's right to collectively bargain, the proposed DHS 
personnel regulations are drafted as such to minimize the influence of 
collective bargaining so as to undermine the statutory right of 
employees to organize and bargain collectively. When Congress included 
provisions in the Homeland Security Act to protect employees' 
collective bargaining rights, Congress could not have intended those 
rights to be gutted as they are in the proposed regulations.
    For example, the proposed regulations eliminate bargaining over 
otherwise negotiable matters that do not significantly affect a 
substantial portion of the bargaining unit, they eliminate a union's 
right to participate in formal discussions between bargaining unit 
employees and managers, and they drastically restrict the situations 
during which an employee may request the presence of a union 
representative during an investigatory examination. In addition, the 
proposed regulations set and change conditions of employment and void 
collectively bargained provisions through the issuance of non-
negotiable departmental regulations, assign authority for resolving 
many labor-management disputes to the Homeland Security Labor Relations 
Board, composed exclusively of members appointed by the Secretary, and 
grant broad new authority to establish an entirely new pay system, and 
to determine each employee's base pay and locality pay, and each 
employee's annual increase in pay, without requiring any bargaining 
with employee representatives.
    The Homeland Security Act required any new human resources system 
for DHS employee ``contemporary.'' Unfortunately, the labor relations 
and performance management proposals are, however, remarkably 
regressive. By proposing to silence front-line employees and the unions 
that represent them, DHS/OPM appear to have decided that employees and 
their representatives can make no contribution to the accomplishment of 
the essential mission of protecting the homeland. This backwards-
thinking approach is at odds with contemporary concepts of labor 
relations.
    In the area of due process for DHS employees the proposed personnel 
regulations make drastic changes. Included in the proposed regulations 
are provisions that bar the Merit Systems Protection Board from 
reducing or otherwise modifying any penalty selected by DHS, which 
would deprive employees of a chance to challenge excessive or 
unreasonable penalties, the proposed regulations eliminate the right of 
a union to submit serious adverse actions imposed against bargaining 
unit employees to an arbitrator, and they reduce an agency's burden of 
proof in adverse actions cases to a standard that would require DHS's 
decisions to be upheld even if they are more likely than not to have 
been improper.
    In addition, the proposed DHS regulations would allow the Secretary 
of Homeland Security to determine an unlimited number of mandatory 
removal offenses or ``deadly sins'' that require mandatory termination 
for DHS personnel, without access to any independent review of the 
charges; the only review would be by an in-house entity. These proposed 
DHS ``deadly sins'' are even more Draconian that the IRS' deadly sins, 
which are subject to independent review and are set by statute, not 
subject to the whim of the current or future DHS Secretaries.
    It is important to note that President Bush supports repealing the 
mandatory termination provisions currently in effect at the IRS and 
legislation drafted by the Administration to do this (H.R. 1528) has 
passed the House with strong bipartisan Congressional, as well as, 
Administration support. The Administration believes that the IRS needs 
more flexibility in this area. Since flexibility has been the primary 
goal of personnel changes at DHS, it is totally inconsistent to 
introduce procedures that take away all discretion by requiring 
mandatory penalties.
    When Congress mandated that DHS employees be treated fairly and 
afforded the protections of due process, and authorized only limited 
changes to current appellate processes, Congress could not have 
envisioned the drastic reductions in employee rights that are in the 
proposed DHS personnel regulations. No evidence shows that current 
employee due process protections or the decisions of an arbitrator or 
the MSPB jeopardize homeland security. While there was support 
expressed in Town Hall meetings and focus groups for speeding up the 
adverse action and appeals process, there was no support for 
drastically altering the process in favor of management or otherwise 
reducing the likelihood of fair and accurate decisions.
    Ideally, a new DHS human resource management system should promote 
esprit-de-corps so as to enhance the effectiveness of the workforce. 
Unfortunately, these proposals fall far short of that ideal. Instead, 
they will result in a demoralized workforce composed of Federal 
employees who feel as if they have been relegated to second-class 
citizenship. This system will encourage experienced employees to seek 
employment elsewhere and will deter qualified candidates from 
considering a career in DHS.
    Thank you for the opportunity to share NTEU's thoughts on a number 
of extremely important issues concerning the Department of Homeland 
Security, its fiscal year 2005 Budget and its front line employees.
                                 ______
                                 

             Prepared Statement of the University of Miami

    Chairman Cochran, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for giving me the opportunity to provide 
testimony on the Disaster Resistant University initiative and to 
request continued funding in the fiscal year 2005 appropriations bill 
of your Subcommittee.
    We very much appreciate the interest of Members of Congress in this 
program. It is a modest program with great benefits.
Request for fiscal year 2005
    We respectfully request the following language in the fiscal year 
2005 Department of Homeland Security Appropriations Bill Emergency 
Preparedness and Response section of the bill under the Predisaster 
Mitigation section.
    The Committee directs Emergency Preparedness and Response (FEMA) to 
continue the Disaster Resistant University Program by providing 
continued support to the pilot universities and those selected in 
fiscal year 2003 and fiscal year 2004 to implement mitigation efforts 
to reduce their vulnerabilities and improve protection of their 
students, employees, and the Federal investment in vital research.

Program Background
    The FEMA Disaster Resistant University (DRU) Initiative was created 
to reduce the potential for large loss of life and hundreds of millions 
of dollars in key Federal research and billions of dollars in damage 
from natural disasters. The University of California at Berkeley was 
the prototype and founding member of the program. In October 2000, FEMA 
selected five additional universities to join Berkeley in the pilot 
phase of the program: the University of Alaska at Fairbanks, University 
of Miami, University of North Carolina at Wilmington, Tulane 
University, and the University of Washington at Seattle. The selected 
universities have two elements in common: a vulnerability to disasters 
and a commitment to improve protection of students, faculty and staff, 
and one of our most valuable assets, intellectual property. The pilot 
program was funded with $700,000 in grants from predisaster mitigation 
funds and the U.S. Fire Administration.

Purpose of the Program
    The purpose of the program is to help the Nation's colleges and 
universities facing the threat of natural disasters and acts of 
terrorism to assess their vulnerabilities and find ways to protect the 
lives of their students, faculty, and staff; their research; and their 
facilities. It will provide a framework and process for other 
universities to do the same.
    The intent of the program was to assist universities by first 
providing a small grant for them to assess their vulnerabilities, 
devise appropriate plans, and set priorities and then to provide grants 
in following years of approximately $500,000 each for the universities 
to take steps to reduce those vulnerabilities.

Need for the Program
    The Federal Government funds $19.4 billion annually in university 
research, according to the National Science Foundation statistics in 
2001, the latest year available. This Federal investment in the vital 
intellectual property of the Nation should be protected.
    In addition, universities are critical to the economic health of 
their surrounding communities. Their ability to resume operations 
quickly following a disaster greatly speeds the recovery of the entire 
community. For example, the University of Miami is the 3rd largest 
employer in Miami-Dade County and has a $1.9 billion a year impact on 
the community; the University of Washington is the 3rd largest employer 
in the State of Washington and has a $3.4 billion impact; the 
University of North Carolina at Wilmington is the 3rd largest employer 
in the area and is a $400 million annual benefit to an eight county 
area; the University of California at Berkeley is the 3th largest 
employer in the Bay area and generates $1.4 billion annually in the Bay 
area; Tulane University is the largest employer in Orleans Parish and 
the 5th largest in Louisiana with a $1.5 billion gross impact on New 
Orleans; and the University of Alaska at Fairbanks is the largest 
civilian employer in the Tanana Valley. In addition, many universities 
operate medical schools which provide essential clinical services to 
the residents of their communities and adjacent areas.
    Many recent events underscore the need for the program: the loss of 
many years of research at the Texas Medical Center as result of 
flooding from Tropical Storm Allison, the earthquake damage to the 
University of California at Northridge and the University of California 
at Los Angeles, the facility damage and loss of life at the University 
of Maryland as result of a tornado, hurricane damage to the University 
of North Carolina at Wilmington, the earthquake damage to the 
University of Washington at Seattle, and the declaration by the FBI 
that our universities are ``soft'' targets for terrorists.

Status of the Program
    On December 31, 2003, FEMA published a Notice of Funds Availability 
(NOFA) for grant applications. As directed by Congress, $500,000 is to 
be available to the six existing DRUs and $100,000 each is to be 
available for six new ones to start the process. The funds are from the 
PreDisaster Mitigation Fund.
    The applications were due to FEMA regions on March 1, 2004. The 
FEMA regions have completed preliminary reviews and forwarded the 
applications to FEMA headquarters. Panels will be reviewing the 
applications in late April and awards are expected in early June.
    Forty-four universities and four consortia applied. Applications 
were received from six Historic Black Colleges and Universities (HBCU) 
and one tribal school. Applications were received from universities 
located in nine of the ten FEMA regions.
    Although no additional funding has been made available since the 
original small grants in 2000, great progress has been made by the 
universities with the modest Federal investment. Participation in the 
DRU brought high level commitment and a framework for disaster planning 
and mitigation activities that helped universities focus and enhance 
efforts to protect their students, faculty, staff, vital research, and 
facilities.
    Each university has made significant improvements in developing 
awareness campaigns on campus; assessing their risks, vulnerabilities, 
and mitigation options, prioritizing and implementing some of the 
mitigation options; updating emergency operations plans; and developing 
and implementing plans for business continuity. The universities have 
improved disaster resistant design specifications for buildings and 
their contents, incorporated disaster resistance into campus master 
planning, and partnered more closely with governmental and private 
entities.
    These six pilot universities are making strong efforts to protect 
their over 120,000 students, over 60,000 employees, 1,550 buildings 
valued at over $11,820,458,000, and $1,600,710,000 in annual research.
    The six participating Disaster Resistant Universities look forward 
to continuing their progress and to mentoring the six new universities 
which FEMA will be selecting soon.
    Included in the applications from the six pilots for the fiscal 
year 2003 funding were projects such as protecting windows, tying down 
rooftop mechanical equipment, structural bracing for hurricane damage 
protection for buildings housing major research projects; seismic 
retrofit of the university police Department 9-1-1 dispatch center and 
emergency operations center; developing emergency plans for campus 
special needs populations; seismic evaluation of the power plant vital 
for research facilities; and improving nonstructural hazard mitigation 
in university laboratories, increasing data backup, and expanding 
business resumption planning into departments and research units.

Streamlining the Process
    We are grateful that the process of getting out the fiscal year 
2003 funding is underway; however, the new application process for the 
fiscal year 2003 funds was very time consuming. Some of the information 
required seemed much more appropriate for communities than a 
university. One pilot university estimated it took 200 hours of staff 
time to prepare the application and several spent more than 150 hours. 
One of the universities applying as a new selection for a $100,000 
grant devoted 150 hours of staff time. In addition the process is time 
consuming for State and local emergency management officials. We would 
like to work with FEMA on suggestions for streamlining the process 
while still maintaining high quality applications.

Summary of Congressional Interest
    We very much appreciate the support Congress has given this 
program.

Fiscal year 2002
    The Conference Report on the VA, HUD and Independent Agencies 
Appropriations bill for 2002 (House Report 107-272 ) contained the 
following language:
    The conferees believe that many of the Nation's universities are 
vulnerable to disaster and urge FEMA to continue its Disaster Resistant 
University program and expand the scope to include safe-guarding 
university assets from acts of terrorism.

Fiscal year 2003
    The Conference Report on the fiscal year 2003 Omnibus bill in the 
FEMA section of the VA, HUD and Independent Agencies stated the 
following:
    The conferees are in agreement that FEMA should continue the 
Disaster Resistant University program and direct FEMA to carry out the 
direction contained in House Report 107-740.
    House Report 107-740 stated the following:
    Finally, the Committee notes that in September of 2000 FEMA 
selected five universities to join the University of California at 
Berkeley in the pilot phase of the Disaster Resistant University 
program: University of Alaska/Fairbanks, University of Miami, 
University of North Carolina/Wilmington, Tulane University, and 
University of Washington/Seattle. The purpose of the program is to help 
the Nation's colleges and universities facing the threat of natural 
disasters to assess their vulnerabilities and find ways to protect 
their research, facilities and the lives of students, faculty and 
staff. The Committee directs FEMA to continue the Disaster Resistant 
University Program with grants of $500,000 to each of the six pilot 
Disaster Resistant Universities and $100,000 each to at least six 
additional universities, including at least one HBCU, to join the 
program.

Fiscal year 2004
    The Senate Report on the Department of Homeland Security 
Appropriations bill (S. Report 108-86) included the following language 
under the National Pre-Disaster Mitigation Fund which was funded at 
$150,000,000.
    The Committee encourages the Department to continue the existing 
Disaster Resistant University program at the fiscal year 2003 level.
    The House receded to the Senate in the conference agreement.
    We again thank you for the opportunity to provide written comment 
on the need for continued funding of this important program. We would 
welcome the opportunity to provide additional information or to discuss 
the program further with your staff.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five States' river-related programs and policies and for 
collaborating with Federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budgets for the U.S. Coast 
Guard and the Federal Emergency Management Agency (FEMA).
    Both the Coast Guard and the FEMA have vital functions specifically 
related to homeland security that must be adequately funded. But both 
also have other traditional missions that are equally important to 
public health and safety, economic well-being, and environmental 
protection. For the Coast Guard, these include activities such as aids 
to navigation, vessel and facility inspections, emergency response, and 
mariner licensing. For FEMA, key traditional missions include the 
National Flood Insurance Program, flood map modernization, hazard 
mitigation, and response to floods and other natural disasters. Nowhere 
are these services more important than on the Upper Mississippi River 
System, which supports a vital link in the inland waterway 
transportation system, some of the Nation's most productive 
agricultural land, population centers ranging from small towns to major 
metropolitan areas, and a nationally significant ecosystem.

                              COAST GUARD

Operating Expenses
    A continuing priority for the UMRBA is the Coast Guard's Operating 
Expenses account. The President's fiscal year 2005 budget proposal 
includes $5.173 billion for this account, an increase of almost 10 
percent from the fiscal year 2004 enacted level. However, this net 
increase of $455 million for Operating Expenses is more than fully 
consumed by specific increases tied to implementation of the Maritime 
Transportation Security Act (MTSA); increased personnel costs; and 
operating costs for new vessels, aircraft, and facilities related to 
the Coast Guard's saltwater responsibilities. These initiatives are 
important in their own right and will benefit a range of Coast Guard 
missions. However, it is also true that the Coast Guard's non-security 
missions will be under continued strain as the inflation-adjusted 
resources for these missions remain static or shrink.
    When the Department of Homeland Security was formed, the UMRBA 
strongly supported the Coast Guard's stated objective of sustaining 
traditional missions near their pre-9/11 levels. These traditional 
missions are critical to the safe, efficient operation of the Upper 
Mississippi River and the rest of the inland river system. Under these 
mission areas, the Coast Guard maintains navigation channel markers, 
regulates a wide range of commercial vessels in the interest of crew 
and public safety, and responds to spills and other incidents. The 
beneficiaries include not only commercial vessel operators, but also 
recreational boaters; farmers and others who ship materials by barge; 
and the region's citizens, who benefit enormously from the river as a 
nationally significant economic and environmental resource.
    Even prior to September 11, recent years had brought a number of 
changes to the way the Coast Guard operates on the inland river system, 
including elimination of the Second District; closure of the Director 
of Western Rivers Office; decommissioning the Sumac, which was the 
largest buoy tender on the Upper Mississippi River; and staff 
reductions. While the States understand the need for efficiency, the 
cumulative impacts of these changes must be carefully monitored, 
particularly in light of the increased demands that we are now placing 
on the personnel and assets that remain in the region. The UMRBA is 
quite concerned that staff reductions and resource constraints have 
combined to impair the Coast Guard's ability to serve as an effective, 
proactive partner.
    Specifically, increased security demands have reduced the staff 
assigned to vessel inspections and limited the Coast Guard's 
investigation of reported spills. Sending a single person to conduct 
vessel inspections reduces the rigor of those inspections, and, in a 
worst case scenario, potentially puts the inspector at risk. Similarly, 
electing not to respond to reports of small spills means some of these 
spills will go uninvestigated and puts increased demands on local 
officials, who do not have the Coast Guard's expertise or resources. 
Moreover, it could result in costly delays should a spill turn out to 
be larger than first reported, an all-too-common occurrence. Temporary 
adjustments initially made to accommodate immediate security needs are 
now evolving into long term standard operating procedures. While 
everyone recognizes the need to adjust to our new security environment, 
it is essential for the Coast Guard to retain the capacity to perform 
its traditional missions on the Upper Mississippi River. Toward that 
end, the UMRBA supports the President's fiscal year 2005 budget request 
for the Coast Guard's Operating Expenses account, but urges Congress to 
ensure that sufficient resources from within this account are allocated 
to the Coast Guard's inland river work.

Research, Development, Testing, and Evaluation
    Through its Research, Development, Testing, and Evaluation (RDT&E) 
program, the Coast Guard conducts cutting edge research in several 
critical areas, including oil spill prevention and response, risk 
assessment, and mariner safety. Of particular note, researchers at the 
Coast Guard's Groton, Connecticut Research and Development Center have 
made invaluable contributions to state-of-the-art fast water spill 
response, in situ burning, and human error reduction. However, the 
President is now proposing to shift the Coast Guard's RDT&E funding to 
the Department of Homeland Security's Science and Technology (S&T) 
Directorate. This proposal represents precisely the kind of diminution 
of the Coast Guard's non-security missions with which the UMRBA and 
others have repeatedly expressed concern. Research on innovative oil 
spill recovery equipment or new methods for combating crew fatigue will 
simply be lost in the department-wide S&T Directorate, with its 
overwhelming focus on homeland security issues. Moreover, the 
President's proposal appears to be inconsistent with Section 888 of the 
Homeland Security Act, which calls for ``the authorities, functions, 
and capabilities of the Coast Guard to perform its missions . . . [to] 
be maintained intact.'' The UMRBA urges Congress to provide adequate 
and direct funding to the Coast Guard's multi-mission RDT&E program in 
fiscal year 2005.

Reserve Training
    The President is requesting $117 million for Coast Guard Reserve 
Training in fiscal year 2005. The UMRBA States are keenly aware of the 
importance of the reserve forces. During major flood events on the 
inland rivers, reservists have consistently provided exemplary service, 
augmenting the Coast Guard's capabilities and helping to protect public 
health and safety. More recently, many reservists have been called to 
active duty, enabling the Coast Guard to meet many new security-related 
demands. On the inland rivers, this has included increased patrols near 
critical facilities and development of security plans for key inland 
ports. The UMRBA urges Congress to fund Reserve Training at $117 
million in fiscal year 2005, thereby helping to maintain a Coast Guard 
reserve that can effectively execute both homeland security- and 
natural disaster-related missions.

Boating Safety Grants
    The Coast Guard's boating safety grants to the States have a proven 
record of success. The Upper Mississippi is a river where all types of 
recreational craft routinely operate in the vicinity of 15-barge tows, 
making boating safety all the more important. As levels of both 
recreational and commercial traffic continue to grow, so too does the 
potential for user conflicts. This is particularly true with major 
events like the Grand Excursion 2004, during which flotillas of boaters 
will retrace President Millard Fillmore's 1854 steamboat journey from 
Rock Island, Illinois to the Twin Cities.
    Boat safety training and law enforcement are key elements of 
prevention. However, the future of this successful grants program is 
uncertain. Following the pattern of recent years, the President has 
requested $59 million in fiscal year 2005 funding for boating safety 
grants to the States. This is the amount historically authorized 
without annual appropriation from the Boat Safety Account, which is 
funded by a tax on fuel for recreational motor boats. Successive 
Administrations have not typically exercised their option to request an 
additional $13 million in annual appropriations for the grants. 
However, the authority for the funding from the Boat Safety Account has 
expired and must be extended if the program is to continue in fiscal 
year 2005. Such a provision is currently being considered as part of 
the pending Highway Bill. The UMRBA urges prompt reauthorization of the 
Boating Safety Program, and funding of this important work at $72 
million annually.

    FEDERAL EMERGENCY MANAGEMENT AGENCY (EMERGENCY PREPAREDNESS AND 
                         RESPONSE DIRECTORATE)

Hazard Mitigation
    UMRBA is particularly interested in FEMA programs that help 
mitigate future flood hazards. Mitigation, which is the ongoing effort 
to reduce or eliminate the impact of disasters like floods, can include 
measures such as relocating homes or community facilities off the 
floodplain, elevating structures, and practicing sound land use 
planning. Mitigation planning and projects are essential to reducing 
the Nation's future disaster assistance costs. Given the importance of 
mitigation, UMRBA supports the Pre-Disaster Mitigation (PDM) grant 
program, which was created in fiscal year 2003 and for which the 
President is requesting $150 million in fiscal year 2005. While the PDM 
grant program is still relatively new, it holds promise for enhancing 
communities' ability to prevent future damages, particularly in areas 
that have not experienced a major disaster and thus have not had access 
to post-disaster mitigation assistance through the Disaster Relief 
Fund. In addition, pre-disaster mitigation assistance is an effective 
means of meeting the ongoing need in all communities to plan for future 
floods and reduce their vulnerability before the next flood disaster.
    FEMA is still in the process of awarding fiscal year 2003 grant 
funds, and fiscal year 2004 grant guidance has not yet been released. 
In fiscal year 2003, each State in the country was provided $248,375 
for planning grants. The balance of the $150 million appropriated in 
fiscal year 2003 is being allocated nationally as competitive grants, 
in three phases. While fiscal year 2003 competitive grants have not yet 
been awarded, the review process has concluded. A total of nearly $6 
million in PDM competitive grants will likely be awarded, from fiscal 
year 2003 funds, to communities throughout the five States of the Upper 
Mississippi River Basin. Although the PDM grant program has gotten off 
to a slow start, it holds promise. Thus, UMRBA supports the President's 
fiscal year 2005 funding request of $150 million for the PDM program.

Flood Map Modernization
    Flood maps are not only used to determine risk-based National Flood 
Insurance Program premium rates, but also provide the basis for local 
regulation of flood hazard areas and for State and local disaster 
response planning. However, most flood maps are over 15 years old and 
are rapidly becoming obsolete. Many flood maps are outdated by the 
effects of land use changes in the watersheds. When outdated maps 
underestimate flood depths, it can often lead to floodplain development 
in high risk areas. It is therefore important that flood maps be 
updated on an ongoing basis and in a timely way.
    The President's fiscal year 2005 budget proposes $200 million for 
FEMA's Flood Map Modernization program. While funding for flood maps 
has increased substantially since the Map Modernization initiative 
began in fiscal year 2003, there are growing concerns about the 
adequacy of the original time and cost estimates. For instance, 
producing updated and accurate maps often requires that new studies be 
conducted. However, the existing map modernization budget is only 
sufficient to fund actual mapping costs and will not adequately cover 
the costs of necessary associated tasks, such as new flood elevation 
studies or levee certifications. In fiscal year 2004, FEMA Region 5 was 
allocated $12 million for map modernization and Region 7 was allocated 
$7.28 million. Given such constrained funding and the fact that mapping 
needs are being prioritized based on population, rather than flood risk 
or need, it is not clear when relatively sparsely populated counties 
along the Mississippi River will be mapped. Ironically, the Federal 
Government, through the U.S. Army Corps of Engineers, recently spent 
approximately $17 million to develop new flood profiles for the Upper 
Mississippi and Lower Missouri Rivers. Unfortunately this updated 
information cannot be fully utilized until sufficient funding is made 
available to modernize and digitize the flood maps for river 
communities. Thus, the UMRBA urges Congress to provide adequate funding 
for map modernization, including sufficient funding to develop new maps 
for the Upper Mississippi and Lower Missouri Rivers based on the new 
flood profiles.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Aguirre, Eduardo Jr., Director, U.S. Citizenship and Immigration 
  Services, Department of Homeland Security......................   465
    Prepared Statement of........................................   476
    Statement of.................................................   473
American Public Transportation Association, Prepared Statement of   572
Association of:
    American Universities, Prepared Statement of.................   571
    State Dam Safety Officials, Prepared Statement of............   576
    State Floodplain Managers, Inc., Prepared Statement of.......   582

Bonner, Robert C., Commissioner, Bureau of Customs and Border 
  Protection, Department of Homeland Security....................   465
    Prepared Statement of........................................   481
    Statement of.................................................   478
Brown, Michael D., Under Secretary, Emergency Preparedness and 
  Response Directorate, Office of the Under Secretary for 
  Emergency Preparedness and Response, Department of Homeland 
  Security.......................................................   141
    Prepared Statement of........................................   147
    Statement of.................................................   145
Byrd, Senator Robert C., U.S. Senator From West Virginia:
    Questions Submitted by........97, 172, 274, 291, 335, 419, 448, 541
    Statements of.................................2, 142, 295, 372, 466

Campbell, Senator Ben Nighthorse, U.S. Senator From Colorado:
    Prepared Statement of........................................   298
    Questions Submitted by.......................................   269
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Opening Statements of.........................1, 189, 295, 357, 465
    Prepared Statement of........................................   142
    Questions Submitted by...............60, 163 256, 324 403, 437, 527
Collins, Hon. Admiral Thomas H., Commandant, United States Coast 
  Guard, Department of Homeland Security.........................   357
    Prepared Statement of........................................   359
    Questions Submitted by.................................96, 271, 290
    Statement of.................................................   358

Domenici, Senator Pete V., Senator From New Mexico, Questions 
  Submitted by.............................................81, 267, 289

Garcia, Michael J., Assistant Secretary, Bureau of Immigration 
  and Customs Enforcement, Department of Homeland Security.......   465
    Prepared Statement of........................................   496
    Statement of.................................................   493
Gregg, Senator Judd, U.S. Senator From New Hampshire:
    Questions Submitted by.......................................    95
    Statement of.................................................     4

Harkin, Senator Tom, U.S. Senator From Iowa:
    Prepared Statement of........................................     8
    Questions Submitted by.......................................   132
    Statement of.................................................     7
Hollings, Senator Ernest F., U.S. Senator From South Carolina:
    Prepared Statement of........................................   299
    Questions Submitted by...........................125, 351, 434, 459
Hutchinson, Asa, Under Secretary, Border and Transportation 
  Security Directorate, Department of Homeland Security..........   295
    Prepared Statement of........................................   301
    Statement of.................................................   299

Inouye, Senator Daniel K., U.S. Senator From Hawaii:
    Prepared Statement of........................................     6
    Questions Submitted by...........................282, 350, 431, 458
    Statements of................................................5, 357
International Association of Emergency Managers, Prepared 
  Statement of...................................................   585

Kohl, Senator Herb, U.S. Senator From Wisconsin, Questions 
  Submitted by.................................................133, 186

Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Prepared Statements of......................................43, 470
    Questions Submitted by.................128, 184, 354, 435, 460, 566
    Statements of..............................................297, 468
Libutti, Frank, Lieutenant General, Under Secretary, Information 
  Analysis and Infrastructure Protection, Department of Homeland 
  Security.......................................................   189
    Prepared Statement of........................................   223
    Statement of.................................................   219

McQueary, Dr. Charles E., Under Secretary, Science and Technology 
  Directorate, Department of Homeland Security...................   189
    Prepared Statement of........................................   193
    Statement of.................................................   191
Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Prepared Statement of........................................     9
    Statement of.................................................     9
Murkowski, Frank H., Letter From.................................    29
Murray, Senator Patty, U.S. Senator From Washington:
    Prepared Statement of........................................    13
    Questions Submitted by.....................................137, 355
    Statements of.....................................12, 144, 374, 472

National:
    Emergency Management Association, Prepared Statement of......   587
    Flood Determination Association, Prepared Statement of.......   592
    Treasury Employees Union, Prepared Statement of..............   593

Reid, Senator Harry, U.S. Senator From Nevada:
    Question Submitted by........................................   463
    Statement of.................................................   375
Ridge, Hon. Tom, Secretary, Department of Homeland Security......     1
    Prepared Statement of........................................    15
    Statement of.................................................    14

Shelby, Senator Richard C., U.S. Senator From Alabama, Questions 
  Submitted by.............................................88, 333, 470
Specter, Senator Arlen, U.S. Senator From Pennsylvania, Opening 
  Statement of...................................................   141
Stevens, Senator Ted, U.S. Senator From Alaska:
    Questions Submitted by................................172, 266, 417
    Statements of................................................6, 380
Stone, Admiral David M., Acting Administrator, Transportation 
  Security Administration, Department of Homeland Security.......   357
    Prepared Statement of........................................   365
    Statement of.................................................   364

University of Miami, Prepared Statement of.......................   598
Upper Mississippi River Basin Association, Prepared Statement of.   601


                             SUBJECT INDEX

                              ----------                              

                    DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
Accomplishments:
    Achieved by the Department of Homeland Security..............    15
    Of the:
        IAIP Directorate.........................................   220
        Science and Technology Directorate.......................   211
    To Date......................................................   474
    Within the Past Year.........................................   494
Acknowledgement of Hard Work and Success.........................   514
Additional Committee Questions........................60, 256, 324, 527
Adequacy of Resources............................................   508
Aggressive Collection Against Delinquent Accounts................   556
Agricultural Inspections.........................................   535
Agro-terrorism...................................................     8
    Concerns.....................................................    28
Air:
    And Marine Operations--Northern Border Airwing...............   539
    Cargo........................................................   439
    Marshal Training.............................................   111
    Pilot Program................................................   344
    Screening: Leveraging DOD Research...........................   109
    Security.....................................................   454
    Service to Artesia, New Mexico...............................    34
Airline Passenger Screening: Wait Times..........................   450
Airport:
    Funding Formula Changes......................................   449
    Security.....................................................     5
Al Qaeda.........................................................    25
Alaska-Canada Border Security....................................    80
Alert Level Change...............................................     2
Alien Removals...................................................   561
All-State Minimum................................................   128
Alleged Budget Shortfall.........................................   467
Alteration of Bridges.......................................53, 54, 414
Alternatives to:
    Detention....................................................   538
    VACIS........................................................   546
Amnesty for Illegal Aliens.......................................    54
Anthrax Vaccine..................................................    67
Appendix.........................................................   211
Arizona Border Control Initiative................................   527
Arming Pilots....................................................   352
Arrest Authority.................................................   562
Asset Forfeiture Fund............................................   558
Automated Commercial Environment.................................   534
Automatic Identification System................................396, 426
Automation/Information Technology................................   490
Available New Technologies That Could be Used for Replacement 
  Coast Guard Vessels............................................   395
Aviation Security................................................    21
    Capital Fund.................................................   376
Backlog..........................................................   503
    Issue........................................................   506
    Reduction....................................................   474
        Plan.....................................................   528
Basic State Grant Program........................................    71
Basis for Policy on the Use of the National Laboratories.........   210
Benchmarks.......................................................   559
Benefit Fraud..................................................530, 543
Biodefense Countermeasures (BioShield)...........................   282
Biological Countermeasures.......................................   260
BioShield........................................................    66
Biosurveillance System..........................................62, 256
Border Patrol:
    IDENT........................................................   315
    Staffing.....................................................   546
    Vehicles.....................................................   547
Budget:
    And Activities Supporting Cybersecurity R&D..................   210
    For University Centers of Excellence and Fellows Programs....   211
    Request for the:
        Federal Air Marshals.....................................   518
        Purchase and Installation of an Explosive Detection 
          System.................................................   386
Campaign Labor Costs.............................................   114
Cancelled International Flights..................................    48
Canine Teams.....................................................   451
    Diversion from Current Missions..............................   111
CAPPS II.....................................................4, 55, 313
    Airline Passenger Information System.........................   335
    Development and Deployment...................................   397
    System.......................................................   383
    Testing....................................................335, 454
Cargo and Container Security.....................................   450
CBP Inspectors...................................................   479
Charter Flights to Federal Law Enforcement Training Center in 
  Artesia, New Mexico............................................    83
Chemical:
    Detectors....................................................   238
    Plant Security..............................................97, 291
Chief of Staff's Office..........................................   103
Chimera..........................................................   560
CIS Budget Request Concerns......................................   469
Citizenship......................................................   530
    And Immigration Services...................................528, 541
        And Immigration and Customs Enforcement..................   543
Coast Guard......................................................13, 80
    Offshore Patrol Cutters......................................    53
COBRA Extension..................................................   548
Cockpit Doors....................................................   352
Competitive Analysis and Evaluation..............................   222
Computer Assisted Passenger Pre-screening System (CAPPS II)......   441
Concern Regarding TTIC Being Under the Leadership of the CIA.....   249
Consolidation of Grant Programs Into the Office for State and 
  Local Coordination and Preparedness............................    31
Construction of NISAC Facility at Kirtland Air Force Base........    35
Container Security...............................................   532
    Initiative.................................................480, 544
Contingency Plan for the Flow or Commerce During an Incident at 
  One of Our Ports...............................................   391
Continuation of Operation Safe Commerce..........................    38
Continued Dumping and Subsidy:
    Act..........................................................   549
    Offset Act Tradeoff..........................................   524
Contracting Out..................................................   108
Cooperation of Local and State Law Enforcement Officials.........   514
Cooperative Law Enforcement With Local Accountable Law 
  Enforcement....................................................    52
Counter Man Portable Air Defense Systems (MANPADS)...............   257
Counterfeiting and Financial Crimes..............................    68
Countermeasures..................................................   234
Counterterrorism Communication...................................     5
Critical Infrastructure..........................................   132
    Protection............................................190, 246, 291
Cross-training.................................................548, 558
Customs and Border Protection..................................532, 544
    At 1 Year....................................................   482
Customs:
    Officers.....................................................   473
    Trade Partnership Against Terrorism........................480, 532
Cuts in Grant:
    Funding......................................................    13
    To States to Upgrade Their Public Health Systems.............    27
Cyber Security..............................61, 255, 256, 258, 283, 285
Data:
    Between 1996-2003............................................   544
    Integrity Issues.............................................   139
Database Integration.............................................   355
Deepwater:
    Awards to Prime Contractors..................................   421
    Budget Request...............................................   402
    Estimates....................................................   423
    Management...................................................   422
    Patrol Boats.................................................   425
Delivery of State and Local Dollars..............................    32
Department of Homeland Security Headquarters.....................    78
Department-wide Research and Development.........................   262
Departmental:
    Comparisons..................................................   103
    Management...................................................    99
Detection:
    And Removals.................................................   538
    Technology...................................................   274
DHS:
    Hiring Freeze................................................    99
    Personnel Regulations........................................   102
Disaster:
    Medical Assistance Teams.....................................   133
    Relief.......................................................   114
Discovering Presence of Detonators in Baggage....................   241
Discrimination Complaints by TSA Screeners.......................   110
Division of Effort Among the DHS S&T Directorate and Research 
  Efforts at Other Government Agencies...........................   204
Does ICE have Enough Resources to Handle Overstay?...............   522
Effectiveness of the Screening Process...........................   379
Effort to Improve Cargo Security Through Operation Safe Commerce.    36
Emergency:
    Management Performance Grants................................   136
    Preparedness and Response...................................66, 112
Energy Security..................................................   244
Enhancing:
    Biodefense...................................................    17
    Border Patrol Integration into CBP...........................   547
    Flight Service/Transportation for Trainees to FLETC..........    34
    Immigration Security and Enforcement.........................    18
Entry-exit.......................................................     5
Environmental Monitoring.........................................   233
Exact Timeframe on the Deployment and Establishment of the 
  Northern Border Air Wing.......................................   318
Expedited Registered Travel Program..............................   398
Explosives Detection for Passengers..............................   449
Federal Air Marshals......................................317, 323, 539
    On International Flights.....................................    21
    Program......................................................   395
    Service......................................................   494
    Staffing.....................................................   337
Federal Law Enforcement Training Center........................332, 353
    In Artesia, New Mexico.......................................    33
Federal Screener Opt-Out Program.................................   331
FEMA--Cerro Grande Fire..........................................    87
Fingerprint Database Integration: Vastly Delayed and Dangerous...   336
Fire Services....................................................   130
First Responder:
    Funding......................................................    47
    Responders..............................................58, 84, 130
Fiscal Year 2005 Budget:
    Increase.....................................................     2
    Plans........................................................   193
    Request.......................................15, 16, 364, 480, 495
        For IAIP.................................................   221
FLETC............................................................   320
    Budget:
        Charleston...............................................   344
        Facilities Operating Funds...............................   344
    Capitol Police Training Costs................................   345
    Facility at Artesia, New Mexico..............................   394
    Other Issues.................................................   345
Flexibility in Authority to Distribute Funds to High-risk Areas..    41
Flight Cancellations...........................................136, 437
``Force Multiplier'' to Federal Air Marshals.....................   115
Four Priorities Embedded in the Budget Request...................   359
Fraudulent Documents.............................................    50
Fugitive Operations..............................................   538
Funding:
    Federal Air Marshals and Port Security Grants................   108
    For:
        Enforcement Activities...................................   503
        Fire Departments.........................................    58
        First Responders.........................................     3
        Implementation of the Maritime Transportation Security 
          Act....................................................    38
    Real Needs and Not Wants.....................................   392
    Transfers/Legislative Proposals..............................    77
GAO Deepwater Program Management Report..........................   409
Grant:
    Applications.................................................   341
    Consolidation...........................................11, 70, 107
    Within ODP...................................................   340
Guest Worker Program.............................................   528
    And Contracts................................................   275
    Concerns.....................................................   506
    Funding for the National Center for Missing and Exploited 
      Children...................................................    54
Gulf Coast Maritime Domain Awareness Initiative..................   416
HAITI............................................................   355
Hazardous Material Transportation Funding........................   463
HC-130J..........................................................   433
HC-130JS Compared to the HC-130HS................................   385
HH-65 Helicopter.................................................   429
High:
    Interest Vessel Boardings....................................   430
    Threat:
        High Density Urban Area Security Grants..................   120
        Urban Area Grants........................................    75
Highlights of:
    Accomplishments..............................................   191
    Service to the Nation Over the Past Month....................   358
Hiring Freezes...................................................   467
    For ICE and CBP..............................................   468
Hiring Priorities................................................   108
Hollywood Job....................................................   453
Homeland Security:
    Advisory System.............................................60, 283
    Centers of Excellence........................................   260
    Information Network..........................................   284
    Operation Center.............................................   222
How:
    IAIP Funds are Being Spent...................................   190
    Threat Determinations are Made...............................    41
IAIP Staffing..................................................190, 292
ICE Response...................................................501, 517
    To Overstay Question.........................................   521
IDENT/IAFIS Integration Project..................................   325
Imbalance in Coast Guard Since 9/11..............................   388
Immigration................................................98, 131, 348
    And Border Security..........................................    51
    And Customs Enforcement....................................536, 559
        And Citizenship and Immigration Services.................   115
    Enforcement..................................................   314
    Processing Fees and the Backlog (CIS)........................   542
    Reform and Control Act (ICRA)................................   543
    Related Casework--Assistance to Congressional Offices........   115
    System.......................................................   502
Impact of:
    Deteriorating Ships, Coast Guard Cutters, Helicopters and 
      Other Assets on Coast Guard's Ability to Carryout its 
      Missions...................................................   376
    President's Amnesty Proposal.................................    22
    The President's Reform Plan..................................   541
    Transfer of Grant Programs from FEMA.........................    32
Impact on Rural States...........................................    45
Implementation of Air Cargo Strategic Plan.......................   108
Improving Aviation Security......................................    18
Increase Cap for the H2B Visa Program............................   469
Increased:
    Burdens on First Responders..................................     7
    Requirement for Airlift Capacity Since 9/11..................   384
Increasing Preparedness and Response Capability..................    19
Information:
    Analysis.....................................................   190
        And Infrastructure Protection............................    60
          Questions Submitted to.................................   282
Infrastructure Vulnerability and Risk Assessment.................   221
Installation of Radiation Portal Devices at Ports of Entry.......   511
Insufficient Use of Screening Equipment--GAO Testimony...........   456
Integrated:
    Deepwater System (``Deepwater'').............................   403
    Fingerprint:
        Data Bases...............................................   525
        Systems..................................................   347
    Terrorist Watch List.........................................   292
Integration of:
    Database Systems in Fiscal Year 2004.........................   311
    Information Technology Systems...............................    76
    Passenger Analysis Units and Consolidated Antiterrorism 
      Secondary Examinations.....................................   479
Intelligence:
    Analysis.....................................................   135
    Dissemination................................................   126
Interagency Collaboration.......................................87, 268
    Of Homeland Security Research Efforts........................   263
Interdiction and Seizure of Assets of Drug Smugglers on the High 
  Seas off the Coast of South America and the Caribbean..........   377
International Flight Cancellations...............................    20
Interoperability Grants..........................................   339
Interoperable Communications and SAFECOM.........................   235
Investigative Emphasis...........................................   563
Investing in Human Capital and Building Departmental 
  Infrastructure.................................................    19
Invitation to Secretary Ridge to Make a Statement................    14
Is the Challenge Too Great?......................................   509
Is There Money in the President's Budget to Implement the 
  President's Amnesty Proposal?..................................   516
ISIS Border Coverage.............................................   546
Joint Customs and Border Protection and Immigration and Customs 
  Enforcement....................................................   556
Justification for Cutting First Responder Grants.................   237
Kudos for Chairman Cochran.......................................   516
Land Border ``Exit'' Control of US VISIT.........................   548
Law Enforcement:
    Budget.......................................................   504
    Support Center...............................................   537
    Training Center in Williston, Vermont........................   468
Legacy INS Program Funding.......................................    23
Lessons Learned From Operation Safe Commerce.....................   510
Letters of Intent................................................   457
    For Explosive Detection System (EDS) Installation............   444
Level of Attention to the Likelihood of Threats to Other Modes of 
  Transportation.................................................   379
Limit on Full-time Equipment, Baggage and Personnel..............   387
Limited Immigration Enforcement Resources........................   560
Long-Range Radar.................................................   540
    System.......................................................   318
Machine-Readable Passport Deadline...............................   541
Making Pacific Fleet All 130JS...................................   385
Manpads Surface to Air Missile Counter Measures..................   238
MANPADS/Air Missile Countermeasures..............................   254
Maritime:........................................................
    And Land: A Lack of Focus....................................   454
    Transportation:
        Act......................................................    12
        Security Act (MTSA) Implementation.......................   431
Meeting Our Twin Goals: Building More Secure and More Efficient 
  Borders........................................................   484
Metrics Developed by the Science and Technology Directorate......   205
Metropolitan Medical Response System.............................   116
Mission Hours....................................................   419
Nation is Vulnerable.............................................   467
National:
    Alert System................................................. 6, 81
    Biological Surveillance......................................   232
    Center for Missing and Exploited Children....................    54
    Communication System.........................................   222
    Critical Infrastructures.....................................   286
    Infrastructure Simulation and Analysis Center..........81, 254, 289
    Plans and Strategies.........................................   222
Nebraska Avenue Complex..........................................   107
Need for Integrated Systems......................................   466
New:
    Backlog Elimination Plan.....................................   475
    CBP Uniform for All CBP Inspectors and Created an Office of 
      the Border Patrol..........................................   479
    DHS Regulations Supplemental Funding Requirements............    29
    Priorities...................................................   475
NOAA:
    Alert System Report..........................................   246
    Warning Advisory System......................................   245
Non-intrusive Screening of Passengers for Explosives.............   398
Non-Security Missions............................................   431
Northern Border Air Wing.........................................   317
Notice and Protest Process.......................................   555
Number of Illegal Aliens Residing in the United States.........471, 507
Obligated Funding................................................   293
Obligations......................................................   118
Office:
    For Domestic Preparedness...................................70, 116
        Use of Database Information..............................   287
Office of:
    Legislative Affairs..........................................   106
    Public Affairs...............................................   104
Oil Platforms....................................................   416
$1.2 Billion Shortfall Cause of Hiring Freeze....................   472
On-Line Filing of Applications...................................   531
Operation:
    Noble Eagle..................................................   420
    Predator...................................................471, 494
    Safe Commerce................................................    12
Organization and Standup of the TTIC and ITS Function............   251
Other:
    Issues.......................................................   349
    Traditional Missions.........................................   491
Outreach and Partnership.........................................   222
Outside Inputs to the S&T Budget.................................   205
Overall Coast Guard Budget Request Only 6 Percent Increase.....126, 434
Overdue Congressional Reports....................................    56
Overseas:
    Airline Passenger Inspection.................................   545
    Operations Integration.......................................   556
    Staffing.....................................................   528
Overstays........................................................   471
    On Visas.....................................................   509
Pacific Northwest National Laboratory............................   512
Passenger:
    And Baggage Screeners........................................   445
    Screening & Checkpoint Issues................................   128
Pay Disparity....................................................   558
Performance Based Pay System....................................77, 327
Plan for Adjournment.............................................    57
Port Security................................11, 12, 312, 346, 390, 433
    Assessments..................................................   413
    Funding......................................................   401
    Grant Funding................................................   402
Ports............................................................   513
Postponing or Deferring of Any Program Initiatives...............   502
President's Immigration Proposal.................................   543
Primary Threat, Target, and Delivery Systems.....................    25
Prioritization...................................................   204
    Of Research and Development Efforts..........................   192
Priority Mission of CBP..........................................   480
Private Sector Share of Port Security............................    39
Process for Raising Threat Level.................................    42
Procurement Policy Issues........................................    59
Project Bioshield................................................   112
Proposal to Drop the All-State Minimum Formula for Allocating 
  State Homeland Security Grant Funds............................    45
Proposed Movement of Grant Money From TSAT-ODP...................   381
R&D Consolidation................................................   274
Rail Security.............................................353, 438, 450
Rapid Prototyping................................................   264
Rationale for Budget Increases: BioWatch and the National 
  Biodefense Analysis and Countermeasures Center.................   208
Reconciliation of the Fiscal Year 2004 Budget....................   495
Redirecting the Base--Office of Investigations...................   536
Reducing Vulnerability to Terrorist Attacks......................    26
Refugee Services.................................................   529
Regional Office and Impact on Existing FEMA Regional Structure...   113
Registered Traveler............................................111, 453
    Program......................................................   447
Relationship with Immigration Ombudsman..........................   532
Remediation and Protective Actions...............................   222
Report Due at the End of the Fiscal Year.........................   511
Request for:
    Detention and Removal........................................   513
    Fugitive Operations Teams....................................    23
    The Customs Trade Partnership Against Terrorism..............   515
    Worksite Enforcement.........................................    24
Rescue 21........................................................   397
Research:
    And Development...........................................427, 0443
        Consolidation............................................   241
        Funding..................................................   326
    And Technology Information Dissemination.....................   253
    Development, Test and Evaluation.............................   413
Resources Required to Implement the President's Amnesty Program..    24
Response Boat Program..........................................389, 390
Results from Current Research and Development (R&D) Spending and 
  Fiscal Year 2005 Plans: Portfolio Details......................   196
Review of the President's Budget.................................   466
Rewarding of Deepwater Prime Contractor..........................   383
Schedule of Needs for Deepwater and Refurbishing of Helicopters..   378
Science and Technology:
    Budget.......................................................   190
    Directorate Organization.....................................   194
    Funding.....................................................85, 267
Science and Technology Directorate, Questions Submitted to.......   256
Screening for Biological Weapons.................................    49
Seaport Security Implementation Costs..........................125, 351
Securing:
    Land and Seaports-of-entry...................................   472
    Our Critical Infrastrucure and Key Assets....................   248
Security:
    Checks.......................................................   474
    Enhancements.................................................   475
    In the Agriculture Sector....................................   134
    Of the Homeland..............................................   251
    Plans:
        For Vessels and Port Facilities..........................   425
        Required Under the Maritime Transportation Security Act399, 400
Sensor and Surveillance Technology...............................   534
72-Hour Rule--Southwest Border...................................   325
Shift of $13.5 Million From the Coast Guard to the Science and 
  Technology Directorate.........................................   241
Shore Facilities.................................................   430
Short-Term and Long-Term Research................................   208
Shortcomings in Budget Request...................................   467
Shortfall in Funding.............................................   500
Sixth Day of FLETC Training......................................   548
$64 Million Request for Sensor and Surveillance Technology.......   522
Small:
    Boat Stations................................................   411
    Business Contracting.........................................   271
Source of Most Significant Threat to the United States...........    25
Staffing.........................................................   211
    Of Under Secretary's Office..................................   326
Standards........................................................   265
State:
    Formula Grants...............................................   340
    Grants (Including Law Enforcement Terrorism Prevention 
      Grants)....................................................   120
    Plans........................................................   124
Status of:
    Obligation of Funds Appropriated for Operation Safe Commerce.    36
    Ricin Incident Investigation.................................    20
Stemming the Flow of Illegal Aliens Into the United States.......   471
Stockpile........................................................   113
Strengthening Border and Port Security...........................    16
Support of Funding to Restore the Three-Quarters of 1 Percent 
  Minimum to the State Formula Grants Program....................    46
Supporting:
    Efforts in Iraq..............................................   420
    State and Local First Responders.............................    19
Task Force.......................................................   119
Technology of Detection..........................................    49
Temporary Worker Program.......................................475, 504
$10 Million Request for Unmanned Aerial Vehicles.................   523
Terrorist Threat Integration Center.............................21, 249
Terrorist Watch List.............................................    62
    Integration................................................338, 544
Tethered Aerostats...............................................   557
    Radar System...............................................328, 541
Threat:
    Based Distribution...........................................     4
    Determination and Assessment.................................   221
    From Hamas...................................................   452
Three Priorities.................................................   473
Timeline for Obligating the Last $17 Million Appropriated for 
  Operation Safe Commerce........................................    37
Trade Enforcement................................................   316
Training.........................................................   119
Transfer of R&D Budgets and Activities From Other Directorates...   209
Transit Without Visa Program.....................................   321
Transportation Security:
    Administration..............................................63, 108
        Fiscal Year 2004 Shortfall...............................   448
        Questions Submitted to...................................   437
    For all Modes................................................   328
Trips Around the Country to Various Offices......................   469
TSA............................................................306, 354
    Detection Systems............................................   239
    Funding: Adequacy of Fees....................................   456
    Reprogramming Proposal.......................................   100
    Role within the Department of Homeland Security..............   329
    Injury and Illness...........................................   457
    Port Security Grants.........................................   319
    Screeners....................................................   320
    Security Contract............................................   448
    Slow Movement of Appropriated Funds........................346, 455
Turf Battles.....................................................   472
TWIC.............................................................   452
U.S. Visitor and Immigrant Status Indicator Technology (US VISIT75, 324
Underfunded and Understaffed Immigration System..................    22
Undocumented Workers.............................................    51
United States:
    Coast Guard..................................................    79
        Questions Submitted to...................................   403
    Secret Service..............................................68, 114
University:
    Centers of Excellence........................................   274
    Programs...................................................237, 245
        Energy Security..........................................   243
Unmanned Aerial Vehicles...................................82, 533, 556
Unobligated Grants Funding.......................................   382
Unqualified Audit Opinion........................................   398
Updating Citizenship Processes and Looking at the Test That is 
  Given to Those Seeking Citizenship in the United States........   514
Urgency to Get Funds to First Responders.........................    59
US VISIT.......................................................304, 308
    Full Disclosure..............................................   338
Utilization of Department of Energy National Labs................    96
Vietnamese Exports of Fish Into the United States................   316
Visa:
    Overstays....................................................   519
    Security Unit................................................   536
Vulnerability Assessments and Security: Chemical Industry........   252
Wait Times at Airports...........................................   109
Way to Reconfigure the Calculation for High-risk Areas to Include 
  the Tom Ridge Airport and Erie, Pennsylvania...................    40
Weapons of Mass Destruction and Incident Management..............   219
White House Mail Processing......................................    68
Who is in the Country Legally and Overstayed?....................   520
Why is China More of a Problem?..................................   525
Wireless Public SAFEty Interoperability COMmunications (SAFECOM) 
  Program........................................................   265
Worksite Enforcement......................................536, 559, 562

 Office of the Under Secretary for Emergency Preparedness and Response

Additional Committee Questions...................................   162
All-Hazards Emergency Planning...................................   142
Anthrax Vaccine..................................................   163

Basic Firefighting Equipment.....................................   175
Bioshield......................................................159, 163

Communications...................................................   175
Cuts to Emergency Management Performance Grants..................   157

Disaster Relief Fund.............................................   154

Emergency:
    Food and Shelter Program.....................................   169
    Management Performance Grants..........................156, 165 186
EMS..............................................................   175
    Rescue.......................................................   175

Fire Grant Program...............................................   155
First Responder Funding..........................................   145
Fiscal Year:
    2003 Accomplishments.........................................   146
    2004 Plans...................................................   146
    2005 Budget Request..........................................   146
Flood Map Modernization..........................................   169
Hazardous Materials (Hazmat).....................................   175
Investigation....................................................   176
Metropolitan Medical Response System.............................   164
National:
    Disaster Medical System......................................   158
    Incident Management System...................................   162
Office of National Security Coordination.........................   147
Other PPE........................................................   176
Personal Protective Equipment (PPE) List.........................   176
Pre-disaster Mitigation..........................................   160
Preparedness, Mitigation, Response, and Recovery.................   165
Proposal to Limit the Amount of Emergency Management Funds That 
  Can Be Spent On Salaries.......................................   144
Proposed Cuts to Fire Grants Funding...........................143, 161
Putting the Strategic National Stockpile Back Under the 
  Department of Health and Human Services........................   158
Respiratory......................................................   176
Specialized......................................................   176
Strategic National Stockpile...................................153, 164
Structural.......................................................   176
Terrorist Attack Concerns........................................   144
Training Program Titles List.....................................   176
Transfer of Several All-Hazards Programs From FEMA Into a New 
  Office of State and Local Government Coordination and 
  Preparedness...................................................   143
Urban Search and Rescue..........................................   167
Weapons of Mass Destruction (WMD)................................   176
Wildland.........................................................   176


</pre></body></html>
